<html>
<title> - DEPARTMENT OF THE INTERIOR, ENVIRONMENT, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2014</title>
<body><pre>[Senate Hearing 113-133]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 113-133 

                                                        Senate Hearings

                                 Before the Committee on Appropriations

_______________________________________________________________________




Department of the Interior,

Environment, and

Related Agencies

Appropriations


                                                       Fiscal Year 2014


                                          113th CONGRESS, FIRST SESSION  



DEPARTMENT OF AGRICULTURE
DEPARTMENT OF THE INTERIOR
ENVIRONMENTAL PROTECTION AGENCY
NONDEPARTMENTAL WITNESSES




       Department of the Interior, Environment, and Related Agencies 
                        Appropriations, 2014--Part 1




                                                        S. Hrg. 113-133
 

                    DEPARTMENT OF THE INTERIOR, ENVIRONMENT, 
                      AND RELATED AGENCIES APPROPRIATIONS 
                             FOR FISCAL YEAR 2014
=======================================================================



                                HEARINGS

                                before a

                          SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS 

                           UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION
                               __________

                        Department of Agriculture
                       Department of the Interior
                     Environmental Protection Agency
                        Nondepartmental Witnesses
                               __________


         Printed for the use of the Committee on Appropriations




   Available via the World Wide Web: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=senate&committee=appropriations

                               __________

                         U.S. GOVERNMENT PRINTING OFFICE 

78-060 PDF                       WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office, Internet: bookstore.gpo.gov. Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                         Washington, DC 20402-0001




                      COMMITTEE ON APPROPRIATIONS

                BARBARA A. MIKULSKI, Maryland, Chairwoman
PATRICK J. LEAHY, Vermont            RICHARD C. SHELBY, Alabama, Vice 
TOM HARKIN, Iowa                         Chairman
PATTY MURRAY, Washington             THAD COCHRAN, Mississippi
DIANNE FEINSTEIN, California         MITCH McCONNELL, Kentucky
RICHARD J. DURBIN, Illinois          LAMAR ALEXANDER, Tennessee
TIM JOHNSON, South Dakota            SUSAN COLLINS, Maine
MARY L. LANDRIEU, Louisiana          LISA MURKOWSKI, Alaska
JACK REED, Rhode Island              LINDSEY GRAHAM, South Carolina
FRANK R. LAUTENBERG, New Jersey      MARK KIRK, Illinois
MARK PRYOR, Arkansas                 DANIEL COATS, Indiana
JON TESTER, Montana                  ROY BLUNT, Missouri
TOM UDALL, New Mexico                JERRY MORAN, Kansas
JEANNE SHAHEEN, New Hampshire        JOHN HOEVEN, North Dakota
JEFF MERKLEY, Oregon                 MIKE JOHANNS, Nebraska
MARK BEGICH, Alaska                  JOHN BOOZMAN, Arkansas
CHRISTOPHER A. COONS, Delaware
                   Charles E. Kieffer, Staff Director
             William D. Duhnke III, Minority Staff Director
                                 ------                                

 Subcommittee on Department of the Interior, Environment, and Related 
                                Agencies

                   JACK REED, Rhode Island, Chairman
DIANNE FEINSTEIN, California         LISA MURKOWSKI, Alaska, Ranking
PATRICK J. LEAHY, Vermont            THAD COCHRAN, Mississippi
TIM JOHNSON, South Dakota            LAMAR ALEXANDER, Tennessee
JON TESTER, Montana                  ROY BLUNT, Missouri
TOM UDALL, New Mexico                JOHN HOEVEN, North Dakota
JEFF MERKLEY, Oregon                 MIKE JOHANNS, Nebraska
MARK BEGICH, Alaska
                           Professional Staff

                             Rachel Taylor
                              Ginny James
                               Ryan Hunt
                       Leif Fonnesbeck (Minority)
                         Brent Wiles (Minority)

                         Administrative Support

                              Teri Curtin
                      Courtney Stevens (Minority)



                            C O N T E N T S

                              ----------                              

                       Wednesday, April 24, 2013

                                                                   Page

Environmental Protection Agency..................................     1

                          Tuesday, May 7, 2013

Department of the Interior: Office of the Secretary..............    61

                        Wednesday, May 22, 2013

Department of Agriculture: United States Forest Service..........   131
Nondepartmental Witnesses........................................   191


     DEPARTMENT OF THE INTERIOR, ENVIRONMENT, AND RELATED AGENCIES 
                  APPROPRIATIONS FOR FISCAL YEAR 2014

                              ----------                              


                       WEDNESDAY, APRIL 24, 2013

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 9:35 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Jack Reed (chairman) presiding.
    Present: Senators Reed, Udall, Begich, Murkowski, Cochran, 
Blunt, and Johanns.

                    ENVIRONMENTAL PROTECTION AGENCY

STATEMENT OF BOB PERCIASEPE, ACTING ADMINISTRATOR AND 
            DEPUTY ADMINISTRATOR


                 opening statement of senator jack reed


    Senator Reed. I would like to call the hearing to order and 
welcome everyone. Good morning. On behalf of the Interior, 
Environment, and Related Agencies Appropriations Subcommittee, 
welcome.
    This is our first budget hearing this year. It will be a 
hearing on the fiscal year 2014 budget request for the 
Environmental Protection Agency (EPA). I am very pleased to 
welcome Acting Administrator Bob Perciasepe to testify before 
the subcommittee. Mr. Administrator, thank you. And also, we 
are grateful that Acting Chief Financial Officer Maryann 
Froehlich is also with you. Thank you, Maryann.
    Let me make a few acknowledgments before we begin. First, I 
would like to thank and recognize my ranking member, Senator 
Murkowski, not only for joining us this morning, but for her 
great efforts over the last several years to work 
collaboratively and effectively to craft these budgets, which 
are very challenging.
    I simply could not have a better colleague and partner in 
these endeavors than Senator Murkowski. And I want to 
personally thank her for these efforts, and also for her very 
talented staff. Thank you, Senator.
    I would also like to acknowledge that we have added four 
new members to the subcommittee this Congress: Senators Udall, 
Merkley, Begich, and Johanns. I welcome each of these Senators 
and look forward to their contributions.
    At some point this morning, the Chairwoman, Chairwoman 
Mikulski might arrive. When she does, I will at that point, at 
the appropriate moment, suspend and give her an opportunity to 
make any statement that she might want.
    But we are very gratified to have Senator Mikulski as the 
chairwoman of the full committee. She served many years on this 
subcommittee, and she has a particular appreciation and regard 
for the efforts of the EPA. So we are multiply fortunate in 
that regard.
    Now, turning to the budget, the President's fiscal year 
2014 budget request includes $8.15 billion for EPA. That amount 
is $173 million or 2 percent less than the fiscal year 2013 
enacted level of $8.32 billion.
    Unfortunately, there is not a lot of good news to discuss 
in this reduced budget request, but there are a few items that 
I wanted to highlight as we begin this conversation, including 
a 6-percent increase to EPA's operating programs above the 
fiscal year 2013 level.
    Within that amount, I am pleased that the administration 
proposes $2 million for a geographic program to restore 
southern New England watersheds. I worked closely with the EPA 
for several years on this effort. It is extremely important, 
not just to Narragansett Bay, but to the surrounding waters in 
Massachusetts and Connecticut. So I am grateful that the EPA 
leadership has moved forward on this initiative.
    The budget request also provides $73 million for the 
Chesapeake Bay Program and flat funds the National Estuary 
Program at $27 million. It includes a new $60 million E-
Enterprise Initiative to improve electronic data collection and 
sharing to ease the reporting burdens on regulated entities, 
and we may get into that in the questioning.
    And finally, it is worth noting that the request also 
includes a nearly 5-percent increase in grants that help States 
and tribes run their environmental permitting and monitoring 
programs, including increases in safe air and water pollution 
control grants.
    Of course, despite these good investments, I am 
disappointed with the overall budget level. This is the fourth 
year in a row that EPA's budget request has contracted, which 
makes it difficult for this subcommittee to hold the line on 
the EPA budget when our final bill is enacted.
    And I am particularly concerned about the specific areas in 
this budget that were identified for cuts. I am most 
disappointed that the largest reductions, again, were made to 
clean water and drinking water State Revolving Funds (SRF) 
which are cut by 19 percent less than fiscal year 2013 levels.
    I really find it hard to understand how these proposed cuts 
square with the President's focus on job creation and 
infrastructure development. You know, we have discussed these 
statistics before in this subcommittee, but they are worth 
repeating. Just take my home State, and we could take the State 
of any of my colleagues at this dais.
    In Rhode Island alone, we need $1.5 billion in identified 
needs for clean and drinking water projects; that is $1.5 
billion in the smallest State in the country. Yet, the State is 
only slated to receive $15 million in water infrastructure 
grants in this budget request, which is about $3 million less 
than what I expect them to receive in fiscal year 2013.
    Mr. Perciasepe, I know EPA faced tough decisions when you 
put this budget together, but it just does not make sense why 
we should focus such large cuts in programs that create jobs 
and help meet an enormous public health need, infrastructure 
need, economic productivity need in every State in this 
country.
    And since every $1 we spend for the SRF generates more than 
$2 in projects on the ground, that means we are walking away 
from opportunities to further leverage Federal investments with 
local funds and other funds.
    I am also concerned about a number of other reductions to 
the budget, including your proposal to eliminate $10 million in 
BEACH Act grants that help Rhode Island and other coastal 
States. And I do not understand why your budget, again, 
proposes to eliminate nearly $10 million in funding for a 
centralized environmental education program.
    We have just been through two major hurricanes in the last 
several years, Irene and Sandy, and the expectation is that we 
will have more hurricanes. That means our beach erosion is 
going to be exacerbated. And unless we take steps to just try 
to modify these beaches and protect them, we are going to lose 
not only beaches, we are going to lose communities, and we are 
going to tear up the social fabric of States up and down the 
east coast, and I would expect this and similar comments could 
be made by my colleagues on their coast.
    There is another area, funding for the Diesel Emission 
Reduction Act grants is cut by 70 percent, for a total of $6 
million cut. And it is also worth noting that your request 
trims 10 percent from the Brownfields Program, even though 
these grants fund local clean-up and job training efforts that 
redevelop communities and put people to work.
    Mr. Perciasepe, I remain concerned about all these 
reductions, and I look forward to having a chance to discuss 
them further with you and to work on restoring these cuts 
through the appropriations process.
    And now, let me turn to my ranking member, Senator 
Murkowski, for any comments she might have.


                  statement of senator lisa murkowski


    Senator Murkowski. Thank you, Mr. Chairman.
    And I appreciate your kind remarks about our ability to be 
working together on this very important budget, and the work 
that both of our staffs do. As you have indicated, I think it 
is a great working relationship. We have been able to do some 
good things in the past, and I look forward to doing so this 
session as well.
    I would like to welcome our Deputy Administrator, Mr. 
Perciasepe and Chief Financial Officer Froehlich to the 
subcommittee. Good morning to you.
    Most of my questions for you this morning will involve 
policy issues but first, I want to applaud and recognize the 
effort to maintain the Alaska Native Villages Program at $10 
million within the budget request. Rural Alaska, as you know, 
faces some very, very serious challenges in meeting the need 
for wastewater improvement. So I appreciate that you have 
included these funds at a time, as the chairman has noted, of 
very, very tight budgets. I hope that we can do more, but we 
will be working with you in that regard.
    I also want to thank you personally for meeting with my 
staff following last year's budget hearing. There were about a 
dozen different EPA issues that were noted at that hearing. The 
commitment was made that we would work together, follow through 
with some, and you have helped us in that regard.
    Now, some of these issues are very specific to the unique 
circumstances of my State, but in fairness, most of them 
reflect the same problems that communities around the Nation 
are facing with EPA's regulatory actions.
    I do have some concerns over a number of rulemakings that 
the EPA is working on, and their impact on the national 
economy, as well as their impact on Alaska. I hope that you and 
your staff will continue to meet with us, dialogue with us on 
this again this year. And I look forward to discussing that, 
among other things, when we meet later this week.
    When Administrator Jackson appeared before this 
subcommittee last year, I told her at that time that I hear 
more complaints from the people of Alaska about the EPA than 
any other Agency out there. And I can assure you that even 
given the passage of time and the work that has gone on, those 
complaints remain the same. EPA, unfortunately, is still number 
one in the views of many Alaskans as not necessarily a good 
thing.
    The sheer number of rulemakings the EPA is currently 
proposing, the cost of compliance with the vast array of 
regulations already on the books and what, at times, are the 
unreasonable consequences of their enforcement. It is very 
frustrating to the public.
    In the past month alone, the EPA indicated its plans to not 
only finalize regulations for greenhouse gases on new 
powerplants this year, but also to get a significant start on 
rules for existing powerplants in fiscal year 2014. EPA also 
unveiled new draft rules concerning the sulfur content in 
gasoline. And last Friday, it announced new rules for 
concerning water discharges from powerplants.
    And putting aside the merits of these various proposals, no 
one can dispute their far-reaching impacts, from effectively 
barring the construction of new coal-fired plants, to raising 
the cost of gasoline by as much as 10 cents per gallon for the 
average consumer, even though our economy continues to sputter 
and unemployment remains high.
    What I have done is I have asked my staff to keep a list of 
the current rulemakings that are affecting Alaska, our energy 
supply, or both that the EPA is working on. Our list, at this 
point in time, is up to about 60 different rulemakings; not 16, 
but 60 current rulemakings, and there is a fair chance that we 
may have missed one or two. So you can understand how the 
public feels when they just feel that there is this barrage of 
regulations coming at them.
    I would like to leave the subcommittee, my colleagues, with 
one example here this morning, and I think it is a pretty vivid 
example that demonstrates this point. This comes from 
constituents in Soldotna, Alaska down on the Kenai Peninsula, a 
small, little community. It is a husband and wife. They are 
both veterinarians. They own a veterinary clinic, and one of 
the services that they provide for the community is cremation 
of animals.
    When ``Fluffy'' decides that it is time to give up the 
ghost, this veterinary clinic provides for cremation for the 
family pets. And more often than not, it is used during the 
wintertime when you cannot bury your animals because the ground 
is frozen and burial is not possible.
    Now, as I understand it, EPA sent them a notice after the 
comment period had closed. So this small veterinary clinic gets 
a notice from EPA about proposed changes in the rules for 
commercial and industrial solid waste incineration units. And 
when they called to learn more, even though the comment period 
was closed, the EPA official said that all incinerators, even 
the small ones like this very small animal incinerator in 
Soldotna, Alaska would have to undergo what is called ``annual 
source testing''. And this testing, which is designed for 
larger commercial facilities, exceeds a cost of $50,000 
annually. That is more revenue than the clinic generates in a 
year from operating any incinerator.
    According to the veterinarians, the EPA official said that 
the Agency had no leeway in allowing exemptions, even for low 
levels of emissions, and that essentially its hands are tied. 
Now, we are still looking into this. We are still gathering the 
facts. I do have a copy of that letter.
    And Mr. Chairman, I have actually asked that the letter be 
included as part of the record.
    Senator Reed. Without objection.
    [The information follows:]

                             Twin Cities Veterinary Clinic,
                                                      Soldotna, AK.
    Dear Senator Murkowski: My wife and I are veterinarians and the 
owners of Twin Cities Veterinary Clinic in Soldotna. As part of our 
veterinary service we provide pet cremations for clients who desire an 
alternative to burial (or quite frankly landfill disposal) as a 
respectful means to care for the remains of their deceased family pet. 
I am writing to you as a constituent and small business owner who is 
concerned about significant burdens that will soon be imposed on small 
businesses like mine by recent regulations adopted by the Environmental 
Protection Agency. The recently passed Clean Air Act included 
regulations for commercial incinerators and combustion units. Some of 
the changes were announced in March 2011 for CISWI (Commercial and 
Industrial Solid Waste Incineration) units. Apparently the ``new and 
improved'' testing standards were written with large scale commercial 
incinerators in mind, but these standards failed to make any reasonable 
exceptions for small, low-volume units such as mine (a small animal pet 
cremation unit).
    Let me give you a bit of history as to how I was alerted of these 
proposed changes. I received a letter on February 22, 2012, notifying 
me that the EPA had proposed CISWI changes on December 12, 2011. Any 
interested parties could submit comments up until the closure of the 
``public comment period'' which ended February 21, 2012. Naturally one 
would ask, ``How am I to provide comment on something I was made aware 
of one day after the closure of the open comment period?'' I called the 
EPA office number provided and left a voice mail with Heather Valdez 
(Seattle, Washington). Heather was kind enough to return my call the 
next business day and she answered some questions about how this change 
will impact me in the next 3-5 years. You may want to research the 
details to confirm the facts, but below is what gathered from my 
conversation with Ms. Valdez:
    My business would fall under the Clean Air Act ``section 129 CAA 
requirements.'' These OSWl (Other Solid Waste Incinerator) regulations 
are proposed to take effect in 3-5 years. Under these regulations all 
incinerators are required to perform ``Annual Source Testing'' to 
determine if the unit is meeting EPA output and emissions standards. 
When I inquired what source testing entails, Heather noted that this 
testing, which is typically designed for larger commercial facilities 
(i.e. units that burn 250 tons/day), often exceeds $50,000 per annual 
test--and it is charged to the owner. She admitted that this testing is 
not really reasonable or likely affordable for small units like mine 
(especially given that some provide less than $50,000 in gross 
cremation services per year). But based on the current regulations the 
EPA is given ``no leeway'' in the enforcement of this testing 
regulation and there are ``no exemptions'' allowed. In her defense, 
Heather was quite honest and forthcoming about the impacts of the 
regulation on small businesses like mine. She suggested I contact any 
cremation trade organizations to garner their support. She also 
recommended I contact my representatives in Washington to encourage a 
legislative remedy as the EPA's hands are essentially ``tied'' to 
enforce the regulation at this time.
    As you can imagine I am somewhat irritated by the timing of this 
announcement in relation to the comment period. Having received this 
notice 1 day after the public comment period is ludicrous! How can a 
Government agency (that my tax dollars support) propose and enact 
regulations, without proper notification, and without allowing time for 
those affected a chance to comment on the impact of these measures? 
This type of activity leads me to believe the EPA is not accountable to 
anyone, and therefore makes decisions irrespective of how it may harm 
the individuals they are hired to serve.
    In addition, I don't see the need to further regulate small 
incinerators like mine that provide such a small output of emissions. 
Presently we voluntarily contract Periodic Maintenance Inspections 
(PMIs) from the manufacturer of our cremation unit. These inspections 
ensure the safety and efficiency of our cremation unit. The more 
efficient our unit burns, the less gas we use, and the less emissions 
we produce. It is in my best interest for both the business and the 
environment to keep my unit running efficiently and maintained at 
factory standards.
    Senator Murkowski, I hope that you or your staff will have the time 
to look into this regulation. I'm sure that other veterinary hospitals, 
pet cremation providers, and even human cremation providers will be 
significantly impacted by this change. If the projected costs for 
Annual Source Testing are anywhere near those noted by Ms. Valdez, my 
business and likely many others like it will not be able to feasibly 
absorb this fee. The likely end result is that we would not be able to 
provide this valuable service to our clients. I hope you can help find 
a solution to this issue for myself and other small businesses like 
ours across the country. Please review the enclosed copies of 
correspondence I had received from the EPA. I appreciate your 
consideration and would be eager to assist with any follow-up on this 
matter.
            Regards,
                                      James Delker, D.V.M.,
                   Twin Cities Veterinary Clinic, Soldotna, Alaska.

    Senator Murkowski. But we want to work with your staff to 
see if this is the final answer. But I think you can see the 
problem here.
    It would be outrageous, really, if this small family-run 
business has to stop providing a service for local families 
with pets because the cost of compliance with the regulations, 
of dubious environmental benefit at least in this instance, is 
just too high. But it is also emblematic of what many feel 
about the EPA that it is a vast bureaucracy issuing a dizzying 
number of rules that have enormous impact on their lives, while 
conversely, they may have very little input into EPA's 
decisions. And I share these concerns.
    So I look forward this morning, Mr. Chairman, to being able 
to ask questions of the Acting Administrator to understand a 
little bit more of the budget and the priorities. But I think 
this is an agency where, again, the impact on so many across 
our country, our families, our businesses, this is seen very 
much throughout what comes out of EPA. So very important this 
morning, and I appreciate your leadership in this oversight 
role.
    Senator Reed. Thank you very much, Senator Murkowski.
    Just to establish our routine, we will use our normal 
procedures, recognizing Senators based on their arrival, 
alternating from side to side. And before I ask Mr. Perciasepe 
for his statement, is there any of my colleagues that would to 
make very brief opening remarks or comments?
    If that is not the case, then Mr. Perciasepe, your 
statement will be made part of the record, without objection. 
Feel free to summarize your comments.
    Mr. Administrator, please.

                  SUMMARY STATEMENT OF BOB PERCIASEPE

    Mr. Perciasepe. Thank you Mr. Chairman and Ranking Member 
Murkowski.
    I appreciate the opportunity to be before you today and all 
the members of the subcommittee, to talk about our proposed 
fiscal year 2014 budget.
    EPA's budget request of $8.153 billion for 2014 fiscal year 
reflects our ongoing efforts to change the way EPA does 
business. To invest in more efficient ways for the agency to 
operate and to further reduce costs wherever possible, while 
preserving and enhancing our ability to carry out EPA's core 
mission to protect human health and the environment. It is the 
product of many internal discussions in the administration, and 
tough choices that you have already identified, in some cases.
    In the end, we believe this budget will enable us to work 
toward the goals that the Congress has established for EPA to 
effectively and efficiently implement the laws.
    Let me run by a few of the key highlights, and I will try 
to be quick.
    Despite these fiscal challenges, supporting State and 
tribal partners, they are our key partners in implementing the 
Federal environmental statutes that have been enacted, remains 
a priority for EPA. And the State and tribal assistance grants 
account for nearly 40 percent of our entire budget for fiscal 
year 2014. I want to point out that it includes a $57 million 
increase more than the fiscal year 2012 enacted amount for 
specific grants to help States, tribes, and operations.
    You have already mentioned, and I want to emphasize again, 
that we have done some disinvesting and reinvesting in the 
budget including a $60 million project that we are beginning 
that we are calling E-Enterprise. It may sound a little bit 
esoteric, but really, what we are trying to do is move EPA and 
working with States and tribes into the 21st century in how you 
transact business with the rest of the world.
    And we are learning from the States. Many States are 
starting to move in this direction. And what we are really 
looking at is something that is going to reduce regulatory 
paperwork, reduce our regulatory reporting burden, but at the 
same time make some of the work that we do together with States 
and tribes to be more transparent. We see this as an investment 
in the future of a more efficient operating EPA.
    We also have, in fiscal year 2014, a request for $176.5 
million to support a variety of partners and stakeholders, and 
our own work on greenhouse gas emissions. It is important to 
note that this funding also includes support for successful 
programs like ENERGY STAR, the Global Methane Initiative that 
we work on, greenhouse gas reporting programs, SmartWay, which 
is a program we work on with the trucking industry, and several 
others. It also includes $20 million on research of some of the 
impacts of climate change as we start to look at mitigation.
    Nutrient pollution is a pretty important problem throughout 
the country in our waterways, and we have requested in this 
budget a $15 million increase in State grants to help the State 
agencies begin that process of putting plans together that more 
specifically coordinate for nutrient reductions.
    You mentioned the SRF, again, a number of painful choices 
here, but we continue to fund these SRF at $1.1 billion for 
clean water and $817 million for drinking water. We have been 
capitalizing these funds, the clean water one, since 1987 and 
the drinking water one since 1996 when the Safe Drinking Water 
Act Revolving Fund was created. And when we get into the Q&A, 
we could talk about how they are currently operating.
    But we are also--I think this is pretty important--working 
with the Conference of Mayors, the Association of Water Quality 
Agencies, and the National Association of Counties on, what we 
call, an integrated planning, or really, basically, it is 
trying to get ahead of the curve on trying to deal with the 
issues that we have at the municipal level. Look for lower cost 
ways to solve some of the problems.
    And I am sure most of you have heard of the concept of 
green infrastructure, which is very helpful in some parts of 
the country that will allow us to find more cost-effective ways 
and a better life-cycle cost for some of the infrastructure.
    So even though the annual capitalization of the SRF has 
declined through the years, in addition to the amount that is 
already there, plus looking at new, more cost effective ways to 
solve the problems, we are hoping that we can continue to make 
the progress we need to make.
    We also have $1.3 billion for land cleanup. This is 
Superfund. This is emergency response. This also includes 
funding for Brownfields Programs as well, and some of those are 
included in our State grants.
    We have $686 million for chemical safety. This includes 
both pesticides and other chemicals in commerce, and looking at 
how we can make sure--well, first of all, we want to make sure 
we are processing and working through the risk assessments that 
we have to do for pesticides in a timely fashion, and 
appreciated the support from the Congress last year on the 
Pesticide Registration Improvement Act.
    Finally, we are looking at some of these hard choices you 
mentioned. Our budget includes $54 million in savings, some of 
which is reinvested in programs that, we think, other people 
can carry on or that their level of effort has declined and we 
need to shift the funds to other activities.
    And then you noted a number of programs have received a 
larger than the rest reduction as we look to build some of 
these other programs.
    Finally, I will just say in addition to looking at how we 
operate with things like E-Enterprise and doing that we have a 
governance system with the States that we are using to move in 
that direction together.
    We are also looking at our own infrastructure, how many 
buildings EPA occupies. How many labs do we have? How do we 
consolidate and modernize where necessary to shrink the space 
and/or improve the energy profile? And we continue to save 
money.

                           PREPARED STATEMENT

    We have moved away from more than 400,000 square feet of 
rented space in the last number of years, and we also continue 
to save money on some of our operating costs. So we are very 
excited about some of that work in terms of our own 
improvements.
    So I will stop there with that very brief summary, Mr. 
Chairman and Ranking Member Murkowski, and we will get onto the 
questions.
    [The statement follows:]
                  Prepared Statement of Bob Perciasepe
    Chairman Reed, Ranking Member Murkowski, and members of the 
subcommittee, thank you once again for the opportunity to appear before 
you to discuss the Environmental Protection Agency's (EPA's) proposed 
fiscal year 2014 budget. I'm joined by the Agency's Acting Chief 
Financial Officer, Maryann Froehlich.
    The President's fiscal year 2014 budget demonstrates that we can 
make critical investments to strengthen the middle class, create jobs, 
and grow the economy while continuing to cut the deficit in a balanced 
way. The budget also incorporates the President's compromise offer to 
House Speaker Boehner to achieve another $1.8 trillion in deficit 
reduction in a balanced way. By including this compromise proposal in 
the budget, the President is demonstrating his willingness to make 
tough choices. EPA's budget request of $8.153 billion for fiscal year 
2014 starting October 1, 2013, reflects our ongoing efforts to change 
the way EPA does business--to invest in more efficient ways for the EPA 
to operate, to further reduce costs wherever possible all while we 
preserve and enhance our ability to carry out the EPA's core mission to 
protect human health and the environment.
    The President's budget reinforces our firm commitment to keeping 
American communities clean and healthy, while also taking into 
consideration the difficult fiscal situation and the declining 
resources of State, local, and tribal programs.
    EPA's requested budget will allow us to continue making progress 
toward cleaner air, addressing climate change, protecting the Nation's 
waters, supporting sustainable water infrastructure and protecting 
lands and assuring the safety of chemicals.
    It is the product of long discussions and difficult choices. In the 
end, we believe this budget will enable us to work toward EPA's goals 
as effectively and efficiently as possible.
    Let me run through a few highlights from the President's fiscal 
year 2014 budget request.
    Despite the fiscal challenges we face, supporting our State and 
tribal partners, the primary implementers of environmental programs, 
remains a priority of the EPA. Funding for States and tribes through 
the State and Tribal Assistance Grants account is once again the 
largest percentage of the EPA's budget request--at nearly 40 percent in 
fiscal year 2014. The fiscal year 2014 budget includes a total of $1.14 
billion in categorical grants.
    We have requested a $60 million investment in an EPA-wide 
initiative to develop new tools and expand systems designed to reduce 
the regulatory reporting burden on regulated entities, and provide EPA, 
States, and the public with easier access to environmental data for 
compliance monitoring and other purposes. This new initiative is fully 
paid for, so does not add a single dime to the deficit.
    This project--what we call ``E-Enterprise''--would enable 
businesses to conduct environmental business transactions with 
regulators electronically through a single interactive portal, similar 
to online banking. The paperwork and regulatory reporting burden would 
be reduced thanks to more efficient collection, reporting, and use of 
data, in addition to regulatory revisions to eliminate redundant or 
obsolete information requests. The initiative will encourage greater 
transparency and compliance.
    The result will be widespread savings--for industry and for the 
States and tribes. For example, E-Enterprise builds on efforts such as 
the e-manifest system which is projected to reduce reporting costs for 
regulated businesses by up to a range of $77 million to $126 million 
annually, because it replaces the millions of paper manifests for 
hazardous waste shipments with a modern tracking and reporting system.
    The fiscal year 2014 request also includes $176.5 million to 
support the agency's work with partners and stakeholders to address 
greenhouse gas emissions and its impacts. These funds will help reduce 
emissions--both domestically and internationally--through careful, 
cost-effective rulemaking and voluntary programs that focus on the 
largest entities and encourage businesses and consumers to limit 
unnecessary greenhouse gas emissions.
    Some of this funding will support existing, successful approaches 
like ENERGY STAR, the Global Methane Initiative, the GHG Reporting 
Rule, and State and local technical assistance and partnership 
programs, such as SmartWay. Approximately $20 million will go toward 
research, so we can better understand the impacts of climate change on 
human health and vulnerable ecosystems. Our requested budget contains 
$175 million to support our Clean Air Act-mandated work to develop, 
implement and review air quality standards and guidance. This funding 
will also allow EPA to enhance our support to our State, local, and 
tribal partners to implement the programs.
    Nutrient pollution is one of the Nation's most widespread and 
challenging environmental problems. To assist in tackling this 
challenge, EPA is requesting an increase of $15 million in Clean Water 
Act section 106 Water Pollution Control grant funding to support 
States, interstate agencies and tribes that commit to strengthening 
their nutrient management efforts.
    Ensuring that Federal dollars provided through the State Revolving 
Funds support effective and efficient systemwide planning remains a 
priority for EPA. The fiscal year 2014 budget request includes $1.1 
billion for the Clean Water State Revolving Fund (SRF) and $817 million 
for the Drinking Water SRF. This money will also assist EPA efforts to 
expand and institutionalize the use of up-front planning that considers 
a full range of infrastructure alternatives like ``green'' 
infrastructure, so that the right investments are made at the right 
time, and at the lowest life-cycle cost. This budget request will allow 
the SRFs to finance approximately $6 billion in wastewater and drinking 
water infrastructure projects annually.
    In fiscal year 2014, EPA is requesting more than $1.34 billion for 
its land cleanup programs to continue to apply the most effective 
approaches to preserve and restore our country's land. This money will 
go toward developing and implementing prevention programs, improving 
response capabilities, and maximizing the effectiveness of response and 
cleanup actions. EPA is also renewing its request to reinstate the 
Superfund tax in order to provide a stable, dedicated source of revenue 
for the Superfund Trust Fund and to restore the historic nexus that 
parties who benefit from the manufacture or sale of substances that 
commonly contaminate hazardous waste sites should bear the cost of 
cleanup when viable potentially responsible parties cannot be 
identified.
    Ensuring the safety of new or existing chemicals in commerce to 
protect the American people is another top priority. Chemicals are used 
in the production of everything from our homes and cars to the cell 
phones we carry and the food we eat. The $686.2 million requested in 
fiscal year 2014 will allow EPA to continue managing the potential 
risks of new chemicals entering commerce, without impacting progress in 
assessing and ensuring the safety of existing chemicals. These 
resources encompass all efforts across the agency associated 
specifically with ensuring chemical safety and pollution prevention, 
including research and enforcement.
    EPA's research budget provides $554 million to support critical 
research in key areas, ranging from chemical safety to water 
sustainability to climate and energy to human health. This research 
will help advance the administration's commitment to healthy 
communities and a clean energy future.
    Finally, let me discuss some steps we are taking to ensure taxpayer 
dollars are going as far as they possibly can.
    The budget includes $54 million in savings by eliminating several 
EPA programs that have either completed their goals or can be 
implemented through other Federal or State efforts. Adding to these 
savings and demonstrating a willingness to make tough choices, more 
than 20 EPA programs, are being reduced by 10 percent or more in fiscal 
year 2014.
    EPA has also been laying the groundwork to ensure the best use of 
human resources, which will continue in fiscal year 2014. We will 
continue to analyze our workforce needs to achieve EPA's mission 
effectively and efficiently. This is reflected in our full-time 
equivalent request for fiscal year 2014, which is our lowest in 20 
years.
    We also continue to look for opportunities to consolidate physical 
space and reduce operating costs at our facilities nationwide. Ongoing 
improvements in operating efficiency, combined with the use of advanced 
technologies and energy sources, have reduced energy utilization and 
saved nearly $6 million annually.
    In fiscal year 2014, we are requesting $17 million in the building 
and facilities appropriation to accelerate space consolidation efforts, 
which will result in long-term savings in rent and operating costs. By 
consolidating space, we have, since 2006 released approximately 417,000 
square feet of space at headquarters and facilities nationwide, 
resulting in a cumulative annual rent avoidance of more than $14.2 
million.
    Mr. Chairman, thank you for the opportunity to testify today. While 
my testimony reflects only some of the highlights of EPA's budget 
request, I look forward answering your questions.

    Senator Reed. Thank you very much, Mr. Administrator.
    We are going to do 6-minute rounds. I anticipate at least 
two rounds, and let me begin.

                         STATE REVOLVING FUNDS

    No surprise, let's talk about the SRF. First, your own 
estimate suggests that in the next 20 years, we are going to 
have to spend, as a Nation, about $633 billion on 
infrastructure: clean water and other water projects. The 
American Society of Civil Engineers has given our clean water 
structure a ``D'' grade. So there is no question about the need 
to do this.
    And then the other aspect of this which, I think, you have 
to consider--and certainly the President does--is that these 
jobs put people to work at a time when we desperately need to 
do that.
    So how do you justify the discrepancy between the huge cuts 
in this program and the huge needs, obvious needs, for 
infrastructure investment and also need for jobs?
    Mr. Perciasepe. I have to sort of couch many of these 
questions as painful as they are with the painful choices that 
we have to make in the budget. And I actually was involved with 
setting up a SRF when I was the secretary of environment in the 
State of Maryland. And so, I have been at the very beginning of 
this program and recognize the real advantages of having it.
    But we have also had appropriations and capitalization to 
this fund for the years since 1987, and in the last 5 years, we 
have put nearly $20 billion into this program, including 
appropriations that were included in the American Recovery and 
Reinvestment Act. So the fund has a significant amount of 
capitalization, much more than the Congress originally 
envisioned.
    So when I look at what actually happened in 2012 between 
the capitalization grants that EPA gave, the reuse of the 
repayments that come back in from loans that are already 
outstanding, and the leveraging of those loans, the SRF 
programs together, both water and drinking water, clean water 
and drinking water, funded almost $7.7 billion of 
infrastructure improvements.
    So when we look at that landscape and have to make these 
hard choices, we are trying to look at how we can make sure we 
keep capitalizing that fund so it keeps growing, but also 
working with the States and local governments on more efficient 
ways to use the fund and, perhaps, reduce the impact of what 
the Society of Civil Engineers were looking at in the long 
haul.
    But there is no doubt about it that the country has a 
significant gap in funding of water infrastructure. And I think 
the challenge for us together is how much of that gets funded 
by the Federal Government versus local funds versus State 
funds.
    But this was a tough choice we made. I am giving you some 
background as to what we think, how we continue to carry 
forward.
    Senator Reed. Just to elaborate. Even at the $7.7 billion 
level times 20, and I am always suspicious of my math, roughly 
$150 billion. Your 20-year projection is $633 billion of work. 
So we are at a $500 billion gap between what you need you have 
to do and what we are doing.
    So even if that $7 billion total is consistent with prior 
years or maybe a little up, it is greatly lacking the demand. 
So for the record, let's make sure we make that point.

                      HURRICANE SANDY SUPPLEMENTAL

    Let me shift to a more detailed issue with respect. EPA 
receives $600 million in mitigation, the recent Hurricane Sandy 
supplemental going to try to affect some of these water 
problems, both drinking water and other water projects. Many 
States, even adjacent States, did not get direct access to it.
    But how are you using these funds to help out today? And 
what about those States that suffered in Sandy, but did not get 
direct access to funds like Rhode Island?
    Mr. Perciasepe. Well, let me talk about the law as enacted 
and what we are doing.
    We are working with New York and New Jersey, obviously, to 
allocate the funds that were developed for water and wastewater 
systems, and identify the priority facilities to receive that 
funding, to improve their resilience.
    And I actually had the pleasure of being at a sewage 
treatment plant with you, Senator, after the floods in Rhode 
Island a couple of years ago where we did not move the plant 
but, working with our regional office, we actually looked at a 
way to make the plant more resilient for the next time it 
floods. Sewage plants are often located at the low point in 
town. And so, rather than move them and have the expense of 
pumping wastewater uphill, we want to make them more resilient, 
recognizing that they may be flooded.
    And so, we are looking at places like that where we have 
found ways to do that, so that we can work with the two States 
to improve the resilience of some of those plants.
    Now, in the Sandy instance, there are other funds that are 
involved. Federal Emergency Management Agency (FEMA) has funds, 
and part of that was appropriated plus their existing funding, 
to restore what was there, and there was also funding in the 
Community Development Block Grant program that the Department 
of Housing and Urban Development (HUD) has. So what we are 
trying to do in an interagency taskforce level, is to look at 
all those fundings together and how they would be impacted--how 
they can be impactful together.
    So if you have funding from the SRF into the actual sewage 
treatment plant, can we use Community Development Block Grant 
funds to look at some of the conveyance system issues that may 
be in place, and look at techniques like green infrastructure, 
reduce the amount of runoff that gets to the sewage treatment 
plant during these high rain events.
    So we are looking at how to integrate all that together and 
I guess that is a tail into the second part of your question 
about what about the other States. I think that to the extent 
that they were in an area that is covered by the Stafford Act, 
we would be able to do, I hope, similar things like we did in 
Rhode Island to some of those plants in terms of using funds 
from FEMA and other sources to try to improve resiliency so 
that we reduce the impact of future events, which I think we 
have to predict will occur.
    Senator Reed. Thank you very much.
    Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.

                    BRISTOL BAY WATERSHED ASSESSMENT

    Mr. Perciasepe, let's talk for a moment here about the 
Bristol Bay Watershed assessment that EPA is conducting.
    I understand that we anticipate an announcement on this 
relatively shortly, is what I am told. But when EPA undertook 
this assessment after being petitioned to preemptively veto 
development within the area, EPA moves forward. The assessment 
is based on this hypothetical mine plan to predict impacts from 
mineral development. Obviously, this assessment is being 
watched very, very carefully by many Alaskans and, actually, 
many folks outside of the State.
    I was just visited yesterday by individuals who live within 
the region or work within the Bristol Bay region, and we had a 
discussion about this assessment, whether or not EPA has 
sufficient funding to do a thorough assessment to really 
collect the massive data that will be required for study of a 
watershed area of this size.
    We have asked, my staff asked numerous times, about how 
much is being spent on the watershed assessment. We still have 
not been able to receive an accounting of that and this is 
exactly what we try to do here in this subcommittee.
    Can you tell me why we have not been able to receive this 
information up to this point in time? And then also in this 
same area is: when might we expect to see the announcement from 
EPA on the watershed assessment?
    Mr. Perciasepe. I will get used to this in a second, the 
button. Thank you, Senator.
    There are a couple of questions in there, but they are all 
related to the same point.
    One of the--let me--the first part of it is when can we 
expect--we are hoping shortly to be--we are cognizant----
    Senator Murkowski. ``Shortly'' is an ill-defined term in 
the Congress. Can you give me anything better?
    Mr. Perciasepe. Well, let me try, that we are very 
cognizant of the fishing season demands on people and we want 
to make sure that whatever we do is going to accommodate folks 
in the region to be able to have the time to be able to look at 
this report.
    So I cannot say it is going to be next week, but it's, you 
know, we are within weeks of doing this so that we can have it 
out there during the May time period, so that people will be 
able to look at it. And then, let me work backward just a 
little bit to the other parts of the question.
    One of the things that has created some complexity in 
analyzing all the full costs of this is how we responded to the 
peer reviewers on the first draft. And so, we had to see what 
they said, and then figure out how we reconstruct it or 
responded to the advice we got from them, which is what we have 
now done, and now we are putting out this report.
    So I think we will be, again, using a word that I can tell 
you are not completely comfortable with, we should be able to 
soon be able to tell you what those costs are now that we have 
put this final, another final draft together to put out for 
peer review again.
    So I can tell you that I am going to try to make sure that 
we get that answer to you with the knowledge of what we have 
just done now on this other one.
    In terms of adequate resources, again, it is related and 
so, you've got all this correctly connected. And that is when 
we got the peer review comments from the first draft and we had 
to pull different parts of EPA together to make sure we 
responded appropriately, that work was to make sure that we 
have the adequate resources to put to it. So we will now, once 
we get this next report out for public and peer review--and we 
are going to peer review it again, I think you know that--we 
will be in a position to be able to analyze what all the costs 
were that went into it.
    Senator Murkowski. Well, if you can encourage that shortly 
is sooner rather than later, as you know, fishing season is 
coming fast upon us. And again, we want to make sure that if 
the study is out there, that it is complete and it is thorough, 
but it seems to me that we ought to be able to get a better 
accounting.

                    AUTHORITY UNDER CWA SECTION 404

    Let me ask you about a decision that came out of the D.C. 
Circuit Court yesterday. This was the decision concerning the 
Agency's retroactive veto of dredge and field permits that are 
issued by the Army Corps of Engineers. This is the Mingo Logan 
Coal Company v. EPA.
    I have to tell you, I am concerned about what we have seen 
coming out of the Circuit Court here. If the EPA can withdraw, 
in effect, the Army Corps' permit at any point, how can you 
ever give the assurance that any permit is ever final if you 
have got this dangling out there that it can be removed almost 
unilaterally by the EPA?
    And a couple of follow-ons to that is whether or not within 
EPA, how you are going to proceed with this authority, whether 
or not the EPA will use this authority preemptively.
    What are the consequences of this court decision yesterday?
    Mr. Perciasepe. I know that--I heard that the court 
decision was made, but I have not really had time to look at, 
nor have I gotten a summary, in the last 12 hours, of what 
exactly the court said.
    But I can point out at a very high level, Senator, that the 
authority is in the Clean Water Act under section 404, since 
1972, has been used 13 times in the history of the law. So it 
is not something that EPA takes very frivolously through all 
the different administrations that have used it. And that 
authority has been used in both Democrat and Republican 
administrations. So it is a very rarely used authority.
    I do not have a good handle right now, in front of you, but 
maybe we might be able to talk about it later this week when we 
get together exactly what this does to that authority.
    Senator Murkowski. Well, I would appreciate the opportunity 
for that discussion. I know that this is going to be on the 
minds of many, many Members because, again, even though it has 
not been used on a very frequent basis. If you are looking to 
develop anything and the threat exists that your permit that 
has been issued could be retroactively pulled from underneath 
you, it injects a level of uncertainty in just about anything 
going forward, whether it is the coal mining or whatever the 
activity might be.
    So I think we are all going to have to get up to speed on 
this a little bit more.
    Mr. Chairman, I have exceeded my time, and I apologize.
    Senator Reed. Thank you very much, Senator Murkowski.
    Senator Udall.
    Senator Udall. Thank you, Mr. Chairman.

                 URANIUM POLLUTION--INDIAN RESERVATIONS

    And Mr. Perciasepe, thank you very much for your service. I 
am going to focus a couple of questions on the uranium 
pollution that has occurred on the Navajo Reservation and the 
Hopi Reservation, and this is a legacy issue that has been 
going on for many years. And I believe the EPA has been very 
active in this.
    In fact, the EPA Region 9 recently concluded a 5-year plan 
to address uranium contamination on the Navajo Nation, and 
coordination with several other agencies including the Bureau 
of Indian Affairs, the Department of Energy, the Nuclear 
Regulatory Commission, and others, EPA Region 9 was able to 
take significant steps towards addressing uranium legacy issues 
on the Navajo Nation and the Hopi Nations.
    It is my understanding that EPA is coordinating with other 
agencies to identify next steps in clean up of uranium 
contamination and expects to have a new 5-year plan for this 
region put together by this coming fall.
    Additionally, EPA Region 6, which covers the rest of New 
Mexico, is currently carrying out a similar 5-year plan to 
address legacy uranium in my home State. I appreciate the 
Agency for taking these deliberate steps to address this 
important public health and environmental issue.
    And my question is will Region 6 and Region 9 have adequate 
resources under this budget to continue these long overdue 
cleanup projects to address this toxic cold war legacy?
    Mr. Perciasepe. The short answer is ``Yes.'' The little bit 
of context is we are very proud of how we have moved forward on 
these legacy issues in the last 5 years, and we think that they 
are important and must be dealt with. And I am very happy with 
the coordination between the State, the tribe, Bureau of Indian 
Affairs, the other agencies, as you have pointed out, as well 
as between the EPA regions.
    The only asterisk that I have to put on that, and I am not 
trying to make a statement here, I am just telling you, it is a 
real asterisk that you and the Appropriations Committee have to 
think of. If there is a sequestration, depending on how that 
falls down, there could be some impact on some cleanup 
projects. We have already had impact on cleanup projects this 
year because everything was cut by 5 percent.
    But with that asterisk, we expect to have the funding in 
this budget to be able to move forward on the first part of 
that 5-year plan.
    Senator Udall. Great. Thank you.
    And I think your answer emphasizes the fact that 
sequestration really hits some long-term projects in a 
significant way. I do not want to see that happen because I 
believe that this is a project, as I said, long overdue, that 
has to be completed, and it is on a good track now, and we 
should not have to see it setback.

                              BROWNFIELDS

    A question on Brownfields. Last month, I joined Senator 
Lautenberg, Senator Crapo and Senator Inhofe, to introduce the 
Brownfields Utilization Investment and Local Development Act. 
We call it the BUILD Act. This legislation would modernize and 
improve key elements of the EPA's Brownfields Program.
    Since 2002, the successful program has funded the 
rehabilitation of abandoned and polluted properties to increase 
safety and attract new businesses to communities. In New 
Mexico, we have great success stories like the Santa Fe Rail 
Yard and the old Albuquerque High School. Two areas were 
revitalized from hazardous areas to become economically 
productive and important cultural spots.
    I am concerned about the cuts to the Brownfields Program. 
This program leverages valuable private investment and pays 
dividends to economic prosperity.
    Do you agree that there are more productive projects out 
there than this funding level will support? And if so, does EPA 
see any ways to help these limited dollars go farther?
    Mr. Perciasepe. First of all, being a former city planner 
earlier in my career, this is one of my favorite little 
programs at EPA, and I think it has done more than many to 
enhance the quality of life in communities across the country.
    In fact, I think there isn't an area, a place in the 
country that hasn't had some project along the lines that you 
have just mentioned where they can point to the fact that the 
flexibilities afforded in cleanups to get these properties to 
beneficial use and community-focused use faster. I just have to 
say it is oversubscribed.
    One of the things that we have been doing in the last 
several years through an agreement with the Department of 
Transportation and the Department of Housing and Urban 
Development, is a sustainable communities memorandum of 
understanding (MOU) among the three agencies so we can look at 
how we can pool our resources in some of these communities.
    So we may take a little longer to, perhaps, do a 
Brownfields Project, although we are working on it. That does 
not mean that we cannot be in that community doing some of the 
other preparatory work with Community Development Block Grant 
funds or some Transportation funds.
    And I was just recently in Cincinnati where we are looking 
at additional Brownfields redevelopment sites along the route 
of their light rail or trolley system that they are building 
through the Over-the-Rhine neighborhood. And at the same time, 
we are using HUD funds to do housing stabilization projects in 
that community.
    So one part of that is the tri-party effort is to really 
work in those communities to get properties back into use, 
productive use, and to get the communities revitalized. We are 
looking at ways to be efficient with all the funds.
    That is not the best answer, I just want to say, but it is 
something we should do regardless. And if we all had more 
money, we would go faster in more communities, there is no 
doubt about it.
    Senator Udall. Thank you very much.
    Mr. Chairman, I have exhausted my time. Thank you.
    Senator Reed. Thank you.
    Senator Blunt.

                     STATEMENT OF SENATOR ROY BLUNT

    Senator Blunt. Thank you, Mr. Chairman.
    I have a statement for the record, and I will submit that.
    [The statement follows:]
                Prepared Statement of Senator Roy Blunt
    Thank you, Chairman Reed and Ranking Member Murkowski, for holding 
this hearing today. I welcome this opportunity to examine the budgetary 
needs of the Environmental Protection Agency.
    I would also like to thank Acting Administrator Robert Perciasepe 
for being here today.
    EPA is requesting $8.153 billion, which is $296 million (3.5 
percent) below fiscal year 2012 enacted levels. While this is a step in 
the right direction, I have serious concerns with the way the EPA is 
prioritizing spending.
    For instance, the agency very clearly admits in its budget 
justification that as a result of fiscal cuts, EPA must make 
``difficult decisions resulting in reductions to support for water 
infrastructure.'' State Revolving Funds, which provide critical support 
to how municipalities finance water infrastructure projects, will be 
cut by almost a half-billion dollars from fiscal year 2012 enacted 
levels. This continues the pattern of the continual cutting of Federal 
money for water systems over the past decade.
    Yet your own agency has conducted studies finding that 30 percent 
of pipes in systems that deliver water to more than 100,000 people are 
between 40 and 80 years old. Further the EPA 2009 Drinking Water 
Infrastructure Needs Survey and Assessment found that our Nation's 
community water systems will need to invest an estimated $334.8 billion 
between 2007 and 2027.
    In contrast, the EPA has requested $176.5 million for climate 
change efforts, which is $8.1 million above fiscal year 2012 enacted 
levels. The agency plans to use this funding to advance the pending 
proposal to set New Source Performance Standards (NSPS) for carbon 
dioxide emissions from new powerplants.
    The proposed NSPS rule will set unprecedented standards under the 
Clean Air Act, harm our economy, and endanger electricity supply--which 
is almost 50 percent coal fired. Missouri is 82 percent coal fired. The 
proposed NSPS rule would effectively ban these new coal plants from 
being built.
    This on top of the fact that many existing EPA regulations seek to 
prevent existing coal sources from making upgrades to improve 
efficiency and allow for more electricity generation with less fuel and 
less emissions.
    Spending our Federal dollars to kill the use of coal in this 
country but not improve our Nation's water infrastructure is a far cry 
from a common sense approach to protecting the environment.
    EPA needs to expend Federal taxpayer dollars in a way which takes 
into account the cumulative way in which each agency regulation affects 
ratepayers. One such way is to let communities develop local plans that 
achieve the ``biggest bang for the buck'' toward environmental 
protection and keep rates affordable.
    The agency should not spend taxpayer dollars on massive, burdensome 
regulations that hamstring the economy, kill jobs, and hike up 
electricity prices. This is not the right path forward for our country.
    Thank you, and I look forward to your testimony.

    Senator Blunt. And I have some questions.
    Mr. Perciasepe, you are the Acting Administrator, and I 
actually have a hold on the nominated Administrator. Based on a 
commitment from the administration that they made in February 
to Senator McCaskill and me that they would just agree, they 
would see that the organizations involved in coming up with the 
environmental impact study for a project in southeast Missouri 
would agree to the facts by March 15.
    They set the deadline. We did not ask for the deadline. The 
call on March 15 was, ``Well, we cannot get this done by the 
day we said we would get it done.'' And we have had no outreach 
from EPA in our office at all. I do not know how many Senators 
have holds on the nominee, but it must be so many that there is 
no interest in doing anything about the holds that are out 
there.

                                WETLANDS

    Principally, there are a couple of concerns on this topic. 
One is the estimate of wetlands that your organization came up 
with originally was 118,000 acres.
    The USDA said it was 500 acres. The Fish and Wildlife 
Service said it was somewhere in between. You said 118,000 
acres. And I think the last estimate that you all have made is 
5,000 acres, which is an interesting, the difference in 118,000 
and 5,000--your own estimate--is intriguing to me.
    And then you created a new category of wetlands that is not 
defined anywhere else in Federal law, which is, ``wetlands in 
agricultural areas''. I have two or three questions on this.
    One, why do you think the wetlands determinations from your 
Agency have been so different on this one project?
    Mr. Perciasepe. I have not looked at those particular 
numbers. But when you just mentioned agriculture, there are 
prior converted wetlands that are not covered under certain--
they are not covered under the Clean Water Act. Somebody could 
have been adding those in, in the original one, and now they 
are looking at different ones. I----
    Senator Blunt. Do you know if the Agency has provided any 
recent information to the Corps on this topic or not?
    Mr. Perciasepe. We have on--going back to the original part 
of your question----
    Senator Blunt. Yes.
    Mr. Perciasepe. We have ongoing conversations with the 
Corps, and what I think I can commit to you, Senator, is that 
the next critical step in this, in addition to the information, 
is that the Corps of Engineers needs to be put together the EIS 
document----
    Senator Blunt. Right, right.
    Mr. Perciasepe. And I think what we are all working on very 
hard is to get the Corps to get whatever information they need 
so they can get that document done. And then we will respond as 
quickly as--we will respond right away. Our Regional 
Administrator is prepared to do that and we want to move 
quickly once we get that document.
    So people are working on this, and I can provide more 
information----
    Senator Blunt. Yes. I want you and my colleagues to both 
understand that this is not about trying to force a project to 
be built or anything else. It is just trying to get the 
Government to quit arguing with the Government.
    This is trying to get the Government to agree on the facts, 
which does not seem--actually, it seems that the administration 
is simple enough project that they thought it could be done 
well over a month ago. And this is after a couple of years of, 
``Why is this not getting done?'' ``Well, we don't agree on the 
facts.'' We would just like the Government to agree on the 
facts of whatever you can do----
    Mr. Perciasepe. I will.
    Senator Blunt [continuing]. Of course, if this was left up 
to me on this issue, you could be the Acting Administrator 
forever. Maybe you are very popular at the Agency and they just 
do not want to respond to these pretty simple questions.
    Mr. Perciasepe. Well, our role in this is to review the 
work that the Corps of Engineers does. We are not the one doing 
the environmental impact statement (EIS).
    But I--we will help them get it done. As soon as they get 
it done, we will do the comments on it. That is the normal way 
we reconcile things is get that EIS process going. So I think 
that is the key here.

                        WETLANDS--VETO AUTHORITY

    Senator Blunt. And you would have ultimate authority on the 
wetlands question based on this veto potential that you always 
have on an issue like this? Is that right?
    Mr. Perciasepe. Yes, under the Clean Water Act, the EPA 
writes the guidelines, which we have done many years ago on how 
to make the wetlands determinations. And so, the Corps uses 
those guidelines to do it. And there are some agricultural 
converted wetlands that are not part of that process. They may 
be something that somebody will analyze in an environmental 
impact study, but they are not part of the Clean Water Act 
process.
    Senator Blunt. But you can veto these projects even while 
they are going on based on what I think I just heard you say to 
Senator Murkowski?
    Mr. Perciasepe. I think that that is an untested--what she 
was--what the Senator was referring to was a court decision 
yesterday that was related to a veto after a project had 
already been permitted, not in advance of it.
    Senator Blunt. So you have no question you could veto it 
before.
    What is the open question, whether you could veto it after 
or not?
    Mr. Perciasepe. All the times that we have used the veto 
authority that is under--and really it is--the authority is 
actually to remove a section of water from being able to have 
fill materials discharged into it. But we use the common word 
of ``veto'', which I do not think is actually in the act.
    But all the times it has been used, to my memory, and I 
could double check this for the record, has been after the 
Corps project review process has begun.
    Senator Blunt. And before work has begun or do you know?
    Mr. Perciasepe. If you want detail on all the times it has 
been used, I will have to get it for the record.
    Senator Blunt. I do. I want----
    Mr. Perciasepe. I don't have that.
    Senator Blunt. I want detail on all the times it has been 
used and look forward to you providing that.
    [The information follows:]
    Timing of EPA Action Under Section 404(c) of the Clean Water Act
    EPA uses its authority under section 404(c) of the Clean Water Act 
judiciously and sparingly. In the over 40 year history of the Clean 
Water Act section 404 program, EPA has used its authority under section 
404(c) a total of 13 times. This is a particularly small number in 
light of the tens of thousands of projects that the U.S. Army Corps of 
Engineers authorizes in the Nation's wetlands, streams and other waters 
each year. EPA can exercise its authority under section 404(c) before a 
section 404 permit application has been submitted, while a permit 
application is under review, after a permit has been issued or in 
instances where a regulated discharge does not require a section 404 
permit (e.g., Corps Civil Works projects). EPA has exercised its 
authority in the following contexts:

----------------------------------------------------------------------------------------------------------------
                                                                                           Location
                                                                             -----------------------------------
          Project Name             Initiation and Final Determination Dates     EPA
                                                                               Region   State    Corps District
----------------------------------------------------------------------------------------------------------------
Spruce No. 1 Surface Mine......  Initiated October 16, 2009.................       3       WV   Huntington
Surface Coal Mine                Final Determination issued January 13, 2011
----------------------------------------------------------------------------------------------------------------
Yazoo Pumps....................  Initiated February 1, 2008.................       4       MS   Vicksburg
Flood Control Project            Final Determination issued August 31, 2008
----------------------------------------------------------------------------------------------------------------
Two Forks......................  Initiated March 24, 1989...................       8         CO Omaha
Water Supply Impoundment         Final Determination issued November 23,
                                  1990
----------------------------------------------------------------------------------------------------------------
Big River......................  Initiated August 24, 1988..................       1       RI   New England
Water Supply Impoundment         Final Determination issued March 1, 1990
----------------------------------------------------------------------------------------------------------------
Ware Creek.....................  Initiated August 4, 1988...................       3       VA   Norfolk
Water Supply Impoundment         Final Determination issued July 10, 1989
----------------------------------------------------------------------------------------------------------------
Lake Alma......................  Initiated June 8, 1988.....................       4       GA   Savannah
Dam and Recreational             Final Determination issued December 16,
 lmpoundment                      1988
----------------------------------------------------------------------------------------------------------------
Henry Rem Estates..............  Initiated April 22, 1987...................       4       FL   Jacksonville
Agricultural Conversion--        Final Determination issued June 15, 1988
 Rockplowing
----------------------------------------------------------------------------------------------------------------
Russo Development Corps........  Initiated May 26, 1987.....................       2       NJ   New York
Warehouse Development (After-    Final Determination issued March 21, 1988
 the-fact permit)
----------------------------------------------------------------------------------------------------------------
Attleboro Mall.................  Initiated July 23, 1985....................       1       MA   New England
Shopping Mall                    Final Determination issued May 13, 1986
----------------------------------------------------------------------------------------------------------------
Bayou Aux Carpes...............  Initiated December 17, 1984................       6       LA   New Orleans
Flood Control Project            Final Determination issued October 16, 1985
----------------------------------------------------------------------------------------------------------------
Jack Maybank Site..............  Initiated April 15, 1984...................       4        SC  Charleston
Duck Hunting/Aquaculture         Final Determination issued April 5, 1985
 Impoundment
----------------------------------------------------------------------------------------------------------------
Norden Co......................  Initiated September 30, 1983...............       4       AL   Mobile
Waste Storage/Recycling Plant    Final Determination issued June 15, 1984
----------------------------------------------------------------------------------------------------------------
North Miami....................   Initiated June 25, 1980...................       4       FL   Jacksonville
Landfill/Municipal Recreational  Final Determination issued January 19, 1981
 Facility
----------------------------------------------------------------------------------------------------------------

    For more information please visit: http://water.epa.gov/lawsregs/
guidance/cwa/dredgdis/404c_index.cfm.

    Senator Blunt. I think we are going to have a second round 
of questions later, chairman? Thank you.
    Senator Reed. Thank you, Senator Blunt.
    Senator Cochran.
    Senator Cochran. Mr. Chairman, I am pleased to join you and 
the other members of the subcommittee in welcoming our 
distinguished witnesses to the hearing today.

                             GULF OF MEXICO

    It occurs to me that one of the most riveting events that 
threaten the environment of the Gulf of Mexico has been the oil 
experience and the blowout down there of a well. And the effort 
to which we have gone to marshal our resources and to figure 
out exactly how we protect ourselves from adverse environmental 
consequences from that experience.
    And I just wonder, what is your observation about whether 
or not what we have been doing is working? Are we restoring the 
good environmental health to the Gulf of Mexico and related 
areas like the Mississippi River, the lower parts of the river?
    Mr. Perciasepe. I appreciate that question and how 
important that is. Obviously, I think we all remember that, 
those 3 months of our lives in not the most favorable ways, but 
I am very optimistic.
    We put a taskforce together after the event. There was a 
separate review commission that had recommendations, but the 
President put together a taskforce which Lisa Jackson chaired 
that brought together the States around the gulf.
    And the States and the different Federal agencies all 
agreed to a general approach in consensus, which I was 
extremely pleased to see, which gave me a lot of optimism that 
when funding became available, either through congressional 
appropriations, or coordinating the funding we all get with our 
existing programs, or any penalties or payments from any 
responsible party would get put to a good plan.
    So I am confident that as those settlements occur and as we 
look at coordinating our existing funds, that we will be 
putting it to a plan that is pretty well coordinated because we 
have that work together. And obviously, your State was involved 
as well, and we think that that plan is actually pretty solid. 
It is the first time, to my knowledge, all the gulf States and 
the Federal Government came together on what needed to be done.
    Senator Cochran. Well, the Congress certainly acted quickly 
in response to the request from the administration to provide 
earmarked funds, excuse the expression, oh, my goodness.
    But that is part of our job to designate Federal funds to 
help deal with emergencies that threaten the environmental 
safety and security of our country, and particularly the 
economic investment that we have in the Gulf of Mexico, the 
fisheries. And the efforts we make to keep the Mississippi 
River from destroying all of the rich farmland that is 
important to our State's economy and many others as well. So we 
want to be sure we bring a balance to these competing 
challenges sometimes.
    And I would just close by asking you if you are satisfied 
that the administration, and the Congress, are constructively 
working together to help ensure that these goals are reached?
    Mr. Perciasepe. Senator, actually I am more confident than 
I would have imagined, to be honest with you, given the damage 
the nature of that event.
    I think we see an industry response, which is starting to 
get some marks in their preparedness. We went through a painful 
part of getting preparedness to be ready in case it ever 
happens again. But on the other side of repairing the damage, 
and even going further to the extent we can to restoring--
because as you know, some of the ecosystems there were not in 
the best shape even before the event.
    So I think we have a once in a lifetime opportunity here, 
and the fact that the Congress and the administration have 
worked together as well as they have, I think, bodes very well 
for success, and the fact that the States are onboard with the 
basic plan.
    So it won't be without challenges, but I think the 
foundation is there for success.
    Senator Cochran. But your assessment is that it is safe to 
swim in the Gulf of Mexico again, isn't it?
    Mr. Perciasepe. Well, I believe people are doing that every 
day.
    Senator Cochran. Thank you.
    Senator Reed. Thank you, Senator Cochran.
    Given our procedures, in order of arrival and going back 
and forth, Senator Begich.

                    BRISTOL BAY WATERSHED ASSESSMENT

    Senator Begich. Thank you very much, Mr. Chairman.
    I just want to reconfirm. I know my colleague asked this 
question when I was not here. I just want to hear it again for 
my own sake here on the Bristol Bay Watershed assessment issue.
    You indicated that you do have enough money to finish the 
assessment, and that you will get it out and soon; ``soon'' 
defined as potentially in fill-in-the-blank. That is your cue.
    Mr. Perciasepe. Fill in the blank. Well, what I said to--I 
said ``soon'' but that did not----
    Senator Begich. That does not work.
    Mr. Perciasepe. I want the record to show ``soon'' doesn't 
work.
    But I wanted you to know, and I mentioned this to Senator 
Murkowski that we completely understand that we need to get it 
out in time for people to be able to look at it and participate 
in the public process. This is the revised analysis after we 
got the comments from the peer reviewers.
    Senator Begich. Correct.
    Mr. Perciasepe. Which is one of the reasons, as I 
mentioned, that we have been a little bit floating on how much 
we are spending on this because we needed to pull together the 
resources in the Agency to make sure we responded, and 
modified, and improved the assessment based on the comment we 
got. So we will also shortly be in a position to be able to 
layout some of those funding components of it.
    But we are working to get this out so that a substantial 
part of the month of May is available for people to respond to 
it before the fishing season really kicks in.
    Senator Begich. And then let me understand also the timing, 
then. Let's assume you hit that target. It comes out in May, 
then the public can review and comment on it.
    Is there a time limitation or is it an open-ended? Help me 
understand that.
    Mr. Perciasepe. Well, we certainly want it to be the time 
period that the public will have the most ability to do it. The 
peer reviewers will also be reviewing it at the same time. I 
cannot--I don't know right now what the time limit would be, 
but we have some flexibility there, and we will see how it goes 
once we have people commenting on it in May.
    Senator Begich. And then, once they comment on it, what is 
next?
    Mr. Perciasepe. Well, we wait to get the--in addition to 
public comment, we are going to wait to get the science review 
of it and that we put the same peer review panel we had the 
last time. We were able to get every member of that panel to 
agree to do it again so that we have good continuity on the 
scientific review.
    We wait to see what comments we get from that peer review, 
and may, depending on that view, have to make some additional 
modifications, but I think I can't predict because I don't know 
what they are going to say. And I think anything we do here 
because while this is not a regulatory action this study.
    Senator Begich. Right.
    Mr. Perciasepe. This is something that will inform 
everybody. We want to make sure that it has the best scientific 
foundation in it. So that is going to be our number one 
priority as we go through this next peer review process.
    Senator Begich. And let me just push you one more point on 
this. And that is, so you have the public commentary and other 
review commentary. You review that, then at some point, you 
will have a final assessment document.
    Mr. Perciasepe. Yes, that would be available for whatever 
processes go on after that.

              BRISTOL BAY WATERSHED ASSESSMENT COMPLETION

    Senator Begich. Okay. Can you give me--and I know it is 
hard without knowing some of the comments that come in, how 
technical they might be, or how simplistic they might be, 
whatever the range is--can you give an understanding to me 
that, ``By this range of dates, we think we will be completed 
with the assessment,'' with some caveats. I am going to give 
you some hold harmless here----
    Mr. Perciasepe. Okay.
    Senator Begich [continuing]. And that is recognize there 
may be some peer review issues or other things that are more 
technical and that may require a little more work, because I 
hear what you are saying right now, but then it goes back into 
your guys' lap, and then what happens?
    Mr. Perciasepe. Well----
    Senator Begich. I mean, is it a fall completion? Is it a 
summer?
    Mr. Perciasepe. You know, if I think the work is--if the 
work we have to do following this next round of comment is 
pretty straightforward and ready for us to do, I can see us 
getting it done by the fall.
    Senator Begich. By the fall. ``Fall'' meaning Alaska fall 
or District of Columbia fall? Let's use the solar.
    Mr. Perciasepe. Okay.
    Senator Begich. The vernal----
    Mr. Perciasepe. The autumnal equinox. Okay, which I think 
is the same in Alaska.
    Senator Begich. Okay. I am just checking. I appreciate it. 
It is important as you get a sense from both.
    Mr. Perciasepe. We know that----
    Senator Begich. I apologize. I was not here earlier to hear 
more explanation.
    Mr. Perciasepe. It should not be, to the two Senators from 
Alaska, it should not be--you should not think we don't know 
how important it is that--keep this from not lingering forever, 
but at the same time, it is equally important that we do the 
best job we can.
    Senator Begich. Get the science right.
    Mr. Perciasepe. So the science has to be right because we 
know that this is going to inform all the going forward work.
    Senator Begich. Very good. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Reed. Thank you, Senator Begich.
    Senator Johanns, please.

                      AERIAL FIGHTS OVER FEEDLOTS

    Senator Johanns. Thank you, Mr. Chairman.
    Mr. Perciasepe, more than a year ago now, I was in my 
Senate office, and I had a group of family cattle feeders, 
ranchers that I was sitting down with. And in the midst of the 
conversation, one of them said to me, ``Mike, what do you know 
about aerial flights by EPA over our feedlot?'' There was an 
uncomfortable silence because I did not know anything about it.
    I certainly could not recall that EPA had made me aware of 
that. I could not remember my then colleague, Ben Nelson, or 
any of my House colleagues, had made me aware of that.
    So I wrote a letter to Lisa Jackson. The essence of that 
letter was, number one, I am interested in what you are doing 
in Nebraska. And number two, is this a national program and are 
you doing aerial surveillance in other parts of the country?
    For whatever reason, she felt that my letter was not 
important enough to warrant a response from her. It was bounced 
to the Regional Administrator, whom I met with. He seems like a 
nice enough guy, but I do not think he speaks for the entire 
Agency.
    So let me ask--oh, and one other point I wanted to add to 
this. In the, I believe it was the farm bill discussion some 
months ago, I put in an amendment that basically would have 
said, ``Hey, you cannot use any funding we give you for these 
kinds of aerial surveillance missions.'' And I got 56 votes on 
that; pretty bipartisan, and I am guessing we could have gotten 
over 60, but there was a lot of pressure when we got that many 
votes to quit voting yes on this thing.
    So let me just ask you today a very simple question. Are 
you doing aerial flights over whatever, feedlots, pork 
production in Nebraska or, for that matter, in any other State 
in the United States currently, or do you have plans to do that 
in the future?
    Mr. Perciasepe. We are not doing anything right now. We are 
in the process for the springtime here of looking at what kind 
of a notification system or other kinds of information we would 
make available before we actually did any of these flights.
    The flights are quite simple. They are fixed wing aircraft 
like a Piper Cub, or a Cessna, or something like that and 
basically designed to help find priority areas to look at for 
people who would be on the ground in the field.
    We don't do any enforcement work, or compliance work, or 
anything based on this reconnaissance. It's simply to help 
guide where we would send actual infield inspectors who would 
actually interact with the landowner.
    Senator Johanns. But it can lead to compliance, and 
enforcement, and fines, and penalties.
    Mr. Perciasepe. Depending on what they see on the ground 
when they get there, but it won't be from, only from what 
happens in the air. The air just simply helps figure out where 
the folks on the ground who talk directly to the landowners go.
    But we are--we have done this in different parts of the 
country, not just in Nebraska and we are evaluating how we 
would--how do we go about our annual notification processes on 
this.
    Senator Johanns. Mr. Perciasepe, I have got two 
observations about this.
    Observation number one is this: why is it so hard for EPA 
to just write me a letter, write my colleagues a letter, and 
say, ``This is what we're doing''? Why is that so difficult 
that my letter would be ignored for a year? I mean, we are 
literally coming up on the first anniversary.
    The second observation I've got is this, as you know, I 
have been around the block a few times. I was the Governor of 
my State. I had a Nebraska Department of Environmental Quality. 
I was the Secretary of Agriculture. I worked with EPA on a 
regular basis. I think I am a pretty well known person out 
here. Why, I can't imagine why you would do this?
    I have always preached that we should work with people. You 
know, if you've got a bad actor, bring the hammer down; no-
brainer. But why would you just go out and fly feedlots? I 
mean, that's just, to me and I think to the average American 
out there, this sounds kind of wacky. It kind of sounds like 
this is a Federal Agency that is completely and totally out of 
control.
    And when I can't get answers to my questions, it feeds into 
that. People have this notion that the EPA is kind of a rogue 
group out there, doing whatever they want to do because the 
United States Senator can't get a simple letter answered. Do 
you see what I'm saying?
    Mr. Perciasepe. Well, when I get back to the office today, 
I will find out what is going on with the answer to your letter 
and make sure you get one.
    But I do have to respectfully disagree with the rogue 
agency characterization. We are trying to actually do exactly 
what you just said: find bad actors in the most efficient way 
by trying to narrow where we would send people to go talk to 
the landowner. That's all we are doing with the aerial flights.
    Senator Johanns. But this is so indiscriminate. When you 
are out there just flying eastern Nebraska, this is so 
indiscriminate. You are flying at low altitudes. You are flying 
over law-abiding people who are trying to do everything they 
can to honor your rules and regulations. And you are not coming 
down on the bad actors. You are checking on everybody and it 
feels terrible.
    It feels like there is a Federal agency out there spying on 
American citizens, and no matter how much I try to convince 
people otherwise or you do, it is still going to feel that way, 
especially when you are lacking so much in transparency when 
you don't respond to letters. When I find I have to show up at 
a hearing and get on a subcommittee so I can ask you question 
as to what is going on because my letters are ignored.
    Mr. Perciasepe. I am concerned about the feelings that you 
are relating in terms of how people feel about it. That's, I 
think, an important thing for us to take into account in terms 
of how we develop a communications effort here. So I will make 
sure that we will get information to you and take these 
concerns back to whatever we are doing.
    [The information follows:]

    On behalf of Administrator Jackson, EPA's Region VII Administrator, 
Karl Brooks, sent a letter to the Honorable Mike Johanns, dated June 
11, 2012, in response to Senator Johanns's letter dated May 29, 2012. 
Enclosed with the letter were more detailed responses to the questions 
in the Nebraska delegation's May 29 letter.

    Mr. Perciasepe. But I want to assure you, the idea here is 
not to spy on law-abiding citizens. We want to make sure that 
like everyone else, they want to make sure that their law--law 
abiding is on a level playing field. And that is, this is a 
very efficient way for us to narrow where we go to on the 
ground to talk to landowners about what they are doing. If they 
are doing everything right, they are not going to--there's 
going to be no consequences from this at all.
    So I understand the perception issue that you are bringing 
up. It is helpful for me to hear the intensity of it and I will 
bring that back.
    Senator Johanns. I am out of time, Mr. Chairman.
    Senator Reed. Thank you very much, Senator Johanns.
    Let me just make one point is that letters from my 
colleagues should be responded to promptly, particularly 
members of the subcommittee who have a detailed interest and 
knowledge of the issues before the Agency. I would hope that 
that would be the norm and that you would take that message 
back too.
    Mr. Perciasepe. Thank you very much.

                         STATE REVOLVING FUNDS

    Senator Reed. I spent my opening comments, I think 
rightfully, raising serious questions about the SRF, but let me 
point to one area where you are providing some, I think, 
necessary relief and that is in the State Categorical Grants 
program.
    My home State, I think, is not a lot different than other 
States that our DEM, our department of environmental 
management, has shrunk from 500 to 390. That is 110 jobs in a 
tough economy. But more than that, it strains the capacity to 
do many of the things that you have delegated the Agency to do.
    Can you comment on the fiscal situation throughout the 
States that, I believe, is one of the motivations for the 
increased funding of State categorical grants? And further, 
perhaps, indicate if sequestration takes place, what further 
impact that could have.
    Mr. Perciasepe. Yes, it is one of the prime motivators of 
that, I point out in addition of the request to the Congress to 
increase those grants. And it is, I have to admit, it is a 
modest amount, but one of the things that I have been working 
on with the environmental commissioners in my double job here, 
my other job is the Deputy Administrator EPA, I have been 
spending a lot of time directly with State environmental 
commissioners through their organization, the Environmental 
Council of the States, which all the States are a member of.
    And we have been working on how to improve--given the fact 
that all of us are constrained and we have the laws to 
implement together, how do we look at this as a holistic team, 
so to speak? You know, using that enterprise word again, I say 
the environmental protection enterprise of the United States is 
really the tribes, the States, and EPA together.
    So how do we make that partnership work? And we are very 
keen on improving their, by a relatively small amount, their 
financial situation, but also on how we share the work.
    So when I mentioned E-Enterprise earlier, a number of the 
States, due to the necessity that you've pointed out have 
turned to using a more electronic transactional process with 
the world. Similar like what any of us might do with an 
airline. You know, how do we get our tickets? How do we book a 
hotel room these days? Many of us, and I don't want to speak 
for everyone, but many of us will just go online and do it.
    Our transaction with our banks are getting more online and 
the security systems that have been put in place, you know, 
we've never translated them over to, you know, in how you can 
do that in the public forum.
    So some States have started to look into how to do this. 
Some of them have convinced their general assemblies to provide 
capital funds. You know, the Federal Government doesn't have a 
capital and operating budget. I'm used to that in my State and 
local experience. But the idea is you can capitalize some of 
these investments over time because they pay for themselves in 
efficiency.
    So just a neighboring State of yours, Connecticut, I think, 
is one of the ones that has been doing that and we have been 
working closely with them to see how they're going about doing 
that.
    So we are not looking just at increasing the funds, which 
is very important. But we are looking at how we work together 
and share work. Can we change that dynamic? Can we improve 
priority setting between the States and EPA so that we are not 
chasing everything all the time? And can we come to a point 
where the information flow is not redundant?
    So if I am a holder of a permit, I don't have to send my 
stuff to the State and send my stuff to different parts of the 
State, different parts of EPA. They can go to one place where 
they do their transaction. So much of the world has achieved 
this and many States are thinking this is a way to deal with 
some of the constraints that they have.
    And the Congress, last session, approved the E-Manifest 
System for tracking the transport of hazardous waste. I mean, 
we were still using pink, blue, and yellow carbon copy paper, 
or actually we still are, because we are required by law to be 
using paper copies. And so all the hazardous waste that is 
moving around the country has got paper following it around; 
millions and millions of pieces of paper at great expense.
    And so if you have ever purchased anything from virtually 
any online system, you could actually, and if you use FedEx 
to--I am not advertising here. I want to show that----
    Senator Reed. UPS.
    Mr. Perciasepe [continuing]. As an example of many. L.L. 
Bean does the same thing. So you can track where your package 
is down to which post office it's in.
    In fact, with some company, I should stop naming them, but 
I recently ordered a vest from, I got an email that they had 
put the package in my backyard. So, these systems exist, but we 
don't have them for tracking hazardous waste.
    So you passed that legislation last year and that's part of 
the kind of concept that we're talking about here. Get to the 
point where we're using these modern technologies.
    I go on a little about that, because I feel pretty 
passionately about the relatively modest investment we're 
asking by moving funds around, because this will let us link up 
with the States to be more efficient. And then the modest 
increase in the State funding will also help.
    I should point out that the $60 million your staffs have 
identified and that we've identified to you, also include some 
startup design money for some States who don't have, may not 
have the ability to get started.
    So I'm sorry for that long answer, but this is one of my 
highest priorities, figuring out how we improve our working 
relationships with States. The money is a piece of that, but 
not the only one.
    Senator Reed. Thank you very much.
    Let me recognize Senator Murkowski.

                            PM<INF>2.5</INF>

    Senator Murkowski. I would like to pick up a subject that 
we have had a lot of discussion on here in this Appropriations 
subcommittee with our colleagues from the EPA, and that is the 
situation in the community of Fairbanks, Alaska with the 
particulate matter, the tightened standards for small, 
particular matter the PM<INF>2.5</INF>.
    I know that it is a subject that you are prepared on 
because we talk about it all the time. The problem for the 
people of Fairbanks is we have not been able to gain any 
flexibility from the EPA on this issue, and it becomes more and 
more serious.
    This is the second largest community in the State of 
Alaska. It is probably the coldest city in America for its 
size. They are trying to meet these new standards. They are 
working to provide some incentives for the residents to change 
out their older furnaces and their older stoves and boilers for 
more efficient pieces of equipment.
    We have asked the EPA to work with us in terms of timeline. 
We have asked whether there might be grants available for doing 
the change out.
    Right now, what the Fairbanks North Star Borough is 
proposing is a research program where they are looking to 
define whether or not emission reductions can be achieved by 
doing a switch out and effectively moving to more efficient 
means of heating their homes. When it is 40-50 below zero in 
Fairbanks, not heating your home is not an option.
    And unfortunately, their options are really very limited. 
It is either coal, it is wood, it is home heating fuel. We do 
not have natural gas into the community. We are trying to get 
there. And we have asked EPA for leeway on this.
    So the question to you this morning is whether or not you 
have identified any areas where there might be some level of 
assistance that the Agency can provide with the--it is about a 
$4.5 million cost to the study, or the funding that we have 
asked for to help the residents move from one technology to 
another? Whether there is anything that can be done to provide 
for this.
    We are now trying a firewood exchange program where 
homeowners are swapping out wet wood for dry wood. You are 
talking about technologies here with the chairman that leads us 
to greater efficiencies.
    We are going back into the Stone Age practically and 
telling the people of Fairbanks, ``Well, the way that you're 
going to deal with your emissions is you're not going to burn 
wet wood. You're going to burn dry wood.'' Well, the fact of 
the matter is we are burning wood to keep warm.
    So if there are no areas given the tight budget that we are 
dealing with, you can help us with in terms of assistance.
    Is the Agency looking at an extension to give the community 
more time to meet the new standards before this penalty phase 
begins in 2016? The community is working aggressively on 
alternate plans, whether it is trucking natural gas from the 
North Slope. We are looking at alternatives to bring gas up 
from the South. But we all know that you cannot flip a switch 
and make it happen between now and then. Assessing penalties on 
top of a community that is already socked with high, high, 
high, exorbitantly high energy costs is really not the way to 
go.
    So what can you offer the residents of Fairbanks in terms 
of some level of assurance that you are willing to work with 
us?
    Mr. Perciasepe. Well, I think that's the key right there is 
to keep working on this together. I don't know that we have the 
right solution yet, so I can and will offer to do the continued 
effort to try to see if we can get through this period.
    I think, obviously, you've mentioned a couple of ideas in 
your comments there in the long haul about natural gas and 
other things like that. And I'm sure if Fairbanks wants to get 
to that point.
    I am not inexperienced with this issue. I heated my own 
home in upstate New York with wood for 5 years with my father 
and that was my job was to cut the trees. And I know that they 
are wet most of the time in the winter.
    So I am painfully familiar with this particular issue and 
want to offer that we'll continue working on it with you and 
with the State of Alaska to see if we can come to the right 
place.
    Senator Murkowski. Well, Mr. Perciasepe, I appreciate that. 
It doesn't necessarily comfort me because I have received the 
same assurances from Administrator Jackson. The people of 
Fairbanks, it is not a short winter up there. It is a long, 
cold, dark, winter and, again, when you don't have many 
alternatives, you are looking for some assistance.
    I will ask then, the same thing I asked the Administrator. 
Sit down with us and let's go through some of these areas where 
we don't feel that the Agency is working with the residents. 
Whether it is the issue that I raised with Fairbanks in 
PM<INF>2.5</INF> or what I raised in my opening statement with 
the solid waste incinerator rule, and the impact that it has on 
a small husband-wife veterinary clinic in Soldotna.
    It seems to me in that particular instance, and I will let 
you address that, but it seems to me that there should be a way 
to address this administratively rather than having to assess 
this veterinary clinic $50,000 to do an annual test to make 
sure that they meet the compliance.
    So I would like your assurance that you will work with us 
on issues that may not be that big in terms of your Agency's 
perspective, but for this community and for this small 
business, it is everything because it is this regulation that 
could shut this business down.
    Mr. Perciasepe. I do know that we have discussions going 
on, on that particular rule that you are expressing the 
concerns that the vet has.
    I believe some of the folks from Alaska are visiting our 
North Carolina office this week to talk through some of these 
issues, and later, in a couple more weeks in May, we're going 
to get a bunch of other people down.
    So I will make sure that the people at EPA who are doing 
that work and that group of incinerator operators and some of 
the others that are involved from Alaska, know that you and I 
have talked about this. We would be able to talk about it a 
little bit more perhaps tomorrow.
    But I want to make sure that you know that we have that 
little process going on. That we are going to be meeting with 
those folks, and we are going to be looking under every stone 
to see how we can build a path forward there, so.
    Senator Murkowski. Well, maybe we can look at our list 
tomorrow then.
    Mr. Perciasepe. Yeah. I know that both of these answers are 
more process than absolute answers, but part of our work, I 
think, together is to get a process to make sure that we get to 
the answer.
    Senator Murkowski. Mr. Chairman.
    Senator Reed. Thank you. Senator Begich.
    Senator Begich. Thank you very much, Mr. Chairman.
    I just have a couple of quick questions. One is on the 
general issue of resource development within Alaska, maybe 
mining, oil and gas, and so forth.

                    SEQUESTER AND PERMITTING PROCESS

    But regarding the sequester and also your budget into the 
future, can you give me a feeling on the impacts that you would 
see in regards to the permitting process as well as how long it 
takes with regards to these two types of impacts you have it on 
the budget? And especially around these issues, as you know, 
our seasons are very unique. They are not year round, in some 
cases of how the developments have to be set up and proposed.
    Mr. Perciasepe. Well, I think the--as a general matter, the 
way the sequestration happened in this particular budget year 
is it was spread out, you know, around. There was very little 
ability and we can--I'm not trying to say one thing or another 
about that, to say, ``Well, we'll do much less of that and only 
a little bit of this.''
    Senator Begich. Right. You have the flexibility----
    Mr. Perciasepe. Oh, right.
    Senator Begich [continuing]. By division within the Agency 
essentially.
    Mr. Perciasepe. So what we--what we've done is tried to 
mitigate that as much as possible, but the inevitable effect of 
everything being a little bit less is that there will be some 
delays or some choices that have to be made a little bit more 
than they were without it.
    So I would expect that there will be fewer inspections; 
that some permits will take longer. This is the kind of stuff 
that--and the reviews, and the processing of grants, and things 
of that nature are all going to take a little bit longer. If 
you want to cumulatively say they will all take 5 percent 
longer, you know, that's one way to think about it.
    On the other side of the coin, when you don't have enough 
flexibility between the personnel budgets and the non-personnel 
budgets, you end up with a situation where some of the people 
are going to be not working full time. So we have a--well, 
they'll be full time employees, but they won't hit every day 
because we have to furlough some of them.
    And at EPA, we've tried to minimize that. We've got it less 
than 5 percent because we were able to do some things where 
there was some flexibility. So we're now no more than 10 days 
of all our employees will be furloughed.
    But I think that that is--we might be able to reduce that a 
little bit more. We're going to look in June one more time to 
see if were able to make any savings. But I think the simple 
answer is there'll be some slowing across the board.
    But on issues in Alaska, I personally participate with 
David Hayes, the Deputy Secretary of the Interior, who I know 
you guys are all familiar with particularly in Alaska, who's 
chairing our interagency group, and we meet frequently. We have 
phone calls frequently to make sure we're keeping our eye on 
the ball with the critical and often difficult issues in 
Alaska----
    Senator Begich. Right, the timetables, the seasons, and so 
forth, right?
    Mr. Perciasepe. Yes.
    Senator Begich. Well, I think that--I know Senator Blunt 
has a piece of legislation that I signed on to regards to 
flexibility with essential employees. So I don't know how that 
plays with EPA, but I know it's an important aspect that you 
have as much flexibility as possible. Because those permits, if 
they're delayed by a month or two, it could cause, as you know, 
a whole season missed in development. But I thank you for that 
comment.
    But also I appreciate your end comment there that you're 
working with Under Secretary Hayes regarding the coordinating 
effort. That, to me, has been a huge plus for us in Alaska and 
it's had some ability to move some things that may be not as 
fast in the past because of different agencies having debate 
and so forth. So I appreciate that.
    Mr. Perciasepe. I agree that that has enabled us to resolve 
issues more quickly and, you know, between all the different 
agencies, and it's been a very helpful process.
    Senator Begich. Very good. Let me, if I can add one other 
thing, and I was listening to your comments on kind of the E-
Government component of what you're trying to do. And it 
actually surprised me a little bit, while nothing surprises me 
around here anymore, but that a law requires you to keep the 
paper, and you had to get the law changed in order for you to 
come into the 21st century.

                              E-GOVERNMENT

    I would ask you this, and I would be very interested in 
working with you on this. Sometimes I think legislative bodies 
have a bad habit of wanting to legislate down to what pencil 
and size of pencil you buy, and the grade, and everything. And 
I want to, I guess, not just you, but other agencies, give you 
the flexibility especially in order to get into the E-
Government ability because without that, you are way behind in 
a lot of areas.
    So I would be very interested in: are there things within 
the legislative arena that we have hamstrung you in the ability 
to move into this 21st century technology? You don't have to 
tell me now, but if you could prepare something that says, you 
know, ``Here's some laws that prevent us from going to 
electronic because we have these three things that are in the 
law that requires to have things in triplicate, and we have to 
have them in paper, and we have to have certain files.''
    I would be very interested in that because part of the 
budget process, that's what we're here to do, is find ways to 
make you more efficient. But if we have created some 
legislation that requires you to--you know, like I always have 
this argument. This black suitcase or briefcase I carry around, 
my view is always if it's more than what fits in there, I've 
got too much to file and I honestly believe that. It is what I 
carry. That's my file. That's my information. Anything more 
than that is way too much. So when I'm not using technology 
properly.
    So I would be very interested in any of that kind of issue 
that you could bring forward to us.
    Mr. Perciasepe. We will follow up on that. I know it's not 
just the legislation. It's also some of the regulations that 
we've done in the past. Many of these laws were passed 20 years 
ago before people visualized the kind of world we're currently 
in.
    Senator Begich. Right.
    Mr. Perciasepe. I don't think it was anybody's fault, but 
they wanted to make sure that they could keep track of these 
things, and so did some of the regulations EPA and other 
agencies did back then.
    So it requires a combination of looking to make sure there 
are no legislative barriers, and I think we've got one of the 
big ones, because I think we'll save over $100 million a year 
for the regulated industry when we get that implemented.
    Senator Begich. That's great.
    Mr. Perciasepe. But I think it's going to be a joint 
effort, I think, between the Congress and the executive branch 
to look at how we've constructed the systems we have, you know, 
maybe even from a lean analysis look.
    Senator Begich. Okay.
    Mr. Perciasepe. To find those--where those sore spots would 
be. So I will look at that.
    Senator Begich. We would be very happy. I did a lot of that 
when I was mayor of Anchorage where we really, you know, 
implemented a lot of E-Government and it changed the whole way 
we did business. And the customer's much happier because the 
timetable has changed in a positive way. So I'd be very anxious 
to work with you. Thank you.
    Thank you, Mr. Chairman.
    [The information follows:]
    Information on Laws That Prevent the EPA From Going Electronic 
                  (Electronic Filing) in Certain Cases
    Many of EPA's statutes were enacted in the 1970s and 1980s when 
electronic communications were much less common and submissions of all 
types were typically done on paper. EPA has made great progress in 
moving our programs toward more efficient and less wasteful electronic 
systems. For example, the vast majority of Toxic Release Inventory 
reporting is now done electronically. The Agency is currently engaged 
in a number of rulemakings to increase electronic reporting, which will 
continue to move the Agency away from systems that rely on paper 
submissions.

    Senator Reed. Senator Blunt.
    Senator Blunt. Thanks, Mr. Chairman.

                           NEW SOURCE REVIEW

    I want to get to New Source Review in a minute. I did not 
intend to talk about this, but Senator Johanns's questions were 
particularly--the answers were particularly troubling to me.
    Where do you think you have the authority to fly over 
people's property and see if they are doing anything wrong?
    Mr. Perciasepe. I'm not really prepared to do some kind of 
legal analysis here, Senator, but I would say that that there--
the general authority that EPA has to inspect, to implement the 
laws that the Congress has passed, and we're also trying to be 
efficient. We're trying to only, you know, use our scarce 
resources in places where there appears to be some problem. And 
I don't know why that concept is difficult. I think we can 
understand that concept.
    I think the issue which I think the Senator made it more 
clear to me than I've heard before is that people who feel like 
they are--they are not a problem, why are they having a, you 
know, something fly over their house. And so I mean I think I 
will----
    Senator Blunt. I would think a guy from upstate New York 
would understand that if you thought about it for very long.
    Mr. Perciasepe. Dairy, I lived in the dairy country.
    Senator Blunt. Exactly. My mom and dad were dairy farmers. 
I understand that whole concept of the Government and you.
    But now, you can't just walk onto somebody's property, can 
you, because you think they might be doing something wrong or 
can you?
    Mr. Perciasepe. I don't know the answer to that.
    Senator Blunt. And you said it's not like you were spying 
on people.
    What term would you use?
    Mr. Perciasepe. We were looking for where there may be 
animals and their waste in the water. So we're not looking at 
people at all.
    Senator Blunt. So you're spying on animals.
    Mr. Perciasepe. Well, we're looking to see where we would 
send inspectors to see if there was a problem of water 
pollution. So I don't know that animals are what we're spying 
on. We're looking at the conditions that could be creating 
water quality violations.
    Senator Blunt. You know, I work for almost 6 million 
people. I am trying to figure out how many more than 5 million 
of them would be concerned by this. But I think at least 5 
million of them would say, ``I really don't like the sense of 
that.'' That the EPA can do things that, I don't know that law 
enforcement without any reason can just fly around. Maybe they 
can.
    It is troublesome to me and I do not want to use all my 
time on this, but I think you should say, if I was going to 
sequester something at the EPA, I think I would sequester this 
surveillance flying around at the top of the list. I wouldn't 
want to be trying to justify that if I couldn't get a permit 
issued for somebody to do something that creates private sector 
jobs, for instance. That would be my sense.
    I saw a report, just came out, from George Washington 
University that the regulatory rules from the Federal 
Government in 2012, by their own estimate, exceeded the cost of 
the entire first term of the two preceding Presidents. That the 
regulatory rules in 2012, by the administration's estimate, 
exceeded the cost of the first terms of President Bush and 
President Clinton.
    And one of those rules, this New Source Review standard. It 
looks like--I don't know how you could possibly build a coal 
plant. Our State, I think we are number six in the country. We 
are 82 percent-or-so dependent on coal. I guess you can't build 
a plant without carbon capture storage.
    Do you believe that that is commercially feasible today, 
carbon capture storage?
    Mr. Perciasepe. Let me make sure I know which rule you're 
talking about.

                    NEW SOURCE PERFORMANCE STANDARDS

    Senator Blunt. I'm talking about the New Source Performance 
Standards.
    Mr. Perciasepe. Standards for electric generating.
    Senator Blunt. Right. Exactly.
    Mr. Perciasepe. Well, I was actually co-chair with the 
Department of Energy on the carbon capture and storage report 
that we did for the President.
    Senator Blunt. Oh, good. Well, you are a good guy to ask 
this question.
    Mr. Perciasepe. The simple answer is that all the pieces of 
that technology exist. People use it now. People use it now for 
enhanced oil recovery projects and things of that nature. But 
having it altogether in a package has not been constructed 
except in demonstration projects.
    We received a lot of comments on that proposal, I think 2.7 
million comments on that proposal, and that's why we're taking 
our time to look at that, and we haven't finalized that rule 
yet. We have to continue to look at those comments and figure 
out some of the issues that you're bringing up.
    But one of the things we did in that proposal is provide a 
long averaging period, like 30 years, so taking into account 
the potential of that type of evolution of technology.
    However, we did get a lot of comment on that as well, 
Senator, and I think that's what, you know, that's among many 
things that we're looking at before we would finalize that.
    Senator Blunt. Well, it--one of the things I am sure you 
have been asked to study is just the overall question of this 
rule that, if the rule is promulgated it absolutely prohibits 
future activity in this area?
    And if carbon capture is not commercially realistic, what 
you are really saying if you move forward with this rule that 
you have had lots of other people comment on already, is can't 
build a coal-fired plant in the country.
    Mr. Perciasepe. I wouldn't make that complete conclusion 
because of the averaging concept that we put in there. What we 
have to determine is whether or not that is a feasible approach 
to dealing with the diversity of fuels that are out there.
    So I recognize that some people view it the way you've 
recognized it and we certainly got tons of comment on that. So 
we have to look at the idea that if the technology's not 
available now when would it be available and how do you build 
that into the future? We have to continue to work on that.
    Senator Blunt. Thank you.
    Thank you, Mr. Chairman.
    Senator Reed. Thank you, Senator Blunt.
    Let me recognize Senator Murkowski for any comments she has 
in conclusion.
    Senator Murkowski. Thank you, Mr. Chairman.
    And Mr. Perciasepe, thank you for being here this morning, 
trying to work through some of our questions.
    I do have a host of other questions that I will be 
submitting for the record, everything from Keystone Pipeline, 
hydraulic fracturing, forest roads, sulfur content, greenhouse 
gas, powerplant rulemaking, commercial fishing sector. I think 
I could probably spend the rest of the afternoon with you, but 
unfortunately we do not have the time allowed.
    But one thing that I would like to just leave with you, not 
necessarily in a question format for you this morning, but just 
something that I would like you and those in the Agency to 
consider.

                          COST BENEFIT ANALYSIS

    We talk a lot around here about cost benefit analysis at 
times of declining budget. It is important. We are making sure 
that we get good value for the dollar. And the President has 
asked, he says we want to, again, make sure that we are doing 
things in the right areas.
    And it was just, well, it was this month that the U.S. 
Chamber of Commerce came out with a study regarding the impacts 
of EPA regulations on employment within the United States. And 
in that study, they found that the EPA is using what they 
consider to be some overly optimistic forecasts that overstate 
the benefits of regulation and understates their cost.
    And they go through their assessment in terms of how they 
reached this conclusion. They went on further to provide that 
the correct approach for assessment of the overall impacts of 
rules with large economy-wide costs is to calculate the impact 
of regulation compliance costs through a whole economy model.
    And it is something that, I think, many of us are talking 
about is how do we accurately reflect the costs and the 
benefits?
    There was an opinion piece recently in The Hill, which 
referred to this. This is a gentleman, Jeff Rosen, who is the 
former general counsel over at the Office of Management and 
Budget (OMB). And he cites a rule that was proposed by the EPA 
back in 2011 that relates to equipment that powerplants and 
manufacturing facilities use to draw in water to prevent 
overheating.
    EPA gets concerned about the impact of these water intake 
systems on larva or fish. So they do an assessment, EPA does an 
assessment. They find that the rule would impose $466 million 
in annual costs on powerplants and consumers, while the 
benefits would be about a $16 million benefit. So in other 
words, you've got $1 of cost for every 3 cents in fish 
benefits.
    So then what EPA does is after they do this assessment, 
they chose to mail out a survey to several thousand households 
asking them to place a value on how fish and other aquatic 
organisms make them feel. Now, I don't know how you define how 
a fish makes me feel, but the survey asked how much people 
would be willing to save 600 million fish.
    And then last summer, EPA published a notice based, in 
part, on this fish survey showing that the fish benefits are 
now $2.2 billion per year. This is a 14,000-percent increase 
over the initial estimate.
    So it kind of speaks to the point that I have made that 
when we talk about costs benefit and the analysis, I think it 
is important to really understand in fairness how we have 
arrived at these analyses because it is important as we, as 
policymakers, make determinations, try to figure out how we 
advance legislation that is good, sound policy, good for the 
economy, good for jobs.
    And so when we see things like this where it would appear 
that you are truly overstating benefits based on what most of 
us would suggest is a pretty flimsy survey, it casts doubt on 
whether or not there is any credibility to the analysis.
    So rather than putting you on the spot and saying, ``Is 
this fair? Should we restructure it?'' I think it is something 
that I would ask the Agency to look at critically. Take, not 
necessarily that the U.S. Chamber of Commerce has all the 
answers, but again, for us in policymaking positions, you as 
the agencies working to move through regulations, we want to 
make sure that there is good value to taxpayers throughout all 
of this.
    So how we do these analyses fairly, I think, is something 
we should all be focused on, and I would welcome your input and 
that of others within the Agency as we kind of move forward on 
this. But I do appreciate you being here.
    And again, I appreciate the chairman, the thoughtful way 
that you not only conduct the hearings, but in getting us to 
the point where we have good, thoughtful, constructive 
hearings.
    Senator Reed. Thank you very much, Senator Murkowski.
    I think she makes an excellent point. These cost benefit 
analyses are critical and there are some things you can measure 
easily, you know, the cost to put a boiler in. There are costs 
and benefits that are hard to measure because there are social 
costs or social benefits. So I think her point is well taken as 
your analysis has to be very nuanced, sophisticated, and 
factually based on both the cost side and the benefit side. So 
I will echo that thought.

                     ADDITIONAL COMMITTEE QUESTIONS

    I thank you very much, Mr. Administrator. I am sure there 
are many questions that will be forthcoming. I will ask that 
all questions be submitted by May 1, next Wednesday, and then 
ask you to respond as promptly as possible to the questions.
    [The following questions were not asked at the hearing, but 
were submitted to the agency for response subsequent to the 
hearing:]
                Questions Submitted by Senator Jack Reed
               fertilizer plant explosion in west, texas
    Question. What was EPA's role in assuring safe handling and storage 
of the chemicals at the facility in West, Texas that exploded on April 
17, 2013?
    Answer. EPA is responsible for implementing regulations and 
policies both under the Clean Air Act and under the Emergency Planning 
and Community Right to Know Act (EPCRA). The regulations under these 
laws required West Fertilizer to prepare a Risk Management Plan (RMP) 
under section 112(r) of the Clean Air Act (the Risk Management Program) 
and EPA regulations at 40 CFR part 68. West Fertilizer was also 
required to report their chemical inventory to local and State 
officials under EPCRA sections 311 and 312. West Fertilizer did submit 
an RMP in June 2011 as well as a chemical inventory form for calendar 
year 2012.
    Under the Risk Management Program, a covered facility is required 
to conduct a review of the hazards associated with covered substances, 
processes and procedures, and then develop a prevention program and an 
emergency response program addressing those hazards. The ``regulated 
substances'' are chemicals which, by virtue of an accidental release to 
the ambient air, have the potential to cause serious adverse effects to 
human health and the environment. The Risk Management Program is not an 
``all hazards'' regulation. It is aimed specifically at risks arising 
from the accidental release of a covered substance to the ambient air. 
Accordingly, ammonium nitrate is not a covered substance under the Risk 
Management Program. West Fertilizer did submit an RMP to EPA for the 
anhydrous ammonia at its facility. This is the only chemical present at 
the facility for which an RMP was required.
    The ``Hazard Review'' conducted under this process must identify 
opportunities for equipment malfunction or human error (such as flood 
or fire), that could in turn cause the accidental release of covered 
substances, as well as safeguards to prevent the potential release, and 
steps to detect and monitor for a release. These requirements are 
documented in the RMP that is submitted to the EPA. A covered facility 
must implement the RMP and update it every 5 years or when certain 
changes occur. The EPA is responsible for implementing and overseeing 
this program which includes the development and implementation of 
regulations and policy, providing technical assistance, carrying out 
inspections and conducting enforcement at covered facilities.
    The EPA Region 6 conducted an RMP inspection at the West Chemical & 
Fertilizer Co. on March 16, 2006. The inspector observed the processes 
and the equipment at the facility, and reviewed the facility's RMP and 
associated records. The inspector identified the several violations, 
including:
  --failure to update the RMP (the update due in 2004 had not been 
        submitted), including updating the Hazard Assessment and Hazard 
        Review and consequences of deviation in operating procedures,
  --failure to properly document new operator training,
  --failure to develop a formal mechanical integrity program, and
  --failure to conduct compliance audits.
    In accordance with the EPA approved penalty policy in place in 
2006, on June 5, 2006, the Region issued a proposed Expedited 
Settlement Agreement (ESA) which assessed a penalty of $2,300 to West 
Chemical & Fertilizer Company. The company submitted its updated RMP on 
July 7, 2006 and paid the penalty. As a condition of the ESA, the 
company was required to correct all deficiencies identified during the 
inspection. The Agency issued the final ESA on August 14, 2006.
    Sections 311 and 312 of EPCRA require facilities to submit to State 
and local emergency planning authorities (but not to EPA) information 
on hazardous chemicals on-site in order to help communities prepare for 
and respond to chemical accidents. Ammonium nitrate is reportable (in 
quantities above 10,000 lbs) under this regulation and it appears at 
this time that West Fertilizer had reported as required.
    For each extremely hazardous chemical as listed under section 302 
of EPCRA, or each hazardous chemical (including explosives) as defined 
by the Occupational Safety and Health Administration (OSHA) Hazard 
Communication Standard at a facility in excess of established threshold 
amounts, the facility must annually submit a Material Safety Data Sheet 
(MSDS) and a Hazardous Chemical Inventory Form (Tier II form) to their 
State Emergency Response Commission (SERC), their Local Emergency 
Planning Committee (LEPC) and their local fire department. The MSDS 
contains information on chemical identification, health and physical 
hazard, necessary personal protective equipment and emergency response 
procedures. The Tier II form contains facility identification, chemical 
identification, the form of chemical present, the amount of chemical 
on-site and days per year on-site, the location of the chemical at the 
facility and the type of storage used.
    As noted above, West Chemical and Fertilizer submitted Tier II 
forms in 2012 for seven chemicals, including ammonium nitrate and 
anhydrous ammonia. This information is designed to be used by State and 
local authorities for preparing for and responding to potential 
accidents. Fire departments may use the information to help them in 
addressing issues or compliance with fire codes and safe storage of 
chemicals under applicable State or local laws.
    Question. What regulatory authority does EPA have to limit the 
types or amounts of chemicals at a facility for safety concerns 
compared to its Federal and State partners? Please provide a detailed 
explanation that explains the agency's roles and responsibilities 
compared to its partners.
    Answer. Under the current Clean Air Act (CAA) section 112(r) Risk 
Management Plan regulations at 40 CFR part 68, the EPA does not have 
authority to limit the types or amounts of chemicals at a regulated 
facility for safety concerns.
    The CAA section 112(r)(1) General Duty Clause (GDC) can require 
facilities to take steps to ensure compliance with the general duty. 
The GDC requires facilities to identify hazards which may result from 
releases using appropriate hazard assessment techniques, to design and 
maintain a safe facility taking such steps as are necessary to prevent 
releases, and to minimize the consequences of accidental releases which 
do occur. Such steps could include limiting the type or amount of 
chemical to address unsafe conditions or hazard present at the source. 
The EPA's GDC is similar to that of OSHA in the Occupational Safety and 
Health Act.
    CAA section 112(r)(9) authorizes the EPA to take actions to abate 
any ``imminent and substantial endangerment to human health or welfare 
or the environment because of an actual or threatened accidental 
release of a regulated substance.'' In such cases where such a danger 
exists, EPA can require facilities to limit a chemical's presence in 
order to address the threat.
    The EPA does not have sufficient familiarity with the regulatory 
authority of its partner agencies to provide the comparative analysis 
requested. We respectively defer to our partners agencies to explain 
the nature of the regulatory authority that they implement.
    Question. How does EPA coordinate with other Federal agencies such 
as the Department of Homeland Security to ensure chemical facility 
safety and security?
    Answer. On a Federal level, the EPA has an effective working 
relationship with key Federal agencies involved in chemical safety, 
including OSHA, the Department of Homeland Security (DHS), the Chemical 
Safety Board (CSB), and the U.S. Department of Transportation (DOT). As 
part of our collaboration and coordination with these agencies, we meet 
regularly or as issues arise to discuss areas of interest in our 
programs and how to work together to better implement our respective 
programs and promote chemical safety. An example of such cooperation is 
the ongoing sharing of information between the EPA and DHS and OSHA. 
Since the EPA completed building the RMP database, it has been 
available to OSHA, and they have used it to (in part) prioritize their 
inspections. Since the advent of the Chemical Facility Anti-Terrorism 
Standard (CFATS), the EPA has made our RMP facility database available 
to DHS, and continues to do so.
    In addition, on August, 1, 2013, the President issued Executive 
Order (EO) 13650 establishing a Chemical Facility Safety and Security 
Working Group and setting forth additional actions to be taken by the 
Federal Government in an effort to further improve the safety and 
security of chemical facilities and reduce the risks of hazardous 
chemicals to workers and communities. The Executive Order calls upon 
Federal agencies to initiate innovative approaches for working together 
on a broad range of activities, such as identification of high-risk 
facilities, inspections, enforcement, and incident investigation and 
follow up. Additionally, Federal agencies are specifically directed to 
modernize the collection and sharing of chemical facility information 
to maximize the effectiveness of risk reduction efforts and reduce 
duplicative efforts. EPA will co-chair the working group and has taken 
steps toward compliance with the EO. For example, EPA, OSHA, and DHS 
have deployed the regional pilot program that will validate best 
practices and test innovative new methods for Federal interagency 
collaboration on information collection and utilization, inspection 
planning, and stakeholder outreach.
    Question. Risk management plans describe the ways in which a 
facility reduces the likelihood of accidental releases of extremely 
hazardous substances and their plans for dealing with any accidental 
releases which may occur. Please describe the enforcement 
responsibilities of the agency's Risk Management Plan.
    Answer. The RMP is a summary of the facility's risk management 
program and is to be submitted to the EPA. In general, the RMP 
submitted by most facilities includes the following: executive summary; 
registration information; off-site consequence analysis; 5-year 
accident history; prevention program; and emergency response program.
    Owners or operators of a facility with more than a threshold 
quantity of a regulated substance in a process, as determined under 40 
CFR section 68.115, must submit an RMP no later than the latest of the 
following dates: 3 years after the date on which a substance is first 
listed under 40 CFR section 68.130; or the date on which a regulated 
substance is first present in a process above a threshold quantity. The 
RMP must be reviewed and updated at least once every 5 years from the 
date of a facility's latest submission.
    RMP inspections ensure compliance with the Risk Management Program, 
and these inspections can lead directly to enforcement actions for 
regulatory violations as they involve on-site verification activities. 
Most EPA oversight and enforcement of CAA section 112(r) and 40 CFR 
part 68 involve inspections.
    EPA takes enforcement actions against facilities that fail to 
submit an RMP and those that fail to comply with the other part 68 
requirements. For example, if there is evidence of a facility's failure 
to perform an initial process hazard analysis on covered processes (40 
CFR section 68.67) and failure to train an employee involved in 
operating a covered process (40 CFR section 68.71) then EPA could (and 
does) take an enforcement action to assess penalties and obtain 
compliance for both violations. If a facility has not submitted an RMP 
but has a chemical accident prevention program in place which satisfies 
the specific part 68 requirements, a single count for failing to file 
an RMP may be appropriate. See Combined Enforcement Policy for Clean 
Air Act 112(r)(1), 112(r)(7), and 40 CFR part 68, dated June 2012. 
(http://www.epa.gov/enforcement/air/documents/policies/gdc/
112rcep062012.pdf)
    Question. How much funding has been provided for the Risk 
Management program in fiscal year 2013, and how much funding is 
requested in the fiscal year 2014 budget request?
    Answer. The agency Risk Management program resource level in the 
fiscal year 2013 Enacted Operating Plan is $12.2 million (including a 
$655,000 reduction for sequester) and $14.1 million in the fiscal year 
2014 President's budget request. This includes a $0.8 million increase 
to support additional high-risk chemical facility inspections. The 
request will enable EPA to conduct 460 RMP inspections in fiscal year 
2014. Of these inspections, 34 percent will be conducted at high-risk 
facilities.
                        environmental education
    Question. What is the rationale behind eliminating a centralized 
environmental education program, and what benefit does the 
administration expect to achieve? Please explain how EPA plans to 
effectively manage environmental education grants if they are spread 
across EPA programs rather than centrally coordinated.
    Answer. Eliminating the centralized Environmental Education (EE) 
program allows the Agency to better integrate environmental education 
activities into existing Agency programs under a streamlined and 
coordinated approach. The EPA remains committed to environmental 
education and outreach and will continue to ensure that all of the 
EPA's content and information is available to students, educators and 
communities.
    In fiscal year 2014, the EPA will employ an intra-agency approach 
to environmental education grant making which will allow the Agency to 
leverage existing full-time equivalent (FTE) and grant management 
resources. This intra-agency coordination will maximize reduced 
resources and afford additional programming that has a greater impact 
on 21st century EE needs. By integrating EE into all of our program 
offices via funds and support from the Office of External Affairs, we 
are confident that the EPA's work in educating the American public will 
continue in a more effective way than previously structured.
    For the past 3 fiscal years the EPA's EE grant program has been 
aligned with the agency priorities in air, water, solid waste, toxic 
substances and expanding the conversation on environmentalism. These 
are many of the same programs that have existing EPA authorities that 
enable the EPA to perform the new environmental grant and outreach 
approach. These authorities include: Clean Air Act; Clean Water Act; 
Solid Waste Disposal Act; Safe Drinking Water Act; Toxic Substances 
Control Act; Federal Insecticide, Fungicide, and Rodenticide Act.
      southeast new england coastal watershed restoration program
    Question. What progress does EPA expect to make on the Southeast 
New England Coastal Watershed Restoration initiative in the current 
fiscal year?
    Answer. In fiscal year 2013, the EPA expects to build on the 
progress made over the past year, bringing together a variety of 
stakeholders for the restoration of coastal southeast New England 
waters. The EPA has met extensively with Federal and State agencies as 
well as key stakeholders and the two local National Estuary Programs 
(Narragansett and Buzzards Bay) across Rhode Island and Massachusetts. 
Response has been positive, with a specific desire to devise a 
collective approach to advance key habitat and water quality 
restoration priorities, particularly in work that helps achieve both 
objectives. Key progress and activities to date are summarized below.
    The EPA facilitated sessions of a broadly composed working group 
drawn from Partnership members to: Develop a vision statement, draft 
restoration framework, and explore organizational options for 
sustaining implementation over the long-term; analyze approaches to 
regional-scale restoration that merges both habitat and water quality 
objectives, with a specific focus initially on nutrients; and identify 
gaps in existing programs and highlight potential opportunities for on-
the-ground restoration projects.
    The EPA provided staff analytical support to: Inventory and assess 
existing restoration efforts; analyze and present models of other 
successful regional programs as possible frameworks/strategies for 
regional restoration; begin development of restoration metrics; and 
partner with the Massachusetts Clean Energy Foundation to support an 
RFP element seeking innovative solutions for cheaper and more effective 
denitrifying septic systems.
    Question. How much funding does EPA expect the program to receive 
in fiscal year 2013, and how will these funds specifically be used to 
support the program?
    Answer. The EPA proposes to formalize the establishment of the 
Southeast New England Coastal Watershed Restoration Program in fiscal 
year 2014 by including a $2 million budget request. In fiscal year 
2013, the EPA is preparing for this new program through the Surface 
Water Protection and National Estuary Program budgets, but has not 
dedicated additional funding for activities beyond those conducted 
under the NEP and for other watershed efforts. These activities 
include: hosting Southeast New England Coastal Watershed Restoration 
Partnership meetings; development of a restoration framework and 
criteria as well as organizational and communication materials in 
preparation for the initiative.
    Question. What activities does EPA plan to carry out with the $2 
million included for this initiative in the fiscal year 2014 budget 
request?
    Answer. The EPA plans to work with the newly formed Southeast New 
England Coastal Watershed Restoration Partnership to restore the 
ecological health of southeast New England's estuaries, watersheds, and 
coastal waters by funding large projects to restore physical processes, 
improve water quality, and restore key habitat. The initial focus will 
be on nutrients and habitat, as well as nonpoint source and stormwater 
pollution. This initiative will adopt a holistic, systems-based 
approach to restoration by incorporating a variety of integrated 
management approaches that address the region's broad set of stressors 
and disturbances. We will work closely with the Narragansett Bay and 
Buzzards Bay National Estuary Programs as well as active groups on Cape 
Cod.
                 beaches protection categorical grants
    Question. What is the justification for eliminating the Beaches 
Protection Categorical grant program?
    Answer. EPA's proposal to eliminate the Beach Grant Program is a 
product of the hard choices the agency had to make in light of the 
difficult fiscal situation we face. This is especially acute in light 
of the significant cuts imposed on the agency by sequestration. In 
fiscal year 2013, EPA reviewed its programs for areas where any 
potential efficiencies and streamlining can yield savings. The Agency 
is proposing to eliminate certain mature program activities that are 
well established, well understood, and where there is the possibility 
of maintaining some of the human health benefits through implementation 
at the State and local levels. EPA's beach program has provided 
important guidance and significant funding to successfully support 
State and local governments in establishing their own programs. 
However, States (including territories and tribes) and local 
governments now have the technical expertise to continue beach 
monitoring as a result of the technical guidance and more than $110 
million in financial support the EPA has provided over the last decade 
through the beach program.
    Question. What assurance does the Committee have that these 
programs will be maintained by other funding sources if Federal grants 
are eliminated?
    Answer. Beach monitoring continues to be important to protect human 
health. States will determine, based on resources and priorities, 
whether and to what extent to continue beach monitoring within the 
context of their broader water quality monitoring program. Under Clean 
Water Act section 106, grant-eligible States are expected to have a 
monitoring program consistent with EPA's guidance on elements of a 
monitoring program. Recreational uses are included in the guidance.
                        e-enterprise initiative
    Question. The budget requests $60 million for E-Enterprise. Is the 
proposed E- Enterprise initiative a one-time investment, or a multi-
year investment?
    Answer. E-Enterprise for the Environment is a major effort to 
transform and modernize how EPA and its partners conduct business. It 
is a joint initiative of States and EPA to improve environmental 
outcomes and dramatically enhance service to the regulated community 
and the public by maximizing the use of advanced monitoring and 
information technologies, optimizing operations, and increasing 
transparency. An initiative of this scale will require multiple years 
of planning, implementation, and investments that will allow us to 
reduce future costs for regulated entities and the States while giving 
the public access to comprehensive, timely data about the environment.
    E-Enterprise includes a number of complex and simultaneous 
projects, including streamlining regulations, enhancing data systems, 
expanding public transparency, and improving collaboration among EPA 
and the States. For example, it will involve the creation of an 
electronic interactive ``portal'' for the regulated community to do 
things like apply for EPA and State permits, access information on 
their permit status, submit compliance information to States and EPA, 
and receive compliance assistance from environmental agencies. The 
portal will also result in greater sharing of data on environmental 
conditions with the public, thereby empowering communities to help 
solve their own pollution problems. In addition, the initiative will 
explore the use of advanced monitoring technologies that could provide 
more accurate, timely and reliable environmental data about 
environmental conditions and specific pollutant discharges. Under E-
Enterprise, environmental agencies will also make e-reporting the ``new 
normal'' in environmental regulations, thereby significantly reducing 
paper reporting and reaping major benefits in terms of cost savings for 
industry and for the EPA and States and the availability of timely, 
more accurate information. In order to achieve these benefits, 
significant investment will be needed in IT systems, process changes, 
monitoring equipment, and rule design for EPA and its State partners. 
If EPA receives its full request for E-Enterprise funding in fiscal 
year 2014, the Agency projects that funding needs would span 
approximately a 5-year timeframe.
    Question. If it is a phased approach, how many years does EPA 
expect to request funding for this initiative and what will be the 
total cost of the initiative?
    Answer. EPA will be phasing this initiative, and EPA expects to 
request funding over multiple years. The total cost of the initiative 
has not yet been determined as EPA needs to complete formal analysis of 
the projects and how they will be implemented over the next few years. 
EPA is also collaborating closely with its State partners through the 
Environmental Council of States (ECOS), and State input will be 
critical in completing a full plan for E-Enterprise phasing. EPA and 
ECOS expect to complete a full plan for E-Enterprise phasing in fiscal 
year 2014. If EPA receives its full request for E-Enterprise funding in 
fiscal year 2014, the Agency projects that funding needs would span 
approximately a 5-year timeframe.
     Question. The budget request discusses the potential cost savings 
that the regulated community will realize through electronic reporting. 
If funded in fiscal year 2014, when will the initiative be fully 
operational?
    Answer. The initiative consists of a series of interconnected 
projects. Some projects will be completed sooner, such as shared tools 
for validating electronic reporting. Other projects will take longer to 
be fully operational, such as NPDES electronic reporting and electronic 
manifests for hazardous waste. EPA has not yet projected a fixed date 
for when the entire initiative will be fully operational, but EPA 
projects that the initiative will span approximately a 5-year timeframe 
(depending on availability of funding) and some components should be 
operational in the fiscal year 2014 to fiscal year 2015 timeframe, and 
that initial cost savings could begin to be realized after these 
components are operational.
                          brownfields projects
    Question. EPA is proposing to reduce the brownfields projects 
funding by 10 percent, yet at the same time it increases the operating 
program for brownfields by 10 percent ($2.4 million). What is the 
explanation for why EPA is cutting the brownfields projects program but 
at the same time increasing operating costs?
    Answer. The Agency's fiscal year 2014 request for brownfields 
program related costs provides critically needed funding to support the 
successful and timely selection and funding of annual brownfields grant 
competition awards; manage existing and future brownfields 104(k) and 
128(a) grants; increase technical assistance and outreach activities 
for local communities, States, and other brownfield stakeholders; and 
improve the collection of program data to assess and identify the most 
efficient and effective use brownfields grant funds.
                              radon grants
    Question. Last year, EPA, along with the American Association of 
Radon Scientists and Technologists and the Conference of Radon Control 
Program Directors conducted an assessment to determine the needs of 
State radon programs if State Indoor Radon Grants were eliminated. 
Twenty-three States reported that they will have to eliminate their 
radon programs. Based on these results, why did EPA decide to eliminate 
this important grant program?
    Answer. The State Indoor Radon Grants (SIRG) program was 
established by Congress to fund the development of States' capacity to 
raise awareness about radon risks and promote public health protection 
by reducing exposure to indoor radon gas. After 23 years in existence, 
the radon grant program has succeeded in establishing States' capacity 
to raise awareness about radon risks and promote public health 
protection by reducing exposure to indoor radon gas. Also, given the 
current budget climate, eliminating the SIRG program is an example of 
the hard choices the Agency has had to make. The elimination of SIRG 
funding in fiscal year 2014 will mean that EPA will no longer subsidize 
State radon programs (and local programs with whom they collaborate) as 
they continue their efforts to reduce the public health risks of radon. 
Instead, the States will need to target their remaining resources to 
continue radon-related activities, such as training real estate and 
construction professionals; adopting building codes; and conducting 
outreach and education programs. To better target resources at the 
Federal level, EPA will implement the Federal Radon Action Plan, a 
multi-year, multi-agency strategy for reducing the risk from radon 
exposure by leveraging existing Federal housing programs and more 
efficiently implementing radon-related activities to have a greater 
impact on public health.
                             sequestration
    Question. Thirteen percent of EPA's budget is grants that go to the 
States so that they can implement their pollution control programs, and 
sequestration impacts those programs too. What effect will a 5 percent 
cut to the categorical grants have on the State agencies?
    Answer. It should be noted that approximately 43 percent of the EPA 
budget is appropriated as grants to States and tribes (STAG); 
categorical grants comprise approximately 13 percent of the EPA budget.
    With that said, sequestration will reduce funding for activities 
that positively impact our communities, the health of our families, and 
the economic vitality of key industries by reducing categorical grant 
funding by $54.6 million from fiscal year 2012. For example:
    STAG.--The STAG appropriation funds States directly for 
environmental initiatives and programs. The reductions due to 
sequestration will impact States' ability to perform technical 
assistance to small systems in need, conduct sanitary surveys, achieve 
drinking water compliance targets and short-term annual numerical goals 
for reducing nitrogen, phosphorus, and sediment loads.
    PWSS.--This grant funding enables States to target and support 
small systems that pursue effective compliance strategies, including 
identifying appropriate treatment technologies, alternative sources of 
water, consolidation options, and sources of funding. A cut of this 
magnitude will impact the States' ability to oversee and ensure that 
public water systems, especially small systems, provide safe, reliable 
drinking water to their customers. Small systems alone account for over 
9,000 health based violations which have nearly doubled since 2002.
    Section 319 Grants.--This funding helps States meet Clean Water Act 
requirements for nonpoint source pollution. This reduction would 
eliminate approximately 45 nonpoint source projects throughout the 
United States. The reduced funding for projects will impact States' 
ability to achieve goals for reducing nitrogen, phosphorus, and 
sediment loads.
    State and Local Air Quality.--States depend on EPA funding for air 
monitoring sites that provide vital information to citizens with 
respiratory and cardiac diseases trying to avoid the harmful impacts of 
air pollution. In considering where to take the reductions, EPA has 
been looking at several different options to minimize the impact on 
States. Among these options, EPA is looking at potential flexibilities 
across its suite of monitoring programs. For example, with Phase I of 
the NO<INF>2</INF> near-road monitoring rollout now complete, EPA is 
exploring extending the implementation of Phase 2. Additionally, EPA is 
considering deferring spending on replacement of monitoring equipment, 
data analysis, and methods development.
    Categorical Grant Brownfields.--States utilize EPA funding to 
establish core capabilities and enhance their brownfields response 
programs which include activities such as oversight of site cleanups. 
This reduction will result in existing grantees experiencing reductions 
in their fiscal year 2012 allocation in order to accommodate new 
applicants (on average, EPA receives seven new requests a year from 
eligible tribes and/or territories). The reduction will also result in 
State and local staff reductions that would decrease the number of 
properties that could be overseen by Voluntary Cleanup Programs by 
nearly 600 properties a year.
    Lead Program.--Lead-Based Paint STAG funds support authorized 
States and tribes in their ability to implement training and 
certification programs for lead-based paint abatement and renovation, 
which are key efforts in the goal of reducing the prevalence of 
childhood lead poisoning. Impacts caused by sequestration could include 
a decrease in the ability to perform compliance assistance to the 
regulated community as well as certification of firms and accreditation 
of training providers. Reductions could also impact EPA's ability to 
implement the program in the 37 States where EPA operates the 
renovation program and in the 11 States where EPA operates the 
abatement program.
    Pesticides Program Implementation.--This funding helps States and 
tribes ensure that pesticide regulatory decisions made at the national 
level are translated into results at the local level; since 
responsibility for ensuring proper pesticide use is in large part 
delegated to States and tribes, this funding is critical. Reduced 
funding will result in a proportional reduction of activities by State 
and tribal program staff. For example, funding reductions will cause 
reduced worker protection training; reduced monitoring, evaluation, and 
response for pesticides in local water resources; fewer programs to 
help identify, respond to, and prevent pesticide poisoning; and reduced 
outreach on the safe handling and use of pesticides.
                          hydraulic fracturing
    Question. In 2010, Congress directed EPA to initiate a multi-year 
study on potential impacts of hydraulic fracturing on drinking water 
resources. Where is EPA in this process?
    Answer. In 2011, EPA released the Final Plan to Study the Potential 
Impacts of Hydraulic Fracturing on Drinking Water Resources. The study 
plan reflects extensive input from the EPA's Science Advisory Board 
(SAB); industry; environmental and public health groups; States; 
tribes; and communities. EPA released a Progress Report in December 
2012 that provides an update of the ongoing research.
    In March 2013, the EPA's independent SAB announced the formation of 
its Hydraulic Fracturing Research Advisory panel. In May, EPA received 
input from individual panel members on EPA's ongoing research to inform 
the report of results. EPA expects to release the draft report of 
results of the Study of the Potential Impacts of Hydraulic Fracturing 
on Drinking Water Resources for external peer review in late calendar 
year 2014.
    Question. Is the Agency on track to issue a final report next year?
    Answer. The EPA expects to release the draft report of results of 
the Study of the Potential Impacts of Hydraulic Fracturing on Drinking 
Water Resources for external peer review in late calendar year 2014.
    Question. Last year, EPA signed an MOU with the Department of 
Energy and the U.S. Geological Survey to coordinate and align current 
and future hydraulic fracturing research. What progress and 
coordination have been made since then?
    Answer. The Tri-Agency Research Plan is still under development. 
The work to date to develop the plan has been very helpful in both 
coordinating the research efforts of the three agencies and developing 
the President's fiscal year 2014 budget request.
    The EPA, the Department of Energy (DOE), and the U.S. Geological 
Survey (USGS) routinely exchange information regarding ongoing 
research, including plans and progress. Exchanges among the principal 
investigators, in addition to high level discussions, help to assure 
that scientific details about the work is shared and can be used to 
help inform work underway by others.
    DOE's National Energy Technology Laboratory recently briefed the 
EPA on the progress of their work in hydraulic fracturing. Reciprocal 
meetings will be held soon. USGS briefed the EPA on their work in 
seismicity. DOE and USGS are among those participating in the EPA's 
technical workshops, in which they engage in information exchange 
regarding research both with the EPA and the other participants.
    Question. EPA is also proposing to do more hydraulic fracturing 
research in the area of air and water quality. What additional 
information does EPA hope to learn from this research and what is the 
timeline to complete this research?
    Answer. The EPA will study air emissions from Unconventional Oil 
and Gas (UOG) operations, including hydraulic fracturing, particularly 
the composition and rates of emissions from key sources (e.g., 
wastewater handling operations, and emissions during completion and 
production from wells that have been hydraulically fractured) and 
possible preliminary dispersion modeling and/or ambient measurements to 
verify source emissions data.
    Building upon knowledge obtained from the Drinking Water Study, the 
EPA will work to better characterize the composition of wastewater and 
wastewater treatment residuals, including solids, as well as develop an 
approach to define and evaluate the potential area of impact around 
horizontal wells from UOG operations, including hydraulic fracturing, 
across the United States.
    At this time, we do not expect that the air and water quality 
research will culminate in a report like the multi-year study on 
potential impacts of hydraulic fracturing on drinking water resources. 
There is not a specific deadline when the research will be completed.
                                 ______
                                 
                Questions Submitted by Senator Tom Udall
                         state revolving funds
    Question. I heard Senator Reed comment on the disappointment in 
cuts to the Clean Water and Drinking Water State Revolving Funds. I'd 
like to echo that disappointment.
    This program provides critical funding to States to invest in water 
infrastructure and protect clean water. In New Mexico we are looking at 
cuts of over 50 percent in terms from 2012 to 2014.
    I won't reiterate many of the concerns that have already been 
raised, but I'd like to point out a related problem that is brewing for 
New Mexico . . . flooding and polluted stormwater.
    We are experiencing record droughts in New Mexico, but when the 
rain comes, it can come in the form of heavy floods and monsoons. 
Stormwater is a major water quality problem, especially when the water 
flows over burned areas or overwhelms treatment plants.
    I'm currently circulating a discussion draft of legislation to spur 
innovative stormwater solutions--sometimes called ``green 
infrastructure'' since it minimizes the use of expensive steel and 
concrete. This bill supports cost-effective approaches that many 
communities are already integrating into their water management plans 
such as porous pavement, flood detention areas, and other designs that 
can help re-charge acquifers, rather than just send floods downstream.
    Does EPA believe that States like New Mexico need more help with 
water treatment infrastructure to meet Federal standards--and are these 
innovations a way to reduce costs?
    Answer. EPA understands that many State and local governments face 
challenges improving their water infrastructure to meet water quality 
objectives. The Agency supports green infrastructure as a cost-
effective solution to reduce stormwater pollution and help control the 
impacts of localized flooding. Many communities have already 
demonstrated that by using green infrastructure to reduce the 
stormwater flows going into their sewer systems or further downstream, 
they can avoid more costly gray infrastructure investments and save 
money. Communities have also recognized that green infrastructure can 
provide multiple environmental and community benefits, making it an 
attractive investment option.
                             mine screening
    Question. I understand from the budget justifications that the EPA 
has a goal of completing 93,400 assessments by 2015 at potential 
hazardous waste sites to determine if they warrant more analysis and 
remediation. It is also my understanding that in recent years much of 
this screening was uranium mine assessments, including surveys of 521 
mines in the Navajo Nation.
    Additionally, EPA Region 6 continues to conduct screenings of mines 
throughout New Mexico. According to the EPA budget justification, the 
President's budget could fund 700 new screenings.
    Do you expect a portion of these will be carried out in New Mexico 
and the Navajo Nation?
    Answer. About 20 percent of the remedial assessments in fiscal year 
2011 and fiscal year 2012 took place at abandoned uranium mines (AUM). 
Most of these AUM assessments were conducted as part of EPA Region 9's 
initial Five Year Plan to address uranium contamination on the Navajo 
Nation that ended in 2012. EPA's estimate of 700 total remedial 
assessments in fiscal year 2014 applies to all site types and includes 
3 assessments at non-Navajo Nation sites in New Mexico (two of the 
three are AUM sites) and 2 assessments at Navajo Nation AUM sites. EPA 
is currently working with DOI and DOE and the Navajo Nation to develop 
a second 5-year plan to address impacts from abandoned uranium mines. 
This plan will set goals for additional, more detailed assessments of 
uranium mines on the Navajo Reservation.
    Question. Does the EPA have a clear picture of the number of 
abandoned mine sites that continue to need screening throughout New 
Mexico and the Navajo Nation?
    Answer. EPA estimates about 60 AUMs in New Mexico and two AUMs on 
the Navajo Nation still require further Superfund remedial assessment. 
EPA expects to determine if additional AUMs on the Navajo Nation 
require more detailed assessment as part of the 5-year plan currently 
under development.
    Question. Given the President's fiscal year 2014 budget trajectory, 
would EPA be able to meet its goal of completing 93,400 assessments at 
potential hazardous waste sites by 2015?
    Answer. EPA expects to meets its goal of completing 93,400 
assessments at potential hazardous waste sites by 2015 based on 
completed assessments and planned future assessments.
    Question. Could you estimate what percentage of the abandoned 
uranium mine sites throughout the country will be screened when the EPA 
completes 93,400 assessments?
    Answer. EPA's Strategic Plan includes a goal of completing a total 
of 93,400 remedial assessments at potential hazardous waste sites by 
2015 since the inception of Superfund. While a portion of these 
assessments were at abandoned uranium mine sites, EPA has not 
determined the total number of abandoned uranium mines that need to be 
screened by the Superfund program. EPA expects the inventory of AUMs 
being developed by the DOE in coordination with EPA and Federal land 
management agencies may provide useful information in this regard. The 
inventory is planned for completion in July 2014.
                            superfund budget
    Question. There are several Superfund sites in New Mexico and the 
Navajo Nation that I am very concerned about, including the North East 
Churchrock site and associated United Nuclear Corporation Superfund 
Site, and the Jackpile Mine located on the Pueblo of Laguna to name a 
few. It is my understanding that the President has proposed a $33 
million cut from fiscal year 2012 enacted levels for the overall 
Superfund budget, and it appears that this cut is specifically being 
taken out of the cleanup account which was enacted in fiscal year 2012 
at $796 million, but the President is now proposing $762 million.
    Could you explain for the committee this reduction in Superfund 
cleanup funds?
    Answer. The Superfund program's top priority remains protecting the 
American public by reducing risk to human health and the environment. 
While continuing to rely on the Agency's Enforcement First approach to 
encourage potentially responsible parties to conduct and/or pay for 
cleanups, the Remedial program will continue to focus on completing 
ongoing projects and maximizing the use of site-specific special 
account resources. The Agency will also continue to place a priority on 
achieving its goals for the two key environmental indicators, Human 
Exposure Under Control (HEUC) and Groundwater Migration Under Control 
(GMUC).
    Many Federal programs have undergone substantial reductions in the 
past few years to help address national budget deficits. The President 
has had to make difficult choices with regard to funding EPA programs, 
including the Superfund cleanup program. The fiscal year 2014 
President's budget request for the Superfund Remedial program 
represents a $26 million reduction from the fiscal year 2012 enacted 
level. Primarily because of a fiscal year 2013 sequestration reduction 
of $22 million, the fiscal year 2014 President's budget request for the 
Superfund Remedial program would represent a $32 million increase from 
the fiscal year 2013 enacted level. The scope of the reductions to the 
program is having effects on program performance throughout the cleanup 
pipeline leading to a reduction in EPA's ability to fund remedial 
investigation/feasibility studies (RI/FSs), remedial designs (RDs), 
remedial actions (RAs) and ongoing long-term response actions. Based on 
current planning data the number of EPA-financed construction (remedial 
action) projects that will not be funded could be as high as 40-45 by 
the end of fiscal year 2014.
    Question. Has the need for cleanup dollars decreased?
    Answer. No. The need for the cleanup dollars has not decreased as 
the program continues to address a large ongoing project workload and 
has unfunded projects ready to start. As referenced in the answer to 
the question above, the President's budget reflects difficult choices 
with regard to funding EPA programs, including the Superfund cleanup 
program.
    Question. How will these cuts impact efforts to complete Superfund 
cleanup throughout New Mexico?
    Answer. New Mexico currently has 14 sites on the final NPL, 4 sites 
deleted from the NPL, and 1 site (Jackpile-Paguate Uranium Mine) 
proposed for listing on the NPL. EPA is currently responding to 
extensive comments on the proposed rule to add Jackpile-Paguate Uranium 
Mine to the NPL with a final listing decision anticipated in fiscal 
year 2014.
    Of the 14 final NPL sites, 11 sites are designated as construction 
complete. The three sites that are not ``construction complete'' 
include MolyCorp, Inc., Eagle Picher Carefree Battery, and McGaffey and 
Main Groundwater Plume. The McGaffey and Main site has ongoing EPA-
funded remedial action work occurring. A new EPA-funded remedial action 
construction project at the site that is anticipated to be ready for 
funding this fiscal year may not be able to start work given the 
limited resources available for new construction projects nationwide. 
There is anticipated to be as many as 25 unfunded construction projects 
by the end of fiscal year 2013 and as many as 40 to 45 unfunded 
construction projects by the end of fiscal year 2014. Although Agency 
funding may not be available in fiscal year 2013 to start a new 
construction project at the site, all current human exposures are under 
control. EPA continues to seek out all available funds for construction 
projects ready to start work and a final decision on any funding 
available for new construction projects will be made later in the 
fiscal year. Cleanup at the MolyCorp, Inc. and Eagle Picher Carefree 
Battery sites are being conducted by potentially responsible parties 
with EPA enforcement oversight. Similarly, the work at the North East 
Church Rock site and the related United Nuclear Corporation NPL site is 
being conducted by a potentially responsible party with EPA oversight.
                          responsible parties
    Question. Perhaps the most cost effective way of addressing funding 
of cleanup of mine, mill, and other contaminated sites is by 
identifying responsible parties. In considering mine and mill sites in 
the Navajo Nation alone, it is my understanding that principal 
responsible parties have been found for 74 mine sites, but that no 
responsible party has been identified for approximately 450 other 
sites.
    Could you share with the committee what the EPA is doing to 
identify responsible parties, and the potential impact identification 
of such parties would have on budgets and the EPA's ability to complete 
remediation of sites?
    Answer. Actions taken to identify responsible parties.--Since all 
of the contaminated mining sites on the Navajo Reservation are 
abandoned, EPA conducted investigations to try to identify the parties 
that owned or operated those sites in the past. EPA is committed to an 
``enforcement first'' approach that maximizes the participation of 
liable and viable parties in performing and paying for Superfund 
cleanups. As an initial step in our investigation, the EPA sent CERCLA 
104(e) letters requesting information about potential liability to 10 
companies that had been previously identified as having mined uranium 
on the Navajo Nation. The EPA used the information provided to identify 
Potentially Responsible Parties (PRPs) for mines posing the highest 
risks. Prior to initiating extensive research, the EPA and Navajo 
Nation EPA (NNEPA) worked together to identify mines that both agencies 
agreed posed the greatest risk to human health and the environment.
    To date, EPA has notified potentially responsible parties of 
liability for 74 mines on the Navajo Reservation, including:

                             IDENTIFIED PRPS
------------------------------------------------------------------------
                                                                    No.
                  Potentially Responsible Party                    Mine
                                                                  Claims
------------------------------------------------------------------------
Tronox Incorporated.............................................      49
KinderMorgan, Inc. (El Paso Natural Gas Company)................      20
Western Nuclear, Inc./Freeport-McMoRan Copper and Gold, Inc.....       2
United Nuclear Corporation/General Electric.....................       1
Chevron U.S.A. Inc..............................................       1
Rio Algom Mining LLC............................................       1
                                                                 -------
      Total Number of Mine Claims With Identified PRP...........      74
------------------------------------------------------------------------

    The other 449 mine sites are being evaluated for human health risk, 
and EPA is conducting searches for PRPs at mine sites as we determine 
that they require CERCLA response actions.
    Potential impact identification of such parties would have on 
budgets and the EPA's ability to complete remediation of sites.--The 
EPA is continuing to pursue an enforcement-first policy, and will 
continue to conduct searches for PRPs at abandoned uranium mines on the 
Navajo Reservation. Identification of PRPs for abandoned mines on the 
Navajo Reservation is essential in order to provide additional 
resources for EPA to conduct further investigations and clean up at 
mines.
    Impacts on EPA's budget and ability to complete remediation of 
sites cannot be reasonably estimated at this time as much of this work 
is dependent upon ongoing studies and assessments. However, in general, 
uranium mining site cleanup costs have historically been very 
expensive, in the range of tens of millions of dollars or more per 
mine. To date, PRPs have spent over $17 million to carry out site-
specific CERCLA response actions at abandoned mines on the Navajo 
Reservation. In addition, EPA has collected more than $11 million 
pursuant to settlements with PRPs. The use of these resources is taken 
into consideration during the annual budget formulation process. Both 
Superfund special account resources and appropriated resources are 
critical to the Superfund program, and the Agency will continue to 
submit resource requirements on an annual basis through the budget 
formulation process for congressional consideration. Congressionally 
appropriated resources will then be allocated by the Agency to projects 
and activities based upon future project plans and program funding 
prioritization guidelines, including available resources from 
settlements with PRPs.
    EPA maintains a strong partnership with the Navajo Nation and, 
since 1994, the Superfund program has provided technical assistance and 
funding to assess potentially contaminated sites and develop a 
response. EPA is currently working with the Department of Energy, other 
Federal agencies, and the Navajo Nation to develop a second 5-year plan 
to address impacts from abandoned uranium mines. This plan will 
continue to build on our efforts of conducting associated responsible 
party enforcement and set goals for additional CERCLA response actions. 
EPA is committed to continue working with the Navajo Nation to reduce 
the health and environmental risks and to finding long-term solutions 
to address the remaining issues related to contamination due to 
abandoned mines on the Navajo Reservation.
                                 ______
                                 
             Questions Submitted by Senator Lisa Murkowski
                           keystone pipeline
    Question. On Monday, the last day for public comment, EPA concluded 
that the State Department's latest review of the Keystone pipeline 
project contains ``insufficient information'' on several fronts, 
including greenhouse gas emissions, alternative routes and the 
consequences of a potential spill of diluted bitumen. In 2010 and 2011, 
the EPA criticized the State Department's first two environmental 
reviews of the project on similar grounds. Now you've found a problem 
with the most recent Supplemental EIS.
    Can you explain what additional information needs to be collected 
at this point? The State Department received very similar criticisms 
from you before and you say they still didn't get it right.
    Answer. The Environmental Protection Agency's (EPA's) comment 
letter outlines a number of areas where we believe additional 
information will improve the analysis, including: pipeline safety, 
alternatives, and community impacts. The EPA also recommended 
strengthening the economic market analysis given that its findings are 
key to the Supplemental EIS's conclusions regarding the project's 
potential greenhouse gas emissions impacts.
    Question. Is this simply just a pretext for more delay?
    Answer. No, we do not believe that collecting the additional 
information will be time consuming, and the additional information will 
be important to inform Federal decision makers and the public about the 
potential environmental impacts of the project.
    Question. Can you explain what the process is going forward with 
respect to review of public comments and the timeline for a final 
decision on the pipeline?
    Answer. The Department of State (DOS) is currently reviewing public 
comments received on the Supplemental Draft Environmental Impact 
Statement (EIS) and is working to address those comments in the Final 
EIS. As a cooperating agency, the EPA is working with the DOS to 
address comments in the Final EIS; DOS is responsible for the Final 
EIS's preparation schedule. Once the Final EIS is issued, the DOS will 
begin its 90-day National Interest Determination process, which will 
weigh factors such as economics and energy security in addition to 
environmental impacts, and make a decision on whether to issue a permit 
for Keystone XL's boundary crossing.
    Question. Does the EPA have any plans to invoke its authority under 
the National Environmental Policy Act to object to the project and 
elevate an interagency dispute to the White House Council on 
Environmental Quality?
    Answer. The EPA is a cooperating agency in the development of the 
EIS, and we are committed to working with the DOS to prepare a document 
that informs decision makers and the public.
                          hydraulic fracturing
    Question. Your budget requests $8 million to continue work on the 
hydraulic fracturing study that was requested by Congress in fiscal 
year 2010. However, there are a number of issues being raised with the 
methodology that the EPA is using to conduct the nationwide study. For 
example, my understanding is that the agency is starting its analysis 
with ``retrospective'' sites. These are locations where fracking has 
already occurred for years, potentially along with many other 
activities. ``Prospective'' sites, where fracking will be studied from 
its beginning won't occur until later and therefore those results won't 
be out until 2014 when the study is completed.
    Why did EPA decide to test retrospective sites to start the study? 
As we have seen with the Pavillion site in Wyoming, going back in time 
where hydraulic fracturing has occurred for years makes it very 
difficult to have a baseline and also complicates the assessment of the 
effects of the fracking process. Why did the agency not start with 
prospective sites, and test the technology in ``real time''?
    Answer. In developing its draft study plan, the EPA received input 
from a wide variety of stakeholders. Stakeholders from many points of 
view urged the EPA to include both prospective and retrospective case 
studies as part of the overall effort, and the Science Advisory Board 
also supported both types of case studies. Given this input, the EPA 
decided to conduct both types of case studies.
    The EPA began developing both the prospective and retrospective 
case studies at the same time. Retrospective case study locations were 
nominated by stakeholders. The EPA evaluated the nominated locations, 
identified five suitable locations for retrospective case studies, and 
started on them in a timely manner. The EPA continues to work with oil 
and gas well owner/operator companies to develop prospective case 
studies and intends to begin them expeditiously when suitable locations 
are identified.
    Late last month, the EPA announced the formation of the Hydraulic 
Fracturing Research Advisory panel made up of 31 individuals from 
academia, industry, and the environmental community. Some have 
criticized the composition of the panel as not having a sufficient 
number of experts with industry experience in hydraulic fracturing. 
Apparently, a number of Panel nominees were disqualified from serving 
because the EPA determined that they had a ``disqualifying financial 
interest.'' The American Petroleum Institute sent you a letter 
concerning this issue on March 22.
    Question. How would you respond to the criticism that the Research 
Advisory panel lacks ``real world'' industry experience?
    Answer. The Panel does not lack ``real world'' industry experience. 
The SAB panel is comprised of current employees of companies and 
consulting firms; government employees; and academics/university 
professors (including some previously employed in industry). It has at 
least three experts in each of the following nine areas of expertise 
that were sought for the panel: Petroleum/Natural Gas Engineering; 
Petroleum/Natural Gas Well Drilling; Hydrology/Hydrogeology; Geology/
Geophysics; Groundwater Chemistry/Geochemistry; Toxicology/Biology; 
Statistics; Civil Engineering; and Waste Water and Drinking Water 
Treatment.
    ``Real world'' industry experience includes working for private 
industry or in consulting. Eight panel members are current industry 
employees, or are currently working in consulting. These eight members 
have a collective total of 218 years working in industry or consulting 
(average of 27 years' experience each). Ten other panel members have 
significant industry experience (i.e., at least 2 or more years working 
as industry employees or as full-time consultants). These 10 members 
have a collective total of 61 years working in industry or consulting 
(i.e., an average of 6 years' experience each).
    Question. Out of the 31 members of the Panel, how many come from 
industry?
    Answer. Eight members of the Panel are current industry employees, 
or are currently working in consulting. Ten other members have 
significant industry experience (i.e., at least 2 or more years working 
as industry employees or as full-time consultants).
    Question. Did the EPA apply the rules concerning financial 
interests too narrowly when it came to industry experts? For example, 
I'm told that there are members of academia on the panel who have 
received grants from the EPA and other Government agencies or their 
universities do. Is that true? If so, how was that factored in their 
selection? Does that pose a potential conflict of interest?
    Answer. Members of Science Advisory Board (SAB) panels serve as 
Special Government Employees (SGE) or non-EPA regular Government 
employees and are subject to ethics rules and conflict of interest 
regulations that apply to executive branch employees. Rules defining 
financial conflicts of interest and appearance of a loss of 
impartiality are applied to all prospective panelists, regardless of 
their work affiliation or experience.
    With regard to financial conflicts of interest, 18 U.S.C. section 
208 prohibits the participation of panel members in particular matters 
in which the member (or his/her spouse or minor child) has a financial 
interest, if the matter will have a direct and predictable effect on 
that interest. For example, panel members and their immediate family 
are restricted from owning more than a certain de minimus dollar amount 
in a sector mutual fund or securities issued by one or more entities 
directly and predictably affected by the particular matter under 
consideration by the Panel. One remedy for an otherwise disqualifying 
financial interest is for the potential panelist to divest from the 
portion of holdings above the de minimus threshold. Several panelists 
did adjust their holdings in order to serve on the SAB Hydraulic 
Fracturing Research Advisory Panel.
    Ethics regulations issued by the Office of Government Ethics also 
provide for an exemption for SGEs serving on Federal advisory committee 
panels where the disqualifying financial conflict arises from their 
non-Federal employment or prospective employment when the particular 
matter under consideration is a matter of general applicability (see 5 
CFR 2640.203(g)). No candidate for the panel was excluded solely on the 
basis of his or her employment.
    Twenty-one members of the panel are current academic employees. All 
but one of these members either receive current research funding or 
have received recent research funding from the EPA or other Federal 
Government agencies. All of the institutions for which these members 
work receive current recent research funding from the EPA or other 
Federal Government agencies.
    In evaluating research funding, the SAB Staff Office follows the 
approach identified in the 2004 OMB Bulletin on peer review: ``Research 
grants that were awarded to the scientist based on investigator-
initiated, competitive, peer-reviewed proposals do not generally raise 
issues of independence. However, significant consulting and contractual 
relationships with the agency may raise issues of independence or 
conflict, depending upon the situation.'' The SAB Staff Office reviews 
the totality of the information for each prospective panelist, 
including the nature of grant support from the EPA and other entities, 
as it relates to the specific advisory activity being considered. The 
SAB Staff Office examines the funding sources indicated in the 
Confidential Financial Disclosure Form (EPA Form 3110-48) for the nexus 
between these sources and the work to be performed by the SAB as well 
as the nature of the source (e.g., grant or contract).
    In that context, the SAB Staff Office does not consider the current 
or past receipt of EPA or other Federal grants generally to be, by 
definition, a conflict of interest under 18 U.S.C. 208. Rather, the SAB 
Staff Office considers information about EPA (or other Federal) grants 
and other information as they relate to the context of the specific 
advisory activity. Furthermore, EPA generally does not consider 
research grants (whether current or past), if they are unrelated to the 
work being performed by the SGE on an SAB panel and are investigator-
initiated, competitive and peer-reviewed, to give rise to questions 
concerning the independence of a current or potential SGE.
    For future reviews by this Panel, if additional expertise is 
needed, the SAB Staff Office will augment the Panel to ensure that all 
necessary scientific expertise is present. In addition, the SAB Staff 
Office recognizes the need to keep the Panel as informed as possible 
with new and emerging information related to hydraulic fracturing. 
There will be periodic opportunities for the public to provide new and 
emerging information to the Panel. The SAB Staff Office will provide 
notice in the Federal Register and on our SAB website on the logistics 
venue for doing that.
             forest roads/silvicultural exemption from cwa
    Question. Section 429 of the fiscal year 2012 Interior bill 
codified for 1 year the 37-year-old EPA policy that forest roads 
associated with logging activities are not ``point sources'' requiring 
permits under the Clean Water Act. Under the terms of the fiscal year 
2013 continuing resolution, Congress barred EPA from beginning any new 
programs, and we understand that EPA has interpreted this language as 
barring the agency from initiating a permit program for forest roads.
    On March 20, 2013 in NEDC v. Decker, the Supreme Court reversed the 
Ninth Circuit court ruling that would have required mandatory permits. 
However, the Supreme Court did not address the Ninth Circuit Court's 
other ruling that forest roads are point sources subject to a permit or 
other Federal regulation by EPA under its discretionary authority 
within point source rules.
    I understand that EPA has sought public input and has said it is 
considering regulating a subset of forest roads as point sources 
through its flexible authority, though not via point source permits in 
response to a 2003 Ninth Circuit ruling regarding forest roads. I am 
concerned that this regulation will expose Federal, State, municipal, 
private and Alaska Native forestland owners to citizen lawsuits. Is the 
agency undertaking such a review pursuant to this litigation? If so, 
when will this review be complete?
    Answer. No. The Agency has made no decision at this time to develop 
a new rule requiring permits for stormwater discharges from forest 
roads.
                    sulfur content rule for gasoline
    Question. On March 29, EPA announced draft rules for automobiles 
designed to lower emissions by requiring the use of lower sulfur 
gasoline. According to the EPA, these new rules will cost refiners only 
1 cent per gallon while the refiners claim that this change will 
increase the cost of gasoline by 9 cents per gallon with very little 
environmental benefit.
    Can you explain how the agency determined its cost estimates for 
implementation of the rule?
    Answer. As in our past ultra-low sulfur diesel and gasoline benzene 
rules, the Agency performed a detailed refinery-by-refinery cost 
analysis of each refinery in the country. We established the baseline 
conditions for each refinery based on publicly available information as 
well as confidential information from our own databases and those of 
the Energy Information Administration. We then estimated what actions 
would be the least cost for each refinery to comply with the proposed 
Tier 3 standards, using the latest cost information provided by various 
technology vendors and engineering firms whose equipment is already 
being used by refineries to comply with the Tier 2 gasoline sulfur 
standards. Our cost analysis was independently peer reviewed by 
knowledgeable experts in the field, and the feedback from the peer 
review, along with EPA's response, can be found in the rulemaking 
docket on www.regulations.gov.
    Question. Why do they vary so widely from industry projections?
    Answer. There are four main reasons for the apparent differences 
between EPA's projections and the industry reported projections. First 
is that EPA's cost estimate is an average cost while the industry 
reports out only the costs for the highest cost refineries. Expressed 
on an apples to apples basis, EPA's average cost estimate of about 1 
cent per gallon should be compared to the average cost that can be 
calculated from the industry study of 2.1 cents per gallon. 
Alternatively, if focusing on the highest cost refineries, EPA's 
modeling projects the marginal compliance cost for the highest cost 
refineries to be between 4.5-6.5 cents per gallon while the industry 
has reported the marginal cost for the highest cost refineries of 6-9 
cents per gallon. Second, the industry did not analyze the program we 
have proposed, which provides considerable flexibility. The proposed 
averaging, banking, and trading program would allow those few high cost 
refiners to comply through averaging with or purchasing credits from 
other refineries, which would lower not only the average cost, but 
especially the marginal costs. Third, the industry study's capital cost 
assumptions for Tier 3 are high. The industry study used reported Tier 
2 compliance costs for five selected refineries and then doubled them, 
rather than estimating the capital costs needed to comply with the much 
smaller increment of sulfur control required for Tier 3. Simply 
correcting their capital costs to reflect Tier 3 rather than Tier 2 
reduces their average cost to 1.6 cents per gallon. Fourth, the assumed 
rate of return on investment is higher in the industry analysis than 
the rate of return in the EPA analysis. Simple adjustments to the 
industry study to reflect plausible capital costs and accepted rates of 
return on investment bring their average costs in line with those of 
EPA and actually support EPA's cost estimate of about a penny per 
gallon. The reasonableness of EPA's cost estimate is further bolstered 
by the feedback received from our independent peer reviewers, a 2011 
study conducted by Mathpro for the International Council for Clean 
Transportation and a 2012 study conducted by Navigant for the Emission 
Control Technology Association. Furthermore, Valero, one of the 
Nation's largest refiners, recently announced its expected Tier 3 
compliance costs, and they indicated that their compliance costs would 
be lower than those reported by industry.
    Question. Do you believe that there is a more transparent way that 
the agency could calculate its cost/benefit data that would lead to 
greater consensus on what the right projections are?
    Answer. The Agency has been very transparent in how we performed 
our cost estimate and is updating the cost/benefit analysis for the 
final rule. The Draft Regulatory Impact Analysis fully details the 
analysis performed and the assumptions made. The only thing we are 
unable to share publicly is our specific cost projections for each 
refinery, as doing so may directly or indirectly divulge confidential 
business information for specific refineries. We have followed this 
same approach in several past rulemakings, which has allowed 
stakeholders to fully assess the reasonableness of our cost estimates 
and comment on them, while still preserving confidentiality. The 
industry's recent study of Tier 3 costs followed a very similar 
approach.
                       ghg powerplant rulemakings
    Question. Mr. Perciasepe, when the fiscal year 2014 budget was 
released, you were quoted as saying that you expected to complete the 
new source performance standard for future powerplants this year and 
that you expected that the rules for existing powerplants ``would be on 
the table for fiscal year 2014.''
    Can you tell us what actions or work you have performed thus far on 
the rule for existing powerplants, if any?
    Answer. EPA is not currently developing any existing source GHG 
regulations for powerplants. The office's current work is focused on 
reviewing the comments submitted in response to the proposed carbon 
pollution standard for new powerplants under section 111(b).
    Question. What is your best estimate with respect to the schedule 
and process that you will use for writing the rule for existing 
powerplants? For example, how long do you expect it to take to complete 
and when will the first draft be made public?
    Answer. EPA is not currently developing any existing source GHG 
regulations for powerplants. In the event that EPA does undertake 
action to address GHG emissions from existing powerplants, the agency 
would ensure, as it always seeks to do, ample opportunity for States, 
the public, and stakeholders to offer meaningful input on potential 
approaches.
                commercial fishing sector npdes problem
    Question. Beginning in 2010, EPA issued regulations requiring NPDES 
permits for commercial fishing vessels engaged in catcher processing 
activities in Federal waters off the coast of Alaska. The Effluent 
Limitation Guideline (ELG) standard applied by EPA is based on criteria 
for shore-based facilities, and compliance with this standard has been 
virtually impossible for vessels at sea to meet. At issue is the 
requirement that all seafood waste be ground to ``0.5 inch or smaller 
in any dimension.'' While offshore vessels are able to achieve the 0.5-
inch standard, they cannot achieve it for any dimension. That is, 
either the length or width or height exceeds 0.5 inches. This is a 
particular problem with respect to fish skin strands, where it is 
impossible to achieve this standard 100 percent of the time.
    The shore-based ELG standards were developed with the understanding 
that the shore plant effluents would be deposited in harbors where the 
lack of flushing might cause negative impacts to the near shore marine 
environment. Those standards were applied to the offshore sector 
without any rationale or testing to determine whether discharges from a 
mobile vessel at sea would cause negative impacts to the environment.
    Will EPA agree to work with the offshore catcher processor sector 
to produce a more workable standard, and if necessary, suspend the 
current 0.5 inch or smaller in any dimension grind standard?
    Answer. Yes, the EPA is prepared to work with the offshore catcher 
processor industry on this important issue. The agency has advised 
industry representatives of our willingness to work with them during 
meetings on this concern. As we have discussed, if offshore catcher 
processors would like to pursue a change in the Effluent Limitation 
Guideline (ELG), we urge them to engage in the Effluent Guidelines 
Planning process. EPA may not change an ELG requirement through a 
letter or a permit. Any change to the Permit or any subsequent permits 
requires a change to the national ELG.
    EPA expects to publish for public notice and comment the next 
iteration of its proposed ELG Plan in the Federal Register shortly, and 
EPA encourages offshore catcher processors to submit comments to that 
plan.
    More information on the Effluent Guidelines Planning Process can be 
found at: http://water.epa.gov/lawsregs/lawsguidance/cwa/304m/.
                           regional haze rule
    Question. In February the Environmental Protection Agency (EPA) 
proposed a regional haze rule for the Navajo Generating Station (NGS) 
in northern Arizona. That proposal would require the plant owners, 
which includes the Bureau of Reclamation, to install Selective 
Catalytic Reduction (SCR) technology. There is some debate as to 
whether baghouses would also be required. Regardless, the minimum 
estimated cost is $540 million--with a potential price tag of $1.1 
billion. How does EPA's budget account for the increased Federal 
capital costs that would be imposed by SCR (and possibly baghouses)?
    Answer. EPA is not an owner of NGS; therefore, EPA's budget would 
not be a source of funding for new controls at NGS. As stated in our 
February proposal, EPA understands that past pollution control 
investments at this facility have made use of alternative financing 
methods and that a report from the National Renewable Energy Laboratory 
(NREL) indicated that mechanisms may exist to help avoid or mitigate 
the estimated level of impact on water rates resulting from the Federal 
portion of the cost of new pollution controls. The proposal sets limits 
consistent with levels achieved by SCR, but it does not in fact require 
SCR. EPA, DOI, and DOE have committed to work together on several 
short- and long-term goals, including innovative clean energy options 
for electricity generation and seeking funding to cover expenses for 
the Federal portion of pollution controls at NGS.
    Question. In February a landslide destroyed portions of highway 89 
in Arizona causing three car accidents and closing the highway 
indefinitely--this is the primary roadway used to travel between 
Flagstaff and Page. Geotechnical experts and engineers are reviewing 
the damage to determine the cause of the landslide and whether it is 
safe to reconstruct the roadway. The current detour adds approximately 
50 miles to the trip from Flagstaff to Page, diverting traffic through 
highly populated areas on the Navajo and Hopi reservations in and 
around Tuba City and Moenkopi. EPA's regional haze proposal would 
require daily truck deliveries of hazardous anhydrous ammonia from 
Flagstaff to NGS near Page. EPA initially ``determined that the 
increase in daily tanker truck traffic to transport anhydrous ammonia 
to and from NGS for SCR will not result in a significant health risk.'' 
Has EPA performed an analysis of the geologic event along highway 89 in 
northern Arizona and the health risks posed by approximately 728 tanker 
truck deliveries of hazardous anhydrous ammonia traveling through 
highly populated portions of the Navajo and Hopi reservations?
    Answer. EPA's analysis of air quality impacts associated with 
increased truck traffic was conducted prior to the landslide affecting 
portions of Highway 89 in Arizona and therefore did not examine 
potential impacts associated with a different route to Page. EPA notes, 
however, that deliveries of anhydrous ammonia would not occur until 
after SCR is installed and operational. The earliest that would be is 
2018 and EPA's proposal includes several alternatives with longer 
deadlines. Our proposal included a BART alternative that required 
installation and operation of SCR in 2021-2023. Although EPA 
anticipates that Highway 89 will be reopened by the time SCR is 
installed and operational, EPA will continue to monitor the status of 
the plans for this highway during our extended comment period, which 
closes on August 5, 2013.
                                 ______
                                 
              Questions Submitted by Senator Thad Cochran
                         state revolving funds
    Question. The administration's fiscal year 2014 budget includes a 
reduction of $328 million for the Clean Water and Drinking Water State 
Revolving Funds (SRFs). Communities in my State are coming under 
increasing pressure to upgrade their wastewater treatment facilities in 
order to comply with more stringent water regulations. This seems to me 
to be an unfunded Federal mandate. Do you have any advice for 
communities and municipalities that do not have the revenue base to 
finance the multi-million dollar upgrades needed to comply with these 
increasingly stringent water regulations?
    Answer. EPA has been working with States and municipalities to meet 
their CWA obligations in a flexible and environmentally responsible 
approach called integrated planning. The Integrated Planning approach 
allows municipalities to balance CWA requirements in a manner that 
addresses the most pressing health and environmental protection issues 
first. Our work with States and municipalities also can lead to more 
sustainable and comprehensive solutions, such as green infrastructure, 
that improves water quality as well as supports other quality of life 
attributes that enhance the vitality of communities.
    The budget requests a combined $1.9 billion for the SRFs, a level 
that will still allow the SRFs to finance approximately $6 billion in 
wastewater and drinking water infrastructure projects annually. The 
administration has strongly supported the SRFs, having received and/or 
requested a total of approximately $20 billion in funds for the SRFs 
since 2009. Since their inception, the SRFs have been provided over $55 
billion.
                          rural water systems
    Question. Your agency has been providing communities with much 
needed training and technical assistance to comply with complex EPA 
regulations. It appears to me that the administration's budget does not 
explicitly include any funding to assist small rural water system 
operators to comply with EPA rules and regulations.
    Do these communities have the ability or resources to navigate 
toward compliance without your help? Other than set-asides from the 
revolving funds what assistance does your budget provide to communities 
to comply with your agency's complex regulations?
    Answer. Small and rural communities receive training and technical 
assistance directly from EPA and State agency staff, as well as from 
nonprofit organizations funded by EPA, State environmental and health 
departments, and the United States Department of Agriculture/Rural 
Utilities Service. EPA's Public Water System Supervision (PWSS) grant 
and Drinking Water State Revolving Fund (DWSRF) enable States to 
develop technical assistance plans for their water systems, especially 
rural water systems and small systems serving fewer than 10,000 people.
    PWSS grants help States, territories, and tribes develop and 
implement a PWSS program to ensure that all water systems comply with 
the National Primary Drinking Water Regulations. States use the grant 
funding to develop and maintain State drinking water regulations; 
develop and maintain an inventory of public water systems throughout 
the State; track compliance information on public water systems; 
conduct sanitary surveys of public water systems; review public water 
system plans and specifications; provide technical assistance to 
managers and operators of public water systems; carry out a program to 
ensure that the public water systems regularly inform their consumers 
about the quality of the water that they are providing; certify 
laboratories that can perform the analysis of drinking water that will 
be used to determine compliance with the regulations; and carry out an 
enforcement program to ensure that the public water systems comply with 
all of the State's requirements.
    Besides set-asides provided by the DWSRF program, the DWSRF itself 
makes funds available to drinking water systems, including small and 
rural systems, to finance infrastructure improvements. The program also 
emphasizes providing funds to small and disadvantaged communities and 
to programs that encourage pollution prevention as a tool for ensuring 
safe drinking water. In fact, under the DWSRF program, States are 
required to provide a minimum of 15 percent of the funds available for 
loan assistance to small systems to help address infrastructure needs.
    In addition, EPA provides direct technical support and training to 
States so they can assist small systems in building the capacity they 
need to comply with current and future drinking water rules, and has 
made strengthening the technical, managerial, and financial capacity of 
small systems an Agency priority goal. For example, EPA implements the 
Area-Wide Optimization Program (AWOP) which is often directed towards 
small systems. This program provides compliance assistance and teaches 
problem solving skills to improve operations at drinking water systems 
rather than focusing on costly capital improvements. The agency is 
developing a new online training system to provide basic training on 
all of the National Primary Drinking Water Regulations. EPA also 
provides training to States, tribes, and water systems through periodic 
webinars on various compliance issues. For example, there are webinars 
in fiscal year 2013 on the monitoring requirements for the Stage 2 
Disinfection/Disinfection Byproducts Rule and microbial inactivation. 
EPA's website contains resources for systems challenged with compliance 
with arsenic and radionuclides, and work is underway to develop a 
compliance assistance tool for small water systems facing nitrate 
noncompliance.
    To assist small systems to improve their managerial and financial 
capacity, the Agency has also developed CUPSS (Check-up for Small 
Systems), a free, easy-to-use, asset management tool for small drinking 
water and wastewater utilities. Small systems can use CUPSS to develop 
a record of assets, a schedule of required tasks, an understanding of 
finances; a tailored asset management plan. The agency also developed 
the Energy Use Assessment Tool for small drinking water and wastewater 
utilities to help them understand their current energy use and better 
enable them to identify opportunities for reducing energy costs.
    EPA's Safe Drinking Water Hotline also is available to help the 
public, drinking water suppliers, and State and local officials 
understand the regulations and programs developed in accordance with 
the Safe Drinking Water Act. This includes information about drinking 
water requirements, source water protection programs, underground 
injection control programs, guidance, and public education materials. 
The Hotline also provides contact information for resources such as 
State-certified labs and EPA regional offices.
                        desoto county attainment
    Question. Was DeSoto County, Mississippi, in non-attainment status 
in 2004?
    Answer. No, DeSoto County was not in non-attainment status in 2004.
    Question. Did DeSoto County enter non-attainment based on 2008 
standards?
    Answer. For the 2008 Ozone NAAQS, EPA included the northern portion 
of DeSoto County, Mississippi, in the Memphis Nonattainment Area. 
Shelby County, Tennessee, and Crittendon County, Arkansas, make up the 
rest of the area. This is the first time DeSoto County has been 
designated as nonattainment for ozone. EPA determined that DeSoto 
County should be part of this nonattainment area based on an analysis 
of the technical factors, including information submitted by 
Mississippi, and concluded that emissions from the county contribute to 
the monitored violations in the area.
    Question. Did ozone concentrations in DeSoto County increase or 
decrease from 2004 through present?
    Answer. The ozone air quality monitor located in central DeSoto 
County indicates that ozone concentrations have decreased since 2004. 
The EPA evaluates air quality status in terms of a 3-year average. For 
DeSoto County, the 3-year average ozone levels decreased 11.2 percent 
from 0.084 ppm (2002-2004) to 0.074 ppm (2010-2012). (Note that in 
2008, the standard was revised from .085 ppm to .075 ppm).
    Question. What portion of the Memphis area non-attainment status is 
attributable to DeSoto County sources?
    Answer. It makes sense to include DeSoto County in the 
nonattainment area because analysis shows mobile source and area source 
emissions are significant contributors to ozone formation in the 
Memphis area. Population has grown steadily and the county has the 
second highest Vehicle Miles Traveled in the area. From 2000-2010, 
population in DeSoto County increased 48 percent. Much of this growth 
has been in the northern portion of the county that is adjacent to 
Tennessee.
    The county has the second highest Vehicle Miles Traveled in the 
Memphis area. More than 30 percent of the county's ozone-forming 
emissions of NO<INF>X</INF> and VOC are from mobile sources and over 40 
percent are from area sources. In addition, EPA's analysis of 
meteorology and the conceptual model for high ozone events in the 
Memphis area supports a conclusion that DeSoto County is contributing 
to high ozone levels in the Memphis area. In 2008, sources in DeSoto 
County emitted approximately 5,100 tpy NO<INF>X</INF> (9 percent of CSA 
total) and 5,200 tpy VOC (12 percent of CSA total).
    Question. Does non-attainment status limit certain types of 
activities in DeSoto County?
    Answer. The Memphis nonattainment area is classified as a Marginal 
Nonattainment Area for ozone which specifies an attainment deadline of 
2015. Marginal areas do not need to submit an attainment demonstration 
or a Reasonable Further Progress Plan. DeSoto County does need to 
participate in the Memphis metropolitan area's transportation 
conformity planning to ensure emissions associated with certain 
transportation-related projects are consistent with achieving clean air 
standards. Also, new or modified major stationary sources in the area 
are subject to the Clean Air Act's nonattainment area new source review 
preconstruction permitting requirements. Inclusion in this area also 
makes DeSoto County eligible for Congestion Mitigation and Air Quality 
(CMAQ) funds.
    Question. Is DeSoto County's non-attainment status consistent with 
Executive Order 13563, aimed at improving regulations and regulatory 
review, in which President Obama stated that ``Our regulatory system 
must protect health, welfare, safety, and our environment while 
promoting economic growth, innovation, competitiveness, and job 
creation.''?
    Answer. As indicated in the Federal Register notice announcing the 
final designations for the 2008 ozone standards, area designations 
actions are a mandatory duty under the Clean Air Act. The EPA shares 
the responsibility with the States and tribes for reducing ozone air 
pollution to protect public health. Working closely with the States and 
tribes, the EPA is implementing the 2008 ozone standards using a common 
sense approach that improves air quality, maximizes flexibilities, and 
minimizes burden on State and local governments. Current and upcoming 
Federal standards and safeguards, including pollution reduction rules 
for powerplants, industry, vehicles and fuels, will assure steady 
progress to reduce smog-forming pollution and will protect public 
health in communities across the country. EPA will assist States as 
much as possible with any additional measures so that they can return 
to attainment status as soon as possible.
                                 ______
                                 
               Questions Submitted by Senator John Hoeven
                         regional haze program
    Question. EPA's Regional Haze program is designed to protect 
visibility in national parks and wilderness areas. I am concerned that, 
in its implementation of the program, EPA is using outdated regulatory 
tools to assess projected visibility improvements and compliance costs 
when making Regional Haze decisions.
    The Air Pollution Cost Manual currently used by EPA in estimating 
costs for regional haze and other best available retrofit technology 
(BART) determinations was published in 2002. Costs for designing, 
engineering and installing controls obviously have increased 
significantly since then. Given that the current cost manual was 
published over a decade ago, is it out of date? What steps are being 
taken by EPA to update it? Doesn't the use of an outdated cost manual 
increase the likelihood that EPA is underestimating regional haze 
compliance costs?
    Answer. One important aspect of the Control Cost Manual (CCM) is 
that it sets forth one well recognized control cost methodology that 
provides consistency for all air agencies in preparing and reviewing 
cost estimates for BART and other programs, thereby providing a 
foundation for the comparison of cost estimates prepared by different 
sources in different locales. This methodology is still well recognized 
and valuable today and includes equations and data to generate cost 
estimates for engineering and installing control technology. Through a 
notice-and-comment rulemaking, the EPA has required that BART analyses 
for certain powerplants (based on size) follow this methodology.\1\ It 
should be noted that a major reason for EPA disapproval of cost 
estimates included in Regional Haze SIPs has been the failure to follow 
the methodology for cost estimation provided in the CCM for some of 
these powerplants by either including items that are not part of this 
methodology or not including all cost items. While EPA has no reason to 
believe that the methodology for cost estimation is out of date, the 
Agency will review the methodology provided in the CCM in light of the 
concerns outlined and update the methodology if necessary.
---------------------------------------------------------------------------
    \1\ 40 CFR 51.308(e)(1)(ii)(B) and section IV.D.4.a.5 of appendix Y 
of 40 CFR part 51 require that cost estimates used in BART analyses for 
powerplants having a generating capacity greater than 750 megawatts 
must be based on the OAQPS Control Cost Manual, where possible.
---------------------------------------------------------------------------
    The CCM also contains cost estimates for particular types of 
emission control systems, based on then-current information from actual 
installations of particular controls at particular sources. These 
historically based estimates may become outdated. However, the CCM 
itself specifically allows and encourages users of the Manual to 
develop and use alternative cost estimates based on more recent or more 
directly relevant installation experiences, provided such alternative 
estimates are well justified and documented. In fact, EPA has never 
disapproved a State BART determination based only on the State having 
used cost estimates based on such more recent or more directly relevant 
experiences.
    Question. EPA uses an air dispersion model, called CALPUFF Version 
5.8, to assess projected improvements in visibility from proposed 
NO<INF>X</INF> retrofit technologies. How does EPA respond to 
scholarly, peer-reviewed studies asserting that CALPUFF Version 5.8 
overestimates visibility improvements? What does EPA need to do to 
update CALPUFF Version 5.8? Is this underway? Why is EPA not allowing 
the use of more recent versions of CALPUFF, such as Version 6.4?
    Answer. EPA, States, and industry work collaboratively to ensure 
that dispersion models are continually improved and updated to ensure 
the most accurate predictions of visibility impacts. While the studies 
have been described as having been through peer review, they are 
largely papers included as part of general proceedings at conferences, 
as opposed to a formal peer review associated with submission to 
scientific journals. Therefore, we do not consider these references 
suitable for establishing the validity of a model or demonstrating that 
a model has undergone independent scientific peer review in accordance 
with Appendix W.\2\
---------------------------------------------------------------------------
    \2\ Section 3.2.2(e)(i) of EPA's Guideline on Air Quality Models 
(published as Appendix W of 40 CFR part 51).
---------------------------------------------------------------------------
    CALPUFF Version 5.8 is the most recent version of the model that 
meets the criteria in Appendix W. The newer version(s) of the CALPUFF 
dispersion model have not received the level of review required for use 
in a regulatory context. Based on EPA's review of the available 
evidence, the models have not been shown to be sufficiently documented, 
technically valid, and reliable for use in a BART decisionmaking 
process.
    In the BART guidelines, EPA acknowledged that the regulatory 
version of the CALPUFF model (Version 5.8) could lead to modeled over 
predictions. The over predictions could overestimate the visibility 
impairment that a source causes on the day when weather conditions make 
the source have its maximum impact on a Class I area.\3\ Therefore, in 
the final version of the BART guidelines, EPA recommended that the 
CALPUFF model be used to estimate the 98th percentile visibility 
impairment rather than the highest daily impact value as proposed. If 
updated versions of CALPUFF can be shown to meet the criteria of 
Appendix W, it would likely be appropriate for the EPA to recommend 
that States switch to use the highest daily impact given that the 
updated chemistry of the CALPUFF model would result in more accurate 
results on such days than does Version 5.8.\4\
---------------------------------------------------------------------------
    \3\ ``Most important, the simplified chemistry in the model tends 
to magnify the actual visibility effects of that source. Because of 
these features and the uncertainties associated with the model, we 
believe it is appropriate to use the 98th percentile--a more robust 
approach that does not give undue weight to the extreme tail of the 
distribution.'' 70 FR 39104, 39121.
    \4\ In past agreements in using the CAMx photochemical model, which 
has a robust chemistry module, EPA has recommended the use of the 1st 
High value when sources were being screened out of a full BART analysis 
based on the CAMx results. See Comment Letter from EPA Region 6 to TCEQ 
dated February 13, 2007 regarding TCEQ Final Report ``Screening 
Analysis of Potential BART-Eligible Sources in Texas,'' December 2006.
---------------------------------------------------------------------------
    In coordination with the Federal Land Managers, EPA has already 
updated the current regulatory version of CALPUFF (Version 5.8) to 
address known ``bugs'' and expects to release the updated version later 
this summer. At the AWMA Specialty Conference in March 2013 and Annual 
Regional/State/Local Modelers workshop in April 2013, EPA provided 
information on the process and plans for updating Appendix W to address 
chemistry for individual source impacts on ozone, secondary 
PM<INF>2.5</INF> and regional haze/visibility impairment. EPA and 
Federal Land Managers have formed an interagency workgroup to review 
all available models to determine their suitability for these analyses, 
including updated versions of the CALPUFF modeling system. EPA also 
interacts with industry and other stakeholders. The information 
provided to EPA by WEST Associates and the model developer indicates 
that the new science updates include changes to incorporate atmospheric 
chemistry. These changes would require a notice and comment rulemaking 
in order for CALPUFF to be approved for analysis of atmospheric 
chemistry under Appendix W. Therefore, EPA will be considering this 
updated version of CALPUFF along with other models and techniques in 
its current review and planned regulatory update to Appendix W.
                                 ______
                                 
              Questions Submitted by Senator Mike Johanns
                       citizen-suit transparency
    Question. With respect to public transparency where a citizen's 
suit has been brought against the Agency alleging a failure to 
undertake a nondiscretionary duty and where a third party has been 
granted status as an intervenor:
    Does the Agency believe there is any legal bar to notifying the 
public (including intervenors) in a timely manner of the EPA's intent 
to enter into settlement negotiations with the plaintiff?
    Answer. EPA fully appreciates the importance of public involvement 
in its rulemaking and other decisions. Most of EPA's defensive 
environmental cases are under the Clean Air Act, which provides the 
public notice and the opportunity to comment on any consent order or 
settlement before it is final or filed with the court. EPA does not 
commit in settlement to any final, substantive outcome of a prospective 
rulemaking or other decisionmaking process. The rulemaking process 
offers ample opportunity for the public, including regulated entities, 
to provide meaningful comment on any proposed regulation.
    Question. Does the Agency believe there is any legal bar to 
including intervenors in any settlement negotiations?
    Answer. The conduct of litigation involving the United States, 
including settlement negotiation, is the primary responsibility of the 
Department of Justice. EPA notes that there are existing opportunities 
under the Federal civil rules of procedure for interested parties to 
intervene in litigation, and settlements requiring court approval of 
consent decrees provide opportunities for interested parties to present 
their views. The involvement of third parties in settlement 
negotiations may constrain the ability of the Federal Government to 
reach an appropriate settlement, however, and the Department of Justice 
needs to retain the discretion to determine when involvement of third 
parties serves the interests of the United States.
                            foia disclosure
    Question. In early February, your agency released personal 
information on 80,000 livestock operations across the United States. In 
Nebraska, personal information on over 3,500 operations was released.
    Did EPA conduct an independent evaluation of the data States 
submitted to EPA and redact any such personal information the Privacy 
Act, Freedom of Information Act, or EPA's own policies required it to 
before the Agency made its first release of the data?
    Answer. In recognition of the concerns raised by the animal 
agricultural industry, the EPA engaged in a review of its FOIA response 
to determine whether the information released is publicly available, 
and whether any revisions to the agency's determination to release the 
information is warranted under the privacy exemption (Exemption 6) of 
the FOIA.
    As a result of this review, we have determined that, of the 29 
States \5\ for which the EPA released information, all of the 
information from 19 of the States is either available to the public on 
the EPA's or States' websites, is subject to mandatory disclosure under 
State or Federal law, or does not contain data that implicated a 
privacy interest. The data from these 19 States is therefore not 
subject to withholding under the privacy protections of FOIA Exemption 
6. The EPA has determined that some personal information received from 
the 10 remaining States \6\ is subject to Exemption 6.
---------------------------------------------------------------------------
    \5\ The 29 States are: Alabama, Arkansas, Arizona, Colorado, 
Florida, Georgia, Iowa, Illinois, Indiana, Louisiana, Maryland, Maine, 
Michigan, Missouri, Montana, North Carolina, North Dakota, Nebraska, 
New Jersey, New York, Ohio, Oregon, Pennsylvania, South Dakota, 
Tennessee, Texas, Utah, Wisconsin, and Wyoming.
    \6\ The 10 remaining States are: Arizona, Colorado, Georgia, 
Indiana, Illinois, Michigan, Montana, Nebraska, Ohio, and Utah.
---------------------------------------------------------------------------
    The EPA has thoroughly evaluated every data element from each of 
these 10 States and concluded that personal information--i.e., personal 
names, phone numbers, email addresses, individual mailing addresses (as 
opposed to business addresses) and some notes related to personal 
matters--implicates a privacy interest that outweighs any public 
interest in disclosure.
    We amended our FOIA response to redact portions of the data 
provided by these 10 States. The redacted portions include telephone 
numbers, email addresses, and notations that relate to personal 
matters. They also include the names and addresses of individuals (as 
opposed to business facility names and locations, though facility names 
that include individuals' names have also been redacted). We believe 
that this amended FOIA response continues to serve its intended purpose 
to provide basic location and other information about animal feeding 
operations in order to serve the public interest of ensuring that the 
EPA effectively implements its programs to protect water quality, while 
addressing the privacy interests of the agricultural community.
    Question. I am told the original release contained no redactions 
based on FOIA Exemptions or the Privacy Act. Is this accurate?
    Answer. Our initial FOIA response was released in the same 
condition as it was received by EPA from the States.
    Question. EPA has now reportedly agreed that in the case of data 
from 10 States EPA should have redacted information. Is this an 
accurate rendering?
    Answer. After a comprehensive review, the EPA determined that some 
personal information received from 10 States is subject to FOIA 
exemption 6 and took action to redact that information.
    Question. Does EPA believe that the release of unredacted data in 
early February is consistent with applicable FOIA and Privacy Act law?
    Answer. It was EPA's understanding, based on our communication with 
States, that the information received, and subsequently released, was 
all publicly available, either through an online database or through a 
public records request to each State. EPA requested only publicly 
available information from States. EPA believes that its response to 
the FOIA requesters was consistent with its obligations under the 
Privacy Act.
    Question. With respect to the redactions that EPA now acknowledges 
should have occurred before any FOIA release occurred, has EPA asked 
for a list of entities and individuals who received (or viewed) the 
unredacted data?
    For those individuals and entities, has EPA asked for affidavits 
certifying that those individuals and entities have not kept copies or 
otherwise released or inappropriately recorded the data that was 
subsequently redacted?
    Answer. The EPA requested that all copies of the original response 
be returned from all the requesters. The EPA also requested that the 
requesters confirm that all copies of the information were destroyed. 
The FOIA requesters subsequently complied. The EPA will work together 
with our Federal partners, industry, and other stakeholders to ensure 
the agency continues to address the privacy interests of farmers.
    Question. Is it EPA's goal to establish and publish a national 
livestock database to be published on EPA's website?
    Answer. EPA has made no decision about establishing such a database 
and is coordinating with stakeholders and other Federal agencies to 
determine how data EPA has gathered about Concentrated Animal Feeding 
Operations (CAFOs) will be used.
    Question. Does the Agency believe that publishing a national 
livestock database will make our food supply less secure?
    Answer. As noted above, EPA has made no decision about establishing 
such a database. I can assure you that the agency's future actions to 
protect water quality will be done in coordination with industry, other 
Federal agencies, and other stakeholders to ensure the privacy 
interests of farmers and the integrity of our Nation's food supply.
              cooling water intake structures--cwa 316(b)
    Question. With respect to EPA regulations addressing the systems 
and equipment that powerplants and manufacturing facilities use to pump 
water into a facility to manage heat:
    Is EPA considering an impingement proposal that will consider each 
site on an individual basis, taking into account fish-protection 
measures in place, and consider the costs and benefits of mandating 
additional measures intended to address impingement?
    Answer. The EPA proposed a regulation that would allow application 
of ``best professional judgement'' on how most effectively to address 
fish impingement for cooling water users who intake under 50 million 
gallons/day (MGD). A number of States expressed concern during the 
public comment period about the costs of implementing a site-specific 
approach to permitting. In a subsequent Notice of Data Availability, 
EPA also requested comment on adopting a site-specific approach to 
address impingement for all facilities. EPA received numerous comments 
on this issue. EPA is carefully considering these comments, in crafting 
the final rule consistent with the Clean Water Act.
    Question. With respect to the requirements addressing the selection 
of and installation of entrainment and impingement technology, is the 
Agency considering making congruent the deadlines applicable to 
entrainment and impingement requirements?
    Answer. Yes, EPA is considering including provisions in the final 
rule to align the deadlines for impingement and entrainment, so that 
facility compliance would be less costly and more efficient.
    Question. I have constituents who are very concerned with the sheer 
volume of information that may be required to be submitted within 6 
months of the final rule, (the (r)(2) through (r)(9) report submittals) 
which EPA has already collected through previous information requests. 
If this information has already been submitted, is the Agency 
considering writing the final rule such that facilities would be 
permitted to exclude previously submitted information from this list of 
requirements?
    Answer. Yes, the EPA is considering how its final rule can limit 
information burden on facilities. For example, the EPA is considering 
provisions in its final rule that would reduce or eliminate information 
collection requirements when the permitting authority does not need the 
additional information.
    Question. Will the Agency consider extending the deadline for 
submittal from 6 months to 1 year?
    Answer. Yes, the Agency is considering this and other suggestions 
the Agency has received that would help minimize reporting 
requirements.
    Question. The proposed rule, under (r)(9) Entrainment 
Characterization Study Plan, requires a peer review process that some 
consider undefined and unreasonable compared to any other rules EPA has 
promulgated. Is this requirement unlike a public comment period that 
would already be required by the facility's NPDES Permit, and if so, 
how?
    Answer. In devising the proposed rule, EPA was concerned about the 
burden associated with site-specific decisionmaking that States would 
bear. EPA was sensitive to the fact that States may lack staff with 
economics expertise necessary to review benefit/cost analyses as part 
of NPDES permitting. EPA viewed peer review as a close substitute for 
State burden. EPA received public comments on the peer review 
requirements consistent with this question. In the final rule, EPA 
expects to address the burden of peer review and is considering 
altering the requirements to reduce peer review burden.

                          SUBCOMMITTEE RECESS

    Senator Reed. And if there is no further business before 
the subcommittee, the hearing is concluded.
    [Whereupon, at 11:19 a.m., Wednesday, April 24, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]


     DEPARTMENT OF THE INTERIOR, ENVIRONMENT, AND RELATED AGENCIES 
                  APPROPRIATIONS FOR FISCAL YEAR 2014

                              ----------                              


                          TUESDAY, MAY 7, 2013

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:31 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Jack Reed (chairman) presiding.
    Present: Senators Reed, Feinstein, Leahy, Tester, Udall, 
Merkley, Murkowski, Cochran, Alexander, Blunt, Hoeven, and 
Johanns.

                       DEPARTMENT OF THE INTERIOR

                        Office of the Secretary

STATEMENT OF HON. SALLY JEWELL, SECRETARY
ACCOMPANIED BY:
        DAVID HAYES, DEPUTY SECRETARY
        RHEA SUH, ASSISTANT SECRETARY, POLICY, MANAGEMENT AND BUDGET
        PAMELA HAZE, DEPUTY ASSISTANT SECRETARY, BUDGET, FINANCE, 
            PERFORMANCE AND ACQUISITION

                 OPENING STATEMENT OF SENATOR JACK REED

    Senator Reed. Let me call the hearing to order. Good 
morning. On behalf of the Interior, Environment, and Related 
Agencies Appropriations Subcommittee, I'd like to convene this 
hearing on the fiscal year 2014 budget request for the 
Department of the Interior.
    Before we begin, I'd like to take a moment to welcome our 
new Secretary, Sally Jewell, who was sworn in as the 51st 
Secretary of the Interior on April 12. We are all fortunate 
that she brings to her new position three decades of very 
distinguished experience as a corporate executive, a banker, 
petroleum engineer, and most recently, serving as the Chief 
Executive Officer of Recreational Equipment Incorporated. And 
just as importantly, I think, she also brings to the job her 
personal experience as an avid outdoorswoman and advocate for 
public lands.
    So, thank you, Madam Secretary, for your commitment to 
service.
    I congratulate you, obviously, on behalf of the entire 
subcommittee, and we are very, very pleased that we are able to 
host your very first congressional hearing as Secretary. I 
think, knowing Senator Murkowski, we promise to behave. So, 
good luck. And I also look forward to hosting you up in Rhode 
Island to see one of America's great natural treasures.
    Let me also recognize Deputy Secretary David Hayes, who is 
here for us in his final appearance before he departs for his 
new position at Stanford Law School and the Hewlett Foundation 
in June. David, thank you for your extraordinary experience in 
both the Obama administration and the Clinton administration. 
You have performed extraordinary service for the country. 
You've been very helpful to us in terms of offshore development 
of wind power off Rhode Island. And I want to thank you 
particularly for joining Senator Murkowski and me, and then 
Secretary Salazar, on our tour of Alaska, including the North 
Slope.
    Now, subject to being corrected by Senator Murkowski, I 
don't think you'll find another restaurant quite as unique as 
Pepe's North of the Border in Barrow. If you do find such a 
restaurant in Stanford, please let us know, because we will go 
there.
    But good luck in all you do. Thank you.
    And let me also recognize Ms. Rhea Suh, Assistant Secretary 
for Policy, Management and Budget, and Pam Haze, her deputy. 
They provide extraordinary assistance, and they are the 
continuity and the expertise. Madam Secretary, I think you 
already recognize that, since David is leaving.
    I also want to congratulate Ms. Haze because she has been 
recently awarded the Presidential Distinguished Rank Award to 
honor her exemplary service to the Department. So, Pam, well 
done. Thank you--an honor richly deserved.

                              2014 BUDGET

    As we turn to the budget, it's worth noting that the 
President's request for fiscal year 2014 provides the Interior 
Department with substantial increases for energy development, 
land acquisition, science programs, and operations of our 
Nation's public lands. And, Secretary Jewell, it's good to see 
such a strong budget request for conservation programs at a 
time when the Department has been challenged by the effects of 
sequestration and other pressures on the budget.
    Let me suggest a few details that we can discuss as the 
hearing proceeds. All told, Interior Department programs funded 
by this subcommittee increased by almost 4 percent compared to 
fiscal year 2013, for a total of $10.7 billion. The request 
includes $2.6 billion to the National Park Service (NPS), which 
is a 4-percent increase more than fiscal year 2013. While the 
budget provides a significant increase for the operation of the 
national parks, however, I'm concerned that the budget again 
proposes to cut funding in half in National Heritage Areas, 
like the John H. Chafee Blackstone River Valley National 
Heritage Corridor in Rhode Island, and I look forward to 
discussing this issue with you.
    Funding for the Bureau of Land Management (BLM) is also up 
4 percent more than the fiscal year 2013 level, for a total of 
$1.1 billion. That amount again includes a proposal for a $48 
million fee to strengthen the onshore oil and gas inspection 
program. The request also proposes to increase funding for the 
U.S. Fish and Wildlife Service budget by 7 percent, for a total 
of $1.55 billion. That amount includes increases for the 
National Wildlife Refuge operations and science programs. 
Additional investments in science and research are also made in 
the budget for the U.S. Geological Survey (USGS), which is 
slated to receive a 9-percent increase more than fiscal year 
2013.
    In this atmosphere, these increases are significant and 
notable, as you, I think, recognize, Madam Secretary.
    Funding to the Department's offshore energy programs, which 
have long been an item of interest to the subcommittee, also 
increased by 9 percent, for a total of $392 million. That 
amount includes $169 million for the Bureau of Ocean Energy 
Management to fund new investments for permitting renewable 
energy projects like the ones we're pursuing off the coast of 
Rhode Island.
    It also includes $222 million to the Bureau of Safety and 
Environmental Enforcement, which handles inspections and 
enforcement related to offshore oil and gas production, and 
that is an increase of $22 million more than fiscal year 2013 
levels. The request includes $777 million for Wildland Fire 
Management programs within the Department, a decrease of $60 
million below fiscal year 2013. But that amount fully funds the 
10-year rolling average for fire suppression, but does not 
include offsetting cuts to the Hazardous Fuels Reduction 
program.
    Finally, the budget request includes a major initiative to 
Land and Water Conservation Fund (LWCF), which I expect we'll 
discuss this morning. Specifically, the budget provides a total 
of $600 million for the LWCF programs at the Interior 
Department and the U.S. Forest Service, including $400 million 
in appropriations funded by this subcommittee. For the first 
time ever, the budget proposes to fund part of the land 
acquisition and conservation budget with mandatory, rather than 
discretionary, funding.
    Obviously, I support this increased funding, but we have a 
long-term role in the allocation of these funds, and I think 
it's something that we should discuss with respect to this 
proposal. I indeed look forward to hearing from you.
    With that, let me now turn to the ranking member and 
colleague, Senator Murkowski, for any comments she would make.
    Senator.

                  STATEMENT OF SENATOR LISA MURKOWSKI

    Senator Murkowski. Thank you, Mr. Chairman. And welcome and 
good morning, Madam Secretary. It's good to have you before the 
subcommittee. This will be, of course, the first of many 
opportunities to sit down and work together on issues that are 
clearly important to our Nation, the public lands, clearly 
important to my State as the host of so many of those 
treasures. So again, welcome and congratulations.
    I also want to acknowledge the good work of Deputy 
Secretary David Hayes, and I share the chairman's appreciation 
for the work that you have provided for the Department of the 
Interior under former Secretary Salazar. We all know that, we 
both know that there were some very difficult issues that you 
worked on, particularly the issues related to the Arctic Outer 
Continental Shelf (OCS). We didn't always agree on everything, 
but you were always very honest, very open with me and my 
staff. I appreciate that, and I appreciate your leadership 
within the Department.
    I am sorry to see you leave, but good luck to you as you go 
off to Stanford. And anytime you want to come fishing up north, 
you know that we're there to welcome you.
    I also want to acknowledge today both Rhea Suh, the 
Assistant Secretary for Policy, Management and Budget, and of 
course, Pam Haze. Again, a great individual within the 
Department there, I appreciate your good work. Madam Secretary, 
I know that you're new to this position. But you truly do have 
a seasoned budget team with you today that I think will serve 
you well during your tenure.
    Like your predecessor, who visited our State frequently, I 
hope, Madam Secretary, that you will come to Alaska soon. This 
is a critical time for our State. And I would certainly 
appreciate the opportunity to show you personally some of the 
things that are a priority for me and for Alaskans, not the 
least of which, we'll have an opportunity, hopefully in August, 
to go out to King Cove. But there's so much to see. So I look 
forward to those opportunities.
    As you start your new position, I will say the same thing 
that I said, too, to my friend Ken Salazar, when he assumed the 
position as Secretary of the Interior. You are Alaska's 
landlord, effectively. We've got more than 220 million acres 
under the Department's jurisdiction, and that does not include 
the millions of acres of OCS waters. We have the Nation's 
largest National Wildlife Refuge, which is fully 85 percent of 
the entire refuge system. We have the Nation's largest national 
park and nearly one-third of all BLM lands, more than 75 
million acres.
    We also have one-half of all federally recognized tribes. 
And the trust responsibility that the Federal Government owes 
to our first peoples is very important to me. And at times, I 
don't think it has been given the attention that it deserves by 
either the Department of the Interior or BIA's sister agency, 
the Indian Health Service. So I hope that you would take a 
fresh look at improving the Department's relationship with 
Native Americans and Alaska Natives.
    Now, turning to your budget, I know that most of it was 
largely developed prior to your assuming this position as 
Secretary. That's got to be a tough, tough situation to walk 
into. But I must tell you that there are two proposals in this 
request that are, frankly, an insult to the people of Alaska, 
and I'm speaking particularly of the legislative proposals 
concerning future funding for the cleanup of legacy wells in 
the National Petroleum Reserve--Alaska (NPRA) and the 
completion of surveys that are necessary to convey final 
patents to the State of Alaska and to Alaska Natives.
    More than 100 wells were drilled by the Federal Government 
within the NPRA and then simply abandoned. The Government 
simply walked away. The annual budget for BLM has for many 
years contained base funding of only about $1 million for 
cleaning up these wells. The last two sites that were addressed 
cost the agency $2 million each to remediate to acceptable 
standards. So at this pace, it's going to take over 100 years 
to clean up this mess.
    Interestingly, if the Federal Government were a private 
company operating on State lands, the fines, the fines alone 
would exceed $8 billion. But we all know that the Federal 
Government is exempt from State regulation on its own lands.
    While the current situation is bad enough, the budget now 
proposes to take the State's share of future revenues that are 
generated from the NPRA to pay for the cost of the cleanup. In 
other words, Mr. Chairman, what is proposed here, the budget 
proposes to charge the State of Alaska for the Federal 
Government's own mess. For what they failed to clean up, they 
are now asking the State to step in and pick it up.
    And I just need to be very, very plain today. This 
proposal, in my view, is dead on arrival. It's just not going 
to happen. So we need to be working together to address the way 
that we will move forward with that, and I look forward to that 
opportunity.
    Likewise, the notion that the State must pay for the final 
lands entitled to it under the statehood act is equally 
wrongheaded. This has been a problem for decades. So again, you 
are walking into a situation that has been out there 
unaddressed, and how you will deal with it is difficult. In 
2004, the Congress passed the Alaska Land Transfer Acceleration 
Act that was intended to nearly finish conveyances by the 50th 
anniversary of statehood; that was back in 2009. That, of 
course, didn't happen. But at least the Department has made an 
attempt to increase the pace of conveyances, and I do 
appreciate that.
    For the last several years, the Department annually slashes 
the budget request for this program, even though the State is 
still waiting for title to more than 37 million acres of its 
lands. Alaska Natives are awaiting final transfer of 11.4 
million acres, fully one-quarter of their lands. Some 40 years 
after the fact, they're still waiting.
    My staff has searched; they can find no other State in the 
Union that was ever asked to effectively pay to gain the lands 
that were promised them when they joined this Union. Not 
Arizona, not New Mexico, not Florida, not California--no one, 
not one State has been asked to foot the bill to pay for the 
lands. We're not going to start with Alaska.
    I would ask, Mr. Chairman, I've received a letter from the 
Alaska Native Village CEO Association that speaks to the issue 
of the land conveyances, and I would ask that that be included 
as well, for the record.
    Senator Reed. Without objection.
    [The letter follows:]
         Letter From the Alaska Native Village CEO Association
                              Alaska Native Village
                                           CEO Association,
                                     Anchorage, AK, April 19, 2013.
    Re: Funding for BLM Alaska Conveyance Budget.

Hon. Don Young,
House of Representatives,
Rayburn House Office Building, Washington, DC.
Hon. Lisa Murkowski,
U.S. Senate, Hart Senate Office Building,
Washington, DC.
Hon. Mark Begich,
U.S. Senate, Russell Senate Office Building,
Washington, DC.
Sally Jewell,
Secretary of the Interior, Department of the Interior,
C St. NW, Washington, DC.
    Dear Congressman Young, Senator Murkowski, Senator Begich, and 
Director Jewell: I am writing on behalf of the Alaska Native Village 
CEO Association (ANVCA). ANVCA is the largest statewide Village' 
Association representing more than 80 Alaska Native Village 
Corporations. ANVCA's mission is to provide services that will improve 
the efficiency, profitability and stability to its member corporations 
and to advocate for policies that will benefit and protect interests of 
Alaska Native Village Corporations with local, State and Federal 
governments.
    Due to the President's budget and the 8 percent sequestration which 
is in effect until the end of September, there is no funding for 
cadastral surveys of ANCSA Corporation exterior boundaries, 14(c) or 
pending Native Allotments this year, and possibly next year. This is 
unacceptable. BLM cannot follow through on its Federal mandate in ANCSA 
13(a) which states: ``The Secretary shall survey the areas selected or 
designated for conveyance to Village Corporations pursuant to the 
provisions of this act.''
    A number of ANCSA Village and Regional Corporations had remaining 
entitlements and 14(c) surveys that were ready for survey this summer; 
however BLM had funds to perform only one cadastral survey this year.
    Many of these survey projects were to be contracted out to Public 
Law 638 Indian Self Determination and Education Act Contractors who 
perform the surveys on behalf of their own communities and on 
traditional lands. 638 Contracting promotes local hires, more funding 
is pumped directly into the local economy and the 638 contractors gain 
valuable Federal contracting experience.
    This setback will have profound consequences on our community and 
our entire State, both economically and socially. Dozens of our Alaskan 
village lands need surveys on the ground so vested 14(c) claimants can 
receive title to their homes, businesses, subsistence campsites and 
land for community expansion. Without survey of home lots, local people 
have difficulty getting a loan from the bank. Municipal governments 
need site control to get State and Federal funding for pressing 
community needs. ANCSA Corporations have a liability issue that comes 
from owning land that the public uses. The lack of survey also means 
that title to our remaining Corporation land is clouded until the 14(c) 
obligation is done and surveyed lands are conveyed to individuals, 
organizations and the City. Lack of survey is not only an ANCSA 
Corporation problem; it is a State of Alaska problem as well.
    Therefore. we urge you to make it a priority to restore. or even 
increase, funding for Alaska Native, and State of Alaska, lands through 
the Bureau of Land Management Alaska Conveyance Program for the survey 
of ANCSA and State lands.
    Please feel free to contact me regarding this matter at any time by 
contacting ANVCA.
    Thank you for your consideration.
                                             Nichola Ruedy,
                                          ANVCA Operations Manager.

    Senator Murkowski. So, Madam Secretary, you have a very 
unique background. We had an opportunity to discuss this during 
your confirmation hearings, a unique background in both the oil 
and gas industry in the private sector, as well as the 
conservation community. I know that some have perhaps been 
critical about your lack of experience in the public policy 
realm.
    But I'm hopeful that, as a fresh set of eyes and new 
perspective like you bring can help us move beyond some of the 
traditional stalemates that we have faced that pit one interest 
against another. I honestly believe it's possible for you to 
set a policy agenda at the department that is beneficial to all 
parties.
    My State and our country have so much potential to provide 
the help needed to address our Nation's energy, security, high 
unemployment, the sluggish economy. And I think that, working 
together, we can set this on the right course. So I appreciate 
your willingness to work with me on that.
    Mr. Chairman, I thank you and all of our witnesses for 
appearing before this subcommittee today and look forward to 
the opportunity for questions.
    Senator Reed. Thank you, Senator Murkowski.
    Let me just sort of give an overview of where we are. We 
have a 12 o'clock vote. It's now 10:45 a.m. We'll do 6-minute 
rounds, order of arrival, and we'll go by side to side.
    At this point, if any of my other colleagues would like to 
make a very brief, in the order of 1-minute statement, I'd be 
happy to entertain it.
    Very good. Thank you. In that case, Madam Secretary, your 
testimony is going to be made part of the record in its 
entirety. So feel free to summarize. Madam Secretary.

                   SUMMARY STATEMENT OF SALLY JEWELL

    Secretary Jewell. Thank you very much, Mr. Chairman, 
Ranking Member Murkowski, members of the subcommittee. It is an 
honor to present the fiscal year 2014 budget. I look forward to 
future years when I actually will have a hand in creating it. 
But I'm now in my fourth week on the job and certainly enjoying 
it so far.
    I do want to recognize my colleagues up here at the table, 
and in particular thank David Hayes for his guidance and his 
leadership, and his willingness to stay through the end of 
June, because I am doing as much as I can to tap his wisdom. 
Rhea Suh and Pam Haze have been incredibly helpful to me, as 
well, and continue to be.

                             SEQUESTRATION

    It's helpful to have a business background right now at 
this time in Government. I will do a glancing blow at 
sequestration. I can't not express that it is very, very 
difficult to walk into a Department that's just had an $881 
million cut to the budget for fiscal year 2013. Five percent in 
a year, but applied over the remaining months has been very, 
very difficult, and hard on employees, who are hardworking, who 
are committed to our mission, to all the things that you care 
about as well.
    They're really taking it on the chin, from furloughs of 
U.S. Park Police, 14 days that they're not going to be getting 
paid, to a 25-percent reduction across the board in our 
seasonal hires. So wildlife biologists, law enforcement 
rangers, interpretive rangers, maintenance folks, it's just 
very, very difficult for us to carry out the mission in the way 
it's expected.
    Just a couple of examples: Our public lands in all of your 
States have welcomed 435 million visitors a year, and they're 
going to see reductions in services and programs. Some of the 
parks won't be open to the extent that we would like them to be 
because you've got to protect the people and protect the 
resources.
    On the energy side, we just announced that we would not be 
able to do a few lease sales in California through BLM, because 
we have to prioritize those activities that are already in 
flight, from an environmental safety and protection standpoint, 
to authorizing permits to drill. This is going to impact our 
ability on both the conventional energy side and the renewable 
energy side to complete the environmental impact statement 
work, the permits and so on.
    I know it's not where you want us to go; it's certainly not 
where we want to go. This budget we're dealing with in fiscal 
year 2013 is roughly equivalent to where we were in 2006, not 
accounting for inflation. So it's very, very difficult. I have 
to say that I have been doing what I can to boost the spirit 
and encourage the people that work at Interior and devote so 
much of their time to this. But it's a rough year.

                              2014 BUDGET

    So fiscal year 2014 is a better choice for all of us. I 
know you all agree with that. The $10.9 billion budget for 
fiscal year 2014 supports energy and conservation. It supports 
upholding our trust responsibilities, as Ranking Member 
Murkowski referenced, to Native Americans and Alaska Natives, 
and sound science to drive our decisionmaking.
    The investments are focused on our economy, jobs, and our 
country's future. Of the $513 million increase requested over 
the fiscal year 2012 enacted budget, about 40 percent of it is 
strictly for the fire program. So there's a lot of puts and 
takes.

                    LAND AND WATER CONSERVATION FUND

    You referenced, Mr. Chairman, the LWCF and our request that 
over a 2-year period of time the funding be moved into the 
mandatory funding category. It fulfills, really, a 50-year 
promise to the American people to take offshore oil and gas 
revenues and mitigate those impacts by putting a portion of the 
revenues into conservation programs onshore. The LWCF has 
touched every single county across the United States. We think, 
given the environment that we're in, mandatory funding makes 
sense, and we could certainly get into more of that in the 
questioning.

                                SCIENCE

    On the science side, we have a $946 million investment in 
both basic and applied science to support the mission-essential 
programs. It's about a $138 million increase from fiscal year 
2012. What do we use this for? USGS and the FWS address 
invasive species threats. One big one is the Asian carp as it 
potentially moves into the Great Lakes. If we let that get out 
of control, we're in real trouble. This provides the science 
and the support to try and nip that in the bud before it 
becomes a problem.
    The white-nose syndrome in bats, a big issue for the 
agricultural community, particularly in the Northeast, but 
actually throughout the country as well, again bringing the 
resources to bear from science to address things like that. The 
use of geographic information system mapping to get a lot 
smarter about how we manage our lands overall. These are all 
investments in science I think will help us carry out our 
mission and fulfill the interests of your States.

                            INDIAN PROGRAMS

    On the Indian programs side, our fiscal year 2014 budget 
requests $2.6 billion for Bureau of Indian Affairs programs 
overall. That is upholding our trust management 
responsibilities in Indian education, law enforcement, and 
social service programs. We have increases in this budget for 
contract support costs for tribes around their self-
determination, to help combat domestic violence in Indian 
communities, help tribes manage their natural resources, and 
prepare for threats from climate change.

                              2014 BUDGET

    This is a balanced budget, from the standpoint of 
supporting the administration's priorities without adding a 
dime to the deficit. One thing that is beneficial about 
Interior is we generate revenue. This budget proposes to 
generate $3.7 billion in additional revenue over 10 years. 
We've cut administrative costs by $217 million by reducing 
travel and being strategic in purchasing since 2010. My 
colleagues here on my left have orchestrated the largest IT 
consolidation, perhaps across the Federal Government, which is 
saving hundreds of millions of dollars by being smarter and 
more efficient in how we deliver services.
    And the budget reflects what a businessperson would do, 
which is pick your priorities, scale back in other areas so you 
can fund the areas important to you and that align with the 
missions of Interior. We have about $600 million in reductions, 
which include $476 million under the jurisdiction of this 
subcommittee, freeing up that money to fund the priorities you 
referenced in your opening statements.
    We want to manage this Department, and I will bring my 
business expertise to the table to deliver on our missions 
effectively and support the American taxpayer.
    Final note on Hurricane Sandy. I want to thank all of you 
for your efforts to pass the Hurricane Sandy supplemental 
appropriations act, and a little later on today, we'll be 
issuing a press release on $475 million to be released to 
support Hurricane Sandy relief efforts. Mr. Chairman, it is 
$1.5 million for refuges in Rhode Island. It is reopening the 
Statue of Liberty for the Fourth of July, and many other 
programs identified in that press release that will repair the 
damage and also create more resilience for the future, as we 
have additional storm events that are impactful.

                           PREPARED STATEMENT

    So, I thank you very much for the opportunity and privilege 
to be here. And we all look forward to your questions. Thank 
you.
    [The statement follows:]
                   Prepared Statement of Sally Jewell
    Mr. Chairman and members of the subcommittee, I am pleased to be 
here today. I am glad to have an opportunity to talk with you about my 
priorities, the Department's continuing role in job creation and the 
economy, and how we are practicing good Government.
    We share very deep connections in our roles as stewards of the 
Nation's parks, forests, deserts, rivers, and seashores and as the 
keeper of the history of this country. We share responsibilities to 
protect and advance the role of public lands and Indian lands as huge 
economic engines for the Nation. From energy development, to grazing, 
to logging, tourism and outdoor recreation, our lands and waters power 
our economy and create jobs. In many of your States, the revenues we 
share from energy production and other activities are a critical 
component of the local economy.
    I believe our partnership efforts and ability to resolve challenges 
and take advantage of opportunities will advance our goals and shape 
our country for years to come.
                          2013 appropriations
    Before I talk about the 2014 President's budget, I would like to 
paint the contrast created by the 2013 budget situation. For the 
programs that this subcommittee oversees, the Department's operating 
level for 2013 is $9.9 billion, including a sequester cut of $523 
million.
    The cuts to our budget push us back in time to funding levels we 
last saw in 2006. The cuts reverse much of the progress made by 
Secretary Salazar, who worked in partnership with this subcommittee to 
build capacity to advance the President's all-of-the above energy 
strategy; conserve our lands, waters and wildlife; advance youth 
engagement in the outdoors; and honor commitments to Indian Nations. I 
will admit we were disappointed by the outcome of the 2013 budget. It 
has resulted in dispirited agencies and demoralized employees and it 
undermines the work we need to do on so many fronts.
    I look at the Bureau of Land Management, an agency that has a 
diverse and challenging set of responsibilities, and I feel a sense of 
loss about the impacts to their budget. BLM balances its dual missions 
to protect and conserve natural and cultural resources, oversee and 
manage the development of energy and minerals, and responsibly manage 
historic uses of public lands for grazing and timber production, while 
meeting public demands for wilderness designation and recreation. This 
agency of nearly 11,000 employees has the enormous responsibility of 
managing 245 million acres of land and a mineral estate of 700 million 
acres. BLM oversees 6,000 miles of trails in 14 States, hosts 59 
million visitors annually, and oversees the production of 41 percent of 
the coal produced in this country. BLM's vast estate and complex 
mission requires a balancing of work and stretches resources across 17 
western States.
    BLM strives to be a good neighbor. The BLM's operating budget is 
reduced from last year's operating level by $70 million or 6 percent. 
This reduction comes now, halfway through the fiscal year and at the 
start of field season. The outcome of the 2013 appropriation process 
will slow BLM's efforts to strengthen the management and permitting 
processes for oil and gas, minerals and coal on public lands; reduce 
efforts underway to protect and restore sage grouse habitat; reduce our 
partnerships that help to maintain trails and recreation opportunities; 
and slow the issuance of grazing permits and timber leases. This will 
impact BLM's ability to be a good neighbor because it will be necessary 
to reduce invasive species control, the protection of archeological 
sites, and limit access for camping, hunting and fishing, and other 
recreation.
    In the coming months you will see these types of impacts across the 
country in all of our bureaus and offices. You will also see the 
impacts on your constituents because of cutbacks in programs and 
services and because of reduced revenue sharing, grants and contracts. 
We recently notified State treasurers that they can expect to receive 
reduced mineral payments for the balance of the fiscal year and we 
notified county commissioners that Payments in Lieu of Taxes payments 
will be reduced.
    This discussion is important--we are at a watershed moment for our 
Nation. We can't continue to mortgage our future by cutting back on 
programs that fulfill commitments to the Nation for natural and 
cultural resource stewardship, energy independence, and upholding our 
commitments to Indian Tribes. Interior's budget is 1 percent of 
discretionary spending--a small slice of the pie. However, cuts to our 
programs have disproportionate impacts that we cannot continue to 
erode.
    Our Department collects nearly $13 billion annually through mineral 
extraction, grazing and timber activities on public lands, and 
recreation fees. We share nearly $5 billion of these revenues annually 
with States, tribes, counties and others in the form of grants and 
direct payments. An additional $2 billion of our budget is used in 
local communities across the Nation through contracts for goods and 
services.
    We will survive these cuts in 2013 by freezing hiring, eliminating 
seasonal positions, and cutting back on our programs and services. 
These steps are essential in order to maintain our core mission to 
serve the public. However, they are not sustainable, as these actions 
which are eroding our workforce, shrinking our summer field season, and 
deferring important work cannot be continued in future years without 
further severe consequences to our mission.
                              2014 budget
    The 2013 situation is in stark contrast to our 2014 budget. 
Interior's 2014 budget represents the needs of this Department in 
balance with the constrained fiscal situation. The budget will help us 
to operate effectively and fulfill our mission requirements and 
authorized purposes as prescribed by the Congress.
    The 2014 budget request includes $10.9 billion for programs under 
the jurisdiction of the Interior, Environment and Related Agencies 
Subcommittee. The budget for current appropriations is $513.2 million 
or 5 percent above the 2012 level.
    Including the Bureau of Reclamation and the Central Utah Completion 
Act, which is under the jurisdiction of the Energy and Water 
Development Subcommittee, the 2014 President's budget includes $11.9 
billion, an increase of $486.4 million. Interior's budget request 
includes reductions and savings of over $600 million. These reductions 
reflect the outcome of difficult choices, sacrificing in many areas, 
deferring projects, and programming savings for efficiencies in order 
to maintain funding for highest priorities.
    It is important to put this budget in context. The context is the 
complex mission the Department of the Interior has and how the mission 
affects the lives of all Americans. Nearly every American lives within 
an hour's drive of lands or waters managed by the Interior Department. 
In 2012, there were 483 million visits to Interior-managed lands. 
Recreational visits to Interior's lands had an economic benefit to 
local communities, particularly in rural areas, contributing an 
estimated $48.7 billion in economic activity in 2011. The Department 
oversees the responsible development of 23 percent of U.S. energy 
supplies, is the largest supplier and manager of water in the 17 
western States, maintains relationships with 566 federally recognized 
Tribes, and provides services to more than 1.7 million American Indian 
and Alaska Native peoples.
    Achieving success in all of these important responsibilities on 
behalf of the American people is the Department's primary focus. The 
American people deserve nothing less.
                          investing in america
    Through the America's Great Outdoors initiative, the administration 
is working to expand opportunities for recreation and conservation, 
through partnerships with States and others, and the promotion of 
America's parks, refuges, and public lands. The benefits extend beyond 
the conservation of natural resources and engagement of Americans with 
the outdoors. According to the Outdoor Industry Association, the 
American outdoor recreation economy provides an estimated 6.1 million 
jobs, spurs $646 billion in spending, and brings $39.9 billion in 
Federal tax revenue and $39.7 billion in State and local tax revenue.
    I am very excited the 2014 budget request includes increased 
funding for the Land and Water Conservation Fund and a legislative 
proposal to establish dedicated mandatory funding for LWCF programs, 
with full funding at $900 million beginning in 2015. Enactment of a 
mandatory LWCF program would ensure continued funding for this program 
that was designed to make investments in conservation and recreation as 
compensation to the American people for the development of oil and gas 
resources. In 2014, the budget includes $600 million for LWCF, 
including $200 million in mandatory funding to supplement discretionary 
funds and provide an additional $141 million for Interior programs, 
including $88 million for Federal land acquisition, and $53 million for 
recreational and conservation grants. The budget includes $59 million 
in mandatory funding for U.S. Department of Agriculture's Forest 
Service.
    The AGO initiative is encouraging innovative partnerships in 
communities across the Nation, expanding access to rivers and trails, 
creating wildlife corridors, and promoting conservation while working 
to protect historic uses of the land including ranching, farming, and 
forestry. These efforts are based on donations reflecting the support 
of local communities to protect these areas and create more open space. 
For example, in 2012, the Department established the Swan Valley 
Conservation Area which connects the Canadian Rockies with the central 
Rockies of Idaho and Wyoming. The FWS established the area in 
partnership with landowners who voluntarily entered their lands into 
easements. The new area will protect one of the last low-elevation, 
coniferous forest ecosystems in western Montana that remains 
undeveloped and provide habitat for species such as grizzly bears, gray 
wolves, wolverines, and Canada lynx.
    The 2014 budget includes $5.3 billion in current authority for AGO 
activities, an increase of $179.8 million above 2012. Funding is 
focused on land acquisition programs supported through the Land and 
Water Conservation Fund as well as land management operations, and 
other grant and technical assistance programs to promote conservation 
and improve recreational access. This includes $120.2 million for river 
restoration activities by the Bureau of Reclamation, a new addition to 
our AGO portfolio in 2014.
    The AGO request includes $10 million for a revitalized and 
refocused Urban Parks and Recreation Resource grant program, and $3 
million for a Historic Preservation Fund competitive grant program to 
support projects that help to tell the broader and diverse aspects of 
America's story.
    The 2014 budget continues a collaborative effort begun last year 
with the U.S. Department of Agriculture's Forest Service in the to 
focus on the conservation and restoration of landscapes and working 
lands, protecting ecosystems and the communities that depend on them. 
This approach works with partners at the local level to identify 
landscape areas or ecosystems for collaborative and leveraged 
conservation investments. Working jointly with the Forest Service, 
Interior has identified four focal landscape areas for targeted 
investment of $169.3 million in 2014.
                        a stronger energy future
    Interior enables the safe and environmentally responsible 
development of conventional and renewable energy on public lands and 
the Outer Continental Shelf. The Department's oil and gas development 
activities accounted for nearly $9.7 billion of the receipts generated 
by Interior's activities in 2012. For the past several years, Interior 
has targeted investments in America's energy future, particularly to 
encourage the development of renewable energy on the Nation's public 
lands and offshore areas where it makes sense. In 2009, there were no 
commercial solar energy projects on or under development on the public 
lands. From 2009 through March 2013, Interior authorized 37 renewable 
energy projects on or through the public lands which, if constructed, 
will have the potential to produce enough electricity to power more 
than 3.8 million homes. The Department also plays a key role in efforts 
to strengthen the Nation's electric transmission grid. In 2012, 
Interior approved permits enabling more than 350 miles of transmission 
lines in seven States across Federal lands.
    A stronger America depends on a growing economy that creates jobs. 
No area holds more promise than investments in American energy, with 
the potential to provide clean, low cost, reliable, and secure energy 
supplies. Success depends on the country's ability to pursue an all-of-
the-above energy strategy. Interior's energy resource programs are at 
the forefront of this objective. The 2014 budget includes $771.6 
million for renewable and conventional energy programs, an increase of 
$97.5 million above 2012. This includes $1.1 million for the Bureau of 
Reclamation to better integrate renewable energy technology into their 
projects, building on significant investments to date. Reclamation's 58 
hydroelectric power plants generate more than 40 billion kilowatt hours 
of electricity to meet the needs of over 3.5 million households and 
generate over $1 billion in gross revenues for the Federal Government.
    Renewable energy, particularly solar and wind power, is a crucial 
and growing component of the administration's all-of-the-above energy 
strategy. Among the significant results achieved for renewable power, 
since 2009, BLM has authorized more than 11,500 megawatts of energy on 
public lands and waters, established a road map for responsible solar 
development in the West designating energy zones, and flipped the 
switch on the first solar energy project to deliver power to the grid. 
The BLM also released the Final Environmental Impact Statement for a 
proposed 750 megawatt facility in Riverside County that would be one of 
the largest solar energy projects on public lands in the California 
desert. The BLM is also moving forward on wind energy, with a proposed 
complex in Wyoming that would generate up to 3,000 megawatts of power, 
making it the largest wind farm facility in the United States and one 
of the largest in the world. The 2014 budget includes $29.1 million in 
BLM for onshore renewable energy programs.
    Significant progress has been made to advance offshore wind energy. 
In 2012, BOEM issued the second non-competitive commercial wind lease 
off the coast of Delaware, and moved forward with first-ever 
competitive lease sales for wind energy areas off Virginia and Rhode 
Island/Massachusetts. These sales involve nearly 278,000 acres proposed 
for development of wind generation to produce electricity to power as 
many as 1.4 million homes. The 2014 budget includes $34.4 million in 
BOEM for offshore Renewable Energy development.
    Interior oversees onshore production of oil, gas, and coal on over 
700 million acres of subsurface mineral estate and continues efforts to 
expand safe and responsible onshore energy development. In calendar 
year 2012, the Bureau of Land Management held 31 onshore oil and gas 
sales. Although we planned to conduct 33 sales in 2013, the sequester 
is anticipated to result in fewer and smaller lease sales. The BLM 
sales resulted in 1,707 parcels of land receiving bids in 2012, 30 
percent more than in 2009. Onshore oil and gas leasing reforms put in 
place in 2010 resulted in fewer protests; less than 18 percent of 2,064 
parcels offered in fiscal year 2012 were protested, the lowest since 
fiscal year 2003, reducing costs and speeding development. In 2014, the 
Department proposes a total of $127.1 million in current appropriations 
and offsetting fees for BLM's oil and gas program, representing an 
increase of $23 million in program capacity. This includes $48 million 
in proposed inspection fees, allowing for an increase of $10 million in 
BLM inspection and enforcement resources, along with a reduction of $38 
million in requested appropriations for the program. The proposed 
onshore inspection fee is similar to the fee now charged to inspect 
offshore rigs and platforms.
    Interior has been similarly active in supporting offshore 
production of oil and gas, while continuing to stress management and 
oversight reforms identified as a result of the Deepwater Horizon 
incident. At the end of 2012, more rigs were operating in the gulf than 
in the previous 2\1/2\ years, equaling the number of rigs in the gulf 
before the Deepwater Horizon oil spill. In 2012 alone, BSEE approved 
112 new deepwater well permits, higher than in either of the 2 years 
preceding the Deepwater Horizon oil spill. At the same time, the 
Department has implemented safety and environmental management systems 
regulations; issued a new drilling safety rule to refine safety reforms 
and strengthen requirements; took steps to hold contractors accountable 
for their actions offshore; conducted the first full-scale capping 
stack deployment exercise to respond to a potential future well blowout 
scenario; and provided new guidance on oil spill response plans.
    Interior released a new 5-year program for offshore leasing last 
year, making areas containing an estimated 75 percent of the 
technically recoverable offshore oil and gas resources available for 
exploration and development. In March 2013, BOEM held the second Gulf 
of Mexico sale under the new OCS Plan, drawing 407 bids on 320 tracts 
covering more than 1.7 million acres offshore Alabama, Louisiana, and 
Mississippi, with high bids totaling $1.2 billion. In 2012, BOEM began 
to assess energy resource potential off the coast of the Mid and South 
Atlantic. In 2012, Interior also oversaw the first new exploratory 
activity in the Alaskan arctic in a decade, with Shell Oil Company 
beginning limited preparatory drilling activities in the Chukchi and 
Beaufort Seas under strict safety and environmental oversight. The 2014 
budget includes a legislative proposal to implement an agreement 
reached in 2012 with the Government of Mexico to open up previously off 
limits transboundary oil and natural gas reservoirs in the Gulf of 
Mexico. The 2014 budget includes $478.2 million for conventional 
offshore oil and gas activities. The Department estimates the 
exploration and production of oil, gas, coal, hydropower, and minerals 
on Federal lands contributed nearly $275 billion to the U.S. economy in 
2011.
                          fulfilling the trust
    This administration has made it a top priority to help bring real 
and lasting change in Indian Country and to open a new constructive 
chapter of relations with Native Americans. The administration has a 
comprehensive agenda to reform, repair, and rebuild Federal relations 
with Indian Country to ensure American Indians and Alaska Natives are 
offered the opportunities they deserve. This means respecting the 
inherent sovereignty of tribal nations and making sure the Federal 
Government is honoring its commitments, fulfilling its trust 
responsibilities to tribal nations and individuals, providing 
resources, working cooperatively to build stronger economies and safer 
communities, and providing high quality education opportunities for 
Indian youth at schools funded by the Bureau of Indian Education.
    Interior has worked diligently to restore tribal homelands. Since 
2009, Interior has acquired more than 190,000 acres of land into trust 
and processed over 1,000 requests for land acquisitions that will allow 
for economic development, natural resource infrastructure, and health 
and housing projects to move forward as determined by the Tribes. The 
Secretarial appointed National Commission on Indian Trust 
Administration and Reform will help further these efforts as it 
undertakes a forward-looking, comprehensive evaluation of the 
Department's trust management.
    One of the most significant recent developments regarding 
Interior's trust responsibilities was passage of the Claims Resolution 
Act of 2010, which ratified the $3.4 billion Cobell v. Salazar 
settlement agreement and four tribal water rights settlements. The 
settlement became final on November 24, 2012, following action by the 
U.S. Supreme Court and expiration of the appeal period.
    Interior has launched implementation of a $1.9 billion Indian Land 
Buy-Back Program, authorized in the legislation, to purchase 
fractionated interests in trust or restricted land from willing 
Individual Indian account holders at fair market value within a 10 year 
period. The program enables tribal governments to use consolidated 
parcels for the benefit of their communities. Interior will administer 
the program by securing the Department's extensive expertise and 
services, primarily in BIA and the Office of Special Trustee for 
American Indians, to implement the operational aspects, including 
valuations and acquisitions. As an added incentive to willing sellers, 
the Indian Land Buy-Back Program will fund up to $60 million for a 
scholarship fund for American Indian and Alaska Native students.
    The entire program will be based on consultation with and 
participation of Tribes. Building on the Cobell v. Salazar settlement, 
the administration has engaged tribes in Nation-to-Nation negotiations 
on 59 additional settlements leading to over $1.1 billion in 
settlements to resolve long standing trust accounting and trust 
management claims.
    Interior has also taken another step to give tribes and individual 
Indians greater control over their own lands with the finalization of 
the most sweeping reform of Federal surface leasing regulations in more 
than 50 years. The new regulations remove bureaucratic redtape and 
streamline the approval for homeownership, expedite economic 
development, and spur renewable energy. As a result, individuals and 
tribes will have the ability to do fundamental things on tribal lands, 
like buy a home or build a business. The 2014 budget includes increases 
in Trust Real Estate Services, including a general increase of $4.2 
million to support these efforts.
    The 2014 budget proposes an interim solution in the way in which 
funds are budgeted for contract support costs, which are important to 
the furtherance of self-governance and Indian self-determination. The 
1975 Indian Self-Determination and Education Assistance Act, as 
amended, allows tribes to implement programs previously administered by 
the Federal Government through contractual arrangements. In turn, 
tribal contractors are paid for the administration of those programs, 
known as contract support costs. Contract support costs funds are used 
by tribal contractors to pay a wide range of administrative and 
management costs, including but not limited to finance, personnel, 
maintenance, insurance, utilities, audits, and communications. These 
funds allow tribes to manage the programs for which they contract, and 
eliminate the need for tribes to use program funds to fulfill 
administrative requirements. The 2014 request for these costs is $231 
million, an increase of $9.8 million above the 2012 enacted level.
    In light of the Supreme Court's Salazar v. Ramah Navajo Chapter 
decision, the administration is proposing Congress appropriate contract 
support costs funding to tribes on a contract-by-contract basis. To 
ensure as much clarity as possible regarding the level of contract 
support costs funding, the administration will provide Congress a 
contract-by-contract funding table for incorporation into the 
appropriations act. The administration proposes this change as an 
interim step. The broader goal is to develop a longer-term solution 
through consultation with the Tribes, as well as streamline and 
simplify the contract support costs process which is considered by many 
as overly complex and cumbersome to both tribes and the Federal 
Government.
    Another area of emphasis reflected in the 2014 budget is a 
commitment to resolve tribal water rights claims and ensure Native 
American communities have access to use and manage water to meet 
domestic, economic, cultural, and ecological needs. Including funding 
for technical and legal support and for authorized settlements 
involving tribal waters, the 2014 budget request totals $159.6 million, 
which is an increase of $25.9 million over 2012. This includes a total 
of $135.3 million within the Bureaus of Reclamation and Indian Affairs 
to implement water rights settlements, an increase of $20.4 million 
above 2012. For communities benefiting from these settlements, a 
permanent water supply will vastly improve their quality of life and 
will offer greater economic security immediately as well as into the 
future.
    To strengthen the Department's capacity to meet its trust 
responsibilities and more effectively partner with tribes on water 
issues, $3.4 million in increases are provided in BIA's budget to 
support Water Management and Planning, Water Rights Litigation, and to 
conduct a comprehensive Department-wide evaluation to strengthen 
engagement, management, and analytical capabilities of the Indian Water 
Rights Office and other bureaus and offices that work on these issues. 
An increase of $766,000 in Reclamation's Native American Affairs 
Program and $1 million in the Cooperative Water Program at USGS will 
also strengthen technical analysis in support of water rights 
settlement work.
    Interior is working to improve other services in Indian Country. In 
education, Interior is working with the Department of Education to 
develop a national education reform agenda to better serve Indian 
children in BIE schools. The two agencies signed an agreement to 
bolster cooperation and coordination. The budget includes $15 million 
to fund an elementary and secondary school pilot program based on the 
successful Department of Education turnaround schools model. Grants 
will be awarded to BIE-funded schools demonstrating the greatest need 
for the funds and the strongest commitment for substantially raising 
the achievement of students.
    Interior is putting more law enforcement officers in Indian 
communities, and improving training and equipment. Interior's revamped 
recruiting process for BIA law enforcement officers has increased the 
number of applicants for those positions by 500 percent, resulting in 
the largest officer hiring increase in BIA history. A pilot program of 
intense community policing on four reservations experiencing high crime 
rates saw promising results, a combined reduction of violent crime of 
35 percent after the first 24 months. Now, 12 months later, crime 
continues to drop for a new combined reduction of 55 percent. Interior 
has expanded this successful pilot program to two additional 
reservations. The 2014 budget of $2.6 billion includes $365.3 million 
for BIA's Public Safety and Justice program, an increase of $19 
million.
             spurring growth and innovation through science
    The proposed 2014 budget provides strong support for basic and 
applied science to support sustainable stewardship of natural resources 
as part of Interior's mission. The budget requests $963.1 million for 
research and development across the Department. These investments 
promote economic growth and innovation, advance American 
competitiveness in the global market, strengthen natural hazard 
preparedness and improve the Nation's fundamental understanding of our 
natural resources and environmental capital at the heart of resource 
development, and human and environmental health issues. Program 
increases will support the application of science to address critical 
challenges in energy and mineral production, ecosystem management, 
invasive species, oil spill restoration, climate adaptation, and Earth 
observation (such as satellite and airborne land imaging and water and 
wildlife monitoring).
    Interior's mission requires a careful balance between development 
and conservation. The Department works to achieve this balance by 
working closely with its diverse stakeholders and partners to ensure 
its actions provide the greatest benefit to the American people. 
Central to this mission is the development and use of scientific 
information to inform decisionmaking. Scientific monitoring, research, 
and development play a vital role in supporting Interior's missions and 
Interior maintains a robust science capability in the natural sciences, 
primarily in the U.S. Geological Survey. An example of how this 
expertise is applied is USGS's work as part of an interagency 
collaboration on hydraulic fracturing, which is aimed at researching 
and producing decision-ready information and tools on the potential 
impacts of hydraulic fracturing on the environment, health, and safety, 
including water quality and inducement of seismic activity. The budget 
includes $18 million to continue the inter-agency collaboration to 
investigate the impacts of hydraulic fracturing.
    As the Department's premier science agency, the U.S. Geological 
Survey is funded at $1.2 billion in the proposed budget, an increase of 
$98.8 million above the 2012 enacted level, the majority of which is 
requested for increased research and development. Funding supports 
research needed for the development of domestic energy, protection of 
critical water resources, and to respond to natural disasters. The 2014 
request emphasizes investments in science unique to USGS that will 
address national impacts such as hydraulic fracturing, and research, 
monitoring and tools to make science usable by decisionmakers in 
ecosystem restoration efforts in the Chesapeake Bay, California Bay-
Delta, and the Upper Mississippi River.
    The USGS provides exceptional support to Interior bureaus, however 
USGS alone cannot provide for all of Interior's scientific needs. The 
USGS and other Interior bureaus work collaboratively to find answers 
and to translate and apply scientific information and tools to 
important natural resource management questions. Science funding at the 
bureau and office level allows bureaus and offices to collaborate to 
produce and translate science into management-ready information, 
providing required resources to purchase studies, models, and 
expertise, and to hire scientists to help managers interpret the vast 
body of knowledge generated by USGS, universities, and other scientific 
institutions. These resources help answer imminent and important 
natural resource management questions and provide near-term solutions 
to address urgent and emerging issues such as the white-nose syndrome 
in bats.
    Interior agencies work collaboratively to bridge gaps in knowledge, 
leveraging the complementary skills and capacity to advance the use of 
science to support management decisionmaking, ensure independent review 
of key decisions and science integrity, and adaptively use data to 
assist States, Tribes, and communities throughout the Nation.
                      water for a growing america
    Although the Bureau of Reclamation is within the jurisdiction of 
the Energy and Water Subcommittee, it plays a critical role in 
addressing the Nation's water challenges which are of interest the 
subcommittee. Reclamation maintains 476 dams and 337 reservoirs with 
the capacity to store 245 million acre-feet of water. The bureau 
manages water for agricultural, municipal, and industrial use, and 
provides recreation for millions of people. Reclamation's activities, 
including recreation, generate estimated economic benefits of over $55 
billion and support nearly 416,000 jobs.
    These facilities deliver water to one in every five western farmers 
to irrigate about 10 million acres of land, and provide water to over 
31 million people for municipal and industrial uses and other non-
agricultural uses. The water managed by Interior irrigates an estimated 
60 percent of the Nation's vegetables each year. Reclamation facilities 
also reduce flood damages in communities where they are located and 
thereby create an economic benefit by sparing these communities the 
cost of rebuilding or replacing property damaged or destroyed by flood 
events.
    Population growth, development, and a changing climate are creating 
growing challenges to the Nation's water supplies. In many areas of the 
country, including the arid West, dwindling water supplies, lengthening 
droughts, and rising demand for water are forcing communities, 
stakeholders, and governments to explore new ideas and find new 
solutions to ensure stable, secure water supplies for the future.
    Interior is tackling America's water challenges by providing 
leadership and assistance to States, tribes, and local communities to 
address competing demands for water. Interior's programs are helping 
communities improve conservation and increase water availability, 
restore watersheds, and resolve long standing water conflicts. Interior 
is leading a national water conservation initiative, WaterSMART. The 
acronym stands for Sustain and Manage America's Resources for Tomorrow. 
WaterSMART is finding better ways to stretch existing supplies and 
helping partners plan to meet future water demands.
    The USGS is a key partner in Interior's WaterSMART initiative, by 
contributing research as part of its WaterSMART Availability and Use 
Assessment effort. The 2014 budget for the USGS includes $22.5 million 
for WaterSMART activities.
    In 2012, USGS began a 3 year study of three focus areas in the 
Delaware River Basin, the Apalachicola-Chattahoochee-Flint River Basin, 
and the Colorado River Basin. The studies focus on water availability, 
investigating the components of a regional water budget to understand 
the amount entering and leaving each basin. This work contributed to 
The Colorado River Basin Water Supply and Demand Study released by the 
Department in December 2012, funded by the Bureau of Reclamation and 
the seven States in the Colorado River Basin. This first of a kind 
study projects an average imbalance in future water supply and demand 
greater than 3.2 million acre-feet by 2060. The study projects the 
largest increase in demand will come from municipal and industrial 
users, owing to population growth. The Colorado River Basin currently 
provides water to 40 million people. The study estimates this could 
double to nearly 76 million people by 2060, under a rapid growth 
scenario.
                         fiscal responsibility
    This budget recognizes the need for fiscal responsibility. The 
priority programs are level funded with 2012 and limited strategic 
investments proposed in 2014 are balanced by reductions in lower 
priority programs, deferrals and planning efficiencies.
    Despite increased resources needed for programs and services, 
Interior will continue to improve efficiency and reduce its workforce. 
Staffing reductions of 593 from 2012 are planned for 2014. These 
personnel reductions are focused on areas where there are funding 
reductions. Staffing reductions will be achieved through attrition, 
outplacement, and buy-outs in order to minimize the need to conduct 
reductions in force to the greatest extent possible.
    This budget is responsible, with over $600 million in program 
terminations, reductions, and savings from administrative efficiencies 
and improvements. The budget also continues efforts to shift program 
costs to industry where appropriate, and in so doing, improve program 
effectiveness. Permanent funding that becomes available as a result of 
existing legislation without further action by the Congress results in 
an additional $6.3 billion, for $18.3 billion in total budget authority 
for Interior in 2014.
                          mandatory proposals
    The 2014 budget includes 17 mandatory proposals that will be 
submitted to the Congress to collect a fair return to the American 
taxpayer for the sale of Federal resources, to reduce unnecessary 
spending, and to extend beneficial authorities of law. Revenue and 
savings proposals will generate more than $3.7 billion over the next 
decade. The 2014 budget also includes three mandatory spending 
proposals estimated at $8.1 billion in outlays over the next decade.
    Land and Water Conservation Fund.--The Department of the Interior 
will submit a legislative proposal to permanently authorize annual 
funding, without further appropriation or fiscal year limitation, for 
LWCF programs in the Departments of the Interior and Agriculture. 
During a transition to permanent funding in 2014, the budget proposes 
$600 million in total LWCF programs funding, comprised of $200 million 
permanent and $400 million current funding. Starting in 2015, the fully 
authorized level of $900 million in permanent funds will be authorized 
each year.
    Payments in Lieu of Taxes.--The authorization for permanent PILT 
payments was extended through 2013 as part of the Surface 
Transportation Extension Act of 2012. The 2014 budget proposes to 
extend authorization of the program an additional year through 2014, 
while a sustainable long-term funding solution is developed for the 
PILT Program. The PILT payments help local governments carry out vital 
services, such as firefighting and police protection, construction of 
public schools and roads, and search and rescue operations.
    Palau Compact.--On September 3, 2010, the United States and the 
Republic of Palau successfully concluded the review of the Compact of 
Free Association and signed a 15-year agreement that includes a package 
of assistance through 2024. The 2014 budget assumes authorization of 
permanent funding for the Compact occurs in 2013. The cost for this 
proposal is estimated at $189 million over the 2014 through 2023 
period.
    Federal Oil and Gas Reforms.--The budget includes a package of 
legislative reforms to bolster and backstop administrative actions 
being taken to reform the management of Interior's onshore and offshore 
oil and gas programs, with a key focus on improving the return to 
taxpayers from the sale of these Federal resources. Proposed statutory 
and administrative changes fall into three general categories: (1) 
advancing royalty reforms, (2) encouraging diligent development of oil 
and gas leases, and (3) improving revenue collection processes. 
Collectively, these reforms will generate roughly $2.5 billion in net 
revenue to the Treasury over 10 years, of which about $1.7 billion 
would result from statutory changes. Many States will also benefit from 
higher Federal revenue sharing payments.
    Helium Sales, Operations and Deposits.--The Department will submit 
a legislative proposal to authorize the Helium Fund to continue 
activities supporting the sale of helium. Under the Helium 
Privatization Act of 1996, the Helium Fund is set to expire upon 
repayment of the helium debt, anticipated to occur the first quarter of 
2014. This proposal will allow continued operation of the Helium 
program while facilitating a gradual exit from the helium market. 
Additional revenues from this proposal are estimated at $480 million 
over the decade.
    Transboundary Gulf of Mexico Agreement.--The 2014 budget includes a 
legislative proposal to implement the Agreement between the United 
States and the United Mexican States concerning Transboundary 
Hydrocarbon Reservoirs in the Gulf of Mexico, signed by representatives 
of the United States and Mexico on February 20, 2012. The Agreement 
establishes a framework for the cooperative exploration and development 
of hydrocarbon resources that cross the United States-Mexico maritime 
boundary in the Gulf of Mexico. The Agreement would also end the 
moratorium on development along the boundary in the Western Gap in the 
gulf. The budget assumes revenues from lease sales in this area will 
generate an estimated $50 million for the Treasury in 2014.
    Return Coal Abandoned Mine Land Reclamation Fees to Historic 
Levels.--The budget proposes legislation to modify the 2006 amendments 
to the Surface Mining Control and Reclamation Act, which lowered the 
per-ton coal fee companies pay into the AML Fund. The proposal would 
return the fees to the levels companies paid prior to the 2006 fee 
reduction. The additional revenue, with estimated net savings of $54 
million over 10 years, will be used to reclaim high priority abandoned 
coal mines.
    Reallocate NPR-A Revenues to Priority BLM Alaska Activities.--The 
budget proposes to temporarily redirect revenue sharing payments to the 
State of Alaska from NPR-A oil and gas development to a new Alaska Land 
Conveyance and Remediation Fund. This fund would supplement current 
appropriations and address priority BLM program needs in Alaska, 
specifically the remediation of oil and gas legacy wells in NPR-A and 
the completion of remaining land title conveyances to the State of 
Alaska, individual Alaska Natives, and Alaska Native Corporations.
    Discontinue AML Payments to Certified States.--The budget proposes 
to discontinue the unrestricted payments to States and tribes certified 
for completing their coal reclamation work. While the Surface 
Transportation Extension Act of 2012 capped annual payments to each 
certified State and tribe at $15 million, this proposal terminates all 
such payments, with estimated savings of approximately $327 million 
over the next 10 years.
    Reclamation of Abandoned Hardrock Mines.--To address the legacy of 
abandoned hardrock mines across the United States and hold the hardrock 
mining industry accountable for past mining practices, the Department 
will propose legislation to create a parallel Abandoned Mine Lands 
Program for abandoned hardrock sites. A new AML fee on hardrock 
production on both public and private lands would be allocated to 
reclaim the highest priority hardrock abandoned sites on Federal, 
State, tribal, and private lands. Additional revenue is estimated at 
$1.8 billion for the 2014-2023 period, while outlays for reclamation 
projects, which lag behind collections, are estimated at $1.3 billion 
over the same period.
    Reform Hardrock Mining on Federal Lands.--Interior will submit a 
legislative proposal to provide a fair return to the taxpayer from 
hardrock production on Federal lands. The legislative proposal will 
institute a leasing program under the Mineral Leasing Act of 1920 for 
certain hardrock minerals including gold, silver, lead, zinc, copper, 
uranium, and molybdenum, currently covered by the General Mining Law of 
1872. The proposal is projected to generate revenues to the U.S. 
Treasury of $80 million over 10 years, with larger revenues estimated 
in following years.
    Net Receipts Sharing for Energy Minerals.--The Department proposes 
to make permanent the current arrangement for sharing the cost to 
administer energy and minerals receipts. Under current law, States 
receiving significant payments from mineral revenue development on 
Federal lands also share in the costs of administering the Federal 
mineral leases from which the revenue is generated. Permanent 
implementation of net receipts sharing is expected to result in savings 
of $44 million in 2015 and $421 million over 10 years.
    Geothermal Energy Receipts.--The Department proposes to repeal 
section 224(b) of the Energy Policy Act of 2005. The repeal of section 
224(b) will permanently discontinue payments to counties and restore 
the disposition of Federal geothermal leasing revenues to the 
historical formula of 50 percent to the States and 50 percent to the 
Treasury. This results in savings of $4 million in 2014 and $48 million 
over 10 years.
    Federal Land Transaction Facilitation Act.--The Department proposes 
to reauthorize this act that expired on July 25, 2011, and allow 
Federal lands identified as suitable for disposal in recent land use 
plans to be sold using this authority. The sales revenues would 
continue to fund the acquisition of environmentally sensitive lands and 
administrative costs associated with conducting the sales.
    Federal Migratory Bird Hunting and Conservation Stamps.--Federal 
Migratory Bird Hunting and Conservation Stamps, commonly known as Duck 
Stamps, were originally created in 1934 as the annual Federal license 
required for hunting migratory waterfowl. Today, 98 percent of the 
receipts generated from the sale of these $15 stamps are used to 
acquire important migratory bird areas for migration, breeding, and 
wintering. The price of the Duck Stamp has not increased since 1991. 
The Department proposes legislation to increase these fees to $25 per 
stamp per year, beginning in 2014.
    Bureau of Land Management Foundation.--The budget proposes 
legislation to establish a congressionally chartered National BLM 
Foundation. This Foundation will provide an opportunity to leverage 
private funding to support public lands, achieve shared outcomes, and 
focus public support on the BLM mission.
    Recreation Fee Program.--The Department of the Interior proposes to 
permanently authorize the Federal Lands Recreation Enhancement Act, 
which expires in December 2014. The Department currently collects over 
$200 million in recreation fees annually under this authority and uses 
them to enhance the visitor experience at Interior facilities. In 
addition, the Department will propose a general provision in the 2014 
budget request to amend appropriations language to extend the authority 
through 2015.
                    offsetting collections and fees
    The budget includes the following proposals to collect or increase 
various fees, so industry shares some of the cost of Federal permitting 
and regulatory oversight.
    Fee Increase for Offshore Oil and Gas Inspections.--Through 
appropriations language, the Department proposes inspection fees 
totaling $65 million in 2014 for offshore oil and gas drilling 
facilities subject to inspection by the Bureau of Safety and 
Environmental Enforcement. These fees will support BSEE's expanded 
inspection program to increase production accountability, human safety, 
and environmental protection.
    New Fee for Onshore Oil and Gas Inspections.--Through 
appropriations language, the Department proposes to implement an 
inspection fee in 2014 for onshore oil and gas activities subject to 
inspection by BLM. The proposed inspection fee is expected to generate 
$48 million in 2014, $10 million more than the corresponding $38 
million reduction in requested appropriations for BLM, thereby 
expanding the capacity of BLM's oil and gas inspection program. The fee 
is similar to those already in place for offshore operations and will 
support Federal efforts to increase production accountability, human 
safety, and environmental protection.
    Onshore Oil and Gas Drilling Permit Fee.--The 2014 budget proposes 
to continue a fee for processing drilling permits through 
appropriations language, an approach taken by Congress in the 2009 and 
subsequent Interior Appropriations Acts. A fee of $6,500 per drilling 
permit was authorized in 2010, and if continued, will generate an 
estimated $32.5 million in offsetting collections in 2014.
    Surface Mining and Reclamation Permit Fee.--The 2014 budget 
continues an offsetting collection initiated in 2012, allowing the 
Office of Surface Mining Reclamation and Enforcement, to retain coal 
mine permit application and renewal fees for the work performed as a 
service to the coal industry. The fee will help ensure the efficient 
processing, review, and enforcement of the permits issued, while 
recovering some of the regulatory operating costs from the industry 
benefitting from this service. The fee, authorized by section 507 of 
SMCRA, will apply to mining permits on lands where regulatory 
jurisdiction has not been delegated to the States. The permit fee will 
generate $2.4 million in offsetting collections in 2014.
    Grazing Administrative Fee.--The 2014 budget proposes a new grazing 
administrative fee of $1 per animal unit month. The BLM proposes to 
implement this fee through appropriations language on a 3-year pilot 
basis. The 2014 budget estimates the fee will generate $6.5 million in 
2014, which will assist BLM in processing grazing permits. During the 
period of the pilot, BLM will work through the process of promulgating 
regulations for the continuation of the grazing fee as a cost recovery 
fee after the pilot expires.
    Marine Minerals Administrative Fee.--The 2014 budget proposes to 
establish an offsetting fee in the BOEM Marine Minerals program to 
recover costs associated with processing offshore sand and gravel 
mining permits. The fees are estimated to generate $470,000 in revenue 
in 2014, to offset the cost of the program, and would be implemented 
through existing regulatory authority under the Outer Continental Shelf 
Lands Act.
                               conclusion
    Thank you for the opportunity to testify on the President's 2014 
budget request for the Department of the Interior. This budget balances 
fiscal constraint with proposals for forward looking investments that 
will advance the stewardship of lands and resources, renewable energy, 
oil and gas development and reforms, water conservation, youth 
employment and engagement, and improvements in the quality of life in 
Indian communities. For America to be at its best, we need to be bold 
and strategic and advance the ideas and policies in this budget. I 
thank you again for your continued support of the Department's mission. 
I look forward to answering questions about this budget. This concludes 
my written statement.

                            HURRICANE SANDY

    Senator Reed. Thank you very much, Madam Secretary, for 
your testimony.
    As I said, there will be 6-minute rounds. And if our 
schedule and your schedule allow, we'd be happy to do a second 
round also to accommodate as many questions as possible. But 
let me begin on the note that you concluded with, that is, 
Hurricane Sandy. Thank you. There were $829 million to the 
Department for mitigation in the Northeast because of the 
storm. It is gratifying to hear that Rhode Island's wildlife 
refuges will receive support in this way.
    Can you give us some further indication of how you will 
make all the details accessible to the public this afternoon 
and the next few days, and also talk about the $360 million in 
mitigation funds that you have at your disposal? Have you made 
any plans, specific plans, and will you announce those?
    Secretary Jewell. I'll give you a high-level answer and 
then would invite my colleagues to provide more detail as they 
have more detail.
    The press release which will be going out this afternoon 
will actually have a link to a list of the projects that 
encompass the $475 million. That will be accessible to the 
public here relatively soon.
    On the mitigation funds, there is a lot of work done to 
look at building up sand and berms, actually using sand from 
the Outer Continental Shelf to make those habitats more 
resilient, and a number of other programs. I'd like my 
colleague, Rhea Suh, to address that further.
    Ms. Suh. Sure. Thank you, Mr. Chairman. On your first 
question, the details of the funding to be released today will 
all be contained on our website, so complete project lists 
alongside the actual amount of appropriations for each.
    In addition to that, with respect to the mitigation, we are 
working very hard to come up with the best strategy we can for 
those mitigation funds. We absolutely appreciate your 
leadership and the leadership of this subcommittee for giving 
us the opportunity to really think about mitigation, and to 
really try to maximize the impact we have to create resiliency 
on the ground. We are working with both our programs within the 
Federal Government, but also partners outside of the Federal 
Government to come up with a strategic plan that can ensure 
those funds are spent as wisely and as effectively as possible.
    Senator Reed. And you're not ready today to commit those 
funds? You're still working the plan?
    Ms. Suh. That's correct. The funds today are just the 
recovery and restoration funds.
    Senator Reed. Thank you very much.

                             HERITAGE AREAS

    Madam Secretary, among the many public services that you 
performed was in 2008 and 2009, along with our distinguished 
predecessors, Senator Howard Baker and Bennett Johnston, you 
served on a commission advancing the national park idea. And 
one of the things you recognized was these heritage areas, one 
of which we have in Rhode Island, are critical, in fact, long-
term assets to the National Park System. And you and your 
colleague went so far as recommending permanent funding and 
full program support for NPS.
    Yet the budget proposes cuts to these heritage areas. Can 
you give us some assurance that you will work with us so that 
we can avoid these cuts and fulfill the vision that you so 
eloquently and wisely laid out, along with Senator Baker and 
our colleagues?
    Secretary Jewell. Thank you, Mr. Chairman. This budget 
represents tough choices. The work of the Second Century 
Commission was very rewarding. I think the need to support our 
national parks, which have such a multiplier effect, is very 
important.
    On the heritage areas, specifically, I'm fully in support 
of heritage areas. There was a difficult decision made to scale 
back the funding in heritage areas to focus on those that are 
relatively new that need to get a boost to get themselves 
established.
    I think one of the benefits of heritage areas is they have 
broad community support. It does reflect some of the hard 
choices we made in terms of how we prioritized. We felt 
heritage areas in particular needed some support to get rolling 
and get up and operational, but we needed to look at scaling 
back some that had been around for a period of time to kind of 
walk on their own two feet, if you will. So that was how the 
priority was identified in this budget.
    Senator Reed. Well, I appreciate that. And I do point out 
they are public-private partnerships. So this is not something 
that's just Federal money going in. This generates a lot of 
economic activity. It's very critical.
    And there is, I think, a shared notion that we can 
collaborate better and be smarter about these things. But there 
are certain--it strikes me and many of my colleagues, because 
these are all over the country, that there has to be at least a 
core Federal support level because that is what pulls a lot of 
the private support. It sort of leverages a lot of activities. 
And without that, these heritage areas could in fact fail. That 
would be, as you point out in your previous report, a real 
detriment.

                       RHODE ISLAND NATIONAL PARK

    Let me quickly, as my time is running out, we've been 
trying to build on the heritage area to, in fact, create a 
national park which would not only memorialize Senator John H. 
Chafee, but also give us our first major national park. We have 
a national memorial, the Roger Williams Memorial. But it would 
give us our first national park.
    Secretary Salazar was strongly supportive. And I urge you 
to be as enthusiastic. Can you give us a sense of your 
enthusiasm level? I hope it's over the top.
    Secretary Jewell. I'm enthusiastic, Mr. Chairman. I'm fully 
enthusiastic.
    Senator Reed. Madam Secretary, the President chose wisely. 
I said that repeatedly.
    Let me suggest, I will now relinquish my time to Senator 
Murkowski. And as I said, we will try to do a second round.
    Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.

                           ALASKA CONVEYANCE

    Madam Secretary, let me ask you about the land conveyance 
issues and legacy wells. As you can tell, not only from my 
discussion here today, but previous conversations we've had, 
this is something that isn't setting well with the people in 
the State of Alaska, and it clearly doesn't set well with me.
    You have indicated in your comments that, with the LWCF, 
the proposal here to include it in terms of mandatory funding 
keeps a commitment of a 50-year promise to the American people. 
And I'm looking at a 54-year-old promise, we've been a State 
now for 54 years, where we have yet to receive our full land 
conveyances under that statehood act, a 42-year legal 
obligation to the native people of the State under Alaska 
Native Claims Settlement Act (ANCSA).
    And then I look at the budget, and it's like, ``Well, wait 
a minute. We're making a new promise here to mandatory funding 
for the LWCF. But we've got some outstanding obligations that 
are very serious.'' And so I appreciate what you have said in 
that these decisions were made prior to your arrival here. 
You're defending a budget that you're tasked to defend.
    But I need to have some assurance going forward that we're 
going to be able to deal with this. Because my assessment is 
that if we continue at the level of funding that we have been 
for the land conveyances, again we're decades, we're another 50 
years out. That's not acceptable.
    Can you give me some assurance that you will look to 
revising the spending priorities and attempt to finish these 
interim conveyances and the surveying and patenting that needs 
to go forward? My goal was that we would have this done by 
statehood. When I came into office 10 years ago, everybody 
thought that that was reasonable. Now it looks like it's not 
only another decade, it may be a decade beyond that.
    I need to have some assurance that we're going to finish 
this, because in the meantime, the people of the State of 
Alaska and the native people under ANCSA can't move. They can't 
move on their lands. What assurances can you give me that we're 
going to see some forward motion in this in a positive way 
that's not going to be another two to three decades from now?
    Secretary Jewell. Thank you, Ranking Member Murkowski. I 
have had briefings on this topic and can reassure you there is 
a commitment to move forward on the part of the BLM and my 
colleagues.
    I gather that 63 percent of the area has been surveyed and 
mapped and about 33 percent has had interim conveyances so far. 
There is a requirement, as I understand it, in the legislation 
about actually physically putting a stake every 2 miles. The 
use of mapping technologies, which weren't available at the 
time those things were written, gives us an opportunity to be 
able to move forward in a more expeditious way on conveyances 
and do it using technology that's a lot more efficient and 
effective.
    I would be happy to get into more detail with you and have 
my teammates that are steeped in this talk with you about how 
the budget supports moving that forward.
    Senator Murkowski. Well, and I'm going to be meeting later 
today to review the schedule, apparently, that has been 
proposed. I don't know whether or not that is a schedule that 
you all have agreed to. But we need to have greater assurance 
here.

                          ALASKA LEGACY WELLS

    Let me ask you on the legacy wells. The concern that I have 
is, you know, Federal Government comes in, does an assessment, 
drills, leaves, doesn't clean up the mess. Decades later says, 
when we are screaming about, ``You need to clean up your 
mess,'' the idea is, ``Well, the State of Alaska can do that. 
We'll take it from the State of Alaska's funding.''
    I guess the simple question is whether or not you feel that 
the State should be held financially responsible for the 
Federal Government's responsibility to take care of the legacy 
wells.
    Secretary Jewell. Senator, as we discussed, legacy wells 
are a significant problem, and I appreciate your bringing it up 
to me in the past. We need to find a way to fund it in a budget 
that doesn't have enough funding for everything we want to do. 
I appreciate the reaction to the suggestion that the revenues 
generated from the development on the NPRA on the State side go 
to pay for that. If not that suggestion, we need to work 
together to figure out how we prioritize in the budget the best 
way to move forward in a comprehensive way to deal with this 
issue. I share your concern.
    Senator Murkowski. Well, I guess I need to hear from you 
that you would agree that it's not the State of Alaska's 
responsibility to clean up the Federal Government's mess. Are 
we in agreement there?
    Secretary Jewell. I would say that the wells were drilled 
to assess the petroleum reserve up in Alaska, and as it's 
developed, it will benefit both the Federal Government and the 
State. So revenues from that development seem to be a 
reasonable source to help address the issue on the legacy 
wells. We can talk further on what that looks like: What is 
State, what is Federal, and how do we do that in a constrained 
budget environment?
    Senator Murkowski. Well, and I will allow you greater 
opportunity to learn more about this, hopefully see what we're 
dealing with here. But there is no doubt in my mind but that 
when the Federal Government comes into land that has been 
federally designated, drills wells, walks away from it, leaves 
a mess, that that is the Federal Government's responsibility 
and that it should not then be on the shoulders of the State of 
Alaska to do that cleanup.
    So I just want to make sure that when you're talking about 
prioritizing it within the budget, that it is prioritizing 
within the Federal budget and not taking revenues that would 
have otherwise come to the State.
    Thank you, Mr. Chairman.
    Senator Reed. Thank you, Senator Murkowski. And again, we 
are using the early bird rule, going from side to side.
    Senator Tester.
    Senator Tester. Yes, thank you, Mr. Chairman. I want to 
thank everybody for being here today. It's good to see you, and 
thank you for putting yourself up for this position. I know 
you're going to do a great job. Rhea and Pam, thank you for 
your service. David Hayes, thank you for what you've done 
during your tenure in the Department of the Interior. I very 
much appreciate it. I even more appreciate your friendship. So, 
thank you, thank you very, very much for your service.

                            RENEWABLE ENERGY

    As far as the budget goes, I would just like to say I'm 
very encouraged to see the administration is putting some 
additional funding into renewable energy on public lands. We 
all know what's going on in eastern Montana and in North Dakota 
with conventional oil production, and it is--that's a very good 
thing. But we cannot forget about other ways to become energy 
independent, too. So I want to thank you for that.
    I've got a bipartisan bill that I've introduced, the Public 
Lands Renewable Energy Development Act, to hopefully promote 
more such development. And I look forward to working with your 
department on that. Is there anything else we can do?
    Secretary Jewell. Senator, your support is very much 
appreciated and valued. I think, in a balanced approach to 
energy, renewables play an important role. I've been really 
pleased to see the science behind the assessment of where the 
resources are, the work going on collectively on transmission, 
which is also important, because where the energy is, is not 
necessarily where the energy is used.
    Senator Tester. That's right.
    Secretary Jewell. I hear a lot of enthusiasm in the 
Department to continue doing that work, but also supporting 
conventional development, as you referenced.
    Senator Tester. As we move forth here, if there are other 
things we can do to help facilitate that, let us know. I think 
it's really important. I think your budget puts it forth as a 
priority, and hopefully, we can indeed make it that.

                             WILDLAND FIRE

    I want to talk a little bit about wildfires. And I know 
when we talk about wildfires, everybody talks about the forest 
service, which isn't in your area. But BLM is. And very 
similarly, BLM has forested land, they have range land, and 
they're being impacted by wildfires, too.
    Given our current fiscal situation where a lot of the money 
is being diverted toward fighting fires, I understand the 
forest service is beginning to work out and collect data on the 
effectiveness of their firefighting efforts by certain 
aircraft.
    I do not believe the BLM has started on this. And that's 
okay, from my perspective. I don't know if they can use 
information that comes from the USFS work or not. But I need to 
know what your plans are. We've got a lot of public lands. A 
lot of it, more than 1 million acres burned up in Montana alone 
last year, BLM and USFS. What's your plans? Is it to collect 
what the forest service gets? Or is the BLM going to do their 
own thing? And if that's the case, when is that going to 
happen? Or is it going to be a combination of the two?
    Secretary Jewell. Thank you, Senator. As a Westerner 
myself, I certainly am well aware of the impacts of wildfires, 
and we've certainly got fires right now, a wildfire burning in 
California, and it's only May. It's pretty scary.
    The firefighting is coordinated between the Departments of 
Agriculture and the Interior. Agriculture takes the primary 
position, but we work hand in hand. I will be going out with 
Secretary Vilsack to the fire center in Boise, Idaho, to talk 
specifically about this.
    As I mentioned, of the increase to the budget, 40 percent 
is to fight wildland fires and it cuts back the hazardous fuels 
reduction program, just to make sure we had funds available for 
suppression.
    Senator Tester. Yes.
    Secretary Jewell. I think things you could do to help over 
time are for those spikes in fires, to have that funded out of 
emergency money, because it hits the operations and it's very, 
very difficult to manage, for both Department of Agriculture 
and the Interior.
    Senator Tester. Well, fuel reduction is critically 
important. We can talk about that at another time, and I'm sure 
we will.
    I guess the issue is, I mean, you addressed it in your 
opening, we're in tight money times.
    Secretary Jewell. Yes.

                         FIREFIGHTING AIRCRAFT

    Senator Tester. Is the assessment that's being done by USFS 
on which aircraft are most effective to fight the fires, is BLM 
doing the same thing? Are they going to do the same thing? Or 
are they just going to use USFS numbers?
    Secretary Jewell. I'm going to have to defer to Rhea on 
that.
    Senator Tester. Okay.
    Ms. Suh. Senator, we are working hand-in-hand with the 
Forest Service. As you know, we have a cohesive strategy across 
the Federal Government on aircraft in particular. The Forest 
Service has the lead on large air tankers.
    Senator Tester. Sure. Yes, that's correct.
    Ms. Suh. We have been working very collaboratively with 
them to come up with a strategy that can put large air tankers 
on the ground for fires this season.
    When it comes to smaller aircraft tankers, we have the lead 
and we have been working, again, collaboratively with the 
Forest Service to determine effectiveness and efficiency 
throughout all of the aviation we have.
    Senator Tester. Okay, good. Well, I would just encourage 
you to do that. I think ``effectiveness'' is the key word here, 
and ``efficiency''. We need to make sure that we're hiring the 
right groups to fight the right fires with the right equipment, 
okay? So thank you very much for that.

                    SEQUESTRATION IN INDIAN COUNTRY

    I want to talk about Indian country for just a second. 
Sequestration has negative impacted them in a big, big way. And 
the main reason is because they are under funded to begin with. 
And that's the problem with the sequester, and we all know 
that, sitting around this dias, that when you make across-the-
board cuts, the programs that are fat and sassy don't really 
care, and the ones that are cut to the bone really get whacked. 
And hopefully, we can find the solution to this.
    But in any case, the Indians, American Indians are, I 
think, least equipped to absorb this loss. And could you detail 
specifically or in general how your budget will help either 
restore that money or remediate the potential impacts of the 
sequester?
    Secretary Jewell. Senator, I get a relatively short period 
of time to answer. I would say, we are as frustrated and 
worried about the impacts of the sequester. There's no question 
in Indian country we've got needs that far exceed the ability 
to meet them. We're trying to prioritize.
    On Indian education, we're trying to pick model schools to 
work on to try and find a path forward. Law enforcement, 
domestic violence issues, self-determination, working with 
tribes on a Government-to-government basis to help support 
their ability to determine the ways they want to govern 
themselves. These are all topics of critical discussion.
    I know there's not enough money to go around, but we're 
certainly working with tribes to do the best job we can.
    David, do you want to add anything to that?
    Mr. Hayes. I would just say, Senator, we feel this hurt 
very hard because of the indiscriminate way in which the cuts 
have to occur. Many of the tribes that operate under 638 
grants, the self-determination tribes, are particularly hurt 
because they're getting effectively a 9-percent cut for the 
remainder of the year. There's nothing we can do about it.
    Our BIA folks who work with them, likewise, are feeling 
that cut. We're having to furlough BIA staff. Tribes are having 
to furlough folks. That's why our fiscal year 2014 budget is so 
important. It would restore and increase and get us back to 
where we need to be with the tribes.
    Senator Tester. Well, that's what I wanted to hear. And so, 
thank you, thank you, thank you for that. And I'm sure there 
will be further debate on that.
    If I might, just 15 seconds, Mr. Chairman.
    You talked about Asian carp. And it's too bad the ranking 
member isn't here. And you talked about the impacts it's going 
to have as it heads toward the Great Lakes, and it's negative. 
I hope other folks are paying attention to things like 
genetically modified organisms (GMO) salmon and noxious weeds 
versus GMO crops. Thank you very much.
    Senator Reed. Thank you, Senator Tester. Before I recognize 
Senator Blunt, let me review the order of arrival just to give 
people sort of sense of where we are. On the Democratic side, 
Senator Feinstein, Senator Udall, Senator Merkley. On the 
Republican side, Senator Blunt, Senator Johanns, Senator 
Alexander, and Senator Hoeven.
    Senator Blunt.
    Senator Blunt. Thank you, Chairman. Secretary, welcome to 
the subcommittee. I've always thought that your job may be the 
best job in the Federal Government. I hope for your sake I'm 
right. It's a challenging job with great opportunities.

                             ST. LOUIS ARCH

    We haven't had a chance to visit yet, so I'm going to 
actually spend my time talking to you a little bit about a big 
project in Missouri, the Arch project. A lot of cooperative 
effort has gone into that so far. Your predecessor, Mr. 
Salazar, was there three times, two times there with Mr. 
LaHood, who was there in relation to a TIGER grant.
    I don't know if you're familiar with how the Arch sits, but 
it's separated from the rest of sort of the downtown mall by 
Interstate 70. The TIGER grant seems to be in place that will 
actually connect the park to the rest, to the old Federal 
courthouse where the Dred Scott case was and a lot of other 
public land in town that's not necessarily Federal land.
    This, I'm told, maybe has the potential, already is 
possibly, the biggest joint partnership project that the Park 
Service has ever done. The city just voted a $10 million annual 
tax for the next 20 years that would support this project. I 
think there are $220 million of private funds that have already 
been pledged.
    And the Arch is 50 years old in October 2015. So, you know, 
every 50 years, you've got to look at these things and see what 
needs to be done to be sure they can last another 50 years. And 
that 50th anniversary was one that Secretary Salazar mentioned, 
it's October 2015. I think his comment the last time he was 
there was, he would move heaven and Earth to get this done by 
October 28, 2015, which appears it might be easier to move 
heaven and Earth than the Department.
    So right now, there does seem to be a tendency for delay 
that I'd like you to look at. You don't have to necessarily 
comment on it today. These things are getting siloed again. The 
one big request from Mayor Slay and others in St. Louis is if 
you could put somebody in charge of this, one person that 
really tries to be sure that all of this stays on focus, on 
time, that the private and public elements of this that aren't 
Federal continue to move forward in a way that all works.
    I know there's one contract with Bi-State transportation 
that's run the trams in the Arch since the beginning. And that 
contract runs out, it actually expired December 31, 2012. There 
was a 6-month extension that expires in 54 days, and it needs 
some attention pretty quickly.
    They need the contract for bonding and other purposes to 
update the equipment that I think Bi-State does, I don't think 
we, the Federal Government, even does that, but they have to 
have a contract that allows them to do what they need to do. 
And I think the Park Service has come in with some amendments 
that have never been in the contract before that they're 
concerned about.
    So, I guess one thing I'd like to ask you to do is make a 
commitment to come and visit us at the Arch and get personally 
involved in this project, as your predecessor was. And then any 
comments you want to make about how public park-private 
relationships are going to be viewed by your department and by 
the Park Service would be appreciated.
    Secretary Jewell. Thank you, Senator. I do look forward to 
meeting with you directly and also visiting the Arch. I 
certainly would be delighted to do that.
    There is a point of contact, Peggy O'Dell, who is the 
number two person in NPS. You can look to her as the focal 
point on this.
    Senator Blunt. Okay.
    Secretary Jewell. And I was briefed on it. I can't promise 
the heaven-and-Earth thing. I think that may be beyond my pay 
grade.
    Senator Blunt. Well, the guy that did promise that left. So 
maybe it was a bigger promise than he thought.
    Secretary Jewell. Yes, maybe. To your comment about public-
private partnerships, and I think the St. Louis Arch is a great 
example, from the private side, which is where I've been for my 
35-year career. There's no question the ability of private 
enterprise to work closely with our Federal land management 
agencies, whether it's the Park Service or the USFS, other 
elements of Interior, is really important. To leverage our 
resources, to get buy-in from those communities so you have an 
asset like the St. Louis Arch that's not just a national 
treasure, but it is locally embraced and taken care of, helps 
make our Federal dollars go further.
    I think it's a great illustration of public-private 
partnerships in action, and I think there are going to be many 
more opportunities to do that kind of work as we think about 
these assets we care a lot about, and we want to protect. There 
are examples of them in other States as well.
    Senator Blunt. You know, this is a case, too, where there 
is significant adjacent public property that obviously is 
visually part of this whole experience.
    Secretary Jewell. Right.
    Senator Blunt. And I think the Park Service, if you're 
going to encourage partners, both public partners and private 
partners, the Park Service has to be willing to look at this in 
a different way than they have before. You know, if the Park 
Service continues like, ``Well, we can't let this happen unless 
it's something we totally control'', that's not really a 
public-private partnership. It's something, but it's not a 
public-private partnership.
    So, yes, I think one of the things as the new leader of 
Interior you can help instill is how partnerships really work.
    Secretary Jewell. Right.
    Senator Blunt. And it's not just one side giving you all 
their money and saying, ``Do whatever you think you ought to do 
with this.'' And so, you know, the community has made a huge 
commitment; individuals are making a huge commitment. And I'd 
like for you and I to be able to work together to make this a 
model project of what these partnerships can be, moving 
forward.
    Not every time a community comes up with $200 million or 
private individuals match that with another $220 million. And 
we need to do the kinds of things that will be a good lesson, 
going forward, to encourage that. And I'll do everything I can 
to help you make that work.
    Secretary Jewell. Sounds great, Senator. If I could just 
have 5 seconds.
    Senator Reed. Yes, ma'am.
    Secretary Jewell. The National Parks Second Century 
Commission that Chairman Reed mentioned in his opening comments 
talked a lot about public-private partnerships. I can tell you 
in my conversations with Director Jarvis of the NPS, he's very 
supportive of this, and I think increasing flexibility on how 
we recognize these kinds of partnerships and encourage them, 
going forward. Thank you.
    Senator Blunt. Thank you, Madam Secretary.
    Senator Reed. Thank you.
    Senator Feinstein. Thank you very much, Mr. Chairman. Madam 
Secretary, I want to add my words of welcome to my colleagues'. 
I've had an opportunity to meet with you, and I look forward to 
working with you.
    But I would like to begin by thanking the gentleman on your 
right. I have known David Hayes now for the 20 years I've been, 
just about, in the Senate. It began with his negotiation of the 
Quantification Settlement Agreement, which weaned California 
off of a lot of Colorado River water and was a very 
controversial, but I think good negotiation that you conducted.
    And since those times, Mr. Hayes has been the point person 
for the most contentious issue in California, which is water. 
And he's been really quite wonderful in terms of moving to see 
that the Department anticipates problems and moves 
administratively to solve them. And I'm very, very grateful for 
that. He's going on to teach law at both of our alma mater, 
Stanford, and serve, I gather, the Hewlett Foundation.
    And, David, I just want to wish you all good things, a 
following sea. You have been just terrific, and your service to 
the country has been remarkable. So I want to thank you for 
that.

                             WILDLAND FIRE

    Madam Secretary, I would like to associate myself with the 
comments of Senator Tester. You mentioned the Ventura fire. 
There have also been five other wildfires burning at the same 
time. And we anticipate a very bad year. Wildfire usually hits 
California in the fall. But the Santa Ana's were rolling, and 
it hit in the spring. And it's really going to be a problem.
    So you're correct: Hazardous fuel mitigation is critical, 
the quick movement of planes, the ability to abate a fire. We 
had 2,200 lightning strikes on one day, which started 1,000 
small fires. So the ability to address them quickly is really 
important before they rage out of control because of, candidly, 
overgrowth that has been allowed to be unabated. That's the 
first thing.

                            CALIFORNIA WATER

    The second this is you are about to get a baptism of water. 
And it's the absence of water. The primary source of 
California's water is the Sierra Nevada snow pack, which is 
drying up. As of May 2, the Sierra Nevada was at 17 percent of 
normal. California is the largest agriculture State in the 
Union. The allocation for farmers is 20 percent of their 
contract amount. It takes 40 to 45 percent of a contract amount 
to be able to plant and do everything that's required to farm 
in California.
    In 2010 when this happened, the unemployment rate in 
Mendota, a farm town, was 40 percent. Farmers were in bread 
lines. We cannot let that happen again. And I think much to the 
credit of your reclamation department, on April 15, the mid-
region put out a press release detailing administrative actions 
that have been taken to date to create an additional 110,000 
acre-feet of water.
    David, I want to salute you for that, and Madam Secretary, 
this is what we had hoped that the Department will anticipate 
and move to do those things with respect to water transfers 
north-south, east-west, using the inner tie, using groundwater 
banking, doing whatever we need to do that is prudent and wise 
to see that water is adequate.
    Beyond this 110,000 acre-feet, I am very interested in what 
other actions can be taken. And this press release describes 
banked groundwater 20,000 acre-feet and water transfers of up 
to 166,620 acre-feet as two sources for additional supplies. 
Essentially, I would like to ask you--I don't know whether you 
know, but if you do, I'd like to know--what is the status of 
reclamation's efforts to secure these additional supplies?
    Secretary Jewell. Senator, I'm going to take a glancing 
blow and then turn it over to my colleague to the right. First, 
I want to say that David Hayes has been an amazing resource on 
these issues. You're fortunate that his big brain is going to 
California. I'm going to miss his big brain next to me, but I 
will have all of his phone numbers and will use them liberally.
    Senator Feinstein. Good.
    Secretary Jewell. I will turn to David to answer 
specifically on the sources topic with the Bureau of 
Reclamation. I know I've had briefings from Mike Connor 
directly, and this is a very, very important issue. David was 
meeting with the Governor, actually, earlier this week, and was 
actually flown in on the red-eye. So if he starts to nod off, 
I'll give him a jab.
    Senator Feinstein. Good. Good.
    Secretary Jewell. The other thing I think we all need to 
work on is conservation. How do we use the water resources we 
have more wisely? Because we are, in fact, seeing these low-
water drought years, and that's the biggest source of the 
challenge. But, David, do you want to add to that?
    Mr. Hayes. Thank you, Senator. Thank you for your warm 
words. It's been a pleasure working with you.
    Senator Feinstein. Thank you.
    Mr. Hayes. This is the driest January-through-April period 
in California's history in the last 100 years, right now, 70 
percent of normal for snow pack. As you noted, we have been 
anticipating this. We are up to the 20-percent allocation for 
south of Delta because of that 110,000 acre-foot increase due 
to water banking, water transfers, et cetera.
    In addition, you mentioned the additional 20,000 acre-feet 
of water banking and water transfers. We are anticipating 
working with the contractors that will have 160,000 acre-feet 
of water transfers, and we're also working closely with them to 
allow liberal rescheduling of water, which will be about 
225,000 acre-feet of water.
    All told, if we are successful in all of these ventures, 
despite the dry water year, Senator, we are hoping to get to 
about a 35 or even 40 percent equivalent amount for the south 
of Delta folks. It's taking all hands on deck. We really 
appreciate the work Westlands and other south of Delta 
irrigators are putting into this, working closely with us.
    Mike Connor is in California as we speak on these issues. I 
was with the Governor yesterday. We're looking forward to 
briefing you as soon as Mike gets back to talk about the Bay 
Delta Conservation Plan, which is the long-term fix for this 
problem that we have to solve.
    Senator Feinstein. Thank you. And Mike Connor is appearing 
before the Energy and Water Development Subcommittee tomorrow.
    Mr. Hayes. That's right.
    Senator Feinstein. And we have a number of questions for 
him.
    Just one last thing. Madam Secretary, you are going to 
receive a letter from five Members of the House, they're 
bipartisan, and me, to ask if you would be willing to come to 
the Central Valley and talk with farmers and understand the 
crisis that we have year after year.
    One last point. For 10 years, your Department has been 
looking at feasibility studies for cost effect of dam raises in 
California. And we have not yet had finality to those 
feasibility studies. I would say that that's a matter of the 
highest priority to get resolved. Because unless we're able to 
hold water from the wet years for the dry years, California 
will end up as a desert State. I really believe that. And it 
will kill agriculture.
    And you speak of conservation. Well, I come from a city 
that's conserving water like mad. And, you know, they're going 
to tertiary treatment of water in Coachella in southern 
California. So that is being done to the greatest extent 
possible. But you have to have some water to start with. So we 
really need your help.
    Thank you, Mr. Chairman.
    Senator Reed. Thank you, Senator Feinstein.
    Senator Johanns.
    Senator Johanns. Mr. Chairman, thank you. And, Madam 
Secretary, welcome. Glad to have you onboard.

                             SEQUESTRATION

    Let me, if I might, shift focus, if I could, to a couple of 
questions about the sequester. I have a little bit of a unique 
experience here because I was a member of the Cabinet, as you 
probably know, during the Bush administration, the Secretary of 
Agriculture. And I certainly appreciate the fact that the sheet 
of music you sing from comes from an office that's oval in this 
town, if you know what I'm saying. And every Cabinet member has 
talked about the sequester kind of in the same terms you have 
talked about it in your testimony. And I must admit it's got an 
aura of ``The sky is falling, the sky is falling.''
    Now, you're also talking to a former Governor, a former 
mayor, balanced budgets during good times and bad times. When 
times were good and the revenues were good, you could do some 
more things. When times were bad, for example, post-9/11, you 
just kind of had to deal with it.
    When I came here in 2005 and somebody said to me, ``You 
could get somewhere around a 5-percent cut, and the best you 
can hope for us a flat budget,'' I thought, ``Hallelujah! You 
know? This is a breeze.'' After what we had been through post-
9/11 at the State level, that didn't seem to be too big a 
challenge. And yet, I hear Deputy Secretary Hayes, I hear you, 
I hear other Cabinet members talking about how dire this 
situation is.
    So let me ask a couple of very specific questions. And 
either one of you can answer these questions. I appreciate the 
sequester's less-than-artful, across-the-board cuts tend to be 
less than artful. And I've done it all. I've done across-the-
board cuts, I've done focused cuts. Anything that was necessary 
to get the budget balanced, we did.
    But if the Congress were to give your Department and other 
Departments greater flexibility to make judgments about where 
you would allocate resources from one area to another, would 
you find that to be helpful?
    Secretary Jewell. Thanks for the question. Short answer, 
absolutely we'd find that to be helpful. I am not quite 4 weeks 
into Government service, and north of 35 years as a private 
businessperson. I have certainly dealt with tough budget years, 
as you referenced. I have never, ever implemented those on a 
line-item by line-item basis. So when you see the comments that 
come from me and others about the impact of the sequester, it 
is the nature by which these cuts have been required of us.
    The fiscal year 2014 budget reflects prioritization. It is 
cutting some areas. It is investing in other areas. And no 
question there is a desire to develop resources in this 
country, both conventional and renewable. It costs money to do 
that. But there is a return on that investment. We have a trust 
obligation to tribes across this country. We need money to do 
that.
    We are reflecting in the fiscal year 2014 budget a set of 
priorities that are in fact scaling back some areas and growing 
others. And that's the big problem with the sequester.
    Senator Johanns. So your issue with us is more along the 
lines of, ``Look. It's not the cuts so much as the forced way 
of implementing them. If we could get flexibility there, I 
could manage this budget,'' I think is what you're saying. And 
I suspect you could.
    Secretary Jewell. We would appreciate all flexibility that 
could be given to us, and predictability. A 5-percent cut 
that's implemented partway through the year is in fact a 9-
percent cut. And then applied across every line item is very 
difficult.

                          AFFORDABLE CARE ACT

    Senator Johanns. Yes. Let me ask you another question, 
admittedly a more sensitive question, but I think it's an 
important one to ask. One of the things that came about as a 
result of the Affordable Care Act was that a certain select 
group of Federal employees were targeted to go from the Federal 
health plan into the exchanges. And that's the way the health 
care law was passed. And it's basically our staff. 
Congressional staff now will go to the exchanges. Some would 
argue that's a good thing, some would argue it's a bad thing, 
whatever.
    Would you support an approach that basically said, ``If it 
can save money, we'll take every Federal employee''--your 
employees at Interior and wherever else--``and instead of 
providing them that Federal plan, we will put them into the 
exchanges''? Would you support that?
    Secretary Jewell. Senator, I can speak from a perspective 
of a businessperson. In the business I ran right before coming 
here, we felt that it was important to provide our full-time 
employees with a comprehensive plan. For our part-time 
employees who had a limited plan, the exchange was going to be 
a better option. So I think I would need to look broadly at how 
it might be applied to the Federal Government. That's how we 
chose to do it in private industry. It was a blend of both, as 
you're suggesting was done here.
    Senator Johanns. So, no, my employees are full time. I 
don't think it had anything to do with them being part time. 
They are full-time employees. But for the fact that I'm not 
going to seek reelection, I'm certain that they're hoping for a 
long, long career here on Capitol Hill.
    Secretary Jewell. Yes. I'm not familiar with the 
circumstance. I'd have to look into that.
    Senator Johanns. Deputy Secretary Hayes, what's your sense 
of all that? Would you be comfortable in all Interior employees 
going to the exchange?
    Mr. Hayes. Senator, I apologize, but I'm not an expert in 
this area. Obviously, the Department of Health and Human 
Services is implementing ACA. And I apologize, but I can't 
respond.
    Senator Johanns. Thank you, Mr. Chair.
    Senator Reed. Thank you, Senator Johanns.
    Senator Udall.
    Senator Udall. Thank you, Mr. Chairman. And let me also 
join the whole group up here in just saying, first of all, 
agreeing and associating myself with the remarks about David 
Hayes. Madam Secretary, great to have you here, and thank you 
for coming in and meeting. And Rhea and Pam, thank you for your 
service to the department.
    But, David, you've been a good friend of mine, and you've 
been an extraordinary friend of the West. And I think it's been 
echoed up here. You heard Senator Feinstein and the chairman 
and many others talk about it.

                                 WATER

    And I think one of the things that's been so key is that 
you have stayed focused on water. And water in the West, as you 
know, is very controversial. And when we have these 3 years of 
drought, in New Mexico it's up to 12 years, we have some very, 
very serious situations.
    And you've been right on top of it by working on 
settlements and have achieved settlements where we're going to 
be able to stretch our water resources. So I very, very much 
appreciate that. And we're going to miss you a lot, and the 
Department is going to miss you. And your students are going to 
gain a lot from you out there at Stanford.

                    SEQUESTRATION IN INDIAN COUNTRY

    Let me just briefly agree, Madam Secretary, with Senator 
Tester on the Indian country and Native Americans and what's 
happening on sequestration. And I'm encouraged to hear Deputy 
Secretary Hayes say this budget will restore those. I don't 
know why we ever got ourselves in this situation. When we 
created the sequester, we tried to protect the most vulnerable. 
And the most vulnerable population in America is the Native 
American population. And we didn't put them in that category. 
And so that's, it's a terrible tragedy, and they're really 
being hit hard now.
    I think the only healthcare that wasn't exempted was the 
Indian Health Service. So I know it's not under your 
jurisdiction, but it seems like an important point to make 
here.

                           MINING LAW REFORM

    I want to applaud the President and you for putting in the 
budget the 1872 mining law reform. I worked with Senator 
Murkowski and Senator Wyden on an amendment to the budget bill 
that brought 1872 mining law reform forward. I know what you're 
doing in the bill is proposing reform, including a new leasing 
program, with royalties, and an abandoned mine land fee to be 
used for reclamation of abandoned hard-rock mines throughout 
the country. And we very, very much appreciate that.

               SEQUESTRATION AND MINERAL REVENUE PAYMENTS

    As you know, the Mineral Leasing Act provides that all 
States shall be paid 50 percent of the revenues resulting from 
the leasing of mineral resources on Federal public domain lands 
within their borders. This revenue is vital to New Mexico, 
where it funds our public education system. New Mexico State 
leaders are very upset by the Department of the Interior's 
Office of Natural Resource Revenue (ONRR) determination that 
these State revenues are subject to sequestration. These are 
State revenues based on mineral development within State 
borders and are not Federal funds.
    In New Mexico alone, we expect to lose $25 million in State 
mineral revenues in fiscal year 2012 to sequestration. I'm 
working with Senators from other mineral revenue-generating 
States to formulate legislation that would address this issue, 
but I hope that you can help resolve this administratively.
    I understand that the decision to subject these State 
shares of revenues was made before your time, and so I hope it 
will get a fresh look from you. These State royalties are part 
of the bargain between Western States and the Federal 
Government, which owns so much land within our States. Altering 
that bargain risks increasing conflict between the State and 
the Federal Government.
    Will you and your team review the Department's decision to 
consider States' shares of mineral royalties as subject to 
sequestration?
    Secretary Jewell. Senator, thanks for raising my awareness 
of this issue. I have a couple of notes here that my colleagues 
have been bringing me up to speed that it's not ONRR, but it's 
the Budget Control Act itself that governs this. It affects all 
revenues and payments. So I'm unclear as to what kind of 
jurisdiction we'd have over this.
    Rhea or Pam, do you want to provide a little more detail?
    Ms. Haze. Senator, we actually made determinations based on 
BCA's evaluation of what things were exempt and were not. It 
is, unfortunately, consistent for revenue and payments, like 
secure rural schools, payments in lieu of taxes, and mineral 
revenue payments. The sequester does impact those. We have 
looked at it at least twice.
    Senator Udall. Well, these are State revenues. I mean, they 
are--what we're going to do in legislation is we're going to 
look at making sure you don't even get your hands on them at 
all so that we don't get in this kind of situation. So, you 
know, that's where we are on that.

                             WILDLAND FIRE

    The last 2 years have seen the largest wildfires in New 
Mexico history. We're in a drought, and we're bracing for the 
worst year yet. And I applaud the President and your Department 
for making full funding of the 10-year suppression average a 
priority and for supporting full funding for the Collaborative 
Forest Landscape Restoration Program at $40 million.
    But I'm very concerned, however, that the President's 
fiscal year 2014 budget request for hazardous fuels reduction 
for the Office of Wildland Fire is reduced by $88.9 million. 
This is a 48-percent cut for the program. And it just seems to 
me that this isn't the area to be cutting. What's the 
justification for this cut? And why are you doing this? Why are 
you headed in this direction on hazardous fuels reduction in 
the Department of the Interior?
    Secretary Jewell. Senator, I'll give a high-level answer, 
and my colleagues may be able to provide more detail.
    There's no question that the sequester, where we run the 
risk of removing the fuels removal budget to go into 
suppression, is not the best way to operate our public lands. 
Removing the fuel to begin with so you don't have the degree of 
suppression makes all the sense in the world. The ounce of 
prevention worth a pound of cure argument, and we agree with 
that.
    There are difficult decisions made in this budget. We don't 
have the capacity to go to emergency funds. When we do have 
wildfires that exceed the 10-year average, it impacts the 
overall operations of Interior. We've made difficult choices 
trying to balance what goes into suppression versus what goes 
into fuels reduction.
    Rhea or David, do you want to add anymore to that? Is there 
more to add?
    Ms. Suh. Senator, I certainly appreciate your concern. We 
recognize the deep importance of hazardous fuels reduction and 
the balance between the suppression and the prevention sides of 
our fire program. We are, as the Secretary noted, dealing with 
very difficult choices in the budget, and in particular, fire 
is perennially a very difficult thing for us to budget in 
whole. We are very committed to having the adequate funds for 
suppression, particularly as we move into very complex fire 
seasons, and we look forward to working with you to try to come 
up with long-term sustainability for the budget overall.
    Senator Udall. Thank you. Thank you.
    Senator Reed. Senator Alexander, please.

                  GREAT SMOKY MOUNTAINS NATIONAL PARK

    Senator Alexander. Thanks. Madam Secretary, welcome. Great 
Smoky Mountains National Park, where you've been and where 
you're well known and well appreciated, let me go over some 
figures here. The Great Smokies had nearly 10 million visitors 
in 2012, and they received $19 million in Federal 
appropriations. Grand Canyon had 4.4 million visitors, half as 
many, and received $21 million, $2 million more, in Federal 
appropriations. Yosemite had 3.8 million, that's less than one-
half as many visitors as the Smokies, and received $29 million 
in Federal appropriations.
    Now, in the case of Grand Canyon, there were another $14 
million from entrance fees; in the case of Yosemite, another 
$15 million from entrance fees. There's a great inequality 
here.
    Taking the entrance fees first, the Great Smokies, as you 
well know, was given to the United States by the people of 
Tennessee and North Carolina and schoolchildren who collected 
dollars, all this in the 1930s. And one of the agreements was 
there wouldn't be an entrance fee. The Western parks were all 
carved out of land owned by the United States.
    And so, the Smokies are already penalized because they 
don't get the $14 million Grand Canyon gets and the $15 million 
Yosemite gets in entrance fees. But why should the most visited 
national park, with twice as many visitors as these two great 
western parks, Grand Canyon and Yosemite, receive less 
appropriated funding every year than the Western parks?
    Secretary Jewell. Senator, I appreciate your question. I 
appreciate your park. I'm a lot closer to it, so I'll be 
spending a lot more time there than I have been able to in the 
past.
    I will say that the fiscal year 2014 budget requests $19 
million for Great Smoky Mountains, which is about level with 
fiscal year 2012 funding. I think it's very difficult to 
compare. I appreciate the visitation for the park and the road 
that goes through and the number of people that come through 
and the entrance-fee issue. The management of the parks has to 
do with their acreage, with their threats. There are just a lot 
of factors that go into the budget. I think it's very difficult 
to say it's a function of the number of visitors versus, you 
know, a broader view of what all----
    Senator Alexander. But what I'd like to ask you to do is to 
review the formula you use for this. Because, number one, I 
think you ought to take into account the fact that the park 
can't, by law, collect an entrance fee. And so it loses $14 
million or $15 million right there, which is, you know, 75 
percent as much as the entire Federal appropriation. And then, 
second, for it also to be funded less than the Western parks at 
a time when it has a lot more visitors, the wear and tear on 
the parks is substantially a product of visitors.
    You can't re-litigate the whole formula right here. But as 
you begin your study, I would hope that you would take a fresh 
look at that funding formula in light of what I think is the 
persistent under-funding of the Smokies.
    I mean, we love the Grand Canyon. I've been down it. In 
fact, I went with Senator Udall's cousin. He took me down it 20 
years ago. I'd like to go again. We love Yosemite. We want them 
to be properly funded. But we don't want our park to be--so 
will you take a look at that as part of your review of 
policies?
    Secretary Jewell. Absolutely. Yes, I'm happy to take a look 
at it and see if there's something we can do.

                      WHITE-NOSE SYNDROME IN BATS

    Senator Alexander. I have two other questions. One is, have 
you been asked about the bats, the white-nose syndrome, at all? 
Senator Leahy has talked about that before. If you hear a 
Senator asking about bats, you may wonder, ``Well, why is he 
talking about bats?'' But it's a big problem all through the 
Eastern United States. And it costs about $74 per acre for the 
insects they don't eat. I mean, the pest suppression is a big 
part of it. It's a real concern in our area.
    What's the status of research that you're working on to 
deal with white-nose syndrome?
    Secretary Jewell. Yes. I have been briefed on the white-
nose syndrome. The budget for fiscal year 2014 does include 
increases in the USGS and the Fish and Wildlife Service budgets 
to address that. For example, USGS is working on long-term 
fixes like the vaccine to try and address it. FWS is addressing 
the resource issue, and there's no question it's a huge 
potential economic impact on agriculture. That is part of our 
science budget that we're requesting for fiscal year 2014.

                  GREAT SMOKY MOUNTAINS NATIONAL PARK

    Senator Alexander. Thank you. On the question of funding, 
again back to the Smokies, one of the things we're proudest of 
is our volunteers in the park. And you're aware of that. That 
might be a good thing for you to visit there, it's a good 
example for other parks, when you come. There are over 3,000 
volunteers, and the estimated value of their service is $3.5 
million a year. Friends of the Smokies adds another million, 
but that still doesn't make up for the funding loss.
    [The information follows:]
                  Great Smoky Mountains National Park
    Operational funding for park units, such as Great Smoky Mountains 
National Park, is appropriated through the Operation of the National 
Park System (ONPS) account. This annual appropriation funds the day-to-
day operations at all park units, commonly referred to as park base 
funding, as well as competitively awarded project funding for needs at 
parks such as facility repair or rehabilitation and resource 
stewardship needs. The ONPS account also funds the operations of 
regional offices and the Washington, DC headquarters office. In 2014, 
the President's budget requests $19.1 million for operations at Great 
Smoky Mountains National Park, level with 2012 funding.
    Visitation is not the only cost driver for operational 
requirements; acreage, resource protection needs, and types of services 
available to visitors are some examples of factors that influence the 
cost to operate parks. Each year, the parks, regions, and headquarters 
identify new or expanding operational needs. Funding proposals 
submitted by park units are evaluated on a competitive, national basis. 
The highest priority activities are reflected in the President's budget 
request.
    However, the NPS, like other bureaus, must operate within the 
framework of constrained budgets. In 2014, the only park base 
operational increases proposed total $6.7 million and are for start-up 
activities at recently authorized units and critical management needs 
such as combating invasive species. The budget also proposes $18.4 
million reduction to park base operations.

                        WIND ENERGY AND BONDING

    Senator Alexander. I have one other question that I'd like 
to ask you. There is obvious enthusiasm for renewable energy 
here and in the administration. And I've been puzzled by this 
obsession with building these gigantic, grotesque, you know, 
wind towers all over the scenic America. You know, most of our 
great environmental groups were founded by people who admired 
Ansel Adams's photographs and loved the beautiful vistas. And 
then here we come along and turn whole stretches.
    We destroy the environment in the name of saving the 
environment by putting these Cuisinarts in the sky that kill 
golden eagles and adopt an energy policy that is sort of the 
energy equivalent of going to war in sailboats. So that's my 
view on these giant windmills.
    But my question is this. We have thousands of abandoned 
mines across the country that people mined and left. And now we 
are looking for money to clean those things up. What are we 
going to do when these windmills blow down or when they wear 
out after 20 years or when the big tax subsidies for the rich 
people that fund them run out? And we decide we don't want to 
spend $12 billion a year subsidizing them, who's going to clean 
them up? There are thousands of them.
    And my question is simple: Is there a bond that you require 
of developers of wind turbines on public lands so that if at 
any time they are abandoned by the developer, is there a bond 
that the developer has to put up to make sure that the 
landscape is returned to its former pristine beauty?
    Secretary Jewell. Senator, I'm going to have to defer to 
Deputy Secretary Hayes on that.
    Mr. Hayes. Senator, I know there's a lease requirement for 
the owner to take down those turbines at the end of their 
useful life, much like we require for conventional oil and gas, 
and return the land to its previous condition.
    I don't know if there's a bond requirement. We will look 
into it and get back to you.
    [The information follows:]
                        Wind Energy and Bonding
    BLM requires bonds for all wind projects on its public lands. The 
bond is determined on a project-by-project basis to cover the 
reclamation costs for a project and the removal of improvements on the 
public land. However, the terms and conditions of a wind energy 
authorization require the holder of the right-of-way to remove all 
improvements. The bond is required to ensure compliance with the terms 
and conditions of the authorization and to cover BLM's expenses if an 
operator fails to fulfill the lease requirements.

    Senator Alexander. Does it require it or just allow it?
    Mr. Hayes. It requires it. There is a requirement by the 
developer to take down--this is on public lands, obviously.
    Senator Alexander. Yes.
    Mr. Hayes. To take down the turbines at the end of their 
useful life. But whether there's a specific bond requirement or 
not, I don't know right now. But we will get that information 
to you.
    Senator Alexander. Thanks, David. I'd appreciate it very 
much. And I'll add my compliments to your work here. Thank you, 
Mr. Chairman.
    Senator Reed. Thank you, sir. Thank you, Senator Alexander.
    Senator Merkley.

                            HAZARDOUS FUELS

    Senator Merkley. Thank you, Mr. Chair. And thank you all 
very much. I wanted to start by echoing Senator Udall's 
comments in regard to the proposed reduction in funding for 
hazardous fuels reduction. We had this last summer in Oregon, 
the largest forest fires we've had in 100 years, including one 
forest fire the size of Rhode Island. And largely, partly, the 
forest was dry, but the other big factor was the accumulation 
of fuels from fire suppression in the past, combined with the 
absence of forest management.
    And it's kind of a very hazardous combination, those 
factors. And in page BH106 on the conversation on this, it 
notes, ``The President's budget proposes reducing the program 
to $96 million, a reduction of $89 million''--I'm rounding it 
off--``from 2012.'' And it presents, and it puts it in kind of 
the silver lining, that ``the program presents an opportunity 
to reevaluate and recalibrate the focus of hazardous fuels 
reduction to align and support the direction of the National 
Cohesive Wildland Fire Management Strategy.''
    I am doubtful that there's anything in that strategy which 
says that the accumulation of fuels is not a problem and that 
we should cut the funding by one-half. So I think this is 
probably just kind of nice language to dress up the fact that 
this didn't make the list of higher priority operation.
    But I guess my question is, is there some type of 
fundamental insight that hazardous fuels reduction no longer 
merits the funding that it's had? And if so, I'd like to 
understand that.
    Secretary Jewell. Senator, I'll take a high-level crack at 
the question. Fuels reduction is very important in reducing the 
risk of wildland fires; no question about it. We have very 
difficult budget choices to make. This budget reflects a 
balance of what we expect to have to spend on suppression, 
based on the 10-year average. And putting some money aside, 
which has been removed, actually, in the sequester, putting it 
back in to reduce the fuel load.
    There are ways we fight fires that would be much better put 
on the emergency funding side so we had a predictable annual 
way to continue to reduce the fuel load and fight the sort of 
normal fires without the spikes that inevitably occur in terms 
of how it impacts our funding. We made some hard choices. 
There's nothing I'm aware of or have been told that there's a 
relation.
    Senator Merkley. Okay. Well, I appreciate the hard choices, 
and I just want to reiterate concern. A lot of our private 
landholders are very concerned about forest fires that are 
moving from public land onto their private land, their private 
range land, their private timberland. And a good share of the 
fires that occurred last year were on both public land leased, 
so it operates as an income generator for our ranchers, and 
also the private land, including private timber stands.
    And when your private timber stand is burned up as a result 
of a fire that initiated on a poorly managed public tract, you 
can imagine how angry you become about that poor management. 
And that's my concern, that we need to do more, not less.

                  KLAMATH BASIN RESTORATION AGREEMENT

    I wanted to turn to the Klamath Basin Restoration 
Agreement. This is an agreement that I discussed with you 
earlier that I just wanted to engage you on. This is an effort 
to address a significant area in southern Oregon, where you 
have a complicated set of rivers and dams and species, 
including a freshwater sucker fish and then the salmon, both of 
which have provisions to effect their survival that sometimes 
are in conflict with how much water stays in the lake versus 
how much water goes into the river, and so on and so forth.
    Stakeholders have been fighting over this water forever. 
They came together and forced the Klamath Basin Restoration 
Agreement. Your predecessor flew in to be there for the signing 
of this agreement. The Department worked very closely to try to 
support these concepts to turn what's been a lose-lose 
proposition into a win-win.
    Nothing about this is simple. But I again wanted to raise 
your attention to it and ask for your help in trying to take 
this long-term water war and convert it into something that's 
more reliable for the irrigators, better for the fish, both the 
in-lake fish and then the downstream fish.
    Secretary Jewell. Senator, thanks for your support, and I 
am aware of how extensive, how important, how complex this is, 
and I absolutely look forward to working with you on it.

                        RESOURCE MANAGEMENT PLAN

    Senator Merkley. Thank you, Madam Secretary. And then I 
wanted to turn to the issue of the O&C lands in Oregon, the 
Oregon and California Railroad grant lands. These lands have 
gone through various management plans, and there is a pending 
rewrite of the Resource Management Plans for six different 
districts.
    And one of the concerns, just as the concern that, if you 
will, fire suppression or response will take away the funding 
for fuels reduction, the concern here is that the resources 
that are necessary to do these plans might come at the expense 
of the planning for timber cuts. These are lands that were 
dedicated for our counties to essentially have a timber supply 
to feed the local mills. And part of the revenues from the 
sales go to the local counties. And if the planning isn't done 
for the sale of the timber, then nothing happens. Nothing gets 
cut, nothing gets managed. We have second-growth forests that 
continue to be good for fires and disease, but not for either 
ecosystems or for timber sales.
    And so, I wanted to raise this issue and ask whether the 
dedication of the effort on the Resource Management Plans is 
going to divert funds necessary to plan the sales on these 
lands.
    Secretary Jewell. I'll answer at a high level and then ask 
my colleagues here to chime in with more. What I've heard from 
the BLM is a commitment to provide a steady source of timber 
for the mills in Oregon. I know it's very critical to funding 
the Secure Rural Schools Program. I have not heard that the 
Resource Management Plan takes away from the ongoing commitment 
to provide a steady supply of timber.
    My colleagues, would you like--Rhea?
    Ms. Suh. Senator, we fully expect to meet our cut target of 
197 board-feet that is expected in 2013.
    Senator Merkley. Well, throw a million or something into 
there.
    Ms. Suh. I'm sorry. 197?
    Secretary Jewell. Million.
    Ms. Suh. 197 million; I'm sorry. What we were asking for in 
the budget is an additional $1.7 million that will obviously go 
into the Resource Management Plans. We do not think these 
things are mutually exclusive. We think both of them are 
equally important to the communities you represent.
    Senator Merkley. Thank you. I appreciate that, and I'll 
just close by saying 2 weeks ago we lost the Rough & Ready 
mill, the last mill that we had in that particular county. And 
the owner of the mill said, and I believe I have this right, 
that it's like a person starving to death in a room full of 
food. That essentially that, because of the scarcity of the 
sales off the nearby timberland, they just couldn't get the 
logs to feed the mill.
    In the small town of Cave Junction, this was 85 living-wage 
jobs, which of course, will affect that payroll being spent in 
Cave Junction, will affect every other retail operation in this 
mill town. And certainly, kind of that snapshot reflects the 
frustration and challenge of working out a sustainable timber 
supply strategy off these lands. Thank you.
    Senator Reed. Before I recognize Senator Hoeven, a vote has 
just started. I will depart to vote. I'll ask the vice chair, 
Senator Murkowski, to preside so that we can finish the first 
round. And we anticipate a second round.
    Senator Hoeven, thank you.

                 RED RIVER VALLEY WATER SUPPLY PROJECT

    Senator Hoeven. Thank you, Mr. Chairman. Madam Secretary, 
good to see you again. Thank you for being here. A project that 
we had submitted for a record of decision some years ago, we're 
still waiting for a final record of decision, it's the Red 
River Valley Water Supply Project. Would you be willing to 
commit to me that we can get together and you could give us a 
final decision one way or the other on that record of decision?
    Secretary Jewell. Happy to meet with you on it and learn 
more about it.
    Deputy Secretary, do you know the status of the record of 
decision?
    Mr. Hayes. I do not, but we certainly will get back to you 
on that.
    Senator Hoeven. Yes. We need to get a decision from you. 
And so could we agree to schedule something, get together and 
get a frank discussion and a final decision?
    Secretary Jewell. Sure. Absolutely.
    [The information follows:]
                 Red River Valley Water Supply Project
    The Bureau of Reclamation and the State of North Dakota completed 
the Red River Valley Water Supply Project Final Environmental Impact 
Statement in 2007. The preferred alternative identified in the EIS 
would import water from the Missouri River basin for release into the 
Red River through the Garrison Diversion Unit water supply facilities. 
A report on the project was transmitted to Congress in 2008, consistent 
with the Dakota Water Resources Act of 2008, Public Law 106-554. A 
Record of Decision has not been signed and that decision has not been 
revisited.
    The Dakota Water Resources Act requires that if the selected option 
includes the importation of Missouri River water, the project must be 
expressly authorized by Congress. No legislation has been enacted. We 
would be pleased to discuss the status of the Red River Valley Project 
further with the North Dakota delegation.

              SPIRIT LAKE NATION CHILD PROTECTIVE SERVICES

    Senator Hoeven. That would be great. Second, I want to 
thank you for your willingness to come visit us in North 
Dakota. I appreciate it very much. One of the stops that we've 
got to make is at the Spirit Lake Nation. And I think it's very 
important. There's a situation where the Bureau of Indian 
Affairs has taken over the Child Protective Services. Their 
problems on the reservations need to be addressed.
    Your presence there, I think could be a big help in terms 
of making sure the job gets done and getting a good progress 
report. And I'd like your thoughts and, hopefully, a commitment 
from you to do that.
    Secretary Jewell. I'm very happy to work with your office 
on my visit to see how we can prioritize working that in with 
the other things that you'd like me to see in North Dakota.

                  NORTH DAKOTA OIL RESERVE ASSESSMENT

    Senator Hoeven. Good. The third point is I want to thank 
you again for the USGS study that came out updating the 
recoverable oil reserves in North Dakota between double and 
triple, 7.4 billion to 11.4 billion barrels recoverable. The 
industry thinks it's going to be even higher than that. Natural 
gas, almost 7 trillion cubic feet.
    Your study is very important because it's going to help us. 
We've got the oil companies in there, but we're growing so fast 
we need private investors and private developers in there 
building stores and housing and, you know, all of the different 
things that go with quality of life, restaurants, in addition 
to the public investment we're making in roads and bridges and 
water supply and all that.
    So it's very helpful. I want to thank you for that. I 
worked with your predecessor, Secretary Salazar, very closely 
to get USGS to do that study. We thank you for it. It's going 
to have a real impact in terms of jobs and energy; tax revenues 
at local, State, Federal level without raising taxes; and of 
course, energy security, energy independence for our country. 
It's a great example of what we can do together.

                          HYDRAULIC FRACTURING

    So, now you're working on hydraulic fracturing. We can't 
produce oil and gas without hydraulic fracturing. So I need 
your commitment to work with us on that. That's one.

                         OIL AND GAS PERMITTING

    At the same time, we're working on permitting wells, for 
example, on BLM lands. Right now it takes 10 to 14 days to 
permit a well in our State, but it takes 270 days on BLM lands. 
We've got energy legislation in, our BLM Streamlining Act, 
which I think we got bipartisan support. I think you guys are 
onboard with it. We actually worked with some of your people to 
develop it.
    The point is this: We need your help streamlining the 
regulatory burden. And that's one of the things we're going to 
show you. For example, we're going to show you hydraulic 
fracturing, that we're transparent and that we're open. We do 
it right, we do it well. But we create a lot of jobs and a lot 
of energy doing it right and well.

                          HYDRAULIC FRACTURING

    So, specifically, where are you at with the hydraulic 
fracturing rules? Are you going to work with the States to make 
sure they work? And can we continue this model of the BLM 
Streamlining Act, where we work together to streamline this 
regulatory burden? This is a win-win in a big way.
    So I know that's kind of a long question. But it goes to a 
big point here and a real opportunity. And I'd love your 
response.
    Secretary Jewell. I'm happy to respond. And as I'm sure you 
recall from my confirmation hearing, I actually have fracked a 
well before.
    Senator Hoeven. Yes, I do.
    Secretary Jewell. Having been a petroleum engineer earlier 
in my career, I understand the process, I understand the risks, 
I understand the rewards. It's essential and has been for 
decades, in economically extracting the resource, it can be 
done safely and responsibly. I do understand that.
    Fracking rules, we're very close to releasing them. So I've 
said that it's a matter of weeks, not months. So you won't have 
long to wait.
    In terms of streamlining the regulatory burden, we agree, 
and the BLM agrees. Yesterday I had an opportunity to meet with 
the Western Energy Alliance, which is small operators from 
throughout the West. We talked about this.
    I hate to keep bringing up sequestration, but we have a 
movement afoot to streamline and automate the process. When we 
do a line-item by line-item cut, it makes it difficult to do 
that because we don't have the flexibility on where we cut. 
People are necessary to process permit applications, and they 
are being scaled back. We're actually prioritizing 
authorizations for permits to drill, and our inspections over 
additional leases.
    But the BLM is very committed to being more streamlined. 
There's some legislation that's had pilot offices that don't 
allow us to go beyond those pilot regions.
    Senator Hoeven. Exactly.
    Secretary Jewell. We're asking for a fix to that. I think 
the BLM is very much on the same page with you, Senator, in 
where we need to go to be responsive.
    Senator Hoeven. That's it. I mean, that's the legislation 
I'm talking about. We're going to get you authority so that you 
have flexibility to do some of these things. I think we can 
leverage your resources. We can do much more together even 
with, you know, the challenges of sequestration because, with 
some flexibility, we're going to bring you State and local 
resources, private resources in a way that will help us do 
these things.
    It really just comes back to your willingness to engage 
with us and do it. And this is where your leadership, I think, 
can be critical and make a big difference.
    Secretary Jewell. Yes. Appreciate that.
    Senator Leahy. First off, Madam Secretary, congratulations 
being here. I was proud to vote for your confirmation. I think 
your diversity of experience is going to be very good for us.
    You've heard from a lot of the western Senators up here, 
and I just want you know, as important as the Department of the 
Interior is to the West, we have some interest in Vermont, in 
the East. We take pride in our own stewardship. We appreciate 
the value the Department of the Interior brings to Vermont, to 
our two national wildlife refuges, two units of the National 
Park System, two national fish hatcheries. And I was glad when 
the Connecticut River and Vermont neighbor in the New England 
States become the first National Blueway. So these are all 
things that we're very interested in.

                              SEA LAMPREY

    Since 1998, FWS has led the effort to control parasitic sea 
lamprey in Lake Champlain in Vermont and New York. That's what 
this ugly-looking thing is, which attaches itself to fish, lake 
salmon, trout, and so on. It's critical to the restoration of 
native fish species in Lake Champlain. They have a devastating 
impact on the ecosystem if they're left unchecked.
    The program to get rid of it has been a huge success. In 
2011, your predecessor and former colleague, Ken Salazar, 
joined me in Vermont to say FWS was accepting full 
responsibility of the management of it. But they've yet to 
budget money for this work.
    When will FWS bidding plan begin to honor your 
predecessor's commitment in 25 years of leadership by the Fish 
and Wildlife Service and put money in to eradicate sea lampreys 
in Lake Champlain, without sounding too parochial?
    Secretary Jewell. Well, it's a great illustration of the 
challenge we have in balancing the resources, particularly with 
invasive species.
    Specific to the sea lamprey, I'm looking at Pam to see if 
she's got a number. She's scrambling to come up with a number.
    Ms. Haze. The fiscal year 2014 budget, sir, maintains FWS 
funding at the fiscal year 2012 level. It's at $1 million. This 
supports FWS's efforts in Marquette, Ludington field stations 
in Michigan, and the Lake Champlain Fish and Wildlife Resource 
Office in Vermont.
    Senator Leahy. So how much is going to be budgeted for 
Vermont?
    Ms. Haze. I'm not sure. We can get you that information, 
sir.
    Senator Leahy. Could you get it this week?
    Ms. Haze. We can.
    [The information follows:]
                              Sea Lamprey
    The Department's efforts to control sea lamprey in Vermont and Lake 
Champlain remains strong. The fiscal year 2014 budget maintains funding 
in the Fish and Wildlife Service at the fiscal year 2012 level of $1 
million. In addition, funding for sea lamprey control is provided by 
the Great Lakes Fishery Commission through reimbursable support 
agreements with the Service. In fiscal year 2012, the Commission 
provided $9.8 million; $8.7 million in 2013; and the Service 
anticipates receiving approximately $8.4 million in 2014, although 
exact allocations are as yet unavailable.
    The Fish and Wildlife Service supports sea lamprey control efforts 
from field stations in Michigan and the Lake Champlain Fish and 
Wildlife Resources Office in Vermont. Funding for sea lamprey control 
efforts in Vermont is stable at approximately $1 million in 2012, 2013 
and 2014. A portion of this funding is provided by the Great Lakes 
Fishery Commission. The Service works in close coordination with both 
Vermont and New York resource management agencies to support sea 
lamprey control efforts and together they are making progress.
    The U.S. Geologic Survey also provides scientific and technical 
support to sea lamprey control efforts which has informed more 
effective efforts. USGS provides support from facilities in Michigan 
and Wisconsin.

                      WHITE-NOSE SYNDROME IN BATS

    Senator Leahy. Thank you. I know that the Senator from 
Tennessee has mentioned white-nose syndrome, something I raised 
here several years ago. It is a matter of huge import, not only 
to farmers that use pesticides, but also to those who are 
involved in organic farming without pesticides.

                            FISH HATCHERIES

    And then native fish populations, ever-increasing risks. 
We've seen firsthand in Vermont FWS through the Federal Fish 
Hatchery System is critical to preventing that. Vermont's two 
Federal fish hatcheries support native fish restoration as far 
west as Lake Ontario, as far east as Maine. The 
administration's spending request is a significant drawback 
from freshwater fish restoration.
    Are you going to be able to continue a strong network of 
Federal fish hatcheries?

                      WHITE-NOSE SYNDROME IN BATS

    Secretary Jewell. Senator, I'm going to address white-nose 
syndrome in bats, as well as the question on the fish 
hatcheries. I do have information. We have $11.5 million for 
programs in the fiscal year 2014 budget for the white-nose 
syndrome in bats, and that's a $5 million increase above 2012, 
so the budget recognizes the huge economic impact of that.
    Senator Leahy. Good.

                            FISH HATCHERIES

    Secretary Jewell. In terms of fish hatcheries, I know that 
there is support for fish hatcheries in general. I don't know 
specifically about Vermont.
    Rhea.
    Ms. Suh. Senator, we believe strongly that the Light River 
National Fish Hatchery is one of the best examples of our work 
in this realm. As you know, the hurricane in 2011 caused 
significant damage to this facility. We have been undergoing 
two separate construction projects to try to repair and rebuild 
the fish-tagging building. In 2014, we have a total of $4.7 
million budgeted for the operations of this program. We're 
working on both the ongoing regular operations, as well as the 
restoring, the rebuilding of the actual infrastructure.
    Senator Leahy. Good. Well, thank you very much. And 
finally, Madam Secretary, if you go online and pick up ``The 
Onion,'' the satirical newsmagazine, you've probably seen this, 
how you became President when the President, the Vice 
President, the Speaker, myself, and those of us who are in line 
to accession to the presidency took a hot-air balloon ride. 
Trust me, we're not going to. Thank you.
    Senator Murkowski. Senator Cochran.
    Senator Cochran. Madam Chairman, I'm pleased to join you 
and others on the subcommittee in welcoming our distinguished 
panel of witnesses today. We thank you for your leadership at 
the Department of the Interior.

                       MISSISSIPPI NATIONAL PARKS

    Two of the most important activities in my area of the 
country involve the Gulf Islands National Seashore and the 
Natchez Trace Parkway, both of which are very important for 
visitation and appreciation of the beauty of that part of our 
country. And I just want to put in a plug for adequate funding 
to continue to carry out the activities that the Department has 
in supervising and helping maintain the integrity and beauty 
and enjoyability of that part of the country.
    I think our time has run out on our vote over on the floor. 
So I'm prepared to yield back my time without really asking you 
for any commitments except your best efforts.
    Secretary Jewell. Thanks, Senator. I do want to reference 
that it looks like funding is equivalent to the fiscal year 
2012 levels for the three parks in Mississippi. I look forward 
to visiting Vicksburg, which is coming up, I think in a week or 
two. So thank you.
    Senator Reed. Thank you very much, Senator Cochran. And as 
I indicated before, Senator Murkowski is now going to vote and 
we will begin a second round.

                             OFFSHORE WIND

    One of the major issues that's upcoming is the auctions for 
offshore wind. This is particularly important to Rhode Island. 
Can you give us a detailed timeline? There was a commitment, I 
think, that all this process would be completed by the end of 
the year. But perhaps either you, Madam Secretary, or Deputy 
Secretary Hayes could comment.
    Mr. Hayes. Be happy to, Senator. I want to compliment your 
leadership here and the State's leadership. Rhode Island really 
has invested from the very beginning in good studies and good 
analysis to enable Rhode Island now to move forward as our 
first competitive offshore lease sale with the combined Rhode 
Island-Massachusetts wind energy area.
    We are looking to have a notice of the sale to come out 
within a matter of weeks and to have the actual sale occur 
before the end of the year. That's our current timetable. As we 
get closer, we will give your office, and I've enjoyed working 
with Rachael directly on this, more precise information.
    Senator Reed. Right.
    Mr. Hayes. But we are on track to get it done this year.
    Senator Reed. Thank you very much, Deputy Secretary Hayes.

                             SEQUESTRATION

    Madam Secretary, the issue of sequester keeps, obviously, 
coming up in many different contexts. Let me just ask, for the 
record and also to sort of, I think, provide a good basis for 
further discussion. First of all, your budget does not assume 
the sequester; is that correct?
    Secretary Jewell. The fiscal year 2014 budget does not 
assume the sequester. We're making comparisons typically to the 
fiscal year 2012 budget because that's the last enacted budget 
that we had.
    Senator Reed. Right. Right. So the budget we're talking 
about, if the sequester continues into this 2014 fiscal year, 
it will be further complicated. Right now you're looking at, 
you're assuming no sequester?
    Secretary Jewell. That's correct.
    Senator Reed. Thank you. Now, and all of my colleagues, I 
think, because, first of all, they're extremely effective and 
thoughtful people, have suggested ways in which we could make 
further investments not only in their States, but in national 
programs. But even with the flexibility some people have spoken 
about, these additional investments would be difficult to do in 
the context of the budget with or without the sequester; is 
that fair also?
    Secretary Jewell. That's correct.
    Senator Reed. And again, one of the issues is that--and I 
think all of my colleagues would make the same point I would. 
When we do these investments, they actually generate economic 
activity, provide jobs, leverage the economy forward. So this 
is not just spending for the sake of spending. Yet could these 
critical investments--you know, you have a list of things you 
had to leave on the cutting-room floor, as they say on the west 
coast, that you probably believe would be hugely valuable for 
jobs, for economic growth, and for the future of the country. 
Is that a fair assessment, too?
    Secretary Jewell. Yes. And just to put a few numbers behind 
it, I come out of the active outdoor-recreation industry, $600 
billion of revenue that is generated because of people's 
recreation on public lands. The lion's share of those lands are 
managed by the Departments of the Interior and Agriculture.
    On the energy side, I think we get a 26-to-1 return on 
investment for every dollar we invest. We generate $26 of 
revenue for both States and the Federal Government. So, yes, I 
mean, as we scale back, as I referenced on the sequester, it's 
about $200 million of lost revenue that we associate with just 
the cuts we've had to make from the sequester alone.
    Senator Reed. Well, thank you very much. That adds, I 
think, some context and some real value to what has been so far 
a very valuable discussion in and of itself.

               URBAN PARK AND RECREATION RECOVERY PROGRAM

    Let me turn to another issue. It was very encouraging to 
see this budget include $10 million to revive the Urban Park 
And Recreation Recovery Program. You know, again, my colleagues 
are from larger States and more rural States, have parks, et 
cetera. But there's a need everywhere for access to nature, 
conservation, and the services that parks provide.
    Can you explain some of the specific activities that you 
see funded under these grants? Who would be eligible as an 
allocation formula? Any details would be helpful.
    Secretary Jewell. Let me give the high level, and then I'll 
encourage my colleague, Rhea, to weigh in.
    Senator Reed. Thank you.
    Secretary Jewell. First, there is a significant, scary 
growing disconnect between children and nature. It's something 
that I have worked hard on before coming into this role. Urban 
parks are frequently the best opportunity children have to have 
any kind of a connection to the natural world at all. If we 
want people sitting around this dias in the future that care 
about these resources, which I think are vital for many 
reasons, we need to connect them to parks today.
    The UPARR program, which has been around for a long time, 
but not funded consistently, is really vital. As a former 
urbanite from the Seattle area, these kinds of funds are 
desperately needed by local cities and counties to support the 
parks that are necessary in the region. That's why we're asking 
for it to come back. The Rivers, Trails and Conservation 
Assistance Program that NPS administers is another critical 
resource that is leveraged by local money.
    So, Rhea, do you want to provide any more detail on the 
program itself?
    Ms. Suh. Mr. Chairman, we can certainly provide you 
extensive detail on how the program will be operated. It is, 
obviously, operated by NPS. It's our understanding that the 
funds would go to local municipalities that have urban 
populations, in a competitive process. So again, we would be 
happy to get back to you with more details on the program.
    This is a program, as you know, that used to exist several 
years ago. We are resurrecting it because we believe strongly 
and agree with you that the need, particularly in urban places 
around the country, is great.
    Senator Reed. Well, I concur, obviously. And in one point, 
I would echo the Secretary, so that if we want the next 
generation to be custodians of the environment and not just in 
certain areas, but throughout this country, we have to expose 
them to environmental education and issues. And again, we have 
been pushing through the Department of Education for a 
curriculum that has a recognition of getting kids outside. In 
fact, we've got legislation, the No Child Left Inside Act.
    But this is not just Department of the Interior, but across 
the Federal Government engaging the next generation of young 
people in environmental education. And the best education is 
actually going in and seeing firsthand a park or, in our case, 
going out on the bay, Narragansett Bay, and participating in 
places like Seattle, going up into the mountains and hiking or 
climbing, et cetera. So it's absolutely critical.
    [The information follows:]
                  Urban Parks and Recreation Recovery
    Established by the Urban Park and Recreation Recovery Act of 1978, 
the Urban Park and Recreation Recovery grant program was designed to 
provide matching grants to a prioritized list of urban cities and 
counties that represent the most physically and economically distressed 
communities Nationwide. The program provides direct Federal grants to 
local governments to rehabilitate existing indoor and outdoor 
recreation facilities; to demonstrate innovative ways to enhance park 
and recreation opportunities; and to develop local Recovery Action 
Programs to identify needs, priorities and strategies for 
revitalization of the total recreation system.
    Rehabilitation and innovation grants are awarded through a national 
competition among the detailed project proposals submitted to the 
National Park Service (NPS). These are evaluated and ranked by a 
national panel and recommendations made to the Director of the National 
Park Service for selection. The project selection criteria address the 
goals of the UPARR program and are outlined in the UPARR Act. For 
example, project selection criteria for rehabilitation projects include 
but are not limited to:
  --Maximizing project costs per capita in the community served.
  --The degree of service to minority and low to moderate-income 
        residents, special populations, and distressed neighborhoods.
  --The degree of State participation in the proposal, including 
        financial and technical assistance.
  --The degree of private sector participation in the proposal, 
        including contributions of financial assistance.
  --The degree to which the project is clearly a priority for action 
        listed in the Recovery Action Program and the jurisdiction's 
        commitment to improving its recreation system.
  --The scope of whether the proposed project will serve neighborhood 
        recreation needs.
  --The condition of existing recreation properties to be rehabilitated 
        and the need to maintain existing services.
  --The level of improvement in the quality and quantity of recreation 
        services as a result of rehabilitation, including improvements 
        at specific sites and overall enhancement of the recreation 
        system.
  --The degree of the projects consistency with local government 
        objectives and priorities for overall community revitalization.
  --The degree of neighborhood employment opportunities created.

                                 YOUTH

    Senator Reed. And let me ask a broader question, which is, 
this is one aspect of youth programs in the budget. Madam 
Secretary, could you comment generally about other areas of the 
budget that emphasizes sort of youth engagement?
    Secretary Jewell. Yes, and I hate to keep hearkening back 
to the sequester, but one of the biggest impacts we've had is 
the reduction in youth hiring. When I go around the BLM or the 
Park Service, or even USGS, a lot of the folks that work for 
the Department of the Interior started as young people. They 
might have been in college, and they did a summer job. My son 
worked for 3 years as a volunteer ranger in a national park. It 
connected him to place in a way that will change his life 
forever
    These opportunities are enormously critical in making sure 
we have people that are interested in the jobs that take care 
of these lands. I want to compliment Assistant Secretary Suh on 
her commitment to youth hiring in Interior, because we've had 
tens of thousands--how many thousands?
    Ms. Suh. 84,000.
    Secretary Jewell. 84,000 young people, looking in the rear-
view mirror, have been hired by Interior. These will be the 
people that will be our park rangers, our wildlife biologists, 
and our oil and gas lessees of the future.
    We also have a very scary situation with the maturation, I 
would say, of our workforce.
    Senator Reed. You mean they're getting to be our age?
    Secretary Jewell. I resemble that remark, yes.
    Senator Reed. They're getting to be my age. I understand.
    Secretary Jewell. Well, they're my age, and they will be 
eligible for retirement in a 5-year period of time. You know, 
will we have the people necessary with the skills set 
necessary? We have a commitment to that, but it is difficult in 
this budgetary time. And that's certainly something that's 
reinstated in this budget.
    Senator Reed. Well, you make another excellent point, which 
is, there's, going forward, a capacity issue, because as you 
lose these very valuable, very experienced personnel, for the 
last several years we have not been hiring at the level we need 
to keep the entry-level and middle ranks sustained so that 
there's a natural progression upwards. And we could find 
ourselves with a situation where we, you know, don't have the 
capacity, the expertise. And that doesn't help anyone, because 
you still have the mission, but you still have the capacity.

                    LAND AND WATER CONSERVATION FUND

    But let me change to another topic that you've mentioned, 
then I've mentioned, and that's the LWCF. We have, and I think 
this is strong bipartisan support over the years for the LWCF. 
We're fully funding it, et cetera.
    The proposal in this budget is to make part of it 
mandatory, and I think, the longer term, to transition to an 
entirely mandatory program.
    Secretary Jewell. That's correct.
    Senator Reed. Which the value, obviously, is it tends to 
lock in the money. But what it doesn't do is allow sort of the 
not only just oversight, but, you know, members to be able to 
indicate the local preferences, what's an important project in 
Alaska or Nebraska or Rhode Island, which is part of what we 
do, and also, the oversight of the program on specific issues, 
accountability, et cetera.
    So how are you planning to continue to involve Congress in 
this process, first for this at least proposed, and not yet 
adopted mandatory portion, and certainly at the point if this 
ever got to be completely a mandatory program?
    Secretary Jewell. Senator, as a businessperson, I spoke at 
length with many members of this body about the importance of 
full funding of the LWCF to fulfill its intended purpose. It 
has been under threat consistently, and that is why we are 
proposing mandatory funding.
    I think there's an example in the Migratory Bird 
Commission. There's another word in there, isn't there?
    The Migratory Bird Conservation Commission. Where there is 
engagement on the part of the Congress in prioritizing where 
those funds are spent. I would welcome the opportunity to work 
with you and this committee on establishing something similar 
so there is insight and input from Congress on prioritizing 
those projects. Because it's certainly not something that needs 
to be driven by us. It's something I think we could drive 
collaboratively.
    Senator Reed. And again, one of the concerns is that it's 
this balance between smaller areas of the country, larger areas 
that might have, you know, just a bigger footprint, if you 
will, where you have to deal with that. And without, I think, 
healthy dialog within the Congress and the administration, 
we're not going to be as effective as we should be. So I thank 
you for that, going forward.
    I'm going to recognize Senator Murkowski and ask her, at 
the conclusion of her questions, because I do not believe any 
of our colleagues will return, if you could gavel us out. I 
would indicate that the record will remain open until Thursday, 
May 16. So, Madam Secretary, you could get some written 
questions from any of my colleagues. And we'd ask you to 
respond as quickly as possible. Those questions have to be in 
by May 16, and we ask again for your rapid response.
    With that, let me turn the gavel over to Senator Murkowski 
to ask a question and to conclude the hearing. Thank you.
    Senator Murkowski [presiding]. Thank you, Mr. Chairman. 
Appreciate that. And sorry for the Jack-in-the-box routine, but 
this is what happens. And thank you for an opportunity to just 
ask a couple more questions; I won't keep you too long because 
it's been a long morning for you as well.

                         ARCTIC OCS REGULATIONS

    Let me ask first about where we are in the process of 
developing these Arctic-specific regulations within BOEM for 
the exploration and development in the OCS areas out there. As 
you know, exploration has been delayed going forward this next 
season, in part because of what's gone on with the regulatory 
uncertainty.
    Can you give me some sense as to the timeline we're looking 
at here for these regulations and whether or not it's your 
intent to have those regs in place in time for the 2014 
drilling season?
    Secretary Jewell. Senator, I have had meetings with both 
Shell and ConocoPhillips, who are the principals involved in 
this. I've not yet met with Statoil; that may come up. I sense 
a strong commitment to safe and responsible development of the 
Arctic by the operators and by the regulators.
    I don't believe that, in my conversations, that either 
Shell or ConocoPhillips feels that it is regulations that are 
getting in their way. It is ensuring that the technology is 
available to be able to respond in the event of an incident, a 
spill incident up there, that is of paramount importance to us 
and I'm sure to you, as well. We certainly don't want a 
situation in the Arctic like we experienced in the gulf.
    Shell has been ahead of the game in working on particularly 
the oil spill response. As you know, their response didn't pass 
the test. They would acknowledge that, and certainly, the 
Bureau of Ocean Energy Management agreed that the test was not 
passed. Shell is back working on developing a strategy to make 
that happen, and they're going to continue to test until they 
get it right.
    There is a requirement that the ability to drill a relief 
well be there, because unlike other parts of the world, where 
you've got the ability to rapidly respond with other units that 
might be in the area, that's not true. Both Shell and 
ConocoPhillips, and Statoil if they proceed with their 
development, will look to share resources to be able to drill a 
relief well should there be a problem. That's another factor.
    But I don't sense that there is any disconnect between 
industry and the regulator in terms of what needs to be done or 
the timing.
    Senator Murkowski. Well, let me ask for clarification on 
that because, as we know, when Shell was moving forward as the 
only entity, the only producer up there, the plans were very 
specific as to Shell's operations. Conoco is looking at a 
different process using a jack-up rig. So in terms of ensuring 
that the regulations are out there, that they are clear and 
understandable, that allow for a level of certainty, there are, 
as I understand, still regulations that need to be defined.
    So the question is, will that be clearly mapped out far 
enough in advance so that Conoco can advance in 2014, or Shell 
can advance in 2014? Actually, excuse me, Conoco has already 
said that they won't go in 2014. They're putting it off an 
additional year. But will that regulatory certainty be there 
for Shell should they decide to move forward in 2014?
    And then a secondary question is as it relates to the air 
quality programs. As you know, in the 2012 appropriations bill, 
we transferred the authority from EPA to DOI. And so, same 
question: Will you be prepared within BOEM to have finalized 
these regulations, not only on the exploration and the 
development side, but on the air-quality side, in time for the 
2014 season?
    Secretary Jewell. I'm going to ask Deputy Secretary Hayes 
to weigh in with more detail.
    Mr. Hayes. Thank you, Secretary and Senator. First on the 
question of Arctic-specific standards, we are going to move 
forward and put in regulations. The requirements that Shell was 
required to do under the exploration plan, we are looking to 
have performance standards so any company working the Arctic 
will be expected to meet a performance standard, for example, 
to deal with the containment for a spill, but with the 
flexibility for companies to figure out how they want to meet 
that standard.
    We do expect to have proposed regulations out by the end of 
this year so there will be clarity going forward. They will be 
based on the kinds of requirements we've worked on together and 
that were used in the field last summer. So there should not be 
significant concern about what's in them, but we do believe 
it's appropriate to put them in regulations now that we have 
more than one operator moving up there, and that's our intent.
    With regard to the air side, we are working hard at 
developing the regulations to implement the addition of the 
jurisdiction to BOEM to handle air requirements in Alaska as 
they do in the gulf. And we expect forward movement on those 
this year as well.
    Senator Murkowski. Do you expect that there will be any 
difference between how the department regulates the air quality 
in the gulf and up north?
    Mr. Hayes. I think it will be the same approach, Senator, 
which is what I believe is required under the law that you 
helped to instigate and pass.
    Senator Murkowski. Good. I appreciate that. And I think it 
was important to hear the word ``flexibility'' used in your 
response when you're talking about the performance standards, 
because recognizing that you may have different technologies, 
different approaches there, yes, it's important to have that 
backup, if you will, that standby system. But the designs might 
be different, given what the different operators are utilizing.
    So it is important, again, that we have those regulations 
that are clearly defined in advance, well in advance, 
hopefully, of this season so that that level of certainty, 
moving forward, is there.

                         CONTRACT SUPPORT COSTS

    Let me ask one final question to you, Madam Secretary. And 
this relates to BIA and IHS contract support costs. Last year, 
the Supreme Court, in the Ramah case, held that tribes are 
entitled to full contract support costs under their agreements 
with the Federal Government.
    What we're seeing, though, with the budget requests for 
both BIA and IHS, they have proposed this separate 
appropriations account solely for contract support costs that 
also includes some statutory language that, in my view, 
circumvents the court's holding there. The language would 
effectively prevent the tribes from bringing claims for the 
full amount of contract support costs if inadequate funding is 
not appropriated to cover these costs.
    I don't know what kind of feedback you have heard, but I 
can tell you, the outcry from tribes from folks back home on 
this particular issue is really loud. It's quite intense. The 
tribes have spent so many years getting to this point, 
significant legal costs. They get the Ramah decision and are 
very optimistic that they will finally see some equity within 
the budget here. And now this proposal, again, really kind of 
undercuts where they have come from.
    One of the questions that they asked me to ask you was 
whether or not there had been any tribal consultation prior to 
putting forth the proposal in the budget. And recognizing that 
you weren't in that situation to do that, I don't know if any 
of your staff has information in terms of what actually went on 
prior to this decision or this proposal that is now in the 
budget.
    Secretary Jewell. Let me give a high-level on the contract 
support cost dollars.
    Senator Murkowski. Okay.
    Secretary Jewell. And then I'll turn to my colleagues in 
terms of the process. We've got $231 million in the budget for 
contract support costs, which is about 91 percent of the need. 
So it is not fully funded. It would require about $253 million 
to fully fund. It is an increase of nearly $10 million. I 
understand that the court provided some different options in 
terms of how it might be administered.
    The President and the Department of the Interior really 
want to fulfill our obligations under this. And of course, it's 
a function of money. We would very much like to resolve this, 
working with Congress to come up with a mechanism to address 
the conflict that we have in funding and, I think, in terms of 
some legal conflicts as well in how the laws are administered.
    David, do you want to provide more?
    Mr. Hayes. Yes, thank you, Secretary. And, Senator, this is 
a very important issue to us. As you know, this is an issue 
that also affects the Department of Health and Human Services 
with the Indian Health Service. In putting together the 
President's budget, it was really a function of the 
administration as a whole that had to deal with this issue, at 
the same time that we're trying to now settle the class action 
case as well, based on the Supreme Court decision.
    The consultation is occurring now. And I know that within 
the last----
    Senator Murkowski. So after the fact? How is that going?
    Mr. Hayes. Well, I think it was going pretty rough, 
Senator. I know that Charlie Galbraith on behalf of the White 
House and Kevin Washburn and Ms. Roubideaux and others have met 
with the tribes about this. We very much view this budget as 
the beginning of a discussion. We need to solve this problem, 
working with you and the Congress, to ensure that full support 
costs are available.
    As the Secretary said, we're committed to it. We've found 
some additional money. We have to solve this problem. This is 
an interim step, and what we care most about, and I'm sure you 
do as well, is that this not be a recurring issue year in and 
year out and become an open sore.
    I know that Kevin Washburn, in particular, the Assistant 
Secretary for Indian Affairs, is committed to deal with this. 
I've engaged with my colleagues at the Department of Health and 
Human Services and the Attorney General's Office to see if we 
can't both get the retrospective litigation completed and then 
have a solution going forward that works for you as 
appropriators, as well, to fund the support costs and honor the 
Supreme Court's decision.
    Senator Murkowski. Well, and honor the Supreme Court's 
decision, but also honor that trust responsibility to our first 
peoples. It seems to me that the solution really here is to do 
what the Ramah decision laid out, which is to pay the tribes 
the full amount of their contract support costs, and the 
President should include that full amount in his budget.
    I am sure that the consultation right now, or I guess it's 
not really consultation if it's after the fact, but I'm sure 
it's difficult. And we do need to figure out how we're going to 
do right, again, not only by the court decision, but just the 
right thing when it comes to these obligations that our native 
people have incurred when it comes to operation of our 
hospitals, of our schools.
    So this is an important one. And we've talked a little bit 
about the impact of sequestration and what it may bring. But 
this is not brought on by sequestration. This is just us 
dealing with our responsibility, our obligation. And how we 
make good on it is hugely important. So I appreciate the work 
that's going into it, and I know that we stand ready to work 
with you on this end.

                     ADDITIONAL COMMITTEE QUESTIONS

    With that, we have held you here in the subcommittee for 
some time. I appreciate, Madam Secretary, your willingness to 
step forward and serve, working with good staff. Deputy 
Secretary Hayes, we appreciate the service that you have given 
for many years now. And Secretary Jewell, my free advice is, 
take full advantage of him until June and tap into the resource 
that he clearly has made available to the Department of the 
Interior.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
                Questions Submitted by Senator Jack Reed
                        national heritage areas
    Question. Your fiscal year 2014 budget request proposes a change in 
the distribution formula for national heritage areas (NHAs) including 
the John H. Chafee Blackstone River Valley National Heritage Area in 
Rhode Island that includes a new tiered and ``performance-based'' 
system of funding. Please describe, in detail, how and when the 
Department plans to implement this formula change and provide the 
proposed allocation of funds for each authorized heritage area as 
provided by your fiscal year 2014 budget.
    Specifically, how does your fiscal year 2014 budget request 
continue to provide funding for mature national heritage areas like 
Blackstone? At what level do you propose to fund these areas, and how 
does that level compare with the funding that these areas will receive 
in fiscal year 2013?
    Answer. The National Park Service will initiate phase-in of a 
revised funding formula as funding levels allow. The revised formula is 
a merit-based system for allocating heritage areas funding that 
considers a variety of factors based upon criteria related to program 
goals, accountability, and organizational sustainability.
    The revised Heritage Partnership Program (HPP) funding formula uses 
three sequential tiers. The amount of funding available to each 
heritage area coordinating entity depends upon the total annual HPP 
appropriation and the number of coordinating entities authorized to 
receive funds. Tier increases for each coordinating entity are 
dependent upon meeting eligibility requirements and attaining 
performance measures.
    First the tier 1 allocation of $150,000 would be provided to all 
NHAs that are authorized to receive HPP funding, able to meet any 
Federal/non-Federal match requirements contained in their authorizing 
legislation, and are able to expend funds obligated under their 
cooperative agreement within a reasonable period of time.
    Next, each NHA coordinating entity that meets the tier 2 
requirements would receive an additional amount of funding up to 
$250,000 or if sufficient funding is not available an equal share of 
the available funds. To be eligible for tier 2 funding the coordinating 
entity must meet additional eligibility requirements regarding 
management plan approval, and have at least one full-time, paid staff 
person in place to assume financial and administrative responsibility 
of heritage area funds.
    Last, if funds remain available after awarding tier 1 and tier 2 
funds, then tier 3 funds will be allocated among those coordinating 
entities that have already met the tier 1 and 2 requirements, have 
long-term sustainability plans, and can match HPP funds at a 1:2 ratio, 
or provide an all-cash match at a 1:1 ratio or the ratio specified in 
the Area's authorizing legislation.
    There are currently 48 National Heritage Areas authorized to 
receive funds through the NPS HPP budget activity. If the appropriated 
amount is equal to the request of $8,014,000 for Heritage Partnership 
Commissions and Grants, the fiscal year 2014 allocations will range 
between $150,000 and $170,872, which will constitute a dramatic 
decrease for mature areas.
    The following table shows the actual fiscal year 2013 allocations 
and the planned allocation for fiscal year 2014. In fiscal year 2013, 
$15,533,000 was available, post-sequestration, for Heritage Partnership 
Commissions and Grants, or nearly twice as much as planned for fiscal 
year 2014. Due to the significantly higher level of overall funding, 
direct comparisons of the allocations between the 2 years are not very 
descriptive, but overall the individual allocations ranged between 
$150,000 and $628,000. The draft fiscal year 2014 allocation is 
predicated on each of the 48 coordinating entities receiving 
authorization through fiscal year 2014 and obtaining eligibility for 
tier 1 funding. A subset of the NHAs is expected to have approved 
management plans in place and thus be eligible for tier 2 funding. 
These NHAs would be funded at $170,872.

----------------------------------------------------------------------------------------------------------------
                                                                    Fiscal Year 2013         Fiscal Year 2014
                    National Heritage Areas                          Enacted (Post-         President's Budget
                                                                     Sequestration)              Request
----------------------------------------------------------------------------------------------------------------
Abraham Lincoln National Heritage Area........................                 $150,000                 $170,872
America's Agricultural Heritage Partnership (Silos)...........                  628,000                  170,872
Arabia Mountain National Heritage Area........................                  288,000                  170,872
Atchafalaya National Heritage Area............................                  288,000                  170,872
Augusta Canal National Heritage Area..........................                  288,000                  170,872
Baltimore National Heritage Area..............................                  150,000                  170,872
Blue Ridge National Heritage Area.............................                  610,000                  170,872
Cache La Poudre River Corridor................................                  150,000                  150,000
Cane River National Heritage Area.............................                  523,000                  170,872
Champlain Valley National Heritage Partnership................                  288,000                  170,872
Crossroads of the American Revolution National Heritage Area..                  288,000                  170,872
Delaware & Lehigh National Heritage Corridor..................                  540,000                  170,872
Erie Canalway National Heritage Corridor......................                  627,000                  170,872
Essex National Heritage Area..................................                  556,000                  170,872
Freedom's Frontier National Heritage Area.....................                  288,000                  170,872
Freedom's Way National Heritage Area..........................                  150,000                  150,000
Great Basin National Heritage Route...........................                  150,000                  170,872
Gullah/Geechee Heritage Corridor..............................                  150,000                  170,872
Hudson River Valley National Heritage Area....................                  435,000                  170,872
Illinois and Michigan Canal National Heritage Corridor........                  288,000                  170,872
John H. Chafee Blackstone River Valley National Heritage                        575,000                  170,872
 Corridor.....................................................
Journey Through Hallowed Ground National Heritage Area........                  150,000                  150,000
Kenai Turnagain Arm National Heritage Area....................                  150,000                  170,872
Lackawanna Valley National Heritage Area......................                  378,000                  170,872
Mississippi Delta National Heritage Area......................                  150,000                  150,000
Mississippi Gulf Coast National Heritage Area.................  .......................                  170,872
Mississippi Hills National Heritage Area......................                  150,000                  150,000
Mormon Pioneer National Heritage Area.........................                  288,000                  170,872
MotorCities-Automobile National Heritage Area.................                  435,000                  170,872
Muscle Shoals National Heritage Area..........................                  150,000                  150,000
National Aviation Heritage Area...............................                  288,000                  170,872
National Coal Heritage Area...................................                  288,000                  170,872
Niagara Falls National Heritage Area..........................                  288,000                  170,872
Northern Plains National Heritage Area........................                  150,000                  150,000
Northern Rio Grande National Heritage Area....................                  150,000                  150,000
Ohio and Erie Canal National Heritage Area....................                  567,000                  170,872
Oil Region National Heritage Area.............................                  288,000                  170,872
Quinebaug-Shetucket Rivers Valley National Heritage Corridor..                  590,000                  170,872
Rivers of Steel National Heritage Area........................                  588,000                  170,872
Sangre de Cristo National Heritage Area.......................                  150,000                  170,872
Schuylkill River Heritage Area................................                  435,000                  170,872
Shenandoah River Valley Battlefields National Historic                          385,000                  170,872
 District.....................................................
South Carolina National Heritage Corridor.....................                  587,000                  170,872
South Park National Heritage Area.............................                  150,000                  170,872
Tennessee Civil War Heritage Area.............................                  386,000                  170,872
Upper Housatonic Valley National Heritage Area................                  150,000                  150,000
Wheeling National Heritage Area...............................                  528,000                  170,872
Yuma Crossing National Heritage Area..........................                  304,000                  170,872
                                                               -------------------------------------------------
      Total...................................................               15,533,000            \1\ 8,014,000
----------------------------------------------------------------------------------------------------------------
\1\ Numbers may not add due to rounding.

              urban parks and recreation recovery program
    Question. As member from an urban State, I was encouraged to see 
that your budget request includes a $10 million investment to revive 
the Urban Parks and Recreation Recovery Program, which has not been 
funded in several years. Can you please explain what specific 
activities are funded by these grants, and who is eligible? How will 
you allocate these funds?
    Answer. Established in 1978 by the Urban Park and Recreation 
Recovery Act of 1978, the Urban Park and Recreation Recovery (UPARR) 
grant program was designed to provide matching grants to a prioritized 
list of urban cities and counties that represent the most physically 
and economically distressed communities nationwide.
    The program provides direct Federal grants to local governments 
for:
  --Rehabilitation grants, to rehabilitate, expand or developing 
        existing neighborhood oriented outdoor or indoor recreation 
        areas and facilities existing indoor and outdoor recreation 
        facilities;
  --Innovation grants, to cover the cost of personnel, facilities, 
        equipment, supplies or services associated with the development 
        of innovative, cost-effective ideas, concepts, and approaches 
        toward improved facility design, operations or programming for 
        the delivery of recreation services at the local level; and
  --Recovery Action Program Planning grants, to develop local Recovery 
        Action Programs to identify needs, priorities and strategies 
        for revitalization of the total recreation system.
    Grants are available directly to a predetermined list of eligible 
urban cities and counties. This list currently includes over 400 
jurisdictions and was determined through a comprehensive study and 
analysis conducted by the U.S. Census Bureau in conjunction with the 
Department of the Interior. If funding is provided by Congress, this 
analysis would be updated. Additionally, up to 15 percent of the annual 
appropriation is available to cities not on the list but which are in 
Census Bureau defined Metropolitan Statistical Areas and meet other 
eligibility criteria. In order for jurisdictions to be able to apply 
for Rehabilitation or Innovation grants, they must have an National 
Park Service approved Recovery Action Program Plan that demonstrates 
the jurisdiction's commitment to revitalizing its park and recreation 
system.
    Rehabilitation and innovation grants are awarded through a national 
competition among the detailed project proposals submitted to the NPS. 
These are evaluated and ranked by a national panel and recommendations 
made to the Director of the National Park Service for selection.
    Question. The request proposes funding these urban recreation 
grants in lieu of the existing $5 million Stateside Competitive Grant 
program, while it continues to fund $40 million for Stateside formula 
grants. Can you please explain what is different about this urban parks 
program compared to the Stateside competitive grant program? What is 
the administration hoping to achieve with this proposal?
    Answer. There are a number of key differences between the UPARR 
program and the previously proposed, but never enacted, Land and Water 
Conservation Fund (LWCF) State Competitive program. Chief among them is 
that the LWCF State Competitive program proposal focused on the three 
core America's Great Outdoors (AGO) priorities which included 
increasing and improving recreation access and opportunities in urban 
parks and community green spaces, increasing public access to rivers, 
and catalyzing large landscape partnership projects. The UPARR program 
is consistent with the AGO priorities, but has a more targeted approach 
in that it focuses exclusively on rehabilitating existing facilities in 
core urban areas. Last, LWCF competitive grants were intended to be 
available to States and through States to any local unit of government 
whereas UPARR grants are specifically targeted to the most economically 
distressed urban cities and counties across the country.
    With regard to the goals that the administration hopes to achieve, 
the UPARR program is intended to help stimulate the revitalization of 
urban park and recreation opportunities by promoting a unified approach 
to addressing urban recreation through coordination and partnership 
among different levels of government and the private sector. By doing 
so the administration hopes to create a robust system of urban parks 
that can contribute to the accomplishment of high priority national 
goals to improve and encourage health living, redevelop economically 
depressed urban cores, and revitalize and create livable urban 
communities.
    The President's budget request includes $10 million for the UPARR 
program; additionally a proposal to fund a portion of recreation grants 
from the LWCF as a permanent appropriation will provide an additional 
$5 million for UPARR grants. The budget also requests $40 million for 
the Stateside program with an additional $20 million included in the 
permanent LWCF appropriation proposal. Competitive Stateside grants are 
not proposed for funding in the President's budget request.
                             sequestration
    Question. Secretary Jewell, can you give us more detail about what 
visitors to the parks and other Federal lands should expect this summer 
as a result of sequestration? What are some specific examples of the 
tough choices that you have already been forced to make?
    Answer. As a result of the sequester, many parks are not filling 
vacancies and are retaining fewer seasonal employees. Consequently, 
these parks will experience reduced visitor services and hours of 
operation, shortened seasons, and closing of park areas when there is 
insufficient staff to ensure the protection of visitors, employees, 
resources and Government assets. Some specific examples include:
  --Great Smoky Mountains National Park (NP) will close three remote 
        campgrounds and two picnic areas, affecting 54,000 visitors;
  --Mount Rainier NP will close the Ohanapecosh Visitor Center, 
        affecting 60,000-85,000 visitors;
  --Catoctin Mountain Park will close its only visitor center 50 
        percent of the time;
  --Blue Ridge Parkway will cut 21 seasonal interpretive ranger 
        positions, affecting 584,000 visitors and resulting in the 
        closure of 10 developed areas, which is nearly a third of its 
        developed areas and creates a 50-mile distance between open 
        facilities which limits contacts with park staff;
  --Jewel Cave National Monument and Wind Cave NP, both located in 
        southwestern South Dakota, will each discontinue approximately 
        35 percent of cave tours daily in the high season;
  --Natchez Trace Parkway will close 14 comfort stations two days per 
        week, and four comfort stations for the entire 2013 season, 
        affecting more than 200,000 visitors. Colbert Ferry Visitor 
        Center and Rocky Springs Visitor Center will remain closed for 
        the 2013 season; and
  --Yosemite NP will do less frequent trash pickup, have fewer 
        campground staff, and place a reduced focus on food storage 
        violations, all of which contribute to visitor safety concerns 
        and increased bear mortality rates. This will reverse the 
        progress the park has made since 2000 to reduce bear incidents 
        by 90 percent as well as the cost of damage from bear incidents 
        by 42 percent.
                              ellis island
    Question. The National Park Service has announced that the Statue 
of Liberty will reopen on July 4 this year, but it does not appear that 
the Service has established any timeframes for the reopening of Ellis 
Island. Does the National Park Service have a specific plan, including 
a timetable, for the public reopening of Ellis Island National 
Monument? If so, will you please share that plan with the committee and 
please tell the committee whether or not the public has access to the 
plan? If the Service has not yet settled on a plan, when will such a 
plan be developed? When will the public be able to participate in its 
development?
    Answer. Plans to reopen Ellis Island to the pre-Sandy visitor 
experience depends upon the re-establishment of utilities, primarily 
electricity, and replacement of building systems, including HVAC, 
plumbing, telecommunications, as well as the re-installation of 
artifacts in exhibits at Immigration hall. Engineers have been 
developing plans to provide a sustainable long term solution for 
utilities that are vulnerable to flooding and water damage from future 
storm events. We anticipate concepts of the engineering plans to be 
complete within the next month; when the engineering plans are final, a 
firm timetable to re-open Ellis Island to visitors can be considered.
    Question. Complicating the matter for both the Statue of Liberty 
and Ellis Island is the issue of security. The main security screening 
facility, which was located in Battery Park in Manhattan, was lost in 
the hurricane. I understand that there is some discussion of erecting a 
``temporary'' facility on Ellis Island, similar to the ``temporary'' 
facility that was used in Battery Park for a decade. Does the Service 
currently have a plan for building a security screening facility on 
Ellis Island? If so, please tell the committee the location and nature 
of the structure. If such facility is considered temporary, what is the 
Service's current thinking is with respect to a long-term option for 
security screening at the Statue of Liberty and Ellis Island?
    Answer. Earlier plans to conduct security screening on Ellis Island 
have been superseded by new plans to return security screening to 
temporary facilities at both Battery Park and Liberty State Park. The 
National Park Service continues to work with our partners to find and 
commit to a long term, permanent option for security screening.
    Question. Will any of the Ellis Island funding provided in the 
recent Sandy supplemental bill (113-6) be used to re-stabilize the 
buildings on the ``south side''? If so, please provide the details of 
those expenditures.
    Answer. Supplemental funding will be used to repair and 
rehabilitate all visitor facilities that were operating prior to 
Superstorm Sandy. The NPS has planned $75.5 million for projects at the 
Statue of Liberty National Monument, which includes Ellis Island. The 
specific projects, and the individual cost estimates, are included in 
the table below. Funding levels for projects will be refined as 
planning and design gets underway and sequestration reductions are 
applied.

                HURRICANE SANDY NPS CONSTRUCTION PROJECTS
                    Statue of Liberty National Monument
------------------------------------------------------------------------
                                                          Amount   ($ in
                      Project Title                          millions)
------------------------------------------------------------------------
Demolish Three Houses and Rehabilitate Two Structures                0.6
 for Mission Critical Support Requirements..............
Remove Estimated 3.3 Tons of Hazardous Debris from the               3.1
 Main Buildings.........................................
Repair Storm Damage at Liberty Island Dock, Pier and                22.3
 Ferry Slip.............................................
Restore Concrete Foundation for Office Trailer Marina                0.1
 Unit for Park Police...................................
Repair Flood Damage in Basement at Concession Building               1.7
 #38....................................................
Repair Damage to Heat, Utilities, Mechanical, and                   19.2
 Electrical Systems at Main Immigration Building........
Repair Storm Damage to Liberty Island Temporary Retail               0.2
 Pavilion...............................................
Repair Storm Damage to Heat and Utilities at Liberty                 4.6
 Island.................................................
Ellis Island Emergency and Long Term Museum Collections              1.7
 Protection Conservation and Storage....................
Replace Destroyed Administrative Equipment, Furnishings              0.5
 and Data Systems.......................................
Repair Storm Damages on Ellis Island and to the Statue               0.1
 Mall and Plaza.........................................
Repair Sections of Brick Paved Walkway, Handrail System              2.7
 and Granite Seawall at Liberty Island..................
Repair Damages to the Administrative, Maintenance and                3.7
 Support Buildings......................................
Replace Flood Destroyed Equipment and Security Screening             9.3
 Tents With Temporary Facilities at  Ellis Island.......
Replace Diesel Generators and Restore Interim Emergency              1.8
 Utility and Heating System.............................
Replace Equipment and Ancillary Attachments.............             0.8
Replace Damaged Fuel Oil System With Natural Gas Main at             3.1
 Liberty Island.........................................
                                                         ---------------
      Total.............................................            75.5
------------------------------------------------------------------------

    Question. Does the Service currently have any plans to open the 
assets on the south side of Ellis Island to the public?
    Answer. The buildings and grounds on the south side of Ellis Island 
are not suitable for public visitation due to their condition. The 
National Park Service continues to work with its partners to produce a 
long term plan for the rehabilitation of the south side and access by 
the visiting public.
                                 ______
                                 
                Questions Submitted by Senator Tom Udall
                              fire funding
    Question. It is my understanding that the President's fiscal year 
2014 budget request for Hazardous Fuels Reduction for the Department of 
the Interior (DOI) Office of Wildland Fire is reduced by $88.9 million. 
This is a 48 percent cut in funding for the program. The DOI Office of 
Wildland Fire supports fire programs within the Bureau of Land 
Management, National Park Service, Fish and Wildlife Service, and 
Bureau of Indian Affairs, which represent a huge amount of Federal 
lands across the country.
    Could I get some examples or description as to how the four bureaus 
successfully used this funding in previous years?
    Answer. Hazardous Fuels Reduction (HFR) funding is used to plan, 
implement, and monitor fuels reduction treatments and conduct community 
assistance activities. Hazardous fuels treatments remove or modify 
wildland fuels (both living and dead vegetation) to reduce the risk of 
wildfire to communities and their values. Community assistance is 
provided in the form of community education, collaborative planning, 
and activities to reduce human-caused ignitions.
    From fiscal year 2002 through fiscal year 2012, DOI treated on 
average approximately 1.3 million acres of hazardous fuels annually 
across the four Bureaus. The Bureaus design and implement fuels 
treatment activities that are aimed at reducing fire severity, 
modifying fire behavior, and/or restoring ecosystem health. Examples of 
treatments that have achieved one or more of these objectives are 
numerous and evident across the Nation.
    Below are some specific examples and recent activities:
  --Between 2002 and 2009, the Bureau of Indian Affairs implemented a 
        series of prescribed fire treatments located on the boundary of 
        the Fort Apache Indian Reservation that proved effective in 
        controlling the spread of the 2011 Wallow Fire.
  --Fuel breaks established since 2005 have either stopped or helped 
        suppress several past large fires in southeastern Oregon, 
        particularly around the towns of Rome and Arock.
  --In fall 2012, fire crews completed the 22-acre Lodge prescribed 
        fire adjacent to the John Muir Lodge in Sequoia-Kings Canyon 
        National Park. The project provided critical fuels reduction 
        next to the lodge and for the Grant Grove area.
  --Nevada Bureau of Land Management's (BLM's) recently completed the 
        1,080-acre Upper Colony II Fuels Treatment Project, on the 
        eastern slope of the Pine Nut Mountains, moderated fire 
        intensity and slowed the rate-of-spread of the 2012 Burbank 
        fire.
  --In 2012, the Tract G Fuel Break prevented community and wildfire 
        risks by stopping a wildfire from burning on to refuge land and 
        neighboring private property in the vicinity of the Sacramento 
        National Wildlife Refuge.
  --Also in 2012, two prescribed fires at the Grand Canyon National 
        Park reduced the heavy build-up of dead and down vegetation in 
        both burn units, decreasing the risk of extreme fire behavior 
        in the future, especially along Highway 67, the North Rim's 
        primary exit route.
    Question. Will this reduction in funding for Hazardous Fuels 
Reduction make communities more at risk?
    Answer. The Department's commitment to fully fund the 10-year 
suppression average, which required a $205.1 million increase over the 
2012 enacted level, and other priority investments, impacted the 
funding available for other important programs. The Department's 2014 
budget decisions were made in the context of a challenging fiscal 
environment.
    The Wildland Fire Management program's primary objective is to 
protect life and property, and this is achieved by fully funding the 
suppression 10-year average and maintaining our initial and extended 
attack firefighting capability at current levels. The 2014 request does 
this by funding Preparedness at the 2012 enacted level, as adjusted for 
fixed costs.
    The planned Hazardous Fuels Reduction program for fiscal year 2014 
represents the most effective use of available funds. High priority 
projects will be completed in high priority areas with the goal of 
mitigating wildfire risks to communities.
                    land and water conservation fund
    Question. I want to commend your administration's continued 
commitment to the Land and Water Conservation Fund (LWCF) and to 
ensuring that it is used for its intended purposes. I applaud you and 
the President for your foresight and strong support for LWCF funding in 
the fiscal year 2014 budget.
    In New Mexico, our experience is that our public lands are enormous 
economic engines with substantial local community support. LWCF plays a 
key role in ensuring the viability of our public lands--by securing 
access to hunting, fishing and other recreation lands, protecting 
important historic and cultural sites, and ensuring water supply and 
watershed restoration.
    As you seek to address the many pressing needs of the Department of 
the Interior, how do you see the role of LWCF funds in supporting local 
economic needs, in addressing agency management challenges, and in 
providing a conservation solution to community needs?
    Answer. The 2014 budget represents an unprecedented commitment to 
America's natural heritage by proposing $200 million in mandatory funds 
out of $600 million overall for LWCF programs in 2014. Starting in 
2015, the budget proposes $900 million annually in mandatory funding, 
which is equal to the amount of oil and gas receipts deposited in the 
LWCF each year. This funding will provide stability needed for agencies 
and States to make strategic, long-term investments in our natural 
infrastructure and outdoor economy to support jobs, preserve natural 
and cultural resources, bolster outdoor recreation opportunities, and 
protect wildlife. The Land and Water Conservation Fund is an important 
tool for supporting conservation and recreation priorities in 
communities throughout the country. Through direct Federal investments 
and grants to States and local governments, LWCF supports a wide range 
of community needs related to conservation, recreation, and strong 
rural economies and working lands. The fund also enables bureaus to 
address land management challenges through strategic acquisition of 
inholdings or parcels that solve resource management challenges. The 
Department's LWCF programs work in cooperation with local governments 
and communities, rely on willing sellers for acquisitions, and maximize 
opportunities to partner with private landowners on conservation 
easements. The Department and bureaus use rigorous merit-based 
selection processes to identify projects that will make the greatest 
contribution to meeting outcome-based goals. All of these factors help 
ensure that LWCF funds are targeted to high priority projects and are 
aligned with and supportive of community priorities, including local 
economic needs.
    A total of $243.8 million, 41 percent of the administration's 2014 
LWCF request, would fund grants to States for conservation and 
recreation through grant programs run by the Forest Service, the 
National Park Service, and the Fish and Wildlife Service. The LWCF 
State Grants Program provides matching grants to States and local 
governments for the acquisition and development of public outdoor 
recreation areas and facilities. The program helps to create and 
maintain a nationwide legacy of high quality recreation areas and 
facilities and to stimulate non-Federal investments in the protection 
and maintenance of recreation resources across the country. The 
Cooperative Endangered Species Conservation Fund (CESCF) grants provide 
funds to States to work with private landowners, conservation 
organizations, and other partners to protect and conserve the habitat 
of threatened and endangered species. The Urban Park Recreation and 
Recovery Program (UPARR) provides matching grants to select physically 
and economically distressed urban communities to revitalize and improve 
recreation opportunities.
    A total of $356.2 million, accounting for the other 59 percent of 
the administration's LWCF request, would support land acquisition. Land 
acquisition funds are used to secure access for the American public to 
their Federal lands. These funds invest in acquisitions to better meet 
recreation access needs by working with willing landowners to secure 
rights-of-way, easements or fee simple lands that provide access or 
consolidate Federal ownership so that the public has unbroken spaces to 
hike, hunt, and fish. The administration's highly strategic approach to 
using LWCF land acquisition funds includes the Collaborative LWCF 
initiative. This new program brings Federal agency staff together with 
local stakeholders to identify opportunities where LWCF funds can be 
used to achieve the most important shared conservation outcome goals in 
the highest priority landscapes. Conserving large scale landscapes 
provides multiple resource and economic benefits to the public 
including cleaner drinking water, recreational opportunities, reduced 
wildlife risks, protected habitat for at-risk and game species and jobs 
generated on and off these lands. The Collaborative LWCF program seeks 
to fund the best opportunities to leverage other Federal resources, 
along with those of non-Federal partners, to support conservation goals 
driven by the best science and a shared community vision for the 
landscape.
    The Department has worked to identify LWCF investments which would: 
support simpler, more efficient land management; create access for 
hunters and anglers; create long-term cost savings; address urgent 
threats to some of America's most special places; and support 
conservation priorities that are set at the State and local level.
Reduced Costs for Land Management
    LWCF funds would be used to acquire parcels that make it easier and 
less costly to manage existing public lands. Far from raising operating 
costs, the acquisition of inholdings can reduce maintenance and 
manpower costs by reducing boundary conflicts, simplifying resource 
management activities, and easing access to and through public lands 
for agency employees and the public.
Access for Hunting and Fishing and Recreation
    Participants in the America's Great Outdoors listening sessions 
made it clear that access to our Nation's lands for all kinds of 
recreation--in particular hunting and angling--is a national priority. 
This LWCF request would fund strategic acquisitions that improve access 
to public lands for sportsmen and women.
Economic Benefits for Communities
    Investing in healthy ecosystems pays off for the Federal 
Government, local communities and taxpayers. Timely acquisition of 
important natural areas today can help avoid much higher costs to 
taxpayers in future years by protecting water supplies, important 
species habitat, recreational and cultural sites, and other natural 
resources with economic value to the public.
Protection From Urgent Threats
    LWCF funds are used to acquire lands that are in imminent danger 
from industrial or residential development. Civil War and Revolutionary 
War battlefields, for example, are the hallowed ground of our Nation's 
history; preserving these lands as parks for the American public 
prevents an irreparable loss.
Supporting Local Priorities
    Federal acquisition projects are planned collaboratively with local 
stakeholders, and often depend on significant support of State or local 
government, or of locally based nonprofit partners. These partners 
sometimes act as intermediary landowners, holding land temporarily to 
protect it from development until the Federal Government can secure the 
funds to assume ownership.
         price's dairy (valle del oro national wildlife refuge)
    Question. I know that you are a strong advocate of ensuring that 
residents of our cities and urbanized counties have access to outdoor 
recreation close to home and opportunities for healthy lifestyle.
    With that in mind, I wanted to make sure you are aware of an 
ongoing Departmental priority project underway in the Albuquerque area 
that hits all those marks. I am referring to the Price's Dairy project 
at Valle de Oro National Wildlife Refuge, the first urban refuge in the 
Fish and Wildlife Service's southwest region and one of the 50-State 
America's Great Outdoors (AGO) projects. This is a highly leveraged, 
truly locally driven project--one that the community has been working 
on for over 10 years. I am very pleased that the final funding needed 
to complete this project is included as part of the Department's fiscal 
year 2014 budget proposal. However, I would note that the landowner 
agreement expires in July 2014, so it is absolutely critical that the 
Department work with us to ensure that this project is completed along 
that timeline. I note that last year the project was ranked #5 on the 
agency's priority list, but this year it is ranked last at #18. 
Hopefully that is not an indication of flagging enthusiasm or lack of 
desire to get this project done.
    Will you work with me to ensure this AGO project is completed this 
year?
    Answer. Completion of the last phase of the Valle de Oro National 
Wildlife Refuge acquisition remains a Departmental priority project, 
and it is our intention to complete the project providing Congress 
appropriates enough funding for this acquisition. Funds would be used 
to acquire fee title to the final portion of this 570-acre refuge 
located along the El Camino Real de Tierra Adentro National Historic 
Trail, just a few miles from downtown Albuquerque.
    The Valle de Oro refuge has received a huge outpouring of community 
support and the Service has maintained its support for the acquisition. 
To honor commitments made to the landowner, the community, and 
partners, the budget request includes $6 million of Federal funds as 
part of the Collaborative Landscape Planning initiative to complete the 
project in fiscal year 2014.
                           blm pilot offices
    Question. In March I visited the Bureau of Land Management (BLM) 
office in Carlsbad, New Mexico, to learn about the importance of their 
status as a ``Pilot Office.'' As you know, the 2005 Energy bill 
designated several pilot offices to receive extra resources to expedite 
permit processing and conduct much-needed environmental oversight. 
These offices are already understaffed and overworked, so I committed 
to ensure that this program would be reauthorized in 2015 when it 
expires. I am pleased to see in your budget proposal that you are 
proposing to reauthorize this successful authority. I am also pleased 
that you are proposing to build in more flexibility--for example, the 
ability to shift resources to offices like Carlsbad that are in the 
middle of a boom would be helpful. We'd want to be sure that the 
flexibility is fair, but I appreciate this option.
    Can you provide any more details on what you expect to do and how 
we can work to ensure this happens?
    Answer. The BLM would like to work with the Congress on language 
that would allow greater flexibilities nationwide to adjust permitting 
resources based on demand. There are many BLM field offices that are 
not part of the pilot project, but are receiving hundreds of 
Applications for Permit to Drill (APDs) per year. Of the 10 field 
offices that received the most APDs during fiscal year 2012, only 5 are 
currently designated as pilot project offices. For example, in fiscal 
year 2012, the Pinedale Field Office in Pinedale, Wyoming, received 325 
APDs; the Bakersfield Field Office in Bakersfield, California, received 
286 APDs; and the Oklahoma Field Office in Tulsa, Oklahoma, received 
157 APDs. Although these offices have received high volumes of APDs, 
none are currently designated as pilot project offices. At the same 
time, some of the currently designated pilot project offices have 
received relatively few APDs in recent years; for example, the Miles 
City, Montana, Field Office received only 55 APDs in fiscal year 2012.
                       parks and river management
    Question. The Bureau of Reclamation's ``Colorado River Basin Water 
Demand and Supply Study'' does an excellent job of describing the 
challenges in meeting water supply needs, but it does very little to 
describe or assess the needs of the National Park Service to meet its 
obligations to protect its river ecosystems.
    Most park units in the Colorado River basin and other river basins 
lack protection for the waters flowing through park boundaries and that 
in most cases, park units in the Colorado River basin and other river 
basins do not have management plans to provide for sound management of 
water resources within parks.
    Is it possible to create a planning effort to ensure that the 
National Park Service (NPS) can substantively participate in policy 
discussions about water management that may have profound impact on 
national park resources?
    Answer. The Office of the Secretary works collaboratively with the 
bureaus to ensure that water management planning is effective. The NPS 
has made recent strides in this arena in the past few years, but many 
challenges remain to address the major concerns facing the Colorado 
River.
    The NPS provides technical expertise through its Water Resources 
Division (WRD) to park units on water issues. WRD has been instrumental 
in conducting scientific studies and monitoring, participating in 
processes related to dam operations, negotiating tribal water issues, 
and working with States to protect flows in places such as Black Canyon 
of the Gunnison National Park. The NPS also has been active in 
multiagency processes such as the Upper Colorado River Endangered Fish 
Recovery Program. In 2001, the NPS created the Colorado River Basin 
Parks Program to better ensure effective coordination and active 
participation in multiagency and multistate efforts to protect park 
resources. These collaborative, multi-stakeholder efforts are overseen 
by a Steering Committee, Technical Committee, and a Colorado River 
Coordinator.
    Currently, the NPS is working to address the scientific information 
gaps, strategic planning needs, and targeted issues within the basin 
such as aquatic invasive species.
    The NPS regularly engages in planning efforts, such as invasive 
aquatic species management in Lake Mead and Glen Canyon National 
Recreation Areas, partnerships for flow management for Grand Canyon 
National Park, and monitoring of headwaters in Rocky Mountain National 
Park, which are designed to protect natural and cultural resources 
throughout the Colorado River basin, and to ensure continued outdoor 
recreational opportunities that are important to local and regional 
economies in the Western States. Though these plans were sufficient to 
respond to more localized past challenges, they lack the system-wide 
integration and detailed scientific data needed to effectively respond 
to more widespread current challenges. The Colorado River Basin Parks 
Program Steering Committee has identified research needs related to 
stream gaging, sediment transport, riparian vegetation, and aquatic 
communities necessary to inform management decisions that address many 
of these issues. Some of this data collection has begun and other 
projects will be instated as funds become available.
    Question. How can the Department of the Interior ensure that the 
National Park Service is an active partner in water management 
decisions that impact Park Service resources?
    Answer. The NPS has established itself well in the last several 
years as a collaborative partner and an active participant in several 
ongoing multiagency processes, including the WaterSMART program, which 
was established in 2010. WaterSMART allows all bureaus within the 
Department to work with States, Tribes, local governments, and non-
governmental organizations to pursue a sustainable water supply for the 
Nation by establishing a framework to provide Federal leadership and 
assistance on the efficient use of water, integrating water and energy 
policies to support the sustainable use of all natural resources.
    The NPS participates in on-going collaborative efforts regarding 
dam operations, including the development process of the Glen Canyon 
Dam Long Term Experimental and Management Plan, for which it is a co-
lead with the Bureau of Reclamation. In developing the plan, the NPS 
and Bureau of Reclamation are re-operating the dam to achieve better 
compliance with the Grand Canyon Protection Act. The NPS also works 
with the coordination and healthy flows teams to support follow-up 
actions for the Colorado River Basin Water Demand and Supply Study.
    This active participation has worked best when NPS staff has been 
engaged in discussions at the local level as well as at the 
Departmental level. For example, in the High Flow Experiment Planning 
for Glen Canyon Dam in 2010-2011, discussions were successful because 
of input and involvement of both the Assistant Secretary for Water and 
Science, and the Assistant Secretary for Fish and Wildlife and Parks. 
In addition, NPS is an active partner at both the local and Department 
level with respect to aquatic invasive species that impact both park 
resources and water management. As discussed in the response to the 
previous question, the NPS has a Division of Water Resources within the 
Natural Resource Stewardship and Science directorate, which includes 
technical experts on hydrology, wetlands, water rights, and water 
quality. These water resource professionals collaborate with the 
Department and its bureaus to ensure water management decisions include 
protection of National Park resources.
                                 ______
                                 
             Questions Submitted by Senator Lisa Murkowski
                             king cove road
    Question. I worked with Secretary Salazar on the agreement 
involving the King Cove road reflected in the Secretary's memorandum of 
March 21. The Department, led by the Assistant Secretary for Indian 
Affairs, will take a second look at a land exchange in Izembek National 
Wildlife Refuge with the community of King Cove and the State of 
Alaska. Approval of the land exchange would allow a one-lane, gravel 
road to connect King Cove with the all-weather airport in Cold Bay. 
Under this agreement, the Interior Department will look at whether the 
Environmental Impact Statement (EIS) by the Fish and Wildlife Service 
adequately considered the importance of protecting the human health and 
safety of the residents of King Cove. The review will also include an 
evaluation of the Department's trust responsibilities, and Government-
to-government consultations with local Aleut groups.
    What is the status of this review?
    Answer. Tribal consultation was held in King Cove on Friday, June 
28, 2013, from 5:00-7:00 p.m. at the King Cove Community Center. Kevin 
Washburn, the Assistant Secretary for Indian Affairs, toured the King 
Cove area to assess the medical evacuation benefits of the proposed 
road and will provide the Secretary, following consultation with other 
Federal partners, with a written report that addresses the medical 
evacuation benefits of the proposed road as well as whether and to what 
extent the road is needed to meet the medical emergency requirements of 
King Cove.
    Question. I am glad that you will visit King Cove prior to a final 
decision on this issue. I understand Assistant Secretary Washburn will 
be visiting comparatively soon. Can you tell me when you expect to 
reach a decision?
    Answer. No specific time has been set for the Secretary to issue a 
final decision on the Izembek National Wildlife Refuge, Land Exchange/
Road Corridor. The full Departmental record will be considered in 
rendering a final decision. The Secretary's final decision will be 
informed by:
  --The U.S. Fish and Wildlife Environmental Impact Statement;
  --The Assistant Secretary of Indian Affairs' written report to the 
        Secretary that addresses the medical evacuation benefits and 
        whether and to what extent the proposed road is needed to meet 
        the medical emergency requirements of King Cove; and
  --A site visit to King Cove by Secretary Jewell which is expected 
        later this year.
  bureau of ocean energy management/bureau of safety and environmental 
                   enforcement new arctic regulations
    Question. I understand that the Bureau of Ocean Energy Management 
(BOEM) is in the process of developing Arctic-specific regulations for 
the exploration and development of Alaska's Outer Continental Shelf 
(OCS) oil and gas resources. As you know, exploration has been delayed 
in large part because of the regulatory uncertainty surrounding oil and 
gas projects in the Arctic OCS.
    What is the timeline for the development of these regulations?
    Answer. The Department of the Interior (DOI), Assistant Secretary, 
Land and Minerals Management, directed BOEM and the Bureau of Safety 
and Environmental Enforcement (BSEE) to form a team of subject matter 
experts to improve safety standards for exploration, development, and 
production operations occurring in the Alaska OCS. The Department's 
goal is to have proposed Alaska OCS regulations published in the 
Federal Register by the end of 2013.
    Question. Is it your intent to have these regulations in place in 
time for a 2014 drilling season?
    Answer. We intend to have the regulations finalized before the 2014 
drilling season. As part of the process, DOI held Listening Sessions to 
obtain public comments in Anchorage and Barrow, Alaska, on June 6 and 
7, respectively. We anticipate developing a performance-based approach 
that will fully inform BOEM and BSEE how lessees plan to achieve safe 
operations under the operating conditions likely to be experienced 
while drilling and while transporting equipment into and out of the 
Alaska operating theater.
    Question. Though ConocoPhillips and Statoil have announced that 
they will not pursue exploration programs in 2014, Shell has not made a 
similar announcement. How do you intend the new regulations to impact 
and/or be incorporated into Exploration Plans and Oil Spill Response 
Plans for 2014?
    Answer. The focus of the new regulations is to improve safety 
planning early in the process of developing Exploration Plans (EPs) and 
Development and Production Plans (DPPs). In accordance with 30 CFR 
550.202(b), EPs and DPPs must demonstrate the lessees have planned and 
are prepared to conduct proposed activities in a manner that is safe. 
The regulations will emphasize the need for an integrated, overarching 
safety plan as a condition for approval of Alaska OCS operations. Each 
lessee will need to show BOEM and BSEE they are fully prepared to 
conduct the proposed activities, including mobilization and 
demobilization operations, in a manner that is safe and protective of 
the environment.
    Question. I also understand that the Department is updating its 
regulations for the oil and gas air quality program to incorporate 
their new authority over the Arctic contained in the fiscal year 2012 
Interior Appropriations bill, so I will ask the same questions as I did 
for the pending Arctic-specific regulations.
    What is the timeline for the development of these regulations? Is 
it your intent to have these regulations in place in time for a 2014 
drilling season? How will these regulations impact 2014 Exploration 
Plans?
    Answer. BOEM and BSEE are already engaged in the development of the 
proposed Alaska OCS regulations. Public outreach efforts in the form of 
Listening Sessions were held in Anchorage and Barrow, on June 6 and 7, 
respectively. Public comments are also being accepted through 
Regulations.gov (docket number BOEM-2013-0035). BOEM and BSEE held more 
detailed meetings with industry, non-governmental organizations, the 
State of Alaska, local government, and Native Alaskans and Tribes in 
Anchorage on June 17 through 19. The purpose of these follow-up 
meetings was to obtain a more comprehensive understanding of concerns 
and criteria for consideration in the proposed rules. Comments will be 
used to develop the scope of the Alaska OCS regulations and identify 
appropriate issues applicable for BOEM and BSEE oversight to ensure 
safe and responsible oil and gas exploration, development, and 
production on the Alaskan OCS.
    BOEM and BSEE will develop draft regulation language that addresses 
issues and goals identified during the comment period. The proposed 
Alaska OCS regulations will be published in the Federal Register, and 
stakeholder input will again be solicited. It is anticipated the draft 
rules will be published by the end of the year.
    Question. How will the new regulations differ from the existing 
regulations? Will there be any difference in how the Department 
regulates air quality in the Gulf of Mexico versus in Alaska? If yes, 
why and how will the programs differ?
    Answer. At this time, BOEM is still obtaining stakeholder input and 
reviewing existing regulations. Until this analysis is complete, it is 
not clear what, if any, differences in regulations between the regions 
will be needed. The bureau can provide more details as the draft rule 
is developed.
               national marine fisheries--arctic ocs eis
    Question. BOEM has worked with the National Marine Fisheries 
Service (NMFS) on the EIS for the impacts of oil and gas activities in 
the Beaufort and Chukchi Seas. I continue to believe there are major 
problems with this document, including development alternatives that 
are not realistic and the lack of participation from relevant agencies.
    The Fish and Wildlife Service expressly declined to participate in 
the EIS, yet the EIS still analyzes impacts to polar bears and Pacific 
walruses--species the Service has trust responsibility over. Why was 
this approach taken? Will these species be removed from the next draft? 
If not, please explain why not.
    Answer. The Service declined to be a cooperating agency on the 
Arctic EIS in 2010 because it had recently completed an Environmental 
Assessment (EA) on the effects of oil and gas activities in the Chukchi 
and Beaufort Seas on polar bears and Pacific walruses in conjunction 
with issuing Marine Mammal Protection Act Incidental Take Regulations 
(ITRs). The potential effects of oil and gas activities on polar bears 
and Pacific walruses had been adequately addressed in the ITRs and 
effectively considered in the EAs. Additionally, other existing program 
commitments precluded the degree to which the Service could be 
involved. Instead, the Service offered to provide copies of these EAs 
and informal review and comment on the Draft EIS. Since then, the 
Beaufort Sea EA was updated in 2012 and the Chukchi Sea EA was recently 
updated in conjunction with finalization of the 5-year Chukchi Sea ITRs 
that are to be published in the Federal Register in the near future. 
These EAs are made publically available. In addition, the Service is 
currently reviewing the Draft EIS and, as appropriate, will provide 
feedback to National Marine Fisheries Service.
    Although the Service cannot speak on behalf of NMFS, the National 
Environmental Policy Act's procedures are intended to ensure that 
information about potential environmental impacts of an agency's 
proposed and alternative actions are made available and considered in 
the decisionmaking process and both the polar bear and Pacific walrus 
occur in the area of the Arctic EIS.
    Question. The new draft also appears to cap each company to one 
drilling rig at a time per sea. This is inconsistent with Exploration 
Plans previously submitted and approved by BOEM. Is it BOEM's intent to 
limit exploration in this way? If it is, what is BOEM's rationale for 
the change of course? (This would be extremely problematic given the 
short exploration season and would, at best, severely delay/restrict 
exploration and, at worst, lead to project abandonment.) If it isn't, 
will BOEM clarify this point in the next draft?
    Answer. NMFS served as the lead agency for preparation of the Draft 
Supplemental EIS (SEIS), with BOEM as a formal cooperating agency, 
along with the North Slope Borough of Alaska. The purpose of the Draft 
SEIS is to analyze the potential environmental impacts of seismic and 
exploration activities for the purpose of informing NMFS's decisions 
regarding authorizations for the incidental take of marine mammals 
under the Marine Mammal Protection Act.
    As for BOEM's intended use of the Draft SEIS, the information will 
be used, as appropriate, for environmental analyses to inform BOEM's 
own decisions for specific projects, just as other relevant information 
contained in National Environmental Policy Act (NEPA) documents is 
considered. Moreover, it is important to note that a NEPA document is 
not a decision document; it is merely an analysis of potential 
environmental impacts associated with particular activities.
    The alternatives included in the Draft SEIS were prepared based on 
the best information available at the time for recent Federal and State 
lease planning, and recent industry plans, for both seismic surveys and 
exploratory drilling programs in the Beaufort and Chukchi seas. The 
seismic and exploration activities analyzed in the Draft SEIS are not 
limited to one drilling unit at a time per company. The alternatives 
analyzed in the Draft SEIS consider up to four drilling ``programs'' 
operating in each sea at one time. For analysis in the EIS, one 
``program'' entails however many surveys or exploration wells a 
particular company is planning for that season. Each ``program'' would 
use only one source vessel (or two source vessels working in tandem) or 
drilling unit (i.e. drillship, jackup rig, SDC, etc.) to conduct the 
program and would not survey multiple sites or drill multiple wells 
concurrently.
    Question. I was also surprised to see that the new draft appears to 
have no timeline--for example, the last draft covered a 5-year period, 
this draft does not. Is there precedent for an ``infinite'' 
environmental document? What was the rationale for an open-ended 
document? What would be the result if more operators pursue their 
leases than the alternative selected analyzes? How do you plan to 
ensure that this document is not a back door way to limit exploration 
in the Arctic?
    Answer. A timeline is not relevant to the purpose of the document, 
which is to provide an analysis of the potential environmental impacts 
of a reasonable range of OCS activities.
    Based upon past lease sales, geological and geophysical (G&G) 
permits, ancillary activity notices, exploration drilling exploration 
activities, and requests for incidental take authorizations, NMFS and 
BOEM have determined a reasonable range and level of activities for 
which permits and authorizations may be requested in the foreseeable 
future. While the level of activity proposed may vary from 1 year to 
the next, the action alternatives represent a reasonable range of 
exploration activities for which permits and authorizations may be 
expected. Also, the Draft Supplemental EIS does not serve as a decision 
document but rather is used to analyze possible environmental impacts 
associated with particular activities.
                    oil/gas development public lands
    Question. The budget request includes what it calls ``Federal Oil 
and Gas Reforms.'' These consist of a host of changes in three areas--
royalties, development of oil/gas leases, and improving the revenue 
collection process. They all share one thing in common--they will make 
our Federal lands less competitive to industry, which increasingly has 
other alternatives on State and private lands here in the United 
States, or globally. For example, you are proposing a $6 per acre fee 
on nonproducing leases even though it takes years to bring leases to 
production--usually because of permit or other regulatory delays caused 
by the Federal Government. You also propose ``adjusting royalty rates'' 
which I can only imagine means increasing them since you claim that 
these ``reforms'' will generate $2.5 billion over the next 10 years for 
the Treasury.
    On April 17 the House Resources Committee held a hearing comparing 
oil/gas production on State lands vs. Federal lands. One of the major 
differences they found was that it takes the BLM 307 days on average to 
approve a drilling permit--nearly double the time it took in 2005. On 
State lands, processing times are 12-15 days.
    Won't increasing royalties, charging new inspection fees on top of 
the fee that you already charge for processing a permit, and a new fee 
on so-called ``non-producing leases'' only make our Federal lands less 
competitive compared to the States?
    Answer. Federal oil and gas production is an important component in 
fulfilling our Nation's energy needs and the Department has an 
obligation to the public to ensure a fair return on that production. 
The Department deems the proposed changes necessary to ensure this fair 
return and do not believe they will make Federal lands less competitive 
compared to the States. Onshore Federal oil and gas royalty rates, 
which are currently 12.5 percent, are lower than most States' royalty 
rates. For example, Montana, Wyoming, Utah, and Colorado all have a 
royalty rate of 16.67 percent for State leases. North Dakota has an 
18.75 percent royalty rate, and New Mexico has various rates that are 
as high as 20 percent.
    The administration believes that American taxpayers should get a 
fair return on the development of energy resources on their public 
lands. We feel industry should pay the cost of inspecting and 
monitoring oil and gas activities, as is the case for other industries, 
including offshore oil and gas. This is consistent with the principle 
that the users of the public lands should pay for the cost of both 
authorizing and oversight activities.
    The Department's intent behind the proposed fee on non-producing 
leases is to encourage more timely development of Federal lands. The 
fee will provide an incentive for oil and gas companies to either put 
their leases into production or relinquish them so the Department can 
re-lease those tracts to companies who want to develop them. Many 
States also have similar fees (e.g., escalating rental rates) to 
encourage development. Therefore, the Department does not believe the 
proposed changes will make Federal lands less competitive compared to 
the States.
    Question. The Hill newspaper published an article on March 5 of 
this year where they cited a Congressional Research Service study that 
determined that while overall U.S. oil production has increased since 
2007, oil development on Federal lands has dropped by 7 percent. For 
natural gas, overall U.S. production has increased by 20 percent 
between 2008 and 2012, but on Federal lands it has fallen by one-third. 
Instead of a host of new fees, shouldn't the Department be looking at 
ways to attract companies to Federal lands for oil/gas production? This 
would generate significant revenues to both the States and Federal 
Government.
    Answer. The Congressional Research Service study shows that Federal 
onshore oil production increased by 16.3 percent from 284,900 barrels 
per day in 2008 to 331,500 barrels per day in 2012. Federal onshore gas 
production decreased slightly during that same period. The decrease in 
gas production was a result of lower gas prices and rising supplies of 
natural gas due to the development of unconventional shale gas. The 
largest unconventional shale gas discoveries are primarily on non-
Federal land and are attracting a significant portion of new investment 
for natural gas development. This does not mean that Federal lands are 
no longer competitive for natural gas development. Indeed, companies 
continue to acquire thousands of Federal leases and permits annually 
for new natural gas production projects on Federal lands.
    The Department has an obligation to the public to ensure a fair 
return on Federal oil and gas production. Even with the proposed 
changes, Federal leases will remain competitive with State leases and 
should not result in any significant reduction in interest and 
development of oil and gas on Federal lands. The proposed onshore and 
offshore reforms will generate roughly $2.5 billion in net revenue to 
the Treasury over 10 years. Many States will also benefit from higher 
Federal revenue sharing payments as a result of these reforms.
        national wildlife refuge fund/payments in lieu of taxes
    Question. The National Wildlife Refuge Fund provides funds to local 
counties to offset the loss of tax receipts from Federal land 
ownership. Again this year, your fiscal year 2014 budget proposed to 
eliminate this $14 million discretionary amount available to local 
governments across the country.
    It seems to me that we should be creating fiscal certainty for 
local governments instead of cutting payments to them at a time when 
your Department has placed such a large emphasis on increasing Federal 
land ownership through LWCF.
    I understand that the mandatory portion of this program will 
continue to go to local counties, but why are you proposing to 
eliminate the discretionary portion of the program again this year?
    Answer. The Refuge Revenue Sharing Act, as amended, authorizes 
revenues and direct appropriations to be deposited into a special fund, 
the National Wildlife Refuge Fund (NWRF), and used for payments to 
counties in which lands are acquired in fee (fee title) or reserved 
from the public domain (reserved land) and managed by the Service. 
These revenues are derived from the sale or disposition of (1) products 
(e.g., timber and gravel); (2) other privileges (e.g., right-of-way and 
grazing permits); and/or (3) leases for public accommodations or 
facilities (e.g., oil and gas exploration and development) incidental 
to, and not in conflict with, refuge purposes.
    Refuges have been found to generate tax revenue for communities far 
in excess of that which was lost with Federal acquisition of the land. 
In addition, Refuge lands provide many public services and place few 
demands on local infrastructure such as schools, fire, and police 
services when compared to development that is more intensive. National 
Wildlife Refuges bring a multitude of visitors to nearby communities 
and so provide substantial economic benefits to these communities.
    The Refuge System welcomed more than 47 million visitors in fiscal 
year 2012, according to the Service's Refuge Annual Performance Plan. 
Hunters, birdwatchers, beach goers and others who spend time on refuges 
also bring money into local economies when they stay in local hotels, 
dine at local restaurants, and make purchases from local stores. 
Recreational spending on refuges generates millions of dollars in tax 
revenue at the local, county, State and Federal level. According to a 
report titled Department of the Interior Economic Contributions Fiscal 
Year 2011, in 2011 national wildlife refuges generated more than $4.2 
billion in economic activity and created more than 34,500 private 
sector jobs nationwide. In addition, property values surrounding 
refuges are higher than equivalent properties elsewhere. Importantly, 
in an increasingly urban world, these sanctuaries of natural beauty 
offer Americans priceless opportunities to connect with nature.
    Question. Payments in Lieu of Taxes (PILT) payments, which 
compensate States and counties with large amounts of non-taxable 
Federal land, expire at the end of this fiscal year. While your budget 
proposes to extend the mandatory payments by a year, it does not 
identify any offset. Shouldn't we identify a concrete way to pay for 
this important program?
    Answer. The President's budget proposes an extensive number of 
legislative proposals that result in savings in the next 10 years. Any 
of these proposals could be considered for potential offsets to extend 
the PILT program for fiscal year 2014. These proposals are identified 
on page 200 of the Mandatory and Receipts Proposals section (S-9) of 
the President's budget and a narrative explanation is provided by the 
Department of the Interior. Please refer to the following website 
links: http://www.whitehouse.gov/sites/default/files/omb/budget/fy2014/
assets/tables.pdf and on page DO-20 http://www.doi.gov/budget/
appropriations/2014/highlights/upload/overview.pdf.
                                 ______
                                 
              Questions Submitted by Senator Thad Cochran
    Question. Increased production, particularly on the Outer 
Continental Shelf (OCS) in the Gulf of Mexico, would likely reduce our 
reliance on foreign oil and create much needed jobs.
    What is the Department doing to make Federal offshore land 
available for exploration and development?
    Answer. President Obama's call for a sustained, all-of-the-above 
energy strategy includes the expansion of responsible production of our 
domestic oil and gas supplies, including Federal lands. Since the 
President took office, America's dependence on foreign oil has 
decreased every year, and domestic oil and natural gas production has 
risen every year. In 2012, American oil production reached the highest 
level in two decades and natural gas production reached an all-time 
high. Combined with recent declines in oil consumption, foreign oil 
imports now account for less than half of the oil consumed in America.
    The Bureau of Ocean Energy Management (BOEM) held the first two 
sales of the Five Year Program in the Gulf of Mexico in November 2012 
and March 2013, which resulted in over $1.3 billion in high bids on 436 
new leases. A third lease sale, scheduled for this August, will offer 
21 million acres offshore Texas, making all unleased acreage in the 
Western Gulf of Mexico available for leasing. BOEM's lease terms 
encourage prompt development and production and ensure that the 
American public receives fair market value for these shared resources. 
Lease sales conducted under the program include a modified minimum bid 
structure that BOEM has developed, after rigorous economic analysis, to 
encourage operators to invest in the OCS acreage that is most likely to 
lead to discoveries and production and reduce the amount of leased 
acreage that sits idle. BOEM will continue to use lease terms that 
incentivize industry to diligently and promptly operate their leases.
    Question. National Fish Hatcheries across the Southeast generate 
millions of dollars in economic benefits through warm water fish 
production. In my State, we have the Private John Allen National Fish 
Hatchery, located in Tupelo, Mississippi, which is one of eight warm 
water fish hatcheries managed by the U.S. Fish and Wildlife Service. 
Despite the large contribution warm water fisheries have on national 
restoration efforts, the budget for fisheries located in the Southeast 
continues to decline. I have concerns about funding for warm water 
hatcheries.
    What is your plan for these hatcheries in the future? Will a 
disproportionate amount of funding go to cool water fisheries at their 
expense?
    Answer. To meet the needs of the American people in a changing 
social and economic climate, the National Fish Hatchery System (NFHS) 
has been proactive in implementing creative strategies for assessing, 
deploying, and managing its workforce to answer these types and other 
important and pressing questions. In December 2012, the Service 
initiated a review of 70 production hatcheries within the NFHS to 
ensure the Service is positioned to address the current and future 
aquatic resource needs of the United States.
  --Geoffrey Haskett, the Service's Alaska Regional Director and former 
        Chief of the National Wildlife Refuge System (NWRS), led the 
        review. He previously oversaw a similar exercise that helped 
        the NWRS improve workforce and financial management.
  --The NFHS review was precipitated, in part, by staffing and budget 
        challenges at various hatcheries. With tight budgets, the 
        Service must establish production goals for the highest 
        priority species; determine the optimal number of hatcheries 
        and employees to achieve those goals; and strive for a more 
        balanced ratio of payroll to operational costs to achieve NFHS 
        goals and support collaborative recovery and restoration 
        programs.
  --The review team is comprised of Fisheries Program leadership from 
        all Service Regions and Headquarters. The team has collected 
        and examined information about species produced, staffing 
        levels and needs, organizational structure, operational 
        budgets, and assets. The team used data gathered through 
        previous programmatic reviews as the baseline for collecting 
        up-to-date and comparable information.
  --The review team is developing a report with funding scenarios and 
        operations options that is expected to be complete by August 
        2013. The Service will use this information to make informed 
        decisions about where to focus efforts given current, 
        declining, or increasing budgets, and where operations would be 
        reduced or expanded accordingly. The review will also help 
        inform an evaluation of the Service's vision for the future of 
        its fisheries activities that the Sport Fishing and Boating 
        Partnership Council is conducting. The Service will use the 
        review team's report and the Council's recommendations to 
        produce a strategic plan for the future.
  --The Service strongly believes the steps taken now--together as an 
        agency and with our partners--will help focus its efforts, make 
        strategic investments, and better address current and future 
        challenges. Above all, these steps will position the Service to 
        proudly continue America's fisheries legacy.
     Last year, in response to a question I submitted for the record, 
the Department stated that most States and Tribes currently use the 
majority of their Historic Preservation Fund grant funds to carry out 
non-discretionary activities mandated by the National Historic 
Preservation Act.
    Do you believe that the preservation and conservation activities 
previously carried out by the Save America's Treasures (SAT) program 
were an important part of ensuring the protection of our Nation's 
cultural heritage?
    Answer. The National Historic Preservation Act (NHPA) states that 
it is the policy of the Federal Government to ``contribute to the 
preservation of [ . . . ] prehistoric and historic resources and give 
maximum encouragement to organizations and individuals undertaking 
preservation by private means.'' (16 U.S.C. 470-1). There are numerous 
ways in which the Federal Government can contribute to historic 
preservation, and the Save America's Treasures program was one of these 
tools.
    From 1999 to 2010, $319.1 million was appropriated resulting in 
1,287 grant awards. Matched dollar-for-dollar, these funds have 
leveraged approximately $380 million in non-Federal investment and 
added over 16,000 jobs to local and States' economies.
    The SAT grants assisted 295 National Historic Landmarks (NHL), 28 
properties located in and contributing to NHL Districts, over 250 
buildings individually listed in the National Register of Historic 
Places (NRHP), over 70 properties located in and contributing to NRHP-
listed historic districts, and 24 properties eligible for NRHP listing, 
as well as hundreds of nationally significant museum collections.
    Question. Given that most States and Tribes have little funding 
from Historic Preservation Fund grants remaining after completing 
mandated activities, what is the Department doing to support bricks and 
mortar projects to preserve and protect nationally significant historic 
sites?
    Answer. The grants-in-aid to States and Territories and grants-in-
aid to Tribes funded through the NPS Historic Preservation Fund (HPF) 
account can be used for brick and mortar projects, and a small number 
of States do use a portion of the HPF allocation for this. A small 
amount of funding goes to bricks and mortar projects through the Tribal 
Heritage grant program and Japanese-American World War II Confinement 
Site Preservation program. Additionally, through the NPS's Technical 
Preservation Services office, the NPS develops historic preservation 
policy and guidance on preserving and rehabilitating historic 
buildings, administers the Federal Historic Preservation Tax Incentives 
Program for rehabilitating historic buildings, and sets the Secretary 
of the Interior's Standards for the Treatment of Historic Properties.
                                 ______
                                 
               Questions Submitted by Senator John Hoeven
    Question. Which States, if any, do you believe do not have laws or 
rules regulating hydraulic fracturing?
    Answer. States are free to regulate hydraulic fracturing as 
appropriate, with the exception that State regulations must meet the 
minimum requirements of any applicable Federal regulations. Some States 
have specific rules related to hydraulic fracturing, while others 
regulate the process solely under their general oil and gas permitting 
requirements.
    States are not legally required to meet the stewardship standards 
applying to public lands and do not have trust responsibilities for 
Indian lands under Federal laws. The States that have regulated 
hydraulic fracturing do not uniformly require measures that would 
uphold the BLM's responsibilities for federally managed public 
resources, to protect the environment and human health and safety on 
Federal and Indian lands, and to prevent unnecessary or undue 
degradation of the public lands.
    We would note that BLM is not an expert on the regulatory 
requirements of each State, and we understand that many States are in 
the process of reevaluating their regulatory requirements regarding 
hydraulic fracturing; thus, we recommend that the committee follow up 
with appropriate State officials for the latest information on their 
particular regulatory requirements and standards.
    However, after conducting a search through regulations of various 
States, the BLM believes that the following States do not currently 
have specific hydraulic fracturing regulations in place: Connecticut, 
Delaware, Florida, Georgia, Hawaii, Iowa, Maine, Maryland, 
Massachusetts, Minnesota, Missouri, New Hampshire, North Carolina, 
Rhode Island, South Carolina, Tennessee, Washington, and Wisconsin.
    In addition, our understanding is that the following States have 
banned the practice of hydraulic fracturing: New Jersey, New York, and 
Vermont.

                          SUBCOMMITTEE RECESS

    Senator Murkowski. With that, we stand recessed. Thank you.
    [Whereupon, at 12:44 p.m., Tuesday, May 7, the subcommittee 
was recessed, to reconvene subject to the call of the Chair.]


     DEPARTMENT OF THE INTERIOR, ENVIRONMENT, AND RELATED AGENCIES 
                  APPROPRIATIONS FOR FISCAL YEAR 2014

                              ----------                              


                        WEDNESDAY, MAY 22, 2013

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 9:31 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Jack Reed (chairman) presiding.
    Present: Senators Reed, Feinstein, Tester, Udall, Merkley, 
Begich, and Murkowski.

                       DEPARTMENT OF AGRICULTURE

                      United States Forest Service

STATEMENT OF TOM TIDWELL, CHIEF

                 OPENING STATEMENT OF SENATOR JACK REED

    Senator Reed. Let me call the hearing to order. And as the 
first order of business, let me wish Senator Murkowski a happy 
21st birthday.
    Senator Murkowski. Thank you.
    Senator Reed. Happy birthday.
    I want to welcome all of our witnesses and my colleagues to 
the fiscal year 2014 hearing on the budget to the U.S. Forest 
Service (USFS). And on behalf of the subcommittee, let me 
particularly welcome Tom Tidwell, the Chief of the USFS. Thank 
you, Chief. You have been a great leader at the agency and 
someone we have enjoyed working with immensely.
    I'd also like to welcome Barbara Cooper, the USFS acting 
Budget Director. Ms. Cooper, thank you very much for being here 
also.
    The President's fiscal year 2014 budget request for USFS 
programs totals $4.84 billion in discretionary spending. The 
request is $62 million, or a 1-percent increase, more than the 
fiscal year 2013 enacted level.
    Chief Tidwell, in reviewing your budget request, it's clear 
that there's a theme: making tough choices so that the agency 
can continue to fight wildland fires. The fire budget, as we 
spoke, seems to drive so much of the USFS.
    Within the total amount provided, the budget request does 
include an increase of $79 million for wildland fire 
management, for a total of $2.046 billion, an increase of 3.5 
percent.
    In addition, the request provides level funding for the 
FLAME Fund, at $315 million. However, that amount doesn't fully 
cover the increases that are needed within the fire program, 
including a $65 million increase to fully fund the 10-year 
rolling average for fire suppression and a $50 million increase 
to fund next-generation air tanker contracts to replace the 6-
year-old P2 aircraft.
    That means that your budget sustains some tough reduction 
to programs like Hazardous Fuels Reduction and State Fire 
Assistance.
    I'm very concerned, as I know you are, Chief Tidwell, about 
the precedent that's been set with the fire budget. As the 10-
year average goes up every year budgets are shrinking and the 
need to fight wildland fires is crowding out many worthy 
programs within your budget, as well as the budgets of other 
agencies in the Interior, Environment, and Related Agencies 
bill. Indeed, I note that under the President's fiscal year 
2014 budget proposal, funding for USFS wildland fire programs 
alone exceeds the investment in clean water and drinking water 
infrastructure by more than $450 million.
    As critical as your fire programs are, it is a challenge to 
explain in my parts of the country, and my State included, why 
fighting these fires requires so much resources that takes away 
from desperately needed improvements and jobs in infrastructure 
all across the country.
    We also need a much better strategy for paying for the cost 
of fires that exceed the 10-year average, something that has 
happened 9 out of the last 10 years. In the past, the Congress 
has been able, on a bipartisan and bicameral basis, to provide 
emergency supplemental funds to pay for disasters like 
wildfires in a timely way.
    This past year, however, our colleagues in the House chose 
to add funds to pay for firefighting shortfalls within the 
overall discretionary appropriations cap rather than fund those 
needs as emergency spending. All told, we appropriated $423 
million to pay for these additional firefighting needs. And 
that's $423 million that you have to find in other parts of 
your budget or we have to find in other parts of other agency 
budgets. These funds are important, but ultimately, as I 
suggest, other discretionary programs must pay for them.
    How to improve our capacity to budget for catastrophic 
fires and other disasters is a theme that we'll be grappling 
with during this year's appropriation process and something 
I've discussed with Chairwoman Mikulski and something, Chief, 
that I'm sure we will talk together, along with the ranking 
member, to try to come up with a better way to proceed.
    We cannot allow our obligations, and we do have to fight 
these fires and we do have to support local communities, to 
erode other investments that are equally important to the 
nation.

                       STATE AND PRIVATE FORESTRY

    I would also like to discuss a proposal of the State and 
Private Forestry Programs, programs that are important to all 
States, including my home State. Overall, the request also 
includes a 5 percent cut to State and Private Forestry 
Programs, for a total of $240 million. Within that amount, the 
budget does propose to allow States to compete for a new $20 
million landscape scale restoration program. However, it does 
include a number of cuts to specific grant programs, including 
a $7 million cut to the Urban Forestry Program, without 
offering a concrete vision of what States like Rhode Island, 
New York, New Jersey, and other urban areas have to do not only 
to participate, but also to get a more reasonable share of 
resources.

                         NATIONAL FOREST SYSTEM

    The budget also requests $1.56 billion for operations of 
the National Forest, which is a 1.5-percent increase more than 
the fiscal year 2013 enacted level. Within that amount, the 
administration is again proposing a major budget restructuring, 
consolidating three major programs to create a new $757 million 
Integrated Resource Restoration Program.
    As you know, Chief, the subcommittee has allowed you to 
move forward with a pilot program in three USFS regions to test 
this new restoration program. And my colleagues and I will all 
want to hear more about the progress that you're making on the 
ground as we consider your request to implement this program on 
a national scale. I expect we'll also want to hear more about 
the budget tradeoffs that you're making to implement this 
proposal, including steep reductions to other operating 
programs like law enforcement and recreation, as well as other 
reductions to capital improvement projects.
    Finally, there are a few other bright spots in the request 
that are worth noting. The budget does include a $15 million 
investment to boost forestry research, for a total of $310 
million. We talked about that, and that's absolutely important. 
And the request includes a total of $118 million for land 
acquisition, the Forest Legacy project, as part of the 
President's $400 million proposal for discretionary Land and 
Water Conservation Fund (LWCF) programs. That amount is an 11-
percent increase more than fiscal year 2013.
    As my remarks suggest, Chief, we have a lot to discuss this 
morning. Thank you for being here, and let me now recognize my 
ranking member. I won't say ``the birthday girl.''
    Senator Murkowski. Thank you.
    Senator Reed. Senator Murkowski.

                  STATEMENT OF SENATOR LISA MURKOWSKI

    Senator Murkowski. Thank you, Mr. Chairman, and welcome, 
Chief. It's good to see you back here. We had a chance to talk 
during your testimony before the Energy Committee last month, 
so this is kind of a follow-on to that.

                          SECURE RURAL SCHOOLS

    This morning, I'm going to focus my opening statement on an 
issue that stems from last year's Forest Service budget, and 
that's your decision in March to retroactively claw back these 
payments made to 41 States receiving Secure Rural Schools 
payments, including Alaska, because of the sequester.
    I believe that this situation teaches a larger lesson about 
the failures of the agency's current forest management policy 
and how that is then reflected in your fiscal year 2014 budget.
    On March 19, you sent the State of Alaska a letter 
demanding the repayment of $826,000 in Secure Rural Schools 
funding. In response, our Governor Parnell sent a letter to you 
on April 28 refusing to pay back the funds, citing the lack of 
any legal authority offered by the USFS. And, Mr. Chairman, I 
have a copy of the Governor's letter that I would like to be 
included in the record.
    Senator Reed. Without objection.
    [The information follows:]
                    U.S. Department of Agriculture,
                                            Forest Service,
                                                    Washington, DC.
Hon. Lisa Murkowski, Ranking Member,
U.S. Senate, Energy and Natural Resources Committee,
Hart Senate Office Building, Washington, DC.
    Dear Senator Murkowski: Thank you for your letter of April 24, 
2013, cosigned by Senator Ron Wyden, regarding the impact of 
sequestration on payments under the Secure Rural Schools Act.
    To fulfill our commitment to rural communities, Secure Rural 
Schools payments were made on time in early January 2013, while the 
sequestration debate continued in Congress. Subsequently, the 
sequestration took effect, and agencies were required to implement it.
    The Balanced Budget and Emergency Deficit Control Act of 1985 
(BBEDCA), as amended, requires that sequestration be taken at the 
budget account level, and applied equally to each program, project, and 
activity (PPA) in those accounts. In the case of Secure Rural Schools, 
the relevant account is the Forest Service Permanent Appropriations 
account, which includes two PPAs for Secure Rural Schools: one 
comprising the fiscal year 2013 budget authority from receipts in 
fiscal year 2012 (the ``receipts PPA''), and the other comprising 
additional fiscal year 2013 budget authority provided from the U.S. 
Department of the Treasury to cover the shortfall in receipts necessary 
to make the full Secure Rural Schools payments (the ``Treasury payments 
PPA''). While funding for Secure Rural Schools payments is based on the 
level of receipts collected in fiscal year 2012, section 102(e) of the 
statute directs that the funds be paid after the end of the fiscal 
year. Therefore, it is budget authority for fiscal year 2013 subject to 
sequestration under BBEDCA.
    In calculating the sequestered amount, BBEDCA repeatedly refers to 
the amounts for a ``fiscal year'' or ``that year'' (2 U.S.C. 901a). 
Thus, consistent with the application of sequestration across programs 
of the U.S. Department of Agriculture (USDA), and across the Government 
as a whole, the amount of the sequestration is based upon the full 
budgetary authority in the receipts PPA and the Treasury payments PPA 
for the entire fiscal year, not on the amount remaining available as of 
March 1, 2013, the date of the sequestration order.
    Secure Rural Schools payments are made from both PPAs. The funding 
sources are not tied to a particular title, so for purposes of 
sequestration, it does not matter which title's funding stream is cut 
in order to meet the full sequestered amount, as long as the required 
reductions are taken from each PPA. USDA's goals in implementing 
sequestration have been to administer reductions in the most equitable 
and least disruptive manner possible. In this instance, USDA has 
determined that in order to ensure equity in the treatment of States, 
each State should take the same percentage reduction to Secure Rural 
Schools payments.
    States can pay back the mandated sequestered amounts from their 
title I and title III money, or reduce title II allocations by the 
requisite amount where applicable. This approach best ensures equity 
and uniformity in the implementation of the reductions, as it applies 
the same percentage reduction to the payments for each State. We 
encourage the States that have the option to elect to have the Forest 
Service use title II funds to cover the sequestered amount, and thus 
avoid impacts to their schools and road funding and eliminate the need 
for repayment.
    Regarding the assessment of interest, penalties, and administrative 
costs, the Forest Service will utilize existing Federal and Agency 
guidelines to waive these costs, where applicable. We are committed to 
working with you to mitigate the impacts of these actions on States and 
counties.
    Again, thank you for your writing. A similar response is being sent 
to Senator Wyden.
            Sincerely,
                                         Thomas L. Tidwell,
                                                             Chief.
                                 ______
                                 
                                           State of Alaska,
                                        Juneau, AK, April 28, 2013.
Mr. Thomas Tidwell, Chief,
Forest Service, U.S. Department of Agriculture,
Independence Ave. SW, Washington, DC.
    Dear Mr. Tidwell: In a letter dated March 19, 2013, you advised 
that the mandated Federal budget reductions (sequester) apply to 
revenue generated in 2012 and paid in 2013 under titles I and III of 
the Secure Rural Schools and Community Self-Determination Act. Since 
the United States Forest Service has already made its payment to 
Alaska, you are seeking a repayment of the sequester percentage of 5.1 
percent, which amounts to $707,795.40 under titles I and III, as well 
as a withholding of $118,536.50 (or 5.1 percent) of title II funds not 
yet allocated. You gave Alaska the option of having the total amount of 
$826,331.90 reduced from the State's title II funds or having that sum 
collected from funds already disbursed under titles I and III.
    On behalf of the proud forest communities that received fiscal year 
2012 Secure Rural Schools aid in January of 2013, I maintain that 
neither the Balanced Budget and Emergency Deficit Control Act of 1985, 
as amended by the Budget Control Act of 2011, nor the Anti-Deficiency 
Act, authorize you to request repayment of title I and title III 
outlays. As such, I will not request the Alaska State Legislature 
consider such an appropriation.
    Additionally, your letter cites no authority for the reduction of 
title II funds. The titles I and III funds have been allocated and used 
in accordance with the Federal law that authorized their disbursement. 
You have cited no valid authority for your retroactive efforts to have 
those funds repaid or offset.
    This sequester dilemma highlights the continued failure of the 
United States Forest Service to successfully manage the nation's 
forests, especially the Tongass. I stand ready to discuss solutions to 
allow our forests to once again support healthy communities--not 
impoverish them.
            Sincerely,
                                              Sean Parnell,
                                                          Governor.

    Senator Murkowski. The Governors of Alabama and Wyoming 
have since joined Governor Parnell for similar reasons.
    I'd like to repeat, Chief, what I stated last month when we 
were in the Energy Committee. You have got to find a different 
path here that does not punish these struggling rural 
communities for the agency's failure to manage our Nation's 
forests. I'm going to be asking you today how you plan to 
respond to Governor Parnell and to the other States that have 
refused to pay.
    Now, some might ask, ``Why are you so upset? $826,000, when 
you compare it to the millions, and really billions, that we're 
usually talking about here in Washington, the numbers seem 
relatively insignificant.'' But for me, this is pretty simple: 
I just can't go back to the superintendent of the schools in 
Wrangell, Alaska, because for him, these few thousands of 
dollars mean everything to him and his budget.
    I think that this decision by the agency represents the 
latest in a long line of misguided Forest Service actions that 
have had a crippling impact on Southeast Alaska. Back in 1990, 
the region had more than 4,500 timber jobs, a vibrant wood 
products industry. Local communities at that time received 25 
percent of the revenue generated from timber sales on the 
Tongass National Forest, and they used this appropriately for 
roads and schools. And there was no need for Secure Rural 
Schools funding.

                           TIMBER MANAGEMENT

    Now, because of USFS policies, there are only about 300 
logging jobs left, and the region must rely in part on 
mandatory payments from the Federal Government to operate its 
schools. And sadly, just as Alaskans have learned that we can't 
rely on the USFS to provide a stable timber supply, now we 
can't even rely on the agency to send us the check that we're 
due and not demand part of that money back.
    It's almost as though we're watching ``Groundhog Day'' all 
over again. Every year, you come before the Energy Committee. 
You come before this subcommittee. We pledge that we're going 
to work together on things. We're going to improve the timber 
sale program on the Tongass so we avoid losing what remains of 
the industry. I always describe it as folks just kind of 
hanging on by their fingernails. You agree. You know.
    But then we come back, and it's a year later, and we're 
having the same conversation again. I think sometimes the 
script changes a little bit. Some years, it's litigation that's 
to blame. Other years, it's poor timber markets. This year, 
it's probably going to be tight budgets we're talking about or 
the impact of the sequester.
    But one thing never changes. And that is the declining 
harvest in the Tongass. In 2008, at the beginning of this 
administration, the level was only 28 million board-feet. Last 
year, it was 21 million board-feet, near the all-time low of 19 
million in 2007.
    We talked, again, about the agency's plan for transitioning 
to second growth. And you know that I'm skeptical there. It's 
going to be years before these trees are mature and can support 
an annual sales program.
    So I'm not encouraged by this year's budget request, which 
sets 2.4 billion board-feet as a target for the timber program 
nationally, when just last year you testified about ramping up 
to 3 billion board-feet as part of the agency's restoration 
strategy.
    On May 2, I sent a bipartisan letter with 12 of my 
colleagues to the President, asking for him to reconsider these 
timber programs. And I know my colleague from Montana was 
involved with that.
    So I want to be clear. I do support the agency's many 
programs that deal with recreation and with wildlife. But these 
objectives within that aspect of the Forest Service shouldn't 
come at the expense of managing our forests in a way that not 
only provides jobs, but lowers the fire risks that the chairman 
was talking about and really creates a more resilient 
environment. I think that's what your multiple-use mandate 
requires.
    So I hope today that you can give me a reason to believe 
that we're not going to be sitting here again next year at 
these hearings with you talking about lack of timber supply on 
the Tongass and with an industry that is just barely able to 
get by. I want this year to be different. You've indicated that 
we're going to have an opportunity to visit with one another in 
Alaska. I look forward to that. But I think you and I would 
agree that we have some more business to be done.
    I look forward to your answers here this morning and 
appreciate the courtesy of the Chair.
    Senator Reed. Thank you very much, Senator. And if anyone 
else would like to make a brief statement? Senator Tester.
    Senator Tester. Real quick, if I might. Thank you, Mr. 
Chairman, ranking member.
    First of all, thank you for being here, Chief Tidwell. I 
appreciate the job that you do. You oftentimes are dealt a very 
tough hand, and you play the cards reasonably well, from my 
perspective. So, thank you for that.
    Look. I don't need to tell you how important the USFS is in 
a State like Montana. You've been there, you've done that. The 
fact is we lost 1.3 million acres to fire last year, another 
million acres to beetle kill. We've got some issues as far as 
mitigation of catastrophic wildfires, as the chairman talked 
about, and how we're going to deal with that in the short term 
and the long term. I look forward to fleshing that out more as 
the questions go.
    And I also look forward to working with you to give the 
USFS more tools, more tools to be able to manage these forests, 
manage them in a reasonable way, getting folks to work together 
from the ground up, making sure that the industry and 
environmentalists and the USFS and the Congress are all on the 
same page.
    Thank you for your work. I look forward to the questions.
    Senator Reed. Any of my other colleagues? Senator Merkley, 
please.

                        WILDLAND FIRE MANAGEMENT

    Senator Merkley. Thank you, Mr. Chair, and I'll expand 
during the question period. But we had a fire the size of Rhode 
Island last year in Oregon. We had the worst fire season, you 
know, in 100 years. We lost a lot of rangeland, a tremendous 
amount of timber. And we're in a situation where the same time 
that's going on, and largely because of the buildup of 
hazardous fuels, we're looking at a proposed budget that cuts 
the hazardous fuels reduction in half.
    Yet everyone after these fires said, ``We've got to get in 
there and get more of these hazardous fuels out. We've got to 
operate on a 15-year cycle to be ahead of the 20-year fire 
cycle, not a 30-year cycle.'' And instead we're looking at a 
60-year cycle.
    The fires that start on public lands then move onto private 
land create an intolerable situation for our private landowners 
and huge damage to the public-trusted lands. So it's extremely 
troubling, the budget as it's laid out. I know that you're 
operating with limited resources and that it's a huge 
challenge. But somehow, we've got to figure out a way not to 
just be trying to mop up fires after they happen, but to manage 
the forests well on the front end.
    Senator Reed. I believe no more of my colleagues have 
opening statements. If that's the case, Chief Tidwell, please, 
your statement.

                    SUMMARY STATEMENT OF TOM TIDWELL

    Mr. Tidwell. Mr. Chairman, members of the subcommittee, 
it's a privilege to be here again today to discuss the 
President's fiscal year 2014 budget request for the Forest 
Service. I cannot thank you enough for the support from the 
subcommittee over the years. I continue to look forward to 
working with you to do what we can to provide what the public 
wants and needs from their National Forests and Grasslands.
    The President's budget reflects our commitment to strategic 
investments that are needed to grow the economy while 
exercising fiscal restraint. The budget does make some very 
difficult tradeoffs between key programs. It does this by 
focusing on the economic growth for rural America, including 
the 450,000 jobs that are supported from activities on our 
National Forests and Grasslands.
    Now, through three key objectives, I believe this budget 
request is a good investment for the economic growth in rural 
America. The first part of that is it will get us back on track 
with our accelerated restoration strategy to restore and 
sustain our national forests and to be focused on 65 million to 
82 million acres that need some form of restoration.
    It will do this by requesting full funding through our 
collaborative forest restoration fund. It will also request 
permanent authorization for stewardship contracting that is a 
tool that provides certainty so that private entities can 
invest in the wood products industry. It also will allow us to 
expand the use of landscape scale analysis so we can look at 
hundreds of thousands of acres at one time, determine the 
restoration activities that need to occur, and be able to cover 
that analysis with one EIS.
    It also asks for an additional $13 million in research that 
is dedicated to increasing the markets for wood through USDA 
Green Building Initiative, our Wood Energy Initiative, and also 
our research into nanotechnology.
    The second key objective deals with fire. This budget 
request provides a level of preparedness that will continue our 
success to suppress 98 percent of wildland fires during initial 
attack. It does also request an increase from fiscal year 2012 
to what we're requesting of $138 million in suppression to 
fulfill our agreement to meet the 10-year average.
    It also will continue to reduce the threat of wildfires to 
homes and communities by reducing hazardous fuels on 
approximately 685,000 acres of the highest priority acres in 
the wildland-urban interface. And, it also requests an 
additional $50 million to modernize our large airtanker fleet.
    The third objective is to continue with our focus on 
America's Great Outdoors Initiative, which will help support 
community-based conservation, provide opportunities for 
economic expansion to retain and create jobs by first providing 
the recreational opportunities that support the 166 million 
people that visit the National Forests and Grasslands. And it's 
through their activities, their economic activities that 
support more than 200,000 jobs.
    Also, we want to focus on getting more volunteers out to be 
connected to help us to do the work, but also to increase their 
connection with the outdoors and also expand our Youth 
Conservation Corps to provide more opportunities for employment 
with our youth to be outdoors, understanding the benefits of 
working in conservation.
    It also requests an increase in LWCF funding. This is based 
on what we hear from the public throughout this country about 
the strong support for the need for us to acquire those small 
parcels of land that are critical in-holdings to make sure that 
we're providing the habitat that is necessary to support 
species, but to provide recreational access. In every case 
where we're acquiring land, it always reduces our 
administrative costs of managing that part of the National 
Forest.

                       STATE AND PRIVATE FORESTRY

    Now, we're going to continue to work with the States 
through our State and Private Forestry Programs to promote 
conservation and to keep private forests forested. We also will 
encourage biomass utilization and other renewable energy 
opportunities while working to process oil and gas permit 
applications and energy transmission proposals much more 
effectively and efficiently.

                          SECURE RURAL SCHOOLS

    Our budget request also proposes a framework for 
reauthorization of the Secure Rural Schools Act. In addition to 
these three key objectives, we're going to continue our focus 
on reducing our administrative costs by increasing our 
operational efficiencies. So over fiscal year 2013 and fiscal 
year 2014, we're going to reduce our overhead costs by another 
$100 million. We're going to continue to focus on creating 
efficiencies in our processes.
    For instance, when it comes to doing the environmental 
analysis and sale preparation for timber sales, since 1998, 
funding has been reduced by $185 million when it's adjusted for 
inflation. Our staff has been reduced by 49 percent. But during 
the same time, we have reduced the unit cost by 23 percent.
    The other thing we'll continue to focus on is doing the 
best job we can to deal with wildfire. Where we will continue 
to have 98 percent success on initial attack, for those large 
fires that escape initial attack we're going to continue to use 
our science, our experience, and our expertise to reduce those 
suppression actions that are unnecessary and not effective. By 
doing this last year, we reduced costs by avoiding unnecessary 
risks by $377 million.

                         NATIONAL FOREST SYSTEM

    Our goal is to increase the collaborative efforts to 
encourage greater public involvement and management of the 
public National Forests and Grasslands. To maintain and restore 
healthy landscapes, we need to take care of the ecosystems. We 
also need to support healthy, thriving communities and provide 
jobs in rural areas.
    Mr. Chairman, thank you again for the opportunity to 
address this subcommittee, and I look forward to answering your 
questions.
    [The statement follows:]
                   Prepared Statement of Tom Tidwell
    Mr. Chairman and members of the subcommittee, thank you for 
inviting me here today to testify on the President's budget request for 
the United States Forest Service (USFS) for fiscal year 2014. I 
appreciate the support this subcommittee has shown for USFS in the 
past, and I look forward to continuing to work together with members of 
the subcommittee to ensure that stewardship of our Nation's forests and 
grasslands continues to meet the desires and expectations of the 
American people. I am confident that this budget will allow the Forest 
Service to meet this goal while demonstrating both fiscal restraint and 
efficient, cost-effective spending.
    Our Nation can and should take steps to make Government more 
effective and more efficient in the 21st century. The fiscal year 2014 
budget that the President is proposing reflects the difficult choices 
we need to make to reduce spending while investing in long-term 
economic growth and job creation. To make the strategic investments 
needed to grow the economy while exercising fiscal restraint, this 
budget makes difficult tradeoffs between programs. It also reflects 
efficiency and improvements to reduce our administrative costs. It is 
designed to appropriately fund many of the programs that matter to 
Americans.
               value of the united states forest service
    Our mission at USFS is to sustain the health, diversity, and 
productivity of the Nation's forests and grasslands to meet the needs 
of present and future generations. The mission includes helping 
Americans use and enjoy the lands and waters that belong to them as 
citizens of the United States. USFS manages a system of national 
forests and grasslands on an area almost twice the size of California--
193 million acres in 44 States and Puerto Rico. These lands entrusted 
to our care provide some of the richest resources and most breathtaking 
scenery in the Nation, as well as drinking water for millions of 
Americans.
    As the Nation's leading forestry organization, we also serve 
Americans in other ways. USFS was founded in 1905 to stop the 
degradation of watersheds and manage the lands for the benefit of all 
Americans. To that end, in addition to the National Forest System, 
agency programs support the sustainable stewardship of more than 600 
million acres of forest land across the Nation, including 423 million 
acres of private forest land, 68 million acres of State forest land, 18 
million acres of Tribal forests, and 100 million acres of urban and 
community forests.
    In addition, we maintain the largest forestry research organization 
in the world, with more than a century of discoveries in such areas as 
wood and forest products, fire behavior and management, and sustainable 
forest management. In an age of global interconnectedness, we also 
support the sustainable stewardship of forests around the world; we 
have served people in more than 80 countries, which have direct 
benefits to the American forestry economy through marketing American 
forest products and invasive species prevention.
    America's forests, grasslands, and other open spaces are integral 
to the social, ecological, and economic well-being of the Nation. The 
benefits from Forest Service programs and activities include jobs and 
economic activity, especially in rural areas where other sources of 
employment and economic growth might be few. In fiscal year 2011, for 
example, the various activities on the National Forest System 
contributed more than $36 billion to America's gross domestic product, 
supporting nearly 450,000 jobs.
    The most popular uses of the national forests and grasslands are 
associated with outdoor recreation. Our increasingly diverse visitor 
population engages in activities such as camping, picnicking, 
snowmobiling, cross-country skiing, equestrian use, firewood and forest 
product gathering, all-terrain vehicle riding, skiing, snowboarding, 
hunting, fishing, hiking, wildlife viewing, driving for pleasure, and 
visiting cultural sites and visitor centers. The national forests and 
grasslands attract about 166 million visits per year, supporting about 
205,000 jobs and contributing $13.6 billion to the Nation's gross 
domestic product each year. Fifty-five percent of our visitors engage 
in a strenuous physical activity, contributing to their health and 
well-being.
    Noncommercial uses of forest and grasslands also provide vital 
benefits to the American people. For example, more than one-half of our 
Nation's freshwater flows from public and private forest land, and 
about 60 million Americans rely on drinking water that originates on 
the National Forest System. Forest Service land management, combined 
with USFS assistance to private landowners, helps protect the single 
greatest source of drinking water in the Nation.
    USFS's creation of jobs and economic opportunities is not limited 
to rural areas. Through Job Corps and other programs, we provide 
training and employment for America's urban youth, and we help veterans 
transition to civilian life. Our Urban and Community Forestry Program 
has also provided jobs and career-training opportunities for 
underemployed adults and at-risk youth through activities such as tree 
care and riparian corridor restoration.
    We also engage a wide range of partners who contribute to 
investments in land management projects and activities. In fiscal year 
2012, we entered into more than 7,700 grants and agreements with 
partners who contributed a total of about $535 million in cash and non-
cash (in-kind) contributions. Combined with our own contribution of 
nearly $779 million, the total value of these partnerships was over 
$1.3 billion. The growing value of grants and agreements demonstrates 
the increasing importance of partnerships in fulfilling the USFS 
mission.
    Forest landowners of all kinds benefit from our forest-related 
research, as does anyone who buys products made from wood. For example, 
USFS scientists have developed a free software application that helps 
people identify invasive plants and provides control recommendations. 
Our research and development bring all kinds of benefits to the 
American people, improving their quality of life.
    More than 50 percent of the Nation's forests--more than 420 million 
acres--are privately owned. Working with the State Foresters, we help 
State forest managers and private forest landowners manage America's 
working forests sustainably. Through our Forest Health Management 
program, for example, we monitor and assess forest health conditions on 
all lands nationwide, both public and private, tracking outbreaks of 
insects and disease and providing funds for treating areas at risk.
    In February 2011, President Barack Obama launched the America's 
Great Outdoors Initiative, setting forth a comprehensive agenda for 
conservation and outdoor recreation in the 21st century. The initiative 
challenges the American people to work together to find lasting 
conservation solutions, based on the premise that protecting America's 
natural heritage is a goal shared by all. In tandem with the 
President's initiative, Secretary of Agriculture Tom Vilsack outlined 
an all-lands vision for conservation. He called for partnerships and 
collaboration to reach shared goals for restoring healthy, resilient 
forested landscapes across all landownerships nationwide.
    Our fiscal year 2014 budget request is accordingly designed to help 
us work with partners across borders and boundaries to invest in 
America's green infrastructure at a landscape scale. Our focus on 
landscape-scale conservation dovetails with broader administration 
priorities, including the President's America's Great Outdoors 
Initiative, the Secretary's ``all-lands'' vision, and the Department of 
Agriculture's priority goal of enhancing water resources. Our goal at 
USFS is to ensure the ability of our Nation's forests and grasslands to 
deliver a full range of jobs and benefits, both now and for generations 
to come.
                       challenges to conservation
    Our Nation's ability to protect its forest and grassland resources 
is now at risk due to drought, invasive species, and 
uncharacteristically severe wildfires and outbreaks of insects and 
diseases. Such stresses and disturbances are affecting America's 
forests, grasslands, and watersheds on an unprecedented scale. Twenty-
seven percent of all forest-associated plants and animals in the United 
States, a total of 4,005 species, are at risk of extinction. Habitat 
degradation is the main reason--affecting 85 percent of all imperiled 
species. Many species are also threatened by nonnative invasive 
species, which affect 49 percent of all imperiled species.
    Although biodiversity is exceptionally high on the national forests 
and grasslands, habitat degradation and invasive species remain serious 
threats. We estimate that watershed functionality is impaired or at 
risk on 48 percent of the watersheds on National Forest System lands. 
Severe outbreaks of western forest pests have affected 32 million acres 
on the national forests alone. Between 65 million and 82 million acres 
are in need of fuels and forest health treatments--up to 42 percent of 
the entire National Forest System.
    Part of the problem is severe drought, resulting in extreme fire 
weather, very large fires and longer fire seasons. Since 2000, at least 
10 States have had their largest fires on record, and some have had 
their records broken more than once. In 2000, for the first time since 
the 1950s, more than 7 million acres burned nationwide; and in 2012, 
more than 9 million acres burned.
    The spread of homes and communities into areas prone to wildfire is 
an increasing management challenge. From 2000 to 2030, we expect to see 
substantial increases in housing density on 44 million acres of private 
forest land nationwide, an area larger than North and South Carolina 
combined. More than 70,000 communities are now at risk from wildfire, 
and less than 15,000 have a community wildfire protection plan or an 
equivalent plan.
    A growing proportion of the USFS budget has been needed for fire-
related activities of all kinds. In fiscal year 1991, for example, 
fire-related activities accounted for about 13 percent of our total 
budget; by fiscal year 2012, it was 40 percent. That has left a smaller 
amount of funding for nonfire purposes (watersheds, wildlife, 
recreation, and other benefits and services). With increasingly limited 
funding, we need to approach our work differently.
                     budget request and focus areas
    The fiscal year 2014 President's budget request is designed to meet 
the challenges we face. The President's proposed overall budget for 
discretionary funding for the Forest Service in fiscal year 2014 is 
$4.9 billion. It shifts $62 million from key programs to meet the 
requirement to fund the 10-year rolling average of fire suppression 
costs.
    In response to the challenges we face, we are focusing our efforts 
on three key areas:
  --restoring ecosystems;
  --strengthening communities while providing jobs; and
  --managing wildland fires.
    In these tough economic times, our proposed budget balances 
spending on priorities in each of these three focus areas against 
measures to decrease costs. Through strategic partnerships, we will 
continue to leverage our funds to accomplish more work, yielding more 
benefits for the people we serve while also sustaining forest and 
grassland ecosystems for future generations.
                          restoring ecosystems
    Our approach to ecological degradation is to accelerate ecological 
restoration. USFS is restoring the ability of forest and grassland 
ecosystems to resist climate-related stresses, recover from climate-
related disturbances, and continue to deliver the values and benefits 
that Americans want and need. Reforestation, habitat enhancements, 
invasive species control, hazardous fuels treatments, and other 
measures can help to make an ecosystem more resilient and more capable 
of delivering benefits, such as protecting water supplies and 
supporting native fish and wildlife. Our budget request for fiscal year 
2014 is specifically designed to support integrated restoration efforts 
across USFS.
    Through Integrated Resource Restoration, land managers are 
accelerating the pace of restoration and job creation, in part by using 
USFS's Watershed Condition Framework to identify high-priority 
watersheds for treatment. Managers use Integrated Resource Restoration 
to integrate activities such as hazardous fuels reduction, road 
decommissioning, and removal of barriers to fish passage. Outcomes 
include reducing risk from fire, insects, and diseases; maintaining 
clean drinking water for communities; and supporting more local jobs 
and economic opportunities. For example, in fiscal year 2012 through 
our overall efforts we treated almost 2.6 million acres to sustain or 
restore watershed function and resilience. Under the pilot program, 
through restoration activities we treated almost 800,000 acres. We 
propose fully implementing Integrated Resource Restoration across USFS 
in fiscal year 2014.
    The growing need for restoration-related work and investments on 
the National Forest System is providing jobs and community benefits. 
The Collaborative Forest Landscape Restoration Program was created in 
2009 to restore high-priority forested landscapes, improve forest 
health, promote job stability, create a reliable wood supply, and 
reduce firefighting costs across the United States. After the program 
was created, the Secretary of Agriculture evaluated collaboratively 
developed project proposals, selecting 20 large-scale projects for 10-
year funding, along with three additional high-priority projects for 
funding from other sources. They support an array of restoration 
activities, including reducing hazardous fuels, restoring watershed 
function and resilience, and improving forest vegetation and wildlife 
habitat. Continued implementation of these projects is a high priority 
in our fiscal year 2014 budget request. For example, the 23 projects 
under this program have created or maintained approximately 7,500 jobs 
over the last 2 years and generated almost $272 million in labor 
income. They have also reduced the danger of fire on more than 600,000 
acres near communities and enhanced clean water supplies by remediating 
or decommissioning 6,000 miles of roads.
    USFS is creating partnerships across the country to help protect 
water by reducing the risk of fire in municipal watersheds that provide 
communities with water for drinking and other uses, such as irrigation, 
fisheries, and recreation. To help leverage our funding, we are 
proposing a new program for Restoration Partnerships in fiscal year 
2014. The program will foster some of the most advanced public-private 
partnership initiatives in the Federal Government, leveraging new 
outside resources to support USFS's restoration efforts. Most funding 
under the new program will go to support cost-share projects that will 
be competed for at the national level to attract matching financial 
support from partners.
    Another USFS program with a restoration emphasis is Forest Health 
Management. Under the program, we conduct risk mapping and surveys to 
identify the areas at greatest risk from insects and disease, including 
invasive species such as emerald ash borer and white pine blister rust. 
In identifying the areas at greatest risk and deciding on how to 
respond, we work with the States, in part by utilizing the State Forest 
Action Plans to help inform response decisions.
    USFS is finalizing directives for implementing the new National 
Forest System Land Management Planning Rule governing how land 
management plans are written for the national forests and grasslands. 
Half of all units on the National Forest System have plans that are 
more than 15 years old. Successful forest plan revisions are key to 
meeting the Forest Service's contemporary land management challenges. 
The new 2012 Planning Rule will help land managers focus on 
collaborative watershed restoration while promoting jobs and economic 
opportunities in rural communities.
    In concert with the President's America's Great Outdoors Initiative 
and Secretary Vilsack's all-lands vision for conservation, the Forest 
Service has launched an initiative to accelerate restoration across 
shared landscapes. The Accelerated Restoration Initiative builds on 
Integrated Resource Restoration, the Collaborative Forest Landscape 
Restoration Program, the Watershed Condition Framework, the 2012 
Planning Rule, and other restoration-related programs and initiatives 
to increase the pace of ecological restoration while creating more jobs 
in rural communities.
    USFS is supporting accelerated restoration through our programs in 
Research and Development. We have seven high-priority research areas, 
including Watershed Management and Restoration, which is designed to 
support our focus on protecting and enhancing water resources. In our 
Bioenergy and Biobased Products research area, we are developing 
technology to sustainably produce woody biomass and convert it into 
liquid fuels, chemicals, and other high-value products. In partnership 
with the wood products industry, we are also developing science to 
commercialize nanocellulosic technologies to generate new high-value 
products such as durable composites and paper that is stronger and 
lighter. This will revolutionize technology to create new jobs and 
revenues and help restore America's economy through industrial 
development and expansion.
    We are also pursuing longer term strategic research. For example, 
sustainable forest management is predicated on decades of data on 
forest conditions collected through our Forest Inventory and Analysis 
program. We conduct long-term research in such areas as forest 
disturbances, the effects of climate change, fire and fuels, invasive 
species, wildlife and fish, and resource management and use to meet 
local needs. In all of our research, we are committed to delivering new 
knowledge and technologies to support sustainable forest and grassland 
management.
              strengthening communities and providing jobs
    Our fiscal year 2014 budget request emphasizes the role that 
communities play in sustaining the forests and grasslands around them 
and the benefits they provide. Working with State and local partners, 
we are focusing on landscape-scale outcomes through cross-boundary 
actions including forestry projects identified through the State Forest 
Action Plans. Accordingly, we propose building on our State and Private 
Forestry Deputy Area Redesign initiative through a new program called 
Landscape Scale Restoration. Our new program will capitalize on the 
State Forest Action Plans to target the forested areas most in need of 
restoration treatments while leveraging partner funds.
    We also work with the States through our Forest Legacy Program to 
identify forests critical for wildlife habitat and rural jobs. Through 
the program, we provide working forests with permanent protection by 
purchasing conservation easements from willing private landowners.
    In a similar vein, and supporting the President's America's Great 
Outdoors Initiative, our Land Acquisition program is designed to 
protect critical ecosystems and prevent habitat fragmentation by 
acquiring inholdings on the National Forest System and other lands 
where we can improve public access. We are working in collaboration 
with the Department of the Interior to leverage our joint investments 
by coordinating our efforts to protect intact, functioning ecosystems 
across entire landscapes. We propose transferring $177 million in 
discretionary and mandatory funding from the Land and Water 
Conservation Fund to support these goals.
    The Forest Service also engages urban communities in protecting and 
restoring America's 100 million acres of urban and community forests. 
For example, we are working with 10 other Federal agencies in the Urban 
Waters Federal Partnership, designed to restore watersheds in urban 
areas. Through our Urban and Community Forestry program, we are 
benefiting communities by helping them to plant trees, especially 
through demonstration projects. Through our Conservation Education 
programs, we are engaging millions of children and their families in 
outdoor experiences.
    In addition, we are helping communities acquire local landscapes 
for public recreation and watershed benefits through our Community 
Forestry and Open Space program. Our goal is to help create a Nation of 
citizen stewards committed to restoring the forests around them to 
health.
    Our community focus supports the President's America's Great 
Outdoors Initiative to achieve landscape-scale restoration objectives, 
connect more people to the outdoors, and support opportunities for 
outdoor recreation while providing jobs and income for rural 
communities. Building on existing partnerships, establishing a 21st 
century Conservation Corps will help us to increase the number of work 
and training opportunities for young people and veterans through high-
priority conservation and restoration work on public lands. To engage 
communities in conserving the lands around them, the Forest Service is 
building public-private partnerships that leverage new resources to 
support USFS's restoration goals. Our new Restoration Partnerships 
program features national competitive grants to support local 
restoration projects, with matching funds from partners.
    We are also building public-private partnerships through our 
Sustainable Recreation Framework. Many economic opportunities and other 
community benefits generated on the national forests and grasslands are 
associated with outdoor recreation. Through the Sustainable Recreation 
Framework, we are engaging communities to protect and increase 
recreational access as well as jobs, benefits, and opportunities 
associated with outdoor recreation.
    Our associated Trails program designates trails for multiple uses, 
consistent with our travel management rule, while building partnerships 
in trail stewardship. Our Roads program is designed to maintain forest 
roads and bridges to protect public safety and water quality while 
meeting access needs for both resource stewardship and the recreating 
public. Our Facilities program promotes the safe and energy-efficient 
use of agency infrastructure while emphasizing cost-effectiveness and a 
smaller environmental footprint through the use of green building 
techniques and materials.
                        managing wildland fires
    Our restoration efforts are partly in response to growing fire 
season severity, one of the greatest challenges facing the Forest 
Service. We continue to suppress in initial attack at very small sizes 
up to 98 percent of the fires we fight. However, the few fires that 
escape initial attack tend to get much larger much faster. Extreme fire 
behavior has become far more common. Firefighters are largely limited 
to protecting certain points around homes and communities.
    In 2009, the Congress passed the Federal Land Assistance, 
Management, and Enhancement (FLAME) Act, calling on Federal land 
managers to develop a joint wildland fire management strategy. Working 
with the Department of the Interior, USFS took the opportunity to 
involve the entire wildland fire community in developing a joint long-
term National Cohesive Wildland Fire Management Strategy.
    This strategy is the product of a collaborative effort between 
wildland fire organizations, land managers, and policy making officials 
representing Federal, State, and local governments; Tribal interests; 
and nongovernmental organizations that builds on the successes of the 
National Fire Plan and other foundational documents. Phase I was 
completed in 2011 and outlines the national strategy to address 
wildland fire issues across the Nation. Phase II was completed in 2012 
and provides a risk based framework for evaluating local, regional, and 
national alternatives for wildfire response and preparedness at a mix 
of different temporal and geographic scales.
    Our new strategy has three components:
  --Restoring Fire-Adapted Ecosystems.--More than 1,000 postfire 
        assessments show that fuels and forest health treatments are 
        effective in reducing wildfire severity. Accordingly, our fuels 
        treatments have grown; from 2001 to 2011, USFS treated about 
        27.6 million acres, an area larger than Virginia. We focus our 
        treatments on high-priority areas in the wildland/urban 
        interface, particularly near communities that are taking steps 
        to become safer from wildfire, such as adopting the national 
        Firewise program or developing community wildfire protection 
        plans.
  --Building fire-adapted human communities.--With more than 70,000 
        communities at risk from wildfire, USFS is working through 
        cross-jurisdictional partnerships to help communities become 
        safer from wildfires, for example by developing community 
        wildfire protection plans. Through the Firewise program, the 
        number of designated Firewise communities--communities able to 
        survive a wildfire without outside intervention--rose from 400 
        in 2008 to more than 700 in 2012.
  --Responding appropriately to wildfire.--Most of America's landscapes 
        are adapted to fire; wildland fire plays a natural and 
        beneficial role in many forest types. Where suppression is 
        needed to protect homes and property, we focus on deploying the 
        right resources in the right place at the right time. Using 
        decision support tools, fire managers are making risk-based 
        assessments to decide when and where to suppress a fire--and 
        when and where to use fire to achieve management goals for 
        long-term ecosystem health and resilience.
    Hazardous fuels reduction is an important part of protecting 
communities and infrastructure in the wildland/urban interface, and the 
materials removed can often be utilized as biofuels. Our Hazardous 
Fuels program therefore supports grants and other forms of assistance 
for wood-to-energy initiatives. We fund business plans and feasibility 
studies that help make a project more competitive for other sources of 
funding; we provide technical assistance to support project development 
or improve air quality, and we help develop financially viable 
approaches for building and sustaining facilities that convert wood to 
energy.
    In fiscal year 2014, USFS will work with municipal water providers 
and electrical service utilities to leverage our funds for fuels and 
forest health treatments. For example, our new Restoration Partnerships 
program will support public-private partnerships for investing in 
projects to protect water supplies on the Colorado Front Range and 
elsewhere. Our Hazardous Fuels program complements activities conducted 
through Integrated Resource Restoration and the Collaborative Forest 
Landscape Restoration Program to reduce fuels, protect communities, and 
restore forested landscapes. Contracted services for fuels reduction 
provides jobs, as do the forest products and woody biomass utilization 
activities that result from fuels reduction and removal.
    Our budget request for fiscal year 2014, taking the Suppression and 
FLAME line items together, fully covers the 10-year rolling average of 
annual amounts spent on suppression. Taken together with the 
Preparedness line item, our budget request reflects our emphasis on 
assessing strategic risks and improving operational decisionmaking for 
responding to wildland fires, including using fire, where appropriate, 
for resource benefits. Our efforts are expected to result in more 
effective and efficient use of Forest Service resources as well as the 
resources of our partners.
    Airtankers are a critical part of an appropriate response to 
wildfire, but USFS's fleet of large airtankers is old, with an average 
age of more than 50 years. The cost of maintaining them is growing, as 
are the risks associated with using them. USFS is implementing a Large 
Airtanker Modernization Strategy to replace our aging fleet with next-
generation airtankers. Our fiscal year 2014 budget request includes $50 
million to pay for the increased costs of modernizing the firefighting 
airtanker fleet. This is in addition to the $24 million requested in 
the fiscal year 2013 budget for a total of $74 million proposed over 
the last 2 years to further enhance the agency's ability to fight 
wildland fire.
                              cost savings
    Since 2011, USFS has conducted more than a thousand postfire 
assessments in areas where wildfires burned into previously treated 
sites. In 94 percent of the cases, our fuels and forest health 
treatments were determined to have changed fire behavior and/or helped 
firefighters control the fire.
    The Forest Service is also taking steps in other areas to cut our 
operating costs. For example:
  --Taking advantage of new technologies, we have streamlined and 
        centralized our financial, information technology, and human 
        resources operations to gain efficiencies and reduce costs. We 
        will continue to work together with other USDA agencies under 
        the Blueprint for Stronger Services to develop strategies for 
        key business areas to provide efficiencies.
  --For the same reasons, we have integrated work across our deputy 
        areas for National Forest System, State and Private Forestry, 
        and Research and Development. For example, all three deputy 
        areas have collaborated to develop the Southern Forest Futures 
        project--the first comprehensive analysis of the future of 
        Southern forests over the next 50 years.
  --In fiscal year 2012, we began implementing a new Planning Rule that 
        will reduce the length of time it takes to revise management 
        plans, saving costs. We are also saving costs by streamlining 
        our environmental review process under the National 
        Environmental Policy Act.
  --We are implementing measures to achieve $100 million in cost pool 
        savings in fiscal year 2013 and fiscal year 2014 combined.
  --We have adopted new public-private partnership strategies for 
        leveraging restoration funding. For example, over 10 years the 
        Collaborative Forest Landscape Restoration Program is expected 
        to leverage $152.3 million in partner funding, about 62 cents 
        for every Federal dollar spent.
  --We also signed an agreement to use municipal funds to restore fire-
        damaged national forest land in the municipal watershed of 
        Denver, Colorado. Over 5 years, Denver Water is matching the 
        Forest Service's own $16.5 million investment in watershed 
        restoration. We have signed similar agreements with Santa Fe, 
        New Mexico, and with other cities on the Front Range in 
        Colorado, including Aurora and Colorado Springs.
  --We are proposing a number of changes in our budget line items for 
        fiscal year 2014 to better integrate accomplishments, to 
        increase efficiencies in administration, and to make our 
        program delivery more transparent. For example, combing the 
        State and Volunteer Fire Assistance programs under Wildland 
        Fire Management will improve program management, reduce 
        administrative complexity, and will assist with improved 
        performance management.
  --In accordance with sustainability and efficiency mandates, we are 
        working to reduce our environmental footprint. We are acquiring 
        more energy-efficient vehicles and using the latest 
        technologies to reduce our greenhouse gas emissions and cut our 
        electricity and natural gas costs at facilities.
                             future outlook
    Our budget request focuses accordingly on America's highest 
priorities for restoring ecosystems, strengthening communities and 
providing jobs, and managing wildland fire. We are developing a kind of 
land and resource management that efficiently and effectively addresses 
the growing extent and magnitude of the challenges we face, as well as 
the mix of values and benefits that Americans expect from their forests 
and grasslands. We will continue to lead the way in improving our 
administrative operations for greater efficiency and effectiveness in 
mission delivery. Our research will continue to solve complex problems 
by creating innovative science and technology for the protection, 
sustainable management, and use of all forests, both public and 
private, for the benefit of the American people. Moreover, we are 
working ever more effectively to optimize our response to cross-cutting 
issues by integrating our programs and activities.
    The key to future success is to work through partnerships and 
collaboration. Our budget priorities highlight the need to strengthen 
service through cooperation, collaboration, and public-private 
partnerships that leverage our investments to reach shared goals. 
Through this approach, we can accomplish more work while also providing 
more benefits for all Americans, for the sake of generations to come. 
This concludes my testimony, Mr. Chairman. I would be happy to answer 
any questions that you or the subcommittee members have for me.

    Senator Reed. Thank you very much, Chief.
    Senator Udall has joined us. Tom, we've offered everybody a 
chance to say a minute or so if you want to make a comment.
    Senator Udall. I first just want to wish our ranking member 
happy birthday. I know she was just out in the hall. Her two 
sons were calling her from Alaska. They were out on a boat. And 
so we're very happy that she's here with us today.

                          SECURE RURAL SCHOOLS

    And just briefly just to mention, Chief, Secure Rural 
Schools. I know Senator Murkowski is probably going to focus on 
this, too. But I'm just very worried about the funding in our 
rural communities. And as you realize, in the Southwest we're 
concerned about the state of the environment, the ecosystems, 
and what's happening with those schools.
    I think you've seen a number of letters from Governors and 
many participant State land commissioners, and others trying to 
urge you to find a way, and let's try to make sure that in our 
rural counties we're able to keep the schools there.
    So with that, thank you very much, and really appreciate 
being here today.
    Senator Reed. Thank you, Senator.

                        WILDLAND FIRE MANAGEMENT

    All right. Chief, as we mentioned, the fire budget seems to 
drive everything that you do or don't do. At this point, can 
you give us sort of a sense of, will we have another record 
fire year? We've already had some activity in southern 
California. Should we be anticipating another year? And which 
leads to the question of, if every year is a record year, then 
we've got to sort of recalibrate and think of different ways to 
fund these programs.
    Mr. Tidwell. Mr. Chairman, we've been fortunate to have a 
slow start to this fire season because of the moisture we're 
receiving in the Eastern part of the country. Our predictive 
services once again show that we are set up to have another 
very active fire season, especially throughout the West, 
California, Oregon, and Washington then moving into Idaho and 
Montana.
    So based on those predictions, we're anticipating a fire 
season similar to last year's.
    Senator Reed. Which is a significant cost to the 
Government, and we could in fact run over the program's 
budgeted allocation. Then again, to get into that situation, 
we'll need extra money?
    Mr. Tidwell. That's correct. Unless we are fortunate to 
have just a very light fire season this year, even with a 
moderate fire season, the expenses will exceed what we 
currently have in the budget for this year.
    Senator Reed. Well, again, I think both the ranking members 
are concerned, and we have to come up with a mechanism. In the 
past, as I indicated, there was emergency funding available to 
cover true emergencies like this. We have to be thoughtful and 
creative. And we'll be working with you on that.

                               AIRTANKERS

    One of the major capital programs you have, obviously, is 
your air fleet. You are now starting the next generation of 
tankers in terms of your making them available. Also, in the 
National Defense Authorization Act, the Air Force was given 
permission to transfer seven C-27Js to you.
    Can you give us an overview of where things stand with 
respect to the aviation fleet? Will you have adequate aircraft 
this fire season? Also, longer-term plans in terms of the 
fleet, including your acceptance or rejection of the Air Force 
aircraft.
    Mr. Tidwell. We will have an adequate airtanker fleet this 
year, anticipating between 24 and 26 planes will be available. 
We currently have nine aircraft under what we call our legacy 
aircraft, which is seven P2s, plus two BAE-14As that are 
currently on contract.
    We are in the process of awarding contracts for seven more 
aircraft, what we call our next-generation, which is the 
faster, the planes that we're trying to move forward to carry 
larger payloads. In addition to that, we continue to work with 
the Air Force and Air Force Reserve to make sure that the 
modular airborne firefighting system (MAFFS) units, the C-130Js 
and Hs are available again this year as a backup. We've also 
taken steps to be able to work with Alaska and Canada to bring 
down their Convair 580s if we need those aircraft.
    So based on everything we're moving forward with this year, 
I feel confident we will have a set of aircraft that we can 
respond.
    In addition, we are anxious to see what the Air Force, the 
decision that they make, if the C-27Js are surplused and they 
become available. We would definitely like to have seven more 
of those aircraft to be part of our overall fleet. They would 
be Government owned, but contractor operated. We're moving 
forward to actually look at what it would take for our MAFFS 
units and modify those so that they can fit into the C-27Js so 
if those planes become available we'll be able to move as 
quickly as we can to build those MAFFS units for those C-27Js.
    Senator Reed. Just two quick follow-up questions in this 
regard. One is, the next-generation contracting process is 
still not completed. Are you confident that you'll have these 
aircraft under contract and useful this fire season?
    Mr. Tidwell. Mr. Chairman, we're working through the 
process of the contract for the next generation. We have 
received a protest, and we will work through that protest. I do 
have the authority to override the protest. As we go through 
the process, I'll make that determination to ensure we have the 
aircraft we need to be able to respond to fires this year.
    Senator Reed. Let me ask again a related question. And that 
is that the next-generation funding level, in last year's 
budget it was $24 million. In this year's budget, it's $50 
million. But that begs the question, What's the overall amount 
of money that you feel you have to commit to get this next 
generation of aircraft in service?
    And then with respect to the C-27J, have the costs of 
modifications been built into any budget yet? Because I would 
presume that's not going to be a trivial cost, at least 
initially.
    Mr. Tidwell. Mr. Chairman, that $50 million that we have 
requested would help offset the additional cost for the next-
generation aircraft, plus the additional cost for the legacy 
aircraft. The legacy aircraft with the new contract, the 
expenses have gone up, as expected. It also would help us deal 
with the cancellation charges that we have to have set up in 
our budget.
    As far as the C-27Js, if those become available, we would 
probably then use part of this $50 million to be able to do the 
work we'd have to do on those to be able to fly with our 
mission. We estimate for the C-27Js, it would cost about $3 
million per aircraft to build the MAFFS units and then to make 
some changes on that aircraft to make them usable for our 
mission and take some of the military equipment, some of the 
armor, off of those aircraft that's no longer needed for our 
mission.
    Senator Reed. Thank you, Chief.
    Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.

                          SECURE RURAL SCHOOLS

    Chief, let's talk a little bit about where we are with 
Secure Rural Schools. I indicated that as far as I know, the 
Governor has not yet received a response to his letter. I 
received your response on Monday the 20th. And in your 
response, you provide the agency's rationale for why you 
believe the sequester applies to the Secure Rural Schools 
payments.
    But putting aside the legal arguments, the letter indicates 
that you made these payments in January, but the sequester was 
going to be the law of the land on March 1, or you certainly 
should have had every reason to anticipate that it would be.
    Did you analyze the impact of whether or not the sequester 
would apply to these payments before you sent them out? I'm 
having a real difficult time trying to just justify how 
communities that have for decades now received these payments 
from the Government now receive the payment, and then they get 
the letter in the mail saying, ``We want it back.'' It just 
doesn't work.
    So what kind of consideration was made before you sent out 
these payments? We know that the Department of the Interior 
withheld funds prior to sending out their Secure Rural Schools 
payments. They did it one way; you did it another. What was the 
rationale there?
    Mr. Tidwell. Senator, my rationale was based on two things. 
The first is at that time, and it was actually in December when 
we made the decision to issue those payments, I thought at that 
time there would be some options that would be found for the 
sequester and it wouldn't happen.
    Second of all, I was still having ongoing discussions with 
our legal staff as to if the sequester would apply to the 
Secure Rural Schools payments. I personally had some questions 
on that. After a couple of meetings, the attorneys convinced me 
that they would apply.
    The other thing that drove that decision is what you've 
mentioned. I know these communities, these counties, they rely 
on these funds for their schools and roads programs. So I had 
to make a call either to hold that money back or send it out. 
Based on my personal experience living in those communities, I 
made the call to go ahead and send it out, with an 
understanding also, with the title II funds that many of the 
States receive, which are funds that actually just go to 
project work on the National Forest, that we'd be able to use 
that money to be able to offset the sequestered amounts so that 
there wouldn't be an impact to community schools and roads 
programs.
    That's the option that we've provided the States, to do 
what we can to minimize the impact on schools and roads, 
realizing that those title II funds, they're also important, 
because it creates jobs, it gets work done.
    So, Senator, I regret the situation that we're in. When I 
think back through it, probably it would have been better to 
hold back maybe 5 percent at the very start instead of being in 
a situation where most of the States have the option to use 
title II or take it out of their schools and roads fund. But 
that's where we are. I regret that we've had to do this.
    Senator Murkowski. If the State of Alaska and Alabama and 
Wyoming refuse to pay, as the Governor's letter certainly 
suggests, I mean, what do you do? Are you going to, do you sue 
them for it? In your letter, it looks to me like you're kind of 
taking late fees and penalties off the table, which is a darn 
good thing, because you'd really have a fight on your hands 
there.
    Mr. Tidwell. I understand.
    Senator Murkowski. Your words are a little bit wiggly here 
in terms of being able to waive costs where applicable. I would 
certainly hope that at a bare minimum there is no effort to 
collect late fees and penalties.
    And quite honestly, trying to sue the States, too, to 
collect the monies I don't think is a good option either. So 
again, we need to figure out how, you need to figure out, 
working with us, how we deal with this.
    Let me ask a more, perhaps even more local issue than 
Secure Rural Schools. In the energy committee, when we visited 
last time, we had a lot of discussion about the USFS mandate of 
multiple use. We all recognize that it's all multiple use. And 
in that hearing, you suggested that some of what we need to 
look to in the Tongass is the recreational activities, the 
tourism activities.

                                TOURISM

    And I agree. And it wasn't more than a week later from that 
hearing that I was in Ketchikan and sat down with a group of 
about a dozen air taxi operators that are fit to be tied. 
Because here they are trying to provide for a level of tourism 
within the Misty Fjords and Traitors Cove. They take their 
little floatplanes. Everyone wants to see the wilderness area. 
They get, the air taxi operators get permits to just land in 
these lakes, just land. Not go on the land, but just land.
    And what the air taxi operators are telling me is that 
their permits coming from the USFS are being cut by some as 
little as 20 percent, some as much as 40 to 45 percent. One air 
taxi company has seen its permits cut from 300 to 165, another 
one from 500 to 298. When you're to provide for a level of 
tourism, when you can't take the tourists who are coming off 
the cruise ship out to do a quick floatplane trip, land in one 
of the lakes in Misty Fjords or Traitors Cove, it's kind of 
tough.
    So I called Forrest Cole and talked with him. He was going 
to be meeting with everybody. And that's to be applauded. But I 
guess I'm trying to figure out, you're telling me on the one 
hand, ``Tell the people who live in the Tongass to move toward 
tourism, utilize the forest in that way.'' And then your agency 
is limiting, dramatically limiting their ability to provide for 
those tourism opportunities.
    So can you explain to me what it is that we're going to do 
in that particular situation in one community in Southeast?
    Mr. Tidwell. Well, Senator, I don't have all the details 
into the forest decision, but it's my understanding that they 
reduced some of the flights based on the concern from the 
public with the amount of noise that was created from the 
floatplanes, and at the same time increased the number of 
permits into Traitors Cove.
    I will follow up with the forest and find out more 
specifics as to why the decision was being made, and then also 
what they're doing to actually mitigate. If it's something as 
just the noise, is there a way that they could land in a 
different place, maybe at a different time, but other ways to 
be able to deal with the concern from the public?
    [The information follows:]
            Air Taxi Service on the Tongass National Forest
    Due to concerns that limiting the amount and location of outfitter 
and guide use may not adequately provide for industry stability and 
growth, the Record of Decision for the Ketchikan-Misty Fjords Outfitter 
and Guide Management Plan allocated 53,997 service days annually to 
outfitters and guides. The highest actual use reported by outfitters 
and guides between 2005 and 2009 was 24,245 service days. Thus, the 
decision allows outfitter and guide use across the Ketchikan-Misty 
Fjords District to increase over 100 percent from the reported highest 
use levels.
    The Forest Service also met with commercial air service providers 
on May 6, 2013 in Ketchikan, Alaska to discuss the issues you have 
raised, to explain what was in the actual decision, and to discuss the 
new permit allocations. At the conclusion of the meeting, the Forest 
Service committed to meet again with the air service providers at the 
end of the season to review actual use versus permitted use. The 
Ketchikan-Misty Outfitter and Guide Management Plan includes an 
adaptive management strategy to allow changes to be made if experience 
shows they are needed.
    Accordingly, by doubling the outfitter guide use across the 
District, and by incorporating a flexible adaptive management strategy 
to incorporate changes as needed in the future, the Ketchikan-Misty 
Fjords Outfitter and Guide Management Plan will facilitate growth of 
the industry while maintaining quality visitor experiences.
    The Forest Service does not have reliable information about 
unguided visitor use numbers for Misty Fjords. Most unguided visitors 
access Misty Fjords National Monument Wilderness via motorized boat or 
sea kayak. Many of these visits are by local residents via privately 
owned boats. There is no practical way to know how many such visits are 
made.
    The Forest Service has always been concerned about the economic 
health of rural communities throughout Southeast Alaska. The Alaska 
Region has made significant investment in a wide variety of resource 
areas to expand business opportunities across the Tongass. In this 
particular case, the Tongass National Forest limited the amount of 
outfitter guide use in one area to maintain its wilderness character 
and quality visitor experiences, while allowing for growth in other 
areas of the Ketchikan Misty Ranger District.

    Senator Murkowski. Well, this would be one opportunity for 
you to view for yourself. When you live in a place like 
Ketchikan that is on the water, you've got a lot of 
floatplanes. That's just the nature of the business. And how we 
provide for recreational tourism operations in a place like the 
Tongass, you've got to be flying.
    Mr. Tidwell. Yes.
    Senator Murkowski. So, let's work on this.
    Senator Reed. Thank you very much.
    We will have a second round, just for the information of 
the members. My list has Senator Merkley as the first to 
arrive.

                        STEWARDSHIP CONTRACTING

    Senator Merkley. Thank you very much, Mr. Chair. And thank 
you for your testimony.
    I first wanted to ask about, we have a mill in John Day 
that has been at high risk of closing. And the regional 
forester has been working very hard to lay out a 10-year 
stewardship contract to ensure accessible supplies so that 
essentially the infrastructure in the plant can be renovated, 
be competitive, and that the mill knows it's going to be able 
to access wood for long enough to make that work. Otherwise, 
the mill shuts down. And we were this close, and I'm afraid 
we're this close today.
    Last week, the regional forester got a letter from Leslie 
Weldon. It said, ``We can't figure it out. We can't do it.'' It 
notes that we'll work to design a new contracting structure. My 
concern is that it's been 6 months in which a new contracting 
structure could have been identified. We could be wrestling 
with that now if it didn't take legal changes, which it doesn't 
appear it will take, from this letter. It could be in place 
now.
    We don't want to lose this mill. Last month we lost the 
mill in Cave Junction, the Rough & Ready mill. It is the heart 
of the economy in that small town. This is the heart of the 
economy in John Day.
    How can--what can we do to create the sense of urgency 
about designing the necessary structures so we don't lose this 
mill?
    Mr. Tidwell. Senator, of course we share your concern about 
that mill for the community, the jobs, but also to have the 
facility to be able to do the restoration work on the National 
Forest.
    Since our staff sent that letter out, I personally have 
taken another look at this to see if there isn't some other 
options that we can do prior to getting stewardship contracting 
reauthorized. I'm optimistic that there's a different approach 
that we can take, that we're working currently with the region 
and forest on, to be able to move forward with a 10-year 
stewardship contract.
    I have to stress, though, that without reauthorization of 
stewardship contracting, it is really--well, it will be the end 
of the program, the program that has provided a lot of 
certainty, that gives us this kind of flexibility to do these 
long-term contracts. And it's one of the reasons why it becomes 
one of our highest priorities this year to be able to get that 
reauthorized.
    So I will get back with you as soon as we have finalized 
our approach that we're going to take. But I'm confident that 
we'll be able to find a different way to be able to move 
forward.
    [The information follows:]
                          Stewardship Contract
    The Malheur National Forest is preparing a 10-year Integrated 
Resource Service Contract (IRSC), Indefinite Delivery, and Indefinite 
Quantity (IDIQ) to provide timber volume and service work. This 
contract should be available for companies to bid on this summer. The 
contract will provide a major share of the Malheur's program for the 
next 10 years.

    Senator Merkley. Thank you. And are you satisfied with the 
stewardship contracting reauthorization as structured in the 
Senate farm bill?
    Mr. Tidwell. Yes.
    Senator Merkley. Okay. So we anticipate getting that done, 
and hopefully, we'll get it arranged through the House.
    Mr. Tidwell. Thank you.
    Senator Merkley. And I appreciate that you've taken special 
attention, personal attention to this issue.
    We have other situations where 10-year contracts will 
either make or break whether or not there is a biomass plant 
established, which means the difference between basically 
utilizing some of the forest woody mass versus having it burned 
on the floor of the forest.
    It makes a lot of sense to try to make these things work, 
but there has to be a framework in what has been a very 
uncertain world that provides much more certainty. I know you 
understand. But thank you for your personal attention on it.

                    LAND AND WATER CONSERVATION FUND

    I wanted to turn to the LWCF and Forest Legacy. And I 
really appreciate the administration's support for the LWCF. 
And I was especially pleased to see the top-ranked project in 
the country was Gilchrist Forest in Oregon.
    We were anticipating that there was a chance that the 
Gilchrist Forest and the Blue Mountains Forest Legacy could be 
funded in fiscal year 2013. And I think we're still waiting for 
announcements. I think we thought those were coming out in 
April. Are those on the--are we likely to hear on some of these 
projects fairly soon?
    Mr. Tidwell. Yes. We should be able to get to you, I think, 
within the next week.
    [The information follows:]
                      LWCF Gilchrist Forest Update
    Currently the project is held by The Conservation Fund. This was 
done at the request of the State and is in compliance with Forest 
Service Program Implementation Guidelines. The project will add nearly 
26,000 acres to the 42,000 acre Gilchrist State Forest. The Gilchrist 
State Forest is the newest State forest in Oregon and was acquired with 
$15 million of State funding. This project is important not only 
because of its contribution to the local forest products industry, but 
also for recreation and preventing conversion from open space, which 
will reduce fire risk and suppression costs. The State goal is to close 
on the Gilchrist land acquisition in this calendar year, though that 
may be closer to early in the following year to allow for the required 
due diligence actions for acquisitions funded by the Forest Legacy 
Program.

    Senator Merkley. Thank you. And I do appreciate the 
advocacy for funding. This has been a key, key set of programs.

                            HAZARDOUS FUELS

    I wanted to turn to the issue of hazardous fuels reduction. 
The frustration of fighting these forests on the back end is 
just enormous. And after the fires last summer, everyone, 
whether it be inside the USFS, with the private landowners, 
with our local electeds, the scientists said, ``We've got to do 
more on the front end. We've interrupted the natural fires of 
the past that were smaller fires that cleaned out this 
debris.''
    And so it comes as a shock to us to see that that funding 
was cut by, I think, $116 million. I fought hard for us to get 
funding to replace the surplus funds that were going to be 
diverted into fighting the fires, which I realize the huge 
challenge; you've got to fight fires when they occur. But how 
do we responsibly address forest health if we can't have a 
robust fuels reduction program on the front end?
    Mr. Tidwell. Well, Senator, that reduction in the hazardous 
fuels funding in our request is just part of the difficult 
tradeoffs we have to make. When we have to continue to put so 
much more of our budget into suppression and also in 
preparedness, there has to be changes made in reductions.
    With the funding that we are requesting, we'll focus on the 
wildland-urban interface with the hazardous fuels reduction. 
And then in the backcountry, or outside of, away from the 
communities, when we do our restoration work, when we do our 
timber harvest, our timber thinning, we're also reducing 
hazardous fuels. And so we'll be accomplishing that hazardous 
fuels reduction through our integrated resource restoration 
work, through our timber sales.
    But there's just no question with that level of reduction, 
there's going to be less fuels work done, there's going to be 
less hazardous fuels accomplished.
    Senator Merkley. Well, I'll keep talking with you about it, 
because I realize there's no easy answer. But with the changing 
or the more extensive droughts, we're going to see that this 
problem of accumulated fuels becomes of more and more dreaded 
effect. And somehow we have to figure it out. Thank you.
    Senator Reed. Thank you very much.
    Senator Tester.
    Senator Tester. Thank you, Mr. Chairman. Yeah, we've got to 
break the cycle. We're spending money on fighting fires when it 
would be much better to cut some wood and get us a permanent 
supply. We'll get into forest jobs maybe later.

                               AIRTANKERS

    First I want to talk about airtankers, next-generation 
airtankers. As we well know, there's an intent to award 
contracts for seven of them. Fire season has already started in 
Montana and across the West, quite frankly. And while my staff 
was initially told that these planes would be ready to fly, I'm 
talking about the ones that were the seven that were 
contracted, awards were given. Well, my staff was initially 
told that these would be ready to fly this fire season.
    We've received conflicting information from--even before 
the protests. And so I understand there might be some actions 
you can take to resolve this. But I have larger concerns 
regarding how these competitions are being run. You and I have 
known each other for a long time. You've been up front with me. 
I'm going to be up front with you.
    After two protested competitions, I have serious questions 
as to whether the USFS is getting the best value for the 
dollar. So, Chief, can you tell me when these planes will be 
ready? I'm talking about the seven that the contracts have been 
awarded for.
    Mr. Tidwell. Senator, once we work through the protests and 
we actually award the contracts, it's our expectation that 
those contractors that have the new contract awards will have 
their planes ready to go within 60 days for testing.
    Senator Tester. Okay, how about, that's for testing. Does 
that mean--okay, 60 days. We're middle of May, June, July. I 
hope we're not, but chances are, you know well, there's going 
to be a lot of smoke in here by the middle of July. Will the 
planes, they're ready for testing in 2 months. Are they going 
to be ready to fly in 2 months?
    Mr. Tidwell. Well, it's our expectation that after they 
complete the tests, they will be able to fly. The aircraft that 
are being considered, they are all FAA certified already. So 
there isn't a problem we have to deal with. So it's just to get 
their tanking systems and then to be able to meet our 
performance tests. And they'll be able to fly.
    Senator Tester. Yes, thank you, Chief. Can you tell me if 
that was taken into consideration as far as the contracting, 
whether--how quickly the planes could be up in the air? Because 
quite frankly, I really hate to say this, but you know very 
well we'll either be flooded out in June or there will be fires 
in June. There's going to be no happy medium here.
    Mr. Tidwell. It was factored into the decision on which 
contracts were awarded or would be awarded as to their 
capability based on what they provided, their capability to be 
able to have the aircraft that would perform to our standards 
and to be able to be operational within 60 days. There's no 
guarantee that they will be, but this is the process that we 
have to go through.
    It's why we are also setting up contingency plans to bring 
the 580s down from Canada and Alaska if we need to, and then of 
course to have the MAFFS units on ready.
    Senator Tester. Look. You're probably frustrated with it, 
too. I'm a little frustrated with this whole thing because, 
quite frankly, I've seen what's happened in Montana's forests 
for a long time now. I live in eastern Montana, 200-300 miles 
from where the forest is. And we are covered in smoke most 
summers.
    And it goes to a bigger issue that Senator Merkley was 
talking about. But if we're going to fight these fires and if 
you want to use next-generation as being the plane that's 
really going to get the job done much more efficiently and cost 
effectively, I honest to goodness can't figure out why the 
award was made how it was. That's just a dirt farmer talking. 
Because quite frankly, we haven't been able to get an answer 
from your staff as to when these planes are going to be up in 
the air, and I'm not sure I've gotten one from you as to 
whether these planes can be up in the air in 60 days.
    Mr. Tidwell. Well, Senator, that's the requirement in the 
contract, that once the contract is awarded, is that they need 
to be available to test within 60 days. That's the contract----
    Senator Tester. But if they don't pass the test, what 
happens?
    Mr. Tidwell. If they don't pass the test, then they don't 
fly. So those aircraft are not available. We have to then go 
back to the aircraft that are available, plus we can use the 
580s.
    Senator Tester. The Canadians.
    Mr. Tidwell. Plus we can use the call-when-needed.
    Senator Tester. Okay.
    Mr. Tidwell. I want to point out this is the problem.
    Senator Tester. Yes.
    Mr. Tidwell. This is one of the reasons why we've been 
asking for the C-27Js. So we at least have part of our fleet 
that is Government owned so that there is some guarantee that 
we're going to have aircraft.
    Senator Tester. Yes.
    Mr. Tidwell. So this just could have been an ongoing 
problem with these contracted aircraft.
    Senator Tester. My problem is not with the contracted 
aircraft per se. And I'm not for privatizing Government. But my 
problem is that there were better options on the table to be 
taken up by the Forest Service, from my perspective. And they 
didn't do it. And you know exactly what I'm saying in all that.
    Mr. Tidwell. We have a set of procedures that we follow 
when we award contracts. I can guarantee you there is a high 
level of oversight that is provided. Through the process of 
being able to protest, on another additional level of review, 
and so that's the process that we have to follow.
    Because of that, our folks go to great lengths to be able 
to make sure that we are making the right decision based on 
what the contractors provided us. We have to make our best 
decision.
    Senator Tester. I understand that. And I know there's going 
to be a second round. I would just say that, and I know you 
can't do anything about it because the contract has already 
been awarded--well, I guess you can. But the bottom line is 
that we need to get the biggest bang for the buck. And I'm not 
sure that, because of the fact that we don't know if these 
planes are going to be operational or not, whether we got the 
bang for the buck.
    I appreciate your service, and I don't mean to be critical. 
But I'll stick around for the second round.
    Thank you, Mr. Chairman.
    Senator Reed. Thank you very much, Senator.
    Senator Begich.
    Senator Begich. Thank you very much, Chief, for being here. 
Let me just ask a quick question on Senator Tester's issue 
there. The protest has been filed, right? How long before 
that's resolved?
    Mr. Tidwell. I'm hoping that the attorneys are actually 
working today to begin the discussions to address that protest.
    Senator Begich. So, I don't mean to interrupt you. But so 
they've started the review, but the protest has an amount of 
time that the individual has, correct?
    Mr. Tidwell. Yes.
    Senator Begich. What is that time?
    Mr. Tidwell. Well, they've submitted the protest. The next 
step is for us to provide the information that both sides are 
requesting. Then eventually, it would go in front of, in this 
case, the judge.
    In the meantime, I have to look at where we're going to be, 
how much it's going to take, and make the decision whether to 
override the protest or not.
    Senator Begich. Got you.
    Mr. Tidwell. That's one of the decisions that I'm going to 
have to make here probably within the next week or so.
    Senator Begich. That's the question I was trying to get to. 
So you have about a 2-week window that you'll determine if the 
protest, in your mind, is valid? Probably not the right word, 
but that there is full merit to it? But also, you'll weigh the 
fire issue that you have to deal with this summer; is that 
correct?
    Mr. Tidwell. That's correct. I have the authority based on 
the emergency situations of having airtankers to be able to 
override the protest.
    Senator Begich. Very good. I just wanted to add that little 
context to the schedule there.

                             ROADLESS RULE

    I want to talk to you about the Roadless Rule, which of 
course you know that the Alaska delegation is totally opposed 
to on many fronts. But, and I want to say your Alaska region 
has done a good job working with us in regards to mining issues 
in trying to make sure that some of those mines can continue to 
move forward.
    We've been told and assured that the Federal Power Act will 
trump the Roadless Rule on development. So let me go to one 
area specifically. And that's the area of hydroelectric power. 
As you know, in Southeast, it is what operates.
    Mr. Tidwell. Yes.
    Senator Begich. And also important for some projects that 
are moving forward. We have heard from individual operators, as 
well as the industry group, that it's not clear how this will 
work. For example, will they be forced to use helicopter 
maintenance as an issue versus accessing it, obviously, through 
roads? Which of course, just adds huge costs to the ability to 
move power.
    I guess what I'm looking for, because there's so much 
uncertainty here, will you commit to meet with the industry 
groups to get this clarity on how hydropower can be utilized 
within the roadless areas? Two, how can we maintain a 
constructed, meaning the power itself and transmission lines 
and generation? Is that--because we keep hearing they're just 
not sure. And of course, if you start going to helicopter 
maintenance, very expensive.
    Is that something you would commit to to make sure we can 
move forward in trying to get this figured out?
    Mr. Tidwell. Senator, I will make that commitment to be 
able to bring the right folks together to have a clearer 
understanding about what we need to do to move forward to make 
sure that the proponents for these hydroelectric facilities 
understand how they're going to need to operate. So make it 
very clear. So I will make that commitment to bring the right 
people together to clarify this.
    Senator Begich. Very good. And on generation and on 
transmission?
    Mr. Tidwell. Yes.
    Senator Begich. Okay. Because, obviously, generation may be 
a piece, you know, resolvable. But if you have lines that you 
can't get to and it costs a lot of money, the project may not 
happen. And if you could give us feedback as you move forward 
on that, it would be great.

                               AIRTANKERS

    I want to just quickly follow up on the C-27s that were 
brought up by the chairman. And that is, let's assume for a 
moment DoD and the authorizing bill does it. They say they got 
seven surplus. They say, ``Here you go.'' Are you willing to 
take those, and/or are you willing--tell me what your step will 
be if those are presented to you or available to you. Are you 
willing to take those? And if the answer is yes, do you have 
within your budget resources to do the things that the chairman 
asked for? One is retrofitted in, but also to maintain them and 
operate them.
    I understand they're going to be contracted, operational, 
but owned by the feds. But can you tell me?
    Mr. Tidwell. Yes. If those seven aircraft are made 
available, we will receive those aircraft, and we'd expect that 
the earliest that would occur is toward the end of this fiscal 
year, probably in September at the earliest. Our budget request 
for fiscal year 2014 would provide us with the additional 
resources to move forward to modify those aircraft so they'd be 
available for our mission.

                          SECURE RURAL SCHOOLS

    Senator Begich. Fantastic. Let me also just associate my 
comments with Senator Murkowski in regard to the secure school 
funding issue, obviously a big concern there. But I wanted to 
get to a higher level.
    I mean, your position where you're at, and I kind of heard 
it through some of your testimony that, I mean, you're just 
getting squeezed from all ends. And you're just trying to 
figure out where to reduce the budget, and this is one of the 
areas that you looked at. And now you're kind of rethinking, 
maybe it wasn't the wisest thing to do to do it all at that 
point, giving them all the money, then trying to claw it back.
    Let's assume for a moment the sequester continues. Because 
it's a 10-year deal. It's not a 1-year deal. Are you going to 
look at this in how are you going to allow or transfer that 
money to schools and hold back any next cycle? Or what's your 
thinking now that you've gone through this experience that 
still is not over yet?
    Mr. Tidwell. The 25 percent funds will go out as collected 
for next year. If there is continuation on extension of Secure 
Rural Schools payments, we will know what we're up against 
right at the start so it will be the amount of money that will 
be made available for schools and roads so that we will not 
have this issue ever again.
    Senator Begich. Okay. And are you starting to--I'm 
assuming, I know you don't want to do it too early because 
school is still in session this session. But as you move toward 
next session, will you be working with the affected schools' 
districts to make sure they understand, if we don't resolve the 
sequester, what the impacts are going to be?
    Mr. Tidwell. We will be working through the States to be 
able to inform them what we'd expect under the 25 percent fund 
if there isn't an extension of Secure Rural Schools. If there 
is an extension that is made available, then we will also work 
with the States to share that information.

                           TIMBER MANAGEMENT

    Senator Begich. Great. Last question. Just for the record, 
maybe, if you could get to me, I'd be interested in maybe the 
last 10 or 15 years on a chart that shows on timber sales the 
amount of time it takes you from the initial stage to actual in 
production. I want to kind of see what it looks like over the 
last 10-15 years. Has it improved? Has it decreased? And if you 
wouldn't mind putting in there what your staffing levels and 
resources have been allocated to that effort corresponding to 
those years. Does that make sense?
    Mr. Tidwell. Yes.
    Senator Begich. You see where I'm driving to. I just want 
to kind of see what the connection is if there is one.
    Mr. Tidwell. Yes, Senator, we can provide you that. It's 
the information that supports what I've already shared about 
the 49 percent reduction in staffing over the last 14 years, 
but at the same time a reduction in our unit costs by 23 
percent. We'll also show basically the average amount of time 
it takes from when we initiate a project to when we actually 
sell the contract.
    [The information follows:]
  History of Timber Sales and Timeframes From Beginning to Production
    The following are estimated timeframes for the various parts of the 
timber sale preparation process. The first step (Gate 1) is developing 
a project proposal. This typically will take 1 week to 1 year depending 
on the size and complexity of the project. The next step (Gate 2) is 
project analysis and design. This second step is when NEPA analysis is 
completed. This is the longest timeframe and varies based on the size 
of the area and the complexity of the proposal; it can range from 6 
months to 2 plus years. This excludes the appeal and litigation 
processes if they occur. The third step (Gate 3) involves marking the 
areas on the ground, measurements, contract preparation, and appraisal. 
It varies from 3 months to 1\1/2\ years, depending on the size and 
complexity of the project. The sale package, bid opening and sale award 
(Gates 4, 5, and 6) vary from 2 months to 6 months. Altogether the 
process can range from 1 year on a very simple, small sale to 5 years 
for a large complex project. There is also variation in the timeframes 
in different regions of the country. Our perspective is that these time 
periods have not changed much, if at all, over the past decade.
    The history of timber sales for the past 15 years is provided in 
the table below.

                         [In million board feet]
------------------------------------------------------------------------
                  Year                    Volume Offered    Volume Sold
------------------------------------------------------------------------
1998....................................           3,415           2,955
1999....................................           2,300           2,200
2000....................................           1,714           1,745
2001....................................           2,015           1,534
2002....................................           1,785           1,621
2003....................................           2,070           1,638
2004....................................           2,467           2,164
2005....................................           2,531           2,400
2006....................................           2,639           2,863
2007....................................           2,731           2,499
2008....................................           2,830           2,484
2009....................................           2,508           2,227
2010....................................           2,671           2,592
2011....................................           2,579           2,533
2012....................................           2,616           2,644
2013 est \1\............................           2,800           2,800
2014 est \1\............................           2,380           2,380
------------------------------------------------------------------------
\1\ Sold value was estimate based on calculated 2012 unit value.

                          timber staff levels
    The table below shows staff levels for the years 1998 to 2012. 
These numbers include FTEs from the Forest Products budget line item 
and the Timber Salvage Sales and Cooperative Work Knutson-Vandenburg 
funds.

                       TIMBER PROGRAM STAFF LEVELS
------------------------------------------------------------------------
                        Fiscal Year                              FTE
------------------------------------------------------------------------
1998.......................................................        6,453
1999.......................................................        4,065
2000.......................................................        3,445
2001.......................................................        3,342
2002.......................................................        4,659
2003.......................................................        3,822
2004.......................................................        4,128
2005.......................................................        4,054
2006.......................................................        3,268
2007.......................................................        3,792
2008.......................................................        3,210
2009.......................................................        3,263
2010.......................................................        3,101
2011.......................................................        3,027
2012.......................................................        3,282
                                                            ------------
Percent change 1998 to 2012................................           49
------------------------------------------------------------------------


    Senator Begich. That would be great. I'd love to see that. 
I think the window is 10-year--I think you used 1998 as your 
start point in your testimony.
    Mr. Tidwell. Yes.
    Senator Begich. So maybe take it from that point, move 
forward.
    Mr. Tidwell. Okay.
    Senator Begich. Very good. Thank you very much. Thank you, 
Mr. Chairman.
    Senator Reed. Thank you, Senator.
    Senator Feinstein.
    Senator Feinstein. Thanks very much, Mr. Chairman. And 
welcome, Chief. It's good to see you again.

                               AIRTANKERS

    At an earlier hearing of the Energy and Water Development 
Subcommittee on Appropriations, David Hayes indicated that 
California was going to have its worst drought in history this 
year. In terms of what that means, it's one water and two fire. 
We won't have the water, and we will have the fire. And that 
presents a very real problem.
    I don't want to go into all the details which have been 
discussed of the holdup in contracts, of the contracting of the 
C-27s. But I want to express to you my view that this is life 
or death to California. If we have a number of lightning 
strikes, which we can have and have had 2,000 of an afternoon 
that started 1,000 wildfires, these tankers are critical.
    I also want to take this opportunity to invite you to 
attend a summit on Lake Tahoe, where three National Forests 
sort of converge, on August 19. This is a bi-State summit with 
Nevada, Senator Reid handles it this year, and California. We 
alternate years when we do the summit. And we have the regional 
foresters there, which are just great.
    I think it would be very helpful for you to come out and 
see the work that they have done. And it's one of the things 
that I try to get there every year to see the trails of burning 
that's gone on, the trails that are being cleared, and some of 
the foresting that's being done. So I want to extend that 
invitation to you personally, and also if you can, to say a few 
words at the summit.
    I am really concerned by fire and would like to just urge 
you to do your utmost to get rid of those contract problems and 
move those planes, because they are going to be just vital to 
the California fire areas.

                          QUINCY LIBRARY GROUP

    As you may know, many years ago, with Wally Herger in the 
House, I proposed legislation called the Quincy Library Group. 
And this was when environmentalists and lumber people and 
others up in the northern California area got together. And 
they went to the Quincy Library because it was the only place 
they couldn't yell at each other. And they forged a plan to be 
able to prudently forest some of the forests in that area, 
particularly to mitigate fire.
    The project's authority expired in September 2012. I can't 
do a bill to renew it because it's now an earmark. But what I 
want you to know, and hope, is that you continue your 
significant fuels treatment within the 1.5 million acres of 
forestlands covered by Quincy Library Group in the next few 
years.
    Now, you'll have reduced funding. And you'll have existing 
authorities. Can you tell me a little bit about what the Forest 
Service plans to do within that 1.5 million acres?
    Mr. Tidwell. Senator, we're going to continue to build on 
the good work that you started with Quincy Library Group. And 
out of that, we've also been able to release some of our 
scientific reports that also support that type of work to 
continue in the forest, which is helping to build more and more 
support for it. So we're looking at expanding that type of 
work.
    We do have the challenges with reduced funding. But by 
looking at larger areas than we have in the past, we're finding 
greater efficiencies by doing the analysis for hundreds of 
thousands of acres at a time versus those small projects, which 
is increasing the efficiency.
    Also with the programs we have going on there in the State, 
where there's the incentives for biomass, that's also going to 
be very helpful. We want to make sure that we can demonstrate 
that the work we're doing on the forest also supports what the 
State is doing.
    Senator Feinstein. Well, I'm a strong supporter of both of 
those. And if you need help, please call. I very much fear this 
next fire system. As you know, the Santa Anas blew in May, of 
all things. And that started a huge fire. So it's really fire, 
and urging you to keep an eye particularly on California in 
this regard. And anything I can do to help, please let me know. 
I want to help.
    If you can come to Tahoe, it will be on the Nevada side, on 
August 19. I think that would be very, very helpful. You've got 
a great team up there. And they work very hard. So it would, I 
think, be very welcome.
    I thank you, Mr. Chairman. That's it for me.
    Senator Reed. Thank you very much, Senator Feinstein.

                        WILDLAND FIRE MANAGEMENT

    You know, Chief, we've been going back and forth, I think, 
very productively. But certainly the critical issue of the fire 
season, the cost of fires, whether you're prepared or not, 
aviation, ground crews, et cetera, and then I think the ranking 
member and I are very concerned because, from what you've said, 
we're probably going to meet or exceed last year's very 
expensive fire operation, which takes away from discretionary 
spending.
    And one of the things that we will pursue, and we'd like 
your support in this pursuit, is that at some point we're going 
to have to declare emergencies for these fires. Is that a 
position that you would support?
    Mr. Tidwell. Yes, I would. We need to have a better 
solution than what we've had in the past when we do have these 
very active fire seasons that go way beyond the budget that's 
been prepared for it. So I would appreciate your support there.

                      LANDSCAPE SCALE RESTORATION

    Senator Reed. Well, thank you very much, Chief. You've made 
many proposals, and let me discuss one of them. This is the 
Landscape Scale Restoration Program, which is you're trying to 
reorganize programs. Can you tell us what you would like to 
accomplish with this proposal? And how States with 
predominantly State or privately owned, not National Forests, 
but State or privately owned forests, and Rhode Island is one 
of those States, can participate and will benefit from this 
program? It seems just on the surface to be directing resources 
more exclusively to the National Forests.
    Mr. Tidwell. Mr. Chairman, this proposal is kind of built 
off of the concept of the integrated resource restoration, but 
would allow our State foresters to be able to look at their 
landscapes, their mix of private land and State lands, and be 
able to determine what type of work needs to occur on that 
landscape, instead of being focused on individual programs 
within that landscape.
    So for States like yours, with their statewide plans that 
your State foresters put together, it actually supports that 
type of an approach, to be able to look at these larger 
landscapes, to be able to do all the work that needs to be done 
versus focus in on this program on this acre, another program 
on another acre.
    So we feel that for a State like Rhode Island, it will 
actually support the work that they've been doing. It will 
also, we believe, create some more efficiencies and increase 
the overall amount of work that can be done to be able to 
support our private land forests.

                INTEGRATED RESOURCE RESTORATION PROGRAM

    Senator Reed. Well, thank you, Chief. Another proposal is 
the Integrated Resource Restoration Program. We authorized and 
provided resources for a pilot program. I know you have the 
results for 2012. Now you want to go scale up nationally, even 
though it's a 3-year pilot. Can you share with us the results, 
the findings of the first year of the pilot? Presumably, that 
influenced you in your decision to seek a nationwide program.
    Mr. Tidwell. Mr. Chairman, first of all, thank you for the 
pilot authority. Our first-year results show that in almost 
every category, we met or exceeded the targets that were set 
up. The only area where we did not meet those targets was in 
our northern region when it came to biomass timber sale 
productions. That was driven by some litigation that occurred. 
That shortfall would have occurred with or without the 
integrated resource restoration.
    With the pilot, we recognize it's going to take 2 to 3 
years for us to be able to have the information to show you 
that this is a better way. We're committed to the pilot. I'll 
keep asking for the full authority just because based on my 
previous experiences, I think it's a better approach. We're 
going to focus on doing the pilot work and then be able to come 
in here 2 to 3 years from now and make a strong case as to why 
this is a better approach.

                            LAND ACQUISITION

    Senator Reed. Thank you, Chief. My final question is that 
the land acquisition component is about $57.9 million. That's 
an increase of $5.5 million. And I think we all support land 
acquisition. You indicated in your opening statement it's a 
very smart and efficient way to conduct your operations.
    But the bulk of the money is targeted to six to eight, six 
projects where I presume that there are nationwide sort of 
demands for these funds. And can you sort of explain the 
rationale of so tightly focusing these resources rather than 
using them in a more dispersed basis?
    Mr. Tidwell. Mr. Chairman, over the years we had taken the 
approach of working the highest priority projects across the 
country without ever looking at what actually needs to get done 
in certain parts of the country. So working with the Department 
of the Interior a couple of years ago, we took a step back to 
really look at some key landscapes in the country where, by 
working together, we can complete the acquisition that needs to 
be done and actually be able to say, ``Okay, we're completed 
there,'' and then be able to move on to other parts of the 
country.
    So it helps us to be able to focus not only the funds that 
we request, but also from the Department of the Interior to be 
able to accomplish the overall goals for acquisition in that 
part of the country. So it does require a larger investment in 
any 1 year in a certain part of the country. But by doing that, 
it will allow us to complete that work and then move on to the 
next higher priority.
    At the same time, we also have a list of what we call our 
core projects that we need to move forward with that are the 
highest priority, that are time sensitive. And we're going to 
continue to be able to do both.
    Senator Reed. Just, and you might provide this for the 
record.
    [The information follows:]
                       Land Acquisition Projects
    The table below provides the status of Land Acquisition projects.

                                                                  U.S. FOREST SERVICE LWCF PROJECTS FISCAL YEAR 2013 AND BEYOND
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
 Forest                                                                  Fiscal Year 2013  Plan To Complete    Phases Complete    Proposed Fiscal Year 2014     Projected Fiscal Year 2015 and
Service         Project Name           State        National Forest       Funding Amount/   in Fiscal Year     Prior to Fiscal    President's Budget Phase   Beyond Phases in Dollars/Acres \4\;
 Region                                                                        Acres        2013/Phased \1\       Year 2013                \2\ \3\               Total Acres Upon Completion
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
      1CLP Crown of the Continent  MT.......  Lolo/Flathead..........  $12,400,000.....  Phased..........  2.................  $31,000,000...............  Projected complete in fiscal year
        Northern Rockies: MT                                           4,500 acres                                             24,313 acres                 2015 with additional $5,000,000
        Legacy Completion \5\                                                                                                                               for 1,200 acres
                                                                                                                                                           Project total over 5 years = 35,700
                                                                                                                                                            acres
      1Tenderfoot                  MT.......  Lewis & Clark..........  $3,000,000......  Phased..........  3.................  $3,200,000................
                                                                       2,360 acres                                             2,280 acres
                                                                                                                               Complete
                                                                                                                               Total acres over 4 years =
                                                                                                                                8,220.
      2Ophir Valley                CO.......  Uncompahgre............  $1,000,000......  4...............  5.................  $1,470,000................
                                                                       40 acres                                                59 acres
                                                                                                                               Complete
                                                                                                                               Total acres over 5 years =
                                                                                                                                1,113.
      3Miranda Canyon              NM.......  Carson.................  $2,656,000......  Phased..........  1.................  $2,170,000................  Projected complete in fiscal year
                                                                                                                               965 acres                    2015 with additional $2,568,000
                                                                                                                                                            for 1,142 acres
                                                                                                                                                           Project total over 4 years = 5,000
                                                                                                                                                            acres
      4Salmon-Selway Initiative    ID.......  Salmon-Challis and       $340,000........  Phased..........  1.................  ..........................  Ongoing phases through 2020. Need
        Area: Morgan Ranch &                   Sawtooth National       237 acres                                                                            $8,243,000 for 908 acres
        Pardoe Rodeo Grounds                   Recreation Area.
      4CLP Crown of the            WY/ID....  Bridger-Teton/Caribou-   $3,200,000......  Phased..........  Multiple..........  $2,000,000................  Ongoing phases through 2020. Need
        Continent: Greater                     Targhee.                350 acres                                               320 acres                    additional $14,800,000 for 398
        Yellowstone                                                                                                                                         acres
                                                                                                                                                           Project total by 2020 = 18,500
                                                                                                                                                            acres
      5Hurdygurdy                  CA.......  Six Rivers.............  $1,300,000......  Phased..........  1.................  ..........................  Projected complete in fiscal year
                                                                       1,678 acres                                                                          2016. Need additional $3,320,000/
                                                                                                                                                            2,388 acres
                                                                                                                                                           Project total over 4 years = 5,284
                                                                                                                                                            acres
      5Leech Lake Mountain         CA.......  Mendocino..............  $1,000,000......  Plan to complete  ..................  ..........................  ...................................
                                                                       640 acres          in fiscal year
                                                                                          2013.
    5/6Pacific Crest National      CA/OR/WA.  Several................  $650,000........  Phased..........  Multiple..........  $3,100,000................  Multiple phases beyond 2020
        Scenic Trail                                                   160 acres                                                                           Total need = $141,685,300
      6John Day River Head-waters  OR.......  Malheur................  $2,040,000......  Phased..........  ..................  ..........................  Projected completion 2017 with
                                                                       2,040 acres                                                                          additional $10,464,000/10,464
                                                                                                                                                            acres
                                                                                                                                                           Project total over 4 years = 12,504
                                                                                                                                                            acres
      8CLP Florida/Georgia         FL.......  Apalachicola/Osceola...  $5,300,000......  Phased..........  Multiple..........  ..........................  Multiple phases through 2020. Need
        Longleaf Pine                                                  4,000 acres                                                                          $21,000,000/25,000 acres
      8NC Threatened Treasures     NC.......  Pisgah.................  $1,150,000......  Phased..........  2.................  $1,250,000................  Projected completion 2016. Need
                                                                       176 acres                                               177 acres                    $3,500,000/200 acres
                                                                                                                                                           Project total over 6 years = 900
                                                                                                                                                            acres
      9Great Lakes Northwoods      MN/MI/WI.  Superior, Ottawa,        $1,745,000......  Phased..........  4.................  $1,400,000................  Multiple phases through 2020. Need
                                               Chequamegon-Nicolet.    617 acres                                               241 acres                    $38,443,000/32,610 acres
      9Grey Towers                 PA.......  Grey Towers National     $1,000,000......  Phased..........  ..................  ..........................  Projected completion 2016. Need
                                               Historic Site.          21.5 acres                                                                           additional $1,750,000/181 acres
                                                                                                                                                           Project total over 4 years = 202.5
                                                                                                                                                            acres
     10Whitewater Bay, Admiralty   AK.......  Tongass................  $980,000........  Plan to complete  ..................  ..........................  ...................................
        NM                                                             160 acres          in fiscal year
                                                                                          2013.
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
       \1\ Phasing lets the Agency divide a project into smaller portions to allow for portioned acquisition subject to annual appropriation limits.
       \2\ The fiscal year 2014 planned acquisitions are based on the competitive LWCF prioritization process, but the amounts awarded to each project are subject to change based on
         appropriations. Projects might also be added or removed based on urgency of a particular project and market factors subject to congressional reprogramming guidelines.
       \3\ The fiscal year 2014 President's budget includes projects not displayed on this fiscal year 2013 list.
       \4\ Fiscal year 2015 and beyond assumes the appropriation named in the fiscal year 2014 President's budget and are subject to future appropriations. Future phases may change due to
         updated appraisal values and continued participation of willing sellers.
       \5\ This is a Collaborative Landscape Planning (CLP) LWCF project.


    Senator Reed. Do you have sort of a list of those projects 
that are fully completed? You're indicating on your strategy, 
because there's always--and again, this is a good thing. 
There's always sort of a notion that, ``Well, we've really 
consolidated a lot of territory around the national, and 
there's just one or two more pieces that we could do, where 
success leads to additional incentives.''
    So it would be helpful, I think, to us to have a notion of, 
you know, if there is finality in this process and also to look 
closely at those high priority, because you're talking about 
areas of the country where it is time sensitive. You could lose 
the land to either public use--private use, rather, or many 
other reasons if they're not immediately acquired. So we would 
like that information if you could get it.
    With that, let me recognize Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.

                    INTEGRATED RESOURCE RESTORATION

    Chief, I appreciate that you've clarified, I think, the 
agency's position with the budget request for the integrated 
resource restoration. I think it is important that we are able 
to really look at some concrete results that demonstrate 
improved performance, that really allow us to determine whether 
or not this IRR proposal lowers the costs and achieves better 
results on the ground.
    So what I heard you say to the chairman was that you 
appreciate the pilot program, you're going to continue with the 
pilot. It's probably going to take several years before you can 
get exactly that kind of evidence so that we as a subcommittee 
can then weigh that and make a determination as to whether or 
not it should be made permanent.
    Mr. Tidwell. Yes.

                    LAND AND WATER CONSERVATION FUND

    Senator Murkowski. So I appreciate that clarification.
    Let me ask you a question on the LWCF. The plan calls for 
partial mandatory funding for LWCF in fiscal year 2014, then 
shifts to full mandatory funding of $900 million a year 
beginning in fiscal year 2015. And then within your own 
budget--that was the President's budget. Within your own budget 
proposal, $59 million is included on the mandatory side for 
LWCF in fiscal year 2014.
    And I guess I'm looking at this and saying, we all have our 
priorities most clearly here. I have questioned that at a time 
where budgets are very, very tight, we would be purchasing more 
land when we're not able to adequately care for, maintain, 
provide the resources for what it is that we have. And then 
discussions like we're having here this morning about fire 
season that I think scares us all, and a recognition that we 
simply won't have the resources that we need to deal with that, 
have to move towards disaster funding.
    So I guess it just begs the question here, when you move 
something to mandatory funding, we're basically on autopilot. 
And we are then in a situation where one program receives 
somewhat preferential treatment. If you're on autopilot, it's 
not subject to the same critical review, I think, that we go 
through with all of these very important programs, whether it 
is firefighting, whether it's dealing with hazardous fuels, 
whether it's dealing with our timber harvest programs.
    So I guess a very direct question is, Why does LWCF deserve 
to be put on a higher plane, a higher priority than some of 
these other very critical budget areas?
    Mr. Tidwell. Senator, the LWCF proposal for mandatory 
funding is based on the Department of the Interior's proposals 
to generate additional revenues to cover the cost of that. I 
want to assure you that the only way this could be successful 
is if there is adequate input and oversight from Congress and 
from this committee so that it reflects the type of projects 
you want to see go forward.
    I want to reassure you it has to be part of this, to be 
able to put a system in place so that you have the level of 
input and oversight that's necessary to make sure that it is 
successful.
    Once again, it is driven by what we hear across this 
country about the need to acquire these key parcels of land, 
whether it's for the critical habitat that can assure that 
we're able to recover species and be able to do more active 
management, or those key access points to make sure that folks 
can continue to access the National Forests and Grasslands, or 
in key areas to be able to provide the conservation easements 
so that a private landowner can keep working his land or her 
land so that she can still be able to manage that land as an 
active forest versus having to give it up to some form of 
development.
    That's what really is driving this. Like I said earlier, 
when it comes to the acquisition, in every case that I've dealt 
with during my career, by acquiring those key parcels it 
actually reduces our overall administrative costs and gives us 
more flexibility to be able to manage these landscapes.
    Senator Murkowski. Well, you mentioned the role of the 
committee in terms of determining that priority. I think that 
oversight role is important. And I worry that we might lose 
some aspect of that oversight with this expansion that we're 
talking about.

                             TIMBER HARVEST

    In my last minute, I'd like to bring up the question that 
you know that I'm going to ask. I don't want to disappoint you 
here. But this is relating to the timber harvest in the 
Tongass.
    I asked my staff to get the official agency timber harvest 
for the last 10 years in the Tongass. The high-water mark was 
2003. There were 51 million board-feet. We've gone downhill 
since then to 21 million board-feet last year. We talk about 
the situation every year.
    What can you provide for me today in terms of assurances 
that we're going to see the numbers improve within the Tongass?
    Mr. Tidwell. Senator, last year we sold, I think, right 
around 50 million to 51 million, which is basically our 10-year 
average of timber sold. Harvest has been less than that, based 
mostly on market conditions. That's the way it is.
    Senator Murkowski. When you say ``less,'' would you agree 
that it was 21 million board-feet last year?
    Mr. Tidwell. Well, as far as the harvest numbers, I'll have 
to get back to you.
    [The information follows:]
            Timber Sales, Harvest, and Staffing in Region 10
    The numbers shown between 1998 and 2008 are best estimates for 
timber sale activity and staffing in Region 10.

------------------------------------------------------------------------
                                           Timber     Timber
         Fiscal Year          Number of     Sold    Harvested     FTEs
                                Sales      (MMBF)     (MMBF)
------------------------------------------------------------------------
1998........................         81         24        120        330
1999........................         46         61        146        310
2000........................         67        170        147    \1\ 300
2001........................         40         50         48        280
2002........................         58         24         34        240
2003........................         35         36         51        230
2004........................         54         87         46        200
2005........................         70         65         50        180
2006........................         63         85         43        158
2007........................         41         30         19        130
2008........................         48          5         28        120
2009........................        181         23         28        110
2010........................        146         46         36        107
2011........................         38         37         33        107
2012........................        159         53         21        107
                             -------------------------------------------
15-year average.............         75         53         57        186
------------------------------------------------------------------------
\1\ Fiscal year 2000 marked the last harvest from the Long term
  Contracts and the beginning of the Tongass ``unification'' effort
  which converted three separate ``Areas,'' essentially separate
  National Forest sized entities, into a single large forest
  organization. (Three fully staffed organizations down to one.)
Source: Timber Cut and Sold Reports and Periodic Timber Sale
  Accomplishment Report.


    Senator Murkowski. That's what your agency says.
    Mr. Tidwell. Okay. So based on the market we've seen across 
the country our harvest levels have dropped, even though we've 
been able to maintain or actually increase what we're selling. 
That's how it works. The purchasers need to play the market as 
to when they can move forward to be able to do that. Our 
contract allows them the flexibility to decide what year to 
move forward with the harvest.
    But as far as reassurances, we're ready to move forward 
with the Big Thorne project this year that will have a 
significant amount of volume. And at the same time, we have 
plans for the Wrangell project that will be coming up, I think 
next year. Then the other part of this is that we're going to 
move forward with our second growth, to be able to have that 
second-growth transition.
    I think it is our best chance to ensure that we have an 
integrated wood products industry in Southeast Alaska, to be 
able to provide the wood that's needed in the sawmills, and at 
the same time be able to actually implement projects. It's one 
of those things that I think, through a stewardship contract, 
especially over a lengthy period like 10 years will provide 
that certainty so that private entities can make the 
investments in their mills. And that is the path forward.
    So we're going to need your help in a couple of areas. 
There's another issue I want to talk to you about in the 
future. And that is if we could use the export values in our 
appraisal process, that would also help us to be able to put 
more of our timber, more sales, forward. And it's something 
that I'd like to be able to sit down with you in the future and 
discuss to see if we can get your support on that.
    But I do believe that the sales that we have lined up, plus 
our focus on moving forward with the transition to second 
growth, is going to give us the best path forward to be able to 
continue to build on a level of timber sales that we've been 
putting up over the last couple of years.
    Senator Murkowski. Well, Chief, you know that I am happy to 
talk with you. I'm happy to work with you, because I'm trying 
to keep some of these small Southeastern communities alive. And 
the one thing that I can't do is, I can't make these trees grow 
any faster.
    And so when we talk about the transition, I've said it 
before, I will repeat again in this committee, I worry that we 
don't have our operators who are able to hold on until we can 
transition to that second growth, that you have situations just 
exactly as Senator Merkley has described in Oregon, where they 
had the Rough & Ready go down a few weeks ago, and now they've 
got another one going down. At some point in time, there is 
nobody left to deal with this transition.
    And so I've pressed you to know whether or not the agency 
has a plan B, because I'm not sure that plan A, which is to 
transition to second growth, is one that is viable in an area 
where you have just 300 jobs remaining in the whole region. And 
it's getting skinnier every day.
    So, Mr. Chairman, my time has expired right now. But I do 
think that this is something, again, we have this conversation 
every single year. And we're just not seeing things improve in 
the Tongass. So we've got to look at a different approach and 
one that will hopefully deliver some results for these 
communities.
    Senator Reed. Thank you, Senator Murkowski.
    Senator Tester.

                               AIRTANKERS

    Senator Tester. Thank you, Mr. Chairman. Real quickly, to 
follow up on the contracted next-gen, just real quick just for 
clarification purposes. My notes say that you said that these 
planes, these contracted next-gen planes, will have FAA 
clearance to fly as airtankers. They have that now?
    Mr. Tidwell. It's my understanding that all except one 
aircraft, I think, still needs FAA certification. But the other 
aircraft have been used for other purposes, for passenger 
planes or cargo planes in the past. So we expect to have the 
FAA certifications.
    But I can follow up with that, Senator.
    [The information follows:]
           Next Generation Large Air Tanker FAA Certification
    Six of the seven next generation large airtankers proposed in the 
intent to award are FAA approved with a FAA Type Certificate.

    Senator Tester. Yes. Well, the question is, Do they have it 
or do you expect that they will have it?
    Mr. Tidwell. It's my understanding that these aircraft do 
have it, except there is one that made a modification with the 
airframe and they've been working on getting that 
certification.
    Senator Tester. Sure.
    Mr. Tidwell. I can check on that.
    Senator Tester. If you could check on it and get back to 
us, that would be very much appreciated.
    I want to talk a little bit about this C-27Js. The chairman 
talked about it a little bit. You talked about it in your 
statement. Could you give me an idea, is the transfer in 
process of the seven C-27Js?
    Mr. Tidwell. It's my understanding the Air Force is doing 
the study to determine if these aircraft are surplus or not.
    Senator Tester. Okay.
    Mr. Tidwell. We're hoping that will be completed later this 
year, hopefully by September. If they determine that they're 
surplus, it's my understanding that seven of those aircraft 
will be offered to the USFS.
    Senator Tester. And what's the timeline for acceptance?
    Mr. Tidwell. I think once they're offered, we will accept 
them as quickly as we can and then move forward to make the 
modifications on those aircraft so that they can be retardant 
planes.
    Senator Tester. Okay. Is there a system available, a 
retardant delivery system available for that plane?
    Mr. Tidwell. Not today. We are moving forward with our 
current MAFFS units and to be able to create one that would fit 
into the C-27J. We're working on the design of that. Then once 
we have that design completed, we'd be able to quickly move 
forward to have these units built.
    Senator Tester. Okay. And not being a pilot myself, I would 
assume that these planes would also have to be cleared by the 
FAA to be tanker planes to fight fires?
    Mr. Tidwell. These planes do meet all the airworthy 
criteria, so it would be up to us to determine that they meet 
our airworthiness standards and that they would be able to 
deliver the mission. But based on the success we've had with 
the C-130s, we expect the C-27Js will work just fine. They just 
carry a smaller payload than the C-130s.
    Senator Tester. Do you know what their payload is?
    Mr. Tidwell. We anticipate that the payload would probably 
be about 1,800 gallons. So these would be medium airtankers.
    Senator Tester. The reason I ask that is because at one 
point in time they were going to put C-27s at the Air National 
Guard in Great Falls, Montana. And I don't know this for a 
fact, but it seemed to me like their payload was 2,000 pounds. 
But we can visit about that. We're not to a point where that 
becomes an issue yet.
    What about service and maintenance? Will that be contracted 
out?
    Mr. Tidwell. Yes.
    Senator Tester. Do you anticipate there being issues there?
    Mr. Tidwell. No. We expect that probably some of our 
current operators would be glad to have a contract and be able 
to maintain and operate those aircraft.
    Senator Tester. Okay. And then you'd mentioned in a 
previous question or maybe in your opening statement that you 
thought it would be about $3 million per aircraft to adapt the 
aircraft and place the delivery system in that aircraft. Is 
that based off of--what's that based off of? Have you guys done 
some studies on that, or what?
    Mr. Tidwell. It's based on our past experience with 
building MAFFS units. That's part of it. And then also 
realizing that we'd have to spend some money in order to remove 
some of the military equipment and, like I said earlier, some 
of the armoring that's on these aircraft. It's not necessary 
for our mission, and we would look at removing some of that 
excess weight that wouldn't be necessary.
    Senator Tester. Okay. Overall, by the time you get done, 
let's just assume the military makes the transfer. You get 
seven of these babies. Are you looking at a $21 million 
expenditure to make the adaptation and have them up in the air? 
Or have you done any projections on what it would cost to get 
them up?
    Mr. Tidwell. It will be probably be $21 million and maybe 
$26 million is what it will take.
    Senator Tester. Okay. All right. Thank you. Thanks for 
that. Just curious to see where we're at.

                             COLLABORATION

    Look, as a regional forester in Region 1, the most 
important region, right? No, you don't have to answer that. You 
did some great collaboration. You did some great collaboration. 
And it really shows what can happen when you do collaboration 
versus what happens when both sides dig in. Everybody loses, 
including the forest.
    And so are you looking to expand upon collaborative 
projects? I mean, look. Senator Merkley talked about it. Both 
the chairman and the ranking member talked about it. If we lose 
the infrastructure that's out there because we don't have 
predictable supply, then it all falls on the taxpayers, it all 
falls on your budget. Is there some work being done 
collaboratively in different regions of the country that we can 
point to that say, ``Yes, we're making progress here,'' as far 
as stopping the folks who don't want to cut one single tree?
    Mr. Tidwell. Yes, Senator. Throughout the country, we've 
had significant progress that's been made. The collaborative 
forest landscape project is just one example. There is an 
understanding and recognition across this country that there is 
a need for us to manage these forests and to reduce not only 
the hazardous fuels, but to make them more resistant, more 
resilient to the changing climate they have to deal with.
    So there is recognition, and we're seeing it almost 
everywhere. We still have some issues in your State of Montana 
where we've lost a little ground recently. But we're going to 
keep working there to be able to show folks, this is the right 
work that needs to be done at the right time.
    Senator Tester. Well, not to put pressure on the ranking 
member of this subcommittee, because she's the ranking member 
of another very important committee. But if we can get her out, 
maybe we can show her collaboration in Montana that does work. 
Thank you, Chief.
    Senator Reed. Thank you very much, Senator Tester.
    Just for the record, we will keep the record open until May 
29. So you may get additional questions from my colleagues, and 
additional statements could be provided. That's next Wednesday. 
But I know Senator Murkowski has a request. And before I 
adjourn, let me recognize Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman. Just very 
briefly.
    Chief, you have provided us with the timber offered over 
the past 10 years in the Tongass and the Chugach; I appreciate 
that. We'd also asked for the number of employees and the 
breakdown between the Chugach and the Tongass so we have them, 
those positions that are approved, those that are currently 
filled.
    Can your folks get us the breakdown then on the number of 
jobs then within the Tongass that are focused on forest 
management, just kind of give us that breakdown, if you will, 
when you respond?
    [The information follows:]
            Tongass National Forest, Forest Management Staff
    There are 112 positions in Forest Management in the Tongass 
National Forest Supervisor's Office and Ranger Districts.

         TONGASS NATIONAL FOREST, FOREST MANAGEMENT ORGANIZATION
------------------------------------------------------------------------
Location/                                                     Number of
  Series                      Series Name                     Positions
------------------------------------------------------------------------
        Supervisor's Office:
    0460    Forester                                                 9
    0462    Forestry Technician                                      3
    0807    Landscape Architect                                      3
    1315    Geologist                                                2
    0193    Archeologist                                             1
    0401    Recreation                                               1
    1101    NEPA Coordinator                                         2
    1082    Writer/Editor                                            1
    0408    Ecologist                                                3
    1035    Public Affairs                                           1
    0802    Engineering Tech                                         2
    0810    Engineer/Transportation Planner                          2
    1315    Hydrologist                                              1
    0482    Fish Biologist                                           1
    0470    Soils                                                    2
    2210    GIS                                                      5
    0301    NEPA Planner                                             2
    0486    Wildlife Biologist                                       1
        Ranger District Offices:
    0460    Forester                                                24
    0462    Forestry Technician                                     17
    0404    Fish Technician                                          2
    0193    Archeologist                                             5
    0401    Natural Resource                                         6
    1101    Specialist (NEPA, IDT Leader) NEPA                       2
             Coordinator
    1082    Writer/Editor                                            3
    0408    Ecologist                                                1
    1315    Hydrologist                                              2
    0482    Fish Biologist                                           3
    0470    Soils                                                    1
    0301    NEPA Planner                                             1
    0486    Wildlife Biologist                                       3
                                                          --------------
              Total Number of Positions                            112
------------------------------------------------------------------------


    Senator Murkowski. And then in the Energy Committee, I had 
mentioned the Anan Creek facility. And I think we're working on 
a proposed solution for that. I understand that there's been 
some engineering work that has advanced. So hopefully, when we 
get you up to the State, we can see some good news there, as 
well.
    But I look forward to visiting with you a little bit more 
and welcoming you north.
    So, appreciate that, Mr. Chairman.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Reed. Thank you. There are no further questions. 
Let me thank you, Chief, and thank you, Ms. Cooper, for your 
testimony today. And we look forward to working with you.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
                Questions Submitted by Senator Jack Reed
                     forest and rangeland research
    Question. What initiatives are you planning for next year that 
account for the $15 million increase in Forest and Rangeland Research?
    Answer. To be successful in our restoration efforts, Forest Service 
Research and Development (R&D) will play a critical role. Our R&D 
priorities are integral investments in science as a foundation for 
restoration activities. One avenue that we will take is to accelerate 
opportunities to develop new public/private partnerships to 
commercialize nanocellulose technologies. This will revolutionize 
technology, creating new jobs and revenues while simultaneously 
restoring our forests, thus strengthening America's economy through 
industrial development and expansion.
    Forest Service R&D is investing in a Vibrant Cities program which 
will direct research efforts in selected urban areas to provide new 
information and tools to help in sustainability planning. Forest 
Service R&D will accelerate its urban research program on urban forest 
health and management, ecosystem services and values, watershed 
rehabilitation, human health and experiences, green infrastructure, and 
green building. This effort is aligned with the Vibrant Cities & Urban 
Forests National Call to Action initiative.
    We will also invest more in our Localized Needs Research Priority 
Area, as directed by Congress in House Report 112-331, page 1080.
                       state and private forestry
    Question. What do you hope to accomplish with the new, $20 million 
Landscape Scale Restoration proposal?
    Answer. The goal of the proposed Landscape Scale Restoration (LSR) 
Program is to focus and prioritize State and Private Forestry (SPF) 
resources to better shape and influence forest land use at a scale and 
in a way that optimizes public benefits from trees and forests across 
all landscapes, from rural lands to urban centers. This is an evolution 
of the successful SPF ``Redesign'' effort, formalizing a process 
already in place by establishing a specific Budget Line Item (BLI), 
rather than combining funds from specific BLIs. This will provide 
increased flexibility for States to focus on the priorities identified 
in their Forest Action Plans without the limitation of a predetermined 
mix of programmatic funding. The work under this BLI will continue to 
identify the greatest threats to forest sustainability and accomplish 
meaningful change in priority landscapes. As a competitive grant 
program, it will provide flexible opportunities to fund innovative 
projects across boundaries that focus on States' priorities.
    Question. How are States with predominately State or privately 
owned forests but smaller ``landscape,'' such as Rhode Island, likely 
to compete?
    Answer. The increased focus on ``All Lands'' projects brings 
particular attention to implementation of the priorities identified in 
State Forest Action Plans, formerly called ``Statewide Assessments.'' 
Landscapes will be defined broadly in this competitive grant program, 
focused on cross-boundary work between not only States and the Forest 
Service, but between States, between States and private landowners, 
between States and Tribes, etc. As such, States with large amounts of 
State and private land, such as Rhode Island, are expected to compete 
just as successfully as States with more Federal land. Over the past 5 
years, Rhode Island has been successful in receiving project funding 
through the competitive ``Redesign'' process, and it is expected that 
success will continue under the LSR program, especially with Rhode 
Island's record of bringing partners, such as universities and 
nonprofits, into their competitive project process.
    Question. Will this year's $7 million reduction in Urban Forestry 
all go to Landscape Scale Restoration? Please detail the estimated 
State allocations vis-a-vis fiscal year 2013.
    Answer. The Urban and Community Forestry (U&CF) program estimates 
that State allocations in fiscal year 2014 will be largely the same as 
in fiscal year 2013 and the U&CF program will continue to support 
landscape scale restoration efforts. In recent years, the U&CF program 
has contributed roughly 15 percent of fiscal net available dollars to 
``Redesign'' projects, and similar levels are anticipated for future 
landscape scale restoration projects that can include urban areas. Of 
the total proposed reduction to the U&CF program, approximately $3.6 
million is the estimated contribution to ``Redesign'' or what will 
essentially be the LSR BLI. The U&CF program plans to make reductions 
in areas such as national partnerships and initiatives (e.g. Urban 
Waters Federal Partnership) to maintain the U&CF community assistance 
activities carried out primarily through State forestry agencies with 
the State allocations.
                         national forest system
                    integrated resource restoration
    Question. Please outline the findings for the first year of the 
Integrated Resource Restoration (IRR) pilot and what improvements you 
are making this year with that knowledge.
    Answer. The pilot regions reported several advantages of the IRR 
program:
  --Increased flexibility to fund multiple priorities, integrate 
        planning efforts, leverage IRR funds to support Collaborative 
        Forest Landscape Restoration projects, and to achieve priority 
        integrated restoration work.
  --Increased coordination across program areas and increased 
        integrated planning.
  --Implementing high-priority projects is easier without multiple 
        budget line items because it provides more flexibility.
  --Focused investments in landscape-level projects allowed restoration 
        actions to be funded in a single year that would otherwise be 
        piecemealed over many years.
  --The focused, integrated effort made setting goals and priorities 
        easier.
    Regions also identified challenges with the IRR program, including:
  --The Forest Service manages a number of programs that may not 
        directly contribute to restoration activities in IRR under the 
        previous separate programs, presenting challenges in how we 
        manage these base programs and how they fit in the context of a 
        restoration program.
  --Not all restoration priorities will align with traditional targets 
        as allocated from previous years with IRR authority.
  --The consolidated nature of IRR does not lend itself easily to 
        breaking out the cost of specific restoration activities to 
        estimate trends in unit costs.
    We are addressing the challenges going into fiscal year 2014 
through improved program direction and continuing communication between 
the Washington office and the three regions under the pilot authority.
    An agreement was entered into with Colorado State University and 
the University of Oregon to accomplish third-party monitoring and 
evaluate the effectiveness of the IRR program. Surveys will be 
conducted with key Forest Service individuals at all levels and case 
studies will be evaluated within the pilot regions. Findings from these 
activities will ultimately help the Agency better manage the program.
    Question. Why does the budget propose full implementation in fiscal 
year 2014, when the pilot project has not concluded?
    Answer. The IRR pilot regions met or exceeded allocated targets in 
all areas except for timber volume sold, which was 82 percent of the 
target volume. Factors unrelated to IRR caused this shortfall, such as 
litigation on projects with significant portions of acres to be 
treated, no bids received on timber sales, and impacts from a demanding 
fire season. The IRR pilot authority has provided a valuable learning 
opportunity for the Agency. The flexibility provided by IRR facilitates 
focused investments on expediting the completion of on landscape-level 
restoration projects that would otherwise be split over the course of 
many years. It allows the Agency to leverage funds across multiple 
programs to increase efficiency in planning and in achieving 
restoration outcomes. The flexibility given to Line Officers and 
program managers has proven beneficial in helping with prioritizing 
restoration treatments. To fully realize the flexibility created 
through IRR, it must be expanded to a full Agency-wide authority. In 
doing so, the Agency can focus resources on integrated ecosystem 
restoration across the country.
    The Forest Service will continue to monitor and report the 
performance results from the three regions under the IRR pilot 
authority to demonstrate the advantages of the program.
                        restoration partnerships
    Question. What is the split between grants and ``partnership 
development'' in the $10 million proposed for Restoration Partnerships?
    Answer. This new authority is not a grant program. We propose a new 
$10 million program to create and build partnerships for improving 
municipal and beneficial-use watersheds, reduce risks from wildfire to 
public utilities and infrastructure, and reduce biomass to sustain 
landscape fuel reduction and watershed investments. All of the funding 
would be used to support on the ground partnership work, a portion of 
which will fund staff work for those projects at a rate to be 
determined by the specific projects selected. Within Restoration 
Partnerships, funding will be allocated to a cost-share program and to 
partnership development with municipalities, public utilities, and 
other organizations. Partnership development will enable regions and 
forests to act on innovative partner supported ideas, with diverse 
partners including nongovernmental entities, municipal partners, and a 
variety of public service utilities.
    Question. What match will be required from non-Federal partners?
    Answer. There is no required match in Restoration Partnerships, but 
our target for fiscal year 2014 is to leverage $11 million in partner 
funding for the $10 million in requested Federal funding. In fiscal 
year 2012, the Forest Service entered into more than 7,700 grants and 
agreements with partners, who contributed $535 million, which was 
leveraged by nearly $779 million in Forest Service funding. However, 
Restoration Partnerships emphasizes the critical role of non-Forest 
Service resources across projects diverse in scope and duration. The 
Restoration Partnerships program will enable regions and forests to 
work with diverse partners to implement innovative projects that will 
expand the success of smaller scale projects to much larger landscapes. 
They will grow the circle of partners to include an increased number 
and broader array of municipal, utility, and nongovernmental 
organization partners. We will track the total value of resources, 
expressed as a ratio, leveraged through partnerships with States and 
other partners to assess performance in this newly proposed program.
    Question. Do you anticipate National Forests in the East to 
participate?
    Answer. Yes, all Forest Service regions will be able to respond 
affirmatively to partner sponsored projects to protect critical 
infrastructure such as electrical transmission lines, by reducing 
accumulated fuels, implementing municipal watershed restoration, and 
protecting and enhancing water quality and quantity.
                       administrative grazing fee
    Question. What percentage of the Forest Service's Grazing program 
costs will the new $1 administrative fee cover?
    Answer. We estimate that the proposed $1 fee would generate 
approximately $5 million per year, approximately 6.2 percent of the 
grazing program costs in fiscal year 2012. The total grazing program 
costs in fiscal year 2012 were $80.9 million, with $55.4 million 
covered by the Grazing Management BLI, $2.3 million from the Range 
Betterment Fund, and the remaining $23.2 million coming from Vegetation 
& Watershed Management and Integrated Resource Restoration BLIs.
    Question. How much will this $1 fee add to the total cost per 
animal?
    Answer. Changes in the total cost per animal with an added $1 fee 
per head month are shown below (Western States National Forest).
    On average (based on the Agency's 2012 Grazing Statistical Report 
authorized use data):
  --This additional $1 fee would add $1 per cow/horse per month. 
        Combined with the current fees, ($1.35 per head month for 
        cattle), this would make the total cost $2.35 per cow per 
        month.
  --This additional $1 fee would add $.20 per sheep per month (one-
        fifth of a head month). Combined with the current fees ($.27 
        per sheep per month), this would make the total cost $.47 per 
        sheep per month.
    Question. What are the comparisons for Forest Service fees to State 
and private lands?
    Answer. The grazing fee for the Forest Service and the Bureau of 
Land Management are identical in the western States. The National 
Agricultural Statistical Service (NASS) provides both agencies three 
indices that are used in the fee calculation formula. This amount is 
restricted to plus or minus 25 percent of the previous year's fee. The 
regulations also established a minimum fee of $1.35.
    The NASS calculates the average private grazing land lease rate per 
animal unit month (AUM) by State, which can be found on the following 
website: http://www.nass.usda.gov/Statistics_by_Subject/
Economics_and_Prices/index.asp.
    These values are shown below. For comparison, the Forest Service 
cattle grazing in Western States fee is $1.35 per head month (HM) for 
2013. There are adjustment factors for type (species) of animal.
    The Western States vary considerably in the fees charged for 
grazing on State lands and the methods used to set those fees. The GAO 
report titled ``Livestock Grazing, Federal Expenditures and Receipts 
Vary, Depending on the Agency and the Purpose of the Fee Charged, 
2005'' provides the last data on State land grazing fees. Generally, 
States charge a fee per AUM. In fiscal year 2004, the Western States 
charged grazing fees ranging from a low of $1.35 per AUM for some lands 
in California to $80 per AUM in parts of Montana.
    Below is a comparison of grazing fees on National Forest System 
lands, State managed lands, and privately owned lands.

----------------------------------------------------------------------------------------------------------------
                                                                            Difference
                                                    $/AUM                     NFS &                   Difference
                                                   Western     Average $/    Private     Average $/  NFS & State
                     State                          States    AUM Private     lands      AUM State      lands
                                                   National       Land       grazing        Land       grazing
                                                    Forest                     fees                      fees
----------------------------------------------------------------------------------------------------------------
AZ.............................................         1.35         9.00         7.65         2.23         0.88
CA.............................................         1.35        17.30        15.95   1.35-12.50   0.00-11.15
CO.............................................         1.35        15.30        13.95    6.65-8.91    5.30-7.56
ID.............................................         1.35        14.50        13.15         5.15         3.80
MT.............................................         1.35        19.40        18.05   5.48-80.00   4.13-78.65
ND.............................................         1.35        18.00        16.65   1.73-19.69   0.38-18.34
NE.............................................         1.35        27.30        25.95  16.00-28.00  14.65-26.65
NM.............................................         1.35        13.00        11.65   0.17-10.15   -1.18-8.80
NV.............................................         1.35        13.00        11.65          N/A          N/A
OK.............................................         1.35        11.00         9.65   7.00-16.00   5.56-14.65
OR.............................................         1.35        14.80        13.45         4.32         2.97
SD.............................................         1.35        24.20        22.85   3.00-56.00   1.65-54.65
UT.............................................         1.35        13.20        11.85      1.43 or      0.08 or
                                                                                               2.35         1.00
WA.............................................         1.35        12.00        10.65      5.41 or      4.06 or
                                                                                               7.76         6.41
WY.............................................         1.35        17.60        16.25         4.13         2.78
----------------------------------------------------------------------------------------------------------------
AUM = Animal Unit Month = Head Month.

                            land acquisition
    Question. The first project on the Forest Service Land Acquisition 
list is $31 million. Why does the budget place such a high funding 
priority on one project in fiscal year 2014? Is $31 million all that is 
required to complete the project?
    Answer. This request is part of the multi-Agency, public-private 
``Montana Legacy'' collaborative. These investments directly fulfill 
the intent of the Land and Water Conservation Fund (LWCF) Collaborative 
Landscape Planning Initiative and address the requests of members of 
Congress and our private partners for a portion of Federal land 
acquisition to invest in the most ecologically important landscapes and 
in projects with clear strategies for reaching shared goals grounded in 
science-based planning. Through Collaborative LWCF, the Forest Service 
and the Department of the Interior bureaus jointly direct funds to 
projects that will achieve the highest return on Federal investments, 
and coordinate land acquisition planning with Government and local 
community partners.
    In this Montana Legacy project, this collaborative land acquisition 
effort leverages millions in private investments such as a 110,000-acre 
donation to the Flathead and Lolo National Forests by the Nature 
Conservancy in 2010 and is resulting in the consolidation of tens of 
thousands of acres of the highest quality wildlife habitat and working 
lands in the northern Rockies. Eliminating the historic 
``checkerboard'' lands will allow us to move toward completion and 
protection of this globally important ecosystem by 2015 instead of 
attempting it piecemeal over the next 10 or 20 years during which time 
parcels would be developed and lost, and it will result in improved 
management, reduced administrative costs and increased recreational 
opportunities.
    Question. What should we expect from this Collaborative Landscape 
Planning program long-term? Will the same landscapes continue to be in 
the budget until they are completed, or will we see different focus 
areas next year?
    Answer. In an era of constrained budgets, it is more important than 
ever that conservation investments deliver measurable returns, and rely 
on best available science and strong partnerships to target investments 
to critical needs. The administration's intention is for the Forest 
Service to continue to participate in the Collaborative Landscape 
Planning (CLP) program. The collaborative approach is successful 
because it allows LWCF funds to leverage other Federal resources, along 
with those of non-Federal partners, to achieve the most important 
shared conservation outcomes in the highest priority landscapes. An 
important objective of this program is to stabilize large landscapes in 
a short timeframe before they can be further fragmented and become more 
expensive if not impossible to protect. At the same time, the Forest 
Service recognizes the valuable role of protecting individual tracts of 
land with other LWCF components including Forest Legacy, and 
collaborative LWCF is not intended to replace the role of those 
programs in meeting individual conservation objectives.
    Collaborative LWCF enables the Forest Service to continue its long 
held focus on conserving large-scale landscapes that provide multiple 
resource and economic benefits to the public including cleaner drinking 
water, increased recreational opportunities, improved and protected 
habitat for at-risk and game species, and a greater number of jobs 
generated on and off these lands. This approach also produces direct 
long-term benefits for the taxpayer by simplifying land management, 
creating public access, reducing operating and maintenance costs, 
reducing boundary conflicts, and protecting areas from urgent threats 
like wildfire and invasive species. Throughout this process, the Forest 
Service will continue to use its rigorous merit-based evaluation 
process to prioritize projects for funding for Forest Legacy, core and 
the multi-Agency CLP LWCF programs.
    The investments needed in any particular collaborative landscape 
will be unique to that landscape's needs and resources. As part of the 
application process, landscape proponents are requested to identify 
future acquisition needs; to date, most projects are designed to take 2 
to 3 years to complete, whether in the core competition or the CLP.
    Question. For the Crown of the Continent, Longleaf Pine, and Desert 
Southwest Collaborative Landscapes, please provide a list of Forest 
Service projects within those Landscapes, designating completed and 
incomplete projects.
    Answer. None of the Collaborative Landscapes are complete because 
only 1 year of funding has been disbursed. They are conceived as 2- to 
3-year projects. Fiscal year 2013 is the first year of the 
Collaborative Landscape Planning Program. The first round of 
Collaborative Landscape Projects were selected in 2012, and announced 
in the administration's fiscal year 2013 budget request. The Crown of 
the Continent and Longleaf Pine projects areas were initiated in 2013. 
The Crown of the Continent initially included two sub-landscapes, which 
were the Montana Legacy Completion project and the Greater Yellowstone 
project. In 2014, these two projects were de-coupled and only the 
Montana Legacy Completion project received a funding recommendation. 
The Greater Yellowstone project will compete again in the fiscal year 
2015 process.
    The Desert Southwest Landscape was not proposed until fiscal year 
2014. The Desert Southwest Collaborative is in the President's budget 
request to Congress for fiscal year 2014 for the first time therefore 
it is also not complete, as the fiscal year 2014 appropriations are not 
finalized.

------------------------------------------------------------------------
                                                        Fiscal Year 2014
                                Fiscal Year 2013:  FS      President's
                                        Funded           Budget Request
------------------------------------------------------------------------
Crown of the Continent:
    Montana Legacy: Lolo/                  $12,400,000  $31,000,000
     Flathead NF.
Greater Yellowstone Area:                    3,200,000  Proposed for
 Bridger-Teton/Caribou-                                  $2,000,000 by
 Targhee.                                                Forest Service,
                                                         but not a CLP
                                                         project.
Longleaf Pine Collaborative:
    Florida/Georgia Longleaf                 5,300,000  Not included in
     Initiative: Osceola NF.                             CLP.
South Carolina Longleaf                  \1\ 1,000,000  $6,700,000
 Partnership: Francis Marion
 NF.
Desert Southwest:
    California Desert                       10,390,000  $10,390,000
     Southwest: San
     Bernardino NF, Santa
     Rosa & San Jacinto NM.
------------------------------------------------------------------------
\1\ Core LWCF funding.

                        wildland fire management
    Question. Do you agree that the ability to provide emergency 
firefighting funds is critical? Will you support efforts to provide an 
emergency or disaster designation for funds appropriated to pay for 
emergency firefighting needs?
    Answer. In the past few years, fire seasons have become longer and 
more intense with historical fires in several Western States. Funding 
the rolling 10-year average with both the FLAME and Suppression funds 
is insufficient in some years which results in detrimental transfers. 
In addition, continued growth of the 10-year average adds increasing 
pressure on already tight discretionary funding. We would like to work 
with the committee to explore long-term solutions to this problem.
    Question. How does fire borrowing negatively impact your other 
programs, even if Congress does provide a partial or full repayment at 
a later date?
    Answer. When funding is transferred from other programs to support 
fire suppression operations, these programs are impacted because they 
are unable to accomplish priority work and achieve the overall mission 
of the Agency. Often this priority work mitigates wildland fire hazard 
in future years. The ability of programs to achieve established targets 
is impacted and projects are often put on hold or canceled. This not 
only impacts the ability of the Agency to fulfill its mission 
responsibilities, but is an inefficient use of taxpayer resources. A 
significant amount of money can be wasted if all of the pre-work for a 
contract has been completed and then it is canceled due to transfers. 
In addition, transfers negatively impact local businesses and 
economies, costing people jobs and income because projects are delayed 
or canceled. Examples of deferred or canceled activities include 
contracts not awarded for various priority restoration projects, such 
as our Collaborative Forest Landscape Restoration projects, and ceased 
activity for land acquisition.
    Question. The budget request recounts the accomplishments and 
benefits of programs that assist in reducing the incidence of 
catastrophic fire, yet these programs are proposed for decreases in 
fiscal year 2014 (hazardous fuels reduction, State and volunteer fire 
assistance, forest health management of pests and disease, and fire 
science). Aren't these reductions counter-productive to forest health 
and the Forest Service's stated goals of restoration, jobs and managing 
wildfires?
    Answer. The budget reductions will result in lower targets and 
lower accomplishments. However, in times of reduced budgets, 
prioritization becomes even more important. Firefighter and public 
safety will remain our number one priority during the 2014 fire season. 
The Forest Service will continue to prioritize work to accomplish the 
most important projects in all of our programs. Specifically, the 
highest priority projects are focused where the threat is high, we can 
make a difference, and we have community partners.
    Question. How much of the $116 million decrease in Hazardous Fuels 
is transferred to the Integrated Resource proposal?
    Answer. The fiscal year 2014 President's budget proposes 
$201,228,000 for Hazardous Fuels, which reflects a funding decrease of 
$115,848,000 from fiscal year 2013 including--a shift of $76 million to 
IRR. Funds that may have been spent on hazardous fuels reduction 
outside the Wildland Urban Interface (WUI) in previous years will now 
be part of IRR to support integrated restoration of National Forest 
System lands. We will continue to focus on the highest priority areas 
in the WUI to protect communities and create defensible space for 
firefighters to work in.
    Question. With such a dramatic decrease for Hazardous Fuels within 
Wildland Fire, how are you planning to set priorities for where work is 
performed?
    Answer. The Forest Service continues to improve its processes for 
allocating fuel reduction funds, which prioritizes fuel reduction 
projects based on national priorities. These improvements include the 
use of a computer model developed by the Forest Service (the Hazardous 
Fuels Priority Allocation System, or HFPAS) to assist in making 
allocation decisions, rather than relying primarily on historical 
funding patterns and professional judgment. HFPAS uses data from 
various sources and considers wildfire potential, negative consequences 
of wildfire, program performance with prior years' allocations, and 
potential opportunities that meet other integrated resources 
objectives. The Agency annually updates the model inputs to use the 
best available data and science. The Forest Service also directs its 
regional offices to use a similar process and finer scale information. 
Additionally, we have directed the regions and field units to focus on 
projects where the threat is high, we can make a difference, and we 
have community partners.
    Question. In your testimony, you disclose that almost half of the 
Forest Service budget is dedicated to fire-related activities. What 
solutions are you pursuing to make firefighting cost less? How do we 
tackle this problem so that Fire doesn't overtake other Forest Service 
functions and priorities?
    Answer. We have made significant strides in implementing risk 
management for fire suppression efforts, to ensure we have an 
appropriate, risk informed, and effective response to all fires. Cost 
is one outcome of our decisions. By utilizing risk management 
techniques we are successful in having positive financial outcomes on 
our suppression operations. Based on analysis performed by Forest 
Service researchers, in fiscal year 2012, we spent nearly $377 million 
less than we would have in previous years, had they had similar fire 
seasons, due to applying risk management principles.
    Question. Sequestration will reduce your firefighting assets by at 
least 100 fire engines and 500 fire crew members. Are those figures 
still correct and what are the consequences for fighting fire this 
year?
    Answer. Yes, we anticipate reductions at approximately this level 
(although the engines may be subject to a reduction of 50-100). 
However, we will ensure that there are adequate resources available to 
meet the demands of fire activity through the use of contracted assets 
as well as by managing the levels and location of seasonal employees 
available nationally.
    Question. We currently use a 10-year average of suppression costs 
to predict the funding necessary for the next fiscal year. The fact 
that we have spent more than the 10-year average in 9 of the last 10 
years, it is evident that this model is not reliable. Are you working 
on a different model, and what are the options?
    Answer. We have only overspent the 10-year average in 7 of the last 
10 years. Fire costs are dependent on several factors, primarily 
weather, that are extremely difficult to predict 2 years out, as is 
necessary to meet budget formulation timelines. We have explored 
several methods, including multi-equation regression models that 
include weather and climate data, to more accurately predict future 
costs and fire activity and have had some success. We will continue to 
work to develop these methodologies and would like to work with the 
committee to explore other options.
                             fire aviation
    Question. Last year's budget included $24 million to pay for 
increases in tanker contract costs for the Next Gen aircraft. The 
President's budget request for fiscal year 2014 has an additional $50 
million, but there is not a total specified in the budget for aviation. 
What is the total amount you are proposing to spend, in both 
Preparedness and Suppression, on firefighting aviation?
    Answer. Total aviation expenditures are hard to predict given that 
a large portion of our costs are associated with actual flight hours 
for flying suppression operations. We do expect to spend between $160 
million and $200 million on fixed availability costs for all aviation 
assets (this includes not only large airtankers, but other assets like 
helicopters and water scoopers) from the preparedness account. In 
addition, on average, we spend $150 million to $200 million on flight 
costs, which are paid from suppression. The additional funding will 
support the contract acquisition costs of the continued phasing in of 
modernized aircraft.
    Question. Are we going to see similar increases every year for this 
activity due to the increasing number of aircraft? What are the 
estimates of how much additional funding new aircraft will cost in 
future years?
    Answer. As we continue to modernize our airtanker fleet, we will 
evaluate the needs for fiscal year 2015 and beyond to determine if we 
will continue to ask for specific increased funding for this purpose, 
weighing our other funding needs within the Agency.
    Question. Congress has given you the opportunity to obtain 7 C-
27Js. If you do receive them, they will not be immediately ready as 
tankers. What are you able to do now to prepare for the transfer?
    Answer. A working group, made up of the following Aviation staff 
groups, Operations, Business Operations, Airworthiness, Pilot 
Standardization, and Strategic Planning--as well as Budget and Planning 
and Acquisition Management--has been formed within the Agency to 
facilitate the transfer, ownership, and eventual operation of these 
aircraft. Solicitations are being prepared for the design and 
manufacture of a retardant delivery system, maintenance services, and 
pilot services. The Forest Service is also working with the U.S. Army 
Prototype Integration Facility to assist us with the design of the 
retardant delivery system. The Forest Service is currently in 
discussions with the Department of Defense regarding the divesture of 
the C-27Js. The Forest Service has also intensified interaction and 
coordination with potential inter-Agency partners to ensure contracts 
and other logistical requirements will be in place as soon as possible 
after receiving the aircraft.
    Question. Do you have an estimate of how long it would take to 
convert the C-27Js to tankers after a transfer?
    Answer. The Forest Service estimates it may take up to 18 months 
from the award of the retardant delivery system contract to complete 
the design, manufacture and testing. The retardant delivery system is 
the most complicated of the conversion tasks, because it involves 
engineering analysis, design and airworthiness, and engineering 
approval of the aircraft after modifications required to accept the 
delivery system and the actual installation of the delivery system have 
occurred.
    Question. What assurances can you provide that these C-27J aircraft 
will actually perform as well as other firefighting aircraft?
    Answer. The C-27J was designed for combat purposes, which are a 
similar flight environment to the wildland firefighting airtanker 
mission. It has a demonstrated ability to meet Agency and Federal 
Aviation Administration airworthiness and safety requirements. The C-
27J is a multi-role aircraft capable of operating as an airtanker, as 
well as performing other missions such as firefighter transport, 
smokejumper deployment, and cargo delivery.
    Question. If you acquire the C-27Js, the Forest Service must 
maintain ownership of these aircraft, which is not your current model. 
What type of contract do you plan to use, and how much will the C-27Js 
cost to operate?
    Answer. The Forest Service would retain ownership when the aircraft 
are transferred. The only contracts would be for pilot and maintenance 
services from private industry. We are still analyzing the potential 
operating costs.
    Question. How do you propose to pay for the C-27Js, taking into 
account the continuing costs of the Legacy and Next Generation 
contracts?
    Answer. The Forest Service would pay for C-27Js within our 
requested budget by implementing programmatic efficiencies and 
identifying firefighter resource allocation changes and reduction that 
will decrease our costs and maintain our operational capability. 
Programmatic efficiencies include implementation of optimized 
dispatching analysis, streamlining of our IT investments through the 
Wildland Fire IT initiative, and a decrease in programmatic overhead 
costs.
    Question. The Air Tanker Modernization Strategy called for 18 to 28 
large airtankers with at least a 3,000-gallon capacity, which is not 
possible for the C-27Js. Does that mean that you also plan to pursue 
other contract aircraft that meet the requirements set in your 
modernization strategy?
    Answer. The C-27Js would be considered medium airtankers, but would 
meet most of the other requirements to be considered a Next Generation 
Airtanker. In effect, two C-27Js would equal one large airtanker 
referenced in the Large Airtanker Modernization Strategy. We will 
continue to contract for airtankers from private industry. Seven 
contracts have been awarded for the Next Generation Large Airtanker 
services which will continue this model, providing aircraft that fit 
within the Large Airtanker Modernization Strategy.
                  community wildfire protection plans
    Question. You also stated in your testimony that there are now 
70,000 communities across the country at risk due to forest fires, but 
only 15,000 of those communities have wildfire protection plans. What 
incentives does this budget propose to improve that statistic?
    Answer. The Forest Service prioritizes treatments identified in a 
Community Wildfire Protection Plan (CWPPs) or equivalent plan and works 
in close coordination with communities at risk in the Wildland Urban 
Interface. This includes providing funding for development of CWPPs and 
providing technical assistance directly to communities when they are 
undergoing preparation of a CWPP. However, there is no requirement for 
communities, counties or States to develop CWPPs.
    Question. Why aren't more communities working on Fire Plans?
    Answer. Community Wildfire Protection Plans (CWPP) are most 
prevalent in the western United States, where significant portions of 
counties are covered by Forest Service or Department of the Interior 
lands. The eastern and southern portions of the country, however, often 
use tools other than a CWPP to prepare for wildland fire (and other 
hazards) and to identify priority acres for treatment. A CWPP may not 
be the right tool in communities that are not close in proximity to 
Federal lands or in communities focused more broadly on multiple types 
of hazards, such as hurricanes.
    Question. Other than the clear risk of fire, are there consequences 
for communities that do not want to create Fire Plans?
    Answer. Community Wildfire Protection Plans are an important tool 
in helping communities prepare for wildland fire. The Forest Service 
prioritizes treatments identified in a CWPP or equivalent plan and 
works in close coordination with communities at risk in the Wildland 
Urban Interface (WUI). This coordinates with funding for the 
development of CWPPs and providing technical assistance directly to 
communities while they prepare a CWPP. However, there is no requirement 
for communities, counties or States to develop CWPPs. Therefore, not 
all National Forest System lands in the WUI are identified in a CWPP.
                                 ______
                                 
                Question Submitted by Senator Jon Tester
    Question. Within the next 2 weeks, Chief Tidwell will decide 
whether or not to override the next-generation large airtanker contract 
intent to award protest. Can you provide a status update?
    Answer. On June 7, 2013, Neptune withdrew their protest. The Forest 
Service moved forward to award the remaining four line items in the 
next-generation large airtanker contract that same day.
                                 ______
                                 
                Questions Submitted by Senator Tom Udall
    Question. Chief, as you know my State of New Mexico has experienced 
devastating wildfires the past 2 years, and we are now in our third 
year of extreme drought. I am concerned that the President's fiscal 
year 2014 budget request has a substantial reduction for the hazardous 
fuels program.
    I realize that a direct budget comparison for your requested 
funding for hazardous fuels is complicated by the budget restructuring 
you request for the ``Integrated Resources Restoration'' (IRR) 
activity, but I understand that your request is about a 20 percent 
reduction from the current fiscal year 2013 level. (That assumes your 
hazardous fuels program budget of $300 million for the current year, 
after the sequestration, and a request for fiscal year 2014 of $201 
million, plus perhaps $40 million or so within the Integrated Resources 
Restoration account for hazardous fuels type projects.)
    What do you expect the impacts to be if this reduction in hazardous 
fuels funding are maintained?
    Answer. This reduction is just one of many difficult tradeoffs that 
had to be made, while fulfilling our commitment to request funding for 
the 10-year average for suppression funding.
    The reduction in fuels funding will result in fewer acres of 
hazardous fuels treated, but still allows us to treat 685,000 of the 
highest priority acres each year. We will continue to focus on the 
highest priority areas in the WUI to protect communities and create 
defensible space for firefighters to work in. Funds that may have been 
spent outside the WUI in previous years will now be part of IRR to 
support integrated restoration of National Forest System lands.
    Question. Will this reduction in funding for dealing with Hazardous 
Fuels make communities more at risk?
    Answer. Firefighter and public safety will remain our number one 
priority. The Forest Service will continue to prioritize our work to 
accomplish the most important hazardous fuels projects. The highest 
priority projects are focused where the threat is high, where we can 
make a difference, and where we have community partners.
    Scientific analysis and our monitoring have shown a strong 
correlation between hazardous fuel treatments and reduced wildfire 
behavior when a wildfire burns through a treated area. The treatments 
are also beneficial to fire suppression forces. We know these outcomes 
reduce risk to communities. However, because of the random nature of 
wildfires it is impossible to quantify the impacts of this reduction in 
terms of hypothetical increased risk or potentially less effective 
wildfire suppression.
    Question. Chief Tidwell, it is my understanding that the 
President's fiscal year 2014 budget removes the Valles Caldera National 
Preserve line item, but that the Service intends to fund the Preserve 
through other Budget Line Items. The Valles Caldera National Preserve 
is very important to New Mexicans and we are very concerned that the 
Preserve continues to be well managed.
    What kind of assurance can you give folks in my State that the 
elimination of this line Item would NOT impact the continued funding of 
the preserve?
    Answer. While the fiscal year 2014 President's budget does not 
propose a separate funding level for management of the Valles Caldera 
National Preserve, the Forest Service will continue to fund the Valles 
Caldera National Preserve through a variety of budget lines that are 
directly relevant to the work being completed. These fiscal year 2014 
funds would support the integrated program management objectives of the 
Preserve.
    The Preserve could expect to receive funding from the relevant 
budget line items (BLI) in the range of its historic appropriations 
under the former BLI, which would be approximately $3 million at the 
fiscal year 2014 President's budget level.
                                 ______
                                 
             Questions Submitted by Senator Lisa Murkowski
                         cube cove acquisition
    Question. This is in regards to continuing discussions regarding 
the Forest Service's potential acquisition of Shee Atika Incorporated's 
lands at Cube Cove on Admiralty Island. While it is my understanding 
there has been no final response, I have been told that the Forest 
Service staff has stated an intention to deny Shee Atika request for a 
``mutually agreeable'' appraiser. Shee Atika believes that such a 
process is allowed by Forest Service Regulations.
    What is the status of this request?
    Answer. The Forest Service has looked further into completing an 
appraisal for the Cube Cove lands on Admiralty Island that could meet 
Government requirements that might be agreeable to Shee Atika. In our 
May 3, 2013 response to them, we indicated that under the Federal 
Acquisition Regulations (FAR), activities related to the development of 
contract requirements and the source selection process for a Federal 
Government contract are inherently governmental and may only be 
performed by Federal employees.
    Question. How does the Forest Service intend to move forward with 
Shee Atika in a manner that protects the value and promise to Shee 
Atika of the Alaska Native Claims Settlement Act, while also protecting 
the interests of the Forest Service?
    Answer. Since Shee Atika has expressed desire to have an active 
participatory role in the selection of the appraisal firm, the Forest 
Service has offered to appoint someone acceptable to Shee Atika to be a 
temporary, uncompensated ``special Government employee'' (SGE). The SGE 
would have access to contractor and source selection information and 
could participate in the evaluation and source selection process to the 
extent permitted by the Forest Service. The Forest Service will need a 
willing seller letter from Shee Atika prior to moving ahead with the 
contract acquisition process for the appraisal.
    Shee Atika wrote Chief Tidwell on May 10, 2013 respectfully 
requesting a meeting with him as soon as possible to further discuss 
the appraisal process. This meeting has not yet been scheduled. The 
Forest Service is also evaluating the mineral potential of the area to 
assess the risks of acquiring a split estate (surface only).
                          air tour operations
    Question. I am hearing a great deal from my constituents in 
Ketchikan that the Forest Service's reduction of permit allocations in 
Misty Fjords National Monument and Traitors Cove in the Tongass will 
push air taxi businesses to the brink of financial collapse. As you 
know, tourism is becoming the predominant industry in Ketchikan, and 
your own budget puts a greater emphasis on the importance of outdoor 
recreation on our national forests to the national and local economies. 
The monument is accessible only by water and air, so any reductions to 
air permit allocations directly limits visitor access and the tourism 
dollars it generates. There is little evidence that the monument is 
threatened by visitor overuse. One air taxi company has seen its 
permits cut from 300 to 165; another from 1,600 to 1,191; and another 
from 500 to 298. These are real businesses providing jobs for real 
people. I don't know of many operators that can survive with a 45 
percent cut to their business.
    What are the other ``uses'' that the USFS is concerned that the air 
tour operators are negatively impacting?
    Answer. We are concerned about the effects of motorized floatplane 
traffic on the wilderness character of Misty Fjords National Monument, 
the impacts of outfitters and guides on wildlife resources in the area, 
and conflicts between guided visitors and unguided public recreational 
use of the area.
    In January 2012, the Ketchikan-Misty Fjords Outfitter and Guide 
Management Plan Final Environmental Impact Statement (FEIS) and Record 
of Decision (ROD) were completed which reduce commercial visitor use in 
the Misty Core Lakes. This decision established seasonal visitor 
capacities and outfitter and guide allocations for 28 Recreation Use 
Areas on the District. There is a perception that the decision reduced 
commercial visitor use at the Margaret Creek Wildlife Observation Site 
at Traitors Cove but this is not the case.
  --The Ketchikan-Misty Fjords Outfitter and Guide (O/G) Management 
        Plan EIS and ROD reduced commercial visitor use in the Misty 
        Core Lakes area of the Misty Fjords National Monument 
        Wilderness by about 27 percent.
  --Contrary to public perception, the ROD allows for a 49 percent 
        increase in 
        O/G use at the Margaret Creek Wildlife Observation Site in 
        Traitors Cove.
    Question. What steps can be taken to help mitigate the current 
situation?
    Answer. Due to concerns that limiting the amount and location of 
outfitter and guide use may not adequately provide for industry 
stability and growth, the Record of Decision for the Ketchikan-Misty 
Fjords Outfitter and Guide Management Plan allocated 53,997 service 
days annually to outfitters and guides. The highest actual use reported 
by outfitters and guides between 2005 and 2009 was 24,245 service days. 
Thus, the decision allows outfitter and guide use across the Ketchikan-
Misty Fjords District to increase over 100 percent from the reported 
highest use levels.
    The Forest Service also met with commercial air service providers 
on May 6, 2013 in Ketchikan, Alaska, to discuss the issues you have 
raised, to explain what was in the actual decision, and to discuss the 
new permit allocations. At the conclusion of the meeting, the Forest 
Service committed to meet again with the air service providers at the 
end of the season to review actual use versus permitted use. The 
Ketchikan-Misty Outfitter and Guide Management Plan include an adaptive 
management strategy to allow changes to be made if experience shows 
they are needed.
    Accordingly, by doubling the outfitter guide use across the 
District, and by incorporating a flexible adaptive management strategy 
to incorporate changes as needed in the future, the Ketchikan-Misty 
Fjords Outfitter and Guide Management Plan will facilitate growth of 
the industry while maintaining quality visitor experiences.
    Question. How many non-air visits are made to Misty Fjords each 
year?
    Answer. The Forest Service does not have reliable information about 
unguided visitor use numbers for Misty Fjords. Most unguided visitors 
access Misty Fjords National Monument Wilderness via motorized boat or 
sea kayak. Many of these visits are by local residents via privately 
owned boats. There is no practical way to know how many such visits are 
made.
    Question. Is the USFS concerned that a number of these businesses 
will be put out of business if the current allocation numbers hold? 
What suggestions do you have, Chief, to help me resolve these 
disagreements?
    Answer. The Forest Service has always been concerned about the 
economic health of rural communities throughout Southeast Alaska. The 
Alaska Region has made significant investment in a wide variety of 
resource areas to expand business opportunities across the Tongass. In 
this particular case, the Tongass National Forest limited the amount of 
outfitter guide use in one area to maintain its Wilderness character 
and quality visitor experiences, while allowing for growth in other 
areas of the Ketchikan Misty Ranger District.
                        timber budget nationally
    Question. I, along with 12 of my colleagues, signed a bipartisan 
letter on May 2 to the President asking him to reconsider the reduction 
of national timber targets by 15 percent.
    I understand that you are working with tight budgets, but can you 
explain to me why you reduced the timber targets so drastically when 
just last year you testified about the need to ramp up to 3 billion 
board feet as part of the agency's restoration strategy?
    Answer. Continuing to increase the Agency's targets is challenging 
and will be slowed during the effort to reduce Federal deficits and the 
national debt. Based on the Integrated Resource Restoration (IRR) 
funding level proposed in the fiscal year 2014 President's budget, the 
expected output is approximately 2.38 billion board feet of timber 
volume sold. This budget request provides for continued strategic 
investments in the highest priority activities while also constraining 
spending in other activities to contribute to budget savings at the 
national level.
    Approximately 51 percent of the funding for forest products is 
directed at preparing, offering, and selling new sales which is the 
basis for the output of timber volume sold. The remaining funding pays 
for administering the harvest of timber sales already under contract 
and handling ``walk-in'' business from citizens for firewood permits 
and special forest products. The Agency is contractually obligated to 
administer existing contracts and will continue to provide personal use 
permits for firewood and other special forest products. Thus, a 5 
percent reduction in the total forest products program is actually a 10 
percent reduction in funding available to prepare and sell new timber 
volume.
    In addition, timber volume is not related to a single funding line 
item, but is a result of multiple National Forest System BLIs, Capital 
Improvement and Maintenance BLIs, permanent authorities, and trust 
funds. All of these funds were reduced by the sequestration and will 
continue to be constrained as we do our part to contribute to budget 
savings at a national level.
    The fiscal year 2014 President's budget proposes a wide variety of 
management activities associated with IRR and is designed to balance 
the needs to maintain, enhance, or restore watersheds at the landscape 
level, and meet statutory requirements needed for sound resource 
management. We will also continue providing the public fuel wood 
program out of the decreased funds. The Forest Service continues to 
explore ways to increase efficiencies to increase the pace of 
restoration through such things as NEPA efficiencies, stewardship 
contracting, and large scale projects.
    Question. I note that you have increased your request for land 
acquisition by $76 million--a 75 percent increase.
    With 75 million to 80 million acres in need of restoration 
treatments, couldn't you reduce part of this request to keep on a path 
toward the 3 billion board foot goal? I would view taking care of what 
we already have as more important than adding more land that we can't 
take care of.
    Answer. Land acquisitions are in response to public demand, as 
outlined in the America's Great Outdoors Initiative. The fiscal year 
2014 program targets include new measures for acres acquired or donated 
using mandatory funds and high-priority acres acquired or donated using 
mandatory funds. For Land Acquisition, we propose a little more than 
$58 million in discretionary funding; an increase of around $8.2 
million from fiscal year 2013 enacted levels after sequestration. We 
also propose almost $34 million in mandatory funding, from the Land and 
Water Conservation Fund, for a combined total of $92 million. All Land 
Acquisition projects are within National Forest boundaries and 
acquiring them will reduce confusion and costs associated with boundary 
management, landscape-scale conservation and fire suppression, as well 
as costs to communities providing services to remote and fragmented 
land ownership. Acquiring these proposed land acquisition projects will 
reduce overall management costs.
    The Forest Legacy program is also important because funds are used 
to permanently protect working forests from development, helping to 
create and maintain rural jobs, conserve air and water quality, and 
provide habitat for threatened or endangered wildlife or fish. The 
increase is a key component of the President's America's Great Outdoors 
Initiative to conserve important landscapes and reconnect Americans to 
the outdoors. For the Forest Legacy Program, we propose $60 million in 
discretionary funding; an increase of around $9.5 million from fiscal 
year 2013 enacted levels after sequestration. We also are requesting 
$24.8 million in mandatory funds, from the Land and Water Conservation 
Fund, for a total of $84.8 million.
    Question. Chief Tidwell stated that he would like to work with 
Congress on using ``export'' values in timber appraisals. What is this 
referring to exactly?
    Answer. Current Region 10 policy uses export values for 50 percent 
of the spruce and hemlock volume in a timber sale appraisal, consistent 
with the volume we allow to be exported, and that has helped the 
program significantly since its inception. The Region could increase 
the percentage of exportable volume to 75 or 100 percent for spruce and 
hemlock and appraise accordingly with export values and might very well 
have more positive value sales available for offer. However, the result 
might be unacceptable in that mill jobs could be lost while logging and 
export processing jobs increased.
                           fire and aviation
    Question. I'm very concerned about the current state of our fixed 
wing airtanker fleet. You have included a request for $50 million for 
airtanker modernization but there is virtually no indication of how 
these funds will be spent in your budget justification.
    If these funds are provided, how exactly will they be expended?
    Answer. The $50 million that we have requested would help offset 
the additional cost for the next generation aircraft, plus the 
additional cost for the legacy aircraft. As anticipated, legacy 
aircraft expenses have gone up with the new contract. Additionally, the 
funds would help cover cancellation charges for which we are required 
to budget.
    Question. The agency recently awarded a contract for ``next 
generation'' air tankers but it was reported last week that one company 
already plans to file a bid protest.
    Can you tell us how long will it take to resolve the bid protest?
    Answer. Neptune Aviation has withdrawn their protest as of Friday, 
June 7, 2013. Three of the line items from the next generation large 
airtanker contract were awarded on May 31, 2013. The remaining four 
were awarded on June 7, 2013 following Neptune Aviation's decision to 
withdraw their protest.
    Question. Neptune Aviation, the company filing the bid protest, has 
met with my staff and claims that even if they had not filed a protest 
the ``next generation'' aircraft would not be ready to be in the air 
for several months. How do you respond to that claim?
    Answer. One airtanker awarded on May 31 is currently approved and 
operating under the next generation contract. The other six aircraft 
are scheduled for retardant tank testing and we expect them to meet the 
timeline of operating 60 to 90 days after the award.
    Question. Without these new tankers, how many airtankers will you 
have at your disposal?
    Answer. We do expect to have the new next generation large 
airtankers in operation this fire season, however without them we 
should have 16 to 18 airtankers on current or potential exclusive use 
or call when needed contract.
    Last year's Defense Authorization bill included language concerning 
surplus C-27J aircraft operated by the military. The language gave the 
Forest Service the opportunity to possibly obtain some of these 
aircraft if the military declared them as surplus. I also understand 
the Coast Guard and National Guard have an interest in these aircraft.
    Question. How many of these C-27Js may be declared surplus by the 
military and what can you tell us about the likelihood of the Forest 
Service obtaining these planes compared to the other agencies?
    Answer. The C-27J aircraft being excessed by the Department of 
Defense would be available through the National Defense Authorization 
Act (NDAA), which allowed for up to seven aircraft to be transferred to 
the Forest Service. The NDAA gives right of first refusal to the 
Secretary of Agriculture.
    Question. Even if you obtain these aircraft, how long will it take 
to get them ready to drop retardant? It is my understanding that the 
interior tanks (``MAFFS'' units) have not been designed yet for these 
planes.
    Answer. The transfer timeline of the C-27Js is dependent on the 
Department of Defense. The Forest Service is ready to take ownership of 
these aircraft. Long-term plans will depend on interest from the U.S. 
Coast Guard and other Federal agencies in the C-27J. None of the MAFFS 
systems will fit into the C-27J. A new design will need to be created 
which incorporates the latest in technology and lighter weight 
components. In order for these aircraft to be used as medium 
airtankers, the Forest Service will have to solicit for contract 
services to design and manufacture retardant delivery systems, which is 
expected to take up to 18 months. If the Forest Service receives the 
aircraft sooner rather than later, one or more might be configured for 
general fire support missions such as firefighter or cargo transport 
later this fire season.
                    integrated resource restoration
    Question. For the past 3 years, the agency's budget request 
consolidates several programs including timber, wildlife, and planning 
into one line item called ``Integrated Resource Restoration.'' 
Currently, you have authority to operate a pilot for this program in 
Regions 1, 3, and 4. I personally believe we need to see concrete 
results that demonstrate improved performance before we can approve 
such an approach for all Regions on a permanent basis.
    My staff has told me that they have been briefed by the agency and 
there is still not sufficient information to determine whether the IRR 
lowers costs and achieves better results on the ground.
    Why does the agency continue to propose this consolidation when the 
information the committee needs to make an informed decision is simply 
not available?
    Answer. The flexibility provided by the Integrated Resource 
Restoration program (IRR) has allowed focused investment on landscape-
level restoration projects that otherwise have been split into several 
projects over the course of many years. To fully realize the 
flexibility of budget line items created through IRR, it must be 
expanded to a full Agency-wide authority. In doing so, the Agency can 
focus resources on integrated ecosystem restoration across the country.
    The Forest Service issued a progress report on April 15, 2013, 
describing the results of the IRR pilot program for fiscal year 2012. 
In 2012 the IRR pilot program exceeded or met its targets for moving 
watersheds to an improved condition class, acres treated to sustain or 
restore watershed function and resilience, miles of stream habitat 
restored or enhanced, and miles of road decommissioned. The pilot 
regions achieved over 80 percent of their target for timber volume; the 
shortfall was due to litigation in the pilot region independent of the 
IRR authority. The Forest Service will continue to monitor and report 
the performance results of the IRR pilot regions.
    The fiscal year 2014 President's budget continues to emphasize 
Integrated Resource Restoration as the leading approach to accomplish 
on-the-ground restoration. This work will lead to improved forest and 
grassland health and resilience using landscape scale restoration to 
recover watershed health and improve water and create or maintain local 
economic opportunities and jobs.
    Question. When do you anticipate having comprehensive quantitative 
measures by which the committee can decide whether moving to the IRR is 
a better approach than the current budget structure?
    Answer. The Forest Service issued a progress report on April 15, 
2013, describing the results of the IRR pilot program for 2012. The 
Agency has initiated a third-party monitoring of IRR with Colorado 
State University and the University of Oregon; it will begin June 2013 
and be completed by March 2015. While we can already provide 
quantitative measures on outputs and outcomes as provided in response 
to the prior question, we will continue to work with the committee to 
provide needed information.
    The IRR accomplishments for Regions 1, 3, and 4 are presented below 
for fiscal years 2008 to 2012 as are the accomplishments for non-IRR 
regions for comparison. The regions began implementation of the IRR 
pilot authority in fiscal year 2012 with passage of the Consolidated 
Appropriations Act of 2012.

                                          IRR PILOT REGIONS 1, 3, AND 4
----------------------------------------------------------------------------------------------------------------
                       Region                            2008        2009        2010        2011        2012
----------------------------------------------------------------------------------------------------------------
Region 1:
    Miles of stream habitat restored or enhanced....         297         420         657         396         426
    Miles of roads decommissioned...................         346         363         561         257         383
    Acres treated annually to sustain or restore      ..........  ..........  ..........     246,695     307,420
     watershed function and resilience..............
    Number of watersheds moved to an improved         ..........  ..........  ..........  ..........           2
     condition class................................
    Volume of timber sold (million board feet)......       240.2       293.1       256.9       210.6       206.1
Region 3:
    Miles of stream habitat restored or enhanced....         121         177         127         151         162
    Miles of roads decommissioned...................          46         103          25          57          69
    Acres treated annually to sustain or restore      ..........  ..........  ..........     296,944     198,574
     watershed function and resilience..............
    Number of watersheds moved to an improved         ..........  ..........  ..........  ..........  ..........
     condition class................................
    Volume of timber sold (million board feet)......       123.5       111.9       138.6       131.9       124.4
Region 4:
    Miles of stream habitat restored or enhanced....         232         296         355         238         346
    Miles of roads decommissioned...................         162         320         792         325         286
    Acres treated annually to sustain or restore      ..........  ..........  ..........     222,789     283,795
     watershed function and resilience..............
    Number of watersheds moved to an improved         ..........  ..........  ..........           3           1
     condition class................................
    Volume of timber sold (million board feet)......       117.0       103.5       112.9       118.7       110.7
----------------------------------------------------------------------------------------------------------------

    The number of watersheds moved to an improved condition class and 
acres treated annually to sustain or restore watershed function and 
resilience were both new performance measures in fiscal year 2011. 
There are no prior data for these two measures.
    Volume of timber sold, miles of roads decommissioned, and miles of 
stream habitat restored or enhanced are traditional accomplishments, 
but because fiscal year 2012 was the first official year for IRR, it is 
difficult to establish valid IRR related trends at this time. We began 
implementation of the Watershed Condition Framework in fiscal year 2011 
and it takes 3 to 7 years to restore a watershed. Therefore, we expect 
the number of watersheds moved to an improved condition class to show 
an in increasing trend in future years.
    Regions not included in the IRR pilot program below are the IRR 
corollary accomplishments for Regions 2, 5, 6, 8, 9, and 10 for fiscal 
years 2008 to 2012.

                                          REGIONS NOT IN THE IRR PILOT
                                         [Regions 2, 5, 6, 8, 9, and 10]
----------------------------------------------------------------------------------------------------------------
                       Region                            2008        2009        2010        2011        2012
----------------------------------------------------------------------------------------------------------------
Region 2:
    Miles of stream habitat restored or enhanced....          90         140         108         142         222
    Miles of roads decommissioned...................         354         287         290         254         300
    Acres treated annually to sustain or restore      ..........  ..........  ..........     216,956     214,430
     watershed function and resilience..............
    Number of watersheds moved to an improved         ..........  ..........  ..........  ..........  ..........
     condition class................................
    Volume of timber sold (million board feet)......       259.9       243.4       222.3       204.7       241.3
Region 5:
    Miles of stream habitat restored or enhanced....         281       1,163         426         449         465
    Miles of roads decommissioned...................          51          94          83         249         274
    Acres treated annually to sustain or restore      ..........  ..........  ..........     164,183     249,641
     watershed function and resilience..............
    Number of watersheds moved to an improved         ..........  ..........  ..........  ..........           3
     condition class................................
    Volume of timber sold (million board feet)......       202.8       310.3       335.6       311.4       299.8
Region 6:
    Miles of stream habitat restored or enhanced....         369         373         702         696         773
    Miles of roads decommissioned...................         151         347         372         198         208
    Acres treated annually to sustain or restore      ..........  ..........  ..........     302,055     464,793
     watershed function and resilience..............
    Number of watersheds moved to an improved         ..........  ..........  ..........  ..........           1
     condition class................................
    Volume of timber sold (million board feet)......       628.0       584.4       576.7       547.6       605.6
 Region 8:
    Miles of stream habitat restored or enhanced....         509         486         551         756         670
    Miles of roads decommissioned...................          93         104         204          81         337
    Acres treated annually to sustain or restore      ..........  ..........  ..........     925,362     556,688
     watershed function and resilience..............
    Number of watersheds moved to an improved         ..........  ..........  ..........  ..........           2
     condition class................................
    Volume of timber sold (million board feet)......       515.2       466.9       502.1       542.4       557.2
Region 9:
    Miles of stream habitat restored or enhanced....         382         353         476         969         554
    Miles of roads decommissioned...................          81         144         193         103         223
    Acres treated annually to sustain or restore      ..........  ..........  ..........     211,227     246,116
     watershed function and resilience..............
    Number of watersheds moved to an improved         ..........  ..........  ..........  ..........  ..........
     condition class................................
    Volume of timber sold (million board feet)......       391.7       371.5       400.7       421.4       446.6
Region 10:
    Miles of stream habitat restored or enhanced....          67          91         173          81          87
    Miles of roads decommissioned...................           7          15          29          17          23
    Acres treated annually to sustain or restore      ..........  ..........  ..........      37,805      40,907
     watershed function and resilience..............
    Number of watersheds moved to an improved         ..........  ..........  ..........           1  ..........
     condition class................................
    Volume of timber sold (million board feet)......         5.4        22.9        45.9        44.2        52.5
----------------------------------------------------------------------------------------------------------------

                      anan creek float dock status
    Question. Anan Creek, located 30 miles southeast of Wrangell, 
Alaska, in the Tongass National Forest, is home to one of the largest 
pink salmon runs in Southeast Alaska, making it an ideal spot to watch 
black and brown bears, bald eagles and sea lions. The Forest Service 
maintains an observation platform for visitors. However, the area is 
only accessible by floatplane or boat.
    Several air charter service companies offer trips to Anan from 
local communities, especially Wrangell and Ketchikan. However, the 
current docking system in Anan Bay is only suitable for ideal weather 
conditions usually encountered during the summer months.
    I understand that a new docking facility is needed, as the current 
situation has become a safety hazard, leading to sunken and damaged 
boats and planes. This issue was raised at public meetings with the 
Forest Service earlier this year and I understand the Forest Service 
has done some preliminary engineering work there.
    Chief, I mentioned this issue to you in our ENR hearing last month 
and wanted to ask if you had a chance to look into it and give us a 
status update on the situation.
    Answer. Access from the beach to the existing Anan Trailhead has 
been a management concern since we began allowing commercial use. Some 
type of dock, or other mooring, has been identified as a need. Although 
it has been identified as a need, available funding has been allocated 
to higher priority safety and health concerns, such as minimizing bear-
human encounters and proper handling of human waste at the site.
    Some work has been completed on a long-term solution for improving 
safety and accessibility of the bear viewing facilities. Conceptual 
designs have identified several options; the most practical option is a 
floating dock that could be beached in the off season. One potential 
site is at the head of the cove near the Forest Service cabin. This 
would complement the existing small float, but it may conflict with use 
of the cabin.
    Another site being evaluated is in the cove where the Anan 
Administrative Facility is anchored. Integrating the dock into that 
floating facility has advantages. Connecting the floating dock to a 
staircase would make it more difficult to ensure an accessible 
facility, however. Finally, it may be difficult to construct accessible 
trails from the dock to the current trailhead.
    In short, the Tongass National Forest is aware of the issues and is 
evaluating the best way to resolve them. Further NEPA analysis will be 
necessary before a dock or mooring facility can be built.
                number of forest service employees in se
    Question. The State of Alaska has a large percentage of Federal 
employees living in our State. These Alaskans are paid good wages and 
are important contributors to our economy, especially in many rural 
places throughout the State. These folks are our little league coaches, 
neighbors and community leaders.
    I'm concerned about the downturn of timber harvesting and the loss 
of related jobs on the Tongass. And I hear you saying that one of the 
reasons for this downturn is tight resources. I understand that you 
have over 350 employees working on the Tongass.
    While I understand that the Tongass is expansive with several 
Ranger Districts working 17 million acres of land, I want to make sure 
you have enough people working on arguably the most important mission 
priority of the Service--one that promotes private sector jobs in these 
rural areas.
    How many employees do you have working on timber?
    Answer. There are 112 positions in Forest Management in the Tongass 
National Forest Supervisor's Office and Ranger Districts.

         TONGASS NATIONAL FOREST, FOREST MANAGEMENT ORGANIZATION
------------------------------------------------------------------------
                                                              Number of
  Series                      Series Name                     Positions
------------------------------------------------------------------------
           Supervisor's Office:
      0460     Forester                                              9
      0462     Forestry Technician                                   3
      0807     Landscape Architect                                   3
      1315     Geologist                                             2
      0193     Archeologist                                          1
      0401     Recreation                                            1
      1101     NEPA Coordinator                                      2
      1082     Writer/Editor                                         1
      0408     Ecologist                                             3
      1035     Public Affairs                                        1
      0802     Engineering Tech                                      2
      0810     Engineer/Transportation Planner                       2
      1315     Hydrologist                                           1
      0482     Fish Biologist                                        1
      0470     Soils                                                 2
      2210     GIS                                                   5
      0301     NEPA Planner                                          2
      0486     Wildlife Biologist                                    1
           Ranger District Offices:
      0460     Forester                                             24
      0462     Forestry Technician                                  17
      0404     Fish Technician                                       2
      0193     Archeologist                                          5
      0401     Natural Resource                                      6
      1101     Specialist (NEPA, IDT Leader) NEPA                    2
                Coordinator
      1082     Writer/Editor                                         3
      0408     Ecologist                                             1
      1315     Hydrologist                                           2
      0482     Fish Biologist                                        3
      0470     Soils                                                 1
      0301     NEPA Planner                                          1
      0486     Wildlife Biologist                                    3
                                                          --------------
                 Total Employees Tongass National Forest           112
------------------------------------------------------------------------

                         CONCLUSION OF HEARINGS

    Senator Reed. With that, the hearing is concluded.
    [Whereupon, at 11:01 a.m., the hearings were concluded, and 
the subcommittee was recessed, to reconvene subject to the call 
of the Chair.]


     DEPARTMENT OF THE INTERIOR, ENVIRONMENT, AND RELATED AGENCIES 
                  APPROPRIATIONS FOR FISCAL YEAR 2014

                              ----------                              

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

                       NONDEPARTMENTAL WITNESSES

    [Clerk's note.--The subcommittee was unable to hold 
hearings on nondepartmental witnesses. The statements and 
letters of those submitting written testimony are as follows:]
  Prepared Statement of the American Association of Fish Veterinarians
    Dear Chairman Reed and members of the subcommittee: We are writing 
in support of the U.S. Fish and Wildlife (FWS) Aquatic Animal Drug 
Approval Partnership (AADAP) program. Current proposed budget cuts will 
effectively eliminate the critical services that AADAP provides to all 
fisheries professionals and the aquaculture industry in the United 
States. The American Association of Fish Veterinarians (AAFV) is an 
association of licensed veterinarians that works in the area of aquatic 
animal medicine. A central function of our organization is to advance 
the quality and stature of clinical fish veterinary practice and 
provide safe and effective treatments for fish. We rely heavily upon 
the AADAP program to assist in the approval process for new animal 
drugs used in the various aspects of fish medicine and the aquaculture 
industry. We respectfully request through this letter that current 
levels of funding at $1,790,000 and current full-time equivalents 
(FTEs) of the staff be maintained to continue AADAP's mission.
    The AADAP program works in a unique partnership with Federal, 
State, and private enterprise to provide safe and efficacious drugs and 
other tools used to work with fisheries resources in the United States. 
In the early 1990s, the Federal Food and Drug Administration (FDA) 
announced that all fisheries drugs would need to go through the same 
approval process that is required of other animal species. The aquatic 
animal industry is small in comparison to terrestrial animal species 
production and thus it does not attract investment by private drug 
companies as the investment returns are limited. Fisheries 
professionals have had to step up to the challenge and take on the drug 
registration process on their own. The development and approval of new 
animal drugs is quite complicated and expensive. The New Animal Drug 
Application (NADA) process has six study sections that must be 
completed favorably to FDA standards prior to approval which takes many 
years of research to complete and considerable investment of time and 
financial resources. Although we all participate in this process, the 
AADAP program has taken up the lead in coordinating the National 
Investigational New Animal Drug (INAD) Program (NIP). Through the 
years, the NIP has allowed for a wealth of important ancillary efficacy 
and target animal safety data to be generated and this has been used in 
supporting new animal drug approvals for drugs and therapeutants that 
we can use.
    Many species of fish are produced by the U.S. aquaculture industry 
which includes the FWS, State, and private fish hatcheries. These fish 
are used for recreational and commercial fishing and for private sales 
with one commonality, most of these fish like other veterinary species 
are considered a food animal. The food animal classification carries a 
special stigma with the FDA and the general public which requires these 
fish to be produced in safe and unadulterated manner. People want to 
know that the fish they caught or the one they bought in the grocery 
store is safe. This health and human safety issue is a huge 
responsibility for aquatic animal veterinarians who diagnose disease 
and prescribe drug treatments and for those involved with aquaculture. 
There must be adequate numbers of drugs available for treatments that 
are efficacious so that misuse or overuse of any individual drug does 
not promote antimicrobial resistance that could affect efficacy of 
human drug treatments. (Currently, we work with a very limited 
armamentarium of approved drugs/therapeutants.) We must know withdrawal 
times to ensure that there is no drug residue or adulteration of the 
human food supply. Drugs must also be safe for the target animal and 
for the people who administer them. AAFV feels that the human health 
and safety concern would be magnified tremendously if the AADAP program 
is defunded or eliminated and it would have far reaching deleterious 
effects on fish veterinary practice and for fisheries biologists 
collecting data in the field.
    We understand that tough decisions must be made in difficult budget 
times but the AADAP program is money well spent. The aquaculture 
industry has a significant impact on the American economy providing 
jobs and billions of dollars to local economies. It is estimated that 
33 million Americans fish recreationally, and saltwater fishing alone 
generates $73 billion in economic impact. Do we want to defund a 
program that helps protect an industry that has this much of an 
economic impact which essentially pays for itself over and over in new 
tax revenue? We believe that this would be a mistake. On behalf of the 
AAFV and its membership we encourage the Senate Appropriations 
Committee to maintain the AADAP program at its current funding level of 
$1,790,000. We welcome contact to answer any questions or concerns you 
may have over this issue and thank you for your consideration of our 
proposal.
                                 ______
                                 
     Prepared Statement of the Association of Art Museum Directors
    Thank you for the opportunity to submit a statement for the record 
regarding fiscal year 2014 appropriations for the National Endowment 
for the Arts (NEA) and the National Endowment for the Humanities (NEH). 
We respectfully request that the subcommittee approve a funding level 
of $155 million for the NEA and $155 million for the NEH, which would 
restore them to their fiscal year 2011 levels.
    In a statement submitted last year, we provided information about 
an upcoming exhibition--Children of the Plumed Serpent: The Legacy of 
Quetzalcoatl in Ancient Mexico--that had received support from both the 
NEA and the NEH. Now that the exhibition has run its course, we thought 
that members of the subcommittee might be interested in its impact.
    During its 3-month run at the Los Angeles County Museum of Art 
(LACMA), 83,162 people attended. In addition:
  --310 K-12 teachers attended ``Evenings for Educators,'' which 
        present strategies to incorporate the visual arts into the 
        classroom. The programs included a lecture, gallery tours and 
        activities, and hands-on workshops. Educators received 
        curriculum materials containing a thematic essay on the 
        exhibition, color prints, lesson plans, and a CD of additional 
        resources. All programs were interdisciplinary and aligned with 
        California State content standards.
  --37 school groups were given tours led by docents.
  --2,800 people attended four Sunday afternoon programs for children 
        and their families focusing on the exhibition. Families enjoyed 
        dance and art workshops and learned how artists in ancient 
        southern Mexico were inspired by the ancient Plumed Serpent 
        god, Quetzalcoatl. A musical performance was held on the BP 
        Grand Entrance featuring La Banda Filarmonica Maqueos. 
        Bilingual gallery tours (Spanish/English) were led by Education 
        Gallery Teachers. Like Evenings for Educators, Family Sundays 
        are privately supported.
  --Seven buses were provided for families from communities throughout 
        Los Angeles County, including Cypress, Glendale, North 
        Hollywood, Pacoima, and south-central Los Angeles, to attend 
        the four programs; approximately 450 participated. Outreach and 
        transportation are privately supported.
  --In conjunction with the exhibition, LACMA worked with the nonprofit 
        organization 826LA to design a series of writing workshops. The 
        final workshop included a visit to LACMA and a curator-led tour 
        of the exhibition. LACMA provided two free buses and free 
        admission for students and their families to visit the museum.
  --More than 1,000 people participated in other public programs 
        including lectures, panel discussions, and a teen event.
    After closing in Los Angeles, Children of the Plumed Serpent 
traveled to the Dallas Museum of Art, where total attendance was 
34,953. As at LACMA, the museum in Dallas also built significant 
programming around the exhibition.
    This exhibition, which received grants from both the NEA and NEH, 
is merely one example of the great work that both agencies support, and 
that directly benefits large numbers of people across the country.
    As mentioned in last year's statement, the exhibition also received 
Federal support through the arts indemnity program.
    Offered by the Federal Council on the Arts and the Humanities and 
administered by the NEA, the indemnity program has played a vital role 
in many of the most important traveling exhibitions in this country 
since it was established in 1975. Without it, many objects would not be 
able to travel to and within the United States.
    That some exhibitions may not go forward without indemnity was 
proved to the subcommittee's satisfaction in 2007, when it expanded the 
program to cover purely U.S. exhibitions (previously the program only 
covered exhibitions with a substantial foreign component). At that 
time, subsequent to Hurricane Katrina, insurance companies had 
recalculated their loss estimates, and insurance became much more 
expensive and difficult to obtain, especially in zones prone to events 
such as hurricanes, floods, and earthquakes. Important exhibitions had 
either been curtailed or cancelled purely because of the rise in 
insurance costs. The private insurance industry supported our request 
to extend indemnity to domestic exhibitions, because it benefits from 
being able to insure part of an exhibition rather than none if the 
exhibition does not go forward at all.
    The amount that museums save in insurance fees far surpasses the 
total direct grants that NEA makes to museums. Last year, the savings 
was about $30 million, according to AAMD's 2013 Statistical Report. 
Over the 38 years of the program, it has extended indemnity to about 
1,200 major exhibitions and saved museums about $375 million in 
insurance payments. Over the same period there have been just two 
claims because the program has very rigorous requirements regarding 
what it will insure and what procedures must be followed in terms of 
packing, shipping, and guarding works of art. The two claims together 
came to just $104,700.
    The total dollar amount of indemnity agreements for international 
exhibitions that can be in effect at any one time is $10 billion. The 
corresponding figure for purely domestic exhibitions is $5 billion. 
While these numbers sound large, two important facts must be noted. 
First, they do not represent actual outlays by the U.S. Government; and 
second, individual objects can be exceedingly valuable, sometimes 
running into the scores of millions of dollars. As the market continues 
its seeming inexorable rise, the value of exhibitions rises as well.
    Last year, the international indemnity program received requests to 
cover exhibitions worth nearly $16 billion, while the amount requested 
for domestic exhibitions was nearly $6.3 billion. Because not all 
exhibitions are going to be up at the same time, the program has been 
able to grant all qualified requests without exceeding the respective 
caps of $10 billion for international and $5 billion for domestic, but 
in some cases not at the full amount requested, meaning that some 
museums had to find private insurance or curtail their exhibitions.
    Over the life of the program, Congress has consistently raised the 
international cap at intervals of as little as 2 years and as many as 
8. It is now 8 years since either cap was raised and we suggest that 
the statistics show that the time is approaching for another 
adjustment.
    We suggest as well that the subcommittee look into the possible 
benefit of lowering the threshold value of exhibitions that can be 
covered.
    Thank you again for the opportunity to submit testimony for the 
record.
                  association of art museum directors
    The Association of Art Museum Directors (AAMD) is composed of the 
directors of more than 200 art museums in the United States, as well as 
several in Canada and Mexico. Its mission is to support its membership 
in fostering vibrant communities. The AAMD has been a grantee of the 
NEA in the past.
                                 ______
                                 
 Prepared Statement of the American Association of Petroleum Geologists
    To the chair and members of the subcommittee: Thank you for this 
opportunity to provide testimony on behalf of the American Association 
of Petroleum Geologists (AAPG) about the importance of the geological 
programs conducted by the U.S. Geological Survey (USGS).
    AAPG is the world's largest scientific and professional geological 
association. The purpose of the association is to advance the science 
of geology, foster scientific research, and promote technology. AAPG 
has more than 38,000 members around the world, with roughly two-thirds 
living and working in the United States. These are the professional 
geoscientists in industry, government, and academia who practice, 
regulate, and teach the science and process of finding and producing 
energy resources from the Earth.
    AAPG strives to increase public awareness of the crucial role that 
the geosciences, and particularly petroleum geology, play in our 
society. The USGS is crucial to meeting these societal needs, and 
several of its programs deserve special attention by the subcommittee.
                          hydraulic fracturing
Multiple Programs
    As part of the effort to improve America's energy security, save 
consumers money, and maintain United States leadership in emerging 
energy technologies, the USGS, the U.S. Department of Energy (DOE), and 
the Environmental Protection Agency (EPA) have developed an interagency 
plan that aims to understand the potential environmental, health, and 
safety impacts of hydraulically fractured oil and gas resources.
    AAPG would like to emphasize that while hydraulic fracturing 
technology continues to evolve, it is not a new technology and we have 
substantial knowledge about its impacts as well as evidence of its 
long-term safety. This should form the basis for any new research. The 
AAPG supports the USGS budget increase in fiscal year 2014 that will 
support research efforts that include resource assessments and 
characterization; water quality; water availability; ecological 
impacts; effects on people and their communities; and induced 
seismicity.
                     geologic resource assessments
Energy Resources Program
    The USGS Energy Resources Program (ERP) conducts both basic and 
applied geoscience research focused on geologic energy resources (both 
domestic and international), including oil, natural gas, coal, coalbed 
methane, gas hydrates, geothermal, oil shale, and bitumen and heavy 
oil.
    An urgent problem addressed through the ERP is the preservation of 
geological and geophysical data. The Energy Policy Act of 2005 (EPACT 
2005, Public Law 109-58) includes section 351, Preservation of 
Geological and Geophysical Data. This program is helping to preserve 
geological, geophysical data, and engineering data, maps, well logs, 
and samples. It includes development of a national catalog of this 
archival material, and providing technical and financial assistance 
related to the samples and materials. As the act stipulated, the USGS 
created the National Geological and Geophysical Data Preservation 
Program (NGGDPP). Since the beginning of this program, however, it has 
received insufficient funding to accomplish all of the objectives set 
out in the authorizing language.
    Why is preservation important? Responsible management and efficient 
development of natural resources require access to the best available 
scientific information. Over many years industry, such as petroleum and 
mining companies, has invested billions of dollars to acquire 
geological and geophysical data. Because of changing company focus and 
economic conditions this data may no longer have value to the company 
that acquired it, and is in jeopardy of being discarded.
    But this data still has value to society. The data is valuable for 
further natural resources exploration and development, and can be 
applied to basic and applied Earth systems research, environmental 
remediation, and natural-hazard mitigation. It is the type of data that 
will enable future generations of scientists and policymakers to 
address the Nation's energy, environmental, and natural hazard 
challenges of the 21st century.
    For example, this data has been essential to the development of oil 
and gas from shales. Geoscientists require previously acquired 
subsurface cores and samples to identify prospective natural gas 
deposits that were bypassed before new technology made shale resources 
economically producible.
    The NGGDPP was authorized at $30 million annually in EPACT 2005. 
Historical allocations for this program have ranged from $750,000 to $1 
million per year. These funding levels are inadequate to achieve the 
program's objectives.
    AAPG supports President Obama's fiscal year 2014 request to fund 
the Energy Resources Program activities at $31 million, and asks the 
subcommittee to additionally appropriate $30 million in fiscal year 
2014 for the preservation of geological and geophysical data, bringing 
the total Energy Resource Program budget to $61 million.
Mineral Resources Program
    The United States is the world's largest consumer of mineral 
commodities. They form the building blocks of our economy.
    It is therefore essential to the Nation's economic and national 
security that the Federal Government understands both the domestic and 
international supply and demand for minerals and mineral materials. 
This data is used throughout Government (Departments of Commerce, 
Interior, Defense, and State; the Central Intelligence Agency; the 
Federal Reserve) and the private sector.
    The USGS Mineral Resources Program (MRP) is the only Federal and 
publicly available source for comprehensive information and analysis of 
mineral commodities and mineral materials.
    AAPG supports greater funding than the $46.4 million in President 
Obama's fiscal year 2014 request for the Mineral Resources Program, and 
urges the subcommittee to appropriate a level at least even with the 
fiscal year 2012 request of $48.76 million.
               geologic landscape and coastal assessments
National Cooperative Geologic Mapping Program
    AAPG supports the National Cooperative Geologic Mapping Program 
(NCGMP). This unique partnership between the Federal and State 
governments and the university community further demonstrates the 
importance of geoscience to society. The geologic maps produced by this 
program are used for natural resource management, natural hazard 
mitigation, water resource management, environmental conservation and 
remediation, and land-use planning.
    NCGMP deserves special commendation for its EDMAP initiative. This 
university partnership enables students, working in a close mentoring 
relationship with faculty, to produce maps while learning essential 
mapping skills. As such, the program delivers an immediate return on 
the Federal investment in terms of beneficial maps, as well as a future 
return in the form of a trained and competent next generation 
workforce.
    AAPG applauds President Obama's support for the National 
Cooperative Geologic Mapping Program and his increased funding request 
of $28.3 million. However, this is essentially the amount authorized 
for fiscal year 1999. Authorizing legislation envisaged annual 
increases up to $64 million in appropriated funds. AAPG urges the 
subcommittee to fund NCGMP at a level higher than the President's 
request level in fiscal year 2014.
    Thank you for the opportunity to present this testimony to the 
subcommittee. In addition, thank you for your leadership and support 
for the geosciences. As you deliberate appropriate funding levels for 
these USGS programs, please consider the important public policy 
implications these choices entail.
                                 ______
                                 
          Prepared Statement of the American Bird Conservancy
    American Bird Conservancy (ABC) is a 501(c)(3) national nonprofit 
organization dedicated to the conservation of wild native birds and 
their habitats throughout the Americas. Founded in 1994, ABC is the 
only U.S. based group dedicated solely to overcoming the greatest 
threats facing native birds in the Western Hemisphere.
    As you know, America is blessed with a spectacular abundance and 
rich diversity of birds, with more than 800 species inhabiting the 
mainland, Hawaii, and surrounding oceans. Unfortunately, according to 
the U.S. Fish and Wildlife Service's 2009 State of the Birds Report, 
many of our bird species are in decline and some are threatened with 
extinction making it more important now than ever to continue funding 
Federal programs like the Neotropical Migratory Bird Conservation Act 
grants program, Joint Ventures, and the North American Wetlands 
Conservation Act which have been proven and effective in maintaining 
healthy and abundant native bird populations.
    Funding Federal bird conservation programs not only provides 
ecological benefits, it makes good economic sense. Birds are also a 
very important economic driver. According to a report put together by 
the Federal Government, Americans spend about $36 billion in pursuit of 
birding activities every year. Approximately one in five Americans--48 
million people--engages in bird watching, and about 42 percent travel 
away from home to go birding. Birding activities also generate about 
$4.4 billion in Federal tax revenues. Birds also naturally provide 
billions of dollars' worth of pest control each year benefiting farmers 
and consumers alike.
    American Bird Conservancy's report, Saving Migratory Birds for 
Future Generations: The Success of the Neotropical Migratory Bird 
Conservation Act found that of our 341 species that are neotropical 
migrants--meaning birds that breed in the United States and Canada and 
winter in Latin America and the Caribbean--127 are in decline. Sixty of 
those species, including 29 songbirds, are in severe decline having 
lost 45 percent or more of their population in the past 40 years. If 
these trends continue, future generations of Americans may never be 
able to see a bright blue Cerulean Warbler, Bell's Vireo, or Black-
chinned Sparrow.
    This trend can be seen all throughout the country. Here in 
Washington, DC for example an annual census of birds in Rock Creek Park 
that started in the 1940s, found that the number of migratory songbirds 
breeding there has dropped by 70 percent over the past half century. 
Three species of warbler (Black-and-white, Hooded, and Kentucky) no 
longer breed there at all. The main reasons for these precipitous 
declines are well established and reported in the 2009 State of the 
Birds Report: The largest source of bird mortality is due to habitat 
loss through conversion for human uses. Resource extraction and a 
growing human population have resulted in more development and land 
conversion for suburban sprawl so there are simply fewer and fewer 
large blocks of unbroken habitat for our native birds.
    The second major impact is from habitat degradation from 
ecologically harmful land uses, such as unsustainable forestry or 
destruction of grasslands to create farm land. Deforestation, 
especially in Latin America, is accelerating at an alarming rate, 
driven by the needs of the rapidly expanding human population, which 
has tripled from 1950-2000. Estimates of the percentage of remaining 
forests that are lost each year in the Neotropics are between 1-2 
percent.
          neotropical migratory bird conservation act (nmbca)
    To address these two problems--habitat loss and degradation, both 
of which are rapidly increasing south of our border--ABC respectfully 
suggests that Congress act to help mitigate their impact by continuing 
to fund the Neotropical Migratory Bird Conservation Act grants program 
at the highest level possible. As the subcommittee knows, the 
Neotropical Migratory Bird Conservation Act supports partnership 
programs in the United States, Canada, Latin America, and the Caribbean 
to conserve migratory birds, especially on their wintering grounds 
where birds of nearly 350 species, including some of the most 
endangered birds in North America, spend their winters. Projects 
include activities that benefit bird populations such as habitat 
restoration, research and monitoring, law enforcement, and outreach and 
education.
    The NMBCA grants program has a proven track record of reversing 
habitat loss and advancing conservation strategies for the broad range 
of Neotropical birds that populate America and the Western Hemisphere. 
The public-private partnerships along with the international 
collaboration they provide are proving themselves to be integral to 
preserving vulnerable bird populations. Between 2002 and 2012, the 
program supported 395 projects, coordinated by partners in 48 U.S. 
States/territories and 35 countries. More than $43 million from NMBCA 
grants has leveraged over $166 million in matching funds. Projects 
involving land conservation have affected more than 3 million acres of 
bird habitat. While there are over 100 worthy proposals received each 
year, the program is oversubscribed with funding only available to fund 
about 40 projects. From these numbers, it is clear that conservation 
that would benefit our migrant songbirds is not able to take place due 
to a lack of funding for this program. ABC strongly believes expanding 
this program is essential to achieving conservation goals critical to 
our environment and economy. Just as importantly, this Federal program 
is a good value for taxpayers, leveraging over $4 in partner 
contributions for every one that we spend. ABC respectfully requests 
that NMBCA be funded at the President's request which is $3.78 million 
for fiscal year 2014.
                             joint ventures
    Joint Ventures (JVs) also exemplify a highly successful, cost-
effective approach to conservation. By applying science and bringing 
diverse constituents together, JVs across the United States have 
created a model for solving wildlife management problems and restoring 
habitats critical to conserving declining species. Nationally, JVs have 
protected, restored, or enhanced more than 18.5 million acres of 
important habitat for migratory bird species. There are currently 21 
JVs in the United States that provide coordination for conservation 
planning and implementation of projects that benefit all migratory bird 
populations and other species.
    Joint Ventures have a long history of success in implementing bird 
conservation initiatives mandated by Congress and by international 
treaties. Projects are developed at the local level and implemented 
through diverse public/private partnerships. These projects reflect 
local values and needs, while addressing regional and national 
conservation priorities. The projects benefit not only birds, but many 
wildlife species, and have a positive impact on the health of 
watersheds and local economies. For every dollar appropriated for Joint 
Ventures leveraged more than $36 in non-Federal partner funds. ABC 
respectfully requests that JVs be funded at the highest level of 
funding possible and urges the committee to support $15.5 million for 
this vital program for fiscal year 2014.
    ABC strongly believes increased funding for NMBCA and JVs is 
essential to achieving conservation goals critical to our environment 
and economy. Just as importantly, these Federal programs are good 
values for taxpayers, leveraging over $4 and $30 respectively in 
partner contributions for each one that the taxpayers spend.
            north american wetlands conservation act (nawca)
    The NAWCA has helped conserve wetlands in North America for more 
than 20 years by providing funding for conservation projects that 
benefit wetland-associated migratory birds in all 50 States, Canada, 
and Mexico. NAWCA has a proven track record of success. From 1990 to 
2012, the program has assisted in funding over 2,216 wetland 
conservation projects affecting over 26 million acres of essential 
wildlife habitat. NAWCA grants totaling more than $1 billion have 
leveraged approximately $3.4 billion in matching partner funds. More 
than 4,500 partners have fostered public and private sector cooperation 
for migratory bird conservation, flood control, erosion control, and 
water quality. For every dollar of money invested in the program, an 
average of $3.20 is raised to match the Federal share by non-Federal 
entities.
    As an organization that works with migratory birds, which by 
definition cross international borders during their migration patterns, 
we know that protection and restoration of wetland and upland habitat 
must occur across the continent if the goal is to protect the species. 
As a result ABC respectfully requests that NAWCA be funded at the 
President's request which is $39.425 million for fiscal year 2014.
    America faces a serious challenge to reverse the decline of many of 
our bird species, but it is possible. Since birds are sensitive 
indicators of how we are protecting our environment as a whole, this 
decline signals a crisis that Congress must act now to reverse it. If 
these reports tell us anything, it is that when we apply ourselves by 
investing in conservation, we can save imperiled wildlife, protect 
habitats, and solve the multiple threats at the root of this problem.
                                 ______
                                 
          Prepared Statement of the American Forest Foundation
    Investments in the U.S. Forest Service Forest Stewardship Program 
and the U.S. Forest Service Forest Health Management Program will help 
family forest owners get ahead of increasing threats from invasive 
pests and pathogens, wildfire, and development pressures. It is also 
critical that funding for U.S. Forest Service Forest Inventory and 
Analysis and overall Forest Service Research and Development programs 
are improved and maintained, so these programs continue to provide the 
information and technical resources for landowners to make informed 
decisions about America's forests. Investments in forestry programs 
will help strengthen rural communities, support rural jobs, and ensure 
that communities that rely on the clean water and air, wildlife 
habitat, and forest products from family owned forests, don't face 
additional costs for these goods and services.
    The American Forest Foundation (AFF) urges the subcommittee to 
maintain fiscal year 2012 funding for the above mentioned programs and 
the fiscal year 2013 funding recommendation for the Forest Inventory 
and Analysis Program, that support improved forest stewardship on our 
Nation's 251 million acres of family owned forests and ensure the next 
generation is equipped to conserve and manage these forests--for the 
benefit of all Americans. Given the tight budget climate, we understand 
tough decisions must be made. However, we believe these programs should 
at a minimum be maintained so we don't lose ground in efforts to 
conserve and manage America's family owned forests.
    Family forest owners are facing a ``perfect storm'' of threats. 
Wildfires, forest pests, pathogens and invasive species, pressures from 
development, and declining forest products markets make it harder than 
ever to keep America's family owned forests healthy and productive. At 
the same time, less than 5 percent of family forest owners are taking 
an active role in the stewardship of their forests. Many are under the 
impression that leaving their woods ``alone'' is the best option, 
meaning few have sought out the advice needed to address these pending 
threats. It is therefore essential we ensure these families have tools, 
technical information, and policy support to keep their forests as 
forests, for current and future generations.
    The American Forest Foundation is a nonprofit conservation 
organization that works on the ground with the more than 10 million 
family woodland owners, through a variety of programs including the 
American Tree Farm System and our focused place-based projects 
designed to achieve specific ecological or economic outcomes in 
priority places. Our mission is to help these families be good stewards 
and keep their forests healthy for future generations.
    Families and individuals steward more of America's forests than the 
Federal Government or corporations. Families and individuals own 35 
percent of our Nation's forests.\1\ These private forests provide 
myriad public benefits--clean air, clean water, recreation, renewable 
resources that build our homes and communities, and good-paying rural 
jobs. Family forest owners invest their own time, resources, and energy 
into keeping their forests healthy and ensuring their children and 
grandchildren have the same opportunities. Those who actively manage 
their land, likely received some technical or financial help or got 
their start by getting support from a consultant, an agency forester, 
or an industry forester. Most families have not sought out this help, 
and many don't even know they need it.
---------------------------------------------------------------------------
    \1\ USDA, May 2008, Who Owns America's Forests?
---------------------------------------------------------------------------
                    forest health investments needed
    The threats are daunting. For example, close to 500 species of 
tree-damaging pests from other countries have become established in the 
country, and a new one is introduced, on average, every 2 to 3 years. 
At least 28 new tree-killing pests have been detected in the United 
States in just the last decade. Some of these will cause enormous 
damage; for example, thousand cankers disease threatens black walnut, 
with an estimated growing stock of $539 billion, across the eastern 
United States. The USFS Forest Health Management (FHM) Program is a 
critical resource supporting efforts to prevent, contain, and eradicate 
dangerous pests and pathogens affecting trees and forests. The program 
provides critical assistance to other Federal agencies, State agencies, 
local agencies and private landowners.
    In fiscal year 2012, the FHM Program helped combat native and 
invasive pests on more than 351,000 acres of Federal lands and over 
615,000 acres of Cooperative lands--an impressive figure, but still 
nearly 150,000 fewer Cooperative land acres treated, compared with 2011 
totals. Any further cuts to this program will necessitate deeper 
reductions in support for communities already facing outbreaks and 
expose more of the Nation's family owned forests to the devastating and 
costly effects of the Asian Longhorned Beetle, Emerald Ash Borer, 
Hemlock Wooly Adelgid, Thousand Cankers Disease, Western Bark Beetle 
and other pests.
     invest in a more focused, impactful forest stewardship program
    Over the last few years, there have been significant cut backs in 
outreach and technical assistance provided to woodland owners, as 
agency budgets have shrunk, and industry has cut back or eliminated 
their outreach foresters. This greatly concerned woodland owners across 
the country that AFF works with, who rely on programs like the Forest 
Stewardship Program and State forest agency service foresters. The 
Forest Stewardship Program has been the backbone of the American Tree 
Farm System, providing the support to woodland owners to ensure they 
have management plans and can therefore be certified and access 
certified wood products markets.
    These cuts are also of great concern because of the growing number 
of ``unengaged'' woodland owners--those 95 percent of woodland owners 
who are not actively managing their land, and therefore have forests 
that are more susceptible to the threats mentioned above.
    To address some of this loss AFF is currently piloting, together 
with several State forest agencies, conservation groups, and industry 
partners, a number of innovative landowner outreach tools, using micro-
targeting and social marketing strategies, to more efficiently and 
effectively engage ``unengaged'' woodland owners. To date, we've seen a 
12 percent response rate--woodland owners who are saying ``yes'' to 
being engaged--compared with a 3-4 percent response rate that forest 
agencies, extension agents, and organizations typically see.
    Tools like these, combined with a more focused Forest Stewardship 
Program that concentrates on landowner outreach and assistance in 
priority areas like those identified in each State's Forest Action 
Plan, have significant potential to leverage the Forest Stewardship 
Program further and lead to even greater impact on the ground.
    It's because of this work underway to improve the impact of the 
Forest Stewardship Program, we ask that you maintain this program's 
funding.
maintaining essential information for forest management of family owned 
                               woodlands
    Both of these programs, the Forest Stewardship Program and the 
Forest Health Program, must be grounded in sound science and sound 
forest information. That's where the U.S. Forest Service's Forest 
Inventory and Analysis (FIA) Program and the Research and Development 
Programs (R&D) come in. These programs provide irreplaceable data about 
our forests and give landowners the tools to know how to manage the 
growing threats they face.
    As our Nation's forest census, the FIA program provides critical 
updates on forest health and market trends--better equipping forest 
owners nationwide to mitigate the impact of impending threats and 
concerns. FIA also provides a census of the trends in family forest 
ownership, demographics, and trends, so we can better understand how to 
work with this significant ownership group, most of whom, as mentioned 
above are ``unengaged'' in active forest management.
    In particular, the USFS Research and Development Program provides 
the science to help manage invasive species in urban and rural forests. 
AFF believes it is vitally important to conduct research aimed at 
improving detection and control methods for the Emerald Ash Borer, 
Hemlock Woolly Adelgid, Sudden Oak Death, Thousand Cankers Disease, 
Gold-spotted Oak Borer and other non-native forests pests and diseases. 
USFS research scientists have had the leading role in developing 
detection traps and evaluating treatments that make walnut lumber safe 
to continue moving in commerce. We urge this work to continue, and look 
forward to more progress on genetic restoration of impacted tree 
species, among other projects.
    The R&D function is not only essential for providing forest 
management research, it is also on the leading edge of providing new 
information about the use of wood products, which can help create new 
markets for products from family owned woodlands. This information 
helps position wood in growing markets, like green building markets, 
where understanding the environmental impacts of building materials is 
key. We urge the subcommittee to call on R&D to invest an additional $6 
million in green building research through the Forest Products 
Laboratory to continue this important work.
    To conclude, AFF recognizes the subcommittee must find areas to 
reduce spending. We ask the subcommittee to consider the impact these 
reductions will have on the country's nearly 11 million family forest 
owners and every American who benefits daily from the positive 
externalities of well-managed, working forests. We urge the 
subcommittee to work to maintain fiscal year 2012 funding levels for 
the U.S. Forest Service's Forest Stewardship Program, Forest Health 
Management Program, Research and Development Program, and the fiscal 
year 2013 funding recommendation of $72 million for the Forest 
Inventory and Analysis Program.
    I thank the subcommittee for the opportunity to provide some 
insight on these programs and appreciate consideration of my testimony.
                                 ______
                                 
     Prepared Statement of the American Forest & Paper Association
    Dear Chairman Reed and Ranking Member Murkowski: The American 
Forest & Paper Association (AF&PA) is the national trade association of 
the forest products industry, representing pulp, paper, packaging and 
wood products manufacturers, and forest landowners. Our companies make 
products essential for everyday life from renewable and recyclable 
resources that sustain the environment. The forest products industry 
accounts for approximately 5 percent of the total U.S. manufacturing 
GDP. Industry companies produce about $190 billion in products annually 
and employ nearly 900,000 men and women, exceeding employment levels in 
the automotive, chemicals, and plastics industries. The industry meets 
a payroll of approximately $50 billion annually and is among the top 10 
manufacturing sector employers in 47 States.
    Actions are needed to restore Federal timber harvests to help 
ensure adequate fiber supply and address forest health priorities on 
both Federal and private lands. Within the jurisdiction of this 
committee, we urge you to direct the United States Forest Service 
(USFS) to help sustain the forest products industry and the vital jobs 
it supports. Specific recommendations follow.
                     forest and rangeland research
    Forest Inventory and Analysis.--Targeted research and data 
collection is needed to support forest productivity, forest health, and 
economic utilization of fiber. The Forest Inventory and Analysis (FIA) 
program within USFS Research and Development (R&D) is the backbone of 
our knowledge about the Nation's forests, and is a vital technical 
resource that allows assessment of the sustainability, health, and 
availability of the forest resource. FIA is utilized by a large swath 
of stakeholders interested in the state of America's forests: forest 
resource managers at mills, land managers, conservation groups, and 
State and Federal agencies all look to the program for data about our 
Nation's forests. We are concerned by the cuts to this program over the 
recent years. With an increased focus on utilizing woody biomass for 
renewable energy and other products, the program that allows managers 
to determine sustainability and availability of the forest resource 
should not be reduced, but rather increased. We oppose cuts to this 
valuable program.
    AF&PA requests funding levels of at least $72 million for the FIA 
program, which would allow the USFS to cover the majority of U.S. 
forest lands, expedite data availability and analysis, and support our 
growing data needs in the areas of bioenergy and climate mitigation.
    We also recommend increased funding within the USFS R&D program in 
support of the Agenda 2020 Technology Alliance. Working in partnership 
with universities and the private sector, USFS funding for the Agenda 
2020 program supports research to develop and deploy wood production 
systems that are ecologically sustainable, socially acceptable, and 
economically viable to enhance forest conservation and the global 
competitiveness of forest product manufacturing and biorefinery 
operations in the United States. In particular, we encourage greater 
support for research on forest productivity and utilization at the 
Forest Products Lab and Research Stations. Innovative wood and fiber 
utilization research, including nanotechnology research, contributes to 
conservation and productivity of the forest resource. The development 
of new forest products and important research on the efficient use of 
wood fiber directly address the forest health problem through 
exploration of small diameter wood use and bioenergy production.
                national forest system, forest products
    To create forest industry jobs, more Federal timber should be made 
available for sale, AF&PA requests restoring funding of the Forest 
Products program to at least $336 million to put people back to work in 
our rural communities while improving the health and reducing the fire 
risk of forest ecosystems. The 15 percent reduction in timber sales 
from the National Forests as a result of the sequester will have a 
devastating effect on those communities dependent on Federal timber and 
must be restored.
           national forest system, hazardous fuels reduction
    Hazardous fuels reduction is essential to the Federal forest health 
restoration effort and AF&PA supports maintaining this vital program at 
the fiscal year 2011 level ($339 million). We also urge the 
subcommittee to instruct the USFS to implement these projects in 
forested stands, using mechanical treatments that produce merchantable 
wood fiber for utilization by local mills. Prescribed burns and debris 
removal will not solve the hazardous fuel overload by themselves. The 
forest products industry can and does play a key role in reducing 
hazardous fuels from Federal lands as evidenced by the fact that 
mechanical hazardous fuel reduction costs are frequently significantly 
lower in regions with a substantial forest products industry presence. 
The agency must take advantage of these synergies.
                       state and private forestry
    AF&PA applauds the subcommittee's sustained support for USFS State 
and Private Forestry programs. With ongoing droughts, invasive species 
infestations, and significant forest health problems, private forest 
resources remain vulnerable to damage from threats that do not respect 
public/private boundary lines.
    As you know, private forests provide the bulk of the Nation's wood 
fiber supply, while also sequestering huge amounts of carbon from the 
atmosphere, providing millions of acres of wildlife habitat, and 
supplying clean drinking water for millions of Americans. USFS State 
and Private Forestry programs protect these resources from threats 
beyond the capability of small landowners to combat effectively. 
Therefore, we urge funding at no less than their fiscal year 2012 
enacted levels of $86 million for State Fire Assistance, $112 million 
for Forest Health Management, and $29 million for Forest Stewardship.
                         international forestry
    AF&PA believes that full and effective implementation and 
enforcement of the 2008 Lacey Act amendments will reduce the 
destructive effects of illegal logging on tropical forests, enable 
American forest product companies to compete on a level playing field, 
and contribute to cutting of global greenhouse gas emissions through 
reduced deforestation and sustainable forest management practices. A 
2004 AF&PA report on illegal logging found that up to 10 percent of 
global timber production could be of suspicious origin and that illegal 
logging depresses world prices for legally harvested wood by 7 to 16 
percent on average. The report also calculated that the economic cost 
of global illegal logging to the U.S. industry is approximately $1 
billion per year in lost exports and depressed domestic prices.
    The USFS International Forestry program lends critical technical 
assistance for Lacey Act implementation and to improve sustainable 
forest management practices in developing countries, which helps reduce 
illegal logging overseas. AF&PA believes cuts to the International 
Forestry accounts could be detrimental to full Lacey Act compliance and 
enforcement efforts, and advocates funding the International Forestry 
program at fiscal year 2012 levels ($8 million).
                                 ______
                                 
          Prepared Statement of the American Fisheries Society
    The American Fisheries Society (AFS) would like to express our 
concern over language in the fiscal year 2014 President's budget that 
proposes a $400,000 reduction in funding for the U.S. Fish and Wildlife 
Service (USFWS) Aquatic Animal Drug Approval Partnership (AADAP) 
program.
    Our Nation's fisheries and aquatic resources have significant 
economic, ecological, and cultural value to all Americans. Commercial 
fishing supports approximately 1 million full- and part-time jobs and 
generates more than $100 billion in sales impacts. \1\ More than 33 
million Americans fish recreationally \2\, and saltwater angling alone 
generates an additional $73 billion in economic impact and supports 
over 327,000 more jobs \3\. On behalf of the 9,000+ AFS members, we 
support programs like AADAP that work to conserve our Nation's 
fisheries and aquatic resources.
---------------------------------------------------------------------------
    \1\ NMFS NOAA. 2009. Fisheries economics of the United States. 
Available at: http://www.st.nmfs.noaa.gov/st5/publication/
fisheries_economics_2009.html.
    \2\ USFWS. 2011. National survey of fishing, hunting, and wildlife-
associated recreation. Available at: http://www.census.gov/prod/
2012pubs/fhw11-nat.pdf.
    \3\ NMFS NOAA. 2009. Fisheries economics of the United States. 
Available at: http://www.st.nmfs.noaa.gov/st5/publication/
fisheries_economics_2009.html.
---------------------------------------------------------------------------
    Many fisheries activities require the use of drugs including 
therapeutants needed to maintain health and fitness of hatchery fish, 
as well as sedatives and marking agents that facilitate field-based 
monitoring and research. As described in a recent AFS Policy Statement, 
the absence of suitable drugs, ``jeopardizes fishes, fisheries, fish 
culture, research, and poses considerable risk to those involved in 
these activities.'' Without access to these compounds, the ability of 
fisheries professionals to deliver on conservation commitments to the 
American public is constrained. Legal liabilities related to the use of 
unapproved drugs in fisheries and aquatic resource conservation are 
also a concern.
    Leveraging partnerships with Federal, State, tribal, academic, and 
private entities, AADAP leads a coordinated national effort to secure 
aquatic animal drug approvals from the U.S. Food and Drug 
Administration and provide partners with access to critically needed 
drugs and information about their legal and judicious use. USFWS 
leadership is critical because the Service itself is a major end-user 
of aquatic animal drugs, the need for safe and effective drugs is 
nationwide, and economic incentives are insufficient to encourage drug 
sponsors to pursue aquatic animal drug approvals in the United States.
    We recognize that difficult decisions must be made in light of the 
current Federal budget crisis and sequestration. We contend that the 
proposed cuts to the AADAP program would eliminate vital elements of a 
program that serves the USFWS, its partners, and fisheries and aquatic 
resources in essential and unduplicated ways. We encourage the USFWS to 
fully support the AADAP program, restore its funding, and ensure the 
current and future needs of fisheries professionals are met. Thank you 
for your consideration of our view.
                                 ______
                                 
   Prepared Statement of the American Fisheries Society Fish Culture 
  Section Working Group on Aquaculture Drugs, Chemicals, and Biologics
    Dear Chairman Reed and members of the subcommittee: As an educator, 
scientist, fisheries professional, and staunch supporter of effective 
natural sources management, I am writing to express my concern 
regarding the proposed $400,000/three full-time equivalent (FTE) 
reduction in support for the U.S. Fish and Wildlife Service (FWS) 
Aquatic Animal Drug Approval Partnership (AADAP) program as described 
in the fiscal year 2014 President's budget. Given the importance of 
this program and its deliverables to the fisheries and aquaculture 
disciplines--particularly to the mission of the FWS itself--I strongly 
encourage you to reconsider the ramifications of this reduction, and 
fully support the AADAP program with $1,790,000 in base funding and 
current FTEs. This figure represents the amount previously dedicated to 
the drug approval process in the Department of the Interior budget 
(2010 funding levels for AADAP and the U.S. Geological Survey (USGS) 
(budget since eliminated entirely), adjusted to fiscal year 2014 
dollars. Without this level of support, these unduplicated and 
essential activities cannot be completed in a reasonable timeframe, and 
fisheries professionals, especially the FWS, will be unable to 
effectively deliver on their responsibilities to the American public.
    Most fisheries activities requires the use of drugs: whether to 
maintain health and fitness of hatchery fish, or facilitate field-based 
research and management activities, as described in a recent AFS Policy 
Statement,\1\ the absence of suitable drugs, ``jeopardizes fishes, 
fisheries, fish culture, research, and poses considerable risk to those 
involved in these activities.'' Fish drugs include commonplace 
chemicals such as hydrogen peroxide, but it is illegal to use such 
products unless they have passed the rigorous Food and Drug 
Administration (FDA) animal drug approval process. USFWS leadership is 
critical because the Service itself is a major end-user of aquatic 
animal drugs, the need for safe and effective drugs is nationwide, and 
without public-sector assistance economic incentives are insufficient 
to encourage drug sponsors to pursue aquatic animal drug approvals in 
the United States.
---------------------------------------------------------------------------
    \1\ AFS Policy Statement on the Need for Immediate-release 
Sedatives in the Fisheries Disciplines. Available at: http://
fisheries.org/docs/policy_statements/policy_34f.pdf.
---------------------------------------------------------------------------
    Recognizing difficult budgetary decisions must be made, I contend 
that the proposed cuts to the AADAP program offer only modest savings 
and would eliminate vital elements of a program that serves the FWS, 
its partners, and fisheries and aquatic resources in essential and 
unduplicated ways. Without access to safe and effective drugs, it is 
unclear to me how fisheries professionals, especially FWS staff, will 
be able to fulfill their mandates (e.g., rearing and stocking fish, 
collecting field data) without misusing the few approved drugs 
currently available (e.g., overusing an existing antibiotic because no 
other alternatives exist, risking the development of antibiotic-
resistant bacteria) or resorting to the use of unapproved products 
(e.g., using innocuous but currently unapproved products, risking 
significant legal liability and FDA action). The proposed cuts would 
effectively terminate the AADAP research program, and with it, the drug 
approval process in the United States. This is not grandstanding or 
arm-waving, it is reality: without AADAP, the drug approval process 
stops, and without approved drugs, fisheries professionals and 
fisheries themselves are put in jeopardy.
    I encourage you to fully support the AADAP program at a funding 
level of $1,790,000 and ensure the current and future needs of 
fisheries and fisheries professionals continue to be met. Thank you for 
your consideration of my position on this issue.
                                 ______
                                 
          Prepared Statement of the American Fisheries Society
    Dear Chairman Reed and members of the subcommittee: The purpose of 
this letter is to express my serious concern with respect to language 
in the fiscal year 2014 President's budget proposing a $400,000 
reduction in funding for the U.S. Fish and Wildlife Service's Aquatic 
Animal Drug Approval Partnership (AADAP) program. AADAP is the Nation's 
only program singularly committed to obtaining U.S. Food and Drug 
Administration approval of aquatic animal drugs needed by fisheries 
professionals. AADAP provides many key services to the USFWS and its 
partners, including State natural resource agencies and university 
fisheries and aquaculture programs, by providing access to needed drugs 
and securing drug approvals to ensure safe and effective drugs are 
available to treat disease, aid spawning, and facilitate field research 
and fisheries management activities. I firmly believe any reduction in 
funding for AADAP would have a significant, negative impact on the 
ability of the USFWS and State natural resource agencies to accomplish 
mandated fish production and field management objectives. I strongly 
encourage full support of the AADAP at a level of $1,790,000 in base 
funding. This figure represents the amount previously dedicated to the 
drug approval process in the Department of the Interior budget (fiscal 
year 2010), adjusted to fiscal year 2014 dollars.
    Illinois Department of Natural Resources is responsible for 
managing fisheries programs throughout the State. Primary activities 
include the recovery and restoration of imperiled species, management 
of commercial stocks, and providing opportunities for recreational 
fishing. Most fisheries activities require the use of drugs: whether to 
maintain health and fitness of hatchery fish, or facilitate field-based 
research and management activities. For example: multi-institutional 
efforts between USFWS, IDNR and Southern Illinois University have been 
implemented to control Asian carp populations in the Illinois waterways 
and suppress their infestation of the Great Lakes watershed. The 
benefits (economic and otherwise) derived from these activities are 
clear. USFWS leadership is critical because the Service itself is a 
major end-user of aquatic animal drugs, the need for safe and effective 
drugs is nationwide, and without public-sector assistance economic 
incentives are insufficient to encourage drug sponsors to pursue 
aquatic animal drug approvals in the United States.
    I am certainly cognizant of the challenging budgets facing all 
Federal agencies. However, the AADAP program's dedication to fisheries 
conservation, track record of success, and critical deliverables are 
recognized by public and private fisheries and aquaculture stakeholders 
and conservation authorities as unduplicated and unparalleled; attempts 
at cost savings that diminish this program diminish needed Federal 
leadership in this area and jeopardize the ability of natural resource 
agencies to deliver effective fisheries conservation to the American 
public. Illinois Department of Natural Resources as well as Southern 
Illinois University Carbondale continues to rely on AADAP to help us 
meet critical fisheries management needs along with much needed 
research in the field of aquatic sciences. We strongly encourage you to 
continue to fully support/fund AADAP. I would also like to thank you in 
advance for your consideration of this issue.
                                 ______
                                 
        Prepared Statement of the American Geosciences Institute
    Thank you for this opportunity to provide the American Geosciences 
Institute's perspective on fiscal year 2014 appropriations for 
geoscience programs within the subcommittee's jurisdiction. We ask the 
subcommittee to support and sustain the critical geoscience work of the 
United States Geological Survey (USGS), the National Park Service, and 
the Smithsonian Institution. Specifically, we ask support for the 
President's request for $1.167 billion for USGS, $246 million for the 
National Park Service's Natural Resource Stewardship and Everglades 
Restoration activities, and $869 million for the Smithsonian 
Institution.
    The Earth provides the energy, mineral, water, and soil resources 
that are essential for a thriving economy, national security, and a 
healthy population and environment. We must understand the Earth system 
in order to sustain and improve our quality of life and the quality of 
the environment, while reducing risks from natural hazards. The USGS is 
the Nation's only natural resource science agency that can provide the 
objective data, observations, analyses, assessments, and scientific 
solutions to these intersecting Earth-focused needs.
    AGI is a nonprofit federation of 48 geoscientific and professional 
associations that represent approximately 250,000 geologists, 
geophysicists, and other Earth scientists who work in industry, 
academia, and government. Founded in 1948, AGI provides information 
services to geoscientists, serves as a voice of shared interests in our 
profession, plays a major role in strengthening geoscience education, 
and strives to increase public awareness of the vital role the 
geosciences play in society's use of resources, resilience to natural 
hazards, and the health of the environment.
                         u.s. geological survey
    AGI urges support of USGS at least at the level of the President's 
budget request of $1.167 billion. We endorse the use of $18.6 million 
for science-based hydraulic fracturing studies that will be coordinated 
with other agencies. We strongly urge you to reject proposed cuts of $5 
million to the nationally important Mineral Resources Program which has 
suffered budget cuts for more than a decade.
    USGS addresses a wide range of important problems facing the Nation 
including natural hazards, water resources, waste disposal, 
environmental change, and energy and mineral resources. USGS plays a 
prominent and unique role in providing the impartial geoscience 
information needed to grow the economy, build a skilled workforce, and 
foster a natural resource-literate public. USGS geoscience data and 
understanding should be incorporated more fully into actions for 
balanced and sustainable development.
    Mineral Resources Program (MRP).--AGI strongly supports the 
President's request for an additional $1 million for rare Earth element 
research activities and $1.13 million for high priority research on 
critical minerals. This work will help to strengthen the economy and 
national security. But we are deeply concerned by proposed cuts of $5 
million to ongoing MRP activities. The proposed reduction of $1.157 
million to minerals information activities is particularly puzzling. 
The MRP is the world's leading source of statistical information on 
current production and consumption of about 100 mineral commodities, 
both domestically and globally, covering approximately 180 countries. 
MRP data and analyses are used by the Department of the Interior, 
Department of Defense, the Central Intelligence Agency, the Department 
of State, the Federal Reserve, other Federal, State and local 
government entities, foreign governments, private companies, and the 
general public to guide economic and strategic decisionmaking. 
Additional proposed cuts of $3.8 million to MRP research and assessment 
activities will drastically curtail the flow of information on mineral 
resources for land planning, economic development, and mineral policy 
decisionmaking. There are no alternative public or private sources for 
this information. Please reverse all cuts to the Mineral Resources 
Program and provide $50 million for minerals information and research 
in the national interest.
    Hydraulic Fracturing.--AGI supports USGS work to better understand 
the scientific aspects of hydraulic fracturing, to reduce potential 
impacts, and to provide decision-support information. We are pleased to 
note the collaboration between USGS, the Department of Energy, and the 
U.S. Environmental Protection Agency. We support the allocation of 
$18.6 million for scientific research on this economically important 
technology.
    Water Resources Program.--AGI is pleased to see a modest overall 
increase in funding for Water Resources activities at USGS but we are 
concerned with the decreased funding in the President's request for 
several elements of the program. The USGS is the Nation's premier 
Federal water science agency and knowledge about water quality and 
quantity is necessary for economic growth and land-use planning. 
Eliminating $5.5 million in grants to more than 250 applied research 
and information transfer projects under the Water Resource Research Act 
Program will affect university water resource education and research 
and weaken our future workforce. The Nation needs more information on 
the quantity and quality of our water resources; we should be investing 
more, not less, in water assessment activities.
    We respectfully ask that funding for the Methods Development and 
Assessment in the National Water Quality Assessment Program, for 
Interpretative Studies/Assessments in the Cooperative Water Program, 
and for annual base grants under the Water Resource Research Act 
Program be maintained at fiscal year 2013 levels.
    National Earthquake Hazards Reduction Program (NEHRP) and Other 
Natural Hazards.--A key role for the USGS is providing the research, 
monitoring, and assessment that are critically needed to better prepare 
for and respond to natural hazards. The tragic 2011 Tohoku earthquake 
and tsunami in Japan; the deadly 2013 earthquakes and landslides in 
Sichuan, China; and the economically damaging disruption of air travel 
after the 2010 eruption of Eyjafjallajokyull remind us of the need for 
preparation, education, mitigation and rapid response to natural 
hazards.
    With great forethought, the Earthquake Hazards Reduction 
Authorization Act of 2000 (Public Law 106-503) called for modernization 
of existing seismic networks and for the development of the Advanced 
National Seismic System (ANSS)--a nationwide network of shaking 
measurement systems focused on urban areas. ANSS can provide real-time 
earthquake information to emergency responders as well as building and 
ground shaking data for engineers and scientists seeking to understand 
earthquake processes and mitigate damage. With 2,564 of 7,100 stations 
in operation at the end of 2012, the ANSS is far from achieving its 
goals. Critical investments now will help to reduce earthquake risks; 
help to create jobs and grow the economy by improving and modernizing 
seismic networks and the built environment; help support external 
earthquake research and education efforts; and help to support other 
major earthquake science initiatives. Given all of these factors, now 
is the time to increase investments in USGS-NEHRP through the 
Earthquake Hazards Program. AGI strongly supports reauthorization and 
funding of NEHRP in the 113th Congress.
    AGI supports robust appropriations of at least the President's 
request for the Earthquake Hazards Program ($57.9 million), the Volcano 
Hazards Program ($24.7 million) and Landslide Hazards Program ($3.7 
million).
    National Cooperative Geologic Mapping Program (NCGMP).--AGI is very 
grateful to Congress for passing the re-authorization of the National 
Cooperative Geologic Mapping Program in the 2009 public lands omnibus 
(Public Law 111-11, sec. 11001). This important 20-year-old partnership 
between the USGS, State geological surveys, and universities provides 
the Nation with fundamental data for addressing natural hazard 
mitigation, water resource management, environmental remediation, land-
use planning, and raw material resource development. AGI thanks the 
committee for its previous support for the National Cooperative 
Geologic Mapping Program and requests a total of $28.3 million in 
fiscal year 2014.
    National Geological and Geophysical Data Preservation Program 
(NGGDPP).--The data preservation program (Public Law 109-58, sec. 351) 
is administered by the U.S. Geological Survey in partnership with State 
geological surveys and other stakeholders. Private and public entities 
collect geologic and geophysical data in the form of paper records, 
digital files, and physical samples. Often these data and samples are 
given to State geological surveys either voluntarily or because of 
regulatory statutes. These data are worth far more than the cost of 
preserving them because they provide information about natural 
resources and natural hazards that are used by others for business or 
safety. The program generates more value in terms of economic 
development, environmental stewardship, hazard mitigation and 
fulfilling regulatory requirements than it costs to run.
    The President's budget request for fiscal year 2014 places the 
NGGDPP and the Biological Information Management and Delivery Program 
within a single subactivity called Science Synthesis, Analysis, and 
Research. AGI supports a modest increase of $100,000 over the fiscal 
year 2012 estimate for a total appropriation of $2 million.
                        smithsonian institution
    The Smithsonian's National Museum of Natural History plays a dual 
role in communicating the excitement of the geosciences and enhancing 
knowledge through research and preservation of geoscience collections. 
AGI asks the subcommittee to provide steady funding to cutting-edge 
Earth science research at the Smithsonian Institution. We support the 
President's request of $869 million for the Smithsonian Institution in 
fiscal year 2014.
                         national park service
    The national parks are very important to the geoscience community 
and the public as unique national treasures that showcase the geologic 
splendor of our country and offer unparalleled opportunities for 
research, education, and outdoor activities. The National Park 
Service's Geologic Resources Division was established in 1995 to 
provide park managers with geologic expertise. Working in conjunction 
with USGS and other partners, the division helps ensure that 
geoscientists are becoming part of an integrated approach to science-
based resource management in parks. AGI supports the President's 
request for $236 million for Natural Resource Stewardship activities 
and $10 million for Everglades Restoration so the NPS can adequately 
address the treasured geologic and hydrologic resources in the National 
Parks.
    Thank you for the opportunity to present this testimony to the 
subcommittee.
                                 ______
                                 
              Prepared Statement of American Gold Seafoods
    Our company grows, harvests and produces wild fishery and 
aquaculture products that supply U.S. seafood markets and helps create 
thousands of jobs here in the United States. Our parent company, Icicle 
Seafoods, employs thousands of people throughout the Pacific Northwest 
and Alaska in both their commercial fishing operations, as well as in 
their aquaculture operations. I am writing to express our serious 
concern and opposition to the $400,000/3 FTE budget reduction for the 
U.S. Fish and Wildlife Service's Aquatic Animal Drug Approval 
Partnership (AADAP) program that is being proposed in the President's 
fiscal year 2014 budget. AADAP is the Nation's only program singularly 
committed to obtaining U.S. Food and Drug Administration approval of 
aquatic animal drugs needed by fisheries professionals, academic 
research programs and both public and private aquaculture production 
facilities. AADAP facilitates many key services to the USFWS, other 
resource agency partners, supports commercial and recreational fishery 
programs, and assists both public and private aquaculture producers. 
The AADAP program provides access to necessary new animal drugs and 
secures new drug approvals to ensure that safe and effective drugs are 
available to treat fish disease, aid spawning, and facilitates field 
research and other fisheries management activities. Any reduction in 
funding for AADAP would have significant and negative impacts on the 
ability of the USFWS and State natural resource agencies to accomplish 
their mandated fishery production and field management objectives. This 
in turn would be damaging to the commercial and recreational fisheries 
of the United States, as well as the continued recovery of endangered 
fish stocks. Reductions in the ability, and the measurable progress 
that has been made to date by AADAP program could also severely impact 
the hundreds of companies in the United States involved in aquaculture.
    Because of this, we strongly encourage you to fully support the 
AADAP program at a level of $1,200,000 in base funding. This figure 
represents the amount previously dedicated to the drug approval process 
in the Department of the Interior budget (fiscal year 2010), adjusted 
to fiscal year 2014 dollars. This is a level that allows the AADAP 
program to continue making improvements to the processes and tools 
available for natural resource managers and domestic aquaculture 
producers, both key components to our ability to produce seafood in the 
United States. The AADAP program coordinates the efforts of numerous 
stakeholders to secure aquaculture drug approvals, and aids public and 
private fish culture operations by allowing for monitored, legal access 
to new aquatic animal drugs that are in development. AADAP is one of 
the few Federal programs providing needed support to the unique 
challenges related to aquaculture, aquatic animal health and risk 
management for fishery managers across the United States. Given the 
importance of this program and its deliverables to the fisheries and 
aquaculture disciplines, maintaining the current funding level is 
vital. Without this level of support, these unduplicated and essential 
activities cannot be completed in a reasonable time frame, and 
fisheries professionals, especially the USFWS, will be unable to 
effectively deliver on their responsibilities to the American public.
    The proposed cuts would effectively terminate the AADAP research 
program, and with it, the aquatic animal drug approval process in the 
United States. Without the AADAP program, the drug approval process 
stops, and without approved aquatic animal drugs, fisheries 
professionals, aquaculture producers and commercial and recreational 
fisheries themselves will unnecessarily be put in jeopardy. I strongly 
encourage you to reconsider the President's proposed budget reductions 
to the AADAP program and instead would urge your full support of this 
important program. Thank you for your consideration of our position.
                                 ______
                                 
          Prepared Statement of the American Geophysical Union
    The American Geophysical Union (AGU), a nonprofit, nonpartisan 
scientific society, appreciates the opportunity to submit testimony 
regarding the fiscal year 2014 budget request for the United States 
Geological Survey (USGS). The AGU, on behalf of its over 62,000 Earth 
and space scientist members, would like to respectfully request 
Congress to appropriate at least $1.167 billion for fiscal year 2014, 
and to restore critical funding for USGS programs that will enable 
implementation of natural hazards warning and monitoring systems that 
will reduce risks from floods, earthquakes, severe storms, volcanic 
eruptions, and other hazards.
    USGS Benefits Every State in the Union.--The USGS is uniquely 
positioned to provide information and inform responses to many of the 
Nation's greatest challenges. The USGS plays a crucial role in 
assessing water quality and quantity; reducing risks from earthquakes, 
tsunamis, floods, landslides, wildfires, and other natural hazards; 
providing emergency responders with geospatial data to improve homeland 
security; assessing mineral and energy resources (including rare Earth 
elements and unconventional natural gas resources); and providing the 
science needed to manage our ecosystems and combat invasive species 
that can threaten natural and managed environmental systems and public 
health.
    The U.S. Geological Survey has a national mission that extends 
beyond the boundaries of the Nation's public lands to positively impact 
the lives of all Americans. The USGS plays a crucial role in protecting 
the public from natural hazards, assessing water quality and quantity, 
providing geospatial data, and conducting the science necessary to 
manage our Nation's living, mineral, and energy resources. Through its 
offices across the country, the USGS works with partners to provide 
high-quality research and data to policymakers, emergency responders, 
natural resource managers, civil and environmental engineers, 
educators, and the public. A few examples of the USGS' valuable work 
are provided below.
    The Survey collects scientific information on water availability 
and quality to inform the public and decisionmakers about the status of 
freshwater resources and how they are changing over time. During the 
past 130 years, the USGS has collected stream flow data at over 21,000 
sites, water-level data at more than 1 million wells, and chemical data 
at more than 338,000 surface-water and groundwater sites. This 
information is needed to effectively manage freshwaters--both above and 
below the land surface--for domestic, public, agricultural, commercial, 
industrial, recreational, and ecological purposes.
    National Earthquake Hazards Reduction Program (NEHRP) and Other 
Natural Hazards.--The USGS plays an important role in reducing risks 
from floods, wildfires, earthquakes, tsunamis, volcanic eruptions, 
landslides, and other natural hazards that jeopardize human lives and 
cost billions of dollars in damages every year. Seismic networks and 
hazard analyses are used to formulate earthquake probabilities and to 
establish building codes. USGS monitors volcanoes and provides warnings 
about impending eruptions that are used by aviation officials to 
prevent planes from flying into volcanic ash clouds. Data from the USGS 
network of stream gages enable the National Weather Service to issue 
flood and drought warnings. The bureau and its Federal partners monitor 
seasonal wildfires and provide maps of current fire locations and the 
potential spread of fires. USGS research on ecosystem structure informs 
fire risk forecasts. AGU supports the President's request of $142.6 
million for Natural Hazards for fiscal year 2014.
    Mineral Resources Program.--USGS assessments of mineral and energy 
resources--including rare Earth elements, coal, oil, unconventional 
natural gas, and geothermal--are essential for making decisions about 
the Nation's future. The Survey identifies the location and quantity of 
domestic mineral and energy resources, and assesses the economic and 
environmental effects of resource extraction and use. The agency is 
mapping domestic supplies of rare Earth elements necessary for 
widespread deployment of new energy technologies, which can reduce 
dependence on foreign oil and mitigate climate change. The USGS is the 
sole Federal source of information on mineral potential, production, 
and consumption.
    Research conducted by the USGS is vital to predicting the impacts 
of land use and climate change on water resources, wildfires, and 
ecosystems. The Landsat satellites have collected the largest archive 
of remotely sensed land data in the world, allowing for access to 
current and historical images that are used to assess the impact of 
natural disasters and monitor global agriculture production. The USGS 
also assesses the Nation's potential for carbon sequestration. Other 
Interior bureaus use USGS research on how climate variability affects 
fish, wildlife, and ecological processes to inform natural resource 
management decisions.
    Funding Shortfall.--Over the years, Congress has worked in a 
bipartisan fashion to restore damaging budget cuts proposed by 
administrations from both parties. These efforts have paid dividends 
and helped the USGS continue to provide answers to the challenging 
questions facing decisionmakers across the country. A major challenge 
currently facing the USGS is budget sequestration. Not only has the 
agency's budget been cut by $61 million, but the USGS faces further 
funding cuts as other Federal agencies scale back reimbursable 
activities, which represent roughly $400 million of USGS' annual 
operating budget.
    Among the sequestration-induced impacts to USGS science:
  --In order to prevent the shutdown of 350 stream gauges, USGS will 
        stop delivering stream flow information. This will hinder 
        informed decisionmaking, but is less costly than turning off 
        the stream gauges and losing data altogether.
  --Maintenance of real time status of stream gauges and seismic 
        networks will diminish, potentially resulting in data gaps.
  --Decreased monitoring of volcanoes and delayed warnings about 
        volcanic activity. The Federal Aviation Administration relies 
        upon this information to route planes safely in Alaska and 
        elsewhere.
  --Fewer early warnings will be issued about emerging wildlife 
        diseases. This could jeopardize natural resource managers' 
        abilities to respond to threats in a timely manner.
  --Energy assessments will take longer to be completed. These delays 
        could slow economic development and the Nation's efforts to 
        utilize more domestic energy.
    The USGS has also implemented a hiring freeze, disallowed overtime, 
and cancelled all training and nonessential travel. Contracts and 
grants are being reviewed internally to determine the feasibility of 
delay, re-scoping, or termination. Employee furloughs of up to 9 days 
are also possible. The employees of the USGS are hardworking and 
committed individuals dedicated to serving the American public. They 
routinely work in harsh conditions and with limited resources. Unpaid 
furloughs threaten to further diminish employee morale.
    In addition, USGS suspended employee attendance at 27 conferences 
in February, March, and April. Although this may save money in the 
short term, scientists must be able to exchange ideas and information 
freely. Scientific conferences are a highly productive mechanism for 
the transfer of information among scientists and engineers.
    USGS has identified ways to cope with its diminished budget in the 
short term, but the agency's ability to deliver science over the long 
term is in jeopardy. We are especially concerned about long-term data 
sets, as information gaps cannot be filled later.
    The AGU is grateful to the Senate Interior Appropriations 
Subcommittee for its leadership in restoring past budget cuts and 
strengthening the U.S. Geological Survey. We appreciate the opportunity 
to submit this testimony to the subcommittee and thank you for your 
thoughtful consideration of our request.
                                 ______
                                 
 Prepared Statement of the Ad-Hoc Industry Natural Resource Management 
                                 Group
    The Ad-Hoc Industry Natural Resource Management Group (Group) 
expresses support for the fiscal year 2014 budget request of the 
Department of the Interior (DOI) Natural Resource Damage Assessment and 
Restoration Program in the amount of $12,539,000. The testimony herein 
does not reflect the opinion or views of the industrial member 
companies that comprise the Group's membership, individually or 
collectively.
    The Ad-Hoc Industry Natural Resource Management Group (Group), 
founded in 1988, is a group of multinational industrial companies and 
is focused exclusively on the interface between natural resources and 
industrial operations. The Group has served as resource, facilitator, 
educator and catalyst relative to prevention and resolution of natural 
resource damage liabilities, as well as identification and 
implementation of resource restoration objectives. Over the 25-year 
history of the Group, nearly 80 percent of the land restored nationwide 
to compensate the public for lost resource use, under the natural 
resource damage (NRD) liability regime defined under a number of 
Federal laws, has resulted from direct action or funding by the 
industrial company members of this Group.
    When a company settles a claim for NRD, the funds are to be used 
for natural resource restoration, which is most often undertaken by 
Government departments and agencies. As such, it is important that 
there can be immediate follow through from settlement with industrial 
parties to implementation of natural resource restoration. Accordingly, 
I support the budget request of the U.S. DOI Natural Resource Damage 
Assessment and Restoration Program in the amount of $12,539,000. It is 
our understanding that the additional request of funds for fiscal year 
2014 is aimed exclusively at getting restoration implemented. DOI has a 
very large amount of funds waiting to be dispersed to specific projects 
nationwide and it does not currently have the staffing needed to do 
this. Therefore, I respectfully suggest that it is imperative that the 
full requested fiscal year 2014 budget request be approved in order to 
effect these needed actions.
    I would be pleased to provide further information or answer 
questions, as desired. Thank you for the opportunity to provide input 
on this fiscal year 2014 budget request.
                                 ______
                                 
  Prepared Statement of the American Institute of Biological Sciences
    The American Institute of Biological Sciences (AIBS) appreciates 
the opportunity to provide testimony in support of appropriations for 
the United States Geological Survey (USGS), United States Forest 
Service (USFS), and Environmental Protection Agency (EPA) for fiscal 
year 2014. AIBS encourages Congress to provide the USGS with at least 
$1.167 billion in fiscal year 2014, with at least $180.8 million for 
the Ecosystems activity. We further request that Congress provide the 
USFS Forest and Rangeland Research program with at least $310.2 
million, and EPA's Office of Research and Development with at least 
$600 million.
    The AIBS is a nonprofit scientific association dedicated to 
advancing biological research and education for the welfare of society. 
AIBS works to ensure that the public, legislators, funders, and the 
community of biologists have access to and use information that will 
guide them in making informed decisions about matters that require 
biological knowledge. Founded in 1947 as a part of the National Academy 
of Sciences, AIBS became an independent, member-governed organization 
in the 1950s. Today, AIBS has nearly 160 member organizations and is 
headquartered in Reston, Virginia, with a Public Policy Office in 
Washington, DC.
                         u.s. geological survey
    The USGS provides unbiased, independent research, data, and 
assessments that are needed by public and private sector 
decisionmakers. Data generated by the USGS save taxpayers money by 
reducing economic losses from natural disasters, allowing more 
effective management of water and natural resources, and providing 
essential geospatial information that is needed for commercial activity 
and natural resource management. The data collected by the USGS are not 
available from other sources and our Nation cannot afford to sacrifice 
this information.
    The Ecosystems activity within USGS underpins the agency's other 
science mission areas by providing information needed for understanding 
the impacts of water use, energy exploration and production, and 
natural hazards on natural systems. The USGS conducts research on and 
monitoring of fish, wildlife, and vegetation--data that informs 
management decisions by other Interior bureaus regarding protected 
species and land use. Biological science programs within the USGS 
gather long-term data not available from other sources. The knowledge 
generated by USGS programs is used by Federal and State natural 
resource managers to maintain healthy and diverse ecosystems while 
balancing the needs of public use.
    Other examples of successful USGS Ecosystem initiatives include:
  --Development of comprehensive geospatial data products that 
        characterize the risk of wildfires on all lands in the United 
        States. These products are used to allocate firefighting 
        resources and to plan fuel reduction projects.
  --Identification of white-nose syndrome, a fungus that is devastating 
        U.S. bat populations and could jeopardize the multi-billion 
        dollar pest control services provided by bats.
  --Identification and evaluation of control measures for Asian carp, 
        sea lamprey, Burmese pythons, and other invasive species that 
        cause billions of dollars in economic losses.
  --Study of the impacts of solar energy and other next generation 
        energy sources on wildlife and endangered species.
    The requested fiscal year 2014 budget would support several 
important ecosystem science priorities at USGS. The budget would 
implement a recommendation by the President's Council of Advisors on 
Science and Technology to integrate information on the condition of 
U.S. ecosystems. The budget request would also enable the USGS to 
develop methodologies to better prevent, detect, and control Asian carp 
and other invasive species. USGS would be able to provide enhanced 
surveillance and diagnostic tools, and develop management tools for 
white-nose syndrome and other ecologically and economically costly 
wildlife diseases. Additionally, USGS would be able to study and better 
inform decisions about new energy sources.
    The request also includes additional funding for water quality 
research, including in the areas of fisheries and contaminant biology. 
The budget would support development of a new system for access and use 
of water budget information. A central part of this new initiative is 
streamflow information collected by USGS' national network of 
streamgages.
    Through the Cooperative Research Units, the USGS and their partners 
address pressing issues facing natural resource managers at the local, 
State, and Federal levels. Examples of recent research initiatives 
include studying the effects of the Gulf of Mexico oil spill on 
wildlife and fisheries, and improving management of elk and waterfowl. 
In addition to providing research expertise, these partnerships at 40 
universities in 38 States serve as important training centers for 
America's next generation of scientists and resource managers. More 
than 500 graduate students each year receive training at Cooperative 
Research Units. The program is also an efficient use of resources: each 
Federal dollar invested in the program is leveraged more than three-
fold. A modest increase is proposed for fiscal year 2014.
    Although the proposed budget supports many USGS priorities, the 
requested funding level would result in $36.6 million in cuts to 
programs that support agency core missions. The agency proposed these 
reductions to offset increases in fixed costs and to attain greater 
cost efficiencies.
    In summary, the USGS is uniquely positioned to provide a scientific 
context for many of the Nation's biological and environmental 
challenges, including water quality and use, energy independence, and 
conservation of biological diversity. This array of research expertise 
not only serves the core missions of the Department of the Interior, 
but also contributes to management decisions made by other agencies and 
private sector organizations. USGS science is also cost-effective, as 
the agency's activities help to identify the most effective management 
actions. In short, increased investments in these important research 
activities will yield dividends.
                          u.s. forest service
    United States Forest Service research provides scientific 
information and new technologies to support sustainable management of 
the Nation's forests and rangelands. These products and services 
increase the basic biological and physical knowledge of the 
composition, structure, and function of forest, rangeland, and aquatic 
ecosystems.
    The fiscal year 2014 budget request would support key areas of 
scientific research, the outcomes of which will inform sustainable 
management of the Nation's forests and rangelands. USFS' research on 
wildland fire and fuels evaluates the effectiveness of hazardous fuels 
treatments and helps managers as they protect life and property and 
restore fire-adapted ecosystems. Research would also continue on 
priority invasive species, such as emerald ash borer and hemlock wooly 
adelgid, which have caused extensive damage to forests and local 
economies.
                    environmental protection agency
    The Office of Research and Development (ORD) supports valuable 
extramural and intramural research that is used to identify and 
mitigate environmental problems facing our Nation. ORD research informs 
decisions made by public health and safety managers, natural resource 
managers, businesses, and other stakeholders concerned about air and 
water pollution, human health, and land management and restoration. In 
short, ORD provides the scientific basis upon which EPA monitoring and 
enforcement programs are built.
    Despite the important role played by ORD, its funding has declined 
by 28.5 percent in Gross Domestic Product-indexed dollars since fiscal 
year 2004, when it peaked at $646.5 million. ``This long-term decline 
has limited and will continue to limit the research that can be 
conducted to support the agency's effort to protect human health and 
the environment,'' according to the EPA's Science Advisory Board. 
``These limitations pose a vulnerability for EPA at a time when the 
agency faces significant science questions with long-term implications 
for protecting the environment and public health.''
    At $554.1 million, the budget request for fiscal year 2014 falls 
far short of addressing past and current shortfalls. We ask that 
Congress restore funding for ORD to at least the fiscal year 2010 
enacted level.
    The Ecosystem Services Research program within ORD is responsible 
for enhancing, protecting, and restoring ecosystem services, such as 
clean air and water, rich soil for crop production, pollination, and 
flood control. The program has been long underfunded, according to the 
EPA Science Advisory Board, with a 58 percent budget decline over the 
last decade. We ask that Congress address the chronic underfunding of 
the program.
    The Science to Achieve Results (STAR) program supports valuable 
research on human health and the environment through competitively 
awarded research grants. The program enables EPA to fill information 
gaps that are not addressed by intramural EPA research programs or by 
other Federal agencies.
    Two valuable training opportunities for the next generation of 
scientists will be removed from EPA as part of a proposed Government-
wide consolidation of science, technology, engineering, and mathematics 
education programs. Funding would be zeroed out for EPA STAR graduate 
fellowships and Greater Research Opportunities undergraduate 
fellowships. The Science Advisory Board ``considers it a priority to 
increase STAR fellowships, if possible, because support for 
environmental scientists at an early stage in their careers is a cost-
effective way to advance ORD's strategic goals.'' The National Academy 
of Sciences called the fellowship ``a valuable mechanism for enabling a 
continuing supply of graduate students in environmental sciences and 
engineering.'' We are concerned that the consolidation of these 
programs at the National Science Foundation will be detrimental to 
preparation of the next generation of environmental scientists and 
engineers. We ask for the program to remain at EPA and to be supported 
at an adequate funding level.
    ORD's Safe and Sustainable Water Resources program supports 
research that underpins safe drinking water for society. The program's 
research also focuses on better understanding resiliency of watersheds 
to stressors and factors that affect watershed restoration. The budget 
request would allow the program to pursue research that will inform 
decisions about water safety and to ensure the sustainability of our 
wetlands.
    In conclusion, we urge Congress to restore funding for the ORD to 
the fiscal year 2010 enacted level. These appropriation levels would 
allow ORD to address a backlog of research needs.
    Thank you for your thoughtful consideration of this request.
                                 ______
                                 
 Prepared Statement of the American Indian Higher Education Consortium
                            request summary
    On behalf of the Nation's Tribal Colleges and Universities (TCUs), 
which together compose the American Indian Higher Education Consortium 
(AIHEC), thank you for this opportunity to present our fiscal year 2014 
appropriations recommendations for the 29 colleges funded under the 
Tribally Controlled Colleges and Universities Assistance Act (Tribal 
College Act); the Bureau of Indian Education postsecondary 
institutions; and the Institute of American Indian Arts. The Bureau of 
Indian Education administers these programs, save for the Institute of 
American Indian Arts, which is congressionally chartered and funded 
directly through the Department.
    In fiscal year 2014, TCUs seek $75 million for institutional 
operations, an endowment building program, and technical assistance 
grants under the Tribally Controlled Colleges and Universities 
Assistance Act of 1978 or Tribal College Act; of which, $74.3 million 
for titles I and II grants (27 TCUs); $109,000 for title III (endowment 
grants), and $600,000 for increasingly needed technical assistance. 
TCUs are founded and chartered by their respective American Indian 
tribes, which hold a special legal relationship with the Federal 
Government, actualized by more than 400 treaties, several Supreme Court 
decisions, prior congressional action, and the ceding of more than 1 
billion acres of land to the Federal Government. Despite this trust 
responsibility and treaty obligations, the TCUs' primary source of 
basic operating funds has never been fully funded. With sequestration 
in effect, promising significant annual cuts to this already 
underfunded program, the more than 30-year Federal investment in this 
solid program will be lost, as some of these institutions may be forced 
to close their doors. This path to a bottom line number defies logic. 
Even before sequestration cuts, despite modest increases in funding, 
the TCUs' basic institutional operations grants have lost ground. Our 
fiscal year 2014 request seeks to achieve 75 percent of the authorized 
funding level for institutional operating grants, which is based on a 
per Indian student allocation, and to retain $600,000 to provide 
critically needed ever changing technical assistance.
    AIHEC's membership also includes tribally controlled postsecondary 
career and technical institutions whose institutional operations 
funding is authorized under title V of the act; AIHEC supports a 
request for $9.372 million. There are three additional TCUs funded 
under separate authorities and within Interior Appropriations, namely: 
Haskell Indian Nations University, Southwestern Indian Polytechnic 
Institute, and the Institute of American Indian Arts. AIHEC supports 
their independent requests for support of the institutional operating 
budgets of these institutions.
    Last, AIHEC seeks a one-time appropriation of $17.4 million needed 
to forward fund the operations grants of the remaining TCUs that are 
not so funded. Five TCUs are the only schools whose operations funding 
come from the Department of the Interior that are not forwarded funded. 
All other BIE/Interior schools are forward funded and are able to plan 
multi-year budgets and start (and end) the school year with dependable 
funding. Forward funding does NOT increase the Federal budget over the 
long run. It simply allows critical education programs to receive basic 
operating funds before each school year begins, which is critically 
important when the Federal Government is funded under continuing 
resolutions.
        tcu shoestring budgets: ``doing so much with so little''
    Tribal Colleges and Universities are an essential component of 
American Indian/Alaska Native (AI/AN) education. Currently, there are 
37 TCUs operating more than 75 campuses and sites in 15 States, within 
whose geographic boundaries 80 percent of American Indian reservations 
and Federal Indian trust land lie. They serve students from well more 
than 250 federally recognized tribes, more than 75 percent of whom are 
eligible to receive Federal financial aid. In total, the TCUs annually 
serve about 88,000 AIs/ANs through a wide variety of academic and 
community-based programs. TCUs are accredited by independent, regional 
accreditation agencies and like all U.S. institutions of higher 
education must periodically undergo stringent performance reviews to 
retain their accreditation status. Each TCU is committed to improving 
the lives of its students through higher education and to moving 
American Indians toward self-sufficiency.
    To do this, TCUs must fulfill additional roles within their 
respective reservation communities functioning as community centers, 
libraries, tribal archives, career and business centers, economic 
development centers, public meeting places, and child and elder care 
centers.
    The Federal Government, despite its direct trust responsibility and 
treaty obligations, has never fully funded the TCUs' institutional 
operating budgets, authorized under the Tribally Controlled Colleges 
and Universities Assistance Act of 1978. Almost every other U.S. 
institution of higher education receives institutional operations 
funding based on its entire student body. However, it is important to 
note that although about 17 percent of the TCUs' collective enrollments 
are non-Indian students living in the local community, TCUs only 
receive Federal funding based on Indian students, which are defined as 
members of a federally recognized tribe or a biological child of a 
tribal member. Currently, the administration requests and Congress 
appropriates over $200 million annually, toward the institutional 
operations of Howard University (exclusive of its medical school), the 
only other MSI that receives institutional operations funding from the 
Federal Government. Howard University's current Federal operating 
support exceeds $19,000/student. In contrast, most TCUs are receiving 
$5,665/Indian Student (ISC) under the Tribal College Act, about 70 
percent of the authorized level. TCUs have proven that they need and 
have earned an investment equal to--at the very least--the 
congressionally authorized level of $8,000/Indian student, which is 
only 42 percent of the Federal share now appropriated for operating 
Howard University. Please understand that we are by no means suggesting 
that our sister MSI, Howard University does not need or deserve the 
funding it receives, only that the TCUs also need and deserve adequate 
institutional operations funding; however, their operating budgets 
remain grossly underfunded.
    While many TCUs do seek funding from their respective State 
legislatures for their students that are non-Indian State residents 
(sometimes referred to as ``non-beneficiary'' students) successes have 
been at best inconsistent. TCUs are accredited by the same regional 
agencies that accredit mainstream institutions, yet they have to 
continually advocate for basic operating support for their non-Indian 
State students within their respective State legislatures. If these 
non-beneficiary students attended any other public institution in the 
State, the State would provide that institution with ongoing funding 
toward its day-to-day operations. Given their locations, often hundreds 
of miles from another postsecondary institution, TCUs remain open to 
all students, Indian and non-Indian, believing that education in 
general, and postsecondary education in particular is the silver bullet 
to a better economic future for their regions.
                         further justifications
    TCUs provide access to valuable postsecondary education 
opportunities.--Tribal Colleges and Universities provide access to 
higher education for American Indians and others living in some of the 
Nation's most rural and economically depressed areas. In fact, 7 of the 
Nation's 10 poorest counties are home to a TCU. The U.S. Census Bureau, 
American Community Survey indicates the annual per capita income of the 
U.S. population is $27,100. However, the annual per capita income of 
AI/ANs is just $13,300, about half that of the general population. TCUs 
offer their students a high level of support and guidance to bolster 
their chances of achieving academic success. In addition to serving 
their student populations, these tribal institutions offer a variety of 
much needed community outreach programs.
    TCUs are producing an American Indian workforce that includes 
highly trained American Indian teachers, tribal government leaders, 
nurses, engineers, computer programmers, and other much-needed 
professionals--By teaching the job skills most in demand on their 
reservations, TCUs are laying a solid foundation for tribal economic 
growth, with benefits for surrounding communities and the Nation as a 
whole. In contrast to the high rates of unemployment on many 
reservations, graduates of TCUs are employed in ``high demand'' 
occupational areas such as Head Start teachers, elementary and 
secondary school teachers, agriculture and land management specialists, 
and nurses/healthcare providers. Just as important, the vast majority 
of tribal college graduates remains in their tribal communities, 
applying their newly acquired skills and knowledge where they are most 
needed.
                            additional facts
    A Growing Number of TCUs.--Compounding existing funding disparities 
is the fact that although the numbers of TCUs and students enrolled in 
them have dramatically increased since they were first funded in 1981, 
appropriations have increased at a disproportionately low rate. Since 
1981, the number of tribal colleges has more than quadrupled and 
continues to grow; Indian student enrollments have risen more than 350 
percent. Since fiscal year 2005, five additional TCUs have become 
accredited and eligible for funding under title I of the Tribal College 
Act, another will be eligible for funding next year, and there are 
several more colleges in the pipeline. TCUs are in many ways victims of 
their own successes. The growing number of tribally chartered colleges 
and universities and increasing enrollments have forced TCUs to slice 
an already inadequate annual funding pie into even smaller pieces.
    Local Tax and Revenue Bases.--TCUs cannot rely on a local tax base 
for revenue. Although tribes have the sovereign authority to tax, high 
reservation poverty rates, the trust status of reservation lands, and 
the lack of strong reservation economies hinder the creation of a 
reservation tax base. As noted earlier, on Indian reservations that are 
home to TCUs, the unemployment rate can well exceed 70 percent.
    Gaming and the TCUs.--Although several of the reservations served 
by TCUs do have gaming operations, these are not the mega-casinos 
located in proximity to urban outlets and featured in the mainstream 
media. Only a handful of TCUs receive regular income from the 
chartering tribe's gaming revenue, and the amounts received can vary 
greatly from year to year. Most reservation casinos are small 
businesses that use their gaming revenue to improve the local standard 
of living and potentially diversify into other, more sustainable areas 
of economic development. In the interim, where relevant, local TCUs 
offer courses in casino management and hospitality services to formally 
train tribal members to work in their local tribally run casinos.
    Although some form of gaming is legalized in 48 States, the Federal 
Government has not used the revenues generated from State gaming as a 
justification to decrease Federal funding to other public colleges or 
universities. Some have suggested that those tribes that operate the 
few enormously successful and widely publicized casinos should be 
financing higher education for all American Indians. However, no State 
is expected to share its gaming revenue with a non-gaming State.
   president's budget and appropriations request for fiscal year 2014
    As noted earlier, it has been more than three decades since the 
Tribal College Act was first funded, and the TCUs have yet to receive 
the congressionally authorized per Indian student funding level. To 
fully fund the TCUs' institutional operating grants at $8,000 per 
Indian student, would require an increase of approximately $30 million 
over the fiscal year 2013 appropriated level. However, we do recognize 
the budget constraints the Nation is currently facing and consequently, 
we are not requesting that level of increase in fiscal year 2014, but 
rather seek to achieve 75 percent of the authorized funding level, 
determined by the per Indian student allocation, which requires an 
increase of $11.1 million over fiscal year 2013 and $5.2 million over 
the President's fiscal year 2014 budget request. Details of the request 
are outlined in the Request Summary above.
                               conclusion
    Tribal Colleges and Universities provide quality higher education 
to many thousands of American Indians and other reservation residents 
who might otherwise not have access to such opportunities. The modest 
Federal investment that has been made in TCUs has paid great dividends 
in terms of employment, education, and economic development. 
Continuation of this investment makes sound moral and fiscal sense.
    We greatly appreciate your past and continued support of the 
Nation's Tribal Colleges and Universities and your serious 
consideration of our fiscal year 2014 appropriations requests.
                                 ______
                                 
          Prepared Statement of the All Indian Pueblo Council
    Established in 1598, the All Indian Pueblo Council (AIPC) has 
served as the political voice of the Pueblos of New Mexico and Texas. 
The AIPC is comprised of 20 Pueblos: Acoma, Cochiti, Isleta, Jemez, 
Laguna, Nambe, Ohkay Owingeh, Picuris, Pojoaque, San Felipe, San 
Ildefonso, Sandia, Santa Ana, Santa Clara, Santo Domingo, Taos, 
Tesuque, Ysleta del Sur, Zia, and Zuni. Every Pueblo governor carries a 
cane from President Abraham Lincoln, which was specifically presented 
to the governors 150 years ago to acknowledge our sovereign authority 
over our lands and our people. Each cane is a physical embodiment of 
the recognition of our status and of the commitment of the United 
States to protect and respect our sovereign rights, as well as to 
support the well-being of our communities.
    It is with the United States' commitments firmly in mind that we 
provide testimony to Congress. AIPC asks that the subcommittees:
  --Exempt Indian programs from further sequestration;
  --Fund Indian programs at a level that keeps pace with inflationary 
        costs;
  --Fully fund Contract Support Costs; and
  --Support Carcieri  and Patchak  Fixes.
    Exempt Indian programs from further sequestration.--While the 
effects of sequestration are initially becoming apparent in the form of 
delayed flights and inconvenienced travelers, we can attest that it 
will do much for than inconvenience Indian Country. The Pueblos provide 
essential services to our citizens but we cannot do that alone. When 
funding for programs is cut, we often have very few other resources to 
turn to make up the difference. Unfortunately, the sequestration 
applies fully to virtually all Federal Indian programs, even though 
many Native communities suffer the worst social and economic statistics 
in the country, largely due to Federal action and policies in place 
over the last 200 years.
    This situation is particularly heartbreaking for Native people when 
we see that many low-income programs (such as Child Care Entitlement to 
States; Child Health Insurance Fund; Family Support Programs and 
Temporary Assistance for Needy Families) were exempted from 
sequestration but Federal Indian programs were not. It is heartbreaking 
for us when we see that the Veterans Administration's hospital system 
was exempted from sequestration but the Indian Health Service (IHS) was 
not. This puts the life, health and well-being of generations of Native 
peoples at risk in a system that already strains to deliver basic 
healthcare. The subcommittees can and should fund the IHS at a level 
that would offset the sequester amount and in doing so honor our 
Nation's commitment to its First Peoples.
    Fund Indian programs at a level that keeps pace with inflationary 
costs.--When evaluating whether the Federal budget fulfills the Trust 
responsibility, AIPC believes that it is critical to take into account 
the effects of inflation. From fiscal year 2002 through fiscal year 
2008, despite annual increases, after taking into account the effect of 
inflation, most Federal domestic programs, including the Indian 
programs, saw a purchase power decrease of approximately 14 percent. 
The large budget increase in fiscal year 2009, including American 
Recovery and Reinvestment Act funding, was approximately enough to make 
up for this effective cut and bring the purchase power of Indian 
programs back to fiscal year 2002 levels, but in the intervening 12 
years, Indian Country needs have grown substantially. And, of course, 
the fiscal year 2002 levels were inadequate to address the needs of 
Indian Country or to fulfill the Federal Government's trust obligation.
    In a very real way, the budget of the United States Government 
reflects the values of the American people. Courtesy of the National 
Congress of American Indians (NCAI), set forth below is a chart that 
depicts the percentage of the Federal budget dedicated to funding the 
Bureau of Indian Affairs (BIA). As you can see, as a percentage of the 
overall budget, the BIA budget has declined from 0.115 percent in 
fiscal year 1995 to 0.075 percent (correcting chart typo) in fiscal 
year 2011, approximately a one-third decline as a percentage of the 
overall budget (despite a small bump up in fiscal year 2010). Below 
that chart is another which demonstrates that over the last 10 years, 
when funding increases have come to the Department of the Interior they 
have been greater for other major agencies within the Department than 
for the BIA.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    AIPC respectfully asks that the subcommittees support funding 
increases for Federal Indian programs that consistently exceed the 
relevant rate of inflation in order to achieve real progress in closing 
the services gap for Native people. At a minimum, Federal Indian 
programs should be held harmless from any reductions coming from 
sequestration or similar future draconian cuts. Federal Indian programs 
should not be deemed discretionary, but rather mandatory.
    Fully Fund Contract Support Costs.--AIPC thanks Congress for 
appropriating additional funding for IHS Contract Support Costs (CSC) 
necessary to administer Tribal health programs authorized under the 
Indian Self-Determination and Education Assistance Act. Even so, there 
remains an ongoing shortfall of CSC, which continues to impose 
significant hardships on our ability to provide adequate health 
services to our patients when direct program funds have to be diverted 
to pay overhead costs. We urge the subcommittees to continue to push 
for full funding of CSC. While it is difficult to estimate the full CSC 
need for fiscal year 2014--in part because IHS refuses to release its 
CSC distribution data for the last 2 years--the total needed increase 
over the administration's request for CSC fiscal year 2014 for 
Compacting and Contracting Tribes is estimated to be at least $617 
million. BIA Contract Support Costs should also be fully funded; the 
estimated increase needed to fully fund CSC is an additional $22.7 
million.
    Given the progress toward full CSC funding in recent years, we are 
dismayed the administration's fiscal year 2014 budget proposed only a 
minimal increase for IHS CSC to $477 million. This would force tribes 
to absorb almost $140 million in uncompensated costs for allowable and 
reasonable administration costs associated with managing Federal 
programs. The administration's proposed appropriations act language, 
whether intentional or not, attempts to preclude tribes from their 
right to recover any of their CSC shortfalls through contract actions, 
as ruled by the Supreme Court in the Salazar v. Ramah Navajo decision. 
The bill language would incorporate by reference a table identifying 
the capped amount as determined by the agency of CSC available to be 
paid for every compactor or contractor. This process is being proposed 
without Tribal Consultation and is unworkable, therefore we urge that 
the committees reject this proposed approach and, instead, fully fund 
CSC for both IHS and BIA.
    Carcieri and Patchak Fixes.--Although there is no question that the 
20 Pueblos were ``under Federal jurisdiction'' in 1934, and thus are 
not subject to the immediate harmful effects of the Supreme Court's 
decision in Carcieri  v. Salazar , it is still important that this 
holding be overturned by congressional legislation. This decision has 
led to two classes of tribes--those that can take land into trust and 
build up their communities and those that cannot. The President has 
included Carcieri  ``fix'' language in his fiscal year 2014 budget, and 
the subcommittees strongly supported ``fix'' language earlier, 
including it within the fiscal year 2011 appropriations bill. Passing 
this legislation is the right thing to do, and will help prevent 
numerous jurisdictional and other uncertainties that would hamper many 
of our fellow tribes. AIPC asks that the subcommittees take up the 
fight for fair and equal treatment of all Tribal nations and, once 
again, advance a Carcieri  fix. We also ask that the subcommittees 
support a Patchak  fix, a ruling which affects every tribe because it 
provides that even up to 6 years after land has been taken into trust a 
suit can be brought challenging that decision. Both of these holdings 
are severely hampering economic development in Indian Country.
                               conclusion
    AIPC's mission is to promote justice and to encourage the common 
welfare of the Pueblo citizens. We address governmental policy and 
social issues and we strive to revitalize Pueblo culture and to 
preserve our Pueblo languages. We are proud of our cultural heritage 
and want to ensure that our children and our children's children carry 
on our traditions and speak our languages for generations to come. We 
ask that the Federal Government uphold its solemn trust responsibility 
and we thank the subcommittees for considering our testimony.
                                 ______
                                 
   Prepared Statement of the Association of Joint Venture Management 
                                 Boards
    The Association of Joint Venture Management Boards (AJVMB) seeks 
continued support for Federal funding of the Migratory Bird Joint 
Ventures through the U.S. Fish and Wildlife Service. We are 
respectfully requesting $15.5 million for the Joint Ventures (JVs). 
Joint Ventures bring together Federal and non-Federal partners to 
support the implementation of national and international conservation 
plans for the benefit of birds, other wildlife and people.
    Over the course of their history, Joint Venture partnerships have 
leveraged $36 of non-Federal funds for every $1 of Federal funds. That 
36:1 leverage has enabled us to conserve 20.5 million acres of critical 
habitat and contributed to significant population increases in most 
waterfowl populations. Because of the success of the Joint Venture 
partnership model, JVs have grown in terms of geographic extent as well 
as the species and habitats they support.
    Today, 18 habitat Joint Ventures and three species Joint Ventures 
have responsibility for the conservation of all migratory bird 
populations. Joint Venture efforts include on-the-ground habitat 
conservation and restoration projects, biological planning, linking 
partners to tools and resources, monitoring and evaluation, and public 
outreach.
    This year, the Association of Joint Venture Management Boards 
undertook an assessment of all of the individual Joint Ventures' needs 
for their base operational capacity. This analysis resulted in our 
request for $15.5 million for fiscal year 2014 for the program. Our 
request of $15.5 million will enable Joint Ventures to continue their 
current basic functions, and meet the documented needs for improvements 
to conservation design, habitat delivery, communications, biological 
monitoring, and research.
    The fact sheet accompanying this letter shows how Joint Ventures 
have invested the Federal funding entrusted to them by Congress, the 
administration and the American public. We believe that the fact sheet 
demonstrates that the trust was well placed.
                                 ______
                                 
          Prepared Statement of the American Lung Association

                          [Dollars in millions]
------------------------------------------------------------------------
                                                            Fiscal year
                                                           2014 request
------------------------------------------------------------------------
Science and Technology:
    Clean Air and Climate: Federal Vehicles and Fuels            $100.4
     Standards and Certification........................
    Indoor Air and Radiation: Indoor Air Radon Program..            0.21
    Research: Air, Climate and Energy...................          105.7
Environmental Programs and Management:
    Clean Air and Climate: Clean Air Allowance Trading             20.5
     Program............................................
    Clean Air and Climate: Climate Protection Program...          106.1
    Clean Air and Climate: Federal Stationary Source               34.1
     Regulations........................................
    Clean Air and Climate: Federal Support for Air                132.8
     Quality Management.................................
    Indoor Air and Radiation: Indoor Air Radon Program..            3.9
    Compliance Monitoring...............................          127.5
    Enforcement.........................................          267.8
Grants to States:
    Diesel Emission Reduction Grant Program.............           20.0
    Radon...............................................            8.0
    State and Local Air Quality Management..............          257.2
------------------------------------------------------------------------

    The American Lung Association is pleased to present our 
recommendations for fiscal year 2014 to the Senate Appropriations 
Subcommittee on the Interior, Environment and Related Agencies. The 
American Lung Association was founded in 1904 to fight tuberculosis and 
today, our mission is to save lives by improving lung health and 
preventing lung disease. We urge the committee to ensure that the U.S. 
Environmental Protection Agency has the necessary resources to protect 
the public health from air pollution, and to adopt a fiscal year 2014 
bill free from any policy riders.
    Fulfilling the promise of the Clean Air Act to protect public 
health and save lives is a tremendous responsibility. Much progress has 
been made, but the EPA workload continues to be vast. In 2014, EPA must 
implement the health-based air quality standards for PM and ozone among 
others; continue implementing rules to clean up toxic pollution from 
industrial sources including but not limited to power plants; clean up 
toxic pollution from automobile tailpipes; and reduce carbon pollution 
from powerplants. In addition, EPA must have the resources needed to 
aggressively enforce the law to ensure compliance and protect the 
public; support State and local air pollution cleanup; continue 
research on the health impacts of air pollution and best ways to 
prevent and reduce exposure; improve air pollution monitoring; and 
ensure that the Clean Air Act is implemented in a way that protects the 
most vulnerable. As a Nation, we need EPA to be able to do all of these 
things. Inadequate resources will hurt the health of our communities, 
families, children and the most vulnerable populations. Below, we have 
highlighted key provisions of the President's fiscal year 2014 budget 
that deserve your support.
                         science and technology
Clean Air and Climate: Federal Vehicle Fuels Standards and 
        Certifications Programs
    Congress should provide at least the requested $100.4 million in 
support for the EPA Federal Vehicle Fuels Standards and Certifications 
Programs. EPA has not been able to keep up with increasing demand 
vehicle certification and compliance testing, or the increasing 
diversity of technologies. Currently EPA has resources to conduct very 
limited testing of small imported engines, but a high fraction of these 
engines fail the tests. Additional resources are needed to improve this 
important program to protect public health. Additional resources will 
also expand EPA's ability to address greenhouse gas emissions from 
locomotives, marine craft and aircraft.
    We also strongly support EPA's work to strengthen gasoline and 
vehicle standards. Cars, light trucks and SUVs are a major source of 
pollution that contributes to ozone and particle pollution. These 
pollutants trigger asthma attacks, harm heart and lung health, worsen 
existing conditions such as chronic obstructive pulmonary disease 
(COPD) and diabetes and can even lead to early death. Cleaner gasoline 
and vehicle standards will save thousands of lives each year, and 
prevent tens of thousands of asthma attacks and related 
hospitalizations.
Indoor Air and Radiation
    The American Lung Association strongly opposes the $210,000 cut to 
the Indoor Air Radon Program for science and technology support for 
addressing the threat from radon. Exposure to radon continues to be a 
significant risk to human health, and is the largest cause of lung 
cancer after tobacco.\1\ Without the science and technology support 
from EPA, State programs will struggle to protect the public from the 
threat of radon. Please fully restore this funding.
---------------------------------------------------------------------------
    \1\ U.S. Environmental Protection Agency. EPA's Assessment of Risks 
from Radon in Homes (2003).
---------------------------------------------------------------------------
Research: Air, Climate and Energy
    The American Lung Association strongly supports EPA's Air, Climate 
and Energy Research Program. Research is essential to improve the 
understanding of the health effects of air pollution and determining 
what levels of pollution should be set to protect the public with an 
adequate margin of safety. Additionally, improving the Nation's air 
pollution monitoring network is absolutely critical in providing better 
information to enhance Federal, State, and local knowledge and empower 
efforts to protect the health of their communities. We urge Congress to 
provide the full $105.7 million as requested in the President's fiscal 
year 2014 budget. Continued investment in other areas of research, 
especially in climate change and biofuels, is also vital.
                 environmental programs and management
Clean Air and Climate
    Please support the EPA's Clean Air Allowance Trading Program 
funding request of $20.5 million, to support development, 
implementation, and assessment of, and provides regulatory and modeling 
support for, efforts to address major regional and national air issues 
from stationary sources. Clean air allowance trading programs help 
implement the National Ambient Air Quality Standards (NAAQS) to reduce 
acid deposition, toxics deposition, and regional haze. Pollutants 
include sulfur dioxide (SO<INF>2</INF>), nitrogen oxides 
(NO<INF>X</INF>), and, as a co-benefit of SO<INF>2</INF> emission 
reductions, mercury. These are common sense investments in public 
health.
    We strongly support the requested funding level of $106.1 million 
for the Climate Protection Program. EPA has an obligation to address 
public health threats associated with climate change. Higher 
temperatures can enhance the conditions for ozone formation. Even with 
the steps in place to reduce ozone, evidence warns that changes in 
climate could increase ozone levels in the future in large parts of the 
United States. More ozone means more asthma attacks, which increase the 
burden on already vulnerable populations.
    We support the President's budget increases to improve air quality 
and address climate change. Specifically, we support the President's 
budget request of $34.1 million for Federal Stationary Source 
Regulation. EPA must have increased resources to meet increased demands 
of the Clean Air Act, including the statutory obligation to review 
dozens of stationary source air toxics standards due for their 8-year 
review in fiscal year 2014. We urge Congress to provide funding needed 
to complete the review and revise these standards to protect public 
health.
    The American Lung Association President's fiscal year 2014 budget 
request of $132.8 million, for the Federal Support for Air Quality 
Management. People who live near major sources of pollution often face 
the greatest health risk. Through development of faster, electronic 
reporting, closing of data gaps, and continuing to develop the science 
necessary to reduce pollution to healthy levels, EPA supports States, 
Tribes and local agencies and directly benefits communities.
Indoor Air and Radiation: Indoor Air Radon Program
    The American Lung Association strongly supports EPA's work to 
reduce the risk from radon in Federal housing programs, but EPA's radon 
categorical grants also require staff support and oversight which have 
been cut from the President's fiscal year 2014 budget. We urge Congress 
to provide $3.9 million for the Indoor Air Radon Program (restoring 
funding to fiscal year 2012 enacted levels) to ensure EPA can provide 
needed support and oversight to the States. EPA must provide basic 
oversight and guidance to States as they work to reduce threats from 
radon.
Compliance Monitoring & Enforcement
    EPA must ensure that air pollution standards and requirements are 
being met to protect public health. The American Lung Association 
supports EPA's request for compliance monitoring and enforcement 
funding to identify and reduce non-compliance, and enforce penalties 
when required to deter future non-compliance. In order to effectively 
protect the public and promote justice, EPA must have the ability to 
enforce penalties for permit violations and respond to civil 
enforcement actions authorized by the Clean Air Act. Please fully fund 
EPA's Compliance Monitoring request for $127.5 million, and their 
Enforcement program request of $267.8 million, in the interests of the 
Nation's youngest, oldest, and most economically challenged citizens. 
The American public needs a pollution cop on the beat, and they should 
be fully prepared and given adequate resources to fulfill their duties.
                            grants to states
Diesel Emission Reduction Act
    The American Lung Association strongly opposes cuts in the 
President's budget to the widely supported Diesel Emission Reduction 
Act (DERA) program that was reauthorized in late 2010. Please restore 
funding to at least $20 million. Twenty million old diesel engines are 
in use today that pollute communities and threaten the public and 
workers. Immense opportunities remain to reduce diesel emissions and 
protect public health through the DERA program.
Radon
    We strongly oppose the elimination of the $8 million State radon 
categorical grants as proposed in the President's budget. Without the 
financial support from EPA, the State programs will not be able to 
protect the public from the pervasive threat of radon.
State and Local Air Quality Management
    We strongly support the requested $257.2 million for State and 
Local Air Quality Management Grants. State and local air pollution 
agencies need more resources, not less, to ensure proper implementation 
of the Clean Air Act and protection of the public, since they are on 
the front lines nationwide in efforts to improve air quality. Yet they 
are perennially underfunded. In fiscal year 2014, the States and local 
agencies will develop State-specific strategies to implement air 
quality standards, including modeling and developing emission 
inventories; implement and enforce Federal mercury and air toxics 
standards including monitoring, collecting, and analyzing emissions 
data; operate and maintain air pollution monitoring network; and much 
more. These activities are crucial to ensuring success of the Clean Air 
Act.
    NOTE: We oppose a provision in the President's fiscal year 2014 
budget that would gradually shift PM<INF>2.5</INF> monitoring funds 
from Clean Air Act, section 103 (where matching funds are not needed) 
to section 105, which requires additional matching funds. Federal funds 
must be made available for Clean Air Act implementation and 
enforcement, especially if State or local funds are lacking.
                               conclusion
    Thank you for the opportunity to present the recommendations of the 
American Lung Association. For more than 40 years the Clean Air Act has 
directed EPA to protect the public from air pollution and fulfill the 
promise of air that is clean and healthy for all to breathe. We urge 
the committee to ensure that EPA is meeting the required deadlines and 
updating standards to reflect the best science with the maximum health 
protection, and to pass and fiscal year 2014 bill free of any policy 
riders.
                                 ______
                                 
    Prepared Statement of the Arctic Native Slope Association, Ltd.
    Chairman Reed, Ranking Member Murkowski, and other distinguished 
members of the subcommittee, thank you for the honor and opportunity to 
testify before you today regarding the fiscal year 2014 budget for the 
Indian Health Service (IHS). My name is Angela Cox. I am an Inupiaq 
from the northern most Tribe in the United States, and I am the Vice 
President of Administration for the Arctic Slope Native Association 
(ASNA). We are an inter-tribal health organization based in Barrow, 
Alaska and we are controlled by and serve eight federally recognized 
Tribes situated across Alaska's North Slope.
    The anchor for all of our services is the IHS Samuel Simmonds 
Memorial Hospital in Barrow. Since 1996 we have operated this IHS 
facility under a self-governance compact with IHS, now compacted under 
title V of the Indian Self-Determination Act. The region we serve is 
quite large, equal in size to the State of Minnesota.
    I am here to provide testimony about our new IHS hospital, which is 
in the final stages of completion. This new 100,000 square foot state-
of-the-art hospital is replacing the 25,000 square foot hospital which 
IHS built in 1963. We are excited about our new facility and must pause 
to thank this subcommittee for its extraordinary work in providing the 
majority of the funds necessary for this project.
    I am particularly proud to say that we contracted for the 
construction of this hospital under title V, and that we are completing 
the project within budget. Next month (May 2013) we will receive our 
certificate of beneficial occupancy. In 5 months (September 2013) 
actual patient services will begin in the new hospital.
    But, a brand new hospital is of little use if it there is no new 
staffing. This is one reason why I am here to testify about IHS's 
proposed fiscal year 2014 budget. The most significant impacts for ASNA 
in that budget are staffing for new facilities and contract support 
costs.
    New Hospital Staffing.--Our staffing requirements for the new 
hospital were developed over the course of several years, and IHS 
signed our final staffing package in May 2011. The new IHS hospital is 
four times larger than our existing facility and many more services 
will be available--assuming we have the staffing--including CT-scan, 
physical therapy, and optometry, as well as expansions of existing 
services. Many of the new services are currently only available by 
flying to Anchorage, which is more than 700 air miles south of Barrow. 
Practically speaking, that means only some patients receive this care, 
and others simply go without. Providing this care locally will enhance 
patient health while producing considerable savings over travel and 
lodging costs in Anchorage.
    Our existing staffing package for the old hospital is 116 FTEs 
(full time equivalent employees). IHS calculated the new hospital 
staffing package--granted, only at the standard 85 percent-of-capacity 
formula--to be 256 FTEs. That is a 140 FTE increase in staff. (If IHS 
were staffing the hospital at the level for which it was designed, 
based upon IHS's patient need methodology, the staffing would actually 
be 301 FTEs. As I said a moment ago, 256 FTEs is only 85 percent of 
full staffing.)
    Although we require 140 new FTEs for a total of 256 FTEs, the 
fiscal year 2014 budget only requests 49 new FTEs for a total of 165 
FTEs. That is only 35 percent of the personnel required to bring the 
hospital online at 85 percent capacity. In other words, about half of 
the hospital will be empty and unused. (As a matter fact, even though 
we are commencing patient services in current fiscal year 2013, ASNA is 
not slated to receive any fiscal year 2013 IHS staffing funds.)
    It makes little sense for Congress to finance the construction of a 
high priority new facility, and then to leave the facility half-staffed 
and unable to provide the care for which it was designed. We ask that 
the subcommittee take corrective action to staff the Barrow Hospital by 
adding 140 new FTEs, not a mere 49 FTEs.
    Contract Support Costs.--The underfunding of the staffing package 
is compounded by the underfunding of our contract support requirements. 
These are the funds which IHS is required, by contract, to pay ASNA for 
the cost of operating the Barrow Hospital and outlying village clinics.
    ASNA's contract support has been underfunded since 1996. Each year 
since then we have had to redirect healthcare monies, including FTE 
staffing funds, to cover for IHS's failure to pay these costs in full. 
This subcommittee has been heroic in seeking to close the national gap 
in funding all tribal contract support cost requirements, and we thank 
this subcommittee for its hard work. No one has done more to remedy 
this perennial problem than this subcommittee.
    We appreciate that it is extremely difficult to find new funds and 
to reorder priorities in a ``sequester'' environment. But with all due 
respect to the President, the administration, and to Director 
Roubideaux, honoring a contract in full is not a choice among 
priorities; it is a legal obligation.
    I say this from direct experience. The subcommittee is surely 
familiar with the recent Supreme Court decision involving BIA contract 
underpayments, called Salazar  v. Ramah. What may be less well known is 
that for 9 years we have been litigating identical claims against IHS. 
When the Supreme Court decided the Ramah case, the Supreme Court also 
issued an Order reopening our Arctic Slope case. A few weeks later, the 
Court of Appeals said we would be able to recover the unpaid portion of 
our contracts though the Federal Judgment Fund, just like any other 
Government contractor. Just this month, we finally settled our 1999 
claim for $1.4 million plus interest.
    The proposed budget would prevent us from securing justice on our 
contract claims in fiscal year 2014. It would cap contract payments to 
ASNA and deprive us of our day in court for any losses. That is its 
stated purpose. We are shocked that the agency would propose this, 
particularly after having just lost decades of litigation in the 
Supreme Court. The answer when you lose a case in the Supreme Court is 
to honor the ruling, not look for a way to get around it.
    I am particularly disappointed to see IHS call its new proposal a 
Supreme Court ``recommendation.'' The Supreme Court never recommended 
cutting off our claims. The Supreme Court vindicated our claims. The 
agency has turned the Court's words in order to avoid paying our 
contracts in the future. The agency and the Department are not 
proposing to cut off the contract rights of its many non-Indian 
contractors, and it should not treat Indian contractors any 
differently.
    Worse yet, the administration has done this in secret, without any 
consultation whatsoever with the impacted tribes. We understand the 
importance of the current fiscal challenges and would like to be part 
of the solution; this is the value of supporting tribal consultation.
    In short, in the wake of the Ramah and Arctic Slope decisions, 
contract support costs should be fully funded at $617 million. However, 
regardless of funding levels, no new language should be added that 
would cut off our contract rights under the Indian Self-Determination 
Act. If any proposal is going to be advanced to alter our contract 
rights under the Indian Self-Determination Act, it should be done 
through an open and transparent process that is led by the authorizing 
committees which wrote the act, beginning with Chairwoman Maria 
Cantwell's Committee on Indian Affairs.
    In my language we end our public statements by simply saying, 
Quyanaqpak, or Thank you very much.
                                 ______
                                 
    Prepared Statement of the Alaska Native Tribal Health Consortium
    My name is Andy Teuber, I am the Chairman and President of the 
Alaska Native Tribal Health Consortium (ANTHC). For the fiscal year 
2014 Indian Health Service (IHS) budget we are requesting full funding 
for contract support costs (CSC), currently estimated to be $617 
million for fiscal year 2014. ANTHC also requests that the subcommittee 
not accept the statutory language proposed by the administration that 
would be a statutory ``amendment-by-appropriation'' effectively cutting 
off the future contract rights of tribes.
    ANTHC is a statewide tribal health organization that serves all 229 
tribes and more than 140,000 American Indian and Alaska Natives (AI/AN) 
in Alaska. ANTHC and Southcentral Foundation co-manage the Alaska 
Native Medical Center (ANMC), the tertiary care hospital for all AI/ANs 
in Alaska. ANTHC also carries out virtually all non-residual Area 
Office functions of the IHS that were not already being carried out by 
Tribal health programs as of 1997.
                full funding for contract support costs
    Indian tribes and tribal organizations are the only Federal 
contractors that do not receive full CSC. There is a clear obligation 
on the part of the Federal Government to fully fund CSC. But more 
importantly, lack of full funding for CSC has a very real and 
detrimental impact on our programs that are already substantially 
underfunded.
    CSC is used to reimburse our fixed costs for items that we are 
required to have but are not otherwise covered by the IHS budget, 
either because another governmental department is responsible or 
because the IHS is not subject to that particular requirement. Examples 
include federally required annual audits and telecommunication systems. 
We cannot operate without these things, so when CSC reimbursements are 
underfunded we have to use other program funds to make up the 
shortfall, which means fewer providers that we can hire and fewer 
health services that we can provide to our patients.
    The best projection available shows that the CSC shortfall for 
fiscal year 2014 will be approximately $140 million. Given these 
significant shortfalls, IHS's request for only a $6 million increase in 
CSC for fiscal year 2014 is extremely disappointing. Our disappointment 
is particularly acute when we consider that the BIA has requested near 
full funding for CSC for its programs.
    The inadequate IHS request could return us to a situation similar 
to the one we endured from 2002 to 2009, when there were virtually no 
increases for IHS CSC appropriations and the CSC shortfall increased by 
over $130 million. During that period, as our fixed costs increased 
every year, all major tribal health programs in Alaska were forced to 
lay off staff due to lack of funds.
    The opposite is also true: when CSC reimbursement increases occur, 
vacant positions are filled. If ANTHC had full funding of our CSC 
requirements, we would be able to fill scores of provider and support 
positions, including enrollment technicians, financial analysts, 
medical billing staff, professional recruiters, maintenance 
technicians, security officers, information technology support and 
professional support staff.
    ANTHC respectfully requests that the Federal Government honor its 
legal obligations to tribes and tribal organizations and fully fund CSC 
reimbursements by providing $617 million for IHS CSC reimbursements in 
fiscal year 2014.
   rejection of administration's proposal to cut off tribal contract 
                                 rights
    Perhaps more worrisome than the inadequate funding requested by IHS 
for CSC in fiscal year 2014 is IHS's proposal to give legal effect to a 
table that the Secretary, HHS, would provide to appropriators--the 
table would specify the maximum amount that each tribal contractor is 
entitled to be paid. Since tribal contracts are ``subject to 
appropriations,'' this proposal by the administration could limit the 
amount that is ``available'' to tribes to the amount listed in the 
table.
    This proposal to cap CSC is an unnecessary and unfair overreaction 
by the administration to recent Supreme Court decisions that directed 
the Federal Government to pay tribes their full CSC. While the 
administration seeks to limit CSC payments to tribes by this proposal, 
there is no similar proposed limit on the amount of services for which 
tribes have to perform under their compacts/contracts with the Federal 
Government. This is another example of how tribal contractors are 
unfairly singled out from and treated adversely compared to any other 
Federal contractors.
    If adopted, the administration's proposal would effectively make 
tribal contracts second-class contracts. While the Federal Government 
would pay all non-tribal contractors in full, this proposal would 
direct tribes do carry out their full contract responsibilities, yet 
receive less-than-full payment.
    I appreciate your consideration of our recommendations to not 
accept any new statutory language that would limit the contract right 
of tribes for CSC and for additional CSC funding to improve the level, 
quality and accessibility of desperately needed health services for AI/
ANs whose health care status continues to lag far behind other 
populations in Alaska and in this Nation.
                                 ______
                                 
    Prepared Statement of the Aleutian Pribilof Islands Association
    Summary.--We are planning for reconstruction of the Unalaska 
Hospital and the Atka Island clinic, both of which were destroyed 
during World War II. We are working with the Indian Health Service 
(IHS) toward staffing and other assistance for these facilities through 
our position on the IHS's list for the competitive joint venture 
program, and we are looking for non-IHS sources of funding for 
reconstruction, including appropriations to support an amendment to the 
Aleutian and Pribilof Islands Restitution Act. We respectfully ask the 
subcommittees to support our proposed amendment to the Restitution Act 
and appropriate $42.6 million for reconstruction of these two health 
facilities.
    We also ask that the subcommittees appropriate sufficient Indian 
Health Service funds for staffing and operations of new health 
facilities so that more tribal joint venture projects may open their 
doors to provide healthcare for our underserved patients. We also 
request that the subcommittees end the chronic underfunding of Indian 
health programs and provide $8.2 million to cover real costs incurred 
for Clinics leased under the Village Built Clinics (VBC) program, $617 
million in IHS contract support costs (CSC), and to exempt the IHS, 
which is already at only 56 percent of needed funding, from future 
budget sequestration.
    The Aleutian Pribilof Islands Association (APIA) is a regional 
nonprofit tribal organization with members consisting of the 13 
federally recognized tribes of the Aleutian Chain and Pribilof Islands 
Region of Alaska. APIA provides healthcare services to the Alaska 
Natives in six of the tribal communities of this Region through funding 
received from the Indian Health Service under title V of the Indian 
Self-Determination and Education Assistance Act (ISDEAA), and also 
provides other health-related services to all 13 tribal communities 
through various non-IHS grants and agreements.
   funding for reconstruction of two healthcare facilities destroyed 
                              during wwii
    During World War II, communities within the APIA region suffered 
historic losses, not only to their populations due to deaths arising 
from inadequate healthcare and poor living conditions during removal by 
the U.S. Government to camps in southeast Alaska, but also to two 
healthcare facilities that were destroyed and never rebuilt or 
accounted for in prior restitution made to the Aleutian and Pribilof 
tribal communities.
    On June 4, 1942, the Japanese bombed the 24-bed hospital operated 
at that time by the Bureau of Indian Affairs in Unalaska, Alaska. Since 
that time, the closest hospital is located in Anchorage, Alaska--800 
air miles away, and not accessible by roads. Ten days later and 350 
miles to the east, on June 14, 1942, the residents of Atka Island were 
forcibly evacuated from the Island by the United States for their 
``safety,'' and the United States Navy burned all of the structures on 
the Island to the ground, including the Island's health clinic, to 
prevent their use by the Japanese.
    Congress passed the Aleutian and Pribilof Islands Restitution Act 
in 1988 (Public Law 100-383), which led to creation of the Aleutian and 
Pribilof Islands Restitution Trust to administer funds appropriated 
under the Restitution Act on behalf of the St. Paul, St. George, 
Unalaska, Atka, Akutan, Nikolski, Biorka, Kashega and Makushin 
communities. The Restitution Act provided very limited appropriations 
to partially address losses suffered by these communities during 
evacuations from 1942 to 1945. During that time, the treatment of the 
Aleut people in the evacuation camps lacked even the most basic 
attention to health and human safety matters, in extremely crowded, 
unheated, abandoned buildings with very poor sanitation conditions. Ten 
percent of the Aleuts who were evacuated died in the camps. For those 
who returned to their communities, many found their homes and community 
facilities destroyed, possessions taken, and churches stripped of 
religious icons by the U.S. military.
    Remarkably, replacement of the core medical facilities serving 
these communities was not addressed through the Restitution Act or 
other appropriations. While we understand that these are lean economic 
times, the United States is currently spending significant funds for 
wartime restoration and reconstruction in foreign countries, making the 
appropriation of funds for reconstructing the only hospital destroyed 
by a foreign country on U.S. soil during wartime, and reconstruction of 
a health clinic deliberately burned down by the U.S. Navy, more than 
justified.
    The time is now to replace the Unalaska hospital and the Atka 
Island Clinic. The Aleutian and Pribilof tribal communities are the 
most remote within the State of Alaska. The next level of referred 
specialty and inpatient care is in Anchorage. The replacement hospital 
facility would directly serve the 5,000 year-round residents of Atka, 
Dutch Harbor, Nikolski and Unalaska, in addition to the typically 
hundreds of seasonal fishery workers requiring immediate emergency or 
primary care. Having a hospital would eliminate the need to send 
referrals to Anchorage at an average airfare cost of $1,400, not to 
mention the cost of lodging, meals and the personal hardship of having 
to leave the community for days at a time. Atka lies 350 miles away 
from Unalaska, so until its clinic has sufficient capacity to meet 
local need, that population is at severe risk due to its isolated, 
weather-challenged, location.
    Based on inflation-adjusted 2010 projected cost estimates, the 
total funding needed for reconstruction of the Unalaska hospital is 
$39.1 million. The inflation-adjusted cost for the Atka Island clinic, 
based on a 2003 Denali Commission clinic design, is $3.5 million. APIA 
thus requests $42.6 million in funding for reconstruction of these 
facilities.
    APIA is ranked near the top in the IHS's joint venture program, 
under section 818(e) of the Indian Health Care Improvement Act, however 
we are unable to move forward without identified construction 
resources. For facilities subject to the IHS joint venture program, 
construction must be accomplished with non-IHS money. The Restitution 
Act offers the best legislative framework for an appropriation from 
Congress. We recommend that the Restitution Act be amended to add a new 
section 1989C-4(b)(1)(D) to title 50 of the United States Code, to 
state as follows: ``(D) One account for the construction, operation, 
and maintenance of an inpatient hospital facility in Unalaska and 
health clinic in Atka with a direct appropriation of $42,600,000 for 
those purposes.'' We ask for the subcommittees' support of such an 
amendment and the related appropriation of funds.
    If we are to successfully receive this non-IHS construction project 
funding, the joint venture program would allow APIA to enter into a no-
cost lease with the IHS for a period of 20 years; the IHS would in turn 
provide staff, equipment and supplies for the operations and 
maintenance of the facilities. The joint venture program is a 
competitive program and funding is limited. According to the IHS's 
budget justification for fiscal year 2013, the IHS signed 16 agreements 
for joint ventures between 2001 and 2011, but received 55 ``positive 
responses'' to a solicitation for joint ventures during the fiscal 
years 2010-2012 cycle. Yet, the IHS has indicated it does not have 
adequate resources to fund even those programs ranked highest on its 
list of joint venture projects, such as APIA's Unalaska Hospital. 
Tribes in Alaska support the IHS joint venture program as one of the 
best solutions to immediately address critical healthcare needs in our 
communities. We ask that the subcommittees appropriate additional funds 
for staffing and operations of new facilities; doing so will allow IHS 
to partner with Tribes like APIA whom are anxious to move forward their 
projects under this successful Joint Venture model in fiscal year 2014.
apia seeks an end to chronic underfunding of village built clinics and 
                                  csc
    Village Built Clinic Leases.--As we stated in our 2012 testimony, 
the inability of the IHS to adequately fund the Village Built Clinics 
leases causes a significant, adverse impact on APIA's ability to ensure 
delivery of safe, quality healthcare services at our three Community 
Health Aide Program-staffed clinics and two mid-level provider-staffed 
health centers. For the 2014 appropriations, we support the Alaska 
Tribes' request that an additional $8.2 million be appropriated within 
the Hospitals and Clinics budget line to help fully fund all Alaska VBC 
leases in fiscal year 2014. It would be helpful if Congress would also 
direct the IHS to use its fiscal year 2014 appropriations to fully fund 
VBC leases in accordance with section 804 of the Indian Health Care 
Improvement Act.
    IHS Contract Support Costs Shortfall.--APIA thanks Congress for 
appropriating additional funding for Contract Support Costs necessary 
to administer tribal health programs authorized under the ISDEAA. Even 
so, there remains an ongoing shortfall of CSC, which continues to 
impose significant hardships our ability to provide adequate health 
services to our patients when direct program funds have to be diverted 
to pay overhead costs. We urge the subcommittees to continue to push 
for full funding of CSC. While it is difficult to estimate the full CSC 
need for fiscal year 2014--in part because IHS refuses to release its 
CSC distribution data for the last 2 years--we estimate that the total 
need in fiscal year 2014 for Compacting and Contracting Tribes to be at 
least $617 million.
    Given the progress toward full CSC funding in recent years, we are 
dismayed the administration's fiscal year 2014 budget proposed only a 
minimal increase for IHS CSC to $477 million. This would force Tribes 
to absorb almost $140 million in uncompensated costs for allowable and 
reasonable administration costs associated with managing Federal 
programs. The administration's proposed appropriations act language, 
whether intentional or not, attempts to preclude tribes from their 
right to recover any of their CSC shortfalls through contract actions, 
as ruled by the Supreme Court in the Salazar v. Ramah Navajo decision. 
The bill language would incorporate by reference a table identifying 
the capped amount as determined by the agency of CSC available to be 
paid for every compactor or contractor. This process is being proposed 
without tribal consultation and is unworkable, therefore we urge that 
the subcommittees reject this proposed approach and, instead, fully 
fund CSC for both IHS and BIA.
    Sequestration.--APIA is appalled that the American Indian and 
Alaska Native patients were subject to a loss of basic healthcare as a 
result of the fiscal year 2013 budget sequestration. IHS lost $195 
million which directly impacted our patients' access to care. 
Specifically for APIA, we will not be filling provider vacancies 
including one dentist and one dental health aide and have placed on 
hold several clinical support positions. We have seen an increase in 
our patient requests for medical travel assistance and are unable to 
assist our patients with their access to care issues. In addition, our 
referral hospital, the Alaska Native Medical Center, has indicated that 
sequester will impact their ability to pay for medical care, further 
exacerbating our patients' ability to receive basic healthcare. This 
means cancer screens will not get done; necessary care will be deferred 
until it becomes an acute emergency, and funds for early screening or 
early treatment which could save lives will now be spent down the road 
on high cost acute or chronic care services. Our ability to sustain 
safe facilities will be compromised as we are forced to defer necessary 
maintenance and improvement of health facilities. We are already 
struggling to provide adequate care to our patients; the reasonable 
approach would be to exempt direct patient care from across-the-board 
cuts. Therefore we strongly believe that the IHS budgets should be 
exempt from both sequestrations and rescissions and that the cuts 
suffered this year should be restored in the fiscal year 2014 budget. 
The United States has a trust responsibility for the health of Alaska 
Native and American Indian people. We fail to understand why this 
responsibility was taken less seriously than the Nation's promises to 
provide health to other citizens. Medicaid State grants and Medicare, 
other than a 2 percent administration cost, and Veterans Health 
Administration (VA) programs were made exempt from the sequester. See 
section 255 of the Balanced Budget and Emergency Deficit Control Act 
(BBEDCA), as amended by Public Law 111-139 (2010). We thus strongly 
urge the subcommittee to support an amendment to the Budget Control Act 
to fully exempt the IHS from any future sequestration, just as these 
other programs which also provide direct care are exempt.
    Thank you for your consideration of our request to support funding 
the reconstruction of the Unalaska Hospital and Atka Island Clinic with 
associated staffing and operating costs. We are very confident that 
these reconstructed facilities will right a huge wrong in our history 
and will significantly improve healthcare for the Aleutian and Pribilof 
tribal communities. We also appreciate the subcommittees' consideration 
of other requests outline in this testimony. On behalf of the Aleutian 
Pribilof Islands Association and the people we serve, I am happy to 
help provide any additional information desired by the subcommittees.
                                 ______
                                 
    Prepared Statement of the Association of Public and Land-Grant 
                              Universities
    On behalf of the APLU Board on Natural Resources (BNR), we thank 
you for your support of science and research programs within the United 
States Geological Survey (USGS). We appreciate the opportunity to 
provide recommendations for the following programs within USGS: $6.5 
million for the Water Resources Research Institutes and $18.566 million 
for the Cooperative Fish and Wildlife Research Units.
    APLU BNR requests at least $6.5 million for the Water Resources 
Research Institutes (WRRI).--The APLU BNR request is based on the 
following: $5,500,000 in base grants for the WRRI as authorized by 
section 104(b) of the Water Resources Research Act, including State-
based competitive grants; and $1 million to support activities 
authorized by section 104(g) of the act, and a national competitive 
grants program. Federal funding for the WRRI program is the catalyst 
that moves States and cities to invest in university-based research to 
address their own water management issues. State WRRI take the 
relatively modest amount of Federal funding appropriated, match it 2:1 
with State, local and other funds and use it to put university 
scientists to work finding solutions to the most pressing local and 
State water problems that are of national importance. The Institutes 
have raised more than $15 in other funds for every dollar funded 
through this program. The added benefit is that often research to 
address State and local problems helps solve problems that are of 
regional and national importance. Many of the projects funded through 
this program provide the knowledge for State or local managers to 
implement new Federal laws and regulations. Perhaps most important, the 
Federal funding provides the driving force of collaboration in water 
research and education among local, State, Federal and university water 
professionals. This program is essential to solving State, regional and 
inter-jurisdictional water resources problems. For example, the Idaho 
Institute conducted work in 2011 for the City of Boise and the National 
Renewable Energy Laboratory to determine whether the Boise Front 
geothermal aquifer was adequate for supplying current and increased 
withdrawals. Similarly, Institutes in Louisiana, California and North 
Carolina have made major contributions in emergency planning and 
hurricane recovery, protecting groundwater aquifers from sea water 
intrusion and reducing water treatment costs.
    The institutes also train the next generation of water resource 
managers and scientists. Last year, these institutes provided research 
support for more than 1,400 undergraduate and graduate students at more 
than 150 universities studying water-related issues in the fields of 
agriculture, biology, chemistry, earth sciences, engineering and public 
policy. Institute-sponsored students receive training in both the 
classroom and the field, often working should-to-shoulder with the top 
research scientists in their field on vanguard projects of significant 
regional importance.
    In addition to training students directly, Water Resources Research 
Institutes work with local residents to overcome water-related issues. 
For example, the California Institute for Water Resources, like most of 
its peers, holds field days, demonstrations, workshops, classes, 
webinars, and offers other means of education in an effort to transfer 
their research information to as many users as possible. Outreach that 
succeeds in changing a farmer's approach to nitrogen application or 
reducing a homeowner's misuse of lawn treatments can reduce the need 
for restrictive regulation.
    APLU BNR requests at least $18.6 million for the Cooperative Fish 
and Wildlife Research Units (CRU).--This program serves to (1) train 
the next generation of Fish and Wildlife managers; (2) conduct research 
designed to meet the needs of unit cooperators; and (3) provide 
technical assistance to State and Federal personnel and other natural 
resource managers. Originally established to provide training for 
students in fish and wildlife biology, the units were formally 
recognized by the Cooperative Units Act of 1960 (Public Law 86-686). 
The CRU provide experience and training for approximately 600 graduate 
students per year, a critical need as State and Federal workforces face 
unprecedented retirements over the next 5 to 10 years. The CRU also 
provides valuable mission-oriented research for their biggest clients, 
the U.S. Fish and Wildlife Service and cooperating State agencies. 
Today, there are 40 Cooperative Research Units in 38 States.
    Each unit is a true Federal-State-university collaboration in that 
it is a partnership between USGS, a State natural resource agency, a 
host university, and the Wildlife Management Institute. For every $1 
the Federal Government puts into the program, $3 more are leveraged 
through the other partners. The U.S. economy has long relied on the 
bountiful natural resources bestowed upon this land. Federal investment 
in the CRU will be returned many times over though the training of 
future natural resource managers who will guide the Nation in 
sustainable use of our natural resources. The research conducted by CRU 
scientists directly supports the difficult management challenges faced 
by natural resources managers. The examples below demonstrate the value 
of the CRUs to wildlife issues with local and national importance.
  --The Minnesota Cooperative Fish & Wildlife Research Unit currently 
        has 3 Federal employees, 3 post-doctoral research fellows and a 
        total of 12 graduate students. Current research funded by the 
        Minnesota Department of Natural Resources and Federal agencies 
        totals $4.9 million. Among the numerous projects being 
        conducted by unit personnel, a project determining the 
        olfactory sensitivity of Asian carp to putative hormonal sex 
        pheromones has recently received national attention. The Asian 
        carp is an invasive species that threatens many of the Nation's 
        freshwater native fish because they are more competitive than 
        native fish for food. The Minnesota CRU hopes to use the sex 
        pheromones to attract and trap Asian carp, removing them 
        permanently from the Nation's freshwater lakes and rivers.
  --The Idaho Cooperative Fish and Wildlife Research Unit has 3 Federal 
        scientists who are training 22 graduate students and supervise 
        8 year-round staff plus 15 seasonal staff and 5 work-study 
        students. Total grants and contracts for these three scientists 
        exceed $1.5 million and include projects related to gray wolf 
        monitoring and population estimation, improving fish passage at 
        lower Columbia River dams, and defining ``recovery'' for 
        endangered species.
             about aplu and the board on natural resources
    APLU's membership consists of 221 State universities, land-grant 
universities, State-university systems and related organizations. The 
Board's mission is to promote university-based programs dealing with 
natural resources, wildlife, ecology, energy, and the environment. BNR 
representatives are chosen by their president's office to serve and 
currently number over 500 scientists and educators, who are some of the 
Nation's leading research and educational expertise in environmental 
and natural-resource disciplines. APLU institutions enroll more than 
3.5 million undergraduate students and 1.1 million graduate students, 
employ more than 645,000 faculty members, and conduct nearly two-thirds 
of all federally funded academic research, totaling more than $34 
billion annually.
                                 ______
                                 
     Prepared Statement of the Association of State Drinking Water 
                             Administrators
                               who we are
    The Association of State Drinking Water Administrators (ASDWA) 
represents the State drinking water programs in the 50 States, 
territories, District of Columbia, and the Navajo Nation in their 
efforts to provide safe drinking water to more than 275 million 
consumers nationwide.
                           summary of request
    ASDWA respectfully requests that, for fiscal year 2014, the 
subcommittee appropriate funding for three State drinking water 
programs at levels commensurate with Federal expectations for 
performance; that ensure appropriate public health protection; and that 
will result in enhancing economic stability and prosperity in American 
cities and towns. ASDWA requests $200 million for the Public Water 
System Supervision (PWSS) program; $1.387 billion for the Drinking 
Water State Revolving Loan Fund (DWSRF) program; and $10 million for 
State drinking water program security initiatives. A more complete 
explanation of the needs represented by these requested amounts and 
their justification follows.
                      how states use federal funds
    Public Health Protection.--States need increased Federal support to 
maintain overall public health protection and to support the needs of 
the water systems they oversee. State drinking water programs strive to 
meet public health protection goals through two principal funding 
programs: the Public Water System Supervision Program (PWSS) and the 
Drinking Water State Revolving Loan Fund (DWSRF) Program. These two 
programs, with their attendant State match requirements, provide the 
means for States to work with drinking water utilities to ensure that 
American citizens can turn on their taps with confidence that the water 
is both safe to drink and the supply is adequate. In recent years, 
State drinking water programs have accepted additional responsibilities 
in the area of water system security that include working with all 
public water systems to ensure that critical drinking water 
infrastructure is protected; that plans are in place to respond to both 
natural and manmade disasters; and that communities are better 
positioned to support both physical and economic resilience in times of 
crisis.
    Vibrant and sustainable communities, their citizens, workforce, and 
businesses all depend on a safe, reliable, and adequate supply of 
drinking water. Economies only grow and sustain themselves when they 
have reliable water supplies. More than 90 percent of the population 
receives water used for bathing, cooking, and drinking from a public 
water system--overseen by State drinking water personnel. Firefighting 
also relies on potable water from public water systems to ensure public 
safety. Even people who have their own private wells will visit other 
homes, businesses and institutions served by a public water system. As 
important as public water systems are to the quality of water we drink 
and our health, the majority of water produced by public water systems 
is used by businesses for a variety of purposes, including processing, 
cooling, and product manufacturing. The availability of adequate 
supplies of water is often a critical factor in attracting new 
industries to communities. Public water systems--and the cities, 
villages, schools, and businesses they support--rely on State drinking 
water programs to ensure they are in compliance with all applicable 
Federal requirements and the water is safe to drink. Several incidents 
in the United States over the past several years that have led to 
illnesses or deaths from unsafe drinking water serve as stark reminders 
of the critical nature of the work that State drinking water programs 
do every day and the dangers of inadequately funded programs,
    The PWSS Program.--To meet the requirements of the Safe Drinking 
Water Act (SDWA), States have accepted primary enforcement 
responsibility for oversight of regulatory compliance and technical 
assistance efforts for more than 155,000 public water systems to ensure 
potential health-based violations do not occur or are remedied in a 
timely manner. More than 90 contaminants are regulated in Federal 
drinking water regulations and the pace of regulatory activity has 
accelerated in recent years. Beyond the more than 90 contaminants 
covered by Federal drinking water regulations, States are also 
implementing an array of proactive initiatives to protect public health 
from ``the source to the tap.'' These include source water assessments 
and protections for communities and watersheds; technical assistance 
with water treatment and distribution for challenged utilities; and 
enhancement of overall water system performance capabilities. In recent 
years, States have also taken on an increasingly prominent role in 
working with Federal and local partners to help ensure sufficient water 
quantity. In short, State activities go well beyond simply ensuring 
compliance at the tap--and, they perform all of these tasks more 
efficiently and cheaply than would be the case if the program were 
federally implemented. In short, well supported State programs are a 
``good deal'' for America.
    The DWSRF Program.--Drinking water in the United States is among 
the safest and most reliable in the world, but it is threatened by 
aging infrastructure. Through loans provided by the DWSRF, States help 
water utilities overcome this threat. The historical payback to the 
DWSRF on this investment has been exceptional. In the core DWSRF 
program, $12.4 billion in cumulative capitalization grants and $2 
billion in American Reinvestment and Recovery Act (ARRA) funds since 
1997 have been leveraged by States into nearly $22 billion in 
infrastructure loans to small and large communities across the country. 
Such investments pay tremendous dividends--both in supporting our 
economy and in protecting our citizens' health. Some State drinking 
water programs have also used DWSRF funds to support the technical 
assistance and training needs of numerous small drinking water systems 
and to help these water systems obtain the technical, managerial, and 
financial proficiency needed to meet the requirements of the SDWA.
    State Drinking Water Security Responsibilities.--State drinking 
water programs are critical partners in emergency planning, response, 
and resiliency at all levels of Government. State primacy agencies 
provide key resources and critical support--regardless of whether the 
emergency is rooted in terrorism, natural disasters, or cyber 
intrusions. States continually work toward integrating security 
considerations throughout all aspects of their drinking water programs.
                why increased funding is urgently needed
    State Drinking Water Programs are Hard Pressed and the Funding Gap 
Continues to Grow.--States must accomplish all of the above-described 
activities--and take on new responsibilities--in the context of the 
continuing economic downturn. This has meant operating with less State-
provided financial support--which has historically compensated for 
inadequate Federal funding. State drinking water programs have often 
been expected to do more with less and States have always responded 
with commitment and ingenuity. However, State drinking water programs 
are stretched to the breaking point. Insufficient Federal support for 
this critical program increases the likelihood of a contamination event 
that puts the public's health at risk. Although the 1996 SDWA 
Amendments authorized the PWSS Program at $100 million per year, 
appropriated amounts have only recently reached that authorized level--
a level that now, more than 16 years from the date of those amendments, 
falls far short of the amount needed. $100.5 million was appropriated 
for the PWSS program in fiscal year 2013 (but may be further reduced 
once the details of the fiscal year 2013 continuing resolution, with 
sequestered amounts, are known) and the administration requested only 
$109.7 million in fiscal year 2014. These amounts are woefully 
inadequate for the enormity of the task faced by State drinking water 
programs. We believe, based on our assessments of every State's need, 
that at least twice that amount is needed. Inadequate Federal funding 
for State drinking water programs has a number of negative 
consequences. Many States are simply unable to implement major 
provisions of the newer regulations, leaving the work undone or ceding 
the responsibility back to EPA, which is also challenged by the 
Agency's own resource constraints and lack of ``on the ground'' 
expertise. This situation has created a significant implementation 
crisis in several regions of the country and is ultimately delaying 
implementation of critically needed public health protections.
    State's Drinking Water Infrastructure Investment is Well below 
Documented Need.--In 2013, the Association of Civil Engineers gives the 
Nation's water infrastructure a D grade and EPA's most recent National 
Drinking Water Infrastructure Needs Survey (2007) indicated that 
drinking water system infrastructure needs total $334.8 billion over 
the next 20 years. The American Water Works Association recently 
estimated that 20-year need at $1 trillion. Investment is needed for 
aging treatment plants, storage tanks, and the pumps that move water 
through a water system. The great majority of infrastructure 
investment, however, is for the pipes that carry water to our Nation's 
homes, businesses and schools. Many States are heavily focused on 
efforts to sustainably fund water infrastructure which includes looking 
at increased, but still affordable, rates as well as reducing demand 
through asset management and other techniques used in the private 
sector. States are also looking at State level funding sources to 
augment Federal assistance. The DWSRF must continue to be a key part of 
the solution to the Nation's infrastructure crisis.
      fiscal year 2014 request levels and sdwa program obligations
    The PWSS Program.--The number of regulations requiring State 
implementation and oversight as well as performance expectations 
continue to grow while at the same time, the Federal funding support 
necessary to maintain compliance levels and meet expectations has been 
essentially ``flat-lined'' or included only meager increases. Inflation 
has further eroded these inadequate funding levels. States want to 
offer the flexibilities allowed under existing rules/requirements to 
local water systems; however, fewer State resources mean less 
opportunity to work one-on-one with water systems to meet their 
individual needs.
    ASDWA respectfully requests that the fiscal year 2014 funding for 
the PWSS program be appropriated at $200 million. This figure begins to 
fill the above-described resource gap and is based on the expense of 
implementing new drinking water rules, taking on a number of other new 
initiatives, and accounting for the eroding effects of inflation. We 
further recommend that Congress not allow any Federal funds already 
appropriated to State drinking water programs to be rescinded.
    The DWSRF Program.--States were very encouraged by the $1.387 
billion appropriated for the DWSRF in fiscal year 2010 but are 
disappointed at the subsequent downward trend--$963 million in fiscal 
year 2011, $919 million in fiscal year 2012, $853.77 million for fiscal 
year 2013 (a figure not seen since 2006), and $817 million requested by 
the administration for fiscal year 2014. The primary purpose of the 
DWSRF is to improve public health protection by facilitating water 
system compliance with national primary drinking water regulations 
through the provision of loans to improve drinking water 
infrastructure. Water infrastructure is needed for public health 
protection as well as a sustainable economy, as explained above. States 
have very effectively and efficiently leveraged Federal dollars with 
State contributions to provide assistance to more than 8,500 projects, 
improving health protection for millions of Americans. According to 
recent figures, this equals a 177.4 percent return on the Federal 
investment. Approximately 72 percent of projects and 38 percent of 
assistance have been provided to small communities (serving fewer than 
10,000 people). In light of these indicators of success and documented 
needs, we believe funding at the $1.387 billion level will better 
enable the DWSRF to meet the SDWA compliance and public health 
protection goals for which it was designed.
    ASDWA respectfully requests $1.387 billion in fiscal year 2014 
funding for the DWSRF program.
    Security Responsibilities.--After 7 years of supporting State 
security programs through a small grant of approximately $5 million in 
EPA's appropriation (fiscal year 2002 through fiscal year 2008), no 
funds have been provided for this purpose since fiscal year 2009 and 
none are requested for fiscal year 2014. State drinking water programs 
need funds to continue to maintain and expand their security 
activities, particularly for small and medium water systems and to 
support utility-based mutual aid networks for all drinking water 
systems. It is very difficult to understand why this grant has been 
zeroed out of EPA's proposed budget. Given the realities and the 
lessons learned from Hurricane Sandy and other storms as well as 
chronic drought throughout many parts of the Nation, State drinking 
water programs are working more closely than ever with their water 
utilities to evaluate, assist, and support drinking water systems' 
preparedness, response, and resiliency capabilities. States continue to 
expand their efforts to reflect a more resilient ``all hazards'' 
approach to water security and to focus their efforts toward smaller 
water systems.
    ASDWA respectfully requests $10 million in fiscal year 2014 funding 
for the State security initiatives. These funds would be commensurate 
with the security tasks State drinking water programs must take on.
                               conclusion
    ASDWA respectfully recommends that the Federal fiscal year 2014 
budget needs for States' role in the provision of safe drinking water 
be adequately funded by Congress. A strong State drinking water program 
supported by the Federal-State partnership will ensure that the quality 
of drinking water in this country will not deteriorate and, in fact, 
will continue to improve--so that the public can be assured that a 
glass of water is safe to drink no matter where they travel or live. 
States are willing and committed partners. However, additional Federal 
financial assistance is needed to meet ongoing and ever growing 
regulatory, infrastructure, and security needs. In 1996, Congress 
provided the authority to ensure that the burden would not go 
unsupported. For fiscal year 2014, ASDWA asks that the promise of that 
support be realized.
                                 ______
                                 
      Prepared Statement of the American Society for Microbiology
    The American Society for Microbiology (ASM) is pleased to submit 
the following testimony on the fiscal year 2014 appropriation for 
science and technology (S&T) programs at the Environmental Protection 
Agency (EPA). The ASM is the largest single life science organization 
in the world with more than 37,000 members.
    The EPA funds and sustains a broad portfolio of research and 
development (R&D) activities that provide tools and knowledge crucial 
to decisions on preventing, regulating and reducing environmental 
pollution. Adequate funding for the EPA's science and technology 
programs is needed to ensure the science based capabilities of EPA 
oversight to protect human health and the environment.
    The Office of Research and Development (ORD) oversees EPA's 
scientific research, managing 14 facilities across the United States 
including three national laboratories and four national research 
centers. Over the past decade, the budget for ORD has declined by 
nearly 30 percent in terms of purchasing power. EPA appropriations 
allocate a modest fraction to the agency's science and technology 
programs, roughly 10 percent in fiscal year 2013. These funds must 
support intramural and extramural R&D efforts, personnel costs, 
laboratory purchases and other operating expenses.
    EPA actions require frequent testing, updated methodologies, data 
management and a thorough understanding of current scientific 
knowledge. EPA's science based actions include analyzing environmental 
samples, quickly responding to emergencies, enforcing Federal 
regulations, providing technical support to non-EPA labs across the 
United States and monitoring pollutants and environmental quality. EPA 
research contributes new knowledge to the growing field of regulatory 
science and external evaluations of EPA science in recent years have 
cautioned that EPA's science based capabilities should be strengthened 
to lend greater credibility to its regulatory actions.
environmental protection agency funding safeguards communities through 
                         science and technology
    The EPA contributes to protecting the Nation's food supply, water 
systems and overall environmental health by publishing guidances for 
industry, public works departments and other stakeholders. In the case 
of safe drinking water, a basic human need, EPA has regulatory 
standards for 91 contaminants and is required to identify up to 30 
additional contaminants of concern to periodically monitor and evaluate 
their significance as health risks.
    EPA guidelines, like EPA enforcement actions, must be grounded in 
solid science using the best available information and risk assessment 
methods. In 2012, EPA updated its regulations on microbial pathogens in 
drinking water, impacting approximately 155,000 public water systems in 
the United States that serve more than 310 million people. The Revised 
Total Coliform Rule strengthens requirements for public drinking water 
systems relative to acceptable levels for Escherichia coli and other 
standard indicators of possible contamination. In November, the EPA 
additionally recommended new recreational water quality criteria. 
Though not imposing new rules, the criteria provide States and local 
governments with the latest information from recent health and science 
studies to better help users evaluate their own waters. Included in the 
EPA recommendation is a new rapid testing method to more quickly detect 
possible contamination, plus an early alert protocol for public 
swimming advisories.
    Other examples from the past year include the first ever 
comprehensive Microbial Risk Assessment (MRA) Guideline, developed 
jointly with the U.S. Department of Agriculture, which provides 
specific guidance on optimal assessments of microbial risk in food and 
water. In 2012, EPA scientists at the National Exposure Research 
Laboratory published results of their ongoing study of Legionella 
bacteria contamination in engineered water systems and improved 
detection methods, delineating the interacting factors that can lead to 
disease outbreaks.
    In addition, EPA directs significant funding each year directly to 
State and local governments. This funding both improves surrounding 
environments, but also stimulates local economies. Last June, EPA's 
Urban Waters program awarded grants to 46 organizations in 32 States 
and Puerto Rico to improve urban waters. In September, the agency's 
Great Lakes Restoration Initiative (GLRI) distributed 11 grants to 
projects in Michigan and Ohio to improve water quality and reduce 
excess nutrients that can trigger harmful algal blooms in Great Lakes 
watersheds. Preventive practices that will be subsidized with GLRI 
funds include replacing failing septic systems, planting cover crops, 
improving farm practices and restoring wetlands. First proposed in 
2009, GLRI is the most significant investment in improving the Great 
Lakes ecosystem in more than 20 years.
environmental protection agency funding supports regulatory science and 
                         workforce development
    In response to the 2011 National Academy of Sciences report on 
integrating sustainability into EPA decisionmaking, the Office of 
Research and Development (ORD) adopted four integrated trans 
disciplinary research action plans covering agency responsibilities: 
(1) air, climate and energy; (2) safe and sustainable water; (3) 
chemical safety and sustainability; and (4) safe and healthy 
communities. Within these action plans are systems approaches to 
environmental issues and life-cycle assessments in research programs. 
Adequate Federal funding levels are essential to ensure the EPA can 
respond quickly to outside recommendations, as the agency commits 
itself to utilizing the best regulatory science available.
    The Science to Achieve Results (STAR) program distributes 
extramural funding to a range of institutions, supporting research 
affecting human health, ecology, engineering, economics and other 
fields. Current STAR grant recipients include eight universities in a 
joint effort toward new rapid testing methods to assess chemicals 
toxicity to people and the environment. In September, three 
universities joined another STAR multi institution initiative to 
develop cost effective, sustainable drinking water treatment methods. 
Each evaluated contaminant removal by ion exchange processes, 
reticulated vitreous carbon electrodes or membrane distillation.
    EPA contracts awarded to industry encourage innovation in 
regulatory science. As part of EPA's ToxCast program, a new 5-year 
agreement with a California company will screen chemicals for toxicity 
with its proprietary lab method using human cell cultures. The company 
will analyze up to 60,000 samples to determine potential toxicity to 
humans, and added them to the EPA's catalog of substances and their 
predicted toxicity. EPA also supports extramural science and technology 
research through its Small Business Innovation Research (SBIR) program, 
which helps companies with fewer than 500 employees commercialize 
relevant technologies. Last year, the EPA selected 25 U.S. companies to 
participate in Phase I of its annual SBIR awards, including a North 
Dakota firm studying solar powered aeration technology that removes 
unwanted chemical byproducts of disinfection used to control microbes 
in drinking water.
    The fiscal year 2013 and 2014 budget shortfalls could threaten the 
EPA's important tradition of nurturing the next generation of 
environmental scientists and engineers. In 2012, EPA awarded $675,000 
through 45 grants to university student teams as part of the agency's 
annual People, Prosperity and the Planet (P3) competition to design and 
develop sustainable technologies. Among the grant winners are research 
and development teams focused on solar disinfection technology to 
pasteurize water in developing countries, magnesium oxide aerogels to 
capture carbon dioxide at power and chemical plants and 3-D printing 
technology applied to sustainable building component design.
    Nearly 130 university students nationwide received about $5.3 
million this academic year through Greater Research Opportunities (GRO) 
undergraduate fellowships or STAR fellowships to masters and doctoral 
students. Currently funded student research includes the impacts of 
water temperature increases on cyanobacterial blooms and the effects of 
a permeable reactive barrier on denitrifying bacteria in Cape Cod bay 
waters. The agency regularly distributes grants to K-12 school 
districts to build STEM capacity, like last year's grant to a New 
Mexico schoolyard program to teach youth about environments of the 
Chihuahuan Desert, or the President's Environmental Youth Award for a 
high school project in Idaho restoring water quality in the Boise 
River. EPA also sponsored a ``water boot camp'' last summer in Missouri 
to train high school and college students interested in water quality 
careers.
    In May 2012, EPA joined the Department of Commerce in launching an 
innovation initiative to create American jobs in the environmental 
industry, as well as promote American environmental technology, 
products and services in the global marketplace. The joint effort's new 
Environmental Technologies Export Initiative builds on the 
administration's National Export Initiative, which aims to double 
United States exports by the end of 2014 and support millions of U.S. 
jobs. EPA is also partnering with trade associations, increasing access 
for U.S. companies to EPA's S&T and regulatory information. EPA 
estimates that the U.S. environmental industry generates about $312 
billion in revenues each year, employing nearly 1.7 million people and 
sustaining more than 60,000 small businesses. The United States is a 
world leader in environmental protection, and EPA has stated its 
commitment to accelerating Science and Technology research and 
development, to stimulate both economic growth and environmental 
protection.
    The ASM recommends that Congress restore sequestration cuts for 
research budgets and fund EPA research programs at the highest possible 
level in fiscal year 2014.
                                 ______
                                 
   Prepared Statement of the American Society for the Prevention of 
                           Cruelty to Animals
    On behalf of our 2.5 million supporters, the American Society for 
the Prevention of Cruelty to Animals (ASPCA) appreciates this 
opportunity to submit testimony to the Senate Appropriations 
Subcommittee on Interior, Environment and Related Agencies. Founded in 
1866, the ASPCA is the first humane organization established in the 
Americas and serves as the Nation's leading voice for animal welfare. 
The ASPCA's mission is to provide effective means for the prevention of 
cruelty to animals throughout the United States, and for that reason we 
request the subcommittee consider the following concerns regarding the 
Bureau of Land Management's Wild Horse and Burro Program when making 
fiscal year 2014 appropriations.
                              wild horses
    In the 40 years since the Bureau of Land Management (BLM) was first 
charged with protecting our country's wild horses and burros, Americans 
have witnessed BLM's Wild Horse and Burro Program deteriorate into a 
continuous cycle of roundups and removals with little regard to the 
preservation-focused mandate dictated by the Wild Free-Roaming Horses 
and Burros Act (the act). Our wild horses and burros are to be revered 
as historical icons, treated humanely, and managed fairly and 
respectfully on our public lands. We appreciate BLM's recognition that 
there is a great need for reform in the Wild Horse and Burro Program. 
We applaud its effort to incorporate the use of on-the-range management 
methods such as immunocontraception and to find alternatives to long-
term holding of wild horses. However, further and significant 
reformations must be swiftly incorporated.
     prohibit blm funding for euthanasia or sale of wild horses as 
                           management methods
    In December 2004, Congress passed the Consolidated Appropriations 
Act for Fiscal Year 2005 which contained a provision that amended the 
Wild Free-Roaming Horses and Burros Act to allow for the sale of 
certain groups of wild horses and burros. This instant transfer of 
title from the U.S. Government to the individual purchaser revokes the 
animal's status as a protected equine and makes mustangs vulnerable to 
the still-thriving horse slaughter industry. Additionally, in 2008 BLM 
publicly announced that it was considering using its statutory 
authority to destroy old, sick, or unadoptable wild horses and burros 
for the first time by implementing mass euthanasia as a population 
control method. The roar of public opposition that followed forced BLM 
to quickly withdraw the proposal. However, both the sale provision and 
the language allowing for the destruction of wild horses and burros 
remain in the law.
    Last September, published reports revealed that since 2009, the BLM 
has sold more than 1,700 captured mustangs--70 percent of the animals 
sold during the program--to a single Colorado livestock hauler who has 
been a longtime kill buyer for the horse slaughter industry.\1\ 
Although the BLM has implemented interim measures to prevent such a 
large number of horses being sold to one individual, Congress must send 
a clear message that the slaughter of our Nation's wild horses and 
burros is a gross violation of the Wild Free-Roaming Horses and Burros 
Act. Congress's opposition to the slaughter of our Nation's wild horses 
and burros has been repeatedly stated in past appropriations acts, and 
again in the Consolidated Appropriations Act for 2012, the current 
funding vehicle for the Department of the Interior. The President's 
fiscal year 2014 budget request includes an administrative provision to 
bar appropriations for the euthanasia of healthy horses and the sale to 
slaughter. The ASPCA requests that the subcommittee retain the language 
in the President's request by adopting the following language: 
``Appropriations herein made shall not be available for the destruction 
of healthy, unadopted, wild horses and burros in the care of the Bureau 
or its contractors or for the sale of wild horses and burros that 
results in their destruction for processing into commercial products.''
---------------------------------------------------------------------------
    \1\ ``All the Missing Horses: What Happened to the Wild Horses Tom 
Davis Bought From the Gov't?'' ProPublica: September 28, 2012.
---------------------------------------------------------------------------
           ensure that removals do not exceed adoption demand
    The majority of BLM's budget is spent caring for wild horses in 
long-term holding facilities. The budget requested for BLM's Wild Horse 
and Burro Program has necessarily increased each fiscal year, as has 
the portion of the budget that funds the care of wild horses in long-
term holding facilities. Unfortunately, instead of letting these wild 
horses remain in their natural habitats as part of their established 
herds, their family structures have been disrupted and they have been 
removed to fenced facilities where taxpayer dollars go for their care. 
There are now as many or more wild horses in holding facilities as in 
the wild. Without substantial change in management techniques, the 
number in holding facilities will only increase and taxpayer dollars 
will be further wasted in ever increasing amounts. The ASPCA believes 
wild horses belong in their natural habitats and should not be subject 
to the terror of removals nor the confines of holding facilities 
without hope of return to the range or adoption.
    Adoption rates have varied between 3,000 and 4,000 horses since 
2008. During the same time period, BLM has rounded up and removed 
approximately 7,800 horses annually--several thousand above the 
adoption demand--thereby guaranteeing most of those wild animals will 
be kept in taxpayer-funded holding facilities for the remainder of 
their lives. Warehousing horses in holding facilities does nothing to 
manage the on-range populations and only delays the inevitable need for 
more preventative management. This cycle must be broken. The ASPCA 
encourages BLM to limit the number of horses removed from the range to 
the number matching current adoption demand.
      prioritize on-the-range management over roundup and removal
    The Wild Free-Roaming Horses and Burros Act makes clear that on-
the-range management should be preferred over roundup and removal as 
the primary method of wild horse management. There are multiple ways 
BLM can reform its program to favor on-the-range management methods.
    The ASPCA realizes that there are situations where population 
control is necessary, and we appreciate BLM's public recognition that 
fertility control methods must be a significant part of wild horse 
population management. Porcine Zona Pellucida (PZP), the contraceptive 
vaccine that has been used in managing horse and deer populations for 
decades, was recently registered by EPA and is now commercially 
available. In the past, BLM has capped its goal for vaccinating horses 
at 2,000 horses per year. For PZP to become a serious part of the 
solution, its use must be increased to levels that will significantly 
impact population growth. The ASPCA recommends that the subcommittee 
encourage BLM to prioritize the use of humane, reversible fertility 
control when it is necessary to stem the population growth of wild 
horse or burro herds.
    In addition to escalating its use of immunocontraception, BLM must 
also reconsider Herd Management Areas (HMAs) that have been zeroed out 
as wild horse and burro habitat and make them available for 
reintroduction. More than 20 million acres of HMAs originally 
designated as wild horse and burro habitat have been zeroed out and 
horses have been removed and placed in holding facilities. This 40-year 
pattern has resulted in American taxpayers paying more each year for 
the cost of privatized care when millions of acres of habitat are 
available. The ASPCA recommends that the subcommittee direct BLM to 
reestablish zeroed out HMAs as viable wild horse and burro habitat 
wherever possible.
           require humane and transparent roundup operations
    Finally, the ASPCA requests that, when roundups are necessary, the 
subcommittee charge BLM with establishing humane and transparent 
standards and procedures for those operations. Observers have witnessed 
horses suffering and dying due to brutal roundup practices. Foals have 
been run over such extreme distances that they literally have lost 
their hooves, and mares have been driven to the point of physical 
exhaustion. BLM recognizes a need to reform its roundup protocol. The 
ASPCA applauds this acknowledgement and asks that the subcommittee 
encourage BLM to expedite its development of Standard Operating 
Procedures for roundups that incorporate animal welfare standards. No 
roundups for removal or any other purposes should occur without 
procedures in place that will ensure these incidents are never 
repeated. For the public to continue to invest in this management 
program and to allow this agency to have any authority over these 
animals, it is vital that no horse or burro is harmed at the hands of 
BLM agents or contractors. We also urge the subcommittee to designate 
funds for researching and developing protocols that take into 
consideration the impact of separating family groups of wild horses 
during removals. To allow for more visibility of roundup operations, 
and thus more accountability, we urge the subcommittee to designate 
funds for the installation of video cameras on helicopters and at trap 
and holding sites.
    Thank you for this opportunity to submit testimony. We appreciate 
the steps BLM has already taken to reform the Wild Horse and Burro 
Program, and we look forward to working with the agency on this issue 
in the future. With the help of the subcommittee, the BLM Wild Horse 
and Burro Program can hopefully achieve sustainability and comply with 
the mission of the Wild Free-Roaming Horses and Burros Act: to protect 
and preserve these animals as historic American icons.
                                 ______
                                 
Prepared Statement of the Assiniboine and Sioux Tribes of the Fort Peck 
                              Reservation
    Chairman Reed, Ranking Member Murkowski, and members of the 
subcommittee, my name is Thomas ``Stoney'' Anketell and I am a member 
of the Executive Board of the Assiniboine and Sioux Tribes of the Fort 
Peck Reservation. On behalf of the Fort Peck Tribes and Chairman Floyd 
Azure, I am pleased to present testimony on the President's fiscal year 
2014 budget. We are a large, land-based tribe located in northeastern 
Montana. The Fort Peck Reservation encompasses 2 million acres. Our 
Native American population is more than 8,000 and our tribal enrollment 
is more than 12,000 members. Many of our members continue to live in 
poverty.
    I will focus my testimony on the following tribal priorities:
  --Support the President's fiscal year 2014 budget request for the BIA 
        Construction account which includes a $2.3 million increase for 
        operation and maintenance of the Assiniboine and Sioux Rural 
        Water System (Other Program Construction);
  --Support and increase fiscal year 2014 funding of $1.865 billion for 
        the Indian Health Service (IHS) services budget for essential 
        health care to Native Americans;
  --Support and increase funding of $365 million for BIA Public Safety 
        and Justice programs;
  --Oppose the administration's unilateral changes to Contract Support 
        Cost (CSC) policies.
    Sequestration.--Before I address these issues, I want to address 
the harmful effects that sequestration is having on our Reservation. If 
Congress does not find common ground, further reductions to Federal 
appropriations will occur in fiscal year 2014, and wipe out any funding 
increases Congress may include in the Interior, Environment, and 
Related Agencies appropriations bill. Already, we have begun to see 
reductions to our fiscal year 2013 funding, early retirements of BIA 
and IHS officials, and the consolidation of agency offices. The 
indiscriminate across-the-board cuts and resulting ``streamlining'' 
efforts by Federal agencies have harmful consequences to our members. 
Sequestration as a budget policy does not work. It is a terrible 
policy, especially for Indian Country.
    The United States has a continuing trust responsibility to 
strengthen and empower tribal governments. Efforts to strengthen tribal 
governments and grow reservation economies are impeded when the budgets 
of the Federal agencies we interact with are cut, when essential 
personnel take early retirement and are not replaced, and when the 
United States asks tribal governments to subsidize Federal programs or 
refuses to honor our contracts and pay us our full amount of funding as 
required by law.
    Operation and Maintenance of the Assiniboine and Sioux Rural Water 
System.--The High Plains have historically suffered from poor quality 
water supplies that have contributed to health problems for Indian 
tribes and surrounding communities. To correct this problem and to 
ensure an ample supply of municipal and industrial water, Congress 
passed the Fort Peck Reservation Rural Water System Act of 2000, Public 
Law 106-382. The act authorized the construction of a rural water 
system to serve the Fort Peck Reservation and off-reservation 
communities with water from the Missouri River.
    Since 2000, the United States has invested more than $130 million 
in construction of water intake, pump stations, and a now operational 
30,000 square feet Water Treatment Plant, plus hundreds of miles of 
pipeline to serve the Fort Peck Reservation and off-reservation Dry 
Prairie communities. Under the statute, operation and maintenance of 
the Tribal rural water facilities is the obligation of the BIA to fully 
fund. Until the fiscal year 2014 budget, the BIA has lagged behind in 
requesting adequate operation and maintenance funding to cover the 
operation and maintenance costs for our rural water system. As Congress 
has appropriated more funding for construction of our system--
appropriations for the Bureau of Reclamation--the BIA has not kept pace 
and funded our increased operating costs at 100 percent as mandated by 
the act.
    This year, if the BIA awards us $750,000 in fiscal year 2013 
operation and maintenance funds, we still anticipate a $182,000 budget 
shortfall before the end of the fiscal year. To date, we have received 
about $175,000 in fiscal year 2013 operating funds from the BIA and the 
Office of Facilities Management and Construction (OFMC), and only in 
the last few weeks. With more than $130 million in Federal 
appropriations invested in the project, we ask the subcommittee to 
support the President's budget and fund the $2.5 million we require to 
properly operate and maintain our rural water system. The President's 
request for operations funding is less than 2 percent of the Federal 
investment.
    BIA operations funding is critical if we are to interconnect the 
Assiniboine and Sioux Rural Water System this year with the Dry Prairie 
Rural Water System, as required under the statute. Furthermore, future 
Bureau of Reclamation construction funding is dependent upon our 
ability to safely operate and maintain the Water Treatment Plant, 
intake, pump stations and existing water lines that we have contracted 
to maintain under the ISDA. Our ability to safely deliver municipal and 
industrial water to the Fort Peck Reservation and to Dry Prairie is 
dependent on operating funds from the BIA Construction account.
    Indian Health Service.--Like clean water, the programs and services 
of IHS are critical to the health and vitality of our members. The Fort 
Peck Tribes appreciates the subcommittee's strong commitment to Indian 
health and supporting increases to the IHS budget in recent years. We 
support and urge the subcommittee to support the President's request 
for additional funding for IHS Services (Hospitals and Health Clinics) 
(+$54.6 million more than the fiscal year 2012 enacted amount) to 
address the urgent healthcare needs of Indian Country which continues 
to suffer higher rates of infant mortality, diabetes, heart disease and 
substance abuse than the general population.
    We also encourage the subcommittee to support an increase in 
funding within the IHS Facilities account for Maintenance and 
Improvement (unchanged from fiscal year 2012 at $53.7 million), Health 
Care Facilities Construction (unchanged from fiscal year 2012 at $85 
million), Equipment (unchanged at $22.5 million) and Sanitation 
Facilities Construction (increased by $7.7 million to $207 million). 
With increases for staffing of health clinics and hospitals, the IHS 
Facilities budget must keep up to maintain and expand existing 
facilities and add additional equipment to serve tribal communities. As 
noted above, without adequate funding, IHS-supported health facilities 
will deteriorate more rapidly than they can be replaced.
    Fort Peck Dialysis Center.--Our dialysis center is at full capacity 
at 41 patients and more than 100 pre-renal patients. We have more than 
1,000 diabetics on the Fort Peck Reservation. Our dialysis machines are 
old and parts are very expensive. Unless we can expand or build a new 
dialysis center on the Reservation, we will have to turn away patients 
from this life-giving care. They will need to travel great distances to 
reach the nearest dialysis center in Billings, Montana, more than 300 
miles away. We ask the subcommittee to support increased appropriations 
for equipment and facility expansion and to direct the IHS to provide 
the Rocky Mountain Region Indian tribes detailed information on the 
dialysis services to Indian patients in the Region.
    Purchased/Referred Care (formerly CHS).--The need for Purchased/
Referred Care continues to be of great concern to the Fort Peck Tribes 
in light of the fact that so many of our members require additional 
healthcare not provided by the IHS or Tribally operated programs. The 
Tribes fully support the President's proposal to increase funding for 
Purchased/Referred Care $35 million more than the fiscal year 2012 
enacted amount of $843.5 million. With rising medical costs, we exhaust 
our $5 million CHS allocation long before the fiscal year ends. In too 
many instances, tribal members are not referred by IHS officials to 
private healthcare treatment because the IHS restricts the use of such 
funds to life-threatening illnesses and injuries. Early detection and 
prevention can save lives. We urge the subcommittee to support an 
increase in fiscal year 2014 funding levels for Hospitals and Clinics 
and Purchased/Referred Care so that more preventive care and services 
can be provided to detect and treat illnesses before they are life 
threatening. This will lower health costs in Indian Country.
    Public Safety and Detention.--As the Tribes noted last year, the 
need for increased funding for law enforcement and Tribal Courts 
remains a continuing priority for the Fort Peck Tribes. We greatly 
appreciate the increases Congress has provided for public safety 
programs and justice programs. Our detention facility will be completed 
in 2014 and the President's budget shows that staffing needs require 46 
positions.
    We ask the subcommittee to support an increase in funding for 
Tribal courts more than the $1 million requested by the administration, 
which did not factor into the fiscal year 2014 budget the enactment of 
the Violence Against Women Act (VAWA). We recommend the subcommittee 
also support the $5.5 million amount requested by the administration to 
hire additional law enforcement personnel. Our 2 million acre 
reservation requires additional personnel to respond to domestic 
violence and other crimes. If both the Law Enforcement and Tribal 
Courts line items are increased proportionally, Tribal courts would 
receive additional funding to properly handle the anticipated increased 
case load work as more law enforcement officers patrol the reservation 
and enforce tribal laws.
    We also support fully funding the programs authorized under VAWA in 
fiscal year 2014. Funding should be increased in the Human Services 
line item to prevent domestic and child abuse, as well as the BIA's 
Public Safety account to permit Indian tribes to exercise the authority 
conferred under VAWA through stepped up law enforcement and social 
services work to identify at-risk Native American women and families.
    The President's budget also includes an increase of $13.4 million 
for staffing ``recently constructed'' detention centers. The Fort Peck 
Tribes, with a grant from the Justice Department, are constructing a 
new adult detention facility. Under the Tribal Law and Order Act, the 
BIA, IHS, Department of Justice and the Department of Health and Human 
Services' Substance Abuse and Mental Health Services Administration 
(SAMHSA) are required to work with Tribal governments to facilitate 
services to incarcerated tribal members and promote best practices. At 
the local level, however, there do not seem to be adequate resources 
for BIA and IHS officials to play as active a role in coordinating the 
substance abuse, mental health and family counseling, education and 
related services.
    We further request that the subcommittee urge appropriators to 
support adequate operation and maintenance funding to the BIA or Office 
of Facilities, Environmental and Cultural Resources Management (OFECRM) 
within Indian Affairs, to ensure that tribally constructed facilities, 
including those partially financed with Justice Department grants, are 
properly maintained. In the Rocky Mountain Region, facilities that are 
not properly maintained will deteriorate at a rapid rate. With limited 
infrastructure on the Fort Peck Reservation, it is important that 
existing and future facilities last in excess of their planned useful 
life.
    Contract Support Costs.--The Fort Peck Tribes appreciate this 
subcommittee's support to fund contract support costs. We strongly 
support full funding for contract support costs. The President's 
proposed increases will not close the gap in our contract support cost 
needs.
    We strongly oppose the administration's proposal to alter the 
manner in which contract support costs are paid to Indian tribes 
beginning in fiscal year 2014. Under the Indian Self-Determination Act, 
the United States is required to pay the full amount of contract 
support costs Indian tribes require to properly administer ISDA 
contracts.
    The United States Supreme Court has held that if the BIA or IHS 
fails to pay Indian tribes their full contract support cost amount, 
tribes may file a claim to recover the underpayment. The BIA and the 
IHS propose to cap each Indian tribe's contract support cost payment 
for fiscal year 2014 by including a contract-by-contract table in the 
appropriations bill. The administration's action would deny us the 
ability to bring such claims against the agencies that pay less than 
our full contract support cost amount.
    The administration's proposal was made without any consultation of 
tribal governments, contrary to the agencies' respective Indian 
consultation policies and to the President's own statements and 
memorandum concerning the importance of government-to-government 
consultation. We therefore ask the subcommittee to oppose the 
administration's proposal. Congress must fully fund all contract 
support costs and direct the agencies to honor the ISDA and the terms 
of our contracts and agreements with them.
    Thank you for providing the Fort Peck Tribes the opportunity to 
share our comments concerning the President's proposed budget for 
fiscal year 2014.
                                 ______
                                 
           Prepared Statement of the Animal Welfare Institute
    On behalf of the Animal Welfare Institute, I want to thank Chairman 
Reed, Ranking Member Murkowski, and the distinguished members of the 
subcommittee for this opportunity to submit testimony regarding funding 
for the activities of the various agencies involved in White-Nose 
Syndrome research and management, as well as for other programs of the 
U.S. Fish and Wildlife Service, U.S. Geological Survey, U.S. Forest 
Service, Bureau of Land Management, and National Park Service.

                           WHITE-NOSE SYNDROME
------------------------------------------------------------------------
                                                              Amount
------------------------------------------------------------------------
U.S. Fish and Wildlife Service (Science Support program       $1,500,000
 increase) (President's budget).........................
    Purpose: Research to address and mitigate White-Nose
     Syndrome (WNS) in bats.
U.S. Geological Survey (Ecosystems/Wildlife Program            1,505,000
 increase) (President's budget).........................
    Purpose: Research to combat WNS in bats.
National Park Service (Park Operations/Resource                3,000,000
 Stewardship program increase) (President's budget).....
    Purpose: Research, inventory, monitoring,
     management, and public education related to WNS;
     preserve important cave habitats and bat
     populations.
U.S. Forest Service/Research and Development............         750,000
    Purpose: Research to combat WNS, allowing the agency
     to continue progress made pursuant to Congress's
     fiscal year 2012 direction.
U.S. Forest Service/Forest Systems......................         250,000
    Purpose: Inventory, monitoring, and management
     related to WNS, allowing the agency to continue
     progress made pursuant to Congress's fiscal year
     2012 direction.
Bureau of Land Management...............................         500,000
    Purpose: Inventory, monitoring, and management
     related to WNS, allowing the agency to continue
     progress made pursuant to Congress's fiscal year
     2012 direction.
------------------------------------------------------------------------

    Capitalizing on the investments and progress already made, these 
funds would support the agencies' programs addressing White-Nose 
Syndrome (WNS), a disease caused by the Geomyces destructans (Gd) 
fungus that is decimating U.S. bat populations. So far, nine species, 
including the endangered Indiana and gray bats, have been affected by 
WNS or the Gd fungus; 25 of the 47 bat species in the United States are 
ultimately at risk. The U.S. Fish and Wildlife Service estimates that 
WNS, now present in 22 States, has killed at least 5.7 million bats 
since its outbreak in 2006. Losses are so severe that FWS is reviewing 
three of the impacted species for possible listing under the Endangered 
Species Act.
    The loss of bats from WNS could have serious implications for our 
economy and environment. Bats are primary predators of night-flying 
insects, including agricultural pests that attack corn, soybeans, 
cotton, and other crops. By eating these pests, bats reduce the need 
for pesticides, lower food production costs, and save farmers at least 
$3.7 billion a year. Bats also perform ecological services for 66 plant 
species that produce timber.
    The Federal Government and its State, local, tribal, and nonprofit 
partners have responded admirably to the WNS crisis. Their research has 
unlocked much of the disease's basic biology and informed initial 
management decisions. Now, Federal agencies are poised to apply this 
knowledge to more advanced questions, such as environmental factors' 
effects on WNS, the feasibility of pharmaceutical interventions, and 
the possibility of silencing Gd's harmful genes. In a particularly 
exciting recent advance, Forest Service researchers developed a more 
sensitive DNA test for Gd, allowing them to identify the presence of 
the fungus before disease appears, presenting the opportunity to use 
gene silencing as a means for controlling the fungus.
    The potential these research findings present cannot be realized 
without funding. Moreover, besides dealing with the disease itself, the 
effort to save bats has expanded to include protecting the few fragile 
WNS survivors, understanding the factors that helped them to survive, 
and finding ways to regenerate their populations. Failing to adequately 
fund WNS in fiscal year 2014 will stall our hard-won progress toward 
understanding this epidemic, jeopardize the application of science to 
management, and undermine the impact of private funds leveraged to 
combat WNS.
    Recognizing the gravity of the crisis facing our bat populations, 
we appreciate that Congress has responded by continuing to support the 
agencies' work. We recognize the increasingly difficult budget 
situation Congress faces but urge you to provide funding at the levels 
noted above; we cannot afford to lose ground in our efforts to protect 
the Nation's cave-dwelling bats.
          fish and wildlife service office of law enforcement
    The administration's fiscal year 2014 budget proposes a moderate 
increase in funding to the FWS Office of Law Enforcement (OLE), one of 
the most important lines of defense for America's wildlife. Currently, 
OLE is tasked with enforcing and implementing over a dozen Federal 
wildlife and conservation laws that frequently impact both domestic and 
global security. Year after year, OLE protects the public against the 
illegal trade in wildlife and wildlife products--which is third only to 
the illicit trade in narcotics and weapons in terms of revenue 
generated globally--and the United States remains a source of, or 
destination for, much of this contraband. Even those who may not 
concern themselves with wildlife are reaping benefits as OLE protects 
against smuggling illegal substances and helps to thwart potentially 
devastating human health threats. It is critical that OLE receive 
adequate funding to fulfill its mission.
    Accordingly, AWI requests an allocation of $71.275 million for the 
Office of Law Enforcement, an increase of $8.297 million over the 
fiscal year 2012 enacted budget. This reflects the President's proposed 
increase of $5.297 million plus an additional $3 million for facilities 
development at the National Fish and Wildlife Forensics Laboratory, 
which will improve and expand the activities of OLE in its critical 
role of combating wildlife crime.
          the national fish and wildlife forensics laboratory
    The successful outcomes of enforcement cases would not be possible 
without the essential work of the National Fish and Wildlife Forensics 
Laboratory (NFWFL), used by FWS agents and inspectors to gather hard 
evidence in wildlife crime cases. The lab uses state-of-the-art 
science, along with years of institutional knowledge, to identify 
wildlife products by species, determine the cause of death, and make 
other findings critical to a successful legal case. All 50 States and 
the 175 Convention for International Trade in Endangered Species 
(CITES) member countries depend on this facility to prosecute wildlife 
crimes.
    It is heartening that $1.297 million of the proposed $5.297 million 
increase to OLE's budget will be allocated to advancing research 
involving genetic markers and isotope analysis. This research will 
ultimately improve investigators' ability to determine the geographic 
origin of animals and animal parts. However, in addition to the 
increased research funding, additional support for facilities 
development is needed. In order to continue advancing its invaluable 
work, the NFWFL must construct a comparison standards warehouse. This 
facility will be used to store and maintain the laboratory's more than 
40,000 DNA samples from around the world. We request that an additional 
$3 million be allocated to the establishment of this facility to 
support and expedite its construction.
    fish and wildlife service special agents and wildlife inspectors
    The Fish and Wildlife Service Special Agents and Wildlife 
Inspectors who enforce U.S. wildlife laws play a critical role in 
protecting our Nation's wildlife. Special Agents aid in the reduction 
of illegal trade in wildlife and wildlife products, which continues to 
imperil species in the United States and around the world. Wildlife 
Inspectors play a similarly valuable role, minimizing illegal 
contraband shipments, uncovering smuggled goods and illegal trade rings 
at the border, and thwarting national and global health risks by 
shielding the American public from the disease and safety risks 
associated with importing non-native species.
    In fiscal year 2012, FWS Special Agents pursued 12,996 
investigations resulting in over $10 million in fines and penalties, 
56.9 years of jail time for the perpetrators, and 550.5 years of 
probation.\1\ In the same year, FWS Wildlife Inspectors processed 
approximately 186,000 declared shipments of wildlife products worth 
over $4.4 billion.\2\ This impressive records merits proper funding and 
staffing adequate to fulfill OLE's mission. In fiscal year 2012, OLE 
employed just 219 Special Agents and 143 Wildlife Inspectors. We 
support the President's proposed increase of $3 million (of the total 
$5.297 million requested increase) to be allocated toward hiring 
Special Agents to investigate international wildlife trafficking and to 
support direct partnerships with foreign governments to coordinate 
training and monitoring efforts.
---------------------------------------------------------------------------
    \1\ U.S. Fish and Wildlife Service Office of Law Enforcement, Law 
Enforcement at a Glance (2013).
    \2\ Id.
---------------------------------------------------------------------------
                wild free-roaming horses and burros act
    The wild horse is as much a symbol of American heritage as the 
image of Uncle Sam and baseball. Currently, America's wild horses are 
subjected to mistreatment by the Bureau of Land Management (BLM), which 
uses a significant portion of its budget to round up and warehouse wild 
horses and burros without credible evidence supporting the need for 
such removals. Furthermore, since 2004, wild horses have been at risk 
of being sold to killer-buyers who make a profit by sending horses to 
slaughter for human consumption--in fact, in recent years, hundreds of 
wild horses were sold to at least one known killer-buyer.
    In 1971, Congress acted on behalf of these wild animals to protect 
their natural habitat and lifestyle. It is now time for Congress to act 
again to ensure these animals are neither sent into long-term holding 
facilities nor sentenced to slaughter. BLM's proposed budget includes a 
program increase of $2 million for Wild Horse and Burro Management. 
These funds are to be used ``for new and existing applied research 
toward the development of tools intended to improve wild horse and 
burro management and rangeland health,'' including research that will 
``focus on developing more effective and longer lasting fertility 
control agents and techniques for suppressing population growth . . .'' 
\3\ AWI supports these efforts and requests that any increase in 
appropriations under the Wild Free-Roaming Horses and Burros Act be 
used solely for implementation of humane, on-the-range management 
methods such as immunocontraception, and not unnecessary roundup.
---------------------------------------------------------------------------
    \3\ U.S. Department of the Interior Bureau of Land Management, 
Budget Justifications and Performance Information: Fiscal Year 2014 
(2013).
---------------------------------------------------------------------------
    Finally, AWI strongly supports the inclusion of this ``no-kill'' 
language to ensure that BLM does not kill healthy wild horses and 
burros:

    ``Provided, That appropriations herein made shall not be available 
for the sale or destruction of healthy, unadopted, wild horses and 
burros in the care of the Bureau or its contractors.''
       national park service lethal management of native wildlife
    In recent years, the National Park Service (NPS) has significantly 
expanded its lethal control of native ungulates in contravention of its 
own legal mandates. During this time, the NPS has initiated lethal 
control of ungulates in a number of national parks (e.g., Valley Forge, 
Catoctin, Indiana Dunes, and Rock Creek) and is considering similar 
efforts in other parks. In each case, the NPS has misapplied its own 
statutes and policies and has failed to provide any credible site-
specific data to justify its heavy-handed strategies. Though even the 
NPS concedes that ungulates are keystone herbivores, it is unwilling to 
allow ungulates to naturally influence ecosystem structure and function 
as its own statutes and policies require. Therefore, AWI requests that 
the following language, which would save taxpayer dollars, be included 
in the Senate Interior Appropriations bill:

    ``No funds appropriated under this legislation shall be expended by 
the National Park Service to lethally control or kill native ungulates 
nor shall the National Park Service permit any entity, public or 
private, to kill said ungulates.''
                                 ______
                                 
      Prepared Statement of the Association of Zoos and Aquariums
    Thank you, Chairman Reed and Ranking Member Murkowski, for allowing 
me to submit written testimony on behalf of the Nation's 212 U.S. 
accredited zoos and aquariums. Specifically, I want to express my 
support for the inclusion of $9,466,000 for the Multinational Species 
Conservation Funds (MSCF) operated by the U.S. Fish and Wildlife 
Service and $9.7 million for National Environmental Education Act 
programs at the Environmental Protection Agency (EPA) in the fiscal 
year 2014 Interior, Environment, and Related Agencies appropriations 
bill.
    Founded in 1924, the Association of Zoos and Aquariums (AZA) is a 
nonprofit 501c(3) organization dedicated to the advancement of zoos and 
aquariums in the areas of conservation, education, science, and 
recreation. Accredited zoos and aquariums annually see more than 182 
million visitors, collectively generate more than $16 billion in annual 
economic activity, and support more than 142,000 jobs across the 
country. Annually, AZA-accredited institutions spend $160 million on 
more than 2,650 field conservation projects in 130 countries.
    MSCF programs support public-private partnerships that conserve 
wild tigers, elephants, rhinos, great apes, and marine turtles in their 
native habitats. Through the MSCF programs, the United States 
supplements the efforts of developing countries that are struggling to 
balance the needs of their human populations and endemic wildlife. MSCF 
programs help to sustain wildlife populations, address threats such as 
illegal poaching, reduce human-wildlife conflict, and protect essential 
habitat. By working with local communities, they also improve people's 
livelihoods, contribute to local and regional stability, and support 
U.S. security interests in impoverished regions. This Federal program 
benefits AZA-accredited zoos and aquariums in their field conservation 
efforts and partnerships with the U.S. Fish and Wildlife Service.
    I also encourage you to continue to support the valuable 
environmental education initiatives at the EPA. Education programs at 
AZA-accredited institutions provide essential learning opportunities, 
particularly about science, for schoolchildren in formal and informal 
settings. Studies have shown that American schoolchildren are lagging 
behind their international peers in certain subjects including science 
and math. In the last 10 years, accredited zoos and aquariums formally 
trained more than 400,000 teachers, supporting science curricula with 
effective teaching materials and hands-on opportunities. School field 
trips annually connect more than 12 million students with the natural 
world. Increasing access to formal and informal science education 
opportunities has never been more important.
    Finally, much of the important conservation work at accredited zoos 
and aquariums depends on a robust and fully staffed FWS. While I am 
aware of the budget challenges facing Congress and the agencies, I 
encourage you to ensure that the FWS has sufficient resources to employ 
qualified professionals, particularly for the programs handling 
permits, which support the science-based conservation breeding and 
wildlife education programs that require animals to be moved in an 
efficient, timely manner: International Affairs (Management Authority); 
Endangered Species; Law Enforcement; and Migratory Birds.
    AZA-accredited zoos and aquariums are essential conservation and 
education partners at the Federal, State, and local levels domestically 
as well as internationally. To ensure that accredited zoos and 
aquariums can continue to serve in these important roles, I urge you to 
include $9,466,000 for the Multinational Species Conservation Funds 
operated by FWS and $9.7 million for National Environmental Education 
Act programs at the Environmental Protection Agency in the fiscal year 
2014 Interior, Environment, and Related Agencies appropriations bill.
    Thank you.
                                 ______
                                 
     Prepared Statement of the Bristol Bay Area Health Corporation
    The requests of the Bristol Bay Area Health Corporation for the 
fiscal year 2014 Indian Health Service (IHS) budget are as follows:
  --Allocate an additional $7.8 million to the IHS to fully fund 
        Village Built Clinic (VBC) leases, and direct the IHS to use 
        its fiscal year 2014 appropriations to fully fund the VBC 
        leases in accordance with section 804 of the Indian Health Care 
        Improvement Act.
  --Appropriate adequate funds for the IHS to fully pay all Contract 
        Support Costs (CSC) without shortfall. Based on the limited 
        information available to us, we estimate this would take $617 
        million for fiscal year 2014. We also ask that the committees 
        direct the IHS to immediately release the outstanding data on 
        CSC shortfall for fiscal years 2011 and 2012.
  --Exempt the IHS from any future sequestration, as Congress has done 
        for the Veterans Health Administration programs.
    The Bristol Bay Area Health Corporation (BBAHC) was created in 1973 
to provide healthcare services to Alaska Natives of southwest Alaska. 
BBAHC began operating and managing the Kanakanak Hospital and the 
Bristol Bay Service Unit for the IHS in 1980, and was the first tribal 
organization to do so under the Indian Self-Determination and Education 
Assistance Act (ISDEAA). BBAHC is a co-signer to the Alaska Tribal 
Health Compact with the IHS under the ISDEAA and is now responsible for 
providing and promoting healthcare to the people of 34 Alaska Native 
Villages.
    Fully Fund Village Built Clinic Leases.--BBAHC previously submitted 
joint testimony to the committees in March 2012, along with the Norton 
Sound Health Corporation and the Aleutian Pribilof Islands Association, 
outlining our concerns about the IHS's chronic underfunding of Village 
Built Clinic (VBC) leases. These concerns continue today.
    The IHS's decision to continue underfunding the VBCs has 
jeopardized the provision of basic healthcare services to Alaska 
Natives in their villages. The VBCs are essential for maintaining the 
IHS Community Health Aide Program (CHAP) in Alaska, which provides the 
only local source of healthcare for many Alaska Native people in rural 
areas. The CHAP program is mandated by Congress as the instrument for 
providing basic health services in remote Alaska Native villages. The 
CHAP program involves a network of health aides/practitioners who 
provide primary healthcare services and coordinate patient care through 
referral relationships with midlevel providers, physicians, and 
regional hospitals. The CHAP cannot operate without the use of clinic 
facilities.
    We believe the IHS has a legal obligation to maintain the VBCs in 
good repair. Under the Indian Health Care Improvement Act (IHCIA) 
amendments of 1992, Congress required the IHS to ``maintain'' the CHAP, 
and in the recent reauthorization of the act, Congress requires the IHS 
to ``develop and operate'' the CHAP for Alaska healthcare. 25 U.S.C. 
Sec. 1616l(a)(2). IHS cannot fulfill these statutory responsibilities 
without keeping the VBCs in good working order through maintenance and 
repair.
    The IHS has nevertheless, for many years, consistently underfunded 
the leases of VBCs even though the IHS has had available appropriations 
to fully fund the leases. IHS has made a policy decision to use ``full-
service'' leases, which shift the cost of operation and maintenance of 
the VBCs to the villages, even though the IHS has direct leasing 
authority under the IHCIA and the ISDEAA. Lease rental amounts for the 
VBCs have failed to keep pace with costs--the majority of the leases 
for VBCs have not increased since 1989. The IHS has chosen to shift its 
statutory responsibilities onto the villages and tribal health 
corporations, like BBAHC, which do not have adequate financial 
resources to maintain and upgrade the VBCs for CHAP staff. As a result, 
some villages in our region have been left without an adequate 
healthcare facility and have even had to close the doors of their VBCs.
    As we indicated in our joint testimony to the subcommittees last 
year, BBAHC and many other tribal organizations in Alaska have 
discussed this issue with the IHS on several occasions, and have 
proposed solutions that the IHS continues to ignore. IHS continues to 
assert that it provides for VBC leases all of the funds that Congress 
has appropriated for the program. In our view, the amounts historically 
traceable to the VBC leases are not capped by statute and are not the 
only funds available for that program. The Indian Health Facilities 
appropriation is a lump-sum appropriation that can be used for 
construction, repair, maintenance, improvements and equipment, and 
includes a sub-activity for maintenance and improvement of IHS 
facilities. The VBCs are IHS facilities acquired by lease in lieu of 
construction and should thus be eligible for maintenance and 
improvement funding. The IHS can also access other IHS discretionary 
funds to fully fund its VBC obligations.
    For the 2014 appropriations, we thus request that at least an 
additional $7.8 million be included in the appropriation specifically 
for the purpose of fully funding all VBC leases in 2014. We also ask 
that Congress direct the IHS to use existing fiscal year 2014 
appropriations to fully fund the VBC leases in accordance with section 
804 of the Indian Health Care Improvement Act.
    Adequate Appropriations Are Needed To Fully Fund Contract Support 
Costs (CSC); IHS Should Be Directed To Release CSC Shortfall Data.--
While Congress has in the past appropriated additional funding for CSC 
owed to tribes and tribal organizations under the ISDEAA and Federal 
case law, which BBAHC greatly appreciated, those additional 
appropriated funds unfortunately are not enough to eliminate the 
ongoing shortfall of CSC. As a result, BBAHC continues to endure 
significant financial hardships that translate into less healthcare for 
its patients. We urge the subcommittees to continue to push for full 
funding of CSC so that CSC underfunding is finally resolved. While it 
is difficult to estimate the full CSC need for fiscal year 2014--in 
part because IHS refuses to release its CSC distribution data for the 
last 2 years, as discussed further below--based on projections from 
fiscal year 2010 we estimate that the total need in fiscal year 2014 is 
$617 million.
    Full CSC funding would allow the IHS to resolve the inherent 
dilemma placed on the IHS by the appropriations ``caps,'' which 
Congress has for years placed on the amount of CSC the IHS can pay for 
aggregate CSC. However, section 106(a)(2) of the ISDEAA requires full 
payment of CSC, notwithstanding the appropriations ``cap.'' The effect 
of the ``cap'' does not limit what the IHS must pay individual tribes 
and tribal organizations for CSC under their ISDEAA contracts and 
compacts. Salazar  v. Ramah Navajo Chapter, 132 S. Ct. 2181 (2012). In 
the Ramah  decision, the United States Supreme Court recognizes that 
the ISDEAA requires payment of full CSC to all contractors, yet in 
every year at issue Congress failed to appropriate enough for the 
agencies to do so. We ask that the subcommittee appropriate enough CSC 
to eliminate underfunding.
    Unfortunately, some in the administration appear to view the Ramah 
decision not as a call for full CSC funding but as a roadmap for 
shortchanging tribes and leaving them no legal recourse. We found it 
surprising that the President's fiscal year 2014 budget, released on 
April 10, proposed only a minimal increase for IHS CSC to $477,205,000. 
This would force tribes to absorb almost $140 million in uncompensated 
costs for overhead and administration of Federal programs. Just as bad, 
the administration's proposed appropriations act language attempts to 
preclude tribes from recovering any of their CSC shortfalls through 
contract actions, which the Supreme Court in Ramah said is currently 
their right. The bill language would incorporate by reference a table 
identifying the maximum amount of CSC available for every single ISDEAA 
agreement. We urge that the subcommittee reject this proposed approach 
and, instead, fully fund CSC for both IHS and BIA.
    Finally, we would very much like to see the CSC shortfall data for 
fiscal years 2011 and 2012, but the IHS has to date failed to provide 
that data to tribes and tribal organizations. IHS is required to submit 
CSC shortfall reports to Congress no later than May 15 of each year by 
section 106(c) of the ISDEAA, 25 U.S.C. Sec. 450j-1(c). BBAHC and other 
co-signers to the Alaska Tribal Health Compact, under title V of the 
ISDEAA, recently asked the IHS to share the CSC distribution data for 
those years with all of the co-signers. Access to the CSC shortfall 
data, if not the reports themselves, is critical to our ability to 
understand the IHS's view of the scope of CSC underfunding, to evaluate 
IHS's allocation of its insufficient past CSC appropriations, and to 
pursue full CSC funding moving forward. The IHS has to date refused to 
make the reports available, and again refused as recently as the co-
signers' meeting with the IHS Area Lead Negotiator for the Alaska Area 
of IHS in March 2013. We thus ask that the committees direct the IHS to 
immediately release the CSC shortfall data for fiscal years 2011 and 
2012.
    Sequestration.--The Office of Management and Budget determined that 
the IHS's discretionary appropriation is fully sequestrable, which 
resulted in a $220 million cut in funding to the IHS for fiscal year 
2013--roughly 5 percent of the IHS's overall budget. IHS lost $195 
million for programs like hospitals and health clinics services, 
contract health services, dental services, mental health and alcohol 
and substance abuse. Impacts are also felt on programs and projects 
necessary for maintenance and improvement of health facilities. These 
negative effects are then passed down to every ISDEAA contractor, 
including BBAHC. BBAHC is already significantly underfunded, resulting 
in further cuts to the availability of health services we are able to 
provide to our patients, resulting in real consequences for individuals 
who have to forego needed care.
    We are suffering these reductions and experiencing these new 
challenges to providing healthcare for the people of the BBAHC region, 
despite the United States' trust responsibility for the health of 
Alaska Native and American Indian people. We cannot understand why this 
responsibility was taken less seriously than the Nation's promises to 
provide health to our veterans. The Veterans Health Administration (VA) 
was made fully exempt from the sequester for all programs administered 
by the VA. See section 255 of the Balanced Budget and Emergency Deficit 
Control Act (BBEDCA), as amended by Public Law 111-139 (2010). Also 
exempt are State Medicaid grants and Medicare payments are held 
harmless except for a 2 percent reduction for administration of the 
program. We thus strongly urge the subcommittee to support amendment of 
the BBEDCA to fully exempt the IHS from any future sequestration, just 
as the VA's and other health programs are exempt.
    Thank you for your consideration of our requests to address the 
chronic underfunding of VBCs and CSC and to fully exempt IHS funds from 
any future budget sequestration. We will be glad to provide any 
additional information the subcommittees may request.
                                 ______
                                 
     Prepared Statement of the Back Country Horsemen of Washington
    The Back Country Horsemen of Washington are pack and saddle stock 
users who ride on our Nation's public lands in the traditions that date 
back to the founders of our public agencies. Part of our purpose is to 
provide assistance to the agencies in the form of volunteerism in order 
to maintain our public lands' trails systems. We are a support group, 
and while we are very proud of our partnership with the agencies, 
particularly the U.S. Forest Service, we are also dismayed that they 
struggle with inadequate resources to even start to address backlog 
trail and road maintenance. Furthermore we find that our own ability to 
assist as volunteers is often limited, not by the enthusiasm of our 
membership, but by the inability of the agencies to fund the planning 
work and issue approvals necessary to accomplish some of the work we 
stand prepared to do. Finally, we find that as the agencies turn to 
grant sources to fund everything from law enforcement to basic 
maintenance, we all find ourselves competing over shrinking pots of 
money. There does not seem to be a light at the end of the tunnel. What 
we now deal with are not just failed trails, blocked trails, and washed 
out roads that seem to take forever to even get approvals to repair, 
but we are also seeing a loss of quality of public lands recreation due 
to insect infestation and fire, as well as an increased danger to 
personal safety from lack of sight distance driving on forest roads 
where the brush has turned two lane roads into one.
    We therefore ask that for the National Forest trail system, the 
House fund the USFS at $85 million for fiscal year 2014 for their 
Capital Improvement and Maintenance (CIM) Trails projects and $237 
million for CIM Roads. We also ask for $285 million for the USFS 
Recreation, Heritage and Wilderness allocation and $46 million for 
their Land Management Planning. Let's fix our roads and trails so they 
can be used.
    We would like our National Scenic Trails to receive sustained 
funding, and particularly we ask for $1 million for the Pacific 
Northwest National Scenic Trail. This trail has not yet been given a 
meaningful appropriation to complete even its comprehensive plan. 
Volunteers have been at this for three decades trying to make this 
trail a reality. While it did get brought into the National Scenic 
Trail system by Senator Maria Cantwell and Representative Norm Dicks, 
little congressional investment has been made since to make this trail 
a known entity in the Northwestern States.
    To help our national scenic trails get completed, please 
reauthorize the Federal Lands Transaction Facilitation Act (FLTFA). 
This is a ``land for land'' program that sells Federal lands in order 
to acquire more strategic parcels. This is similar to transactions 
between State and private entities in Washington State.
    With respect to the Legacy Roads and Trails (LRT) allocation, we 
feel this is an important fund but that the ``trails'' part of it is 
often well overlooked except when discussing the intent of the program. 
We ask that this fund be genuinely used equally to repair roads, repair 
trails, and decommission truly unstable and unneeded roads. We ask that 
LRT be funded at $90 million, and that one-third of this fund go to 
trail stabilization, trail infrastructure repair, and trailhead 
enhancements.
    We would like Secure Rural Schools to be reauthorized so there 
remains available revenue for title II grants that so benefit our rural 
counties and our National Forests. These revenues fix campgrounds and 
trailheads, repair roads, replace culverts, and manage invasive weeds.
    Our candid viewpoint on Department of the Interior agencies is that 
there has been a trending over years for these departments to limit 
public access to their lands beyond the visitors' centers. It is our 
feeling that DOI is losing touch with many residents in western States. 
If alive today, Teddy Roosevelt, who started the National Refuge 
System, would no longer be able to ride his horse on most of them. The 
same is true for John Muir with regards to National Parks. The refuge 
system now has an Appropriate Use Policy, and apparently rural 
residents aren't appropriate users. We do look forward to working with 
Interior Secretary Sally Jewell in the hopes that America's Great 
Outdoors once again are for all Americans. From past experience with Ms 
Jewell, she exemplified the ability to reach out to everyone here in 
Washington State. We are optimistic that she will bring this unifying 
approach to the other Washington.
    With the Federal Lands Recreation Enhancement Act (FLREA) set to 
expire, fees will be an important topic in Congress, in the agencies, 
and among the user groups. When considering the reauthorization of 
FLREA, please include all user groups in the discussions including the 
Back Country Horsemen. Following FLREA reauthorization will be changes 
to the Land and Water Conservation Fund (LWCF) legislative policies. 
Once again, we ask that we be allowed input in these discussions.
                                 ______
                                 
          Prepared Statement of Bat Conservation International
    Chairman Reed, Ranking Member Murkowski, and members of the 
subcommittee, thank you for the opportunity to submit testimony. Bat 
Conservation International (BCI) is a nonprofit organization that 
conducts and supports science-based research, education, and 
conservation to ensure that bats will still be helping to maintain 
healthy environments and human economies far into the future. We 
respectfully request $7,505,000 in fiscal year 2014 funding to address 
White-nose Syndrome (WNS), a disease that is decimating North American 
bats.
    WNS poses the gravest threat ever faced by American bats. Since its 
discovery in 2006, the disease has killed at least 5.7 million bats. It 
is named for the previously unknown, cold-loving white fungus, called 
Geomyces destructans (Gd), that is found on the faces and wings of 
infected bats and causes the disease. WNS-infected bats awaken 
frequently during hibernation, burning the fat reserves they need to 
survive the winter. They often emerge early from hibernation, before 
the return of warm weather and insects, only to freeze or starve to 
death outside their caves. The disease or its fungus has spread to 24 
States and five Canadian provinces in the 7 years since WNS was first 
reported in a cave near Albany, New York. The northeastern United 
States has borne the brunt of WNS so far, but the disease or Gd has 
spread as far south as Alabama and Georgia. It also has spread as far 
west as Oklahoma--a location closer to the Pacific Ocean than to the 
site where WNS was first found.
    Biologists consider the WNS die-off to be North America's most 
precipitous wildlife decline in the past century. The disease strikes 
hibernating bats--those that sleep through the winter in caves and 
mines--and has affected every hibernating bat species in its geographic 
path. Of the Nation's 47 bat species, 25 hibernate and are considered 
at risk. WNS or Gd currently affects nine species, including the 
federally endangered Indiana and gray bats, which are at increased risk 
of extinction as a result. Some WNS-infected sites experience mortality 
rates of almost 100 percent. Losses are so severe that researchers are 
predicting regional extinctions of the little brown bat--previously one 
of America's most common mammals--within 14 years.
    Bats provide many benefits to humankind. As primary predators of 
night-flying insects, bats are critical to maintaining the balance of 
nature. A bat can eat more than half its body weight in insects each 
night, consuming vast numbers of pests that damage crops such as corn, 
cotton, and soybeans. A study published in 2011 in the journal Science 
estimates that the value of bats to the U.S. agriculture industry is 
$22.9 billion per year. Bats also eat insects that damage forests and 
spread disease. Some bat species pollinate crops and disperse seeds. 
Research of bat biology has yielded important chemical products, 
including a medication to prevent strokes. Bat droppings in caves 
support unique ecosystems, including microorganisms that could be used 
in detoxifying industrial wastes and producing safer pesticides and 
antibiotics.
    The loss of bats would have serious ecological and economic 
consequences. With millions of bats dead from WNS, their would-be prey 
insects are surviving to attack crops and forests. The Science article 
argues that, as a result of WNS, North American agriculture will begin 
noting economic losses within a few years, with especially significant 
impacts to the Midwest and Great Plains. In addition to crop losses, 
more pesticides will be required, increasing the financial strain on 
farming families, raising the price of food for consumers, and 
releasing more chemicals into our environment. Bats are important 
predators, so their disappearance could have broad, ripple effects on 
the environment that we cannot yet assess.
    Population declines from WNS could lead to listing more bat species 
under the Federal Endangered Species Act, as well as State-level 
statutes, with far-ranging economic costs. Because of WNS, the Fish and 
Wildlife Service is conducting status assessments of the little brown 
bat, northern long-eared bat, and eastern small-footed bat. At the 
State level, Ohio and Wisconsin have each listed four bat species, 
Vermont has listed three, and other States are considering 
designations. Bat species affected by WNS have broad geographic 
distributions and complex ecological patterns, which would likely 
require high recovery costs. Finally, regulations stemming from listing 
more bat species could have economic impacts on industries such as 
infrastructure, energy, forestry, mining, defense, tourism, and outdoor 
recreation.
    BCI appreciates the commitment Congress has demonstrated toward 
fighting WNS. In fiscal year 2010, Congress appropriated $1.9 million 
in WNS-related funds to FWS. In the fiscal year 2012 spending package, 
Congress directed FWS to spend no less than $4 million on WNS, and 
directed BLM and USFS to prioritize WNS activities. We thank Congress 
for recognizing not only the gravity of WNS, but also the institutional 
and geographic scope of the response that is needed to fight the 
disease. The Federal Government--in conjunction with partners in State, 
local, and tribal agencies, academic institutions, and nonprofits--has 
mounted an admirable response to the disease within the framework of 
the National Plan for Assisting States, Federal Agencies, and Tribes in 
Managing White Nose Syndrome in Bats (National Plan).
    The increases for WNS requested in the President's fiscal year 2013 
budget will enable Federal agencies to capitalize on, and add to, the 
hard-won progress they have made against WNS. Researchers have answered 
many of the basic science questions about this previously unknown 
disease. They are ready to apply this knowledge to management and 
conservation measures. Failing to fund WNS this year will negate the 
accomplishments of Federal agencies and their partners in the fight 
against this devastating epidemic.
    BCI therefore supports the requests for WNS funding in the 
President's fiscal year 2014 budget, and we urge the subcommittee to 
maintain them. If the subcommittee can invest more in fighting WNS to 
protect bats and their valuable contributions to the economy, 
agriculture, and the environment, we suggest the following outlays:
U.S. Fish and Wildlife Service: $1,500,000
    We ask the subcommittee to maintain the $1.5 million request for 
WNS in the President's fiscal year 2014 budget.
    This will fund:
  --Research.--Identify priorities for applied research to help combat 
        WNS and manage its spread, and fund projects that support these 
        goals.
  --State support.--Provide funding for State wildlife agencies to 
        conduct disease surveillance, monitor bat populations, 
        implement conservation measures, and conduct research.
U.S. Geological Survey: $1,505,000
    We ask the subcommittee to maintain the $1.505 million request for 
WNS in the President's fiscal year 2014 budget.
    This will support research on topics such as:
  --The role of environmental factors in WNS development.
  --Non-bat models for studying WNS in the lab, to preclude the taking 
        of sensitive species.
  --Differences between Gd and related, non-pathogenic fungi to 
        identify harmful genes that could possibly be silenced.
    These activities support the goals of the following National Plan 
working groups:
  --Diagnostics,
  --Disease Management,
  --Epidemiological and Ecological Research,
  --Disease Surveillance, and
  --Conservation and Recovery.
National Park Service: $3,000,000
    We ask the subcommittee to maintain the $3 million request for WNS 
in the President's fiscal year 2014 budget.
    This will fund:
  --On-the-ground disease surveillance.
  --Inventory of bat resources.
  --Participation in research to help fight the disease.
  --Visitor decontamination and monitoring visitor flow at cave sites, 
        as needed.
  --Managing habitat to increase bat survival.
  --Public education about WNS.
    These activities support the goals of the following National Plan 
working groups:
  --Disease Management,
  --Conservation and Recovery, and
  --Communications and Outreach.
Bureau of Land Management: $500,000
    Thanks to Congress's fiscal year 2012 directive for the Bureau of 
Land Management to ``prioritize research related to White Nose Syndrome 
in bats and the inventory and monitoring of bat resources on Bureau-
administered lands,'' the agency increased money spent on WNS 
activities by nearly 250 percent from fiscal year 2011.
    These activities included:
  --Monitoring of disease presence or absence.
  --Inventory of bat, cave, and mine resources.
  --Participation in research to help fight the disease.
    We ask the subcommittee to provide $500,000 so BLM can continue 
these WNS efforts, in support of the goals of the National Plan Disease 
Management Working Group.
U.S. Forest Service: $1,000,000
    As a result of Congress's fiscal year 2012 directive for the Forest 
Service to ``prioritize research related to White Nose Syndrome as well 
as inventory and monitoring of bat resources on Forest Service lands,'' 
the agency developed a WNS science strategy, and expanded WNS 
activities on its lands.
    So that USFS can continue these efforts, we ask the subcommittee to 
provide $1,000,000: $750,000 for Research and Development and $250,000 
for the National Forest System.
    This will fund:
  --Research on topics such as:
    --Enhancing environmental conditions for bat survival in the face 
            of WNS.
    --Possible biological controls for WNS.
    --Ways to measure the status and fitness of bat populations.
  --Conducting visitor decontamination and monitoring visitor flow at 
        cave sites, as needed.
  --On-the-ground disease surveillance.
  --Managing forest habitat to increase bat survival.
    These activities support the goals of the following National Plan 
working groups:
  --Disease Management,
  --Epidemiological and Ecological Research, and
  --Conservation and Recovery.
    Money spent on WNS is a wise investment. Preventing WNS spread will 
spare businesses the regulatory and other impacts of massive bat die-
offs. Implementing WNS response generates jobs. Finally, conducting WNS 
research, management, and prevention now will reduce future expenses to 
the U.S. economy from insect-related losses to agriculture and forestry 
and the cost of listed-species recovery. In this case, an ounce of 
prevention truly is worth a pound of cure.
    Thank you for the opportunity to share BCI's position on this 
serious matter. We respectfully ask you to consider our urgent request.
                                 ______
                                 
        Prepared Statement of the Coalition Against Forest Pests
    The Coalition Against Forest Pests (Alliance for Community Trees, 
American Forest & Paper Association, American Forests, American Forest 
Foundation, California Forest Pest Council, National Association of 
Conservation Districts, National Alliance of Forest Owners, National 
Association of State Foresters, National Woodland Owners Association, 
Society of American Florists, Society of American Foresters, The Davey 
Tree Expert Company, The Nature Conservancy, Vermont Woodlands 
Association) consists of nonprofit organizations, for-profit 
corporations, landowners, State agencies and academic scholars who have 
joined together to improve our Nation's efforts to address this 
critical threat to our forests. Our Coalition seeks to create real and 
lasting change by advocating for stronger programs and policies that 
work to combat this threat, mitigate the existing impacts, and restore 
healthy forest ecosystems. We write today in support of the USDA Forest 
Service (USFS) Forest Health Management Program which provides critical 
assistance to other Federal agencies, State agencies, local agencies 
and private landowners in their efforts to protect and improve the 
health of America's rural and urban forests. For fiscal year 2014, we 
urge the Subcommittee on Interior, Environment and Related Agencies to 
provide funding for the Forest Service Forest Health Management (FHM) 
Program to no less than the fiscal year 2012 level of $112 million (of 
which $48 million was directed to cooperative lands) and to provide 
research for forest invasive species through the Forest Service 
Research Program to the fiscal year 2012 level.
    Our Nation's forests and trees, much like other critical 
infrastructure, provide numerous benefits. Across both rural and urban 
landscapes, forests and trees play an important role in the health of 
our environment and our economy--providing clean air and water, 
wildlife habitat, enhanced property values, renewable energy sources, 
and carbon sequestration. Furthermore, healthy and sustainable forests 
drive State and local economies by supporting jobs related to forest 
products, recreation, and tourism. The U.S. forest products industry 
employs nearly 900,000 people; it is among the top 10 manufacturing 
sector employers in 47 States. In Idaho and Virginia alone, the forest 
products industry directly employs nearly 10,000 and 28,000 people, 
respectively. Wood and paper production ranks in the top 10 
manufacturing sectors in both States and generates billions in 
shipments of important wood and paper products annually. In Vermont, 
the maple sugar industry provides 4,000 seasonal jobs. Visitors to 
National Forest System lands generate more than $13 billion of 
recreation and other related economic activity. Tourism based on fall 
foliage displays attracts 1 million tourists who annually generate $1 
billion in revenue in New England.
    The importance of the continued health and vitality of our urban 
and rural forests cannot be overstated; unfortunately, neither can the 
severity of the threats they currently face. The ability of trees and 
forests to continue to provide important environmental and 
socioeconomic benefits is being threatened by damaging invasive species 
that are arriving and spreading at an increasing rate--destroying 
habitat and creating voids in cities and towns once populated by 
thriving forests and trees.
    Close to 500 species of tree-damaging pests from other countries 
have become established in the country, and a new one is introduced, on 
average, every 2 to 3 years. At least 28 new tree-killing pests have 
been detected in the United States in just the last decade. Some of 
these are capable of causing enormous damage. For instance, thousand 
cankers disease threatens black walnut trees across the East; the value 
of walnut growing stock is estimated to be $539 billion.
    Already, municipal governments across the country are spending more 
than $2 billion each year to remove trees on city property killed by 
non-native pests. Homeowners are spending $1 billion to remove and 
replace trees on their properties and are absorbing an additional $1.5 
billion in reduced property values.
    The USFS FHM & Research programs provide critical resources 
supporting efforts to prevent, contain, and eradicate dangerous pests 
and pathogens affecting trees and forests. USFS funding for many of 
these vital pest programs has been cut severely, as the data comparing 
funding in fiscal year 2011 and fiscal year 2012 demonstrate:
  --Asian longhorned beetle, cut by 68 percent from fiscal year 2011 to 
        fiscal year 2012;
  --Sudden oak death, cut by 53 percent from fiscal year 2011 to fiscal 
        year 2012;
  --Emerald ash borer, cut by 36 percent from fiscal year 2011 to 
        fiscal year 2012; and
  --Hemlock woolly adelgid, cut by 22 percent from fiscal year 2011 to 
        fiscal year 2012.
    These programs suffered further cuts in fiscal year 2013; the 
emerald ash borer program was cut by another 32 percent, reducing it to 
only 42 percent of its 2011 level. In the meantime, the APHIS EAB 
program has shrunk 74 percent--from $37.2 million to just $9.7 million.
    In fiscal year 2012, the FHM Program helped combat native and 
invasive pests on over 351,000 acres of Federal lands and over 615,000 
acres of Cooperative lands. While these numbers represent a vital 
component of our efforts to protect the Nation's forests and trees, 
they also represent the real consequences of reductions in funding--
with nearly 150,000 fewer acres treated on Cooperative lands in fiscal 
year 2012 (as compared to acres treated in fiscal year 2011). Further, 
FHM leads the Federal Government's efforts to counter forest pests 
which have become widespread, including gypsy moth, hemlock woolly 
adelgid, white pine blister rust, Port-Orford-cedar root disease, 
thousand cankers disease, oak wilt, and others. Any further cuts to 
this program will necessitate deeper reductions in support for 
communities already facing outbreaks and expose more of the Nation's 
forests and trees to the pests' devastating and costly effects.
    The USFS Research and Development Program provides the science to 
help manage invasive species in urban and rural forests. Forest Service 
Research (R&D) provides the scientific foundation for developing 
effective tools to detect and manage forest pests and the pathways by 
which they are introduced and spread. We consider it vitally important 
to conduct research aimed at improving detection and control methods 
for the Emerald Ash Borer, Hemlock Woolly Adelgid, Sudden Oak Death, 
Thousand Cankers Disease, Gold-spotted Oak Borer and other non-native 
forests pests and diseases. USFS research scientists have had the 
leading role in developing detection traps and evaluating treatments 
that make walnut lumber safe to continue moving in commerce.
    We ask your support to direct Forest Service research funding 
targeted at improving detection and control of these deadly pests and 
diseases. The importance of maintaining funding for USFS FHP and R&D 
programs on these pests is demonstrated by a brief description of the 
threats they pose:
  --The Asian longhorned beetle kills trees in 15 botanical families--
        especially maples and birches which constitute much of the 
        forest reaching from Maine to Minnesota and urban trees worth 
        an estimated $600 billion.
  --Emerald ash borer occupies more than 200,000 square miles in 18 
        States. More than 200 million ash trees in the Plains States 
        and additional trees in the South are at risk to this pest. 
        Homeowners and municipalities collectively will pay more than 
        $10 billion over the next 10 years to remove dead ash trees 
        that would otherwise fall and cause property damage or even 
        loss of life.
  --Hemlock woolly adelgid has killed up to 90 percent of hemlock trees 
        in the Appalachians from Georgia to Massachusetts. Loss of 
        hemlock groves threatens unique ecosystems and watersheds.
  --Goldspotted oak borer has killed up to 80,000 California live oak 
        and black oak trees in San Diego County in less than 15 years. 
        The insect threatens oaks throughout California, including 
        close to 300,000 oak trees growing in greater Los Angeles and 
        trees in Yosemite Valley.
  --Sudden Oak Death affects 143 different plant species and continues 
        to spread in California's 14 impacted counties as well as Curry 
        County, Oregon. In 2012 alone, nearly 400,000 trees were lost 
        to Sudden Oak Death in California.
    In a time when America's forests and trees faces significant 
threats regarding their present and long-term health, USFS must be 
provided with adequate funds to support this key program. Accordingly, 
we urge you to provide funding to no less than fiscal year 2012 levels 
as you consider fiscal year 2014 appropriations for the USFS. We would 
be pleased to answer any questions you may have. Thank you for your 
time and consideration of this important request.
                                 ______
                                 
           Prepared Statement of the Central Arizona Project
    On behalf of the Central Arizona Water Conservation District 
(CAWCD), I encourage you to include $5.2 million for general water 
quality improvement efforts within the Colorado River Basin and an 
additional $1.5 million for salinity specific projects in the Bureau of 
Land Management's (BLM) Soil, Water and Air Program in fiscal year 
2014. This funding will help protect the water quality of the Colorado 
River that is used by approximately 40 million people for municipal and 
industrial purposes and used to irrigate approximately 4 million acres 
in the United States.
    CAWCD manages the Central Arizona Project, a multi-purpose water 
resource development and management project that delivers Colorado 
River water into central and southern Arizona. The largest supplier of 
renewable water in Arizona, CAP diverts an average of over 1.6 million 
acre-feet of Arizona's 2.8 million acre-foot Colorado River entitlement 
each year to municipal and industrial users, agricultural irrigation 
districts, and Indian communities.
    Our goal at CAP is to provide an affordable, reliable and 
sustainable supply of Colorado River water to a service area that 
includes more than 80 percent of Arizona's population.
    These renewable water supplies are critical to Arizona's economy 
and to the economies of Native American communities throughout the 
State. Nearly 90 percent of economic activity in the State of Arizona 
occurs within CAP's service area. CAP also helps the State of Arizona 
meet its water management and regulatory objectives of reducing 
groundwater use and ensuring availability of groundwater as a 
supplemental water supply during future droughts. Achieving and 
maintaining these water management objectives is critical to the long-
term sustainability of a State as arid as Arizona.
                 negative impacts of concentrated salts
    Natural and man-induced salt loading to the Colorado River creates 
environmental and economic damages. EPA has identified that more than 
60 percent of the salt load of the Colorado River comes from natural 
sources. The majority of land within the Colorado River Basin is 
federally owned, much of which is administered by BLM. Human activity, 
principally irrigation, adds to salt load of the Colorado River. 
Further, natural and human activities concentrate the dissolved salts 
in the River.
    The U.S. Bureau of Reclamation (Reclamation) has estimated the 
current quantifiable damages at about $376 million per year to U.S. 
users with projections that damages would increase to more than $500 
million by 2030 if the program were not to continue. These damages 
include:
  --a reduction in the yield of salt sensitive crops and increased 
        water use to meet the leaching requirements in the agricultural 
        sector,
  --increased use of imported water and cost of desalination and brine 
        disposal for recycling water in the municipal sector,
  --a reduction in the useful life of galvanized water pipe systems, 
        water heaters, faucets, garbage disposals, clothes washers, and 
        dishwashers, and increased use of bottled water and water 
        softeners in the household sector,
  --an increase in the cost of cooling operations and the cost of water 
        softening, and a decrease in equipment service life in the 
        commercial sector,
  --an increase in the use of water and the cost of water treatment, 
        and an increase in sewer fees in the industrial sector,
  --a decrease in the life of treatment facilities and pipelines in the 
        utility sector, and
  --difficulty in meeting wastewater discharge requirements to comply 
        with National Pollutant Discharge Elimination System permit 
        terms and conditions, and an increase in desalination and brine 
        disposal costs due to accumulation of salts in groundwater 
        basins.
    Adequate funding for salinity control will prevent the water 
quality of the Colorado River from further degradation and avoid 
significant increases in economic damages to municipal, industrial and 
irrigation users.
    history of the blm colorado river basin salinity control program
    In implementing the Colorado River Basin Salinity Control Act of 
1974, Congress recognized that most of the salts in the Colorado River 
originate from federally owned lands. Title I of the Salinity Control 
Act deals with the U.S. commitment to the quality of waters being 
delivered to Mexico. Title II of the act deals with improving the 
quality of the water delivered to users in the United States. This 
testimony deals specific with title II efforts. In 1984, Congress 
amended the Salinity Control Act and directed that the Secretary of the 
Interior develop a comprehensive program for minimizing salt 
contributions to the Colorado River from lands administered by BLM.
    In 2000, Congress reiterated its directive to the Secretary and 
requested a report on the implementation of BLM's program (Public Law 
106-459). In 2003, BLM employed a Salinity Coordinator to increase BLM 
efforts in the Colorado River Basin and to pursue salinity control 
studies and to implement specific salinity control practices. With a 
significant portion of the salt load of the Colorado River coming from 
BLM administered lands, the BLM portion of the overall program is 
essential to the success of the effort. Inadequate BLM salinity control 
efforts will result in significant additional economic damages to water 
users downstream.
    The threat of salinity continues to be a concern in both the United 
States and Mexico. Most recently, on November 20, 2012, a 5-year 
agreement, known as Minute 319, was signed between the United States 
and Mexico to guide future management of the Colorado River. Among the 
key issues addressed in Minute 319 included an agreement to maintain 
current salinity management and existing salinity standards. The CAWCD 
and other key water providers are committed to meeting these goals.
                               conclusion
    Implementation of salinity control practices through the BLM 
Program has proven to be a very cost effective method of controlling 
the salinity of the Colorado River. In fact, the salt load of the 
Colorado River has now been reduced by roughly 1.2 million tons 
annually, reducing salinity in the Lower Basin by more than 100 ppm. 
However, shortfalls in funding levels have led to inefficiencies in the 
implementation of the overall Program. Therefore, additional funding is 
required in 2014 to meet this goal and prevent further degradation of 
the quality of the Colorado River with a commensurate increase in 
downstream economic damages.
    CAWCD urges the subcommittee to include $5.2 million for general 
water quality improvement efforts within the Colorado River Basin and 
an additional $1.5 million for salinity specific projects in the Bureau 
of Land Management's (BLM) Soil, Water and Air Program. If adequate 
funds are not appropriated, significant damages from the higher salt 
concentrations in the water will be more widespread in the United 
States and Mexico.
                                 ______
                                 
 Prepared Statement of the Cooperative Alliance for Refuge Enhancement
    Chairman Reed, Ranking Member Murkowski, and members of the 
subcommittee: Thank you for the opportunity to offer comments on the 
fiscal year 2014 Interior, Environment, and Related Agencies 
appropriations bill. The National Wildlife Refuge System stands alone 
as the only land and water conservation system with a mission that 
prioritizes wildlife and habitat conservation and wildlife-dependent 
recreation. Since 1995, the Cooperative Alliance for Refuge Enhancement 
(CARE) has worked to showcase the value of the Refuge System and to 
secure a strong congressional commitment for conserving these special 
places. Found in every U.S. State and territory, national wildlife 
refuges conserve a diversity of America's environmentally sensitive and 
economically vital ecosystems, including oceans, coasts, wetlands, 
deserts, tundra, prairie, and forests. We respectfully request a 
funding level of $499 million for the Operations and Maintenance 
accounts of the National Wildlife Refuge System for fiscal year 2014.
    This testimony is submitted on behalf of CARE's 22 member 
organizations, which represent approximately 15 million Americans 
passionate about wildlife conservation and related recreational 
opportunities.

American Birding Association
American Fisheries Society
American Sportfishing Association
Association of Fish and Wildlife Agencies
Congressional Sportsmen's Foundation
Defenders of Wildlife
Ducks Unlimited, Inc.
Izaak Walton League of America
Marine Conservation Institute
National Audubon Society
National Rifle Association
National Wildlife Federation
National Wildlife Refuge Association
Safari Club International
The Corps Network
The Nature Conservancy
The Wilderness Society
The Wildlife Society
Trout Unlimited
U.S. Sportsmen's Alliance
Wildlife Forever
Wildlife Management Institute

    The National Wildlife Refuge System, established by President 
Theodore Roosevelt in 1903, protects approximately 150 million acres on 
561 national wildlife refuges and 38 wetland management districts 
across the United States. From the Virgin Islands to Guam and the 
Pacific marine national monuments, the Refuge System spans 12 time 
zones and protects America's natural heritage in habitats ranging from 
arctic tundra to arid desert, boreal forest to sagebrush grassland, and 
prairie wetlands to coral reefs. With units in every State and 
territory, and within an hour's drive of most metropolitan areas, the 
Refuge System attracts a growing number of visitors each year (more 
than 47 million in fiscal year 2012) with opportunities for hunting, 
fishing, wildlife observation, photography, kayaking, and outdoor 
education. Together, these visitors generate between $2.1 billion and 
$4.2 billion annually to local and regional economies--on average 
returning $4 to $8 in economic activity for every $1 appropriated--and 
support approximately 35,000 U.S. jobs. In addition, refuges also 
provide important environmental and health benefits, such as filtering 
storm water before it runs downstream to municipal water supplies and, 
in many areas, reducing flooding by capturing excess rainwater and 
attenuating coastal storm surges. According to a 2011 report by 
Southwick Associates, refuges generate more than $32.3 billion in these 
ecosystem services each year, a return of more than $65 for every $1 
appropriated by Congress.
    CARE estimates that the Refuge System needs at least $900 million 
in annual operations and maintenance funding to properly carry out its 
conservation mission ``for the benefit of present and future 
generations of Americans,'' as mandated by Congress through the 
bipartisan-supported National Wildlife Refuge System Improvement Act of 
1997. That entails managing wildlife, restoring habitats, providing 
quality recreation programs, and more. At its highest funding level in 
fiscal year 2010, the System received $503 million--little more than 
half the needed amount. Since that time, congressional appropriations 
have been steadily backsliding toward levels that, in real dollars, 
have not been seen since fiscal year 2006.
    If sequestration cuts continue, CARE estimates that the Refuge 
System's fiscal year 2014 appropriation could drop to only about $420 
million--a cut of $83 million, or 17 percent, compared with fiscal year 
2010. On the ground, however, it will feel more like a $122 million, or 
24 percent, cut (see chart). That is because the Refuge System needs an 
increase of $8 million to $15 million each year to cover the rising 
cost of fuel, utilities, rent, and other fixed expenses.\1\ Because 
budgets have not kept pace with rising costs, the gap between the level 
of funding needed to maintain the Refuge System's capabilities and the 
level of funding appropriated by Congress has widened dramatically. To 
begin to bridge that gap, CARE seeks a middle ground and urges Congress 
to fund the National Wildlife Refuge System's Operations and 
Maintenance accounts at $499 million in fiscal year 2014. This funding 
level is essential in order for the Refuge System to:
---------------------------------------------------------------------------
    \1\ Prior to fiscal year 2011, the Refuge System required an annual 
increase of $15 million to cover rising costs and maintain management 
capabilities; a salary freeze for Federal employees has reduced the 
annual need to $8 million.
---------------------------------------------------------------------------
  --Conduct management and restoration activities to provide healthy 
        habitats that attract wildlife and, in turn, draw visitors.
  --Keep refuges open and staffed so that quality recreational 
        opportunities continue to be offered to the public.
  --Maintain facilities and equipment used to serve the public and 
        manage habitat.
  --Provide law enforcement officers needed to keep refuge resources 
        and the people who come to appreciate them safe.

        [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        

    The effects of sequestration cuts are already being felt on refuges 
across the country and, if allowed to continue eating away at the 
Refuge System's annual operations and maintenance funding, CARE 
anticipates significant impacts both within and outside of refuge 
boundaries, including:
  --A reduction in the treatment of invasive plant populations, which 
        will reduce the quality of habitat needed to support wildlife 
        (both game and nongame) and put private lands at higher risk of 
        infestations.
  --A decrease in the use of prescribed fire, which is used on refuges 
        both to improve habitat for wildlife that are adapted to fire 
        and to reduce hazardous fuels that pose a wildfire risk to 
        nearby communities.
  --A decline in the number and quality of visitor programs, with 
        visitor centers at many refuges operating at reduced hours, and 
        plans to add or expand hunting programs at as many as 29 
        refuges being postponed or cut.
  --Lost revenue for local communities as visitor numbers drop; 
        according to the U.S. Fish and Wildlife Service (FWS) fiscal 
        year 2013 budget justification, ``Each 1 percent increase or 
        decrease in visitation impacts $16.9 million in total economic 
        activity, 268 jobs, $5.4 million in job-related income, and 
        $608,000 in tax revenue.''
  --Elimination of ancillary functions like FWS's operation of 
        Henderson Field at Midway Atoll National Wildlife Refuge, which 
        serves as a critical emergency landing site for trans-pacific 
        flights, as well as the public's only window to the vast marine 
        national monuments.
    The loss of volunteer contributions will exacerbate these impacts. 
Currently, refuge Friends groups and volunteers do approximately 20 
percent of all work on refuges. In fiscal year 2012, approximately 
42,800 people spent nearly 1.6 million hours volunteering on refuges, a 
contribution worth an estimated $34.7 million, or the equivalent of 766 
full-time employees. This is only possible, however, if the Refuge 
System has sufficient staff resources available to train and oversee 
these volunteers. Because projected sequestration cuts will leave 
vacant staff positions unfilled and may force existing staff to be 
reassigned to higher priority duties, refuges are unlikely to retain 
the capacity to leverage such significant volunteer contributions in 
the years ahead.
    Further, while we appreciate the funding that Congress provided for 
Hurricane Sandy relief, the Refuge System continues to feel the impacts 
of other natural disasters that have occurred over the past several 
years. Between fiscal year 2005 and fiscal year 2011, refuges sustained 
$693 million in damages from natural disasters including hurricanes, 
flooding, tornadoes, fires, a tsunami, and an earthquake. Of that 
total, Congress appropriated $254 million in emergency supplemental 
funding, but the Refuge System has been left to cope with the remaining 
$439 million in damages--approximately 97 percent of its total 
Operations and Maintenance funding for fiscal year 2013.
    We urge you to fund the Refuge System at $499 million in fiscal 
year 2014--a level that serves to bridge the growing gap between what 
the System needs and what it receives, and that enables refuges to 
continue moving America forward. On behalf of our more than 15 million 
members and supporters, CARE thanks the subcommittee for the 
opportunity to offer comments on the fiscal year 2014 Interior, 
Environment, and Related Agencies appropriations bill, and we look 
forward to meeting with you to discuss our request.
                                 ______
                                 
             Prepared Statement of the Coeur D'Alene Tribe
    On behalf of the Coeur d'Alene Tribe (Tribe), I am pleased to 
provide our recommendations for the fiscal year 2014 Interior, 
Environment, and Related Agencies spending bill. As explained below, 
the Tribe recommends that the subcommittee include bill language that 
authorizes the Secretary of the Interior to invest the $1.9 billion 
already appropriated for the Indian land buy-back program and utilize 
the supplemental amounts to maximize the resources available under this 
program.
                 background on the coeur d'alene tribe
    The Coeur d'Alene Reservation covers 345,000 acres in northern 
Idaho, spanning the rich Palouse farm country and the western edge of 
the northern Rocky Mountains. The Reservation includes the Coeur 
d'Alene and St. Joe Rivers, and Lake Coeur d'Alene, which is considered 
one of the most beautiful mountain lakes in the world.
    The Tribe's economy is based mostly on agriculture. The Tribe's 
6,000-acre farm produces wheat, barley, peas, lentils and canola. The 
Reservation includes approximately 180,000 acres of forest and 150,000 
acres of farmland, with most of the farmland owned by private farmers. 
Reservation land also produces about 30,000 acres of Kentucky Blue 
Grass. Logging is another important component of the economy and a 
source of revenue for the Tribe.
    Most of the trust land on the Coeur d'Alene Reservation is 
fractionated. This means ownership of a single parcel is shared by more 
than one Indian owner with an undivided interest. Many parcels on the 
Reservation have more than 20 owners.
           the ``cobell'' settlement and the buy-back program
    As the subcommittee is aware, the Claims Resolution Act of 2010 
(CRA) provided for the settlement of the Cobell  v. Salazar  
litigation. As part of the settlement, the CRA appropriated $1.9 
billion for the voluntary buy-back and consolidation of fractionated 
land interests. This program is administered by the Secretary through 
the Land Buy-Back Program for Tribal Nations (``Buy-Back'' program).
    The intent of the Buy-Back program is to acquire as many as 
possible of these small, fractionated interests from willing Indian 
sellers to reduce the burden and expense on the Department of the 
Interior in administering them and to prevent a future Cobell case. 
Under the terms of the settlement, any unspent amounts from the $1.9 
billion will revert to the U.S. Treasury after 10 years.
    Of the $1.9 billion that Congress has appropriated for the Buy-Back 
program, up to 15 percent ($285 million) can be used for administrative 
costs and another $60 million is set aside for a scholarship fund. Of 
the $1.55 billion available to buy fractionated interests, the 
Secretary has tentatively allocated $1,391,569,500 to 40 Indian tribes 
that would initially participate in the program.\1\ The rest of the 526 
federally recognized Indian tribes in the United States would share the 
remaining $163,430,500 to repurchase interests on their respective 
reservations.
---------------------------------------------------------------------------
    \1\ See Initial Implementation Plan, Land Buy Back Program for 
Tribal Nations (Dec. 12, 2012), at 11, available at http://www.doi.gov/
buybackprogram/upload/Initial-Implementation-Plan-508.pdf.
---------------------------------------------------------------------------
    The Coeur d'Alene Tribe is not among the 40 tribes that the 
Secretary identified to initially participate in the Buy-Back program. 
Based on our analysis of the criteria that the Secretary used to select 
these 40 tribes, however, we believe that the Coeur d'Alene Tribe 
should have been included in this list and should have been allocated 
at least $10 million to repurchase fractionated interests on the Coeur 
d'Alene Reservation.
    The Tribe has contracted all of the land and realty programs from 
the Bureau of Indian Affairs (BIA) that would be involved in 
administering the Buy-Back program. The Tribe has operated these 
programs successfully for more than a decade and has developed and 
maintained records on its tribal lands that are superior to the BIA's 
records. Not only does the Tribe have the capacity to begin purchasing 
fractionated interests immediately, but it also has a waiting list of 
individuals who wish to sell their fractionated interests to the Tribe.
 the secretary cannot maximize the $1.9 billion buy-back appropriation
    Somewhat surprisingly, the CRA did not include any language that 
allows the Secretary to invest the $1.9 billion and retain the earnings 
for the Buy-Back program. A significant portion of the $1.9 billion 
will sit in an account for a period of years as the program is rolled 
out on reservations across the country. In the current budget climate, 
it only makes sense to maximize the amount of funds available to 
purchase fractionated interests by allowing the Secretary to invest the 
$1.9 billion and to retain the supplemental earned amounts for the Buy-
Back program.
    Because the 10-year clock has already begun ticking for the $1.9 
billion principal to be spent, every fiscal year that goes by without 
this money being invested represents money and opportunity lost. 
Assuming that $1.9 billion could be invested and were to earn even 1 
percent annually, this would generate an additional $190 million that 
could be used to purchase additional fractionated interests. These 
additional funds could be used by Coeur d'Alene and other similarly 
situated tribes that wish to participate in the Buy-Back program but 
were not included on the top 40 tribes list.
    The Tribe has had discussions with officials at the Buy-Back 
program and staff from the Senate Committee on Indian Affairs regarding 
this issue, and they are aware that the Tribe is making this 
recommendation to the subcommittee.
    Suggested bill language:

    ``The amounts comprising the Trust Land Consolidation Fund made 
available to the Secretary in section 101(e) of Public Law 111-291 may 
be transferred and invested by the Secretary in a manner consistent 
with the Secretary's investment of tribal trust funds. The Secretary 
shall retain the supplemental amounts only for uses consistent with the 
Land Consolidation Program for the duration of the Trust Land 
Consolidation Fund.''

    The above language would allow the Secretary to invest the $1.9 
billion in the conservative, federally guaranteed securities that the 
Secretary currently invests tribal trust funds in or deposit the 
proceeds in private banks. See 25 U.S.C. Sec. Sec. 162a-162c. In 2012, 
the Secretary, through the Office of the Special Trustee (OST), 
invested $4.4 billion in funds held in trust for the benefit of Indian 
tribes. OST has a division that exclusively handles these investments.
    The language would also allow the supplemental earnings to be used 
by the Department only for the Indian land consolidation program. The 
capitalized terms are taken directly from and are defined in the CRA.
    I appreciate the opportunity to provide this recommendation and 
would be happy to provide any additional information that the 
subcommittee may require.
                                 ______
                                 
   Prepared Statement of the Children's Environmental Health Network
    The Children's Environmental Health Network (CEHN or the Network) 
is pleased to have this opportunity to submit testimony on fiscal year 
2014 appropriations for the Environmental Protection Agency (EPA) and 
the Agency for Toxic Substances and Disease Registry (ATSDR).
    The Network's mission is to protect the developing child from 
environmental hazards and promote a healthier environment. The 
Network's Board and committee members include internationally 
recognized experts in children's environmental health science and 
policy. We recognize that children, in our society, have unique moral 
standing.
    American competitiveness depends on having healthy educated 
children who grow up to be healthy productive adults. Yet, growing 
numbers of our children are diagnosed with chronic and developmental 
illnesses and disabilities, such as obesity, asthma, learning 
disabilities, and autism. A child's environment plays a role in these 
chronic conditions and contributes to the distressing possibility that 
today's children may be the first generation to see a shorter life 
expectancy than their parents due to poor health. Thus, it is vital 
that the Federal programs and activities that protect children from 
environmental hazards receive adequate resources.
    CEHN urges the subcommittee to provide funding at or above the 
requested levels for the following EPA activities: Office of Children's 
Health Protection; Children's Environmental Health Research Centers of 
Excellence; Office of Research & Development; School and Child Care 
Environmental Health; and the Pediatric Environmental Health Specialty 
Units.
    CEHN also urges full funding of all activities that advance healthy 
school and childcare environments for all children, including those 
supported by ATSDR.
    As epidemiologists see increasing rates of asthma, learning 
disabilities, and childhood cancers; as parents seek the causes of 
birth defects; as researchers understand more and more about the fetal 
origins of disease, policymakers must do a much better job of 
understanding and acting on the connections between children's health 
and the environments in which they spend their time.
    These environments include, but go beyond, home, school, and 
childcare settings. A growing number of studies are finding unexpected 
impacts of prenatal environmental exposures on health in later years. 
For example, prenatal exposures to either a common air pollutant or a 
common pesticide have both been linked to lower IQs and poorer working 
memory at age 7.
    Thus, all agencies should assure that their children's programs 
build on and respond to the growing evidence of the importance of 
prenatal exposures to a child's health and future.
                                  epa
    A variety of factors, such as children's developing systems, their 
unique behaviors and differing exposures, mean that children can be 
more susceptible than adults to harm from toxic chemicals. Standards 
and guidelines that are based on adults cannot be assumed to be 
protective of children. The EPA programs of highest importance in the 
protection of children are described below.
    EPA's Office of Children's Health Protection.--EPA's efforts to 
protect children from environmental hazards have been led by the Office 
of Children's Health Protection (OCHP) since 1997. Despite an effective 
track record, funding for OCHP has been level, at approximately $6 
million, since its creation. OCHP focuses on interagency work that 
promotes healthy housing and healthy children. These areas show that 
environmental interventions result in great cost savings, not to 
mention the health problems averted, such as asthma episodes and lead 
poisoning cases. The President's budget would add approximately $1.2 
million to OCHP and 6.8 full-time staff for coordinating work with 
States and districts. CEHN supports this increase in budget and staff.
    Children's Environmental Health Research Centers of Excellence.--
The Centers, jointly funded by EPA and NIEHS, play a key role in 
providing the scientific basis for protecting children from 
environmental hazards. With their modest budgets, which have been 
unchanged for more than 10 years, these centers generate valuable 
research. EPA's Office of Research & Development has indicated its 
commitment to the Centers in the budget language. A unique aspect of 
these Centers is the requirement that each Center actively involve its 
local community in a collaborative partnership, leading both to 
community-based participatory research projects and to the translation 
of research findings into child-protective programs and policies. The 
scientific output of these centers has been outstanding. It was these 
centers, for example, that generated the findings mentioned earlier 
about connections between prenatal exposures and lower IQ at age 7. We 
urge you to provide full funding for these Centers.
    Office of Research & Development (ORD).--This office is critical in 
efforts to understand environmental impacts on children's health. EPA 
has pledged to increase its efforts to provide a safe and healthy 
environment for children by ensuring that all EPA regulations, 
standards, policies, and risk assessments take into account childhood 
vulnerabilities to environmental chemicals. We encourage additional 
funds for research on children's issues in the 2014 budget. To truly 
raise such research to a priority level, where are measurable goals on 
this area of research? Where is the documentation of the amount and 
type of research conducted as well as how the protection of children is 
given priority throughout ORD? We ask that your subcommittee direct the 
office to improve transparency by tracking and reporting on the funding 
and research across the office dedicated to children's environmental 
health.
    ORD's focus on sustainability in its work is commended; no truly 
sustainable development paradigm could be developed without protecting 
children and their future. Children's environmental health is an issue 
that cuts across all of ORD's programs. For example, EPA's National 
Health and Environmental Effects Research Laboratory scientists are 
protecting children's health through the development of cost-effective 
methods to test and rank chemicals for their potential to cause 
developmental neurotoxicity. Historic methods using laboratory animals 
are expensive and time consuming. To date, only a small number of the 
thousands of chemicals currently in commerce have been assessed for 
their potential toxicity and for their effects on children's developing 
nervous systems. These new testing methods can screen in hours to days 
instead of months to years and will provide faster, less expensive ways 
of assessing potential toxicity.
    These new testing methods, however, do not replace the need for 
continued research in childhood exposures and health effects. Much of 
the research in this field cannot be conducted in a short time frame 
and requires sustained funding if scientists are to conduct research 
and measure effectiveness.
    School and Child Care Environmental Health.--In America today, 
millions of infants, toddlers and preschoolers, often as young as 6 
weeks, spend 40-50 hours a week in childcare. Yet, little is known 
about the environmental health status of the Nation's child care 
centers or how to assure that these facilities are protecting this 
highly vulnerable group of children. Environmental health is rarely if 
ever considered in licensing centers or training childcare 
professionals. Similarly, about 54 million children and nearly 7 
million adults--20 percent of the total U.S. population--spend up to 40 
hours per week inside school facilities every week. Unfortunately, many 
of these facilities contain unsafe environmental conditions that harm 
children's health and undermine attendance, achievement, and 
productivity. Thus, it is vital that EPA maintain and expand its 
activities for healthy school and child care settings, such as the 
Indoor Air Quality Tools for Schools program.
    Pediatric Environmental Health Specialty Units.--Funded jointly by 
EPA and ATSDR, the Pediatric Environmental Health Specialty Units 
(PEHSUs) form a respected network of experts in children's 
environmental health, with a center in each of the U.S. Federal 
regions. PEHSU professionals provide medical consultation to healthcare 
professionals on a wide range of environmental health issues, from 
individual cases of exposure to advice regarding large-scale community 
issues. PEHSUs also provide information and resources to school, child 
care, health and medical, and community groups to help increase the 
public's understanding of children's environmental health, and help 
inform policymakers by providing data and background on local or 
regional environmental health issues and implications for specific 
populations or areas. We urge the subcommittee to provide adequate 
funding for both EPA's and ATSDR's portions of this program.
                                 atsdr
    CEHN urges the subcommittee to provide funding at or above the 
requested levels for ATSDR activities. ATSDR uses the best science in 
taking public health actions, such as site assessments and 
toxicological profiles, to prevent harmful exposures and diseases of 
communities and individuals related to toxic substances.
    ATSDR understands that in communities faced with contamination of 
their water, soil, air, or food, infants and children can be more 
sensitive to environmental exposure than adults and that assessment, 
prevention, and efforts to find remedies for exposures must focus on 
children because of their vulnerability and importance to the Nation's 
future. We support the full funding of ATSDR and the continuation of 
their varied responsibilities.
    Children's health and healthy children must be ongoing priorities 
for this and every administration
    We commend the EPA and ATSDR for their great progress in 
recognizing children's unique susceptibilities to environmental 
toxicants in the last several decades. Much more remains to be done, 
however. The Network urges the subcommittee to direct both agencies to 
assure that all of their activities and programs--including 
regulations, guidelines, assessments and research--specifically 
consider children.
    EPA and ATSDR must always assure that children and other vulnerable 
subpopulations are protected, especially poor children, minority 
children, farmworker children, and others at risk.
    Thank you for the opportunity to submit testimony on these critical 
issues, and thank you for your concern about the environmental health 
of children.
                                 ______
                                 
          Prepared Statement of the Choctaw Nation of Oklahoma
    On behalf of Chief Gregory E. Pyle, of the Great Choctaw Nation of 
Oklahoma, I submit this written testimony on the fiscal year 2014 
budgets for the Indian Health Service and Bureau of Indian Affairs. 
Although we are submitting testimony on the fiscal year 2014 budgets, 
we must comment on the fiscal year 2013 sequestration of discretionary 
programs. The sequester reductions to Tribal programs undermine Indian 
treaty rights and obligations--treaties which were ratified under the 
Constitution and considered the ``supreme law of the land.'' The 
ongoing contribution of tribal nations to the U.S. economy is the land 
on which this Nation is built. In exchange for land, the United States 
agreed to protect Tribal treaty rights, lands, and resources, including 
provision of certain services for American Indian and Alaska Native 
Tribes and villages, which is known as the Federal Indian trust 
responsibility. Indiscriminate cuts sacrifice not only the trust 
obligations, but they thwart Tribes' ability to promote economic growth 
or plan for the future of Native children and coming generations.
    The Choctaw Nation of Oklahoma is the third largest Native American 
Tribal government in the United States, with more than 208,000 members. 
The Choctaw Nation territory consists of all or part of 10 counties in 
southeast Oklahoma, and we are proudly one of the State's largest 
employers. The Nation operates numerous programs and services under 
Self-Governance compacts with the United States, including but not 
limited to: a sophisticated health system serving more than 33,000 
patients with a hospital in Talihina, Oklahoma, eight outpatient 
clinics, referred specialty care and sanitation facilities 
construction; higher education; Johnson O'Malley program; housing 
improvement; child welfare and social services; law enforcement; and 
many others.
                 indian health service budget requests
Fully Fund Contract Support Costs (CSC) Consistent with the 2012 U.S. 
        Supreme Court decision in the ``Salazar'' v. ``Ramah Navajo 
        Chapter'' Case--$5.8 million over fiscal year 2012 enacted
    While we are supportive of the increase included in the President's 
budget, we are gravely alarmed and oppose the administration's 
unilateral proposal, in its fiscal year 2014 budget request, to 
fundamentally alter the nature of tribal self-governance by 
implementing individual statutory tribal caps on the CSC payments. No 
change of such a fundamental character should be implemented until 
there has been a thorough consultation and study process jointly 
undertaken by the Indian Health Service (IHS), the Bureau of Indian 
Affairs (BIA). At the very least, Congress should maintain in fiscal 
year 2014 and fiscal year 2015 the status quo statutory language 
enacted in fiscal year 2013 so that tribally developed changes in 
contract support cost funding mechanisms, if any, can be included in 
the fiscal year 2016 budget. We respectfully request your support of 
the $5.8 million increase included in the President's fiscal year 2014 
budget; and maintain the CSC status quo statutory language enacted in 
fiscal year 2013.
Mandatory Costs--Provide $403 million increase to maintain current 
        services
    Mandatory cost increases are necessary to maintain the current 
level of services. These ``mandatories'' are unavoidable and include 
medical and general inflation, pay costs, phasing in staff for recently 
constructed facilities, and population growth. If these mandatory 
requirements are not funded, Tribes have no choice but to cut health 
services, which further reduces the quantity and quality of healthcare 
available to American Indian/Alaskan Native (AI/AN) people. We strongly 
urge full funding of $304 million for Mandatory costs to address these 
ongoing fiscal responsibilities to maintain current services.
Indian Health Care Improvement Fund--Provide $10 million increase
    Funding for the Indian Health Care Improvement Fund (IHCIF) is a 
top Tribal budget priority. The purpose of IHCIF is to address 
deficiencies in health status and resources within the Indian health 
system and to promote greater equity in health services among Indian 
Tribes. The IHCIF directs funding through the Federal Disparity Index 
to the lowest funded operating units. The impact of the fiscal year 
2010 $45 million appropriation brought all operating units within the 
IHS to 45 percent Level Need Funded (LNF). The average Federal 
Disparity Index level among all IHS operating units is 55 percent. In 
December 2010, IHS estimated that it would cost $217 million to raise 
all IHS sites to a minimum Level of Need Funded of 55 percent and $394 
million to reach a minimum of 65 percent. We respectfully request and 
urge you to provide an increase of $10 million for fiscal year 2014.
Purchased/Referred Care program formerly Contract Health Services 
        (CHS)--Provide $171.6 million increase
    Purchased/Referred Care program funds are used to purchase 
essential healthcare services, including inpatient and outpatient care, 
routine emergency ambulatory care, transportation and medical support 
services. These funds are critical to securing the care needed to treat 
injuries, heart disease, digestive diseases and cancer, which are among 
the leading causes of death for American Indians/Alaska Natives. We 
strongly urge an increase of $171.6 million be provided for these 
Purchased/Referred Care services in fiscal year 2014.
Alcohol & Substance Abuse Prevention (ASA) Services--Provide $9.4 
        million increase
    ASAP exists as part of an integrated behavioral health program to 
reduce the incidence of alcohol and substance abuse in American Indian 
and Alaska Native communities and to address the special needs of 
Native people dually diagnosed with both mental illness and drug 
dependency. The ASAP program provides prevention, education, and 
treatment services at both the clinic and community levels. Services 
are provided in both rural and urban settings, with a focus on holistic 
and culturally based approaches. Youth Regional Treatment Center 
operations are also funded by this line item. We respectfully request 
and urge you to provide an increase of $9.4 million for fiscal year 
2014.
Funding for Implementation of the Indian Health Care Improvement Act 
        (IHCIA)
    Implementation of the IHCIA remains a top priority for Indian 
Country. IHCIA provides the authority for Indian healthcare, but does 
NOT provide any funds to IHS. The American healthcare delivery system 
has been revolutionized while the Indian healthcare system waited for 
the reauthorization of the IHCIA. Resources are needed to implement all 
provisions of the IHCIA. Adequate funding for the implementation of 
these provisions is needed.
Office of Tribal Self-Governance--Increase $5 million to the IHS Office 
        of Tribal Self-Governance
    In 2003, Congress reduced funding for this office by $4.5 million, 
a loss of 43 percent from the previous year. In each subsequent year, 
this budget was further reduced due to the applied congressional 
rescissions. As of 2013, there are 337 Self-Governance (SG) Tribes 
managing approximately $1.4 billion in funding. This represents almost 
60 percent of all federally recognized tribes and 33 percent of the 
overall IHS funding. The Self-Governance process serves as a model 
program for Federal Government outsourcing, which builds Tribal 
infrastructure and provides quality services to Indian people. We 
respectfully request an increase of $5 million for the OTSG.
Special Diabetes Program for Indians--Support 5-Year Reauthorization at 
        $200 million/Year
    The Special Diabetes Program for Indians (SPDI) was authorized in 
1997 in response to an alarming and disproportionate high rate of type 
2 diabetes in American Indians and Alaska Natives. SDPI funding has 
been at $150 million since it was reauthorized in 2004. During this 
time nearly 400 Indian Health Service, Tribal and Urban (I/T/U) Indian 
health programs have assisted in developing innovative and culturally 
appropriate strategies, vital resources and tools to prevent and treat 
diabetes. Congressional funding remains the critical factor in the 
battle against diabetes and we request that you urge your colleagues on 
the Labor, Health and Human Services, and Education, and Related 
Agencies Appropriations Subcommittee to increase funding for the SDPI 
program, which is administered by the Indian Health Service.
                bureau of indian affairs budget requests
    We greatly appreciate the work of this subcommittee to provide the 
support for Tribal programs. However, we must mention that comparing 
budget increases for the six largest agencies in the Department of the 
Interior (DOI) between fiscal year 2004 enacted to the fiscal year 2014 
Presidents' request shows that the Bureau of Indian Affairs (BIA) has 
received the smallest percentage increase.
Fully Fund Contract Support Costs (CSC) Consistent with the 2012 U.S. 
        Supreme Court decision in the ``Salazar'' v. ``Ramah Navajo 
        Chapter'' Case--$9.8 million increase over fiscal year 2012 
        enacted
    While we are supportive of the increase included in the President's 
budget, we are gravely alarmed and oppose the administration's 
unilateral proposal, in its fiscal year 2014 budget request, to 
fundamentally alter the nature of Tribal Self-Governance by 
implementing individual statutory Tribal caps on the CSC payments. No 
change of such a fundamental character should be implemented until 
there has been a thorough consultation and study process jointly 
undertaken by the Indian Health Service (IHS), the Bureau of Indian 
Affairs (BIA). We respectfully request your support of the $9.8 million 
increase included in the President's fiscal year 2014 budget; and 
maintain the CSC status quo statutory language enacted in fiscal year 
2013.
Fully Fund Fixed Costs/Pay Costs--Provide $8 million increase
    Most Federal agencies receive annual increases to their Fixed Costs 
rates each year to address inflationary costs associated with Fringe 
Benefits and Pay Costs. Historically, Tribes have been disadvantaged 
because they have never received Fringe Benefit Fixed Cost adjustments. 
At an estimated total Tribal salary level of $380,624,156 in fiscal 
year 2013, a nominal Pay cost rate of 2 percent would require $7.6 
million. The current U.S. inflationary rate is 3.5 percent, and the 
cost-of-living-allowance (COLA) level was calculated to be 3.6 percent 
in fiscal year 2012. In fiscal year 2014, the Tribal Pay Cost need is 
estimated at approximately $8 million to achieve parity with the 
general U.S. cost predictions.
Tribal Priority Allocations--Provide $89 million increase (10 percent 
        over fiscal year 2012 Enacted)
    TPA remains one of the most important funding areas for Tribal 
governments because it covers such needs as economic development, 
general assistance, and natural resource management. However, for two 
decades, inadequate funding for Tribal priority allocations has 
hindered Tribes from fully exercising their right of Self-Governance. 
Severe underfunding has contributed to an array of social injustices in 
Tribal communities. We strongly encourage appropriate funding to fully 
cover these obligations in the fiscal year 2014 budget.
Law Enforcement
    Fully fund all of the provisions of the Tribal Law & Order Act of 
2010. Support the $19 million increase in funding in the fiscal year 
2014 President's budget for BIA Public Safety and Justice.
Office of Self-Governance (OSG)
    Provide increased funding to the OSG to fully staff the office for 
the increase in the number of Tribes entering Self-Governance.
    In closing, on behalf of the Choctaw Nation of Oklahoma and Chief 
Gregory E. Pyle, thank you.
                                 ______
                                 
      Prepared Statement of the Colorado River Board of California
    This testimony is in support of fiscal year 2014 funding for the 
Department of the Interior's Bureau of Land Management (BLM) associated 
with the sub-activity that assists title II of the Colorado River Basin 
Salinity Control Act of 1974 (Public Law 93-320). This long-standing 
successful and cost-effective salinity control program in the Colorado 
River Basin is being carried out pursuant to the Colorado River Basin 
Salinity Control Act and the Clean Water Act (Public Law 92-500).
    The Colorado River Board of California (Colorado River Board) is 
the State agency charged with protecting California's interests and 
rights in the water and power resources of the Colorado River system. 
In this capacity, California participates along with the other six 
Colorado River Basin States through the Colorado River Basin Salinity 
Control Forum (Forum), the interstate organization responsible for 
coordinating the Basin States' salinity control efforts. In close 
cooperation with the U.S. Environmental Protection Agency (EPA) and 
pursuant to requirements of the Clean Water Act, the Forum is charged 
with reviewing the Colorado River water quality standards every 3 
years. The Forum adopts a Plan of Implementation consistent with these 
water quality standards. The level of appropriation being supported in 
this testimony is consistent with the Forum's 2011 Plan of 
Implementation. The Forum's 2011 Plan of Implementation can be found on 
this website: http://www.coloradoriversalinity.org/docs/2011%20REVIEW-
October.pdf. If adequate funds are not appropriated, significant 
damages associated with increasing salinity concentrations of Colorado 
River water will become more widespread in the United States and 
Mexico.
    The EPA has determined that more than 60 percent of the salt load 
of the Colorado River comes from natural sources. Due to geological 
conditions, much of the lands that are controlled and managed by BLM 
are major contributors of salt to the Colorado River system. Past 
management practices have led to human-induced and accelerated erosion 
processes from which soil and rocks have been deposited in various 
stream beds or flood plains. As a result, salts are dissolved and enter 
the Colorado River system causing water quality problems downstream.
    Through passage of the Colorado River Basin Salinity Control Act in 
1974, Congress recognized that much of the salts in the Colorado River 
originate on federally owned lands. Title I of the Salinity Control Act 
deals with the U.S. commitment to efforts related to maintaining the 
quality of waters being delivered to Mexico pursuant to the 1944 Water 
Treaty. Title II of the act deals with improving the quality of the 
water delivered to U.S. users. In 1984, Congress amended the Salinity 
Control Act and directed that the Secretary of the Interior develop a 
comprehensive program for minimizing salt contributions to the Colorado 
River from lands administered by BLM. In 2000, Congress reiterated its 
directive to the Secretary and requested a report on the implementation 
of BLM's program (Public Law 106-459). In 2003, BLM employed a Salinity 
Coordinator to coordinate BLM efforts in the Colorado River Basin 
States to pursue salinity control studies and to implement specific 
salinity control practices. With a significant portion of the salt load 
of the Colorado River coming from BLM-administered lands, the BLM 
portion of the overall program is essential to the success of the 
entire effort.
    The BLM's budget justification document for fiscal year 2013 has 
stated that the BLM continues to implement on-the-ground projects, 
evaluate progress in cooperation with the U.S. Bureau of Reclamation 
(Reclamation) and the U.S. Department of Agriculture (USDA), and report 
salinity control measures in order to further the Plan of 
Implementation associated with the Federal Salinity Control Program in 
the Colorado River Basin. The BLM budget, as proposed in the BLM budget 
justification document, calls for six key performance goals within the 
BLM's Soil, Water, and Air Management Program. One of the goals is to 
reduce saline runoff from public lands into the Colorado River system 
by 10,000 to 20,000 tons of salt from new projects. Additionally, the 
BLM budget justification document reported a cumulative salt-loading 
reduction from ongoing BLM efforts in 2011 that totaled 126,000 tons 
per year. The Soil, Water and Air Management Program sub-activity is 
responsible for reducing the discharge of salts to waters of the 
Colorado River Basin to ensure usable water supplies to tens of 
millions of downstream users of which nearly 20 million are located in 
Southern California.
    Congress has charged Federal agencies, including the BLM, to 
proceed with programs to control the salinity of the Colorado River. 
BLM's rangeland improvement programs can lead to some of the most cost-
effective salinity control measures available. These measures 
significantly complement programs and activities being considered for 
implementation by Reclamation through its Basin-wide Program and by the 
USDA through its on-farm Environmental Quality Incentives Program.
    The 2012 Colorado River Basin Salinity Control Advisory Council 
report states that the funding from BLM's Soil, Water and Air Program 
has been generally expended on studies, research, and implementation. 
These studies and research have successfully identified several 
different tools which could be used to reduce salinity contributions to 
the Colorado River from publicly administered lands. BLM's efforts are 
now transitioning toward implementation of salinity control. During the 
past several years proposals for implementation of salinity control 
specific efforts have exceeded more than $1.5 million. The Advisory 
Council's 2012 report recommends that BLM make at least $1.5 million 
available annually for salinity-specific activities in addition to the 
$5.2 million expended under the Soil, Water and Air Program for general 
improvements within the Colorado River Basin. The Colorado River Board 
supports the Advisory Council's recommendation and urges the 
subcommittee to specifically designate $1.5 million for the Colorado 
River Basin Salinity Control Program.
    Over the 29 years since the passage of the Colorado River Basin 
Salinity Control Act, much has been learned about the impact of salts 
in the Colorado River system. Currently, the salinity concentration of 
Colorado River water causes about $376 million in quantifiable damages 
in the United States annually. Economic and hydrologic modeling by 
Reclamation indicates that the quantifiable damages could rise to more 
than $577 million by the year 2030 without the continuation of the 
Salinity Control Program. For example, damages can be incurred related 
to the following activities:
  --A reduction in the yield of salt-sensitive crops and increased 
        water use for leaching in the agricultural sector;
  --A reduction in the useful life of galvanized water pipe systems, 
        water heaters, faucets, garbage disposals, clothes washers, and 
        dishwashers, and increased use of bottled water and water 
        softeners in the household sector;
  --An increase in the use of water for cooling, and the cost of water 
        softening, and a decrease in equipment service life in the 
        commercial sector;
  --An increase in the use of water and the cost of water treatment, 
        and an increase in sewer fees in the industrial sector;
  --A decrease in the life of treatment facilities and pipelines in the 
        utility sector;
  --Difficulty in meeting wastewater discharge requirements to comply 
        with National Pollutant Discharge Elimination System permit 
        terms and conditions, an increase in desalination and brine 
        disposal costs due to accumulation of salts in groundwater 
        basins, and fewer opportunities for recycling and reuse of the 
        water due to groundwater quality deterioration;
  --Increased use of imported water for leaching and the cost of 
        desalination and brine disposal for recycled water.
    In addition, the Federal Government has made significant 
commitments to the Republic of Mexico and to the seven Colorado River 
Basin States with regard to the delivery of quality water pursuant to 
the 1944 Water Treaty. In order for those commitments to be honored, it 
is essential that in fiscal year 2014, and in future fiscal years, that 
the Congress continue to provide adequate funds to BLM for its salinity 
control activities within the Colorado River Basin.
    The Colorado River is, and will continue to be, a major and vital 
water resource to the nearly 20 million residents of southern 
California, including municipal, industrial, and agricultural water 
users in Imperial, Los Angeles, Orange, Riverside, San Bernardino, San 
Diego, and Ventura Counties. The protection and improvement of Colorado 
River water quality through an effective salinity control program will 
avoid the additional economic damages to users in California and the 
other States that rely on Colorado River water resources.
                                 ______
                                 
 Prepared Statement of the Colorado River Basin Salinity Control Forum
    Waters from the Colorado River are used by nearly 40 million people 
for municipal and industrial purposes and used to irrigate 
approximately 4 million acres in the United States. Natural and man-
induced salt loading to the Colorado River creates environmental and 
economic damages. The U.S. Bureau of Reclamation (Reclamation) has 
estimated the current quantifiable damages at about $376 million per 
year. Congress authorized the Colorado River Basin Salinity Control 
Program (Program) in 1974 to offset increased damages caused by 
continued development and use of the waters of the Colorado River. 
Modeling by Reclamation indicates that the quantifiable damages would 
rise to approximately $577 million by the year 2030 without 
continuation of the Program. Congress has directed the Secretary of the 
Interior to implement a comprehensive program for minimizing salt 
contributions to the Colorado River from lands administered by the 
Bureau of Land Management (BLM). BLM funds these efforts through its 
Soil, Water and Air Program. BLM's efforts are an essential part of the 
overall effort. A funding level of $5.2 million for general water 
quality improvement efforts within the Colorado River Basin and an 
additional $1.5 million for salinity specific projects in 2014 is 
requested to prevent further degradation of the quality of the Colorado 
River and increased downstream economic damages.
    EPA has identified that more than 60 percent of the salt load of 
the Colorado River comes from natural sources. The majority of land 
within the Colorado River Basin is federally owned, much of which is 
administered by BLM. In implementing the Colorado River Basin Salinity 
Control Act in 1974, Congress recognized that most of the salts in the 
Colorado River originate from federally owned lands. Title I of the 
Salinity Control Act deals with the U.S. commitment to the quality of 
waters being delivered to Mexico. Title II of the act deals with 
improving the quality of the water delivered to users in the United 
States. This testimony deals specific with title II efforts. In 1984, 
Congress amended the Salinity Control Act and directed that the 
Secretary of the Interior develop a comprehensive program for 
minimizing salt contributions to the Colorado River from lands 
administered by BLM. In 2000, Congress reiterated its directive to the 
Secretary and requested a report on the implementation of BLM's program 
(Public Law 106-459). In 2003, BLM employed a Salinity Coordinator to 
increase BLM efforts in the Colorado River Basin and to pursue salinity 
control studies and to implement specific salinity control practices. 
With a significant portion of the salt load of the Colorado River 
coming from BLM administered lands, the BLM portion of the overall 
program is essential to the success of the effort. Inadequate BLM 
salinity control efforts will result in significant additional economic 
damages to water users downstream.
    Concentration of salt in the Colorado River causes approximately 
$376 million in quantified damages and significantly more in 
unquantified damages in the United States and results in poor water 
quality for United States users. Damages occur from:
  --a reduction in the yield of salt sensitive crops and increased 
        water use to meet the leaching requirements in the agricultural 
        sector;
  --increased use of imported water and cost of desalination and brine 
        disposal for recycling water in the municipal sector;
  --a reduction in the useful life of galvanized water pipe systems, 
        water heaters, faucets, garbage disposals, clothes washers, and 
        dishwashers, and increased use of bottled water and water 
        softeners in the household sector;
  --an increase in the cost of cooling operations and the cost of water 
        softening, and a decrease in equipment service life in the 
        commercial sector;
  --an increase in the use of water and the cost of water treatment, 
        and an increase in sewer fees in the industrial sector;
  --a decrease in the life of treatment facilities and pipelines in the 
        utility sector; and
  --difficulty in meeting wastewater discharge requirements to comply 
        with National Pollutant Discharge Elimination System permit 
        terms and conditions, and an increase in desalination and brine 
        disposal costs due to accumulation of salts in groundwater 
        basins.
    The Colorado River Basin Salinity Control Forum (Forum) is composed 
of gubernatorial appointees from Arizona, California, Colorado, Nevada, 
New Mexico, Utah and Wyoming. The Forum is charged with reviewing the 
Colorado River's water quality standards for salinity every 3 years. In 
so doing, it adopts a Plan of Implementation consistent with these 
standards. The level of appropriation requested in this testimony is in 
keeping with the adopted Plan of Implementation. If adequate funds are 
not appropriated, significant damages from the higher salt 
concentrations in the water will be more widespread in the United 
States and Mexico.
    In summary, implementation of salinity control practices through 
BLM has proven to be a cost effective method of controlling the 
salinity of the Colorado River and is an essential component to the 
overall Colorado River Basin Salinity Control Program. Continuation of 
adequate funding levels for salinity within the Soil, Water and Air 
Program will assist in preventing the water quality of the Colorado 
River from further degradation and significant increases in economic 
damages to municipal, industrial and irrigation users. A modest 
investment in source control pays huge dividends in improved drinking 
water quality to nearly 40 million Americans.
                                 ______
                                 
 Prepared Statement of the Columbia River Inter-Tribal Fish Commission
    Mr. Chairman and members of the subcommittee, the Columbia River 
Inter-Tribal Fish Commission (CRITFC) is pleased to share its view on 
the Department of the Interior, Bureau of Indian Affairs' (BIA) fiscal 
year 2014 budget. We have specifically identified three funding needs 
and one request for review:
  --$49.5 Million for Rights Protection Implementation--of which $7.7 
        million is for Columbia River Fisheries Management to meet the 
        base program funding needs of the Commission and the fisheries 
        programs of its member tribes, specifically to implement 
        Federal court-ordered management obligations, including efforts 
        for species listed under the Endangered Species Act, and $4.8 
        million for United States/Canada Pacific Salmon Treaty to 
        implement new obligations under the recent agreement adopted by 
        the United States and Canada under the Treaty;
  --$340 million for Public Safety and Justice, Criminal Investigations 
        and Police Services--of which $718,00 supports enforcement of 
        Federal laws at in-lieu and treaty fishing sites on the 
        Columbia River. This supports the President's Request; and
  --$10 million for Cooperative Landscape Conservation to assist tribes 
        nationwide in climate change adaptation and planning. We 
        support the President's request.
    CRITFC was founded in 1977 by the four Columbia River treaty 
tribes: Confederated Tribes of the Umatilla Indian Reservation, 
Confederated Tribes of the Warm Springs Reservation of Oregon, 
Confederated Tribes and Bands of the Yakama Nation, and Nez Perce 
Tribe. CRITFC provides coordination and technical assistance to these 
tribes in regional, national and international efforts to protect and 
restore our shared salmon resource and the habitat upon which it 
depends. Our collective ancestral homeland covers nearly one-third of 
the entire Columbia River Basin in the United States.
    In 1855, the United States entered into treaties with the four 
tribes \1\ whereupon we ceded millions of acres of our homelands to the 
United States. In return, the United States pledged to honor our 
ancestral rights, including the right to fish. Unfortunately, a 
perilous history brought the salmon resource to the edge of extinction 
with 12 salmon and steelhead populations in the Columbia Basin listed 
under the Endangered Species Act (ESA).
---------------------------------------------------------------------------
    \1\ Treaty with the Yakama Tribe, June 9, 1855, 12 Stat. 951; 
Treaty with the Tribes of Middle Oregon, June 25, 1855, 12 Stat. 963; 
Treaty with the Umatilla Tribe, June 9, 1855, 12 Stat. 945; Treaty with 
the Nez Perce Tribe, June 11, 1855, 12 Stat. 957
---------------------------------------------------------------------------
    Today, the CRITFC tribes are leaders in fisheries restoration and 
management working with State, Federal, and private entities. CRITFC's 
member tribes are principals in the region's efforts to halt the 
decline of salmon, lamprey and sturgeon populations and rebuild them to 
levels that support ceremonial, subsistence, and commercial harvests. 
To achieve these objectives, the tribes' actions emphasize ``gravel-to-
gravel'' management including supplementation of natural stocks, 
healthy watersheds and collaborative efforts.
    The programs in this testimony are carried out pursuant to the 
Indian Self-Determination and Assistance Act. Our programs are 
integrated as much as possible with State and Federal salmon management 
and restoration efforts.
     columbia river fisheries management within rights protection 
                             implementation
    We are succeeding. The salmon, returning in greater numbers, tell 
us so. But along with success, management issues increase the 
complexity, requiring greater data collection and more sophisticated 
analyses. Funding shortfalls prohibit the achievement of tribal self-
determination goals for fisheries management, ESA recovery effort, 
protecting nonlisted species, conservation enforcement and treaty 
fishing access site maintenance. We are seeking an increase of 
$3,054,000 over fiscal year 2012 for a new program base of $7,712,000 
for Columbia River Fisheries Management.
    The BIA's Columbia River Fisheries Management line item is the base 
funding that supports the fishery program efforts of CRITFC and the 
four member tribes. Unlike State fish and game agencies, the tribes do 
not have access to Dingell-Johnson/Pittman-Robertson or Wallop-Breaux 
funding. The increase will be directed to support the core functions of 
the fisheries management programs of the Commission's member tribes.
    In 2008 CRITFC and its member tribes successfully concluded lengthy 
negotiations resulting in three landmark agreements: (1) the Columbia 
Basin Fish Accords with Federal action agencies overseeing the Federal 
hydro system in the Columbia Basin\2\; (2) a Ten-Year Fisheries 
Management Plan with Federal, tribal and State parties under United 
States v. Oregon; and (3) a new Chinook Chapter of the Pacific Salmon 
Treaty.\3\ These agreements establish regional and international 
commitments on harvest and fish production efforts, commitments to 
critical investments in habitat restoration, and resolving contentious 
issues by seeking balance of the many demands within the Columbia River 
basin. While through these agreements the Tribes have committed to 
substantial on-the-ground projects with some additional resources from 
the Bonneville Power Administration, the overall management 
responsibilities of the tribal programs have grown exponentially 
without commensurate increases in BIA base funding capacity. For 
example, the tribes' leadership in addressing Pacific Lamprey declines 
is this species' best hope for survival and recovery. The tribes are 
also addressing unmet mitigation obligations, such as fish losses 
associated with the John Day and The Dalles dams.
---------------------------------------------------------------------------
    \2\ The Nez Perce Tribe is not a Columbia Basin Fish Accord 
signatory.
    \3\ See ``Salmon Win A Triple Crown'' at http://www.critfc.org/
text/wana_109.pdf.
---------------------------------------------------------------------------
    Compounding the challenges in implementing tribal fish management 
agreements are the impacts that climate change will have on the 
interior Columbia Basin and the tribe's treaty resources. The 
University of Washington Climate Impact Group predicts new challenges 
to salmon management due primarily to thermal effects and runoff timing 
changes. The CRITFC is being asked to develop mitigation and adaption 
strategies on behalf of our member tribes. CRITFC and its member tribes 
currently have insufficient funds to do the technical work and allow 
policy-level participation in the co-management arena.
    The funding provided through the BIA to support tribal fishery 
programs is crucial to the tribes' and CRITFC's ability to successfully 
carry out tribal rights protection, including these agreements, by 
providing sound technical, scientific and policy products to diverse 
public and private forums. Lost purchasing power through rising costs, 
inflation and lack of pay-cost adjustments to tribal funding has 
further challenged us to deliver these essential services.
  united states/canada pacific salmon treaty under rights protection 
                             implementation
    For tribal participants in the Pacific Salmon Treaty, the U.S. 
Section has identified a program need of $4,800,000 for BIA.
    The United States and Canada entered into the Pacific Salmon Treaty 
in 1985 to conserve and rebuild salmon stocks, provide for optimum 
production, and control salmon interceptions. The treaty established 
the Pacific Salmon Commission (PSC) as a forum to collaborate on 
intermingled salmon stocks. The U.S. Section of the PSC annually 
develops a coordinated budget for tribal, State and Federal programs to 
ensure cost and program efficiencies. Congress increased funding in 
2000 in order to implement the 1999 Agreement but funding has 
significantly eroded since then. In 2008, the United States and Canada 
adopted a new long term Treaty agreement after nearly 3 years of 
negotiations. Both parties agreed to significant new management 
research and monitoring activities to ensure the conservation and 
rebuilding of the shared salmon resource.
    The $4.8 million provides for direct tribal participation with the 
Commission, panels and technical committees. The funding enables the 
tribes to assist in Treaty implementation and facilitates management 
protecting trust resources. This funding maintains tribal resource 
assessment and research programs structured to fulfill required Treaty 
implementation activities. The fiscal year 2014 recommended level for 
this program is an increase of $600,000 above the fiscal year 2012 
enacted level. Our request correlates to the U.S. Section's 
recommendation.
    The tribal management programs provide needed beneficial and 
technical support to the U.S. Section. The Pacific Salmon Commission 
relies heavily on the various technical committees established by the 
Treaty. The work of these committees is integral to the task of 
implementing fishing regimes consistent with the Treaty and the goals 
of the Parties. Numerous tribal staff appointed to these committees and 
all of the tribal programs generate data and research to support their 
efforts. For example, indicator stock tagging and escapement monitoring 
provides key information for estimating the parties' annual harvest 
rates on individual stocks, evaluating impacts of management regimes 
established under the Treaty, and monitoring progress toward the 
Chinook rebuilding program started in 1984.
 public safety and justice, criminal investigations and police services
    Public safety continues to be a high priority for CRITFC and our 
tribes. Our conservation and criminal enforcement officers are the 
cornerstone of public safety in the popular and heavily used Columbia 
Gorge area patrolling 150 miles of the Columbia River, including its 
shorelines in Oregon and Washington. In this area we are the primary 
provider of enforcement services at 31 fishing access sites developed 
pursuant to Public Law 87-14 and Public Law 100-581 for use by treaty 
fishers. CRITFC's officers have obtained BIA Special Law Enforcement 
Commissions to aid our efforts protecting and serving tribal members 
and Federal trust properties along the Columbia River. We are grateful 
for the support of the BIA Office of Justice Services in obtaining the 
SLECs. We are also very pleased that the BIA has created OJS District 8 
and housed it in Portland. Beginning in February 2011, CRITFC entered 
into a Public Law 93-638 contract with BIA for enforcement services 
along the Columbia River. That contract provides funding for two 
enforcement positions.
    It's important that CRITFC build its enforcement capacity above the 
level of the two officers currently funded by the BIA Office of Justice 
Services. Our immediate priority is to add two officers. Funding for 
two additional officers would cost $313,560 plus indirect. Full funding 
for this project would be a total budget of $716,053 plus indirect 
which would support four officers, a sergeant and a dispatcher.
                   cooperative landscape conservation
    The Treaty Right is feeling the effects of Climate Change. Salmon 
run timing, berry and root ripening cycles are shifting. We support the 
President's request of $10 million to implement the DOI Climate Change 
Policy approved on December 20, 2012 for the tribes, Alaskan Natives 
and Native Hawaiians. Specifically, these funds support the BIA Tribal 
Climate Change Program which will integrate climate change adaptation 
strategies into its policies and planning for support for the tribes, 
Alaska Natives and Native Hawaiians. The BIA needs these resources to 
support active engagement of tribes, Alaska Natives and Native 
Hawaiians in the Landscape Conservation Cooperatives and the Climate 
Science Centers and to ensure adequate Government-to-Government 
consultation on all issues with climate effects.
          a request for review of salmon mass-marking programs
    CRITFC endeavors to secure a unified hatchery strategy among 
tribal, Federal, and State co-managers. To that end, we seek to build 
hatchery programs using the best available science and supported by 
adequate, efficient budgets. A congressional requirement, delivered 
through prior appropriations language, to visibly mark all salmon 
produced in federally funded hatcheries should be reconsidered. We have 
requested that Federal mass-marking requirements, and correlated 
funding, be reviewed for compatibility with our overall objective of 
ESA delisting and with prevailing laws and agreements: United States v. 
Oregon, Pacific Salmon Treaty and the Columbia Basin Fish Accords.\4\
---------------------------------------------------------------------------
    \4\ Letter from Bruce Jim, Chairman, Columbia River Inter-Tribal 
Fish Commission to U.S. House of Representatives Chairmen Frank Wolf, 
Mike Simpson and Doc Hastings, July 11, 2011.
---------------------------------------------------------------------------
    Salmon managers should be provided the latitude to make case-by-
case decisions whether to mark fish and, if so, in the appropriate 
percentages.
    In summary, through combined efforts of the four tribes supported 
by a staff of experts, we are proven natural resource managers. Our 
activities benefit the region while also essential to the United States 
obligation under treaties, Federal trust responsibility, Federal 
statutes, and court orders. We ask for your continued support of our 
efforts. We are prepared to provide additional information you may 
require on the Department of the Interior's BIA budget.
                                 ______
                                 
    Prepared Statement of the Chugach Regional Resources Commission
    As Executive Director of the Chugach Regional Resources Commission 
(CRRC), located in Alaska, I am pleased to submit this testimony 
reflecting the needs, concerns and requests of CRRC regarding the 
proposed fiscal year 2014 budget. As is everyone, we are aware of the 
ongoing economic problems in the United States, and the growing concern 
over the Federal deficit. While the Government is trimming its 
spending, the Federal Government must still fulfill its legal and 
contractual spending obligations. The Bureau of Indian Affairs not only 
has a legal and contractual obligation to provide funding for the CRRC, 
but the CRRC is able to translate this funding into real economic 
opportunity for those living in the small Alaska Native villages 
located in Prince William Sound and Lower Cook Inlet.
    We have reviewed the President's fiscal year 2014 budget and while 
we recognize and can appreciate the economic challenges set before you, 
we urge you to work together to pass an appropriations bill before the 
fiscal year end on September 30, 2013. The CRRC has yet to receive any 
of its fiscal year 2013 funding from the Bureau of Indian Affairs. We 
are a small Alaska Native nonprofit organization and as such, do not 
have the capital to carry the projects in the villages for an extended 
period of time. In order to keep the projects running, we had to obtain 
a $100,000 line of credit from the bank. Given the time taken to pass a 
budget and the Department of the Interior's change to an electronic 
financial reporting system, the operations of CRRC projects and those 
of other tribal organizations have been placed in jeopardy. The process 
currently in place that allows this amount of time to pass before 
getting the much needed funding to the tribes must be improved.
    We describe first, our specific requests and recommendations on the 
budget, and then why these are so important to us and the Alaska Native 
Villages and their members who we serve.
                  budget requests and recommendations
    CRRC Funding.--We are once again very pleased that the BIA has 
recognized the importance of natural resource funding for CRRC and has 
requested $350,000 for CRRC in fiscal year 2014 as part of the Trust-
Natural Resources program, Tribal Management/Development subactivity. 
In its fiscal year 2014 budget justification, the BIA recognized CRRC's 
role in developing the capabilities of its member Alaska Native 
Villages to better facilitate their active participation in resource 
use and allocation issues in Alaska. We urge the subcommittee to 
include CRRC funding as proposed by the BIA.
    BIA Trust-Natural Resources Management.--We support the President's 
overall proposal to increase the BIA's Trust-Natural Resources 
Management programs, particularly the increases to Fish, Wildlife and 
Parks, and funding for projects that engage youth in the natural 
sciences. We urge the subcommittee to support this funding and include 
it in the final bill.
    U.S. Fish and Wildlife.--The President is proposing a significant 
increase to the U.S. Fish and Wildlife Service budget. Currently, 
tribes in Alaska manage migratory birds through the Alaska Migratory 
Bird Co-Management Council (AMBCC), a regulatory body comprised of 
State, Federal and Native representatives who develop regulations for 
the spring-summer harvest of migratory birds. The funding for this 
management program is provided and administered by the U.S. Fish and 
Wildlife Service; however, this funding is provided by decision of the 
Region 7 Regional Director on an annual basis and is financially 
inadequate to address all of the migratory bird issues currently being 
addressed by the AMBCC. We are requesting that $1 million of the 
proposed increase to the USFWS budget be designated to the Alaska 
Migratory Bird Co-Management Council.
    Contract Support Costs.--In regards to Contract Support Costs 
(CSC), the administration is proposing to cap fiscal year 2014 CSC 
payments to each Tribe. This action would reverse Supreme Court 
victories that directed the United States to honor fully Indian Self-
Determination Act contracts and agreements. We do not support this 
proposed cap, nor do we support any amendments to the Indian Self-
Determination through the appropriations process without any advance 
consultation with Indian and Alaska Native tribes.
                justification for crrc's budget requests
    The importance of adequate funding for these programs is based on 
the following.
    Chugach Regional Resource Commission History and Purpose.--CRRC is 
a nonprofit coalition of Alaska Native Villages, organized in 1987 by 
the seven Native Villages located in Prince William Sound and Lower 
Cook Inlet in South-central Alaska: Tatitlek Village IRA Council, 
Chenega IRA Council, Port Graham Village Council, Nanwalek IRA Council, 
Native Village of Eyak, Qutekcak Native Tribe, and Valdez Native Tribe. 
CRRC was created to address environmental and natural resources issues 
and to develop culturally sensitive economic projects at the community 
level to support the sustainable development of the region's natural 
resources. The Native Villages' action to create a separate entity 
demonstrates the level of concern and importance they hold for 
environmental and natural resource management and protection--the 
creation of CRRC ensured that natural resource and environmental issues 
received sufficient attention and focused funding. The BIA, in its 
fiscal year budget justification, summarizes CRRC's work, stating

    ``Initially, the emphasis of the CRRC natural resource program was 
on the development of fisheries projects that would provide either an 
economic base for a village or create economic opportunities for tribal 
members. In fiscal year 1996, CRRC initiated a natural resource 
management program with the objective of establishing natural resource 
management capabilities in the villages to facilitate their active 
participation in resource use and allocation issues that affect the 
tribes and their members. The success of these programs from both an 
economic and a social standpoint have made them an integral part of 
overall tribal development.''

    Through its many important programs, CRRC has provided employment 
for up to 35 Native people in the Chugach Region annually--an area that 
faces high levels of unemployment--through programs that conserve and 
restore our natural resources.
    An investment in CRRC has been translated into real economic 
opportunities, savings and community investments that have a great 
impact on the Chugach region. Our employees are able to earn a living 
to support their families, thereby removing them from the rolls of 
people needing State and Federal support. In turn, they are able to 
reinvest in the community, supporting the employment and opportunities 
of other families. Our programs, as well, support future economic and 
commercial opportunities for the region--protecting and developing our 
shellfish and other natural resources.
    Programs.--CRRC has leveraged its $350,000 from the BIA into almost 
$2 million annually to support its several community-based programs. 
Specifically, the $350,000 base funding provided through the BIA 
appropriation has allowed CRRC to maintain core administrative 
operations, and seek specific projects funding from other sources such 
as the Administration for Native Americans, the State of Alaska, BIA, 
U.S. Forest Service, U.S. Fish and Wildlife Service, the U.S. 
Department of Education, the Exxon Valdez Oil Spill Trustee Council, 
the North Pacific Research Board and various foundations. This diverse 
funding pool has enabled CRRC to develop and operate several important 
programs that provide vital services, valuable products, and necessary 
employment and commercial opportunities. These programs include:
  --Alutiiq Pride Shellfish Hatchery.--The Alutiiq Pride Shellfish 
        Hatchery is the only shellfish hatchery in the State of Alaska. 
        The 20,000 square foot shellfish hatchery is located in Seward, 
        Alaska, and houses shellfish seed, brood stock and algae 
        production facilities. Alutiiq Pride is undertaking a hatchery 
        nursery operation, as well as grow-out operation research to 
        adapt mariculture techniques for the Alaskan Shellfish 
        industry. The Hatchery is also conducting scientific research 
        on blue and red king crab as part of a larger federally 
        sponsored program. Alutiiq Pride has already been successful in 
        culturing geoduck, oyster, littleneck clam, and razor clam 
        species and is currently working on sea cucumbers. This 
        research has the potential to dramatically increase commercial 
        opportunities for the region in the future. The activities of 
        Alutiiq Pride are especially important for this region 
        considering it is the only shellfish hatchery in the State, and 
        therefore the only organization in Alaska that can carry out 
        this research and production.
  --Natural Resource Curriculum Development.--Partnering with the 
        University of Alaska, Fairbanks, and the National Oceanic and 
        Atmospheric Administration, CRRC has developed and implemented 
        a model curriculum in natural resource management for Alaska 
        Native students. This curriculum integrates traditional 
        knowledge with Western science. The goal of the program is to 
        encourage more Native students to pursue careers in the 
        sciences. In addition, we are working with the Native American 
        Fish & Wildlife Society and tribes across the country 
        (including Alaska) to develop a university level textbook to 
        accompany these courses.
      In addition, we have completed a K-12 Science Curriculum for 
        Alaska students that integrates Indigenous knowledge with 
        western science. This curriculum is being piloted in various 
        villages in Alaska and a thorough evaluation process will 
        ensure its success and mobility to other schools in Alaska.
  --Alaska Migratory Bird Co-Management Council.--CRRC is a member of 
        the Council responsible for setting regulations governing the 
        spring harvest of migratory birds for Alaska Natives, as well 
        as conducting harvest surveys and various research projects on 
        migratory birds of conservation concern. Our participation in 
        this statewide body ensures the legal harvest of migratory 
        birds by Indigenous subsistence hunters in the Chugach Region.
  --Statewide Subsistence Halibut Working Group.--CRRC participates in 
        this working group, ensuring the halibut resources are secured 
        for subsistence purposes, and to conduct harvest surveys in the 
        Chugach Region.
                               conclusion
    We urge Congress to sustain the $350,000 included in the BIA's 
fiscal year 2013 budget for CRRC. We further ask the subcommittee to 
support the President's requests for increased funding for the BIA's 
Trust Natural Resources Management and for the Fish and Wildlife 
Service, but to designate $1 million of the proposed increase to the 
USFWS budget to the Alaska Migratory Bird Co-Management Council. We 
also urge Congress to reject the administration's proposal to cap CSC.
    We appreciate the opportunity to submit this important testimony.
                                 ______
                                 
     Prepared Statement of The Confederated Tribes of the Colville 
                              Reservation
    On behalf of the Confederated Tribes of the Colville Reservation 
(Colville Tribes or the CCT), I thank you for this opportunity to 
provide testimony to the subcommittee. My testimony offers three 
recommendations for the subcommittee to consider as it drafts the 
fiscal year 2014 spending bill. The first relates to the challenges 
that the Colville Tribes and other Indian tribes face in getting 
adequate staffing for facilities constructed under the existing 
programs administered through the Indian Health Service (IHS). The 
second would ensure that the $1.9 billion that has already been 
appropriated for the Indian Land Consolidation program as part of the 
Cobell  v. Salazar  settlement can be invested to maximize the number 
of fractionated interests that can be acquired over the next 10 years. 
The third relates to law enforcement.
    The Colville Tribes recommends that the subcommittee:
  --include $50 million for the Small Ambulatory Grant Program in the 
        Indian Health Services, Health Care Facilities Construction 
        account for fiscal year 2014 and allow for grants for short-
        term facility staffing from this program;
  --include bill language that authorizes the Secretary of the Interior 
        to invest the $1.9 billion already appropriated for the Indian 
        land consolidation program and utilize the supplemental amounts 
        to maximize resources available under that program; and
  --increase the Criminal Investigations and Police Services program 
        (within the Operation of Indian Programs account) to the extent 
        the subcommittee's allocation allows.
                   background on the colville tribes
    Although now considered a single Indian tribe, the Confederated 
Tribes of the Colville Reservation is, as the name states, a 
confederation of 12 aboriginal tribes and bands from all across the 
plateau region of the Northwest and extending into Canada. The present-
day Colville Reservation encompasses approximately 1.4 million acres 
and is located in north central Washington State. The Colville Tribes 
has more than 9,500 enrolled members, making it one of the largest 
Indian tribes in the Pacific Northwest. About half of the CCT's members 
live on or near the Colville Reservation. The Colville Reservation has 
more than 800,000 acres of forest land and forestry and wood products 
have been the CCT's traditional source of revenue.
  the small ambulatory facilities grant program and staffing needs at 
                    indian health service facilities
    There are currently three paths to constructing a new health 
facility under the IHS system. The first is the priority list system, 
which has been in effect since the early 1990s and provides funding for 
construction of the facilities included on the list as well as 80 
percent of the annual staffing costs. The second is the joint venture 
(JV) program, which generally requires an Indian tribe to pay the 
entire up-front cost of construction of a facility in exchange for IHS 
providing a portion of the annual staffing costs. The third is the 
Small Ambulatory Grant program (SAP), which is just the opposite of the 
joint venture program--IHS pays for the construction costs for the 
facility and the tribe is responsible for all staffing costs. The 
priority list has been closed since the early 1990s and the JV and SAP 
programs have been funded only sporadically during the past decade.
    Like many Indian tribes with large service delivery areas, the 
Colville Tribes faces a health delivery crisis. The CCT's original IHS 
clinic in Nespelem, Washington, was constructed in the 1930s. The CCT 
tried in the 1980s and early 1990s to construct a new facility through 
the IHS priority list system. We understand that at one point, the 
CCT's request for a new clinic in Nespelem was near the top of the 
priority list but was removed because of concerns that the facility was 
a historical site. That priority list has been locked since 1991 and 
some IHS Area Offices, including the Portland Area (of which the CCT is 
a part), have never had any facility constructed under the priority 
list system.
    Because the CCT's need for a new facility was so great and the 
priority list had been closed, the tribe ultimately was forced to 
utilize a variation of the SAP to construct a new facility. Of a total 
contract amount of $4,693,000 for the Nespelem facility, the Tribe 
funded $3,324,000 and IHS funded $1,369,000, with no additional 
staffing package.
    Despite the relatively new facility, the CCT has an ongoing issue 
with adequate staffing of the facility. Without sufficient staff the 
facility cannot treat patients to its full capacity. With the 
reauthorization of the Indian Health Care Improvement Act more 
opportunities exist for tribes to generate additional revenue through 
third party reimbursements. Additional staff are required to process 
these reimbursements, however, so the promise of additional revenue 
becomes a chicken and egg conundrum. With a short term infusion of 
funds for staff to maximize reimbursements, tribes would be in a 
position to make these reimbursements and accompanying staff self-
sustaining. This would provide opportunities for tribes like the CCT 
that have staffing shortages to generate additional revenue from 
existing facilities and hire new staff.
    The fiscal year 2014 request does not contain any funding for the 
SAP in fiscal year 2014. Indian tribes that desperately need new heath 
facilities and staffing needs would benefit tremendously if this 
funding were made available in fiscal year 2014.
    Suggested language:

    ``Changes to the request include $50 million for the Small 
Ambulatory Program (SAP). The Committee directs IHS to provide 
eligibility for short term staffing packages for new or existing IHS 
facilities in implementing the SAP.''
 allow the department of the interior to invest or deposit in private 
  banks the $1.9 billion already appropriated for the buy-back program
    As the subcommittee is aware, the Claims Resolution Act of 2010 
(CRA) provided for the settlement of the Cobell  v. Salazar  
litigation. As part of the settlement the CRA appropriated $1.9 billion 
for the voluntary buy-back and consolidation of fractionated land 
interests, which is administered by the Department of the Interior 
(DOI) through the Land Buy-Back Program for Tribal Nations (Buy-Back 
program). The intent of the Buy-Back program is to acquire as many of 
these small, fractionated interests from willing Indian sellers as 
possible to reduce the burden and expense on DOI in administering them 
and to prevent a future Cobell  case. Under the terms of the settlement 
any unspent amounts from the $1.9 billion will revert to the U.S. 
Treasury after 10 years.
    There has been tremendous interest in Indian country in the Buy-
Back program since DOI unveiled its implementation plan earlier this 
year. DOI has identified 40 Indian tribes that would initially be able 
to participate in the program and many more not on that list have 
expressed interest in participating as well.
    Somewhat surprisingly, the CRA did not include any language that 
allows DOI to invest the $1.9 billion and retain the earnings for the 
Buy-Back program. A significant portion of the $1.9 billion will sit in 
an account for a period of years as the program is rolled out on 
reservations across the country. It only makes sense to maximize the 
amount of funds available to purchase fractionated interests by 
allowing DOI to invest these funds and retain the supplemental earned 
amounts for the Buy-Back program. Because the 10 year clock has already 
begun ticking for the $1.9 billion principal to be spent, every fiscal 
year that goes by without this money being invested represents money 
and opportunity lost.
    Suggested bill language:

    ``The amounts comprising the Trust Land Consolidation Fund made 
available to the Secretary in section 101(e) of Public Law 111-291 may 
be transferred and invested by the Secretary in a manner consistent 
with the Secretary's investment of tribal trust funds. The Secretary 
shall retain the supplemental amounts only for uses consistent with the 
Land Consolidation Program for the duration of the Trust Land 
Consolidation Fund.''

    The above language would allow the Secretary to invest the $1.9 
billion in the conservative, federally guaranteed securities that the 
Secretary currently invests tribal trust funds in or deposit the 
proceeds in private banks. See 25 U.S.C. 162a-162c. In 2012, the 
Secretary, through the Office of the Special Trustee (OST), invested 
$4.4 billion in funds held in trust for the benefit of Indian tribes. 
OST has a division that exclusively handles these investments.
                            law enforcement
    Finally, there is a constant need for additional funding for the 
Criminal Investigations and Police Services account within the BIA's 
budget. There is a constant need for additional funding for the 
Criminal Investigations and Police Services account within the BIA's 
budget, which funds tribal and BIA police officer salaries.
    There are occasions when there is only a single tribal officer on 
duty for the entire 1.4-million-acre Colville Reservation. Repeated 
requests by the Colville Tribes to renegotiate its law enforcement 638 
contract with the BIA have been rejected because of the lack of 
additional base funding, a point raised by Senator Barrasso at the May 
29, 2013, Senate Committee on Indian Affairs hearing on the fiscal year 
2014 request. Many other tribes are similarly situated.
    The much heralded passage this year of the Violence Against Women's 
Act reauthorization will provide those tribes with sufficient resources 
the ability to prosecute non-Indians for domestic violence offenses. 
But for the majority of tribes, this new authority will mean little if 
there are not enough police officers on the ground in the first place.
    The fiscal year 2014 request includes a $5.5 million increase for 
this account but the Colville Tribes encourages the subcommittee 
consider a larger increase to help bridge this gap to the extent the 
subcommittee's allocation allows.
    I appreciate the opportunity to provide these recommendations and 
would be happy to provide any additional information that the 
subcommittee may require.
                                 ______
                                 
               Prepared Statement of the Civil War Trust
                              introduction
    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to submit testimony. My name is James Lighthizer, and I am 
the president of the Civil War Trust. I respectfully request that the 
Senate Appropriations Subcommittee for Interior, Environment, and 
Related Agencies fund the Civil War Battlefield Preservation Program 
(CWBPP) at its authorized amount of $10 million.
    The Civil War Trust is a 55,000-member nonprofit organization--the 
only national one of its kind--dedicated to preserving America's 
remaining Civil War battlefields. To date, the Trust has permanently 
protected more than 35,000 acres of hallowed ground in 20 States.
    CWBPP is an authorized competitive matching grants program that 
requires a 1 to 1 Federal/non-Federal match, although on most occasions 
the Federal dollars are leveraged much more than 1 to 1. The program 
has successfully promoted cooperative partnerships between State and 
local governments and the private sector to protect targeted, high 
priority Civil War battlegrounds outside National Park Service 
boundaries.
           battlefield lands are our shared american heritage
    Civil War battlefield lands are an irreplaceable part of our shared 
national heritage. Preserving these hallowed grounds not only keeps our 
history alive, but honors the soldiers who made the ultimate sacrifice 
to create the country we are today.
    However, the living history that these sacred sites represent is 
shrinking fast due to development, and we estimate that 30 acres of 
battlefield land are lost every day.
    When preserved, battlefields serve as outdoor classrooms to educate 
current and future generations of Americans about this defining moment 
in America's history. Preserved battlefields are also economic drivers 
for communities, bringing in tourism dollars that are extremely 
important to State and local economies. When these hallowed grounds are 
lost, they are lost forever.
    This hearing is especially timely because of the ongoing 
sesquicentennial commemoration of the Civil War, in which millions will 
learn about our Nation's unique history by visiting Civil War sites 
around the country.
                         origins of the program
    Since its inception, the Civil War Battlefield Preservation Program 
has focused on only the most historically significant battlefield 
sites, as determined by the Civil War Sites Advisory Commission's 
(CWSAC) 1993 ``Report on the Nation's Civil War Battlefields.'' 
Congressionally authorized funding is for acquisition of properties 
outside NPS boundaries from willing sellers only; there is not--and 
never has been--any eminent domain authority.
    Since the program was first funded in fiscal year 1999, grants have 
been used to protect 19,000 acres of hallowed ground in 16 States. 
Among the many battlefields that have benefited from this program are: 
Antietam, Maryland; Averasboro, North Carolina; Chancellorsville, 
Virginia; Chattanooga, Tennessee; Gettysburg, Pennsylvania; Harpers 
Ferry, West Virginia; Mill Springs, Kentucky; and Prairie Grove, 
Arkansas.
                        urgent need for funding
    We thank the subcommittee for its previous support for this 
valuable program. These funds have enabled private sector groups like 
the Civil War Trust to preserve many significant sites that would have 
been otherwise lost to history. We recognize that these are difficult 
economic times and appreciate the constraints on this subcommittee. 
However, the current 150th anniversary of the conflict is the most 
opportune time to provide robust funding for the Civil War Battlefield 
Preservation Program.
    We estimate that in the next decade, most unpreserved Civil War 
battlefield lands will be either developed or protected. With time 
rapidly running out to save these hallowed grounds, full appropriation 
of the Civil War Battlefield Preservation Program will enable us 
protect as many key battlefield lands as possible in the limited time 
remaining.
                               conclusion
    The Civil War was a defining moment in our country's history. For 4 
long years, North and South clashed in hundreds of battles that 
reunited our Nation and sounded the death knell for slavery. More than 
625,000 soldiers and 50,000 civilians perished as a result of the war.
    Protected battlefields not only honor the memory of our 
predecessors, but all of our Nation's brave men and women in uniform.
    Mr. Chairman, I sincerely hope you and your subcommittee will 
consider our request to provide funding of the Civil War Battlefield 
Preservation Program at its authorized level of $10 million. We look 
forward to working with you and other subcommittee members on 
battlefield protection. Thank you for the opportunity to address the 
committee.
                                 ______
                                 
 Prepared Statement of the Dzilth-Na-O-Dith-Hle Community Grant School
    Request Summary.--We, Ervin Chavez, School Board President, and 
Faye BlueEyes, Finance Director, are pleased to present the testimony 
of the Dzilth-Na-O-Dith-Hle Community School (DCGS) on the Navajo 
Reservation in Bloomfield, New Mexico. We will focus on four areas of 
particular concern to our School in the fiscal year 2014 funding 
requests for the Bureau of Indian Education (BIE) in the following 
budget categories:
  --Oppose $16 million in reductions to the Indian School Equalization 
        Program Formula Funds account; provide full funding of $431 
        million.
  --Provide $109 million in facilities operations and $76 million in 
        facilities maintenance as recommended by the National Congress 
        of American Indians in its budget requests.
  --Provide $73 million to fully fund Tribal Grant Support Costs as 
        recommended by the National Congress of American Indians in its 
        Budget Requests.
  --Restore Replacement School Construction account ($17.8 million in 
        fiscal year 2012).
                               background
    DCGS is a tribally controlled grant school located in Bloomfield, 
New Mexico, approximately 170 miles northwest of Albuquerque, within 
the boundaries of the Navajo Indian Reservation. DCGS is primarily 
funded through appropriations received from the BIE, and pass-through 
funding from the Department of Education. Our school, which has been in 
continuous service since 1968, operates a K-8 educational program and a 
dormitory program for students in grades 1-12. Residential students in 
grades 9-12 attend the local public school. There are 220 students 
currently enrolled in our academic program, and 59 students are housed 
in campus dormitories. Our all-Navajo Board operates the DCGS through a 
grant issued by the BIE under the Tribally Controlled Schools Act. The 
DCGS mission is to make a difference in the educational progress of our 
students and we believe that all of our students are capable of 
achieving academic success. DCGS, however, has struggled with chronic 
underfunding of virtually each and every one of its educational and 
related programs. We describe below the impacts of the underfunding in 
several key areas.
    Oppose the $16 million proposed reduction to Indian School 
Equalization Formula (ISEF) Funds account.--The fiscal year 2014 budget 
request proposes a $16 million (or 4.2 percent) reduction in ISEP 
formula funds, monies that are the main source of support for the 
academic component of our school. Most distressing is that the 
administration proposes to reallocate $15 million of the ISEP reduction 
for a new school turnaround demonstration program that would be modeled 
on the Department of Education School Turnaround program. The proposed 
pilot program would provide grants to an undetermined number of BIE-
funded schools who ``demonstrate the strongest commitment to 
substantially raise'' student achievement. Funding priority would be 
given to the BIE-funded schools that are in the restructuring category.
    The DCGS strongly opposes this plan that would, according to the 
BIE estimates, reduce the base per pupil amount we receive from an 
estimated $5,342.34 to $5,162. As we have previously testified, we use 
the ISEP funds not only for the academic program needs but also to 
offset the shortfalls in the nonacademic School Operations costs that 
are also seriously underfunded--such as student transportation, 
maintenance, and administrative functions.
    We urge you to recognize that despite our best efforts to stretch 
each and every dollar, such a drastic reduction in ISEP funding may 
result in even more schools not being able to provide the quality 
academic programs and instruction necessary to meet the adequate yearly 
progress requirements. We ask that Congress:
  --Ensure the funding for the administration's proposed $15 million 
        school turnaround pilot program not reduce funding to the BIE-
        funded schools; and
  --Reaffirm the United States' trust responsibility to Indian students 
        by fully funding ISEF, which would require at least $431 
        million.
    Funding for Facilities Maintenance in the amount of $76 million and 
Facilities Operations in the amount of $109.8 million.--Facilities 
Maintenance funds are intended to provide for the preventative, 
routine, and unscheduled maintenance for all school buildings, 
equipment, utility systems, and ground structures. As we previously 
testified, our school is, unfortunately, among the poorest-rated 
facilities (FCI of 0.4001). Without a significant increase in 
facilities maintenance funding, there is little doubt we will not be 
able to make much progress in addressing the myriad health and safety 
problems at DCGS, which include the closure of the restrooms servicing 
our junior high classrooms due to leaking sewer lines and corroded 
water lines. The water lines contain so much sediment due to the 
corrosion that drinking water must be trucked in for the students (an 
additional cost that most public schools do not face). According to the 
BIE, it would take at least $7.7 million to fix all that is on the DCGS 
deferred maintenance backlog, and the replacement cost of our school 
facility would be $19.1 million.
    Despite the several years of gross underfunding for the facilities 
maintenance program, and aging facilities that require more and more 
upkeep, the BIE does not seek funding at a level that would begin to 
address the very large BIE-funded schools deferred maintenance backlog 
(estimated at $304.4 million in fiscal year 2011). We note that in its 
fiscal year 2014 budget justification for eliminating new school 
construction account (funded at $17 million in fiscal year 2012), the 
BIE claimed the action would enable it to focus on facilities 
maintenance and repair at all schools, a strategy that ``recognizes the 
importance of a quality school environment to best meet the learning 
needs of Indian students.'' However, the fiscal year 2014 Facilities 
Maintenance request of $51.1 million is only $441,000 above the fiscal 
year 2012 level but the increase is for Fixed Costs. Fixed Costs are 
for costs such as employee pay increases, Workers Compensation, 
Unemployment Compensation, and rents--not for addressing facility 
maintenance needs.
    The BIE's fiscal year 2014 Facilities Operations request of $58.7 
million (level funding) is for the ongoing operational expenses like 
electricity, heating fuels, communications, ground maintenance, refuse 
collection, water and sewer service, etc. Considering that the 
facilities operation expenses are currently funded at approximately 46 
percent of need and that the costs of these essential services continue 
to escalate, we believe fiscal year 2014 request is grossly inadequate.
    Unless the facilities operations and maintenance costs are funded 
at a realistic level in order that we can properly maintain and take 
preventive action, we will continue to be unable to provide our 
students staff a safe and healthy environment. We urge you to support 
the NCAI-recommended: $76 million for facilities maintenance; and $109 
million in facilities operation funding.
    Funding for Tribal Grant Support Costs in the Amount of $73 
million.--Tribal Grant Support Costs (TGSC), formerly known as 
Administrative Costs Grants, are funds provided to tribally operated 
schools to cover the administrative or indirect costs associated with 
the operation of a school. These costs include payroll, accounting, 
insurance, background checks, and other legal, reporting and 
recordkeeping requirements, including the preparation of required 
annual audits. Currently, 125 of the 183 BIE funded schools are 
operated by tribes or tribal school boards, with another 3 BIE-operated 
schools considering converting to grant status in fiscal year 2014.
    In fiscal year 2012, the funding available for TGSC met only 64 
percent of the need of the schools, which means that at 100 percent of 
TGSC need, DCGS should have received nearly $700,000; instead, we 
received only $445,000. For fiscal year 2014, the BIE requests a $2 
million increase for a total of $48.2 million, which they estimate will 
provide a TGSC rate of 67 percent of need. This is still far below the 
91 percent contract support costs that will be provided to non-school 
BIA contractors if Congress provides the full $230 million CSC request. 
In addition, there is not a separate start-up fund for newly converting 
schools (although there may be an additional three conversions in 
fiscal year 2014) but for the BIA contractors, $1 million is requested 
for the Indian Self Determination Fund, which provides start-up costs 
and CSC for the initial year of contract or compact.
    Due to the tremendous shortfall, the DCGS has had to consolidate 
internal controls, streamline checks and balances, and significantly 
scale back in our management staff. Now, our business office has only 
two full-time staff to handle all the DCGS business-related functions, 
such as processing payroll for 90 on a biweekly basis; completing all 
the accounting; completing all tax reporting requirements; processing 
account payables-requisitions-purchase orders, and ensure conformance 
with all audit requirements.
    We urge that Congress fix the inequity between TGSC and CSC funding 
by: fully funding TGSC at $73 million for the indirect cost 
requirements of current tribally controlled schools, and provide $2 
million in start-up funds for newly converting schools.
    Restore Replacement School and Replacement Facility Construction 
accounts.--The BIE does not request any funds for school construction, 
and only $25.2 million of the requested $48.4 million in Facilities 
Improvement and Repair to ``correct priority deficiencies in schools 
identified in `poor' condition based on the FCI.'' The current state of 
facility conditions is that 34 percent of the 183 schools and 
dormitories for which BIE is responsible are rated in ``poor'' 
condition on the Bureau's ``Education Facility Condition Index for 
fiscal year 2012'' (FCI). As explained above, the proposed reduction 
has been justified as the Department's need to focus on facilities 
maintenance and repair at all schools. However, they do not request any 
programmatic increases that would substantially address the massive 
backlog of maintenance and repair needs. Under the proposed Education 
Construction funding, the FIC poor rated facilities would only decrease 
to 32 percent by the end of fiscal year 2014. We have already explained 
how DCGS facilities rated as ``poor'' by BIE will fare under the 
proposed funding levels.
    The National Indian Education Association (NIEA), in its fiscal 
year 2014 testimony, estimated that it would take $263.4 million to 
fully fund facility construction and repair. More importantly, the 
House Appropriations Committee advised that the BIE develop a new 
replacement school construction priority list and to request fiscal 
year 2014 funds for projects on the priority list. (See H. Rept. 112-
589, p. 36.)
    The Bureau has a process for evaluating school construction 
projects and placing them on a priority list for funding. No new 
projects, however, have been added to the list since 2004. Thus DCGS 
has not had the opportunity to make its case for a replacement school, 
which would be far more cost effective than spending at least $7.7 
million on repairs to maintain buildings that are 40+ years old. For 
these reasons, we urge Congress to: direct BIE to comply with 
congressional advisement to reopen the school construction priority 
process; and restore, at a minimum, the $17.8 million to the 
Replacement School Construction account.
                               conclusion
    We ask Congress to provide the levels of education funding that 
will enable us to provide a quality education in a safe and secure 
environment for our students. We are grateful for any assistance you 
may provide.
                                 ______
                                 
            Prepared Statement of the Defenders of Wildlife
    Mr. Chairman, ranking member and members of the subcommittee, thank 
you for the opportunity to submit testimony for the record. Founded in 
1947, Defenders has more than 1 million members and supporters and is 
dedicated to the conservation of wild animals and plants in their 
natural communities.
    North America is fortunate to have some of the most abundant and 
diverse wildlife on Earth, more than 200,000 known species in the 
United States alone. This unique and irreplaceable heritage is 
treasured by all Americans both for its aesthetic value as well as for 
the very tangible benefits it brings as a resource. For example, a 
third of our food is pollinated by birds, bats, and insects; wildlife 
associated recreation generated $145 billion in economic benefits in 
2011 \1\; bats provide at least $3.7 billion to the agricultural 
industry in pest control services each year \2\; and the value of 
ecosystem services from habitat in the contiguous 48 States is 
estimated at $1.6 trillion annually.\3\ Federal programs that protect 
wildlife and habitat have been chronically underfunded. The full impact 
of sequestration on these programs is not yet known, but it is likely 
to be significant. Even worse, continued cuts will likely lead to 
irreversible harm to vulnerable species and habitat. Our Nation's 
wildlife is a treasure and well worth the investment to properly care 
for it.
---------------------------------------------------------------------------
    \1\ The 2011 National Survey of Fishing, Hunting, and Wildlife 
Associated Recreation, USFWS, 12/12.
    \2\ http://www.sciencemag.org/content/332/6025/
41.summary?sid=853248fd-6760-4341-93d0-2aeeab9ea450.
    \3\ The Economics Associated with Outdoor Recreation, Natural 
Resources Conservation and Historic Preservation in the United States, 
Southwick Associates, 9/29/11.
---------------------------------------------------------------------------
                       fish and wildlife service
    The U.S. Fish and Wildlife Service (FWS) is our Nation's premier 
wildlife conservation agency. We were deeply disappointed that the 
agency received some of the largest percentage cuts in H.R. 6091, the 
fiscal year 2013 House Interior, Environment, and Related Agencies 
appropriations bill. FWS needs robust funding, not cuts, if it is to 
recover listed species and protect migratory birds and fish, species of 
global conservation concern and other trust species, and stop or 
prevent wildlife crimes.
    Renewable Energy.--FWS must have robust funding for several 
programs to ensure that renewable energy development and associated 
transmission are sited in a way that prevents harm to species such as 
bald and golden eagles, bats, whooping cranes, California condors, 
seabirds, bats and desert tortoise. This includes funding for 
consultation in the Endangered Species program, inventory and 
monitoring in the Migratory Bird program, and proper enforcement of 
needed protections by the Office of Law Enforcement.
    Cooperative Recovery.--The FWS has begun a praiseworthy new 
initiative to implement recovery actions for species listed under the 
Endangered Species Act on National Wildlife Refuges and surrounding 
lands. This requires targeted funding for several programs, including 
National Wildlife Refuges, Partners for Fish and Wildlife, Fisheries, 
Adaptive Science, and Endangered Species Recovery. This initiative 
supports more efficient efforts across landscapes to recover threatened 
and endangered species.
    Endangered Species.--Conservation and recovery of imperiled species 
will be impossible without strong funding for the Endangered Species 
program. Funding is critically needed to support:
  --Under the Listing program, progress in protecting approximately 180 
        candidates, many of which have awaited protection for years, 
        including the red knot, Pacific fisher, Pacific walrus, New 
        England cottontail rabbit, and other species desperately in 
        need of protection;
  --Under the Consultation program, evaluation of tens of thousands of 
        projects to ensure they can move forward while not 
        significantly harming listed species, a crushing workload for 
        agency personnel;
  --Under the Recovery program, work to restore more than 1,400 listed 
        U.S. species so that ESA protection is no longer necessary;
  --Under the Candidate Conservation program, development and 
        implementation of effective measures to stabilize and improve 
        the status of candidate species;
  --Under the Cooperative Endangered Species Fund, the work of States 
        to protect threatened and endangered species.
    Defenders also strongly supports reinstatement of the Wolf 
Livestock Loss Demonstration Program currently funded through the 
Recovery program that assists livestock owners to co-exist with wolves. 
This valuable program is intended to both compensate ranchers for 
livestock losses due to wolves and to implement proactive, nonlethal 
methods to prevent future losses.
    National Wildlife Refuge System (NWRS).--Our National Wildlife 
Refuge System is the largest land and water system in the world 
dedicated to wildlife conservation. Refuges provide enormous benefits 
to the American people, generating more than $4.2 billion each year for 
regional economies. Many are located along our coasts where they serve 
valuable functions in protecting communities from floods and storm 
surges. Initial reports on probable sequestration impacts include the 
closure of 121 refuges or visitor facilities on weekends, reduced law 
enforcement, and the significant reduction or elimination of seasonal 
staff that are responsible for vital work such as protecting sea turtle 
and bird nests on beaches. The Refuge System deserves robust funding, 
not cuts. Even flat funding harms the System--just to maintain the 
management capability to operate properly--to fuel refuge vehicles and 
pay increasing utility bills, facilities rent, and other costs while 
not counting any cost of living increase for personnel--the Refuge 
System needs an annual increase of at least $8 million. Moreover, in 
recent years, the Refuge System has absorbed about $440 million in 
uncompensated funding from natural disasters, nearly the amount of a 
full year's funding.
    Cooperative Landscape Conservation and Adaptive Science.--The 
increasingly large-scale and complex nature of threats to the 
conservation of our natural resources along with decreasing financial 
resources has created a need to work more effectively and efficiently 
across jurisdictional boundaries. This comprehensive initiative is 
helping natural resource management agencies improve landscape-level 
coordination of conservation efforts and provide science and technical 
capacity to tackle today's complex environmental problems. This program 
will also serve a key role in implementing the recently released 
National Fish, Wildlife and Plants Climate Adaptation Strategy, an 
effort that was directed by the Appropriations Committee in fiscal year 
2009 and fiscal year 2010, that will help public and private 
decisionmakers prepare for and reduce the current and future impacts of 
climate change on species, habitats, ecosystems, and the people and 
economies that depend on them.
    International Affairs.--Funding is crucial to sustain vital efforts 
to provide crucial capacity building, education, and training for 
personnel responsible for priority species and habitats of global 
concern and for the increased permitting, research and monitoring 
workload for species subject to trade, including native U.S. species 
such as sturgeon and freshwater turtles.
    Office of Law Enforcement.--The Washington Post recently 
highlighted the work of the Office of Law Enforcement in fighting 
illegal trade, breaking up smuggling rings, and other criminal 
activities that harm wildlife. Without robust funding, the program will 
be unable to maintain its highly trained force of special agents, 
inspectors, and forensic scientists.
    Migratory Bird Management.--U.S. bird populations, including native 
Hawaiian birds, ocean birds, coastal shorebirds, and desert, shrubland, 
and grassland birds have experienced precipitous declines in recent 
years. Continued strong funding is critical to survey and monitor, 
reduce hazards, manage permits, and restore habitat for migratory 
birds.
    Other Key Grant Programs.--Defenders supports continued needed 
funding for the Multinational Species Conservation Fund, for the 
Neotropical Migratory Bird Fund, and for the State and Tribal Wildlife 
grants.
              forest service and bureau of land management
    The Bureau of Land Management (BLM) and the U.S. Forest Service 
(FS) are essential to the conservation of wildlife and habitat in the 
United States, yet their resources are not adequate to meet significant 
challenges. A top priority for Defenders is ensuring that renewable 
energy development on these lands proceeds in a balanced way that 
maintains the ecological integrity of our public lands and waters, 
conserves wildlife habitat and populations, and contributes to agency 
efforts to successfully recover our most imperiled wildlife. We urge 
strong oversight to ensure that any energy development is done in an 
environmentally sensitive fashion. Given their large land ownerships it 
is imperative that both participate fully in landscape level 
conservation and management efforts.
    FS Integrated Resource Restoration (IRR)/Wildlife and Fisheries 
Habitat Management.--We expect that the administration will again 
propose merging a number of accounts, including Wildlife and Fisheries 
Habitat Management, into an integrated budget. However, Defenders 
supports maintaining strong funding for Wildlife and Fisheries Habitat 
Management and continuing IRR as a 3-year pilot as directed by Congress 
in the final fiscal year 2012 omnibus appropriations bill so that the 
agency can demonstrate its ability to adequately protect habitat for 
fish and wildlife under the consolidated program.
    FS Land Management Planning/Inventory and Monitoring.--We also 
expect the budget to again propose merging these two programs into a 
single line item. As with IRR, we are concerned about such a 
consolidation unless the agency can demonstrate its ability to carry 
out its responsibilities under these two programs and urge continued 
discrete funding for each.
    FS Collaborative Forest Landscape Restoration Program (CFLRP).--We 
support full funding of $40 million for this proven cost-effective 
program that was established specifically to create job stability, 
achieve reliable wood supply, restore forest and watershed health, 
improve wildlife habitat, and reduce the costs of fire suppression in 
overgrown forests, and reduce the risk of uncharacteristic wildfires.
    FS Forest and Rangeland Research (FS R&D).--Strong funding for FS 
R&D is crucial in providing relevant tools and information to support 
sustainable management of National Forest system lands as well as non-
Federal forest lands.
    BLM National Greater Sage-Grouse Planning Strategy.--We expect that 
the administration will again request $15 million in the BLM Wildlife 
Management program specifically for sage-grouse conservation planning 
in 10 western States, which is an increase over prior years' funding 
for amending Resource Management Plans, inventorying, monitoring and 
mapping habitat, and conducting restoration. Almost half of all 
sagebrush habitat has been destroyed and remaining habitat is 
fragmented and degraded. Over the 42 years between 1965 and 2007, 
population decline was estimated at 3.1 percent each year. This modest 
funding increase is desperately needed to support a broad effort to 
reverse this iconic bird's decline.
    BLM Renewable Energy.--Robust funding is important to continue 
regional land use planning studies and environmental reviews of 
potential wind energy zones. These studies will help to identify future 
renewable energy zones that will avoid areas with potential natural 
resource conflicts, including conflicts with sensitive wildlife species 
such as sage-grouse, eagles, and desert tortoise.
    BLM Resource Management Planning.--Maintaining funding for Resource 
Management Planning is crucial to address 57 new plans which the agency 
expects to complete within the next 3 to 4 years. Since 2000, the BLM 
has completed more than 74 RMP revisions and major plan amendments.
    BLM Challenge Cost Share.--Defenders continues to support this 
program, one of the few sources of BLM funding for proactive wildlife 
and habitat conservation projects on the ground.
                         u.s. geological survey
    The U.S. Geological Survey provides the basic science necessary for 
conservation of fish, wildlife and habitat. We urge support for robust 
funding in the following programs:
    Ecosystems.--For crucial scientific information needed to soundly 
manage our Nation's biological resources including ongoing research on 
White Nose Syndrome that is devastating bat populations and work to 
assess impacts to wildlife, especially bats and birds, from the 
development and placement of wind energy projects and transmission from 
direct strikes, habitat fragmentation, and construction and maintenance 
of infrastructure.
    Climate and Land Use Change.--Continued funding for the National 
Climate Change and Wildlife Science Center/DOI Climate Science Centers 
and Science Support for DOI Bureaus to address scientific needs in 
planning for adaptation to climate change.
                    land and water conservation fund
    Finally, each day, 6,000 acres of open space in the United States, 
including wildlife habitat, is lost to fragmentation and 
destruction.\4\ Once these lands are lost, they can never be recovered. 
Defenders supports continued strong funding for the LWCF. Thank you for 
the opportunity to testify.
---------------------------------------------------------------------------
    \4\ http://www.fs.fed.us/openspace/coop_across_boundaries.html.
---------------------------------------------------------------------------
                                 ______
                                 
                    Prepared Statement of Dance/USA
    Mr. Chairman and distinguished members of the subcommittee, Dance/
USA is grateful for this opportunity to submit testimony on behalf of 
our members across the United States. We urge the committee to 
designate a total of $155 million to the National Endowment for the 
Arts (NEA) for fiscal year 2014. This testimony is intended to 
highlight the importance of the Federal investment in the arts, so 
critical to sustaining a vibrant cultural community throughout the 
country.
    Dance/USA, the national service organization for the professional 
dance field, believes that dance is essential to a healthy society, 
demonstrating the infinite possibilities for human expression and 
potential, and facilitating communication within and across cultures. 
Dance/USA sustains and advances professional dance by addressing the 
needs, concerns, and interests of artists, administrators, and 
organizations. By providing national leadership and services, Dance/USA 
enhances the infrastructure for dance creation and distribution, 
education, and dissemination of information. To fulfill its mission, 
Dance/USA offers a variety of services to the field that fall under the 
categories of leadership and learning (conferences and professional 
development), information and research, and advocacy and visibility, 
and works with organizations within and outside the arts field with 
whom common goals are shared. Dance/USA's membership currently consists 
of more than 500 aerial, ballet, modern, ethnic, jazz, and tap 
companies, dance service and presenting organizations, individuals, and 
related organizations. Dance/USA's member companies range in size from 
operating budgets of under $100,000 to more than $50 million.
    The NEA makes it possible for everyone to enjoy and benefit from 
the performing arts. Before the establishment of the NEA in 1965, the 
arts were limited mostly to a few big cities. The NEA has helped to 
strengthen regional ballet, opera, theater and other artistic 
disciplines that Americans now enjoy. NEA funding provides access to 
the arts in regions with histories of inaccessibility due to economic 
or geographic limitations. The Endowment embodies the ideal that no one 
should be deprived of the opportunity to have art in their lives. The 
Arts Endowment has helped the arts become accessible to more Americans, 
which in turn has increased public participation in the arts.
    Despite diminished resources, including a budget that has decreased 
by almost $30 million since 2010, the NEA awards more than 1,000 grants 
annually to nonprofit arts organizations for projects that encourage 
artistic creativity and community accessibility. These grants help 
nurture the growth and artistic excellence of thousands of arts 
organizations and artists in every corner of the country. NEA grants 
also preserve and enhance our Nation's diverse cultural heritage. The 
modest public investment in the Nation's cultural life results in both 
new and classic works of art, reaching the residents of all 50 States 
and in every congressional district.
    NEA grants are instrumental in leveraging private funding. On 
average, each dollar from an NEA grant generates at least $8 from other 
sources. Government cultural funding plays a catalytic leadership role 
that is essential in generating private support for the arts.
the nea is a great investment in the economic growth of every community
    The return of the Federal Government's small investment in the arts 
is striking. The nonprofit arts industry generates $135.2 billion 
annually in economic activity ($61.1 billion by the Nation's nonprofit 
arts and culture organizations), supports 4.13 million full-time 
equivalent jobs, and returns $22.3 billion in revenue to local, State, 
and Federal governments each year. Measured against collective arts 
allocations of $4 billion, that's a return of more than five to one. 
Few other Federal investments realize such economic benefits, not to 
mention the intangible benefits that only the arts make possible. Even 
in the face of tremendous cutbacks in recent years, the NEA continues 
to be a beacon for arts organizations across the country.
    The return on investment is not only found in dollar matches. The 
average city and county reports that nonprofit arts and culture 
organizations had 5,215 volunteers who donated 201,719 hours. These 
volunteer hours have a value of approximately $4.5 million--a 
demonstration that citizens value the arts in their communities.
                           nea grants at work
    NEA grants are awarded to dance organizations through its core 
programs: Art Works; Challenge America Fast Track Grants; and Federal/
State Partnerships. In 2013, the NEA funded or has recommended funding 
174 grants, totaling almost $4.1 million, to the dance discipline under 
the Art Works funding category. The following are some examples of the 
impact of NEA funding on dance programs from the NEA's 2013 Art Works 
Program:
AXIS Dance Company, Oakland, California, $10,000
    To support Dance Access and Dance/Access KIDS! Education and 
outreach programs. These activities will offer a variety of events for 
youth and adults with and without disabilities who are based locally 
and nationally.
Ballet Austin, Austin, Texas, $10,000
    To support the creation and presentation of Snow White, 
choreographed by Nelly van Bommel. The one-act ballet will be performed 
by Ballet Austin II dancers and will be van Bommel's third work for 
Ballet Austin.
Dance Theatre of Harlem, New York, New York, $30,000
    To support a national tour of the Dance Theatre of Harlem 
professional company. In addition to performances, the company will 
offer educational activities such as lecture demonstrations, master 
classes, and movement workshops.
Jacob's Pillow, Becket, Massachusetts, $100,000
    To support the presentation of artists representing diverse dance 
forms including Brazilian hip-hop, classical Indian dance, modern 
dance, and ballet, and the Creative Development Residency. Artists will 
include Wendy Whelan, Companhia Urbana de Danca, Shantala 
Shivelingappa, Dance Theatre of Harlem, and Tere O'Conner Dance, as 
well as two artists in the Creative Development Residency.
North Carolina Dance Theatre, Charlotte, North Carolina, $10,000
    To support the creation and world premiere of a new work by dancer 
and choreographer Jiri Bubenicek. Education and outreach programming 
will include presenting excerpts of Bubenicek's work in the Charlotte-
Mecklenburg schools, as well as lecture-demonstrations that tie dance 
to core curriculum subjects.
STREB, Brooklyn, New York, $80,000
    To support the audience development and access programs Public/
Action New York and Public/Action on Tour, based on Extreme Action, a 
method of movement developed by choreographer Elizabeth Streb. 
Performances and classes for students will take place at Streb lab for 
Action Mechanics (SLAM), the company's home in Brooklyn.
Washington Ballet, Washington, DC, $20,000
    To support the Washington Ballet's Community engagement Program. 
The company will offer low-cost dance training and free subsidized 
professional dance performances to Washington residents at the Town 
Hall Education, Arts and Recreation Campus (THE ARC), located east of 
the Anacostia River.
               the nonprofit professional dance community
    America's dance companies perform a wide range of styles and 
genres. These include both classical and contemporary ballet, classical 
and contemporary modern, as well as jazz, tap, cross-disciplinary 
fusions and traditional to modern work rooted in other cultures. Over 
two-thirds of America's professional dance companies are less than 45 
years old; as an established art form with national identity and 
presence, dance has burst onto the scene almost entirely within living 
memory. And yet, America can boast some of the greatest dance companies 
of the world and can take credit for birthing two indigenous dance 
styles--tap and modern dance.
    One key to this spectacular achievement has been the creation of a 
national marketplace for dance. When the National Endowment for the 
Arts instituted its Dance Touring Program in the 1970s, great dance 
became accessible to every community in America. What used to be a 
handful of professional companies and a scattering of ``regional'' 
dance has become a national treasure spread across cities and through 
communities, schools and theaters in all 50 States. Based on data from 
almost 300 nonprofit dance companies from across the United States, 
Dance/USA estimates that dance companies:
  --Employed over 13,400 people in a mix of full-time and part-time 
        positions;
  --Paid approximately $334.9 million, or 53 percent of expenses, in 
        wages and benefits;
  --Earned 178.9 million, or 30 percent of their income, from 
        performances;
  --Received $319.2 million, or 49 percent of their income in 
        contributions (including public support, corporate 
        contributions, foundation support, and individual donations);
  --Generated more than $631.7 million in economic activity across the 
        United States.
                               conclusion
    Despite overwhelming support by the American public for spending 
Federal tax dollars in support of the arts, the NEA has never recovered 
from a 40 percent budget cut in the mid-nineties and found its budget 
further decreased by almost $30 million in the past 2 years, leaving 
its programs seriously underfunded. We urge you to continue toward 
restoration and reinstate the NEA funding allocation to $155 million 
for fiscal year 2014.
    On behalf of Dance/USA, thank you for considering this request.
                                 ______
                                 
            Prepared Statement of the 1854 Treaty Authority
                         1854 treaty authority
    The 1854 Treaty Authority (Authority) is a tribal organization 
funded by a Public Law 93-638 contract with the Bureau of Indian 
Affairs under its Trust-Natural Resources Management-Rights Protection 
implementation budget.
  --The Authority supports the administration's proposal of $36,722,000 
        for BIA Rights Protection Implementation and the proposed 
        allocation of $888,000 for the Authority.
  --The Authority supports the full finding of contract support for its 
        Public Law 93-638, Self-Determination contract. The Authority 
        believes that at least the $231 million requested by the 
        administration should be appropriated, but it does not support 
        the administration's proposal to institute individual statutory 
        caps on contract support. Not only have those caps been 
        proposed without the consultation required for significant 
        policy changes, the Authority has no funding source to make up 
        for contract support shortfalls.
  --The Authority supports funding the EPA Great Lakes Restoration 
        budget at $300 million.
    The Authority is the tribal organization responsible for 
protecting, preserving, and regulating the Treaty-reserved hunting, 
fishing and gathering rights in the territory ceded to the United 
States by the Chippewa in the Treaty of September 30, 1854, 10 Stat. 
1109. The Bois Forte Band and the Grand Portage Band created the 
authority following Federal court affirmation of the rights in 1988. As 
part of a court-approved agreement with the State of Minnesota, the 
Bands have obligations to preserve the natural resources in the 5 
million acre ceded territory and to regulate the activities of Band 
members through a conservation code, enforcement officers, and a court.
    Although it has significant responsibilities in a geographic area 
the size of Massachusetts, the Authority has only 11 full-time 
employees. With those limited resources, the Authority has been able to 
collaborate with State, Tribal and Federal agencies to become a 
prominent presence in the conservation of resources critical to the 
subsistence hunting, fishing and gathering activities of the Chippewa.
    However, the successes of the Authority are overshadowed by the 
challenges facing the trust resources that are at the heart of the 
Treaty right. The Minnesota moose population has declined precipitously 
in just a few years and for reasons unknown. Invasive species threaten 
the Treaty fishing and wild rice production areas across the ceded 
territory, and human activities continue to deplete or displace 
wildlife populations.
    The Authority urges the committee and the Congress to acknowledge 
that the resources we seek to protect are trust resources, reserved in 
treaties that the United States has a legal obligation to protect and 
preserve.
                                 ______
                                 
          Prepared Statement of the Edison Electric Institute
    The Edison Electric Institute (EEI) respectfully submits this 
written testimony for the record to the Senate Appropriations 
Subcommittee on Interior, Environment, and Related Agencies. We 
appreciate this opportunity to share our views on some of the fiscal 
year 2014 programs for the Environmental Protection Agency (EPA).
    The U.S. electric generation fleet is facing numerous challenges as 
a result of a range of EPA requirements. These EPA regulations include 
pending rulemakings on Clean Water Act section 316(b) cooling water 
intake structures, coal ash disposal, regional haze, steam-electric 
effluent limitation guidelines, and greenhouse gas new source 
performance standards, as well as other significant pending Clean Air 
Act regulations. These requirements are dramatically affecting 
individual utility decisions regarding the construction of new 
generation and the retrofitting and retirement of existing plants. 
Therefore, I am sharing with you our views on a number of these 
proposals that could significantly impact the ability of electric 
utilities to ensure an adequate, reliable and affordable supply of 
electricity for consumers.
      clean water act section 316(b) cooling water structures rule
    In April 2011, EPA issued a proposed rule under section 316(b) of 
the Clean Water Act. The proposed rule, which EPA must finalize by June 
27, 2013, will require changes in ``cooling water intake structures,'' 
physical structures through which cooling water is withdrawn, for the 
vast majority of America's existing steam-electric generating plants 
and a wide range of manufacturing and industrial facilities. The 
proposed rule focuses on reducing fish and shellfish mortality 
attributable to ``impingement'' on intake structure screens and 
``entrainment'' into cooling water systems. The proposal will have 
significant negative environmental, energy, cost, and local reliability 
impacts on a minimum of 650 electric generation facilities across the 
country.
    Under the proposed rule, some facilities may be compelled to 
retrofit cooling towers at a nationwide cost estimated to be as high as 
$100 billion. Many facilities will be required to retrofit technology, 
the costs of which will far exceed the benefits, potentially making 
those generating units uneconomic. The proposed impingement standards 
are not achievable at all existing facilities, and there is no valid 
environmental or biological justification for precluding site-specific 
flexibility for impingement as EPA has proposed for entrainment. The 
agency's first Notice of Data Availability (NODA) concerning 
impingement mortality proposed a number of changes in the rule to 
address these concerns, such as allowing more flexibility and the 
inclusion of pre-approved technologies. EEI supports many of these 
proposed changes, as well as the proposed rule's site-specific approach 
to entrainment reduction, and we continue to oppose any mandate to 
retrofit facilities with closed-cycle cooling.
    However, EEI is very concerned with EPA's second NODA, which 
proposes the use of a public opinion survey as a surrogate for well-
established biological and economic analyses to estimate expected 
regulatory benefits. Industry does not believe willingness-to-pay 
surveys of this type are an appropriate tool for use in a national or 
regional context and should not be used by EPA to justify its final 
316(b) rule. Further, the survey that EPA completed was flawed, 
misleading and inaccurate. It should therefore not be used to shape or 
implement the rule. EEI strongly urges the subcommittee to encourage 
EPA not to rely on the willingness-to-pay survey.
                   coal combustion product regulation
    EPA's Coal Combustion Residuals (CCR) rule is currently in proposed 
form. The agency has stated it wants to finalize the measure in 2014. 
EEI continues to advocate for the non-hazardous regulation of coal ash 
and is working to build bipartisan support for enactment of legislation 
during the 113th Congress.
    In October 2011, the House of Representatives passed H.R. 2273, the 
Coal Combustion Residuals and Management Act, legislation that would 
have established minimum Federal requirements for the management and 
disposal of coal ash designed to protect safety, human health and the 
environment. The Federal criteria would have been administered by 
States through enforceable permits and by EPA if a State failed to meet 
the Federal baseline. The House included H.R. 2273 in the Surface 
Transportation Extension Act of 2012. Bipartisan, bicameral compromise 
coal ash provisions were developed during the House-Senate conference 
on the transportation bill; however, coal ash provisions were not 
included in the conference agreement. In August, 24 Senators--12 
Democrats and 12 Republicans--introduced S. 3512, a bill virtually 
identical to the bipartisan CCR legislative package that was considered 
by Congress for inclusion in the transportation legislation. The text 
of S. 3512 passed the House in September 2012 as part of a separate 
legislative package.
    EEI urges subcommittee support for a non-hazardous regulatory 
program for CCRs similar to the provisions contained in S. 3512. Such 
an approach would build on existing State regulatory programs and 
ensure proper disposal of CCRs in a cost-effective manner and without 
unintended consequences.
                         regional haze program
    The Clean Air Act's Regional Haze program requires States to design 
State implementation plans (SIPs) with the intent of gradually making 
``reasonable progress'' toward meeting a national goal of preventing 
future, and remedying existing, impairment of visibility in national 
parks over the next five decades. In part, States show reasonable 
progress toward this goal by requiring major stationary sources of 
emissions, like electric generating units, to install the ``best 
available retrofit technology'' (BART).
    The Clean Air Act requires States to consider several factors when 
determining BART for a particular source. In 2005, EPA adopted 
guidelines to help States make BART determinations. These guidelines 
govern how EPA is to determine BART for a particular source. In cases 
where EPA has determined that a SIP does not meet minimum criteria, the 
agency may in some cases implement a Federal implementation plan (FIP) 
for that State.
    EPA continues to take action on State regional haze plans and BART 
determinations. EEI and numerous member companies are engaging with the 
agency and other administration officials on both a programmatic and 
State-by-State basis.
    In its implementation of the program, EPA is using outdated 
regulatory tools to assess projected air quality improvements and 
compliance costs. Last year, the House Appropriations Committee 
approved legislative language supported by EEI to address this problem. 
It stated that EPA should work with industry and other stakeholders to 
quickly update its regional haze tools and refrain from making 
important regulatory decisions based on outdated models and manuals.
    EEI urges the subcommittee to adopt legislative language like that 
included by the full House committee last year requiring EPA to update 
its regional haze tools related to modeling air quality and estimating 
costs of environmental controls.
               effluent limitations guidelines rulemaking
    Pursuant to a court order, on April 19, EPA released a proposed 
revision to the existing steam electric effluent limitation guidelines 
(ELGs), which it must finalize by May 2014. The proposal includes 
preferred options that would set strict performance standards that will 
force technological and operational changes at existing coal-based, 
nuclear, and natural gas-based combined-cycle generation facilities.
    Wastewater treatment systems generally cost in the tens to hundreds 
of millions of dollars, depending on the size of the facility. The 
costs of wastewater treatment under the rule will vary according to the 
chosen technology, the volume of wastewater to be treated, and the 
level under EPA's revised ELGs of pollutant reduction required. The 
rule also could entail significant costs for converting to dry handling 
of fly ash at facilities that currently use wet handling. EEI estimates 
the cost of wet-to-dry conversion of fly ash handling to be $43 billion 
over 20 years.
    In addition, EPA is looking at equally stringent and costly 
measures for six other waste streams at steam electric facilities. For 
example, the rule may require conversion of wet bottom ash handling to 
dry bottom ash handling and the physical/chemical biological treatment 
of ash landfill leachate. In certain circumstances, the preferred 
options may entail other significant costs, including the cost of 
treating water used to wash trucks and other equipment at all steam 
electric generating facilities as if it were a chemical solvent.
    The cumulative cost impact of the effluent guidelines rule could be 
in the hundreds of billions of dollars. As a result, EEI requests the 
subcommittee to ensure that EPA bases its decisions on credible data 
and a full consideration of the economic challenges and obligations of 
the industry as a whole.
            greenhouse gas new source performance standards
    EPA is expected to finalize greenhouse gas (GHG) new source 
performance standards (NSPS) for new fossil fuel-based units late in 
2013, perhaps after issuing a revised proposal. EEI's 2012 comments on 
EPA's proposed standards expressed concern that the NSPS effectively 
precludes the building of new coal-based powerplants and that, in many 
circumstances, even new natural gas combined-cycle (NGCC) units will 
have problems meeting the standard continually under normal, real-world 
operating conditions. Among other comments, EEI urged EPA to set a 
separate standard for new coal-based powerplants and to raise the 
emissions standard for new NGCC units or take other steps to address 
NGCC concerns.
    Once EPA finalizes the new source standards, it is expected to 
develop draft State guidelines for existing (and probably modified and 
reconstructed) plants (collectively referred to as ``existing plants'') 
under section 111(d) of the Clean Air Act. It is important that any 
rulemaking minimize the impact on existing electric generating units 
that are already making significant investments to comply with the 
Mercury and Air Toxics (MATS) rule.
                                 ______
                                 
      Prepared Statement of the Enewetak/Ujelang Local Government
    Mr. Chairman and distinguished members of this subcommittee: Thank 
you for providing us this opportunity to the people of Enewetak to 
describe issues that relate to our ability to live on our homeland of 
Enewetak Atoll, which was used as a nuclear test site by the United 
States from 1947 to 1958.
    As the only people ever resettled on a nuclear test site, we face 
many challenges. Life on Enewetak Atoll is made possible through 
support provided by the congressionally funded Enewetak Food and 
Agriculture Program. That program provides funding for imported food, 
an agriculture rehabilitation program, and the operation of a vessel. 
Funding is administered by the Department of the Interior. We request 
that funding for that program for fiscal year 2014 be increased by the 
amount of $500,000, the same amount of increase as provided by Congress 
in fiscal year 2013. Also, we hope that this committee will support 
continued funding of the health program for the four nuclear affected 
atolls of which we are one, and funding for the environmental 
monitoring by the Department of Energy of the Runit Island nuclear 
waste site which is on our atoll.
    Before we discuss the particulars of this request, we would first 
like to thank you, Mr. Chairman, and members of this committee, on 
behalf of the Enewetak people, for your support in funding the food and 
agriculture program for our people in the Compact of Free Association. 
We also thank you for your past support in assuring that the Enewetak 
Food and Agriculture Program is adequately funded, particularly your 
support for the $500,000 increase for fiscal year 2013 and your 
approval of our request to purchase a replacement vessel during fiscal 
year 2008 from previously appropriated program funds.
    As you know, Enewetak Atoll was the site of 43 of the 67 nuclear 
tests the United States conducted in the Marshall Islands. We were 
removed from our land by the U.S. Government to make that testing 
possible. We were exiled from our land for a period of over 33 years--a 
period in which we suffered near starvation, poor health, and lack of 
education.
    In 1980, after a significant cleanup, soil rehabilitation, and 
resettlement effort undertaken by the United States, we were able to 
return and live on only a part of our land. A large part of our land 
and environment remain contaminated making it impossible for us to rely 
on our natural food resources and preventing us from developing a 
fishing or tourist economy.
    We now live on a former nuclear test site. In fact, we are the only 
people ever resettled on a nuclear test site. The Enewetak Food and 
Agriculture Program makes life on Enewetak possible. And that is why we 
are so thankful to you for assuring funding in the minimum amount of 
$1.5 million for the program in the Compact.
    However, the program was funded at a level of approximately $2 
million in fiscal year 2013 and close to that amount for the past 
several years. That funding level needs to continue to maintain the 
minimum components of the program which include a soil and agriculture 
rehabilitation program, the importation of food, and the operation of a 
vessel. Therefore, we request your support for the additional $500,000 
for the program for fiscal year 2014 so that the components of the 
program will be funded in the total amount of $20 million, as has been 
the case these past several years.
    In 2008 we faced a challenge with regard to the transportation of 
food, material, equipment, supplies, and transport of people to and 
from our atoll. Our atoll is the most distant atoll from Majuro Atoll, 
the capital of the Marshall Islands. In fact, the distance between 
Majuro and Enewetak is 600 miles one way. All of our food, material, 
supplies, and equipment are sent to Majuro for further transshipment to 
Enewetak. Consequently, a reliable vessel is a lifeline for us. The 
vessel available to us up to fiscal year 2009 was so old that parts 
were difficult if not impossible to find. Therefore, we were in the 
market for a replacement vessel that would be even more suitable for 
voyages between Enewetak and Majuro than the vessel we had. We found a 
suitable vessel and greatly appreciate the approval provided by this 
committee to purchase the replacement vessel from previously 
appropriated program funds. That vessel was in service as of 2008 and 
provides the necessary sea transport to support each of the components 
of the program.
    A final comment on the Enewetak Food and Agriculture Program: This 
program is a true success story. It allows us to live on our homeland 
while providing the resources which allow us to attempt to accomplish 
some of the rehabilitation required to transform part of the atoll from 
a severely damaged nuclear test site to a place that more resembles 
home. The additional $500,000 to maintain current funding levels will 
ensure the continued success of this program.
    Now we would like to briefly address the four atoll healthcare 
program. Funding for fiscal year 2014 is necessary to continue the 
program. We appreciate the funding for such program provided by the 
Congress in the amount of $1 million for fiscal year 2013. However, 
continued funding is required to maintain the key elements of the 
program which provide for an on-site physician for each of the four 
atolls, necessary medicines and supplies, funding for a health aide for 
each atoll, and funding for care of the people of the four atolls at 
the hospitals in the Marshall Islands when required.
    We also need to mention the nuclear waste site on Runit Island. 
That site was built by the United States and contains more than 110,000 
cubic yards of material including plutonium and other radioactive 
debris. This site needs to be monitored to assure the integrity of the 
structure and to assure that no health risks from the radioactive waste 
site are suffered by us. To effect the foregoing, a long-term 
stewardship program of Runit Island needs to be implemented by the 
United States.
    Finally we need to mention our just compensation claims which have 
yet to be addressed by the United States. As you can imagine, Enewetak 
was devastated by the 43 nuclear explosions. Over half the atoll 
requires radiological remediation. The entire atoll requires 
restoration. The Enjebi people need to be resettled on their home 
islands in the northern part of the atoll. The United States accepted 
responsibility for the damages it caused at Enewetak, and it agreed 
that the Nuclear Claims Tribunal was to determine just compensation for 
our people. That Tribunal has done so. Now the just compensation award 
must be addressed so that we have the resources to remediate our atoll 
and to provide our people with the compensation to which they are 
entitled for the loss of use of their land. We believe that the best 
way for Congress to address the claims of the Enewetak people is to 
have the matter referred to the United States Court of Federal Claims 
pursuant to the congressional referral process. That process will 
enable a body familiar with the type of claims examined and addressed 
by the Tribunal to again examine those claims, and the resulting 
awards, and provide a recommendation to Congress regarding disposition 
of the claims.
    Again, Mr. Chairman, we thank you and members of this subcommittee 
for your support which makes life possible for us on our home atoll of 
Enewetak, and we thank you for your kind consideration of the requests 
made in this statement.
                                 ______
                                 
  Prepared Statement of the Fond du Lac Band of Lake Superior Chippewa
    I am Karen R. Diver, Chairwoman of the Fond du Lac Band of Lake 
Superior Chippewa. We appreciate the opportunity to provide testimony 
on fiscal year 2014 appropriations for the Indian programs funded 
through the Department of the Interior, Indian Health Service (IHS) and 
Environmental Protection Agency (EPA). The Fond du Lac Band provides 
health, education, social, public safety and other governmental 
services to approximately 6,700 Indian people living on or near our 
Reservation in northeastern Minnesota. These programs are essential to 
our ability to educate our children, care for our elderly and infirm, 
prevent crime, and protect and manage natural resources. Because of 
this, we wish to express our deep concerns about the adverse impact of 
sequestration on our ability to provide these basic governmental 
services. We urge Congress to reach solutions on budget matters, and to 
fully fund the programs that are so critical to Indian country so that 
the most vulnerable communities are not hurt and the Federal Government 
fulfills its trust responsibilities to our people.
    BIA: Public Safety and Justice and Construction.--We support the 
President's proposal to increase BIA funding for law enforcement as 
increased funding for law enforcement personnel is essential. We also 
urge Congress to increase funding for BIA Construction, as the facility 
that houses our Law Enforcement Department is completely inadequate for 
that purpose.
    Public Safety and Justice.--We continue to face massive unmet needs 
for law enforcement. We provide law enforcement with a combination of 
tribal and available Federal funds and cooperative agreements with 
local law enforcement agencies. But methamphetamine, alcohol, illegal 
prescription drug use, and gang-related activity create huge demands on 
our Law Enforcement Department. Recently, we have seen a rather large 
and fast increase in gang activity. The convictions of several Native 
Mob members in March 2013 appear to have left a void in gang leaders, 
so, while gang activity has been on the rise over the years, lately 
gang activity has intensified with gang members trying to make names 
for themselves by whatever means necessary. The increase in crime is 
further illustrated by the fact that Fond du Lac had its first homicide 
since 2000 last year which, though not directly gang-related involved 
gang members and drugs. Another homicide occurred in Carlton County 
near the Reservation in 2012 which involved two tribal members and 
drugs.
    We also face an epidemic in prescription drug abuse. Many of our 
elders and others are the victims of assaults and robberies that are 
drug related. Our law enforcement officers must respond to a large 
number of drug overdoses and deaths, as well as juvenile offenses 
involving drugs, alcohol, thefts, assaults and burglaries. They also 
respond to a wide range of other matters, for example, reports 
involving domestic disputes, disturbances, disorderly conduct, property 
damage, theft, medical emergencies, fire, neglected children, runaways, 
suicide threats, as well as numerous traffic-related matters. In 2012, 
our Law Enforcement Department responded to close to 5,100 incidents 
and requests for assistance--an increase from 4,900 in 2011.
    To address these problems and ensure effective law enforcement 
coverage 24/7, we need to increase our law enforcement staff but lack 
sufficient funds to do this. We employ 13 patrolmen, 1 investigator, 1 
school resource officer (assigned to the Ojibwe School), a Chief of 
Police, and 3 administrative staff. To the extent possible we schedule 
three officers per shift, but we do not have sufficient funds to do 
this around the clock. In fact, to effectively patrol the Reservation 
we should have 4 officers working each shift and a second investigator, 
for a total of 20 officers. Fewer officers on duty poses serious safety 
issues for both officers and the people we need to protect. The large 
number of calls for police assistance also means that we need more than 
one investigator.
    BIA Construction.--Funding should be increased for BIA 
Construction. Fond du Lac needs a new facility for our law enforcement 
department. The Department is still housed in a six-room building, 
which we share with the Band's housing program. It has neither room for 
investigative interviews, nor office space for specialty positions such 
as investigators. The evidence room and reception area are all 
completely inadequate for law enforcement purposes and, with the 
increased number of calls we are receiving, are becoming more 
inadequate each day. A new building with a garage, along with a larger 
evidence room, storage room for recordkeeping, and a training room for 
officers, is essential.
    BIE: Education.--We urge Congress to increase funding for Bureau of 
Indian Education (BIE) Elementary/Secondary School Programs. We rely on 
BIE funding for the operation of the Band's pre-K through grade 12 
Ojibwe School which serves approximately 340 students most of whom are 
tribal members or descendants of tribal members. Most of our students 
come from very low income households, illustrated by the fact that more 
than 90 percent of our students qualify for free or reduced rate 
lunches. Although the President, in Executive Order 13952 (December 2, 
2011) found ``an urgent need'' for Federal agencies to help improve 
educational opportunities for American Indian students because there 
has been ``little or no progress in closing the achievement gap'' 
between our students and all other students, funding for the BIE 
Elementary/Secondary School Programs is stagnant and seriously 
underfunded. The modest funding increases made in fiscal year 2012 have 
been lost as a result of sequester. This is illustrated by the 
following table:

                                            [In millions of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                        School         School
                                           ISEP       Tribal Grant     Facility       Facility        Student
                                                     Support Costs    Operations    Maintenance   Transportation
----------------------------------------------------------------------------------------------------------------
Fiscal year 2008....................  .............         43.373         56.504         50.745  ..............
Fiscal year 2009....................        375.0           43.373         56.972         50.745          50.5
Fiscal year 2010....................        391.699         43.373         59.410         50.745          50.808
Fiscal year 2011....................        391.142         43.373         59.263         50.746          52.798
Fiscal year 2012....................        392.306         46.373         58.659         50.746          52.739
Fiscal year 2013 w/sequester........        369.9           45.8           55.7           48.4            50.3
----------------------------------------------------------------------------------------------------------------

    Applying statute-generated needs formulas, we ask that BIE 
Elementary/Secondary School Program funding be increased as follows:
  --ISEP.--Increase ISEP to $479,758,000. ISEP is the primary source of 
        school funding, covering salaries for teachers, teacher aides, 
        and administrative personnel. ISEP is critical to our ability 
        to recruit and retain qualified teachers and to cover 
        shortfalls in other budget areas, such as transportation, 
        facilities and maintenance.
  --Tribal Grant Support Costs.--Increase TGSC to $67,270,000. TGSC 
        helps pay for accounting, insurance, background checks, legal 
        and recordkeeping requirements. Inadequate funding of TGSC 
        forces us to use ISEP and other funds to meet these needs.
  --School Facility Operations and School Facility Maintenance.--
        Increase School Facility Operations to $61,913,000, and School 
        Facility Maintenance to $79,137,000. Such funds keep our 
        building in safe condition, pay for preventative and 
        unscheduled maintenance, and cover insurance and increasing 
        utility costs. Past funding has not kept pace with rising costs 
        or the growing backlog of schools needing repair.
  --Student Transportation.--Increase Student Transportation to 
        $56,212,000. This program has been historically underfunded. 
        Without increased funding, the costs to maintain, repair, and 
        replace buses and cover rising fuel costs must be paid from 
        education program funds which are already over-obligated. 
        Located in a rural area, Fond du Lac relies on buses to provide 
        a safe and reliable means to get students safely to and from 
        school.
  --School Construction and Repair.--Provide an additional $20 million 
        for School Construction above current levels to stay ahead of 
        BIE's reported $70 million annual deterioration rate. BIE 
        reports a $3.4 billion school replacement need. Research 
        studies continue to document a link between inadequate facility 
        conditions and poor performance by students. Not addressing 
        these critical infrastructure needs will only jeopardize 
        student and staff safety.
    BIA: Trust--Natural Resources Management.--We very much appreciate 
the funding for BIA Natural Resource programs that Congress has 
provided in past years and strongly support the proposed increase for 
these programs contained in the President's fiscal year 2014 budget. 
Natural resources are vitally important to our tribal members. They 
provide the foundation for our culture, meet subsistence needs, and 
provide employment. The Fond du Lac Band's right to access natural 
resources within and outside our Reservation was reserved by Treaties 
with the United States in 1837, 1842, and 1854 and reaffirmed by the 
courts. In connection with these Treaty rights, the Band is responsible 
for managing natural resources and for enforcing Band conservation laws 
that protect those natural resources by regulating tribal members who 
hunt, fish, and gather those resources both within and outside the 
Reservation.
    Base program funding is essential for that work. Fond du Lac 
routinely partners with State, Federal, and tribal organizations to 
conduct research and management activities. We request that $2 million 
be added to our base budget for Resource Management programs, as funds 
for this program have not been increased since 1991. We also request 
that Congress provide funding to the BIA Tribal Government account as 
recommended in the President's fiscal year 2014 budget. This account 
provides Self Governance funding that is vital to the operation of our 
Forestry, Fisheries, Wildlife, and Natural Resources Programs.
    We urge Congress to increase funding for the U.S. Fish and Wildlife 
Service's State and Tribal Wildlife Grant Program, and we support the 
President's proposed funding for Tribal Historic Preservation Offices 
and the EPA Great Lakes Restoration Initiative. Finally, as a member of 
the Great Lakes Indian Fish & Wildlife Commission, the Band supports 
the Commission's request for BIA Great Lakes Area Management funding of 
$7.067 million and EPA funding of $1.2 million to continue its long-
standing treaty rights protection and implementation program on behalf 
of its member Tribes.
    BIA: Human Services.--We urge Congress to increase funding for 
Human Services programs to address the impact that the methamphetamine 
epidemic has on not only public health and safety, but also on child 
protection, child welfare and foster care services.
    Indian Health Service.--We fully support the President's proposed 
increase in funding for the Indian Health Service and appreciate the 
commitment that the administration and Congress have made to address 
the funding needs for healthcare in Indian country. The President's 
proposed increase is essential to address the high rates of medical 
inflation and the substantial unmet need for healthcare among Indian 
people. Indians at Fond du Lac, like Indians throughout the Nation, 
continue to face disproportionately higher rates of diabetes and its 
associated complications, than the rest of the population. Heart 
disease, cancer, obesity, chemical dependency and mental health 
problems are also prevalent among our people. All Indian tribes should 
receive 100 percent of the Level of Need Formula, which is absolutely 
critical for tribes to address the serious and persistent health issues 
that confront our communities. The Band serves over 7,000 Indian people 
at our clinics, but the current funding level meets only 42 percent of 
our healthcare funding needs.
    As the epidemic of prescription drug abuse grows across the 
country, the IHS needs resources to expand its treatment and community 
education capacity. We are especially disappointed with the Pharma-
driven position SAMHSA has followed for the past several years 
regarding Methadone Assisted Therapy (MAT). Many poorly administered 
MAT programs are pouring unprecedented amounts of cheap, liquid 
Methadone into Indian communities with very destructive results. In 
2013, two-thirds of the babies delivered by Fond du Lac Nurse-midwives 
were born to Methadone dependent mothers. Research has shown that 
methadone users are cognitively impaired, but no research has been done 
on children born to Methadone users. Meanwhile, thousands of American 
Indians are falling victim to the chemical slavery now sponsored by 
SAMHSA. Additional funding for the Methamphetamine, Suicide Prevention 
Initiative should be made available to tribes and the IHS so that this 
``new sickness'' can be addressed. Best practices in pharmacy inventory 
and prescription monitoring need to be modeled and replicated 
throughout Indian country. Related to this is the fact that more and 
more Government agencies are expecting local units of governments, 
including Tribes, to address these problems and the increasing number 
of individuals who become homeless as a result of them, through the 
operation of supportive housing. But Fond du Lac, like most tribes, 
lacks the financial resources to establish new program initiatives, 
like supportive housing, without assistance from the Federal 
Government. We urge Congress to support programs through the IHS or the 
BIA that would fund supportive housing for tribes in every area of the 
country.
    Miigwech. Thank you.
                                 ______
                                 
      Prepared Statement of the Federal Forest Resource Coalition
    The following testimony is submitted on behalf of the Federal 
Forest Resource Coalition on the budget for the USDA Forest Service and 
the Bureau of Land Management. The FFRC represents purchasers of 
Federal timber in 27 States, with over 650 member companies and 
affiliated associations, collectively representing over 350,000 working 
men and women around the country.
    We make the following specific programmatic recommendations for 
fiscal year 2014:
  --restore the Forest Products line item to the pre-sequester fiscal 
        year 2013 level of $337 million;
  --restore the Hazardous Fuels line item to the fiscal year 2011 level 
        of $340 million; and
  --restore Forest Roads line item to the fiscal year 2011 level of 
        $236 million.
    We make these recommendations after a cursory review of the 
President's budget proposal, which, like you, we only saw last week.
    Impacts of Sequester and CR.--While we appreciate the support this 
subcommittee has shown for forest management in the past, we must point 
out our serious concerns with the priorities established for the Forest 
Service as a result of the sequester and subsequent continuing 
resolution. While it appears that some regions of the Forest Service 
are doing their best to continue offering an expanded timber sale 
program, the reductions resulting from the sequester and the continuing 
resolution will inevitably result in reduced outputs. Administration 
estimates suggest that the sequester will result in a 15 percent 
reduction in timber offer levels, which will result in the loss of more 
than 7,000 jobs in some of the poorest counties in America.
    Our member mills have weathered the worst recession our industry 
has seen since the great depression, a recession which is widely 
acknowledged to have hit housing harder than any other sector. Although 
forest product demand has been slowly increasing for the last 18 to 24 
months, the loss of national forest timber volumes will stall this 
growth as these mills struggle to find timber to meet this demand. 
Moreover, the markets these mills create enable the U.S. Forest Service 
to perform the forest health and wildfire prevention so badly needed on 
our national forests.
    For the sequester to force unnecessary mill closures and further 
job losses in our hard hit rural communities is unconscionable. By 
further reducing forest management and capital improvement spending in 
the continuing resolution, Congress and the President are setting 
exactly the wrong priorities for the Forest Service and the Bureau of 
Land Management.
    The Chief of the Forest Service has testified before Congress that 
the agency has between 50 million and 80 million acres in need of 
active management, with 45 million acres being decimated by bark 
beetles in the Rocky Mountains alone. Further, the agency's budget 
presentation states that they have a $6 billion maintenance backlog, up 
from $5.3 billion in 2012. This backlog does not just affect the roads 
my members depend on to access timber, but the trails, campgrounds, and 
visitor centers millions of Americans use for recreation. To cut these 
programs further goes right to the heart of the visitor experience and 
raises serious questions about the Government's continued commitment to 
manage these lands for the greatest good.
    Increasing Efficiency in NFS Management.--As an industry, we have 
learned how to economize, reducing costs and doing ``more with less.'' 
We recognize that the Nation's fiscal situation demands austerity, and 
we have engaged from day one in a dialogue with the Federal land 
managers to find ways to reduce costs, increase efficiency, and this 
subcommittee has helped with several of those efforts. For example, you 
led the way in replacing a cumbersome administrative appeals process 
with a streamlined objection process, and last year proposed expanded 
authority to use more effective sale administration techniques to help 
reduce costs.
    We strongly urge you to continue these efforts by expanding the 
relief from administrative appeals to all projects which the agency 
finds are categorically excluded from further NEPA review. We urge you 
to push the U.S. Senate to agree to provisions allowing designation by 
description. However, unless Congress prioritizes land management by 
reinvesting in timber management, hazardous fuels reduction, and 
maintenance of the basic forest infrastructure, our Federal lands will 
continue to deteriorate and our rural communities will remain stuck in 
what is becoming an alarmingly durable cycle of poverty.
    As noted, we recommend restoring the budgets of the three programs 
noted earlier. All told, these restorations would cost the subcommittee 
roughly $75 million. Presently, this is far less than is being proposed 
for several land acquisition programs within this spending bill. We 
stand ready to work with the committee to identify further efficiencies 
in the way the Forest Service manages their timber lands. However, 
Congress cannot ignore its responsibility to set priorities, and 
clearly we have arrived at a point where we must prioritize the 
management of the lands and facilities already under Federal ownership.
    We recommend the following to expedite management, reduce delays, 
and increase accountability:
  --direct the Forest Service to meet their forest products output 
        targets using only commercial products such as sawlogs, 
        pulpwood, and commercial biomass, not personal use firewood;
  --allow and encourage the agency to focus higher yielding forest 
        management projects on lands designated in existing forest 
        plans as suitable for timber production; and
  --provide expedited authority to conduct needed forest management 
        projects on lands identified as being at significant risk of 
        wildfire, either on agency forest health maps or in community 
        wildfire protection plans.
    We were very thankful to the subcommittee for including national 
direction to the Forest Service to increase timber outputs from 2.4 
billion board feet to 3 billion board feet in 2012. As you are aware, 
the Forest Service achieved 2.6 billion board feet, although about 11 
percent of that was personal use firewood. We urge the subcommittee to 
continue increasing the pace and scale of forest restoration, and set a 
goal of 3.5 billion board feet (exclusive of personal use firewood) for 
fiscal year 2014.
    The current annual harvest from the National Forests represents 
less than 10 percent of annual forest growth, and less than half the 
allowable sale quantity under existing forest plans. In many regions, 
the Forest Service is falling short of its own management goals; 
including in reacting to the bark beetle outbreak in the Rockies and in 
managing aspen habitat in the Lake States. Stepping up management, 
through formal collaboratives where they exist and normal timber 
programs elsewhere, will help address pressing forest health concerns 
while helping bolster employment in rural communities where 
unemployment is frequently near 20 percent and poverty is well above 
State averages. Investing in the Forest Service timber program is a 
very effective job creator, generating 16.5 new direct and indirect 
jobs per million board feet harvested.
    Forest Roads, Hazardous Fuels Reduction.--It is also urgent that 
the subcommittee restore funding which has been cut since 2010 from the 
Capital Improvement and Maintenance Account, as well as the Wildland 
Hazardous Fuels Reduction program. As noted, these programs were 
reduced in the sequester and then cut further by the continuing 
resolution. These two programs are vital to maintaining access to the 
National Forests and in helping to reduce the massive, 90 million acre 
backlog of lands which urgently need hazardous fuels reduction. The 
work cannot be done economically without the ability to use the Forest 
Service road system.
    We appreciate the efforts of the subcommittee to remove the 
arbitrary requirements for hazardous fuels reduction work in the 
Wildland Urban Interface (WUI). A greater percentage of lands in need 
of fuels reduction are outside of the WUI, and mechanical thinning 
allows the Forest Service to take advantage of the wood products 
infrastructure to reduce treatment costs. Extensive Forest Service 
research shows that mechanical thinning (which includes removing 
useable wood fiber) followed by prescribed fire is the best approach to 
significantly reduce threats from wildfire and forest pests.
    IRR, CFLRA.--We further recommend that Congress continue to closely 
monitor pilot authorities such as the IRR pilot regions, and project 
specific authorities such as CFRLA projects, to determine whether these 
projects are reducing unit costs, whether the units measured are acres 
treated or units of wood produced.
    Stewardship Contracting.--We are also concerned that the Forest 
Service will lose their current authority to engage in Stewardship 
contacting at the close of this fiscal year. Congress must take steps 
to expedite an extension of this authority, and we urge this 
subcommittee to continue its leadership in this regard.
    Land Acquisition.--Considering the fiscal situation facing the 
Nation and the backlog of both forest management and roads and 
facilities maintenance needs on the National Forests, we recommend no 
funding for the National Forest System Land Acquisition line item. It 
makes little sense to increase the size of the National Forest System 
at a time when the agency has a demonstrated backlog in maintenance and 
land management. We recommend that the $59 million proposed by the 
administration be redirected to the land management priorities 
recommended above.
    BLM Forest Management.--The President's fiscal year 2014 budget 
includes a sharp reduction in funding for the BLM Public Domain Forest 
Management Program. The President's budget proposes to reduce BLM PD 
Forest Management funding by nearly 40 percent, which will result in 
reduction of 40 percent of associated FTEs, 50 percent reduction in 
biomass volume, and 80 percent reduction in Stewardship Contracts. This 
would mean the BLM would drop from offering 123 million board feet in 
2012 to offering 19 million board feet, a decline of over 85 percent of 
the public domain timberlands. FFRC supports funding for BLM PD Forest 
Management Program at no less than the fiscal year 2012 level of $9.7 
million. Aggressive action is also needed to offer regeneration 
harvests from the O&C lands in Oregon that meet the needs of local 
mills and communities.
    Alaska.--The timber industry in Alaska faces several challenges 
stemming from years of controversy over the management of the Tongass 
National Forest. FFRC members depend upon supplies of timber from this 
forest, and have been hard pressed as the Forest Service has placed 
complete restrictions on harvest in roadless areas. Current efforts to 
transition to harvesting second growth timber will not meet the local 
industries needs for decades. Steps must be taken to offer a timber 
sale program that complies with the National Forest Management Act and 
can sustain the local value added industry in order to save the 
capacity to manage the very small percent of the Tongass that is open 
to any harvest (almost 90 percent of the Tongass is roadless). Local 
mills and loggers, along with Governor Sean Parnell, have concluded 
that some portion of the Tongass should be converted into State 
ownership in order to meet the needs of the local economy. FFRC 
strongly supports this effort. FFRC also strongly urges the 
subcommittee to make permanent the Red Cedar language which it has 
included in previous Interior bills for more than a decade. This 
language is absolutely necessary to ensure that USFS sales are not 
offered as deficit sales.
                               conclusion
    We are witnessing a renaissance in demand for wood products, both 
here at home and abroad. There are two things we know to be true: 
first, this demand will be met, whether it comes from our own forests 
or from abroad. Second, we know that there is more forest management 
work that needs to be done on the National Forests. Only Congress can 
decide whether we will help meet that domestic and international demand 
using timber from our National Forests, which must be milled 
domestically before it can be exported. Only Congress can create 
American jobs by using this market upswing to pay for badly needed 
forest management work. To paraphrase our favorite bear, only you can 
decide to act now, or you can allow the negative trends in forest 
health and rural economic distress to continue.
                                 ______
                                 
   Prepared Statement of the Friends of Bon Secour National Wildlife 
                                 Refuge
    Mr. Chairman and members of the subcommittee: On behalf of the 
Friends of Bon Secour National Wildlife Refuge (FBSNWR), thank you for 
this opportunity to submit comments on the proposed fiscal year 2014 
Interior, Environment, and Related Agencies appropriations bill. FBSNWR 
is a nonprofit volunteer organization formed in 1997 and represents 
citizens from throughout the United States who cherish and support the 
Bon Secour National Wildlife Refuge. Moreover, our members are 
concerned about its future and the role it plays in preserving vital 
habitat types.
    The Bon Secour NWR provides vital habitat for neotropical migratory 
birds and nesting habitat for endangered sea turtles. In addition, the 
refuge is a component of thriving nature-based tourism along coastal 
Alabama. The coastal economy is dependent upon sound stewardship of 
natural resources of the Gulf of Mexico, so we believe the development 
and sustainment of a strong Bon Secour NWR and National Wildlife Refuge 
System is critical to creating a resilient economy in southern Alabama 
and the gulf coast.
    Within this context, we urge your action on the following:
  --Support the President's budget request for fiscal year 2014 of $499 
        million for Refuge System Operations and Maintenance (O&M). 
        This restores some of the cuts made over the past few years, 
        even though this will not cover the annual increases needed 
        just to maintain management capabilities from year to year. The 
        Cooperative Alliance for Refuge Enhancement (CARE) estimates 
        that the Refuge System needs at least $900 million in annual 
        funding to properly administer its 150 million acres and 
        remains committed to aiming for this goal.
  --Fully fund the Land and Water Conservation Fund (LWCF) at $900 
        million and allocate a minimum commitment of $300 million for 
        the National Wildlife Refuge System. Created in 1964 and 
        authorized at $900 million per year, these funds are needed to 
        complete land acquisition for existing and new refuges.
                  bon secour national wildlife refuge
    The Bon Secour NWR incorporates almost 7,000 acres along the coast 
of Baldwin County and Mobile County, Alabama and is one of more than 
500 National Wildlife Refuges located throughout the United States. Bon 
Secour NWR is also part of the gulf coast NWR complex that includes the 
Grand Bay NWR (located in Mobile County, Alabama and Jackson County, 
Mississippi) and the Mississippi Sandhill Crane NWR (located in Jackson 
County, Mississippi). The National Wildlife Refuge System, managed by 
the U.S. Fish and Wildlife Service, is the Nation's premier system of 
public lands and waters set aside to conserve America's fish, wildlife 
and plants. Since President Theodore Roosevelt designated Florida's 
Pelican Island as the first wildlife refuge in 1903, the System has 
grown to more than 150 million acres.
    Being a National Wildlife Refuge, the primary mission of the refuge 
is to protect wildlife and wildlife habitat. Public use of the refuge 
must come secondary to the refuge's wildlife stewardship operations. 
Yet, it is clear that Congress intended for the refuge to develop and 
implement environmental education. The act which established the refuge 
in 1980 stated that the refuge should ``ensure the well-being of these 
(nationally endangered and threatened species, such as the brown 
pelican, bald eagle, and several species of sea turtles, as well as 
many more species identified by the State to be of special concern) and 
other species, to serve as a living laboratory for scientists and 
students . . .'' The Alabama Gulf Coast Convention and Visitors Bureau 
has estimated the refuge attracts nearly 100,000 visitors annually, 
demonstrating the refuge's significant role in Alabama's coastal 
economy.
    Bon Secour NWR has persevered through several catastrophic events 
over the past decade. The refuge was hit hard by Hurricanes Ivan and 
Katrina in 2004 and 2005, forcing the removal of tons of hurricane 
debris from sensitive habitats and repairs to roads and trails. Three 
years ago, the refuge became a ``poster child'' for threats related to 
the gulf oil spill when crude oil washed onto the beaches during the 
sea turtle nesting season. The refuge staff has been strained to the 
limits to assess damage from these events and direct recovery from the 
impacts.
                assessment of current budget constraints
    We are aware of the intense desire of the Federal Government to 
reduce deficit spending. However, addressing deficit spending on the 
backs of the U.S. Fish and Wildlife Service (USFWS) and the National 
Wildlife Refuge System is not a realistic approach to addressing 
deficit spending. The entire budget for civilian agencies represents 
less than 20 percent of the entire Federal budget, and we would 
speculate that the budget for the entire USFWS represents less than 1 
percent of the allocations for civilian agencies. Therefore, slashing 
budgets for the NWRS would virtually be undetectable toward reducing 
deficits.
    The citizens of the United States already have a major financial 
investment in these public lands. Continued reductions of operations 
and maintenance funds will result in deterioration of these lands and 
facilities, requiring additional expenditures for restoration if 
refuges and/or their facilities are not properly maintained.
    To some degree, the USFWS has weathered recent budget shortfalls 
better than some agencies as a result of their tradition of strong 
efforts to manage expenditures for salaries and fixed costs. Many 
positions throughout the country have remained vacant, and the agency 
has been willing to make the tough decisions required to have any hope 
of sustaining their primary mission for wildlife stewardship. However, 
those efforts can only carry them so far, and we believe that continued 
budget shortfalls will force reductions-in-force, suspension of 
critical wildlife management functions, and closing visitor service 
facilities. It is ironic that the agency may actually be penalized as a 
result of their conservative budget management.
    Bon Secour NWR presently has a staff of six personnel, although the 
Comprehensive Conservation Plan for the refuge indicates a need for 
nine personnel. Retention of these positions will be tenuous if 
sequestration and budget shortfalls continue. Moreover, we know that 
the USFWS will be reluctant to expand visitor service facilities that 
would provide direct contributions to the coastal economy until 
operational funding for the refuge system is more stable.
    Budget constraints to the fire management program are already 
creating a backlog of habitat management needs throughout the Gulf 
Coast NWR Complex. My recent inquiries about this year's progress in 
prescribed burning indicated that funds simply are not available 
support fire operations that often require long days and weekend/
holiday duty. This reduction in prescribed burning operations will 
exacerbate the backlog of habitat management needs and significantly 
increases the probability of more intense and catastrophic wildfires on 
the fire-dependent habitats along the busy I-10 corridor.
                    land and water conservation fund
    All three refuges within the Gulf Coast NWR Complex have inholdings 
that detract from the wildlife management mission of the refuges and 
interfere with habitat stewardship activities. Bon Secour NWR is 
surrounded by development, increasing pressure to assure that the lands 
within the designated boundary provide quality habitat for migratory 
birds and endangered species. Therefore, the need to complete 
acquisition from willing sellers is critical to sustaining healthy 
resources associated with coastal Alabama.
                               conclusion
    Funds for the NWRS represent an investment in the health of the 
gulf's natural resources and economy of the United States. The 
Deepwater Horizon disaster in 2010 demonstrated for all of us that our 
coastal economies are linked to the health of our coastal natural 
resources. Investing in the NWRS would sustain our Nation's long 
history of success in natural resource stewardship and help restore our 
Nation's economy.
    Thank you again for this opportunity to comment on this proposed 
appropriation.
                                 ______
                                 
         Prepared Statement of the Friends of Rachel Carson NWR
    Mr. Chairman and honorable members of the subcommittee: I am Bill 
Durkin, President of the Friends of RCNWR in Maine.
    I have been a member of the Friends of Rachel Carson NWR for the 
past 22 years. The group was founded in 1987; we are a small group of 
about 200 members. This time of the year all of the letters go out to 
Congress asking for support of the refuge. I have given numerous 
written statements over the years and we really appreciate your support 
in the past. This year, our refuge is not requesting any appropriations 
directly for Rachel Carson National Wildlife Refuge; this is a request 
for general funding of the System. I thank you all for your 
consideration.
  --We are requesting an overall funding level of $499 million in 
        fiscal year 2014 for the operations and maintenance budget of 
        the National Wildlife Refuge System, managed by the U.S. Fish 
        and Wildlife Service. All of the refuges are in dire need of 
        staffing and upkeep. Refuges provide unparalleled opportunities 
        to hunt, fish, watch wildlife and educate children about the 
        environment. An investment in the Nation's Refuge System is an 
        excellent investment in the American economy. Without increased 
        funding for refuges, wildlife conservation and public 
        recreation opportunities will be jeopardized. We fully 
        supported the President's request of $499 million for O&M for 
        the NWRS.
  --The Land and Water Conservation Fund is our Nation's premier 
        Federal program to acquire and protect lands at national parks, 
        forests, refuges, and public lands and at State parks, trails, 
        and recreational facilities. These sites across the country 
        provide the public with substantial social and economic 
        benefits including promoting healthier lifestyles through 
        recreation, protecting drinking water and watersheds, improving 
        wildfire management, and assisting the adaptation of wildlife 
        and fisheries to climate change. For all these reasons, LWCF 
        needs to be funded at the $700 million level. Created in 1965 
        and authorized at $900 million per year (more than $3 billion 
        in today's dollars), the LWCF is our most important land and 
        easement acquisition tool. The President has included 
        meaningful increases to the program in his fiscal year 2014 
        budget, and I support the administration's commitment to fully 
        funding the program in the near future. I urge a minimal 
        commitment of $300 million to the National Wildlife Refuge 
        System. This wise investment in the Land and Water Conservation 
        Fund is one that will permanently pay dividends to the American 
        people and to our great natural and historical heritage.
    The Land and Water Conservation Fund should be fully funded at $900 
million annually--the congressionally authorized level. LWCF is good 
for the economy, it is good for America's communities and their 
recreational access and it is critical for our public lands.
    The Rachel Carson National Wildlife Refuge is named in honor of one 
of the Nation's foremost and forward-thinking biologists. After 
arriving in Maine in 1946 as an aquatic biologist for the U.S. Fish and 
Wildlife Service, Rachel Carson became entranced with Maine's coastal 
habitat, leading her to write the international best seller The Sea 
Around Us. This landmark study led Rachel Carson to become an advocate 
on behalf of this Nation's vast coastal habitat and the wildlife that 
depends on it, the refuge that bears her name is dedicated to the 
permanent protection of the salt marshes and estuaries of the southern 
Maine coast. This year, we will be celebrating the 50th anniversary of 
Rachel Carson's publication of her historic book, Silent Spring.
    I again extend our appreciation to the subcommittee for its ongoing 
commitment to our National Wildlife Refuge System and respectfully 
request the Interior Appropriations Subcommittee allocate $499 million 
for the Refuge System's fiscal year 2014 Operations and Maintenance 
(O&M) budget, and fund the LWCF at the $700 million level.
    The LWCF request is constant every year, we need Congress to stand 
by their commitment that was made in 1964: stabilize the fund.
    Thank you again, Mr. Chairman, for the opportunity to present this 
testimony in support of protecting wildlife and its habitat. Enjoy your 
next walk out on a National Wildlife Refuge.
                                 ______
                                 
       Prepared Statement of the Friends of the Refuge Headwaters
    Chair and members of the subcommittee: On behalf of the Friends of 
the Refuge Headwaters (FORH), I am writing regarding the fiscal year 
2014 Interior, Environment, and Related Appropriations bill and the 
impact this bill will have on the Refuge we support: the Upper 
Mississippi River National Wildlife and Fish Refuge (Upper Miss 
Refuge). We are very proud to be part of the National Wildlife Refuge 
System and ask that you support the President's funding proposals for 
programs in the NWRS and the U.S. Fish and Wildlife Service (FWS).
    Below I will begin by briefly describing FORH, the Upper Miss 
Refuge, and use of the Refuge by 3.7 million visitors per year. With 
respect to the Upper Miss Refuge in particular, I will explain the 
importance of the following allocations:
  --$499 million for Operations and Maintenance (O&M) of the NWRS;
  --$900 million for the Land and Water Conservation Fund (LWCF) with a 
        minimal commitment of $300 million for the National Wildlife 
        Refuge System.
    I will also explain how the sequester cuts have impacted the Upper 
Miss Refuge thus far, and how the Refuge would be affected were there 
to be an additional cut of 10 percent in 2014.
    But to make clear, the National Wildlife Refuge System has endured 
several years of austere budgets, the sequester cut has made matters 
worse, and this has harmed the people who use the Upper Miss Refuge and 
the wildlife that is the reason for the Refuge System's existence. 
Additional cuts will have further harmful consequences out of 
proportion to any money saved by carrying them out.
                  the friends of the refuge headwaters
    FORH is an all-volunteer group that began in 1997. Our mission is 
to support the Refuge's goals of sustaining diverse and abundant 
wildlife as well as providing compatible recreation, education, and 
interpretation to the public. Our current activities include sponsoring 
public outings for fishing, birding, canoeing, planting trees, removing 
invasive species, surveying Refuge users, holding public events with 
expert speakers, monthly meetings, and advertising and communicating 
through print, electronic, and social media. We also seek and write 
grants to aid the Refuge and raise funds through other activities.
     the upper mississippi river national wildlife and fish refuge
    The Refuge winds through 261 miles of the Upper Mississippi River 
across four States: Minnesota, Wisconsin, Iowa, and Illinois. It 
comprises 240,000 acres of bottomland forests, wooded islands, marshes, 
backwaters, and upland prairies. It has more than 300 species of birds, 
more than 100 species of fish, and more than 50 species of mammals, as 
well as 250 bald eagle nests and 5,000 heron and egret nests. The 
Refuge is part of one of the four major waterfowl migration flyways in 
the United States, where birds must find reliable food, water, and 
resting places: during fall migration you can find hundreds of 
thousands of waterfowl using the Refuge on a single day.
    But the Upper Miss Refuge is not just for wildlife. It's also a 
paradise for people. Minnesota is known as the land of 10,000 lakes and 
there are just as many lakes in Wisconsin, but not the part of 
Minnesota and Wisconsin where I live. We live in the land of the land 
of the Mississippi River, and thankfully, the land of the Upper 
Mississippi National Wildlife and Fish Refuge.
                  public use of the upper miss refuge
    So I will now describe for you how much people use this Refuge and 
how deeply they care about it. That's not hard for me to do, because 
I'm one of them. I'm out on the Refuge a lot and for many reasons. I 
fish year-round, from my boat, shore, or ice, and in the fall I hunt on 
the Refuge. You'll find my wife and me on backwaters or pools in our 
canoe or kayaks, sometimes with friends, exploring and observing 
wildlife. We take walks through the bottomland forest or upland 
prairie, on trails, on ice-covered channels in the winter, or on 
levees. We walk or drive to observation platforms to watch birds. We 
often join with friends to take one or more boats to an island shore 
for a picnic. On a warm summer day we may swim at the riverside bathing 
beach directly across the river from Winona.
    People like us make 3.7 million visits per year to the Refuge to 
hunt, fish, watch wildlife, boat, canoe, camp, or just walk. That's 
because the Refuge is not put away behind a fence or distant from the 
cities that dot the river. It's our backyard. That's why it's so 
heavily used by families, schools, colleges, youth groups such as Boy 
Scouts and Girl Scouts, and many others. If you drive through my town--
Winona, Minnesota--or through other towns and cities along the river, 
you'll see boats on trailers parked in side-yards, driveways, and often 
on the street. They're fishing boats with rod holders and trolling 
motors, pleasure boats with picnic and swimming gear, or hunting boats 
painted camo and surrounded by a cattail fence, or airboats used by 
trappers. Inside our garages, in the backyard, or on the side of the 
house you'll find canoes and kayaks.
    Any week of the year that you go out into the Refuge, you'll find 
people: a couple of dozen anglers in boats and on shore at a pool below 
a dam (the Refuge receives more than 1 million visits annually for 
fishing), a group of boats pulled up on the sandy beach of an island to 
swim and picnic on a summer day (more than 1.3 million visits for such 
activities), bunches of duck hunters heading out from landings on a 
fall morning (300,000 waterfowl hunters), or birdwatchers lining the 
sides of an observation platform (300,000 visit to observe wildlife or 
for education). And they're not just in the easy-to-reach places. 
You've canoed far back into a remote maze of islands, pulled your ice-
fishing sled as far down a channel as you can stand, or stalked through 
the forest with your gun until you may be lost. And you think you're 
alone. Around the corner comes another person, maybe doing the same 
thing you are, but just as likely there for another reason. But they 
wouldn't be there if the Refuge was not.
         the austerity in which the upper miss refuge operates
    The Refuge is understaffed for many positions and has been for 
years. For example, four law enforcement officers patrol 261 miles of 
river and 240,000 acres over four States with over 3.7 million 
visitors. That is an impossible task. Not only is that level of 
enforcement inadequate for the safety and protection of visitors and 
wildlife, but it is a threat to the officers themselves. The officers 
patrol alone and are often far from other enforcement agencies. Imagine 
how it feels to cruise toward an isolated island beach at night to 
confront 100 intoxicated people--and you're alone. For another example, 
two Rangers and four Visitor Services Coordinators plan and carry out 
activities with thousands of visitors and must often simply say no to 
requests for programs from schools, youth groups, and many others.
    Other key positions are simply vacant. The Refuge has 51,000 acres 
of floodplain forest but no forester, getting guidance instead from the 
Corps of Engineers forester. Yet those same forests are declining due 
to invasive insects, plants, and trees such the Emerald Ash Tree Borer 
beetle, Buckthorn shrub, Oriental Bittersweet vine, and Black Locust 
tree. There is likewise no Fisheries Biologist, a position that 
provides a crucial link to States. Thus the Refuge has little or no say 
in fish management, fishing tournaments, commercial fishing, fishing 
seasons, fishing methods, or even catch limits, though fishing is an 
extremely popular activity on the Refuge and has large impacts on it.
    In other cases lack of funding means the Refuge cannot carry out 
its obligations. Currently the Refuge has authorized more than $2 
million for land acquisition through the LWCF and has land acquisitions 
waiting for appraisals, signed purchase agreements, or final closing to 
fulfill its obligations for these funds. Even in the face of a looming 
threat such as invasive Asian Carp, which have caused severe harm to 
native fish populations and injuries to boaters in areas where they 
have proliferated, the Refuge staff has too little money to take more 
than token action. In sum, the Refuge cannot carry out its own goals 
and this underscores the need to increase the Operations and 
Maintenance Budget.
      consequences of the sequester cuts for the upper miss refuge
    The sequester cuts are affecting all work on the Refuge, whether 
it's maintenance, biology, inventory, habitat management, visitor 
services, enforcement, or other. In each area, less is being done. I 
will give three specific examples. First, seasonal hiring for summer 
field work has been reduced by three-fourths. Much fieldwork is not 
being done, including control of invasive plants and controlled burns 
to improve or restore habitat and lower fire danger. Also, most of 
these seasonal employees are young people and now veterans acquiring 
experience and skills for future employment. Second, because comp time 
has been eliminated, the Refuge has reduced its outreach programs for 
the general public during weekends and evenings. The result is less 
education, interpretation, and recreation for children and adults, 
fewer contacts between Refuge staff and volunteers and local citizens, 
and a decrease in tourists who support local economies. Third, sharp 
restrictions on overnight travel have meant that Refuge staff are 
foregoing some types of training or not taking part in regional or 
national gatherings where they share their research findings or 
techniques. Both mean that Refuge staff are less able to carry out 
their jobs.
consequences of a 10 percent budget reduction for the upper miss refuge
    The Refuge is already understaffed and working with an austere 
budget. To carry out a further cut of 10 percent, the Refuge would 
eliminate special hunts for the disabled, youth, and others requiring 
special accommodations. All weekend environmental education and 
interpretation programs would be eliminated. Visitor centers would not 
provide weekend or evening hours for the public. In addition, there 
would be reductions in environmental education programs for schools, 
weekend outreach/interpretation programs regarding fish and wildlife 
and other refuge programs, restoration projects with State and other 
Federal agencies, oversight of trust species (bald eagle, endangered 
species), and law enforcement including search and rescue operations, 
drug enforcement and accident investigations, hunting and fishing 
contacts, refuge trespassing, and habitat destruction. Clearly, these 
actions will have harmful consequences for wildlife and for the people 
who use the Refuge, and they can be avoided.
               economic benefits of the upper miss refuge
    The authors of an economic study that is now 9 years old \1\ found 
that the Refuge generated more than $19 million annually in 
expenditures and economic value, $98 million in economic output, 1,266 
jobs with an income of $21.4 million, and Federal, State, and local 
taxes of $10.4 million. Given the importance of Refuge to the economies 
in four States and in the lives of the several million people who use 
it, the budgets for the two refuges is remarkably small. So funding of 
the Refuge has huge leverage. That's one of the reasons why reducing 
the budget will have such large negative consequences and increasing 
the budget would have similarly large positive consequences.
---------------------------------------------------------------------------
    \1\ Caudill, J. 2004a. The Economic Effects of the Upper 
Mississippi River National Wildlife and Fish Refuge: Baseline and 
Effects of Alternatives. U.S. Fish and Wildlife Service, Arlington, 
Virginia. 32 pp.
---------------------------------------------------------------------------
               public commitment to the upper miss refuge
    The people who use it have strong feelings about the Upper Miss 
Refuge. We truly care, because it's a big part of our lives. That 
Refuge is part of our regional heritage, just as the National Wildlife 
Refuge System is part of our national heritage. We also have strong 
expectations for it. We want it taken care of so that it's there not 
just for us, but also for our children and grandchildren and beyond. 
When people in this region learned last month that all three species of 
Asian carp had been caught in the river in one day by commercial 
fishermen, we were scared, depressed, and to be honest, angry. Because 
those fish threaten the Refuge that we care about so much, we saw that 
threat coming years ago, and there was a failure to address it.
    We're also willing to pay for management of the Refuge. In 2008, by 
statewide referendum, Minnesotans voted by a large margin to increase 
our sales tax by three-eights of 1 percent for three decades. 80 
percent of the new revenues are dedicated to protecting, restoring, and 
improving wildlife habitat, surface waters and ground water, and parks 
and trails. Iowans passed a similar amendment in 2010, but are waiting 
on their Legislature to put their wishes into action. I'm confident the 
voters of Wisconsin would do the same if they had the opportunity, as 
would the voters of many other States. We Americans care deeply about 
our lands, waters, and wildlife. Doing so is a proud part of our 
history, as evidenced by more than a century of commitment to our 
National Wildlife Refuge System. We ask that you carry on this 
tradition.
                                 ______
                                 
  Prepared Statement of the Friends of the Rappahannock River Valley 
                        National Wildlife Refuge
    The Rappahannock River Valley National Wildlife Refuge (Refuge) has 
been affected primarily in three ways by recent budget cuts as well as 
sequestration. The first is in personnel. Management is not able to 
hire a full-time summer person that they usually put on the staff to 
help with the heavy summer maintenance and public use load. Also, all 
staff overtime has been cut so many of the weekend and after hours 
public events are being curtailed.
    The staff cannot reorder basic supplies such as important brochures 
and maps that are given to the public. In addition, every requisition 
no matter how small requires a series of extra signatures that were not 
required in the past. This has the effect of bottlenecking all 
purchases and repairs so important machinery often stays inoperable for 
a long period of time which increases the maintenance work necessary to 
catch up with things such as mowing and more importantly, getting rid 
of invasive plant species.
    Also, projects that require help from other branches of the Fish 
and Wildlife Service such as archeological surveys cannot be completed 
because travel expenses have been eliminated.
    Further budget cuts would add to the difficulty. A 10 percent 
budget cut would devastate our refuge because they are already spread 
thin with only 6 staff members covering more than 15 tracts. In order 
to achieve a 10 percent cut, personnel would have to be cut since they 
are not spending money on anything else that is unnecessary. This is a 
refuge that is growing in public recognition and the visitor count is 
increasing every year. There is no visitor staff member on this refuge 
so a cut would be even more devastating to this growing refuge.
                                 ______
                                 
 Prepared Statement of the Fire Suppression Funding Solutions Partner 
                                 Caucus
    As the Interior Appropriations Subcommittee considers the fiscal 
year 2014 budget for the USDA Forest Service (USFS) and the Department 
of the Interior (DOI), we the undersigned representing the Fire 
Suppression Funding Solutions Partner Caucus request your support to:
  --Fully fund the FLAME accounts created for the USFS and DOI as 
        intended in the Federal Land Assistance, Management and 
        Enhancement Act (FLAME Act) separately from and above the 10-
        year average used to fund annual wildfire suppression;
  --Ensure that any remaining balance in the FLAME accounts at the end 
        of fiscal year 2013 carry over into fiscal year 2014; and
  --Fully fund annual suppression using the 10-year average along with 
        more predictive modeling based on current weather conditions, 
        fuel loads and other data that contribute to wildfire risk.
    The Partner Caucus is a diverse coalition of organizations brought 
together in January 2009 to find a solution to the impacts of 
increasing suppression costs on USFS programs. Our coalition includes 
national and local environmental organizations, State forestry, 
conservationists, outdoor and recreation industry, hunter/angler, 
timber industry, local governments and many other groups interested in 
Federal lands. Since annual wildfire suppression did not provide enough 
funding to avoid transferring funds from other agency programs, the 
solution developed in the 111th Congress was intended to change the 
funding mechanism for wildfire suppression by establishing two 
emergency wildfire accounts funded above annual suppression. In October 
2009, the FLAME Act was signed into law with overwhelming bipartisan 
support from the House and Senate and should have represented an 
important change in the funding mechanism for wildfire suppression.
    One of the cornerstones of the FLAME Act was the establishment of 
two FLAME accounts, one each for USFS and DOI. In passing the FLAME 
Act, Congress intended to fully fund the USFS and DOI's suppression 
needs, while avoiding the need to transfer monies from other agency 
programs to fund emergency wildfire suppression expenses. Annual 
suppression was to be calculated using an improved predictive modeling 
that included the 10-year average and other indicators. The FLAME 
accounts were to be funded at levels beyond annual suppression and not 
at the expense of other agency programs. Additionally, any balances 
remaining in the FLAME accounts were to carry over into future years.
                            fiscal year 2012
    Unfortunately, several factors led to the administration 
transferring funds from agency non-suppression programs to fund 
emergency wildfire suppression in fiscal year 2012. Carry over levels 
in the FLAME accounts were rescinded in fiscal year 2012, suppression 
was funded below the 10-year average, and the fire season was very 
costly, particularly at the end of the fiscal year.
    These factors led to the transfer of $440 million from USFS 
programs and $23 million from DOI programs at the end of fiscal year 
2012. These transfers were restored in the first fiscal year 2013 
continuing resolution. However, the transfers have had long lasting 
effects on the USFS' and DOI's implementation of impacted programs that 
continue to this day.
                            fiscal year 2013
    In the latest administration's FLAME Forecast Report \1\, 
predictions indicate another costly fire season in fiscal year 2013, 
with median forecasts for suppression costs at levels of $985 million 
for USFS and $281 million for DOI. The fiscal year 2013 funding 
estimates for suppression and FLAME combined amount to $852 million for 
USFS and $369 million for DOI (not including sequester cuts). These 
findings, particularly for the USFS, strongly indicate another year of 
transferring funds from and disrupting agency programs, including the 
forest management programs that would help to reduce wildfire 
suppression costs.
---------------------------------------------------------------------------
    \1\ Federal Land Assistance, Management and Enhancement (FLAME) Act 
Suppression Expenditures for Interior and Agriculture Agencies: March 
2013 Forecasts for Fiscal Year 2013. February 7, 2013.
---------------------------------------------------------------------------
                            fiscal year 2014
    The President's fiscal year 2014 budget proposes the full 10-year 
average, adjusted for inflation, at levels of $996 million \2\ for USFS 
and $378 million \3\ for DOI, which is then split between suppression 
and FLAME. The USFS budget proposes $681 million for suppression and 
$315 million for the USFS FLAME account. The DOI budget proposes $286 
million for suppression and $92 million for the DOI FLAME account. 
These levels are adjusted for inflation.
---------------------------------------------------------------------------
    \2\ Fiscal Year 2014 USDA Forest Service Budget Justification.
    \3\ Fiscal Year 2014 Interior Budget in Brief--Department-wide 
Programs.

                          [Dollars in millions]
------------------------------------------------------------------------
                                                Fiscal year 2014--
                                         -------------------------------
                                               USFS             DOI
------------------------------------------------------------------------
Suppression.............................            $681            $286
FLAME...................................             315              92
------------------------------------------------------------------------
Suppression and FLAME combined amount to the inflation adjusted 10-year
  average level.

    We recommend the USFS and DOI FLAME accounts be funded separately 
from the 10-year suppression levels in order to avoid transfers in 
fiscal year 2014. Additionally, any remaining balance in the FLAME 
accounts at the end of fiscal year 2013 is carried over into fiscal 
year 2014. Finally, annual suppression levels should be funded using 
the 10-year average, along with any added factors that may improve 
predictive modeling, including current weather conditions, fuel loads 
and other data that contribute to wildland fire risk.
    Congress undertook crafting the FLAME Act as a result of a critical 
examination of wildfire suppression funding and the importance of 
addressing impacts to agency programs. We request that you reaffirm the 
commitment to address this important problem and look forward to 
working with you to ensure wildfire suppression and FLAME accounts are 
funded in a way that reduces impacts to the agency programs that our 
organizations support.

Alliance for Community Trees
Amador Fire Safe Council
Amador-Calaveras Consensus Group
American Forests
American Forest Foundation
American Forest Resource Council
American Hiking Society
Appalachian Mountain Club
Applegate Partnership and Watershed Council
Association of Consulting Foresters
Association of Fish & Wildlife Agencies
Black Hills Forest Resource Association
Black Hills Regional Multiple Use Coalition
Blackfoot Challenge
Blue Mountain Forest Partners
California Fire Safe Council
California Forestry Association
California Ski Industry Association
Central Oregon Intergovernmental Council
Choose Outdoors
Clearwater Resource Council
Colorado Forestry Association
Colorado Timber Industry Association
Conservation Northwest
Criley Consulting
Dahl Environmental Services, LLC
Entrepreneurship Northwest
Firefighters United for Safety, Ethics and Ecology (FUSEE)
Foothill Conservancy
Forest Business Network
Forest Energy Corp
Forest Guild--Framing Our Community
Gifford Pinchot Task Force
Grand Canyon Trust
Great Old Broads for Wilderness
Greenpeace
Idaho Conservation League
Idaho Forest Restoration Partnership
Indiana Forestry & Woodland Owners Association
Institute for Culture and Ecology
Intermountain Forest Association
International Association of Fire Chiefs
International Association of Wildland Fire
International Code Council
Large Tree Farm
Mainland Planning, Inc.
Malheur Lumber Company
Mid Klamath Watershed Council
Montana Wilderness Association
Mt. Adams Resource Stewards
Mt. Taylor Machine, LLC
National Association of Conservation Districts
National Association of Forest Service Retirees
National Association of State Foresters
National Alliance of Forest Owners
National Association of University Forest Resources Programs
National Cattlemen's Beef Association
National Network of Forest Practitioners
National Ski Areas Association
National Volunteer Fire Council
National Wildfire Institute
National Wild Turkey Federation
National Woodland Owners Association
New Mexico Council of Trout Unlimited
New Mexico Forest Industry Association
Northwest Forest Worker Center
Outdoor Alliance
Ozark Woodlands Owners Association
Pinchot Institute
Public Lands Council
Quail & Upland Wildlife Federation
Rocky Mountain Elk Foundation
Ruffed Grouse Society
Salmon Valley Stewardship
Sierra Club
Siuslaw Institute
Society of American Foresters
Southern Oregon Forest Restoration Collaborative
Southern Oregon Timber Industries Association
Southwestern Idaho Woody Utilization Partnership
Spatial Interest, LLC
Sustainable Northwest
Swan Ecosystem Center
The Wilderness Society
The Wildlife Society
Trout Unlimited
University of the South
Vermont Woodlands Association
Watershed Research & Training Center
Western Environmental Law Center
Wildlands CPR
Wisconsin Woodland Owners Association Inc.
Woody Biomass Utilization Partnership
                                 ______
                                 
   Prepared Statement of Friends of the Tampa Bay National Wildlife 
                             Refuges, Inc.
    Mr. Chairman and members of the subcommittee: On behalf of the 163 
members of the Friends of the Tampa Bay National Wildlife Refuges, 
including Egmont Key National Wildlife Refuge (NWR), Passage Key NWR, 
and Pinellas NWR, I would like to thank you for your commitment to the 
National Wildlife Refuge System (NWRS). We realize that in this time of 
budget cuts, it may be difficult to justify increasing the NWRS 
funding, but once the refuges start to decline it will cost many times 
more than these small increases to return them to a condition that will 
fulfill their mandates. We respectfully request that you consider the 
following in your appropriations:
  --Fund the National Wildlife Refuge System at $499 million in fiscal 
        year 2014.
  --Fund the Land and Water Conservation Fund (LWCF) at $900 million 
        for fiscal year 2014, including a minimal commitment of $300 
        million for the National Wildlife Refuge System.
    The Cooperative Alliance for Refuge Enhancement (CARE) estimates 
that the NWRS needs a budget of at least $900 million annually in 
operation and maintenance funding in order to properly administer its 
150 million acres as mandated in the Refuge Improvement Act. The 
current budget is far short of the amount actually required to 
effectively operate and maintain the refuges. In this time of 
tightening budgets, we respectfully request that you increase the NWRS 
budget to $499 million so that the refuges do not backslide even 
further in protecting these valuable lands and ecosystems.
    The Land and Water Conservation Fund was created in 1965 and 
authorized at $900 million. We ask that you fund the LWCF at $900 
million for fiscal year 2014 with a minimal commitment of $300 million 
to the National Wildlife Refuge System. These funds are used for land 
acquisition as well as less expensive easements or leases to protect 
wildlife and their habitats. With the effects of a changing climate, it 
is more important now than ever to establish key wildlife corridors 
between protected areas so wildlife can migrate to more suitable 
habitat as their historic ones change. These landscape level 
conservation efforts through conservation easements and land purchases 
are the best way to protect the diversity of flora and fauna. The price 
of real estate is low at this time and the $900 million can go much 
further in protecting habitats than it can in a higher market. When we 
start to lose species due to lack of food, water, shelter, or space, we 
are changing the balance of nature. We urge you to fund the LWCF at 
$900 million for fiscal year 2014. The LWCF is not funded by taxpayer 
money.
    The Tampa Bay Refuges are located at the mouth of Tampa Bay on the 
west central gulf coast of Florida. The budget increases a few years 
ago meant increased management, protection, and restoration of the 
refuges and the ability to better meet the Comprehensive Conservation 
Plan (CCP) goals. The wildlife on the refuges has done well with the 
extra help. Due to those past increases in budget and personnel the 
TBRs were able to plan for big picture issues such as erosion and 
increased public use. Unfortunately, due to the sequestration and 
budget cuts, much of that planning will not be implemented.
    The recent budget decrease and sequestration has hurt our refuges.
  --The refuge law enforcement (LE) officers will not be able to patrol 
        Egmont Key as often during the key summer nesting season due to 
        restrictions in travel and overtime in a shrinking budget. This 
        leaves the nesting birds open to more intrusions by refuge 
        visitors and nesting failures.
  --It is very difficult to purchase equipment for the LE for emergency 
        response and public safety due to budget cuts.
  --If a staff member leaves, he/she may not be replaced so the refuge 
        can stay afloat financially for the rest of this fiscal year 
        because of the sequestration. We have already lost a 
        maintenance position to keep the equipment, including the boats 
        used to access the island refuges, in good working order.
  --The refuge was able to eradicate exotic plants and predators on the 
        refuges, but with budget decreases and sequestration, there is 
        little or no money to monitor and keep up with the work that 
        has already been done. The result will be degraded habitat for 
        the refuges and their wildlife, including nesting failures.
  --Fire management budgets have been cut and prescribed fires have not 
        been conducted on Egmont Key as needed. This opens the island, 
        its historic buildings, and visitor center up to a much higher 
        catastrophic wildfire risk.
  --Simple things like purchasing a GPS for the boat to safely exit a 
        channel cannot be purchased. The longer, safer route, if you 
        don't have a GPS, reduces the amount of time staff can dedicate 
        to refuge management since there is no overtime. Other things 
        such as the contract for dry storage for the refuge boat, which 
        includes launching so the boat is ready when staff arrives, is 
        also being cut. This too wastes trained staff's valuable time 
        to tow, launch, and ready a boat before getting to the actual 
        tasks that matter to the refuge.
  --The Fort Dade Guardhouse on Egmont Key NWR has been restored and 
        will become the visitor center. The refuge has grant money to 
        fund the first phase of the displays, but with the 
        sequestration and budget cuts staff may not have time to 
        oversee construction of the center displays or to keep the 
        center open to the public.
    These are just a few of the things impacting the Tampa Bay refuges. 
Bottom line, funding cuts hurt the wildlife that the NWRS is mandated 
to protect. The refuge system has a very small budget compared to the 
whole Federal budget. It is not a big impact to the Federal budget to 
give the refuges a little more funding whereas the impact of reduced 
funding is devastating. Please consider funding $499 million for the 
fiscal year 2014 Operations and Management budget.
    The Friends of the Tampa Bay National Wildlife Refuges (FTBNWR) was 
incorporated and became a 501c3 in 2008 to better assist the Tampa Bay 
National Wildlife Refuges with volunteers and fundraising. In 2012 
FTBNWR was able to provide over 2,000 volunteer hours to assist the 
refuge staff with exotic invasive control, refuge cleanups, and 
education. FTBNWR has been able to raise funds to remove invasive 
animals on the Pinellas Refuges that prevented birds from nesting and 
ate the eggs laid by the Terrapin turtles that reside there. The 
Friends also started an Education Program to provide outdoor 
environmental educational programs at our local schools for grades K-5 
and also environmental field trips to nearby preserves to teach our 
fourth and fifth graders about the NWRS and the environment. Volunteers 
act as bird stewards on Egmont Key NWR during the summer nesting season 
to enhance the visitors' experience on the refuge through education. 
Our refuges do not have enough staff to provide these education 
programs so we have filled that gap as volunteers. Our volunteers are 
passionate about the refuge system and donate their time, money, and 
expertise to protect it.
    The Friends of the Tampa Bay National Wildlife Refuges is one of 
over 230 Friends groups who support the National Wildlife Refuges. The 
interest in our National Wildlife Refuge System is significant and we 
are proving it with our donated time and funds.
    In conclusion, the Friends of the Tampa Bay National Wildlife 
Refuges believe the National Wildlife Refuge System can meet its 
conservation objectives only with strong and consistent funding 
leveraged by the work of refuge staff and volunteers. We again extend 
our appreciation to the subcommittee for its ongoing commitment to our 
National Wildlife Refuge System. We encourage you to approve $499 
million for the fiscal year 2014 National Wildlife Refuge System 
Operations and Maintenance budget managed by FWS and to approve $900 
million for fiscal year 2014 for the LWCF land acquisition budget as 
well as a dedicated $300 million for Fish and Wildlife.
                                 ______
                                 
Prepared Statement of the Great Lakes Indian Fish & Wildlife Commission
    BIA Rights Protection Implementation: $36,722,000. Great Lakes Area 
Resource Management: $7,067,000 (administration's proposed allocation).
    Agency/Program Line Item.--Department of the Interior, Bureau of 
    Indian Affairs, Operation of Indian Programs, Trust--Natural 
    Resources Management, Rights Protection Implementation, Great Lakes 
    Area Resource Management.
    Funding Authorizations.--Snyder Act, 25 U.S.C. Sec. 13; Indian 
    Self-Determination and Education Assistance Act, (Public Law 93-
    638), 25 U.S.C. Sec. Sec. 450f and 450h; and the treaties between 
    the United States and GLIFWC's member Ojibwe Tribes.\1\
---------------------------------------------------------------------------
    \1\ Specifically, the Treaty of 1836, 7 Stat. 491, Treaty of 1837, 
7 Stat. 536, Treaty of 1842, 7 Stat. 591, and Treaty of 1854, 10 Stat. 
1109. The rights guaranteed by these treaties, and the associated 
tribal regulatory and management responsibilities have been affirmed by 
various court decisions, including a 1999 U.S. Supreme Court case.
---------------------------------------------------------------------------
    BIA Contract Support: At least the $231,000,000 amount requested by 
the administration, provided this amount meets the full contract 
support funding required by the Indian Self-Determination and Education 
Assistance Act.
    Agency/Program Line Item.--Department of the Interior, Bureau of 
    Indian Affairs, Operation of Indian Programs, Tribal Government.
    Funding Authorization.--Indian Self-Determination and Education 
    Assistance Act, (Public Law 93-638), 25 U.S.C. Sec. Sec. 450f and 
    450h.
    EPA Great Lakes Restoration: $300,000,000. Tribal need: 
$25,000,000. GLIFWC need: $1,200,000 (estimated annual need).
    Agency/Program Line Item.--Environmental Protection Agency, 
    Environmental Programs and Management, Geographic Programs, Great 
    Lakes Restoration.
    Funding Authorizations.--Clean Water Act, 33 U.S.C. Sec. 1268(c); 
    and treaties cited above.
   great lakes indian fish and wildlife commission's goal--a secure 
                funding base to fulfill treaty purposes
    For nearly 30 years, Congress has funded GLIFWC to meet non-
discretionary treaty obligations and to comply with associated Federal 
court orders. GLIFWC implements comprehensive conservation, natural 
resource protection, and law enforcement programs that ensure member 
tribes are able to exercise their treaty reserved rights to hunt, fish, 
and gather throughout the ceded territories, and that ensure a healthy 
and sustainable natural resource base to support those rights. These 
programs also provide a wide range of public benefits and assure full 
participation in management partnerships in Wisconsin, Michigan, and 
Minnesota.
    GLIFWC and its member tribes appreciate the administration's and 
Congress's strong support of these treaty obligations for the past 30 
years and for their continuing recognition of the hard work undertaken 
to implement the RPI program. Despite an increase in support for treaty 
rights protection in fiscal year 2012, GLIFWC's fiscal year 2012 
funding, leveraged with other funding sources, still results in unmet 
needs of $2,636,000. Funding at the proposed fiscal year 2014 level 
would begin to address these unmet needs. For more detail, the three 
elements of this fiscal year 2014 funding request are:
    BIA Great Lakes Area Management: $7,067,000.--This program falls 
within the Rights Protection Implementation (RPI) line item, which the 
administration proposed at $36,722,000 for fiscal year 2014. Funds 
provided to GLIFWC under the RPI program ensure that GLIFWC's member 
tribes continue to comply with Federal court orders by ensuring 
effective implementation of tribal self-regulatory and co-management 
systems.
    In previous fiscal years, GLIFWC and other Treaty Commissions 
testified about chronic underfunding of the Rights Protection 
Implementation line item and the impacts of that underfunding on 
GLIFWC's programs. The increases in the Great Lakes Area Resource 
Management line item in fiscal year 2010 allowed the Commissions to 
restore some program cuts that had resulted from previous funding 
shortfalls. Sequestration will undo many of these restorations. For 
example, for GLIFWC, sequestration threatens its long-standing fish 
contaminant and consumption advisory program, fall juvenile walleye 
recruitment surveys, tribal court and registration station funding, and 
Lake Superior lamprey control and whitefish assessment programs. Any of 
these cuts will have a greater impact now, when demand for GLIFWC's 
services across the ceded territories is increasing as more tribal 
members are exercising their rights to put food on their tables during 
difficult economic times. Funding at the proposed fiscal year 2014 
level would protect GLIFWC programs from these cuts.
    BIA Contract Support.--At least $231,000,000, consistent with the 
Indian Self-Determination and Education Assistance Act's requirement 
for full contract support funding. GLIFWC does not support the 
administration's proposal to institute individual statutory caps, in 
part because there is no funding to cover any shortfalls without 
undermining service capacity.
    EPA Environmental Programs and Management: $300 million.--GLIFWC 
supports continued funding for the Great Lakes Restoration Initiative 
(GLRI) at the administration's proposed fiscal year 2014 level of $300 
million. It also recommends that at least $25 million be provided to 
the BIA for tribes, to ensure they are able to undertake local projects 
that contribute to the protection and restoration of the Great Lakes.
    Sustained funding for GLIFWC at approximately $1.2 million will 
enable GLIFWC to maintain its protection and enhancement activities 
throughout the ceded territories. These activities are especially 
important at a time when State and Federal agencies are stepping back 
from on-the-ground protection work due to budget constraints. 
Protection activities are imperative--protecting resources from 
degradation is much more effective and cost efficient than restoration 
activities. It makes no sense to let resources degrade, only to spend 
more money on restoration. The benefits of GLIFWC protection and 
restoration activities are not only felt by its member tribes, but 
benefit all communities that use the ceded territories.
    Funding provided through the BIA should be made available under the 
Indian Self-Determination and Education Assistance Act (ISDEAA). In 
2010, GLRI funding awarded through the ISDEAA was virtually the only 
GLRI funding that was available before the 2010 field season. This 
enabled tribes to begin project implementation much earlier and realize 
substantial ``on-the-ground'' ecosystem benefits early.
  ceded territory treaty rights--great lakes indian fish and wildlife 
                     commission's role and programs
    Established in 1984, GLIFWC is a natural resources management 
agency of 11 member Ojibwe tribes with resource management 
responsibilities over their ceded territory (off-reservation) hunting, 
fishing and gathering treaty rights. These ceded territories extend 
more than a 60,000 square mile area that extends to Minnesota, 
Wisconsin, and Michigan.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Through its staff of 66 full-time biologists, scientists, 
technicians, conservation enforcement officers, policy specialists, and 
public information specialists, GLIFWC's mission is to: ensure that its 
member tribes are able to exercise their Treaty-protected rights to 
meet subsistence, economic, cultural, medicinal, and spiritual needs; 
and ensure a healthy, sustainable natural resource base to support 
those rights. GLIFWC is a ``tribal organization'' as defined by the 
Indian Self-Determination and Education Assistance Act, governed by a 
Constitution that is ratified by its member tribes and by a Board 
composed of the Chairs of those tribes.
              justification and use of the requested funds
    Maintain the Requisite Capabilities To Meet Legal Obligations, To 
Conserve Natural Resources and To Regulate Treaty Harvests.--Although 
it does not meet all GLIFWC's needs, sustained funding at the fiscal 
year 2014 level would go a long way in facilitating continued tribal 
compliance with various court decrees and intergovernmental agreements 
governing the tribes' treaty-reserved hunting, fishing and gathering 
rights. It also enhances GLIFWC's capability to undertake work and 
participate in relevant partnerships to tackle ecosystem threats that 
harm treaty natural resources, including invasive species, habitat 
degradation and climate change.
    Remain a Trusted Environmental Management Partner and Scientific 
Contributor in the Great Lakes Region.--GLIFWC would maintain its role 
as a trusted environmental management partner and scientific 
contributor in the Great Lakes Region. It would bring a tribal 
perspective to the interjurisdictional mix of Great Lakes managers \2\ 
and would use its scientific expertise to study issues and geographic 
areas that are important to its member Tribes but that others may not 
be examining.\3\
---------------------------------------------------------------------------
    \2\ GLIFWC currently participates on a regular basis in the 
Binational Program to Restore and Protect Lake Superior, International 
Joint Commission and SOLEC forums, the Great Lakes Restoration 
Initiative, and the implementation of agreements to regulate water 
diversions and withdrawals under the Great Lakes Charter, Annex 2001.
    \3\ With the requested fiscal year 2014 funds, GLIFWC would: 
continue a ceded territory wild rice enhancement project; facilitate 
tribal input and participation in the implementation of the revised 
Great Lakes Water Quality Agreement; continue to participate in the 
development and implementation of the Lake Superior Lakewide Management 
Plan; build upon its long-standing fish contaminant analysis and 
consumption advisory program by testing additional species, testing in 
a wider geographic range, and testing for chemicals of emerging 
concern; enhance its invasive species and animal disease prevention, 
monitoring and mitigation programs, particularly given the potential 
impacts of climate change, the recent discovery of viral hemorrhagic 
septicemia (VHS) in Lake Superior and the potential migration of the 
Asian Carp into the Great Lakes; and enhance its capacity to protect 
ceded territory natural resources by responding to development 
proposals such as those related to mining.
---------------------------------------------------------------------------
    Maintain the Overall Public Benefits That Derive From Its 
Programs.--Over the years, GLIFWC has become a recognized and valued 
partner in natural resource management. Because of its institutional 
experience and staff expertise, GLIFWC has built and maintained 
numerous partnerships that: provide accurate information and data to 
counter social misconceptions about tribal treaty harvests and the 
status of ceded territory natural resources; maximize each partner's 
financial resources and avoid duplication of effort and costs; engender 
cooperation rather than competition; and undertake projects that 
achieve public benefits that no one partner could accomplish alone, as 
the Department of the Interior highlighted in its Fiscal Year 2014 
Budget in Brief.\4\
---------------------------------------------------------------------------
    \4\ The Fiscal Year 2014 Budget in Brief highlights GLIFWC's wild 
rice restoration and management activities, done in partnership with 
the States of Wisconsin, Minnesota, and Michigan, as well as GLIFWC's 
participation in joint fisheries management on Lake Superior. See pages 
DH-84 and DH-85.
---------------------------------------------------------------------------
                 other related appropriations concerns
    Rights Protection Litigation Support.--Litigation support funds are 
used to defray costs associated with litigation to affirm and implement 
treaty reserved rights. Defraying these costs, such as those associated 
with ongoing negotiations with States in ongoing co-management 
activities preserves base funding for GLIFWC's program costs.
    Rights Protection Evaluation and Research Activities.--GLIFWC 
supports the administration's proposed $3.5 million for evaluation and 
research activities in the Rights Protection Implementation line item, 
provided this funding goes to RPI tribes and intertribal commissions to 
carry out the evaluation and research activities that will lead to the 
development of implementation and management strategies to deal with 
the many changes that are occurring throughout the ceded territories.
                                 ______
                                 
        Prepared Statement of the Geological Society of America
    Summary.--The Geological Society of America (GSA) urges Congress to 
at least restore the fiscal year 2012 appropriation for the U.S. 
Geological Survey (USGS) in fiscal year 2014 and support as many of the 
proposed increases in the administration's request as possible. As one 
of our Nation's key science agencies, the USGS plays a vital role in 
understanding and documenting mineral and energy resources that 
underpin economic growth worldwide; researching and monitoring 
potential natural hazards that can undermine United States and 
international security; and determining and assessing water 
availability and quality necessary for society. Despite the critical 
role played by the USGS, funding for the Survey has stagnated in real 
dollars for more than a decade. The cuts from sequestration in an 
agency already operating in a constrained environment are decreasing 
this agency's ability to monitor and assess resources upon which our 
society depends. Given the importance of the many activities of the 
Survey that protect lives and property from natural hazards, stimulate 
innovations that fuel the economy, provide national security, and 
enhance the quality of life, the Geological Society of America believes 
sustained, steady growth in Federal funding for the Survey is necessary 
for the well being of our Nation.
    The Geological Society of America, founded in 1888, is a scientific 
society with more than 25,000 members from academia, government, and 
industry in all 50 States and more than 90 countries. Through its 
meetings, publications, and programs, GSA advances the geosciences, 
enhances the professional growth of its members, and promotes the 
geosciences in the service of humankind. GSA encourages cooperative 
research among earth, life, planetary, and social scientists, fosters 
public dialogue on geoscience issues, and supports all levels of earth 
science education.
u.s. geological survey contributions to national security, health, and 
                                welfare
    The USGS is one of the Nation's premier science agencies. 
Approximately 70 percent of the USGS budget is allocated for research 
and development. In addition to underpinning the science activities of 
the Department of the Interior, this research is used by communities 
across the Nation in land use planning, emergency response, natural 
resource management, engineering, and education. These partnerships 
also allow USGS to leverage funds, making the most of scarce Federal 
dollars. USGS research addresses many of society's greatest challenges 
for national security, health, and welfare, including natural hazards, 
mineral and energy resources, climate change, and water availability 
and quality.
  --Natural hazards--including earthquakes, tsunamis, volcanic 
        eruptions, wildfires, and hurricanes--are a major cause of 
        fatalities and economic losses worldwide. Recent natural 
        disasters provide unmistakable evidence that the United States 
        remains vulnerable to staggering losses. 2011 was a record year 
        for natural disasters in the United States, with 12 separate 
        billion dollar weather/climate disasters. Several areas in the 
        United States are vulnerable to damages from earthquakes, 
        tsunamis, volcanoes, and landslides--as evidenced by the recent 
        west coast landslide. USGS research that improves our 
        understanding of geologic hazards will allow for better 
        planning and mitigation in these areas that will reduce future 
        losses. GSA urges Congress to support efforts for USGS to 
        modernize and upgrade its natural hazards monitoring and 
        warning systems to protect communities from the devastating 
        personal and economic effects of natural disasters.
  --Energy and mineral resources are critical to national security and 
        economic growth. Improved scientific understanding of these 
        resources will allow for their more economic and environmental 
        management and utilization. The USGS is the sole Federal 
        information source on mineral potential, production, and 
        consumption. USGS assessments of mineral and energy resources 
        are essential for making informed decisions about the Nation's 
        future. GSA is greatly concerned about recent cuts in mineral 
        resources and the ability of our Nation to safely develop new 
        resources.
  --Many emerging energy technologies--such as wind turbines and solar 
        cells--depend upon rare Earth elements and critical minerals 
        that currently lack diversified sources of supply. China 
        accounts for 95 percent of world production of rare Earth 
        elements (USGS, 2010). USGS research will play a lead role in 
        helping ease our dependence on these foreign sources.
  --The devastating droughts in 2012 reminded us of our dependence on 
        water. The availability and quality of surface water and 
        groundwater are vital to the well being of both society and 
        ecosystems. The proposed increases for water gauges and other 
        water programs will increase our scientific understanding of 
        surface water and groundwater necessary to ensure adequate safe 
        water resources for the future.
  --USGS research on climate impacts is used by the Department of the 
        Interior and local policymakers and resource managers to make 
        decisions based on the best possible science. The Climate 
        Science Centers, for example, provide scientific information 
        necessary to anticipate, monitor, and adapt to climate change's 
        effects at regional and local levels, ranging from sea level 
        rise and extreme weather events to the impact of climate change 
        on wildfires to effects on agriculture.
  --The Landsat satellites have amassed the largest archive of remotely 
        sensed land data in the world, a tremendously important 
        resource for natural resource exploration, land use planning, 
        and assessing water resources, the impacts of natural 
        disasters, and global agriculture production. The successful 
        launch of Landsat 8 is an important step to continue to provide 
        these resources. GSA supports interagency efforts to examine a 
        path forward for support of Landsat.
    Research in Earth science is fundamental to training and educating 
the next generation of Earth science professionals. The United States 
faces a looming shortage of qualified workers in these areas that are 
critical for national security. We are very concerned that cuts in 
Earth science funding will cause students and young professionals to 
leave the field, potentially leading to a lost generation of 
professionals in areas that are already facing worker shortages. 
Investments in these areas could lead to job growth, as demand for 
these professionals now and in the future is assessed to be high.
    A 2013 report by the National Research Council, Emerging Workforce 
Trends in the Energy and Mining Industries: A Call to Action, found, 
``Energy and mineral resources are essential for the Nation's 
fundamental functions, its economy, and its security. . . In mining 
(nonfuel and coal) a personnel crisis for professionals and workers is 
pending and it already exists for faculty.''
    Another recent study, Status of the Geoscience Workforce 2011, by 
the American Geosciences Institute found: ``The supply of newly trained 
geoscientists falls short of geoscience workforce demand and 
replacement needs . . . aggregate job projections are expected to 
increase by 35 percent between 2008 and 2018 . . . The majority of 
geoscientists in the workforce are within 15 years of retirement age. 
By 2030, the unmet demand for geoscientists in the petroleum industry 
will be approximately 13,000 workers for the conservative demand 
industry estimate.''
    Science and technology are engines of economic prosperity, 
environmental quality, and national security. Federal investments in 
research pay substantial dividends. According to the National 
Academies' report Rising Above the Gathering Storm (2007), ``Economic 
studies conducted even before the information-technology revolution 
have shown that as much as 85 percent of measured growth in U.S. income 
per capita was due to technological change.'' Likewise, the National 
Commission on Fiscal Responsibility and Reform, headed by Erskine 
Bowles and Alan Simpson, said: ``We must invest in education, 
infrastructure, and high-value research and development to help our 
economy grow, keep us globally competitive, and make it easier for 
businesses to create jobs.'' Earth science is a critical component of 
the overall science and technology enterprise. Growing support for 
Earth science in general and the U.S. Geological Survey in particular 
are required to stimulate innovations that fuel the economy, provide 
security, and enhance the quality of life.
    Thank you for the opportunity to provide testimony about the U.S. 
Geological Survey.
                                 ______
                                 
 Prepared Statement of the Humane Society of the United States, Humane 
         Society Legislative Fund, and Doris Day Animal League
    Thank you for the opportunity to offer testimony to the Interior, 
Environment, and Related Agencies Subcommittee on items of importance 
to our organizations. We urge the subcommittee to address these 
priority issues in the fiscal year 2014 Department of the Interior 
appropriation.
                          rock creek park deer
    The HSUS requests that funds made available in this act give 
preference to non-lethal deer management programs and that the NPS be 
prohibited from using funds to conduct lethal deer management programs 
at Rock Creek Park. The National Park Service (NPS) recently decided to 
implement lethal methods for controlling the deer population in Rock 
Creek Park despite the availability of non-lethal methods that would 
have cost significantly less taxpayer money and resulted in a more 
effective long-term solution to human-wildlife conflicts in the park 
and its environs. In the future, we ask that priority be given to 
humane, non-lethal methods with respect to decisions regarding funding 
deer management programs.
                        large constrictor snakes
    The HSUS commends the U.S. Fish and Wildlife Service for listing 
four of nine species of large constrictor snakes as ``injurious.'' We 
encourage this subcommittee to direct the USFWS to immediately move 
forward with the ``injurious'' listing of the five remaining species, 
which will prohibit importation and interstate movement of these 
animals as pets. A recent, comprehensive report by the U.S. Geological 
Survey showed these non-native snakes all pose a medium or high risk to 
ecosystems. Large constrictor snakes have been released or escaped into 
the environment and have colonized Everglades National Park and other 
portions of south Florida as well as Puerto Rico and scientists warn 
they may become established in other areas of the country. Releasing 
these animals to fend for themselves can also lead to an inhumane death 
from starvation, dehydration, being struck by cars, or exposure to 
bitterly cold temperatures. The Service must have the resources to 
respond quickly to prevent the spread and establishment of these snakes 
into new areas.
                    environmental protection agency
Endocrine Disruptor Screening Program
    Research focused on molecular screening has the potential to 
revolutionize toxicity testing improving both its efficiency as well as 
the quality of information available for human safety assessment in the 
Endocrine Disruptor Screening Program (EDSP). These ``next generation 
tools'' will speed up the assessments of chemicals in the EDSP and 
reduce, and ultimately, replace animal use. We urge the committee to 
incorporate the following report language, which is also supported by 
the American Chemistry Council:

    ``The Committee recognizes that EPA is implementing the use of 
ToxCast information in the prioritization of chemicals for screening in 
the Endocrine Disruptor Screening Program (EDSP). The Committee 
supports this activity as part of a pathway-based approach to endocrine 
assessment, and directs EPA to maximize its efforts to develop adverse 
outcome pathways (AOPs) for endocrine modes of action and to utilize 
mechanistic information not only in prioritization, but also in hazard 
and risk assessment in place of tests involving living animals, if 
comparable and reasonably and practicably available. The Committee also 
recognizes that EPA is continuing to extend existing long-term 
reproduction studies in birds, fish, and other species to two- or 
multi-generation tests for the EDSP. The Committee understands that EPA 
contributed to an international review of rat reproduction studies that 
showed the lack of utility of a second generation and supporting 
replacement of the two-generation mammalian study with a more efficient 
`extended one-generation' design. The Committee directs EPA to maximize 
the efficiency of each EDSP protocol and minimize unnecessary costs and 
animal use by assessing the utility (including sensitivity, specificity 
and value of information added relative to the assessment of endocrine 
disruption) of each endpoint in the study, including specifically the 
need to produce more than one generation of offspring in the bird, fish 
and amphibian EDSP Tier 2 tests and issue a public report on its 
findings for comment. The Committee also directs EPA to determine what 
information the Agency requires to assess and manage potential risks to 
human health and the environment in regards to endocrine disruption, to 
minimize or to eliminate unnecessary endocrine screening and testing, 
and to use existing scientific data in lieu of requiring new data, when 
possible. The Committee understands that EPA is currently working with 
OECD to develop and modify EDSP methods. EPA should work within the 
framework and timing of the OECD Test Guideline work plan to minimize 
duplicative efforts.''
Science and Technology Account--21st Century Toxicology
    In 2007, the National Research Council published its report titled 
``Toxicity Testing in the 21st Century: A Vision and a Strategy.'' This 
report catalyzed collaborative efforts across the research community to 
focus on developing new, advanced molecular screening methods for use 
in assessing potential adverse health effects of environmental agents. 
It is widely recognized that the rapid emergence of omics technologies 
and other advanced technologies offers great promise to transform 
toxicology from a discipline largely based on observational outcomes 
from animal tests as the basis for safety determinations to a 
discipline that uses knowledge of biological pathways and molecular 
modes of action to predict hazards and potential risks. We urge the 
committee to incorporate the following language:

    ``The Committee supports EPA's leadership role in the creation of a 
new paradigm for chemical risk assessment based on the incorporation of 
advanced molecular biological and computational methods in lieu of 
animal toxicity tests. The Committee encourages EPA to continue to 
expand its extramural and intramural support for the use of human 
biology-based experimental and computational approaches in health 
research to further define toxicity and disease pathways and develop 
tools for their integration into evaluation strategies. Extramural and 
intramural funding should be made available for research and 
development of human biology-based and Tox21-related methods and 
prediction tools, including pilot studies of pathway-based risk 
assessments. The data sets and prediction model structures generated 
should be transparent, publicly disseminated, and to assure readiness 
and utility for regulatory purposes, undergo public review and comment 
and independent scientific peer review to establish relevance and 
reliability. The Committee requests EPA provide a report on associated 
funding in fiscal year 2014 for such activity and a progress report in 
the congressional justification request, featuring a 5-year plan for 
projected budgets for the development of mechanism-based methods, 
including Tox21 activities and prediction models and activities 
specifically focused on establishing scientific confidence in them for 
regulatory purposes. The Committee also requests EPA prioritize an 
additional (1-3 percent) of its Science and Technology budget from 
within existing funds for such activity.''
                multinational species conservation fund
    The administration's fiscal year 2014 budget requests $9.98 million 
for the Multinational Species Conservation Fund (MSCF) program which 
funds African and Asian elephants, rhinos, tigers, great apes like 
chimps and gorillas, and sea turtles. The HSUS joins a broad coalition 
of organizations in support of the administration's request while 
ensuring that the sales from the semi-postal stamps benefiting this 
program remain supplementary to annually appropriated levels. We also 
request $13 million for the Wildlife Without Borders and International 
Wildlife Trade programs within the USFWS Office of International 
Affairs.
    While we wholeheartedly support continued funding for the MSCF, we 
are concerned about past incidents and oppose any future use of funds 
from these conservation programs to promote trophy hunting, trade in 
animal parts, and other consumptive uses--including live capture for 
trade, captive breeding, and entertainment for public display 
industry--under the guise of conservation for these animals. Grants 
made to projects under the MSCF must be consistent with the spirit of 
the law.
                        protection for walruses
    We urge this subcommittee to appropriate the necessary funds in 
fiscal year 2014 to permit the listing of the Pacific walrus, which has 
been placed on the candidate list for threatened or endangered status 
under the Endangered Species Act. The USFWS recently found that listing 
the Pacific walrus was warranted, due primarily to threats the species 
faces from loss of sea ice in its arctic habitat as a result of climate 
change. Walruses are targeted by native hunters for subsistence; 
hundreds are killed annually, with this number climbing to as many as 
7,000 in some years. In some hunting villages, females and their calves 
are preferentially killed, against the recommendation of the USFWS and 
standard management practice. By waiting to list the Pacific walrus, 
the species' likelihood of survival is in doubt. We encourage this 
subcommittee to direct the USFWS to prioritize the Pacific walrus 
listing by immediately moving forward with the listing process.
        bureau of land management--wild horse and burro program
    The Humane Society of the United States (The HSUS) is one of the 
leading advocates for the protection and welfare of wild horses and 
burros in the United States with a long history of working 
collaboratively with the Bureau of Land Management (BLM)--the agency 
mandated to protect America's wild horses and burros on the development 
of effective and humane management techniques. Wild free-roaming horses 
and burros deserve first to be given every chance to live out their 
lives wild and free, as the American public has clearly mandated and 
Congress has stated. When intervention is required, we owe them our 
best efforts to ensure that any human actions that affect their lives--
such as gathers, transportation, confinement, and adoption--are done in 
a way to assure their humane treatment.
    Therefore, The HSUS strongly supports a significant reduction in 
the number of wild horses and burros gathered and removed from our 
rangelands annually. We believe removing horses from the range without 
implementing any active program for suppressing the population growth 
rate is unsustainable, and simply leads to a continual cycle of 
roundups and removals when more long-term, cost-efficient and humane 
management strategies, such as fertility control, are readily 
available.
    For years, the BLM has removed far more wild horses and burros from 
the range than it could possibly expect to adopt annually, and as a 
consequence, the costs associated with caring for these animals off the 
range have continued to skyrocket. For instance, between 2001 and 2007, 
the BLM removed approximately 74,000 (an average of about 10,600 
animals per year) from the range, but could only place 3,000 horses a 
year, with the rest forced into holding facilities. The annual costs 
associated with caring for one wild horse in a long term holding 
facility is approximately $500, and the average lifespan of a wild 
horse in captivity is 30 years. Today, there are more than 50,000 wild 
horses and burros in these pens. In the most recently completed fiscal 
year (2012), holding costs accounted for $43 million (or 59 percent) 
out of a total wild horse and burro budget of $74.9 million.
    In the spring of 2011, we were encouraged by the BLM's announcement 
regarding the agency's intent to open ``a new chapter in the management 
of wild horses, burros, and our public lands'' by fast-tracking 
``fundamental reforms'' to its current policies and procedures. 
Specifically, the agency announced that it would strengthen its 
commitment to the use of fertility control by significantly increasing 
the number of mares treated with fertility control--from 500 in 2009, 
to a target of 2,000 in each of the next 2 years. This represents a 
huge step in the right direction.
    The idea of using fertility control to efficiently manage wild 
horses and burros on the range is nothing new, and one that we have 
been actively supporting and involved with for several decades. As 
early as 1982, the National Academy of Sciences (NAS) called on the BLM 
to use immunocontraception to manage wild horse and burro populations, 
finding it an effective technology and part of a proactive management 
strategy. And in its 1990 report on the BLM's wild horse management 
program, the U.S. Government Accountability Office (GAO) found that 
keeping excess animals in long-term holding was costly and recommended 
that BLM examine alternatives, such as treating animals with 
reproductive controls and releasing them back to the range.\1\ Further, 
a 2008 paper determined that contraception on-the-range could reduce 
total wild horse and burro management costs by 14 percent, saving $6.1 
million per year.\2\ Finally, the results of an economic model 
commissioned by The HSUS indicates that by treating wild horses and 
burros with the fertility control vaccine Porcine Zona Pellucida (PZP), 
the BLM could save approximately $204 million over 12 years while 
achieving and maintaining Appropriate Management Levels (AML) on wild 
horse Herd Management Areas (HMA) in the United States.
---------------------------------------------------------------------------
    \1\ GAO, Rangeland Management: Improvements Needed in Federal Wild 
Horse Program, GAO/RCED-90-110 (Washington, DC: Aug. 20, 1990).
    \2\ Bartholow, J. 2007. Economic benefit of fertility control in 
wild horse populations. J. Wildl. Mgmt. 71(8):2811-2819.
---------------------------------------------------------------------------
    However, at the conclusion of fiscal year 2012, we were seriously 
disappointed when we learned that the BLM only treated and released 881 
mares in fiscal year 2012 which means that BLM fell short of achieving 
its own management goals by more than 50 percent (see table Completed 
Fiscal Year 2012 Gathers under the heading Number of Mares Treated with 
Fertility Control: http://www.blm.gov/wo/st/en/prog/whbprogram/
herd_management/Data/completed_fy_12_gathers.html).
    Moreover, in its budget justification for fiscal year 2013, BLM 
provides no explanation for why it failed to meet its own management 
objectives for fiscal year 2012. In fact, for fiscal year 2013, 
specific goals for reducing population growth rates on the range are 
conspicuously absent--there's no mention of the agency's proposed 
strategy of treating and releasing 2,000 mares in fiscal year 2012 and 
fiscal year 2013 (see page 64 under the section titled Strategy for 
Managing Wild Horse and Burro Populations, Reducing Population Growth 
http://www.doi.gov/budget/appropriations/2013/upload/
FY2013_BLM_Greenbook.pdf).
    This was a key component of the Proposed Strategy that the BLM 
finalized in March 2011, which was supposed to put the Wild Horse and 
Burro Program on a sustainable track and the agency has provided no 
justification whatsoever for its failure to meet its own management 
objectives. (See page 4 of the BLM's Caring for America's Wild Horses 
and Burros: http://www.blm.gov/pgdata/etc/medialib/blm/wo/
Communications_Directorate/public_affairs/wild_horse_and_burro/
documents.Par.32058.File.dat/WHB_Fundamental_022411.pdf.)
    There are already over 50,000 wild horses and burros living in 
Government holding facilities today--that's almost twice the number of 
wild horses and burros living on our public lands, and as a result, the 
cost of caring for these animals off the range could more than double 
in a just a few years.
    BLM must balance the number of animals removed from the range 
annually with the number of animals it can expect to adopt in a given 
year if it hopes to effectively reduce off-the-range management costs. 
For these reasons, we strongly support the BLM's request for a $2 
million budget increase to fund new research on contraception and 
population growth suppression methods. Developing additional methods to 
reduce wild horse population growth will allow the agency to maintain 
healthy herds while reducing the need for costly removal regimes that 
will further flood government holding facilities with additional 
animals.
    Again, we commend the Secretary and the BLM for taking critical 
steps toward a more sustainable wild horse management program and 
believe the subcommittee's guidance and support for humane and 
sustainable management will further the implementation of a program 
that will be of great benefit not only to our Nation's beloved wild 
horse populations, but also to the American taxpayer.
                                 ______
                                 
     Prepared Statement of the Interstate Mining Compact Commission
    My name is Gregory E. Conrad and I serve as executive director of 
the Interstate Mining Compact Commission. I appreciate the opportunity 
to present this statement to the subcommittee regarding the views of 
the Compact's 25 member States on the fiscal year 2014 budget request 
for the Office of Surface Mining Reclamation and Enforcement (OSM) 
within the U.S. Department of the Interior. In its proposed budget, OSM 
is requesting $57.7 million to fund title V grants to States and Indian 
tribes for the implementation of their regulatory programs, a reduction 
of $10.9 million or 15 percent below the fiscal year 2012 enacted 
level. OSM also proposes to reduce mandatory spending for the abandoned 
mine lands (AML) program by $67 million pursuant to a legislative 
proposal to eliminate all AML funding for certified States and tribes.
    The Compact is comprised of 25 States that together produce some 95 
percent of the Nation's coal, as well as important noncoal minerals. 
The Compact's purposes are to advance the protection and restoration of 
land, water and other resources affected by mining through the 
encouragement of programs in each of the party States that will achieve 
comparable results in protecting, conserving and improving the 
usefulness of natural resources and to assist in achieving and 
maintaining an efficient, productive and economically viable mining 
industry.
    OSM has projected an amount of $57.7 million for title V grants to 
States and tribes in fiscal year 2014, an amount which is matched by 
the States each year. These grants support the implementation of State 
and tribal regulatory programs under the Surface Mining Control and 
Reclamation Act (SMCRA) and as such are essential to the full and 
effective operation of those programs. Pursuant to these primacy 
programs, the States have the most direct and critical responsibilities 
for conducting regulatory operations to minimize the impact of coal 
extraction operations on people and the environment. The States 
accomplish this through a combination of permitting, inspection and 
enforcement duties, designating lands as unsuitable for mining 
operations, and ensuring that timely reclamation occurs after mining.
    In fiscal year 2012, Congress approved $68.7 million for State 
title V grants, an amount that appears to have been reauthorized again 
in fiscal year 2013 pursuant to the Continuing Resolution adopted in 
March.\1\ This continued a much-needed trend whereby the amount 
appropriated for these regulatory grants aligned with the demonstrated 
needs of the States and tribes. The States are greatly encouraged by 
amounts approved by Congress for title V funding over the past several 
fiscal years. Even with mandated rescissions and the allocations for 
tribal primacy programs, the States saw a $12 million increase for our 
regulatory programs over fiscal year 2007 levels. State title V grants 
had been stagnant for over 12 years and the gap between the States' 
requests and what they received was widening. This debilitating trend 
was compounding the problems caused by inflation and uncontrollable 
costs, thus undermining our efforts to realize needed program 
improvements and enhancements and jeopardizing our efforts to minimize 
the potential adverse impacts of coal extraction operations on people 
and the environment.
---------------------------------------------------------------------------
    \1\ In approving this amount for State grant funding in fiscal year 
2013, the subcommittee noted that: ``Federal regulatory grants to 
primacy States results in the highest benefit and the lowest cost to 
taxpayers, and if a State were to relinquish primacy, OSM would have to 
hire and train sufficient numbers and types of Federal employees. The 
cost to implement the Federal program would be significantly higher and 
as such the Committee summarily rejects the proposal [to cut funding 
for State regulatory grants].''
---------------------------------------------------------------------------
    In its fiscal year 2014 budget, OSM has once again attempted to 
reverse course and essentially unravel and undermine the progress made 
by Congress in supporting State programs with adequate funding. As 
States prepare their future budgets, we trust that the recent increases 
approved by Congress will remain the new base on which we build our 
programs. Given fiscal constraints on State budgets from the downturn 
in the economy, some States have only recently been able to move beyond 
hiring and salary freezes and restrictions on equipment and vehicle 
purchases, all of which have inhibited States' ability to spend all of 
their Federal grant money. A clear message from Congress that reliable, 
consistent funding will continue into the future will do much to 
stimulate support for these programs by State legislatures and budget 
officers who each year, in the face of difficult fiscal climates and 
constraints, are also dealing with the challenge of matching Federal 
grant dollars with State funds. Please keep in mind that a 15 percent 
cut in Federal funding generally translates to an additional 15 percent 
cut for overall program funding for many States, especially those 
without Federal lands, since these States can generally only match what 
they receive in Federal money.
    It is important to note that OSM does not disagree with the States' 
demonstrated need for the requested amount of funding for title V 
regulatory grants. Instead, OSM's solution for the drastic cuts comes 
in the way of an unrealistic assumption that the States can simply 
increase user fees in an effort to ``eliminate a de facto subsidy of 
the coal industry.'' No specifics on how the States are to accomplish 
this far-reaching proposal are set forth, other than an expectation 
that they will do so in the course of a single fiscal year. OSM's 
proposal is completely out of touch with the realities associated with 
establishing or enhancing user fees, especially given the need for 
approvals by State legislatures. IMCC's polling of its member States 
confirmed that, given the current fiscal and political implications of 
such an initiative, it will be difficult, if not impossible, for most 
States to accomplish this feat at all, let alone in less than 1 year. 
OSM is well aware of this, and yet has every intention of aggressively 
moving forward with a proposal that was poorly conceived from its 
inception. We strongly urge the subcommittee to reject this approach 
and mandate that OSM work through the complexities associated with any 
future user fees proposal in close cooperation with the States and 
tribes prior to cutting Federal funding for State title V grants.\2\
---------------------------------------------------------------------------
    \2\ It has taken OSM over 3 years to develop a proposal of its own 
for cost recovery that will apply to Federal and Indian Lands programs 
where OSM is the regulatory authority. On April 4, OSM republished a 
proposed rule (78 Fed. Reg. 20394) that would adjust existing permit 
fees and assess new fees to recover the actual costs for permit review 
and administration and permit enforcement activities provided to the 
coal industry. Comments on the proposal are due May 28. The States have 
not yet had an opportunity to review the rule, which OSM has asserted 
could serve as a template for similar efforts by the States. Regardless 
of whether this is the case, and contrary to OSM's implication that the 
States should have already moved forward with similar proposals of 
their own based on the fact that OSM has included this suggested 
approach in its last three proposed budgets, OSM is well aware of the 
complexities associated with a proposal of this magnitude for the 
States based on extensive information we have provided to the agency. 
We are happy to share that information with the subcommittee as well. 
It will clearly take more than a single fiscal year for the States to 
seriously consider and undertake such an effort. And most importantly, 
the subcommittee has directed OSM in each of the past 3 fiscal years 
``to discontinue efforts to push States to raise fees on industry as 
the bill provides the funds necessary for States to run their 
regulatory programs.''
---------------------------------------------------------------------------
    At the same time that OSM is proposing significant cuts for State 
programs, the agency is proposing sizeable increases for its own 
program operations ($4 million) for Federal oversight of State 
programs, including an increase of 19 FTEs. In making the case for its 
funding increase, OSM's budget justification document contains vague 
references to the need ``to improve the implementation of existing 
laws'' and to ``strengthen OSM's skills base.'' More specifically, OSM 
states in its budget justification document (on page 62) that ``with 
greater technical skills, OSM anticipates improved evaluation of 
permit-related actions and resolution of issues to prevent 
unanticipated situations that otherwise may occur as operations 
progress, thereby improving implementation of existing laws.'' In our 
view, this is code language for enhanced and expanded Federal oversight 
of State programs and reflects a move by OSM to exert a more direct 
role in State programs, especially regarding permitting decisions, 
thereby weakening State primacy. However, without more to justify the 
need for more oversight and the concomitant increase in funding for 
Federal operations related thereto, Congress should reject this 
request. The overall performance of the States as detailed in OSM's 
annual State program evaluation reports demonstrates that the States 
are implementing their programs effectively and in accordance with the 
purposes and objectives of SMCRA.\3\
---------------------------------------------------------------------------
    \3\ The subcommittee agreed with this assessment when it commented 
as follows on OSM's proposed increase in fiscal year 2013: ``The 
Committee similarly rejects the proposal to increase inspections and 
enhanced Federal oversight of State regulatory programs. Delegation of 
the authority to the States is the cornerstone of the surface mining 
regulatory program, and State regulatory programs do not need enhanced 
Federal oversight to ensure continued implementation of a protective 
regulatory framework. Accordingly, the Committee has not provided the 
$3,994,000 and 25 FTE increase requested for those activities within 
the Regulation and Technology account.'' Furthermore, the States are 
confounded by OSM's desire to increase its staff by 19 FTEs when it 
currently has more than twice that number of unfilled positions in the 
agency. Is OSM attempting to add 19 new FTEs, or fill a portion of the 
vacancies? In either event, the $4 million intended for this purpose is 
better spent by the States in their role as the primary enforcement and 
permitting SMCRA authority, rather than by OSM oversight to second 
guess State decisions.
---------------------------------------------------------------------------
    In our view, this suggests that OSM is adequately accomplishing its 
statutory oversight obligations with current Federal program funding 
and that any increased workloads are likely to fall upon the States, 
which have primary responsibility for implementing appropriate 
adjustments to their programs identified during Federal oversight. In 
this regard, we note that the Federal courts have made it abundantly 
clear that SMCRA's allocation of exclusive jurisdiction to the States 
was ``careful and deliberate'' and that Congress provided for 
``mutually exclusive regulation by either the Secretary or State, but 
not both.'' Bragg v. West Virginia Coal Ass'n, 248 F. 3d 275, 293-4 
(4th Cir. 2001), cert. denied, 534 U.S. 1113 (2002). While the courts 
have ruled consistently on this matter, the question remains for 
Congress and the administration to determine, in light of deficit 
reduction and spending cuts, how the limited amount of Federal funding 
for the regulation of surface coal mining and reclamation operations 
under SMCRA will be directed--to OSM or the States. For all the above 
reasons, we urge Congress to approve not less than $71 million for 
State and tribal title V regulatory grants, as fully documented in the 
States' and tribes' estimates for actual program operating costs.\4\
---------------------------------------------------------------------------
    \4\ We are particularly concerned about recent OSM initiatives, 
primarily by policy directive, to duplicate and/or second-guess State 
permitting decisions through the reflexive use of ``Ten-Day Notices'' 
as part of increased Federal oversight or through Federal responses to 
citizen complaints. Aside from the impact on limited State and Federal 
resources, these actions undermine the principles of primacy that 
underscore SMCRA and are likely to have debilitating impacts on the 
State-Federal partnership envisioned by the act.
---------------------------------------------------------------------------
    With regard to funding for State title IV Abandoned Mine Land (AML) 
program grants, congressional action in 2006 to reauthorize title IV of 
SMCRA has significantly changed the method by which State reclamation 
grants are funded. Beginning with fiscal year 2008, State title IV 
grants are funded primarily by mandatory appropriations. As a result, 
the States should have received a total of $340 million in fiscal year 
2014. Instead, OSM has budgeted an amount of $273 million based on an 
ill-conceived proposal to eliminate mandatory AML funding to States and 
tribes that have been certified as completing their abandoned coal 
reclamation programs. This $67 million reduction repudiates the 
comprehensive restructuring of the AML program that was passed by 
Congress in 2006, following over 10 years of congressional debate and 
hard fought compromise among the affected parties. We urge the Congress 
to reject this unjustified, ill-conceived proposal, delete it from the 
budget and restore the full mandatory funding amount of $340 million. 
We also endorse the statement of the National Association of Abandoned 
Mine Land Programs (NAAMLP) which goes into greater detail regarding 
the implications of OSM's legislative proposal for the States and 
tribes.
    We also urge Congress to approve continued funding for the AML 
emergency program. In a continuing effort to ignore congressional 
direction, OSM's budget would completely eliminate funding for State-
run emergency programs and also for Federal emergency projects (in 
those States that do not administer their own emergency programs). 
Funding the OSM emergency program should be a top priority for OSM's 
discretionary spending. This funding has allowed the States and OSM to 
address the unanticipated AML emergencies that inevitably occur each 
year. In States that have federally operated emergency programs, the 
State AML programs are not structured or staffed to move quickly to 
address these dangers and safeguard the coalfield citizens whose lives 
and property are threatened by these unforeseen and often debilitating 
events. And for minimum program States, emergency funding is critical 
to preserve the limited resources available to them under the current 
funding formula. We therefore request that Congress restore funding for 
the AML emergency program in OSM's fiscal year 2014 budget.
    We further ask the subcommittee to support funding for OSM's 
training program, including moneys for State travel. These programs are 
central to the effective implementation of State regulatory programs as 
they provide necessary training and continuing education for State 
agency personnel. We note that the States provide nearly half of the 
instructors for OSM's training course and, through IMCC, sponsor and 
staff benchmarking workshops on key regulatory program topics. IMCC 
also urges the subcommittee to support funding for TIPS, a program that 
directly benefits the States by providing critical technical 
assistance. Finally, we support funding for the Watershed Cooperative 
Agreements in the amount of $1.2 million.
    Attached to our testimony today is a list of questions concerning 
OSM's budget that we request be included in the record for the hearing. 
The questions go into further detail concerning several aspects of the 
budget that we believe should be answered before Congress approves 
funding for the agency or considers advancing the legislative proposals 
contained in the budget.
          questions re osm's proposed fiscal year 2014 budget
    What does OSM plan to do with the additional $4 million that has 
been budgeted for ``enhanced Federal oversight of State regulatory 
programs''? How does OSM justify an increase in money for Federal 
oversight while decreasing money for State title V grants? What is the 
demonstrated need for an additional 19 FTEs to perform Federal 
oversight of State programs? Will this not simply lead to duplication 
of effort, second-guessing of State decisionmaking, undermining of 
State primacy and wasted resources?
    Why has OSM chosen to advocate for a hardrock AML reclamation fee 
to be collected by OSM but not distributed by OSM? Why bring another 
Federal agency (BLM) into the mix when OSM has the greater expertise in 
this area?
Specific Questions Re Cost Recovery/User Fees
    OSM has requested an amount for State title V regulatory program 
grants in fiscal year 2014 that reflects an $11 million decrease from 
fiscal year 2013. And while OSM does not dispute that the States are in 
need of an amount far greater than this, the agency has suggested once 
again that the States should be able to make up the difference between 
what OSM has budgeted and what States actually need by increasing cost 
recovery fees for services to the coal industry. What exactly will it 
take to accomplish this task?
    Assuming the States take on this task, will amendments to their 
regulatory programs be required?
    How long, in general, does it take OSM to approve a State program 
amendment?
    The State of Alabama submitted a program amendment to OSM in May 
2010 to raise current permit fees and authorize new, additional fees. 
It took OSM a full year to approve this amendment, resulting in lost 
fees of over $50,000 to the State. If OSM is unable to approve 
requested State program amendments for permit fee increases in less 
than a year, how does the agency expect to handle mandated permit 
increases for all of the primacy States within a single fiscal year?
    If OSM is not expecting to pursue this initiative in fiscal year 
2014, why include such a proposal in the budget until OSM has worked 
out all of the details with the States in the first instance?
    Speaking of which, what types of complexities is OSM anticipating 
with its proposal at the State level? Many of the States have already 
indicated to OSM that it will be next to impossible to advance a fee 
increase proposal given the political and fiscal climate they are 
facing.
    OSM's solution seems to be that the agency will propose a rule to 
require States to increase permit fees nationwide. Won't this still 
require State program amendments to effectuate the Federal rule, as 
with all of OSM's rules? How does OSM envision accomplishing this if 
the States are unable to do it on their own?
    Even if a Federal rulemaking requiring permit fee increase 
nationwide were to succeed, how does OSM envision assuring that these 
fees are returned to the States? Will OSM retain a portion of these 
fees for administrative purposes?
Specific Questions Re Federal Program Increases
    In OSM's budget justification document, the agency also notes that 
the States permit and regulate 97 percent of the Nation's coal 
production and that OSM provides technical assistance, funding, 
training and technical tools to the States to support their programs. 
And yet OSM proposes in its budget to cut funding to the States by $11 
million while increasing OSM's own Federal operations budget by nearly 
$4 million and 19 FTEs. How does OSM reconcile these seemingly 
contradictory positions?
    OSM's budget justification document points out in more detail why 
it believes additional Federal resources will be needed based on its 
recent Federal oversight actions during fiscal year 2011, which 
included increased Federal inspections. Was OSM not in fact able to 
accomplish this enhanced oversight with its current resources? If not, 
where were resources found wanting? How much of the strain on the 
agency's resources was actually due to the stream protection rulemaking 
and EIS process?
    In light of recent annual oversight reports over the past 6 years 
which demonstrate high levels of State performance, what is the 
justification for OSM's enhanced oversight initiatives and hence its 
Federal program increase?
    Something has to give here--no doubt. There is only so much money 
that we can make available for the surface mining program under SMCRA. 
Both Congress and the courts have made it clear that the States are to 
exercise exclusive jurisdiction for the regulation of surface coal 
mining operations pursuant to the primacy regime under the law. It begs 
the questions of whether OSM has made the case for moving away from 
supporting the States and instead beefing up the Federal program. 
Unless the agency can come up with a better, more detailed 
justification for this realignment of resources, how can Congress 
support its budget proposal?
Specific Questions Re OSM Oversight Initiative
    OSM has recently finalized a Ten-Day Notice directive (INE-35) that 
had previously been withdrawn in 2006 based on a decision by then 
Assistant Secretary of the Interior Rebecca Watson. The basis for 
terminating the previous directive was several court decisions that 
clarified the respective roles of State and Federal governments 
pursuant to the primacy regime contained in SMCRA. The Secretary's 
decision also focused on the inappropriate and unauthorized use of Ten-
Day Notices under SMCRA to second-guess State permitting decisions. 
OSM's new TDN directive flies in the face of both this Secretarial 
decision and Federal court decisions. Does OSM have a new Secretarial 
decision on this matter? If not, how can its recent action overrule 
this prior decision? Has the Solicitor's office weighed in on this 
matter? If so, does OSM have an opinion supporting the agency's new TDN 
directive? Will OSM provide that to the committee?
    In light of limited funding for the implementation of SMCRA, how 
does OSM justify the State and Federal expenses that will necessarily 
follow from reviewing and second-guessing State permitting decisions? 
States have complained that responding to a single OSM TDN, especially 
with respect to State permitting decisions, can require the investment 
of 2-3 FTEs for upwards of a week. How does OSM reconcile the State 
resources it will take to address TDNs with the proposed reductions in 
State title V grants, all of which will impact the State resources 
needed to ensure effective program operations?
questions and concerns re the aml legislative proposal in osm's fiscal 
                            year 2014 budget
Proposed Elimination of Funding for AML Emergencies
    While amendments to title IV of SMCRA in 2006 (Public Law 109-432) 
adjusted several provisions of the act, no changes were made to OSM's 
emergency powers in section 410. Quite to the contrary, section 
402(g)(1)(D)(2) States that the Secretary shall ensure ``strict 
compliance'' with regard to the States' and tribes' use of non-
emergency grant funds for the priorities listed in section 403(a), none 
of which include emergencies. The funding for the emergency program 
comes from the Secretary's discretionary share, pursuant to section 
402(g)(3) of the act. This share currently stands at $416 million. 
OSM's elimination of funding for the emergency program will result in 
the shift of approximately $20 million annually that will have to be 
absorbed by the States. This is money that cannot be spent on high 
priority AML work (as required by SMCRA) and will require the 
realignment of State AML program operations in terms of personnel, 
project design and development, and construction capabilities. In most 
cases, depending on the nature and extent of an emergency project, it 
could preclude a State's ability to undertake any other AML work during 
the grant year (and even following years), especially for minimum 
program States. How does OSM envision States and tribes being able to 
meet their statutory responsibility to address high priority AML sites 
in light of the elimination of Federal funding for AML emergencies? How 
does OSM reconcile this proposal with the intentions of Congress 
expressed in the 2006 amendments to move more money out of the AML Fund 
sooner to address the backlog of AML problems that continue to linger?
Proposed Elimination of Funding to Certified States and Tribes
    From what we can ascertain, OSM proposes to eliminate all payments 
to certified States and tribes--in lieu of funds; prior balance 
replacement funds; and monies that are due and owing in fiscal year 
2018 and 2019 from the phase-in during fiscal years 2008 and 2009. Is 
this accurate? OSM says nothing of what the impact will be on non-
certified States as a result of eliminating these payments to certified 
States and tribes--especially the equivalent payments that would 
otherwise be made to the historic production share that directly relate 
to ``in lieu of'' payments to certified States and tribes under section 
411(h)(4). Previously, OSM has stated that ``the amounts that would 
have been allocated to certified States and tribes under section 
402(g)(1) of SMCRA will be transferred to the historical production 
allocation on an annual basis to the extent that those States and 
tribes receive in lieu payments from the Treasury (through the 
Secretary of the Interior) under section 402(i) and 411(h)(2) of 
SMCRA.'' By OSM's own admission in its fiscal year 2014 proposed 
budget, this will amount to $327 million over 10 years. If the in lieu 
payments are not made (as proposed), how can the transfer to historic 
production occur? The result, of course, would be a drastic impact on 
the historic production allocation otherwise available to uncertified 
States. Will OSM address this matter in its proposed legislation? If 
so, how?
    Has OSM considered the fiscal and programmatic impacts that could 
result if the certified States and tribes, who no longer receive AML 
monies, choose to return their title V regulatory programs to OSM 
(especially given the severe reductions being proposed for fiscal year 
2013 in title V grants)?
    Finally, how do the cuts in the title IV program line up with the 
administration's other economic, fiscal and environmental objectives as 
articulated in the deficit reduction and jobs bills that have been 
considered by Congress? These objectives include environmental 
stewardship, cleaning up abandoned mines (coal and noncoal) nationwide, 
creating green jobs, pumping dollars into local communities, putting 
money to work on the ground in an expeditious manner, sustainable 
development, infrastructure improvements, alternative energy projects, 
protecting public health and safety, and improving the environment. It 
seems to us that there is a serious disconnect here and we remain 
mystified as to how these laudable objectives and OSM's budget proposal 
can be reconciled.
                               resolution
                  interstate mining compact commission
    BE IT KNOWN THAT:
    WHEREAS, the Surface Mining Control and Reclamation Act of 1977 
(SMCRA) provides for the vesting of exclusive jurisdiction with the 
States for the regulation of surface coal mining and reclamation 
operations within their borders following approval of a State program 
by the Secretary of the Interior; and
    WHEREAS, over the past 35 years, the States have established and 
been recognized for their commitment to implementing the goals and 
objectives of SMCRA; and
    WHEREAS, under the primacy regime envisioned by Congress under 
SMCRA, a stable, consistent and effective State/Federal partnership was 
anticipated based on principles of comity and federalism; and
    WHEREAS, a disregard for these principles will undermine the 
effective implementation of SMCRA; and
    WHEREAS, pursuant to the enhanced Federal oversight initiative 
contained in the June 2009 Memorandum of Understanding between the U.S. 
Department of the Interior, the U.S. Environmental Protection Agency 
and the U.S. Army Corps of Engineers, the Office of Surface Mining 
Reclamation and Enforcement (OSMRE) has issued three directives 
concerning the use of Ten-Day Notices (INE-35) in primacy States and 
the annual evaluation of State program implementation (Reg-8 and Reg-
23); and
    WHEREAS, the result of these directives has been a noticeable 
increase in the issuance of TDNs in primacy States and in some cases, 
as a follow on to the TDNs, the filing of notices of intent to sue and/
or complaints for declaratory action; and
    WHEREAS, these actions result in a significant drain on limited 
State resources for the implementation of regulatory programs and often 
erode the State/Federal working relationship under SMCRA
    NOW THEREFORE BE IT RESOLVED:
    That the Interstate Mining Compact Commission reasserts its 
commitment to the principles of primacy and federalism that underlie 
implementation of the Surface Mining Control and Reclamation Act of 
1977; and
    That the IMCC looks for the same commitment from the Interior 
Department and the Office of Surface Mining Reclamation and Enforcement 
and anticipates the continuation of an effective State/Federal 
partnership under SMCRA; and
    That, in light of the above, the IMCC urges OSMRE to work 
cooperatively with the States to reevaluate and potentially redesign 
Directives INE-35, REG-8 and REG-23 and their implementation to address 
State concerns.
    Issued this 12th day of October, 2012
    ATTEST:
    Gregory E. Conrad
    Executive Director
                                 ______
                                 
    Prepared Statement of the Independent Tribal Courts Review Team
    Thank you for the opportunity to provide written testimony on the 
fiscal year 2014 budget priorities for the Bureau of Indian Affairs. I 
would like to address the serious funding needs that are limited and 
continue to hinder the operations of tribal judicial systems in Indian 
Country. I am the Lead Judge representing the Independent Tribal Court 
Review Team. We thank this subcommittee for the additional $10 million 
funding in fiscal year 2010. These funds were a blessing to tribes. 
Even minimal increases were put to good use. It is the strong 
recommendation of the Independent Tribal Courts Review Team that the 
Federal Tribal Courts budget be substantially increased in fiscal year 
2014 to support the needs of Tribal judicial systems.
            budget priorities, requests and recommendations
    +$10 million increase for Tribal Courts above the fiscal year 2010 
enacted level.
    +$58.4 million authorized under the Indian Tribal Justice Act of 
1993, Public Law 103-176, 25 U.S.C. 3601 and re-authorized in year 2000 
Public Law 106-559 (no funds have been appropriated to date).
    Support the requests and recommendations of the National Congress 
of American Indians.
    The increase will support:
  --Hiring and Training of Court Personnel;
  --Compliance with the Tribal Law and Order Act of 2010;
  --Compliance with the VAWA Act of 2013;
  --Salary Increases for Existing Judges and Court Personnel;
  --State-of-the-Art Technology for Tribal Courts;
  --Security and Security Systems to Protect Court Records and Privacy 
        of Case Information;
  --Tribal Court Code Development; and
  --Financial Code Development.
    The Independent Court Review Team supports the proposed $1 million 
increase in the fiscal year 2014 President's budget. The fight against 
crime and drugs has led to more arrests which is increasing the 
caseload in the Tribal Court System. The continuing implementation of 
the Tribal Law and Order Act (TLOA) and the recent enactment of the 
Violence Against Women Act (VAWA), further strains the capacity of the 
Tribal Judicial System which is underfunded, understaffed and ill-
equipped to function effectively and in a manner comparable to non-
Indian government judicial systems. Tribal Courts are at a critical 
stage in terms of need.
                               background
    The Bureau of Indian Affairs (BIA) within the Department of the 
Interior provides funding to Tribal governments to supplement their 
justice systems including courts. Tribal courts play a ``vital role'' 
in Tribal Self-Determination and Self-Governance as cited in long-
standing Federal policy and acts of Congress. Funding levels from BIA 
to support Tribal justice systems have not met the Federal obligations.
    There is a great deal of variation in the types of Tribal courts 
and how they apply laws. Some Tribal courts resemble Western-style 
courts in that written laws and court procedures are applied. Others 
use traditional Native means of resolving disputes, such as 
peacemaking, elders' councils, and sentencing circles. Some Tribes have 
both types of courts. The Bureau of Indian Affairs (BIA) also manages a 
small number of CFR (Code of Federal Regulations) courts.
    Since 1999, the Bureau of Justice Assistance in the Department of 
Justice has administered the Tribal Courts Assistance Program, designed 
to provide funds for Tribes to plan, operate, and enhance Tribal 
judicial systems. They have made attempts to evaluate Tribal Courts but 
discovered their means of doing so was insensitive to American Indian 
and Alaska Native (AI/AN) people and unrealistic in the absence of 
elements that were key to Indian Country, such as: (1) the importance 
of Tribal culture and traditions; (2) the inability to apply State and 
local criminal justice initiatives to Tribal settings; (3) the lack of 
cooperation from non-Tribal entities; and (4) the lack of available 
data on Tribal Justice.
    The Independent Court Review Team has had more hands on success in 
reviewing Tribal Court Systems. For approximately 7 years, we have been 
traveling throughout Indian Country assessing how Tribal Courts are 
operating. During this time, we have completed 84 court reviews. We 
also completed 28 Corrective Actions. There is no one with more hands-
on experience and knowledge regarding the current status of Tribal 
Courts than our Review Team.
                       justification for request
    Hiring and Training of Court Personnel.--Tribal Courts make do with 
underpaid staff, underexperienced staff and minimal training. (We have 
determined that hiring Tribal members limits the inclination of staff 
to move away; a poor excuse to underpay staff.)
    Compliance with the Tribal Law & Order Act of 2010.--To provide 
Judges, Prosecutors, Public Defenders, who are attorneys and who are 
barred to do ``enhanced sentencing'' in Tribal courts.
    Compliance with the 2013 VAWA Act.--To provide Tribal Courts with 
the ability to provide non-Indians with all the rights under the U.S. 
Constitution in domestic violence actions in Tribal courts (12 person 
juries, provide attorneys for non-Indians, provide attorneys in court 
personnel in domestic violence cases as in TLOA, etc.).
    Salary Increases for Existing Judges and Court Personnel.--Salaries 
should be comparable to local and State Court personnel to keep pace 
with the non-Tribal judicial systems and be competitive to maintain 
existing personnel.
    Tribal Courts Need State-of-the-Art Technology (software, 
computers, phone systems, tape recording machines).--Many Tribes cannot 
afford to purchase or upgrade existing court equipment unless they get 
a grant. This is accompanied by training expenses and licensing fees 
which do not last after the grant ends.
    Security and Security Systems to Protect Court Records and Privacy 
of Case Information.--Most Tribal Courts do not even have a full time 
Bailiff, much less a state-of-the-art security system that uses locked 
doors and camera surveillance. This is a tragedy waiting to happen.
    Tribal Court Code Development.--Tribes cannot afford legal 
consultation. A small number of Tribes hire on-site staff attorneys. 
These staff attorneys generally become enmeshed in economic development 
and code development does not take priority. Tribes make do with under-
developed Codes. The Adam Walsh Act created a hardship for Tribes who 
were forced to develop codes, without funding, or have the State assume 
jurisdiction. (States have never properly overseen law enforcement in a 
Tribal jurisdiction.)
    Financial Code Development.--We have rarely seen Tribes with 
developed financial policies. The process of paying a bond, for 
example, varies greatly from tribe to tribe. The usual process of who 
collects it, where it is collected and how much it is, is never 
consistent among tribes.
                          tribal courts review
    There are many positive aspects about Tribal Courts. It is clear 
that Tribal Courts and justice systems are vital and important to the 
communities where they are located. Tribes value and want to be proud 
of their Court systems. Tribes with even modest resources tend to 
allocate funding to Courts before other costs. After decades of 
existence, many Tribal Courts, despite minimal funding, have achieved a 
level of experience and sophistication approaching, and in some cases 
surpassing, local non-Indian Courts.
    Tribal Courts, through the Indian Child Welfare Act, have mostly 
stopped the wholesale removal of Indian children from their families. 
Indian and Non-Indian Courts have developed formal and informal 
agreements regarding jurisdiction. Tribal governments have recognized 
the benefit of having law-trained Judges, without doing away with 
Judges who have cultural/traditional experience. Tribal Court systems 
have Appellate Courts, jury trials, well-cared-for Courthouses (even 
the poorer Tribes), and Tribal Bar listings and fees. Perhaps most 
importantly, Tribes recognize the benefit of an independent judiciary 
and have taken steps to insulate Courts and Judges from political 
pressure. No longer in Indian country are Judges automatically fired 
for decisions against the legislature.
    Nationwide, there are 184 Tribes with Courts that received $23.47 
million in Federal funding in 2012. The Review Team's Assessments have 
indicated that the Bureau of Indian Affairs only funds Tribal Courts at 
26 percent of the funding needed to operate. Now BIA faces $114 million 
in cuts and Tribal courts face 5 percent cuts plus .9 percent reduction 
due to the budget sequester/budget cuts. Tribes who have economic 
development generally subsidize their Tribal Courts. On the flip side, 
Tribes who cannot afford to assist in the financial operations of the 
Court are tasked with doing the best they can with what they have even 
at the expense of decreasing or eliminating services elsewhere. This 
while operating at a disadvantage with already overstrained resources 
and underserved needs of the Tribal citizens. The assessment suggests 
that the smaller Courts are both the busiest and most underfunded.
    The grant funding in the DOJ is intended to be temporary, but 
instead it is used for permanent needs; such as funding a Drug Court 
Clerk who then is used as a Court Clerk with Drug Court duties. When 
the funding runs out, so does the permanent position. We have witnessed 
many failed Drug Courts, failed Court management software projects (due 
to training costs) and incomplete Code development projects. When the 
Justice funding runs out, so does the Project.
    As a directive from the Office of Management and Budget in fiscal 
year 2005, our Reviews specifically examined how Tribes were using 
Federal funding. In the 7 fiscal years through June of fiscal year 2011 
there were only two isolated incidents of a questionable expenditure of 
Federal funds. It has been speculated that because of our limited 
resources, we compromise a person's due process and invoke ``speedy 
trials'' violations to save Tribal Courts money. Everyone who is 
processed through the Tribal judicial system is afforded their 
Constitutional civil liberties and civil rights.
    We do not wish to leave an entirely negative impression about 
Tribal Courts. Tribal Courts need an immediate, sustained and increased 
level of funding. True. However, there are strong indications that the 
Courts will put such funding to good use.
    There are several courts where the roofs leak when it rains and 
those court houses cannot be fixed due to lack of sufficient funds. The 
Team took pictures of those damaged ceilings for the BIA hoping to have 
additional funds for the Tribes to fix the damaged ceilings.
    Tribal Courts have other serious needs. Tribal Appellate Court 
Judges are mostly Attorneys who dedicate their services for modest fees 
that barely cover costs for copying and transcription fees. Tribal 
Courts do offer Jury Trials. In many Courts, one sustained Jury Trial 
will deplete the available budget. The only place to minimize expenses 
is to fire staff. Many Tribal Courts have Defense Advocates. These 
advocates are generally not law trained and do a good job protecting an 
individual's rights (including assuring speedy trial limitations are 
not violated). However, this is a large item in Court budgets and if 
the defense advocate, or Prosecutor, should leave, the replacement 
process is slow.
    This Congress and this administration can do something great. Put 
your money where your promises have been and support the acts you have 
passed. Thank you.
                                 ______
                                 
         Prepared Statement of the Inter Tribal Buffalo Council
                      introduction and background
    My name is Ervin Carlson and I am a member of the Blackfeet Nation 
in Montana and the President of the Inter Tribal Buffalo Council 
(ITBC). Please accept my sincere appreciation for this opportunity to 
submit written testimony to the honorable members of the Senate 
Committee on Appropriations; Subcommittee on the Interior, Environment, 
and Related Agencies. ITBC was granted a Federal charter in 2009 
pursuant to section 17 of the Indian Reorganization Act and is 
comprised of 58 federally recognized Indian Tribes in 19 States with 
headquarter offices in Rapid City, South Dakota. On behalf of the 
member Tribes of ITBC I would like to address the following issues: (1) 
request an appropriation of $3 million for fiscal year 2014, from the 
Department of Interior, Bureau of Indian Affairs, Operation of Indian 
Programs, to enhance and maintain ongoing buffalo restoration efforts, 
ensure the availability of highly qualified technical assistance for 
herd health and maintenance, implement a sustainable marketing 
initiative and reinforce ITBC's health initiative utilizing buffalo to 
treat and prevent diet related diseases among American Indian 
populations; (2) explain to the subcommittee the unmet needs of the 
members of ITBC; and (3) update the subcommittee on the present 
initiatives of ITBC.
    American Indians have a significant, long-standing connection with 
the American buffalo, also known as bison. Historically, buffalo 
provided the Tribes with food, shelter, clothing and essential tools 
for survival; thus, the health of the Indians depended on the health 
and existence of the buffalo. In the 1800s, the systematic destruction 
of the buffalo paralleled the termination of the Indian's nomadic 
lifestyle resulting in extreme suffering to both. The needless 
slaughter of over 60 million buffalo by the onset of the 20th century 
not only nearly extinguished this great animal but devastated the 
American Indian. Despite the near destruction of the buffalo, Indians 
maintained a strong spiritual and cultural connection with the buffalo 
that has not diminished with the passage of time. This undying 
connection motivated multiple Tribes to unite and organize ITBC to re-
establish and preserve the sacred relationship between Indian people 
and the buffalo through the restoration of buffalo to Tribal lands. 
ITBC Tribes believed the restoration of buffalo on Tribal lands would 
create numerous cultural, health and economic opportunities for Tribes. 
ITBC was keenly aware that numerous Indian Reservations are unsuitable 
for large scale farming or ranching but ideal for maintaining buffalo 
herds that are a native species of North American ecosystems and have 
been for thousands of years.
    ITBC formally organized and first received Federal funding in 1992, 
with 1,500 buffalo managed by less than 10 Tribes, to commence efforts 
to restore buffalo to Indian Country. Since then, Federal 
appropriations of $1 million or less per year for herd development have 
allowed ITBC to successfully restore 15,000+ buffalo collectively to 
over 50 Reservations on more than 1 million acres of trust land. ITBC 
strives to assist Tribes with maintaining healthy, viable buffalo herds 
that will create opportunities to utilize buffalo for prevention and 
treatment of diet related diseases including diabetes, obesity, and 
cardio-vascular disease that impact Indian populations in epidemic 
proportions. Additionally, viable buffalo herds can evolve into 
successful economic development projects upon identification of 
reliable markets.
                            funding request
    The InterTribal Buffalo Council respectfully requests an 
appropriation for fiscal year 2014 in the amount of $3 million. These 
funds would support activities to successfully accomplish ITBC goals 
and objectives as specifically described below. While ITBC's membership 
has grown from 10 Tribes to 56 and the number of buffalo from 1,500 to 
15,000 over the last 20 years, Federal funding for herd development has 
been stagnant at $1 million for the last 10 years. $3 million would 
restore vital funding for marketing and health initiatives that was cut 
in fiscal year 2007 and has not been restored. This requested funding 
level of $3 million will preserve Member Tribes' successful restoration 
efforts, restore ITBC's marketing initiative and restore the health 
initiatives, while simultaneously contributing to economically 
sustainable Tribal projects.
                    funding shortfall and unmet need
    In fiscal year 2006, ITBC was funded through appropriations at 
$4,150,000. However, the President's budget in fiscal year 2007 and 
fiscal year 2008 eliminated funding for ITBC. In 2007, ITBC obtained an 
earmark appropriation of $1 million. In fiscal year 2008, ITBC received 
$1 million for Herd Development Grants to Tribes from the BIA budget. 
In fiscal year 2009 ITBC received $1 million for herd development 
grants through an earmark from the DOI, BIA budget and $421,000 for 
ITBC administration from BIA fiscal year 2008 carryover funds. In 
fiscal year 2010, fiscal year 2011 and fiscal year 2012 ITBC has been 
in the BIA budget at the level of $1.4 million. The President's fiscal 
year 2013 budget included $1,406,000 for ITBC but due to the continuing 
resolution and sequestration a final funding level is uncertain. The 
reduction in funding from the fiscal year 2006 level critically 
curtailed ITBC's successful marketing program at a point when Tribes 
were close to accessing secure markets that would facilitate self-
sustaining herds. Further, the funding cut seriously reduced efforts to 
solidify the ITBC Health Initiatives that had the potential to 
positively impact the incidence of diet related health problems among 
American Indians.
    ITBC is structured as a member cooperative and 100 percent of the 
appropriated funds are expended on the development and support of 
Tribal buffalo herds and buffalo product business ventures. A 
significant portion of ITBC funding is distributed directly to ITBC 
member Tribes via a Herd Development Grant program developed and 
administered by the ITBC members.
    A recent survey of ITBC Tribes indicates unmet project needs at an 
approximate cost of $13 million. These project needs range from 
staffing needs to infrastructure including fencing, water development, 
harvesting and processing needs. Specific Tribal Bison Project Proposal 
summaries detail the unmet needs for each member Tribe and are on file 
with ITBC and available for your review.
                               itbc goals
    ITBC's primary objectives are to restore buffalo to Tribal lands, 
conserve and enhance existing Tribal herds through the promotion of 
traditional Tribal practices and beliefs. ITBC strives to offer 
assistance and opportunities to Tribes that meet the needs and desires 
of individual Tribal programs. ITBC attempts to balance the varying 
interests of member Tribes from maintaining herds for spiritual 
purposes to utilizing buffalo as viable agricultural business efforts. 
ITBC accomplishes these objectives via the following actions:
  --Providing direct services to the Tribes to assist with restoration 
        of buffalo to Indian lands, conservation and enhancement of 
        existing Tribal bison herds;
      Technical Assistance.--ITBC assesses current and potential Tribal 
        buffalo programs to determine technical service needs and 
        infrastructure needs and provides technical assistance in the 
        areas of wildlife management, ecological management, range 
        management, buffalo health, cultural practices and economic 
        development. Further ITBC assists with fencing, corrals, 
        facility design, water development and equipment research. ITBC 
        provides annual training sessions (national and regional) 
        designed to enhance Tribal bison management.
      Surplus Bison Program.--ITBC collaborates with the National Park 
        Service and the U.S. Fish and Wildlife Service to obtain 
        surplus bison from National Parks for distribution to Tribal 
        Buffalo Projects at no cost.
  --Developing professional relationships with all levels of Federal 
        and State governments, wildlife organizations and conservation 
        groups to protect and preserve the future of buffalo and their 
        habitat, through education and awareness programs;
      Education and Outreach.--ITBC staff provides educational 
        presentations on bison restoration, conservation efforts, and 
        the historical, cultural relationship between bison and 
        American Indians.
      Partnership and Collaboration.--ITBC is a member of various 
        working groups, comprised of Federal and State agencies 
        organized to address bison issues. ITBC is a full partner on 
        the Inter Agency Bison Management partnership established to 
        address the Yellowstone National Park bison/brucellosis issue.
  --Support Tribal economic efforts that utilize buffalo:
      Cooperative Marketing Program.--ITBC strives to develop markets 
        for bison meat and products for interested member Tribes. ITBC 
        procures bison from Tribes and sells the meat products under 
        the ITBC label. ITBC currently sells meat to the National 
        Museum of the American Indian in Washington, DC and seeks 
        additional specialized consumers and markets.
  --Implement a healthcare initiative that educates American Indian 
        populations on the benefits of Indian produced buffalo meat in 
        their daily diets.
      Outreach and Education.--ITBC staff will provide educational 
        programs and materials to Tribes, regarding the benefits of 
        incorporating low fat buffalo meat into their regular diets to 
        combat diet related health problems.
      Healthcare Initiative.--ITBC intends to develop and implement a 
        project that incorporates buffalo meat into the Flandreau 
        Santee Sioux Elderly Nutrition Program and Flandreau Indian 
        School in coordination with the Flandreau Santee Sioux Tribal 
        Health Department and the South Dakota State University. This 
        effort will serve as a model for other Indian reservation 
        collaborations to utilize buffalo meat to address health 
        concerns. ITBC will purchase buffalo from ITBC member Tribes, 
        process and distribute the meat to participating individuals 
        for this program.
                               conclusion
    ITBC has existed for 20 years to assist Tribes with restoration of 
buffalo to Tribal lands initially for cultural purposes and now 
evolving into sustainable herds that may support economic development 
efforts. No other national program exists to assist Tribes with buffalo 
restoration and protection.
    ITBC and its member Tribes have created a new Indian Reservation 
industry that includes job creation and new revenue for the Tribal 
economies. ITBC ultimately hopes to restore Tribal herds large enough 
to support local Tribal health needs and generate sufficient revenue to 
achieve economically self-sufficient herds.
    ITBC and its member Tribes are appreciative of past and current 
support from Congress and the administration. I urge the committee to 
consider restoring ITBC funding close to the fiscal year 2006 level of 
$3 million to enhance ITBC's abilities to serve its member Tribes and 
meet the objectives outlined above.
    I would like to thank this subcommittee for the opportunity to 
present testimony and I invite you to visit ITBC Tribal buffalo 
projects and experience first hand their successes.
                                 ______
                                 
        Prepared Statement of the Izaak Walton League of America
    The Izaak Walton League of America appreciates the opportunity to 
submit testimony for the record concerning appropriations for fiscal 
year 2014 for various agencies and programs under the jurisdiction of 
the subcommittee. The League is a national, nonprofit organization with 
more than 41,000 members and 250 local chapters nationwide. Our members 
are committed to advancing common sense policies that safeguard 
wildlife and habitat, support community-based conservation, and address 
pressing environmental issues. The following pertains to programs 
administered by the Departments of Agriculture and Interior, Fish and 
Wildlife Service, U.S. Geological Survey, and Environmental Protection 
Agency.
    keep fiscal year 2014 bill free of extraneous policy provisions
    The League strongly urges the subcommittee not to include or accept 
any provision in its fiscal year 2014 bill barring the Environmental 
Protection Agency (EPA) from finalizing and implementing Clean Water 
Act guidance or proceeding with the formal rulemaking process to revise 
its clean water regulations. Our organization and other hunting, 
angling and conservation groups across the country actively opposed 
similar provisions in previous bills.
    Since proposing draft guidance in April 2011, EPA has conducted a 
nearly unprecedented public engagement process for agency guidance. 
During this process, EPA and the Army Corps of Engineers held a 90-day 
public comment period. The agencies received more than 230,000 comments 
and have publicly reported that 90 percent of individual comments 
supported the proposal. In mid-February 2012, the Corps and EPA 
submitted revised guidance to the Office of Management and Budget (OMB) 
for another round of inter-agency review. This process also allows 
nongovernmental organizations to meet with OMB to discuss this policy.
    Guidance proposed by EPA and the Corps is based on sound science 
and clearly complies with the Supreme Court decisions in SWANCC and 
Rapanos. Allowing EPA to proceed with guidance will partially restore 
protections for streams flowing to public drinking water supplies for 
117 million Americans. It will also begin--but only begin--to restore 
protections for some wetlands. Healthy wetlands provide essential 
habitat for waterfowl, fish, and other wildlife, offer cost-effective 
flood protection, and improve water quality. They also support hunting, 
angling, and wildlife watching, which together inject $145 billion 
annually into our economy. Finalizing the guidance will also provide 
more clarity and certainty about Clean Water Act implementation to 
landowners, developers, agency personnel, and State and local 
governments.
      departments of agriculture and the interior, land and water 
                           conservation fund
    The League supports the administration's request for a total of 
$600 million ($200 million in permanent funding and $400 million in 
discretionary funding) for the LWCF in fiscal year 2014. It is 
important to begin to reinvest in strategic land acquisition to protect 
critical habitat, secure valuable in-holdings, and expand recreational 
access to existing Federal public lands. Dramatically reducing funding 
for LWCF will not provide meaningful savings to taxpayers because it is 
capitalized with revenue from off-shore oil and gas drilling. As 
importantly, diverting resources from LWCF to offset other expenditures 
from the general treasury directly undermines the fundamental premise 
on which LWCF is based. That common sense premise is a portion of the 
revenue generated by natural resource extraction should be invested in 
conserving other natural resources at the national, regional, and State 
levels.
 fish and wildlife service, national wildlife refuge system operations 
                            and maintenance
    The League joins other members of the Cooperative Alliance for 
Refuge Enhancement (CARE), a diverse coalition of 22 wildlife, 
sporting, conservation, and scientific organizations representing 
approximately 15 million of members and supporters, in supporting the 
$499 million requested for operations and maintenance of the National 
Wildlife Refuge system.
    The League and CARE groups appreciate the importance of fiscal 
discipline and making strategic spending decisions. CARE annually 
develops an estimate of the operations and maintenance budget that is 
necessary to effectively provide visitor services and law enforcement 
and conserve and manage fish, wildlife, and habitat across the refuge 
system. CARE estimates operations and maintenance needs total at least 
$900 million annually. Although our long-term goal is to make steady 
progress toward a budget which more accurately reflects demands on the 
ground, the fiscal year 2014 request balances fiscal responsibility 
with pressing resource conservation, visitor services, and law 
enforcement needs.
      fish and wildlife service, state and tribal wildlife grants
    As a member of the Teaming with Wildlife Coalition, the League 
urges the subcommittee to provide at least $61 million in fiscal year 
2014 for State and Tribal Wildlife Grants. This amount equals the 
administration's request and the appropriation for fiscal year 2012. 
State Wildlife Grants support proactive conservation projects aimed at 
preventing wildlife from becoming endangered. Experience shows that 
efforts to restore imperiled wildlife can be particularly contentious 
and costly when action is taken only after species are formally listed 
as threatened or endangered pursuant to the Endangered Species Act. 
State Wildlife Grants augment State and community-based efforts to 
safeguard habitat and wildlife before either reaches the tipping point. 
The Federal investment leverages significant additional funding from 
private, State, and local sources.
        u.s. geological survey, asian carp research and control
    Asian carp pose a serious and potentially devastating threat to the 
long-term health of the Great Lakes. Asian carp have been steadily 
migrating north along the Mississippi River and could reach the Great 
Lakes through a system of canals that artificially connect the 
Mississippi River and Great Lakes basins. Experts warn invasive carp 
could devastate the $7 billion commercial and recreational fishery in 
the Great Lakes. The League supports the U.S. Geological Survey (USGS) 
request for a $2 million increase to combat Asian carp in the Great 
Lakes and an additional $1 million to address the threat in the Upper 
Mississippi River region. In the Upper Mississippi region, the research 
would focus on improving methods to detect Asian carp populations at 
low levels and identifying habitats most vulnerable to colonization. In 
the Great Lakes, research would be directed toward developing methods 
for oral delivery of fish toxicants, identifying and developing 
chemical attractants to aid in targeted removal of carp, and testing 
seismic technology as a means of restricting the passage of carp 
through locks and other navigation infrastructure.
    The League believes one of the most effective ways to safeguard the 
Great Lakes from aquatic invasive species is to restore the natural 
hydrologic separation between the Great Lakes and Mississippi River 
basins. In the meantime, we support this request, which represents a 
prudent near-term investment in invasive carp control.
   u.s. geological survey/environmental protection agency, hydraulic 
                    fracturing research and analysis
    The League supports requests by the USGS and EPA for funding to 
continue and augment research concerning the potential effects of high-
volume hydraulic fracturing on water and air quality, surface and 
groundwater resources, habitat, and fish and wildlife. The League 
supports responsible development of domestic energy resources, 
including natural gas, as well as greater emphasis on renewable sources 
and energy efficiency in order to improve energy independence and 
security. At the same time, the accelerated use of hydraulic fracturing 
in the Marcellus region, in particular, continues to outpace our 
knowledge about potential negative impacts on a wide range of natural 
resources.
    The proposed budget would augment research across a range of 
issues. For example, the USGS requests approximately $18.6 million for 
fracturing-related research. With this funding, USGS would prioritize 
research on water quality and supply, air quality, characterizing gas 
resources and the related geologic formations, movement of methane gas 
during the drilling process, and the impacts of fracturing on 
landscapes, habitat, and other natural resources. EPA is requesting 
funding to support an ongoing EPA study assessing the impacts of 
hydraulic fracturing on water resources and other applied research in 
cooperation with USGS and the Department of Energy.
  environmental protection agency, great lakes restoration initiative
    The League supports providing $300 million as requested for the 
Great Lakes Restoration Initiative. The Great Lakes provide drinking 
water to 35 million people and support jobs and recreational 
opportunities for millions more. However, the health of the Great Lakes 
is seriously threatened by untreated sewage, toxic pollution, invasive 
species, and habitat loss. The eight States that border the Lakes and 
many nongovernmental organizations have invested significant resources 
to safeguard these national treasures. Sustained Federal investment at 
a significant level is also needed or the problems will only get worse 
and cost even more to fix.
    Cleaning up the Great Lakes will provide many benefits, including 
economic development in the region. According to the Brookings 
Institution, Great Lakes restoration efforts produce $2 in economic 
return for every $1 invested. Restoration projects create jobs for 
engineers, landscape architects, and construction workers and improve 
water quality, support outdoor recreation, and reestablish healthy fish 
and wildlife habitat. These results lay the foundation for long-term 
prosperity in the region.
 environmental protection agency, non-point source management program 
                     (clean water act section 319)
    The League is concerned that Congress and EPA have reduced funding 
for section 319, the Non-point Source Management Program. These 
reductions are counterproductive as EPA and many States report that 
non-point source pollution is the leading cause of water quality 
problems, including harmful effects on drinking water supplies, 
recreation, fisheries and wildlife. Based on the pressing nature of the 
problem, it makes sense to invest resources that help States and local 
governments more aggressively tackle non-point source pollution. The 
League urges the subcommittee to provide at least the amount requested 
by EPA for section 319.
        environmental protection agency, chesapeake bay program
    The League supports the request for approximately $72.9 million in 
fiscal year 2014 for the Chesapeake Bay Program. The Chesapeake Bay is 
the largest estuary in the United States and one of the largest in the 
world. More than 16 million people live within the Bay watershed. The 
Bay is a critical economic, environmental, and recreational resource 
for these residents and the Nation as a whole. However, the 
productivity and health of this nationally significant resource remain 
seriously impaired by nutrient pollution from multiple sources 
throughout the watershed.
    The EPA and States have launched a significant and rigorous effort 
to cut pollution and improve water quality. Few would argue that 
implementing the total maximum daily load (TMDL) will not be 
challenging or not require significant investment to reduce point and 
non-point source pollution. However, EPA is requesting additional 
funds, in part, to support States, local governments, and other 
partners as they begin implementing the TMDL. The League believes it is 
essential to provide technical and financial assistance to achieve 
results on-the-ground and lay the foundation for sustained pollution 
reductions over the long term.
    The Izaak Walton League appreciates the opportunity to testify 
about these important issues.
                                 ______
                                 
     Prepared Statement of Southern Illinois University--Carbondale
    As a fisheries scientist and long-time collaborator with the U.S. 
Fish and Wildlife Service (USFWS), I am writing to express my concern 
regarding the proposed $400,000/3 FTE reduction in support for the 
USFWS Aquatic Animal Drug Approval Partnership (AADAP) program as 
described in the fiscal year 2014 President's budget. Given the 
importance of this program and its deliverables to the fisheries and 
aquaculture disciplines--particularly to the mission of the USFWS 
itself and researchers like myself--I strongly encourage you to 
reconsider the ramifications of this reduction, and fully support the 
AADAP program with $1,790,000 in base funding and current FTEs. This 
figure represents the amount previously dedicated to the drug approval 
process by the Department of the Interior (2010 funding levels adjusted 
to fiscal year 2014 dollars). Without this level of support, these 
unduplicated and essential activities cannot be completed, and 
fisheries researchers, including myself and my USFWS colleagues, will 
be unable to effectively do our part to conserve America's fisheries 
and aquatic resources.
    Fisheries professionals use a suite of drugs to accomplish 
fisheries management objectives and deliver public and tribal trust 
responsibilities. Field biologists need to use sedatives to protect 
themselves and the fish they handle when collecting population 
assessment data and completing fisheries management objectives. 
Hatchery biologists need therapeutic drugs to combat disease outbreaks, 
spawning aids to encourage fish to reproduce in captivity, and marking 
agents to allow hatchery fish to be differentiated from wild fish after 
stocking. Fish drugs are largely innocuous chemicals such as hydrogen 
peroxide, but it is illegal to use such products unless they have 
passed the rigorous Food and Drug Administration (FDA) animal drug 
approval process. The AADAP program is the only program in the United 
States fully dedicated to fish drug approval research and ensuring 
critically needed drugs are available to fisheries professionals. USFWS 
leadership in this area is critical because the Service itself is a 
major end-user of aquatic animal drugs, the need for safe and effective 
drugs is nationwide, and without public sector assistance economic 
incentives are insufficient to encourage drug sponsors to pursue 
aquatic animal drug approvals in the United States.
    Recognizing difficult budgetary decisions must be made, I contend 
that the proposed cuts to the AADAP program offer only modest savings 
and would eliminate vital elements of a program that serves the USFWS, 
its partners, and fisheries and aquatic resources in essential and 
unduplicated ways. Without access to safe and effective drugs, it is 
unclear to me how fisheries professionals, especially USFWS staff, will 
be able to fulfill their mandates (e.g., rearing and stocking fish, 
collecting field data) without misusing the few approved drugs 
currently available (e.g., overusing an existing antibiotic because no 
other alternatives exist, risking the development of antibiotic-
resistant bacteria) or resorting to the use of unapproved products 
(e.g., using innocuous but currently unapproved products, risking 
significant legal liability and FDA action). The proposed cuts would 
effectively terminate the AADAP research program, and with it, the drug 
approval process in the United States.
    I encourage you to fully support the AADAP program at a funding 
level of $1,790,000 and ensure the current and future needs of 
fisheries and fisheries professionals continue to be met. Thank you for 
your consideration of my position on this issue.
                                 ______
                                 
          Prepared Statement of the Jamestown S'klallam Tribe
    On behalf of the Jamestown S'Klallam Tribe, we are pleased to 
submit this written testimony on our funding priorities and requests 
for the fiscal year 2014 Bureau of Indian Affairs (BIA) and Indian 
Health Service (IHS) budgets. We urge Congress to work together to 
achieve a balanced approach to the deficit reduction that includes the 
raising of new revenue sources and that doesn't rely solely on cuts to 
discretionary spending.
    The Federal approach to deficit reduction has been significantly 
unbalanced with nondefense Federal programs shouldering the fiscal 
burden of these budget cuts. Discretionary programs have already 
experienced $1.5 trillion in spending cuts as a result of reductions in 
the fiscal year 2011 continuing resolution, the Budget Control Act and 
the American Taxpayer Relief Act. Tribes are funded out of the 
nondefense discretionary budget and have experienced significant 
hardship with the imposed budget reductions for Tribal programs. 
Additional budgetary restrictions would devastate our Tribal economies 
impacting not only our Tribal citizens but also the surrounding non-
Native communities whom we employ and provide with much needed 
services, such as, public safety, education, health and dental care.
                tribal specific appropriation priorities
    Restore and increase Housing Improvement Program (HIP) funding.
              local/regional requests and recommendations
    The Jamestown S'Klallam Tribe is a direct beneficiary of the 
collective Tribal efforts and continues to support the requests and 
recommendations of the Affiliated Tribes of Northwest Indians, 
Northwest Portland Area Indian Health Board, and the Northwest Indian 
Fisheries Commission.
                 national requests and recommendations
    BIA requests:
  --Hold Indian Country programs harmless (deficit reductions/
        sequestration);
  --Fully fund contact support costs $242 million for the BIA;
  --Economic Development/Indian Loan Guarantee Program $15 million; and
  --Increase funding for tribal priority allocations.
    IHS requests:
  --Fully fund contract support costs $617 million for the IHS;
  --Fully fund the implementation of ACA inclusive of the IHCIA; and
  --Increase funding for Contract Health Service $171.1 million.
       hold indian country programs harmless (deficit reductions/
                             sequestration)
    Decades of unfulfilled Federal obligations has devastated Tribal 
communities who continue to face persistent shortfalls and overwhelming 
unmet needs. The additional reductions under sequestration will 
devastate our communities and severely inhibit our ability to provide 
essential Governmental services to our Tribal citizens. In addition, 
the budgetary reductions will stifle our economic growth and our 
ability to promote and achieve Tribal self-sufficiency. Until Tribes 
attain exclusive taxing jurisdiction within their Tribal lands, Federal 
support remains critical to ensure the delivery of essential 
Governmental services to our Tribal citizens. The Federal trust 
obligation must be honored and vital programs and services for Tribes 
must be sustained in any deal enacted to reduce the national deficit.
                        bureau of indian affairs
    Since 2004, the BIA has received the smallest percentage increase 
in funding compared to the other agencies within the Department of the 
Interior. Tribal programs make up a minuscule portion of the overall 
Federal budget. For example, the Bureau of Indian Affairs accounts for 
a mere 0.07 percent of Federal spending. During the last two budget 
cycles, the trend of favoring other Interior agencies over the Bureau 
of Indian Affairs has continued. In addition to receiving the least 
amount of incremental funding increases, the Bureau has absorbed the 
greatest funding reductions compared to the other agencies within 
Interior.
    Congressional support of our proposed funding initiatives will 
promote efficiency and accountability, strengthen reservation and 
surrounding local economies, and affirm Tribal sovereignty and Self-
Governance. We have long appreciated this subcommittee's support of our 
funding requests and are pleased to submit the following 
recommendations and requests:
Fully Fund Contract Support Costs (CSC) $242 Million for the Bureau of 
        Indian Affairs and $617 million for the Indian Health Service
    The U.S. Supreme Court recently affirmed that Tribes carrying out 
Federal programs under the Indian Self Determination and Education 
Assistance Act (ISDEAA) are entitled to full payment of their contract 
support costs. Tribes are entitled to be paid what the statute and 
contract promised and to be treated on an equal basis with every other 
Federal contractor. Despite the Supreme Court decision, the Bureau of 
Indian Affairs and Indian Health Service have refused to negotiate in 
good faith with the Tribes to reach a final resolution of this issue 
which has been ongoing for the past 20 years. To further exacerbate the 
situation, the President's fiscal year 2014 budget request will 
fundamentally alter the nature of Tribal Self-Governance by imposing 
individual statutory caps on the payment of Tribal contract support 
costs. The Jamestown S'Klallam Tribe opposes the administration's 
unilateral proposal, in its fiscal year 2014 budget request.
    Contract support cost funding is essential to the operation of 
contracted Federal programs administered under federally issued 
indirect cost rate agreements. No change of such a fundamental 
character should be implemented until there has been a thorough 
consultation and study process jointly undertaken by the Indian Health 
Service (IHS), the Bureau of Indian Affairs (BIA), and tribal leaders, 
informed by a joint technical working group and coordinated through 
NCAI. Such a consultation process must be scheduled to permit 
opportunity for full tribal participation. While we firmly believe that 
overall statutory caps on contract support costs should be eliminated, 
at the very least Congress should maintain in fiscal year 2014 and 
fiscal year 2015 the status quo statutory language enacted in fiscal 
year 2013 so that tribally developed changes in contract support cost 
funding mechanisms, if any, can be included in the fiscal year 2016 
budget.
Economic Development/Indian Loan Guarantee Program $15 Million
    Economic Development in Indian Country trails significantly behind 
the rest of the Nation and the acute economic conditions experienced by 
our Tribal citizens are even more pronounced than those of the current 
economic crisis. Tribal citizens are more vulnerable to the impacts of 
the current economic conditions because Tribal governmental revenues 
depend entirely on effective economic development to support nearly 
every aspect of reservation life and Tribal governance. However, 
chronic underfunding by the U.S. Government and the severe lack of 
private investment has left the economic potential of Indian Country 
unrealized. Tribes are forced to rely on our own economic ventures to 
generate revenue to support citizen programs and maintain Government 
services for our people. Yet, Tribes are expected to meet these 
economic challenges with fewer resources and greater restrictions 
placed on vital economic financing tools and incentives. It stands to 
reason that Tribes should be given all of the tools and incentives 
available to other governments to raise and attract capital. When given 
the right tools to exercise our inherent right of self-government, 
Tribes can effectively lift our communities out of poverty and fully 
participate in the American economy. It is not just our Tribal citizens 
who benefit from Federal investment in our communities, surrounding 
communities, and at times, entire regions, are also beneficiaries of 
Tribal success.
    Guaranteed Financing is needed for Tribal economic development 
projects. The Bureau of Indian Affairs (BIA) loan guarantee program is 
vital to Tribes because it creates jobs, provides new sources of 
revenue to Tribal communities, and critical support in advancing 
economic development in Indian Country. This program provides 
attractive incentives and assurances for banks to expand and underwrite 
loans in Indian Country, assisting Tribes in accessing capital and 
encouraging lending to Indian-owned businesses. Loan guarantees are 
also an attractive financial measure because they result in the 
leveraging of Federal dollars. Federal program funding and guarantees 
are critically important to Tribes seeking to develop a strong economic 
foundation. If not for the BIA Loan Guarantee Program, many Tribes 
would not, in most cases, be able to secure loans from the standard 
sources available to other entities and businesses. We urge you to 
restore and increase funding for this program, a very important tool 
for raising the level of Tribal self-sufficiency.
Tribal Priority Allocations Increase Funding
    Tribal priority allocations fund essential core governmental 
services. We use these dollars to provide the most basic needs for our 
Tribal citizens: food, clothing and shelter and to provide critical 
services, including, law enforcement, education, transportation, 
natural resources and economic development. Since 1996, Tribal 
government core services are operating with over a 30 percent reduction 
in base funds. We urge you to adequately fund TPA to enhance the health 
and well-being of our communities.
    Restore Housing Improvement Program (HIP) Funding.--This program 
serves the neediest population, or, those at 125 percent of the Federal 
income poverty guideline. The President's fiscal year 2014 budget 
request zeroed out this program based on the false presumption that it 
is duplicative of existing HUD programs. This assumption is wrong and 
we urge you to restore funding for this program that provides an 
essential service, safe and sanitary housing, to our Tribal citizens.
                         indian health service
    Given the unique mission of the IHS as a direct healthcare provider 
fulfilling a Federal trust responsibility, fully funding and 
implementing the ACA and IHCIA will elevate the health status and 
decrease the health disparities experienced by American Indians and 
Alaska Natives. Federal spending for the Indian Health Service amounts 
to 0.12 percent, a very small percentage of the Federal budget.
    Contract Health Service.--Provide a $171.7 million increase for 
CHS. Most IHS and Tribal operated direct care facilities do not provide 
the required emergency and specialty care services so Tribes are forced 
to turn to the private sector to fulfill this need. CHS funds are used 
to purchase essential healthcare services, including inpatient and 
outpatient care, routine emergency ambulatory care, transportation and 
medical support services, such as diagnostic imaging, physical therapy, 
laboratory, nutrition and pharmacy services.
      fully fund the implementation of aca inclusive of the ihcia
    The permanent reauthorization of the Indian Health Care Improvement 
Act (IHCIA) within the ACA is the most significant advancement in 
Federal health policy for Tribes in decades. The purpose of the IHCIA 
is to promote healthcare parity for Indian Tribes by addressing 
deficiencies in health status and resources within the Indian health 
system. Funding for the IHCIA is a top budget priority. Although the 
IHCIA provides the authority and, with it, the opportunity to provide 
essential healthcare to Tribal citizens, it did not provide the 
necessary funds to the IHS to carry out these new statutory 
obligations.
    There are 23 unfunded provisions in the Indian Health Care 
Improvement Act (IHCIA). Many of the provisions that remain unfunded 
would strengthen the Tribal healthcare workforce, provide greater 
access to behavioral health and support innovative initiatives for 
healthcare delivery to Tribal citizens. Funding these provisions is a 
necessary precursor to increase Tribal capacity, infrastructure and 
most importantly access to healthcare services.
    Significant Federal investment is needed to achieve a fully funded 
Indian Health Service and now is the time to act on opportunities made 
possible in the newly expanded authorities granted under the Indian 
Health Care Improvement Act.
    On behalf of the Jamestown S'Klallam Tribe, I respectfully request 
that these recommendations be included in the fiscal year 2014 Federal 
budget in order to honor the trust responsibility and support tribal 
economic security and prosperity.
                                 ______
                                 
        Prepared Statement of the League of American Orchestras
    The League of American Orchestras urges the Senate Interior, 
Environment, and Related Agencies Appropriations Subcommittee to 
approve fiscal year 2014 funding for the National Endowment for the 
Arts (NEA) at a level of $155 million. We ask Congress to continue 
supporting the important work of this agency, which increases public 
access to the arts, nurtures cultural diversity, promotes the creation 
of new artistic works, and cultivates a sense of cultural and historic 
pride, all while supporting millions of jobs in communities nationwide.
    The League of American Orchestras leads, supports, and champions 
America's orchestras and the vitality of the music they perform. Its 
diverse membership of more than 800 orchestras runs the gamut from 
world-renowned symphonies to community groups, from summer festivals to 
student and youth ensembles. Orchestras unite people through creativity 
and artistry, fuel local economies and civic vitality, and educate 
young people and adults.
    Throughout the Nation, persistent economic challenges beset 
nonprofit arts organizations; therefore, the award of a notably 
competitive NEA grant continues to be a compelling boost to an 
orchestra's pursuit of funding from other sources. Indeed, a grant from 
the NEA has long been recognized as a mark of public value and national 
artistic significance, and the distinction of presenting these 
nationally recognized programs is enjoyed by communities large and 
small. In fiscal year 2013, the NEA's Grants to Organizations included 
100 direct grants to orchestras, and continued funding for the agency 
will support orchestras' ability to serve the public. The NEA promotes 
creation, engagement, livability, and learning in the arts through Art 
Works--the major support category for organizations--and the Challenge 
America: Reaching Every Community grant program, as well as through 
vital Federal/State partnerships.
    In addition to educating and engaging people of all ages, fueling 
local economies, and attracting new business development, orchestras 
connect people and cultures in a uniquely powerful way. The League is 
committed to helping our members engage with their communities, and the 
NEA plays an invaluable leadership role through its direct grants, 
strategic initiatives, and research on trends in public participation 
and workforce development.
    nea funding increases public access to live cultural experiences
    The NEA, together with the organizations it helps support, is 
dedicated to improving public access to the arts. For example, the 
Portland Symphony Orchestra (PSO), which employs 10 full-time and 5 
part-time staff, along with 86 musicians, received an NEA grant in 
fiscal year 2009 that supported a program featuring the performance of 
``Sabar: Concerto for Senegalese Drummers and Orchestra'' by James 
DeMars. This grant allowed the PSO to offer a lecture at the Museum of 
African Culture in Portland with Music Director Robert Moody, guest 
Senegalese drummer Mark Sunkett, and Museum Director Oscar Mokeme, as 
well as an in-school performance and presentation at King Middle 
School, which serves the most racially, ethnically, and economically 
diverse neighborhoods in Maine. Twenty-six percent of the school's 
nearly 500 students speak a primary language that is not English. The 
centerpiece performance attracted the second highest attendance for a 
PSO Classical Concert during the 2008-09 season, and the concert 
allowed the PSO to serve the people of Southern Maine by increasing 
their knowledge of, appreciation for, and understanding of West African 
music and culture by presenting it in the context of similar dance and 
cultural influences in the music of Bartok.
    The rural isolation of the Walla Walla, Washington region poses 
challenges to its local cultural arts organizations, but the Walla 
Walla Symphony, with just two full-time and five part-time staff, 
roughly 60 musicians, and more than 35 volunteers nonetheless finds a 
way to offer a year-round, intensive complement of musical and 
educational experiences--often free or at low cost. The region's 
population has a low median income, with more than half of area youth 
qualifying for the Federal Free/Reduced Lunch program, and every school 
in the district failed to meet No Child Left Behind progress 
requirements in 2011. A lack of resources in the schools has made it 
all the more important for area arts organizations to serve as partners 
to the schools. With an fiscal year 2013 Challenge America grant from 
the NEA, the Walla Walla Symphony will bring guest artists PROJECT Trio 
to a community that has expressed an ongoing interest in compelling 
guest artist performances, high-quality symphonic music, and music 
education resources and opportunities for its children. During its 4-
day residency, PROJECT Trio will collaborate with symphony musicians to 
offer four musical events to the public: they will appear in an 
Educational Family Concert, offer a solo Trio performance, appear in a 
full symphonic concert, and provide educational programs at local 
schools.
    Another recipient of Challenge America support, the Tulsa Symphony 
Orchestra, a musician-led orchestra with five full-time and seven part-
time staff and a musician pool of 140, organized 2 days of string 
workshops and clinic sessions for area students, teachers, and 
musicians with visiting guest violin and teaching artists Mark O'Connor 
and Kelly Hall-Tompkins. The sessions preceded a concert and were 
hosted by Will Rogers High School and the University of Tulsa. More 
than 95 percent of the students participating were from underserved 
title I schools and the NEA grant provided much-needed transportation 
to the workshop sites. This component of support is often overlooked 
and yet it meets a specific, acute need that would otherwise have 
prevented Will Rogers students from being able to learn from these 
artists. In addition to making the workshops possible, the NEA grant 
also allowed the Tulsa Symphony to provide tickets to 400 economically 
disadvantaged students to attend an evening concert featuring these 
same guest artists at the Tulsa Performing Arts Center.
     nea grants help orchestras educate and engage america's youth
    NEA support helps bring disparate communities together through the 
experience of live music, and it also provides a creative means to 
focus on educating and encouraging young people in their musical and 
academic endeavors. In June 2012, the Alexandria Symphony Orchestra's 
(ASO) ``Music Makes a Difference'' program engaged more than 3,600 
students in a hands-on arts education program. The orchestra partnered 
with three Alexandria City Public Schools (ACPS) to create and deliver 
an integrated music, art, and astronomy unit based on Virginia 
Standards of Learning for elementary school students. The unit 
culminated in three side-by-side performances of Gustav Holst's ``The 
Planets,'' performed by both ASO professional musicians and ACPS middle 
school students. During the concerts, elementary students' artwork 
based on their astronomy lessons was projected on stage to further 
reinforce science concepts. ASO was able to offer this kind of 
innovative program thanks to NEA support and its dedicated four full-
time and two part-time staff members, 250 part-time musicians, and 40 
volunteers.
    The El Paso Symphony Youth Orchestras (EPSYOs) similarly utilized 
NEA funding to foster the musical and academic achievement of more than 
270 students from throughout the region through four distinct ensembles 
based on age and skill levels. These ensembles include the El Paso 
Youth Orchestra, the El Paso Symphony Youth String Ensembles, the El 
Paso Youth Symphonic, and the El Paso Youth String Philharmonic. In 
addition to the musical instruction these students receive, such as 
weekly rehearsals, master classes, clinics, and performances, they also 
develop study skills, self-esteem, confidence, and determination that 
crosses over into their academic work as well. In fact, 100 percent of 
all high school seniors participating in the EPSYO program since its 
inception 6 years ago have gone on to seek a higher education at 
universities and colleges throughout the United States. Although most 
of these youth orchestra alumni are not pursuing a music degree, almost 
all of them credit their involvement with the EPSYOs for their desire 
and ability to apply to these programs. Furthermore, many of these 
students are low-income and in addition to receiving financial aid for 
EPSYOs tuition during their involvement, many of them also received 
higher education scholarships due to their involvement with the EPSYOs 
program and its clinicians and master class presenters.
    Like El Paso, the Heart of Los Angeles affords valuable 
opportunities to economically disadvantaged children. A fiscal year 
2013 NEA Arts Works grant supports the Youth Orchestra Los Angeles at 
Heart of Los Angeles (YOLA at HOLA) program. Implemented in partnership 
with the Los Angeles Philharmonic, which employs 107 full-time 
musicians, 133 full-time administrative staff members and 1,814 part-
time and seasonal workers, YOLA at HOLA provides 240 children in the 
underserved Rampart District with free afterschool instrumental 
instruction, ensemble performance opportunities and academic support 
15-17 hours per week for 48 weeks out of the year. YOLA at HOLA 
students have the opportunity to participate in both large orchestral 
and small group ensembles, service learning projects, and student 
leadership committees. The program's young musicians have participated 
in public performances in community venues throughout Los Angeles, 
including the nationally renowned Hollywood Bowl and Walt Disney 
Concert Hall, reaching more than 20,000 listeners. A music learning 
program with an emphasis on community-building, YOLA at HOLA also 
provides families with access to social service support, adult music 
learning opportunities and parenting workshops.
          nea funding encourages new works and local artistry
    NEA grants to orchestras help support the creative initiatives of 
American composers and musicians, many of whom share the agency's 
dedication to developing young audiences. The Cleveland Orchestra and 
its 236 full-time staff members will use its fiscal year 2013 Art Works 
grant to host a week-long residency at Severance Hall featuring a newly 
commissioned orchestral work by young American composer Sean Shepherd. 
From April 16 through April 21, The Cleveland Orchestra is premiering 
Sean Shepherd's commissioned work, and Mr. Shepherd is participating in 
numerous educational activities that will inspire students of all ages 
in northeast Ohio. His residency encompasses master classes, in-school 
visits, lectures, chamber concerts, concert previews, and rehearsals 
throughout the community. Students from four local high schools and 
universities will be given the opportunity to discuss the composition 
process and ways to bring creative musical ideas to life, and students 
will also receive feedback from Mr. Shepherd on their own compositions. 
The Cleveland Orchestra and conductor Franz Welser-Most will premiere 
Sean Shepherd's work in concerts at Severance Hall in Cleveland's 
University Circle district on April 18, 20, and 21. Thanks to the NEA's 
support, approximately 7,000 students and adult community members in 
northeast Ohio will interact with this art and the variety of related 
educational programming. Mr. Shepherd's residency exemplifies the 
orchestra's commitment to providing opportunities for the next 
generation of composers to create new work while mentoring and 
developing wide-ranging, multifaceted relationships with young 
composers, as well as engaging audiences of all ages in the classical 
music art form.
    Thank you for this opportunity to convey the tremendous value of 
NEA support for orchestras and communities across the Nation. These are 
but a sampling of the innovative compositions, thoughtful programming 
for underserved regions and populations, and lifelong learning 
opportunities orchestras provide in service to adults and children from 
all walks of life. The Endowment's unique ability to provide a national 
forum to promote excellence and engagement through high standards for 
artistic products and the highest expectation of accessibility remains 
one of the strongest arguments for a Federal role in support of the 
arts. We urge you to support creativity and access to the arts by 
approving $155 million in funding for the National Endowment for the 
Arts.
                                 ______
                                 
    Prepared Statement of the Lac du Flambeau Band of Lake Superior 
                            Chippewa Indians
    My name is Tom Maulson, I am president of the Lac du Flambeau Band 
of Lake Superior Chippewa Indians, located in Wisconsin. I am pleased 
to submit this testimony, which reflects the needs of our Tribal 
members for fiscal year 2014. I would like to thank the subcommittee 
for its leadership and commitment to Tribes and the programs that are 
critical to us.
    Sequestration.--We would first like to express our strong objection 
to sequestration of discretionary programs. An across the board 
sequester was proposed not as a sensible policy, but because it was so 
universally viewed as unreasonable that it was expected to spur 
Congress and the President to get together on the budget to make sure 
it never took place. Yet here we are, with a sequester in place for 
fiscal year 2013--and likely to continue unless Congress and the 
President can agree otherwise for fiscal year 2014.
    The sequester is terrible policy for the country overall, but it 
has a special impact on tribes. The United States has both Treaty 
obligations and a trust responsibility to Indian tribes. The tribes 
gave up the lands on which this country was built, in return for the 
solemn promises of the United States to protect tribal treaty rights, 
lands and resources and to provide various services to tribal members. 
The United States' promises to the tribes should be kept--and not 
reduced by sequestration. The indiscriminate cuts from sequestration 
harm tribes, as we continue our ongoing effects to promote economic 
growth and build a better future for our children. Tribal programs 
should not be subject to sequestration.
    Changes Proposed Regarding Contract Support Costs--For BIA and 
IHS.--The Lac du Flambeau Band opposes the administration's proposal 
for fiscal year 2014 regarding payment of contract support costs. Here 
again, this is a matter of the United States keeping its promises. When 
a tribe enters a contract with the United States under the Self-
Determination Act, the United States promises to pay full contract 
support costs--various costs necessary for the tribe to successfully 
run the program. The courts have held that if the United States does 
not fulfill its promise regarding payment of contract support costs, 
the tribe can file a claim and recover the shortfall. But now, the 
administration is proposing a new system--which would impose for the 
first time caps for each tribe regarding contract support costs. The 
whole purpose of these new tribal-specific caps is to protect the 
United States from having to pay full contract support costs. The 
effect of this provision would be to make it more difficult for tribes 
that enter contracts or compacts under the Self-Determination Act to 
succeed, and to penalize tribes that wish to enter new contracts or 
compacts. The administration's proposal should be rejected. Congress 
should fully fund all contract support costs and resolve all prior year 
contract support cost claims.
                         indian health service
    Purchased/Referred Care.--We want to call particular attention to 
the need for purchased/referred care (which was previously called 
contract healthcare) funding, which is a need that we have expressed to 
Congress for several years. This category of health care funding is so 
important to the basic health and well-being of our communities, where 
a very significant portion of our healthcare must be referred out. 
Despite its importance, historically this category has been tragically 
underfunded--with funds running out before the year ends. We would like 
to express our appreciation to the subcommittee for providing increases 
to contract healthcare funding over the past couple of years, and we 
strongly support the $35 million increase for purchased/referred care 
services proposed for the fiscal year 2014 budget.
    Mental Health.--At Lac du Flambeau there is a rapidly expanding 
need for resources to address a range of mental health problems. 
Funding has simply failed to keep pace with our needs--as our mental 
health funding remains a very small portion of our annual healthcare 
funding. We strongly support the administration's proposal to add $4.2 
million for Mental Health.
                        bureau of indian affairs
    The Tribe is disappointed that the BIA's proposed budget for fiscal 
year 2014 is essentially level funding for most programs. The Tribe 
recognizes the difficult fiscal times the Nation is in and thus, is 
pleased that the BIA did not propose decreases to many BIA programs. 
The 2014 budget does include an initiative called ``horizontal 
consolidation''--a $33.5 million cut that would be imposed by reducing 
BIA personnel at the Headquarters, Regional and Agency offices through 
attrition, buyouts and other means. We are concerned that will leave 
the BIA inadequately staffed to meet its trust obligations of the 
tribes. We are seeing this with respect to BIA Natural Resource 
personnel--as key people leave and are not replaced, the level of 
services to the tribes may decline and key tasks may be delayed or 
omitted entirely. It is vital that BIA personnel reductions be 
undertaken with full tribal consultation and sensitivity to the needs 
of tribes and the BIA's ongoing obligations. We urge the subcommittee 
to monitor these changes carefully.
    Today we want to focus on the funding needs for the BIA Education, 
Public Safety and Natural Resource Programs.
    Tribal Education Programs.--Education is a top priority for the 
Tribe. We believe that it is through investment in education that we 
will be able to restore stability to our Nation's economy. To continue 
the progress Indian Country has made in participation and control of 
education programs and schools, it is imperative that funding for 
tribal higher education programs be increased. We support the 
administration's proposed small increase for the BIA scholarship and 
adult education program, as well as the newly proposed $3 million for 
postgraduate study in science fields. This funding supports Indian 
students working for higher education and advanced degrees. Tribal 
communities have made great strides in educating their youth. Those 
strides are evident in the fact that more Indian students are attending 
and graduating from colleges and other post-secondary institutions. 
However, tribal communities must continue to evolve with other 
communities. The national and global economy has changed--students must 
earn college and graduate degrees to remain competitive.
    Public Safety.--The Tribe supports the administration's proposal to 
increase funding for BIA Public Safety and Justice Programs. Among the 
many challenges facing law enforcement at Lac du Flambeau is an 
increasing threat from a range of illegal drugs--including synthetic 
cannabinoids and others. The rapid growth in the use of these illegal 
drugs has led our Tribal government recently to declare a state of 
emergency. We are taking broad steps to address the problem in a multi-
dimensional way--including education, prevention and rehabilitation. A 
key component of this effort is to prosecute those who sell these 
illegal drugs that are so significantly harming our young people and 
our communities. This is just one example of the need for an effective 
law enforcement presence at Lac du Flambeau.
    Tribal Natural Resource Management and Development.--Tribes are 
leaders in natural resource protection and BIA natural resource funding 
is essential to maintain our programs. Lac du Flambeau has a 
comprehensive Natural Resources Department and dedicated staff with 
considerable expertise in natural resource and land management. Our 
activities include raising fish for stocking, conservation law 
enforcement, collecting data on water and air quality, developing well 
head protection plans, wildlife habitat protection and enhancement, 
conducting wildlife surveys and administering timber stand improvement 
projects on our 86,000-acre Reservation. In addition to being important 
cultural and environmental resources for current and future 
generations, natural resources provide many Tribes and surrounding 
communities with commercial and economic opportunities. It is with this 
understanding of the importance of our natural resources, that the 
Tribe strongly supports the administration's proposed increase of $2 
million for the Tribal Natural Resource Management and Development. 
Specific proposed increases in Fishing, Wildlife and Parks, Endangered 
Species, Rights Protection and Cooperative Landscape Conservation are 
all very important to us. We also support the administration's 
initiative to engage Indian youth in the natural sciences.
    Conservation Law Enforcement Officers.--One of the critical 
elements of our Natural Resource program is our Conservation Law 
Enforcement Officers. These officers are primarily responsible for 
enforcing hunting and fishing regulations related to the exercise of 
treaty rights, but they also have a much larger role in law 
enforcement. They are often the first to respond to emergency 
situations. These officers play an integral part in protecting our 
cultural and economic resources, as well as assisting with the most 
important role of protecting public safety. We urge the subcommittee to 
support increased funding for Conservation Law Enforcement for fiscal 
year 2014, as an acknowledgement of the importance of Tribal 
conservation law enforcement officers to the Federal law enforcement 
family.
    Circle of Flight: Wetlands Waterfowl Program.--We urge the 
subcommittee to continue to provide support for the BIA Circle of 
Flight Program, by providing at least the $800,000 funding level 
proposed by the administration. This program supports Tribal efforts 
throughout the Great Lakes Region to restore and preserve wetlands and 
waterfowl habitat within Tribal territories. This program also gives 
the Great Lakes Region Tribes, States, USFWS, USDA, Ducks Unlimited and 
other private sector groups an opportunity to work cooperatively in 
projects that provide wetland protection, flood control, clean water 
and recreation in the Great Lakes Region. The subcommittee's strong 
support of this program over two decades has resulted in tremendous 
successes in restoring wetlands and waterfowl habitat throughout the 
Mississippi Flyway.
    Great Lakes Indian Fish and Wildlife Commission.--Related to the 
Tribe's natural resource needs, we would like to voice our continuing 
support for the Great Lakes Indian Fish and Wildlife Commission 
(GLIFWC). The Tribe is a member of the Commission, which assists the 
Tribe in protecting and implementing its treaty-guaranteed hunting, 
fishing and gathering rights. We urge the subcommittee to fully support 
the programmatic funding for GLIFWC in the amount of $6.367 million 
from BIA, plus $1.2 million from EPA to continue its vital treaty-
rights protection/implementation programs. GLIFWC has played an 
invaluable role in providing science and sound management practices for 
our off-reservation resources. This role could not be filled by any 
other agency.
                    environmental protection agency
    Tribal General Assistance Program.--The Tribe strongly supports the 
proposed $5 million increase for the Tribal General Assistance Program 
(Tribal GAP). This program provides base environmental funding to 
assist Tribes in the building of their environmental capacity to assess 
environmental conditions, utilize available data and build their 
environmental programs to meet their needs. This funding is critical 
for Tribes in the Great Lakes as our region begins to examine resource 
extraction issues, in particular mining. While we understand the need 
for job creation, we believe any action must be done in a way that does 
not destroy our natural resources, which are the basic foundation of 
our way of life and economies today.
    Great Lakes National Program Office.--We continue to support the 
Great Lakes Restoration Initiative (GLRI) and in particular, the 
funding set-aside for tribes. The Great Lakes represent three-quarters 
of the world's supply of fresh water. But for us, the indigenous people 
of Wisconsin, the Great Lakes represent the life blood of our economies 
and our culture. The protection and preservation of the Great Lakes are 
necessary to the protection and preservation of the tribal communities 
that have made the Great Lakes their home since time immemorial.
    Clean Water Program.--The Clean Water Program provides grants to 
tribes under section 106 of the Clean Water Act to protect water 
quality and aquatic ecosystems, and the Tribe supports the proposed 
$20.3 million increase in section 106 grants. The Lac du Flambeau Clean 
Water program monitors, maintains and improves water quality for the 
tremendous amount of surface and ground water within the exterior 
boundaries of our Reservation. There are 260 lakes covering 17,897 
acres, 71 miles of streams, and 24,000 acres of wetlands within the 
Reservation. Surface waters cover nearly one-half of the Lac du 
Flambeau Reservation. Funding to maintain clean waters on our 
Reservation has already decreased below the minimum required to 
maintain our program. We ask the subcommittee to protect funding for 
this program.
    Air Quality.--In Wisconsin, a major recent change in State law 
creates the likelihood of a new, large-scale iron-mining, which would 
have extensive environmental impacts on both the Reservation and the 
Tribe's ceded territory, where we have Treaty-protected hunting, 
fishing and gathering rights. To protect our lands and Treaty rights 
from pollution associated with new iron mining, we will need baseline 
air quality data which demonstrates the conditions we are seeking to 
protect. We urge the subcommittee to support increased funding for 
Tribal air quality monitoring activities and associated staffing.
    Brownfields.--The 2002 Brownfield bill authorizes $50 million for 
State and Tribal Response Programs. Appropriations have been slightly 
less than the authorized $50 million. The 2002 authorization expired in 
2006. Like many programs, expired authorizations have continued to be 
allocated. Both States and Tribes are competing for the same pool of 
money. Every year more tribes apply for funding. There is a critical 
base needed just to operate a program. Both the needs of a State 
cleanup program and the needs of new tribal cleanup programs cannot be 
met by the authorized $50 million or the allocated amounts.
                                 ______
                                 
        Prepared Statement of the Lummi Indian Business Council
    Mr. Chairman and distinguished members of the subcommittee, thank 
you for the opportunity to provide written testimony on the fiscal year 
2014 budget priorities for the Bureau of Indian Affairs (BIA) and the 
Indian Health Service (IHS).
                         background information
    We are the Lhaq'temish, ``The Lummi People.'' We are the original 
inhabitants of Washington's northernmost coast and southern British 
Columbia and are the third largest Tribe in Washington State serving a 
population of more than 5,200. The Lummi Nation is one of the 
signatories to the Point Elliot Treaty of 1855. The Lummi Nation is a 
fishing Nation and for thousands of years we have worked, flourished 
and celebrated life on the shores and waters of the Salish Sea which is 
referred to as Puget Sound. We have drawn our physical and spiritual 
sustenance from the marine tidelands and waters of the Salish Sea since 
time immemorial, and we understand the challenge of respecting our 
traditions while making progress in a modern world--to listen to the 
wisdom of our ancestors, to care for our lands and waterways, to 
educate our children, to provide family services and to strengthen our 
appropriate ties with neighboring communities and jurisdictions.
   lummi specific requests--bia and bureau of indian education (bie)
    +$13 million over 10 years on fish hatcheries:
    --$2 million for Phase 1--Fish Hatchery Water Supply Line
    --Basic maintenance, upgrades and improvements
    --Fish hatchery expansion and construction
    +$300,000 for BIE--Preschool--Furnish, equip and staff two new 
classrooms
    +$200,000 funding to continue the Lummi Nation's successful water 
rights restoration and management program.
       committee direction to department of the interior requests
    Direct the Department of the Interior (DOI) and BIA to settle 
existing claims for past contract support funding owed to Tribes and 
consult with Tribes on contract support costs policies and procedures 
to govern future funding years.
    Require Census to work with tribal governments and BIA to develop a 
tribal specific Census supplemental program.
    Secure Residential School funding for youth who reside at Lummi 
Youth Academy.
    Increase funding for Community Fire Protection Program consistent 
with tribally identified need(s).
            lummi specific requests--indian health services
    +$500,000 for IHS to provide minimal funding to the Lummi Nation 
under the ASAP and MMSP programs.
    +$500,000 for IHS facility funding to support the start-up 
furnishing, staffing and equipment packages for a school and an urban 
healthcare clinic.
                  committee direction to dhhs requests
    IHS must take a leadership role in the implementation of the 
Affordable Care Act (ACA) amongst DHHS Operating Divisions.
    IHS must take the primary role in the implementation of Indian 
Health Care Improvement Act.
    Provide direct financial support to IHS for a Tribal/Federal Work 
Group which addresses the need for Basic Emergency Medical Services 
among tribal members.
            lummi specific requests justifications--bia/bie
    +$13 million over 10 years on fish hatcheries.--Lummi Nation Fish 
Biologists estimate that our fish hatcheries are currently operating at 
30 percent of their productive capacity. Funding is needed to support 
increased hatchery production through basic maintenance, upgrades and 
improvements. This is addressed in the Lummi Nation's comprehensive 
plan to eliminate economic fishery disasters which have regularly 
occurred since 1999.
  --+$2 million for Phase 1--Fish Hatchery Water Supply Line.--We are 
        requesting funding for the first phase of this project. Our 
        goal is to increase fish returns by improving aquaculture and 
        hatchery production and create a reliable, sustainable resource 
        to salmon fishers by increasing enhancement.
  --Fish hatchery expansion and construction.--The water infrastructure 
        project is needed to support fish hatchery optimization 
        expansion and construction to meet the demands of the modern 
        world.
  --+$300,000 for the Lummi Nation Preschool to furnish, equip and 
        staff for two new classrooms.--The Lummi Nation has financed 
        the construction of a new early childhood learning facility to 
        house the Lummi Nation Head Start Program, Lummi Nation Day 
        Care and adding two new Classrooms from BIE Preschool funds.
  --+$200,000 funding to continue the Lummi Nation's successful water 
        rights restoration and management program.--Lummi Nation 
        developed its successful Water Rights Restoration and 
        Management project, in response to literally decades of neglect 
        by the Federal Government which resulted in the development of 
        non-tribal community water systems on Lummi Reservation Lands; 
        lands that are treaty-reserved for the exclusive use of Lummi 
        Nation tribal membership. The Lummi Nation has been able to 
        assume ownership of three reservation based water systems 
        developed by non-Indians with relatively little disruption to 
        water services. Our successful model requires substantial 
        initial expenditures to avoid long term costs. Lummi Nation's 
        approach is to use staff lawyers to work with existing water 
        associations and stakeholders to negotiate and avoid long term 
        costly litigation.
           committee direction to doi requests justifications
    Direct the DOI and the BIA to settle existing claims for past 
contract support funding owed to Tribes and consult with Tribes on 
contract support costs policies and procedures to govern future funding 
years.
    Require the Department of Commerce, Bureau of the Census to work 
with the Department of the Interior--BIA to assume the responsibility 
and funding otherwise available for the U.S. Census of Indian Country. 
The BIA is uniquely constituted and situated to work with tribal 
governments to develop a comprehensive, reliable and valid Census for 
Indian Country. Now that the BIA is under pressure to improve the 
reliability and validity of its Labor Force Report and related data 
they are drawn back to the Census.
    Secure Residential School funding for youth who reside at Lummi 
Youth Academy. The Lummi Nation has constructed facilities to support 
70 residential service placements for Lummi Nation youth at the Lummi 
Nation Youth Academy. The Lummi Nation is seeking to assume authority 
and funding from existing BIA Residential Schools. The Lummi Nation is 
preparing formal notification, 18 months in advance of the planned 
assumption date.
    Increase funding for Community Fire Protection Program consistent 
with tribally identified need(s). Tribal governments, who rely on these 
services to limit damage to property injury and death to its 
membership, must reach out to local services with little or no 
resources to support the services needed. In time of economic hardship 
local governments eliminate services for which there is no identified 
payment source. Currently, the Bureau Community Fire Protection Program 
is funded at $845,000 which serves approximately 40 tribal communities 
out of a total of 565+ tribal communities.
              lummi specific requests justifications--ihs
    +$500,000 to allow the Indian Health Services to provide minimal 
funding to the Lummi Nation under the ASAP and MMSP programs.--The 
Alcohol and Substance Abuse and the Meth Mitigation and Suicide 
Prevention Programs fund services desperately needed by Lummi Nation 
membership on both an individual and community basis. Lummi Nation 
Police and Tribal Court handle more than 2,000+ alcohol and drug abuse 
cases each year.
    +$500,000 for facility funding to support the start-up furnishing, 
staffing and equipping packages for a school and an urban healthcare 
clinic.--The Lummi Nation is seeking to expand access to healthcare 
services for its membership. We see the opportunity to expand Lummi 
Nation Health Care services to our tribal school and to our Lummi 
Nation urban population who reside off Reservation due to the lack of 
housing on the Reservation.
          committee direction to dhhs requests justifications
    IHS must take a leadership role in the implementation of ACA 
amongst DHHS Operating Divisions. The IHS must act in concert with 
tribal governments who are seeking ways to ensure their membership 
accesses and benefits from National Health Care Reform.
    Lummi Nation is requesting that the committee direct DHHS and IHS 
to convene in tribal consultations and Tribal Work Groups on program, 
services, functions and activity proposals of the Indian Health 
Services and the operating divisions.
    IHS must take the primary role in the implementation of the Indian 
Health Care Improvement Act. There are several provisions of the Indian 
Health Care Improvement Act that must be supported and implemented 
through IHS. Sections 206, 222 and the sections that prohibit Indians 
being forced to register in a managed care plan. The Lummi Nation is 
requesting that the committee direct the Indian Health Services to form 
a Tribal/Federal Work Group to identify and develop a plan of action to 
address these implementation issues.
    Provide direct financial support to the Agency for Tribal/Federal 
Work Group which addresses the need for Basic Emergency Medical 
Services among tribal members. IHS has assumed that other local 
governments are providing these essential community services. Tribal 
Governments rely on these services to limit damage to property, injury 
and death to its membership. During times of economic hardship local 
governments are cutting those services which are not supported by 
additional funding. Lummi Nation requests that the subcommittee provide 
specific financial support to the Tribal Federal Work Group convened to 
address the need to plan and implement essential community services.
    Regional Requests.--The Lummi Nation supports the requests of the 
Affiliated Tribes of Northwest Indians, the Northwest Portland Area 
Indian Health Board and the Northwest Indian Fisheries Commission, that 
are beneficial to the region and our tribal interests.
    National and Self-Governance Fiscal Year 2013 Budget Priorities.--
In general, all BIA and IHS line items should be exempt from any budget 
rescission and discretionary funding budget reductions.
    BIA:
  --Fully Fund Contract Support Costs (CSC).--Provide increase over the 
        President's fiscal year 2013 request needed to fund the CSC 
        shortfall report.
  --Law Enforcement.--Fully Fund all Provisions of the Tribal Law & 
        Order Act of 2010 and VAWA's reauthorization tribal provisions 
        that affect Indian Tribes and Law Enforcement programs, 
        services and functions.
    IHS:
  --Fully Fund Contract Support Costs (CSC).--Provide increase over the 
        President's fiscal year 2013 request needed to fund the CSC 
        shortfall report.
  --Mandatory Costs.--Provide increased funding for mandatory 
        healthcare costs to maintain current services.
  --Purchased Referred Care (PRC), formally Contract Health Services.--
        Provide a threefold increase to CHS Funding.
    Thank you for this opportunity to provide Lummi Nation 
appropriations priorities for fiscal year 2014.
    Hy'shqe.
                                 ______
                                 
        Prepared Statement of the Lummi Indian Business Council
    The purpose of this letter is to express the Lummi Nation's serious 
concern with respect to language in the fiscal year 2014 President' 
budget proposing a $400,000 reduction in funding for the U.S. Fish and 
Wildlife Service's Aquatic Animal Drug Approval Partnership (AADAP) 
program. AADAP is the Nation's only program singularly committed to 
obtaining U.S. Food and Drug Administration approval of aquatic animal 
drugs needed by fisheries professionals. AADAP provides many key 
services to the USFWS and its partners, including the Northwest Indian 
Fisheries Commission and their 20 member treaty tribes, by providing 
access to needed drugs and securing drug approvals to ensure safe and 
effective drugs are available to treat disease, aid spawning, and 
facilitate field research and fisheries management activities. We 
firmly believe any reduction in funding for AADAP would have a 
significant, negative impact on the ability of the USFWS to meet tribal 
trust responsibilities and for the tribes themselves to accomplish fish 
production and field management objectives. We request that the 
proposed cuts be reconsidered, and that the AADAP program receive 
$950,000 in base funding.
    Lummi Nation owns and operates two anadromous salmon hatcheries in 
Whatcom County, Washington. One of the hatcheries is responsible for 
the recovery of an ESA-listed stock of spring chinook in the South Fork 
Nooksack River. This unique stock of fish is reliant on proper 
treatment in order to achieve the goal of recovery. Both hatcheries 
play an extremely important role in generating income for Lummi Tribal 
members through commercial fisheries, but most importantly, both 
hatcheries provide opportunity for subsistence for our Tribal 
community.
    In order to continue providing salmon for our Tribal members as 
well as all members of the Whatcom County community, we must have 
access to safe and effective drugs for treating health-compromised 
rearing fish.
    The Lummi Nation is aware of the challenging budgets facing all 
agencies. However, the AADAP program's dedication to fisheries 
conservation, track record of success, and critical deliverables are 
recognized by public and private fisheries and aquaculture stakeholders 
and conservation authorities as unduplicated and unparalleled. Attempts 
at cost savings that diminish this program also diminish needed Federal 
leadership in this area and jeopardize the ability of the USFWS to 
deliver effective fisheries conservation and fulfill trust 
responsibilities. Further, the Lummi Nation and our member treaty 
tribes continue to rely on AADAP to help us meet critical fisheries 
management needs. We strongly encourage you to fund AADAP at $950,000 
in base funding, a level we believe is essential to maintaining the 
performance and capacity of this program. We thank you in advance for 
your consideration of our view.
                                 ______
                                 
             Prepared Statement of the Maniilaq Association
    Summary.--The Maniilaq Association is an Alaska Native regional 
nonprofit organization representing 12 tribes in Northwest Alaska. We 
provide health services through a self-governance agreement with the 
Indian Health Service (IHS). The focus of our testimony is on the need 
to bring some stability and certainty to the Indian Health Service 
budget by changing its funding to an advance appropriations basis. This 
is what Congress has done with regard to the Veterans Administration 
medical accounts, and we ask for comparable treatment with regard to 
the IHS.
    We also ask that the Appropriations Committees address the chronic 
underfunding of the Village Built Clinics program ($7.8 million 
increase) and IHS contract support costs ($617 million total), and 
exempt the IHS from future budget sequestration.
                         advance appropriations
    The Need for Indian Health Service Advance Appropriation.--The 
Federal health services to maintain and improve the health of American 
Indians and Alaska Natives are consonant with and required by the 
Federal Government's historical and unique legal relationship with, and 
resulting responsibility to, the American Indian and Alaska Native 
people. Since fiscal year 1998 there has been only 1 year (fiscal year 
2006) when the Interior, Environment and Related Agencies 
appropriations bill has been enacted by the beginning of the fiscal 
year. The lateness in enacting a final budget during that time ranges 
from 5 days (fiscal year 2002) to 197 days (fiscal year 2011). Even 
after enactment of an appropriations bill, there is an apportionment 
process involving the Office of Management and Budget and then a 
process within the IHS for allocation of funds to the IHS area offices.
    Late funding causes the IHS and tribal health care providers great 
challenges in planning and managing care for American Indians and 
Alaska Natives. It significantly hampers tribal and IHS healthcare 
providers' budgeting, recruitment, retention, provision of services, 
facility maintenance and construction efforts. Providing sufficient, 
timely, and predictable funding is needed to ensure the Government 
meets its obligation to provide health care for American Indian and 
Alaska Native people.
    In the case of the Maniilaq Association, we draft our budget for 
the coming fiscal year in the spring--a budget which must be reviewed, 
amended, and approved during the ensuing months. However, if we find 
out that come October, as has been the case for far too many years, 
that Congress has not enacted an IHS appropriations bill, we are in 
limbo and must spend considerable staff time re-doing our budget, 
perhaps multiple times. We--and all tribes and tribal organizations--
are hampered by the uncertainty as to whether the Congress will be 
providing funding for built-in costs, including inflation and pay 
increases, what amount of funding we might have with regard to signing 
outside vendor and/or medical services contracts, ordering supplies, 
and making crucial hiring decisions.
    Advance Appropriations Explanation.--As you know, an advance 
appropriation is funding that becomes available 1 year or more after 
the year of the appropriations act in which it is contained. For 
instance, if fiscal year 2015 advance appropriations for the IHS were 
included in the fiscal year 2014 Interior, Environment and Related 
Agencies Appropriations Act, those advance appropriations would not be 
counted against the fiscal year 2014 Interior, Environment, and Related 
Agencies Appropriations Subcommittee's funding allocation but rather 
would be counted against its fiscal year 2015 allocation. It would also 
be counted against the ceiling in the fiscal year 2015 budget 
resolution, not the fiscal year 2014 budget resolution.
    To begin an advanced appropriations cycle there must be an initial 
transition appropriation which contains (1) an appropriation for the 
year in which the bill was enacted (for instance, fiscal year 2014) and 
(2) an advance appropriation for the following year (fiscal year 2015). 
Thereafter, Congress can revert to appropriations containing only 1 
year advance funding. If IHS funding was on an advance appropriations 
cycle, tribal healthcare providers, as well as the IHS, would know the 
funding a year earlier than is currently the case and would not be 
subject to continuing resolutions. We note that advance appropriations 
are subject to across-the-board reductions.
    The Veterans Administration Experience.--In fiscal year 2010 the 
Veterans Administration (VA) medical care programs achieved advance 
appropriations. This came after many years of veterans' organizations 
advocating for this change, including enactment of the Veterans Health 
Care Budget Reform and Transparency Act of 2009 (Public Law 111-81) 
which authorized advance appropriations and specified which 
appropriations accounts are to be eligible for advance appropriations. 
The act required the Secretary to include in documents submitted to 
Congress in support of the President's budget detailed estimates of the 
funds necessary for the medical care accounts of the Department for the 
fiscal year following the fiscal year for which the budget is 
submitted.
    The fact that Congress has implemented advance appropriations for 
the VA medical programs provides a compelling argument for tribes and 
tribal organizations to be given equivalent status with regard to IHS 
funding. Both systems provide direct medical care and both are the 
result of Federal policies. Just as the veterans groups were alarmed at 
the impact of delayed funding upon the provision of healthcare to 
veterans and the ability of the VA to properly plan and manage its 
resources, tribes and tribal organizations have those concerns about 
the IHS health system. We also note that there is legislation (H.R. 
813) pending in this Congress that would expand advance appropriations 
to the VA beyond its medical accounts.
    We thus request this subcommittee's active support for any 
legislation that may be needed to authorize IHS advance appropriations, 
to protect such funding from a point of order in the budget resolution, 
and to appropriate the necessary funds. We have prepared a white paper 
on IHS advance appropriations and would be happy to share it with you.
                      village built clinic program
    Last year the Maniilaq Association, Aleutian Pribilof Islands 
Association, Bristol Bay Area Health Corporation, and Norton Sound 
Health Corporation submitted joint testimony to the committee regarding 
the chronic underfunding of the Village Built Clinic (VBC) program and 
the IHS's refusal to provide maintenance and improvement funding for 
the VBC-leased clinics. These clinics are vital to the provision of 
services by the Community Health Aides/practitioners who provide 
primary healthcare services and coordinate patient care through 
referral relationships with midlevel providers, physicians, and 
regional hospitals. The situation has not improved and we ask, as have 
other Alaska Native healthcare providers, that Congress direct the IHS 
to utilize fiscal year 2014 appropriations to fully fund the Village 
Built Clinics leases in accordance with section 804 of the Indian 
Health Care Improvement Act (IHCIA). Section 804 of the IHCIA (25 
U.S.C. 1674) authorizes the Secretary ``notwithstanding any other 
provision of law'' to enter into leases with Indian tribes for a period 
not in excess of 20 years. It provides that leased property may be 
``reconstructed or renovated'' by the Secretary and that lease costs 
``include rent, depreciation based on the useful life of the building, 
principal and interest paid or accrued, operation and maintenance 
expenses, and other expenses determined by regulation to be 
allowable.'' We estimate an additional $7.8 million more than current 
IHS resources needs to be allocated to VBC leases.
                       ihs contract support costs
    IHS Contract Support Costs Shortfall.--We appreciate the recent 
increases provided by the Congress for Contract Support Costs (CSC) 
owed to tribes and tribal organizations under the Indian Self-
Determination and Education Assistance Act (ISDEAA) and Federal case 
law. Even so, there remains an ongoing shortfall of CSC, which 
continues to impose significant hardships on us and on other tribes/
tribal organizations and our ability to provide adequate health 
services to our patients. We urge the subcommittee to continue to push 
for full funding of CSC. While it is difficult to estimate the full CSC 
need for fiscal year 2014--in part because IHS refuses to release its 
CSC distribution data for the last 2 years, as discussed further 
below--we estimate the total need in fiscal year 2014 to be $617 
million.
    Given the progress toward full CSC funding in recent years, we 
found it surprising that the administration's fiscal year 2014 budget, 
released on April 10, proposed only a minimal increase for IHS CSC to 
$477,205,000. This would force tribes to absorb almost $140 million in 
uncompensated costs for overhead and administration of Federal 
programs. Just as bad, the administration's proposed appropriations act 
language attempts to preclude tribes from recovering any of their CSC 
shortfalls through contract actions, which the Supreme Court said is 
currently their right in the Ramah  case. The bill language would 
incorporate by reference a table identifying the maximum amount of CSC 
available for every single ISDEAA agreement. We urge that the committee 
reject this proposed approach and, instead, fully fund CSC for both IHS 
and BIA.
    Additionally, the IHS has failed to provide CSC shortfall reports 
to Congress for fiscal years 2011 and 2012. We and other co-signers to 
the Alaska Tribal Health Compact, under title V of the ISDEAA, recently 
asked the IHS to share the shortfall data for those years with all of 
the co-signers. Access to the CSC shortfall data, if not the reports 
themselves, is critical to our ability to understand the IHS's view of 
the scope of CSC underfunding, to evaluate IHS's allocation of its 
insufficient past CSC appropriations, and to pursue full CSC funding 
moving forward. The IHS has to date refused to make the information 
available, and again refused as recently as the co-signers' meeting 
with the IHS Area Lead Negotiator for the Alaska Area of IHS in March 
2013. We thus ask that the committees direct the IHS to immediately 
release the fiscal years 2011 and 2012 CSC shortfall reports, or, at 
the least, the CSC shortfall data for those fiscal periods.
                             sequestration
    Exempt IHS From Sequestration.--We are very concerned about the 
scale of reductions imposed on IHS and tribes/tribal organizations 
under the fiscal year 2013 budget sequestration. The IHS budget is 
fully sequestrable, which resulted in a $220 million cut in funding to 
the IHS for fiscal year 2013. IHS lost $195 million for programs like 
hospitals and health clinics services, contract health services, dental 
services, mental health and alcohol and substance abuse. Impacts are 
also felt on programs and projects necessary for maintenance and 
improvement of health facilities. These negative effects are then 
passed down to every Indian Self-Determination Act contractor including 
the Maniilaq Association.
    We believe the IHS's budget should be exempt from these reductions. 
The United States has a trust responsibility for the health of Alaska 
Native and American Indian people. We fail to understand why this 
responsibility was taken less seriously than the Nation's promises to 
provide healthcare to our veterans. The Veterans Health Administration 
(as well as Medicaid and most of Medicare) was made fully exempt from 
sequestration for all programs administered by the VA. We thus strongly 
urge the subcommittee to support an amendment to the Balanced Budget 
and Emergency Deficit Control Act to fully exempt the IHS from any 
future sequestration, just as the VA's programs are exempt.
    Thank you for your consideration of our concerns and requests. We 
are happy to respond to questions or provide any additional information 
you may want.
                                 ______
                                 
         Prepared Statement of the M.A.C.T. Health Board, Inc.
    On behalf of the M.A.C.T. Health Board, Inc. (MACT), a tribal 
organization providing healthcare services to Indian beneficiaries 
living in a rural four-county area (Mariposa, Amador, Calaveras, and 
Tuolumne Counties) in central California, I submit this testimony 
regarding the fiscal year 2014 Indian Health Service (IHS) budget. Our 
requests are that Congress:
  --Reject the administration's attempt to eliminate contract support 
        cost (CSC) shortfall recovery by specifying in the 
        appropriations bill capped amounts for individual Self-
        Determination contracts.
  --Fully fund Indian Health Service (IHS) CSC at $617 million, an 
        amount $140 million over the President's fiscal year 2014 
        budget request.
    MACT has provided healthcare services to tribal members, their 
families, and other community members since 1969, when it opened the 
Tuolumne Rural Indian Health Center. Since that time, we have opened 
clinics in Sonora, Jackson, San Andreas, and Mariposa to serve patients 
in the Central Sierras. Until March 31, 2013, MACT provided healthcare 
services to eligible Indian beneficiaries in its four-county service 
area pursuant to a subcontract with the California Rural Indian Health 
Board, Inc. (CRIHB), which maintained a self-determination contract 
with the Indian Health Service (IHS) under the Indian Self-
Determination and Education Assistance Act (ISDEAA). During this 
period, MACT developed nine clinic facilities in various locations, 
which MACT operates to effectively serve the Indian population in this 
large and remote service area. We have also expanded our services to 
include medical, dental, outreach, behavioral health, substance abuse, 
and diabetic telehealth programs. We currently serve 3,325 Indian 
beneficiaries.
 it is likely that mact will be paid no indirect csc if contractor-by-
 contractor ``caps'' are implemented as proposed by the administration
    MACT objects to the administration's proposal to cap CSC for 
individual self-determination contractors. Exactly how the 
administration's proposed individual CSC cap would be implemented is 
not altogether clear, but it appears that the impact of such caps on 
MACT will be particularly dramatic because of its status as a new 
contractor in fiscal year 2013 that will be paid only a small portion 
of its CSC entitlement in the first year of the contract. I provide 
some background on our unique circumstances below.
    Prior to fiscal year 2013, MACT provided healthcare services 
through a subcontract with CRIHB. CRIHB's self-determination contract 
with IHS explicitly stated that CRIHB would provide healthcare services 
in to the eligible population in MACT's four-county service area 
through a subcontract with MACT. The subcontract between MACT and CRIHB 
described the scope of the services to be provided by MACT by 
references to the scope of work described in CRIHB's ISDEAA contract. 
As a subcontractor of CRIHB, MACT received the program funds associated 
with the services provided by MACT and a portion of both the indirect 
and direct CSC, which CRIHB received from the IHS for the services 
provided by MACT. Under its last contract with IHS, CRIHB received 
approximately $55,000 in direct CSC and $850,000 in indirect CSC 
associated with the MACT program.
    In 2012, MACT determined that it would be able to better serve the 
eligible population within its service area by contracting directly 
with IHS. MACT's last subcontract with CRIHB expired on March 31, 2013, 
the same date that CRIHB's self-determination contract with IHS 
expired. On December 28, 2012 MACT submitted a proposal to contract 
directly with IHS pursuant to title I of the ISDEAA, effective April 1, 
2013, to provide the same services it provided as a subcontractor. 
MACT's current contract became effective on April 1, 2013. Under its 
new contract, MACT provides services to the same eligible Indian 
population in the same service area that it previously provided as 
CRIHB's subcontractor. MACT also operates the same clinic facilities it 
previously operated as a subcontractor of CRIHB.
    Under the contract, MACT receives the program funding associated 
with the services provided by MACT directly from the IHS. MACT is also 
entitled under the ISDEAA to be paid both indirect and direct CSC 
associated with these services. When MACT provided these services 
through a subcontract with CRIHB, CRIHB paid a portion of the indirect 
and direct CSC it received from IHS to MACT.
    Under existing IHS policy, upon MACT's withdrawal from CRIHB, CRIHB 
was required to return the total amount of direct CSC IHS paid for 
MACT's subcontract to IHS so that those funds could be included in 
MACT's new contract. The policy does not, however, require CRIHB to 
return any portion of the indirect CSC associated with MACT's program 
to IHS if CRIHB is not funded at 100 percent of its overall CSC need. 
As a result, unless CRIHB voluntarily agrees to return the indirect CSC 
to IHS, the agency cannot unilaterally reduce CRIHB's indirect CSC 
amount to pass on to MACT, even though part of that funding was based 
on the services which CRIHB is no longer providing through MACT.
    In previous years, when a subcontractor pulled out of CRIHB and 
entered into an ISDEAA agreement directly with IHS, CRIHB voluntarily 
agreed to pass on the portion of indirect CSC associated with the 
services that were removed from CRIHB's contract. In the case of MACT's 
withdrawal, however, CRIHB has refused to return any indirect CSC back 
to IHS. MACT and IHS are still completing negotiations on the exact 
amount of direct and indirect CSC that IHS will transfer to MACT under 
the contract, but given CRIHB's position, it is likely that IHS will 
only able to pay MACT direct CSC, or approximately $55,000, once final 
numbers have been established. It is also likely that no indirect CSC--
or the approximately $850,000 that CRIHB was paid in fiscal year 2012 
associated with MACT's subcontract--will be paid. The indirect CSC that 
are not paid to MACT will be added to the IHS shortfall lists and will 
not be paid, unless Congress appropriates sufficient new CSC to pay 
MACT and all other tribal contractors full CSC entitlements, an 
unlikely scenario based on the President's budget proposal.
    As a result of this situation, while MACT is entitled under the 
ISDEAA to be paid its full indirect and direct CSC, in 2013 IHS will 
most likely only pay a small fraction of the full amount. If, as is a 
possible reading of the administration's unclear proposal, the amount 
of CSC that MACT was paid in fiscal year 2013 becomes the amount that 
is capped in 2014, there will be no new CSC funds available in the 
budget to pay MACT any indirect CSC. Because of this unique situation, 
MACT could never be paid any indirect CSC funds and only a portion of 
its direct CSC funds in its 2014 ISDEAA agreement, unless Congress 
makes a special exception for MACT if it implements the President's 
proposal. In contrast, under current law, while MACT will not be paid 
for indirect CSC in fiscal year 2013 up front by the IHS, under the 
Salazar v. Ramah Navajo Chapter, 132 S.Ct. 2181 (2012) decision, MACT 
retains the right to file a Contract Disputes Act claim to recover its 
full CSC entitlement--including its share of the indirect CSC that 
CRIHB has to date refused to return to the IHS--that the ISDEAA 
contemplates tribal contractors will be paid.
    This result--which is caused by the IHS CSC policy and the lack of 
full CSC funding--is punitive and unfair. A tribal organization should 
not be so severely punished for directly contracting with IHS under the 
ISDEAA. We urge the Congress to reject the administration's request to 
impose a cap. If, however, Congress adopts the administration's 
proposal to cap CSC on a contract-by-contractor basis, due to MACT's 
unique situation, we request that the subcommittee exempt MACT from the 
administration's proposal and provide that MACT receive full CSC 
funding in accordance with the ISDEAA in fiscal year 2014.
 the congress should fully fund contract support costs and reject the 
      administration's attempt to cap csc per individual contract
    MACT's unique situation aside, we urge the committees to provide 
full funding of CSC due tribal contractors. IHS has a duty to fully 
fund the CSC that cover the administrative and overhead portions of the 
programs MACT has contracted to carry out. We are grateful for recent 
increases in CSC, but there is still a ways to go to meet the true 
need. Unfortunately, the President's proposed budget would continue the 
underfunding of CSC, crippling all contractors' ability to operate 
their programs as intended.
    The President proposes that IHS receive $477,205,000 for CSC in 
fiscal year 2014. This amount is far below the estimated need of $617 
million. While Congress has in the past appropriated additional funding 
for CSC owed to tribes and tribal organizations under applicable law, 
those additional appropriated funds are not enough to eliminate the 
ongoing shortfall of CSC. As a result, tribes and tribal organizations 
continue to endure significant financial restrictions that translate 
into less healthcare for our patients.
    These shortfalls force contractors to transfer funds intended to 
provide health services into operational and administrative accounts 
that keep our programs running. For too long, the Government has 
treated tribal contractors differently from other Government 
contractors with regard to CSC payment. The Supreme Court ruled this 
disparity is unjustified in Salazar v. Ramah Navajo Chapter, and held 
the Government liable for failing to pay full CSC to tribal contractors 
in past years. Id.
    In an attempt to skirt this responsibility, the administration 
proposes to limit CSC payments to tribal contractors by submitting a 
list of contractors to the House and Senate Appropriations Committees, 
with recommended individual appropriations for each contractor, as 
mentioned above. How the proposal will be implemented is unclear. For 
example, when would the list be compiled: before the President's budget 
is proposed or after the appropriations has been enacted? 
Implementation of the proposal appears to us not only untenable and 
unwieldy; it is also unjust.
    We are further concerned that the administration has made no effort 
to include tribes in the process of preparing the proposed CSC funding 
levels. While the President's proposal says this new effort is part of 
the ``longstanding policy of managing CSC costs,'' tribal contractors 
know that this means saddling us with chronic CSC shortfalls year after 
year. These shortfalls are an effective penalty for engaging in self-
determination or self-governance contracting. Both the annual 
underfunding and the administration's misguided proposal for fiscal 
year 2014 are contrary to the stated policy of both the Congress and 
the administration to encourage tribal self-determination. The simplest 
and most fair answer is to fully fund tribal contractors' CSC. We urge 
the Congress to reject the President's proposal outright, and fully 
fund IHS contract support costs at $617 million.
                               conclusion
    MACT is a newly independent tribal contractor, and, in this new 
capacity, it will continue provide the best, most responsive and 
accountable services our patients have ever received. We are very 
concerned, however, that the President's proposal will impose a CSC 
payment system that will disproportionally and unfairly impact MACT's 
right to be paid full CSC funding under the ISDEAA. This, in turn, will 
severely impact MACT's ability to provide desperately needed health 
services to our patients. We urge the Congress to reject the 
administration's proposal and instead fully fund all tribes' CSC needs. 
If Congress decides to implement the administration's proposal we urge 
that MACT be exempted from the negative impacts of the proposal.
    Thank you for our consideration, and I will be glad to provide any 
additional information the committees may request.
                                 ______
                                 
             Prepared Statement of the Maniilaq Association
    Summary.--The Maniilaq Association is an Alaska Native regional 
nonprofit organization representing 12 tribes in Northwest Alaska. We 
provide health services through a self-governance agreement with the 
Indian Health Service (IHS). The focus of our testimony is on the need 
to bring some stability and certainty to the Indian Health Service 
budget by changing its funding to an advance appropriations basis. This 
is what Congress has done with regard to the Veterans Administration 
medical accounts, and we ask for comparable treatment with regard to 
the IHS.
    We also ask that the Appropriations Committees address the chronic 
underfunding of the Village Built Clinics program ($8.2 million 
increase), IHS contract support costs ($617 million total), BIA 
contract support costs ($242 million total), reject the 
administration's proposal to limit recovery of contract support costs, 
and exempt the IHS from future budget sequestration.
                         advance appropriations
    The Need for Indian Health Service Advance Appropriation.--The 
Federal health services to maintain and improve the health of American 
Indians and Alaska Natives are consonant with and required by the 
Federal Government's historical and unique legal relationship with, and 
resulting responsibility to, the American Indian and Alaska Native 
people. Since fiscal year 1998 there has been only 1 year (fiscal year 
2006) when the Interior, Environment and Related Agencies 
appropriations bill has been enacted by the beginning of the fiscal 
year. The lateness in enacting a final budget during that time ranges 
from 5 days (fiscal year 2002) to 197 days (fiscal year 2011). Even 
after enactment of an appropriations bill, there is an apportionment 
process involving the Office of Management and Budget and then a 
process within the IHS for allocation of funds to the IHS Area Offices.
    Late funding causes the IHS and tribal healthcare providers great 
challenges in planning and managing care for American Indians and 
Alaska Natives. It significantly hampers tribal and IHS healthcare 
providers' budgeting, recruitment, retention, provision of services, 
facility maintenance and construction efforts. Receipt of funds late 
also severely impacts Maniilaq's ability to invest the funds and 
generate interest which can be used to offset the chronic underfunding 
of the region's health programs. Providing sufficient, timely, and 
predictable funding is needed to ensure the Government meets its 
obligation to provide healthcare for American Indian and Alaska Native 
people.
    In the case of the Maniilaq Association, we draft our budget for 
the coming fiscal year in the spring--a budget which must be reviewed, 
amended, and approved during the ensuing months. However, if we find 
out that come October, as has been the case for far too many years, 
that Congress has not enacted an IHS appropriations bill, we are in 
limbo and must spend considerable staff time re-doing our budget, 
perhaps multiple times. We--and all tribes and tribal organizations--
are hampered by the uncertainty as to whether Congress will provide 
funding for built-in costs, including inflation and pay increases, what 
amount of funding we might have with regard to signing outside vendor 
and/or medical services contracts, ordering supplies, and making 
crucial hiring decisions.
    Advance Appropriations Explanation.--As you know, an advance 
appropriation is funding that becomes available 1 year or more after 
the year of the appropriations act in which it is contained. For 
instance, if fiscal year 2015 advance appropriations for the IHS were 
included in the fiscal year 2014 Interior, Environment and Related 
Agencies Appropriations Act, those advance appropriations would not be 
counted against the fiscal year 2014 Interior Appropriations 
Subcommittee's funding allocation but rather would be counted against 
its fiscal year 2015 allocation. It would also be counted against the 
ceiling in the fiscal year 2015 budget resolution, not the fiscal year 
2014 budget resolution.
    To begin an advanced appropriations cycle there must be an initial 
transition appropriation which contains (1) an appropriation for the 
year in which the bill was enacted (for instance, fiscal year 2014) and 
(2) an advance appropriation for the following year (fiscal year 2015). 
Thereafter, Congress can revert to appropriations containing only 1 
year advance funding. If IHS funding was on an advance appropriations 
cycle, tribal healthcare providers, as well as the IHS, would know the 
funding a year earlier than is currently the case and would not be 
subject to continuing resolutions. We note that advance appropriations 
are subject to across-the-board reductions.
    The Veterans Administration Experience.--In fiscal year 2010 the 
Veterans Administration (VA) medical care programs achieved advance 
appropriations. This came after many years of veterans' organizations 
advocating for this change, including enactment of the Veterans Health 
Care Budget Reform and Transparency Act of 2009 (Public Law 111-81) 
which authorized advance appropriations and specified which 
appropriations accounts are to be eligible for advance appropriations. 
The act required the Secretary to include in documents submitted to 
Congress in support of the President's budget detailed estimates of the 
funds necessary for the medical care accounts of the Department for the 
fiscal year following the fiscal year for which the budget is 
submitted.
    The fact that Congress has implemented advance appropriations for 
the VA medical programs provides a compelling argument for tribes and 
tribal organizations to be given equivalent status with regard to IHS 
funding. Both systems provide direct medical care and both are the 
result of Federal policies. Just as the veterans groups were alarmed at 
the impact of delayed funding upon the provision of healthcare to 
veterans and the ability of the VA to properly plan and manage its 
resources, tribes and tribal organizations have those concerns about 
the IHS health system. We also note that there is legislation (H.R. 
813) pending in this Congress that would expand advance appropriations 
to the VA beyond its medical accounts.
    We thus request this subcommittee's active support for any 
legislation that may be needed to authorize IHS advance appropriations, 
to protect such funding from a point of order in the budget resolution, 
and to appropriate the necessary funds. We have prepared a white paper 
on IHS advance appropriations and would be happy to share it with you.
                      village built clinic program
    Last year the Maniilaq Association, Aleutian Pribilof Islands 
Association, Bristol Bay Area Health Corporation, and Norton Sound 
Health Corporation submitted joint testimony to the committee regarding 
the chronic underfunding of the Village Built Clinic (VBC) program and 
the IHS' refusal to provide maintenance and improvement funding for the 
VBC-leased clinics. These clinics are vital to the provision of 
services by the Community Health Aides/practitioners who provide 
primary healthcare services and coordinate patient care through 
referral relationships with midlevel providers, physicians, and 
regional hospitals. The situation has not improved and we ask, as have 
other Alaska Native healthcare providers, that Congress direct the IHS 
to utilize fiscal year 2014 appropriations to fully fund the Village 
Built Clinics leases in accordance with section 804 of the Indian 
Health Care Improvement Act (IHCIA). Section 804 of the IHCIA (25 
U.S.C. 1674) authorizes the Secretary ``notwithstanding any other 
provision of law'' to enter into leases with Indian tribes for a period 
not in excess of 20 years. It provides that leased property may be 
``reconstructed or renovated'' by the Secretary and that lease costs 
``include rent, depreciation based on the useful life of the building, 
principal and interest paid or accrued, operation and maintenance 
expenses, and other expenses determined by regulation to be 
allowable.'' We estimate an additional $8.2 million over current IHS 
resources needs to be allocated to VBC leases.
                         contract support costs
    IHS Contract Support Costs Shortfall.--We appreciate the recent 
increases provided by Congress for Contract Support Costs (CSC) owed to 
tribes and tribal organizations under the Indian Self-Determination and 
Education Assistance Act (ISDEAA) and Federal case law. Even so, there 
remains an ongoing shortfall of CSC, which continues to impose 
significant hardships on us and on other tribes/tribal organizations 
and our ability to provide adequate health services to our patients.
    However, the President has proposed only $477,205,000 for IHS CSC, 
far below the estimated need of $617 million. In addition, the 
administration proposes to limit CSC payments to tribal contractors by 
submitting a list of contractors to the House and Senate Appropriations 
Committees, with recommended, individual appropriations for each 
contractor. This proposed system is wholly unworkable. And--as it is 
created without any input from ISDEAA contractors--we fear the list 
will fail to reflect true CSC needs since the administration has proven 
itself unable to properly account for contract support costs. The 
simplest and most fair answer is to fully fund tribal contractors' CSC.
    We urge the Congress to reject the President's proposal outright, 
and fully fund IHS contract support costs at $617 million.
    BIA Contract Support Costs Shortfall.--The President proposes $230 
million for Bureau of Indian Affairs contract support costs. This 
amount is closer to the estimated full need of $242 million than the 
IHS proposal, but still falls short of the actual need. Additionally, 
the President proposes the same system to cap BIA CSC as he did for the 
IHS. Maniilaq rejects this misguided proposal, and urges the committees 
to fully fund the BIA contract support costs at $242 million, which 
will erase the need for the administration's contortionist attempts to 
handle CSC shortfalls.
    Unreleased IHS CSC Shortfall Reports.--IHS must submit CSC 
shortfall reports to Congress no later than May 15 of each year, per 
section 106(c) of the Indian Self-Determination and Education 
Assistance Act (25 U.S.C. Sec. 450j-1(c)). Yet, the IHS has failed to 
submit CSC shortfall reports for fiscal years 2011 and 2012. Tribes 
have repeatedly asked the agency to release this data, which is 
critical for our ability to understand the IHS's view of the 
underfunding, and to pursue full payment of CSC, to which the Tribe is 
legally entitled. The IHS has refused to release these reports time and 
again, most recently in March of this year.
    We ask the committees to direct the IHS to release the shortfall 
data for fiscal years 2011 and 2012 immediately--and to submit future 
reports on time--as required under the law.
                             sequestration
    Exempt IHS From Sequestration.--We are very concerned about the 
scale of reductions imposed on IHS and tribes/tribal organizations 
under the fiscal year 2013 budget sequestration. The IHS budget is 
fully sequestrable, which resulted in a $220 million cut in funding to 
the IHS for fiscal year 2013. IHS lost $195 million for programs like 
hospitals and health clinics services, contract health services, dental 
services, mental health and alcohol and substance abuse. Impacts are 
also felt on programs and projects necessary for maintenance and 
improvement of health facilities. These negative effects are then 
passed down to every Indian Self-Determination Act contractor including 
the Maniilaq Association.
    We believe the IHS's budget should be exempt from these reductions. 
The United States has a trust responsibility for the health of Alaska 
Native and American Indian people. We fail to understand why this 
responsibility was taken less seriously than the Nation's promises to 
provide healthcare to our veterans. The Veterans Health Administration, 
Medicaid, and all but 2 percent of Medicare's administrative costs were 
made fully exempt from sequestration for all programs administered by 
the VA. We thus strongly urge the committee to support an amendment to 
the Balanced Budget and Emergency Deficit Control Act to fully exempt 
the IHS from any future sequestration, just as the VA's programs are 
exempt.
    Thank you for your consideration of our concerns and requests. We 
are happy to respond to questions or provide any additional information 
you may want.
                                 ______
                                 
       Prepared Statement of the Minnesota Citizens for the Arts
    Minnesota Citizens for the Arts (MCA), representing 1,400 arts 
organizations and 38,000 artists and their audiences are pleased to 
submit written testimony to the Senate Appropriations Subcommittee on 
the Interior, Environment, and Related Agencies supporting fiscal year 
2014 funding for the National Endowment for the Arts (NEA) at the level 
of $154.466 million. MCA is a member of Americans for the Arts.
    I would like to talk about how the NEA serves as a catalyst to 
increase access to the arts for all Americans.
    Several years ago the citizens of Minnesota took the rather 
extraordinary step of approving a ballot measure to add an amendment to 
our State constitution to create dedicated funding for the arts and the 
environment. By a wide popular vote Minnesotans voted to tax themselves 
to increase support for the arts because they agreed that the arts 
bring benefits to their quality of life and economy. We are now the 
only State in the country to have the arts as part of our constitution 
(although John Adams, when he wrote the Massachusetts State 
constitution, included the arts as one of the subject areas required to 
be provided as part of the State's educational system). There are many 
polls that suggest that Americans support arts funding, but in 
Minnesota we took it to the ballot box and received a very strong yes.
    The arts hold a special place in the hearts of Minnesotans whether 
they live in the heart of the Twin Cities of St. Paul and Minneapolis, 
or in any town or rural area from Ada to Zumbrota. The passage of what 
is now called the ``Legacy Amendment'' has led to an extraordinary 
flowering of artistic activity that is bringing together people from 
all walks of life to share in creative activities and the bettering of 
their communities through arts.
    The National Endowment for the Arts set the stage for this 
extraordinary action by investing in and encouraging the arts to 
flourish in every State through its highly effective grant programs. 
The NEA serves as a catalyst for additional State and local investments 
in the arts such as the bipartisan Legacy Amendment by providing 
examples to the States of highly effective creative and cultural 
projects as well as organizations that promote access to and 
involvement in the arts for all citizens.
    Economists are increasingly aware that when citizens gather 
together to create or perform the arts, they too are a catalyst for 
economic activity that brings people together to revitalize 
neighborhoods, energize businesses, and bring energy to our economy. 
Through the relatively small investments made by the NEA, Congress is 
making possible extraordinary things all across the country, including 
seeding new jobs in the creative economy. In Minnesota alone, the arts 
have more than a $1 billion economic impact through the entrepreneurial 
work of artists starting small businesses, arts organizations producing 
and presenting the arts and the audiences who are drawn to and who 
participate in the wonderful work they create. We know through other 
studies that Minnesota's artists themselves are fully engaged in their 
communities, volunteering and voting at higher rates than other 
citizens, contributing their passions and their creativity to their 
neighborhoods and to their towns. Minnesota has 1,400 nonprofit arts 
organizations who serve nearly 13 million attendees each year--more 
than twice the population of the State. This story is repeated in State 
after State where the NEA has had an impact.
    As a child I was lucky to have parents who would take me on Sunday 
after church for ``Culture Day'' to all of the wonderful cultural 
organizations in our area--the Walker Arts Center, considered one of 
the premier modern art museums in the world, the Minneapolis Institute 
of Arts, which makes masterpieces from cultures across the globe 
available to all for free, and many other nonprofit arts organizations 
in St. Paul that opened my eyes to the beauty that was possible in the 
world and inspires me in my work even today. Even back then (and I'm 
not going to say how far back this was) these organizations were 
supported and helped along by the National Endowment for the Arts in 
their work to make the arts accessible to all Americans, regardless of 
where they live and what their resources, because the arts give us 
access to our cultural heritage and to ways of thinking that make us 
more engaged and better citizens. Because of the NEA's support these 
organizations are serving even more people now than they were then, and 
even reaching out to the rest of the world through new arts access 
points on the web.
    I'd like to talk about two examples of how the NEA has been a 
catalyst for creativity and access to the arts across the country 
through grants to arts organizations in Minnesota.
    In the late 1990s the National Endowment for the Arts provided seed 
money for a program at the American Composer's Forum in St. Paul that, 
although it's based in Minnesota, has had a wide-ranging impact across 
the country on the music available to kids picking up their instruments 
for the first time to play in middle school bands. I know if you're a 
parent you may have had the privilege of attending middle school band 
concerts. It can be tough going, and not just because the instruments 
are making squawking noises as kids learn to control the sounds, but 
particularly because the music itself can be so uninteresting and 
sometimes just bad.
    In 1997 the NEA funded a program at the American Composer's Forum 
called ``BandQuest''--a program that commissions simple but creative 
music for middle school bands. It was--and is--a desperate need for 
this important age group. Prominent living American composers--at least 
four of whom have won Pulitzer Prizes--are paired with middle school 
bands around the country to enrich their educational experience with 
new, challenging and interesting music. Imagine--Pulitzer Prize winning 
composers in residence in a middle school--writing great music that is 
inspired by the students themselves--their lives, their interests, and 
their town. The program's multiple goals include creating new high 
quality music that will keep the kids interested in learning, creating 
music that can be shared with other schools across the country, and 
providing musical experiences for kids that will inspire them to become 
life-long learners in the arts. The new music created by the modest NEA 
grant then became available to teachers and students all across the 
country to play with their own kids.
    Minnesota composer Stephen Paulus who was one of the founders of 
the American Composers Forum, was one of the earliest participants in 
the program creating a piece for BandQuest called ``Mosaic.''
    Another participant in BandQuest, Michael Colgrass, a Pulitzer 
Prize winning composer, created a piece called ``Old Churches,'' which 
took Gregorian chants and bells as its inspiration and has since become 
one of the most popular musical scores for kids in middle schools to 
play across the country. In fact, since his work with the project he's 
been inspired to go on to write six more pieces for middle school kids, 
so yet again with this project the NEA grant has acted as a catalyst to 
leverage additional investments and creativity in American schools.
    The National Endowment for the Arts, by continuing its rather 
modest investment in this program for the past several years, has 
increased exponentially the challenging and interesting music available 
to middle school students everywhere who are just learning to play 
their instruments. In addition, the NEA grant was a catalyst to 
additional private investment totaling three times the size of the 
grant, and the series continues to this day as one of the leading 
sources of great music for kids by living composers.
    More than 500,000 kids in every State, including Idaho, Virginia 
and Oklahoma have benefited from the ripple effect of the NEA's 
investment, creating a lasting impact and inspiring kids across the 
country to think of music as relevant to their own lives.
    As one participating student said, ``I have a deep respect for (the 
composer). I play bassoon, and without this song my life would not be 
complete. Thank you.'' That--from a 12 year old.
    Another program funded by the NEA in St. Paul has also served as a 
catalyst for growing entrepreneurship and small businesses in the arts 
across the country. Springboard for the Arts is an economic development 
agency run by and for artists, based in St. Paul. Springboard creates 
programs that help artists make both a living and a life and programs 
that help communities tap into the resources artists can provide. Their 
programs include business skills and entrepreneurship training for 
artists and programs that pair artists with small businesses to develop 
creative ways of attracting people and dollars.
    Springboard creates these innovative programs from their home in 
Minnesota, and in recent years support from the NEA has helped them 
create models and toolkits so that these training programs can be 
shared with communities all across the country. The NEA has again been 
a catalyst, helping to scale up Springboard's work to a national level 
and allowing communities of all sizes (and particularly rural 
communities) to get access to the programs and services that help 
artists contribute more to the economy and to their communities.
    For example, because of the NEA's support, Springboard has been 
able to provide training in entrepreneurship for artists in Cedar 
Rapids, Iowa, where artists are leading the way in the redevelopment of 
a business district devastated by the historic 2008 flood.
    Because many artists are small business entrepreneurs, they make 
good things happen at the local level. The creation of art has real 
economic spillover effects--sales revenue, advertising revenue, and 
jobs. Improving income for individual artists through training and 
other opportunities allows them to better join the economic mainstream. 
As new markets develop around the arts, businesses benefit, too. And 
because artists and art projects make places more attractive to 
shoppers, entrepreneurs and homebuyers, the larger community benefits.
    The National Endowment for the Arts has an important role as a 
catalyst in promoting opportunities for Americans to participate in the 
arts, spurring employment for artists and for encouraging economic 
activity made possible by the arts. For this reason I would like to 
conclude by reiterating our request that the subcommittee fund the 
National Endowment for the Arts at the President's request of $154.466 
million.
    We are concerned that the nonprofit arts and the small businesses 
they often work with will be negatively impacted by cuts just as they 
are starting to get back on their feet after the recession. The dollars 
provided by the National Endowment for the Arts draw other private and 
public investments that make our local economies thrive. Please support 
the NEA's request.
                                 ______
                                 
        Prepared Statement of the Marine Conservation Institute
    Mr. Chairman and members of the subcommittee: Marine Conservation 
Institute, based in Seattle, Washington, is a nonprofit conservation 
organization that uses the latest science to identify important marine 
ecosystems around the world, and then advocates for their protection 
for us and future generations. I wish to thank the members of the 
Subcommittee on Interior, Environment, and Related Agencies for the 
opportunity to submit written testimony on the fiscal year 2014 
appropriations in regards to the U.S. Fish and Wildlife Service's (FWS) 
National Wildlife Refuge System (NWRS), particularly the monuments and 
refuges that conserve marine environments. Marine Conservation 
Institute is a member of the Cooperative Alliance for Refuge 
Enhancement (CARE), a coalition of more than 20 wildlife, sporting, and 
conservation organizations advocating for the National Wildlife Refuge 
System. Marine Conservation Institute specifically requests $6.8 
million, an increase of $1.8 million, to more adequately manage and 
protect the marine national monuments in the Pacific in 2014.
    President George W. Bush established four marine national monuments 
in the Pacific Ocean: Papahanaumokuakea Marine National Monument; 
Marianas Trench Marine National Monument; Pacific Remote Islands Marine 
National Monument; and Rose Atoll Marine National Monument. Together, 
these monuments protect approximately 335,348 square miles of marine 
habitat, and constitute about one-third of the entire NWRS. The four 
monuments include 12 marine refuges and more than 20 islands, atolls 
and reefs spread across the Pacific Ocean. Each monument was designated 
because of its individual ecological and cultural uniqueness.
    However, many years after the establishment of these monuments, 
Marine Conservation Institute is greatly concerned that the NWRS lacks 
adequate resources to effectively protect and conserve the lands and 
waters of all four monuments. Marine Conservation Institute believes 
that even in these difficult budget times, protecting these ocean 
treasures should be a priority.
    According to the National Ocean Economics Program, the U.S. ocean 
and coastal economy contributes more than $258 billion to our Nation's 
GDP annually. Compared to other marine ecosystems, the marine monument 
ecosystems are relatively intact, rich in biodiversity and relatively 
free from the problems plaguing many other marine ecosystems: over-
exploitation, disturbance, and pollution. Using these remarkably intact 
tropical ecosystems, U.S. scientists are developing an understanding of 
what healthy and productive places really look like, which helps us 
identify negative impacts to marine ecosystems closer to home and shows 
us the benefits of restoration activities.
         significance of our nation's marine national monuments
Papahanaumokuakea Marine National Monument
    Papahanaumokuakea Marine National Monument, also referred to as the 
Northwestern Hawaiian Islands, is the largest conservation area 
(139,797 square miles) under U.S. jurisdiction. It was established to 
protect the exceptional diversity of natural and cultural resources. 
The monument is home to millions of seabirds, an incredible diversity 
of coral reef species, and the highly endangered Hawaiian monk seal. 
Approximately 90 percent of Hawaii's green sea turtles nest in the 
monument, as do about 99 percent of the world's population of Laysan 
albatross and 98 percent of the black-footed albatross. In 2010, the 
monument was designated as a World Heritage Site by the United Nations 
Education, Scientific, and Cultural Organization (UNESCO), expanding 
recognition globally of the monument's unique natural and cultural 
resources.
Pacific Remote Islands Marine National Monument
    The Pacific Remote Islands Marine National Monument contains some 
of the last remaining, relatively intact coral reef and pelagic 
ecosystems in the Pacific Ocean. Any one of the seven coral islands 
within the monument contains nearly four times more shallow water, 
reef-building coral species than the entire Florida Keys. The monument 
provides habitat for an estimated 14 million seabirds and many 
threatened or endangered species, such as leatherback, loggerhead, and 
green sea turtles; humphead wrasse; bumphead parrotfish; and the 
globally depleted giant clam. An estimated 200 seamounts, most of which 
have yet to be identified or explored, are predicted to exist within 
200 nautical miles of the seven islands. Seamounts are important 
biodiversity hotspots because they provide habitat and localized 
nutrients for many species, including commercially important species, 
in the vast pelagic waters of the Pacific.
Rose Atoll Marine National Monument
    Rose Atoll Marine National Monument is home to a very diverse 
assemblage of terrestrial and marine species, many of which are 
threatened or endangered. Rose Atoll supports 97 percent of the seabird 
population of American Samoa, including 12 federally protected 
migratory seabirds and 5 species of federally protected shorebirds. 
Rose Atoll is the largest nesting ground in the Samoan Islands for 
threatened green sea turtles, and is an important nesting ground for 
the endangered hawksbill turtle. Rose Atoll also provides sanctuary for 
the giant clam, whose population is severely depleted throughout the 
Pacific Ocean.
Marianas Trench Marine National Monument
    The Marianas Trench Marine National Monument protects areas of 
biological, historical and scientific significance. The monument is 
home to many unusual life forms found in its boiling and highly acid 
waters, highly diverse and unique coral reef systems (more than 300 
species of stony coral), and an astonishingly high population of apex 
predators such as sharks, an indicator of a healthy ecosystem. The 
monument also encompasses the Mariana Trench, the deepest ocean area on 
Earth, which is deeper than Mount Everest is tall.
                  marine national monument management
    Through the FWS, the Department of the Interior is a co-trustee of 
Papahanaumokuakea Marine National Monument in partnership with the 
Department of Commerce, National Oceanic and Atmospheric Administration 
(NOAA), and the State of Hawaii. In the case of Marianas Trench, 
Pacific Remote Islands, and Rose Atoll Marine National Monuments, FWS 
NWRS has overall management responsibility, but works in partnership 
with NOAA on managing fishing in the outer waters of each monument.
                            management needs
    Unfortunately many years after the establishment of these 
monuments, inadequate funds have left most monument management plans 
and fishing regulations unfinished and most islands remain essentially 
unmanaged and unmonitored. Without adequate funding to conserve, 
restore and protect our Nation's marine monuments, the marine monuments 
continue to be vulnerable to: illegal fishing, accidental ship 
groundings and oil spills, and introduction of invasive species. There 
have been several documented cases of both illegal foreign fishing and 
illegal trespass by commercial and recreational vessels. Additionally, 
millions of dollars have already been spent to remove invasive species 
to protect important seabird colonies.
    The NWRS received approximately $4.6 million for management of all 
four marine national monuments in fiscal year 2013. This is a decrease 
of $1 million from fiscal year 2012 levels, severely decreasing science 
capabilities and visitor services. Cutting visitation to 
Papahanaumokuakea Marine National Monument closes the public's only 
window into these magnificent marine places.
    Of the remaining $4.6 million in fiscal year 2013, only 20 percent 
($0.9 million) of the NWRS monument funding provides resources for 
monument resource management, restoration, and research. The remaining 
$3.7 million helps FAA maintain the airfield at Midway Atoll (northern 
end of Papahanaumokuakea Marine National Monument) for emergency 
commercial airplane stopovers transiting the Pacific Ocean. Without 
Midway, those aircraft would need to alter their routes, incurring 
additional flight time and fuel costs. Congress has mandated the 
airfield remain open which has caused strain on NWRS' science 
capabilities and visitation opportunities at Midway Atoll.
    Additionally, a recent severe storm destroyed vital infrastructure 
at Tern Island located within Papahanaumokuakea Marine National 
Monument. Tern Island facilities provided critical space for Government 
employees and university researchers to conduct vital research and 
monitoring efforts on corals, seabirds, sea turtles, and marine 
mammals. However, these critical facilities for providing food storage, 
safe water, equipment storage and shelter were destroyed in the recent 
storm. FWS estimates the cost of repairs at $5,000,000.
                          appropriations needs
    Marine Conservation Institute requests that the subcommittee 
increase funding for NWRS operations by $1.8 million in 2014 to better 
manage our Nation's marine monuments. An additional $1 million in 2014 
directed toward Papahanaumokuakea Marine National Monument could help 
to reinstate visitation and science capabilities at Midway Atoll and 
begin to restore research capabilities at Tern Island.
    Furthermore, an additional $0.8 million would allow FWS to provide 
adequate management of the three newest monuments. Funding is needed to 
hire managers for Marianas and Pacific Remote Islands (a Rose Atoll 
Manager has been funded over the last several years); hire one public 
planner position to aid in management responsibilities; and pay for 
associated administrative costs such as office space and travel. 
Additional funds would help address invasive species that are hurting 
native wildlife populations, provide surveillance and enforcement 
capabilities and strengthen partnerships with the National Oceanic and 
Atmospheric Administration and U.S. Coast Guard.
    Thank you for the opportunity to share our views.
                                 ______
                                 
         Prepared Statement of the Metlakatla Indian Community
    The requests of the Metlakatla Indian Community (Tribe) for the 
fiscal year 2014 budget are as follows:
  --Exempt the Indian Health Service (IHS) from any future 
        sequestration, as Congress has done for the Veterans Health 
        Administration programs.
  --Appropriate enough funds to allow IHS to fully fund all contract 
        support costs (CSC). We estimate this would require $617 
        million, which is $140 million more than the administration's 
        proposed level. We also ask that the subcommittee direct the 
        IHS to immediately release the outstanding fiscal year 2011 and 
        fiscal year 2012 CSC shortfall reports.
  --Provide full funding for Bureau of Indian Affairs (BIA) CSC, at a 
        level of $242 million, $12 million more than the President's 
        proposal.
  --Reject the administration's proposal to cap CSC on a contractor-by-
        contractor basis.
    The Tribe's Annette Island Service Unit offers primary 
comprehensive outpatient healthcare services to Alaska Natives and 
American Indians living in Metlakatla, Alaska. The mission of the 
Annette Island Service Unit is to provide the highest quality health 
service for our people. We have a long-standing commitment to excellent 
healthcare and support for our patients, and we are proud to uphold a 
high standard of quality as we strive to address the health needs of 
our island population. We provide primary health services at our 
outpatient facility in Metlakatla through funding from the IHS as a co-
signer to the Alaska Tribal Health Compact under the Indian Self-
Determination and Education Assistance Act (ISDEAA).
    Sequestration.--The Office of Management and Budget determined that 
the IHS's discretionary appropriation is fully sequestrable, which 
resulted in a $220 million cut in funding to the IHS for fiscal year 
2013--roughly 5 percent of the IHS's overall budget. IHS lost $195 
million for programs like hospitals and health clinics services, 
contract health services, dental services, mental health and alcohol 
and substance abuse. Impacts are also felt on programs and projects 
necessary for maintenance and improvement of health facilities. These 
negative effects are then passed down to every ISDEAA contractor, like 
the Tribe. The Tribe is already significantly underfunded, resulting in 
further cuts to the availability of health services we are able to 
provide to our patients, resulting in real consequences for individuals 
who have to forego needed care.
    We suffer these reductions and experience these new challenges to 
providing healthcare for our people, despite the United States' trust 
responsibility for the health of Alaska Native and American Indian 
people. We fail to understand why this responsibility was taken less 
seriously than the Nation's promises to provide health to our veterans. 
The Veterans Health Administration (VA) was made fully exempt from the 
sequestration for all programs administered by the VA. See section 255 
of the Balanced Budget and Emergency Deficit Control Act (BBEDCA), as 
amended by Public Law 111-139 (2010). Also exempt are State Medicaid 
grants, and Medicare payments are held harmless except for a 2 percent 
reduction for administration of the program. We thus strongly urge the 
subcommittee to support an amendment to the BBEDCA to fully exempt the 
IHS from any future sequestration, just as the VA's health programs are 
exempt.
             contract support costs (csc) need full funding
    Indian Health Service CSC Shortfalls.--Congress' additional 
appropriations for CSC are greatly appreciated, but the appropriated 
funds remain far below what is needed to fully fund all of the CSC owed 
to Tribes and tribal organizations under the Indian Self-Determination 
and Education Assistance Act and Federal case law. These ongoing 
shortfalls of CSC continue to impose significant hardships on the Tribe 
and its patients. We ask the committees to push for full funding of CSC 
so that the shortfalls can be eliminated. While it is difficult to 
estimate the full CSC need for fiscal year 2014--in part because the 
IHS refuses to release its CSC distribution data for the last 2 years, 
as discussed further below--projections from fiscal year 2010 have led 
us to estimate that the total need in fiscal year 2014 is $617 million. 
This requires an appropriation of an additional $146 million over the 
fiscal year 2012 enacted level.
    We also ask the subcommittees to address the ``caps'' that Congress 
has for years placed in the IHS's appropriations on the amount of CSC 
the IHS could pay for aggregate CSC. Section 106(a)(2) of the ISDEAA 
requires full payment of CSC, notwithstanding the appropriations 
``cap.'' The effect of the ``cap'' does not limit what the IHS must pay 
individual Tribes and tribal organizations for CSC under their ISDEAA 
contracts and compacts. Salazar  v. Ramah Navajo Chapter, 132 S. Ct. 
2181 (2012). In the Ramah decision, the United States Supreme Court 
recognizes that the ISDEAA requires payment of full CSC to all 
contractors, yet in every year at issue Congress failed to appropriate 
enough for the agencies to do so.
    In a misguided attempt to address these shortfalls, the 
administration proposes to limit CSC payments by submitting a list of 
contractors to the House and Senate Appropriations Committees, with 
recommended individual appropriations for each contractor. This 
proposed system is not only untenable and unwieldy; it is also unjust. 
The administration has proven itself incapable of properly accounting 
for contract support costs, and we have no indication the agencies will 
include contractors in this process to ensure the lists reflect 
contractors' needs. The simplest and most fair answer is to fully fund 
tribal contractors' CSC.
    We urge the Congress to reject the President's proposal outright, 
and fully fund IHS contract support costs at $617 million.
    Bureau of Indian Affairs CSC Shortfalls.--The President proposes 
$230 million for Bureau of Indian Affairs contract support costs. This 
amount is closer to the estimated full need of $242 million than the 
IHS proposal, but we ask that Congress fully fund the BIA's CSC as 
well.
    The President's proposal to limit CSC funding via contractor-by-
contractor caps applies to the BIA as well. Again, we strongly reject 
this effort, particularly because the administration has made no effort 
to include Tribes and tribal contractors in the process of preparing 
the proposed CSC tables. While the President's proposal says this new 
effort is part of the ``longstanding policy of managing CSC costs,'' 
Tribes know that this means saddling contractors with chronic CSC 
shortfalls like the Tribe experiences year after year. These shortfalls 
are an effective penalty for engaging in self-determination or self-
governance contracting. Both the annual underfunding and the 
administration's misguided proposal for fiscal year 2014 are contrary 
to the stated policy of the Congress and the administration to 
encourage tribal self-determination.
    We urge the subcommittee instead to fully fund the BIA contract 
support costs at $242 million, which will erase the need for the 
administration's contortionist proposal to handle CSC shortfalls.
    IHS Must Release CSC Shortfall Reports.--The Tribe is concerned 
about the IHS's failure to provide CSC shortfall reports to Congress 
for fiscal years 2011 and 2012. These shortfall reports are required to 
be submitted not later than May 15 of each year by section 106(c) of 
the Indian Self-Determination and Education Assistance Act (ISDEAA), 25 
U.S.C. Sec. 450j-1(c). While we understand that the IHS may sometimes 
need additional time to prepare the reports and review them through 
their own administrative processes, the Tribe nevertheless believes 
that the IHS must share the CSC distribution data as soon as possible.
    The Tribe and other co-signers to the Alaska Tribal Health Compact 
recently asked the IHS to share the CSC distribution data for those 
years. Access to the CSC shortfall data, if not the reports themselves, 
is critical to our ability to understand the IHS's view of the scope of 
underfunding and to pursue payment of 100 percent of the CSC to which 
the Tribe is legally entitled. The IHS has repeatedly refused to make 
the reports or data available, most recently in March of this year at a 
meeting with the IHS Area Lead Negotiator for the Alaska Area. We thus 
ask that the committees direct the IHS to immediately release the 
fiscal years 2011 and 2012 CSC shortfall reports--and all future 
reports--in a timely manner.
    Thank you for your consideration of our requests to fully exempt 
IHS funds from any future budget sequestration, to eliminate the 
chronic underfunding of CSC for the BIA and IHS, protect Tribes from 
the administration's proposal to cap CSC payments, and to direct the 
IHS to release the CSC shortfall data from fiscal years 2011 and 2012. 
We will be glad to provide any additional information the subcommittee 
may request.
                                 ______
                                 
           Prepared Statement of Mississippi State University
    As a catfish diagnostician and researcher for the Thad Cochran 
National Warmwater Aquaculture Center Aquatic Diagnostic Laboratory in 
Stoneville, Mississippi, I would like to express my concern regarding 
the proposed $400,000/3 FTE budget reduction for the U.S. Fish and 
Wildlife Service (USFWS) Aquatic Animal Drug Approval Partnership 
(AADAP) program. This program is vitally important to the catfish and 
other fisheries programs in the United States. I strongly encourage you 
to consider the ramifications of this reduction, and fully support the 
AADAP program with $1,790,000 in base funding and current FTEs. This 
figure represents the amount previously dedicated to the drug approval 
process in the Department of the Interior budget (2010 funding levels 
for AADAP and the U.S. Geological Survey [USGS budget since eliminated 
entirely]), adjusted to fiscal year 2014 dollars. Without this level of 
support, unduplicated and essential research activities cannot be 
completed, and fisheries professionals, especially the USFWS, will be 
unable to effectively deliver on their responsibilities to the American 
public.
    We are facing difficult times in the U.S. catfish industry. Among 
our other problems, we are plagued by diseases for which we have no 
treatment. Mississippi State University has worked with AADAP in 
successfully gaining a recent drug approval for columnaris disease in 
catfish and is currently working with them on treatments for other 
bacterial and parasitic diseases. The AADAP program has been 
instrumental in working with many fisheries groups in coordinating 
studies for submission to the Food and Drug Administration (FDA) animal 
drug approval process. Unfortunately, because fish are a minor species, 
economic incentives are insufficient for drug sponsors to pursue 
aquatic animal drug approvals in the United States.
    Recognizing difficult budgetary decisions must be made, I contend 
that the proposed cuts to the AADAP program would eliminate vital 
elements of a program that serves the USFWS, its partners, and 
fisheries and aquatic resources in essential and unduplicated ways. 
Without access to safe and effective drugs, it is unclear how fisheries 
professionals, especially USFWS staff, will be able to fulfill their 
mandates (e.g., rearing and stocking fish, collecting field data) 
without misusing the few currently approved drugs. The proposed cuts 
would effectively terminate the AADAP research program, and with it, 
the drug approval process for aquatic animals in the United States.
    I am asking you please to fully support the AADAP program at a 
funding level of $1,790,000 to ensure that the current and future needs 
of fisheries and fisheries professionals are met. Thank you for your 
consideration.
                                 ______
                                 
   Prepared Statement of the Metropolitan Water District of Southern 
                               California
    The Metropolitan Water District of Southern California 
(Metropolitan) encourages the subcommittee's support for the U.S. 
Bureau of Land Management's (BLM) Soil, Water, and Air Program. This 
includes for fiscal year 2014, Federal funding of $5.2 million for 
general water quality improvement efforts within the Colorado River 
Basin and, of that amount, specifically $1.5 million for salinity 
specific projects to prevent further degradation of Colorado River 
water quality and increased downstream economic damages.
    The concentrations of salts in the Colorado River cause 
approximately $376 million in quantified damages in the lower Colorado 
River Basin States each year and significantly more in unquantified 
damages. Salinity concentrations of Colorado River water are lower than 
at the beginning of Program activities by more than 100 milligrams per 
liter (mg/L). Modeling by the U.S. Bureau of Reclamation (USBR) 
indicates that the quantifiable damages would rise to more than $577 
million annually by the year 2030 without continuation of the Colorado 
River Basin Salinity Control Program (Program).
    Water imported via the Colorado River Aqueduct has the highest 
level of salinity of all of Metropolitan's sources of supply, averaging 
around 630 mg/L since 1976, which leads to economic damages. For 
example, damages occur from:
  --A reduction in the yield of salt sensitive crops and increased 
        water use for leaching in the agricultural sector;
  --A reduction in the useful life of galvanized water pipe systems, 
        water heaters, faucets, garbage disposals, clothes washers, and 
        dishwashers, and increased use of bottled water and water 
        softeners in the household sector;
  --An increase in the cost of cooling operations, and the cost of 
        water softening, and a decrease in equipment service life in 
        the commercial sector;
  --An increase in the use of water and the cost of water treatment, 
        and an increase in sewer fees in the industrial sector;
  --A decrease in the life of treatment facilities and pipelines in the 
        utility sector;
  --Difficulty in meeting wastewater discharge requirements to comply 
        with National Pollutant Discharge Elimination System permit 
        terms and conditions, and an increase in desalination and brine 
        disposal costs due to accumulation of salts in groundwater 
        basins, and fewer opportunities for recycling due to 
        groundwater quality deterioration; and
  --Increased cost of desalination and brine disposal for recycled 
        water.
    Concern over salinity levels in the Colorado River has existed for 
many years. To deal with the concern, the International Boundary and 
Water Commission signed Minute No. 242, Permanent and Definitive 
Solution to the International Problem of the Salinity of the Colorado 
River in 1973, and the President signed into law the Colorado River 
Basin Salinity Control Act in 1974 (act). High total dissolved solids 
in the Colorado River as it enters Mexico and the concerns of the seven 
Colorado River Basin States regarding the quality of Colorado River 
water in the United States drove these initial actions. To foster 
interstate cooperation and coordinate the Colorado River Basin States' 
efforts on salinity control, the seven Basin States formed the Colorado 
River Basin Salinity Control Forum.
    The Program reduces salinity by preventing salts from dissolving 
and mixing with the river's flow. Irrigation improvements (sprinklers, 
gated pipe, lined ditches) and vegetation management reduce the amount 
of salt transported to the Colorado River. Point sources such as saline 
springs are also controlled. The Federal Government, Basin States, and 
contract participants spend more than $40 million annually on salinity 
control programs.
    The Program, as set forth in the act, benefits the Upper Colorado 
River Basin water users through more efficient water management, 
increased crop production, benefits to local economies through 
construction contracts and through environmental enhancements. The 
Program benefits the Lower Basin water users, hundreds of miles 
downstream from salt sources in the Upper Basin, through reduced 
salinity concentration of Colorado River water. California's Colorado 
River water users are presently suffering economic damages in the 
hundreds of millions of dollars per year due to the river's salinity.
    The act provides that the Secretary of the Interior shall ``develop 
a comprehensive program for minimizing salt contributions to the 
Colorado River from lands administered by the Bureau of Land 
Management.'' BLM is the largest landowner in the Colorado River Basin. 
Due to geological conditions, much of the lands that are controlled and 
managed by the BLM are heavily laden with salt. Past management 
practices have led to human-induced and accelerated erosion processes 
from which soil and rocks, heavily laden with salt have been deposited 
in various stream beds or flood plains. As a result, salts are 
dissolved into the Colorado River system causing water quality problems 
downstream.
    Congress has charged Federal agencies, including the BLM, to 
proceed with programs to control the salinity of the Colorado River. 
BLM's rangeland improvement programs can lead to some of the most cost-
effective salinity control measures available. These measures 
significantly complement programs and activities being considered for 
implementation by the U.S. Bureau of Reclamation through its Basin-wide 
Program and by the U.S. Department of Agriculture through its on-farm 
Environmental Quality Incentives Program.
    Over the past years, the Colorado River Basin Salinity Control 
Program has proven to be a very cost-effective approach to help 
mitigate the impacts of increased salinity in the Colorado River. 
Continued Federal funding of this important Basin-wide program is 
essential.
    Metropolitan urges the subcommittee to fund BLM's Soil, Water, and 
Air Program for fiscal year 2014 at $5.2 million for general water 
quality improvement efforts in the Colorado River Basin. Metropolitan 
additionally urges you to specifically designate $1.5 million of that 
amount for the Colorado River Basin Salinity Control Program.
                                 ______
                                 
 Prepared Statement of the National Association of Abandoned Mine Land 
                                Programs
    My name is Todd Coffelt and I serve as the Chief of the Mines and 
Minerals Bureau within the Iowa Department of Agriculture and Land 
Stewardship. I am submitting this statement on behalf of the National 
Association of Abandoned Mine Land Programs (NAAMLP) for which I 
currently serve as President. The NAAMLP represents 31 States and 
tribes with federally approved abandoned mine land reclamation (AML) 
programs authorized under title IV of the Surface Mining Control and 
Reclamation Act (SMCRA). Title IV of SMCRA was amended in 2006 and 
significantly changed how State and tribal AML grants are funded. These 
grants are still based on receipts from a fee on coal production, but 
beginning in fiscal year 2008, the grants are funded primarily by 
mandatory appropriations. As a result, the States and tribes should 
receive $340 million in fiscal year 2014. In its fiscal year 2014 
budget, the Office of Surface Mining (OSM) is requesting $273 million 
for State and tribal AML grants, a reduction of $67 million. OSM's 
budget also includes three legislative proposals, the first of which 
would eliminate funding to States and tribes that have ``certified'' 
completion of their highest priority abandoned coal reclamation sites; 
the second of which would return the AML reclamation fee paid by coal 
operators to pre-2006 levels; and the third of which would establish a 
hardrock AML fee and accompanying program.
    Over the past 30 years, the accomplishments of the States and 
tribes under the AML program have resulted in tens of thousands of 
acres of abandoned mine lands having been reclaimed, thousands of mine 
openings having been closed, and safeguards for people, property and 
the environment having been put in place. Be assured that States and 
tribes continue to be committed to address the unabated hazards at both 
coal and noncoal abandoned mines. We are united in achieving the goals 
and objectives as set forth by Congress when SMCRA was first enacted--
including protecting public health and safety, enhancing the 
environment, providing employment, and adding to the economies of 
communities impacted by past coal and noncoal mining.
    When passed in 1977, SMCRA set national regulatory and reclamation 
standards for coal mining. The act also established a Reclamation Trust 
Fund to work toward eliminating the innumerable health, safety and 
environmental problems that existed throughout the Nation from mines 
that were abandoned prior to the act. The Fund generates revenue 
through a fee on current coal production. This fee is collected by OSM 
and distributed to States and tribes that have federally approved 
regulatory and AML programs. The promise Congress made in 1977, and 
with every subsequent amendment to the act, was that, at a minimum, 
half the money generated from fees collected by OSM on coal mined 
within the boundaries of a State or tribe, referred to as ``State 
Share,'' would be returned for the uses described in title IV of the 
act if the State or tribe assumed responsibility for regulating active 
coal mining operations pursuant to title V of SMCRA. The 2006 
Amendments clarified the scope of what the State Share funds could be 
used for and reaffirmed the promise made by Congress in 1977.
    If a State or tribe was successful in completing reclamation of 
abandoned coal mines and was able to ``certify'' under section 411 of 
SMCRA \1\, then the State Share funds could be used to address a myriad 
of other abandoned mine issues as authorized by SMCRA and as further 
defined under each State's or tribe's Abandoned Mine Reclamation Plan, 
each of which is approved by OSM. Like all abandoned mine reclamation, 
the work of certified States and tribes eliminates health and safety 
problems, cleans up the environment, and creates jobs in rural areas 
impacted by mining. In this regard, the certified States and tribes 
have been good stewards of the AML funds they receive, especially with 
regard to addressing dangerous non-coal mines.
---------------------------------------------------------------------------
    \1\ While a certified State or tribe confirms at the time of 
certification that it has completed all of the coal sites on its 
current inventory, the certification contemplates that new, formerly 
unidentified high priority coal AML sites may occur in the future and 
the State/tribe commits to addressing these sites immediately. All AML 
States and tribes, including those that are certified, have identified 
additional previously unknown high priority coal sites as a result of 
ongoing field investigations, new information and features that have 
been expressed to the surface.
---------------------------------------------------------------------------
    The elimination of funding for certified State and tribal AML 
grants not only breaks the promise of State and Tribal Share funding, 
but upsets the balance and compromise that was achieved in the 
comprehensive restructuring of SMCRA accomplished by the 2006 
Amendments following more than 10 years of discussion and negotiation 
by all affected parties. The funding reduction is inconsistent with the 
administration's stated goals regarding jobs and environmental 
protection. We therefore respectively ask the subcommittee to support 
continued funding for certified States and tribes at the statutorily 
authorized levels, and turn back any efforts by OSM to amend SMCRA in 
this regard.\2\
---------------------------------------------------------------------------
    \2\ In this regard, we should note that funding to certified States 
and tribes was already capped at $15 million annually pursuant to an 
amendment to SMCRA adopted last year as part of the Moving Ahead for 
Progress in the 21st Century Act (Public Law 112-14).
---------------------------------------------------------------------------
    In addition to the $33 million reduction for certified States and 
tribes, the proposed fiscal year 2014 budget perpetuates the 
termination of Federal funding for the AML emergency program, leaving 
the States and tribes to rely on funds received through their non-
emergency AML grant funds. This contradicts the 2006 amendments, which 
require the States and tribes to maintain ``strict compliance'' with 
the nonemergency funding priorities described in section 403(a), while 
leaving section 410, Emergency Powers, unchanged. Section 410 of SMCRA 
requires OSM to fund the emergency program using OSM's ``discretionary 
share'' under section (402)(g)(3)(B), which is entirely separate from 
State and tribal non-emergency AML grant funding under sections 
(402)(g)(1), (g)(2), and (g)(5). SMCRA does not provide for States and 
tribes to administer or fund an AML emergency program from their 
nonemergency AML grants, although, since 1989, 15 States have agreed to 
implement the emergency program on behalf of OSM contingent upon OSM 
providing full funding for the work. As a result, OSM has been able to 
fulfill their mandated obligation more cost effectively and 
efficiently.
    Regardless of whether a State/tribe or OSM operates the emergency 
program, only OSM has the authority to ``declare'' the emergency and 
clear the way for the expedited procedures to be implemented. In fiscal 
year 2011, OSM issued guidance to the States that the agency ``will no 
longer declare emergencies.'' OSM provided no legal or statutory 
support for its position. Instead, OSM has ``transitioned'' 
responsibility for emergencies to the States and tribes with the 
expectation that they will utilize nonemergency AML funding to address 
them. OSM will simply ``assist the States and tribes with the projects, 
as needed.'' Of course, given that OSM has proposed to eliminate all 
funding for certified States and tribes, it begs the question of how 
and to what extent OSM will continue to assist these particular States 
and tribes when emergencies arise.
    If Congress continues to allow the elimination of emergency program 
funding, States and tribes will have to adjust to their new role by 
setting aside a large portion of their non-emergency AML funds so that 
they can be prepared for any emergency that may arise. For minimum 
program States and States with small AML programs, large emergency 
projects will require the States to redirect all or most of their AML 
resources to address the emergency, thereby delaying other high-
priority reclamation. With the loss of stable emergency program 
funding, minimum program States will have a difficult, if not 
impossible, time planning, budgeting, and addressing the abatement of 
their high priority AML problems. In a worst-case scenario, a minimum 
program State would not be able to address a costly emergency in a 
timely fashion, and would have to ``save up'' multiple years of funding 
before even initiating the work to abate the emergency, in the meantime 
ignoring all other high priority work.
    It appears from our review of OSM's proposed budget that the agency 
has abandoned the idea (contained in its last three budget proposals) 
to revamp the method for allocating State grant funding based on a 
competitive grant process whereby States and tribes compete for funding 
based on the findings of an AML ``Advisory Council.'' We are greatly 
encouraged by this development given its potential to completely upend 
what has been an effective protocol for distributing State grant moneys 
based on the priorities set forth by Congress in SMCRA. We are hopeful 
that this particular idea has been fully put to rest. As we have noted 
in the past, given the uncertainties and the negative implications for 
the accomplishment of AML work under title IV of SMCRA under the 
proposal, Congress should reject it as being counterproductive to the 
purposes of SMCRA and an inefficient use of funds.
    On a somewhat related matter, there appears to be increasing 
concern by some in Washington that the States and tribes are not 
spending the increased AML grant moneys that they have received under 
the 2006 Amendments in a more expeditious manner, thus resulting in 
what the administration has characterized as unacceptable levels of 
``undelivered orders.'' What these figures and statements fail to 
reflect is the degree to which AML grant moneys are obligated or 
otherwise committed for AML reclamation work as part of the normal 
grant process. Most AML grants are either 3 or 5 years in length and 
over that course of time, the States and tribes are in a continual 
process of planning, bidding and contracting for specific AML projects. 
Some projects are multi-layered and require extended periods of time to 
complete this process before a shovel is turned at the AML site. And 
where Federal funding is concerned, additional time is necessary to 
complete the myriad statutory approvals in order for AML work to begin, 
including compliance with the National Environmental Policy Act and the 
National Historic Preservation Act.
    In almost every case, however, based on the extensive planning that 
the States and tribes undertake, AML grant funds are committed to 
specific projects even while clearances and bidding are underway. While 
funds may not technically be ``obligated'' because they are not yet 
``drawn down,'' these funds are committed for specific purposes. Once 
committed, States and tribes consider this grant money to be obligated 
to the respective project, even though the ``order'' has not been 
``delivered'' and the funds actually ``drawn down.'' The latter can 
only occur once the project is completed, which will often be several 
years later, depending on the size and complexity of the project.\3\ We 
would be happy to provide the subcommittee with more detailed 
information about our grant expenditures and project planning in order 
to answer any questions you may have about how we account for and spend 
our AML grant moneys. Given the confusion that often attends the 
various terms used to describe the grant expenditure process, we 
believe it is critical that Congress hear directly from the States and 
tribes on this matter and not rely solely on the administration's 
statements and analyses. We welcome the opportunity to brief your 
subcommittee in more detail regarding this issue should you so desire.
---------------------------------------------------------------------------
    \3\ Simply defined, the measure used by OSM as an ``undelivered 
order'' is all AML funding that has been awarded but not yet ``drawn 
down'' from the U.S. Treasury. Given that all grants are on a 
reimbursement basis, the funds cannot be drawn down until the bills are 
paid. 30 CFR sec. 700.5 provides the definition of ``expended.'' There 
is an obvious disconnect between OSM's reporting of ``undelivered 
orders'' and the definition of ``expended''. A fairer measure of the 
obligation of Federal grant moneys would be to examine them at the end 
of the grant period (3 or 5 years from award) and also take into 
account active and ongoing construction contracts where money has been 
encumbered but not yet paid out pending completion of the project work.
---------------------------------------------------------------------------
    One of the more effective mechanisms for accomplishing AML 
restoration work is through leveraging or matching other grant 
programs, such as EPA's 319 program. Until fiscal year 2009, language 
was always included in OSM's appropriation that encouraged the use of 
these types of matching funds, particularly for the purpose of 
environmental restoration related to treatment or abatement of acid 
mind drainage (AMD) from abandoned mines. This is an ongoing, and often 
expensive, problem, especially in Appalachia. NAAMLP therefore requests 
the subcommittee to support the inclusion of language in the fiscal 
year 2014 appropriations bill that would allow the use of AML funds for 
any non-Federal cost-share required by the Federal Government for AMD 
abatement.
    We also urge the subcommittee to support funding for OSM's training 
program and TIPS, including moneys for State/tribal travel. These 
programs are central to the effective implementation of State and 
tribal AML programs as they provide necessary training and continuing 
education for State/tribal agency personnel, as well as critical 
technical assistance. These programs saw drastic cuts as a result of 
sequestration and we are hopeful that Congress will restore the 
necessary funding for these critical programs in the fiscal year 2014 
appropriation. Finally, we support funding for the Watershed 
Cooperative Agreements in the amount of $1.2 million because it 
facilitates and enhances State and local partnerships by providing 
direct financial assistance to watershed organizations for acid mine 
drainage remediation.
    Thank you for the opportunity to submit this statement regarding 
OSM's proposed budget for fiscal year 2014. We would be happy to answer 
any questions you may have or provide additional information.
                               attachment
questions and concerns re the aml legislative proposal in osm's fiscal 
                            year 2014 budget
Proposed Elimination of Funding for AML Emergencies
    While amendments to title IV of SMCRA in 2006 (Public Law 109-432) 
adjusted several provisions of the act, no changes were made to OSM's 
emergency powers in section 410. Quite to the contrary, section 
402(g)(1)(D)(2) states that the Secretary shall ensure ``strict 
compliance'' with regard to the States' and tribes' use of non-
emergency grant funds for the priorities listed in section 403(a), none 
of which include emergencies. The funding for the emergency program 
comes from the Secretary's discretionary share, pursuant to section 
402(g)(3) of the act. This share currently stands at around $416 
million. OSM's elimination of funding for the emergency program will 
result in the shift of approximately $20 million annually that will 
have to be absorbed by the States. This is money that cannot be spent 
on high priority AML work (as required by SMCRA) and will require the 
realignment of State AML program operations in terms of personnel, 
project design and development, and construction capabilities. In most 
cases, depending on the nature and extent of an emergency project, it 
could preclude a State's ability to undertake any other AML work during 
the grant year (and even following years), especially for minimum 
program States. How does OSM envision States and tribes being able to 
meet their statutory responsibility to address high priority AML sites 
in light of the elimination of Federal funding for AML emergencies? How 
does OSM reconcile this proposal with the intentions of Congress 
expressed in the 2006 amendments to move more money out of the AML Fund 
sooner to address the backlog of AML problems that continue to linger?
Proposed Elimination of Funding to Certified States and Tribes
    From what we can ascertain, OSM proposes to eliminate all payments 
to certified States and tribes--in lieu of funds; prior balance 
replacement funds; and monies that are due and owing in fiscal year 
2018 and 2019 from the phase-in during fiscal years 2008 and 2009. Is 
this accurate? OSM says nothing of what the impact will be on non-
certified States as a result of eliminating these payments to certified 
States and tribes--especially the equivalent payments that would 
otherwise be made to the historic production share that directly relate 
to ``in lieu of'' payments to certified States and tribes under section 
411(h)(4). Previously, OSM has stated that ``the amounts that would 
have been allocated to certified States and tribes under section 
402(g)(1) of SMCRA will be transferred to the historical production 
allocation on an annual basis to the extent that those States and 
tribes receive in lieu payments from the Treasury (through the 
Secretary of the Interior) under section 402(i) and 411(h)(2) of 
SMCRA.'' By OSM's own admission in its fiscal year 2013 proposed 
budget, this will amount to $1.2 billion over 10 years. If the in lieu 
payments are not made (as proposed), how can the transfer to historic 
production occur? The result, of course, would be a drastic impact on 
the historic production allocation otherwise available to uncertified 
States. Will OSM address this matter in its proposed legislation? If 
so, how?
    Has OSM considered the fiscal and programmatic impacts that could 
result if the certified States and tribes, who no longer receive AML 
monies, choose to return their title V regulatory programs to OSM 
(especially given the severe reductions being proposed for fiscal year 
2013 in title V grants)?
    Finally, how do the cuts in the title IV program line up with the 
administration's other economic, fiscal and environmental objectives as 
articulated in the deficit reduction and jobs bills that have been 
considered by Congress? These objectives include environmental 
stewardship, cleaning up abandoned mines (coal and noncoal) nationwide, 
creating green jobs, pumping dollars into local communities, putting 
money to work on the ground in an expeditious manner, sustainable 
development, infrastructure improvements, alternative energy projects, 
protecting public health and safety, and improving the environment. It 
seems to us that there is a serious disconnect here and we remain 
mystified as to how these laudable objectives and OSM's budget proposal 
can be reconciled.
Proposed Hardrock AML Fee and Related Program
    The States and tribes have advocated for legislation that would 
allow us to address historic hardrock AML problem areas, beginning with 
the inclusion of section 409 of SMCRA in 1977, to the most recent 
legislation (passed by the Senate and the House Resources Committee in 
the last session of Congress, i.e. S. 897) that would allow uncertified 
States and tribes to use prior balance replacement funds to address 
noncoal AML projects. There is clearly a need to establish both the 
funding mechanism and the administrative program to address these 
legacy sites. We believe that OSM is in the best position to administer 
this program, given its 35 years of experience in operating the title 
IV program under SMCRA. Our only concern is that, while on the one hand 
OSM is advocating for the establishment of a hardrock AML program, it 
is also pushing for the elimination of funding for certified States and 
tribes to accomplish this very work. Granted, OSM's position is based 
on its belief that SMCRA funding should be restricted to high priority 
coal problems only. However, Congress clearly felt differently from the 
outset of SMCRA's formation and, while there have been many recent 
opportunities to adjust its views and amend SMCRA accordingly, Congress 
has chosen not to do so. To the contrary, Congress has adopted 
legislation that would clarify the use of SMCRA AML funds to address 
noncoal problems. Nonetheless, we would welcome an opportunity to work 
closely with OSM in examining the potential for a hardrock AML program, 
wherever it may reside and however it may be constituted.
                                 ______
                                 
  Prepared Statement of the National Association of Clean Air Agencies
    On behalf of the National Association of Clean Air Agencies 
(NACAA), thank you for this opportunity to testify on the fiscal year 
2014 proposed budget for the United States Environmental Protection 
Agency (EPA). NACAA supports the President's request for a $21.5 
million increase (over the fiscal year 2012 enacted budget) in Federal 
grants for State and local air pollution control agencies under 
sections 103 and 105 of the Clean Air Act, under the State and Tribal 
Assistance Grant (STAG) account (for a total of $257.2 million). 
Additionally, NACAA supports retaining funding for fine particulate 
matter (PM<INF>2.5</INF>) monitoring under section 103 authority, 
rather than shifting it to section 105 authority.
    NACAA is a national, nonpartisan, nonprofit association of air 
pollution control agencies in 43 States, the District of Columbia, 4 
territories and more than 116 metropolitan areas. The members of NACAA 
have the primary responsibility under the Clean Air Act for 
implementing the Nation's clean air program. The air quality 
professionals in our member agencies have vast experience dedicated to 
improving air quality in the United States. The comments we offer are 
based upon that experience. The views expressed in this testimony do 
not represent the positions of every State and local air pollution 
control agency in the country.
 state and local air quality programs face significant funding deficits
    State and local air pollution control agencies have been facing 
significant funding deficits for many years, with adverse impacts on 
their ability to implement the federally mandated core elements of the 
clean air program. A study NACAA conducted several years ago showed 
that there is an annual shortfall of $550 million in Federal grants for 
State and local air programs.\1\ While the resource needs for these 
vitally important State and local programs are substantial and the 
proposed increase would not eliminate the deficit, we understand that 
full funding in the current economic climate is unlikely. We appreciate 
the administration's recognition of the importance of clean air and we 
believe the proposed increase is essential for our efforts to obtain 
and maintain healthful air quality.
---------------------------------------------------------------------------
    \1\ Investing in Clean Air and Public Health: A Needs Survey of 
State and Local Air Pollution Control Agencies (April 2009), NACAA, 
http://www.4cleanair.org/Documents/Reportneedssurvey042709.pdf.
---------------------------------------------------------------------------
    State and local air agencies do more than their fair share to 
provide resources for their air quality efforts. Section 105 of the 
Clean Air Act authorizes the Federal Government to provide grants for 
up to 60 percent of the cost of State and local air programs, while 
State and local agencies are required to provide a 40 percent match. 
However, the reality is that State and local air quality programs, on 
average, supply 77 percent of their budgets (not counting permit fees 
under the Federal title V program), while Federal grants total only 23 
percent.
    To make matters worse, the grants these agencies receive have 
decreased in purchasing power over recent years due to inflation. For 
example, between fiscal year 2000 and fiscal year 2011, the purchasing 
power of Federal grants decreased by 9 percent. This decline, along 
with unrelenting and increasing responsibilities, has made it difficult 
for many States and localities to keep their essential air quality 
programs operating.
    Many agencies have reported reductions in and/or elimination of 
programs, as well as diminishing staff levels. According to a recent 
survey that the Environmental Council of the States (ECOS) conducted, 
37 States reported that 2,112 environmental agency positions have been 
eliminated or held vacant due to budget limitations in fiscal year 
2010.\2\ State and local agencies find it difficult to operate in the 
midst of these types of staffing woes, as it is hard to recover from 
the loss of trained and valuable staff.
---------------------------------------------------------------------------
    \2\ ECOS Green Report--Impacts of Reductions in Fiscal Year 2010 on 
State Environmental Agency Budgets (March 2010), Environmental Council 
of the States, http://ecos.org/files/
4011_file_March_2010_ECOS_Green_Report.pdf.
---------------------------------------------------------------------------
    The impacts of program reductions due to economic conditions are 
significant. Many NACAA agencies report worrisome program contractions, 
including reductions and/or elimination of activities related to the 
following: monitoring, including curtailment of monitoring and/or 
analysis activities or even closing down of monitoring sites; 
permitting for major and minor sources, resulting in delay and backlogs 
in permit issuance and reduced permitting assistance to sources; 
inspections of sources, including for compliance purposes; air toxics 
programs, including implementing Federal air toxics standards and 
taking delegation of Federal area source standards; public education 
and outreach; emissions inventory work; training; data analysis; 
citizen-complaint response; rulemaking; development of State 
Implementation Plans (SIPs); and motor vehicle-related programs.\3\ In 
an era in which the public expects immediate information and rapid 
responses to their concerns, this loss of capacity is even more of a 
challenge.
---------------------------------------------------------------------------
    \3\ NACAA Letter to Leadership of Senate Appropriations 
Subcommittee on Interior, Environment, and Related Agencies (June 28, 
2011), http://www.4cleanair.org/Documents/
NACAAlettertoSenatewithstaffstudy2011.pdf.
---------------------------------------------------------------------------
    It is important to remember that well-funded and well-operated air 
quality agencies can serve their communities better through more 
efficient permitting and compliance assistance, among other things. 
Considering those benefits, as well as the fact that the public's 
health and welfare are at risk, it does not make sense to underfund 
these critical programs. However, since the economy has been slow to 
recover, air agencies will continue to make painful decisions, such as 
reducing or cutting air programs that protect public health. During 
these hard economic times, Federal grants are more essential than ever.
    We fully understand that Congress must allocate ever-scarcer 
resources among many commendable programs. However, it is worth noting 
that improvements in air quality are very cost effective and beneficial 
to our economy. More healthful air quality results in lower healthcare 
costs and a more productive workforce. An EPA analysis has shown that 
the benefits of the Clean Air Act since 1990 have exceeded the costs by 
more than 30 to 1.\4\ This is a return on an investment the likes of 
which few programs can claim.
---------------------------------------------------------------------------
    \4\ The Benefits and Costs of the Clean Air Act Amendments from 
1990 to 2020 (March 1, 2011), EPA, http://www.epa.gov/air/sect812/
feb11/summaryreport.pdf.
---------------------------------------------------------------------------
             the increases will support essential programs
    As stated earlier, the administration has requested a $21.5 million 
increase (more than the fiscal year 2012 enacted budget) in Federal 
grants for State and local air pollution control agencies, for a total 
of $257.2 million. These additional funds can be put to good use to 
support our core programs--which are the foundation of the air program 
and include day-to-day responsibilities--and monitoring, among other 
things. The list of activities for which State and local agencies need 
Federal funding is extremely long, but here are just a few of the 
things these agencies must do in fiscal year 2014 that the 
administration's proposed funding level would support:
  --develop State strategies (i.e., SIPs) to implement the health-based 
        National Ambient Air Quality Standards (NAAQS), which will 
        include complex modeling, development of emission inventories 
        and public involvement;
  --make recommendations for area designations and develop supporting 
        documentation for the fine particle (PM<INF>2.5</INF>) NAAQS 
        issued in 2012;
  --implement the 8-hour ozone and lead NAAQS that were issued in 2008;
  --implement the 1-hour nitrogen dioxide (NO<INF>2</INF>) NAAQS and 
        the 1-hour sulfur dioxide (SO<INF>2</INF>) NAAQS from 2010;
  --continue the implementation of previous PM<INF>2.5</INF> and ozone 
        NAAQS;
  --continue implementation of permitting requirements for greenhouse 
        gases, sulfur dioxide, NO<INF>2</INF> and PM<INF>2.5</INF>;
  --implement changes to PM<INF>2.5</INF> monitoring requirements 
        related to recent revisions to the particulate matter NAAQS;
  --continue operation of multi-pollutant monitoring site networks;
  --deploy near-road NO<INF>2</INF> monitoring stations, some of which 
        will include carbon monoxide monitoring;
  --implement and enforce EPA regulations to address hazardous air 
        pollutants (HAPs), including Maximum Achievable Control 
        Technology (MACT) standards and area source programs; and
  --monitor, collect and analyze emissions data related to HAPs.
            monitoring funds should remain under section 103
    The President's budget request includes a provision whereby 
PM<INF>2.5</INF> monitoring funds would begin to be shifted, over a 4-
year period, from Clean Air Act section 103 authority, where matching 
funds are not needed, to section 105, which would require additional 
matching funds. While we appreciate that the budget request would 
retain level Federal funding for PM<INF>2.5</INF> monitoring, we 
request that these funds remain under section 103 authority, as they 
have in the past, rather than being shifted to section 105 authority. 
For any State or local agencies with concerns about the matching 
requirements, this will ensure that they can continue receiving these 
critical monitoring funds.
                why are clean air programs so important?
    We have discussed the funding shortfalls that exist and how State 
and local programs are in need of additional resources. But why is it 
so important that these public health programs be adequately funded? It 
is because air pollution causes tens of thousands of premature deaths 
every year and results in many more people suffering serious health 
problems. These include the aggravation of respiratory and 
cardiovascular diseases; damage to lung tissue, irregular heartbeat, 
heart attacks, difficulty breathing; increased susceptibility to 
respiratory infections; adverse effects on learning, memory, IQ, and 
behavior; and cancer. Air pollution also harms vegetation and land and 
water systems, impairs visibility and causes other adverse impacts.
    This is indeed a public health crisis, with the widespread adverse 
effects spanning the United States, affecting millions of people. EPA 
estimates that 124 million people in the country lived in areas that 
violated at least one of the health-based NAAQS in 2010.\5\ EPA's most 
recent data on toxic air pollution showed that everyone in the United 
States had an increased cancer risk of more than 10 in 1 million (1 in 
1 million is generally considered ``acceptable'').\6\
---------------------------------------------------------------------------
    \5\ Our Nation's Air: Status and Trends Through 2010 (February 
2012), EPA, www.epa.gov/airtrends/2011/.
    \6\ National Air Toxics Assessment for 2005--Fact Sheet, 
www.epa.gov/ttn/atw/nata2005/05pdf/sum_results.pdf.
---------------------------------------------------------------------------
    What is notable is that some of these deaths and adverse health 
impacts are preventable through programs designed to reduce air 
pollution. That is why it is so critical that State and local air 
quality programs, the implementers of the Federal Clean Air Act, be 
adequately funded to carry out their mission.
                               conclusion
    Increases in Federal grants for State and local air pollution 
control agencies are essential if they are to continue their core 
activities and address some of the new requirements mandated by Federal 
law and regulation. While the need for Federal grants far exceeds the 
proposed amount, State and local agencies appreciate any increase 
provided and would put the additional funds to excellent use.
    NACAA supports the fiscal year 2014 budget request for Federal 
grants to State and local air quality agencies under sections 103 and 
105 of the Clean Air Act, which is $257.2 million ($21.5 million more 
than the fiscal year 2012 enacted budget). Also, NACAA supports 
retaining funding for PM<INF>2.5</INF> monitoring under section 103 
authority, rather than shifting it to section 105 authority.
    Thank you for this opportunity to testify and for considering the 
efforts of State and local air quality programs as they improve and 
protect public health.
                                 ______
                                 
    Prepared Statement of the National Congress of American Indians
    Introduction.--On behalf of the National Congress of American 
Indians (NCAI), we would like to submit outside witness testimony on 
the budgets for the Bureau of Indian Affairs, Indian Health Service, 
and Environmental Protection Agency. NCAI is the oldest and largest 
American Indian organization in the United States. Tribal leaders 
created NCAI in 1944 as a response to termination and assimilation 
policies that threatened the existence of American Indian and Alaska 
Native tribes. Since then, NCAI has fought to preserve the treaty 
rights and sovereign status of tribal governments, while also ensuring 
that Native people may fully participate in the political system. As 
the most representative organization of American Indian tribes, NCAI 
serves the broad interests of tribal governments across the Nation. As 
Congress debates elements of various budget proposals for fiscal year 
2014 and beyond, leaders of tribal nations call on decisionmakers to 
ensure that the promises made to Indian Country are honored in the 
Federal budget.
                               sequester
    Although we are submitting testimony on fiscal year 2014, we must 
comment on the fiscal year 2013 sequestration of discretionary 
programs. NCAI passed a unanimous resolution that trust and treaty 
obligations to tribes should not be subject to sequestration. Although 
the United States, businesses, and workers hoped that an economic 
recovery was finally taking off, the Nation will begin absorbing 
automatic spending cuts known as sequestration in the next few months, 
creating an economic drag. The sequester cuts pose particular hardship 
for Indian Country and the surrounding communities who rely on tribes 
as employers, where the recession struck especially hard.\1\ Tribal 
leaders urge Congress to protect the Federal funding that fulfills the 
trust responsibility to tribes in the face of difficult choices. The 
sequester reductions to tribal programs undermine Indian treaty rights 
and obligations--treaties which were ratified under the Constitution 
and considered the ``supreme law of the land.'' At its most basic 
level, the economic success of the United States is built upon the land 
and natural resources that originally belonged to tribal nations. In 
exchange for land, the United States agreed to protect tribal treaty 
rights, lands, and resources, including provision of certain services 
for American Indian and Alaska Native tribes and villages, which is 
known as the Federal Indian trust responsibility. Indiscriminate cuts 
sacrifice not only the trust obligations, but they thwart tribes' 
ability to promote economic growth or plan for the future of Native 
children and coming generations.
---------------------------------------------------------------------------
    \1\ Economic Policy Institute. (November 18, 2010). Different race, 
Different recession: American Indian Unemployment in 2010. Washington, 
DC: Author.
---------------------------------------------------------------------------
    The fiscal year 2013 sequester and potential reductions due to the 
Budget Control Act caps will hurt law enforcement, education, health 
care and other tribal services, which have been historically 
underfunded and have failed to meet the needs of tribal citizens.
         federal cuts disproportionately impact indian country
    In their role as governments, tribes deliver all the range of 
services that other governments provide. Tribal governments maintain 
the power to determine their own governance structures and enforce laws 
through police departments and tribal courts. Tribes provide social 
programs, first-responder services, education, workforce development, 
and natural resource management. They also build and maintain a variety 
of infrastructure, including roads, bridges, housing, and public 
buildings. Yet, tribes need adequate resources to exercise their self-
determination and serve as effective governments. Government funds 
provide much-needed investments in tribal physical, human, and 
environmental capital.
    For many tribes, a majority of tribal governmental services is 
financed by Federal sources. Tribes lack the tax base and lack parity 
in tax authority to raise revenue to deliver services. If Federal 
funding is reduced sharply for State and local governments, they may 
choose between increasing their own taxes and spending for basic 
services or allowing their services and programs to take the financial 
hit. On the other hand, many tribes have limited ability to raise 
substantial new revenue, especially not rapidly enough to cover the 
reduction in services from the across the board reductions of the 
fiscal year 2013 sequestration. States and localities finance their own 
areas of spending and State and local taxes provide the majority of the 
funding for most of their services. The Census Bureau shows that half 
of State and local government revenue is from their own taxes, while a 
quarter is Federal.\2\
---------------------------------------------------------------------------
    \2\ U.S. Census Bureau, State and Local Government Finances 
Summary: 2010, September 2012.
---------------------------------------------------------------------------
    On the other hand, up to 60 and 80 percent of the revenue for 
tribal governmental services comes from Federal sources. Although some 
tribes have implemented strategies that enhance economic development 
for their communities to supplement Federal sources, that does not 
supplant the Federal Government's duty to fulfill its trust 
responsibility.\3\
---------------------------------------------------------------------------
    \3\ National Congress of American Indians (April 2013). A Call to 
Honor the Promises to Tribal Nations in the Federal Budget. Washington, 
DC: Author (http://www.ncai.org/resources/policy_papers/honor-the-
promises-the-tribal-nations-in-the-federal-budget).
---------------------------------------------------------------------------
    With those tribal revenue constraints provided for context, this 
testimony will address recommendations for some of the critical tribal 
programs in the Interior, Environment, and Related Agencies 
Subcommittee jurisdiction. NCAI has previously submitted fiscal year 
2014 testimony on funding for the Indian Health Service and the Bureau 
of Indian Education. NCAI also supports the recommendations of the 
National Indian Health Board, National Indian Child Welfare 
Association, and National Indian Education Association. A separately 
submitted written testimony from NCAI addresses recommendations for the 
Bureau of Indian Education funded in the Interior, Environment, and 
Related Agencies appropriations bill.
                  bureau of indian affairs in context
    NCAI appreciates recent support for tribal programs over recent 
years, especially for the Indian Health Service and law enforcement. 
However, we must mention that comparing budget increases for the six 
largest Interior agencies between fiscal year 2004 enacted to fiscal 
year 2014 Presidents' request shows that BIA has received the smallest 
percentage increase.

           BUDGET INCREASES FOR THE SIX LARGEST INTERIOR AGENCIES FISCAL YEAR 2004 TO FISCAL YEAR 2014
                                              [Dollars in millions]
----------------------------------------------------------------------------------------------------------------
                                                                                                    Fiscal year
                                                                    Fiscal year     Fiscal year      2004-2014
                                                                   2004 enacted    2014 request     (percentage
                                                                                                     increase)
----------------------------------------------------------------------------------------------------------------
USGS............................................................          $938.8        $1,167.0            24.3
FWS.............................................................         1,303.4         1,552.0            19.1
NPS.............................................................         2,258.6         2,636.0            16.7
BLM.............................................................           999.8         1,162.0            16.2
BOR.............................................................           942.9         1,050.0            11.4
BIA.............................................................         2,305.8         2,563.0            11.2
----------------------------------------------------------------------------------------------------------------
The increase for BIA from the fiscal year 2004 enacted level to the fiscal year 2014 President's requested level
  is about 11 percent, the smallest percent increase compared to the six largest Interior agencies.

               changes proposed to contract support costs
    NCAI opposes the administration's unilateral proposal, in its 
fiscal year 2014 budget request, to fundamentally alter the nature of 
tribal self-governance by implementing individual statutory tribal caps 
on the payment of contract support costs. Contract support cost funding 
is essential to the operation of contracted Federal programs 
administered under federally issued indirect cost rate agreements. No 
change of such a fundamental character should be implemented until 
there has been a thorough consultation and study process jointly 
undertaken by the Indian Health Service (IHS), the Bureau of Indian 
Affairs (BIA), and tribal leaders, informed by a joint technical 
working group and coordinated through NCAI. Such a consultation process 
must be scheduled to permit opportunity for full tribal participation. 
While NCAI believes that overall statutory caps on contract support 
costs should be eliminated, at the very least Congress should maintain 
in fiscal year 2014 and fiscal year 2015 the status quo statutory 
language enacted in fiscal year 2013 so that tribally developed changes 
in contract support cost funding mechanisms, if any, can be included in 
the fiscal year 2016 budget.
              specific recommendations for indian affairs
    The President's budget eliminates the Housing Improvement Program 
(HIP) budget. NCAI opposes HIP's elimination because the program serves 
the neediest of the needy in Indian Country and losing the program 
altogether would be difficult for tribes to absorb or cover in other 
ways. Language to provide a no-cost economic development and jobs 
creation solution for restoring land to tribal governments impacted by 
the Carcieri  Supreme Court decision is included in the Department of 
the Interior general provisions of the President's budget.
    Natural Resources and Trust Lands.--Federal investment in tribal 
natural resources management helps to sustain tribal land and people, 
grow economies, and support continued prosperity. Many of the BIA Trust 
natural resources programs discussed in this section experienced 
substantial cuts over the past decade. Further reductions in fiscal 
year 2013 under the Budget Control Act of 2011 would eliminate jobs, 
stymie economic activity at a critical time for tribes, and curtail 
combined tribal, Federal, State, and community collaboration as well as 
the valuable perspective in natural resource management that tribes 
contribute to the national natural resources and the economy.
    One of the largest increases in the proposed fiscal year 2014 BIA 
budget is for sustainable tribal stewardship and development of natural 
resources. The proposed budget includes increases of $32.4 million for 
this initiative. The funding is proposed for resource management and 
decisionmaking in the areas of energy and minerals, climate, oceans, 
water, rights protection, endangered and invasive species, resource 
protection enforcement, and post-graduate fellowship and training 
opportunities in science-related fields. $2.5 million of this funding 
will focus on projects engaging youth in the natural sciences and will 
establish an office to coordinate youth programs across Indian Affairs. 
Programmatic changes in Trust Natural Resources include increases of 
$9.8 million to cooperative landscape conservation, $7.7 million to 
Rights Protection Implementation, $5.1 million to Forestry, $3 million 
to Fish, Wildlife and Parks, and $2 million to Tribal Management and 
Development. NCAI supports such increases, but the increases are below 
the recommended levels for various natural resources programs at BIA 
included in the fiscal year 2014 Indian Country budget request. 
Expanded tribal justification on each program is also available in the 
fiscal year 2014 tribal budget request.\4\
---------------------------------------------------------------------------
    \4\ National Congress of American Indians. (January 2013). Fiscal 
year 2014 Indian Country budget request: Supporting tribal economic 
security and prosperity. Washington, DC: Author. (http://www.ncai.org/
resources/policy_papers/fy2014-indian-country-budget-request).
---------------------------------------------------------------------------
    BIA Office of Justice Services.--The President's budget includes a 
$19 million increase for BIA public safety and justice. These increases 
will provide $5.5 million to hire additional tribal and bureau law 
enforcement staff and $13.4 million to staff recently constructed 
tribally operated detention centers. An increase of $1 million is for 
tribal courts, which are expected to see an increase in caseloads. $3 
million is to meet the needs of tribal communities with elevated levels 
of domestic violence. NCAI welcomes these increases, but notes that a 
$1 million increase for tribal courts is far below the amount needed. 
It is well documented by entities such as the U.S. Commission on Civil 
Rights and the American Bar Association that tribal courts have been 
historically underfunded by the Federal Government and that this 
underfunding negatively impacts their law enforcement operations. 
Although there have been Federal grants issued--particularly through 
the U.S. Department of Justice (DOJ)--to address discrete justice and 
safety concerns, those grants are time-limited and do not support the 
ongoing and daily operating needs of tribal courts. Enacted in 1993, 
the Indian Tribal Justice Act authorized an additional $50 million per 
year for each of 7 years for tribal court base funding. Despite 
numerous congressional reauthorizations of the act over the past couple 
of decades--most recently through fiscal year 2015 in TLOA--not a 
single penny has been appropriated. The promise of this much-needed 
base funding must finally be fulfilled.
                         indian health service
    NCAI urges Congress to uphold the Federal trust responsibility by 
protecting the IHS budget and developing a long-term plan to fully fund 
the IHS, including an advanced appropriations scheme. These 
recommendations parallel the National Indian Health Board's testimony--
which NCAI supports--and are high priorities of tribal governments and 
tribal leaders.
                    environmental protection agency
    Tribal General Assistance Program (GAP).--The President requested 
an increase of approximately $5 million more than fiscal year 2012 
appropriations to $72.6 million for the Tribal General Assistance 
Program. Program capacity building is a top environmental priority 
identified by tribes as part of the EPA National Tribal Operations 
Committee National Tribal Caucus. Expanded justification on tribal EPA 
programs can be found in the NCAI fiscal year 2014 tribal budget 
request.\5\
---------------------------------------------------------------------------
    \5\ Ibid.
---------------------------------------------------------------------------
                               conclusion
    Thank you for your consideration of this testimony.
                                 ______
                                 
    Prepared Statement of the National Congress of American Indians
    The National Congress of American Indians (NCAI) is the oldest and 
largest American Indian organization in the United States. Tribal 
leaders created NCAI in 1944 as a response to termination and 
assimilation policies that threatened the existence of American Indian 
and Alaska Native tribes. Since then, NCAI has fought to preserve the 
treaty rights and sovereign status of tribal governments, while also 
ensuring that Native people may fully participate in the political 
system. As the most representative organization of American Indian 
tribes, NCAI serves the broad interests of tribal governments across 
the Nation.
    Providing Native students with an excellent education is a top 
priority for tribal nations. President Obama has repeatedly stressed 
that improving American education is an ``economic imperative.'' For 
tribes, the stakes are just as high, if not higher. Education not only 
provides tribal economies with a more highly skilled workforce, but 
also directly spurs economic development and job creation. The profound 
value of education for Native nations extends beyond just economics, 
however. Education drives personal advancement and wellness, which in 
turn improve social welfare and empower communities--elements that are 
essential to maintaining tribes' cultural vitality and to protecting 
and advancing tribal sovereignty.
    Despite the enormous potential of education for transforming Native 
communities, Native education is in a state of emergency. American 
Indian and Alaska Native students lag far behind their peers on every 
educational indicator, from academic achievement to high school and 
college graduation rates.\1\ The situation is even more dire in BIE 
schools, where during the 2010-2011 school year, the graduation rate 
stood at 59 percent and barely one-third of students performed at 
proficient/advanced levels in both language arts and math.\2\
---------------------------------------------------------------------------
    \1\ For example, the 2011 National Indian Education Study found 
that Native students continue to score significantly lower than their 
peers in reading and math in grades four and eight. Only 18 percent of 
Native fourth graders and 22 percent of Native eighth graders scored 
proficient or advanced in reading, and only 22 percent of Native fourth 
graders and 17 percent of Native eighth graders scored proficient or 
advanced in math. (National Indian Education Study 2011, NCES 2012-466. 
National Center for Education Statistics, Institute of Education 
Sciences, United States Department of Education.) The crisis of Indian 
education is perhaps most apparent in the Native high school dropout 
rate, which is not only one of the highest in the country, but is also 
above 50 percent in many of the States with high Native populations. 
(School Year 2010-2011 Four-Year Regulatory Adjusted Cohort Graduation 
Rates, Department of Education.)
    \2\ Bureau of Indian Education, ``Bureau-Wide Annual Report Card, 
2010-2011.''
---------------------------------------------------------------------------
    To address this urgent situation and provide tribal nations with 
the critical foundation for economic success, the Federal Government 
must live up to its trust responsibility by providing adequate support 
for Native education. The requests below detail the minimum 
appropriations needed to maintain a system that is struggling and 
underfunded.
 indian country's concerns with the fiscal year 2014 president's budget
    Indian Country opposes two significant changes to the Bureau of 
Indian Education (BIE) outlined in the President's fiscal year 2014 
budget request. The first change proposes to decrease the Indian School 
Equalization Formula (ISEF) by $16.5 million in order to pay for a new 
pilot program based on the Department of Education's turnaround schools 
model. ISEF provides basic support for BIE schools and is already 
underfunded. The Department of Education's turnaround schools model has 
had little to no success in public schools serving Native students on 
Indian lands because it largely depends on replacing staff, which are 
hard to come by in isolated rural areas. There is no reason to think 
that this model would be any more successful in BIE schools because 
they face almost all of the same personnel and other challenges as 
their public school counterparts. Congress should not decrease funding 
for a program that covers basic operating costs for BIE schools in 
order to support a model that has generally failed to increase Native 
student achievement in similar circumstances.
    Tribes also oppose the defunding of BIE school replacement and 
replacement facility construction in the President's fiscal year 2014 
budget. NCAI urges Congress to restore funding for this program. The 
fiscal year 2013 continuing resolution increased Department of Defense 
school replacement by $30 million above fiscal year 2012 levels, while 
zeroing out funds for new BIE school construction. Such a disparity 
between the Nation's two federally funded school systems is patently 
unfair, and dilapidated BIE schools deserve just as much attention. 
Providing safe and secure schools for Native students is a matter of 
basic equity and a fundamental element of the Federal Government's 
trust responsibility to tribes.
ncai indian country funding requests for the fiscal year 2014 interior, 
         environment, and related agencies appropriations bill
Tribal Education Departments
    Provide $5 million to fund Tribal Education Departments.
    Five million dollars should be appropriated to the Department of 
the Interior to support tribal education departments (TEDs). This 
funding assists TEDs, which are uniquely situated at the local level to 
implement innovative education programs that improve Native education. 
Because they are administered by tribes, TEDs are best equipped to 
deliver education programs tailored for Native students. TEDs would use 
this much-needed funding to develop academic standards, assess student 
progress, and create math and science programs that require high 
academic standards for students in tribal, public, and Bureau of Indian 
Education schools. Tribes exercising self-governance over their 
citizens' education have been very successful because they better 
understand the circumstances of their populations and can develop 
initiatives that meet local needs. Adequately funding TEDs would create 
the most return on Federal dollars spent.
School Construction and Repair
    Provide $263.4 million for Bureau of Indian Education (BIE) school 
construction and repair.
    This funding category includes school construction, facilities 
improvement and repair, and replacement school construction. Schools 
operating within the BIE system are woefully outdated and in some 
cases, dangerous for student and staff. More than 60 BIE schools are 
currently rated in ``poor'' condition, which puts Native students at an 
unfair disadvantage. Students cannot be expected to succeed in 
environments that are dilapidated and unsafe. Further, moratoriums on 
new construction only exacerbate the already large backlog of 
construction projects. The Federal Government must uphold its trust 
responsibility to Native education and fund construction and repair 
projects.
Johnson O'Malley
    Provide $36 million to the Johnson O'Malley program.
    The Johnson O'Malley program has provided grants to supplement 
basic student needs since 1934. It is currently being used across the 
country in innovative ways to assist with the unique cultural and 
academic needs of Native students. However, current funding provides 
less than $50 per student. These funds are often the only source 
through which Native students--including those in public schools--can 
engage in basic activities expected of all American students. Some 
examples include, but are not limited to, the acquisition of musical 
instruments for use in classrooms, essential school supplies, and 
educational field trips.
Student Transportation
    Provide $73 million for student transportation in the BIE system.
    BIE schools incur significant costs in transporting Native students 
to and from school. These costs are considerably higher than most 
school systems due to the often-rural location of BIE facilities. 
Additionally, the poor road conditions that link the BIE-funded schools 
increase vehicle maintenance costs. These high costs often lead to 
funding shortfalls, which then must either go unpaid or be funded by 
diverting funds from other education programs.
Tribal Grant Support Costs
    Provide $73 million for tribal grant support costs for tribally 
operated schools.
    Tribal Grant Support Costs fund the administrative costs of 
existing tribally operated schools. The current funding level only pays 
65 percent of the current need and must not be reduced in the upcoming 
budget cycle. This funding also help tribes expand self-governance and 
tribal control over education programs by allocating monies for 
administrative costs such as accounting, payroll, and other legal 
requirements. Cuts must be avoided. Otherwise, schools must then divert 
critical teaching and learning funding to cover any shortfalls in 
operational costs.
Facilities Operations
    Provide $109 million for BIE facilities operations.
    BIE schools use this funding for costs such as electricity, heating 
fuels, communications, vehicle rentals from the General Services 
Administration, custodial services, and other operating expenses. For 
years, schools have only received roughly 50 percent of funding needed 
for these expenses. This shortfall is unacceptable as costs continue to 
rise for vital services.
Facilities Maintenance
    Provide $76 million for BIE facilities maintenance.
    BIE schools use this funding for the preventative and routine 
upkeep, as well as for unscheduled maintenance of school buildings, 
grounds, and utility systems. Underfunding of maintenance continues to 
be an issue as buildings are in poor conditions and cannot maintain 
proper standards.
Indian School Equalization Formula
    Provide $431 million for the Indian School Equalization Formula.
    These funds provide the core budget account for BIE elementary and 
secondary schools by covering salaries for teachers, aides, principals, 
and other personnel. Indian School Equalization Formula (ISEF) funds 
are often reallocated to cover the program cuts in other areas of 
education. ISEF must have adequate funding to ensure all program needs 
are fulfilled.
Juvenile Detention Education
    Reinstate $620,000 for juvenile detention education in BIA-funded 
facilities.
    These critical funds were eliminated in fiscal year 2012. This 
essential funding was used to provide educational services to detained 
and incarcerated youth at 24 BIA-funded juvenile detention facilities. 
One of the best methods to rehabilitate individuals is through 
education. Eliminating this program only exacerbates the issue and 
creates additional costs. Eliminating a program that was utilized to 
decrease the rate of repeat offenders does not save money and is short-
sighted.
Tribal Colleges and Universities' Institutional Operations
    Provide $94.3 million for titles I and II under the Tribally 
Controlled Colleges and Universities Assistance Act.
    Title I.--Fully funding title I of the Tribally Controlled Colleges 
and Universities Assistance Act of 1978 (Tribal College Act), which 
provides day-to-day operating funds for 26 TCUs, would require $77.3 
million. Since the act was first funded in 1981, the number of TCUs has 
more than quadrupled and enrollments have increased by more than 325 
percent. Currently, Title I TCUs receive $5,665 per Indian student 
toward their institutional operating budgets. Accounting for inflation, 
the program's funding level is more than $1,500 less per Indian student 
than it was under the program's initial fiscal year 1981 appropriation, 
which was $2,831 per Indian student. Despite the constraints of the 
current economy, Congress has an obligation to make these critical 
institutions whole now rather than continuing to make hollow promises 
for the future.
    Title II.--Dine College has indicated a need for $17 million to 
operate its multiple campuses and education sites located on the Navajo 
Nation in Arizona and New Mexico.
    Five other TCUs receive institutional operating funds through the 
annual Department of the Interior Appropriations measure, under 
separate various authorities. To support the basic day-to-day operating 
budgets of these TCUs, we request the following:
  --$9 million for institutional operations of tribally chartered 
        career and technical institutions under title V of the Tribally 
        Controlled Colleges and Universities Assistance Act of 1978;
  --$9,369,000 for operations of the Institute of American Indian Arts 
        in New Mexico under the American Indian, Alaska Native, and 
        Native Hawaiian Culture and Art Development Act of 1986;
  --Adequate funds for continued and expanded operations of Haskell 
        Indian Nations University in Kansas and Southwestern Indian 
        Polytechnic Institute in New Mexico under the Snyder Act of 
        1921; and
  --$27.7 million for a one-time appropriation, equal to 75 percent of 
        the current combined funding of the institutional operations 
        grants of those TCUs not funded under titles I or II of the 
        Tribally Controlled Colleges and Universities Assistance Act of 
        1978, necessary to transition these programs to forward 
        funding.
   support for the national indian education association's testimony
    NCAI also supports the proposals outlined in Dr. Heather Shotton's 
testimony from the National Indian Education Association (NIEA). NIEA 
offered a number of nonfunding proposals, including:
  --Release the updated BIA funded schools in poor condition index and 
        tribal priority construction list(s).
  --Promote Federal agency collation to ensure existing education 
        programs are effective and funding is used efficiently.
  --Establish a tribal advisory committee to advise the Secretary of 
        the Interior on policy issues and budget development for the 
        BIE school system.
  --Direct the BIE to contract with tribal colleges and universities 
        when possible for professional development, rather than 
        funneling these resources to non-Native, outside entities.
    Thank you for your consideration of this testimony.
                                 ______
                                 
    Prepared Statement of the National Conference of State Historic 
                         Preservation Officers
    Fiscal year 2014 request of withdrawals from the Department of the 
Interior's National Park Service Historic Preservation Fund (16 U.S.C. 
470h): $50 million for State Historic Preservation Offices (SHPOs) and 
$3 million for a competitive grant program for underrepresented 
populations.
    The National Conference of State Historic Preservation Officers 
also supports the National Association of Tribal Historic Preservation 
Officers fiscal year 2014 request of $9.985 million from the Historic 
Preservation Fund for Tribal Historic Preservation Officers (THPOs). 
With the anticipated number of THPOs reaching 150 in fiscal year 2014, 
the funding will provide THPOs the ability to meet the increasing needs 
and demands to comply with Federal, State, and tribal laws.
                   success--federal-state partnership
    In 1966 Congress enacted the National Historic Preservation Act 
(NHPA 16 U.S.C. 470) in recognition of the importance of our heritage. 
This act established historic preservation as a priority of the Federal 
Government. Recognizing that States are the experts of their own 
history, instead of using Federal employees to carry out the act, the 
Department of the Interior and the Advisory Council on Historic 
Preservation partner with the States--delegating to SHPOs the 
responsibility for: locating and recording historic resources; 
nominating significant historic resources to the National Register of 
Historic Places; fostering historic preservation programs at the local 
government level and educating communities on preservation ordinances; 
providing funds for preservation activities; commenting on Federal 
preservation tax projects; reviewing all Federal projects for their 
impact on historic properties; and providing technical assistance to 
Federal agencies, State and local governments and the private sector. 
And, States deliver these services to the Federal Government at half 
the operating cost by matching Federal funds with State resources.
                         success--streamlining
    Federal, State, and local government agencies are working hard to 
deliver projects more quickly and efficiently, and for less cost--also 
known as streamlining. A popular buzz word, SHPOs have been 
streamlining and enacting increased efficiencies in historic 
preservation reviews (known as section 106 reviews under the National 
Historic Preservation Act) for decades. Last summer the Federal Highway 
Administration (FHWA) released a report entitled ``Effective Practices 
for Considering Historic Preservation in Transportation Planning and 
Early Development.'' \1\ The report highlights innovative programs that 
enable State Department of Transportation and local transportation 
planning organizations to streamline their compliance with section 106 
while simultaneously improving their stewardship of historic resources.
---------------------------------------------------------------------------
    \1\ ``Effective Practices for Considering Historic Preservation in 
Transportation Planning and Early Project Development.'' National 
Cooperative Highway Research Program Project 25-25, Task 49. Prepared 
by Cambridge Systematics, Inc. with the SRI Foundation. August 2009.
---------------------------------------------------------------------------
    A common theme woven throughout the case studies was the importance 
of State Historic Preservation Offices. The HPF provides SHPOs the 
resources that makes innovation and increased efficiencies possible! 
The HPF provides SHPO's with the staff, data, technology, and training 
resources necessary for success but without increased funding 
challenges remain:
  --Colorado DOT.--``The SHPO understands and supports what CDOT is 
        trying to do through the Planning and Environmental Linkages 
        program; however, the SHPO currently does not have the staff or 
        resources to actively participate . . . From CDOT's 
        perspective, the SHPO's involvement contributes to a better 
        working relationship between their respective offices.''
  --North Carolina DOT.--``The biggest problem has been funding and 
        staffing, especially at the SHPO and OSA. They currently do not 
        have the staff or resources for digitizing records for the 
        remainder of the State. The model, therefore, has not been 
        expanded beyond the initial seven-county area.''
  --Oregon DOT.--``Part of the problem is SHPO staffing. The Oregon 
        SHPO, like most SHPOs across the country, is understaffed and 
        does not have the resources to fulfill their National Historic 
        Preservation Act responsibilities and fully participate in 
        programs like CETAS.''
  --Texas DOT.--``The participation of all the resource agencies, 
        including the SHPO, was critical to the initiative's success. 
        CAMPO's partners provided important sources of GIS 
        environmental data, such as the TxDOT's GISST database and 
        screening tool.''
             success--job creation and economic development
Job Creation
    Historic preservation creates jobs. Whether it is through the 
historic tax credit program, preservation grants, or other 
rehabilitation avenues, preservation creates skilled, principally 
local, jobs. The following are excellent examples of how historic 
preservation creates jobs and job training:
  --In 2012, the private investment in the approved and completed 
        projects totaled $3.15 billion and averaged 77 jobs per 
        project.\2\
---------------------------------------------------------------------------
    \2\ ``Federal Tax Incentives for Rehabilitating Historic 
Buildings--Statistical Report and Analysis for FY 2012'' National Park 
Service.
---------------------------------------------------------------------------
  --When compared to new construction, $1 million spent to rehabilitate 
        a building will create 5-9 more construction jobs and 4.7 new 
        jobs will be created elsewhere in the community.\3\
---------------------------------------------------------------------------
    \3\ The Economics of Rehabilitation, Donovan Rypkema.
---------------------------------------------------------------------------
  --In California $1 million of rehabilitation creates five more jobs 
        than manufacturing $1 million worth of electronic equipment. In 
        Oklahoma $1 million of rehabilitation creates 29 more jobs than 
        pumping $1 million worth of oil.\4\
---------------------------------------------------------------------------
    \4\ The Economics of Historic Preservation, Rypkema 1998:13.
---------------------------------------------------------------------------
Economic Development
    From Phenix, a village in the northwest corner of West Warwick, 
Rhode Island to Ketchikan, Alaska historic preservation plays a key 
role in creating, maintaining, and growing these communities while 
preserving their historical significance.
    The Federal Rehabilitation Tax Credit program is an important 
driver of economic development. The program benefits communities by:
  --Increasing the value of the rehabilitated property--returning 
        vacant or underutilized structures to the tax roles.
  --Encouraging protection of landmarks through the promotion, 
        recognition, and designation of historic structures, and acting 
        as a catalyst for further community renewal.
  --Upgrading downtowns and neighborhoods and often increasing the 
        amount of available housing within the community.
    Heritage tourism also creates jobs, new businesses, builds 
community pride and can improve quality of life. SHPOs are essential, 
ground level partners in identifying historic places and providing 
research for tourism interpretation. A 2010 U.S. Cultural & Heritage 
Tourism Marketing Council study found that:
  --Two-thirds of cultural and heritage travelers visited some sort of 
        historic site.
  --65 percent of cultural and heritage travelers seek travel 
        experience where the ``destination, its buildings and 
        surroundings have retained their historic character.''
  --Other cultural and heritage activities include: visiting historic 
        sites (66 percent); attending historical re-enactments (64 
        percent); visiting a State or national park (41 percent); 
        shopping in museum shops (32 percent); and exploring urban 
        neighborhoods (30 percent).
  --Cultural and heritage travelers spend about $994 per trip compared 
        to $611 spent on the average U.S. trip.
  --45 percent spend more of their money on cultural and heritage 
        activities than they do on anything else while on their trip.
  --37 percent would pay more for lodging if it somehow reflects the 
        culture or heritage of the destination they are visiting.
                   success--saving america's heritage
    Preservation in part recognizes the significant places in American 
history at the local, State, and national levels through creating 
historic districts and listing resources on National and State Historic 
Registers. State Historic Preservation Officers, through the authority 
of the National Historic Preservation Act are there to assist, support 
and encourage communities with their efforts. National Register 
recognition by the Secretary confirms citizens' belief in the 
significance of their community. That recognition, in turn, builds 
stable, livable neighborhoods such as those in Portland, Oregon and 
Nashville, Tennessee. Best of all, this neighborhood improvement comes 
from individual, private investment, not from Federal programs.
    The National Historic Preservation program is primarily one of 
assistance, not acquisition. The Federal Government does not own, 
manage, or maintain responsibility for most of the historic assets in 
the National Historic Preservation program. Instead, the program, 
through the SHPOs, provides individuals, communities, and local and 
State governments the tools they need to identify preserve and utilize 
the historic assets of importance to them.
    To that end, the NCSHPO supports the $3 million request in the 
President's fiscal year 2014 budget for a competitive grant program to 
survey and nominate to the National Register of Historic Places or 
National Landmark Program, sites associated with populations that are 
currently underrepresented. The best part--no Federal ongoing 
responsibility.
       2012 state historic preservation offices' accomplishments
    SHPOs used their HPF allocations well in 2012. While virtually 
every State continues to experience staffing and operation reductions, 
SHPOs must still fully discharge the responsibilities outlined in the 
NHPA. Highlights and accomplishments include:
  --Reviewing nearly 142,000 Federal undertakings within 30 days.
  --Leveraging over $3.15 billion of private investment in the 
        rehabilitation of commercial historic properties under the 
        Federal Rehabilitation Tax Credit program (FRTC).
  --An estimated 57,783 jobs created by the FRTC program in 2011 as 
        well as 6,366 low and moderate income housing units.
  --Approximately 20.9 million acres surveyed for the presence and 
        absence of cultural resources and more than 610,860 properties 
        evaluated for their historical significance.
  --1,179 new listings in the National Register of Historic Places.
  --104,813 National Register eligibility opinions.
  --42 new communities became Certified Local Governments (CLGs).
  --Under local law, CLGs newly designated 101,000 properties, and 
        74,500 properties took part in local preservation review, 
        programs, and incentives.
                               conclusion
    On behalf of all 57 SHPOs, I'd like to thank you Chairman Reed, 
Ranking Member Murkowski, and members of the Senate Appropriations 
Subcommittee on Interior, Environment, and Related Agencies for the 
opportunity to submit testimony.
    Historic preservation recognizes that what was common and ordinary 
in the past is often rare and precious today, and what is common and 
ordinary today may be extraordinary--50, 100 or 500 years from now. I 
would like to thank the committee for their commitment to historic 
preservation. The Federal Government plays an invaluable role in 
preserving our Nation's history and through our partnership, SHPOs 
stand committed to identify, protect, and maintain our Nation's 
historic heritage. Thank you.
                                 ______
                                 
           Prepared Statement of the Nuclear Energy Institute
    The Nuclear Energy Institute \1\ (NEI) appreciates the opportunity 
to express its concern over the revision or enforcement of certain 
regulations promulgated, and actions taken under certain laws, by the 
Department of the Interior, the Bureau of Land Management, and the 
Environmental Protection Agency:
---------------------------------------------------------------------------
    \1\ The Nuclear Energy Institute (NEI) is the organization 
responsible for establishing unified industry policy on matters 
affecting the nuclear energy industry, including the regulatory aspects 
of generic operational and technical issues. NEI's members include all 
entities licensed to operate commercial nuclear powerplants in the 
United States, nuclear plant designers, major architect/engineering 
firms, fuel cycle facilities, nuclear materials licensees, and other 
organizations and entities involved in the nuclear energy industry.
---------------------------------------------------------------------------
  --DOI's withdrawal of land in northern Arizona from uranium mining 
        activity;
  --Unnecessary and unreasonable regulatory delays by BLM, EPA, and 
        other agencies involving permits for uranium mining;
  --BLM's proposal to amend land segregation regulations to allow 
        withdrawal of lands from mining activity when they are included 
        in a pending or future wind or solar energy generation right-
        of-way application, or identified by BLM for potential 
        authorization for that purpose; and
  --BLM sage grouse habitat management in 11 Western States, which 
        could unduly restrict uranium mining activity.
doi's withdrawal of land from new uranium mining in northern arizona is 
unnecessary for environmental protection and removes from production a 
       domestic source of high-grade uranium for energy security
    DOI has withdrawn from new uranium mining activity 1 million acres 
outside the boundaries of the Grand Canyon National Park, which 
encompasses 1.2 million acres and includes a buffer zone to protect the 
Grand Canyon. There is no current or proposed uranium mining inside 
Grand Canyon National Park. Uranium resources in the Arizona Strip are 
among the highest-grade ores in the United States. These uranium 
resources are higher grade than 85 percent of the world's uranium 
resources, according to DOI's Final Environmental Impact Statement. The 
area represents as much as 375 million pounds of uranium--more than 
seven times U.S. annual demand.
    The Arizona Strip land withdrawal is not justified because of 
erroneous information upon which DOI's Final Environmental Impact 
Statement is based. Contrary to Secretary Salazar's statement in 
announcing the land withdrawal on January 9, 2012, today's 
environmental laws ensure that ore extraction and production at uranium 
mines have negligible impact on surrounding land, water, and wildlife. 
Moreover, it is a fact that modern mining practices and associated 
regulatory standards themselves ensure minimal environmental impact. 
DOI's EIS for the land withdrawal, on the other hand, was based on 
uranium mining practices of the 1950s and 1960s that are no longer used 
and, therefore, distorted environmental impacts that will not arise 
given current mining techniques and regulatory requirements. In 
addition, miners must provide assurance that the financial resources 
are in place to remediate a site before any mining begins.
    Even Arizona Governor Brewer, the principal steward for 
environmental protection in her State, objected to the proposed 
withdrawal: with environmental laws currently in place, ``ore 
extraction and production at existing uranium mines have minimal 
environmental impact on the surrounding land, water, and wildlife.''
    It appears that DOI has ignored critical technical information, 
often provided by the industry, in order to justify a public policy 
outcome favored by the Department, when public policy should be based 
on scientific fact. NEI has joined the National Mining Association in 
litigation contesting the Arizona withdrawal, contending that the 
underlying statute is unconstitutional and that DOI did not reasonably 
assess the basis for the withdrawal. NEI urges the subcommittee to 
instruct DOI to base all future Department decisions on compelling 
public policy grounds and accurate technical information, not on 
technically flawed environmental impact statements that use outdated 
and incorrect information.
  unnecessary and unreasonable blm, epa, and other agency regulatory 
   delays involving permits for uranium mining resulting from agency 
  inefficiency and lack of coordination pose a serious impediment to 
  expansion of the domestic uranium mining industry and send jobs to 
                            other countries
    Nuclear energy generates nearly 20 percent of our country's 
electricity, and represents 63 percent of the electricity produced by 
non-emitting energy sources. Yet, 90 percent of the uranium used by 
nuclear powerplants comes from sources outside of the United States. 
Unnecessary and unreasonable regulatory delays pose a serious 
impediment to expanding the domestic uranium industry and ensuring 
long-term a reliable and domestic supply of nuclear powerplant fuel. 
Thus, these delays have an adverse impact on enhancing our country's 
energy security as well as economic growth, as the mining jobs that 
Americans could have remain in other countries.
    Unnecessary and unreasonable delays in mine permitting are a widely 
recognized problem. Last year a bipartisan bill requiring agency action 
to eliminate these delays with regard to nonfuel minerals passed the 
House by an overwhelming majority. This year the bill, National 
Strategic and Critical Minerals Production Act of 2013 (H.R. 761), 
stipulates that minerals ``necessary'' for ``electrical power 
generation and transmission'' are considered ``strategic and critical 
minerals,'' indicating the national importance of the electric power 
industry. The measures prescribed by this bill for nonfuel minerals 
would remedy the regulatory delays occurring in the domestic uranium 
mining industry as well. These include streamlined National 
Environmental Policy Act compliance determination, coordination of 
review by all relevant agencies to eliminate duplication, more 
effective use of State agency permitting actions, time limits for each 
phase of the review process and overall total time limit, and a 
reasonable public comment process. The bill also calls for expeditious 
judicial review of agency actions, when they occur, with limitations on 
relief.
    NEI respectfully asks the subcommittee to direct BLM and EPA to 
coordinate with each other and the Nuclear Regulatory Commission, the 
Department of Agriculture, and relevant State agencies to develop and 
follow procedures that will eliminate unnecessary and unreasonable 
delays in uranium mining permitting. We have every confidence that BLM 
can do for uranium mining what it has done for renewables development. 
As the Government Accountability Office has reported in Renewable 
Energy: Agencies Have Taken Steps Aimed at Improving the Process for 
Development on Federal Lands, GAO-13-189, January 2013, ``What GAO 
Found'':

    ``Federal land management agencies. . . have developed or revised 
policies aimed at, among other things, improving the renewable energy 
permitting process, formalized coordination within and across agencies 
and with State and local governments, and devoted increased resources 
to processing applications for renewable energy permits. One of BLM's 
most comprehensive actions was the completion of programmatic 
environmental impact statements for renewable energy development, 
intended to streamline the permitting process. The agencies also took 
steps to improve coordination through regularly established meetings 
and development of memorandums of understanding between Federal and 
State agencies. . . To help ensure that its actions are achieving their 
intended purposes, BLM issued an instruction memorandum in December 
2012 aimed at increasing the efficiency and effectiveness of its 
renewable energy permitting process.''
     blm's proposal to amend land segregation regulations to allow 
   withdrawal of lands from mining activity for wind or solar energy 
    generation violates the multiple-use mandate of federal lands, 
              penalizing economic growth and job creation
    Last year BLM set aside more than 300,000 acres in the Southwest 
from new mining claims for at least 20 years, designating those lands 
solely for solar energy development and transmission, extending the 
withdrawal time period of an interim rule allowing the segregations of 
lands exclusively for renewables use.
    The Federal Land Policy and Management Act of 1976 requires BLM to 
manage public lands to accommodate multiple uses and to provide for the 
Nation's mineral needs so that the most benefit will accrue to U.S. 
citizens. Conflicts should be resolved in favor of maximum land use and 
benefit. The BLM proposal violates the multiple-use requirement, being 
overly broad in its outright segregation of lands for renewable energy 
use only. Moreover, the amendment is unnecessary, as conflict 
resolution, if necessary, is possible.
    Mining and all renewable energy projects are not mutually 
exclusive. Wind energy or solar thermal projects and mining operations 
can be co-located and developed simultaneously. Solar projects 
consisting of fields of photovoltaic panels, on the other hand, can 
eliminate all other uses of the land, including grazing, recreation, 
and oil and gas exploration and production. Photovoltaic fields also 
eliminate the mining of minerals, many of which are required for 
renewable energy generation and transmission.
    NEI is concerned about the precedent that has been set by this 
particular land withdrawal. Thus, when BLM is considering designating 
lands solely for renewable projects, NEI urges the subcommittee to 
direct BLM to evaluate whether other potential uses of Federal land are 
being prevented and if benefits would be lost to the American public 
during the BLM process of determining sole use segregation of land for 
renewable energy production. Further, NEI urges the subcommittee to 
direct BLM to exercise caution in segregating lands in the future, 
given the vast amount of Federal land already closed to mining 
operations. Finally, NEI urges the subcommittee to ask BLM to 
reevaluate the newly lengthened segregation period of 20 years, 
increased from 5 years, which is excessive and could adversely impact 
legitimate mining claims.
  blm sage grouse habitat management in 11 western states may unduly 
                    restrict uranium mining activity
    BLM is taking immediate and longer term conservation actions for 
sage grouse priority habitat (breeding, late brood-rearing, winter 
concentration areas) and general habitat (additional occupied seasonal 
or year-round areas). Both types of habitat are being identified in 
collaboration with State wildlife agencies. With as many as 160 million 
acres potentially affected in 11 Western States, BLM's conservation 
efforts could have a substantial impact on uranium mining activity on 
public lands.
    Chairman Hastings, in his March 7, 2013 letter to DOI on behalf of 
the Committee on Natural Resources, points out that ``there are as many 
as 98 separate planning strategies under consideration in 68 various 
areas in several States'' in response to BLM's National Technical Team 
Report on National Greater Sage-Grouse Conservation Measures. As 
Chairman Hastings notes, scientific reviewers are critical of the 
report, with one noting that the report ``does not appear to have any 
`rational scientific basis.' '' Chairman Hastings' letter concludes 
that ``the administration's 2011 ESA multi-species-settlement, 
negotiated behind closed doors, essentially handed over prioritization 
of endangered species listings to special interest groups,'' initiating 
the greater sage grouse conservation actions, which are ``being driven 
by litigation, closed-door settlements and court deadlines, rather than 
being guided by sound science and the best available data and 
information.''
    According to its long-term planning directive memorandum, BLM will 
establish consistent protection measures for the sage grouse and its 
habitat. BLM will incorporate the protection measures into one or more 
alternatives for analysis in the environmental impact statements that 
BLM will use to amend its resource management plans. These plans are 
scheduled for release in 2014. NEI believes there is the potential that 
these plans will require wholesale withdrawal of lands from mining 
activities with no validity examination allowed for ongoing or future 
mining claims.
    NEI recommends close congressional oversight of the BLM process for 
development and implementation of the sage grouse habitat management 
plan. In addition, NEI asks that the subcommittee direct BLM to adopt a 
balanced approach to sage grouse conservation that is consistent with 
BLM's statutory mandate for multiple uses of public lands and avoid or 
minimize adverse social and economic impacts. Finally, NEI asks that 
the committee review the various sage grouse conservation plans to 
ensure that they do in fact ensure multiple use.
                                 ______
                                 
            Prepared Statement of the Northern Forest Center
    Mr. Chairman and honorable members of the subcommittee: Thank you 
for the opportunity to present this testimony in support of the 
Community Forest and Open Space Conservation Program (Community Forest 
Program) under the USDA Forest Service in the fiscal year 2014 
Interior, Environment, and Related Agencies Appropriations bill. This 
program was first authorized by Congress in title VIII, section 8002 of 
the Farm, Conservation, and Energy Act of 2008.
    We are pleased to support the President's fiscal year 2014 budget 
request of $4 million for the Community Forest Program. The Community 
Forest Program is an important new tool and opportunity for communities 
to take advantage of the surrounding forest landscape--a flexible, 
locally led approach to conservation and economic development that we 
have seen at work here in the Northern Forest of New York, Vermont, New 
Hampshire, and Maine. The Community Forest Program provides matching 
funds to help local government entities, Indian tribes, and nonprofit 
organizations to purchase forestlands threatened with development for 
local ownership and management.
    Development threats to private forests are real and growing, 
creating urgency for the Community Forest Program. The U.S. Forest 
Service report Private Forests, Public Benefits projects that 57 
million acres of America's private forests could experience a 
substantial increase in housing density by 2030. This level of change 
would impact working forests, renewable biomass energy production, 
water supplies, recreation access, wildlife, and other forest resources 
important to communities.
    Fostering greater local ownership of important forestlands is a 
great conservation strategy that allows each project to be fine-turned 
for local needs, including economic development through forestry and 
recreation. The Community Forest Program requires each grantee to 
develop a forest management plan, and makes available technical support 
from State and tribal forestry agencies to assist interested grantees 
with forest planning.
    Locally driven conservation has proven popular and effective across 
the country, which is why this program has drawn national support from 
diverse forest sector interests, sporting organizations, land trusts, 
and local community groups. Communities and tribes can utilize these 
forests to meet their most pressing needs, from timber revenue for 
local budgets to hunting and fishing access that is open to all. The 
program also emphasizes the power of community forests to educate. 
Demonstration forestry to inform private landowners and youth outdoor 
education are among the activities the program seeks to support.
    We greatly appreciate the committee's past support for the 
Community Forest Program as reflected in prior year appropriations. The 
first round of Community Forest Program grants was awarded last year 
using fiscal year 2012 and prior year funding totaling $3.5 million. 
The diversity of applications from across the country--49 total 
projects seeking $14.5 million--demonstrated the breadth of need for 
this kind of locally led conservation. The U.S. Forest Service received 
strong applications from local governments, tribes, and a wide array of 
local nonprofit organizations spread across 24 different States. The 
proposed projects collectively offered leverage of more than $3 in non-
Federal funding for every $1 requested in Community Forest Program 
funds. This demonstrates the willingness of local entities to match 
Federal funding with significant commitments of funding and other 
resources.
    The 10 Community Forest Program projects funded in fiscal year 2012 
featured a diversity of local government, tribal, and local nonprofit 
grantees. For example:
  --The Easton-Sugar Hill Community Forest project will enable the 
        towns of Easton and Sugar Hill, New Hampshire, in partnership 
        with the Ammonoosuc Conservation Trust, to create an 840-acre 
        mixed-elevation locally owned forest adjacent to White Mountain 
        National Forest. This important tract will connect regional 
        trails to the National Forest, protecting recreation access for 
        the community and the recreation economy. Education initiatives 
        planned include workshops and a planned silvicultural 
        curriculum for local students, as well as demonstration of 
        community and nonprofit cooperatives to preserve large forest 
        tracts. Demonstrating community management of this large forest 
        will provide a valuable model for rural conservation 
        partnerships adjacent to Federal lands.
  --The Barre Town Forest project helped a Vermont town to acquire 
        lands containing a regionally popular biking and skiing trail 
        network that draws recreation tourism from across New England. 
        A study by the Gund Institute at the University of Vermont 
        estimated the local economic impact of this tourism at $481,000 
        annually, with projected increases to $640,000 by 2015. The 
        property will also continue to feature working forestry and 
        offer interpretive features that showcase the history of 
        granite operations in the area.
  --The Mount Ascension Natural Park project will enable the City of 
        Helena, Montana, in conjunction with Prickly Pear Land Trust, 
        to complete a 540-acre acquisition. Timber will be harvested to 
        mitigate the mountain pine beetle infestation in this area and 
        to provide economic benefits to the community. School groups 
        routinely use Mount Ascension Natural Park for educational 
        purposes and local Boy and Girl Scouts utilize the park as 
        their primary site for outdoor education.
  --The Hall Mountain project in North Carolina enabled the Eastern 
        Band of Cherokee Indians to acquire this highly significant 
        108-acre tract perched above a sharp bend in the Little 
        Tennessee River. Tribal ownership of this property will enhance 
        tribal members' access to fisheries and wildlife-related 
        recreational and subsistence activities. White-oak regeneration 
        will allow local artisans and craft makers to obtain the 
        resources needed to make their crafts and stimulate their local 
        economy. In addition, the Cherokee will continue to actively 
        protect the forest through traditional forest management 
        practices.
    Given the strong interest in the Community Forest Program that was 
demonstrated in this first round of grants, and the impressive list of 
projects that still wait to be funded, it will be important to provide 
adequate funding to meet future demand. Locally owned forests help 
advance national goals to increase opportunities for Americans to 
connect with forests in their own communities and foster new public-
private partnerships for conservation, restoration, and management. It 
is in the national interest to match the initiative of local 
communities, tribes, and nonprofits as they work to take a leadership 
role in conservation of their communities.
    A robust investment in the Community Forest Program as part of the 
fiscal year 2014 appropriations for the U.S. Forest Service will help 
maintain the momentum that the agency and its many partners have 
created. Just this spring, a group of 39 local government and nonprofit 
organizations sent a letter of support to this committee asking that 
the committee meet the President's requested fiscal year 2014 level for 
the Community Forest Program of $4 million. We are grateful for your 
consideration of this testimony and the strong interest of these many 
organizations.
                                 ______
                                 
      Prepared Statement of the National Ground Water Association
    The National Ground Water Association (NGWA) requests that $2.5 
million be included in the U.S. Geological Survey's (USGS) Groundwater 
Resources Program account to begin implementation of a national 
groundwater monitoring network. NGWA is the world's largest association 
of groundwater professionals, representing public and private sector 
engineers, scientists, water well contractors, manufacturers, and 
suppliers of groundwater-related products and services.
    Water is one of the most critical natural resources to human, 
ecosystem and economic survival. In the United States, 78 percent of 
community water systems, nearly all of rural America's private 
household wells, and 42 percent of agricultural irrigation water are 
supplied by groundwater. While the Nation's people, food supply, 
economy and ecosystems depend on groundwater, no systematic nationwide 
monitoring network is in place to measure what is currently available 
and how groundwater levels and quality may be changing over time. As 
with any valuable natural resource, our groundwater reserves must be 
monitored to assist in planning and minimizing potential impacts from 
shortages or supply disruptions. Just as one cannot effectively oversee 
the Nation's economy without key data, one cannot adequately address 
the Nation's food, energy, economic, and drinking water security 
without understanding the extent, availability and sustainability of 
the critical commodity--groundwater.
    In the face of current and anticipated water supply shortages, 
public and private sector water professionals have put out the call 
over the years for increased groundwater monitoring and the 
dissemination of the resulting data to the Nation.\1\ And the need to 
take action continues to this day.\2\ \3\
---------------------------------------------------------------------------
    \1\ U.S. Government Accountability Office. Freshwater Supply: 
States' Views of How Federal Agencies Could Help Them Meet the 
Challenges of Expected Shortages. (GAO-03-514). July 2003. Page 1.
    \2\ White House Council on Environmental Quality. Progress Report 
of the Interagency Climate Change Adaptation Task Force: Recommended 
Actions in Support of a National Climate Change Adaptation Strategy. 
October 5, 2010. Page 11.
    \3\ U.S. Government Accountability Office. Energy-Water Nexus: A 
Better and Coordinated Understanding of Water Resources Could Help 
Mitigate the Impacts of Potential Oil Shale Development. (GAO-11-35). 
October 2010. Page 39.
---------------------------------------------------------------------------
    Congress listened and responded to these requests for enhanced 
groundwater monitoring by authorizing a national groundwater monitoring 
network with passage of Public Law 111-11 (Omnibus Public Land 
Management Act) in 2009. Six States \4\ voluntarily pilot tested 
concepts for a national groundwater monitoring network as developed by 
the Federal Advisory Committee on Water Information's Subcommittee on 
Ground Water. If this effort moves forward, consistent, comparable 
nationwide data would become accessible through a web portal for 
Federal, State, local government, and private sector users. In these 
tight fiscal times, the proposed network would build on existing State 
and Federal investments, maximizing their usefulness and leveraging 
current dollars to build toward systematic nationwide monitoring of the 
groundwater resource.
---------------------------------------------------------------------------
    \4\ The six pilot States were Illinois, Indiana, Minnesota, 
Montana, New Jersey, and Texas. Additionally, Idaho, North Carolina, 
South Carolina, Washington and Wyoming volunteered as pilots but were 
not included given limited oversight resources.
---------------------------------------------------------------------------
    The administration's fiscal year 2014 USGS budget request of 
approximately $600,000 split between the National Ground Water 
Monitoring Network, and a groundwater climate response network is 
woefully inadequate to support regional, State, and tribal partners and 
move a national groundwater monitoring network forward. We ask the 
subcommittee to allocate $2.5 million exclusively for the National 
Ground Water Monitoring Network to do the following:
  --Provide grants to regional, State, and tribal governments to cost 
        share increased expenses to upgrade monitoring networks to meet 
        the standards necessary to understand the Nation's groundwater 
        resources. The shared funding arrangements should be modeled 
        after highly successful cooperative programs (e.g., STATEMAP) 
        that already exist between USGS and the States; and
  --Support the additional work necessary for USGS to manage a national 
        groundwater monitoring network and provide national data access 
        through an Internet web portal.
    The redirection of an appropriation of $2.5 million for groundwater 
monitoring requested here is small in comparison to the entirety of the 
Department of the Interior's appropriations. But the $2.5 million 
appropriation is vital when we understand that for a small investment 
we can begin finally to put in place adequate monitoring of the hidden 
resource that provides nearly 40 percent of the Nation's drinking water 
supply and approximately 42 percent of irrigation water. Thank you for 
your consideration of this request.
    NGWA is a not-for-profit professional society and trade association 
for the groundwater industry. NGWA is the largest organization of 
groundwater professionals in the world. Our members from all 50 States 
and 72 countries include some of the leading public and private sector 
groundwater scientists, engineers, water well contractors, 
manufacturers, and suppliers of groundwater related products and 
services. NGWA's vision is to be the leading community of groundwater 
professionals that promotes the responsible development, use and 
management of groundwater resources.
                                 ______
                                 
 Prepared Statement of the National Humanities Alliance and the Folger 
                          Shakespeare Library
    Mr. Chairman and members of the subcommittee: On behalf of the 
National Humanities Alliance with its 104 member organizations and the 
Folger Shakespeare Library, I write to express strong support for the 
National Endowment for the Humanities (NEH).
                                overview
    For fiscal year 2014, we respectfully urge the subcommittee to fund 
the National Endowment for the Humanities at the administration's 
requested level of $154.4 million.
    The National Endowment for the Humanities has endured significant 
cuts in recent years. From fiscal year 2010 through fiscal year 2013, 
NEH has been cut by more than 16 percent, from $167.5 million to less 
than $140 million. These decreases have come on top of a long history 
of cuts that have eroded the agency's capacity to meet the demand for 
its support. Modestly increasing NEH's budget to $154.4 million would 
allow the Endowment to build its capacity to support the humanities at 
a time when the humanities are increasingly called upon to meet 
national needs.
    While we recognize the seriousness of the fiscal situation faced by 
Congress and the administration, and we understand the difficult 
choices that are before this subcommittee, we believe that the capacity 
of NEH must be expanded. In the remainder of this testimony, I will 
articulate the reasons for this expansion by first describing the ways 
in which the humanities have been called upon to help accomplish four 
critical national goals and then by describing the central role of the 
National Endowment for the Humanities in achieving these goals.
             importance of the humanities to national needs
    The humanities are increasingly called upon to play critical roles 
in our efforts to achieve four national goals: opportunity for all 
Americans, innovation and economic development, productive global 
engagement, and strong communities.
Opportunity for All Americans
    Many Americas lack access to opportunity because they are deficient 
in a number of critical skills that are sought by employers. In a 
recent study conducted by the Conference Board, Corporate Voices for 
Working Families, the Partnership for 21st Century Skills, and the 
Society for Human Resource Management, employers ranked reading and 
writing as top inadequacies in new hires. More than one-third of 
employers found high school graduates ``deficient'' in reading 
comprehension, and ``written communications'' tops the list of applied 
skills found lacking in high school and college graduates. The Common 
Core standards that have been adopted in 45 States call for the 
humanities to play a central role in correcting these inadequacies by 
fostering essential skills and habits including reading, writing, 
critical thinking, and effective communication across primary and 
secondary school curricula. These deficiencies not only limit the 
economic mobility of individuals, they also carry an economic burden 
for society as annual spending on remedial writing courses is estimated 
at more than $3.1 billion for large corporations and $221 million for 
State employers.
Innovation and Economic Growth
    Employers increasingly seek employees who can combine the cultural 
knowledge and analytical ability fostered by humanities programs with 
technical knowledge and scientific research fostered by STEM education 
to create innovation and economic growth. In an effort to serve this 
demand, the Committee on the Engineer of 2020, a group convened by the 
National Academy of Engineering, recommends increased interdisciplinary 
education--including the humanities--in order to train engineers with 
the broad perspective necessary for 21st century innovation. Similarly, 
a substantial number of medical schools have integrated humanities 
coursework into their programs to enhance the cultural knowledge and 
observational abilities of their graduates with the goal of providing 
higher quality, more efficient care. Recognizing the role that the 
humanities play in fostering innovation, countries such as China and 
India have begun to integrate the humanities into their own education 
systems.
Productive Global Engagement
    As they deal with increasingly complex international relationships, 
both business and military leaders look to the humanities to provide 
critical knowledge about communities throughout the world. These 
leaders argue that our ability to engage productively with the world 
depends on the deep knowledge of the languages, cultures, and histories 
of rapidly changing areas of the world that the humanities cultivate 
and maintain. Historians, linguists, anthropologists, archaeologists, 
and literature scholars among others spend years learning about 
communities and their deep roots, thereby gaining expertise that may 
inform those who seek to work in these geographic areas. As the former 
Ambassador to Afghanistan, Karl Eikenberry, recently said in his 
address to the National Humanities Alliance Annual Meeting as he 
described the critical role of the humanities in preparing our citizens 
for global engagement, ``We need a strong cadre of Americans in our 
Government, military, business, civil society, academe, and beyond who 
have the right skills and experience to help America stay connected 
with the world and shape outcomes that secure our national interests.''
Strong Communities
    Finally, with the well-documented decline in critical, community-
based social institutions, communities throughout our own country are 
trying to foster a sense of shared identity and responsibility. In 
doing so, they rely on the humanities to preserve and explore their 
history and traditions in order to promote the understanding of common 
ideals, enduring civic values, and shared cultural heritage. To 
strengthen communities, humanities councils, museums, libraries, and 
universities produce vital programs that promote understanding among 
diverse communities through the cultivation and exchange of knowledge 
about cultural heritage and history.
                        the central role of neh
    The National Endowment for the Humanities is organized into 
Federal/State Partnerships, the division that supports humanities 
councils that provide engaging programs in every State and territory; 
Competitive Grants, which awards peer-reviewed grants in Research, 
Education, Preservation, Digital Humanities, Challenge Grants, and 
Public Programs divisions; and Special Initiatives, which awards funds 
through its Bridging Cultures program to projects that promote 
understanding among diverse communities. In this testimony, I will 
focus on the NEH Competitive Grants in order to illustrate the central 
role that NEH funding plays in supporting critical humanities work.
    Each year, NEH awards hundreds of competitive, peer-reviewed grants 
to individual scholars and a broad range of nonprofit educational 
organizations around the country. Grantees include universities, 2- and 
4-year colleges, humanities centers, research institutes, museums, 
historical societies, libraries, archives, scholarly associations, K-12 
schools, local education agencies, public television/film/radio 
producers, and more. Through its competitive grants programs, NEH 
supports the preservation of collections that would be otherwise lost, 
path-breaking research that brings critical knowledge to light, 
programs for teachers that enrich instruction in schools, and public 
programs that reach individuals and communities in every district in 
the country. There is a high likelihood that someone from your district 
has benefited from this funding. To make this concrete, I'll provide 
two illustrative examples in the following paragraphs.
Salafi Networks in Southeast Asia
    In one case, a team from the Center for the Study of Religion and 
Conflict at Arizona State University received a grant from NEH to study 
varieties of Salafism. In the words of the team's lead researcher, who 
brings more than 30 years of experience studying religion in Southeast 
Asia to the project, ``Salafism is the driving force behind movements 
ranging from al Quaeda to quietist groups living pious lives in self-
imposed isolation . . . Because these diverse groups share religious 
teaching and symbols, scholars, policymakers, and intelligence analysts 
often have difficulty distinguishing between violent and nonviolent 
Salafis.'' Clearly this distinction is critical for maintaining both 
our national security and productive diplomatic relations, and this 
grant provides this knowledge to other scholars, policymakers, and 
others.
Teaching Shakespeare Institute
    At the Folger Shakespeare Library's Teaching Shakespeare Institute, 
supported by the NEH, 25 secondary school teachers from across the 
Nation attend intensive seminars with distinguished Shakespeare 
scholars and work with our unique resources and collections. The 
experience enhances teachers' ability to integrate research into their 
teaching, allowing them to create the kind of stimulating project-based 
learning opportunities that transform students into lifelong learners. 
NEH grants for teaching institutes, such as the one at the Folger 
Shakespeare Library, promote the deep knowledge of humanities subject 
matter that is critical to ensuring that initiatives such as the Common 
Core standards succeed in improving academic attainment for all 
Americans. Through these transformative workshops, teachers become 
excited about the subjects they teach and then communicate their 
enthusiasm to students, making the classrooms exhilarating places to 
learn.
    Given the important role of projects such as these, we are 
especially concerned about the decline in funding for the NEH 
competitive grants that support them. In the past, NEH's rigorous 
evaluation process has determined that a greater number of projects 
than the agency is currently able to fund were worthy of support. As a 
result of recent cuts, NEH is able to make many fewer grants for 
fellowships and collaborative research; digital humanities projects; 
professional development for teachers and faculty; preservation of 
historically significant collections; public film, radio, television, 
and digital media projects; and challenge grants to build institutional 
capacity and leverage non-Federal support.
    Although modest, the increased support proposed by the President 
would have a significant impact. For example, at the proposed fiscal 
year 2014 level, the NEH Research Division could make 48 more awards 
than in fiscal year 2013. This means that an additional 44 individual 
scholars could receive fellowships, and 4 more collaborative research 
projects could receive continuing support. This kind of support is 
vital for humanities faculty. It enables recipients to devote 
themselves to intensive, systematic research--the kind of research 
needed to produce new insights. NEH's continuing support can enable a 
long-term project to continue, leveraging additional institutional 
support and providing unique research opportunities for participating 
graduate and undergraduate students. Similarly, the NEH Education 
Research Division could enable 530 additional teachers to revitalize 
their knowledge of the humanities through participation in summer 
workshops; approximately 66,000 high school students would benefit from 
this valuable professional development for teachers.
                               conclusion
    We recognize that Congress faces difficult choices in this and 
coming years. Nevertheless, we ask the subcommittee to consider 
modestly increased funding for the humanities through NEH as an 
investment in opportunity for all Americans, innovation and economic 
growth, productive global engagement, and strong communities. Thank you 
for consideration of our request and for your past and continued 
support for the humanities.
    Founded in 1981, the National Humanities Alliance advances national 
humanities policy in the areas of research, preservation, public 
programming, and teaching. More than 100 organizations are members of 
NHA, including scholarly associations, humanities research centers, 
colleges, universities, and organizations of museums, libraries, 
historical societies, humanities councils, and higher education 
institutions.
    An internationally recognized research library established in 1932, 
the Folger Shakespeare Library is a primary repository for material on 
the early modern period in Europe (1500-1750); a center for advanced 
scholarly programs in the humanities; an innovator in the preservation 
of rare materials; a national leader in how Shakespeare is taught in 
grades K-12; and an award- winning producer of arts programs.
                                 ______
                                 
  Prepared Statement of the National Indian Child Welfare Association
    The National Indian Child Welfare Association (NICWA) is a national 
American Indian/Alaska Native (AI/AN) organization with more than 25 
years of experience in providing leadership in support of and analysis 
of public policy that affects AI/AN children and families. NICWA 
regularly provides community and program development technical 
assistance to tribal communities regarding the development of effective 
services for this population. Our primary focus will be on Bureau of 
Indian Affairs (BIA) programs serving AI/AN children and families. We 
thank the subcommittee for its efforts to honor the Federal trust 
responsibility and provide necessary resources to meet the unique needs 
of tribal children and families.
    The Indian Child Welfare Act (ICWA) was enacted over 35 years ago 
in 1978 in response to the troubling practices of public and private 
child welfare agencies that were systematically removing large numbers 
of AI/AN children from their homes, communities, and cultures, and 
placing them in non-Indian foster and adoptive homes (25-35 percent of 
all tribal children). In spite of ICWA's mandates, AI/AN families in 
the child welfare system are still removed from their homes, 
communities, and cultures at rates higher than other children in 
America. Where abuse or neglect has been reported, AI/AN children in 
State child welfare systems are two times more likely to be 
investigated, two times more likely to have allegations of abuse 
substantiated, and four times more likely to be placed in foster care 
than white children.\1\ This has led to the overrepresentation of AI/AN 
children in State foster care (AI/AN children are overrepresented in 
foster care at a rate 2.2 times greater than their rate in the general 
population.) \2\ In several States, the rate of tribal children in 
State foster care is even higher, as much as 10 times their proportion 
in the general population.
---------------------------------------------------------------------------
    \1\ Hill, R. B. Casey-CSSP Alliance for Racial Equity in Child 
Welfare, Race Matters Consortium Westat. (2008). An analysis of racial/
ethnic disproportionality and disparity at the national, State, and 
county levels. Seattle, Washington: Casey Family Programs.
    \2\ Summers, A., Wood, S., & Russell, J. (2012). Technical 
Assistance Bulletin: Disproportionality rates for children of color in 
foster care. National Council of Juvenile and Family Court Judges: 
Reno, Nevada.
---------------------------------------------------------------------------
    The surest ways to reduce the number of AI/AN children in State 
child welfare systems is to ensure that tribes have the ability to 
effectively partner with States as Congress intended under ICWA by 
increasing tribal service capacity, funding off-reservation Indian 
child welfare programs to assist tribal governments and States, and 
fund tribal child abuse prevention and treatment programs to prevent 
abuse and possible removal of children and treat the trauma of victims 
of child abuse that, left untreated, can increase the risk of further 
abuse in the future.
    Although ICWA recognizes tribes' inherent sovereign right to 
intervene in State child welfare proceedings and provide services for 
their member children and families, tribal child welfare programs 
remain underfunded and therefore unable to fully exercise this right 
and responsibility. Tribes have an important relationship with their 
children and families: they have important knowledge of how to best 
meet the needs of AI/AN children, and are best suited to effectively 
serve those needs and improve outcomes for these children.\3\ 
Furthermore, many States find tribes to be an essential part of the 
child welfare system because of the culturally competent case 
management, services, and placements they provide tribal children.\4\ 
Not only is the Federal funding currently available for tribal child 
welfare programs inadequate, but tribes remain ineligible for several 
important sources of child welfare funding that States access and rely 
upon to create a continuum of care (from prevention to permanency).
---------------------------------------------------------------------------
    \3\ National Indian Child Welfare Association & Pew Charitable 
Trusts (2007). Time for reform: A matter of justice for American Indian 
and Alaska Native children. Philadelphia, Pennsylvania: Pew Charitable 
Trusts. Retrieved from http://www.nicwa.org/government/time-for-
reform.pdf.
    \4\ United States Government Accountability Office (2005). Indian 
Child Welfare Act: Existing information on implementation issues could 
be used to target guidance and assistance to states. (GAO Publication 
No. 05-290.) Washington, DC.
---------------------------------------------------------------------------
   indian child protection and family violence prevention act grant 
                                programs
    Recommendation.--Appropriate $40 million to the Indian Child Abuse 
Treatment grant program ($10 million) and the Indian Child Protection 
and Family Violence Prevention grant program ($30 million).
    The Indian Child Abuse Treatment grant program is currently 
authorized at $10 million and the Indian Child Protection and Family 
Violence Prevention grant program at $30 million (25 U.S.C. Sec. 3208 
and 3210). Yet these grant programs have never received any 
appropriations. The BIA, which has oversight authority over these 
programs, has not made a budget request in more than 10 years.
    11.0 of 1,000 AI/AN children were abused or neglected in 2011. This 
compares to 7.8 of 1,000 for white children and 14.6 of 1,000 for 
African-American children.\5\ Further, AI/AN women are more likely than 
any other single racial group to experience intimate partner violence 
(IPV, also known as domestic violence; 39 percent of AI/AN women report 
having experienced IPV at some point in their lives).\6\ These findings 
underscore the need for tribal access to family violence prevention 
funding that takes into account the relationship between child 
maltreatment and domestic violence, such as the Indian Child Protection 
and Family Violence Prevention grant program, which remains unfunded.
---------------------------------------------------------------------------
    \5\ U.S. Department of Health and Human Services, Administration 
for Children and Families, Administration on Children, Youth and 
Families, Children's Bureau (2011). Child Maltreatment 2010.
    \6\ Black, M. C., & Breiding, M. J. (2008). Adverse health 
conditions and health risk behaviors associated with intimate partner 
violence--United States, 2005. Morbidity and Mortality Weekly Report 
57(5), 113-117. Atlanta, Georgia: Centers for Disease Control and 
Prevention.
---------------------------------------------------------------------------
    In addition, tribes lack access to resources that provide for 
targeted treatment of AI/AN children who have experienced child abuse 
or neglect. When children who have faced maltreatment are unable to 
access mental health services, the residual effects of trauma can 
continue for many years and greatly affect their mental, physical, and 
social well-being--costing families and society a great price. The 
Child Abuse Prevention and Treatment Act (CAPTA), reauthorized in 2010 
(Public Law 111-320), is the only Federal law focusing solely on 
prevention, assessment, identification, and treatment of child abuse 
and neglect. Yet it contains no funding for tribes to address these 
critical public health issues, other than a small $277,000 per year 
program that only funds two tribes. The unfunded Indian Child Abuse 
Treatment grant program, if funded, would fill this void.
icwa, title ii funding for on-reservation child welfare services grant 
                                program
    Recommendation.--Increase appropriations for ICWA, title II tribal 
grant program by $10 million for an approximate total of $30 million in 
ICWA funding for tribal child welfare programs.
    There is no specific authorization amount included in the 
legislation. However, its legislative history indicates that Congress 
estimated at least $26 million would be needed to fully implement this 
grant program for tribes in 1978 (25 U.S.C. 1932). The ICWA, title II 
Funding for On-Reservation Child Welfare Services grant program began 
just after the passage of the law in 1979. During the first 14 years, 
the grant program was a competitive grant process. During these years, 
the appropriated funding never exceeded $17 million and less than one-
third of all tribes received ICWA, title II dollars. In fiscal year 
1994, Congress appropriated $25 million for the grant program, which 
allowed the BIA to make it a noncompetitive grant program for the first 
time. Now almost every tribe receives this funding. However, almost 
two-thirds of tribes receive less than $30,000 per year to support 
essential child welfare services. Since fiscal year 1994, the overall 
appropriations for this program have actually decreased by 
approximately $6 million.\7\
---------------------------------------------------------------------------
    \7\ Budget documents provided by the BIA only show enacted funds of 
$10.85 million for the most recent fiscal year (fiscal year 2012). 
Self-governance tribes, which comprise an increasing number of the 
total number of tribes, receive their share of these funds through a 
separate budget allocation mechanism for which the BIA does not provide 
specific numbers. However, the number of tribes receiving these funds 
and reported levels has not significantly changed over the last 10 
years, which supports the assumption that the total enacted 
appropriation for this program is closer to $20 million.
---------------------------------------------------------------------------
    Tribal child welfare programs work with some of the most at-risk 
and needy families in America, and in spite of this, have access to 
fewer resources than their State counterparts. For this reason, ICWA 
funding continues to be the base funding for most Indian child welfare 
programs. But in order to provide the most effective services, the 
small amount of ICWA, title II dollars given to a tribe is divided 
between child protective services, family reunification and 
rehabilitation, case management, foster care recruitment and retention, 
and adoption services.
    When ICWA was passed, Congress estimated that $26 million-$62 
million was required to fully fund tribal child welfare programs for 
all interested tribes on or near reservations during the first 4 years 
of the grant program.\8\ The current funding level is well below $26 
million. An allocation increase from the fiscal year 2012 level of $10 
million will provide a level of funding which will increase tribal 
capacity to serve their children within their jurisdiction and partner 
more fully with States to improve outcomes for tribal children in State 
child welfare systems.
---------------------------------------------------------------------------
    \8\ U.S. Senate Report 95-597, page 19.
---------------------------------------------------------------------------
icwa, title ii funding for off-reservation child welfare services grant 
                                program
    Recommendation.--Reestablish the Off-Reservation Indian Child 
Welfare Program under title II of ICWA funded at $5 million.
    There is no specific authorization amount identified in the 
legislation (25 U.S.C. 1932). However, starting the year after ICWA's 
passage (fiscal year 1979) and lasting until fiscal year 1996, the BIA 
requested funds for the grant program within the Special Projects and 
Pooled Overhead portion of its budget separate from tribal ICWA, title 
II funds. The ICWA Off-Reservation competitive grant program 
appropriated $1.5 million-$2 million over the course of these years, 
which funded several key programs within urban areas with higher 
densities of AI/AN children and families.
    ICWA does not make a distinction between which Indian children 
should benefit from the act. It is designed to provide protections to 
AI/AN children and families regardless of where they reside and 
therefore authorizes grant funding under title II for Off-Reservation 
ICWA programs as well as the On-Reservation programs discussed above. 
In 1970, 38 percent of AI/AN individuals lived off-reservation\9\; in 
the 2010 census, 67 percent of all individuals who identified as AI/AN 
alone lived off-reservation; and 78 percent of all individuals who 
identified as AI/AN and another race(s) lived off-reservation.\10\ 
Indian children living outside of their tribal community are some of 
the most vulnerable Indian children given the challenges they face in 
staying connected to their culture and kinship networks.
---------------------------------------------------------------------------
    \9\ National Urban Indian Family Coalition (2008). Urban Indian 
America, The Status of American Indian and Alaska Native Families 
Today: A Report to the Annie E Casey Foundation. Washington: Seattle.
    \10\ Norris, T., Vines, P. & Hoeffel, E. M. (2012). 2010 Census 
Briefs: The American Indian and Alaska Native Population 2010. U.S. 
Census Bureau: Washington, DC.
---------------------------------------------------------------------------
    When funded, the ICWA, title II Off-Reservation grant program 
ensured that AI/AN children and families living in urban areas received 
the protections of ICWA and States had additional expertise and 
culturally appropriate services available to them. Specific services 
typically provided by ICWA, title II Off-Reservation programs included 
recruitment of AI/AN foster care homes, case management, identification 
of at-risk families for services, and in-home services that help 
children stay in their homes or be reunified with their parents safely.
    With an increasing number of AI/AN individuals living off-
reservation, reinstating this funding would provide support to urban 
areas and other areas off-reservation where there is pronounced AI/AN 
density.
                         child assistance funds
    Recommendation.--Increase Child Assistance appropriation request by 
$10 million to $35 million.
    Child Assistance Funds are provided through the Tribal Priority 
Allocations line item and authorized under the Snyder Act (25 U.S.C. 
Sec. 13). Historically, appropriations have never exceeded $31 million 
and in fiscal year 2012, the enacted level was $24.2 million.
    These funds are critical because tribal governments have a 
responsibility to support the placements of AI/AN children under their 
jurisdiction that live on tribal lands and cannot safely remain in 
their homes. These funds are available to tribes to provide basic 
payments to support foster care, guardianship, and adoptive placements. 
Without these funds, tribes would have to place children in 
unsubsidized foster care, which often places a strain on those 
individuals--many of whom have few resources--willing to care for 
children who would otherwise have no home. Aside from title IV-E, a 
program that is not feasible for every tribe, tribes have no other 
source of funding to support out-of-home placements that occur on-
reservation.
    In addition, tribes that are now pursuing administration of the 
title IV-E program--which requires a significant tribal match to 
support program services and placements--will need some portion of 
these BIA funds to continue to serve tribal children who are not title 
IV-E eligible, as well as to help meet the title IV-E matching 
requirements.
    While these funds are critical to tribes that receive them, not all 
tribes that need these funds have access to them. The BIA continues a 
policy of not making these funds available to tribes that they deem 
have access to other, similar types of services. This policy has 
created huge gaps in the ability of tribes to provide necessary child 
welfare services to their citizens that are under their jurisdiction 
and responsibility. It is for this reason that the allocations should 
be increased from $25 million to $35 million so that all tribes 
providing child welfare services can subsidize their out-of-home 
placements.
                                 ______
                                 
    Prepared Statement of the Northwest Indian Fisheries Commission
    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to provide written testimony on the fiscal year 2014 
Interior, Environment and Related agencies appropriations. My name is 
Billy Frank, Jr. and I am the Chairman of the Northwest Indian 
Fisheries Commission (NWIFC). The NWIFC is comprised of the 20 tribes 
that are party to the United States v. Washington \1\ (U.S. v. 
Washington). To meet the many natural resources management 
responsibilities required of the tribes, I submit the following 
requests for the Bureau of Indian Affairs and the Environmental 
Protection Agency.
---------------------------------------------------------------------------
    \1\ United States v. Washington, Boldt Decision (1974) reaffirmed 
Western Washington Tribes' treaty fishing rights.
---------------------------------------------------------------------------
           summary of fiscal year 2014 appropriations request
Bureau of Indian Affairs
    Provide $17.146 million for Western Washington Fisheries 
Management.
    Provide $3.082 million for Washington State Timber, Fish and 
Wildlife.
    Provide $4.844 million for United States/Canada Pacific Salmon 
Treaty Implementation.
    Provide $2.4 million for Salmon Marking.
    Provide $6.843 million for Fish Hatchery Maintenance.
    Provide $2.6 million for Fish Hatchery Operations.
    Provide $230 million for Contract Support.
    Provide $10 million for Landscape Conservation.
    Provide $725,000 for Watershed Restoration.
Environmental Protection Agency
    Provide $96.375 million for General Assistance Program.
    Provide $50 million for Puget Sound.
         treaty rights at risk and the federal trust obligation
    Last year we brought to your attention an initiative that we have 
been pursuing--our Treaty Rights at Risk (TRAR) initiative. The treaty 
rights of the western Washington treaty tribes are in imminent danger. 
Salmon are critical to the tribal cultures, traditions and their 
economies. The treaty-reserved right to harvest salmon continues to 
decline due to ongoing loss of habitat. All of this is due to the 
inability to restore salmon habitat faster than it is being destroyed. 
Wild salmon and their habitat continue to decline despite massive 
reductions in harvest and a significant investment in habitat 
restoration.
    The Federal Government has a fiduciary responsibility and an 
obligation to protect these treaty-reserved natural resources. This 
obligation is met through policy and funding support that is provided 
to tribes to allow them to perform the necessary management 
responsibilities to protect these resources. Without this continued 
support the treaties will have no meaning as these natural resources 
disappear. The tribes' treaties are constitutionally protected and have 
been confirmed by the Federal courts, including the U.S. Supreme Court. 
As a signer to these treaties, the Federal Government has an ongoing, 
non-discretionary obligation to provide adequate funding to the tribes 
to allow them to protect and preserve these treaty rights.
    On behalf of our 20 member tribes, I am providing our fiscal year 
2014 natural resources management funding requests for the Bureau of 
Indian Affairs (BIA) and the Environmental Protection Agency (EPA). We 
are pleased that the fiscal year 2014 President's budget continues to 
be supportive of the northwest natural resources funding requests. In 
addition to our specific requests described below, we also support the 
budget priorities and funding requests of the National Congress of 
American Indians.
                       justification of requests
Bureau of Indian Affairs
    Provide $17.146 million for BIA Western Washington Fisheries 
Management.--Over the past several years, the tribes and the NWIFC have 
requested an increase of $12 million in the base Western Washington 
program. The increase in fiscal year 2010 was very much appreciated, 
however, we once again ask Congress to address the remaining identified 
needs of the NWIFC and our member tribes. The President's fiscal year 
2014 budget contains $9.613 million. We respectfully request $17.146 
million. Funding for this program allows for continued treaty harvest 
management, population assessment, habitat protection and data 
gathering for finfish, shellfish, groundfish, wildlife and other 
natural resource management needs. Funds provide the necessary capacity 
for the treaty tribes to co-manage the resources with the State of 
Washington and to meet court required mandates.
    Provide $3.082 million for BIA Washington State Timber-Fish-
Wildlife.--The congressional increase to Rights Protection 
Implementation in fiscal year 2010 of $12 million was allocated to all 
programs within this subactivity including the Washington State Timber-
Fish-Wildlife (TFW) program. The President's fiscal year 2014 budget 
contains $3.082 million. We support funding this account at $3.082 
million. Funding for this program is provided to improve forest 
practices on State and private lands while providing protection for 
fish, wildlife and water quality. This will provide the necessary 
funding to tribal TFW programs to fully participate in the TFW process.
    Provide $4.844 million for BIA United States/Canada Pacific Salmon 
Treaty Implementation.--The Pacific Salmon Treaty (PST) Act of 1985 
charges the United States Section of the Pacific Salmon Commission with 
the responsibility for implementation of the PST, a bilateral treaty 
with Canada. Tribes assist in meeting the Federal Government's 
obligations in implementing the treaty by participating in cooperative 
research and data gathering programs. The President's fiscal year 2014 
budget contains $4.844 million. We support funding this account at 
$4.844 million. This will provide sufficient funding to ensure that the 
tribes can continue to participate effectively in the bilateral PST 
process.
    Provide $2.4 million for BIA Salmon Marking.--Funding for this 
program is required to meet the 2003 mandate by Congress that required 
all salmon released from federally funded hatcheries be marked so they 
could be uniquely identified. This allows tribes to mark salmon at 
tribal hatcheries and to use these marked fish to scientifically 
monitor salmon populations and watersheds in western Washington. The 
President's fiscal year 2014 budget contains $1.171 million. We 
respectfully request $2.4 million. This amount is required to fully 
implement more extensive selective fisheries targeted at these marked 
fish. This request is also important in part because marking costs are 
increasing as tribal hatchery production continues to increase.
    Provide $6.843 million for BIA Fish Hatchery Maintenance.--Tribal 
fish hatcheries in western Washington are part of the largest fish 
hatchery system in the world. These hatcheries provide fish that 
significantly contribute to both non-Indian recreational and commercial 
harvest, as well as for tribal fisheries. The President's fiscal year 
2014 budget contains $6.843 million. We support funding this account at 
$6.843 million. Funding for this program is provided to tribes 
nationwide based on the ranking of annual maintenance project 
proposals. Today, hatcheries also play a large role in recovering 
pacific salmon, many of which are listed under the Endangered Species 
Act. A comprehensive needs assessment study was conducted in fiscal 
year 2006 by the BIA at the request of Congress which identified a 
level of need of over $48.0 million in necessary hatchery maintenance 
and rehabilitation costs.
    Provide $2.6 million for BIA Fish Hatchery Operations.--Funding for 
this program is provided to tribal hatcheries to support the rearing 
and releasing of salmon and steelhead for harvest by Indian and non-
Indian fisheries. The President's fiscal year 2014 budget contains 
$1.85 million. We respectfully request $2.6 million. This increase 
reflects the needs of the western Washington treaty tribes. Hatcheries 
are a necessary part of fisheries management because of the lack of 
wild salmon production due to habitat degradation. Without hatcheries 
tribes would have very few fisheries and their treaty rights would be 
rendered meaningless.
    Provide $230.0 million for BIA Contract Support.--Funding for this 
function is provided to tribal organizations to ensure they have the 
capacity to manage Federal programs under self-determination contracts 
and self-governance compacts. Historically Indirect Contract Support 
has been drastically underfunded, yet this is a critical funding source 
as it directly supports our governmental functions, which allow us to 
fully exercise our right to self-govern. The President's fiscal year 
2014 budget contains $230 million. We support funding this account at 
$230.0 million, assuming this covers 100 percent of need. Direct 
Contract Support is also an important piece of this funding.
    Provide $10 million for BIA Cooperative Landscape Conservation.--
Funding for this program will provide the tribal capacity needed to 
develop adaptation mechanisms to adjust to environmental challenges. 
The President's fiscal year 2014 budget contains $10 million. We 
support funding this account at $10 million, of which $2 million is 
respectfully requested for the western Washington treaty tribes. This 
will allow tribes to provide their perspective on climate change 
adaptation in the form of traditional ecological knowledge necessary to 
protect their treaty rights.
    Provide $725,000 for BIA Watershed Restoration.--Funding for this 
program supports our Salmon and Steelhead Habitat Inventory and 
Assessment Program. The fiscal year 2012 appropriations provided a 
total of $390,000 to western Washington treaty tribes. We respectfully 
request $725,000 for the Northwest Indian Fisheries Commission. This 
will allow us to continue to provide environmental data management, 
analysis, and reporting support to our member tribes. These services 
and functions would continue to support our tribes' ability to 
adequately participate in watershed resource assessments and salmon 
recovery work.
Environmental Protection Agency
    Provide $96.375 million for EPA General Assistance Program.--This 
funding has built essential tribal capacities and remains critical to 
the tribes' ability to sustain their important water quality programs. 
The President's fiscal year 2014 budget contains $72.631 million. We 
respectfully request $96.375 million. Funding for this program 
continues to provide the capacity for tribal environmental protection 
programs nationwide. This allows tribes to address their most 
fundamental needs such as inadequate drinking water and basic 
sanitation.
    Provide $50 million for EPA Puget Sound.--The Puget Sound 
Geographic Program provides essential funding that will help protect, 
restore and enhance Puget Sound. Tribes will continue to seek funding 
from this EPA account, in coordination with the Puget Sound 
Partnership. Such funding will allow the tribes to participate in the 
necessary scientific work, implementation measures, and policy 
discussions on issues that affect our treaty rights. The President's 
fiscal year 2014 budget contains $17.15 million. We respectfully 
request $50 million. Funding for this initiative allows tribes to 
participate in implementing the Puget Sound Action Agenda and a wide 
range of projects aimed at improving the health of Puget Sound by 2020.
                               conclusion
    The treaties and the treaty-reserved right to harvest are the 
supreme law of the land under the U.S. Constitution. Some of the treaty 
tribes have had to give up even their most basic ceremonial and 
subsistence fisheries. Tribes are key partners in the management of 
natural resources by virtue of treaty-reserved rights and the legal 
status as co-managers.
    We are sensitive to the budget challenges that Congress faces. 
However, we believe the management work that we perform to protect our 
valuable resources and to help fulfill the trust obligation of the 
Federal Government continues to be worthy of your support. We urge you 
to support our funding requests. Thank you.
                                 ______
                                 
   Prepared Statement of the National Institutes for Water Resources
    Chairman Reed and Ranking Member Murkowski, I am Reagan Waskom, 
Director of the Colorado Water Institute at Colorado State University. 
Thank you for this opportunity to submit this statement on behalf of 
National Institutes for Water Resources (NIWR), the organization that 
collectively represents the State water resources research institutes. 
My statement is in support of an appropriation of $6,490,000 for the 
Water Resources Research Act programs as part of the fiscal year 2014 
U.S. Geological Survey's budget.
    The Water Resources Research Act (42 U.S.C. 10301 et seq.) 
establishes a Federal-State-university partnership in water resources 
research, education, and information transfer and dissemination. There 
are a total of 54 Water Resources Research Institutes located at the 
land grant universities of the 50 States, as well as in the District of 
Columbia, the Virgin Islands, Puerto Rico, and Guam. The act authorized 
this State-based network of institutes dedicated to solving problems of 
water supply and water quality in partnership with universities, local 
governments and the general public. It is the only federally authorized 
research network that focuses on applied water resources research, 
education, training and outreach. The institutes are a direct, vital 
link between Federal water interests and needs and the academic 
expertise located within the States' research universities. It provides 
a mechanism for ensuring State, regional and national coordination of 
water resources research, the education of future water professionals, 
and the transfer of results and outcomes to State and Federal water 
professionals. The matching requirements of the program ensure that 
States invest in water research and training.
    The Water Resources Research Act established two grant components 
of the USGS Water Resources Research Institutes program. The first 
component is the base grant program which is divided equally among the 
institutes. The act requires that each Federal dollar must be matched 
by two non-Federal dollars. Federal funds cannot be used to pay 
indirect costs at the universities. This is the strictest match 
requirement of any Federal research program. Each Institute uses these 
funds to leverage research and/or student training through a statewide 
competitive grants process. In fiscal year 2013, each Institute 
received $92,335, an appropriation of approximately $5.2 million for 
the base program. NIWR respectfully requests the subcommittee provide 
the same funding for these State-based water supply research seed 
grants, technology transfer, professional education, and outreach to 
the water-user community by the institutes.
    The second grant component is a national competitive grants program 
that has the objective of supporting research on water resources 
problems that are regional or national in nature. Last year this 
program received 46 applications, which underwent rigorous peer review 
from a national panel. This panel selected a total of six projects from 
Alabama, Iowa, Minnesota, New York, Oregon and West Virginia.
    My institute, the Colorado Water Institute, collaborates closely 
with the Colorado Water Conservation Board, Colorado's primary water 
policy agency, to conduct applied research, provide public education 
and train students through internships. An example of this partnership 
is the South Platte Basin which is the most populous and water-short 
region of the State and recently has been struggling with optimizing 
the conjunctive use of surface and groundwater. The Colorado 
legislature has commissioned CWI to conduct a comprehensive analysis of 
groundwater management to determine if current management is causing 
high water tables causing crop damage and flooded basements. In 
addition to analyzing data, CWI is working to bring well users and 
surface users into productive dialogue to find solutions to benefit 
both.
    Another partnership with the Colorado Water Conservation Board 
includes providing drought support to the State, agricultural 
producers, and Colorado's Drought Task Force during the 2012 drought by 
serving as the Co-Chair of the Agriculture Drought Task Force and 
serving on the Colorado Governor's Water Availability Task Force. In 
addition to regular communication across the agencies, we provided 
online and printed factsheets and information resources, held local 
drought meetings for stakeholders, helped producers with crop insurance 
claims, held drought information tours for State officials, helped 
organize the State's 2012 drought conference, and handled stakeholder 
requests. The 2013 crop season is once again looking as though drought 
will be a problem for cities and agriculture, and we are ramping up our 
capacity to respond to critical information and coordination needs.
    Through the Water Resources Research Act, the institutes, in 
coordination with State extension services, specialize in identifying 
problems within their States, developing solutions to those problems, 
and engaging with the public to implement those solutions. The act's 
greatest strength is that the research funded by each Institute is 
tailored to that State's needs, based on priorities set by consultation 
with an advisory panel. The following are several examples of research 
conducted by institutes across the country.
    Gainer Dam is the largest and most important in Rhode Island since 
it retains the waters of the Scituate Reservoir, the source clean water 
for more than 60 percent of the State's population. Although Rhode 
Island is not in a zone of high seismic activity, there is still risk 
from earthquakes and the performance of the Gainer Dam in an extreme 
seismic event is uncertain. The Rhode Island Water Resources Center is 
performing a seismic evaluation of the Gainer Dam including analyses of 
dynamic response, liquefaction potential, stability, and deformation to 
evaluate the resiliency of the structure. The analysis will provide 
guidance to retrofit the structure of the dam for seismic resistance, 
which is of the utmost in importance since a catastrophic failure of 
the dam would result in loss of life and an extreme disruption of the 
supply of clean water for Rhode Island.
    Alaska's Water and Environmental Research Center (WERC) is 
collaborating with the Alaska Department of Transportation and Public 
Facilities to collect hydrologic information critical for the planning, 
design, and permitting of new transportation corridors. Planned 
roadways intended to spur resource development such as the roads to 
Umiat and Ambler will cross hundreds of miles of undeveloped territory, 
and will by necessity cross numerous rivers and streams. Due to the 
remote location of these rivers, however, scant hydrologic data is 
presently available to inform the design and permitting of new bridges 
and culverts. Without additional hydrologic information, these bridges 
and hence these transportation corridors, will not be built. Drawing 
upon decades of remote Arctic field experience, WERC researchers 
observe and evaluate stream flow, ice conditions, and a host of other 
parameters critical to bridge and culvert design at key locations along 
Alaska's planned transportation corridors.
    The New Mexico Water Resources Research Institute hosted its 57th 
annual water conference in August 2012. The conference titled ``Hard 
Choices: Adapting Policy and Management to Water Scarcity'' drew a 
record crowd of more than 500 participants. Following the conference, a 
workshop of diverse water policy experts was held to record policy 
options derived from the conference discussion. Workshop stakeholders 
included agricultural, municipal, environment, local, State, Federal 
and tribal representatives. A report was issued with policy options for 
consideration by the public and policymakers. This report provides 
policymakers an important resource as New Mexico adapts to its ongoing 
drought and a future where drought may become more frequent in New 
Mexico and the region. It is an example of the role New Mexico's water 
institute plays in supporting collaboration across all sectors to bring 
about solutions to its pressing water problems.
    The Mississippi Water Resources Research Institute is working to 
improve a 35 square mile coastal watershed located in Hancock County, 
Mississippi. The prosaically named Rotten Bayou drains into the Bay St. 
Louis, an embayment of the Gulf of Mexico. The area is under pressure 
from population growth, urbanization, and agricultural practices such 
as cattle farming. The watershed has been identified by the Mississippi 
Department of Environmental Quality (MDEQ) as having impairments such 
as low dissolved oxygen, turbidity, and excessive nutrient loads. The 
WRRI, with the assistance of faculty at Mississippi State University 
and MDEQ, has developed a project to assist the newly formed town of 
Diamondhead to identify structural and non-structural Best Management 
Practices that will help improve water quality in Rotten Bayou. The 
successful completion of the project has design and policy implications 
for the entire Mississippi Gulf Coast metropolitan area.
    The Institute for Water and Watersheds at Oregon State University 
has experimented with new ways to diversify its by creating what is 
termed ``just-in-time'' white papers or short You-Tube videos on topics 
of interest. For example, white papers have been developed on the 
notion of water markets in Oregon, bottled water in Oregon, the 
importance of water to the multi-billion dollar per year Oregon wine 
industry, and climate change and Oregon water. Videos on water 
sustainability and greywater reuse in Oregon, biochar derived from 
forest products for treatment of Oregon stormwater, and community 
management of deep groundwater in Northeastern are readily available 
for review. New projects will focus on arsenic in groundwater in 
eastern Oregon using funds bequeathed to the Institute for Water and 
Watersheds.
    In a study of forest management and water yields, in collaboration 
with several nonprofit agencies, California Institute for Water 
Resources researchers are undertaking a three-part, multi-year, multi-
disciplinary project to research and assess issues related to climate 
change, vegetation manipulation and the forest water cycle in the 
Sierra Nevada Mountains. The Sierras harbor globally distinctive forest 
resources that deliver hydropower and water supply to downstream users 
in California and elsewhere. Observational and high resolution modeling 
studies of snowpack and water, utilizing data collected since 1930, 
paints a picture of significant decreases in snowpack and runoff in the 
Sierra Nevada Mountains due to increased greenhouse gases. By the mid-
21st century, considerable decreases in snow water equivalence are 
projected. This CIWR research will continue to run atmospheric models 
to predict water resources in California.
    The Total Maximum Daily Load (TMDL) requirement (known as a 
``pollution budget'') requires actions at all levels--watershed, State, 
county, municipality, and landowner--to reduce the flow of nutrients 
and sediments to the Chesapeake Bay. Studies supported by the Maryland 
Water Resources Research Center are advancing understanding of where 
pollutants come from and effectiveness of corrective approaches at 
different scales. One study is looking at legacy mill dam sediments 
left in rivers and their floodplains from the time when water mills 
were the region's power grid. Another is investigating how nitrogen 
compounds are transported and transformed in streams in agricultural 
Eastern Shore watersheds The Center is also supporting the work of 
graduate students investigating the effectiveness of best management 
practices (watershed restoration and green roofs) in decreasing 
damaging runoff from urban areas.
    The Alabama Water Resources Research Institute at Auburn University 
hosted the annual Alabama Water Resources Conference, which had more 
than 300 participants, and the Alabama Water Resources Association 
Symposium. Other recent outreach activities included the Lake Martin 
State of the Watershed Conference and the Apalachicola-Chattahoochee-
Flint (ACF) Stakeholders Conference. The institute assisted City of 
Auburn to develop water resources portion of CompPlan2030, and Auburn 
University to develop the campus storm water management plan. It 
provided technical assistance to the Alabama Joint Legislative 
Committee on Water Management and Policy and Developed in developing a 
science-based ``rivers as systems'' conceptual framework for 
comprehensive, sustainable water policy and management.
    For almost five decades the Water Resources Research Institutes 
have provided research results and impacts to our Nation, and proved 
successful at bringing new water professionals into the workforce. NIWR 
recommends the subcommittee provide $6,490,000 to the USGS for the 
Water Resources Research Institute Program for fiscal year 2014.
    The water institute directors recognize the fiscal challenges 
facing the Nation and Congress, but we want to support the USGS 
Coalition request that Congress appropriate at least the $1.167 billion 
requested for the USGS in fiscal year 2014, a level that will support 
critical USGS programs that improve the Nation's environment, health, 
safety, quality of life, and future economic growth.
    Thank you on behalf of all the Institute directors for the 
opportunity to submit our statement to the subcommittee and for your 
continuing support of the Water Resources Research Act program.
                                 ______
                                 
   Prepared Statement of the New Mexico Interstate Stream Commission
    Summary.--This statement is submitted in support of fiscal year 
2014 appropriations for Colorado River Basin salinity control 
activities of the Bureau of Land Management. I urge that at least $5.2 
million be appropriated for the Bureau of Land Management within the 
Soil, Water, and Air Program for general water quality improvement 
efforts in the Colorado River Basin, and an additional $1.5 million be 
appropriated specifically for salinity control related projects and 
studies.
                               statement
    The Colorado River Basin Salinity Control Forum (Forum) is 
comprised of representatives of the seven Colorado River Basin States 
appointed by the respective Governors of the States. The Forum has 
examined the features needed to control the salinity of the Colorado 
River. These include activities by the States, the Bureau of 
Reclamation, the Department of Agriculture, and the Bureau of Land 
Management (BLM). The Salinity Control Program has been adopted by the 
seven Colorado River Basin States and approved by the Environmental 
Protection Agency as a part of each State's water quality standards.
    About 75 percent of the land in the Colorado River Basin is owned, 
administered or held in trust by the Federal Government. The BLM is the 
largest land manager in the Colorado River Basin, and manages public 
lands that are heavily laden with naturally occurring salt. When salt-
laden soils erode, the salts dissolve and enter the river system, 
affecting the quality of water used from the Colorado River by the 
Lower Basin States and Mexico.
    I support past Federal legislation that declared that the Federal 
Government has a major and important responsibility with respect to 
controlling salt discharge from public lands. Congress has charged the 
Federal agencies to proceed with programs to control the salinity of 
the Colorado River Basin with a strong mandate to seek out the most 
cost-effective solutions. The BLM's rangeland improvement programs are 
some of the most cost-effective salinity control measures available. In 
addition, these programs are environmentally acceptable and control 
erosion, increase grazing opportunities, produce dependable stream run-
off and enhance wildlife habitat.
    The water quality standards adopted by the Colorado River Basin 
States contain a plan of implementation that includes BLM participation 
to implement cost effective measures of salinity control. BLM 
participation in the salinity control program is critical and essential 
to actively pursue the identification, implementation and 
quantification of cost effective salinity control measures on public 
lands.
    Bureau of Reclamation studies show that quantified damages from 
Colorado River salinity to United States water users are about $376 
million per year. Modeling by Reclamation indicates that these 
quantified damages would increase to $577 million per year by 2030 if 
the Salinity Control Program was not continued. Unquantified damages 
already increase the total damages significantly.
    Control of salinity is necessary for the Basin States, including 
New Mexico, to continue to develop their compact-apportioned waters of 
the Colorado River. The Basin States are proceeding with an independent 
program to control salt discharges to the Colorado River, in addition 
to cost sharing with Bureau of Reclamation and Department of 
Agriculture salinity control programs. It is vitally important that the 
BLM pursue salinity control projects within its jurisdiction to 
maintain the cost effectiveness of the program and the timely 
implementation of salinity control projects that will help avoid 
unnecessary damages in the United States and Mexico.
    At the urging of the Basin States, the BLM has created a full time 
position to coordinate its activities among the BLM State offices and 
other Federal agencies involved in implementation of the salinity 
control program. The BLM's budget justification documents have stated 
that BLM continues to implement on-the-ground projects, evaluate 
progress in cooperation with the Bureau of Reclamation and the 
Department of Agriculture, and report salt retention measures to 
implement and maintain salinity control measures of the Federal 
salinity control program in the Colorado River Basin. The BLM is to be 
commended for its commitment to cooperate and coordinate with the Basin 
States and other Federal agencies. The Basin States and I are pleased 
with the BLM administration's responsiveness in addressing the need for 
renewed emphasis on its efforts to control salinity sources and to 
comply with BLM responsibilities pursuant to the Colorado River Basin 
Salinity Control Act, as amended.
    To continue these efforts, I request the appropriation of at least 
$5.2 million in fiscal year 2014 for general water quality improvement 
efforts in the Colorado River Basin by the BLM within the Soil, Water, 
and Air Program, and that an additional $1.5 million be appropriated 
specifically for salinity control related projects and studies. I 
appreciate consideration of these requests. I fully support the 
statement of the Colorado River Basin Salinity Control Forum submitted 
by Don Barnett, the Forum's Executive Director, in request of 
appropriations for BLM for Colorado River salinity control activities.
                                 ______
                                 
   Prepared Statement of the National Parks Conservation Association
    Mr. Chairman, Ranking Member Murkowski, and members of the 
subcommittee, I am Tom Kiernan, president of the National Parks 
Conservation Association (NPCA). I appreciate the opportunity to 
testify on behalf of our more than 750,000 members and supporters from 
every State and congressional district to provide our views regarding 
appropriations for the National Park System for the upcoming fiscal 
year. Founded in 1919, NPCA is the leading, independent, private voice 
in support of promoting, protecting and enhancing America's national 
parks for people from all walks of life to learn from, be inspired by 
and enjoy--now and on into the future.
    We testify during a very challenging time for the National Park 
Service and the appropriations process, as you know all too well. I 
want to first acknowledge the very significant challenges you have had 
to face as you have seen your allocation dwindle and have had to 
implement the sequester that reduced funding for programs that I know 
you realize are important and support. We recognize as well the 
challenge in meeting the substantial needs for fire suppression in the 
West and hope that you can work with the House to reach a final bill 
this year that can prevent fire needs from eating into other needed 
investments in the Interior bill.
    NPCA is working on several levels to encourage Congress and the 
administration to come together on a broad solution that addresses the 
real drivers of the deficit, which certainly are not the discretionary 
programs in the Interior appropriations bill. We recognize that until 
and unless such a deal is struck, it will be a continuous struggle to 
provide national parks with the funding they need, that park visitors 
and communities deserve, and that the American people support--as we 
know from polling that we've already shared with you showing broad 
bipartisan support for national park funding. We continue to encourage 
Congress and the administration to put everything on the table in an 
effort to secure a truly meaningful, worthwhile compromise on the 
deficit. Yet here we are in a situation that we all had hoped would 
never come to pass, with sequestration in place, and a final fiscal 
year 2013 continuing resolution that cut park funding even more than 
sequester-mandated levels. We are also concerned that the fiscal year 
2014 House budget sharply cuts discretionary spending; if that budget 
were implemented, it would further challenge this committee's effort to 
meet the needs of our national parks. Conversely, we are grateful for 
the Senate budget's recognition of the importance of park investments, 
yet we are concerned about the vast divide between these two documents.
    The hard reality for national parks is that they are experiencing 
deep impacts from the sequester and other continuing reductions, and 
this year--2013--will be the most challenging in some time for park 
superintendents. As you know, the final fiscal year 2013 levels came on 
top of 2 prior years of budget cuts for the park service. Since fiscal 
year 2010, park operations have declined by an estimated $300 million--
or nearly 13 percent--in today's dollars. We know that you understand 
the importance of funding the operations of our national parks, but it 
is worth taking a moment to summarize the damaging impact these cuts 
are having in every park across the country.
    As you know, the situation at every park is different, and the 
impacts of the sequester vary park-by-park. In Maine, Acadia is 
delaying completely opening the park by a full month, with reduced 
staff and visitor center hours as well. At Blue Ridge Parkway, the most 
visited unit in the system, more than 400 campsites will be closed, in 
addition to picnic areas and visitor centers. Denali National Park and 
Preserve in Alaska will go without--among other positions lost through 
attrition--six maintenance staff, despite a deferred maintenance 
backlog there that has grown to nearly $50 million. And finally, at 
Mammoth Cave National Park in Kentucky, there will be 15 fewer staff 
this year, and fewer rangers will be available in the main campground 
to assist visitors. There will also be fewer cave tours, such that an 
estimated 28,000 people will not be able to visit Mammoth Cave as a 
result.
    Overall, there will be nearly 2,000 fewer staff in our national 
parks this year to protect the amazing resources that have inspired 
visitors for nearly 100 years, and to provide a safe and enjoyable 
experience for the nearly 300 million annual park visitors from across 
our Nation and the world.
    A few weeks ago, I read the story of outfitters at Delaware Water 
Gap National Recreation Area, which is among the most visited park 
service units. Outfitters in gateway communities were expressing 
concern over the National Park Service's decision to close several 
access points to the river, a cutback in services that is likely to 
make a canoe trip downriver lengthy enough to discourage many families 
from visiting. Canoe livery owners predicted the access closures could 
decrease business by 25 percent. The superintendent responded by 
outlining the very real constraints to his budget as a result of the 
annualized across-the-board cut of 5 percent to park budgets that has 
resulted from the sequester. This is just one of many stories, and we 
worry what will happen to countless local businesses this summer and 
families looking forward to their park visits--an experience of a 
lifetime for so many of them--when facilities are closed and rangers 
are not there to greet people and ensure they have a safe and inspiring 
visit.
    Recently, nearly 300 businesses whose livelihood is threatened by 
reductions in park budgets wrote to the President and congressional 
leaders outlining their concerns about funding for national parks. It 
reminds us that in addition to their importance to the American way of 
life and experience, national parks are economic engines that support a 
quarter-million American jobs and contribute some $30 billion to the 
national economy annually.
    It appears that national parks have no choice but to weather these 
cuts this year, but it is clear that many of the ways in which savings 
are being found are not sustainable. Half of the savings is through 
attrition; but as many superintendents have acknowledged, operating a 
park with insufficient staff can be managed in the short term, but the 
strategy cannot be sustained over the long run. As you begin to 
deliberate on fiscal year 2014 funding, we should be clear that if 
these cuts are sustained for any amount of time, we will begin to see 
more significant damage to resource protection, as well as visitor 
services. Without some relief, less costly--but needed--maintenance 
will go undone, leading to much more costly repair needs over the long 
term. You can delay changing the brake pads on your car for a year; 
however, eventually you will not only have to replace the pads but the 
rotors as well because they've become damaged for lack of maintenance, 
costing more in the long run and compromising safety in the meantime.
    Of course, there are impacts from cuts to all the accounts, not 
just park operations. The loss of 70 percent of the construction budget 
over the last decade in today's dollars is leading the deferred 
maintenance backlog to approach $12 billion, with no relief in sight. 
Historic grant programs have been substantially reduced over the years, 
compromising opportunities to protect and interpret our unique and 
important American story, and undermining opportunities for heritage 
tourism. The Land and Water Conservation Fund has been suffering 
setbacks despite its importance as a conservation tool.
    Mr. Chairman, we are doing more than complaining about budget 
reductions. Looking toward the Centennial of the National Park System 
in 2016, in March we helped convene a symposium hosted by the respected 
Bipartisan Policy Center to discuss creative ideas for supplemental 
funding sources for the Park Service. We realize the fiscal climate 
will continue to be challenging and that no stone should be left 
unturned in securing the resources the parks need. We will be focusing 
on implementing a handful of the most promising of these ideas to 
supplement--but not replace--appropriations. In the meantime, though, 
the parks are losing ground.
    This subcommittee has a long history of engagement with NPS fee 
revenue, having been active in the formulation of Fee Demo and the 
Federal Lands Recreation Enhancement Act (FLREA). Without congressional 
action, FLREA, along with the NPS's authority to retain fees, will 
expire next year. It is imperative that fee retention authority not be 
allowed to expire, and NPCA looks forward to working with the 
subcommittee and with the authorizing committees to reauthorize and 
improve this important legislation.
    Restructuring national park fees is one of several supplemental 
funding ideas that we are exploring. With a decline of the Park Service 
budget since fiscal year 2002 of now 22 percent in today's dollars, 
parks desperately need fee dollars in addition to every penny this 
subcommittee is able to provide.
    The President's budget appears to be an important step in the right 
direction, yet not enough to meet the needs of park base operations. 
The budget very importantly would undo the sequester and provide a 
modest $57 million above fiscal year 2012 in overall discretionary 
funding for the National Park Service. However, the proposal provides 
for some important priorities reflected by this increase in part 
through reductions to park base operations, with a total loss of nearly 
100 full time positions in the operations account. When parks already 
went into the sequester insufficiently staffed, we find this a 
troublesome continuation of the decline of park base operations that 
cannot be sustained without impacts to park resources and visitors.
    Our national parks have been called the envy of the world, 
preserving our uniquely American history in places as diverse as the 
Everglades and the Statue of Liberty, Independence Hall and 
Yellowstone. These are extraordinarily special places that provide 
opportunities for our children and grandchildren to learn about what it 
means to be an American and to be awed by a glacier or a geyser, or 
simply to sit with their families and watch deer saunter by. We have a 
fundamental responsibility to care for them, to hand them down to the 
next generation in at least as good a shape as we found them on our 
watch. The continuing decline in national park budgets and other 
discretionary spending--which is not really providing the long-term 
budgetary relief the times demand--threatens our ability to carry out 
this national responsibility.
    We hope to work with you to identify ways in which we can be 
helpful in this climate that we understand is challenging for the 
committee. We hope that together we can identify a way to prevent our 
national parks from becoming a casualty of a broken budget process.
    Again, thank you for the opportunity to testify. I'd be happy to 
answer any questions you or other members of the subcommittee may have.
                                 ______
                                 
   Prepared Statement of the National Recreation and Park Association
    Thank you Chairman Reed, Senator Murkowski, and other honorable 
members of the subcommittee for the opportunity to submit written 
testimony pertaining to funding for the Land and Water Conservation 
Fund's (LWCF) State Assistance Program and the Urban Parks and 
Recreation Recovery Program (UPARR) in the fiscal year 2014 Interior 
Appropriations bill.
                      overview of funding request
    As outlined below, we encourage you to renew the Federal investment 
in the LWCF. However, given that the purpose of the act is to help 
preserve, develop, and assure access to outdoor recreation facilities 
to strengthen the health of U.S. citizens, we urge you to make a 
greater investment in States and local communities by:
  --Allocating a minimum of 40 percent of fiscal year 2014 LWCF 
        appropriations to the State Assistance Program;
  --Maintaining the State Assistance Program's distribution formula in 
        its current form; and
  --Allocating $15 million in funding for the UPARR in fiscal year 2014 
        out of total LWCF appropriations.
           about the national recreation and park association
    The National Recreation and Park Association (NRPA) is a nonprofit 
organization working to advance parks, recreation and environmental 
conservation efforts nationwide. Our members touch the lives of every 
American in every community every day. Through our network of 
approximately 30,000 citizen and professional members we represent park 
and recreation departments in cities, counties, townships, special park 
districts, and regional park authorities, along with citizens concerned 
with ensuring close-to-home access to parks and recreation 
opportunities exist in their communities.
    40 percent allocation of total lwcf appropriations to the state 
                           assistance program
    There is a common misconception that LWCF is merely a Federal land 
acquisition program. Nothing could be further from the truth, as the 
LWCF State Assistance Program provides dollar-for-dollar matching 
grants to States and local communities for the construction of outdoor 
recreation projects. The land purchased with LWCF State Assistance 
funding remains the property of the State or local government, and the 
resources developed through the LWCF remain publicly accessible in 
perpetuity.
    The LWCF provides numerous benefits to local communities across 
America, and it does so through a well-recognized and dedicated funding 
source--namely oil and gas leasing revenues. More than $6 billion a 
year is provided through these leases, with a small fraction provided 
to the LWCF. Unfortunately an even smaller fraction is provided to the 
State Assistance Program. This is in large part due to the fact that 
current law mandates that a minimum of 40 percent of the total LWCF 
annual appropriations must be provided to the Federal land acquisition 
program without specifying an amount for the State Assistance Program.
    As a result, States and local communities have historically 
received a very disproportionate share of the total LWCF 
appropriations, with only 11 percent of total LWCF funding going to the 
State Assistance Program since 1998. Most recently, in fiscal years 
2012 and 2013, you provided approximately $322 million for the LWCF, 
with $44 million, or 13 percent, allocated to the State Assistance 
Program.\1\ We appreciate that you've recently recognized the 
importance of the State Assistance Program and allocated a larger 
percentage of total LWCF appropriations to it. For nearly 50 years, 
however, the bulk of the work to carry out purpose of the act has 
fallen on local communities to handle alone. For the reasons outlined 
below, we are asking you to empower States and local communities to do 
more to preserve, develop, and assure access to outdoor recreation 
facilities to strengthen our Nation by allocating 40 percent of total 
LWCF appropriations to the State Assistance Program in fiscal year 
2014.
---------------------------------------------------------------------------
    \1\ Amounts reflect amounts provided through appropriations and do 
not reflect sequestration reduction.
---------------------------------------------------------------------------
  lwcf state assistance's return on investment and return on objective
    One of the key aspects of the LWCF State Assistance Program is the 
ability to create jobs. The outdoor recreation industry, as such is 
supported by LWCF State Assistance, is an economic powerhouse in the 
United States. According to the Outdoor Industry Association, the 
industry generates $646 billion in consumer spending and supports more 
than 6 million jobs annually.\2\ Impressively, this section of the 
economy continues to grow even during the ongoing economic recession, 
and thus has enormous potential to immediately create new jobs. For 
example, the Outdoor Industry Association reported in October 2011 that 
the outdoor recreation industry grew at a rate of 5 percent annually 
between 2005 and 2011. Considering there are 7,800 State and more than 
100,000 locally managed parks throughout the country, it is obvious 
that outdoor recreation is most prevalent at the State and local level. 
In fact, the National Association of State Park Directors reports that 
America's State park system contributes $20 billion to local and State 
economies each year.\3\ There is no doubt, that it is the LWCF State 
Assistance Program that provides the places, spaces, and opportunities 
for outdoor recreation which stimulates the outdoor industry.
---------------------------------------------------------------------------
    \2\ Outdoor Industry Association, ``The Outdoor Recreation Economy 
Report 2012.''
    \3\ NASPD Annual Report, March 2013.
---------------------------------------------------------------------------
    When viewed through the lens of the importance of the American 
outdoor recreation industry, the LWCF State Assistance Program has, for 
more than four decades, achieved a proven return on investment (ROI) 
demonstrated by the fact that $3.7 billion in Federal support has 
leveraged nearly $4 billion additional in matching funds. But the 
benefits of this program don't stop there, as the State Assistance 
Program has not only provided a ROI, but has also done a tremendous job 
of providing an outstanding return on objective for the American 
taxpayer by ensuring access for all.
    It is well known that not everyone has the ability to visit one of 
our treasured national parks, and even those who do so are unable to on 
a regular basis as national parks are often vacation destinations or 
once-in-a-lifetime trips. To the average American, however, the 
neighborhood park--down the street, open and accessible to the public, 
and without an admission fee--is the most important public space in 
their lives. Many of our country's local places, spaces, and 
opportunities for outdoor recreation are provided through this program, 
with more than 40,000 grant projects located in 99 percent of America's 
counties.
    The State Assistance Program is the only Federal investment tool 
dedicated to ensuring that Americans have access to local public 
recreation opportunities. Because the LWCF State Assistance Program 
provides close-to-home recreation opportunities, millions of Americans, 
young and old, are annually connected with nature and provided the 
ability to be physically active and simply enjoy a life that they may 
otherwise be denied.
    The LWCF State Assistance Program ensures that local communities, 
such as Thurmont, Maryland and Talladega, Alabama have places where 
adults and children can go to recreate and enjoy the outdoors. It is a 
means by which this committee can provide investment to critically 
important local parks, including: Elmore State Park in Vermont; the new 
soccer field at Sisterhood Park in Anchorage, Alaska; and Lions Park in 
Bismarck, North Dakota. Each of the aforementioned communities 
benefited from State Assistance grant funding in fiscal year 2012.
    lwcf state assistance provides health and environmental benefits
    In addition to creating jobs and ensuring access for all, the LWCF 
State Assistance Program delivers tangible health benefits, 
contributing to the overall health and well-being of Americans.
    The National Park Service recognizes this through its Healthy Parks 
Healthy People U.S. initiative, which aims to increase public 
recognition of parks and public lands (including State, local, and 
regional park and trail systems) as places for the promotion of 
physical, mental, and social health. The CDC reports that childhood 
obesity has tripled in the last 30 years, less than 25 percent of 
adults engage in recommended levels of physical activity, and that 
obesity is a leading cause of chronic disease. As noted by the CDC, 
increased access to parks, green space, and recreation opportunities is 
essential to becoming a healthier Nation and reducing unsustainable 
healthcare costs.
    The LWCF State Assistance Program also significantly contributes to 
protecting the environment and promoting environmental stewardship. 
LWCF State Assistance projects have a historical record of contributing 
to reduced and delayed stormwater runoff volumes, enhanced groundwater 
recharge, stormwater pollutant reductions, reduced sewer overflow 
events, increased carbon sequestration, urban heat island mitigation 
and reduced energy demands, resulting in improved air quality, 
increased wildlife habitat, and increased land values on the local 
level.
 maintaining the lwcf state assistance program's current distribution 
                                formula
    As noted above, close-to-home public parks and recreation are 
available to every age, ethnicity, gender, and socio-economic class in 
every community, both urban and rural, in every State. This is made 
possible because LWCF State Assistance funding has always been 
allocated by formula, whereby a portion of funds are equally allocated 
among all States and territories and the remainder is allocated based 
on population. This ensures that 100 percent of the State Assistance 
funding is equitably distributed throughout the Nation.
    In fiscal year 2012 and fiscal year 2013, attempts were made to 
change the LWCF State Assistance distribution formula for the purposes 
of a Department of the Interior (DOI)-controlled competitive grant 
program whereby DOI officials would decide the needs of local 
communities. NRPA believes that local needs are best determined and 
addressed at the community level. For almost 50 years this has been 
achieved through the balanced, formula-based distribution approach of 
the State Assistance Program. We thank you for preserving the State 
Assistance Program's existing distribution formula in fiscal years 2012 
and 2013 and ask you to continue that preservation in fiscal year 2014.
    revitalizing urban parks and recreation through funding of uparr
    While the LWCF has indeed benefited virtually every community in 
the country, many of our Nation's cities and urbanized counties face 
distinct challenges that require additional resources. Recognizing this 
fact as well as the importance of public parks and recreation to larger 
urban renewal and community development efforts, Congress established 
the Urban Parks and Recreation Recovery Program (UPARR) to provide 
matching grants directly to localities in metropolitan areas. Over the 
course of more than two decades UPARR provided $272 million for nearly 
1,500 projects in 380 communities. This enabled neighborhoods across 
the country to restore both outdoor and indoor recreation facilities; 
support innovative recreational programming and enhance delivery of 
services and programs that provided constructive alternatives to at-
risk youth.
    Despite its successes, UPARR has not been funded since fiscal year 
2002, yet many of the urban open space and recreation challenges still 
exist today. NRPA is very pleased to see UPARR in the President's 
fiscal year 2014 budget and calls on Congress to update and fund this 
needed program to enable metropolitan areas to address quality of life, 
health and wellness, and conservation issues as they improve their 
communities and make them more attractive for families and businesses 
alike. Both LWCF State Assistance and UPARR are critical to providing 
Americans close to home recreation opportunities. The programs 
complement each other and NRPA implores Congress to fund UPARR from 
total LWCF appropriations but not at the expense of the already 
underfunded State Assistance Program.
    Mr. Chairman and members of the committee, few programs can address 
so many national priorities as effectively as the LWCF State Assistance 
Program and UPARR do, with so few dollars and without negatively 
impacting the Federal budget. This subcommittee and Congress have the 
rare opportunity to achieve national goals without increasing spending 
or adding to the deficit, and can do so by adopting three simple 
recommendations: Allocate a minimum of 40 percent of LWCF funding to 
the State Assistance Program; prohibit any diversion, or change to, the 
formula funding being made available to States through the State 
Assistance Program; and address the need for improved infrastructure in 
urban areas by allocating a portion of the total LWCF funding to UPARR.
    Thank you again for the opportunity to share NRPA's recommendations 
and your consideration of our request.
                                 ______
                                 
     Prepared Statement of the Natural Science Collections Alliance
    The Natural Science Collections Alliance appreciates the 
opportunity to provide testimony in support of fiscal year 2014 
appropriations for the Department of the Interior (DOI). We encourage 
Congress to provide the DOI Working Capital Fund with at least $62 
million in fiscal year 2014. The NSC Alliance also supports the 
administration's budget request for the United States Geological Survey 
(USGS), which utilizes and curates various scientific collections in 
support of USGS science and provides collections-based information to 
other DOI bureaus. We encourage Congress to also work to provide 
adequate funding for the scientific collections maintained by other DOI 
bureaus, such as the National Park Service, Bureau of Land Management, 
and Fish and Wildlife Service. These collections are used to inform 
resource management and support law enforcement efforts.
    The Natural Science Collections Alliance is a nonprofit association 
that supports natural science collections, their human resources, the 
institutions that house them, and their research activities for the 
benefit of science and society. Our membership consists of institutions 
which are part of an international community of museums, botanical 
gardens, herbaria, universities, and other institutions that contain 
natural science collections and use them in research, exhibitions, 
academic and informal science education, and outreach activities.
    Scientific collections are a vital component of our Nation's 
research infrastructure. Whether held at a national museum, Government 
managed laboratory or archive, or in a university science department, 
these scientific resources contain genetic, tissue, organismal, and 
environmental samples that constitute a unique and irreplaceable 
library of the Earth's history. The specimens and their associated data 
drive cutting edge research on significant challenges facing modern 
society, such as improving human health, enhancing food security, and 
understanding and responding to environmental change. Collections also 
inspire novel interdisciplinary research that drives innovation and 
addresses some of the most fundamental questions related to 
biodiversity.
    The institutions that care for scientific collections are important 
research centers that enable scientists to study the basic data of 
life, conduct modern biological, geological, and environmental 
research, and provide undergraduate and graduate students with hands-on 
training opportunities.
    The Federal Interagency Working Group on Scientific Collections 
(IWGSC) was established by President Bush to evaluate the status of 
federally owned object-based scientific collections. In 2009, the IWGSC 
reported that, ``scientific collections are essential to supporting 
agency missions and are thus vital to supporting the global research 
enterprise.'' In response, in 2010, the Office of Science and 
Technology Policy directed Federal agencies to budget for the proper 
care of collections. ``Agencies should ensure that their collections' 
necessary costs are properly assessed and realistically projected in 
agency budgets, so that collections are not compromised.''
    We are pleased to see that DOI has included an increase of $2 
million in its budget request for the Cultural and Scientific 
Collections program. Interior is an important caretaker of museum 
collections; the Department has an estimated 146 million items, which 
is second in size to the Smithsonian Institution. Although many of the 
Department's collections are located in bureau facilities, artifacts 
and specimens are also housed by nongovernmental facilities, such as 
museums and universities.
    The fiscal year 2014 budget request would implement a multi-year 
action plan to address recommendations made by the DOI Inspector 
General regarding Interior's accountability for its cultural and 
scientific specimens. In a December 2009 report, the Inspector General 
found that DOI has failed to properly accession, catalogue, or 
inventory museum collections, leaving artifacts ``unavailable for 
research, education, or display and . . . subject to theft, 
deterioration, and damage.'' The proposed budget increase would reduce 
the collections' accessioning and cataloging backlog; identify and 
assess collections housed at non-Federal locations; correct identified 
deficiencies in accountability, preservation, and protection of 
Interior cultural and scientific collections; and pursue opportunities 
for consolidation of bureau and non-bureau facilities housing 
collections.
    We support the proposed DOI study of bureau and non-bureau 
facilities housing biological collections to determine the potential 
for economies of scale, improvements of oversight and accountability, 
and space reduction. Because excellent public and private facilities 
already exist in every State, we believe the study is likely to 
conclude that contracting with existing bio-repositories that have the 
experience and expertise to house and curate the collections and 
associated data will be the most efficient and cost-effective means by 
which Federal agencies can access the collections data required to 
accomplish agency missions. We applaud the increased recognition by DOI 
and other Federal departments of the immense importance of biological 
collections and the data they provide in support of the Nation's 
research enterprise that ultimately drives economic growth, improves 
human health, addresses energy needs, and enables sustainable 
management of our natural resources.
    The National Park Service is also planning to continue its 
investments in scientific collections. The proposed budget would 
support plans to catalog an additional 2 million museum objects in 
fiscal year 2014. Additionally, several parks will complete collections 
plans for fire protection, pest management, storage, and emergency 
operations.
    The United States Geological Survey would expand its efforts to 
preserve, inventory, and digitize geological scientific collections, 
such as rock and ice cores, fossils, and samples of oil, gas, and 
water. The proposed $400,000 increase within Core Science Systems would 
be used to help States with collections management, improve 
accessibility of collections data, and expand digitization of 
specimens.
                               conclusion
    Scientific collections are an important part of our Nation's 
research enterprise. Research specimens connect us to the past, are 
used to solve current societal problems, and are helping to predict 
future environmental changes. Continued investments in scientific 
collections are critical for our Nation's continued scientific 
leadership. Please support the budget request for the Department of the 
Interior's Capital Working Fund, which will support Interior's efforts 
to preserve scientific collections--a truly irreplaceable resource.
    Thank you for your thoughtful consideration of this request.
                                 ______
                                 
       Prepared Statement of the Norton Sound Health Corporation
    The requests of the Norton Sound Health Corporation (NSHC) for the 
fiscal year 2014 Indian Health Service (IHS) budget are as follows:
  --Appropriate an additional $13.58 million to staff and operate the 
        newly opened Norton Sound Regional Hospital, as requested by 
        the administration.
  --Direct the IHS to use existing fiscal year 2014 appropriations to 
        fully fund the Village Built Clinic (VBC) leases in accordance 
        with section 804 of the Indian Health Care Improvement Act and 
        allocate an additional $8.2 million to VBC leases.
  --Fully fund contract support costs at $617 million, an amount $140 
        million over the President's fiscal year 2014 budget request. 
        We also ask that the committees direct the IHS to immediately 
        release the outstanding fiscal year 2011 and fiscal year 2012 
        CSC shortfall reports.
  --Reject the administration's proposal to preclude CSC shortfall 
        recovery by specifying in the appropriations bill amounts for 
        individual Self-Determination contracts.
  --Shield the IHS from sequestration.
    The Norton Sound Health Corporation is the only regional health 
system serving northwestern Alaska. It is on the edge of the Bering 
Sea, just miles from the Russian border. We are not connected by road 
with any part of the State and are 500 air miles from Anchorage--about 
the distance from Washington, DC to Portland, Maine. Our service area 
encompasses 44,000 square miles, approximately the size of Indiana. We 
are proud that our system includes a tribally owned regional hospital 
which is operated pursuant to an Indian Self-Determination and 
Education Assistance Act (ISDEAA) agreement, and 15 village-based 
clinics.\1\ The logistics and costs associated with travel and 
transportation are a daily challenge, to say the least.
---------------------------------------------------------------------------
    \1\ We serve the communities of: Brevig Mission, Council, Diomede, 
Elim, Gambell, Golovin, King Island, Koyuk, Mary's Igloo, Nome, St. 
Michael, Savoonga, Shaktoolik, Shishmaref, Solomon, Stebbins, Teller, 
Unalakleet, Wales, and White Mountain.
---------------------------------------------------------------------------
    Additional Funding Needed To Staff New Hospital Facility.--NSHC 
gained beneficial occupancy of its new replacement hospital and 
ambulatory care center facility in Nome in June 2012, the construction 
of which was funded by the Recovery Act. The IHS and NSHC have 
successfully worked as Government-to-Government partners to construct 
and furnish the new facility.
    The replacement facility is almost three times the size of the 
former Norton Sound Regional Hospital and will allow for increased 
patient visits in the primary and acute care areas, including chronic 
disease prevention and management, and allow us to provide enhanced 
trauma and emergency services. NSHC needs to hire additional staff for 
the new replacement facility including pharmacists, laboratory and X-
ray technicians, maintenance, information technology, housekeeping and 
security personnel.
    Now that the new facility is open, IHS has only to fund the 
expanded staffing needs for operation of the replacement hospital. We 
need the full amount requested by the President in his fiscal year 2014 
budget--or an additional $13.58 million--in staffing/operating funds to 
allow optimal use of the facility. These funds, combined with the over 
$10 million staffing funds provided in the fiscal year 2013 
appropriations will ensure that NSHC will be able to safely carry out 
its mission in the new hospital.
    It is important to note that the new hospital is located in a 
medically underserved area and has one of the highest Health 
Professions Shortage Area (HPSA) scores in the Nation. NSHC has been 
greatly limited in its ability to recruit and hire medical 
professionals, instead having to focus primarily on hiring core 
operational staff. It is very difficult for us to successfully recruit 
medical staff to Nome, particularly individuals who will need to move 
to Nome with their families, based solely on our anticipation that 
Congress might make additional staffing funds available to NSHC 
sometime in the future. To fully realize the potential of the new 
replacement hospital, and to ensure that we can safely provide adequate 
and expanded healthcare services to the people in our region, we need 
the full amount of $13.58 million that the President has asked for in 
his budget.
    Assistance Needed To End Chronic Underfunding of Village Built 
Clinics.--The NSHC healthcare system includes 15 Village Built Clinics 
(VBCs). The VBCs are essential for maintaining the IHS Community Health 
Aide Program (CHAP) in Alaska, which provides the only local source of 
healthcare for many Alaska Native people in rural areas. The CHAP 
program is mandated by Congress as the instrument for providing basic 
health services in remote Alaska Native villages. The CHAP program 
cannot operate without the use of clinic facilities.
    The IHS has for many years consistently underfunded the leases of 
VBCs even though the IHS has had available appropriations to fully fund 
the leases. Lease rental amounts for the VBCs have failed to keep pace 
with costs--the majority of the leases for VBCs have not increased 
since 1989. The IHS has instead shifted its statutory responsibilities 
onto the villages and NSHC, which does not have adequate financial 
resources to maintain and upgrade the VBCs for CHAP staff. As a result, 
many of the VBCs are unsafe or have had to be closed, leaving some 
villages in Alaska without a local healthcare facility.
    As we indicated in our joint testimony to the subcommittees last 
year, NSHC and many other tribal organizations in Alaska have discussed 
this issue with the IHS on several occasions, and have proposed 
solutions that the IHS continues to ignore. IHS continues to assert 
that it provides for VBC leases all of the funds that Congress has 
appropriated for the program. In our view, the amounts historically 
traceable to the VBC leases are not capped by statute and are not the 
only funds available for that program. The Indian Health Facilities 
appropriation is a lump-sum appropriation that can be used for 
construction, repair, maintenance, improvements and equipment, and 
includes a sub-activity for maintenance and improvement of IHS 
facilities. The VBCs are IHS facilities acquired by lease in lieu of 
construction and should thus be eligible for maintenance and 
improvement funding. The IHS can also access other IHS discretionary 
funds to fully fund its VBC obligations.
    For the fiscal year 2014, we urge that an additional $8.2 million 
be appropriated to help fully fund VBC leases. We also ask that 
Congress direct the IHS to use existing fiscal year 2014 appropriations 
to fully fund the VBC leases in accordance with section 804 of the 
Indian Health Care Improvement Act.
    Contract Support Costs Must Be Fully Funded.--NSHC appreciates that 
Congress has in recent years increased funding for IHS contract support 
costs owed to tribes and tribal organizations under the Indian Self-
Determination and Education Assistance Act and Federal case law. Even 
with these additional appropriated funds, the ongoing shortfall of CSC 
continues to impose significant hardships on NSHC and its patients. We 
urge the subcommittees to continue to push for full funding of CSC so 
that CSC underfunding is finally resolved. While it is difficult to 
estimate the full CSC need for fiscal year 2014--in part because IHS 
refuses to release its CSC distribution data for the last 2 years, as 
discussed further below--based on projections from fiscal year 2010 we 
estimate that the total need in fiscal year 2014 to be $617 million.
    Given the progress toward full CSC funding in recent years, we are 
dismayed that the administration's budget request proposed only a 
minimal increase for IHS CSC to $477,205,000. This would force tribes 
to absorb almost $140 million in uncompensated costs for overhead and 
administration of Federal programs. This continued shortfall 
compromises NSHC's ability to serve its patients. We urge the 
committees to fully fund IHS CSC at $617 million.
    Just as disheartening is the administration's proposed 
appropriations act language that attempts to preclude tribes from 
recovering any of their CSC shortfalls through contract actions, which 
the Supreme Court said is their right in the Salazar v. Ramah Navajo 
Chapter case from 2012. The proposed bill language would incorporate by 
reference a table identifying the maximum amount of CSC available for 
every single ISDEAA agreement. This process is unworkable, and has been 
proposed with zero input from tribes and other ISDEAA contractors. We 
urge that the subcommittee reject this proposed approach and, instead, 
fully fund CSC for both IHS and BIA.
    Direct the Indian Health Service To Release CSC Shortfall Data.--
The IHS has failed to provide CSC shortfall reports to Congress for 
fiscal years 2011 and 2012. The IHS must submit these reports no later 
than May 15 of each year, per section 106(c) of the ISDEAA, 25 U.S.C. 
Sec. 450j-1(c). NSHC and other ISDEAA contractors recently asked the 
IHS to share the CSC distribution data for those years. Access to the 
CSC shortfall data is critical to our ability to understand the IHS's 
view of the scope of CSC underfunding, to evaluate IHS's allocation of 
its insufficient past CSC appropriations, and to pursue full CSC 
funding moving forward. The IHS has repeatedly refused to make the 
reports available, most recently at a March 2013 meeting with the IHS 
Area Lead Negotiator for the Alaska Area. We thus ask that the 
committees direct the IHS to immediately release the fiscal years 2011 
and 2012 CSC shortfall reports--and all future reports--in a timely 
manner, as required by the ISDEAA.
    Protect the Indian Health Service From Sequestration.--The Office 
of Management and Budget determined that the IHS's appropriation is 
fully sequestrable, which resulted in a $220 million cut in funding to 
the IHS for fiscal year 2013--roughly 5 percent of the IHS's overall 
budget. IHS lost $195 million for programs like hospitals and health 
clinics services, contract health services, dental services, mental 
health and alcohol and substance abuse. Programs and projects necessary 
for maintenance and improvement of health facilities felt these same 
impacts. These negative effects are then passed down to every ISDEAA 
contractor, including NSHC. NSHC is already significantly underfunded, 
resulting in further cuts to the availability of health services we are 
able to provide to our patients, resulting in real consequences for 
individuals who have to forego needed care.
    We suffer these reductions and experience these new challenges to 
providing healthcare for the people of the NSHC region, despite the 
United States' trust responsibility for the health of Alaska Native and 
American Indian people. We fail to understand why this responsibility 
was taken less seriously than the Nation's promises to provide health 
to our veterans. The Veterans Health Administration (VA) was made fully 
exempt from the sequester for all programs administered by the VA. See 
section 255 of the Balanced Budget and Emergency Deficit Control Act 
(BBEDCA), as amended by Public Law 111-139 (2010). Also exempt are 
State Medicaid grants, and Medicare payments are held harmless except 
for a 2 percent reduction for administration of the program. Yet the 
IHS--which already faces low funding--was subject to full cuts. We thus 
strongly urge the subcommittee to support amendment of the BBEDCA to 
fully exempt the IHS from any future sequestration, just as the VA and 
other health programs are exempt.
    Thank you for your consideration of our request that adequate 
fiscal year 2014 IHS staffing funding be made available for the NSHC 
replacement hospital. We are very excited about the possibilities this 
facility brings for improved healthcare for the people of Northwestern 
Alaska. We also appreciate the committees' consideration of our 
requests to address the chronic underfunding of Village Built Clinics 
and contract support costs. We are happy to provide any additional 
information you may request.
                                 ______
                                 
    Prepared Statement of the National Tribal Contract Support Cost 
                               Coalition
    My name is Lloyd Miller and I am a partner in the law firm of 
Sonosky, Chambers, Sachse, Miller and Munson, LLP. I appear here today 
as counsel to the National Tribal Contract Support Cost Coalition. The 
Coalition is comprised of 20 Tribes and tribal organizations situated 
in 11 States and collectively operating contracts to administer $400 
million in IHS and BIA services on behalf of over 250 Native American 
Tribes.\1\ As the NTCSC Coalition has frequently stated to this 
committee, the payment of contract support costs is essential to the 
proper administration of Federal contracts awarded under the Indian 
Self-Determination Act.
---------------------------------------------------------------------------
    \1\ The NTCSCC is comprised of the: Alaska Native Tribal Health 
Consortium (Alaska), Arctic Slope Native Association (Alaska), Central 
Council of the Tlingit & Haida Indian Tribes (Alaska), Cherokee Nation 
(Oklahoma), Chippewa Cree Tribe of the Rocky Boy's Reservation 
(Montana), Choctaw Nation (Oklahoma), Confederated Salish and Kootenai 
Tribes (Montana), Copper River Native Association (Alaska), Forest 
County Potawatomi Community (Wisconsin), Kodiak Area Native Association 
(Alaska), Little River Band of Ottawa Indians (Michigan), Pueblo of 
Zuni (New Mexico), Riverside-San Bernardino County Indian Health 
(California), Shoshone Bannock Tribes (Idaho), Shoshone-Paiute Tribes 
(Idaho, Nevada), SouthEast Alaska Regional Health Consortium (Alaska), 
Spirit Lake Tribe (North Dakota), Tanana Chiefs Conference (Alaska), 
Yukon-Kuskokwim Health Corporation (Alaska), and the Northwest Portland 
Area Indian Health Board (43 Tribes in Idaho, Washington, Oregon).
---------------------------------------------------------------------------
    I noted last year that no single enactment has had a more profound 
effect on more tribal communities than the Indian Self-Determination 
Act. In just three decades Tribes and inter-tribal organizations have 
taken control over vast portions of the Bureau of Indian Affairs and 
the Indian Health Service, including Federal Government functions in 
the areas of healthcare, education, law enforcement and land and 
natural resource protection. Today, not a single Tribe in the United 
States is without at least one self-determination contract with the IHS 
and BIA, and collectively the Tribes administer some $2.8 billion in 
essential Federal Government functions, employing an estimated 35,000 
people. Contract support cost issues thus touch every Tribe in the 
United States.
    In 2012, the Supreme Court ruled that ``[c]onsistent with 
longstanding principles of Government contracting law, we hold that the 
Government must pay each tribe's contract support costs in full.'' 
Salazar  v. Ramah Navajo Chapter, 132 S. Ct. 2181, 2186 (2012). The 
Court emphasized that ``the Government's obligation to pay contract 
support costs should be treated as an ordinary contract promise.'' Id. 
at 2188. Two months later, the U.S. Court of Appeals for the Federal 
Circuit applied this ruling to the Indian Health Service, concluding 
that ``[t]he Secretary [was] obligated to pay all of ASNA's contract 
support costs for fiscal years 1999 and 2000.'' Arctic Slope Native 
Ass'n, Ltd. v. Sebelius, No. 2010-1013, Order at 6, 2012 WL 3599217 
(Fed. Cir. Aug. 22, 2012). In short, it is now beyond any reasonable 
debate that the payment of contract support costs is a binding 
contractual obligation due all Tribes that operate BIA and IHS 
contracts.
    The administration has not embraced the rule of law; it has instead 
sought to change it.
    First, it has submitted a budget which falls $140 million short of 
what is required to honor all tribal contracts with the Indian Health 
Service. The budget is also $12 million short of what is required to 
honor all BIA contracts.
    Second, it has defiantly proposed a statutory amendment-by-
appropriation, seeking to cut off all future contract rights. It has 
done this by proposing to give legal effect to a ``table'' which the 
Secretary would someday provide to this committee, specifying the 
maximum amount each tribal contractor would be entitled to be paid. 
Since each tribal contract is ``subject to the availability of 
appropriations,'' the administration hopes this language will limit 
what is ``available'' to the amount in the ``table.'' The 
administration does not propose that a Tribe cut back on its 
administration of a contracted hospital or clinic, or a police 
department or detention center. It only proposes to cut off what the 
Government would pay for those services.
    This is an outrageous and unwarranted overreaction by the 
administration to another loss in the courts. But it is not surprising. 
For years the agencies have kept their heads in the sand about their 
contract obligations to the Tribes. They have acted as if these 
contracts were just another program to be balanced against other 
programs or activities the agencies felt were important to prioritize, 
including protecting and growing their internal bureaucracies. They 
have treated these self-determination contracts as second-class 
contracts, and the Indian Tribes as second-class contractors. They 
would never behave in this fashion if an IHS hospital were contracted 
out to Sisters of Providence, or a BIA detention center were contracted 
out to the Corrections Corporation of America. Yet they find it 
perfectly acceptable to do so when the contract is with an Indian 
Tribe.
    What is perhaps most striking is that the administration has 
proposed converting these contracts into second-class contracts only 
months after a Supreme Court ruling which declared these to be 
``ordinary contract promise[s]'' which must be paid in full. It is 
nothing short of dishonorable--even discriminatory--for the 
administration now to propose a special limitation applicable to Indian 
contracts only. I am also concerned that it may be confiscatory, and 
thus unconstitutional under the Fifth Amendment, for it tells the 
Tribes they must do their contracted work and accept less-than-full 
payment, to be set at the agency's whim and with no recourse.
    It is, of course, the ``no recourse'' aspect of this new idea that 
is most troubling. For over 120 years it has been bedrock law that if 
the Government cannot, or will not, pay a contractor, the contractor 
has recourse through the courts. Ferris  v. United States, 27 Ct. Cl. 
542, 546 (1892). If an overall appropriation is capped (as has been the 
case with contract support costs), there is recourse in the courts for 
those tribal contractors who suffer underpayments. A judicial remedy 
for any underpayment permits a cap to withstand legal, and 
constitutional, scrutiny. But once that relief valve is shut off, the 
risk of unconstitutional action rises. In Cherokee Nation v. Leavitt, 
the Supreme Court warned that ``[a] statute that retroactively 
repudiates the Government's contractual obligation may violate the 
Constitution.'' 543 U.S. 631, 646 (2005). The Court also warned against 
the ``practical disadvantages flowing from governmental repudiation.'' 
Id.
    Consider what it is the administration is actually proposing. The 
administration is not proposing that the appropriations act include a 
line-item specifying the maximum amount of funding available to pay a 
given contractor. That is what occurred in Sutton  v. United States, 
256 U.S. 575 (1921), and that is one of the options the Supreme Court 
described in Ramah, 132 S. Ct. at 2195 (``Congress could elect to make 
line-item appropriations, allocating funds to cover tribes' contract 
support costs on a contractor-by-contractor basis.''). Instead, the 
administration is proposing that the agencies, and not Congress, would 
specify how much each Tribe would be paid--but just in contract support 
costs--and the agencies would do so only after the contract support 
cost appropriation is enacted and after the agencies have made an 
assessment about how they wish to divide up that appropriation. They 
would do all this long after the Tribes had signed their contracts, 
long after the Tribes had substantially performed those contracts, and 
long after the Tribes had incurred costs carrying out those contracts.
    In essence, the administration proposes that a Tribe should 
contract to run a hospital, clinic or detention center for a full year, 
but that if any shortfall occurs in the required administrative costs--
costs that the Government, itself, sets--then the Tribe must somehow 
contribute the unpaid balance. That sort of forced volunteer services 
may well violate the appropriations clause, by effectively taking away 
from Congress the power to regulate spending on Federal projects. 
Serious constitutional problems are also implicated when the agency 
makes an after-the-fact determination that the Government is not going 
to pay for services rendered. These are certainly not the 
straightforward ``line-item appropriations'' that the Supreme Court 
said were possible if Congress wanted to limit the Government's 
exposure for contract damages.
    For the foregoing reasons, the National Tribal Contract Support 
Cost Coalition respectfully urges the committee to reject the 
administration's effort to radically alter both the structure of the 
annual appropriations bill and the fundamental nature of Indian Self-
Determination Act contracts. If a sea change in Federal Indian policy 
is to be considered by Congress, and if the change potentially 
implicates issues of constitutional dimension, due deliberation should 
begin with the authorizing committees, starting with the Senate 
Committee on Indian Affairs.
    In sum:
  --The Coalition respectfully suggests that this committee reject the 
        administration's proposed restructuring of the appropriations 
        act.
  --The Coalition further respectfully suggests that the committee 
        either eliminate the current caps (as was the case with the IHS 
        appropriation until fiscal year 1998, and with the BIA until 
        fiscal year 1994), or raise the IHS cap to $617 million and the 
        BIA cap to $242 million. Whatever funding levels are fixed in 
        the bill, tribal contractors should not be denied the remedies 
        that every other Government contractor possesses, and which the 
        Supreme Court in the Ramah and Cherokee cases confirmed protect 
        Indian contractors, too.
  --The Coalition also respectfully suggests that the administration be 
        directed to engage Tribes in true and thoughtful government-to-
        government consultation, consistent with President Obama's 
        November 5, 2009 memorandum directing full implementation of 
        Executive Order 13175 (``Consultation and Coordination with 
        Indian Tribal Governments''), 65 Fed. Reg. 67,249 (2000). In so 
        doing, the administration should be directed to work with the 
        National Congress of American Indians, impacted tribal 
        organizations, and experts in the field. If legislative changes 
        are deemed necessary, the goal should be the development of a 
        joint Federal-tribal proposal. The administration should be 
        directed not to bring any proposal to this committee sooner 
        than the fiscal year 2016 appropriations cycle, to be sure that 
        any Federal-tribal proposal that is brought forward has been 
        fully vetted in advance with the relevant authorizing 
        committees.
  --Finally, the Coalition requests that the committee take firm action 
        to force the disclosure of IHS data the Secretary has failed to 
        share with Congress and the Tribes, contrary to Federal law. 
        Section 106(c) of the act requires that an annual shortfall 
        report on past and anticipated contract underpayments be 
        delivered to Congress by May 15. The IHS report on fiscal year 
        2011 data--2 year old data--has still not been submitted to 
        Congress. The 2009 and 2010 reports were only submitted last 
        fall, the former report 3 years late. Without accurate data, 
        this committee cannot perform its constitutional function. 
        Without accurate data, Tribes cannot know what the agencies are 
        doing with their contract funds.
      Since the agencies invoke the ``deliberative process privilege'' 
        under 5 U.S.C. Sec. 552(b)(5) to resist disclosure, we request 
        the insertion of language waiving that provision for all CSC 
        data not disclosed on or before May 15. Past data errors are a 
        reason to disclose data, not to keep it secret long until after 
        it is useful. The recent withholding of CSC payment data must 
        stop.
  --On a related note, the President's budget now routinely omits any 
        mention of the total projected amounts required for IHS and BIA 
        contract payments. Until the fiscal year 2011 budget, such 
        projections were routinely included in the budget narrative. 
        The Coalition respectfully requests that the committee direct 
        the Secretaries to include this data in future budget 
        submissions.
      By any measure, the Indian Self-Determination Act has been a 
        stunning success, most importantly for the Indian citizens 
        served, but also in the strengthening and maturing of modern 
        tribal government institutions. Now is not the time to adopt 
        changes that will inevitably drive Tribes to retrocede their 
        contracted activities to the Federal Government, turning back 
        the clock on the most successful initiative the United States 
        has ever launched in Indian affairs.
    On behalf of the over 250 federally recognized Tribes represented 
by the National Tribal Contract Support Cost Coalition, I humbly thank 
the committee for this opportunity to provide testimony on the 
administration's proposed fiscal year 2014 budget.
                                 ______
                                 
   Prepared Statement of the National Trust for Historic Preservation
    Mr. Chairman and members of the subcommittee, I appreciate this 
opportunity to present the National Trust for Historic Preservation's 
recommendations for fiscal year 2014 appropriations. My name is Thomas 
J. Cassidy, Jr. and I am the Vice President for Government Relations 
and Policy. The National Trust is a privately funded nonprofit 
organization chartered by Congress in 1949. We work to save America's 
historic places to enrich our future. With headquarters in Washington, 
DC, 13 field offices, 27 historic sites, 746,000 members and supporters 
and partner organizations in 50 States, territories, and the District 
of Columbia, the National Trust works to save America's historic places 
and advocates for historic preservation as a fundamental value in 
programs and policies at all levels of government.
    The Nation faces a challenging fiscal environment. The National 
Trust recognizes there is a need for fiscal restraint and cost-
effective Federal investments. However, we do not believe that 
preservation, conservation and recreation programs should suffer from 
disproportionate funding reductions. We look forward to working with 
you, Mr. Chairman, as you address the ongoing needs for investments to 
sustain our Nation's rich heritage of cultural and historic resources 
that generate lasting economic vitality for communities throughout the 
nation.
                       historic preservation fund
    The Historic Preservation Fund (HPF) is the principal source of 
funding to implement the Nation's historic preservation programs. Like 
the Land and Water Conservation Fund, its dedicated revenues are 
generated from oil and gas development on the Continental Shelf.
    The National Park Service distributes HPF grants that are matched 
by State Historic Preservation Offices (SHPOs) and Tribal Historic 
Preservation Offices (THPOs). Inadequate HPF funding limits support for 
preservation activities such as survey, inventory, public education, 
and project review for the Federal Historic Rehabilitation Tax Credit 
(HTC), State and Tribal Historic Preservation Plans, and the National 
Register of Historic Places. The HTC is the most significant Federal 
investment in historic preservation. It has catalyzed the 
rehabilitation of more than 38,700 buildings throughout the Nation. 
Since its creation more than 30 years ago, the HTC has created 2.3 
million jobs and leveraged nearly $106 billion in private investment.
    The National Trust and its preservation partners recommend at least 
$62.985 million for the Historic Preservation Fund, including $50 
million for the SHPOs and $10 million for the THPOs. Such a modest 
increase in funding would recognize the continuing demand upon these 
agencies for preservation services, including an increase in 
participation among THPOs from 131 tribes in fiscal year 2012 to an 
estimated 150 tribes in fiscal year 2014.
    We enthusiastically endorse the administration's request for $3 
million for competitive grants for the survey and nomination of 
properties to the National Register of Historic Places and National 
Historic Landmarks associated with communities currently 
underrepresented. Recent studies have documented that fewer than 5 
percent of such listings identify culturally diverse properties. This 
program would correct the underrepresentation of all the Nation's 
stories.
    We also look forward to working with the subcommittee to restore 
funding for competitive grant programs that protect our Nation's most 
significant cultural artifacts and historic structures. The Save 
America's Treasures program, for example, had been one of the largest 
and most successful grant programs to preserve endangered and 
irreplaceable cultural heritage before funding was eliminated in the 
fiscal year 2011 budget.
national park service: operation of the national park system, cultural 
                         resources stewardship
    We appreciate the administration's slight increase to this program 
over fiscal year 2012 enacted levels. Three-quarters of the 401 units 
of the National Park System were created to protect our most important 
historic and cultural resources. Over the past two decades, the 
National Park Service (NPS) has added over 35 new parks, 8 of them 
during this administration, which are predominantly cultural and 
historical in value. However, funding for cultural resources 
stewardship has not received support commensurate with natural 
resources stewardship. During the fiscal year 2010 budget hearings, 
then Acting NPS Director Dan Wenk stated that NPS had been neglectful 
of cultural resources. A report of the National Academy of Public 
Administration found that during the fiscal year 1999-fiscal year 2006 
period the NPS bolstered stewardship of natural resources by an 
additional $77.5 million. However, during this same period, funding for 
park cultural programs decreased by 28 percent. Since the release of 
the NAPA report we have seen no significant effort by NPS to create 
funding parity between natural and cultural resources in the Park Base 
Operations Funding. And, although the fiscal year 2014 budget requests 
an increase of $2.6 million over fiscal year 2012 enacted, additional 
funding is plainly needed to approach funding parity with natural 
resources stewardship. We look forward to working with the subcommittee 
to sustain an increase in funding for this program.
       national park service: facility operations and maintenance
    Of the nearly $11 billion deferred maintenance needed for NPS, $3 
billion is for the 27,000 properties in National Park units listed on 
the National Register of Historic Places. According to a report issued 
by the National Academy of Public Administration, Saving Our History: A 
Review of National Park Cultural Resource Program (2008), more than 40 
percent of historic buildings and structures in our national parks are 
in fair or poor condition. Without funding, the condition of these 
properties will continue to deteriorate and become more expensive to 
repair and preserve in the future. We support the administration's 
fiscal year 2014 request which is a modest increase over fiscal year 
2012 enacted. We also support the requested $5.3 million increase for 
line item Construction that is needed to address deferred maintenance 
and rehabilitation at a number of historic sites and National Historic 
Landmarks. The National Trust is conducting fundraising efforts to 
address the gap--most recently and successfully at White Grass Dude 
Ranch in Grand Teton National Park--but private money must be matched 
by Federal money. Continued loss of Federal maintenance money will 
reduce the opportunity to raise private funds for the preservation of 
these important structures.
    We are concerned that any reduction in the line item Construction 
account, most of which funds new construction, not adversely impact 
important rehabilitation of historic structures.
  national park service: leasing historic structures in national parks
    We appreciate the subcommittee's inclusion of language in the 
fiscal year 2012 conference report recognizing that historic leases 
provide a cost-effective and innovative solution to mitigate the 
maintenance backlog of historic structures. We are working with the NPS 
and private partners to successfully implement such leases and bring 
private investment to rehabilitation expenses. Further encouragement by 
the subcommittee to expand the use of historic leases could help 
catalyze broader use of this important authority.
    One promising new and cost-effective opportunity for the NPS and 
other Federal agencies with historic preservation responsibilities to 
address the backlog of historic maintenance in the parks is through the 
recently signed MOU establishing a new cooperative among NPS, the other 
Federal land agencies, and several NGOs, including the Student 
Conservation Association and The Corps Network. College interns, trade 
school students, and out of work youth and veterans would be trained in 
the preservation skills necessary to perform preservation work in the 
parks and other Federal lands.
             national park service: national heritage areas
    We recommend funding for National Heritage Areas (NHAs) at the 
fiscal year 2012 enacted level or higher. The administration's repeated 
proposals to reduce NHA funding, justified as ``encouraging self-
sufficiency,'' would severely impair the sustainability of the program 
and the individual NHAs that Congress has established. A recent NPS 
study found ``without funding to replace the NPS investment, few NHAs 
are expected to survive longer than a few years.'' NPS Northeast 
Region, Report of Impacts and Operation Strategy for Sunsetting 
National Heritage Areas (2012).
    During these challenging economic times, every program that 
receives Federal funding needs to justify its worth and deliver 
substantial benefits to the American public. NHAs more than meet this 
test. In its 2013 report, the Alliance of National Heritage Areas noted 
that since the program was created in 1984, the economic activity 
generated through NHAs supports approximately 148,000 jobs and $1.2 
billion annually in Federal taxes. The economic benefits of NHAs are 
realized through tourism and visitation, operational expenditures, and 
issuing grants and support. NHAs on average leverage every Federal 
dollar into $5.50 of additional public and private investment.
   bureau of land management: national landscape conservation system
    The Bureau of Land Management's (BLM) National Landscape 
Conservation System (National Conservation Lands) includes 27 million 
acres of congressionally and presidentially designated lands, including 
National Monuments, National Conservation Areas, Wilderness, Wilderness 
Study Areas, National Scenic and Historic Trails, and Wild and Scenic 
Rivers.
    The National Conservation Lands protect some of our country's most 
significant historical and cultural resources, yet the BLM's ability to 
steward these resources is undermined by insufficient funding, 
averaging $59.6 million, or just $2.20 per acre. The National 
Conservation Lands are just one-tenth of BLM managed lands but they 
host one-third of all BLM's visitors. This high visitation rate has 
resulted in increased needs to protect and steward historic and 
archaeological sites from looting and reckless off-road vehicle use. 
Without sufficient funding, the BLM also struggles to complete 
essential resource protection, such as signing trails, closing illegal 
and unnecessary routes, and inventorying and protecting cultural sites.
    We support the administration's fiscal year 2014 request, a $6.5 
million increase over fiscal year 2012 enacted, in order to prevent 
critical damage to the resources found in these areas, ensure proper 
management and provide for a quality visitor experience. This funding 
level would enable BLM to hire essential management and law enforcement 
staff, monitor and protect natural and cultural resources, close 
unauthorized routes that fragment fragile ecosystems, and undertake 
needed ecosystem and species restoration projects.
        bureau of land management: cultural resources management
    We support the administration's fiscal year 2014 request of $16.329 
million for this account, a slight increase over fiscal year 2012 
enacted levels. The BLM oversees the largest, most diverse, and 
scientifically most important body of cultural resources of any Federal 
land managing agency, including 21 National Historical Landmarks, 5 
World Heritage Sites, and more than 263,000 documented cultural 
properties. However, BLM receives the least amount of cultural 
resources money per acre of any Federal agency. In the 34 years since 
the enactment of the Federal Land Policy and Management Act only 9 
percent of the land managed by the BLM has been surveyed for cultural 
resources. Understanding the location and significance of cultural 
resources on BLM land creates greater certainty in decisionmaking about 
land uses including energy development, recreation, and resource 
protection. Proactive survey for cultural resources is also required 
under the National Historic Preservation Act. A long term goal of 
surveying 20 percent of BLM land would be a significant step toward 
helping our Nation efficiently and cost effectively develop energy 
resources on our public lands.
                land and water conservation fund (lwcf)
    The National Trust supports robust funding for the Land and Water 
Conservation Fund. Many of the Nation's most significant historic and 
cultural landscapes have been permanently protected through LWCF 
investments, including the Flight 93 National Memorial, Minidoka 
National Historic Site, Lewis and Clark National Historic Trail, 
Gettysburg National Military Park, Martin Luther King Jr. National 
Historic Site, Canyons of the Ancients National Monument, and Harpers 
Ferry National Historic Park. We strongly support the administration's 
fiscal year 2013 request for NPS Civil War Sesquicentennial Units and 
American Battlefield Protection Program Grants.
   u.s. forest service, recreation heritage and wilderness: heritage 
                                program
    Forest Service (USFS) lands contain an estimated 2 million cultural 
resource sites, including 27 National Historic Landmarks, 325,000 
identified cultural resource sites and its first national monument 
designated primarily for its world-class cultural resources. The Forest 
Service has updated their performance measures that will now track the 
management of the entire program through seven new indicators instead 
of tracking individual assets. This will standardize the program and 
ensure program staff are working toward a common goal of promoting 
efficient and effective management of all heritage resources. As these 
new standards are implemented, we request the Forest Service integrate 
a needs assessment for bringing their assets to standard. To further 
understand the successes and needs of the program we request an annual 
reporting to Congress of the allocations, expenditures and 
accomplishments of the program by Region and National Forest levels 
within 12 months of the close of the fiscal year. Providing Congress 
and the public with a clear understanding of the fiscal needs for USFS 
heritage assets will assist potential partners determine where they can 
best engage with Federal managers for the benefit of these 
irreplaceable resources.
               advisory council on historic preservation
    The National Trust supports the administration's requested increase 
of funding for the Advisory Council on Historic Preservation (ACHP). In 
addition, we suggest the subcommittee include report language 
recommending the President appoint a full-time Chairman. Such a 
recommendation was made by the ACHP membership at its November 2011 
meeting, as did a task force of historic preservation organizations, 
including the National Trust. We believe a full-time Chairman would 
enhance the effectiveness of the ACHP.
    Thank you for the opportunity to present the National Trust's 
recommendations for the fiscal year 2014 Interior, Environment and 
Related Agencies appropriations bill.
                                 ______
                                 
         Prepared Statement of the National Wildlife Federation
    On behalf of the National Wildlife Federation (NWF), the Nation's 
largest member-based conservation advocacy and education organization, 
and our more than 4 million members and supporters, we thank you for 
the opportunity to provide fiscal year 2014 funding recommendations for 
the Department of the Interior and other agencies under the 
jurisdiction of this subcommittee.
    We understand the very difficult budget choices facing the 
subcommittee and the Nation as we move forward under the constraints of 
the Budget Control Act of 2011 (Public Law 112-25). That said, it is 
our belief that disproportionate cuts to conservation programs 
represent policy positions not consonant with the priorities and values 
of most Americans. These programs protect cherished lands and waters 
and conserve the natural resources that are vital to the Nation's 
continued economic vitality. Recent studies estimate that outdoor 
recreation, nature conservation, and historic preservation account for 
$1.06 trillion in overall economic activity and support 9.4 million 
jobs each year. Outdoor recreation alone generates more than $49 
billion in annual Federal tax revenue.
    NWF and its members remain concerned about proposed funding 
reductions to many of the Federal Government's core commitments and 
programs for conserving fish and wildlife, sustaining and restoring 
important ecosystems, and maintaining clean air and water. Perhaps of 
even greater concern are efforts to rewrite the Nation's landmark 
environmental laws through the use of policy riders on the 
appropriations bill. National Wildlife Federation urges the 
subcommittee to make the necessary investments in our essential 
conservation and environmental programs and commitments in the fiscal 
year 2014 appropriations bill, and to pass a bill free of such riders.
    National Wildlife Federation is overall supportive of the 
President's fiscal year 2014 budget request, which we view as balancing 
fiscal responsibility with continued investments in essential 
conservation and environmental programs. Below, we offer 
recommendations for specific budget items and programs.
                     u.s. fish and wildlife service
State and Tribal Wildlife Grants
    The State and Tribal Wildlife Grants program is the Nation's core 
program for preventing wildlife from becoming endangered in every 
State. We are extremely concerned about the impact on the Nation's 
wildlife of the nearly 30 percent cut this program has suffered in 
recent years. We urge Congress to honor its commitment to this 
important effort and strongly support the President's fiscal year 2014 
request of $61.3 million.
Cooperative Landscape Conservation
    Safeguarding fish and wildlife resources from climate change is a 
major concern for the entire natural resource conservation community, 
and FWS's Landscape Conservation Cooperatives represent an important 
means for leveraging Federal, State, and private resources to achieve 
effective conservation outcomes. We urge Congress to meaningfully 
address the very real threats of climate change to our fish and 
wildlife and support the President's request of $17.6 million for 
Cooperative Landscape Conservation.
National Wildlife Refuge System Operations and Maintenance
    The National Wildlife Refuge System is the largest system in the 
world dedicated to wildlife conservation. Simply maintaining the 
management capability to operate the Refuge System requires a $15 
million increase each year. NWF, in support of the Cooperative Alliance 
for Refuge Enhancement (CARE), strongly endorses the President's fiscal 
year 2014 funding request of $499 million for Operations and 
Maintenance for the National Wildlife Refuge System. Robust funding is 
even more important given that the sequestration cuts enacted in fiscal 
year 2013 are continuing to force closures and reduced services at many 
refuges.
                         u.s. geological survey
Climate Science Centers
    The National Climate Change and Wildlife Science Center and 
associated regional Climate Science Centers are important for improving 
the scientific support required to successfully cope with the 
challenges of a changing climate. NWF is supportive of the President's 
proposed $35.3 million in funding for fiscal year 2014.
                        bureau of indian affairs
Trust Natural Resources Program
    The BIA Trust Natural Resources (TNR) Program represents the 
largest amount of base, Federal funding for tribal natural resource 
management. Funding, however, has not kept pace over the decade with 
inflation or the increasing needs of tribes to manage natural 
resources. We are strongly supportive of the President's fiscal year 
2014 request of $189.193 million. We are particularly supportive of the 
$10 million requested funding for tribal collaboration with DOI 
Landscape Conservation Cooperatives to support tribal engagement in 
climate adaptation.
                       bureau of land management
National Landscape Conservation System
    The National Landscape Conservation System contains many of the 
most special places in the American West. Funding the Conservation 
Lands at the President's fiscal year 2014 funding request of $71.5 
million is needed to prevent critical damage to the resources found in 
these areas, ensure proper management, and provide for a quality 
visitor experience.
                          new energy frontier
    The New Energy Frontier initiative provides resources for six 
bureaus across DOI for renewable energy planning, leasing, and 
permitting activities. The initiative presents an opportunity for the 
Nation to facilitate large-scale clean energy projects without 
compromising crucial wildlife interests and investments. The program 
facilitates efficient and expeditious permitting, identification and 
review of wind energy areas, and efforts to evaluate and protect the 
sage grouse, lesser prairie chickens, whooping cranes, golden eagles, 
and Indiana bats. NWF strongly supports the President's request of 
$96.9 million for fiscal year 2014, an increase of $25.6 million from 
fiscal year 2012 enacted.
                          u.s. forest service
Urban and Community Forestry Program
    The Urban and Community Forestry program improves the forests where 
people live, work, and play. With urban tree canopies in decline, the 
program is critical to support carbon sequestration, energy 
conservation, stormwater management, and air quality, while also 
providing cooling benefits in urban areas. We support an increase from 
the President's $25.3 million fiscal year 2014 request to fiscal year 
2012 enacted level of $31.5 million.
                    land and water conservation fund
    The Land and Water Conservation Fund (LWCF) is the primary tool of 
the Federal Government for acquiring land valuable for wildlife habitat 
and open space. LWCF is authorized to receive $900 million in revenue 
from offshore oil and gas drilling annually. Nonetheless, this program 
has been woefully underfunded over the years, with only a fraction of 
the dedicated revenues appropriated and available for use. National 
Wildlife Federation strongly endorses the requests laid out in the 
President's fiscal year 2014 budget, with $400 million in ``current'' 
funding and $200 million in ``permanent'' funding projects for the Land 
and Water Conservation Fund. In addition, we support efforts to ensure 
LWCF is funded at its maximum authorized level, including legislative 
efforts to provide robust and dedicated funding outside of the budget 
process. We'd also like to particularly signal our support for the 
Urban Parks and Recreation Fund within LWCF, new in this year's budget, 
and endorse the President's request of $10 million in ``current'' 
funding and $5 million in ``permanent'' funding.
                         national park service
Cooperative Landscape Conservation
    In order to ensure the continued survival of the plants, animals, 
and landscapes that Americans value for their recreational and 
educational uses, conservation efforts must adapt to a changing 
climate. DOI is making great strides in establishing guidance and 
gathering new data in the field of climate adaptation, and this program 
is crucial to ensure that plants and wildlife can survive the changing 
climate and exist for future generations to enjoy. NWF supports the 
President's request of $8.9 million, $6.0 million more than the fiscal 
year 2012 enacted level.
                    environmental protection agency
Urban Waters Grant Program and Urban Waters Federal Partnership
    Most Americans now live in urban areas, but our urban waterways are 
imperiled from the effects of human development, including pollution 
from industrial point-source pollution and urban stormwater runoff. The 
Urban Waters Grant Program and Urban Waters Federal Partnership not 
only fund innovative approaches for water quality improvements that 
benefit aquatic ecosystems, but also revitalize urban waterfronts, 
providing economic benefits and recreation value for residents. We 
support the President's fiscal year 2014 budget request of $4.4 million 
for the Urban Waters Grant Program and the Partnership.
Geographic Programs--Ecosystem Restoration Initiatives
    America's Great Waters are the lifeblood of our Nation. Sustained, 
consistent restoration funding is crucial for the successful 
implementation of multi-year, complex ecosystem restoration plans. As 
such, we strongly support the President's requested increase in funding 
for the EPA's flagship geographic programs, the Chesapeake Bay Program 
Office ($73 million requested, an increase of $15.7 million from fiscal 
year 2012 enacted) and the Great Lakes Restoration Initiative ($300 
million requested). However, we are concerned about significant 
proposed funding decreases for several other regional efforts, 
including but not limited to the Long Island Sound Program and Puget 
Sound Program.
EPA National Estuary Program
    The National Estuary Program (NEP) works to restore and protect 
nationally significant estuaries. Unlike traditional regulatory 
approaches to environmental protection, the NEP targets a broad range 
of issues and engages local communities in the process. The program 
focuses not just on improving water quality, but on maintaining the 
integrity of the whole system--its chemical, physical, and biological 
properties, as well as its economic, recreational, and aesthetic 
values. NWF is glad to see funding maintained for this program, and 
supports the President's fiscal year 2014 request for $27.3 million.
Clean Water State Revolving Fund
    Since the 1970s, CWSRF projects have helped improve the quality of 
wastewater treatment in communities throughout the country. Yet the job 
is far from complete and the Nation faces trillions of dollars in 
funding needs to repair aging wastewater treatment systems and keep our 
rivers and streams pollution free. While we greatly appreciate the 
EPA's dedication to increasing green infrastructure options, we believe 
now, particularly when America's infrastructure is rated at D+ by the 
American Society of Civil Engineers, is not the time to cut resources 
from communities. NWF strongly opposes the $371 million proposed cut to 
this program, and urges Congress to increase funding from the 
President's fiscal year 2014 request of $1.095 billion to fiscal year 
2012 enacted levels of $1.47 billion.
        clean water act 319 nonpoint pollution reduction program
    When Congress recognized the need for greater Federal leadership in 
assisting with nonpoint source pollution reduction efforts, The Clean 
Water Act was amended to establish section 319. Continued funding for 
the Nonpoint Source Management Program will provide State and local 
nonpoint source remediation efforts with the funds that are crucial to 
the implementation of these projects. As such we recommend that the 
subcommittee increase program funding from the $164.5 million requested 
by the President to the fiscal year 2012 enacted level of $175 million.
Climate and Air Pollution Reduction Programs
    NWF supports EPA's priority goal of improving the country's air 
quality and take action on climate change. We support the President's 
request of $801 million to address air quality, an increase of $32.7 
million over fiscal year 2012 enacted. This funding will allow the 
agency to conduct statutorily mandated work on the National Ambient Air 
Quality Standards for criteria pollutants and obligations to reduce 
toxic air pollution. We also support the requested $212.9 million for 
addressing climate change, an increase of $12.9 million over fiscal 
year 2012 enacted, allowing the Agency to support a full range of 
approaches for reducing carbon pollution and the risks posed to human 
health and the environment from climate change.
National Environmental Education Act Programs
    EPA's Office of Environmental Education implements highly 
successful, nationwide environmental education programs. We are 
grateful for the subcommittee's support of environmental education in 
previous years and recommend fiscal year 2012 baseline funding levels 
for NEEA at $9.7 million in fiscal year 2014.
                               everglades
    America's Everglades are one of the most unique and biodiverse 
ecosystems in the world, designated as Ramsar Wetlands of International 
Significance. In the 1940s the Army Corps drained the Everglades 
resulting in substantial wetland and habitat loss. Protection of the 
remaining ecosystem and restoration of ecological function are critical 
for water supply, wildlife, water quality, recreation, tourism, and the 
economy of South Florida. A recent study indicates each dollar invested 
in restoring the Everglades will result in a $4 return. Beginning in 
the 1980s, Congress made and has affirmed its commitment to restoring 
the historic River of Grass by allowing fresh water to flow southward 
and later enacting the Comprehensive Everglades Restoration Plan. This 
subcommittee has made substantial progress in furthering that promise 
in recent years--authorizing and funding construction of a 1-mile 
bridge along the Tamiami Trail, and in fiscal year 2013 authorizing the 
next phase of bridging. We urge Congress to continue its investment and 
strongly support the President's budget request for $30 million to 
construct the Next Steps of the Tamiami Trail, $5 million for 
conservation in the Everglades Headwaters, and $30.2 million for 
Everglades National Park and Refuges management.
                                 ______
                                 
     Prepared Statement of the National Wildlife Refuge Association
    Mr. Chairman and members of the subcommittee: On behalf of the 
National Wildlife Refuge Association (NWRA) and its membership 
comprised of current and former refuge professionals, Friends 
organization affiliates and concerned citizens, thank you for your 
support for the National Wildlife Refuge System (NWRS). NWRA 
appreciates the opportunity to offer comments on the fiscal year 2014 
Interior, Environment, and Related Agencies appropriations bill and 
respectfully requests $499 million for the Refuge System's Operations 
and Maintenance accounts, as well as $600 million for the Land and 
Water Conservation Fund (LWCF).
    We understand the challenging fiscal climate our Nation is in, but 
we also feel that cutting funding to programs that are economic drivers 
in local communities is not an answer to our problems, but rather 
exacerbates the issue. Should sequestration cuts continue in fiscal 
year 2014, we estimate that vital Fish and Wildlife Service (FWS) 
programs such as the NWRS and Partners for Conservation will be unable 
to meet core functions. Because budgets have not kept pace with rising 
costs, the gap between the level of funding needed to maintain 
capabilities for these programs and the level of funding appropriated 
by Congress has widened dramatically. To begin to bridge that gap, NWRA 
seeks a middle ground and urges Congress to fund critical programs that 
leverage Federal dollars and are economic drivers. We, therefore, 
respectfully request the subcommittee support the following funding 
allocations for programs in the NWRS and FWS:
  --$499 million for the Operations and Maintenance (O&M) accounts of 
        the NWRS, including $22 million for Inventory and Monitoring, 
        $40 million for Refuge Law Enforcement, $75 million for 
        Visitors Services, $3.6 million for Challenge Cost Share, $9.35 
        million for the Cooperative Recovery Initiative and $5 million 
        for the Pacific Marine Monuments;
  --$600 million for LWCF, of which $106 million be allocated for FWS, 
        including $50 million for the Everglades Headwaters NWR and 
        Conservation Area (Florida); $6.5 million for the Silvio O. 
        Conte NFWR (Connecticut, New Hampshire, Vermont, 
        Massachusetts); and $6 million for the Cache River NWR 
        (Arkansas);
  --$60 million for the FWS Partners for Fish and Wildlife Program;
  --$60 million for FWS for Preparedness and Hazardous Fuels Reduction 
        (under DOI);
  --$20 million for the National Wildlife Refuge Fund;
  --$17.6 million for Landscape Conservation Cooperatives (LCCs) in the 
        FWS;
  --$16 million for the FWS construction account;
  --$61.3 million for the State and Tribal Wildlife Grants Program;
  --$39.4 million for the North American Wetlands Conservation Fund;
  --$3.7 million for the Neotropical Migratory Bird Fund;
  --$9.8 million for the Multinational Species Conservation Fund and 
        $13.5 million for Wildlife Without Borders; and
  --$8.5 million for the National Fish and Wildlife Foundation (NFWF).
                  national wildlife refuge system--o&m
    NWRA chairs the Cooperative Alliance for Refuge Enhancement (CARE), 
a diverse coalition of 22 sporting, conservation, and scientific 
organizations representing more than 15 million Americans that supports 
increased funding for the Refuge System. CARE estimates the Refuge 
System needs at least $900 million annually to fully function; yet the 
highest level of funding for the System, $503 million in fiscal year 
2010, was just over half that amount. Since that time, appropriations 
have been steadily backsliding toward levels that, in real dollars, 
have not been seen since fiscal year 2006.
    If sequestration cuts continue, CARE estimates that NWRS's fiscal 
year 2014 appropriation could drop to about $420 million--a cut of $83 
million, or 17 percent, compared with fiscal year 2010. On the ground, 
it will feel more like a 24 percent, cut, because the Refuge System 
needs an increase of $8 million to $15 million each year to cover the 
rising cost of fuel, utilities, rent, and other fixed expenses. Because 
budgets have not kept pace with rising costs, the gap between the level 
of funding needed to maintain the Refuge System's capabilities and the 
level of funding appropriated by Congress has widened dramatically. To 
begin to bridge that gap, CARE seeks a middle ground and urges Congress 
to fund the NWRS Operations and Maintenance accounts at $499 million in 
fiscal year 2014.
    NWRS generates tremendous public benefits, with 47 million visitors 
coming to enjoy recreational opportunities last year. Refuge visitation 
generates between $4 and $8 to local economies for every $1 
appropriated, and contributes to the $1.7 trillion overall annual 
economic impact of outdoor recreation, natural resource conservation, 
and historic preservation. In addition, refuges generate more than 
$32.3 billion each year in ecosystem services, such as water storage/
filtration and storm buffering on which cities like Miami, Minneapolis, 
Hartford, New Orleans, Salt Lake City and Sacramento depend. NWRS is 
not a bloated bureaucracy; in fact, for most FWS regions, the size of 
the full-time workforce is smaller today than 10 years ago. During this 
decade, NWRS has also had a large expansion of responsibility in the 
areas of planning, inventory and monitoring, law enforcement needs, 
climate change, acres managed, expanded public use opportunities such 
as hunting, fishing, birding, and more. These numbers are indicative of 
a workforce stretched thin and describes an agency that cannot do more 
with less; they are a rubber band at its breaking point and unless 
Congress restores their funding, they will be forced to make drastic 
management decisions.
                   partnerships and strategic growth
    NWRA calls upon Congress to fund the Land and Water Conservation 
Fund (LWCF) at $600 million, of which $106 million should be allocated 
to FWS for individual refuge projects and collaborative conservation 
projects. Created in 1965 and authorized at $900 million per year (more 
than $3 billion in today's dollars), LWCF is our most important land 
and easement acquisition tool. With more than 8 million acres still 
unprotected within existing refuge boundaries, and the need to 
establish key wildlife corridors and connections between protected 
areas, LWCF is more important than ever. NWRA strongly supports the new 
mandatory funding requests, as well as the collaborative conservation 
proposals of the Departments of the Interior and Agriculture that bring 
together several Federal agencies around a common goal. NWRA supports 
the following projects and those advocated by refuge Friends 
organizations:
  --Everglades Headwaters NWR & Conservation Area (Florida)--$50 
        million;
  --Cache River NWR (Arkansas)--$6 million; and
  --Silvio O. Conte NFWR (New Hampshire, Vermont, Massachusetts, 
        Connecticut)--$6.5 million.
    NWRA also strongly supports the Partners for Fish and Wildlife 
Program, a powerful tool for working with private landowners to 
collaboratively conserve refuge landscapes. The program consistently 
leverages Federal dollars for maximum conservation benefit, generating 
between $4 and $10 in conservation return for every $1 appropriated. 
NWRA requests a fiscal year 2014 appropriation of $60 million for the 
Partners for Fish and Wildlife Program.
        commitment to refuge communities--refuge revenue sharing
    The Refuge System uses net income derived from permits and timber 
harvests to make payments to local counties or communities to offset 
lost property tax revenue, and relies on congressional appropriations 
to the Refuge Revenue Sharing program to compensate for the shortfall 
between revenues and obligations. Due to declining revenue and lack of 
appropriations, the Service has been paying less than 50 percent of its 
tax-offset obligations since 2001. This has a measurable impact on 
local communities that is felt even more starkly in difficult economic 
times--and it creates severe strain in relations between the Federal 
units and their local community, threatening the goodwill and 
partnerships that are keystones of successful conservation. NWRA 
requests $30 million for the Refuge Revenue Sharing Program, which, in 
recognition of the President's proposal to zero out funding, is still 
only about half of what is needed. NWRA also calls for a review of the 
Refuge Revenue Sharing Act of 1935 as amended, and consideration of 
conversion to a Payment-in-Lieu of Taxes (PILT) program to be 
consistent with other Federal land management agencies and to provide 
Refuge communities with more equitable payments.
        supporting prescribed fire to reduce catastrophic burns
    Fire as a wildlife habitat management tool is one of the most 
important items in the FWS tool chest but it is also perhaps the least 
understood and currently sequestration is having a dramatic impact. FWS 
anticipates that fewer than 20 refuges nationwide will attempt to 
continue their fire regime as called for in management plans; that 
means every other program in the Nation will be ended completely or 
deeply cut. Unfortunately, because funding for the FWS fire program 
falls under the DOI's Hazardous Fuel Reduction program, less and less 
funds are going to the FWS for prescribed burns. The funding for the 
FWS under DOI's Hazardous Fuel Reduction program is down by 40 percent, 
with FWS treating less than one-quarter of what they used to do.
    This loss of prescribed burning is leading to an increase in fuel 
and could have catastrophic results--especially in urban areas where 
reducing fuel loads ultimately protects people's lives and property. 
For instance, J.N. Ding Darling NWR in Florida uses prescribed burns 
extensively where lightning strikes would normally cause fires every 
couple of years. Without the ability to reduce fuel on the refuge, 
there is concern in the city of Sanibel that the next fire could 
quickly become out of control. We urge returning capabilities for FWS 
to $60 million for fiscal year 2014.
                           national blueways
    Two National Blueways have been established and both are focused on 
national wildlife refuges and surrounding watersheds. The first 
National Blueway, the Connecticut River watershed, established in May 
2012 and encompasses the entire Silvio O. Conte National Fish and 
Wildlife Refuge spanning the States of Connecticut, Vermont, New 
Hampshire, and Massachusetts. In this instance, the Blueway is an 
overlay of the refuge, which was established to conserve the entire 
watershed. The second National Blueway, the White River, includes the 
Cache River NWR. Cache River NWR dominates an important landscape where 
the FWS, NRCS and the Army Corps are cooperating on a major restoration 
project. Fiscal year 2014 LWCF funding is essential to supporting the 
goals of the project and Blueway.
    National Blueway designation is not a new Federal spending program, 
rather it is good governance where agencies, through memorandums of 
understanding and cooperative agreements, agree to focus and share 
resources toward common goals. This is something we at NWRA have long 
advocated for and are strongly supportive of. Continued collaboration 
across agencies and with local communities is the future of 
conservation in our Nation.
                    leveraging american volunteerism
    Refuges are vital places for the American people to connect with 
nature and get involved. Currently, refuge Friends and volunteers do 20 
percent of all work on refuges. In 2012, these 1.6 million hours 
equated to 766 full time employees. This is extremely important, as the 
System has lost approximately 500 positions from operations and 150 
from fire over the past few years. About 200 staff nationwide are 
assigned to visitor's services, but with sequestration and lost 
positions from attrition, these staff are being moved to other duties. 
Adding insult to injury, this reduction has a drastic multiplier effect 
because many of these positions oversee volunteers. Without staff to 
oversee volunteers, that commitment and passion is lost, as is their 
desperately needed contribution to the System. We request $74 million 
for Visitors Services for NWRS.
                              construction
    While FWS has steadily been working to reduce their operations and 
maintenance backlogs, refuges still have existing have construction 
needs, including the replacement of deteriorating structures that are 
expensive to maintain. We support the President's requested $16 million 
for NWRS's construction budget, including habitat restoration and 
visitor enhancements.
    protecting the public and refuge resources--nwrs law enforcement
    In 2005, the International Association of Chiefs of Police (IACP) 
conducted a first of its kind analysis of law enforcement (LE) needs 
for a land management agency, focusing on the Refuge System. They 
recommended a force of 845 full-time Federal wildlife officers to 
adequately protect visitors and taxpayer resources; but the System has 
only a little more than one-quarter of that amount with 250 officers 
for the 150-million-acre System. Further, since the report was 
completed in 2005, the System has grown by 50 million and visitation 
has grown by more than 15 percent to more than 45 million in 2012. We 
request $40 million for NWRS law enforcement.
               using science to guide adaptive management
    FWS and the NWRS are developing landscape-level strategies to 
address habitat changes due to shifting land use, increasing human 
population, the spread of invasive species and changing climates. We 
strongly support the FWS initiative to establish Landscape Conservation 
Cooperatives (LCCs) to bring the best science to help local, State and 
Federal agencies make the most educated management decisions. We 
recommend allocating $17.6 million to fund LCCs in fiscal year 2014 and 
$22 million for the NWRS's Inventory and Monitoring program.
    NWRA believes the National Wildlife Refuge System can meet its 
responsibilities to the American people with collaboration and 
sufficient funding and we urge Congress to help the FWS meet these 
obligations.
                                 ______
                                 
     Prepared Statement of the National Water Resources Association
    On behalf of the membership of the National Water Resources 
Association, I am in support of selected programs under the 
jurisdiction of the U.S. Fish and Wildlife Service.
           endangered species recovery implementation program
Fiscal Year 2014 Request--Support President's Budget Request
    This program provides funding for Upper Colorado and San Juan 
endangered fish recovery programs that ensure ESA compliance for 2,500 
Federal, tribal, and non-Federal water projects under Federal/non-
Federal cost sharing arrangements authorized by Congress under Public 
Law 106-392.
 fisheries and aquatic resources conservation activity; national fish 
                    hatchery operations subactivity
Fiscal Year 2014 Request--Support President's Budget Request
    This program provides the Federal share of funding from USFWS for 
the Upper Colorado and San Juan Endangered Fish Recovery Program and 
ensures ESA compliance for 2,500 water projects.
   resources management appropriation ecological services activity; 
      endangered species subactivity--recovery of species element
Fiscal Year 2014 Request--Support President's Budget Request
    This program provides the Federal share of funding from USFWS for 
the Upper Colorado and San Juan Endangered Fish Recovery Program and 
ensures ESA compliance for 2,500 water projects.
                       new project/program starts
Cooperative Environmental Water Transactions Program Development (EBID 
        0203-12-036170)
Fiscal Year 2014 Request--$70,000 DOI (Fish and Wildlife Service)
                                 ______
                                 
                  Prepared Statement of OPERA America
    Mr. Chairman and distinguished members of the subcommittee, OPERA 
America is grateful for the opportunity to submit testimony on behalf 
of OPERA America, its Board of Directors and its 2,000 organizational 
and individual members. We strongly urge the subcommittee to designate 
a total of $155 million to the National Endowment for the Arts (NEA) 
for fiscal year 2014. This testimony and the funding examples described 
below are intended to highlight the importance of Federal investment in 
the arts, so critical to sustaining a vibrant cultural community 
throughout the country.
    Opera is a continuously growing art form that can address the 
diverse needs and backgrounds of our communities. New opera companies 
are being established in communities that have never before had access 
to live performances. Seventy percent of the opera companies in 
existence today have been established since 1960. The growth of the 
field corresponds to the establishment and growth of the NEA. Over the 
last 20 years, a rich repertoire of American operas has been created by 
composers who communicate the American experience in contemporary 
musical and dramatic terms. The growth in number and quality of 
American operas corresponds directly to the investment of the NEA in 
the New American Works program of the former Opera-Music Theater 
Program.
    Beyond the opera house, opera companies are finding new and 
exciting ways to bring the essence of opera to other local theaters and 
community centers, frequently with new and innovative works that 
reflect the diverse cultures of the cities they serve. Strong 
partnerships with local schools, too, extend the civic reach of opera 
companies as they introduce children to another multi-media art form 
and discover promising young talent.
the nea is a great investment in the economic growth of every community
    Despite diminished resources, including a budget that has decreased 
by almost $30 million since 2010, the NEA awards more than 1,000 grants 
annually to nonprofit arts organizations for projects that encourage 
artistic creativity and community accessibility. These grants help 
nurture the growth and artistic excellence of thousands of arts 
organizations and artists in every corner of the country. NEA grants 
also preserve and enhance our Nation's diverse cultural heritage. The 
modest public investment in the Nation's cultural life results in both 
new and classic works of art, reaching the residents of all 50 States 
and in every congressional district.
    The return of the Federal Government's small investment in the arts 
is striking. The nonprofit arts industry generates $135.2 billion 
annually in economic activity ($61.1 billion by the Nation's nonprofit 
arts and culture organizations), supports 4.13 million full-time 
equivalent jobs, and returns $22.3 billion in revenue to local, State, 
and Federal governments each year. Measured against collective arts 
allocations of $4 billion, that's a return of more than five to one. 
Few other Federal investments realize such economic benefits, not to 
mention the intangible benefits that only the arts make possible. Even 
in the face of tremendous cutbacks in the recent years, the NEA 
continues to be a beacon for arts organizations across the country.
    The return on investment is not only found in dollar matches. The 
average city and county reports that nonprofit arts and culture 
organizations had 5,215 volunteers who donated 201,719 hours. These 
volunteer hours have a value of approximately $4.5 million--a 
demonstration that citizens value the arts in their communities.
                           nea grants at work
    Past NEA funding has directly supported projects in which arts 
organizations, artists, schools and teachers collaborated to provide 
opportunities for adults and children to create, perform, and respond 
to artistic works. NEA funding has also made the art form more widely 
available in all States, including isolated rural areas and inner 
cities; indeed, NEA funded projects cross all racial, geographic, and 
socioeconomic lines.
    NEA grants are awarded to dance organizations through its core 
programs: Art Works; Challenge America Fast Track Grants; and Federal/
State Partnerships. In 2013, the NEA funded or has recommended funding 
60 grants, totaling almost $2 million, to the opera discipline under 
the Art Works funding category.
    The following are some examples of the impact of NEA funding on 
opera programs from the NEA's 2012 Art Works Program:
Atlanta Opera, $12,500, Atlanta, Georgia
    To support the Studio Touring Production for Middle School Youth, a 
new educational initiative. For the first time, the organization will 
reach middle-school students with a program featuring the bilingual 
opera En Mis Palabras (In My Own Words), about the teenage immigrant 
experience.
Des Moines Metro Opera, $20,000, Indianola, Iowa
    To support the OPERA Iowa Touring Educational Troupe reaching 
undeserved rural schools in the Midwest.
Minnesota Opera, $40,000, Minneapolis, Minnesota
    To support the world premiere of Douglas J. Cuomo and John Patrick 
Shanley's Doubt. Based on the Pulitzer Prize and Tony Award-winning 
play and Oscar-nominated motion picture, the production will be 
conducted by Christopher Franklin with stage direction by Kevin 
Newbury.
Opera Memphis, $15,000, Memphis, Tennessee
    To support 30 Days of Opera, a new opera festival. Activities will 
include concerts, educational workshops at community centers, pop-up 
opera on street corners and in parks, and back-stage tours of the 
costume and scenic shops at the opera house.
Palm Beach Opera, $15,000, West Palm Beach, Florida
    To support the training activities, mainstage productions, and 
community outreach of the Palm Beach Young Artist Program. The 
educational curriculum will include voice lessons, master classes, and 
movement classes, as well as performance opportunities in mainstage 
roles and in numerous outreach programs, including ``One Opera in One 
Hour,'' ``Lunch & Learn,'' and ``Concerts for the Classroom.''
Santa Fe Opera, $60,000, Santa Fe, New Mexico
    To support a new production of Oscar, the co-commission and co-
production with Opera Philadelphia based on the life and words of Oscar 
Wild, brought to the stage by the creative team of director Kevin 
Newbury, composer Theodore Morrison, with a libretto by Theodore 
Morrison and John Cox.
Virginia Opera, $22,500, Norfolk, Virginia
    To support a new production of Andre Previn's A Streetcar Named 
Desire, to launch the ``Made in America'' series, and based on the 
Pulitzer Prize-winning play by Tennessee Williams.
    More than half of OPERA America's member companies were established 
after 1970 (corresponding to the establishment of the NEA) and more 
than 40 percent were established since 1980, indicating the growth of 
opera throughout in the last 40 years. In the 2010 and 2011 calendar 
years, OPERA America's members were involved with 35 world premieres 
an. New operatic works--369--have been produced in North America since 
2000.
    Over 6.5 million people attended a live performance at one of OPERA 
America's company members during the 2010-2011 season, including 
educational and outreach programs, as well as festivals. During the 
same season, members of OPERA America presented 1,070 mainstage, 
festival, educational, and other productions. The collective expenses 
of members totaled $687 million; total Government support amounted to 
$36 million, representing 5 percent of total operating income. This 
represents a return on investment of 19 to 1.
    Despite overwhelming support by the American public for spending 
Federal tax dollars in support of the arts, the NEA has never recovered 
from a 40 percent budget cut in the mid-nineties and found its budget 
further decreased by $22 million in the past 2 years, leaving its 
programs seriously underfunded. We urge you to continue toward 
restoration and increase the NEA funding allocation to $155 million for 
fiscal year 2013.
    On behalf of OPERA America, thank you for considering this request.
                                 ______
                                 
         Prepared Statement of the Outdoor Industry Association
    On behalf of the Outdoor Industry Association and our more than 
1,300 member companies, I write to urge you to support modest and 
sustainable funding for the recreation and preservation programs of the 
Department of the Interior, the U.S. Forest Service and the EPA.
    The strength of our national economy is directly linked to the 
treasures that are our parks, forests, waterways, wildlife refuges, 
recreational trails and similar recreation assets. These public lands 
and waters are deeply popular with American families nationwide. 
Moreover, they represent a foundational infrastructure for recreation 
just as important as highways are to the transportation industry or 
fiber optic lines are to the telecommunications industry. A national 
outdoor recreation system of diverse, accessible, affordable places for 
every American to get outdoors and enjoy healthy lifestyles is crucial 
to the health and well being of the American people and our economy.
    Rather than compounding our deficit problems, our national outdoor 
recreation system produces exceptional economic value and jobs in 
communities across the country. Our public lands and waters drive a 
recreational economy that generates $646 billion in direct consumer 
spending, supports more than 6 million sustainable American jobs, and 
generates more than $80 billion in Federal, State and local tax 
revenue. At the local level, resources invested in recreational trail 
infrastructure, river access and other open space have an impressive 
and sustainable return for local economies, especially those in rural 
areas.
    In real terms, Federal spending on natural resources and recreation 
programs has declined over the last 20 years. This program area 
comprised only about 1 percent of the total Federal budget for fiscal 
year 2012. Natural resources, recreation, bicycling, and community 
development programs are, at best, paltry contributors to the Federal 
deficit yet they have been disproportionately targeted for cuts in the 
past. We believe this should be avoided as Congress begins 
consideration of the fiscal year 2014 Federal appropriations. Instead, 
these programs need to be recognized as shining examples of the type of 
sound investment that the Federal Government should pursue.
    In order to support a strong economy and foster happy, healthy 
families and communities, we urge Congress to recognize the importance 
and value of the investments in the natural resources, recreation, 
conservation, and preservation programs found in the budgets for the 
Department of the Interior, the Forest Service, and the EPA.
    Please provide adequate funding for the our Nation's public lands 
and waters as outlined below:

                                              [Dollars in millions]
----------------------------------------------------------------------------------------------------------------
                                                                 Fiscal Year      Fiscal Year
                      Department/Program                         2012 Enacted    2014 Proposed     OIA Request
----------------------------------------------------------------------------------------------------------------
Land and Water Conservation Fund (Total).....................           $322             $600             $900
    Federal Land Acquisition (Interior & Agriculture (USFS)..            199.1            356              356
    Cooperative Endangered Species Conservation Fund.........             25               84               84
    NPS State Grants.........................................             44.9             60               60
    Urban Parks and Recreation Recovery Grants...............              0               15               15
    Forest Legacy Program (USFS).............................             53.3             84.8             84.8
Department of the Interior:
    Youth Programs (department-wide).........................             42               54               54
    Land Management Operations (NPS, BLM, FWS)...............          4,535            4,675.8          4,675.8
    Partnership Program......................................            100              104              104
    Rivers, Trails, Conservation Assistance..................              9.9             10.1             10.1
    Historic Preservation and Battlefield Grants.............             57.3             50.3             57.3
    Reclamation River Restoration............................            154              120.2            154
Agriculture--National Forest System (USFS): Recreation,                  281              261              281
 Heritage and Wilderness.....................................
EPA--Protecting America's Waters.............................          2,799            2,479            2,479
                                                              --------------------------------------------------
      Total..................................................          9,984.3          9,993.2         10,696
----------------------------------------------------------------------------------------------------------------

    Healthy and productive communities offer lasting good jobs and easy 
access to parks, trails and other places to play. There is no doubt 
that people use green spaces when they're available, well maintained 
and close at hand. A growing body of evidence demonstrates that access 
to green spaces has significant economic and health benefits.
  --After investing in public space restoration and development, the 
        city of Ogden, Utah, added more jobs than any other region in 
        the country in 2011, with more than 8,000 new jobs flowing into 
        the community. In addition, the city has scored more than $1.2 
        billion in investment, while lowering taxes three times. And 
        crime has dropped by 33 percent, which is more than double the 
        national average rate.
  --In Cincinnati, Ohio, research found that homeowners were willing to 
        pay a premium of $9,000 on houses that were within 1,000 feet 
        of bike paths.
  --As part of its turnaround strategy, Pittsburgh, Pennsylvania, 
        created the Allegheny Riverfront Green Boulevard, ``a multi-
        modal transportation corridor that includes park access, open 
        space programming, neighborhood design, storm water management 
        and habitat restoration.''
  --The State of Arkansas awarded $1.2 million in 50/50 match grants in 
        2012 to foster outdoor recreation, recognizing its potential 
        benefits to the economy and residents' quality of life.
    Outdoor recreation and the outdoor industry are a core economic 
sector in America, driven by innovation and technology. Sustainable 
American jobs exist across the value chain-suppliers, manufacturers, 
retailers, sales representatives. Moreover, outdoor recreation is an 
industry that America dominates worldwide. The world looks to America 
as the leader in the protection of our public lands and waters and 
looks to American brands for innovative outdoor products, gear, apparel 
and footwear.
    A healthy and diverse outdoor recreation economy promotes economic 
activity and jobs in every community--large and small, urban and 
rural--across America. Outdoor recreation and the places that Americans 
get outside--parks, trails, rivers and open space--are critical 
economic drivers and essential to a high quality of life. Cutting 
funding that supports those quality places directly and adversely 
impacts not just the outdoor industry, but a diversity of other 
industries and myriad associated businesses that chose their location, 
in large part, on accessible, healthy public lands and watersheds and 
outdoor spaces to be enjoyed by their workforce. Conversely, investing 
in these quality lands and waters promises significant economic growth 
for both the outdoor industry and the many associated businesses that 
choose to locate near public lands and outdoor spaces in order to 
improve the quality of life experience for their employees.
    Please promote a strong economy and happy, healthy families and 
communities by investing in our Nation's parks, trails, rivers and open 
spaces.
                                 ______
                                 
       Prepared Statement of the Oregon Water Resources Congress
    The Oregon Water Resources Congress (OWRC) is concerned about 
continued reductions to the U.S. Environmental Protection Agency's 
(EPA) Clean Water State Revolving Fund Loan Program (CWSRF) and is 
requesting that appropriations for this program be increased to at 
least $2 billion in fiscal year 2014. The CWSRF is an effective loan 
program that addresses critical water infrastructure needs while 
benefiting the environment, local communities, and the economy. OWRC is 
also concerned about various efforts by EPA to increase regulatory 
authority over water resources planning and urges the Senate to take 
action and prevent further jurisdictional overreach. EPA's actions to 
increase its jurisdiction are counterproductive to collaborative 
planning and detract from the positive solutions achieved through the 
CWSRF program.
    OWRC is a nonprofit association representing irrigation districts, 
water control districts, improvement districts, drainage districts and 
other local government entities delivering agricultural water supplies. 
These water stewards operate complex water management systems, 
including water supply reservoirs, canals, pipelines, and hydropower 
production, and deliver water to roughly one-third of all irrigated 
land in Oregon. OWRC has been promoting the protection and use of water 
rights and the wise stewardship of water resources on behalf of 
agricultural water suppliers for more than 100 years.
                    fiscal year 2014 appropriations
    We recognize that our country is facing difficult economic times 
and that we must make strategic investments with scarce resources. The 
CWSRF is a perfect example of the type of program that should have 
funding increased because it creates jobs while benefiting the 
environment, aids with proactive asset management, and is an efficient 
return on taxpayer investment. Oregon is facing record levels of 
unemployment and the CWSRF funded projects provide much needed 
construction and professional services jobs. Moreover, as a loan 
program, it is a wise investment that allows local communities to 
leverage their limited resources and address critical infrastructure 
needs that would otherwise be unmet.
    Nationally, and in Oregon, there are substantial unmet water 
infrastructure needs. In Clean Watersheds Needs Survey 2008: Report to 
Congress and Drinking Water Infrastructure Needs Survey and Assessment: 
Fourth Report to Congress, EPA estimated that the funding need for 
drinking water infrastructure totaled $335 billion (in 2007 dollars) 
and wastewater infrastructure needs totaled $298 billion (in 2008 
dollars). Appropriations for water infrastructure, specifically the 
CWSRF, should not be declining but remaining strong, and growing, in 
order to meet these critical needs. The President's fiscal year 2014 
budget proposes only $1.1 billion for the CWSRF program, a $472 million 
reduction from fiscal year 2012. This is an inadequate amount in light 
of the enormity of the infrastructure needs nationally. There has not 
been an increase since 2009 while both the infrastructure needs and the 
costs to address continue to grow. Continued funding reductions have 
led to delaying repairs or upgrades which increases potential for 
catastrophic failure and is counterproductive to the administration's 
desire to encourage asset management and sustainable water 
infrastructure. We are deeply concerned about this negative downward 
trend and urge you to reverse course and increase funding for this 
valuable program.
                   cwsrf success and needs in oregon
    Six OWRC member districts have successfully received loans from the 
CWSRF over the last several years and many more will apply if funds are 
available. Numerous irrigation districts and other water suppliers are 
taking proactive approaches to addressing non-point source issues by 
piping open canals, which improves water quality by eliminating 
potential run-off, and increasing water availability for both 
irrigators and fish and wildlife. Oregon's Department of Environmental 
Quality (DEQ) has also recently revised their CWSRF rules, which will 
create greater opportunities for water quality improvement projects 
that yield both environmental and economic benefits. However, reduced 
Federal funding has created uncertainty for potential program 
applicants and there continues to be more applicants than available 
funding.
    What is being proposed for fiscal year 2014 CWSRF appropriations is 
far short of what is needed to address critical water infrastructure 
needs in Oregon and across the Nation. The DEQ's most recent ``Proposed 
Intended Use Plan Update #2--State Fiscal Year 2013,'' lists 14 
projects in need of a total of $30,914,491 in Oregon alone. The fiscal 
year 2013 capitalization grant available to DEQ is $7,370,000, roughly 
half of the fiscal year 2012 appropriations DEQ received. Currently, 
two irrigation districts have submitted applications for funding to 
complete projects that will not only benefit the environment and the 
patrons served by the water delivery system, but also benefit the 
economy. These projects include:
  --Central Oregon Irrigation District.--This project would provide 
        4,500 feet of new pipeline to carry irrigation water currently 
        in open canal which will lead to water efficiency consistent 
        with EPA's green project reserve guidance. Request: $3,250,000
  --Three Sisters Irrigation District.--This project would design and 
        construct approximately 5.3 miles of HDPE 42-inch pipe to 
        remove irrigation water from open canals which will lead to 
        water efficiency consistent with EPA's green project reserve 
        guidance. Request: $2 million
    We support the administration's efforts to expand ``green 
infrastructure'' options and encourage sustainable water 
infrastructure. In fact, irrigation districts and other water suppliers 
in Oregon are on the forefront of ``green infrastructure'' through 
innovative piping projects that provide multiple environmental 
benefits. Four irrigation districts received more than $11 million 
funding in Oregon from the 2009 American Recovery and Reinvestment Act 
(ARRA) funding through the CWSRF for projects which created valuable 
jobs while improving water quality. These four projects were essential 
to DEQ not only meeting but exceeding the minimum requirement that 20 
percent of the total ARRA funding for the CWSRF be used for ``green'' 
projects. Our districts continue to be on the forefront of innovation 
and are often the only projects that qualify for the green project 
reserve. However, continually reducing the amount of funds available 
for these worthwhile projects is counterproductive to the 
administration's desire to incentivize green infrastructure and has 
created increased uncertainty for potential borrowers about whether 
adequate funding will be available in future years.
    CWSRF is often an integral part of an overall package of State, 
Federal and local funding that necessitates a stronger level of 
assurance that loan funds will be available for planned water 
infrastructure projects. CWSRF reductions can lead to loss of grant 
funding and delay or derail beneficial projects that irrigation 
districts have been developing for years. OWRC supports the creation of 
an infrastructure bank, but the needs facing communities now cannot 
wait for a new funding mechanism, particularly when the CWSRF has 
worked very efficiently in Oregon. The CWSRF has been an extremely 
valuable tool in Oregon for improving water quality and efficiently 
addressing infrastructure challenges that are otherwise cost-
prohibitive.
         the importance and success of local watershed planning
    In addition to advocating for increases to the CWSRF program, OWRC 
is supportive of funding and technical assistance for States to conduct 
watershed planning activities. Oregon is the model for watershed 
planning and does not need a new Federal agency or executive branch 
office to continue watershed planning--but we could use Federal 
assistance in implementing priority activities. Planning activities are 
conducted through local watershed councils, volunteer-driven 
organizations that work with local, State and Federal agencies, 
economic and environmental interests, agricultural, industrial and 
municipal water users, local landowners, tribes, and other members of 
the community. There are more than 60 individual watershed councils in 
Oregon that are already deeply engaged in watershed planning and 
restoration activities.
    Oregon's success in watershed planning illustrates that planning 
efforts work best when diverse interests develop and implement plans at 
the local watershed level with support from State and Federal 
government. However, we continue to be concerned about EPA (and CEQ) 
efforts to revise Clean Water Act Guidance without appropriate public 
process or legislative oversight. The proposed changes would greatly 
broaden EPA authority and illustrate an apparent desire to dictate 
watershed planning methods for the Nation using a top-down regulatory 
approach from a desk in Washington, DC. This regulatory overreach will 
lead to uncertainty for landowners and water users, increased 
litigation and destroy collaborative efforts (including CWSRF projects) 
already underway in Oregon and across the Nation. Furthermore, funding 
for these types of regulatory activities should be extensively reviewed 
and not come at the expense of valuable and established programs like 
the CWSRF.
                               conclusion
    We strongly support the CWSRF program and urge you to increase 
funding so that additional innovative, environmentally and economically 
beneficial water quality projects can be implemented in Oregon and 
nationally. The voluntary, pro-active approach of the CWSRF program 
creates and promotes collaborative solutions to water resources 
challenges. Conversely, regulatory overreach destroys cooperation, 
creates mistrust and has a very negative effect on jobs and local 
economies. Last, increasing CWSRF program funding is a smart investment 
that will help leverage other sources of funding to address critical 
water infrastructure needs. We respectfully request the appropriation 
of at least $2 billion for the U.S. Environmental Protection Agency's 
Clean Water State Revolving Loan Fund for fiscal year 2014.
                                 ______
                                 
  Prepared Statement of the Pacific Northwest Fish Health Protection 
                               Committee
    I am writing to you on behalf of the Pacific Northwest Fish Health 
Protection Committee (PNFHPC). The PNFHPC was formed in 1984 and is a 
consortium of representatives from natural resource management agencies 
including Treaty Tribes and commercial fish producers from the Pacific 
Northwest. The committee is a forum, operating on a consensus basis to 
discuss and resolve fish health issues, to disseminate research 
findings/educational material and to communicate openly on all matters 
as they relate to the production of healthy wild and cultured fish. 
Members within the PNFHPC include representatives from Alaska, 
California, Idaho, Montana, Oregon and Washington, USFWS, NOAA-
Fisheries, Pacific Northwest Tribes, the private fish production 
sector, with observers from British Columbia, Canada and valuable 
participation from educational institutions, private and public 
research laboratories, resource managers and conservation groups within 
the Pacific Northwest and other regions.
    The PNFHPC wishes to express their serious concern regarding the 
fiscal year 2014 President's budget that proposes a $400,000 reduction 
in funding for the U.S. Fish and Wildlife Service's Aquatic Animal Drug 
Approval Partnership (AADAP) program. AADAP serves a unique and 
necessary Federal role in aquaculture drug approvals, and exemplifies 
the U.S. Fish and Wildlife's stated principles of leadership, sound 
science, and fulfilling its partners' needs.
    U.S. aquaculture is worth more $1 billion annually, and U.S. 
aquaculture farms employ more than 10,500 Americans with a payroll of 
nearly $169 million. The FAO estimates that for every person directly 
employed in the fisheries and aquaculture sector, 3-4 additional jobs 
are supported indirectly in related industries. The aquaculture jobs 
sector is growing and providing food security and jobs throughout the 
world. Without a strong and growing aquaculture industry, the United 
States faces an increasingly insecure seafood supply: 86 percent of 
seafood consumed in the United States is imported, creating a seafood 
deficit of over $10.4 billion annually.
    The mission of PNFHPC, in part, is to provide a unified regional 
forum for fish health issues as they relate to aquaculture. The 
aquaculture industry is subject to numerous regulatory burdens, 
including the U.S. Food and Drug Administration's regulation of aquatic 
animal drugs needed to ensure the health and well-being of farmed fish, 
as well as food safety. The market for aquaculture drugs offers 
pharmaceutical companies little return on investment, and the 
aquaculture industry relies on public partners for access to these 
tools. The AADAP program coordinates the efforts of numerous 
stakeholders, including members of the PNFHPC, to secure aquaculture 
drug approvals, and aids public and private fish culture operations by 
allowing for monitored, legal access to drugs in development. AADAP is 
one of the few Federal programs providing needed support to an industry 
which faces significant and unique challenges related to animal health 
and risk management.
    The PNFHPC recognizes the challenges of the current fiscal climate, 
but loss of leadership and capacity within the AADAP program will 
prevent public and private fish culture operations from accessing the 
tools they need to provide the American public with safe, wholesome 
seafood. The proposed reductions will effectively terminate the AADAP 
research program. Without this program the finfish aquaculture drug 
approval process in the United States will be halted. We strongly 
encourage you to fully support the AADAP program at a funding level of 
$1.2 million and ensure the current and future needs of commercial 
aquaculture continue to be met. Thank you for your consideration of our 
position.
                                 ______
                                 
  Prepared Statement of the Partnership for the National Trails System
    Mr. Chairman and members of the subcommittee: The Partnership for 
the National Trails System appreciates your support over the past 19 
years, through operations funding and dedicated Challenge Cost Share 
funds, for the national scenic and historic trails administered by the 
National Park Service. We also appreciate your increased allocation of 
funds to support the trails administered and managed by the Forest 
Service and for the trails in the Bureau of Land Management's National 
Landscape Conservation System. To continue the progress that you have 
fostered, the Partnership requests that you provide annual operations 
funding for each of the 30 national scenic and historic trails for 
fiscal year 2014 through these appropriations:
  --National Park Service.--$16.21 million for administration of 23 
        trails and for coordination of the long-distance trails program 
        by the Washington office. Construction: $380,000 for the Ice 
        Age Trail and $200,000 for the Pacific Crest Trail.
  --USDA Forest Service.--$9.096 million to administer 6 trails and 
        $1.2 million to manage parts of 16 trails administered by the 
        NPS or BLM. $1 million for Iditarod Trail construction.
  --Bureau of Land Management.--To coordinate its National Trails 
        System Program: $250,000; to administer these trails: Iditarod 
        Trail: $700,000, the Camino Real de Tierra Adentro Trail: 
        $230,000, the Old Spanish Trail: $350,000 and to manage 
        portions of 13 trails administered by the Park Service or the 
        Forest Service: $4 million; $3,140,000 for operating five 
        National Historic Trail interpretive centers; Construction: 
        $300,000 for the Pacific Crest Trail.
  --We ask that you appropriate $4.5 million for the National Park 
        Service Challenge Cost Share Program and continue to direct 
        one-third ($1.5 million) for national scenic and historic 
        trails or create a separate $1.5 million National Trails System 
        Challenge Cost Share Program.
  --We ask that you add $500,000 to the Bureau of Land Management's 
        Challenge Cost Share Program and allocate it for the national 
        scenic and historic trails it administers or manages.
    We ask that you appropriate $61,601,508 from the Land and Water 
Conservation Fund for the acquisition of 119 tracts along seven 
national scenic and four national historic trails described in the 
National Trails System Collaborative Landscape Planning proposal and 
allocate this funding to:
  --the Bureau of Land Management: $5,722,260;
  --the U.S. Fish and Wildlife Service: $12,660,782;
  --the U.S. Forest Service: $18,215,866; and
  --the National Park Service: $25,002,600.
                         national park service
    The $16.21 million we request for Park Service operations includes 
increases for some of the trails to continue the progress and new 
initiatives made possible by the additional funding Congress provided 
several years ago. Funding for the new Star Spangled Banner and 
Washington-Rochambeau Trails and $400,000 for the Park Service to 
implement planning for the New England Trail is included.
    We request an increase of $626,000 to expand Park Service efforts 
to protect cultural landscapes at more than 200 sites along the Santa 
Fe Trail, to develop GIS mapping, and to fund public educational 
outreach programs of the Santa Fe Trail Association. An increase of 
$780,000 for the Trail of Tears will enable the Park Service to work 
with the Trail of Tears Association to develop a GIS to map the Trail's 
historical and cultural heritage sites to protect them and to develop 
interpretation of them for visitors. We request an increase of $346,000 
to $866,000 for the Ala Kahakai Trail to enable the Park Service to 
work with E Mau Na Ala Hele, the Ala Kahakai Trail Association, and 
other community organizations to care for resources on the land and 
with the University of Hawaii to conduct archaeological and cultural 
landscape studies along this trail.
    We request an increase of $193,000 to $1,708,000 for the 
Appalachian Trail to expand the highly successful ``Trail to Every 
Classroom'' program of the Appalachian Trail Conservancy. The 
$1,483,000 we request for the 4,200 mile North Country Trail will 
enable the Park Service to provide greater support for the regional GIS 
mapping, trail building, trail management, and training of volunteers 
led by the North Country Trail Association. The $1,389,000 we request 
for the Ice Age Trail includes a $535,000 increase to build partner and 
citizen capacity for protecting the natural and cultural resources on 
the Trail and Ice Age Trail lands and to provide NPS with a property 
manager for NPS-owned lands.
    Construction.--We request that you appropriate for trail 
construction projects $380,000 for the Ice Age Trail and $200,000 for 
the Pacific Crest Trail in the national parks crossed by the trail.
    Challenge Cost Share programs are one of the most effective and 
efficient ways for Federal agencies to accomplish a wide array of 
projects for public benefit while also sustaining partnerships 
involving countless private citizens in doing public service work. We 
request that you robustly fund the Park Service, Bureau of Land 
Management, and Fish and Wildlife Service Challenge Cost Share programs 
and appropriate $4.5 million in Challenge Cost Share funding to the 
Park Service for fiscal year 2014 as a wise investment of public money 
that will generate public benefits many times greater than its sum. We 
ask you to continue to direct one-third of the $4.5 million for the 
national scenic and historic trails to continue the steady progress 
toward making these trails fully available for public enjoyment. We 
suggest, as an alternative to the annual allocating of funds from the 
Regular Challenge Cost Share program, that you create a separate 
National Trails System Challenge Cost Share program with $1.5 million 
funding.
                          usda--forest service
    We ask you to appropriate $9.096 million as a separate budgetary 
item specifically for the Arizona, Continental Divide, Florida, Pacific 
Crest, and Pacific Northwest National Scenic Trails and the Nez Perce 
National Historic Trail within the overall appropriation for Capital 
Improvements and Maintenance for Trails. Recognizing the on-the-ground 
management responsibility the Forest Service has for 1,024 miles of the 
Appalachian Trail, more than 650 miles of the North Country Trail, and 
sections of the Ice Age, Anza, Caminos Real de Tierra Adentro and de 
Tejas, Lewis & Clark, California, Iditarod, Mormon Pioneer, Old 
Spanish, Oregon, Overmountain Victory, Pony Express, Trail of Tears and 
Santa Fe Trails, we ask you to appropriate $1.2 million specifically 
for these trails.
    The Partnership's request of $9.096 million includes $2.5 million 
to enable the Forest Service and Florida Trail Association to continue 
trail maintenance, to control invasive species, do ecosystem 
restoration, and otherwise manage 4,625 acres of new Florida Trail 
land. The $9.096 million request also includes $2 million for the 
Pacific Crest Trail, $2.2 million for the Continental Divide Trail, $1 
million for the Pacific Northwest Trail, $826,000 for the Nez Perce 
Trail, and $570,000 for the Arizona Trail. Some of the additional funds 
requested will enable the Forest Service to develop Comprehensive 
Management Plans for the latter three trails. We also request $1 
million of additional funding for construction of sections of the 
Iditarod Trail.
                       bureau of land management
    Although considerably more money is needed to fully administer the 
National Landscape Conservation System and protect its resources, we 
support the $69.549 million in base funding for the System the 
administration requested for fiscal year 2013. We ask that you 
appropriate as new permanent base funding $250,000 for National Trails 
System Program Coordination, $700,000 for the Iditarod Trail, $230,000 
for El Camino Real de Tierra Adentro Trail, $350,000 for the Old 
Spanish Trail, and $4,000,000 for the Bureau of Land Management to 
manage 3,756 miles of 13 other national scenic and historic trails. For 
trail maintenance we request $300,000 for the Pacific Crest Trail and 
$50,000 for the Nez Perce Trail; and request $3,140,000 to operate five 
historic trails interpretive centers.
    We ask you to provide $19 million for the Bureau's Challenge Cost 
Share program and to direct $500,000 for National Trails System 
projects as you have done with the Park Service's CCS program.
    To promote greater management transparency and accountability for 
the National Trails and the whole National Landscape Conservation 
System, we urge you to request expenditure and accomplishment reports 
for each of the NLCS Units for fiscal year 2013 and to direct the 
Bureau to include unit-level allocations within major sub-activities 
for each of the scenic and historic trails, and wild and scenic 
rivers--as the Bureau has done for the monuments and conservation 
areas--within a new activity account for the National Landscape 
Conservation System in fiscal year 2014. The Bureau's lack of a unified 
budget account for National Trails prevents the agency from efficiently 
planning, implementing, reporting, and taking advantage of cost-saving 
and leveraging partnerships and volunteer contributions for every 
activity related to these national resources.
                    land and water conservation fund
    The Partnership requests that you provide the authorized $900 
million for the Land and Water Conservation Fund and within this amount 
$61,601,508 for the National Trails System Collaborative Landscape 
Planning proposal to acquire 119 tracts along the 11 national scenic 
and historic trails detailed here:
Bureau of Land Management: $5,722,260, 19 tracts, 3,687 acres
    Nez Perce and Lewis and Clark National Historic Trails (Idaho and 
Montana).--$1,630,000 to protect natural and archaeological resources 
along two historic trails at Cow Island, Cow Creek, and Lolo Creek.
    Pacific Crest National Scenic Trail (Oregon and California).--
$4,092,260 for trail and resource protection within the Cascade 
Siskiyou National Monument, San Gorgonio Wilderness, and Whitewater 
Area of Critical Environmental Concern.
U.S. Fish and Wildlife Service: $12,660,782, 8 tracts, 3,433 acres
    Appalachian National Scenic Trail (Pennsylvania).--$4,300,000 for 
watershed, viewshed, and globally rare habitat protection along 
Kittatinny Ridge in the Delaware Water Gap of Cherry Valley National 
Wildlife Refuge.
    El Camino Real de Tierra Adentro National Historic Trail (New 
Mexico).--$6,860,782 for resource protection and acquisition of water 
rights for Middle Rio Grande National Wildlife Refuge, the southwest's 
first urban national wildlife refuge.
    Lewis and Clark National Historic Trail (Washington).--$1,500,000 
for protection of an intact historic setting representing what the 
Corps of Discovery saw and experienced, and improved protection of a 
threatened habitat type.
U.S. Forest Service: $18,215,866, 70 tracts, 5,203 acres
    Appalachian National Scenic Trail (North Carolina, Tennessee, 
Virginia).--$5,450,000 to protect priority viewsheds and unique, 
quality high-elevation ecosystems in the Pisgah, Cherokee, and George 
Washington National Forests.
    Continental Divide National Scenic Trail (Colorado).--$199,300 to 
provide trail connectivity, conserve alpine landscapes, and protect 
watersheds critical to Denver's water supply.
    Florida National Scenic Trail (Florida).--$1,776,675 to protect the 
remaining 3 miles of gaps along the 70-mile Suwannee River section and 
complete resource protection for critical habitat, including riparian 
lands.
    Pacific Crest National Scenic Trail (California, Oregon, 
Washington).--$10,789,891 for trail and resource protection along the 
crest of the Cascades and Sierras, and the Transverse Desert Ranges 
from the edge of the Anza-Borrego Desert in southern California to the 
Okanogan-Wenatchee National Forest in northern Washington.
National Park Service: $25,002,600, 22 tracts, 5,349 acres
    Ala Kahakai National Historic Trail (Hawaii).--$4,250,000 to 
protect 59 acres along the Kona Coast with numerous historical and 
archaeological sites and a section of the Ala Kahakai National Historic 
Trail.
    Appalachian National Scenic Trail (Pennsylvania and Vermont).--
$3,700,000 for watershed, viewshed, and globally rare habitat 
protection along Kittatinny Ridge in the Delaware Water Gap of Cherry 
Valley National Wildlife Refuge and for an inholding in the Green 
Mountain National Forest.
    Continental Divide National Scenic Trail (New Mexico).--$5,300,000 
to re-route the CDNST off of roads onto lands that will afford 
spectacular views of an access to nationally significant volcanic 
landscapes in El Malpais National Monument.
    Ice Age National Scenic Trail (Wisconsin).--$3,780,000 for 
protection of a continuous corridor for hikers, wildlife, and 
management along the Eau Claire River, at the edge of the Driftless 
Area and within the renowned Kettle Moraine.
    New England National Scenic Trail (Connecticut and 
Massachusetts).--$4,000,000 for trail and resource protection on two 
key parcels that provide campsites for hikers, connections to two 
community centers and a contiguous open space corridor.
    Nez Perce National Historic Trail (Oregon and Montana).--$1,210,000 
to preserve trail and archaeological sites at the Bloody Gulch of Big 
Hole National Battlefield and at Old Joseph Minam State Park.
    North Country National Scenic Trail (Pennsylvania and Wisconsin).--
$2,762,600 for key trail connections between Moraine State Park and 
McConnell's Mill State Park in western Pennsylvania, and along the Lake 
Superior shoreline in Wisconsin.
    The Partnership strongly supports the new ``National Rivers and 
Trails Initiative'' funding line included in the National Park Service 
budget for fiscal year 2013 as a first step to providing consistent 
annual funding to acquire the land needed to complete congressionally 
authorized trails. We urge you to provide considerably more than the $4 
million requested by the administration for fiscal year 2013 since the 
Park Service LWCF funding requests above total more than $25 million.
         private sector support for the national trails system
    Public-spirited partnerships between private citizens and public 
agencies have been a hallmark of the National Trails System since its 
inception. These partnerships create the enduring strength of the 
Trails System and the trail communities that sustain it by combining 
the local, grassroots energy and responsiveness of volunteers with the 
responsible continuity of public agencies. They also provide private 
financial support for public projects, often resulting in a greater 
than equal match of funds.
    The private trail organizations' commitment to the success of these 
trail-sustaining partnerships grows even as Congress' support for the 
trails has grown. In 2012 the trail organizations fostered 1,185,375 
hours--an increase of 2.4 percent more than 2011--of documented 
volunteer labor valued at $26,244,202 to help sustain the national 
scenic and historic trails. The organizations also raised private 
sector contributions of $7,565,777 to benefit the trails.
                                 ______
                                 
          Prepared Statement of the Puyallup Tribe of Indians
    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to provide testimony on the fiscal year 2014 appropriations 
for American Indian and Alaskan Native programs. My name is David Z. 
Bean, Tribal Council Member for the Puyallup Tribe of Indians. The 
Puyallup Tribe is an independent sovereign nation having historically 
negotiated with several foreign nations including the United States in 
the Medicine Creek Treaty of 1854. This relationship is rooted in 
Article I, section 8, of the United States Constitution, Federal laws 
and numerous Executive orders. The governing body of the Puyallup Tribe 
of Indians is the Puyallup Tribal Council, which upholds the Tribe's 
sovereign responsibility of self-determination and self-governance for 
the benefit of the 4,416 Puyallup tribal members and the 25,000 plus 
members from approximately 355 federally recognized Tribes who utilize 
our services. The Puyallup Reservation is located in the urbanized 
Seattle-Tacoma area of the State of Washington. The 18,061-acre 
reservation is a ``checkerboard'' of tribal lands, Indian-owned fee 
land and non-Indian-owned fee land. Our reservation land includes parts 
of six different municipalities (Tacoma, Fife, Milton, Puyallup, 
Edgewood, and Federal Way).
    The following written testimony being submitted to the U.S. Senate 
Appropriations subcommittee documents the Puyallup Tribe's views on the 
President's fiscal year 2014 Federal budget. On April 10, 2013, 
President Obama delivered his delayed fiscal year 2014 budget to 
Congress. The budget proposal focuses on job creation and the beginning 
steps to reducing the Nation's projected deficits. Within the budget, 
$2.183 billion is provided for the Operation of Indian Programs. This 
represents an overall increase of $37.2 million over the fiscal year 
2012 enacted level. For the Indian Health Service, $5.5 billion is 
provided, an increase of $116 million over the fiscal year 2012 enacted 
level. We appreciate the increased funding provided for the operation 
of Indian programs within the Bureau of Indian Affairs and the Indian 
Health Service. However, the years of inadequate funding, negative 
effects of inflation and the impacts of sequestration on the fiscal 
year 2013 and fiscal year 2014 funding levels will impact the tribe's 
ability to fully exercise self-determination and self-governance. As 
negotiations proceed on the fiscal year 2014 budget and future 
appropriations, efforts to ensure adequate funding is provided for the 
operation of Indian programs will be paramount. To preserve increased 
funding levels realized in recent years and contained in the proposed 
fiscal year 2014 budget for the Bureau of Indian Affairs and the Indian 
Health Service, Congress and the administration should view these 
increases as new ``base funding'' and be held harmless from across the 
board cuts to programs that have been historically underfunded. 
Specific issues and needs are:
          department of the interior--bureau of indian affairs
    Public Safety and Justice.--The fiscal year 2014 budget request 
includes $363.4 million for BIA Public Safety and Justice. This 
represents a $19.9 million increase over the fiscal year 2012 enacted 
level, which is fully supported by the Puyallup Tribe. The $96.9 
million for Tribal and BIA detention and corrections funding is of 
great importance to the Puyallup Tribe. Within this amount, $13.4 
million increase will be directed to fund staffing, training, 
operations and O&M costs at newly constructed tribally operated 
detention facilities. While this increase is supported by the Puyallup 
Tribe, it is of concern that current and ARRA funded facilities will 
remain understaffed and underfunded. The Department of Justice funded 
13 tribes for the construction and/or expansion of detention 
facilities. According to the BIA Greenbook, five new or expanded 
facilities will become operational by the end of fiscal year 2013, with 
additional facilities coming on-line in fiscal year 2014. It is 
estimated that 291 additional staff will be needed to operate these 
facilities. In fiscal year 2009, the Puyallup Tribe received a 
Department of Justice ARRA grant, in the amount of $7.9 million to 
construct a 28-bed adult corrections facility. The Tribe has addressed 
all special Terms and Conditions of the Grant Award, completed facility 
environmental documentation, design, executed final construction 
contracts and performed the Groundbreaking Ceremony on March 28, 2013. 
The Project will be completed and be coming on-line by the end of the 
second quarter of fiscal year 2014. Over the past 4 years the Puyallup 
Tribe has been working closely with national and regional staff of the 
BIA-Office of Justice Services on identifying the future operating and 
staffing costs associated with the Puyallup Tribe's new adult 
corrections facility. We have submitted a Public Law 93-638 contract 
request to the BIA for Operations and Maintenance funding for the new 
facility, including Pre-Award, Start-up, Transitional funding, Staffing 
and O&M funding. We are requesting support from the subcommittee on our 
contract request to the BIA for O&M funding for the Tribe's Adult 
Corrections facility, estimated at $3.2 million annually. Further, the 
Puyallup Tribe requests the subcommittee's support for increasing 
funding for BIA Detention/Corrections by $32.2 million to reflect 
actual funding needs. In addition, we have submitted a Public Law 93-
638 contract request to the BIA for Tribal Court funding, including 
pre-award and start-up funding. In fiscal year 2012, the BIA was able 
to fund only one-third of actual need of pre-award and start-up funding 
requests. We continue to request support from the subcommittee to 
increase Tribal Court funding at $73.2 million, an increase of 
approximately three times the fiscal year 2012 base funding. Increased 
funding would be used for judges, prosecutors, public defenders, 
probation officers, court staff and development of diversion programs 
designed to reduce recidivism within the tribal judicial system.
    Natural Resources Management.--The Puyallup Tribe as stewards for 
land and marine waters in the Usual and Accustomed fish, shellfish and 
wildlife areas has treaty and governmental obligations and 
responsibilities to manage natural resources for uses beneficial to the 
Tribal membership and the regional communities. Despite our diligent 
program efforts, the fisheries resource is degrading and economic 
losses are incurred by Native and non-Native fishermen and surrounding 
communities. Our resource management responsibilities cover thousands 
of square miles in the Puget Sound region of the State of Washington 
with an obligation to manage production of anadromous, non-anadromous 
fish, shellfish and wildlife resources. Existing levels of support are 
inadequate to reverse the trend of resource/habitat degradation. For 
fiscal year 2014, $9.613 million is provided for BIA Western Washington 
Fisheries Management, a small increase over the fiscal year 2012 
enacted level of $8.256 million. As the aboriginal owners and guardians 
of our lands and waters it is essential that adequate funding is 
provided to allow tribes to carry out our inherent stewardship of these 
resources. The Puyallup Tribe will continue to secure increased funding 
for Hatchery Operations and Maintenance. The President's fiscal year 
2014 budget contains $6.842 million for Tribal Hatchery Maintenance, 
compared to the fiscal year 2012 enacted budget of $4.83 million and 
$1.85 million for Tribal Hatchery Operations, compared to the fiscal 
year 2012 enacted budget of $1.6 million. The Puyallup Tribe supports 
the President's fiscal year 2014 funding requests for Tribal Hatchery 
Operations and Maintenance. The Timber, Fish and Wildlife (TFW) 
Supplemental and United States/Canada Pacific Salmon Treaty programs 
have allowed for the expansion of tribal participation in the State 
forest practice rules and regulations and participation in inter-tribal 
organizations to address specific treaties and legal cases, which 
relate to multi-national fishing rights, harvest allocations and 
resource management practices. We request the subcommittee to support 
providing funding for the TFW at the President's fiscal year 2014 
request of $3.082 million and United States/Canada Pacific Salmon 
Treaty program funding at $4.844 million, an increase of $640,000 over 
the fiscal year 2012 enacted level. The Puyallup Wildlife Management 
program has been the lead agency in management activities to benefit 
the South Rainier elk herd since 2004. The South Rainier elk herd is 
the primary stock of elk harvested by the Puyallup Tribe. The Tribe has 
not only established more reliable methods for population monitoring, 
but has also been proactive in initiating habitat enhancement projects, 
research and land acquisition to ensure sustainable populations of elk 
for future generations. Funds that are available to the Tribe have been 
on a very competitive basis with a limited amount per program via USFWS 
Tribal Wildlife grants and the BIA Unresolved Hunting and Fishing 
Rights grant program. We request the subcommittee to support providing 
base funding to the Tribes Wildlife Management Program in the amount of 
$100,000 through the BIA Unresolved Hunting and Fishing Rights program 
in fiscal year 2014 appropriations.
    Education.--The fiscal year 2014 budget requests funding of $802.7 
million for the Education program, an increase of $7.2 million, less 
than a 1 percent increase above the fiscal year 2012 enacted level. We 
operate the pre-K to 12 Chief Leschi Schools which include a verified 
2011-2012 School student enrollment of 910+ students, including ECEAP 
and FACE programs. With an increasing number of pre-kindergarten 
enrollment, Chief Leschi Schools will exceed design capacity in the 
near future. Additional education facility space will be required. The 
Puyallup Tribe is concerned and strongly disagrees with the proposed 
elimination of funding for the Replacement School Construction line 
item. We do not believe that the underfunded Facilities Improvement and 
Repair program will be able to address the growing need for new 
education facilities. Additionally, the cost of operation and 
maintenance of the Chief Leschi School facilities continues to increase 
in the areas of supplies, energy and student transportation costs. The 
Tribe will work with Congress and the BIE to increase funding in fiscal 
year 2014, including: Tribal Grant Support Cost for Tribally Operated 
Schools--$23 million more than the fiscal year 2012 enacted level; 
Replacement School Construction--$17.8 million; Student 
Transportation--$52.796 million; and Elementary and Secondary 
Programs--$526.4 million.
    Operations of Indian Programs and Tribal Priority Allocations.--The 
President's fiscal year 2014 budget is in drastic need for increased 
funding for the BIA Operations of Indian Programs. Within the 
Operations of Indian Programs is the Tribal Priority Allocations (TPA). 
The TPA budget functions include the majority of funding used to 
support ongoing services at the ``local tribal'' level, including 
natural resources management, child welfare, other education, housing 
and other tribal government services. These functions have not received 
adequate and consistent funding to allow tribes the resources to fully 
exercise self-determination and self-governance. Further, the small 
increases ``TPA'' has received over the past few years has not been 
adequate to keep pace with inflation. The Puyallup Tribe is requesting 
support from the subcommittee to fund the Operation of Indian Programs 
at the fiscal year 2014 request of $2.183 billion and Tribal Priority 
Allocations at a minimum of $894 million, an increase of $15.5 million 
above the fiscal year 2012 enacted level. We further request support 
from the subcommittee to increase funding for Indian Child Welfare 
(TPA) by $45 million; Increase Urban Indian Child Welfare programs by 
$15 million; and increase BIA Child Welfare Assistance by $55 million.
     department of health and human services--indian health service
    The inadequate funding of the Indian Health Service is the most 
substantial impediment to the current Indian Health system. The 
Puyallup Tribe has been operating healthcare programs since 1976 
through the Indian Self-determination Act, Public Law 93-638. The 
Puyallup Tribal Health Authority (PTHA) operates a comprehensive 
ambulatory care program to the Native American population in Pierce 
County, Washington. The current patient load exceeds 9,000, of which 
approximately 1,700 are Puyallup Tribal members. There are no Indian 
Health Service hospitals in the Portland Area so all specialties and 
hospital care have to be paid for out of our contract care allocation. 
The contract care allocation to PTHA has been significantly inadequate 
to meet actual need since fiscal year 2004 when the Puyallup Tribe 
subsidized Contract Health with a $2.8 million contribution. For fiscal 
year 2013 the tribal subsidy had reached a staggering $6 million. Given 
that the PTHA service population is only comprised of 17 percent 
Puyallup Tribal members, Tribal budget priorities in fiscal years 2012 
and 2013 have made continued subsidies to the PTHA financially 
difficult for the Puyallup Tribe. The fiscal year 2014 budget requests 
$5.5 billion in discretionary budget authority for the Indian Health 
Service. This represents a $116 million increase over the fiscal year 
2012 enacted level. For Health Services programs the fiscal year 2014 
budget request is $4.43 billion, an increase of $112 million over the 
fiscal year 2012 enacted level. Included within the increases are 
funding for Contract Support Costs ($477.2 million--$100 million short 
of actual need), Purchase/Referred Care ($878.5 million), IHS 
Facilities ($448.1 million) and Alcohol and Substance Abuse funding 
($196.4 million). The Puyallup Tribe fully supports funding increases 
for existing IHS programs and will work with Congress to increase 
funding for IHS and the critical programs administered by this Agency. 
However, if Congress and the President do not agree to an alternative 
to the existing sequestration, any increases to IHS funding in the 
fiscal year 2014 budget will be eliminated.
                             sequestration
    Finally, it is the Tribe's sincere hope that the fiscal year 2014 
bill language remedy the drastic cuts to fiscal year 2013 
appropriations implemented under the sequester. As we have already 
stated, tribal programs have been historically underfunded--and this is 
in spite of the fact that the Federal Government maintains a sacred 
trust responsibility over Indian affairs. Should sequestration go into 
effect October 1, 2013, the proposed fiscal year 2014 Interior 
Department could be reduced to $10.966 billion, a $467.6 million 
decrease below the fiscal year 2012 enacted level for the Interior 
Department, taking Indian Country and the Nation in the wrong 
direction. The across the board 5 percent cuts to already underfunded 
tribal programs will have devastating impacts on Indian Country and 
reverse or delay tribal efforts, such as my tribe's, to improve our 
economies and the health and well-being of our tribal members.
                                 ______
                                 
            Prepared Statement of the Quinault Indian Nation
    Thank you for accepting the Quinault Indian Nation testimony on 
fiscal year 2014 budget priorities for the Bureau of Indian Affairs 
(BIA) and the Indian Health Service (IHS). We ask that this committee 
not subject tribal programs to sequestration reductions or assess 
unfair and disproportionate rescissions on American Indian and Alaska 
Native (AI/AN) peoples, not now, not ever. Ours is a unique 
relationship that you must honor and respect just as we were expected 
to trust you to honor the obligations documented in the agreements 
between our Nations. We ask this in the name of our ancestors and for 
the future generations of our indigenous people.
Tribal Specific Priority Request
    $5.79 million over a period of 5 years for upper Quinault River 
Restoration--BIA (2013-2017)
Local/Regional Requests and Recommendations
    Affiliated Tribes of Northwest Indians
    Northwest Portland Area Indian Health Board
    Northwest Indian Fisheries Commission
National and Self-Governance Requests and Recommendations--BIA Requests
    +$9.8 million--Contract Support Costs over fiscal year 2012 enacted 
level and maintain the status quo statutory language enacted in fiscal 
year 2013
    +$19 million--BIA Public Safety and Justice
    +$8 million--Tribal Pay Cost to achieve parity with the U.S. cost 
predictions
    +$89 million--General Increase to BIA Tribal Priority Allocation 
for inflationary and fixed costs and will allow Tribes to fully 
exercise the right to self-govern
    Fully fund provisions of Tribal Law & Order Act of 2010
    Funding to fully staff the Office of Self-Governance
National and Self-Governance Requests and Recommendations--IHS Requests
    +$5.8 million over fiscal year 2012 enacted level
    +$403 million for mandatory costs, inflation and population growth 
and to maintain existing healthcare services
    +$171.6 million for Purchased/Referred Care Program
    +$5 million to the Indian Health Service (IHS) Office of Tribal 
Self-Governance to keep pace with the increased needs of Tribes 
entering Self-Governance
                 tribal specific request justification
$5.79 Million Upper Quinault River Restoration (5-year period from 
        2013-2017)
    The Quinault Indian Nation (QIN) respectfully submits this proposal 
to complete river, floodplain, and salmon habitat restoration 
activities in four priority areas in the upper Quinault River (UQR) 
over a period of 5 years beginning in 2013. The QIN requests $5.79 
million in funding to (1) build up to 140 engineered logjams, (2) 
purchase logs and pilings for use in the logjams, and (3) complete 
approximately 537 acres of forest restoration planting. The funding 
will also be used to complete permitting, consultation and other 
construction related activities.
    The UQR is located on the west coast of the Olympic Peninsula in 
Washington State. The river provides the QIN culturally and 
economically important salmon resources. The most important salmon 
resource to the QIN is the Quinault Blueback (sockeye) salmon. The 
Blueback and other salmon stocks native to the UQR have declined 
significantly over the past 50 years. Current trends in Blueback run 
sizes indicate that the decline will continue and that the Blueback 
salmon is at risk of ``virtual extinction.''
    The QIN hired the U.S. Bureau of Reclamation (USBOR) in 2002 to 
conduct a study to evaluate changes that occurred to the UQR and 
potential causes for the observed declines in Blueback salmon 
production. The USBOR identified many contributors to salmon habitat 
loss and the Blueback salmon decline. However, the most important 
conclusion made by the USBOR was that:

    ``[T]he upper Quinault River and its salmon habitats will not heal 
on their own. Restorative intervention is required.''--U.S. Bureau of 
Reclamation 2005

    In response to the USBOR's conclusion and inherent risks to 
continued viability of the Blueback salmon as a fisheries resource, QIN 
made restoration of the UQR and Blueback salmon one of its primary 
initiatives. QIN staff immediately began developing a plan to restore 
the river. The Quinault Department of Fisheries completed the Salmon 
Habitat Restoration Plan--Upper Quinault River (Plan) in 2008. The Plan 
is a comprehensive, science based approach to restore the UQR including 
its floodplains, floodplain forests, and salmon habitat.
    The Plan applies engineered logjams (ELJs) and floodplain forest 
restoration methods modeled after natural floodplain forest 
developmental patterns and river channel habitat forming processes 
found in river valleys of the west side of the Olympic Mountains. The 
overall goal of the Plan is to restore for the long-term through 
cumulative benefits of individually completed projects, natural 
riverine and forested floodplain processes that will result in 
restoration of ecosystem services for salmon, wildlife and human users 
of the resources. Restoration of the Blueback and other fisheries 
resources in the UQR will provide cultural and economic benefits to 
local stakeholders, private landowners, and the QIN.
    The Plan and restoration approach is endorsed by Federal regulatory 
agencies including the U.S. Fish and Wildlife Service, the National 
Marine Fisheries Service, and the Army Corp of Engineers. The Plan is 
also endorsed by agencies of the State of Washington including the 
Governor's Salmon Recovery Office, Department of Natural Resources, 
Department of Fish and Wildlife, Department of Ecology, Washington 
Coast Sustainable Salmon Partnership, and the Pacific Coast Salmon 
Coalition. Federal land managers include the Olympic National Park and 
the U.S. Forest Service.
    The QIN has received support in principle from more than 27 private 
landowners in the UQR for the proposed projects. The QIN, with help 
from its restoration and funding partners, has raised and spent 
approximately $3.3 million in grant and ``in-kind'' staff funding since 
the USBOR study was conducted a decade ago. In that period, QIN has 
completed planning, engineering design, an environmental assessment, 
streamlined permitting and Endangered Species Act (ESA) consultation 
processes, and constructed three habitat restoration projects. These 
accomplishments demonstrate the ability and commitment of QIN to 
restore the UQR and the Blueback salmon. The QIN requests that this 
proposal for funding be approved so it can continue the work it has 
begun and maintain the momentum it has established to restore the UQR 
and Blueback salmon.
                          project description
    The QIN proposes to (1) build up to 140 engineered logjams, (2) 
purchase logs and pilings for use in the logjams, and (3) complete 
approximately 537 acres of forest restoration planting. The QIN will 
also complete permitting, consultation, and other construction related 
activities. The QIN has shovel ready designs completed for 4.8 river 
miles of the 12.6 mile (approximately 6,900 acres) UQR restoration 
reach with the remaining 7.2 river miles scheduled for completion in 
late summer 2013. Restoration activities in this proposal include ELJ 
construction, materials procurement, and forest restoration planting in 
four prioritized project areas in the restoration reach.
                           project objectives
    The project areas proposed for use of the funding include 
approximately 3.6 miles of main stem river channel and 520 acres of 
existing floodplain. The project, if funded and constructed in its 
entirety, will yield approximately 7.7 miles of protected and/or 
restored main stem river and side channel salmon habitat, approximately 
860 acres of new floodplain, and reestablish approximately 537 acres of 
mixed conifer-deciduous floodplain forest.
                project tasks, time schedule, and budget
    The proposed project will complete tasks and related activities 
according to the time schedule and estimated costs identified in Table 
1. The QIN will manage the project and provide ``in-kind'' services 
necessary to complete Tasks 1 and 5. Local logging contractors and 
timber suppliers will provide materials and services necessary to 
complete the project. The QIN has a contract with Quinault Valley 
Forestry, LLC to provide services necessary to complete materials 
procurement and construction services (Tasks 2 and 6). GeoEngineers, 
Inc. and Natural Systems Design are under contract with the QIN to 
provide permitting, river restoration, engineering design and 
construction oversight services (Tasks 3 and 4). R2 Resource 
Consultants is an environmental consulting firm under contract with QIN 
to provide forest and wetlands restoration services (Task 7).

   TABLE 1.--PROJECT TASKS, TIMELINES, AND ESTIMATED BUDGET DURING THE
                           PERIOD 2013 TO 2017
------------------------------------------------------------------------
        Task/Description              Time Schedule           Amount
------------------------------------------------------------------------
Task 1--Project Management &     2013-2017..............         $18,200
 Coordination.
Task 2--Materials Procurement    2013-2017..............       1,450,161
 Services.
Task 3--Permitting, NEPA and     2013-2015..............          12,000
 Consultations.
Task 4--Professional Engineer    2014-2017..............         140,000
 Services.
Task 5--Fish Management/         2014-2017..............          42,848
 Conservation.
Task 6--ELJ Construction         2014-2017..............       3,589,580
 Services & Related Activities.
Task 7--Forest Restoration       2014-2017..............         537,000
 Services.
                                ----------------------------------------
      Grand Total..............  .......................       5,789,789
------------------------------------------------------------------------

                   number of jobs created or retained
    Jobs created or retained by this project include professional, 
labor, and services wage jobs. This project as proposed will directly 
create or help to retain an estimated 109 part-time seasonal or full-
time jobs during the 5-year period. 61 part-time seasonal or full-time 
professional and labor wage jobs will be created or retained during the 
5-year period. An additional 35 jobs (which represent indirect and 
induced employment) are created or sustained as the income earned by 
the project workers is spent in other sectors of the economy. The 
proposed project will likely create or retain 41 jobs in the local 
Grays Harbor County and Jefferson County sectors whereas the remaining 
20 jobs created or retained will be filled by professionals employed by 
companies located in the Puget Sound Region. In addition to the 
professional and labor jobs an estimated 48 services related jobs in 
the local Quinault, Washington area alone will be created or retained. 
These jobs include wage level positions in the food services, 
restaurant, tourism, retail, and lodging sectors. Additional jobs will 
also be created or retained as the income from the services workers is 
spent in other sectors of local and regional economies.
                               conclusion
    ``The Great Spirit bestowed life to all of us . . . including the 
animals, birds, fish, insects and plants. Our collective Native 
warnings and predictions were ignored in the rush to capitalize and 
exploit the bountiful resources of the land. Countless irreplaceable 
species are preserved now in museums or documented in textbooks. As the 
consequences of unmanaged exploitation and pollution reach irreversible 
proportions, the United States heeded our centuries old appeals for 
environmental protection. We only hope it's not too late and that 
Mother Nature's wounds can still be healed. We will continue to serve 
as the environmental conscience to the Nation and the world.''----
Joseph B. DeLaCruz, President, Quinault Indian Nation, 1972-1993
                                 ______
                                 
               Prepared Statement of Quantum Tides, Inc.
    As a researcher, educator, industrial aquaculture professional, and 
staunch supporter of advancing domestic aquaculture as an agricultural 
sector, I am writing to express my concern regarding the proposed 
$400,000/3 FTE reduction in support for the U.S. Fish and Wildlife 
Service (USFWS) Aquatic Animal Drug Approval Partnership (AADAP) 
program as described in the fiscal year 2014 President's budget. Given 
the importance of this program and its deliverables to the fisheries 
and aquaculture disciplines--particularly to the mission of the USFWS 
itself--I strongly encourage you to reconsider the ramifications of 
this reduction, and fully support the AADAP program with $1,790,000 in 
base funding and current FTEs. This figure represents the amount 
previously dedicated to the drug approval process in the Department of 
the Interior budget (2010 funding levels for AADAP and the U.S. 
Geological Survey [USGS budget since eliminated entirely]), adjusted to 
fiscal year 2014 dollars. Without this level of support, these 
unduplicated and essential activities cannot be completed in a 
reasonable timeframe, and fisheries professionals, especially the 
USFWS, will be unable to effectively deliver on their responsibilities 
to the American public.
    Most fisheries and aquaculture activities require the use of drugs: 
whether to maintain health and fitness of hatchery fish, or facilitate 
field-based research and management activities, as described in a 
recent AFS Policy Statement \1\, the absence of suitable drugs, 
``jeopardizes fishes, fisheries, fish culture, research, and poses 
considerable risk to those involved in these activities.'' Fish drugs 
include commonplace chemicals such as hydrogen peroxide, but it is 
illegal to use such products unless they have passed the rigorous Food 
and Drug Administration (FDA) animal drug approval process. USFWS 
leadership is critical because the Service itself is a major end-user 
of aquatic animal drugs, the need for safe and effective drugs is 
nationwide, and without public-sector assistance economic incentives 
are insufficient to encourage drug sponsors to pursue aquatic animal 
drug approvals in the United States.
---------------------------------------------------------------------------
    \1\ AFS Policy Statement on the Need for Immediate-release 
Sedatives in the Fisheries Disciplines. Available at: http://
fisheries.org/docs/policy_statements/policy_34f.pdf.
---------------------------------------------------------------------------
    Recognizing difficult budgetary decisions must be made, I contend 
that the proposed cuts to the AADAP program offer only modest savings 
and would eliminate vital elements of a program that serves the USFWS, 
its partners, and the growing aquaculture production sector in the 
United States. Without access to safe and effective drugs, it is 
unclear to me how aquaculture, the fastest growing sector of 
agriculture in the United States will be able to maintain this growth; 
and fisheries professionals, especially USFWS staff, be able to fulfill 
their mandates (e.g., rearing and stocking fish, collecting field data) 
without misusing the few approved drugs currently available (e.g., 
overusing an existing antibiotic because no other alternatives exist, 
risking the development of antibiotic-resistant bacteria) or resorting 
to the use of unapproved products (e.g., using innocuous but currently 
unapproved products, risking significant legal liability and FDA 
action). The proposed cuts would effectively terminate the AADAP 
research program, and with it, the drug approval process in the United 
States. This is not grand-standing or arm-waving, it is reality: 
without AADAP, the drug approval process stops, and without approved 
drugs, aquaculture, fisheries professionals and fisheries themselves 
are put in jeopardy.
    I encourage you to fully support the AADAP program at a funding 
level of $1,790,000 and ensure the current and future needs of 
fisheries and fisheries professionals continue to be met. Thank you for 
your consideration of my position on this issue.
                                 ______
                                 
           Prepared Statement of Roz Schnick Consulting, LLC
    As the former National Coordinator for Aquaculture New Animal Drug 
Evaluations, I am writing to request that you eliminate the proposed 
$400,000/3 FTE reduction that funds the U.S. Fish and Wildlife Service, 
Aquatic Animal Drug Approval Partnership (AADAP) program as described 
in the fiscal year 2014 President's budget. This program is extremely 
important in maintaining our Nation's fishery resources and in 
supporting our aquaculture industries. The drug approval program in the 
U.S. Geological Survey dedicated to the drug approval process has 
already been eliminated and we cannot afford to have both these teams 
dismantled after working for almost 50 years to develop the expertise, 
facilities, and teams to perform this unique and unduplicated research.
    All aquatic species that are cultured in the United States need 
safe and effective drugs to maintain their health and provide for their 
efficient and effective production. We are on the cusp of getting a 
basic medicine chest but without the efforts of AADAP, this will be 
impossible. To use these drugs, they must be proven to be safe and 
effective to the U.S. Food and Drug Administration, and if they are not 
approved, it is illegal to use them. The pharmaceutical companies 
depend upon AADAP to aid them in gaining approvals of their drugs 
because the economic return on their investment is too low to recoup 
the approval expenses--our public and private aquaculture industries 
are too small. We already import at least 84 percent of the seafood we 
eat and this loss would exacerbate that problem.
    I encourage you to support the AADAP program at its full funding 
level. Thank you for your consideration in this matter.
                                 ______
                                 
              Prepared Statement of the Sac and Fox Nation
    Mr. Chairman and distinguished members of the subcommittee, thank 
you for the opportunity to provide written testimony on the fiscal year 
2014 Bureau of Indian Affairs and Indian Health Services budgets. We 
appreciate your dedication to righting the wrongs our people suffered 
in the past and suffer in the present. We understand the fiscal 
constraints of the Country and together we can provide a future that 
has many opportunities for self-sufficiency through Self-Governance.
    First and foremost we ask that all Bureau of Indian Affairs (BIA) 
and Indian Health Services (IHS) line items should be exempt from any 
budget recessions and discretionary funding budget reductions. Further, 
Tribes are extremely concerned about the consequences of sequestration. 
The sequester reductions to Tribal programs undermine Indian treaty 
rights and obligations--treaties which were ratified under the 
Constitution and considered the ``supreme law of the land.'' We 
strongly urge for the sequester to be replaced since it threatens the 
trust responsibility and reduces portions of the budget that are not 
major contributors to the deficit.
           sac and fox nation tribal specific budget request
    Add $4.8 million to the Bureau of Indian Affairs, Public Safety and 
Justice, Detentions and Corrections to Fully Fund the Sac & Fox Nation 
Juvenile Detention Center.
   national tribal program budget requests: bureau of indian affairs
    Fully fund contract support costs (CSC) consistent with the 2012 
U.S. Supreme Court decision in the Salazar v. Ramah Navajo Chapter 
Case--$9.8 million increase over fiscal year 2012 enacted.
    Fully fund fixed costs/pay costs--Provide $8 million increase. In 
fiscal year 2014, the Tribal Pay Cost need is estimated at 
approximately $8 million to achieve parity with the general U.S. cost 
predictions.
    Tribal priority allocations--Provide $89 million increase (10 
percent over fiscal year 2012 enacted).
    Law enforcement:
      Fully fund all of the provisions of the Tribal Law & Order Act of 
        2010 that authorize additional funding for law and order 
        programs that affect Indian Tribes, for fiscal year 2014 and 
        beyond; and
      Support the $19 million increase in funding in the fiscal year 
        2014 President's budget for BIA Public Safety and Justice, 
        including an increase in funds for officer recruitment and 
        training, and for Tribal detention facilities operations and 
        maintenance.
    Office of Self-Governance (OSG)--Provide increase funding to the 
OSG to fully staff the office for the increase in the number of Tribes 
entering Self-Governance.
 sac and fox nation tribal specific budget requests--$4.8 million for 
                       juvenile detention center
    The passage of the Tribal Law and Order Act was applauded by the 
Sac & Fox Nation because we saw this as the opportunity for the Federal 
Government to finally fulfill the commitment to the Nation and fully 
fund our Juvenile Detention Center (JOG). In 1994, the Sac and Fox 
Nation Juvenile Detention Center (JDC) opened its doors after years of 
planning and construction made possible by funding from the Department 
of the Interior, Bureau of Indian Affairs. The JDC is the first 
juvenile facility designed for American Indians/Alaska Natives as well 
as the first juvenile facility developed under Public Law 100-472, the 
Self-Governance Demonstration Project. The JOG is a full service, 24-
hour juvenile detention facility that provides basic detention services 
to all residents to ensure their health, safety and welfare and 
provides programs tailored to meet the specific needs of our clients. 
These programs include behavioral management, substance abuse, 
spiritual, cultural, self-esteem, arts and crafts, health and fitness, 
horticulture, nutrition, life skills, counseling and educational 
programs. The 39 Tribes included in the Southern Plains Region will 
support the JDC but due to underfunding and staffing shortages, the JDC 
cannot accommodate the detention needs of the regional Tribes.
    In fiscal year 2013 appropriations testimony provided by Assistant 
Secretary Larry Echo Hawk, he requested $6.5 million for Detention/
Correction and an additional 18 FTEs. Assistant Secretary Kevin 
Washburn recently announced in an April 10 conference call that seven 
facilities were near completion and expected to be operational in late 
2013 or early 2014. We take great exception to this request inasmuch as 
the Department of the Interior/Bureau of Indian Affairs has never 
provided the full funding that was committed for the appropriation, 
planning and construction process of the JOG.
    The Sac and Fox Nation has had to utilize funds to operate the JDC 
that should have been used for other social service needs. Full funding 
for the JDC was authorized but instead Federal officials used these 
resources for other purposes. The Sac and Fox Nation is committed to 
working with the BIA to ensure that the financial commitment is 
fulfilled. With the promise of full funding realized, Tribes utilizing 
the JDC will be able to provide the cultural and traditional healing 
our children need to live healthy and productive lives. The Sac and Fox 
Nation is requesting that this subcommittee provide the funding for the 
JDC and include language that will mandate the BIA to utilize these 
funds as intended by Congress in the appropriations and for no other 
purpose.
                         the sac and fox nation
    The Sac and Fox Nation is headquartered in Stroud, Oklahoma, and 
our Tribal jurisdictional area covers Lincoln, Payne, and Pottawatomie 
Counties. Of the 4,000 enrolled Tribal members, 2,600 live in Oklahoma. 
We are proud to pay tribute to a Sac and Fox descendent and Great 
Native American, Jim Thorpe. One of the most revered Olympic athletes 
who has ever represented the United States, Mr. Thorpe won the 
pentathlon and decathlon in the 1912 Olympics.
    The Sac & Fox Nation of Oklahoma's jurisdiction covers 487,040 
acres across three counties in Oklahoma: Payne, Lincoln and 
Pottawatomie Counties. The U.S. Census Bureau's Statistics indicate 
that 17.6 percent of Pottawatomie County residents live below the 
Poverty Level, 14.8 percent in Lincoln County and 23.2 percent in Payne 
County.
    As reported by the U.S. Bureau of Labor Statistics the National 
Unemployment Rate for February 2013 is 7.6 percent and the Oklahoma 
unemployment rate is 5.0 percent. In Pottawatomie County the 
unemployment rate is 4.9 percent, Lincoln County 5.3 percent and Payne 
County 4.5 percent.
    Taking all the statistics into account, one derives the conclusion 
that what we have is a population of working poor. The insufficient 
wages for the working poor make it impossible for them to provide basic 
necessities and result in people having to make choices between food on 
the table or having a place to live. Largely because they are earning 
such low wages, the working poor face numerous obstacles that make it 
difficult for many of them to find and keep a job, save up money, and 
maintain a sense of self-worth.
    In 2012 the Sac and Fox Nation experienced a 74 percent increase in 
the request for hardship assistance from the previous year. For 2013 we 
are at 97 percent of hardship requests from our 2012 numbers, and there 
are 5 months remaining in the program year.
    Funding cuts to the Human Services which encompass Social Services, 
Welfare Assistance, and Child Welfare Services would have dire effects 
on the Sac & Fox Nation tribal members and those American Indian/Alaska 
Native families that reside within our service area who come from our 
neediest families. The Sac & Fox Nation can't absorb any more cuts for 
the sake of reducing the Federal deficit. Funding reduction in these 
programs would increase critically high rates of poverty and hardship. 
It is our duty to protect our children and the most vulnerable from 
bearing a disproportionate burden for deficit reduction.
                             sequestration
    Although we are submitting testimony on fiscal year 2014, we must 
comment on the fiscal year 2013 sequestration of discretionary 
programs. The Tribal leaders of the Tribal Interior Budget Council 
(TIBC) and the National Congress of American Indians (NCAI) passed 
unanimous resolutions that trust and treaty obligations to tribes 
should not be subject to sequestration. The sequester reductions to 
Tribal programs undermine Indian treaty rights and obligations--
treaties which were ratified under the Constitution and considered the 
``supreme law of the land.'' The ongoing contribution of Tribal nations 
to the U.S. economy is the land on which this Nation is built. In 
exchange for land, the United States agreed to protect Tribal treaty 
rights, lands, and resources, including provision of certain services 
for American Indian and Alaska Native tribes and villages, which is 
known as the Federal Indian trust responsibility. Indiscriminate cuts 
sacrifice not only the trust obligations, but they thwart tribes' 
ability to promote economic growth or plan for the future of Native 
children and coming generations.
    The fiscal year 2013 sequester and expected reductions due to the 
Budget Control Act caps will hurt law enforcement, education, health 
care and other Tribal services, which have been historically 
underfunded and have failed to meet the needs of Tribal citizens. We 
strongly urge for the sequester to be replaced since it threatens the 
trust responsibility and reduces portions of the budget that are not 
major contributors to the deficit.
    Thank you for including this testimony into the fiscal year 2014 
budget hearings record.
                                 ______
                                 
        Prepared Statement of the Society of American Foresters
    The Society of American Foresters (SAF), with more than 12,000 
forestry professionals across the country, believes in sound management 
and stewardship of the Nation's public and private forests. Funding for 
the Department of the Interior (DOI) and the USDA Forest Service 
(USFS), both contained in the Interior, Environment, and Related 
Agencies Appropriations bill, are particularly important to maintaining 
and improving the Nation's forests.
                 saf fiscal year 2014 budget priorities
    We recognize that the subcommittee must make difficult decisions 
when making fund allocation decisions, and given the budget constraints 
and pressures that face Congress and the Federal Government, we commend 
the members of the subcommittee for continued efforts to encourage 
sustainable forest management. SAF's budget recommendations do not 
encompass all the programs SAF supports. The listed items are the 
priorities identified by SAF leadership to highlight in the fiscal year 
2014 budget process.
  --SAF supports an increase in the National Forest System timber 
        harvest from the 2.38 BBF projected by the Agency to 2.65 BBF 
        to help achieve management objectives and stem threats faced in 
        our Federal forests.
  --SAF supports funding the Forest Health Management (FHM) as a 
        consolidated budget line item under the USFS State and Private 
        Forestry at no less than the fiscal year 2012 enacted funding 
        level.
  --SAF recommends funding the USFS and DOI Hazardous Fuels Programs at 
        no less than the fiscal year 2012 enacted levels.
  --SAF also supports continuation of the Integrated Resource 
        Restoration (IRR) pilot program in the three USFS Regions. We 
        encourage the subcommittee to provide the necessary funds to 
        continue these pilots in fiscal year 2014.
  --SAF, a CFLR Coalition Steering Committee member, joins the 150 
        other member organizations requesting a $40 million funding 
        level for the program.
  --SAF requests that Congress support a $72 million funding level for 
        Forest Inventory and Analysis in fiscal year 2014.
  --SAF supports the fiscal year 2014 $9.8 million funding request for 
        BLM Public Domain Forestry in the fiscal year 2014 BLM budget 
        request.
    The 751 million acres of forests in the United States are subject 
to threats from wildfires, insects, disease, invasive species, and 
changing climates. The public relies on forests for clean air and 
water, forest products and natural resources, recreational 
opportunities, hunting, fishing, and scenic values. Federal employees 
managing these forests must guard against these potential threats while 
still providing the multiple uses that the public demands. With a 
difficult economic outlook, land management agencies must look for 
innovative ways to maintain and improve the health of America's 
forests.
    As the largest professional society for foresters in the world, SAF 
represents the forest managers and scientists working on public and 
private forests across the country. The task of managing the Nation's 
valuable, renewable resource is as challenging now as at any time in 
the 113-year history of the Society. The continued loss of forest 
industry infrastructure, job losses and hardship in rural communities, 
pressure of invasive species, expanded areas of insects and disease, 
overstocked stands, and increased risk of wildfire necessitate the 
acceleration in the pace of management activities in federally owned 
forests.
    Since 1910, the U.S.'s forest area has been stable, with a slight 
increase in the last two decades.\1\ The current volume of annual 
timber growth is 32 percent higher than the volume of annual removals, 
and the Forest Service estimates that 65 million to 82 million acres of 
the National Forest System (NFS) require restoration. SAF is concerned 
that the USFS set the restoration work goal for the NFS at 3.5 million 
acres and the timber harvest volume target at 2.38 BBF for fiscal year 
2014 due to budget constraints and sequestration.\2\ The 2.38 BBF 
timber harvest target is a 15 percent decrease from the timber harvest 
target set in fiscal year 2013 and well below the 3 BBF set as a USFS 
goal in the ``Increasing the Pace of Restoration of the Nation's 
Forests'' report released in 2012.\3\ We worry that the management 
objectives outlined in the USFS fiscal year 2014 budget justification 
are not sufficient to keep pace with ongoing management projects on 
Federal lands and to combat the declining health of our Nation's 
forests.
---------------------------------------------------------------------------
    \1\ U.S. Forest Service (USFS). 2010. U.S. Forest Resource Facts 
and Historical Trends. Available online: http://www.fia.fs.fed.us/
library/brochures/docs/2010/Forest%20Facts%201952-
2007%20English%20rev072411.pdf; last accessed April 2013.
    \2\ U.S. Forest Service (USFS). 2014. Fiscal Year 2014 President's 
Budget Justification. Available online: http://www.fs.fed.us/aboutus/
budget/2014/fy2014-justification.pdf; last accessed April 2013.
    \3\ U.S. Forest Service (USFS). 2012. Increasing the Pace of 
Restoration and Job Creation on Our National Forests. Available online: 
http://www.fs.fed.us/publications/restoration/restoration.pdf; last 
accessed April 2013.
---------------------------------------------------------------------------
    Economic conditions that led to a downturn in demand for 
construction and wood products resulted in fewer resources available 
for forest management activities. The depressed markets led to a steady 
decline in the forestry-related job sector and loss of infrastructure. 
From 2005 to 2010 primary (forestry and logging, paper, wood 
manufacturing, etc.) and secondary (residential construction, 
furniture, etc.) employment have seen a combined reduction of 920,507 
total jobs. These factors also resulted in low timber prices, and the 
total U.S. annual timber harvests are at their lowest levels since the 
1960s. This lack of production led to the closure of more than 1,000 
mills from 2005 to 2009, which decreased overall sawmilling capacity by 
15 percent, and lowered production levels below 50 percent of capacity 
at the remaining mills.\4\
---------------------------------------------------------------------------
    \4\ Smith, B.W., and Guldin, R.W. 2012. Forest Sector Reeling 
during Economic Downturn. The Forestry Source January 2012. Available 
online: http://www.nxtbook.com/nxtbooks/saf/forestrysource_201201/
index.php; last accessed April 2013.
---------------------------------------------------------------------------
    As the economy recovers, with new March 2013 building permit 
applications for new housing 17 percent higher than March 2012, timber 
prices should rebound and increased wood production from Federal lands 
will be necessary as the industry struggles to recover the operational 
capacity lost during the downturn.\5\
---------------------------------------------------------------------------
    \5\ U.S. Census Bureau. 2013 U.S. Census Bureau News. Available 
online: http://www.census.gov/construction/nrc/pdf/newresconst.pdf; 
last accessed April 2013.
---------------------------------------------------------------------------
                  saf budget recommendations explained
    SAF supports an increase in the National Forest System (NFS) timber 
harvest from the 2.38 BBF projected by the Agency budget justification 
to 2.65 BBF representing the average targeted harvest volume for fiscal 
years 2010-2013 as an avenue to improve the health and productivity of 
our Federal forests. An increase in the timber harvest will reduce the 
number of overstocked stands and result in stand improvement, lessen 
the threat of catastrophic wildfire, combat challenges presented by 
pests, and support Agency efforts to restore priority watersheds in 
fiscal year 2014. Increased output from Federal lands could also reduce 
pressure on private forestlands, which supply 90 percent of wood 
production, to meet demand for wood products here and abroad.\6\ We 
believe that the USFS can achieve the 2.65 BBF mark without 
significantly altering the plan outlined by the administration and 
agency in the fiscal year 2014 budget justification.
---------------------------------------------------------------------------
    \6\ U.S. Forest Service (USFS). 2010. National Report on 
Sustainable Forests--2010. Available online: http://www.fs.fed.us/
research/sustain/2010SustainabilityReport/documents/
2010_SustainabilityReport.pdf; last accessed April 2013.
---------------------------------------------------------------------------
    SAF also supports the USFS State and Private Forestry programs that 
offer vital assistance to private landowners and State forestry 
agencies. These programs allow owners of property adjacent to Federal 
land to participate in management initiatives and promote cooperation 
between Federal land managers and non-Federal partners. The structure 
allows State and Private Forestry programs to provide a significant 
return on the Federal investment by leveraging the resources of 
partners to accomplish shared objectives. The USFS Forest Health 
Management (FHM) Program pays dividends on Federal and non-Federal 
lands by offering the critical resource support necessary to protect 
forest health. The FHM Program delivers assistance necessary to prevent 
and mitigate insect and disease outbreaks as well as the spread of 
invasive species. SAF supports funding the FHM Program as a 
consolidated budget line item under the USFS State and Private Forestry 
at no less than fiscal year 2012 enacted funding levels.
    We appreciate the subcommittee's consistent support for wildfire 
management, providing funds to encourage a balanced approach to 
averting threats posed by fire. The Hazardous Fuels Line Items in the 
USFS and DOI budgets are essential to restoring forest health and 
resilience and reducing the cost of suppressing wildfires. In fiscal 
year 2012, the USFS and DOI treated more than 3.2 million acres 
reducing wildfire risks on Federal lands. SAF recommends funding the 
USFS and DOI Hazardous Fuels Programs at no less than the fiscal year 
2012 funding levels.
    SAF also supports continuation of the Integrated Resource 
Restoration (IRR) pilot program in the three USFS Regions. We encourage 
the subcommittee to provide the necessary funds to continue these 
pilots in fiscal year 2014. SAF will continue to monitor the progress 
on these pilot projects and urges Congress to track these pilot 
projects and consider national implementation if the third-party audits 
of these pilots produce the improvement in forest health and resilience 
anticipated by the administration and USFS in the fiscal year 2014 
budget justification.
    SAF appreciates the subcommittee's support of the Collaborative 
Forest Landscape Restoration Program (CFLR) and is pleased that the 
administration recognizes its value by providing $39.8 million in the 
2014 Forest Service budget justification. As this subcommittee knows, 
CFLR encourages collaborative, science-based ecosystem restoration of 
priority forest landscapes.\7\ Since 2009, the 23 projects have 
afforded fuels treatment on over 600,000 acres, generated and sustained 
4,574 jobs, and supplied approximately 387 MMBF in timber sales.\7\ 
SAF, a CFLR Coalition Steering Committee member, joins the 150 other 
member organizations requesting a $40 million funding level for the 
program. We look forward to continuing to work with Congress and the 
administration to provide the support this program needs to achieve the 
stated 10-year goals.
---------------------------------------------------------------------------
    \7\ U.S. Forest Service (USFS). 2012. Collaborative Forest 
Landscape Restoration Program. Available online: http://www.fs.fed.us/
restoration/CFLR/index.shtml; last accessed April 2013.
---------------------------------------------------------------------------
    USFS Research and Development (R&D) provides for essential research 
on priority areas such as disturbances (including wildfire), watershed 
restoration needs, local level emphasis, and strategic programs. USFS 
R&D's Forest Inventory and Analysis (FIA) program is an indispensable 
resource providing the only national census of forests across all 
ownerships. Through FIA, USFS (partnering with State forestry agencies 
and the private sector) collects and analyzes forest data to assess 
trends on issues such as forest health and management. FIA data is the 
backbone of the forest research and development for the Agency and 
private sector interests. FIA data are used by researchers across the 
country to evaluate forest disturbance risks, such as wildfire, insects 
and disease, the spread of invasive species, fragmentation and 
parcelization, and forest carbon sequestration. SAF requests that 
Congress support a $72 million funding level for this program in fiscal 
year 2014. $72 million would allow the program to continue to function 
as it does currently and sustain the services and information that 
Congress, Federal agencies, academia, and the private sector demand.
    SAF closes our written testimony with two matters of concern with 
regard to funds available for management of BLM lands. The BLM's Public 
Domain Program currently operates at the $6.3 million funding level 
included in the fiscal year 2013 continuing resolution which represents 
a 35 percent decrease in the funding level in fiscal year 2012. The BLM 
fiscal year 2014 budget justification specifies that the funding level 
be returned to $9.8 million which corresponds with the fiscal year 2012 
funding level, but without passage of a fiscal year 2014 budget, BLM 
Public Domain Forestry will be required to function at the level 
stipulated by the fiscal year 2013 continuing resolution and force the 
BLM to make significant reductions in the number of employees managing 
the 60 million acres in the Public Domain Forestry Program. This 
prospect is particularly worrisome considering that the authorization 
for receipts from the Forest Ecosystem Health and Recovery Fund, a 
permanent operating fund, expires at the end of 2015.
    The expiration of this fund would negatively impact Public Domain 
Forestry and BLM O&C lands. The Forest Ecosystem Health and Recovery 
Fund can be used for various forestry purposes including planning, 
preparing, implementing, and monitoring salvage timber sales and forest 
ecosystem restoration activities. This fund currently allows Public 
Domain Forestry to implement necessary management activities with the 
significant budget reductions by using the portion of the receipts from 
sales of timber and wood products on BLM lands not returned to the 
neighboring counties, but if this permanent operating fund created in 
the appropriations act of 1993 is allowed to expire the receipts used 
to continue management on the ground will be required to return to the 
Federal treasury.
    On behalf of the 12,000 members of the Society of American 
Foresters, we thank you for this opportunity to provide written 
testimony to the subcommittee.
                                 ______
                                 
 Prepared Statement of the SouthEast Alaska Regional Health Consortium
    My name is Charles Clement and I am the President and CEO of the 
SouthEast Alaska Regional Health Consortium (SEARHC). Chairman Reed, 
Ranking Member Murkowski, and members of the subcommittee, it is a 
pleasure to be here and I thank you for the opportunity to testify 
before this subcommittee.
    I have been involved in the provision of Alaska Native healthcare 
for more than 15 years. Prior to my employment at SEARHC I worked for 
the Southcentral Foundation in Anchorage, Alaska, as the vice 
president/chief operating officer; vice president--operations; director 
of information technology/chief information officer; and special 
assistant to the president. I have been the President/CEO of SEARHC for 
over a year, and am continually amazed at the positive impact our 
tribal consortium has on the health of Alaska Natives.
    SEARHC is an inter-tribal consortium of 18 federally recognized 
Tribes situated throughout the southeast panhandle of Alaska. Our 
service area encompasses more than 35,000 square miles, an area larger 
than the State of Maine. With no road system connecting our 
communities, the challenges to deliver robust health services are 
considerable.
    SEARHC meets these challenges through a network of community 
clinics anchored in the Mt. Edgecumbe Hospital. Our services include 
medical, dental, mental health, physical therapy, radiology, pharmacy, 
laboratory, nutritional, audiology, optometry and respiratory therapy 
services. We also provide supplemental social services, substance abuse 
treatment, health promotion services, emergency medical services, 
environmental health services and traditional Native healing.
    We administer more than $42 million in IHS facilities and related 
programs and services, and average more than 115,000 patient encounters 
each year. These are Federal services, which we operate on behalf of 
the Federal Government, through a self-governance compact and 
associated funding agreement.
    To carry out IHS programs under this contract requires us to incur 
many fixed costs, including a number of costs mandated by the Federal 
Government. These costs include substantial annual audit costs, 
insurance costs, and an array of administrative costs to operate our 
personnel and financial management systems.
    Only a small portion of these contract support costs are covered in 
the direct service budget which IHS contracts to pay. This is because 
IHS either does not incur these costs at all (in the case of audit 
expenses and insurance costs) or because IHS receives resources to 
carry out these functions from other parts of the Government, including 
other DHHS divisions, and even other departments of the Federal 
Government. Still, these are mandatory fixed costs which SEARHC must 
incur every year. Each year the DHHS Division of Cost Allocation, 
Western Field Office sets these costs for SEARHC, and under our 
contract and the law, IHS is then required to pay them--in full.
    But IHS does not pay these costs in full. It does not even budget 
to pay them in full. In fact, it is never even clear how much IHS will 
honor under the contract until the contract is already performed. Even 
this year--nearly half way through the year--we have no idea what IHS 
will pay us.
    SEARHC has no tax base. Most tribes have no tax base. Therefore, 
the only way for SEARHC to make up for the difference is to divert 
resources that would otherwise support the delivery of services. Every 
year this shortfall severely impacts our ability to serve the Alaska 
Native community. What is worse is that in no other area of Government 
contracting does the United States fail to pay its contractors in full.
    SEARHC is a member of the National Tribal Contract Support Cost 
Coalition, and we fully endorse the NTCSCC's testimony. Full funding of 
contract support costs in fiscal year 2014, at a $99 million increase 
above the President's request, would honor SEARHC's contract and stop 
the bleeding of direct service funds to compensate for IHS's contract 
support cost shortfalls.
    One final word. It has been 9 years since the Supreme Court 
required the Government to honor its self-determination contracts with 
tribal healthcare providers. That was the landmark case of Cherokee 
Nation v. Leavitt. It has now been 10 months since the Court reaffirmed 
that decision in the Ramah Navajo and Arctic Slope cases. In light of 
those decisions it is stunning that IHS would dare to defy the Court, 
and dare to overtly discriminate against Indian tribal contractors, by 
now suggesting a new strategy for avoiding its liability. If IHS 
devoted a fraction of the time it spends trying to avoid its contract 
obligations to instead meeting those obligations, we would not be here.
    But one thing is clear: We have a deal with Congress and with IHS, 
and now is not the time to unilaterally change it. Our contracts, and 
the law under which they are executed, require IHS to pay us for the 
work we do--not to pay us in part but in ``full.'' That is what the law 
says. ``Full.'' The law also says we can file a claim with IHS if 
payments fall short. We absolutely oppose IHS's insertion of new 
appropriations language to unilaterally change our contracts and 
unilaterally change the law by insulating IHS from any future liability 
for its underpayments. It is a shocking reaction-in-avoidance to 
multiple losses in the courts. It is insulting to Indian people and 
tribal governments. And it is just plain wrong.
    I thank you for the opportunity to provide testimony to the 
subcommittee on these important matters.
                                 ______
                                 
           Prepared Statement of the Southcentral Foundation
    Southcentral Foundation (SCF) is a tribal organization that 
compacts with the Secretary of Health and Human Services under title V 
of the Indian Self-Determination Act. Under SCF's compact we carry out 
various Indian Health Service programs across our region. SCF acts 
pursuant to tribal authority granted by Cook Inlet Region, Inc., an 
Alaska Native regional corporation designated by Congress as an Indian 
Tribe for purposes of Indian Self-Determination Act activities. Once 
again, SCF requests that in fiscal year 2014 Congress fully fund our 
Mat-Su Clinic joint venture staffing requirements, as required by our 
joint venture contract agreement with IHS since last year, and fully 
fund SCF's and all other contract support cost requirements at $617 
million, as the Supreme Court and other courts required last year.
    For more than 25 years SCF has carried out IHS programs under Self-
Determination Act agreements. In accordance with its self-governance 
compact with the Department of Health and Human Services, SCF currently 
provides medical, dental, optometric, behavioral health and substance 
abuse treatment services to over 45,000 Alaska Native and American 
Indian beneficiaries living within the Municipality of Anchorage, the 
Matanuska-Susitna Borough, and nearby villages. SCF also provides 
services to an additional 13,000 residents of 55 rural Alaska villages 
covering an area exceeding 100,000 square miles and larger than the 
State of Oregon. Finally, SCF provides statewide tertiary OB/GYN and 
pediatric services for 110,000 Alaska Native people. To administer and 
deliver these critical healthcare services, SCF employs more than 1,400 
people.
    Today I will focus my remarks on two issues, joint venture funding 
and contract support cost funding.
                         joint venture funding
    The first issue I need to address concerns our joint venture (JV) 
contract with IHS. Under section 818(e) of the Indian Health Care 
Improvement Act, IHS is authorized to enter into JV contracts under 
which: a Tribe borrows funds to build a facility to IHS specifications, 
and IHS agrees ``to provide the equipment, supplies, and staffing for 
the operation and maintenance of such health facility.'' The agreements 
are contracts; they are enforceable as contracts.
    Three years ago SCF and IHS entered into a binding joint venture 
contract. SCF agreed to construct a new 88,451-square-foot Primary Care 
Clinic in the Mat-Su Valley of Alaska, using borrowed funds from non-
IHS sources. In return, IHS agreed that it ``shall provide the supplies 
and staffing for the operation and maintenance of the Facility . . . 
subject to appropriations by the Congress.'' At the same time, IHS only 
agreed to fund 85 percent of our staffing requirements, explaining 
that, on average, IHS facilities are only funded at 85 percent of their 
need. See Art. VIII.A. See also Art. VIII.G (``IHS will staff, operate 
and Maintain the Facility in accordance with Articles XI through XIV of 
this Agreement.''); Art. XI (``As authorized by section 818(e)(2) of 
Public Law 94-437 (``subject to the availability of appropriations for 
this joint venture project, commencing on the beneficial occupancy date 
IHS agrees to provide the supplies, and staffing necessary for the 
operation and maintenance of the Facility. The IHS will request funding 
from Congress on the same basis as IHS requests funding for any other 
new Facility.'')
    Last July we received our certificate of beneficial occupancy. IHS, 
in turn, provided $2 million of our $27 million annual staffing 
requirement. We appreciate IHS's action, since IHS had not anticipated 
SCF opening our doors in fiscal year 2012. But now we have been 
operational all of fiscal year 2013, at an IHS-calculated staffing need 
of $27 million. Yet, in fiscal year 2013, IHS's budget only requested 
50 percent of the Clinic's staffing requirement ($13.5 million). 
Despite this disappointing request, we are deeply appreciative of the 
subcommittee's efforts in the context of sequestration, made in 
collaboration with IHS and OMB, to secure at least this partial payment 
within the fiscal year 2013 continuing resolution.
    But, we must be perfectly frank with the subcommittee: the amount 
and timing of this payment have caused severe cutbacks in Clinic 
operations. Since we remain $12 million short in Clinic funding--
remember, that is at the IHS 85 percent funding level--SCF has only 
been able to provide about 50 percent of the medical service capacity, 
30 percent of wellness and physical therapy services, only minimal 
behavioral health services, and nothing in the way of dental, lab, 
optometry, audiology, OB-GYN, pediatrics, home healthcare, or specialty 
clinics. Three-quarters of the Clinic has not been operated this fiscal 
year, though we expect that to improve when this year's funds arrive. 
Once those funds arrive, we will be able to begin to expand existing 
services as originally intended. Still, most of the Clinic will remain 
unused.
    It appears the President's budget request is still insufficient to 
fully fund SCF's Clinic with the remaining $12 million that is due, 
even 2 years late, in 2014. The budget request is insufficient and does 
not honor the joint venture contract under which we built it. It is 
legally and morally wrong.
    Our message is simple: Before IHS requests, and before Congress 
funds, discretionary increases in other IHS accounts--even an important 
account like Contract Health Care (which in recent years has already 
seen a 40 percent increase)--discretionary increases should be 
suspended until IHS honors its contracts and pays its staffing packages 
in full.
                     contract support cost funding
    The second problem is the budget's inadequate request for contract 
support cost funding--another contractually required payment to self-
governance Tribes like SCF.
    The Budget requests an insignificant CSC increase for fiscal year 
2014: bringing the total to $477 million. This is the case, despite 
projections that the total requirement in fiscal year 2014 is $617 
million. Worse yet, IHS is defying the Supreme Court's Salazar  vs. 
Ramah  decision: IHS is imposing a cap on contract payments to each 
contractor when no caps have ever existed in those payments, reaching 
back to 1975. This would be a radical change in the law, and one which 
would go far beyond the work of an appropriations committee. Worse yet, 
we don't even know what those caps will be for us--everything is being 
done in secret, and won't be known until long after the appropriation 
is finalized and we are already performing our contracts.
    If IHS is going to underpay us, we should at least have the right 
to go to Court to vindicate our contract rights. This is how it has 
always been. To now cap our contract by statute is to essentially kill 
the principal of tribal self-governance and convert us into grantees--
an enormous step backward in the Nation's dealings with Indian tribes. 
It is a radical step back, and one we are confident the authorizing 
committees would never agree to make.
    Contract support cost funding reimburses SCF's fixed costs of 
running its contract with IHS. If IHS fails to reimburse these costs, 
SCF has no choice but to cut positions, which in turn cuts services, 
which in turn cuts down on collections from Medicare, Medicaid and 
private insurers, which in turn cuts off even more staffing and 
services for our people. The reverse is also true. When in fiscal year 
2010 Congress appropriated an historic increase in contract support 
cost funding (thanks to this subcommittee's leadership), SCF opened 97 
positions to fill multiple healthcare provider teams and support staff.
    Our fixed contract support costs are largely ``indirect costs.'' 
Those costs are set by the IIHS Division of Cost Allocation. The 
remainder of our contract support costs (about 20 percent) are set 
directly by IHS. These costs include federally mandated audits, and 
such items as liability and property insurance, workers' compensation 
insurance, and payroll and procurement systems. We have to buy 
insurance. We need to make payroll. We have to purchase supplies and 
services. We have to track property and equipment. All of these costs 
are independently audited every year by Certified Public Accountants, 
as required by law.
    SCF's contract support cost shortfall in fiscal year 2014 will be 
$8.95 million, including the cost of operating the new Clinic ($5.1 
million) on top of our existing contract support cost shortfall ($3.85 
million). The loss of almost $9 million in contract support costs, plus 
the remaining $12 million in new Clinic staff funding, totals $21 
million. That is well over 150 healthcare positions.
    This subcommittee has stated the binding nature of our contracts, 
and has directed IHS (and the BIA) to fully fund all contract support 
cost requirements. The Supreme Court agreed with this subcommittee. 
Yet, the IHS budget justification defies this subcommittee's direction 
and reflects the view that these contracts are not binding at all, and 
are just another priority to be balanced against something else.
    No other Government contractors are treated this way. IHS only 
treats its contracts with Indian tribes this way--as optional, 
discretionary agreements that it can choose to pay or not to pay. We 
provide a contracted service for a contracted price, but IHS only pays 
us what it chooses to pay. That is not the law, and this subcommittee 
should reject IHS's effort to rewrite the law.
    In fiscal year 2014 IHS should finally pay its contract obligations 
in full, even if this means forgoing other increases, and even if this 
means cutting IHS's internal bureaucracy. Either the contract support 
cost line-item should be fully funded at $617 million, or the capped 
contract support cost earmark should be eliminated altogether (as was 
the case prior to 1998). The subcommittee should certainly reject the 
administration's shocking new proposal to cap individual contracts. 
This way, the subcommittee will preserve the remedies which existing 
statutory law provides contractors that suffer contract underpayments.
    As SCF has said here before, underfunding contract support costs 
disproportionately balances budgetary constraints on the backs of 
tribal contractors. Worse yet, it punishes the people being served by 
forcing reductions in contracted programs. If Congress is going to cut 
budgets or limit increases, fairness demands that such actions occur in 
those portions of the budget that are shouldered equally by IHS and the 
tribes (as sadly occurred with the sequester). Tribes should not 
shoulder the full burden of a cut.
    Again, SCF respectfully calls upon Congress in fiscal year 2014 to 
eliminate all existing caps on contract payments. Alternatively, SCF 
respectfully calls upon Congress to provide $617 million in contract 
support cost funding. Every Tribe has contracts with IHS to carry out 
some of the agency's healthcare services, and most are still being 
penalized for taking that initiative. Closing the contract support cost 
gap will eliminate that penalty and directly benefit the vast majority 
of Indian and Alaska Native communities served by IHS.
                            data disclosure
    On a related note, SCF requests that Congress direct IHS to resume 
promptly disclosing to tribes and to Congress all IHS data on contract 
support cost requirements and payments. Up until 2011, IHS disclosed 
such information to the tribes, albeit informally. Then suddenly IHS 
stopped--because IHS was embarrassed by errors in its data. IHS claims 
the data is protected from disclosure until it is approved by the 
Secretary. But, the Secretary then holds the report back from Congress 
for years. The fiscal year 2011 data is now 1 year late, even by IHS's 
own calculations. The fiscal year 2009 data was 2 years late. The 2014 
budget keeps secret the agency's projected total CSC requirement.
    Contract support cost appropriations belong to the tribes. Tribes 
have a right to know what is happening to these funds on a timely 
basis. So does this subcommittee. We therefore respectfully urge that 
the subcommittee eliminate all privileges against disclosure of IHS 
data if that data is not timely released to Congress under existing 
law. This way, the subcommittee can properly perform its budget 
oversight function, and tribes, too, can hold the agency accountable.
    Thank you for the opportunity to testify on behalf of the 
Southcentral Foundation and the 58,000 Native American people we serve.
                                 ______
                                 
      Prepared Statement of the Society for Historical Archaeology
    Request:
  --$46.925 million for State Historic Preservation Offices (SHPOs); 
        and
  --$8.985 million for the Tribal Historic Preservation Offices 
        (THPOs).
    These programs are funded through withdrawals from the U.S. 
Department of the Interior's National Park Service Historic 
Preservation Fund (HPF) (16 U.S.C. Sec. 470h).
                       about sha and its members
    SHA is the largest organization in the world dedicated to the 
archaeological study of the modern world and the third largest 
anthropological organization in the United States. It promotes 
scholarly research and knowledge concerning historical archaeology, and 
is specifically concerned with the identification, excavation, 
interpretation, and conservation of sites and materials on land and 
underwater. SHA and its more than 2,300 members strongly support the 
protection of cultural and historical resources and sites around the 
Nation.
  funding shpos and thpos is critically important to protecting u.s. 
                              archaeology
    In 1966, Congress, recognizing the importance of our heritage, 
enacted the National Historic Preservation Act (16 U.S.C. Sec. 470, et 
seq.) (NHPA), which established historic preservation as a Federal 
Government priority. Historic preservation recognizes that what was 
common and ordinary in the past is often rare and precious today, and 
what is common and ordinary today may be extraordinary in the future.
    Instead of using Federal employees to carry out the act, the 
Department of the Interior and the Advisory Council on Historic 
Preservation opted to partner with the States and use SHPOs and THPOs 
to review all Federal projects for their impact on historic properties, 
among other tasks. In order for the review process to work smoothly and 
for historical archaeological sites to be protected, SHPOs and THPOs 
must have adequate funding. Proper financial support for their work 
allows SHPOs and THPOs to review and approve projects in a timely 
basis, moving projects forward in an efficient manner and protecting 
irreplaceable cultural and historical resources and sites.
                               conclusion
    SHA would like to thank you, Chairwoman Mikulski, and all the 
members of the Senate Appropriations Subcommittee on Interior, 
Environment and Related Agencies for the opportunity to submit 
testimony.
    SHA would also like to thank the subcommittee for its commitment to 
historic preservation.
                                 ______
                                 
              Prepared Statement of Susan Indian Rancheria
    On behalf of the Susanville Indian Rancheria, I submit this written 
testimony for the fiscal year 2014 budget request. My testimony 
requests the following:
  --Full funding of the Indian Health Service contract support costs at 
        $617 million.
  --Full funding of the Bureau of Indian Affairs contract support costs 
        at $242 million.
  --Rejection of the administration's proposed BIA and IHS contractor-
        by-contractor contract support costs caps.
  --Directing the Indian Health Service to release contract support 
        costs data for fiscal years 2011 and 2012.
  --Protecting the Indian Health Service from sequestration.
    The Susanville Indian Rancheria includes over 1,030 tribal citizens 
located in Northern California. The Tribe operates several programs 
through Indian Self-Determination Act contracts with the Bureau of 
Indian Affairs (BIA), including the Tribe's two largest: the 
Consolidated Tribal Government Program and the Road Maintenance 
Program. Through these programs, the Tribe operates aid to tribal 
government, Johnson O'Malley, social services, Indian child welfare, 
community fire protection, adult and higher education, and job 
placement programs, as well as projects to maintain the Tribe's 
infrastructure. Through these programs, the Tribe is a vital part of 
the Susanville and Lassen County economic community.
    The Tribe also operates the Lassen Indian Health Center via a title 
V self-governance compact with the Indian Health Service (IHS). The 
Tribe and the Health Center serve not only our tribal members, but also 
lineal descendants of California Indians. As a result, our service 
population for Lassen County is over 1,900 individuals of Indian 
descent. The Health Center is a vital link for our patients, who 
receive medical and dental care, behavioral health services, alcohol 
and drug counseling, and pharmacy services. Providing both governmental 
and healthcare services is an important role for the Tribe, but we 
depend on our contract partners--the IHS and the BIA, and through them, 
the Congress, to fulfill their contractual obligations.
            congress must fully fund contract support costs
    One of these obligations is that the BIA and the IHS will fully 
fund the contract support costs (CSC) that cover the administrative and 
overhead portions of the programs the Tribe has contracted to operate 
in place of the Federal Government. We are grateful for recent 
increases in CSC, but there is still a ways to go in meeting the true 
need. Unfortunately, the President's proposed budget would continue the 
underfunding of CSC, particularly with regard to the IHS, crippling all 
tribes' ability to operate their programs as intended.
Indian Health Service
    The President proposes $477,205,000 for contract support costs in 
the IHS for fiscal year 2014. This amount is far below the estimated 
need of $617 million. While Congress has in the past appropriated 
additional funding for CSC owed to tribes and tribal organizations 
under the Indian Self-Determination and Education Assistance Act and 
Federal case law, those additional appropriated funds are not enough to 
eliminate the ongoing shortfall of CSC. As a result, the Tribe 
continues to endure significant financial restrictions that translate 
into less healthcare for our patients.
    For example, in fiscal year 2012, the Tribe's CSC was funded at 
only 78 percent of actual need. This shortfall forced the Tribe to 
transfer funds intended to provide health services into operations and 
administrative accounts that keep our programs running. For too long, 
the Government has treated tribal contractors differently from other 
Government contractors with regard to CSC payment. The Supreme Court 
ruled this disparity is unjustified, and in its decision Salazar v. 
Ramah Navajo Chapter, ordered the Government to pay full CSC to tribal 
contractors. 132 S. Ct. 2181 (2012).
    In an attempt to skirt this responsibility, the administration 
proposes to limit CSC payments to tribal contractors by submitting a 
list of contractors to the House and Senate Appropriations Committees, 
with recommended, individual appropriations for each contractor. This 
proposed system is not only untenable and unwieldy; it is also unjust. 
The administration has proven itself incapable of properly accounting 
for contract support costs, and we have no indication the agencies will 
include contractors in this process to ensure the lists reflect 
contractors' need. The simplest and most fair answer is to fully fund 
tribal contractors' CSC.
    We urge the Congress to reject the President's proposal outright, 
and fully fund IHS contract support costs at $617 million.
Bureau of Indian Affairs
    The President proposes $230 million for Bureau of Indian Affairs 
contract support costs. This amount is closer to the estimated full 
need of $242 million than the IHS proposal, but we ask that Congress 
fully fund the BIA's CSC as well.
    The President's proposal to limit CSC funding via contractor-by-
contractor caps applies to the BIA as well. Again, we strongly reject 
this effort, particularly because the administration has made no effort 
to include tribes and tribal contractors in the process of preparing 
the proposed CSC tables. While the President's proposal says this new 
effort is part of the ``longstanding policy of managing CSC costs,'' 
tribes know that this means saddling contractors with chronic CSC 
shortfalls like the Tribe experiences year after year. These shortfalls 
are an effective penalty for engaging in self-determination or self-
governance contracting. Both the annual underfunding and the 
administration's misguided proposal for fiscal year 2014 are contrary 
to the stated policy of both the Congress and the administration to 
encourage tribal self-determination.
    We urge the committee instead to fully fund the BIA contract 
support costs at $242 million, which will erase the need for the 
administration's contortionist proposal to handle CSC shortfalls.
            direct the ihs to release csc shortfall reports
    IHS must submit CSC shortfall reports to Congress no later than May 
15 of each year, per section 106(c) of the Indian Self-Determination 
and Education Assistance Act (25 U.S.C. Sec. 450j-1(c)). Yet, the IHS 
has failed to submit CSC shortfall reports for fiscal years 2011 and 
2012. Tribes have repeatedly asked the agency to release this date, 
which is critical for our ability to understand the IHS's view of the 
underfunding, and to pursue full payment of CSC, to which the Tribe is 
legally entitled. The IHS has refused to release these reports time and 
again, most recently in March of this year.
    We ask the committees to direct the IHS to release the shortfall 
data for fiscal years 2011 and 2012 immediately, as required under the 
law.
          protect the indian health service from sequestration
    The Office of Management and Budget determined that the IHS's 
discretionary appropriation is fully sequestrable, which resulted in a 
$220 million cut in funding to the IHS for fiscal year 2013--roughly 5 
percent of the IHS's overall budget. IHS lost $195 million for programs 
like hospitals and health clinics services, contract health services, 
dental services, mental health and alcohol and substance abuse. 
Programs and projects necessary for maintenance and improvement of 
health facilities felt these same impacts. These consequences are then 
passed down to every ISDEAA contractor, including the Lassen Indian 
Health Center. The Center is already significantly underfunded, and 
sequestration resulted in further cuts to the availability of health 
services we are able to provide to our patients. This creates real, 
negative consequences for individuals who have to forego needed care.
    We suffer these reductions and experience these new challenges to 
providing healthcare for the people in our service area, despite the 
United States' trust responsibility for the health of American Indian 
and Alaska Native people.
    We cannot understand why this responsibility was taken less 
seriously than the Nation's promises to provide health to our veterans. 
The Veterans Health Administration (VA) was fully exempt from the 
sequester for all programs administered by the VA. See section 255 of 
the Balanced Budget and Emergency Deficit Control Act (BBEDCA), as 
amended by Public Law 111-139 (2010). Also exempt are State Medicaid 
grants, and Medicare payments are held harmless except for a 2 percent 
reduction for administration of the program. Yet the IHS--which already 
faces low funding--was subject to full cuts. We thus strongly urge the 
committee to support amendment of the BBEDCA to fully exempt the IHS 
from any sequestration procedures, just as the VA's and other health 
programs are exempt. We recognize that the President's proposed budget 
is designed to eliminate future sequestrations, but Congress will work 
its will on that proposal, so we seek an amendment to exempt the IHS 
from sequestration.
                               conclusion
    Ensuring full funding of tribal programs at the Bureau of Indian 
Affairs and the Indian Health Service is important not only to Tribes 
like the Susanville Indian Rancheria, but to the communities around us. 
We recognize the economic hardships facing the country, but remind 
Congress that funding our programs enables us to create more jobs for 
Indians, non-Indians, tribal members, and neighbors alike. This helps 
our national economy grow from the ground up. Accordingly, we urge you 
to honor our requests to fully fund Indian programs in fiscal year 
2014.
    Thank you for your consideration, and I will be glad to provide any 
additional information the committees may request.
                                 ______
                                 
             Prepared Statement of the Squaxin Island Tribe
    On behalf of the tribal leadership and members of the Squaxin 
Island Tribe, I am honored to submit our funding priorities and 
recommendations for the fiscal year 2014 budgets for the Bureau of 
Indian Affairs (BIA) and Indian Health Service (IHS). We strongly urge 
for the sequester to be replaced since it threatens the trust 
responsibility and reduces portions of the budget that are not major 
contributors to the deficit. We further ask that you consider the 
following requests:
                        tribal specific requests
    $500,000 Shellfish Management Program
    $2 Million to Build and Operate an Oyster and Clam Nursery for 
Southern Puget Sound
    $1.3 Million Increase for Northwest Indian Treatment Center (NWITC) 
Residential Program in IHS
                 regional requests and recommendations
    The Squaxin Island Tribe is actively involved in the collective 
Northwest Tribal efforts and supports the requests and recommendations 
of: Northwest Indian Fisheries Commission, Affiliated Tribes of 
Northwest Indians, and Northwest Portland Area Indian Health Board.
         self-governance and national requests/recommendations
    Squaxin Island Tribe requests that all Bureau of Indian Affairs 
(BIA) and Indian Health Service (IHS) line items should be exempt from 
any budget recessions and discretionary funding budget reductions. We 
support the 2014 State of Indian Nations budget requests as presented 
by the National Congress of American Indians.
                        bureau of indian affairs
    +$8.9 million more than 2012 enacted to Fully Fund Contract Support 
Costs
    +10 percent for Tribal Priority Allocations over 2012 enacted level
    Fully fund all of the provisions of the Tribal Law and Order Act of 
2010 and the Violence Against Women Act of 2012
    Increase funding to the Office of Self-Governance to fully staff 
the office for the increase of Tribes entering Self-Governance
                         indian health service
    +$5.8 million and maintain the CSC status quo statutory language 
enacted in fiscal year 2013
    +$403 million for Mandatory Costs to maintain current services
    +$9.4 million for Alcohol and Substance Abuse Prevention Services
    +$171.6 million for Purchased/Referred Care Program (formerly 
Contract Health Services)
    Fully Fund the Implementation of the Indian Health Care Improvement 
Act
    +$5 million for the IHS Office of Tribal Self-Governance
                    squaxin island tribe background
    We are native people of South Puget Sound and descendants of the 
maritime people who lived and prospered along these shores for untold 
centuries. We are known as the People of the Water because of our 
strong cultural connection to the natural beauty and bounty of Puget 
Sound going back hundreds of years. The Squaxin Island Indian 
Reservation is located in southeastern Mason County, Washington and the 
Tribe is a signatory to the 1854 Medicine Creek Treaty. We were one of 
the first 30 federally recognized tribes to enter into a Compact of 
Self-Governance with the United States.
    Our treaty-designated reservation, Squaxin Island, is approximately 
2.2 square miles of uninhabited forested land, surrounded by the bays 
and inlets of southern Puget Sound. Because the Island lacks fresh 
water, the Tribe has built its community on roughly 26 acres at 
Kamilche, Washington purchased and placed into trust. The Tribe also 
owns 6 acres across Pickering Passage from Squaxin Island and a plot of 
36 acres on Harstine Island, across Peale Passage. The total land area 
including off-reservation trust lands is 1,715.46 acres. In addition, 
the Tribe manages roughly 500 acres of Puget Sound tidelands.
    The tribal government and our economic enterprises constitute the 
largest employer in the county with over 1,250 employees. The Tribe has 
a current enrollment of 1,040 and an on-reservation population of 426 
living in 141 homes. Squaxin has an estimated service area population 
of 2,747, a growth rate of about 10 percent, and an unemployment rate 
of about 30 percent (according to the BIA Labor Force Report).
                tribal specific requests justifications
    $500,000--Shellfish Management.--The Squaxin Island Tribes faces a 
budget deficit to maintain and operate the shellfish program at the 
current level. To effectively grow and develop the program, an annual 
minimum increase of $500,000 to address the shortfall and ensure the 
continuance of this program is requested.
    Shellfish have been a mainstay for the Squaxin Island people for 
thousands of years and are important today for subsistence, economic 
and ceremonial purposes. The Tribe's right to harvest shellfish is 
guaranteed by the 1854 Medicine Creek Treaty. It is important to 
remember that these rights were not granted by the Federal Government. 
They were retained by the tribe in exchange for thousands of acres of 
tribal lands. On December 20, 1994 U.S. District Court Judge Edward 
Rafeedie reaffirmed the Tribe's treaty right to naturally occurring 
shellfish. Rafeedie ruled that the Tribe(s) has the right to take up to 
50 percent of the harvestable shellfish on Washington beaches.
    The Squaxin Island Natural Resources Department (SINRD) is charged 
with protecting, managing and enhancing the land and water resources of 
the Tribe, including fish and shellfish habitat and species. In so 
doing, the Department works cooperatively with State and Federal 
environmental, natural resources and health agencies. The shellfish 
management work of the SINRD includes working with private tideland 
owners and commercial growers; surveying beaches; monitoring harvests; 
enhancing supply (prepping, seeding, monitoring beds) and licensing and 
certifying harvesters and geoduck divers. We estimate that 20 percent 
of treaty-designated State lands and 80-90 percent of private tidelands 
are inaccessible to us due to insufficient funding.
    In fiscal year 2011, the shellfish program represented only 
$250,000 of the $3.3 million budget. The result is we are unable to 
fully exercise our treaty rights due to lack of Federal support for 
shellfish.
    $2 Million--Build and Operate an Oyster and Clam Nursery for 
Southern Puget Sound.--In the past few years, problems with seed 
production have developed in the shellfish industry. These problems 
have been primarily caused by weather and or other environmental 
factors, and their effects on the industry have resulted in the lack of 
viable and large enough seed for growers. The Squaxin Island Tribes 
recognizes that it is uniquely positioned to develop a new nursery to 
serve the shellfish growers of the South Puget Sound region. A 
shellfish nursery is a capital project that is both proven and a cost 
effective technology that takes small oyster and clam seeds and 
provides a safe and controlled environment for the seeds to grow onto a 
size that survive integration onto a regular beach placement. We have 
an ideal location for a nursery because it will not be disturbed by 
residents or recreational boaters.
    Our efforts will be an extension of another project that was 
created through a U.S. Department of Agriculture appropriation nearly 
two decades ago for the Lummi Tribe, which created an oyster and clam 
hatchery in Northern Puget Sound. The Lummi project over years has been 
very successful and they have supplied not only their own beaches but 
other Tribes' as well. The project would benefit not just Squaxin 
Island Tribe. It would further improve the quality and quantity of seed 
and make the seed process more effective for Tribal and non-Tribal 
growers. The users of the facility would be the Squaxin Island Tribe, 
other Tribes, and non-Tribal clam and oyster businesses that have been 
largely unable to find sites for this type of operation.
    The Tribe's project will be a joint venture with the Lummi Nation, 
in that Lummi would be a primary larvae supplier. The project, with the 
expected grow-out and expansion of the industry attributable to the 
improved supply of seed, would offer jobs in a depressed employment 
area. Once established, the venture would be fully self-sustaining 
through sales of the product grown and at the nursery.
    This project would be a capital cost of approximately $2 million. 
The Tribal in-kind contribution to the efforts would include land and 
shoreline and operating costs. Comparable land and shoreline, if 
privately owned, would be easily valued in the millions.
    $1.2 Million Increase for Northwest Indian Treatment Center (NWITC) 
Residential Program in IHS ``D3WXbi Palil'' meaning ``Returning from 
the Dark, Deep Waters to the Light''.--NWITC has not received an 
adequate increase in its base Indian Health Service budget since the 
original congressional set-aside in 1993. An increase of $1.2 million 
would restore lost purchasing power and meet the need to add mental 
health and psychiatric components to the treatment program. This 
increase would allow NWITC to continue its effective treatment of 
Native Americans. The Squaxin Island Tribe operates the NWITC, which is 
located in Elma, Washington. NWITC is a residential chemical dependency 
treatment facility designed to serve American Indians from Tribes 
located in Oregon, Washington and Idaho who have chronic relapse 
patterns related to unresolved grief and trauma. NWITC is unique in its 
integration of Tribal cultural values into a therapeutic environment 
for co-occurring substance abuse and mental health disorders.
    NWITC has nearly 20 years of experience providing residential 
treatment with culturally competent models and is accredited by the 
Commission on Accreditation of Rehabilitation Facilities (CARF), an 
international accrediting organization for behavioral health programs. 
The NWITC is also certified by Washington State Division of Alcohol and 
Substance Abuse (DASA) Division of Behavioral Health and licensed by 
the Department of Health.
    In 2011, the NWITC served 212 patients from 28 Tribes and added 
intensive case management and crisis support to alumni in order to 
continue to promote positive outcomes for clients. This is a 10 percent 
increase over 2010 service levels. Our base allocation in 1994 was 
$850,161. In 2010 it was $994,877. If value equity to the 1994 baseline 
were maintained, the 2010 allocation would have been $1,250,895. 
Despite funding challenges, NWITC has continued to develop and deliver 
innovative, culturally appropriate services to meet increasingly 
complex demands.
    It is critical to increase the NWITC's annual base allocation from 
IHS in order to sustain the current services to the Tribes of the 
Northwest. We respectfully request the subcommittee increase the annual 
base allocation for the NWITC by $1,200,000 additional to guarantee 
that patients can be admitted based on need, not State funding streams, 
and that culturally infused, integrated and comprehensive treatment 
services and recovery support services will be maintained.
                             sequestration
    Although we are submitting testimony on fiscal year 2014, we must 
comment on the fiscal year 2013 sequestration of discretionary 
programs. The tribal leaders of the Tribal Interior Budget Council 
(TIBC) and the National Congress of American Indians (NCAI) passed 
unanimous resolutions that the trust and treaty obligations to Tribes 
should not be subject to sequestration. The sequester reductions to 
tribal programs undermine Indian treaty rights and obligations--
treaties which were ratified under the Constitution and considered the 
``supreme law of the land.'' The ongoing contribution of tribal nations 
to the U.S. economy is the land on which this Nation is built. In 
exchange for land, the United States agreed to protect tribal treaty 
rights, lands, and resources, including provision of certain services 
for American Indian and Alaska Native Tribes and villages, which is 
known as the Federal Indian trust responsibility. Indiscriminate cuts 
sacrifice not only the trust obligations, but it thwarts Tribes' 
ability to promote economic growth or plan for the future of Native 
children and coming generations.
    The fiscal year 2013 sequester and expected reductions due to the 
Budget Control Act caps will hurt law enforcement, education, health 
care and other tribal services, which have been historically 
underfunded and have failed to meet the needs of tribal citizens. We 
strongly urge that you replace the sequester since it threatens the 
trust responsibility and reduces portions of the budget that are not 
major contributors to the deficit.
    Thank you.
                                 ______
                                 
   Prepared Statement of the Southern Nevada Water Authority and the 
                  Colorado River Commission of Nevada
    As Congress continues work on the fiscal year 2014 budget, we urge 
you to support as a priority the continued funding for the Colorado 
River Basin Salinity Control Program (Program) under the Bureau of Land 
Management's (BLM) Soil, Water and Air Program. This includes fiscal 
year 2014 Federal funding of $1.5 million for salinity-specific 
projects to prevent further degradation of the quality of the Colorado 
River and increased downstream economic damages.
    Salinity concentrations of Colorado River water are lower by more 
than 100 milligrams per liter (mg/L) since the initiation of the 
Program. The concentrations of salts in the Colorado River cause 
approximately $376 million in quantified damages in the Lower Basin 
each year and significantly more immeasurable damages. Modeling by the 
U.S. Bureau of Reclamation indicates that quantifiable damages will 
rise to approximately $577 million per year by 2030 without the 
Program's continuation.
    Colorado River water salinity increases from about 50 mg/L at its 
headwaters to more than 700 mg/L in the Lower Basin. High salt levels 
in the water cause significant economic damages downstream. For 
example, damages occur from:
  --increased use of imported water and cost of desalination and brine 
        disposal for recycling water in the municipal sector;
  --a reduction in the useful life of water pipe systems, water 
        heaters, faucets, garbage disposals, clothes washers, and 
        dishwashers, and increased use of bottled water and water 
        softeners in the household sector;
  --an increase in the cost of cooling operations and the cost of water 
        softening, and a decrease in equipment service life in the 
        commercial sector;
  --an increase in the use of water and the cost of water treatment, 
        and an increase in sewer fees in the industrial sector;
  --a decrease in the life of treatment facilities and pipelines in the 
        utility sector;
  --a reduction in the yield of salt sensitive crops and increased 
        water use to meet the leaching requirements in the agricultural 
        sector; and
  --difficulty in meeting wastewater discharge requirements to comply 
        with National Pollutant Discharge Elimination System permit 
        terms and conditions, and an increase in desalination and brine 
        disposal costs due to accumulation of salts in groundwater 
        basins.
    The Program reduces salinity by preventing salts from dissolving 
and mixing with the Colorado River's flow. The Program benefits 
Colorado River water users in both the Upper Basin through more 
efficient water management, and the Lower Basin through reduced 
salinity concentration of Colorado River water.
    To deal with salinity level concerns, the Colorado River Basin 
Salinity Control Act (act) was signed into law in 1974. The act 
provides for the Secretary of the Interior to develop a comprehensive 
program for minimizing salt contributions to the Colorado River from 
lands administered by the Bureau of Land Management. Geological 
conditions and past management practices have led to human-induced and 
accelerated erosion processes from which soil and rocks, heavily laden 
with salt, are deposited in various stream beds or flood plains. As a 
result, salts are dissolved into the Colorado River system causing 
water quality problems for Lower Basin water users.
    The Program has proven to be a very cost effective approach to help 
mitigate increased salinity impacts on the Colorado River. Continued 
Federal funding of this Basinwide Program is essential to the Southern 
Nevada Water Authority and the Colorado River Commission of Nevada.
    Again, we urge you to support continued funding of $1.5 million for 
the Colorado River Basin Salinity Control Program under the BLM's Soil, 
Water and Air Program for fiscal year 2014 to prevent further 
degradation of Colorado River water and increased Lower Basin economic 
damages, and to provide improved drinking water quality to nearly 40 
million Americans.
                                 ______
                                 
   Prepared Statement of the Southern Nevada Water Authority and the 
                  Colorado River Commission of Nevada
    Waters from the Colorado River are used by nearly 40 million people 
for municipal and industrial purposes, and also are used to irrigate 
approximately 4 million acres in the United States. Natural and man-
induced salt loading to the Colorado River creates environmental and 
economic damages. The U.S. Bureau of Reclamation (Reclamation) has 
estimated the current quantifiable damages at about $376 million per 
year. Congress authorized the Colorado River Basin Salinity Control 
Program (Program) in 1974 to offset increased damages caused by 
continued development and use of the waters of the Colorado River. 
Modeling by Reclamation indicates that the quantifiable damages would 
rise to approximately $577 million per year by 2030 without 
continuation of the Program. Congress directed the Secretary of the 
Interior to implement a comprehensive program for minimizing salt 
contributions to the Colorado River from lands administered by the 
Bureau of Land Management (BLM). BLM funds these efforts through its 
Soil, Water and Air Program. BLM's efforts are an essential part of the 
overall effort. A funding level of $5.2 million for general water 
quality improvement efforts within the Colorado River Basin and an 
additional $1.5 million for salinity specific projects in fiscal year 
2014 is requested to prevent further degradation of the quality of the 
Colorado River and increased downstream economic damages.
    The Environmental Protection Agency (EPA) has identified that more 
than 60 percent of the salt load of the Colorado River comes from 
natural sources. The majority of land within the Colorado River Basin, 
much of which is administered by BLM, is federally owned. In 
implementing the Colorado River Basin Salinity Control Act (act) in 
1974, Congress recognized that most of the salt load in the Colorado 
River originates from federally owned lands. Title I of the act 
addresses the United States' commitment to the quality of waters being 
delivered to Mexico. Title II of the act deals with improving the 
quality of the water delivered to users within the United States. This 
testimony deals specifically with the title II efforts.
    In 1984, Congress amended the act and directed that the Secretary 
of the Interior develop a comprehensive program for minimizing salt 
contributions to the Colorado River from lands administered by BLM. In 
2000, Congress reiterated its directive to the Secretary and requested 
a report on the implementation of BLM's program (Public Law 106-459). 
In 2003, BLM employed a Salinity Coordinator to increase BLM efforts in 
the Colorado River Basin and to pursue salinity control studies and 
implement specific salinity control practices. With a significant 
portion of the salt load of the Colorado River coming from BLM 
administered lands, the BLM portion of the overall program is essential 
to the success of the effort. Inadequate BLM salinity control efforts 
will result in significant additional economic damages to water users 
downstream.
    Concentration of salt in the Colorado River causes approximately 
$376 million in quantified damages and significantly more in 
immeasurable damages in the United States and results in poor water 
quality for United States users. Damages occur from:
  --a reduction in the yield of salt sensitive crops and increased 
        water use to meet the leaching requirements in the agricultural 
        sector;
  --increased use of imported water and cost of desalination and brine 
        disposal for recycling water in the municipal sector;
  --a reduction in the useful life of water pipe systems, water 
        heaters, faucets, garbage disposals, clothes washers, and 
        dishwashers, and increased use of bottled water and water 
        softeners in the household sector;
  --an increase in the cost of cooling operations and the cost of water 
        softening, and a decrease in equipment service life in the 
        commercial sector;
  --an increase in the use of water and the cost of water treatment, 
        and an increase in sewer fees in the industrial sector;
  --a decrease in the life of treatment facilities and pipelines in the 
        utility sector; and
  --difficulty in meeting wastewater discharge requirements to comply 
        with National Pollutant Discharge Elimination System permit 
        terms and conditions, and an increase in desalination and brine 
        disposal costs due to accumulation of salts in groundwater 
        basins.
    The Colorado River Basin Salinity Control Forum (Forum) is composed 
of gubernatorial appointees from the Basin States (Arizona, California, 
Colorado, Nevada, New Mexico, Utah and Wyoming). The Forum is charged 
with reviewing the Colorado River's water quality standards for 
salinity every 3 years. In so doing, it adopts a Plan of Implementation 
consistent with these standards. The level of appropriation requested 
in this testimony is in keeping with the adopted Plan of 
Implementation. If adequate funds are not appropriated, significant 
damages from the higher salt concentrations in the water will be more 
widespread in the United States and Mexico.
    In summary, implementation of salinity control practices through 
BLM's Soil, Water and Air Program has proven to be a cost effective 
method of controlling the salinity of the Colorado River and is an 
essential component to the overall Colorado River Basin Salinity 
Control Program. Continuation of adequate funding levels for salinity 
control within this program will assist in preventing further 
degradation of the water quality of the Colorado River and significant 
increases in economic damages to municipal, industrial and irrigation 
users. A modest investment in source control pays huge dividends in 
improved drinking water quality to nearly 40 million Americans.
                                 ______
                                 
             Prepared Statement of the State of New Mexico
    I am requesting your support for fiscal year 2014 appropriations to 
the Fish and Wildlife Service (FWS) for the Upper Colorado River 
Endangered Fish Recovery Program and the San Juan River Basin Recovery 
Implementation Program. The Upper Colorado and San Juan recovery 
programs are highly successful collaborative conservation partnerships 
involving the States of Colorado, New Mexico, Utah and Wyoming, Indian 
Tribes, Federal agencies and water, power and environmental interests. 
They are working to recover the four species of native Colorado River 
fish such that they can each be removed from the Federal endangered 
species list. Through these efforts, water use and development have 
continued in our growing western communities in full compliance with 
the Endangered Species Act (ESA), State water and wildlife law, and 
interstate compacts.
    Implementation of the ESA has been greatly streamlined for Federal 
agencies, tribes and water users through the conduct of these recovery 
programs. Recognizing the need for fiscal responsibility, I must also 
point out the participants would all be spending much more in ESA-
related costs absent in these programs.
    The State of New Mexico requests action by the subcommittee to:
  --Appropriate $706,300 in ``Recovery'' funds (Resource Management 
        Appropriation; Ecological Services Activity; Endangered Species 
        Subactivity; Recovery of Listed Species Program Element; within 
        the ``Recovery'' element item) for fiscal year 2014 to allow 
        the U.S. Fish and Wildlife Service (FWS) Region 6 to continue 
        its essential participation in the Upper Colorado River 
        Endangered Fish Recovery Program.
  --Appropriate $200,000 in ``Recovery'' funds (Resource Management 
        Appropriation; Ecological Services Activity; Endangered Species 
        Subactivity; Recovery of Listed Species Program Element; within 
        the ``Recovery'' element item) to allow FWS Region 2 to 
        continue its essential participation in the San Juan River 
        Basin Recovery Implementation Program during fiscal year 2014.
  --Appropriate $485,800 in operation and maintenance funds (Resource 
        Management Appropriation; Fisheries and Aquatic Resource 
        Conservation Activity; National Fish Hatchery Operations 
        Subactivity; within the ``National Fish Hatchery System 
        Operations'' Subactivity item) for fiscal year 2014 endangered 
        fish propagation and hatchery activities at the FWS' Ouray 
        National Fish Hatchery. Operation of this facility is integral 
        to the Upper Colorado Recovery Program's stocking program.
    On behalf of the State of New Mexico, I thank you for your 
consideration of this request and for the past support and assistance 
of your subcommittee; it has greatly facilitated the ongoing and 
continuing success of these multi-State, multi-agency programs that are 
vital to the recovery of the endangered fish and providing necessary 
water supplies for the growing Intermountain West.
                                 ______
                                 
               Prepared Statement of the State of Wyoming
    The State of Wyoming supports the Upper Colorado River Endangered 
Fish Recovery Program and the San Juan River Basin Recovery 
Implementation Program. The Upper Colorado and San Juan recovery 
programs have been successful collaborative conservation partnerships 
involving Colorado, New Mexico, Utah, Wyoming, Indian Tribes, Federal 
agencies, water, power and environmental interests. This program works 
to recover four species of endemic Colorado River fish such that they 
can each be removed from the Federal endangered species list. Through 
the programs, water use and development have continued in full 
compliance with the Endangered Species Act (ESA), State water and 
wildlife law, and interstate compacts. Implementation of the ESA has 
been streamlined for Federal agencies, tribes and water users.
    On behalf of the State of Wyoming, I thank the subcommittee for its 
past support and assistance to the Upper Colorado River Endangered Fish 
Recovery Program and the San Juan River Basin Recovery Implementation 
Program. The subcommittee's actions have facilitated the ongoing and 
continuing success of multi-State, multi-agency programs for both the 
recovery of the endangered fish and providing necessary water supplies 
for the Intermountain West.
                                 ______
                                 
  Prepared Statement of the Shoshone-Paiute Tribes of the Duck Valley 
                              Reservation
    Chairman Reed, Ranking Member Murkowski, and members of the 
subcommittee, my name is Dennis Smith. I am the Chairman of the 
Shoshone-Paiute Tribes of the Duck Valley Indian Reservation. On the 
Tribes' behalf, I am pleased to submit testimony concerning the fiscal 
year 2014 budget for the BIA, BLM and IHS.
    I am here today with a heavy heart. Earlier this month, my Tribe 
suffered a great loss. On April 4, 2013, my predecessor, Terry Gibson, 
walked on. He was only 52 and suffered a heart attack. He was a proud 
member of the Shoshone-Paiute Tribes and a strong defender of our 
sovereignty. He worked very hard to improve the health and spirit, 
education and economic condition of our Tribal members. That is where 
he devoted his considerable energies, including time here in 
Washington. We will carry on, but he will be deeply missed.
    I will focus my testimony on the following priorities, priorities 
that were important to Terry:
  --Support and build on the President's budget request and increase 
        funding within the Public Safety and Justice, Human Services, 
        Education, Indian Guaranteed Loan and Construction accounts for 
        BIA to adequately staff, operate and maintain juvenile 
        detention facilities, and support and increase the President's 
        budget for the IHS Services account so that Indian tribes may 
        better coordinate health, substance abuse, mental health and 
        related programs and services in such facilities under the 
        Tribal Law and Order Act, Violence Against Women Act and 
        related Federal laws.
  --Support an additional $1 million above the President's request for 
        the Bureau of Land Management to fund Tribal cultural 
        activities and to protect cultural sites and resources 
        important to the Tribes under the Owyhee Public Land Management 
        provisions of the Omnibus Public Land Management Act, Public 
        Law 111-11, and support the President's fiscal year 2014 budget 
        request to fund our Water Settlement ($12 million) under the 
        same act.
  --Support an increase to Contract Support Costs (CSC) funding within 
        the IHS budget of $140 million above the President's request.
  --Oppose the administration's unilateral proposal to cut off our 
        contract support cost rights under the Indian Self-
        Determination Act (ISDA)--rights we currently hold in common 
        with every other government contractor in America.
    The Duck Valley Indian Reservation is a large, remote and rural 
reservation that straddles the Idaho-Nevada border along the east fork 
of the Owyhee River. The Reservation encompasses 450 square miles in 
Elko County, Nevada and Owyhee County, Idaho. More than 1,700 tribal 
members, out of 2,000 enrolled members, reside on the Reservation. 
Tribal members make their living as farmers and ranchers, though many 
are employed by the tribes. Since the mid-1990s, we have contracted the 
duties of Bureau of Indian Affairs (BIA) and Indian Health Service 
(IHS) under Self-Governance compacts that we negotiated under the ISDA. 
We also carry out other Federal programs on behalf of HUD and the 
Federal Highway Administration.
    We owe it to our members to provide them with a safe community with 
adequate programs, services and facilities to meet their needs. We are 
quite different from other communities as we do not have nearby 
localities to shore up services and programs when Federal 
appropriations are cut. The obligations of the United States to the 
Nation's federally recognized Indian tribes are not discretionary acts 
by the United States; these obligations are a direct product of the 
trust responsibility arising from our treaties, as well as statutes, 
Executive orders, and Federal court decisions that protect and 
strengthen tribal governments and our members.
    Sequestration.--I am very concerned about sequestration because it 
dishonors the Federal trust responsibility. This year, Indian tribes 
are taking a hard hit. Our federally funded programs--which do not have 
enough money to begin with--are hit with a 5 percent sequestration cut. 
This is money we cannot replace. We do not have a tax base, and when 
our ISDA monies are cut, we lose other matching funds and third party 
collections. If Congress does not replace sequestration by October 1, 
2013, larger cuts will wipe out the President's proposed fiscal year 
2014 funding increases, and drop our funding levels below fiscal year 
2012 levels. Already we see the early retirement of many Federal agency 
personnel who are not being replaced. How does the Federal Government 
honor the trust responsibility when no one answers the phone or returns 
an email?
    Fund the Owyhee Initiative.--The Owyhee Initiative is a joint 
effort by ranchers, recreationalists, county and State officials, and 
the Shoshone-Paiute Tribes to protect, manage and appropriately use 
Bureau of Land Management (BLM) administered lands in Owyhee County, 
Idaho by designating the lands Wilderness Areas and the waters Wild and 
Scenic Rivers. In 2009, Congress passed the Omnibus Public Land 
Management Act of 2009, Public Law 111-11. Our subtitle of that act is 
the Owyhee Public Land Management (sections 1501-1508); another is our 
Water Settlement (sections 10801-10809). We are about to exhaust 
nonrecurring funding and require $1 million to support important 
cultural resource protection activities.
    One of the objectives of the Owyhee Initiative is to allow the 
Tribes to protect cultural and religious sites located on BLM lands in 
Owyhee County through coordination with BLM and county officials, and 
to permit the Tribes to gather native plants for food or ceremony and 
to hunt and fish on these lands as we once did. Section 1506 of the 
Omnibus Act requires the Secretary of the Interior to coordinate with 
the Shoshone-Paiute Tribes to implement our Cultural Resources 
Protection Plan, and to enter into agreements with us to ``protect 
cultural sites and resources important to the continuation of the 
traditions and beliefs of the Tribes,'' and to share in the management 
of cultural resources. Section 1508 authorizes such sums ``as are 
necessary.'' With $250,000 in non-recurring funding that we received 
from BLM in 2010, and an additional $500,000 in non-recurring funding, 
we purchased equipment (pickup trucks, an ATV, a UTV and two airplanes, 
a Cessna 150 (2-seater trainer) and a Cessna 182 (4-seater), which we 
hanger outside Boise, to patrol the wilderness lands and notify BLM 
when we see activities near sacred sites. We hired a Chief Tribal 
Ranger (the former Owyhee County Sheriff) and Tribal Cultural Director. 
Owyhee County and Owyhee Initiative officials support our efforts. Due 
to lack of funds, our activities have been severely curtailed.
    It was Terry's wish to fund a Reserve Ranger Program for Tribal 
youth this summer, so that Tribal youth could experience the wilderness 
areas, be educated about the importance of these lands to the Tribes, 
let them gather native plants for ceremonies, and enhance their 
understanding and appreciation of the Shoshone-Paiute people, our 
traditions and culture. In his last visit here, he asked for help to 
fund the Youth Ranger Program with fiscal year 2013 funds. The fiscal 
year 2014 budget includes a $1.5 million increase in the Wildlife 
Management Program and $1.3 million increase in the Soil, Water, and 
Air Management to support BLM's Youth in the Great Outdoors program. 
The Reserve Ranger Program was Terry's way to help Tribal youth connect 
to their roots. Please support additional funding to appropriate 
programs within the BLM, BIA and Fish and Wildlife budgets to support 
Shoshone-Paiute cultural programs and activities under the Owyhee 
Initiative and make Terry's wish come true.
    Duck Valley Juvenile Services Center and Tribal Headquarters.--
Infrastructure is in short supply on the Duck Valley Reservation. Due 
to a black mold infestation, we must replace our Tribal government 
buildings at a total estimated cost of $15 million-$16 million (2012 
dollars). We now work out of trailers. To make the project affordable, 
we have divided the project into six phases. We are also renovating the 
Duck Valley Juvenile Services Center, a secure detention and treatment 
facility, our first youth detention/treatment facility on the 
Reservation. We were selected by the BIA this year to participate in a 
pilot project to design and implement best practices to deliver 
appropriate serves to incarcerated Tribal adults and juveniles. 
However, both program and construction funds are inadequate. We need 
help to finance construction to build infrastructure on the Duck Valley 
Reservation. We oppose the President's cuts and ask for increases for 
BIA Construction (cut $17 million), Federal loans/guarantees, and IHS 
Mental Health ($80 million), Alcohol and Substances Abuse ($196 
million) and Purchased/Referred Care programs.
    As for construction, very few projects in Indian Country can be 
built or reconstructed with only BIA or IHS construction funds alone. 
And when they are built, and certificates of occupancy issued, it is 
critical that staffing, operation and maintenance funds be available to 
us so that the facilities open and do not sit idle. It is therefore 
critical that Congress increase funding in the fiscal year 2014 budget 
for the BIA's Public Safety and Justice, Human Services, Education, 
Indian Guaranteed Loan and Construction accounts, and IHS and other 
DHHS programs to ensure that agency funds are available to permit 
Indian tribes to deliver all required program services in a 
comprehensive manner. This is especially important for juvenile 
facilities.
    We are 140 miles south of Boise, Idaho, and 98 miles north of Elko, 
Nevada. Poverty and unemployment are widespread. As a result, some of 
our members struggle with alcohol and substance abuse, including our 
youth. For over a decade, it has been our goal to construct a secure 
juvenile detention and treatment service center on our Reservation, 
rather than having our young members sent hundreds of miles to non-
Indian detention facilities, far from home, family and culturally 
appropriate treatment. These transports also remove BIA law enforcement 
officers from the Reservation, which contributes to crime and delayed 
response times.
    Next month, we will put out to bid the renovation of our existing 
Duck Valley Juvenile Services Center. When built, it will provide a 
modern and safe 19-bed youth detention and treatment facility so that 
Tribal youth can be housed on the Reservation. But Federal funding is 
inadequate to help coordinate Tribal, BIA, BIE, IHS, Justice Department 
and DHHS's Substance Abuse and Mental Health Services Administration 
(SAMHSA) stakeholders, and to implement these programs for adult and 
youth offenders. Secretarial-level Memoranda of Agreements between 
Justice, IHS and BIA will not work at the project level when there are 
insufficient funds appropriated to the agencies and Tribes to deliver 
well-coordinated programs and services.
    IHS personnel have not been sufficiently engaged to coordinate 
substance abuse, mental health and related health services for 
incarcerated adult and youth offenders. SAMHSA officials are taking a 
lead with BIA Law Enforcement officials, but a scheduled meeting on the 
Reservation was postponed due to sequestration cuts. We need additional 
health resources to recruit, hire and house substance abuse and mental 
health counselors to treat Tribal youth when the detention facility 
opens, as well as to house detention and law enforcement personnel. 
Only by pooling available resources in a coordinated manner can we halt 
and treat the behavioral issues that contribute to the cycles of 
substance abuse, crime and recidivism on our Reservation.
    We support the President's proposed increases of $17.8 million for 
Public Safety and Justice, including $13.4 million to staff newly 
constructed detention facilities; we oppose $10 million cuts to the 
Human Services and construction budgets, which could fund more domestic 
and child abuse programs, especially with enactment of VAWA. We oppose 
the elimination of the BIA HIP Program ($12 million cut) as housing is 
in short supply on the Reservation.
    Contract Support Costs.--This subcommittee understands the 
importance of CSC to tribal governments. The President's budget for 
fiscal year 2014 again provides far too little for CSC funding for IHS. 
By not paying the full CSC amount, IHS forces us to cut program 
services or cut staffing to pay our fixed administration costs. This 
only penalizes the people we serve. At last count, we were underpaid 
over $600,000 in CSC funding--a huge sum in lost health care in our 
small community.
    The IHS (and the BIA) would compound the problem for fiscal year 
2014. First, IHS has requested only $477 million when it admits it 
needs at least $617 million to honor all contracts. Second, the IHS and 
BIA propose to individually cap fiscal year 2014 payments of each 
tribe, meaning we would lose all the damage claims we have under 
existing law for the underpayments. This irresponsible and radical idea 
was developed in secret and without any prior tribal consultation 
whatsoever. We have already accumulated $3,154,312 in past losses, 
following the $4 million settlement of our original claims in the 
Cherokee-Shoshone-Paiute Supreme Court 2005 litigation; why in the 
world would we agree to allow the Government to repeat past travesties?
    Over a decade ago, I walked the halls of Congress to increase CSC 
funding for Indian tribes. We were among the first to file suit against 
the United States. We won in the Supreme Court, with a ruling that our 
self-governance compacts are every bit as solid as any other Government 
contract. It is bad enough that tribal contractors are the only 
Government contractors that are regularly underpaid; it would add grave 
insult to that injury to now cut off all recourse in the courts--
especially if the only reason is that we are Indians. This 
administration is bound by its obligations to consult with Indian 
tribes before making policy changes that impact tribes. This 
subcommittee should oppose the administration's unilateral CSC proposal 
and insist that the BIA and IHS consult with Indian tribes first before 
changing in any manner the means by which CSC funds are paid to tribes. 
Thank you.
                                 ______
                                 
          Prepared Statement of the Standing Rock Sioux Tribe
    On behalf of the Standing Rock Sioux Tribe, I submit testimony 
concerning the President's fiscal year 2014 budget for the American 
Indian/Alaska Native programs within the Department of the Interior and 
Indian Health Service. I would like to express our appreciation to this 
subcommittee for its support of Indian tribes and to focus my remarks 
on public safety, education, housing, healthcare, and infrastructure.
    The Standing Rock Sioux Reservation encompasses 2.3 million acres 
in North and South Dakota. The Reservation's population--approximately 
8,500 tribal members and 2,000 nonmembers--reside in eight districts, 
and in smaller communities. The Tribe's primary industries are cattle 
ranching and farming. The Tribe struggles to provide essential 
governmental services to our members. When the Tribe ceded millions of 
acres of land to the United States, the Government promised to provide 
us with the means to sustain ourselves on our Reservation. The Tribe 
strives to provide jobs and improve the standard of living on our 
Reservation. We operate two modest Tribal casinos; Rock Industries, a 
small parts-on-demand operation; Standing Rock Propane; Standing Rock 
Telecommunications; and a sand and gravel operation, which helps the 
Tribe supplement services and programs for our members. Despite these 
measures, our unemployment rate remains above 50 percent. In fact, more 
than 40 percent of Indian families on our Reservation live in poverty--
more than triple the average U.S. poverty rate of 13.8 percent. The 
disparity is worse for children, as 52 percent of the Reservation 
population under age 18 lives below poverty, compared to 16 percent and 
19 percent in North and South Dakota, respectively. The Federal 
programs established to aid tribes and their members are essential. We 
ask the Government to honor its commitments by maintaining Federal 
programs enacted for our benefit, so that our members may live at a 
standard equal to that enjoyed by the rest of the Nation. Our specific 
recommendations are as follows:
    BIA--Public Safety and Justice.--We strongly support the 
President's proposal to increase funding for Public Safety and Justice 
by $17 million above the 2012 enacted level, and urge Congress to 
increase appropriations by at least that amount. Increased funding is 
needed to hire more law enforcement officers and to staff detention 
facilities. Standing Rock has seen first-hand that adequate law 
enforcement staffing is the key to reducing crime.
    Before 2008 at Standing Rock, there were only seven law enforcement 
officers to cover the Reservation (an area close to the size of 
Connecticut), and crime was rampant. Crime decreased as a result of 
BIA's Operation Dakota Peacekeeper initiative which, in 2008, added 20 
law enforcement officers on the Reservation. When that initiative 
ended, the number of supplemental officers assisting the permanent law 
enforcement officers was reduced and crime increased. Fortunately, 
Standing Rock is one of the few Indian reservations where the High 
Prior Performance Goals initiative (HPPG) has been implemented. In 
2009, when HPPG started, the then 12 permanent law enforcement 
positions were gradually supplemented by an additional 22 positions. 
These 34 positions currently consist of a Chief of Police, 3-4 
Lieutenants, 3 Criminal Investigators/Special Agents, 2 School Resource 
Officers and 24 police officers.
    Although not all 34 positions are filled at all times (due to 
turnover and training leave), the increase in law enforcement has had a 
significant positive impact. It facilitated police officer assignment 
to each Reservation community, which means quicker response time to 
calls. The increased law enforcement presence and patrols has deterred 
crime and resulted in our members feeling safer. The data confirms 
this. When compared to the number of violent crimes (homicide, rape, 
robbery, assault) that occurred between 2007 and 2009, the additional 
staffing reduced such crimes by approximately: 7 percent in 2010, 11 
percent in 2011, and 15-19 percent in 2012.
    These initiatives demonstrate the critical importance of adequate 
law enforcement staffing. But HPPG is presently scheduled to end after 
fiscal year 2013. More than 3,000 arrests were made during the 2012 
calendar year. Data this year demonstrates that Reservation law 
enforcement continue to receive more than 900 calls for assistance each 
month. While the Tribe is fortunate to have 34 law enforcement 
positions for the Reservation, an analysis of the number of officers 
needed to provide effective 24-hour coverage indicates there should be 
more. At current staffing levels, officers typically work 12-hour 
shifts, 5 days a week, leading to officer burn-out and increased costs 
for overtime. Only proper staffing levels will ensure the safety of our 
communities and officers. We urge Congress to increase funding for law 
enforcement personnel.
    Funding is also essential for law enforcement equipment and 
facilities maintenance. In December 2010, the Tribe successfully 
completed construction of a secure 18-bed juvenile detention facility 
on our Reservation so that Tribal youth offenders may remain on the 
Reservation and receive culturally appropriate services while 
incarcerated. The Tribe contributed $2 million of Tribal funds to 
supplement $5 million in Justice Department funds to build this 
facility. Over time this facility will save the BIA a great deal of 
money that now pays other public authorities to house our youth 
offenders. Unfortunately, while the BIA, in January 2011 and many times 
thereafter, advised the Tribe that the facility was to be among those 
BIA-operated facilities to receive operation and maintenance funding, 
BIA delays have meant that, to date, the facility is not operational 
and has received no maintenance funds. As a result, problems have 
surfaced. Various systems in the building require repair but warranties 
have expired. The Tribe is taking active steps to remedy these matters 
using Tribal resources. Once these matters are cured, the BIA must act 
promptly to assume operation of the facility and secure a share of the 
operation and maintenance (O&M) funds needed to pay for utilities and 
routine maintenance. Adequate levels of O&M funding are essential to 
safely house our youth and safeguard the Tribe's and Federal 
Government's investment in this facility.
    BIA--Tribal Courts.--We urge Congress to increase the modest 
funding appropriated for the Tribal Courts Program. Our Tribe cannot 
effectively carry out criminal proceedings, let alone civil cases, with 
our small BIA allocation, even when heavily subsidized by the Tribe. 
Our Tribal courts are crowded, cramped and outdated and limit our 
ability to administer a comprehensive criminal justice system on the 
Reservation.
    Bureau of Indian Education (BIE).--We urge Congress to increase 
fiscal year 2014 funding for BIE programs. As President Obama has 
stated, education is the key to ending the cycle of poverty and lower 
wages. Despite this, the administration's fiscal year 2014 budget would 
hold constant or otherwise cut funding for programs that are critical 
to the education of our youth.
    Standing Rock relies on BIE funding for three Tribal grant 
schools--the Standing Rock Community School (K-12), Sitting Bull School 
(K-8), and Rock Creek School (K-8). The Standing Rock Community School 
is jointly operated by the Tribe and a State entity, Fort Yates Public 
School District, which, like other public schools on the Reservation 
(Cannonball, Selfridge, McLaughlin, McIntosh, and Wakpala), depends on 
Federal impact aid to cover the costs of the public school's share of 
the school operations. The children in the schools on the Reservation 
are among the most at-risk students in the Nation. At the Rock Creek, 
Cannonball, Selfridge, and Wakpala schools, 100 percent of the students 
receive free or reduced price school lunches because their families 
live at or below poverty. At other schools, the percentage of children 
receiving free or reduced price lunch is comparable--Sitting Bull, 98 
percent; McLaughlin, 85 percent; Fort Yates, 80 percent; Standing Rock, 
80 percent.
    A critical source of funds for the operation of our Tribal grant 
schools are the Indian School Equalization Program (ISEP) Formula 
funds. They cover salaries for teachers, teacher aides, school 
administrative staff and other operational costs. ISEP has not seen any 
meaningful increase in years, and as a result, it has become more 
difficult to attract and retain qualified staff. Despite the clear 
need, the administration proposes to cut ISEP funding by $16.4 million, 
apparently to offset the cost of a new pilot program. We do not object 
to a new pilot program, but no such program should be created at the 
expense of existing needs. If the schools serving Indian children are 
to be effective, ISEP funding should be increased.
    The administration's near flat line funding for virtually all 
aspects of BIE programs does not account for population growth, 
increased costs, or inflation. Student Transportation funding, intended 
to cover the costs of buses, fuel, maintenance, vehicle replacements, 
and drivers, has stayed at the same level for years. The substantial 
increases in fuel costs alone make it impossible to cover these costs. 
For Standing Rock, funds are further strained because we are a rural 
community, where bus runs for many of our students may take 1\1/2\ to 2 
hours each way and can include travel on unimproved roads. These 
factors result in higher maintenance costs and shorter vehicle life. A 
substantial increase in funds for Student Transportation is long 
overdue.
    The same is true for School Facility Operations and School Facility 
Maintenance which is nowhere near fully funded. In fact, O&M budgets 
are currently constrained at 40 percent. With the constraint and the 
cuts resulting from sequestration, it will be impossible for the 
schools to operate. We also urge Congress to increase, or at least 
maintain funding for Education Construction and reject the 
administration's proposal to cut Education Construction funding by $18 
million. While the administration claims this will allow it to 
eliminate replacement school funding and redirect funds to Minor 
Improvement and Repair (MI&R) programs, its budget contains no 
comparable increase to MI&R. Without adequate funds for maintenance or 
facilities repair our schools will deteriorate and pose serious safety 
risks for our children. Indeed, part of one of our Tribal grant 
schools, the Rock Creek School, is more than 100 years old and badly 
needs to be replaced. Federal funds to replace ancient schools--like 
Rock Creek--are essential. Funding for School Facility Operations and 
School Facility Maintenance, as well as Education Construction should 
be substantially increased.
    We also urge Congress to increase funding for Scholarships. Because 
of the unmet need, the Tribe spends $1 million in Tribal funds annually 
to supplement this program and gives grants of $3,000-$3,500 to aid our 
students attending colleges and vocational schools. But even with this, 
most of our scholarship recipients have unmet financial need varying 
from $100 to $17,000.
    BIA HIP (Housing Improvement Program).--The Tribe opposes the 
administration's proposal to completely eliminate funding for HIP. HIP 
has long played a very important role in providing funds to low income 
persons who have emergency or other specific needs to make home 
repairs. While the administration states that Tribes can use HUD 
NAHASDA funds to cover these costs, our Tribal members' needs for safe 
and affordable housing are staggering. Even with both HUD and HIP, 
there are now more than 200 families on the waiting list for housing, 
150 families living in overcrowded conditions, and another 300 families 
in substandard housing.
    Indian Health Service.--We support the administration's fiscal year 
2014 requested increase in IHS funding. We depend on IHS to care for 
our 15,500 enrolled tribal members, many of whom suffer from diabetes, 
heart disease and hypertension. With 5 percent cuts due to 
sequestration, and 2 percent decrease in Medicare reimbursement, we 
estimate there will be at least $800,000 in unmet need in fiscal year 
2013. Unmet need will be more severe if sequestration recurs in fiscal 
year 2014.
    We recommend the subcommittee prioritize the IHS preventive 
healthcare service programs, such as the diabetes grant program, and 
increase funding for these programs above the administration's $150 
million, while supporting and protecting the administration's other IHS 
funding priorities, especially funding for healthcare personnel. In 
many instances, if additional funding for clinical services and 
preventive health programs can be made available, illnesses and 
injuries could be treated at their initial stages, or prevented 
altogether. This is especially important at Standing Rock, where many 
of our members' health problems could be addressed if timely preventive 
care were available. We also support the administration's request for 
increases in Dental Health (as there is considerable need for dental 
care) and Purchased/Referred Care (previously known as Contract Health 
Services), which has been historically underfunded.
    Infrastructure.--Infrastructure, like safe drinking water, 
utilities, and well-maintained roads are essential to the well-being of 
our people. But the primary funding source for road maintenance, the 
BIA's Road Maintenance Program, has for the last 30 years, been funded 
at only $25 million, making it impossible to carry out routine, much 
less, emergency road maintenance. We urge Congress to reject the 
administration's current proposal to again cut funding for this 
program.
    Equally vital is safe drinking water. Congress authorized the 
Standing Rock Sioux Tribe's municipal, rural, and industrial (MR&I) 
water system by the Garrison Diversion Unit Reformulation Act of 1986 
and the Dakota Water Resources Act of 2000. Substantial progress has 
been made on the project: construction is nearly complete for core 
facilities including a deep water intake and pump station, 13 miles of 
raw water transmission pipeline, a main storage reservoir, a state-of-
the-art water treatment plant, and 49 miles of main transmission 
treated water pipelines. Three treated water pipeline contracts 
approach the bidding stage. When completed, they will connect the 
Reservation's existing water infrastructure to the new facilities so 
that more than 75 percent of the Reservation population will receive 
clean drinking water. However, further pipeline construction, including 
to residents currently without treated water supply, is in jeopardy due 
to the recent dramatic cuts in appropriations. Proposed future 
appropriations levels threaten to completely stop construction on the 
project leaving a significant portion of the Reservation's residents 
without access to safe, clean, dependable drinking water. We 
respectfully request Congress restore funding the Dakota Water 
Resources Act to fiscal year 2010 levels to allow completion of this 
critical project within a reasonable time.
                                 ______
                                 
       Prepared Statement of the Seismological Society of America
    I thank you for this opportunity to provide the subcommittee with 
the testimony on behalf of the Seismological Society of America (SSA). 
SSA is an international scientific society devoted to the advancement 
of seismology and the understanding of earthquakes for the benefit of 
society. Founded in 1906, SSA is the largest and most respected society 
of seismologists in the world and is an unbiased source of reliable 
information for any governmental agency or official seeking sound 
scientific advice.
    We ask the subcommittee to continue to support and sustain the 
critical geoscience work underway at the United States Geological 
Survey (USGS), within the Department of the Interior. In the Interior, 
Environment, and Related Agencies Appropriations bill now under 
consideration by this subcommittee, we ask for $1.2 billion for USGS, 
to support their total mission area needs, including $57.924 million 
for the Earthquake Hazards Program, $24.698 million for the Volcano 
Hazards Program and $3.693 million for the Landslide Hazards Program. 
These levels are much lower than those recommended by the National 
Academy of Science in 2011, and represent a minimum appropriation 
needed to prevent significant degradation of our national earthquake 
program in the coming year.
    Earthquakes are a threat to national security. They can cause 
tremendous damage to critical infrastructure, hindering vital 
Government services and operations, inhibiting the flow of goods and 
services, and impacting interstate commerce. They cause loss of life 
and property. Currently 75 million Americans in 39 States face a 
significant earthquake risk. But all Americans would bear economic 
consequences resulting from a major destructive earthquake occurring 
anywhere in the country.
    Although earthquakes occur less frequently in the Eastern United 
States than in some other parts of the Nation, studies show that when 
these earthquakes occur, urban areas in the East could face devastating 
losses because severe shaking would affect a larger area than a similar 
earthquake in the Western United States. Most structures in the Eastern 
United States are not designed to resist earthquakes and residents are 
not as well prepared for earthquakes as communities in the West.
    In Alaska and the Pacific Northwest, along with Hawaii, Puerto 
Rico, and the U.S. Virgin Islands, the effects of a destructive 
earthquake can extend well beyond local impact by potentially creating 
far-reaching tsunamis that impact low-lying coastal communities or have 
subsequent ground shaking that creates landslides which results in 
economic losses that could exceed any that have occurred from previous 
earthquakes or tsunamis.
    USGS provides the research, monitoring, and assessment that are 
critically needed to better understand and respond to natural hazards, 
and to build national economic, political, and general resilience. USGS 
provides information products for earthquake loss reduction, including 
rapid post-event impact evaluations, national hazard and risk 
assessments, comprehensive real-time earthquake monitoring, and public 
outreach. Virtually every American citizen and every Federal, State, 
and local agency benefits either directly or indirectly from the 
products and services provided by the USGS. A wide variety of 
industries rely on USGS for assessments and data to reduce their costs 
and risks and to help them develop their own products and services.
    ``National Earthquake Resilience: Research, Implementation, and 
Outreach,'' published by the National Academy of Sciences in 2011, 
compiled cost estimates for 18 separate tasks in a program to achieve 
resilience. The Earthquake Hazards Program is uniquely well-suited to 
executing several of these tasks, including completion and operation of 
the Advanced National Seismic System, development of Earthquake Early 
Warning, and creation of a National Seismic Hazard model. In addition, 
the Program can make critical contributions many of the other tasks, 
including Physics of Earthquake Processes, Operational Earthquake 
Forecasting, and Earthquake Scenarios. Seismologists understand that 
even these few tasks cannot be fully funded this year. Nevertheless, 
more than doubling funding for the Earthquake Hazards Program 
progressively over the next 5 years and then sustaining a high level of 
effort for 20 years would facilitate a well defined program that can 
return benefits to the Nation outweighing the costs many times over.
    Thank you for the opportunity to present this testimony to the 
subcommittee.
                                 ______
                                 
          Prepared Statement of the Seminole Tribe of Florida
    The Seminole Tribe of Florida submits these comments on the 
administration's proposed fiscal year 2014 budget for the Indian Health 
Service (IHS) and the Bureau of Indian Affairs (BIA), with focus on the 
proposal regarding contract support costs (CSC). Specifically, we 
request:
  --Rejection by Congress of the administration's proposed BIA and IHS 
        contractor-by-contractor caps on contract support costs.
  --Full funding of IHS contract support costs, estimated to be $617 
        million, or $140 million above the administration's proposed 
        cap.
  --Full funding of BIA contract support costs, estimated to be $242 
        million, or $12 million above the administration's proposed 
        cap.
  --Protect the IHS budget from sequestration.
               reject the contract support costs proposal
    Indian tribes nationwide were taken aback by the administration's 
fiscal year 2014 proposal to statutorily cap every individual tribe's 
payment of CSC (for both the IHS and the BIA payments). The clear 
intent of this proposal is to limit the Federal Government's liability 
for tribal recovery of CSC shortfalls through Contract Dispute Act 
claims in court. The individual tribal caps would be imposed by tables 
created by the agencies and incorporated by reference into the 
appropriations act. The proposal, which the administration describes as 
a ``short term'' plan, is in reaction to the Supreme Court decision in 
Salazar  v. Ramah Navajo Chapter which said that contract support costs 
should be paid in full.
    Since the administration's proposed budget was released in April, 
the House Subcommittee on Interior, Environment and Related Agencies 
and the Senate Committee on Indian Affairs have had budget hearings at 
which there was testimony from many tribal leaders strongly critical of 
the substance of the CSC proposal and of the lack of tribal 
consultation on this matter.
    The administration is not retreating from its proposal, as 
evidenced by a Department of the Interior (DOI) official's comment at a 
May 8 hearing of the Senate Interior, Environment, and Related Agencies 
Appropriations Subcommittee that we need to solve the ``problem'' of 
contract support costs. The problem is not the Ramah  decision, it is 
the Federal Government's view that obligations to tribal contractors, 
unlike other Government contractors, are just a budget line item and 
need not be paid in full.
             fully fund ihs and bia contract support costs
    The authority afforded tribal governments under the Indian Self-
Determination and Education Assistance Act to flexibly design and 
operate programs in place of the Federal Government has proved to be a 
great success. More than half of the IHS budget is now allocated to 
tribes through Self-Determination agreements; the figure for (DOI) 
Indian Affairs is 65 percent. Every tribe in the Nation has at least 
one self-determination agreement. At the heart of the implementation of 
the Self-Determination Act is whether tribes have the resources to 
cover the administrative and overhead portions of the programs that 
would otherwise be borne by the Federal Government. Tribes have had to 
utilize program funds when contract support funds are inadequate or 
scale back their planned services to tribal members. We thank the 
Interior Appropriations subcommittees and Congress for increases in 
recent years for CSC--it has made a positive difference--and now ask 
that the job be completed with full funding for contract support costs: 
$617 million for IHS and $242 million for BIA.
    We also point out that the IHS and BIA budgets are not, especially 
in recent years, receiving funding for built-in costs--pay increases, 
inflation, and population growth. This, along with underfunding of CSC, 
puts a real strain on tribal government services.
          protect the indian health service from sequestration
    The fiscal year 2013 sequestration resulted in a $220 million cut 
in funding to the IHS for fiscal year 2013--roughly 5 percent of the 
IHS's overall budget which is concentrated in the last half of the 
fiscal year. IHS lost $195 million for programs including hospitals and 
health clinics services, contract health services, dental services, 
mental health and alcohol and substance abuse services. Programs and 
projects necessary for maintenance and improvement of health facilities 
felt these same impacts. These consequences are then passed down to 
every Indian Self-Determination Act contractor.
    The fiscal year 2014 budget proposal for IHS would not restore the 
sequestration. Of the $124 million increase proposed for the IHS, most 
of it is for staffing of new facilities and inflation for the Purchase/
Referred Care (formerly Contract Health Services). These are necessary 
increases but they do not constitute a general increase for tribal or 
IHS health programs.
    We cannot understand why the U.S. trust responsibility for the 
health of American Indian and Alaska Native people was taken less 
seriously than the Nation's promises to provide healthcare to our 
veterans. The Veterans Health Administration (VA) was fully exempt from 
the sequester for all programs administered by the VA. See Sec. 255 of 
the Balanced Budget and Emergency Deficit Control Act (BBEDCA), as 
amended by Public Law 111-139 (2010). Also exempt are State Medicaid 
grants, and Medicare payments are held harmless except for a 2 percent 
reduction for administration of the program. Yet the IHS was subject to 
the full cut. We thus strongly urge the Appropriations Committees to 
support amendment of the BBEDCA to fully exempt the IHS from any 
sequestration procedures, just as the VAs and other health programs are 
exempt. We recognize that the President's proposed budget is designed 
to eliminate future sequestrations, but Congress will work its will on 
that proposal, so we seek an amendment to exempt the IHS from 
sequestration.
                               conclusion
    Ensuring full funding of tribal programs at the Bureau of Indian 
Affairs and the Indian Health Service is important not only to tribes, 
but to the communities around them. We recognize the economic hardships 
facing the country, but remind Congress that funding our programs 
enables us to create more jobs for Indians, non-Indians, tribal 
members, and neighbors alike. This helps our national economy grow from 
the ground up. Accordingly, we urge you to honor our requests to fully 
fund Indian programs in fiscal year 2014.
                                 ______
                                 
     Prepared Statement of the Skokomish Tribe of Washington State
    I am Joseph Pavel, Vice Chairman of the Skokomish Tribe of 
Washington State. I would like to thank the subcommittee for the 
opportunity to present testimony on the fiscal year 2014 appropriations 
for American Indian/Alaska Native programs within the Interior 
Department, Indian Health Service and Environmental Protection Agency. 
The Skokomish Indian Tribe is responsible for providing essential 
governmental services to the residents of the Skokomish Indian 
Reservation, a rural community located at the base of the Olympic 
Peninsula with a population of more than 2,000 people, including 
approximately 700 Tribal members. The Tribe provides services through 
various departments--Tribal Administration, Community Development, 
Information Services, Early Childhood Education (including Head Start), 
Education, Health Clinic, Housing, Legal, Natural Resources, Public 
Safety, Public Works, and Tuwaduq Family Services. The Tribal 
government also works closely with community members to identify needs 
and prioritize services. Adequate Federal funds are critical to the 
Tribe's ability to address the extensive unmet needs of our community.
                        bureau of indian affairs
    Law Enforcement.--We support the President's proposal to increase 
funding for BIA Public Safety and Justice Programs. The Skokomish 
Department of Public Safety (SDPS) provides 24/7 law enforcement 
services for the Tribe. SDPS is responsible for patrolling and 
enforcing justice both within the Tribe's 5,300-acre Reservation, and 
throughout the Tribe's 2.2-million-acre Treaty area where the Tribe has 
Treaty-protected hunting, fishing and gathering rights. SDPS currently 
has a Chief of Police, seven full-time officers, and one part-time 
officer. Despite SDPS's best efforts, it cannot meet all of its 
responsibilities unless staffing is increased.
    Officers respond to all manner of calls for police services 
including a wide range of felonies and misdemeanors. They patrol both 
land and water in Hood Canal Basin, enforcing Tribal laws, treaty 
rights, court orders, and Federal and State statutes. Staff is 
stretched thin. In addition to its primary responsibilities in 
patrolling the Reservation and the usual and accustomed areas where 
Tribal members make their living fishing and hunting, the SDPS performs 
other necessary duties. For example, the SDPS officers (who are cross-
deputized) assist the Mason County Sheriff's Office and the Washington 
State Patrol. The SDPS is also tasked with first response in the event 
of a natural disaster or emergency management situation.
    But with only four officers available for day-to-day patrol duties, 
individual officers often work alone. Understaffing exposes both the 
community members in need of assistance and SDPS officers to undue 
danger. Unfortunately, this is SDPS's reality. To meet mandated 
responsibilities, staffing must be increased. Vacancies due to illness, 
training and other leave force the Chief of Police to handle patrol 
duties. Budget limitations severely restrict overtime. Often gaps in 
shift coverage go unfilled relying on an ``On Call'' response. This 
gravely increases the risk to the safety of the community and creates 
service gaps affording opportunities for increased criminal activity. A 
memorandum of understanding with the Mason County Sheriff's Office 
helps to fill some of these gaps on an as-needed basis. However, the 
costs are significant and there are times when a Deputy simply is not 
available.
    The SDPS strives to get the most from every dollar spent and is 
constantly working to improve in every aspect. An outdated Records 
Management System (RMS) was recently replaced. The new RMS will provide 
more succinct statistical crime data and will be instrumental in the 
proactive deployment of SDPS personnel. A new community policing plan 
is also in place, as well as a new training plan. But because of 
limited funds, progress is slow.
    Today, the Skokomish Reservation faces many of the same issues as 
other communities. Domestic violence and substance abuse critically 
impact the Tribe. The Skokomish Tribe also hosts visitors from the 
surrounding communities as well as a large tourist trade. This is the 
avenue through which narcotics are brought into the Reservation. With 
the drug trade comes many other associated undesirable issues--theft, 
burglary and poaching, to name a few. There is a sense of helplessness 
in the community, resulting in crimes often going unreported. SDPS does 
not have the resources to effectively stem the tide of this illicit 
activity.
    In order for the Skokomish Tribe to ensure safety, service and 
protection of the community, an immediate and dramatic increase in 
staff is needed. To properly carry out its responsibilities SDPS needs 
another seven officers. Dedicated resources for investigations, 
community policing and crime prevention alone require a minimum of 
three additional officers. The Tribe simply cannot provide these 
resources so necessary for the protection of our community without the 
additional funding assistance of the Federal Government.
    Tribal Court.--The Skokomish judiciary handles a high volume of 
cases relative to our community's population. The Court currently has 
more than 262 open criminal, civil, and family court cases. The 
Skokomish Tribal Court is in the midst of a major restructuring project 
as a result of the Tribe's unwavering commitment to providing 
meaningful access to justice for all of its community members. 
Specifically, the Tribe has recently begun providing public defense 
services to its Tribal members who are facing criminal charges. In 
addition, the Tribe has recently recruited a new prosecutor, probation 
officer, and a pool of Tribal Court judges who are actively working to 
encourage alternatives to incarceration, while reducing criminal 
recidivism.
    We support the President's proposal to increase funding for Tribal 
Courts, but the increase proposed is not enough. To protect the Tribes 
from the adverse impacts of sequestration and the demands on our 
courts, we respectfully request that Congress increase funding 
substantially so that the Tribal Court in cooperation with the Public 
Safety Department can continue its momentum in improving our judiciary 
to reflect the needs and values of the Skokomish community. This 
includes fully implementing the Tribe's retrocession from Public Law 
280, consistent with the standards for implementation of the Tribal Law 
and Order Act of 2010, and ensuring that our most vulnerable community 
members are fully protected through proper implementation of the newly 
amended Violence Against Women Act.
    Natural Resources.--We strongly support the President's proposal to 
increase funding for Trust-Natural Resources Management programs by 
$34.4 million more than fiscal year 2012 levels. Increased funding to 
foster sustainable stewardship and development of natural resources and 
support fishing, hunting and gathering rights on and off-reservation, 
is essential to our people who depend on natural resources for their 
livelihood.
    For example, the Pacific Salmon Treaty grant supports the Tribe's 
federally mandated salmon sampling program. Throughout the entire 
salmon season, and to ensure proper management of the resources, we 
must collect scale and coded-wire tag samples from Chinook and Coho, 
and scale samples from Chum on 20 percent of our catch. This 
information is used to determine run size and allows fisheries managers 
to properly structure the fisheries. Current funding levels have been 
sufficient to achieve this goal; however, with sequestration, we are 
facing cuts in fiscal year 2013. Without proper funding for this 
program, it will become very difficult, if not impossible, for the 
Tribe to ensure the safety of ESA-listed salmon which may result in a 
loss of a Treaty-reserved resource and our members' ability to support 
themselves from that resource. We urge Congress to increase the current 
level of funding for this vital program.
    Hatchery cyclical maintenance funds are also invaluable for 
supporting the Federal Government's investment in Tribal hatcheries. 
Most Tribal hatcheries are underfunded and each year brings more decay 
to the facilities. Here too, adequate funding for hatchery maintenance 
is imperative to prevent these important pieces of the salmon 
restoration puzzle from crumbling away. Because of habitat destruction, 
the only reason we continue to have salmon for Treaty-harvest 
activities is the operation of salmon hatcheries. Congress cannot allow 
the main pillar of this all important Treaty right to take a reduction 
in funding.
    Five years ago the Tribe was able to cobble together a wildlife 
program consisting of one biologist and one technician. The program is 
partially funded by Timber, Fish, and Wildlife funds of about $95,000; 
the Tribe supplements the program with an additional $35,000. The 
Tribal program needs additional funding to staff three dedicated 
wildlife enforcement officers who will not only enforce the Tribe's 
regulations, but ensure that poaching of the Tribe's wildlife resources 
does not occur from outside entities who sometimes fail to recognize 
the Tribe's Treaty rights. Sequestration will make it all but 
impossible for us to continue to properly manage our resources. We 
request additional funds in the amount of $240,000, so we will have 
stable funding for a complete wildlife program.
    Transportation.--The Moving Ahead for Progress in the 21st Century 
(Map-21) bill was enacted in July 2012. The legislation requires that 
Federal grant funds be awarded through State DOTs. In the past, we had 
the option of receiving funding through the BIA as a 638 contract. We 
are finding with our two current Scenic Byways grants that going 
through the State DOT costs more and the projects take twice the amount 
of time to complete. The Tribe would like to see an amendment to Map-21 
that reinstates our right to either directly receive funds or have the 
funds come through the BIA.
                         indian health service
    The Skokomish Tribe supports the President's proposal to increase 
funding for the Indian Health Service. We have a Tribally operated 
Ambulatory Health Center located in a relatively remote geographic area 
and continue to face financial barriers to the effective provision of 
healthcare services. Our Contract Health Service (CHS) funds are 
insufficient to meet needs and we urge that Federal funds be increased 
in light of the rising cost of healthcare and the serious health issues 
our patients face such as cancer, diabetes, and heart disease.
    Among the problems are the increases we are seeing in oral health 
costs on the Reservation. Federal funding has not kept pace. Dental 
problems are common among low income households and drug users. In many 
instances, when dental problems are finally dealt with they require 
specialized dental care, which the Tribe lacks resources to provide. 
Further compounding the problem is if our CHS funding is spent, Tribal 
members without dental insurance are more likely to forego the 
necessary specialized dental care. Instead, we are seeing an increase 
of individuals with oral health issues seeking alternative relief 
through over-the-counter analgesics or visiting the emergency room of 
the local hospital. Since emergency rooms are not staffed for dental 
treatment, Tribal members are given narcotics to control their pain, 
but the need for treatment still remains. Poor oral health can lead to 
negative effects on general health. With an already stretched CHS 
budget here at Skokomish we are in need of funding to address the rise 
in negative healthcare costs.
    The increase in oral healthcare problems further confirms the 
extensive ongoing health problems arising from substance abuse. Federal 
funds are needed not only for drug and alcohol treatment, but also to 
address the medical and dental needs that the addiction has caused.
    In addition, related to mental health, we have identified a need 
for a youth mental health facility. While there are youth substance 
abuse treatment facilities, there are no facilities available to treat 
mental health issues for youth who do not have any substance abuse 
issues. We urge Congress to direct the IHS to report on its effort to 
develop a youth behavioral health facility to meet the growing mental 
health needs of our Native youth.
      national park service, tribal historic preservation programs
    In 1995, Congress began encouraging Tribes to assume historic 
preservation responsibilities as part of self-determination. These 
programs conserve fragile places, objects and traditions crucial to 
Tribal culture, history and sovereignty. As was envisioned by Congress, 
more Tribes qualify for funding every year. Paradoxically, the more 
successful the program becomes, the less each Tribe receives to 
maintain professional services, ultimately crippling the programs. In 
fiscal year 2001, there were 27 THPOs with an average award of 
$154,000. Currently there are 141 Tribes operating the program, each 
receiving less than $51,000. We fully support the President's proposal 
to increase funding for the Historic Preservation Fund.
                    environmental protection agency
    EPA has long lacked sufficient funds for State and Tribal 
Assistance Grants (STAG). These funds provided grant money for a 
wastewater treatment plant. We still need approximately $12 million to 
fully build our core Reservation plant. The President's fiscal year 
2014 budget would reduce funding for some STAG grants with small 
increases to others. We urge Congress to increase funding for these 
grants as that would be a tremendous benefit to the Tribes.
                  contract support costs--bia and ihs
    We are very concerned that the President's proposed budget would 
cap contract support costs for tribally contracted services with the 
BIA and IHS in this and future years. We urge Congress to fully fund 
all contract support costs and to resolve all outstanding BIA and IHS 
contract support costs claims.
                               conclusion
    The Tribe thanks the subcommittee for the opportunity to present 
testimony on these important issues.
                                 ______
                                 
           Prepared Statement of the Tanana Chiefs Conference
    Members of the subcommittee, thank you for the honor of presenting 
this testimony.
    My name is Julie Roberts and I am the Vice President of the Tanana 
Chiefs Conference and the President of Tanana Tribal Council. TCC is a 
nonprofit intertribal consortium of 39 federally recognized Tribes 
located in the interior of Alaska. TCC serves approximately 13,000 
Native American people in Fairbanks and our rural villages. Our 
traditional territory and current services area occupy a mostly 
roadless area almost the size of Texas, stretching from Fairbanks clear 
up to the Brooks Range, and over to the Canadian border.
    TCC is a co-signer of the Alaska Tribal Health Compact, awarded 
under title V of the Indian Self Determination Act. I will be 
testifying on two matters. First, I will provide an overview of the 
Joint Venture Construction Program and specifically address TCC's Joint 
Venture staffing needs. Second, I will explain the impact suffered by 
TCC and others from the contract support cost shortfall, and how that 
shortfall will have the most impact for those entities starting to 
operate replacement or joint venture facilities in fiscal year 2013.
    TCC requires its full staffing package in fiscal year 2014, which 
is already 1 year past what was contractually agreed to in our Joint 
Venture Agreement.
    The Joint Venture Construction Program is authorized in section 
818(e) of the Indian Health Care Improvement Act, Public Law 94-437. 
The authorization directed the Secretary of HHS to make arrangements 
with Indian tribes to establish joint venture projects. The program is 
executed through a JVCP agreement--a contract--in which a tribal entity 
borrows non-IHS funds for the construction of a tribally owned 
healthcare facility, and, in exchange, the IHS promises to lease the 
facility, to equip the facility and to staff the facility.
    In the conference report which accompanied the Department of the 
Interior, Environment, and Related Agencies Appropriation Act, 2010, 
the conferees explained the importance of the Joint Venture program. 
That program is a unique way of addressing the persistent backlog in 
IHS health facilities construction projects serving American Indians 
and Alaska Natives. The conferees reported, ``The conferees believe 
that the joint venture program provides a cost-effective means to 
address this backlog and to increase access to healthcare services for 
American Indians and Alaska Natives. The conferees are aware that IHS 
is currently reviewing competitive applications from Tribes and Tribal 
organizations to participate in the 2010 joint venture program and 
encourage the Service to move forward with the process in an 
expeditious manner.''
    IHS followed the direction of Congress and the conference report. 
In 2010, IHS signed a legally binding Joint Venture Construction 
Agreement with TCC. In the agreement, IHS agreed to ``request funding 
from Congress for fiscal year on the same basis as IHS requests funding 
for any other Facilities.'' Given that IHS has requested funding for 
the various JV projects across the country at different percentages and 
not in correlation to clinic opening dates, it appears that IHS has not 
requested funding on the same basis across all facilities.
    TCC is deeply appreciative of the subcommittee's efforts to secure 
some fiscal year 2013 funding for joint venture projects, 
notwithstanding the general sequestration. We thank every member of 
this subcommittee for the remarkable accomplishment. At the same time, 
it is a fact that funding for our Joint Venture project in fiscal year 
2013 will only be one-third of the total staffing package IHS owes TCC 
(or around $10 million). TCC had to invest in new program staffing to 
be ready to open our doors--including staffing for labs, radiology, 
facility maintenance and support--which does not include the additional 
clinical staffing that was added to meet the current demand. The 
additional staffing cost TCC approximately $9 million. When added to 
the $5.4 million bond payments and the $600,000 in utility payments, 
TCC's total deficit is $15 million this year. Even accounting for the 
$10 million for TCC in this year's budget, we will still have $5 
million in operational deficit.
    According to the agreement with IHS, TCC's staffing package funding 
should be $29.4 million--requiring an increase of $19.4 million above 
our fiscal year 2013 funding level. If the President's proposed $77 
million staffing increases for fiscal year 2014 are supported and 
applied to the fiscal year 2013 increases, this will make right the 
wrong TCC experienced. But if, as IHS indicates, they are above the 
fiscal year 2012 levels, they are woefully insufficient.
    Last year IHS justified paying less because it believed we would 
not be able to staff up fast enough to spend the funds. But we have 
long been fully operational and the only barrier to hiring staff is 
IHS's failure to honor its commitment. This is clear from the fact 
that, in order to open our doors, TCC invested $9 million in new 
staffing and several providers are currently interested in working for 
us.
    IHS has written that our Joint Venture partnership is a model for 
what can be achieved between Tribal Health Organizations and IHS to 
improve access to care for American Indian and Alaska Native people. 
TCC is holding up our end of the Joint Venture agreement. We need IHS, 
and Congress, to hold up the Government's end. This will require $19.4 
million in fiscal year 2014. This will be 1 year late, but at least the 
commitment will finally be honored.
    The administration's contract support cost request will worsen the 
national CSC shortfall and require further program cuts for Self-
Determined Tribes; the burden will fall especially hard on Tribes 
operating recent new facilities.
    Related to the Joint Venture Construction Program is our concern 
with IHS's requested funding for contract support costs. These costs 
are owed to Tribes and tribal organizations like TCC that perform 
contracts on behalf of the United States pursuant to the Indian Self-
Determination Act. ``Contract support costs'' are the fixed and fully 
audited costs which we incur and must spend to operate IHS's programs 
and clinics. The law and our contracts say that these costs must be 
reimbursed. The Supreme Court, twice, has so ruled.
    The Indian Self Determination Act depends upon a contracting 
mechanism to carry out its goal of transferring essential governmental 
functions from Federal agency administration to tribal government 
administration. To carry out that goal and meet contract requirements, 
the act requires that IHS fully reimburse every tribal contractor for 
the ``contract support costs'' that are necessary to carry out the 
contracted Federal activities. (Cost-reimbursable Government contracts 
similarly require reimbursement of ``general and administrative'' 
costs.)
    Full payment of fixed contract support costs is essential: without 
it, offsetting program reductions must be made, vacancies cannot be 
filled, and services are reduced, all to make up for the shortfall. In 
short, a contract support cost shortfall is equivalent to a program 
cut.
    Funding contract support costs in full permits the restoration of 
Indian country jobs that are cut when shortfalls occur. The fiscal year 
2010 reduction in the contract support cost shortfall produced a 
stunning increase in Indian country jobs. Third-party revenues 
generated from these new positions will eventually more than double the 
number of restored positions, and thereby double the amount of 
healthcare tribal organizations like ours will provide in our 
communities.
    The problem is that for 2014, IHS has requested only a $5.8 million 
increase over fiscal year 2012 levels, up to $477 million. Yet, the 
current shortfall is $140 million, with a total projected $617 million 
due all tribal contractors. At that, the IHS projected shortfall does 
not include contract support costs associated with facilities staffed 
up in fiscal year 2013 and fiscal year 2014. Against these numbers, a 
$5.8 million increase is not just inadequate; it is shameful.
    When contract support costs are not paid, we have no choice but to 
take the shortfall in funding out of the programs themselves. Letting 
the CSC shortfall increase, on top of underfunding TCC's JV staffing 
requirements, will end up punishing tens of thousands of Native 
beneficiaries in Alaska. The Government has a legal duty and trust 
responsibility to provide for the full staffing packages and the full 
contract support costs which the Government, by contract, has committed 
to pay. We are not expecting a favor; we are expecting the Government 
to hold up its end of the bargain.
    It is not only illegal but immoral for IHS (and BIA, too) to 
structure their budgets in such a way that they cut only tribally 
administered IHS and BIA programs--not IHS-administered or BIA-
administered programs, but only tribally administered programs--in 
order to meet the agencies' overall budget targets. The thousands of 
Alaska Native patients and clients who we serve should not be punished 
because those services are administered under self-governance compacts 
instead of directly by IHS or the BIA.
    As I mentioned last year, I am particularly concerned about this 
issue as we plan for fiscal year 2014. In fiscal year 2014 TCC projects 
an increased contract support cost requirement of $6 million associated 
with the new clinic. As it is, remember that IHS has only committed to 
staff TCC's clinic at 85 percent of capacity. If none of TCC's contract 
support cost requirements to operate the new clinic are covered, the 
resulting $6 million cut in staffing will drop the clinic to 65 percent 
of staffing capacity--even if the full JV staffing package is funded, 
and much less if it is not. This will severely compromise TCC's ability 
both to administer the new facility and to meet our debt obligations. 
Worse yet, services to our people will be gravely compromised.
    We understand that the dollars required to finally close the gap in 
contract support cost requirements are large, but this is only because 
the problem has been allowed to snowball over so many years. Once a 
budget correction is made to finally close the contract support cost 
gap inside both agencies, maintaining full funding of contract support 
costs on a going-forward basis will be much more manageable.
    This is why TCC respectfully requests that the IHS appropriation 
for CSC be increased by $140 million above the President's recommended 
level, to $617 million, and that the BIA appropriation for CSC for 
fiscal year 2013 be similarly increased to $242 million.
    Whatever the subcommittee chooses to do, the answer is, 
unequivocally, not to legislatively amend the Indian Self-Determination 
Act to cut off our rights to compensation for IHS's contract under-
payments. Yet that is precisely what the President's budget proposes--
cutting off the rights which currently exist under section 110 of the 
act to sue the Government when we are not paid.
    This is rank discrimination--racial discrimination--and it must 
stop. No other contractor in the United States performs work for the 
Government only to be told that it has no right to be paid. The very 
suggestion is ludicrous. Last year the Supreme Court in the Ramah and 
Arctic  cases said so, and they said that our contracts are just as 
binding as any other contract. That is the law. The answer to those 
rulings is not to change the law. The answer is to honor the contracts.
    We are shocked to see the administration unilaterally propose 
changing the law so radically, and to see the administration actually 
suggest that we be paid only what the administration tells the 
subcommittee it will pay us, in a secret table it will provide to the 
subcommittee sometime next year. The very suggestion is enough to make 
us consider turning these contracts back over to IHS. Let's see if IHS 
can do as good a job for our Tribal people as we do.
    The fact is, IHS cannot do this work. All we ask is to be treated 
fairly, just like other contractors. The Government sets our indirect 
cost rates--not us--and just like other contractors the Government 
should pay those rates in full. If it cannot, or will not, prioritize 
those payments, then just like other contractors we must continue to be 
able to vindicate our rights under the Contract Disputes Act. Anything 
else is un-American, forcing us to do work without paying us what is 
due.
    The Supreme Court has not once, but twice, told the Government what 
to do: honor our contracts. The time is here to do just that.
    Members of the subcommittee, thank you for the honor of presenting 
testimony today.
                                 ______
                                 
              Prepared Statement of The Conservation Fund
    Chairman Reed, Ranking Member Murkowski, and members of the 
Appropriations Subcommittee on Interior, Environment, and Related 
Agencies, thank you for this opportunity to submit testimony on behalf 
of The Conservation Fund for the subcommittee's public witness hearing. 
The Conservation Fund (TCF) supports full funding of the President's 
budget request of $600 million in fiscal year 2014 for the Land and 
Water Conservation Fund (which includes the land acquisition programs 
of the Bureau of Land Management, National Park Service, U.S. Fish and 
Wildlife Service (FWS), U.S. Forest Service (USFS) and Cooperative 
Endangered Species Conservation Fund). Additionally, TCF supports full 
funding of the President's request for the FWS's North American 
Wetlands Conservation Fund ($39.4 million) and USFS's Community Forest 
and Open Space Conservation Program ($4 million).
    The Conservation Fund (TCF) is a national, nonprofit conservation 
organization dedicated to conserving America's land and water legacy 
for future generations. Established in 1985, TCF works with landowners; 
Federal, State, and local agencies; and other partners to conserve our 
Nation's important lands for people, wildlife and communities. To date, 
TCF has helped our partners to conserve over 7.2 million acres. These 
accomplishments are due, in large measure, to the leadership of this 
subcommittee over many years to appropriate funds to Federal agencies 
to acquire lands for future generations.
    Below are highlights of some benefits of the LWCF and land 
acquisition programs. While these projects show the tremendous 
diversity of benefits of land acquisition for the public, they have one 
thing in common--each of these projects is driven by landowners. Many 
farmers, ranchers and forestland owners have significant financial 
equity in their land. By enabling a landowner to sell a conservation 
easement or fee title, the LWCF program provides landowners with funds 
to stay in business, reinvest in businesses, or meet other financial 
goals.
    As the subcommittee crafts its Interior and Related Agencies 
appropriations bill, there are several key points we respectfully 
request you to consider, listed below. Each of the funding amounts 
below reflects the fiscal year 2014 President's budget request.
    Land and Water Conservation Fund (LWCF) at $600 million.--Funding 
at the recommended $600 million is critical for the Nation's premier 
conservation program, a bipartisan agreement from almost 50 years ago. 
As the lists of ready LWCF projects below show, there are many 
opportunities that will be lost without this funding. We also strongly 
believe that LWCF should be funded at the full authorized level of $900 
million by fiscal year 2015 due to the clear need that has been 
demonstrated across the Nation and the promise to the Nation that 
proceeds from offshore oil and gas development would help protect the 
public trust.
    The LWCF budget includes four Collaborative Landscape Program (CLP) 
areas that we ask you to support: Crown of the Continent, National 
Trails System, California Desert, and Longleaf Pine. In each CLP, 
several Federal land agencies are partnering with local groups, 
nonprofits and private interests to support conservation and make a 
lasting impact.
    Bureau of Land Management Land Acquisition at $48.926 million.--The 
BLM and its National Conservation Lands provide some of our Nation's 
best recreation and historic areas. From fishing at the North Platte 
River in Wyoming to exploring Pueblo ruins at Canyons of the Ancients 
in Colorado, we request funding for the following projects:
  --Canyons of the Ancients National Monument, Colorado, $1.703 
        million, #2 ranking;
  --California Desert CLP: Johnson Canyon ACEC, California, $1.06 
        million, #11 ranking;
  --Cascade-Siskiyou National Monument, Oregon, $2 million, #11 
        ranking;
  --North Platte River SRMA, Wyoming, $900,000, #16 ranking;
  --National Trails CLP: Lewis and Clark NHT and Nez Perce NHT, 
        Montana, $1.6 million, #17 ranking; and
  --Aqua Fria National Monument, Arizona, $110,740, #20 ranking.
    National Park Service Land Acquisition at $90.586 million.--Hosting 
more than 275 million visitors every year, the over 400 National Parks 
provide an economic boost to their local communities and those employed 
directly and indirectly. Funding for NPS LWCF will help protect key 
access points for recreation, historic areas, trails and more, from the 
lakeshore at Sleeping Bear Dunes in Michigan to the historic trails 
that allow the public to experience our Nation's heritage. We 
respectfully request funding for the following projects:
  --Sleeping Bear Dunes National Lakeshore, Michigan, $5.296 million, 
        #2 ranking;
  --San Antonio Missions National Historic Park, Texas, $1.76 million, 
        #3 ranking;
  --California Desert Collaborative: Joshua Tree National Park and 
        Mojave Preserve, California, $7.595 million, #7 ranking;
  --Greenways and Blueways, $4.745 million, #8 ranking;
  --Sand Creek Massacre, Colorado, $319,000, #9 ranking; and
  --National Trails Collaborative, Multiple States, $25.002 million, 
        #10 ranking.
    U.S. Fish and Wildlife Service Land Acquisition at $106.330 
million.--USFWS National Wildlife Refuges and other USFWS areas are our 
Nation's protectors of clean water, clean air, abundant wildlife and 
world-class recreation. Funding for fiscal year 2014 USFWS LWCF will 
help preserve grizzly bear territory of the Rocky Mountain Front in 
Montana to protect a key river and wildlife corridor at the Neches 
River NWR in Texas. We respectfully request funding for the following 
projects:
  --Crown of the Continent Collaborative, Montana, $11.94 million, #1 
        ranking;
  --Dakota Grasslands, North Dakota/South Dakota, $8.65 million, #2 
        ranking;
  --Everglades Headwaters, $5 million, #3 ranking;
  --Longleaf Pine Collaborative, Georgia/Florida/South Carolina, $9.481 
        million, #4 ranking;
  --Neches River National Wildlife Refuge, Texas, $3 million, #6 
        ranking;
  --Dakota Tallgrass Prairie WMA, North Dakota/South Dakota, $3 
        million, #7 ranking;
  --Lower Rio Grande Valley NWR, Texas, $1 million, #13 ranking;
  --Blackwater NWR, Maryland, $1 million, #16 ranking; and
  --National Trails Collaborative, Pennsylvania/New Mexico/Washington, 
        $12.66 million, #18 ranking.
    U.S. Forest Service Land Acquisition at $57.934 million.--USFS LWCF 
funds help with forest management by protecting key inholdings and 
reduce fire threats. From the longleaf pine in the southeast to the 
North Carolina Threatened Treasures to the Missouri Ozarks, we are 
working with willing landowners at the following projects areas and 
respectfully request funding:
  --Crown of the Continent Collaborative, Montana, $31 million, #1 
        ranking;
  --Missouri Ozarks-Current River, Missouri, $1.76 million, #4 ranking;
  --Disappearing Wildlands, Georgia, $1.435 million, #10 ranking;
  --California Desert Collaborative, California, $10.39 million, #11 
        ranking;
  --North Carolina Threatened Treasures, North Carolina, $1.25 million, 
        #13 ranking;
  --National Trails Collaborative, Multiple States, $8.925 million, #15 
        ranking; and
  --Cube Cover, $1 million, #16 ranking.
    LWCF State Grant Programs--Section 6 and Forest Legacy.--We 
encourage the subcommittee to fully fund the fiscal year 2014 
President's budget request for:
  --FWS' Section 6 Cooperative Endangered Species Conservation Fund--
        $84 million; and
  --USFS' Forest Legacy Program--$84.8 million; project highlights 
        include:
    --Gilchrist State Forest, Oregon, $3 million, #1 ranking;
    --Mahoosuc Gateway, New Hampshire, $5.715 million, #3 ranking;
    --Brule-St. Crox, Wisconsin, $4.5 million, #7 ranking;
    --Blood Run National Historic Landmark Area, South Dakota, $1.205 
            million, #9 ranking;
    --Klickitat Canyon Working Forest, Washington, $3.5 million, #10 
            ranking;
    --Rocky Hammock at Broxton Rocks, Georgia, $2 million, #17 ranking;
    --Bobcat Ridge, Texas, $2.37 million, #22 ranking;
    --Windham Region Working Forest, Vermont, $2.185 million, #23 
            ranking; and
    --Liberty Hill Phase I, South Carolina, $2 million, #25 ranking.
    Priority Land Acquisition Programs.--TCF encourages the 
subcommittee to fund:
  --FWS' North American Wetlands Conservation Fund--$39.425 million; 
        and
  --USFS' Community Forest and Open Space Conservation Program--$4 
        million.
    Reauthorization of the Federal Land Transaction Facilitation Act 
(S. 368).--We request your support to reauthorize the Federal Land 
Transaction Facilitation Act (FLTFA) this Congress. The FLTFA program 
is now expired and we support the fiscal year 2014 President's budget 
request to reauthorize this important program that provides 
conservation funding for the West, at no cost to the taxpayer. Through 
FLTFA's ``land for land'' program, BLM sells land identified for 
disposal to ranchers, farmers, businesses and others to consolidate 
land ownership, create jobs, support economic development and increase 
revenues to counties by putting land on the tax rolls. These sales 
generate funding for BLM, USFS, NPS and USFWS to acquire critical 
inholdings from willing sellers in certain designated areas, which 
often complements LWCF, NAWCA and other public and private funding. The 
sales provide revenue for Federal agencies to acquire high-priority 
lands with important recreational access for hunting, fishing, hiking, 
boating, other activities, as well as properties with historic, scenic 
and cultural resources. Over 90 groups are working together to support 
Congress' efforts to reauthorize FLTFA.
    Department of the Interior's Natural Resource Damage Assessment and 
Restoration Program at $12,539,000.--The Restoration Program leads the 
national response for recovery of natural resources that have been 
injured or destroyed as a result of oil spills or releases of other 
hazardous substances. Recoveries from responsible parties can only be 
spent to implement restoration plans developed by the Trustee Council 
for each incident. These funds are 100 percent private and represent 
the amount needed to restore environmental resources or compensate for 
lost public use since the damage in question. The fiscal year 2014 
funds would allow the Program to add carefully targeted staff allocated 
to Interior bureaus and offices through its Restoration Support Unit in 
order to accelerate restoration activities.
    The Conservation Fund stands ready to work with you to secure full 
and consistent funding for the LWCF, Forest Legacy, and the other 
critically important programs that help protect the environment, 
economies, forests, and community values across our Nation. Thank you 
for the opportunity to provide this testimony and your consideration of 
our request.
                                 ______
                                 
         Prepared Statement of the Theatre Communications Group
    Mr. Chairman and distinguished members of the subcommittee, Theatre 
Communications Group--the national service organization for the 
American theatre--is grateful for this opportunity to submit testimony 
on behalf of our 494 not-for-profit member theatres across the country 
and the 34 million audience members that the theatre community serves. 
We urge you to support funding at $155 million for the National 
Endowment for the Arts for fiscal year 2014.
    Indeed, the entire not-for-profit arts industry stimulates the 
economy, creates jobs and attracts tourism dollars. The not-for-profit 
arts generate $135.2 billion annually in economic activity, support 
4.13 million jobs and return $9.59 billion in Federal income taxes. Art 
museums, exhibits and festivals combine with performances of theatre, 
dance, opera and music to draw tourists and their consumer dollars to 
communities nationwide. Federal funding for the arts creates a 
significant return, generating many more dollars in matching funds for 
each Federal dollar awarded, and is clearly an investment in the 
economic health of America. In an uncertain economy where corporate 
donations and foundation grants to the arts are diminished, and 
increased ticket prices would undermine efforts to broaden and 
diversify audiences, these Federal funds simply cannot be replaced. 
Maintaining the strength of the not-for-profit sector, along with the 
commercial sector, will be vital to supporting the economic health of 
our Nation.
    Our country's not-for-profit theatres develop innovative 
educational activities and outreach programs, providing millions of 
young people, including ``at-risk'' youth, with important skills for 
the future by expanding their creativity and developing problem-
solving, reasoning and communication abilities--preparing today's 
students to become tomorrow's citizens. Our theatres present new works 
and serve as catalysts for economic growth in their local communities. 
These theatres also nurture--and provide artistic homes for the 
development of--the current generation of acclaimed writers, actors, 
directors and designers working in regional theatre, on Broadway and in 
the film and television industries. At the same time, theatres have 
become increasingly responsive to their communities, serving as healing 
forces in difficult times, and producing work that reflects and 
celebrates the strength of our Nation's diversity.
    Here are some recent examples of NEA grants and their impact:
    In order to create a lasting impact on the field and promote 
burgeoning playwrights, the Alliance Theatre based in Atlanta, Georgia 
received a $40,000 Art Works grant to support the world premiere 
production of ``Bike America'' by Mike Lew, the winning play of their 
National Graduate Playwriting competition. Recounting the story of an 
unlikely athlete's journey by bicycle from the Atlantic to the Pacific 
Ocean, this winning script captures the restlessness of a millennial 
generation that will go to any lengths to find a place that is always 
just out of reach. The National Graduate Playwriting Competition is a 
one-of-a-kind national competition that transitions student playwrights 
to the world of professional theatre, and has resulted in high profile 
partnerships for the Alliance Theatre with institutions and 
associations such as Fox Theatricals, the Kennedy Center, the Lark 
Theatre and the National New Play Network. In addition to programs that 
launch the careers of emerging writers, the Alliance annually reaches 
more than 200,000 audience members and positively impacts more than 
70,000 students through their performances and in-school education 
programs.
    With a $10,000 Art Works grant from the NEA, Cleveland Public 
Theatre (CPT) will produce ``Earth Plays,'' the second work in The 
Elements cycle. The Elements is a series of four plays--each focused on 
a distinctive aspect of sustainability--and a fifth ``bridge play'' 
that integrates the work. The first play, ``Water Ways,'' was a multi-
media work about the fragility of our great resource--water, through a 
collaboration between CPT and Oberlin College and Conservatory. For 
``Earth Plays,'' 9 creator/directors, 20 actors, 3 designers and an 
extensive production team have devised 12 short plays that illuminate 
our ever-changing relationship with the environment. These provocative 
works, which range from comedic to tragic--surreal to very real, 
immerse audiences in a theatrical experience that propels them out of 
their seats and moves them through the theatre space. Through 11 
performances, ``Earth Plays'' reached an audience of 1,500. The other 
two plays in the cycle, ``Air Waves'' and ``Fire,'' are scheduled for 
the 2013-14 season.
    An Art Works grant of $35,000 from the NEA has allowed Seattle 
Children's Theatre (SCT), one of this country's most prominent creators 
of new theatrical work for young audiences, to engage artistic 
organizations and audiences far beyond the Pacific Northwest with a 
production of ``The Edge of Peace'' by Suzan Zeder. This poignant story 
speaks to the impact of military service on family members, and is the 
culmination of a dramatic trilogy which explores the role of the deaf 
within American society. ``The Edge of Peace'' is a collaboration among 
artists from throughout the United States. The initial workshop took 
place at the Kennedy Center for the Performing Arts and was further 
developed and first produced at the University of Texas (UT) at Austin. 
SCT's Artistic Director, Linda Hartzell, included several MFA 
candidates from UT in public and school show performances which will 
reach approximately 1,350 patrons in Austin and another 7,425 children, 
teachers and parents in Seattle.
    With a $15,000 Art Works grant from the NEA, Idaho Shakespeare 
Festival was able to grow their Access Program and open the door for 
more than 30,000 people ages 5 to 100 to enjoy the professional theatre 
arts, many of whom would not be able to attend otherwise. The program 
includes a tour with more than 100 performances that includes an 
engaging new script with full set, costumes and sound to elementary 
students across the State of Idaho. Additionally, the program creates 
access for students of all ages, the deaf and hard-of-hearing, elderly 
on fixed income, at-risk youth, refugees, wounded veterans (as well as 
their families) and volunteer service providers to attend the 
Festival's mainstage season. By integrating those with special needs 
into the broader audience, the Access Program has significantly 
broadened the demographic makeup and interest of those able to 
experience performances.
    These are only a few examples of the kinds of extraordinary 
programs supported by the National Endowment for the Arts. Indeed, the 
Endowment's Theatre Program is able to fund only 50 percent of the 
applications it receives, so 50 percent of the theatres are turned away 
because there aren't sufficient funds. Theatre Communications Group 
urges you to support a funding level of $155 million for fiscal year 
2014 for the NEA, to maintain citizen access to the cultural, 
educational and economic benefits of the arts, and to advance 
creativity and innovation in communities across the United States.
    The arts infrastructure of the United States is critical to the 
Nation's well-being and its economic vitality. It is supported by a 
remarkable combination of government, business, foundation and 
individual donors. It is a striking example of Federal/State/private 
partnership. Federal support for the arts provides a measure of 
stability for arts programs nationwide and is critical at a time when 
other sources of funding are diminished. Further, the American public 
favors spending Federal tax dollars in support of the arts. The NEA was 
funded at $146 million in the fiscal year 2013 budget which was reduced 
due to sequestration; however, it has never recovered from a 40 percent 
budget cut in fiscal year 1996 and its programs are still underfunded. 
We urge the subcommittee to fund the NEA at a level of $155 million to 
preserve the important cultural programs reaching Americans across the 
country.
    Thank you for considering this request.
                                 ______
                                 
              Prepared Statement of The Nature Conservancy
    Chairman Reed, Ranking Member Murkowski and members of the 
subcommittee, thank you for the opportunity to submit The Nature 
Conservancy's recommendations for fiscal year 2014 appropriations. My 
name is Christy Plumer and I am the Director of Federal Land Programs 
for the Conservancy. The Nature Conservancy is an international, 
nonprofit conservation organization working around the world to protect 
ecologically important lands and waters for nature and people. Our 
mission is to conserve the lands and waters upon which all life 
depends.
    As we enter the fiscal year 2014 budget cycle and another year of a 
challenging fiscal environment, the Conservancy continues to recognize 
the need for fiscal austerity. The Conservancy also wishes to thank 
this subcommittee for the final fiscal year 2013 funding levels for 
Department of the Interior and U.S. Forest Service conservation 
programs. As this subcommittee begins to tackle yet another difficult 
budget cycle, the Conservancy stresses our concerns that the wildlife 
and land conservation programs should not shoulder a disproportionate 
share of cuts in this budget. Our budget recommendations this year 
reflect a balanced approach with funding levels consistent with the 
President's budget request or, in rare instances such as wildland fire, 
reflect specific program needs. Moreover, as a science-based and 
business-oriented organization, we believe strongly that the budget 
levels we support represent a prudent investment in our country's 
future that will reduce risks and ultimately save money based on the 
tangible economic, recreation and societal benefits natural resources 
provide each year to the American people. We look forward to working 
with this subcommittee as you address the ongoing needs for 
conservation investments to sustain our Nation's heritage of natural 
resources that are also important to the economic vitality of 
communities across this country.
    Land and Water Conservation Fund.--The fiscal year 2014 President's 
budget proposes, for the first time, the establishment of a dedicated 
source of long-term funding for the Land and Water Conservation Fund. 
In the proposal, the President's budget includes $400 million for LWCF 
activities through ``discretionary funding'' or traditional 
appropriations and then an additional $200 million in ``mandatory'' 
LWCF funding along with an accompanying request for Congress to 
authorize mandatory funding for the program. The budget then proposes 
to reach the $900 million funding level for the program by fiscal year 
2015.
    The Conservancy supports this phased shift to mandatory funding for 
the LWCF Program. However, we believe the administration must work 
closely with the Senate Appropriations Committee, the House 
Appropriations Committee and the appropriate authorizing committees to 
move this proposal forward. Further, the Conservancy supports a 
balanced approach in funding for ``core'' LWCF projects selected 
through Federal agencies traditional ranking processes and the 
administration's new focus on ``collaborative'' projects. These 
collaborative projects emphasize community-driven conservation efforts 
that benefit agricultural, ranching and forest-based landscapes; 
support recreational access; and leverage limited Federal dollars with 
State, county and private funding. Projects in the Longleaf Pine region 
of the Southeast will benefit greatly from this collaborative LWCF 
emphasis, along with existing projects in the Crown of the Continent 
and new project sites in the SW Desert of California and Trails 
nationwide. We also understand areas in the Southern Appalachians; the 
Great Lakes; and Arizona/Colorado/New Mexico are teeing up to take 
advantage of this funding stream in the near future.
    Due to our long-term holding status of projects in Montana (Montana 
Legacy Project, USFS--ongoing need of $33 million to complete) and 
U.S. Fish and Wildlife Service projects in Florida (St. Marks and 
Everglades Headwaters NWR&CA), the Conservancy is strongly supporting a 
robust LWCF funding level including both the collaborative and core 
components of the administration's fiscal year 2014 LWCF request. Some 
of our other priorities include the John H. Chafee NWR, Silvio O. Conte 
NFWR within a four State integrated landscape, and the Francis Marion 
NF in South Carolina. We are also supportive of annual funding this 
year for LWCF investments in support of the working ranches of 
Florida's Everglades Headwaters NWR & Conservation Area, Kansas's Flint 
Hills Legacy Conservation Area, North Dakota and South Dakota's Dakota 
Grasslands Conservation Area, and Montana's Rocky Mountain Front 
Conservation Area. All of these projects exemplify landscape scale 
conservation through the cost effective means of conservation 
easements.
    Additionally, the Conservancy is strongly supportive of the fiscal 
year 2014 President's Department of the Interior budget and its focus 
on America's Great Outdoors National Blueways. Last year, the 
Connecticut River Watershed--covering areas of Vermont, New Hampshire, 
Massachusetts and Connecticut--was designated as the Nation's first 
National Blueway and a second river, the White River in Arkansas, was 
added to the list at the end of the year. National Blueways recognize 
and support existing local and regional conservation, outdoor 
recreation, environmental education and restoration efforts by 
supporting these efforts through technical assistance and funding 
prioritization. This ongoing effort, combined with the Department's 
other efforts to leverage local, State, and regional funding through 
grant programs and technical assistance for river conservation and 
restoration, are of great import for the thousands of communities and 
businesses dependent upon these river systems for their livelihoods, 
public drinking water, flood protection, recreational access and 
general quality of life nationwide.
    Finally, the Conservancy supports as strong a funding level as 
possible for the inholding and emergency land acquisition accounts for 
each of the Federal land management agencies. These accounts are 
critical for agencies to address land conservation priorities that 
arise quickly from willing sellers and may be utilized to acquire 
properties that may otherwise not be picked up under the agencies' 
traditional ranking processes. Often, these high-value properties are 
under significant threat of development, provide key recreational 
access points to Federal lands or are critical inholdings within a 
Federal unit. These properties are typically placed on the market 
quickly due to a sudden death or become available due to a multitude of 
other scenarios that arise in the real estate marketplace. The 
inholding and emergency accounts provide Federal real estate managers 
with a small discretionary amount of funding to acquire these priority 
properties.
    Forest Legacy.--We support $60 million for the Forest Legacy 
Program in discretionary funding and the additional $24.8 million in 
permanent funding (with our aforementioned caveats) with a focus on 
five projects--Pascagoula River Conservation Lands (Mississippi), 
McArthur Lake East (Idaho), Rocky Hammock at Broxton Rocks (Georgia), 
Clear Creek Conservation (Montana) and Carter Mountain Working Forest 
Conservation Easement (Tennessee)--totaling $14.73 million. We hope 
this year to complete the acquisition of these important lands that 
will provide recovery for wildlife habitat and rare species, public 
recreational access for hunting and fishing, and outdoor experiences 
for local residents and visitors.
    Endangered Species.--The Conservancy supports a funding level of at 
least $56 million for the Cooperative Endangered Species Conservation 
Fund (CESCF), and also requests the subcommittee give consideration to 
the additional fiscal year 2014 President's budget request of $28 
million in permanent funding for the program per our earlier request 
for negotiations to occur between administration and relevant 
congressional committees on a path forward for this funding. The 
Conservancy and its partners have used the Habitat Conservation 
Planning (HCP) Assistance and Recovery Land Acquisition Grants Programs 
to conserve key habitat for numerous threatened, endangered and at-risk 
species and, thus, to help avoid conflicts over ESA issues. It has been 
an important catalyst for several local government-led HCPs that 
facilitate urban development and streamline permitting of essential 
transportation and energy infrastructure.
    Colorado River Basin Recovery Programs.--The Conservancy supports 
the President's fiscal year 2014 budget request for the Colorado River 
Basin recovery programs, including endangered species funding for the 
Upper Colorado River Endangered Fish Recovery Program, recovery funds 
for the San Juan River Basin Recovery Implementation Program, and fish 
hatchery needs associated with the recovery plans in this region. These 
highly successful collaborative efforts are vital to the recovery of 
the endangered fish and the ecosystems that support them and to 
providing water for the fast-growing Intermountain West in full 
compliance with the Endangered Species Act, State water and wildlife 
law, and interstate compacts.
    Wildlife Planning.--The Conservancy supports the Western Governors' 
Association (WGA) request for the subcommittee to consider issuing a 
recommendation to land management agencies within its jurisdiction to 
utilize State fish and wildlife data and analyses to inform the land 
use, land planning and related natural resource decisions of those 
agencies. In an 2011 addendum to a 2009 Memorandum of Understanding 
between WGA, the Department of Energy, the Department of Agriculture, 
and the Department of the Interior, those Federal agencies agreed to 
seek to use State information on crucial wildlife habitats and 
corridors ``as a principal, though not sole, source to inform their 
land use, land planning and related natural resource decisions.'' We 
recommend that report language from the subcommittee include a 
directive to the agencies that reflect this important agreement. As an 
example of strong State-led data systems, WGA has partnered in recent 
years with the Federal Government to develop Statewide GIS mapping 
tools to identify crucial wildlife habitat and migratory corridors. 
Funding provided by the subcommittee has helped support development of 
these geospatial mapping tools, which provide access to credible, 
broad-scale scientific data--compiled and analyzed by the States--for 
use in public land management and in the pre-planning of projects such 
as transmission lines and conservation initiatives. WGA is currently 
developing a West-wide GIS mapping tool called CHAT (Crucial Habitat 
Assessment Tool) that will knit together the efforts of the States for 
presentation of wildlife data and analysis on a regional landscape 
level. Our Arizona TNC Chapter has been very integrated in the 
development and enhancement of the Arizona data system (HabiMap)--a 
decision support system--which is the basis for our work on mitigation, 
habitat assessments and land planning in the State.
    Invasive Species.--The Conservancy supports the President's fiscal 
year 2014 budget request of $141 million for the FWS' Fisheries and 
Aquatic Resource Conservation program, including $5.9 million to 
address the invasion of Asian carp in the Great Lakes and priority 
watersheds, including the Missouri, Ohio, and Upper Mississippi River. 
Commercial and sport fishing represent a $61.7 billion industry. Asian 
carp poses an existential threat to aquatic native species, the very 
species commercial and sport fishermen rely upon. Asian carp are 
voracious filter feeders that can consume up to 20 percent of their 
body weight per day, in plankton, and have been known to grow upwards 
of 100 pounds. In less than two decades carp have migrated from our 
southern most States to our northern most. The urgency of the problem 
is clear across the Great Lakes System and its watersheds.
    State Wildlife Grants.--The Conservancy endorses the Teaming with 
Wildlife Coalition's support for robust funding for this important 
program. Strong Federal investments are essential to ensure strategic 
actions are undertaken by State and Federal agencies and the 
conservation community to conserve wildlife populations and their 
habitats. We also support the administration's request to maintain the 
current program match requirement of 65:35 to help fiscally impacted 
States.
    Migratory Bird Joint Ventures and Fish Habitat Partnership 
Programs.--The subcommittee has consistently provided vitally important 
investments for a number of migratory bird programs. Such investments 
are essential to reverse declines in bird populations through direct 
conservation action, monitoring and science. We urge the subcommittee 
to fund the President's request for such established and successful 
programs as the North American Wetlands Conservation Act (NAWCA), the 
Migratory Bird Joint Ventures, and the FWS Migratory Bird Management 
Program. We support the President's request for the FWS Coastal Program 
and Partners for Fish and Wildlife Program and request strong funding 
this year for the National Fish Habitat Initiative, particularly in 
light of the recent Memorandum of Understanding announced between the 
Secretaries of the Interior, Commerce and Agriculture in support of the 
Initiative.
    International Programs.--The international conservation programs 
appropriated annually within the Department of the Interior are 
relatively small but are effective and widely respected. They encompass 
the U.S. Fish and Wildlife Service's (FWS) Multinational Species 
Conservation Funds, the FWS Wildlife Without Borders regional and 
global programs, the U.S. National Park Service International Program, 
and the U.S. Forest Service International Program (USFS-IP). All of 
these programs already have been cut since the fiscal year 2009 or 
fiscal year 2010 years, typically by about 20 percent. The fiscal year 
2013 spending levels for these programs remain somewhat uncertain, 
depending as they will upon a degree of administration flexibility 
within the ceiling of the fiscal year 2013 continuing resolution. But 
they all start out further reduced (from fiscal year 2012 levels) by 
the 5 percent of the sequester. All have a great record of achievements 
and of leveraging matching funds from host governments and private 
conservation groups. These programs are past investments that the U.S. 
Government has made toward conservation in the developing countries. 
The unmet needs for conservation in those countries remain great. The 
proper management of their natural resources is not only a matter of 
biodiversity, it relates directly to their sustainable economic 
progress, domestic peace, and security. We urge that these programs 
receive in fiscal year 2014, at a minimum, level funding with fiscal 
year 2013.
    Climate Change.--Fish, wildlife, and their habitats are and will 
continue to be profoundly impacted by climate change, regardless of our 
successes in reducing greenhouse gas emissions. If we are to get out 
ahead of such change to avoid disastrous losses in critical habitat and 
the species that depend on that habitat, we must develop the place-
based science to make informed, cost-effective management investments. 
The Conservancy appreciates the President's commitment to respond to 
the global climate challenge, and this subcommittee's sustained 
leadership in supporting cooperative, science-based programs to respond 
to the global climate challenge help ensure resilient land and 
seascapes. In particular, we welcome this subcommittee's ongoing 
commitment to both the USGS-led Climate Science Centers as well as 
DOI's Landscape Conservation Cooperatives, and efforts to ensure 
integration and coordination of these initiatives with existing efforts 
such as the Migratory Bird Joint Ventures and National Fish Habitat 
Partnerships.
    National Wildlife Refuge System.--The Conservancy supports the 
Cooperative Alliance for Refuge Enhancement Coalition's request, 
consistent with the President's fiscal year 2014 budget, of $499 
million for Refuge System O&M. Found in every U.S. State and territory, 
national wildlife refuges conserve a diversity of America's 
environmentally sensitive and economically vital ecosystems, including 
oceans, coasts, wetlands, deserts, tundra, prairie, and forests. This 
represents the funding necessary to maintain management capabilities 
for the Refuge System.
    USFS Forest Health Management (FHM) Program.--Close to 500 species 
of tree-damaging pests from other countries have become established in 
the country, and a new one is introduced, on average, every 2 to 3 
years. At least 28 new tree-killing pests have been detected in the 
United States in just the last decade. Some of these are capable of 
causing enormous damage. For instance, Thousand cankers disease 
threatens black walnut trees across the East; the value of walnut 
growing stock is estimated to be $539 billion. Already, municipal 
governments across the country are spending more than $2 billion each 
year to remove trees on city property killed by non-native pests. 
Homeowners are spending $1 billion to remove and replace trees on their 
properties and are absorbing an additional $1.5 billion in reduced 
property values.
    The USFS FHM Program is a critical resource supporting efforts to 
prevent, contain, and eradicate dangerous pests and pathogens affecting 
trees and forests. Further, FHM leads the Federal Government's efforts 
to counter forest pests which have become widespread, including gypsy 
moth, hemlock woolly adelgid, white pine blister rust, Port-Orford-
cedar root disease, thousand cankers disease, oak wilt, and others. 
However, USFS funding for many of these vital pest programs has been 
cut severely, for example, the emerald ash borer account by nearly 60 
percent since fiscal year 2010. Any further cuts to this program will 
necessitate deeper reductions in support for communities already facing 
outbreaks and expose more of the Nation's forests and trees to the 
devastating and costly effects of the Asian Longhorned Beetle, Emerald 
Ash Borer, Hemlock Wooly Adelgid, Thousand Cankers Disease, Western 
Bark Beetle and other deadly pests.
    USFS Research and Development (R&D) Program.--The USFS Research and 
Development Program (R&D) provides the scientific foundation for 
developing effective tools to detect and manage forest pests and the 
pathways by which they are introduced and spread. We consider it 
vitally important to conduct research aimed at improving detection and 
control methods for the Emerald Ash Borer, Hemlock Woolly Adelgid, 
Sudden Oak Death, Thousand Cankers Disease, Gold-spotted Oak Borer and 
other non-native forests pests and diseases. USFS research scientists 
have had the leading role in developing detection traps and evaluating 
treatments that make walnut lumber safe to continue moving in commerce.
    Collaborative Forest Landscape Restoration.--The Conservancy 
appreciates the subcommittee's support for the Collaborative Forest 
Landscape Restoration (CFLR) Program, which demonstrates that 
stakeholder collaboration can facilitate large-scale management that 
benefits people, economies and the environment. We recommend that 
fiscal year 2012 funding be sustained for CFLR with $40 million to 
restore large forest landscapes, provide jobs that sustain rural 
economies, reduce the risk of damaging wildfire, address invasive 
species, improve wildlife habitat and decommission unused, damaging 
roads. We also encourage your support for the Landscape Scale 
Restoration program proposed at $18 million in the fiscal year 2012 
State and Private Forestry (S&PF) budget. We believe this program could 
provide a valuable compliment to CFLR by facilitating restoration 
treatments on non-Federal land in priority landscapes. We also 
recommend reauthorization of stewardship contracting, a vital tool for 
forest landscape restoration.
    Wildland Fire Management.--The President's fiscal year 2014 budget 
proposes $201 million for the USFS for Wildland Fire Management which 
is at least a 25 percent reduction and $96 million for DOI which is an 
even more devastating 48 percent reduction. The Hazardous Fuels program 
provides critical funding for the agencies to proactively manage 
Federal forests for both wildfire risk reduction and longer term 
ecological resilience versus continuing to spend billions on reactive 
emergency fire response. The Conservancy appreciates Congress' ongoing 
support for a balanced approach to wildland fire management--one that 
emphasizes proactive hazardous fuels reduction and community 
preparedness along with a commitment to safe and cost-effective 
wildfire response strategies. In light of this approach, we believe it 
is essential to maintain at least the fiscal year 2012 funding level 
for Hazardous Fuels Reduction and urge you to repeat your instructions 
in the fiscal year 2012 conference report regarding the allocation of 
funding to priority landscapes in both WUI and wildland settings. A 
public investment in improving forest health and decreasing hazardous 
fuels before a damaging wildfire occurs can pay tremendous dividends by 
reducing the need for multi-million dollar emergency wildfire 
suppression efforts and subsequent post-fire rehabilitation and 
response. We also urge your support for level funding of the State Fire 
Assistance (SFA) program, which enables States and other non-Federal 
land managers to pursue complementary hazardous fuels reduction and 
wildfire preparedness activities. Focusing both Hazardous Fuels and SFA 
dollars on communities that have taken steps to reduce their own 
exposure to wildfire will further increase the benefits of these 
programs. We are encouraged by the potential of the Fire Adapted 
Communities program to facilitate this kind of coordinated community 
and land management action. Finally, we recognize that even with a 
robust, proactive approach to land management, Federal wildfire 
preparedness and suppression resources will need to be maintained at an 
effective level to protect life, property and natural resources. We 
urge you to fund Federal wildfire suppression at the 10-year average, 
at a minimum, and to maintain a sufficient balance in the FLAME reserve 
account so that the need for funding transfers from critical non-fire 
programs can be reduced. We also strongly support the use of naturally 
ignited fire as a cost-effective and ecologically beneficial tool for 
accomplishing resource management objectives whenever safe and 
effective to do so.
    Integrated Resource Restoration.--We appreciate the subcommittee's 
support for an Integrated Resource Restoration (IRR) pilot, which has 
allowed three Forest Service Regions to test an integrated budget 
approach. The Conservancy continues to follow implementation of this 
pilot; we hope and expect to see an increase in restoration outcomes as 
a result. The Conservancy believes it is premature to take this pilot 
national, but supports continuation of the pilot for a third year. We 
understand that plans are underway for an external third-party review 
of IRR implementation. We strongly support this review as a way to 
capture lessons learned and determine whether full implementation is 
warranted.
    Legacy Road and Trail Remediation.--Roads are a key source of 
threats to water quality and watershed health. Despite recent progress 
in the number of roads repaired and decommissioned, a sizeable backlog 
of high priority roads and trails that degrade water quality remains. 
We recommend that Legacy Roads and Trails be funded at the fiscal year 
2012 enacted level to ensure that these actions are taken in a timely 
manner to protect our critical watersheds.
    Sage Grouse Conservation.--The Conservancy supports the President's 
fiscal year 2014 budget request of $15 million for the Bureau of Land 
Management's (BLM) focus on sage grouse conservation. Greater sage 
grouse populations have experienced a precipitous decline across the 
West in recent years due to a number of impacts. The FWS is currently 
scheduled to make a final decision on whether or not to list the 
species under the Endangered Species Act by 2015. As a result, this 
funding is critical now for BLM's ability to implement regulations and 
proactive conservation and restoration measures to help prevent the 
future listing of this species. In particular, funds will be used to 
incorporate sage grouse conservation measures into BLM's planning 
process including 98 resource management plans that cover 68 planning 
areas in 10 western States. This process will include integration of 
State-led planning efforts. It will also cover broad-scale monitoring 
activities to ascertain the effectiveness of habitat management and 
land use authorizations. This is a collaborative effort that also 
involves the FWS, USFS, and NRCS. Avoiding ESA listing of the sage-
grouse will ensure that activities on BLM lands--recreation, hunting, 
grazing, and energy and mineral development--will be able to continue 
without the need for implementation of ESA protections as well as 
maintain flexibility for private landowners. Funding to support these 
activities is needed to continue this smart, collaborative, and 
proactive conservation effort to avoid listing.
    New Energy Frontier and BLM Regional Planning.--The Conservancy 
supports the administration's recommended fiscal year 2014 funding for 
DOI's ``New Energy Frontier'' which includes an additional $26.4 
million over 2012 enacted levels ($99.9 million total) for advancing 
responsible renewable energy development, and $71 million ($771.6 
million total) for improving conventional energy development. This 
program provides important funding not only for advancing domestic, low 
carbon, renewable energy production but also for increasing the safety 
and environmental performance of renewable and conventional energy 
development. Additionally, by supporting activities such as landscape-
scale energy planning, baseline studies, and expanded consultation and 
permit review capacity, this program will help ensure projects avoid 
and minimize conflicts with other important uses and allow planning and 
project-level review to go forward without delay.
    Renewable Energy.--This section includes $29.1 million for BLM to 
support environmentally sound development of renewable energy sources 
on public lands and offshore, including a $7.1 million program increase 
to identify additional renewable energy zones and implement near-
complete renewable energy plans. This builds off the important work 
that BLM completed as part of the Western Solar Energy Plan, which 
identified 17 solar zones in six States. It also directs $34.4 million 
to BOEM for responsible siting of offshore wind farms, such as through 
the thoughtful ``Smart from the Start'' framework. This funding would 
also support timely project consultation and permit reviews by 
increasing capacity in FWS ($14.1 million) and USGS ($9.9 million).
    Conventional Energy.--This section includes funding for BOEM to 
conduct environmental assessments and ecological baseline research, and 
funding to numerous agencies to increase inspection and compliance 
capacity. Of particular importance is an additional $13 million to 
support an interagency research and development effort among DOI, DOE 
and EPA to assess and develop mechanisms for reducing environmental and 
health impacts from hydraulic fracturing.
    In addition to funding characterized in the New Energy Frontier, we 
support funding for BLM completion of Rapid Ecoregional Assessments 
(REAs), a key information tool for the agency to respond to the growing 
challenges of climate change and energy development. We also recommend 
robust funding for BLM resource management and transportation planning 
activities. These funds are needed to complete ongoing planning efforts 
and to initiate new planning efforts in key places, without which the 
agency cannot make informed energy mitigation and siting decisions and 
take the management actions necessary to improve priority wildlife and 
aquatic habitats, ensure water quality, control invasive species and 
manage off-road vehicle use.
    Bureau of Reclamation.--The WaterSMART program helps implement the 
SECURE Water Act, a law that authorizes water and science agencies to 
work together with State and local water managers to plan for drought, 
climate change, and other threats to water supplies. WaterSMART is 
critically important to communities struggling to maintain drinking 
water supplies and sustain ecosystems in the face of ongoing drought in 
the western United States. Congress should avoid disproportionate cuts 
to this forward-thinking program, which addresses in a collaborative, 
cost-effective manner the stark challenges identified in Reclamation's 
recent Colorado River Basin Water Supply and Demand Study. 
Specifically, we request that funding for WaterSMART be restored from 
$12.5 million in the President's budget to the pre-sequestration level 
of $30.75 million.
    Environmental Protection Agency.--TNC acknowledges that reductions 
in EPA's budget are necessary to support national deficit reduction. 
However, Congress should remain mindful of the relatively small size of 
EPA's discretionary budget as it considers where additional budget cuts 
should occur Government-wide. Congress should avoid disproportionate 
cuts to EPA's ecosystem-oriented water programs because those programs 
have such wide-reaching and beneficial impacts throughout the country. 
We also continue to support the allocation of sufficient funds for 
innovative strategic planning programs like the Healthy Watersheds 
Initiative, which embraces a whole-system planning approach to water 
resource management. This program should be endorsed as a means to 
enable Federal and State programs to protect and restore freshwater 
habitats at large scale through more bang-for-the-buck actions.
    Thank you for the opportunity to present The Nature Conservancy's 
recommendations for the fiscal year 2014 Interior, Environment, and 
Related Agencies appropriations bill.
                                 ______
                                 
              Prepared Statement of The Nature Conservancy
    Chairman Reed, Ranking Member Murkowski and members of the 
subcommittee, thank you for the opportunity to submit recommendations 
for fiscal year 2014 appropriations. The Nature Conservancy is an 
international, nonprofit conservation organization working around the 
world to protect ecologically important lands and waters for nature and 
people. Our mission is to conserve the lands and waters upon which all 
life depends.
    As we enter the fiscal year 2014 budget cycle and another year of a 
challenging fiscal environment, the Conservancy continues to recognize 
the need for fiscal austerity. The Conservancy also wishes to thank 
this subcommittee for the final fiscal year 2013 funding levels for 
Department of the Interior and U.S. Forest Service conservation 
programs. As this subcommittee begins to tackle yet another difficult 
budget cycle, the Conservancy stresses our concerns that the wildlife 
and land conservation programs should not shoulder a disproportionate 
share of cuts in this budget. Our budget recommendations this year 
reflect a balanced approach with funding levels consistent with the 
President's budget request or, in rare instances such as wildland fire, 
reflect specific program needs. We look forward to working with this 
subcommittee as you address the ongoing needs for conservation 
investments to sustain our Nation's heritage of natural resources that 
are also important to the economic vitality of communities across this 
country.
    Land and Water Conservation Fund.--The fiscal year 2014 President's 
budget proposes, for the first time, the establishment of a dedicated 
source of long-term funding for the Land and Water Conservation Fund. 
In the proposal, the President's budget includes $400 million for LWCF 
activities through ``discretionary funding'' or traditional 
appropriations and then an additional $200 million in ``mandatory'' 
LWCF funding. The budget then proposes to reach the $900 million 
funding level for the program by fiscal year 2015. The Conservancy 
supports this phased shift to mandatory funding for the LWCF Program. 
However, we believe the administration must work closely with the 
appropriate appropriations and authorizing committees to move this 
proposal forward. Further, the Conservancy supports a balanced approach 
in funding for ``core'' LWCF projects and the administration's new 
focus on ``collaborative'' projects. Projects in the Longleaf Pine 
region will benefit greatly from this collaborative emphasis, along 
with existing projects in the Crown of the Continent, California and 
Trails nationwide. Our priorities this year include the Montana Legacy 
Project ($33 million to complete), the John Chafee NWR, Silvio O. 
Conte NFWR, the Francis Marion NF, and the working ranches of Florida's 
Everglades Headwaters NWR & Conservation Area, Kansas's Flint Hills 
Legacy Conservation Area, North Dakota and South Dakota's Dakota 
Grasslands Conservation Area, and Montana's Rocky Mountain Front 
Conservation Area.
    Forest Legacy.--We support $60 million for the Forest Legacy 
Program in discretionary funding and the additional $24.8 million in 
permanent funding (with our aforementioned caveats) with a focus on 
five projects--Pascagoula River Conservation Lands (Mississippi), 
McArthur Lake East (Idaho), Rocky Hammock at Broxton Rocks (Georgia), 
Clear Creek Conservation (Montana) and Carter Mountain Working Forest 
Conservation Easement (Tennessee)--totaling $14.73 million.
    Endangered Species.--The Conservancy supports a funding level of at 
least $56 million for the Cooperative Endangered Species Conservation 
Fund (CESCF), and also requests the subcommittee give consideration to 
the additional fiscal year 2014 President's budget request of $28 
million in permanent funding for the program per our earlier request 
for negotiations to occur between administration and relevant 
congressional committees on a path forward for this funding.
    Colorado River Basin Recovery Programs.--The Conservancy supports 
the President's fiscal year 2014 budget request for the Colorado River 
Basin recovery programs, including endangered species funding for the 
Upper Colorado River Endangered Fish Recovery Program, recovery funds 
for the San Juan River Basin Recovery Implementation Program, and fish 
hatchery needs associated with the recovery plans in this region.
    Wildlife Planning.--The Conservancy supports the Western Governors' 
Association (WGA) request for the subcommittee to consider issuing a 
recommendation to land management agencies within its jurisdiction to 
utilize State fish and wildlife data and analyses to inform the land 
use, land planning and related natural resource decisions of those 
agencies. In a 2011 addendum to a 2009 Memorandum of Understanding 
between WGA, the Department of the Energy, the Department of 
Agriculture, and the Department of the Interior, those Federal agencies 
agreed to seek to use State information on crucial wildlife habitats 
and corridors ``as a principal, though not sole, source to inform their 
land use, land planning and related natural resource decisions.'' We 
recommend report language from the subcommittee include a directive to 
the agencies that reflect this important agreement.
    Invasive Species.--The Conservancy supports the President's fiscal 
year 2014 budget request of $141 million for the FWS' Fisheries and 
Aquatic Resource Conservation program, including $5.9 million to 
address the invasion of Asian carp in the Great Lakes and priority 
watersheds, including the Missouri, Ohio and Upper Mississippi River.
    State Wildlife Grants.--The Conservancy endorses the Teaming with 
Wildlife Coalition's support for robust funding for this important 
program. Strong Federal investments are essential to ensure strategic 
actions are undertaken by State and Federal agencies and the 
conservation community to conserve wildlife populations and their 
habitats. We also support the administration's request to maintain the 
current program match requirement of 65:35 to help fiscally impacted 
States.
    Migratory Bird Joint Ventures and Fish Habitat Partnership 
Programs.--We urge the subcommittee to fund the President's request for 
such established and successful programs as the North American Wetlands 
Conservation Act (NAWCA), the Migratory Bird Joint Ventures, and the 
FWS Migratory Bird Management Program. We support the President's 
request for the FWS Coastal Program and Partners for Fish and Wildlife 
Program and request strong funding this year for the National Fish 
Habitat Initiative.
    International Programs.--The international conservation programs 
appropriated annually within the Department of the Interior are 
relatively small but are effective and widely respected. They encompass 
the U.S. Fish and Wildlife Service's (FWS's) Multinational Species 
Conservation Funds, the FWS Wildlife Without Borders regional and 
global programs, the U.S. National Park Service International Program, 
and the U.S. Forest Service International Program (USFS-IP). We urge 
that these programs receive in fiscal year 2014, at a minimum, level 
funding with fiscal year 2013.
    Climate Change.--The Conservancy appreciates the President's 
commitment to respond to the global climate challenge, and this 
subcommittee's sustained leadership in supporting cooperative, science-
based programs to respond to the global climate challenge help ensure 
resilient land and seascapes. In particular, we welcome this 
subcommittee's ongoing commitment to both the USGS-led Climate Science 
Centers as well as DOI's Landscape Conservation Cooperatives.
    National Wildlife Refuge System.--The Conservancy supports the 
Cooperative Alliance for Refuge Enhancement Coalition's request, 
consistent with the President's fiscal year 2014 budget, of $499 
million for Refuge System O&M. Found in every U.S. State and territory, 
national wildlife refuges conserve a diversity of America's 
environmentally sensitive and economically vital ecosystems, including 
oceans, coasts, wetlands, deserts, tundra, prairie, and forests. This 
represents the funding necessary to maintain management capabilities 
for the Refuge System.
    USFS Forest Health Management (FHM) Program.--The USFS FHM Program 
is a critical resource supporting efforts to prevent, contain, and 
eradicate dangerous pests and pathogens affecting trees and forests. 
Further, FHM leads the Federal Government's efforts to counter forest 
pests which have become widespread, including gypsy moth, hemlock 
woolly adelgid, white pine blister rust, Port-Orford-cedar root 
disease, thousand cankers disease, oak wilt, and others. However, USFS 
funding for many of these vital pest programs has been cut severely, 
for example, the emerald ash borer account by nearly 60 percent since 
fiscal year 2010.
    USFS Research and Development (R&D) Program.--The USFS Research and 
Development Program (R&D) provides the scientific foundation for 
developing effective tools to detect and manage forest pests and the 
pathways by which they are introduced and spread. We consider it 
vitally important to conduct research aimed at improving detection and 
control methods for the Emerald Ash Borer, Hemlock Woolly Adelgid, 
Sudden Oak Death, Thousand Cankers Disease, Gold-spotted Oak Borer and 
other non-native forests pests and diseases.
    Collaborative Forest Landscape Restoration.--The Conservancy 
appreciates the subcommittee's support for the Collaborative Forest 
Landscape Restoration (CFLR) Program, which demonstrates that 
stakeholder collaboration can facilitate large-scale management that 
benefits people, economies and the environment. We recommend that 
fiscal year 2012 funding be sustained for CFLR with $40 million to 
restore large forest landscapes, provide jobs that sustain rural 
economies, reduce the risk of damaging wildfire, improve wildlife 
habitat and decommission unused, damaging roads. We also encourage your 
support for the Landscape Scale Restoration program proposed at $18 
million in the fiscal year 2012 State and Private Forestry (S&PF) 
budget. We also recommend reauthorization of stewardship contracting, a 
vital tool for forest landscape restoration.
    Wildland Fire Management.--The President's fiscal year 2014 budget 
proposes $201 million for the USFS for Wildland Fire Management which 
is at least a 25 percent reduction and $96 million for DOI which is an 
even more devastating 48 percent reduction. The Conservancy appreciates 
Congress' ongoing support for a balanced approach to wildland fire 
management--one that emphasizes proactive hazardous fuels reduction and 
community preparedness along with a commitment to safe and cost-
effective wildfire response strategies. In light of this approach, we 
believe it is essential to maintain at least the fiscal year 2012 
funding level for Hazardous Fuels Reduction and urge you to repeat your 
instructions in the fiscal year 2012 conference report regarding the 
allocation of funding to priority landscapes in both WUI and wildland 
settings. We also urge your support for level funding of the State Fire 
Assistance (SFA) program. Finally, we urge you to fund Federal wildfire 
suppression at the 10-year average, at a minimum, and to maintain a 
sufficient balance in the FLAME reserve account so that the need for 
funding transfers from critical non-fire programs can be reduced.
    Integrated Resource Restoration.--We appreciate the committee's 
support for an Integrated Resource Restoration (IRR) pilot, which has 
allowed three Forest Service Regions to test an integrated budget 
approach. The Conservancy continues to follow implementation of this 
pilot; we hope and expect to see an increase in restoration outcomes as 
a result. The Conservancy believes it is premature to take this pilot 
national, but supports continuation of the pilot for a third year. We 
understand that plans are underway for an external third-party review 
of IRR implementation. We strongly support this review as a way to 
capture lessons learned and determine whether full implementation is 
warranted.
    Legacy Road and Trail Remediation.--Roads are a key source of 
threats to water quality and watershed health. Despite recent progress 
in the number of roads repaired and decommissioned, a sizeable backlog 
of high priority roads and trails that degrade water quality remains. 
We recommend that Legacy Roads and Trails be funded at the fiscal year 
2012 enacted level to ensure that these actions are taken in a timely 
manner to protect our critical watersheds.
    Sage Grouse Conservation.--The Conservancy supports the President's 
fiscal year 2014 budget request of $15 million for the Bureau of Land 
Management's (BLM's) focus on sage grouse conservation. Greater sage 
grouse populations have experienced a precipitous decline across the 
West in recent years due to a number of impacts.
    New Energy Frontier and BLM Regional Planning.--The Conservancy 
supports the administration's recommended fiscal year 2014 funding for 
DOI's ``New Energy Frontier'' which includes an additional $26.4 
million more than 2012 enacted levels ($99.9 million total) for 
advancing responsible renewable energy development, and $71 million 
($771.6 million total) for improving conventional energy development. 
This program provides important funding not only for advancing 
domestic, low carbon, renewable energy production but also for 
increasing the safety and environmental performance of renewable and 
conventional energy development.
    Environmental Protection Agency.--TNC acknowledges that reductions 
in EPA's budget are necessary to support national deficit reduction. 
However, Congress should remain mindful of the relatively small size of 
EPA's discretionary budget as it considers where additional budget cuts 
should occur Governmentwide. We also continue to support the allocation 
of sufficient funds for innovative strategic planning programs like the 
Healthy Watersheds Initiative, which embraces a whole-system planning 
approach to water resource management. This program should be endorsed 
as a means to enable Federal and State programs to protect and restore 
freshwater habitats at large scale through more bang-for-the-buck 
actions.
    Thank you for the opportunity to present The Nature Conservancy's 
recommendations for the fiscal year 2014 Interior, Environment, and 
Related Agencies appropriations bill.
                                 ______
                                 
            Prepared Statement of The Trust for Public Land
    Chairman Reed, Ranking Member Murkowski, and distinguished members 
of the subcommittee: Thank you for the opportunity to submit testimony 
on behalf of The Trust for Public Land in support of programs under 
your jurisdiction for the fiscal year 2014 appropriations process. The 
Trust for Public Land (TPL) is a national nonprofit land conservation 
organization working to protect land for people in communities across 
the Nation. We are extremely grateful for the support members of this 
subcommittee and other conservation leaders in Congress have shown for 
Federal conservation programs during these challenging fiscal times. We 
recognize that the subcommittee will again face enormous challenges in 
meeting the broad range of priority needs in the Interior, Environment, 
and Related Agencies bill this year. But we believe the American people 
support continued investments in conservation, even during a time of 
economic challenge, as evidenced by polls and results in various ballot 
initiatives and questions in November 2012, where 53 of 68 measures 
passed creating nearly $800 million in new State and local funding for 
conservation.
    These ballot initiatives reflect the very essence of conservation 
in the 21st century: collaborative, leveraged, partnership-based, and 
locally supported. Federal funding is an absolutely critical part of 
the conservation toolbox and provides manifold benefits to the American 
people. Given the limited public conservation funding at all levels of 
Government, TPL works to leverage Federal conservation dollars, 
bringing to bear private philanthropic support as well as State and 
local funding to forge workable solutions to complex conservation 
funding challenges.
    We are especially grateful for your recognition that funding for 
programs like the Land and Water Conservation Fund (LWCF) is a 
worthwhile investment. TPL respectfully requests that you continue this 
commitment by supporting the President's budget request for fiscal year 
2014 for LWCF of $600 million. This amount includes $356.2 million for 
Federal land purchases, $60 million for grants to States for parks and 
outdoor recreation, $84.8 million for the Forest Legacy Program and $84 
million for the Cooperative Endangered Species Conservation program, 
and $15 million for the Urban Park and Recreation Recovery program 
(UPARR). Continued investment in this suite of LWCF programs is 
essential and TPL is ready to work with the subcommittee to ensure that 
dollars invested are well spent on our most urgent needs. We urge you 
to also support the President's budget requests for the North American 
Wetlands Conservation Act (NAWCA) and the Community Forest Program.
                    land and water conservation fund
    For almost 50 years the Land and Water Conservation Fund has been 
the cornerstone that sustains our Federal public lands heritage and 
remains today a compelling and urgently needed program. When Congress 
created LWCF in 1964, it sought to ensure that land conservation would 
receive funds every year by dedicating certain revenues. For most of 
its history, the major source of LWCF funds has been revenues from 
offshore oil and gas development in Federal waters. LWCF activities 
neither require nor are designed to receive taxpayer dollars. This 
arrangement is built on the principle that the revenues generated from 
energy development and natural resource depletion should be used for 
the protection of other natural resources such as parks, open space, 
and wildlife habitat for the benefit of current and future generations 
of Americans. TPL believes that this principle remains a sound one and 
that the American public supports using this very small percentage of 
OCS receipts--which annually average more than $6 billion--as a 
conservation offset.
    The fiscal year 2014 budget proposes $600 million for the Land and 
Water Conservation Fund, with $400 million from discretionary sources 
and $200 million in mandatory funds. The budget anticipates providing 
the full $900 million that is authorized by Congress in mandatory funds 
in future fiscal years. Since the beginning of the LWCF program, more 
than $18 billion of funds intended for conservation purposes from OCS 
receipts have been diverted for unrelated purposes. The President's 
fiscal year 2014 proposal encourages honest budgeting for LWCF and 
ensures that its multiple benefits to natural resources, the national 
and local economies, and outdoor recreation will be felt by the 
American people.
    Federal Land Acquisitions.--Every year tens of millions of 
Americans, as well as international visitors to our country, visit our 
public lands. Federal funding of land acquisition ensures that the 
public can access lands for these recreational and educational 
purposes. If accessible properties are instead sold for development or 
subdivision, there is no guarantee that the public will be able to 
enjoy the nearby public lands. Purchase can also enhance the quality of 
recreational experiences, encouraging greater public participation and 
use, and in some cases resolve public land management issues and 
achieve cost savings. There is a clear economic impact from these 
activities. A 2011 Federal interagency study determined that 90 million 
people annually spend $144.7 billion on fishing, hunting and wildlife 
watching alone. These activities and others have significant ripple 
effects. The Outdoor Industry Foundation estimates that active outdoor 
recreation contributes $646 billion annually to the U.S. economy, 
supports nearly 6.1 million jobs across the United States, and 
generates $39.9 billion in annual national tax revenue.
    Among the recreation destinations whose economic and natural 
resource values might be significantly compromised without sufficient 
LWCF funding in fiscal year 2014 are numerous outdoor recreation and 
natural resource protection projects in the national forests of 
California, New Mexico, Washington and Colorado, at the California 
Coastal National Monument, where continued acquisition will connect 
visitors to 2 miles of the Pacific coast, and along the Pacific Crest 
Trail in Washington State.
    Incompatible development within established Federal units is a 
continuing concern for the public and for public land managers, and we 
have found that private landowners of inholdings and edgeholdings are 
open to and quite often seek a conservation solution. Faced with 
uncertainty about the availability of Federal land acquisition dollars, 
however, many landowners find that they cannot afford to wait on a win-
win outcome. Adequate and timely acquisition of inholdings through the 
LWCF is critical to efforts to protect the Nation's public lands 
heritage when these time-sensitive acquisition opportunities arise. 
Often the window for a conservation outcome is narrow, and the 
availability of LWCF funds ensures that landowners can sell their 
properties in a timely manner. For instance, important conservation 
properties are available for a limited time at Crooked National Wild 
and Scenic River in Oregon, the new Valle de Oro National Wildlife 
Refuge in New Mexico--where LWCF funds have leveraged more than twice 
that amount in other funding, Red Cliffs National Conservation Area in 
Utah, and the Tahoe National Forest in California. In addition, a 
number of partially completed projects at Santa Monica Mountains 
National Recreation Area and Saguaro National Park, and the Carson, 
Uncompaghre and Superior national forests await further funding to be 
completed and are included in the fiscal year 2014 President's budget 
request. Recent funding levels for LWCF have been insufficient to allow 
agencies to complete these projects in a timely fashion and we urge 
your support for funding levels in fiscal year 2013 that address these 
needs.
    We also urge the subcommittee to consider fully the urgent need for 
funding for Civil War Sesquicentennial units, national trails, and 
priority recreational access projects as proposed in the fiscal year 
2014 President's budget for the National Park Service, Fish and 
Wildlife Service, and Forest Service. TPL has pending projects eligible 
under each of these categories and stands ready to provide information 
to the subcommittee to support these categorical line item requests.
    As the subcommittee evaluates the myriad programmatic needs and 
measures for making programs more efficient for the fiscal year 2014 
Interior, Environment, and Related Agencies appropriations bill, we 
look forward to working with you and your staff to ensure that funds 
are spent wisely on strategic and urgent conservation priorities.
    National Park Service LWCF Grants.--Since 1965, the State and local 
assistance grant program has provided 41,000 grants to States and local 
communities for park protection and development of recreation 
facilities. This program reaches deep into communities across our 
Nation, supporting citizen-led efforts to conserve places of local 
importance. These funds were an essential part of land protection in 
Maine's famed 100-Mile Wilderness, the northernmost and wildest stretch 
of the Appalachian Trail. Most recently, TPL worked with the State of 
Tennessee to add 1,388 acres to the popular Cumberland Trail, extending 
it by 19 miles, using State LWCF grant funding. To meet needs such as 
these as they continue to arise in all 50 States and in U.S. 
territories, we urge you to fund this program at $60 million.
    Urban Park and Recreation Recovery Program.--The President's budget 
for fiscal year 2014 proposes $15 million to re-establish the Urban 
Park and Recreation Recovery program (UPARR). This program has not 
received appropriations since 2002. Funding UPARR would enable the 
National Park Service to issue competitive grants for increasing 
recreational opportunities at parks in urban areas across the country. 
The residents of cities and urbanized counties often lack the 
availability of parks and green spaces that are safe and close-to-home. 
This proposed targeting of funds to areas most in need of new and 
rehabilitated parks will help address the health threats many 
Americans--especially children--are now facing due to lack of access to 
parks. TPL is the Nation's only national land conservation organization 
working to create parks in cities across the Nation, and we strongly 
support the Department of the Interior's fiscal year 2014 budget 
proposal for UPARR. With our extensive experience creating parks for 
people nationwide, we see this type of program as meeting a critical 
need in the places where most people live, work and recreate. For 
example a UPARR grant to the city of Newark in 2001 for the Mildred 
Helms Park leveraged significant community investment and involvement 
that continues today. This experience can be replicated in cities 
throughout the nation, and we urge your support for this renewed 
investment in cities.
               u.s. forest service--forest legacy program
    The Forest Legacy Program provides extraordinary assistance to 
States and localities seeking to preserve important working forests. 
Since its inception in 1990, the Forest Legacy Program has protected 
more than 2 million acres of forestland together with over $630 million 
in non-Federal matching funds. For fiscal year 2014, the President's 
budget recommends projects that provide multiple public benefits that 
derive from forests--clean water, wildlife protection, climate change 
adaptation and mitigation, public access to recreation, economic 
development and sustainable forestry. The Forest Legacy Program has 
been very effective over its short history, leveraging a dollar for 
dollar match to Federal funds, well more than is required under the 
program. The Trust for Public Land urges your continued support for 
sustained investment in this strategic conservation program. Included 
in the fiscal year 2014 budget are four projects where we are working 
in partnership with the States of Maine, Colorado, New Mexico, and 
California to protect recreation access for snowmobilers and hikers, 
ensure jobs in the woods, buffer important Federal and State 
conservation areas and provide strategic land conservation that fits a 
larger goal.
    u.s. fish and wildlife service--land conservation grant programs
    We are grateful for the subcommittee's historic support for U.S. 
Fish and Wildlife Service grant programs, including the Cooperative 
Endangered Species Conservation Fund--which leverages State and private 
funds and has protected threatened and endangered species habitat 
across the Nation. In fiscal year 2012, TPL successfully worked with 
the States of Wisconsin, California, and Texas to protect species 
habitat. We also urge your support for program funding at the 
President's budget level of $84 million in fiscal year 2014. The North 
American Wetlands Conservation Act (NAWCA) provides much-needed 
matching grants to carry out wetlands conservation, restoration and 
enhancement projects. We urge the subcommittee to provide the 
President's budget request of $39.4 million.
             u.s. forest service--community forest program
    Last but not least, we urge your continued support for the 
Community Forest Program (CFP) which has received appropriations since 
fiscal year 2010. The Forest Service awarded its first grants, totaling 
nearly $4 million, in fiscal year 2012 for community forest projects in 
eight States. This program complements existing conservation programs 
by helping local communities and tribes identify, purchase, and manage 
important forestlands that are threatened with development. These 
locally led efforts can be tailored to the needs of each community, 
from timber revenue for local budgets to recreation access and outdoor 
education. Every Federal dollar from CFP is evenly matched by funding 
from State, local, and private sources. The response to the first grant 
round was substantial and the program has generated significant 
interest from local entities concerned about the future of their close-
to-home forests. Given the strong interest in community forests from 
coast to coast, we urge you to include the President's budget level for 
CFP of $4 million in the fiscal year 2014 bill.
    Thank you again for the opportunity to submit this testimony. The 
programs highlighted in my testimony are critical to the future of 
conservation at the local, State and Federal levels, reflect the 
continued demand on the part of the American people for access to 
outdoor recreation, help sustain our economy and reflect the true 
partnership that exists in Federal conservation efforts. As ever, we 
are deeply thankful for the subcommittee's recognition of the 
importance of these programs and urge you to maintain robust funding 
for them in the fiscal year 2014 Interior, Environment, and Related 
Agencies bill. Thank you for help and support, and for your 
consideration of our requests.
                                 ______
                                 
               Prepared Statement of The Wildlife Society
    The Wildlife Society appreciates the opportunity to provide 
testimony on the fiscal year 2014 budget for the Department of the 
Interior, Environment, and Related Agencies. The Wildlife Society was 
founded in 1937 and is a nonprofit scientific and educational 
association representing nearly 11,000 professional wildlife biologists 
and managers, dedicated to excellence in wildlife stewardship through 
science and education. Our mission is to represent and serve the 
professional community of scientists, managers, educators, technicians, 
planners, and others who work actively to study, manage, and conserve 
wildlife and habitats worldwide. The Wildlife Society is committed to 
strengthening all Federal programs that benefit wildlife and their 
habitats on agricultural and other private land.
                     u.s. fish and wildlife service
    The State and Tribal Wildlife Grants Program is the only Federal 
program that supports States in preventing wildlife from becoming 
endangered. It is also the primary program supporting implementation of 
State Wildlife Action Plans, which detail conservation actions needed 
on the ground in every State to keep common species common. Funding 
assistance for these State wildlife agencies is one of the highest 
priority needs for wildlife in order to prevent further declines in at-
risk species in every State. Although we appreciate the President's 
request for level funding from fiscal year 2013, previous budget 
reductions and sequestration have had a serious and disproportionate 
impact on State and Tribal Wildlife Grants. As such, we recommend 
Congress appropriate $70 million for State and Tribal Wildlife Grants 
in fiscal year 2014. We also ask that Congress not shift additional 
funds directed to States through formula grants to a competitive 
allocation. This funding is critical for maintaining wildlife diversity 
programs at the State level and a further reduction in the formula 
grants may have dramatic consequences.
    The Cooperative Alliance for Refuge Enhancement (CARE) is a diverse 
coalition of 22 wildlife, sporting, conservation, and scientific 
organizations representing over 14 million members and supporters. A 
comprehensive analysis by CARE determined the National Wildlife Refuge 
System needs $900 million in annual operations funding to properly 
administer its nearly 150 million acres, educational programs, habitat 
restoration projects, and much more. Many years of stagnant budgets 
have increased the Operations and Maintenance backlog; refuge visitors 
often show up to find visitor centers closed, hiking trails in 
disrepair, and habitat restoration programs eliminated. Invasive plant 
species are taking over on refuges, requiring $25 million per year to 
treat just one-third of its acreage, and illegal activities such as 
poaching are on the rise, requiring an additional 209 officers ($31.4 
million) to meet law enforcement needs. We urge Congress to match the 
President's request and provide $499.2 million in fiscal year 2014 for 
the Operations and Maintenance of the National Wildlife Refuge System.
    The North American Wetlands Conservation Act is a cooperative, 
nonregulatory, incentive-based program that has shown unprecedented 
success in restoring wetlands, waterfowl, and other migratory bird 
populations. This program has remained drastically underfunded despite 
its demonstrated effectiveness. We support the President's request of 
$39.5 million and encourage Congress to match this request for fiscal 
year 2014.
    The Neotropical Migratory Bird Conservation Act Grants Program 
supports partnership programs to conserve birds in the United States, 
Latin America and the Caribbean, where approximately 5 billion birds 
representing 341 species spend their winters, including some of the 
most endangered birds in North America. To achieve success, this 
program should be funded at or more than $6.5 million. However, 
recognizing the current fiscal climate, The Wildlife Society recommends 
Congress maintain level funding for the Neotropical Migratory Bird 
Conservation Act at $3.78 million in fiscal year 2014.
    The Wildlife Society supports adequate funding levels for all 
subactivities within the Endangered Species Program. Endangered species 
recovery efforts can ultimately lead to delisting, resulting in 
significant benefits to species through State management efforts. FWS, 
with the help Federal and State agency partners has been working to 
implement new strategies to increase the efficiency and effectiveness 
of this program and to reduce the regulatory burden on private 
landowners and industry partners. To support these actions and the 
increased emphasis on consultation and recover, we recommend Congress 
match the President's request for the Endangered Species Program and 
provide $185.45 million in funding in fiscal year 2014.
    The voluntary Partners for Fish and Wildlife Program (PFW) provides 
financial and technical assistance to private landowners across the 
country to restore degraded habitat and to safeguard against potential 
regulatory burdens associated with endangered species listings. With 
more than two-thirds of our Nation's lands held as private property, 
and up to 90 percent of some habitats lost, private lands play a key 
role in preserving our ecosystems. For example, working under a new MOU 
with the Natural Resource Conservation Service, PFW has been critical 
in engaging private landowners to restore and maintain habitat for the 
greater-sage grouse in States like Idaho and Nevada; potentially 
removing the need for a future listing. We urge Congress to provide $60 
million in support of PFW Program in order to allow landowners to help 
contribute to land and wildlife preservation.
    Through its International Affairs office, FWS works with many 
partners and countries in the implementation of international treaties, 
conventions, and projects for the conservation of wildlife species and 
their habitats. International trade, import, and transportation of 
wildlife species can have a huge impact on America's security, economy, 
and environment. Careful regulation of imports and implementation of 
international policies is an important task. We ask Congress to match 
the President's request of $13.5 million in support of FWS 
International Affairs.
                       bureau of land management
    BLM lands support more than 3,000 species of wildlife, more than 
300 federally proposed or listed species, and more than 1,300 sensitive 
plant species. Historically, the Wildlife and Fisheries Management 
(WFM) and the Threatened and Endangered Species Management (TESM) 
programs have been forced to pay for the compliance activities of BLM's 
energy, grazing, and other non-wildlife related programs, eroding both 
their ability to conduct proactive conservation activities and their 
efforts to recover listed species. Given the significant underfunding 
of the BLM's wildlife programs, combined with the tremendous expansion 
of energy development across the BLM landscape, we recommend Congress 
appropriate $55 million for BLM Wildlife Management. This will allow 
BLM to maintain and restore wildlife and habitat by monitoring habitat 
conditions, conducting inventories of wildlife resources, and 
developing cooperative management plans. We support the proposed 
increase of $15 million for sage grouse conservation efforts; this kind 
of broad-scale, landscape based conservation is exactly what is needed 
to manage and conserve sage grouse across their range.
    Increased funding is also needed for the Threatened and Endangered 
Species Management Program, to allow BLM to meet its responsibilities 
in endangered species recovery plans. BLM's March 2001 Report to 
Congress called for a doubling of the Threatened and Endangered Species 
budget to $48 million and an additional 70 staff positions over 5 
years. This goal has yet to be met. In light of this, we strongly 
encourage Congress to increase overall funding for BLM's endangered 
species program to $33 million in fiscal year 2014.
    The Wildlife Society appreciates the commitment of BLM to 
addressing the problems associated with Wild Horse and Burro 
Management. We support the requested increase of $2 million for 
implementation of the National Academy of Sciences recommendations and 
findings and continued research and development on contraception and 
population control. However, with more than 10,000 horses above 
Appropriate Management Levels on the range and over 50,000 horses in 
off-site long- and short-term holding facilities The Wildlife Society 
is concerned about BLM's emphasis on fertility control alone. The 
current language limiting the use of humane euthanasia for unwanted or 
unadoptable horses should be removed to allow BLM to use all necessary 
management tools to bring populations of on- and off-range wild horses 
and burros within manageable range and additional funding should be 
requested to correct the habitat damage that has occurred due to 
overpopulation of these animals. The requested $77.245 million should 
be provided to BLM if they continue removing excess horses from the 
range at a reasonable rate and focus additional resources on habitat 
restoration.
                         u.s. geological survey
    The basic, objective, and interdisciplinary scientific research 
that is supported by the USGS is necessary for understanding the 
complex environmental issues facing our Nation today. This science will 
play an essential role in the decisionmaking processes of natural 
resource managers, and it will help protect our water supply and 
conserve endangered species. More investment is needed to strengthen 
USGS partnerships, improve monitoring, produce high-quality geospatial 
data, and deliver the best science to address critical environmental 
and societal challenges. The Wildlife Society supports funding of at 
least $1.2 billion for USGS in fiscal year 2014.
    The Ecosystems Program of USGS contains programmatic resources for 
fisheries, wildlife, environments, invasive species and the Cooperative 
Fish and Wildlife Research Unit. The Ecosystems unit strives to 
maximize research and support for comprehensive biological and 
ecosystem based needs. The Wildlife Society supports the President's 
request of $180.77 million for USGS's Ecosystems Department in fiscal 
year 2014. Within Ecosystems, we support the request of $50.78 million 
for the Wildlife Program. Additionally, we appreciate the requested 
addition of $1.5 million to support research and surveillance of White 
Nose Syndrome and of $2 million for research on the impacts of future 
energy development on wildlife sustainability.
    The Cooperative Fish and Wildlife Research Units (CFWRUs) are 
managed under the Ecosystems Department and conduct research on 
renewable natural resource questions, participate in the education of 
graduate students, provide technical assistance and consultation on 
natural resource issues, and provide continuing education for natural 
resource professionals. In fiscal year 2001, Congress fully funded the 
CFWRUs, allowing unit productivity to rise to record levels. Since 
then, budgetary shortfalls have continued to cause an erosion of 
available funds, resulting in a current staffing vacancy of nearly one-
quarter of the professional workforce. In order to fill current 
vacancies, restore seriously eroded operational funds for each CFWRU, 
and enhance national program coordination, the fiscal year 2014 budget 
for the CFWRUs should be increased to $22 million. This would restore 
necessary capacity in the CFWRU program and allow it to meet the 
nation's research and training needs.
    The Wildlife Society appreciates the fiscal year 2013 funding of 
$25.5 million for the National Climate Change and Wildlife Science 
Center. This center plays a pivotal role in addressing the impacts of 
climate change on fish and wildlife by providing essential scientific 
support. In order for this role to be fully realized, The Wildlife 
Society recommends that Congress fund the National Climate Change and 
Wildlife Science Center at the requested $35.3 million in fiscal year 
2014.
                          u.s. forest service
    Our national forests and grasslands are essential to the 
conservation of our Nation's wildlife and habitat, and are home to 
about 425 threatened and endangered, and another 3,250 at-risk species. 
In fiscal year 2011, the Forest Service combined several programs and 
budgets, including Vegetation and Watershed Management, Wildlife and 
Fisheries Habitat Management, and Forest Products into a single 
Integrated Resource Restoration activity budget. We continue to be 
concerned with this merger because it makes accountability to 
stakeholders and Congress more difficult. However, with these 
reservations noted, we urge Congress to support the request of $757 
million for the Integrated Resource Restoration program in fiscal year 
2014.
    Integral to management of our natural resources is a deep 
understanding of the biological and geological forces that shape the 
land and its wildlife and plant communities. The research being done by 
the USFS is at the forefront of science, and essential to improving the 
health of our Nation's forests and grasslands. Furthermore, it will 
play a key role in developing strategies for mitigating the effects of 
climate change. We urge Congress to match the President's request of 
$310 million in fiscal year 2014 for Forest and Rangelands to support 
this high-quality research.
    Thank you for considering the recommendations of wildlife 
professionals.
                                 ______
                                 
                Prepared Statement of the USGS Coalition
    Summary.--The USGS Coalition appreciates the opportunity to provide 
testimony about the fiscal year 2014 budget for the United States 
Geological Survey (USGS). The fiscal year 2014 budget request includes 
$1.167 billion for the USGS. This level represents an increase of $98.8 
million above the fiscal year 2012 enacted level. This funding level 
represents a modest increase for one of the Nation's premiere 
scientific research agencies.
    The USGS is uniquely positioned to provide information and inform 
responses to many of the Nation's greatest challenges. The USGS plays a 
crucial role in assessing water quality and quantity; reducing risks 
from earthquakes, tsunamis, floods, landslides, wildfires, and other 
natural hazards; providing emergency responders with geospatial data to 
improve homeland security; assessing mineral and energy resources 
(including rare Earth elements and unconventional natural gas 
resources); and providing the science needed to manage our ecosystems 
and combat invasive species that can threaten natural and managed 
environmental systems and public health.
    The USGS Coalition is an alliance of over 70 organizations united 
by a commitment to the continued vitality of the United States 
Geological Survey to provide critical data and services. The Coalition 
supports increased Federal investment in USGS programs that underpin 
responsible natural resource stewardship, improve resilience to natural 
and human-induced hazards, and contribute to the long-term health, 
security, and prosperity of the Nation.
                   essential services for the nation
    Established by Congress as a branch of the Department of the 
Interior in 1879, the U.S. Geological Survey has a national mission 
that extends beyond the boundaries of the Nation's public lands to 
positively impact the lives of all Americans. The USGS plays a crucial 
role in protecting the public from natural hazards, assessing water 
quality and quantity, providing geospatial data, and conducting the 
science necessary to manage our Nation's living, mineral, and energy 
resources. Through its offices across the country, the USGS works with 
partners to provide high-quality research and data to policymakers, 
emergency responders, natural resource managers, civil and 
environmental engineers, educators, and the public. A few examples of 
the USGS' valuable work are provided below.
    The Survey collects scientific information on water availability 
and quality to inform the public and decisionmakers about the status of 
freshwater resources and how they are changing over time. During the 
past 130 years, the USGS has collected streamflow data at over 21,000 
sites, water-level data at over 1 million wells, and chemical data at 
over 338,000 surface-water and groundwater sites. This information is 
needed to effectively manage freshwaters--both above and below the land 
surface--for domestic, public, agricultural, commercial, industrial, 
recreational, and ecological purposes.
    The USGS plays an important role in reducing risks from floods, 
wildfires, earthquakes, tsunamis, volcanic eruptions, landslides, and 
other natural hazards that jeopardize human lives and cost billions of 
dollars in damages every year. Seismic networks and hazard analyses are 
used to formulate earthquake probabilities and to establish building 
codes. USGS monitors volcanoes and provides warnings about impending 
eruptions that are used by aviation officials to prevent planes from 
flying into volcanic ash clouds. Data from the USGS network of stream 
gages enable the National Weather Service to issue flood and drought 
warnings. The bureau and its Federal partners monitor seasonal 
wildfires and provide maps of current fire locations and the potential 
spread of fires. USGS research on ecosystem structure informs fire risk 
forecasts.
    USGS assessments of mineral and energy resources--including rare 
Earth elements, coal, oil, unconventional natural gas, and geothermal--
are essential for making decisions about the Nation's future. The 
Survey identifies the location and quantity of domestic mineral and 
energy resources, and assesses the economic and environmental effects 
of resource extraction and use. The agency is mapping domestic supplies 
of rare Earth elements necessary for widespread deployment of new 
energy technologies, which can reduce dependence on foreign oil and 
mitigate climate change. The USGS is the sole Federal source of 
information on mineral potential, production, and consumption.
    USGS science plays a critical role in informing sound management of 
natural resources on Federal and State lands. The USGS conducts 
research and monitoring of fish, wildlife, and vegetation--data that 
informs management decisions by other Interior bureaus regarding 
protected species and land use. USGS science is also used to control 
invasive species and wildlife diseases that can cause billions of 
dollars in economic losses. The Survey provides information for 
resource managers as they develop adaptive management strategies for 
restoration and long-term use of the Nation's natural resources in the 
face of environmental change.
    Research conducted by the USGS is vital to predicting the impacts 
of land use and climate change on water resources, wildfires, and 
ecosystems. The Landsat satellites have collected the largest archive 
of remotely sensed land data in the world, allowing for access to 
current and historical images that are used to assess the impact of 
natural disasters and monitor global agriculture production. The USGS 
also assesses the Nation's potential for carbon sequestration. Other 
Interior bureaus use USGS research on how climate variability affects 
fish, wildlife, and ecological processes to inform natural resource 
management decisions.
                           funding shortfall
    Over the years, Congress has worked in a bipartisan fashion to 
restore damaging budget cuts proposed by administrations from both 
parties. These efforts have paid dividends and helped the USGS continue 
to provide answers to the challenging questions facing decisionmakers 
across the country.
    A major challenge currently facing the USGS is budget 
sequestration. Not only has the agency's budget been cut by $61 
million, but the USGS faces further funding reductions as other Federal 
agencies scale back reimbursable activities, which represent roughly 
$400 million of USGS' annual operating budget.
    Among the sequestration-induced impacts to USGS science:
  --USGS will stop delivering stream flow information from its national 
        stream gauge network. This will hinder informed decisionmaking, 
        but is less costly than turning off the stream gauges and 
        losing data altogether.
  --Maintenance of real time status of stream gauges and seismic 
        networks will diminish, potentially resulting in data gaps.
  --Decreased monitoring of volcanoes and delayed warnings about 
        volcanic activity. The Federal Aviation Administration relies 
        upon this information to route planes safely in Alaska and 
        elsewhere.
  --Fewer early warnings will be issued about emerging wildlife 
        diseases. This could jeopardize natural resource managers' 
        abilities to respond to threats in a timely manner.
  --Energy assessments will take longer to be completed. These delays 
        could slow economic development and the Nation's efforts to 
        utilize more domestic energy.
    The USGS has also implemented a hiring freeze, disallowed overtime, 
and cancelled all training and non-essential travel. Contracts and 
grants are being reviewed internally to determine the feasibility of 
delay, re-scoping, or termination.
    Employee furloughs of up to 9 days are also possible. The employees 
of the USGS are hardworking and committed individuals dedicated to 
serving the American public. They routinely work in harsh conditions 
and with limited resources. Unpaid furloughs threaten to further 
diminish employee morale.
    In addition, USGS suspended employee attendance at 27 conferences 
in February, March, and April. Although this may save money in the 
short term, scientists must be able to exchange ideas and information 
freely. Scientific conferences are a highly productive mechanism for 
the transfer of information among scientists and engineers.
    USGS has identified ways to cope with its diminished budget in the 
short term, but the agency's ability to deliver science over the long-
term is in jeopardy. We are especially concerned about long-term data 
sets, as information gaps cannot be filled later.
    The USGS is a science agency. Much of its budget is dedicated to 
salaries and equipment that must be maintained and updated to ensure 
the continuity of data acquisition and to ensure that the data gathered 
are reliable and available for future scientific investigations. We 
believe that the leadership of the USGS is doing all it can, and has 
been for a number of years, to contain costs while continuing to 
deliver high quality science. We are concerned, however, that agency 
managers have few options left and that the science will soon begin to 
suffer.
                               conclusion
    We recognize the financial challenges facing the Nation, but losing 
irreplaceable data can increase costs to society today and in the 
future. Data not collected and analyzed today is data lost forever. 
This is particularly significant for environmental monitoring systems, 
where the loss of a year's data can limit the scope and reliability of 
long-term dataset analysis. The USGS Coalition requests that Congress 
work to provide at least the $1.167 billion requested by the 
administration for fiscal year 2014.
    The USGS Coalition appreciates the subcommittee's past leadership 
in strengthening the United States Geological Survey. Thank you for 
your thoughtful consideration of our request.
                                 ______
                                 
 Prepared Statement of the United States Section of the Pacific Salmon 
                               Commission
    Mr. Chairman, and honorable members of the subcommittee, I am W. 
Ron Allen, Chairman of the U.S. Section's Budget Committee on the 
Pacific Salmon Commission (PSC). The U.S. Section prepares an annual 
budget for implementation of the Treaty. The integrated budget details 
program needs and costs for Tribal, Federal, and State agencies 
involved in the Treaty. Under the Bureau of Indian Affairs budget, the 
U.S. Section recommends that Congress:

    ``Fund the tribes' program at a restored funding level of 
$4,800,000 for tribal research projects and participation in the United 
States-Canada Pacific Salmon Treaty process, an increase of $681,000 
over fiscal year 2012 enacted level. This funding level represents 
status quo funding plus adjustments to meet increased obligations under 
the 2009-2018 Pacific Salmon Treaty Agreement. The funding for tribal 
participation in the United States/Canada Salmon Treaty is a line item 
in the BIA's budget under the Rights Protection Implementation, 
Wildlife and Parks, Other Recurring Programs Area.''

    Under U.S. Fish and Wildlife Service programs, the U.S. Section 
recommends that Congress:

    ``Provide base funding of $417,000 for USFWS participation in the 
Treaty process, and provide funding of $315,000 for the Pacific States 
Marine Fisheries Commission's Regional Mark Center. This funding level 
represents an increase of $75,000 for the Mark Center to make up for 
losses from other programs and allow the Mark Center to maintain the 
same level of service to the U.S. Section.''

    This base funding for the U.S. Fish and Wildlife Service will pay 
for the critically important ongoing work. The funding for Pacific 
States Marine Fisheries Commission's Regional Mark Center is utilized 
to meet Treaty requirements concerning data exchange with Canada. These 
program recommendations are integrated with those of the State and 
Federal agencies to avoid duplication of effort and provide for the 
most efficient expenditure of scarce funds.
    A copy of the integrated U.S. Section budget justification has been 
made available to the committee. The budget summary justifies the 
funding we are recommending today. All of the funds are needed for 
critical data collection and research activities directly related to 
the implementation of the Treaty and are used in cooperative programs 
involving Federal, State, and Tribal fishery agencies and the 
Department of Fisheries in Canada. The monetary commitment of the 
United States is matched by the commitment of the Government of Canada.
    The U.S. Section of the Pacific Salmon Commission is recommending 
an adjustment to the funding for the work carried out by the 24 treaty 
tribes that participate in the implementation of the Treaty. Programs 
carried out by the tribes are closely coordinated with those of the 
States and Federal agencies. Tribal programs are essential for the 
United States to meet its international obligations. Tribal programs 
have taken on additional management responsibilities due to funding 
issues with State agencies. All participating agencies need to be 
adequately funded to achieve a comprehensive United States effort to 
implement the Treaty.
    We are strongly recommending maintaining base funding of $417,000 
for the U.S. Fish and Wildlife Service so the United States can 
maintain the critical database to implement the Treaty. We also 
strongly recommend funding of $315,000 to allow continuation of work 
carried out by the Regional Mark Processing Center. This work, 
maintaining and updating a coastwide computerized information 
management system for salmon harvest and catch effort data as required 
by the Treaty, has become even more important to monitor the success of 
management actions at reducing impacts on ESA-listed salmon 
populations. Canada has a counterpart database. The database will 
continue to be housed at the Pacific States Marine Fisheries 
Commission. The U.S. Fish and Wildlife Service will contract with the 
PSFMC to provide this service.
    Mr. Chairman, the United States and Canada established the Pacific 
Salmon Commission, under the Pacific Salmon Treaty of 1985, to conserve 
salmon stocks, provide for optimum production of salmon, and to control 
salmon interceptions. After more than 20 years, the work of the Pacific 
Salmon Commission continues to be essential for the wise management of 
salmon in the Northwest, British Columbia, and Alaska. For example, 
upriver Bright fall Chinook salmon from the Hanford Reach of the 
Columbia River are caught in large numbers in Alaskan and Canadian 
waters. Tribal and nontribal fishermen harvest sockeye salmon from 
Canada's Fraser River in the Strait of Juan de Fuca and in Puget Sound. 
Canadian trollers off of the west coast of Vancouver Island catch 
Washington coastal Coho salmon and Puget Sound Chinook salmon. In the 
Northern Boundary area between Canada and Alaska, fish from both 
countries are intercepted by the other country in large numbers. The 
Commission provides a forum to ensure cooperative management of salmon 
populations. In 2008, the United States and Canada successfully 
concluded lengthy negotiations to improve this management, including 
the adjustments to the coastwide abundance-based management regime for 
Chinook salmon and a framework for abundance based management for 
southern Coho populations. The agreement is intended to last through 
2018. The Fraser River sockeye and pink chapter to the Pacific Salmon 
Treaty expired in 2010 and negotiators worked out an interim 
arrangement while Canada's Cohen Commission completes its judicial 
inquiry on the Fraser River sockeye fishery. A new chapter is expected 
to be adopted in May.
    Before the Treaty, fish wars often erupted with one or both 
countries overharvesting fish that were returning to the other country, 
to the detriment of the resource. At the time the Treaty was signed, 
Chinook salmon were in a severely depressed state as a result of 
overharvest in the ocean as well as environmental degradation in the 
spawning rivers. Under the Treaty, both countries committed to rebuild 
the depressed runs of Chinook stocks, and they recommitted to that goal 
in 1999 when adopting a coastwide abundance based approach to harvest 
management. Under this approach, harvest management will complement 
habitat conservation and restoration activities being undertaken by the 
States, tribes, and other stakeholders in the Pacific Northwest to 
address the needs of salmon listed for protection under the Endangered 
Species Act. The 2008 Chinook agreement continues these commitments. 
The combination of these efforts is integral to achieving success in 
rebuilding and restoring healthy, sustainable salmon populations.
    Finally, you should take into account the fact that the value of 
the commercial harvest of salmon subject to the Treaty, managed at 
productive levels under the Treaty, supports the infrastructure of many 
coastal and inland communities. The value of the recreational 
fisheries, and the economic diversity they provide for local economies 
throughout the Pacific Northwest and Alaska, is also immense. The value 
of these fish to the 24 treaty tribes in Washington, Oregon, and Idaho 
goes far beyond their monetary value, to the cultural and religious 
lives of Indian people. A significant monetary investment is focused on 
salmon as a result of listings of Pacific Northwest salmon populations 
under the Endangered Species Act. Given the resources, we can continue 
to use the Pacific Salmon Commission to develop recommendations that 
help to ensure solutions that minimize impacts on listed stocks, 
especially if we are allowed to work toward the true intent of the 
Treaty: mutually beneficial enhancement of the shared resource.
    Mr. Chairman, that concludes my written testimony submitted for 
consideration by your subcommittee. I want to thank the committee for 
the support that it has given the U.S. Section in the past. Please feel 
free to contact me, or other members of the U.S. Section, through the 
Office of the U.S. Section Coordinator to answer any questions you or 
committee members may have regarding the U.S. Section of the Pacific 
Salmon Commission budget.

  SUMMARY OF TRIBAL AND FISH AND WILDLIFE SERVICE PROGRAMS UNDER THE UNITED STATES-CANADA PACIFIC SALMON TREATY
----------------------------------------------------------------------------------------------------------------
                                                                    Fiscal year     Fiscal year
                                                                   2012 enacted        2014          Increase
                                                                   appropriation  recommendation
----------------------------------------------------------------------------------------------------------------
                   DEPARTMENT OF THE INTERIOR
Bureau of Indian Affairs, Wildlife and Parks, Rights                  $4,119,000      $4,800,000        $681,000
 Implementation.................................................
U.S. Fish and Wildlife Service, Anadromous Fisheries............         657,000         732,000          75,000
----------------------------------------------------------------------------------------------------------------

                                 ______
                                 
         Prepared Statement of United Tribes Technical College
    For 44 years, with the most basic of funding, United Tribes 
Technical College (UTTC) has provided postsecondary career and 
technical education, job training and family services to some of the 
most impoverished, high risk Indian students from throughout the 
nation. With such challenges, some colleges might despair, but we have 
consistently had excellent retention and placement rates and are a 
fully accredited institution. We are proud to be equipping our students 
to take part in the new energy economy in North Dakota and proud to be 
part of building a strong middle class in Indian Country by training 
the next generation of law enforcement officers, educators, medical 
technicians and ``Indianpreneurs.'' We are governed by the five tribes 
located wholly or in part in North Dakota. We are not part of the North 
Dakota State college system and do not have a tax base or State-
appropriated funds on which to rely. The requests of the UTTC Board for 
the fiscal year 2014 Bureau of Indian Education (BIE)/Bureau of Indian 
Affairs (BIA) are:
  --One-time BIE funding to forward fund United Tribes Technical 
        College, approximately $3.4 million.
  --$7 million in BIE funding for UTTC for our Indian Self-
        Determination Act contract.
  --Congressional support for a tribally administered law enforcement 
        training center.
    A few things of note about United Tribes Technical College. We 
have:
  --Renewed unrestricted accreditation from the North Central 
        Association of Colleges and Schools, for July 2011 through 
        2021, with authority to offer all of our full programs online. 
        We have 26 Associate degree programs, 20 Certificate and three 
        Bachelor degree programs (Criminal Justice; Elementary 
        Education; Business Administration).
  --Services including a Child Development Center, family literacy 
        program, wellness center, area transportation, K-8 elementary 
        school, tutoring, counseling, family and single student 
        housing, and campus security.
  --A projected return on Federal investment of 20-1 (2005 study).
  --A semester retention rate of 85 percent and a graduate placement 
        rate of 77 percent. Over 45 percent of our graduates move on to 
        4-year or advanced degree institutions.
  --Students from 75 tribes; 85 percent of our undergraduate students 
        receive Pell Grants.
  --An unduplicated count of undergraduate degree-seeking students and 
        continuing education students of 1,200 and a workforce of 360.
  --A dual-enrollment program targeting junior and senior high school 
        students, providing them an introduction to college life and 
        offering high school and college credits.
  --A critical role in the regional economy. Our presence brings at 
        least $34 million annually to the economy of the Bismarck 
        region. A North Dakota State University study reports in that 
        the five tribal colleges in North Dakota made a direct and 
        secondary economic contribution to the State of $181,933,000 in 
        2012.
    Positioning Our Students for Success.--UTTC is dedicated to 
providing American Indians with postsecondary and technical education 
in a culturally diverse environment that will provide self-
determination and economic development for all tribal nations. This 
means offering a rich cultural education and family support system 
which emphasizes enhancement of tribal peoples and nations, while 
simultaneously evaluating and updating our curricula to reflect the 
current job market. The ramifications of the North Dakota Bakken oil 
boom are seen throughout the State. We saw the need for more certified 
welders in relation to the oil boom and so expanded our certified 
welding program. We are now able to train students for good paying, in-
demand welding jobs. Similarly, our online medical transcription 
program was designed to meet the growing need for certified medical 
support staff. Other courses reflect new emphasis on energy auditing 
and Geographic Information System Technology.
    We are in the midst of opening up a distance learning center in 
Rapid City, South Dakota, where there are some 16,000 American Indians 
in the area. We are also working toward establishment of an American 
Indian Specialized Health Care Training Clinic.
    We also understand the importance of culturally and legally 
competent law enforcement on Indian reservations. Our Criminal Justice 
program offers 2- and 4-year degrees, and prepares graduates for 
employment as Federal, State or tribal law enforcement, correction, 
parole and probation, and transportation safety officers; victim 
advocates; U.S. Customs, Homeland Security, Military Investigative 
Services and private security agents. UTTC wants to expand our 
endeavors to help meet the critical law enforcement need in Indian 
Country. Given our experience with our Criminal Justice program, our 
location, and our campus resources, we propose the establishment of a 
Northern Plains Indian Law Enforcement Academy.
    Northern Plains Indian Law Enforcement Academy.--We appreciate that 
the President requested increased funding in the fiscal year 2014 
budget to hire additional BIA and tribal law enforcement officers. 
However, we ask Congress to be more visionary than that and to 
seriously look at the problem of addressing crime in Indian Country 
with an eye toward establishment of a campus-based academy for training 
of law enforcement officers in the Northern Plains area of Indian 
Country. There are cultural and legal reasons why such training should 
be tribally directed in order to be appropriate for the realities of 
tribal communities. And with the advent of expanded tribal authorities 
under the Tribal Law and Order Act and the Violence Against Women Act, 
2013, the need has grown. At the same time, we realize that State and 
national training resources have an important role in this new 
endeavor.
    Basic law enforcement training is currently provided through the 
BIA's Indian Police Academy in Artesia, New Mexico. The BIA Academy can 
train only three classes of 50 persons annually. The BIA is depending 
on the basic training provided by State academies to supplement what is 
provided at Artesia. We firmly believe UTTC is well positioned with 
regard to providing both basic and supplemental law enforcement 
training. An academy at UTTC would allow tribal people in the Great 
Plains and other nearby regions a more affordable choice of training 
locations, minimizing the distance and long separation of trainees from 
their families.
    In short, the BIA should be utilizing and enhancing the resources 
of UTTC to make a real difference in the law enforcement capability in 
Indian Country. We can offer college credit to trainees, and our 
facilities include the use of a state-of-the-art crime scene simulator. 
Maintaining safe communities is a critical component of economic 
development for our tribal nations, and local control of law 
enforcement training resources is a key part of that effort.
    We are well positioned to continue to be an integral part of 
building a strong middle class in Indian Country but we face challenges 
including lack of reliable, on-time BIE funding.
    Forward Funding.--We have wanted BIE forward funding for some time, 
and our experience this past year with the continuing resolutions, 
sequestration and inexcusably slow and insufficient allocation of funds 
really brings home this issue.
    There was a glitch in the fiscal year 2010 appropriations process 
which resulted in UTTC (and Navajo Technical College or NTC) not 
receiving BIE forward funding. There is authority for forward funding 
for tribal colleges under the Tribally Controlled Colleges and 
Universities Act, 25 U.S.C. 1810(b)(1) and (2). This authority applies 
to all colleges funded under that act, including UTTC and NTC. When the 
administration requested $50 million for forward funding in its fiscal 
year 2010 budget, they asked for it under the line item of ``tribally 
controlled colleges and universities''--that line item includes 27 
tribally controlled colleges. However, we are funded under a different 
line item which is ``tribal technical colleges'' and thus when Congress 
provided the requested $50 million for forward funding, UTTC and NTC 
were left out.
    Forward funding requires a one-time extra appropriation of three-
quarters of a year's funding; hence, we are requesting, in addition to 
our regular fiscal year 2014 appropriation, $3,397,485 to forward fund 
United Tribes Technical College (75 percent of $4,529,981--the fiscal 
year 2012 BIE appropriation for UTTC--is $3,397,485). The total BIE 
fiscal year 2012 appropriation for ``tribal technical colleges'' was 
$6,761,165 ($4,529,981 for UTTC and $2,231,184 for NTC). To forward 
fund both institutions would require $5,070,873 in addition to the 
regular fiscal year 2014 funds.
    The manner of distribution of fiscal year 2013 BIE funds has been a 
disaster. We still do not know the precise amount we will receive for 
fiscal year 2013. Between having funding provided via continuing 
resolutions and held back due to the prospects of a sequestration, 
planning has been very difficult. We are particularly disturbed that 
the BIE allocated only 37 percent of our funding during the first 6 
months of the year. The unprecedented uncertainty in terms of timing 
and amount of funding this past year has taken a toll. New faculty feel 
vulnerable because of the appropriations situation, and prospective 
candidates are reluctant to accept positions due to the same 
uncertainty. We have significantly reduced off-campus professional 
development activities for faculty, and held back on upgrading 
technology resources for our faculty and students. The oil boom in 
North Dakota has led to a serious housing shortage and the rates for 
local off-campus student housing have skyrocketed. While we have 
campus-based housing, it has never been sufficient to accommodate all 
our students and their families. Our students come from 75 tribes from 
around the Nation; none of them can commute from their home 
communities. Lack of housing has impeded our ability to accept as many 
students as we would like.
    Base Funding.--UTTC administers its BIE funding under an Indian 
Self-Determination Act agreement, and has done so for 36 years. Funds 
requested above the fiscal year 2012 level are needed to: (1) maintain 
100-year-old education buildings and 50-year-old housing stock for 
students; (2) upgrade technology capabilities; (3) provide adequate 
salaries for faculty and staff (who did not receive a cost of living 
increase this past year and who are in the bottom quartile of salary 
for comparable positions elsewhere); and (4) fund program and 
curriculum improvements.
    Acquisition of additional base funding is critical as UTTC has more 
than tripled its number of students within the past 8 years while 
actual base funding for educational services, including Carl Perkins 
Act funding, have not increased commensurately (increased from $6 
million to $8 million for the two programs combined). Our BIE funding 
provides a base level of support while allowing us to compete for 
desperately needed discretionary contracts and grants leading to 
additional resources annually for the college's programs and support 
services.
    The Duplication or Overlapping Issue.--We would like to comment on 
the Government Accountability Office reports of March 2011 regarding 
Federal programs which may have similar or overlapping services or 
objectives (GAO-11-474R and GAO-11-318SP). Funding from the BIE and the 
DOEd's Carl Perkins Act for Tribally Controlled Postsecondary Career 
and Technical Education were among the programs listed in the reports. 
The full GAO report did not recommend defunding these programs; rather, 
it posed the possibility of consolidation of these programs to save 
administrative costs. We are not in disagreement about possible 
consolidation of our funding sources, so long as program funds are not 
cut.
    BIE funds represent more than half of UTTC's core operating budget. 
The Perkins funds supplement, but do not duplicate, the BIE funds. It 
takes both sources of funding to frugally maintain the institution. In 
fact, even these combined sources do not provide the resources 
necessary to operate and maintain the college. We actively seek 
alternative funding to assist with academic programming, deferred 
maintenance, and scholarship assistance, among other things. The need 
for postsecondary career and technical education in Indian Country is 
so great and the funding so small, that there is little chance for 
duplicative funding.
    There are only two institutions targeting American Indian/Alaska 
Native career and technical education and training at the postsecondary 
level--UTTC and NTC. Combined, these institutions received less than 
$15 million in fiscal year 2012 Federal operational funds ($8 million 
from Perkins; $6.7 million from the BIE). That is not an excessive 
amount for two campus-based institutions who offer a broad (and 
expanding) array of programs geared toward the educational and cultural 
needs of their students and who teach job-producing skills.
    Closing.--UTTC offers services that are catered to the needs of our 
students, many of whom are first generation college attendees. Our BIE 
and Perkins funds are central to the viability of our core 
postsecondary programs. Very little of the other funds we receive may 
be used for core career and technical educational program; they are 
competitive, often one-time supplemental funds which help us provide 
support services but cannot replace core operational funding. Thank you 
for your consideration of our requests.
                                 ______
                                 
       Prepared Statement of the United Tribes Technical College
    For 44 years, with the most basic of funding, United Tribes 
Technical College (UTTC) has provided postsecondary career and 
technical education, job training and family services to some of the 
most impoverished, high risk Indian students from throughout the 
Nation. With such challenges, some colleges might despair, but we have 
consistently had excellent retention and placement rates and are a 
fully accredited institution. We are proud to be equipping our students 
to take part in the new energy economy in North Dakota and proud to be 
part of building a strong middle class in Indian Country by training 
the next generation of law enforcement officers, educators, medical 
technicians and ``Indianpreneurs.'' We are governed by the five tribes 
located wholly or in part in North Dakota. We are not part of the North 
Dakota State college system and do not have a tax base or State-
appropriated funds on which to rely. Section 117 Carl Perkins Act funds 
represent a significant portion of our operating budget and provide for 
our core instructional programs. The request of the UTTC Board for 
fiscal year 2014 is:
  --$10 million for base funding authorized under section 117 of the 
        Carl Perkins Act for the Tribally Controlled Postsecondary 
        Career and Technical Institutions program (20 U.S.C. section 
        2327). This is $1.8 million above the fiscal year 2012 level. 
        These funds are awarded competitively and are distributed via 
        formula.
  --$30 million as requested by the American Indian Higher Education 
        Consortium for title III-A (section 316) of the Higher 
        Education Act (Strengthening Institutions program). This is $5 
        million above the fiscal year 2012 enacted level.
  --Maintain Pell grants at the $5,635 maximum award level.
    A Few Things of Note About United Tribes Technical College.--We 
have:
  --Renewed unrestricted accreditation from the North Central 
        Association of Colleges and Schools, for July 2011 through 
        2021, with authority to offer all of our full programs online. 
        We have 26 Associate degree programs, 20 Certificate and 3 
        Bachelor degree programs (Criminal Justice; Elementary 
        Education; Business Administration).
  --Services including a Child Development Center, family literacy 
        program, wellness center, area transportation, K-8 elementary 
        school, tutoring, counseling, family and single student 
        housing, and campus security.
  --A projected return on Federal investment of 20-1 (2005 study).
  --A semester retention rate of 85 percent and a graduate placement 
        rate of 77 percent. Over 45 percent of our graduates move on to 
        4-year or advanced degree institutions.
  --Students from 75 tribes; 85 percent of our undergraduate students 
        receive Pell grants.
  --An unduplicated count of undergraduate degree-seeking students and 
        continuing education students of 1,200 and a workforce of 360.
  --A dual-enrollment program targeting junior and senior high school 
        students, providing them an introduction to college life and 
        offering high school and college credits.
  --A critical role in the regional economy. Our presence brings at 
        least $34 million annually to the economy of the Bismarck 
        region. A North Dakota State University study reports in that 
        the five tribal colleges in North Dakota made a direct and 
        secondary economic contribution to the State of $181,933,000 in 
        2012.
    Positioning our Students for Success.--UTTC is dedicated to 
providing American Indians with postsecondary and technical education 
in a culturally diverse environment that will provide self-
determination and economic development for all tribal nations. This 
means offering a rich cultural education and family support system 
which emphasizes enhancement of tribal peoples and nations, while 
simultaneously evaluating and updating our curricula to reflect the 
current job market. The ramifications of the North Dakota Bakken oil 
boom are seen throughout the State. We saw the need for more certified 
welders in relation to the oil boom and so expanded our certified 
welding program. We are now able to train students for good paying, in-
demand welding jobs. Similarly, our online medical transcription 
program was designed to meet the growing need for certified medical 
support staff. Other courses reflect new emphasis on energy auditing 
and Geographic Information System Technology.
    We are in the midst of opening up a distance learning center in 
Rapid City, South Dakota, where there are some 16,000 American Indians 
in the area. We are also working toward establishment of an American 
Indian Specialized Health Care Training Clinic.
                            funding requests
    Section 117 Perkins Base Funding.--Funds requested under section 
117 of the Perkins Act above the fiscal year 2012 level are needed to: 
(1) maintain 100-year-old education buildings and 50-year-old housing 
stock for students; (2) upgrade technology capabilities; (3) provide 
adequate salaries for faculty and staff (who have not received a cost 
of living increase for the past year and who are in the bottom quartile 
of salary for comparable positions elsewhere); and (4) fund program and 
curriculum improvements.
    Perkins funds are central to the viability of our core 
postsecondary educational programs. Very little of the other funds we 
receive may be used for core career and technical educational programs; 
they are competitive, often one-time supplemental funds which help us 
provide the services our students need to be successful. Our Perkins 
funding provides a base level of support (averaging over the past 5 
years in excess of 40 percent of our core operating budget) while 
allowing the college to compete for desperately needed discretionary 
funds leading to additional resources annually for the college's 
programs and support services.
    Title III-A (Section 316) Strengthening Institutions.--Among the 
title III-A statutorily allowable uses is facility construction and 
maintenance. We are constantly in need of additional student housing, 
including family housing. We would like to educate more students but 
lack of housing has at times limited the admission of new students. 
With the completion this year of a new Science, Math and Technology 
building on our South Campus on land acquired with a private grant, we 
urgently need housing for up to 150 students, many of whom have 
families.
    While we have constructed three housing facilities using a variety 
of sources in the past 20 years, approximately 50 percent of students 
are housed in the 100-year-old buildings of what was Fort Abraham 
Lincoln, as well as housing that was donated by the Federal Government 
along with the land and Fort buildings in 1973. These buildings require 
major rehabilitation. New buildings are actually cheaper rehabilitating 
the old buildings that now house students.
    Pell Grants.--We support maintaining the Pell grant maximum to at 
least a level of $5,635. This resource makes all the difference in 
whether most of our students can attend college. As mentioned above, 85 
percent of our undergraduate students are Pell grant recipients. We are 
glad to learn of the February 6, 2013 report of the Congressional 
Budget Office that the Pell grant program is currently financially 
healthy and can support full funding the maximum award levels for 
fiscal years 2013 and 2014.
                government accountability office report
    As you know, the Government Accountability Office (GAO) in March 
2011 issued two reports regarding Federal programs which may have 
similar or overlapping services or objectives (GAO-11-318SP of March 1 
and GAO-11-474R of March 18). Funding from the Bureau of Indian 
Education (BIE) and the Perkins Act for Tribally Controlled 
Postsecondary Career and Technical Institutions were among the programs 
listed in the supplemental report of March 18, 2011. The GAO did not 
recommend defunding these or other programs; in some cases 
consolidation or better coordination of programs was recommended to 
save administrative costs. We are not in disagreement about possible 
consolidation or coordination of the administration of these funding 
sources so long as funds are not reduced.
    Perkins funds represent on average over 40 percent of UTTC's core 
operating budget. These funds supplement, but do not duplicate, the BIE 
funds. It takes both sources of funding to frugally maintain the 
institution. Even these combined sources do not provide the resources 
necessary to operate and maintain the college. Therefore, UTTC actively 
seeks alternative funding to assist with curricula, deferred 
maintenance, and scholarship assistance, among other things
    We reiterate that UTTC and other tribally chartered colleges are 
not part of State educational systems and do not receive State-
appropriated general operational funds for their Indian students. The 
need for postsecondary career and technical education in Indian Country 
is so great and the funding so small, that there is little chance for 
duplicative funding.
    There are only two institutions targeting American Indian/Alaska 
Native career and technical education and training at the postsecondary 
level--United Tribes Technical College and Navajo Technical College. 
Combined, these institutions received less than $15 million in fiscal 
year 2012 Federal operational funds ($8 million from Perkins; $7 
million from the BIE). That is a very modest amount for two campus-
based institutions which offer a broad (and expanding) array of 
training opportunities.
    UTTC offers services that are catered to the needs of our students, 
many of whom are first generation college attendees and many of whom 
come to us needing remedial education and services. Our students 
disproportionately possess more high risk characteristics than other 
student populations. We also provide services for the children and 
dependents of our students. Although BIE and section 117 funds do not 
pay for remedial education services, we make this investment through 
other sources to ensure our students succeed at the postsecondary 
level.
    Thank you for your consideration of our requests.
                                 ______
                                 
     Prepared Statement of the Western Regional Aquaculture Center
    Dear Chairman Reed and members of the subcommittee: The purpose of 
this letter is to express concern with respect to language in the 
fiscal year 2014 President's budget proposing a $400,000 reduction in 
funding for the U.S. Fish and Wildlife Service's Aquatic Animal Drug 
Approval Partnership (AADAP) program. AADAP is the Nation's only 
program singularly committed to obtaining U.S. Food and Drug 
Administration approval of aquatic animal drugs needed by fisheries 
professionals. AADAP provides many key services to the USFWS and its 
partners by providing access to needed drugs and securing drug 
approvals to ensure safe and effective drugs are available to treat 
disease, aid spawning, and facilitate field research and fisheries 
management activities. The proposed reduction in funding for AADAP 
would have a significant, negative impact on the ability of the USFWS, 
State natural resource agencies and commercial aquaculture. We strongly 
encourage full support of the AADAP at a level of $1,790,000 in base 
funding. This figure represents the amount previously dedicated to the 
drug approval process in the Department of the Interior budget (fiscal 
year 2010), adjusted to fiscal year 2014 dollars.
    The Western Regional Aquaculture Center (WRAC) represents 
aquaculture interests in the 12 Western States. The mission of WRAC is 
to support aquaculture research, development, demonstration and 
education, with the aim of increasing U.S. aquaculture production. One 
of the challenges to U.S. aquaculture, and particularly to aquaculture 
of new species, is the limited number of approved aquatic animal drugs 
and the length of time to obtain approval. WRAC has been supportive of 
research in this area and recognizes the importance of this program to 
this industry.
    The AADAP program has been very successful in obtaining approvals 
for aquatic animal drugs, and attempts at cost-savings that diminish 
this program diminish needed Federal leadership in this area and 
jeopardize the success of the aquaculture industry. We strongly 
encourage you to continue to fully support/fund AADAP. I would also 
like to thank you in advance for your consideration of this issue.
                                 ______
                                 
             Prepared Statement of the World Wildlife Fund
    Chairman Reed, Ranking Member Murkowski and members of the 
subcommittee, I submit this testimony on behalf of World Wildlife Fund 
(WWF) to request your support for a number of important conservation 
programs within the Department of the Interior and the U.S. Fish and 
Wildlife Service (FWS). WWF is the largest private conservation 
organization working internationally to protect wildlife and wildlife 
habitats. WWF currently sponsors conservation programs in more than 100 
countries with the support of 1.2 million members in the United States 
and more than 5 million members worldwide. We respectfully request that 
the subcommittee fund the following programs at the following levels:
  --U.S. Fish and Wildlife Service Office of International Affairs at 
        the administration's request of $13.5 million;
  --U.S. Fish and Wildlife Service Multinational Species Conservation 
        Funds at the administration's request of $9.8 million;
  --U.S. Fish and Wildlife Service Office of Law Enforcement at the 
        administration's request of $68.3 million, including $4.2 
        million for enforcement of the Lacey Act; and
  --We also ask you to support the President's America's Great Outdoors 
        Initiative and the administration's proposal to permanently 
        authorize funding for the Land and Water Conservation Fund at 
        $900 million by fiscal year 2015.
    One of my organization's top priorities, and the one I would like 
to focus on in my testimony, is to support efforts to curtail the 
global illegal trade in wildlife and other living natural resources, 
including timber and fish. Illicit wildlife trafficking alone is worth 
$10 billion-$20 billion per year and ranked among the top five most 
lucrative criminal activities worldwide. It is a serious crime with 
clear links to transnational organized criminal organizations and other 
criminal activities, such as arms and drug trafficking. Large-scale 
illegal trade in wildlife, driving largely by soaring demand in Asia 
for wildlife products, has sparked a poaching crisis that is pushing 
some of our most iconic species toward extinction, including elephants, 
tigers and rhinos. This crisis is also having a devastating impact on 
local communities, regional security and economic growth in the 
developing world, including in countries of strategic importance to the 
United States.
    African wildlife, in particular, is under siege. Last year alone, 
roughly 30,000 elephants were killed illegally throughout Africa, with 
Central African countries being hit the hardest. In the past 10 years, 
the number of forest elephants in Central Africa has dropped by 62 
percent, putting the species on the path to extinction in the near 
future. In South Africa, the number of rhinos lost to poaching jumped 
5,000 percent in 5 years, with a record 668 killed for their horns in 
2012. As few as 3,200 tigers remain in the wild in all of Asia, due in 
large part to poachers killing the animals for their skins, bones and 
other body parts. Several of the agencies that this subcommittee helps 
to fund play key roles in helping to combat these large-scale criminal 
activities, which rob developing countries of much needed resources, 
harm American businesses by flooding global markets with cheap illegal 
products, and threaten U.S. security interests because of their role in 
breeding corruption and their helping to finance organized crime, armed 
insurgencies and even terrorism.
                 usfws office of international affairs
    The USFWS Office of International Affairs contains the agency's 
Wildlife Without Borders (WWB) and International Wildlife Trade (IWT) 
programs, which provide critical support to on-the-ground species 
conservation programs. The WWB Regional program supports species and 
habitat conservation in priority regions, including Africa, Latin 
America and the Caribbean and Mexico, through capacity building, 
outreach, education and training. This includes training African 
wildlife professionals to combat the bushmeat trade and working to 
bolster wildlife laws and increase enforcement capacity in African 
countries. The WWB Global program targets cross-cutting, global threats 
to wildlife, support signature initiatives to maximize long-term 
impact, and address declines of critically endangered species, such as 
amphibians. It also fulfills USFWS mandates to support U.S. leadership 
through wildlife statutes and international treaties, such as NAFTA, 
the Ramsar Convention on Wetlands of International Importance and the 
Convention on International Trade in Endangered Species (CITES). From 
2007 to 2011, the WWB Regional and Global Programs supported more than 
800 conservation projects, awarded over $16 million in grants and 
leveraged an additional $26 million in matching funds to provide 
education, training and outreach in support of wildlife conservation. 
IWT works to prevent illegal trade in wildlife and wildlife products, 
which not only threatens vulnerable wildlife populations but also 
transmits diseases and invasive species, which negatively impact public 
health and economic productivity in the United States--one of the 
largest importers and exporters of wildlife products. IWT ensures trade 
is legal and does not harm species in the wild while implementing 
scientific and management requirements of laws and treaties for traded 
species and issuing 15,000-20,000 permits per year. We recommend $13.5 
million for the Office of International Affairs, as requested in the 
administration's fiscal year 2014 budget request.
             usfws multinational species conservation funds
    Through the Multinational Species Conservation Funds (MSCF), the 
United States supplements the efforts of developing countries 
struggling to balance the needs of their human populations and endemic 
wildlife. These modest Federal programs, administered by the USFWS, 
make targeted investments in conservation of several global priority 
species. In 1989, Congress passed the African Elephant Conservation Act 
authorizing a dedicated fund in response to the threat posed to that 
species by rampant ivory poaching. Four more funds have since been 
authorized to support the conservation of Asian elephants, great apes, 
marine turtles, and tigers and rhinos. Each of the funds is authorized 
at $5 million, with the exception of the Rhino-Tiger Conservation Fund, 
which was intended as a double fund to address both sets of species, 
and is therefore authorized at $10 million. Appropriated funds for the 
programs have remained roughly 30 percent or less of the authorized 
level.
    MSCF programs have played a critical role in saving wild 
populations of these species by controlling poaching, reducing human-
wildlife conflict and protecting essential habitat. Rhino-Tiger 
Conservation Fund (RTCF) support to World Wildlife Fund (WWF) and local 
partners for anti-poaching, habitat restoration and rhino monitoring in 
Nepal helped to ensure that no rhinos were poached in that country in 
2011, in spite of rising demand for rhino horn on Asian black markets 
and a sharp increases in the number of rhinos killed in South Africa 
that same year. RTCF funding is also supporting the creation and 
expansion of tiger reserves and protected areas in Malaysia, India and 
Thailand, anti-poaching and enforcement efforts in Sumatra, and 
research, monitoring and capacity building in countries such as Nepal, 
where WWF helped conduct the first ever nationwide assessment of tiger 
populations, distribution and prey base in 2009.
    The African Elephant Conservation Fund (AfECF) is supporting 
improved protected area enforcement in several African countries, 
including hiring and training of local ``ecoguards'' to protect 
populations of elephants and other threatened wildlife. In Cameroon's 
Campo Ma'an National Park, the AfECF supported a large-scale anti-
poaching operation involving village and forest patrols, soldiers and 
game guards that flushed out four suspected poachers, including two 
notorious elephant poachers, and resulted in the seizure of 450 lbs of 
bushmeat. The Asian Elephant Conservation Fund (AsECF) has supported 
improved wildlife law enforcement, established elephant population 
monitoring systems, and helped to reduce conflicts between humans and 
elephants. On the Indonesian island of Sumatra, AsECF support to World 
Wildlife Fund has helped to establish ``Flying Squads''--teams of 
rangers equipped with noise and light-making devices and trained 
elephants that drive wild elephants back into the forest whenever they 
threaten to enter villages. The Squads have reduced losses suffered by 
local communities and prevented retaliatory killings. They helped 
reduce elephant mortality in the Riau region by 27 percent in 2009 
compared to the previous 4 years.
    Since 2008, the Great Ape Conservation Fund (GACF) has been 
supporting conservation efforts in Virunga National Park--Africa's 
oldest national park (established in 1925) which contains some of the 
richest biodiversity of any protected area on the continent and one of 
the largest populations of endangered mountain gorilla. Over the past 5 
years, GACF funding has helped to improve law enforcement and training 
for park rangers, develop alternative fuel sources to reduce the 
destructive practice of charcoal creation from the park's forests, 
increase aerial surveillance capacity, and grow the park's tourist 
revenue through a chimpanzee habituation and tourism project that 
generated nearly $1 million in 2011 alone. In the Solomon Islands of 
the Pacific, the Marine Turtle Conservation Fund has supported WWF 
conservation activities on important nesting beaches for endangered sea 
turtles, including turtle tagging, DNA sampling, nesting beach 
cleanups, hatchery construction, workshops on community-based 
monitoring, and active monitoring of nests during the turtles' nesting 
seasons. Hatchling success has grown each year since the program began.
    Not only have these programs proven remarkably successful; they 
have also consistently generated enormous constituent interest and 
strong bipartisan support in Congress. The MSCF has awarded over 2,200 
grants to more than 265 organizations for conservation projects in over 
75 countries, and these small grants consistently leverage between 2 to 
4 times as much in matching funds from public and private partners. 
From 1990 to 2011, Congress appropriated a total of $88 million for 
MSCF grant programs, which generated over $200 million in matching and 
in-kind contributions. Administrative costs for the program are low, 
and 97 percent of the appropriated funds are distributed through 
grants. By conserving iconic species, these programs help sustain large 
areas of habitat home to a rich diversity of flora and fauna. By 
working with local communities and improving livelihoods, they build 
capacity and support for conservation in the developing world, 
contribute to economic growth and stability, and support U.S. interests 
in strategically important regions of the globe. The U.S. Government 
has been a consistent leader in international species conservation, and 
the modest funding for these programs is more needed than ever in the 
face of the worst poaching crisis we have seen in over two decades. We 
recommend $9.8 million for the Multinational Species Conservation 
Funds, as requested in the administration's fiscal year 2014 budget 
request.
                    usfws office of law enforcement
    The USFWS Office of Law Enforcement (OLE) investigates wildlife 
crimes, enforces regulation of wildlife trade, helps citizens comply 
with the law, and works with other international and U.S. Government 
entities to carry out its mission. OLE's 143 wildlife inspectors are 
the front line of defense in nearly 40 designated and non-designated 
ports of entry around the country including in Alaska, California, 
Florida, Illinois, Kentucky, Louisiana, Maryland, Montana, Tennessee, 
Texas and Washington. In fiscal year 2011, they processed about 179,000 
declared shipments of wildlife and wildlife products worth more than 
$2.8 billion. OLE's 219 special agents are expert investigators that 
break up smuggling rings, stop commercial exploitation of protected 
U.S. species, and work with States to protect U.S. game species from 
poaching that steals both State income and hunting and fishing 
opportunities. In fiscal year 2011, OLE special agents investigated 
more than 13,000 cases. OLE also runs the Clark R. Bavin National Fish 
and Wildlife Forensics Laboratory in Ashland, Oregon, which is the only 
lab in the world dedicated to solving wildlife crimes--a real life 
``Wildlife CSI.'' OLE is playing a crucial role in tackling the illegal 
trade in endangered species, including elephants and rhinos. 
``Operation Crash'' is a nationwide, multi-agency effort led by USFWS 
OLE to investigate and prosecute those involved in the black market 
trade of endangered rhinoceros horns. So far, the operation has 
resulted in 10 arrests and 9 convictions following the seizures of 
dozens of rhino horns and millions of dollars in assets. In spite of 
successes such as this one, OLE is severely underfunded to meet the 
rapidly growing challenges it faces, including the need to place agents 
at key posts around the world to assist in shutting down global 
wildlife smuggling rings. USFWS OLE is also responsible for enforcement 
of the Lacey Act, including its expansion to cover plants and plant 
products. The agency has yet to receive funding to carry out this 
additional mandate, however. Part of what makes the Lacey Act effective 
is the deterrent effect it has on bad operators when they see the real 
risk of being prosecuted or having illegal goods seized, and periodic 
public enforcement cases are critical to making the law work. WWF 
recommends $68.3 million for the USFWS Office of Law Enforcement, 
including $4.2 million for Lacey Act enforcement, as requested in the 
administration's fiscal year 2014 budget request.
                        america's great outdoors
    WWF also recommends support for the President's America's Great 
Outdoors (AGO) initiative, which supports Federal, State, and Tribal 
conservation efforts and fosters interagency collaboration for 
conservation. We are highly supportive of AGO programs that foster 
partnerships between public land managers and private landowners 
working toward conservation of wildlife and wildlife habitat--
particularly the grasslands and wetlands of the Northern Great Plains 
and the resident and migratory species that depend on a healthy prairie 
ecosystem. We also recommend that the subcommittee support President 
Obama's proposal to permanently authorize funding for the Land and 
Water Conservation Fund (LWCF) at $900 million by fiscal year 2015. 
Dedicated funding for LWCF will provide the stability public land 
managers need to plan for long-term and strategic investments in our 
shared natural resources to support wildlife, outdoor recreation and 
the outdoor economy.
    We hope the subcommittee will consider our requests above alongside 
the important conservation issues that these agencies are working to 
address and their track record of success in doing so--in many cases 
with limited resources. We respectfully ask the subcommittee to fund 
these programs at the levels outlined above. Thank you for your 
consideration.


       LIST OF WITNESSES, COMMUNICATIONS, AND PREPARED STATEMENTS

                              ----------                              
                                                                   Page

Ad-Hoc Industry Natural Resource Management Group, Prepared 
  Statement of the...............................................   207
Alaska Native:
    Tribal Health Consortium, Prepared Statement of the..........   221
    Village CEO Association, Letter From the.....................    66
Aleutian Pribilof Islands Association, Prepared Statement of the.   222
All Indian Pueblo Council, Prepared Statement of the.............   213
American:
    Association of:
        Fish Veterinarians, Prepared Statement of the............   191
        Petroleum Geologists, Prepared Statement of the..........   193
    Bird Conservancy, Prepared Statement of the..................   195
    Fisheries Society:
        Fish Culture Section Working Group on Aquaculture Drugs, 
          Chemicals, and Biologics, Prepared Statement of the....   201
        Prepared Statements of the.............................201, 202
    Forest:
        And Paper Association, Prepared Statement of the.........   199
        Foundation, Prepared Statement of the....................   197
    Geophysical Union, Prepared Statement of the.................   206
    Geosciences Institute, Prepared Statement of the.............   203
    Gold Seafoods, Prepared Statement of.........................   205
    Indian Higher Education Consortium, Prepared Statement of the   210
    Institute of Biological Sciences, Prepared Statement of the..   208
    Lung Association, Prepared Statement of the..................   216
    Society for:
        Microbiology, Prepared Statement of the..................   229
        The Prevention of Cruelty to Animals, Prepared Statement 
          of the.................................................   231
Animal Welfare Institute, Prepared Statement of the..............   236
Arctic Native Slope Association, Ltd., Prepared Statement of the.   219
Assiniboine and Sioux Tribes of the Fort Peck Reservation, 
  Prepared Statement of the......................................   233
Association of:
    Art Museum Directors, Prepared Statement of the..............   192
    Joint Venture Management Boards, Prepared Statement of the...   216
    Public and Land-Grant Universities, Prepared Statement of the   225
    State Drinking Water Administrators, Prepared Statement of 
      the........................................................   226
    Zoos and Aquariums, Prepared Statement of the................   239

Back Country Horsemen of Washington, Prepared Statement of the...   242
Bat Conservation International, Prepared Statement of............   243
Blunt, Senator Roy, U.S. Senator From Missouri:
    Prepared Statement of........................................    17
    Statement of.................................................    17
Bristol Bay Area Health Corporation, Prepared Statement of the...   239

Central Arizona Project, Prepared Statement of the...............   247
Children's Environmental Health Network, Prepared Statement of 
  the............................................................   252
Choctaw Nation of Oklahoma, Prepared Statement of the............   255
Chugach Regional Resources Commission, Prepared Statement of the.   263
Civil War Trust, Prepared Statement of the.......................   268
Coalition Against Forest Pests, Prepared Statement of the........   245
Cochran, Senator Thad, U.S. Senator From Mississippi: Questions 
  Submitted by..................................................53, 128
Coeur D'Alene Tribe, Prepared Statement of the...................   251
Colorado River:
    Basin Salinity Control Forum, Prepared Statement of the......   259
    Board of California, Prepared Statement of the...............   257
Columbia River Inter-Tribal Fish Commission, Prepared Statement 
  of the.........................................................   260
Confederated Tribes of the Colville Reservation, Prepared 
  Statement of the...............................................   265
Cooperative Alliance for Refuge Enhancement, Prepared Statement 
  of the.........................................................   249

Dance/USA, Prepared Statement of.................................   274
Defenders of Wildlife, Prepared Statement of the.................   271
Dzilth-Na-O-Dith-Hle Community Grant School, Prepared Statement 
  of the.........................................................   269

Edison Electric Institute, Prepared Statement of the.............   277
1854 Treaty Authority, Prepared Statement of the.................   276
Enewetak/Ujelang Local Government, Prepared Statement of the.....   279

Federal Forest Resource Coalition, Prepared Statement of the.....   283
Fire Suppression Funding Solutions Partner Caucus, Prepared 
  Statement of the...............................................   292
Folger Shakespeare Library, Prepared Statement of the............   365
Fond du Lac Band of Lake Superior Chippewa, Prepared Statement of 
  the............................................................   280
Friends of:
    Bon Secour National Wildlife Refuge, Prepared Statement of 
      the........................................................   286
    Rachel Carson NWR, Prepared Statement of the.................   288
    The:
        Rappahannock River Valley National Wildlife Refuge, 
          Prepared Statement of..................................   291
        Refuge Headwaters, Prepared Statement of.................   288
        Tampa Bay National Wildlife Refuges, Inc., Prepared 
          Statement of...........................................   294

Geological Society of America, Prepared Statement of the.........   299
Great Lakes Indian Fish & Wildlife Commission, Prepared Statement 
  of the.........................................................   296

Hayes, David, Deputy Secretary, Office of the Secretary, 
  Department of the Interior.....................................    61
Haze, Pamela, Deputy Assistant Secretary, Budget, Finance, 
  Performance and Acquisition, Office of the Secretary, 
  Department of the Interior.....................................    61
Hoeven, Senator John, U.S. Senator From North Dakota, Questions 
  Submitted by..................................................55, 130
Humane Society of the United States--Humane Society Legislative 
  Fund, and Doris Day Animal League, Prepared Statement of the...   300

Independent Tribal Courts Review Team, Prepared Statement of the.   310
Inter Tribal Buffalo Council, Prepared Statement of the..........   312
Interstate Mining Compact Commission, Prepared Statement of the..   304
Izaak Walton League of America, Prepared Statement of the........   314

Jamestown S'klallam Tribe, Prepared Statement of the.............   318
Jewell, Hon. Sally, Secretary, Office of the Secretary, 
  Department of the Interior.....................................    61
    Prepared Statement of........................................    70
    Summary Statement of.........................................    67
Johanns, Senator Mike, U.S. Senator From Nebraska, Questions 
  Submitted by...................................................    57

Lac du Flambeau Band of Lake Superior Chippewa Indians, Prepared 
  Statement of the...............................................   323
League of American Orchestras, Prepared Statement of the.........   320
Lummi Indian Business Council, Prepared Statements of the......326, 328

M.A.C.T. Health Board, Inc., Prepared Statement of the...........   332
Maniilaq Association, Prepared Statements of the...............329, 334
Marine Conservation Institute, Prepared Statement of the.........   339
Metlakatla Indian Community, Prepared Statement of the...........   341
Metropolitan Water District of Southern California, Prepared 
  Statement of the...............................................   343
Minnesota Citizens for the Arts, Prepared Statement of the.......   337
Mississippi State University, Prepared Statement of..............   343
Murkowski, Senator Lisa, U.S. Senator From Alaska:
    Questions Submitted by.................................48, 124, 182
    Statements of............................................3, 63, 133

National:
    Association of:
        Abandoned Mine Land Programs, Prepared Statement of the..   345
        Clean Air Agencies, Prepared Statement of the............   349
    Conference of State Historic Preservation Officers, Prepared 
      Statement of the...........................................   357
    Congress of American Indians, Prepared Statements of the...351, 354
    Ground Water Association, Prepared Statement of the..........   364
    Humanities Alliance, Prepared Statement of the...............   365
    Indian Child Welfare Association, Prepared Statement of the..   368
    Institutes for Water Resources, Prepared Statement of the....   374
    Parks Conservation Association, Prepared Statement of the....   377
    Recreation and Park Association, Prepared Statement of the...   380
    Tribal Contract Support Cost Coalition, Prepared Statement of 
      the........................................................   386
    Trust for Historic Preservation, Prepared Statement of the...   389
    Water Resources Association, Prepared Statement of the.......   399
    Wildlife:
        Federation, Prepared Statement of the....................   392
        Refuge Association, Prepared Statement of the............   395
Natural Science Collections Alliance, Prepared Statement of the..   383
New Mexico Interstate Stream Commission, Prepared Statement of 
  the............................................................   376
Northern Forest Center, Prepared Statement of the................   363
Northwest Indian Fisheries Commission, Prepared Statement of the.   371
Norton Sound Health Corporation, Prepared Statement of the.......   384
Nuclear Energy Institute, Prepared Statement of the..............   360

OPERA America, Prepared Statement of.............................   399
Oregon Water Resources Congress, Prepared Statement of the.......   403
Outdoor Industry Association, Prepared Statement of the..........   401

Pacific Northwest Fish Health Protection Committee, Prepared 
  Statement of the...............................................   405
Partnership for the National Trails System, Prepared Statement of 
  the............................................................   405
Perciasepe, Bob, Acting Administrator and Deputy Administrator, 
  Environmental Protection Agency................................     1
    Prepared Statement of........................................     9
    Summary Statement of.........................................     7
Puyallup Tribe of Indians, Prepared Statement of the.............   409

Quantum Tides, Inc., Prepared Statement of.......................   414
Quinault Indian Nation, Prepared Statement of the................   412

Reed, Senator Jack, U.S. Senator From Rhode Island:
    Opening Statements of....................................1, 61, 131
    Questions Submitted by.................................37, 115, 173
Roz Schnick Consulting, LLC, Prepared Statement of...............   415

Sac and Fox Nation, Prepared Statement of the....................   416
Seismological Society of America, Prepared Statement of the......   439
Seminole Tribe of Florida, Prepared Statement of the.............   439
Shoshone-Paiute Tribes of the Duck Valley Reservation, Prepared 
  Statement of the...............................................   433
Skokomish Tribe of Washington State, Prepared Statement of the...   441
Society:.........................................................
    For Historical Archaeology, Prepared Statement of the........   424
    Of American Foresters, Prepared Statement of the.............   418
SouthEast Alaska Regional Health Consortium, Prepared Statement 
  of the.........................................................   421
Southcentral Foundation, Prepared Statement of the...............   422
Southern:
    Illinois University--Carbondale, Prepared Statement of.......   317
    Nevada Water Authority and the Colorado River Commission of 
      Nevada, Prepared Statements of the.......................430, 431
Squaxin Island Tribe, Prepared Statement of the..................   427
Standing Rock Sioux Tribe, Prepared Statement of the.............   436
State of:
    New Mexico, Prepared Statement of the........................   432
    Wyoming, Prepared Statement of the...........................   433
Suh, Rhea, Assistant Secretary, Policy, Management and Budget, 
  Office of the Secretary, Department of the Interior............    61
Susan Indian Rancheria, Prepared Statement of....................   425

Tanana Chiefs Conference, Prepared Statement of the..............   444
Tester, Senator Jon, U.S. Senator From Montana, Question 
  Submitted by...................................................   181
The:
    Conservation Fund, Prepared Statement of.....................   446
    Nature Conservancy, Prepared Statements of.................450, 456
    Trust for Public Land, Prepared Statement of.................   459
    Wildlife Society, Prepared Statement of......................   462
Theatre Communications Group, Prepared Statement of the..........   449
Tidwell, Tom, Chief, United States Forest Service, Department of 
  Agriculture....................................................   131
    Prepared Statement of........................................   139
    Summary Statement of.........................................   137

USGS Coalition, Prepared Statement of the........................   464
Udall, Senator Tom, U.S. Senator From New Mexico, Questions 
  Submitted by.............................................45, 119, 181
United:
    States Section of the Pacific Salmon Commission, Prepared 
      Statement of the...........................................   466
    Tribes Technical College, Prepared Statements of the.......468, 471

Western Regional Aquaculture Center, Prepared Statement of the...   473
World Wildlife Fund, Prepared Statement of the...................   474


                             SUBJECT INDEX

                              ----------                              

                       DEPARTMENT OF AGRICULTURE

                      United States Forest Service

                                                                   Page

Additional Committee Questions...................................   173
Administrative Grazing Fee.......................................   175
Air:
    Taxi Service on the Tongass National Forest..................   150
    Tour Operations..............................................   182
Airtankers......................................147, 154, 157, 160, 169
Anan Creek Float Dock Status.....................................   187
Budget Request and Focus Areas...................................   141
Challenges to Conservation.......................................   141
Collaboration....................................................   171
Community Wildfire Protection Plans..............................   180
Cost Savings.....................................................   145
Cube Cove Acquisition............................................   182
Fire:
    And Aviation.................................................   184
    Aviation.....................................................   179
Forest and Rangeland Research....................................   173
Future Outlook...................................................   146
Hazardous Fuels..................................................   153
History of Timber Sales and Timeframes From Beginning to 
  Production.....................................................   158
Integrated Resource Restoration...........................166, 174, 185
    Program......................................................   162
Land:
    Acquisition................................................162, 176
        Projects.................................................   163
    And Water Conservation Fund................................152, 166
        Gilchrist Forest Update..................................   153
Landscape Scale Restoration......................................   161
Managing Wildland Fires..........................................   144
National Forest System....................................133, 139, 174
Next Generation Large Air Tanker FAA Certification...............   169
Number of Forest Service Employees in SE.........................   188
Quincy Library Group.............................................   160
Restoration Partnerships.........................................   175
Restoring Ecosystems.............................................   142
Roadless Rule....................................................   156
Secure Rural Schools............................133, 139, 146, 148, 157
State and Private Forestry................................132, 139, 173
Stewardship:
    Contract.....................................................   152
    Contracting..................................................   151
Strengthening Communities and Providing Jobs.....................   143
Timber:
    Budget Nationally............................................   183
    Harvest......................................................   167
    Management.................................................135, 158
    Sales, Harvest, and Staffing in Region 10....................   168
    Staff Levels.................................................   159
Tongass National Forest, Forest Management Staff.................   172
Tourism..........................................................   150
Value of the United States Forest Service........................   140
Wildland Fire Management.............................137, 146, 161, 177

                       DEPARTMENT OF THE INTERIOR

                        Office of the Secretary

A Stronger Energy Future.........................................    72
Additional Committee Questions...................................   114
Affordable Care Act..............................................    92
Alaska:
    Conveyance...................................................    81
    Legacy Wells.................................................    82
Arctic OCS Regulations...........................................   111
BLM Pilot Offices................................................   122
Bureau of Ocean Energy Management/Bureau of Safety and 
  Environmental Enforcement New Arctic Regulations...............   124
California Water.................................................    89
Contract Support Costs...........................................   113
Ellis Island.....................................................   118
Fire Funding.....................................................   119
Firefighting Aircraft............................................    85
Fiscal Responsibility............................................    76
Fish Hatcheries..................................................   105
Fulfilling the Trust.............................................    73
Great Smoky Mountains National Park..............................95, 97
Hazardous Fuels..................................................    98
Heritage Areas...................................................    80
Hurricane Sandy..................................................    79
Hydraulic Fracturing...........................................102, 103
Indian Programs..................................................    69
Investing in America.............................................    71
King Cove Road...................................................   124
Klamath Basin Restoration Agreement..............................    99
Land and Water Conservation Fund...........................68, 110, 120
Mandatory Proposals..............................................    77
Mining Law Reform................................................    94
Mississippi National Parks.......................................   106
National:
    Heritage Areas...............................................   115
    Marine Fisheries--Arctic OCS EIS.............................   125
    Wildlife Refuge Fund/Payments in Lieu of Taxes...............   127
North Dakota Oil Reserve Assessment..............................   102
Offsetting Collections and Fees..................................    79
Offshore Wind....................................................   106
Oil and Gas Permitting...........................................   102
Oil/Gas Development Public Lands.................................   126
Parks and River Management.......................................   122
Price's Dairy (Valle Del National Wildlife Refuge)...............   121
Red River Valley Water Supply Project............................   101
Renewable Energy.................................................    83
Resource Management Plan.........................................   100
Rhode Island National Park.......................................    81
Science..........................................................    68
Sea Lamprey......................................................   104
Sequestration..........................................67, 91, 106, 117
    And Mineral Revenue Payments.................................    94
    In Indian Country............................................85, 93
Spirit Lake Nation Child Protective Services.....................   102
Spurring Growth and Innovation Through Science...................    75
St. Louis Arch...................................................    86
2014 Budget..............................................62, 68, 69, 71
2013 Appropriations..............................................    70
Urban Parks and Recreation Recovery..............................   108
    Program....................................................107, 116
Water............................................................    93
    For a Growing America........................................    76
White-Nose Syndrome in Bats.....................................96, 105
Wildland Fire................................................84, 89, 95
Wind Energy and Bonding..........................................97, 98
Youth............................................................   109

                    ENVIRONMENTAL PROTECTION AGENCY

Additional Committee Questions...................................    37
Aerial Fights Over Feedlots......................................    24
Authority Under CWA Section 404..................................    14
Beaches Protection Categorical Grants............................    41
Bristol Bay Watershed Assessment.................................13, 22
    Completion...................................................    23
Brownfields......................................................    16
    Projects.....................................................    42
Citizen-Suit Transparency........................................    57
Commercial Fishing Sector NPDES Problem..........................    52
Cooling Water Intake Structures--CWA 316(b)......................    59
Cost Benefit Analysis............................................    36
DeSoto County Attainment.........................................    54
E-Enterprise Initiative..........................................    41
E-Government.....................................................    32
Environmental Education..........................................    40
Fertilizer Plant Explosion in West, Texas........................    37
FOIA Disclosure..................................................    57
Forest Roads/Silvicultural Exemption from CWA....................    50
GHG Powerplant Rulemakings.......................................    51
Gulf of Mexico...................................................    21
Hurricane Sandy Supplemental.....................................    12
Hydraulic Fracturing.............................................44, 48
Information on Laws That Prevent the EPA From Going Electronic 
  (Electronic Filing) in Certain Cases...........................    33
Keystone Pipeline................................................    48
Mine Screening...................................................    45
New Source:
    Performance Standards........................................    35
    Review.......................................................    33
PM<INF>2.5</INF>.................................................    28
Radon Grants.....................................................    42
Regional Haze:
    Program......................................................    55
    Rule.........................................................    52
Responsible Parties..............................................    47
Rural Water Systems..............................................    53
Sequester and Permitting Process.................................    31
Sequestration....................................................    43
Southeast New England Coastal Watershed Restoration Program......    40
State Revolving Funds....................................11, 27, 45, 53
Sulfur Content Rule for Gasoline.................................    51
Superfund Budget.................................................    46
Timing of EPA Action Under Section 404 of the Clean Water Act....    20
Uranium Pollution--Indian Reservations...........................    15
Wetlands.........................................................    18
    Veto Authority...............................................    19

                                   <all>

</pre></body></html>
